<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-130]
[From the U.S. Government Printing Office]




                                                        S. Hrg. 109-130

                                                        Senate Hearings

                                 Before the Committee on Appropriations

_______________________________________________________________________


                                                  Department of Defense

                                                         Appropriations

                                                            Fiscal Year
                                                                   2006

                                          109th CONGRESS, FIRST SESSION

                                                              H.R. 2863


DEPARTMENT OF DEFENSE

NONDEPARTMENTAL WITNESSES
    Department of Defense Appropriations, 2006 (H.R. 2863)
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                                                        S. Hrg. 109-130

       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 2863

  AN ACT MAKING APPROPRIATIONS FOR THE DEPARTMENT OF DEFENSE FOR THE 
     FISCAL YEAR ENDING SEPTEMBER 30, 2006, AND FOR OTHER PURPOSES

                               __________


                         Department of Defense
                       Nondepartmental witnesses

                               __________

         Printed for the use of the Committee on Appropriations



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                               _________

                    U.S. GOVERNMENT PRINTING OFFICE
99-854                      WASHINGTON : 2005
_____________________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
  Internet: bookstore.gpo.gov  Phone: (202) 512-1800   Fax: (202) 512-
                                  2250
            Mail: Stop SSOP, Washington, DC 20402-0001 deg.


                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

                        Subcommittee on Defense

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            DANIEL K. INOUYE, Hawaii
ARLEN SPECTER, Pennsylvania          ROBERT C. BYRD, West Virginia
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BYRON L. DORGAN, North Dakota
RICHARD C. SHELBY, Alabama           RICHARD J. DURBIN, Illinois
JUDD GREGG, New Hampshire            HARRY REID, Nevada
KAY BAILEY HUTCHISON, Texas          DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                BARBARA A. MIKULSKI, Maryland

                           Professional Staff

                              Sid Ashworth
                           Jennifer Chartrand
                             Alycia Farrell
                              Mark Haaland
                              Lesley Kalan
                              Kate Kaufer
                            Mazie R. Mattson
                              Brian Potts
                              Brian Wilson
                       Charles J. Houy (Minority)
                       Nicole Di Resta (Minority)
                        Betsy Schmid (Minority)

                         Administrative Support

                             Janelle Treon
                      Kate Fitzpatrick (Minority)


                            C O N T E N T S

                              ----------                              

                        Wednesday, March 2, 2005

                                                                   Page

Department of Defense: Under Secretary of Defense for Policy.....     1

                        Wednesday, March 9, 2005

Department of Defense: Department of the Army: Office of the 
  Secretary......................................................    31

                       Wednesday, March 16, 2005

Department of Defense: Department of the Navy: Office of the 
  Secretary......................................................    99

                        Wednesday, April 6, 2005

Department of Defense: Department of the Air Force: Office of the 
  Secretary......................................................   193

                       Wednesday, April 20, 2005

Department of Defense:
    National Guard...............................................   237
    Reserves.....................................................   295

                       Wednesday, April 27, 2005

Department of Defense: Office of the Secretary...................   347

                         Tuesday, May 10, 2005

Department of Defense: Medical Programs..........................   419

                        Wednesday, May 11, 2005

Department of Defense: Missile Defense Program...................   517

                         Tuesday, May 17, 2005

Nondepartmental witnesses........................................   567
  

 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                        WEDNESDAY, MARCH 2, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Burns, Allard, and 
Dorgan.

                         DEPARTMENT OF DEFENSE

                 Under Secretary of Defense for Policy

STATEMENT OF TINA W. JONAS, UNDER SECRETARY OF DEFENSE 
            (COMPTROLLER)
ACCOMPANIED BY ADMIRAL ROBERT F. WILLARD, DIRECTOR, FORCE STRUCTURE, 
            RESOURCES, AND ASSESSMENTS, OFFICE OF THE CHAIRMAN, JOINT 
            CHIEFS OF STAFF


                OPENING STATEMENT OF SENATOR TED STEVENS


    Senator Stevens. Good morning. We're pleased to have you 
appear before us, Ms. Jonas. And I see you're accompanied by 
Admiral Willard, the Director of the Force Structures, 
Resources, and Assessments of the Joint Chiefs. We look forward 
to your testimony. I appreciated our visit before the hearing.
    We remain in some very critical missions around the globe, 
and totally involved in this war on terrorism. We are truly 
grateful for the commitment of the forces under the Department 
of Defense, and their commitment to duty and the values we 
stand for. We've received this request for supplemental funding 
and are reviewing that request. I had an occasion last night to 
discuss it with Members of the House, also. We're going to do 
our best to move as rapidly as possible on this request.
    This is the first of 10 hearings that we will hold on the 
total request of the Department for fiscal year 2006. The 
President's request includes $419.3 billion for the Department 
of Defense, which is a 4.8 percent increase over last year.
    We will make your statement part of the record in full, Ms. 
Jonas, and I would leave room in the record for a statement 
from our co-chairman, if he wishes to make one.
    Would the chairman of the full committee wish to make a 
statement?


                   STATEMENT OF SENATOR THAD COCHRAN


    Senator Cochran. Mr. Chairman, I'm glad to be here to help 
welcome the Under Secretary and Admiral Willard to the hearing. 
We appreciate very much your assistance to our committee's 
inquiry into the budget request submitted by the 
administration. We are very impressed--I'm very impressed with 
the military's performance in these very difficult and 
challenging times in Afghanistan, Iraq, the southern Indian 
Ocean and elsewhere around the world. I think the military has 
distinguished itself in a way that reflects great credit on all 
of the men and women who serve in the military, and who support 
the military directly in the Department of Defense. We 
appreciate that good work and the outstanding bravery and 
sacrifice of the families, and for all who are contributing to 
the successful operations around the world in our behalf.
    I also happened to observe a letter I got from a pilot, who 
was on the Abraham Lincoln, describing his firsthand 
impressions of the relief efforts that were spontaneously 
provided by our military forces in the region of the tsunami 
disaster that struck without warning and with such great 
unbelievable damage. The military forces who were involved 
voluntarily in reacting to that, and the leadership provided by 
the military in some of those areas of the world, was truly 
outstanding. And I commend you all who have had a role in 
helping make available resources to that operation.
    We're interested in understanding the budget request and 
making sure that what we do in terms, of appropriating funds to 
support your efforts, continues us on this path toward 
contributing, like no one else can, to world peace and security 
and the protection of our homeland.
    Thank you very much.
    Senator Stevens. Well, thank you very much, Mr. Chairman.
    Senator Allard.


                   STATEMENT OF SENATOR WAYNE ALLARD


    Senator Allard. Mr. Chairman, thank you. I appreciate you 
allowing me to join you this morning. And I don't have any 
opening comments or anything, and I'll save most of my time for 
when we get to the question and comment.
    Senator Stevens. Thank you.
    I would say, to my two colleagues, that Senator Inouye and 
I had occasion to visit with Admiral Fargo and listen to him in 
describing some of his impressions about the way the commander 
of the Pacific reacted after the tsunami disasters. And we were 
very impressed with the total commitment that was made and the 
swiftness of the organization to respond to that terrible 
incident.
    As I said, we have printed your statement in the record. 
Ms. Jonas, we'd be pleased to have your comments.


                   OPENING STATEMENT OF TINA W. JONAS


    Ms. Jonas. Thank you very much, Mr. Chairman. I won't take 
much time here this morning, but just to thank the subcommittee 
for inviting us here to discuss the President's fiscal year 
2006 Defense budget request.
    As you have noted, the request is $419.3 billion. This is a 
4.8 percent increase over the fiscal year 2005 enacted level, 
and we look forward to working with you on this request as we 
move forward, and also appreciate the subcommittee's 
consideration of our fiscal year 2005 supplemental request.
    I would simply like to point out a few of the highlights in 
this budget. Some of the highlights of this budget include our 
commitment to supporting the global war on terror. In 
conjunction with the supplemental funds, we have included 
significant funds for readiness. Our operation and maintenance 
(O&M) funds are at $147.8 billion. This is up $11 billion over 
the fiscal year 2005 enacted level. Four billion dollars of 
that increase directly goes toward readiness. And so, that's an 
important feature of the budget. We've included additional 
funds for chemical and biological defense. Funding for fiscal 
year 2006 is $1.6 billion. We added $2.1 billion to the program 
for fiscal years 2006-2011.
    We continue our commitment to the special operations forces 
(SOF), sustaining that and including additional personnel, 
about 1,400 new personnel. And the funding for special 
operations forces is about $4.1 billion for fiscal year 2006.
    We have included a request for special operations forces 
retention funds in this budget, as well as requested some funds 
in the fiscal year 2005 supplemental. And I would just note 
that, since 2001, we're up 73 percent on our SOF budget, so we 
continue our commitment there.
    A key feature of this budget is also the restructuring of 
our ground forces. As many of you have heard, we have made a 
commitment to the Army to provide about $48 billion for their 
modularity program, using a combination of supplemental and 
baseline funds to do that.
    I would also note that we have $1.9 billion in the budget 
to implement the 2005 Base Realignment and Closure (BRAC) 
Commission recommendations, which is very important to 
restructure our installations at home. And, in conjunction with 
that, we are funding the global posture initiative, about $400 
million for that. The key is that these two initiatives are 
intertwined, and the BRAC recommendations will be informed by 
the global posture initiative. Under the global posture 
initiative, we expect to bring home to the United States (U.S.) 
about 70,000 military personnel, and about 100,000 families. So 
that's very important.
    Also key in our investment areas, we are developing joint 
military capabilities. We've got a $78 billion procurement 
budget, and this is $3 billion higher than our fiscal year 2005 
President's budget request. I would just note that this is 
about double what it was during the mid 1980s, so we continue 
our investment there. And procurement does increase over the 
program plan, reaching $119 billion by 2011.
    We continue our commitment to missile defense. We have 
about $8.8 billion in the program, and $7.8 billion in the 
Missile Defense Agency.
    We continue investment in shipbuilding and in aircraft, and 
I have some of those details in my prepared statement.
    Finally, I'd just like to mention that we have a strong 
commitment to our military families and our military members. 
We increased the base pay by 3.1 percent. We're increasing our 
benefits. For our healthcare benefits, we added $1.6 billion to 
the defense health program to make sure that the program is 
fully funded.
    We continue our no-out-of-pocket-cost commitment on basic 
allowance for housing. Most servicemembers will receive about a 
4 percent increase to that allowance in this budget. And we are 
on track to fund the elimination of all inadequate housing by 
2007.


                           PREPARED STATEMENT


    I just would like to close and, again, thank you. I know 
you've heard from the Secretary on the fiscal year 2005 
supplemental request, and I'd be happy to answer any questions.
    Thank you.
    [The statement follows:]

                  Prepared Statement of Tina W. Jonas

    Mr. Chairman, members of the committee, it is my pleasure to be 
here to discuss President Bush's fiscal year 2006 defense budget 
request. You have received extensive materials on the budget, which I 
do not want to duplicate in my statement. Instead I will briefly 
underscore some of the most important features of our request.
    First, I want to thank this committee for its strong support for 
our men and women in uniform. We look forward to continuing to work 
with you to ensure that our armed forces have everything they need to 
carry out their difficult and dangerous missions.
    The President's budget request for the Department of Defense (DOD) 
for fiscal year 2006 is $419.3 billion in discretionary budget 
authority, a $19.2 billion increase (4.8 percent) over the fiscal year 
2005 enacted level. Combined with fiscal year 2005 supplemental 
appropriations, this request includes sufficient funding to sustain the 
President's pledges to defeat global terrorism, restructure America's 
armed forces and global defense posture, develop and field advanced 
warfighting capabilities, and take good care of our forces.

                  SUPPORTING THE GLOBAL WAR ON TERROR

    The fiscal year 2006 budget supports the Global War on Terror 
(GWOT) by keeping U.S. forces combat ready and strengthening our 
overall defense capabilities. Readiness is especially critical in this 
time of war because forces must be prepared to deploy on short notice. 
Reflecting this importance, the fiscal year 2006 budget includes $147.8 
billion in Operation and Maintenance (O&M) accounts--where training, 
maintenance, and other readiness essentials are funded--nearly $11 
billion over the fiscal year 2005 enacted amount.
    Critical to the fight against terror, the President's plan adds 
$2.1 billion in fiscal year 2006-2011 for chemical and biological 
defense --achieving total funding of $1.6 billion for fiscal year 2006. 
We sustain our commitment to our Special Operations Forces (SOF) 
capabilities, providing $4.1 billion for fiscal year 2006. We are 
adding 1,200 military personnel, including 4 SEAL platoons, and 200 
civilians. We also are adding $50 million for programs to boost SOF 
retention. (The fiscal year 2005 supplemental includes $62 million for 
SOF retention.) Since 2001, our investment in SOF capabilities is up by 
$1.7 billion or 73 percent. The budget includes $9.5 billion for 
activities related to homeland security--such as detection and 
protection against weapons of mass destruction, emergency preparedness 
and response, and protection of critical infrastructure.

          RESTRUCTURING U.S. FORCES AND GLOBAL DEFENSE POSTURE

    The fiscal year 2006 budget provides funding to continue to work to 
restructure U.S. forces and our global defense posture and basing.
    Restructuring Ground Forces.--The Department has made a major 
commitment to restructuring the Army--adding $35billion over 7 years 
(fiscal year2005-2011) to the $13 billion in the Army baseline budget. 
In fiscal year 2005 and fiscal year 2006, the Department proposes to 
fund Army restructuring through supplemental appropriations because 
acceleration of this effort is urgent and vital to the war on terror. 
The funds requested in supplementals will accelerate the restructuring 
of the ground forces moving into the theater and reset those forces 
rotating out of theater. This effort will expand the operating combat 
force of the Army--making our forces more effective in the Global War 
on Terror and reducing the demand and strain on our military units and 
troops. Beginning in fiscal year 2007, we will request funding in the 
baseline budget to restructure the rest of the Army.
    Restructuring will increase the number of Army brigades and convert 
them into brigade combat teams (BCTs) that are capable of independent 
operations. The Active Army will expand from 33 maneuver brigades in 
fiscal year 2003 to 43 BCTs in fiscal year 2007.
    The Marine Corps is restructuring to add two active infantry 
battalions and other combat and support units--increasing its 
warfighting power and reducing stress on capabilities that are 
currently in high demand.
    Base Realignment and Closure (BRAC).--The President's budget also 
includes $1.9 billion in fiscal year 2006 to implement the 2005 BRAC 
Commission recommendations. The previous BRAC rounds eliminated about 
21 percent of DOD infrastructure and generated savings of about $7 
billion per year.
    Global Posture.--Closely linked to the BRAC process is the 
President's global posture restructuring, which will ensure that U.S. 
forces and equipment are located where they can best respond to likely 
requirements in today's security environment. It will return 70,000 
military personnel and 100,000 family members to the United States, and 
relocate forces and equipment that must remain overseas. As the 2005 
BRAC Commission considers how to streamline and restructure the 
Department's installations, it will have the benefit of this global 
posture restructuring plan.

          DEVELOPING AND FIELDING JOINT MILITARY CAPABILITIES

    The fiscal year 2006 budget funds a balanced combination of 
programs to develop and field the capabilities most needed by America's 
military--today and well into the future.
    Procurement funding in fiscal year 2006 is $78 billion, $3 billion 
higher than the President's fiscal year 2005 budget request of $74.9 
billion. This $78 billion is almost double the low point of $42.6 
billion provided in fiscal year 1996. Future procurement funding will 
steadily increase and reach $119 billion in fiscal year 2011.
    Missile Defense.--The fiscal year 2006 budget includes $7.8 billion 
for the Missile Defense Agency to continue to strengthen U.S. missile 
defenses, focusing more intensely on the most promising technologies. 
The fiscal year 2006 budget supports the continuing acquisition of 
Ground-Based Interceptors, Standard Missile 3 missiles, and increased 
radar capabilities in California and Alaska. As you know we just had a 
successful test of an interceptor missile launched from an Aegis 
cruiser--the fifth successful sea-based intercept in six tests.
    Shipbuilding.--The budget includes $9.4 billion in fiscal year 2006 
for shipbuilding. This funding supports procurement of four ships: a 
Virginia class submarine, an LPD-17 San Antonio class amphibious 
transport dock ship, a Littoral Combat Ship, and a T-AKE dry cargo and 
ammunition ship. The Navy's restructuring under its Fleet Response Plan 
has made more of its ships available for rapid deployment. In addition, 
with precision weapons and newer platforms, today's ships and naval 
aircraft are far more capable. For example, the Navy now measures 
targets destroyed per sortie rather than the number of sorties per 
target. These changes are increasing the effective size and capability 
of the Navy.
    Army Modernization.--The modernization of the Army and the 
development of new combat capability are critical to the future of its 
restructured modular force. Most critical is the Future Combat Systems 
(FCS) program, which will develop a family of advanced, networked, air 
and ground systems--combat and support, manned and unmanned. FCS 
funding is $3.4 billion in fiscal year 2006. The program has been 
restructured to deliver transformational technologies to today's force 
as soon as they mature. The advantage of this change is that it will 
accelerate the upgrading and increased joint operability of current 
Army forces.
    Aircraft.--The fiscal year 2006 budget continues our investment in 
the new generation of tactical aircraft, including $5.0 billion for the 
Joint Strike Fighter, $4.3 billion for the F/A-22, $2.9 billion for the 
F/A-18E/F, and $1.8 billion for the V-22 Osprey. Under current plans 
the Air Force is scheduled to procure F/A-22s through fiscal year 2008 
to reach a total of 179 aircraft. The budget also includes $3.7 billion 
for the C-17 and $1.5 billion for unmanned aerial vehicles. The 2005 
Quadrennial Defense Review will assess U.S. capabilities for sustaining 
air dominance and other aircraft requirements as part of its broader 
analysis.

                       TAKING CARE OF OUR FORCES

    Most importantly, the fiscal year 2006 budget maintains the 
President's commitment to take good care of our military people and 
their families. It reflects our conviction that people are the nation's 
most important defense asset. The budget includes a 3.1 percent 
increase in military base pay and provides significant funding to 
ensure high quality health care for our military families. The fiscal 
year 2006 budget provides about $20 billion for the Defense Health 
Program and $7 billion for the military personnel who support the 
health care program. The budget sustains our commitment to no out-of-
pocket costs for military members living in private housing, by 
increasing the Basic Allowance for Housing by an average of 4 percent. 
And the budget keeps the Department on track to fund by fiscal year 
2007 the elimination of all inadequate military family housing units in 
the United States, and to fund by fiscal year 2009 the elimination of 
all inadequate units worldwide.

              FISCAL YEAR 2005 SUPPLEMENTAL APPROPRIATIONS

    Before closing, I want to thank this committee for beginning work 
quickly on the President's fiscal year 2005 supplemental appropriations 
request of $74.9 billion for the Department of Defense. Rapid and full 
approval of the request is crucial to fulfilling our military's 
requirements for the rest of this fiscal year.
    Two-thirds of the supplemental is to cover costs for ongoing 
military operations in Iraq and Afghanistan. In addition, the 
supplemental includes $11.9 billion to restore or replace equipment 
damaged or destroyed in combat. This funding is crucial to ensure the 
readiness of the force. It consists of $3.2 billion for depot 
maintenance, $5.4 billion to replace military items destroyed or 
expended during combat operations, and $3.3 billion to improve 
protection of our forces.
    The supplemental also funds the vital strategic goal of training 
and equipping military and security forces in Iraq and Afghanistan. 
Strengthening these forces is essential to the long-term security and 
stability in both nations, and will enable them to become more self-
sufficient and less reliant on U.S and coalition forces.

                                CLOSING

    In conclusion, the President's fiscal year 2005 supplemental 
request and fiscal year 2006 budget provide the funds necessary to 
support the global war on terror, restructure our forces and America's 
global defense posture, develop and field advanced military 
capabilities, and maintain the well-being of our military people and 
their families. I urge your support for this request, as well as for 
the President's proposed fiscal year 2005 supplemental appropriations. 
Thank you.

    Senator Stevens. Well, thank you very much.
    I know the chairman has another hearing at Homeland 
Security. Would you have any questions, Senator?
    Senator Cochran. Mr. Chairman, the only question I have 
relates to the supplemental.
    You know, that we have had a review of that supplemental, 
and it will be coming to the floor soon. We understand that it 
is a matter of some urgency, although when we were having our 
initial hearing and reviewing the request, there was some 
question about when the money actually was needed. Some said in 
March; others, April or later. What is the situation with the 
need for this supplemental for some $75 to $76 billion for the 
Department of Defense?

                      WHEN SUPPLEMENTAL IS NEEDED

    Ms. Jonas. Well, first of all, Mr. Chairman, I appreciate 
the cooperation of this subcommittee and the full committee 
with respect to moving that legislation along. We can get 
through the second quarter fairly easily. Getting into the 
third quarter, we begin to have some difficulty. And, as you 
may know, the services have to then make plans in anticipation 
of their funding flows. So I would say once we start getting 
into the third quarter, we begin to have some issues.
    Senator Cochran. Okay.
    Thank you, Mr. Chairman.
    Senator Stevens. Thank you.
    And I share the chairman's comments about that. I'm still 
not clear what you said, however. You said you could get 
through the second quarter. That ends in March. And you have 
difficulties in the third quarter.
    Ms. Jonas. I think----
    Senator Stevens. When do you really need the money?
    Ms. Jonas. Certainly by April or May, sir.
    Senator Stevens. Can you draw a line in the sand?
    Ms. Jonas. April would be better than May, sir.
    Senator Stevens. We're concerned about the stress on the 
total force and what this means to retention. I'm informed 
that--this is an all-volunteer force, of course--that the Army 
retention was retained last year at the 10 percent goal, but 
the ability to maintain their contribution to the total force 
is still of some concern, and that the marines missed their 
requirement by a small amount, the first time in 9 years. Can 
you tell us what initiatives are contained in this program for 
fiscal year 2006 that would help reduce the stress on the 
military and their families and help us with retention and 
recruitment?

                    REDUCING STRESS ON THE MILITARY

    Ms. Jonas. Certainly, Mr. Chairman. I would note, in the 
fiscal year 2005 supplemental, we are asking to increase our 
bonuses for those who are willing to join the Reserves, and 
asking to pay for a maximum up to $10,000. So that relief would 
be helpful.
    Senator Stevens. That's for people who decide to become 
regular? They're in the Reserves; they want to sign up--you 
want them to sign up and become regular forces?
    Ms. Jonas. This is encouraging Active duty to sign up for 
the Reserves.
    Senator Stevens. Oh, the other way around.
    Ms. Jonas. Yes, sir.
    Senator Stevens. Would they remain on Active duty, then?
    Ms. Jonas. They would be joining the Reserve. And I'll 
defer here to Admiral Willard on that.

                       ACTIVE/RESERVE RECRUITING

    Admiral Willard. Sir, these are Active duty that are ending 
their terms in Active duty and would transfer into the Reserve 
force, with a likelihood that they would, under their current 
circumstances, be called up to continue to perform.
    Senator Stevens. How is that program going? Is it underway 
now?
    Admiral Willard. It's currently in the budget, so, yes, 
sir, in that sense, it is. As you point out, there are 
challenges, and they're more widespread than just incentivizing 
transfers from Active to Reserve. I would comment that, within 
the supplemental, there are a variety of efforts underway to 
reduce stress on the force. The reorganization of our ground 
forces, the modularity program for the Army, is one method of 
doing that, in trying to increase the number of brigade combat 
teams that are deployable. So we are attempting to reduce the 
ratio that--for deployment--that we are currently encountering. 
And that will happen over time. So, once again, a number of 
incentives to try and reduce the stress on the force. As you 
point out, the retention and recruitment numbers for the Army 
are down; and, for the Marine Corps, are very slightly down.
    I would note that, in the Active force, we are in pretty 
good shape in recruitment and retention, and that this is the 
time of year when we typically have a downturn in monthly 
recruitment/retention. And following schools getting out in the 
summertime, we normally make the upturn, so that at the end of 
the year this evens out. We have more concern in our Reserve 
component with regard to recruitment and retention. And, there, 
we're monitoring the trends very closely. And the incentives, 
as Secretary Jonas points out, are going to be an important 
factor in attempting to maintain the numbers there.
    Senator Stevens. Thank you.

                 PHASING IN NEW FUNDING FOR OPERATIONS

    Ms. Jonas, the supplemental that we have before the full 
committee is $42.5 billion to support military operation and 
equipment. I'm informed that the operating funds will expire on 
September 30 under that proposal, and that the estimated 
recurring military operational costs average $4.3 billion a 
month for operations, and $800 million a month for Operation 
Enduring Freedom, in Afghanistan. Now, tell us how these fit 
together. Your current funds, are they exhausted for 2005? And 
when does the money from the supplemental have to phase into 
those operations?
    Ms. Jonas. Thank you, Senator.
    First of all, if I hadn't mentioned it, we appreciate the 
help that we got from the Congress--and your subcommittee, 
specifically--on the $25 billion that has been appropriated. 
Seventeen billion of that has been allocated to the services 
for operations. The $3 billion has been also allocated for 
force protection matters, and they are currently using those 
funds.
    I can certainly get you, for the record, the exact 
obligation rates, but they are using those funds currently.
    [The information follows:]

    As of February 28, 2005, $30.4 billion has been obligated 
in support of the Global War on Terror from funds appropriated 
in Title IX ($25 billion) and from cash flowing of fiscal year 
2005 baseline funds. A summary of the amount obligated is shown 
below:

                        [In millions of dollars]
------------------------------------------------------------------------
                                     Baseline     Title IX
                                      Funds        Funds        Total
------------------------------------------------------------------------
Operation Iraqi Freedom..........       16,287        9,558       25,845
Operation Enduring Freedom.......        2,528        1,072        3,600
Operation Noble Eagle............          905  ...........          905
                                  --------------------------------------
      Total......................       19,720       10,630       30,350
------------------------------------------------------------------------

    Ms. Jonas. We would certainly hope to have this 
supplemental legislation that we've put before you, the $74.9 
billion, as soon as possible to help alleviate the concerns of 
the services. Again, I would say probably April would be better 
than May, with respect to getting those funds. I don't have the 
exact obligation rates for you this morning. I would be happy 
to provide that for the record on the $25 billion, though.
    Senator Stevens. Well, what I'm really trying to get at is, 
we gave you $25 billion, which was, sort of, a cushion to take 
you--a bridge funding to take you through this year. It sounds 
like you've allocated them--all of that money to operations and 
equipment maintenance. Is that right?
    Ms. Jonas. The preponderance of the funds; $17 billion is 
the right figure.
    Senator Stevens. And that, plus the funds that are already 
in 2005 are such that you've now got $42\1/2\ billion in 
addition to that, that you need before October 1, right?
    Ms. Jonas. Correct, sir. Yes, sir.
    Senator Stevens. Well, I don't think it takes a rocket 
scientist to figure out that you're spending it faster than the 
rate you've given us in the past, then. What is the rate that 
is being expended in operations and maintenance, on a monthly 
basis?
    Ms. Jonas. Our current operations in Iraq are running us 
about $4.1 billion. It's $800 million in Afghanistan per month.
    Senator Stevens. Well, I think we need to understand this 
cash flowing a little bit better, because we're going to get 
some questions about this supplemental if we're not careful.
    Let me turn this over, however, to the chairman, if he has 
any additional requests, and then to--Senator Burns, I think, 
came in before Senator Allard.
    Senator, do you have any additional questions?
    Senator Cochran. I have no further questions.
    Senator Stevens. Senator Burns.
    Senator Burns. Thank you very much, Mr. Chairman.

                 GAINING MORE RAPIDLY DEPLOYABLE UNITS

    Monday, I was out in San Diego and did a little tromping 
around out there. And I was reminded that, 50 years ago, right 
now, I was a boot out there in that Marine Corps Recruit Depot 
(MCRD). And I didn't have to get my nose broke this time to 
remind me. I know how you can save a little money in this 
budget. I noticed that there's a big push now for restructuring 
ground forces, focusing on Army brigade light units for quick 
strike force in the United States Army. I would suggest you've 
already got it. I would suggest you've got a United States 
Marine Corps that is a strike force, and the best in the world. 
Mobile. So why are we training people to do this redundancy? If 
I noticed anything in the supplemental that came up, both in 
the State Department and for Defense, we identified some areas 
where there is some redundancy.
    My question is, How come we're not looking in that 
direction, rather than restructuring a unit that is designed to 
do other things? Can I get a response to that?

                            ARMY MODULARITY

    Admiral Willard. Yes, sir, you can. The Army is 
reorganizing to try and make itself more rapidly deployable, 
flexible, more self-sustaining, in terms of the units that they 
put in the field. At the same time, the Marine Corps is 
restructuring itself--to a lesser extent, but, nonetheless, 
restructuring itself--with the addition of infantry battalions, 
combat support, and combat service support elements.
    I'm not sure ``redundancy'' is the term that I would use. 
But, rather, the variety of our ground forces, whether it be 
Army, Marine Corps, special operations, are all undergoing an 
evolution right now to try and reorganize themselves and 
optimize themselves. And the question we would ask is whether 
the capacity for the country is there among those ground 
forces. And we believe that it will require reorganization 
across the board and an understanding of not only roles and 
missions, but a capabilities mix across the board that will get 
this right. It's intended that that is one of the study areas 
in the upcoming Defense review. But, again, the supplemental 
makes an effort to establish that organization across our 
ground forces, specifically targeting Army and Marine Corps, 
right now.
    Senator Burns. Well, I just thought there was some 
redundancy. And it appears, as you know, if you read where the 
money is going, and how it's going, that would seem to be 
something that we would take interest with up here on the 
taxpayer dollar. And I'm not one of these that think that we 
can get it done on nothing. But we know that we're in a 
different kind of a world now. We are in a different kind of a 
challenge to this country and its freedoms. And so, there has 
to be some things redundant that some of us up here might not 
understand. But I appreciate your comments on that.
    That's the only thing that I have right now. I think, in 
this budget, we've got the opportunity to do right. I usually 
visit military installations that are in Montana, and will be 
coming to you for a little problem we've got up there, but 
that's for another day. And it's not a problem; it's just 
another challenge that we have, as far as our defense and 
capabilities and our concerns.

                           PREPARED STATEMENT

    So, thank you for coming today. And I thank the chairman.
    And I have a statement that I would like to be part of the 
record, and I will ask unanimous consent that it be so.
    Senator Stevens. Without objection, so ordered.
    [The statement follows:]

               Prepared Statement of Senator Conrad Burns

    Thank you, Mr. Chairman.
    Ms. Jonas, Admiral Willard, thank you for being here this 
morning to testify on the Department of Defense's (DOD) fiscal 
year 2006 Budget. I will keep my statement brief and retain the 
remainder of my remarks for the record.
    I note that the President's budget request for the 
Department of Defense for fiscal year 2006 is $419.3 billion--
excluding the supplemental, also before this committee for 
consideration--representing a $19.2 billion increase (or 4.8 
percent) over last year's fiscal year 2005 level. I think the 
fiscal year 2006 budget on the whole, is a good one. Your job 
is not an easy one--especially in the current environment, with 
military operations around the world and in the midst of the 
ongoing War on Terror. I do think, however, despite all of the 
competing interests at hand, you were able to strike a fairly 
good balance between all accounts and competing needs. This 
budget appears to be one that funds core needs to allow troops 
currently engaged, to do so safely and to the best of their 
ability.
    I am pleased to see that this budget also prepares our 
military forces for future engagements, where battlefields will 
look much different than they have in years past. We must 
ensure our military transforms in such a way as to have the 
right military capabilities for any future engagement. An 
overall Research and Development (R&D) request of $69.4 billion 
helps get us there.
    As you know, the men and women of our active, Guard and 
Reserve components have seen an increased operations tempo 
(optempo) over the past few years in particular. In my State of 
Montana, we have over 40 percent of the Guard's total force 
mobilized. While I know these men and women love what they do 
and love serving their country, this increased optempo does 
not, however, come without costs--costs not only to guardsmen 
and reservists themselves, but also to their families and 
employers, too.
    I am pleased to see that the budget addresses this issue 
and looks at ways to rebalance our forces and reduce the need 
for involuntary reserve mobilization. I do think it is 
important to look at ways to add folks to areas where we 
currently have a shortage, such as military police, 
transportation and civilian affairs. I see we are doing exactly 
this, in this budget.
    Increased operations also wear and tear on the military's 
already aging equipment. This year's budget proposes $147.8 
billion for the Operation and Maintenance (O&M) account, up 
from $137 billion in fiscal year 2005. The procurement account 
has been proposed at $78 billion, just slightly down from the 
fiscal year 2005 enacted level of $78.1 billion.
    The United States military would not be the best fighting 
force in the world without the great people who wear the 
uniform. It is important that we take care of our military men 
and women and ensure their quality of life is good. I am 
pleased to see this is a priority in the fiscal year 2006 
budget. The Military Personnel account is funded at $108.9 
billion in fiscal year 2006, while the Military Construction 
and Family Housing accounts request is a total of only $12 
billion. I note the 3.1 percent increase in military base pay 
and the 2.3 percent increase in civilian pay included in the 
President's budget. I am also pleased to see the 4 percent 
increase in the Basic Housing Allowance, and that DOD appears 
to be on track to eliminate all inadequate military family 
housing in the United States by fiscal year 2007. The budget 
also includes the expansion of TRICARE benefits, to allow 
health care coverage up to 90 days prior to activation for 
certain Reserve Components, with post-mobilization coverage of 
180 days.
    Our military has performed nobly in all of its missions--
especially in Afghanistan and the continuing conflict in Iraq. 
This country's fighting force is extremely skilled and capable, 
and it is our responsibility to ensure our brave military men 
and women have the tools and equipment needed to do their job 
so they may return home to their loved ones safely and as 
quickly as possible.
    You will continue to have my full support in making sure 
our brave military men and women--wherever they may be 
engaged--have the tools, training and equipment to do the 
dangerous jobs with which they have been tasked.
    Again, thanks for coming before our subcommittee today. I 
look forward to your testimony this morning.

                       CHEMICAL DEMILITARIZATION

    Senator Stevens. Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    Ms. Jonas, I had a chance to visit with you and Mr. 
Wolfowitz yesterday. And you were sitting on his right hand 
when I was drilling him about the Chemical Weapons Convention 
Treaty.
    Ms. Jonas. That's right, sir.
    Senator Allard. And so, I don't know as I need to go over 
that too much. I would like to put some in the record in this 
subcommittee, though, and the fact that the President's budget, 
Defense budget, provides for $1.4 billion for chemical weapons, 
the demilitarization program. Now, that's consistent with 
previous requests, but it doesn't measure up to the full cost 
of the program, as we see it. And, you know, I look out as to 
what dates we're expected to comply with that convention, and 
the plant in Colorado, for example, is a decade past the 
deadline. I know Kentucky has a special problem, just like we 
do, so you'll probably hear from Senator McConnell also, on 
this very issue. We had testimony from Secretary of State 
Condoleezza Rice who said that when we sign into those treaties 
it's important that--in fact, she was unequivocal about this--
she said that it's important that we comply with the treaties. 
We're pretty well behind on the dates of expected compliance on 
the treaty. And so, we'll be asking some tough questions. It 
seems to me like the program has been backsliding. And I know 
we have special problems in both Kentucky and Colorado, and we 
want to work with that.
    And the question I have--Mr. Wolfowitz, yesterday, said 
that he's going to reexamine where we are, as far as that 
program is concerned. I appreciate his willingness to do that. 
But what I failed to get from him was a timeline.
    Ms. Jonas. Okay.
    Senator Allard. When does he expect to get back--or when 
you would expect to have the reexamination completed and get 
back to me and also the Kentucky delegation?
    Ms. Jonas. Certainly. Senator, we'd be happy to work with 
you, as the Deputy Secretary indicated yesterday, and also with 
the other concerned Senators and delegations.
    I don't know that I have a timeline for you this morning, 
but I would certainly be able to do that and find out soon and 
get back with you and your staffs. We will continue to work 
closely with you as you consider this legislation and as we 
work to figure out some of the cost issues that the Deputy 
talked about yesterday.
    [The information follows:]

    As directed by the December 23, 2005 Acquisition Decision 
Memorandum the Program Manager, Assembled Chemical Weapons 
Alternatives and Director, Chemical Material Agency developed 
an assessment of alternatives for meeting the Chemical Weapons 
Convention extended 100 percent deadline of April 2012. On 
April 15, 2005 the Under Secretary of Defense for Acquisition, 
Technology & Logistics made a decision to exclude 
transportation for the time being and to proceed with the 
alternatives that balanced cost, schedule, and performance. The 
Program Manager, Assembled Chemical Weapons Alternatives and 
Director, Chemical Material Agency will provide the program 
plan by mid-May that includes the design effort schedule. The 
Under Secretary of Defense for Acquisition, Technology & 
Logistics will review and approve the critical designs based on 
the schedule submitted in mid-May.

    Senator Allard. Yes, I've got a lot of concerns about the 
program. I appreciate your being willing to work with the 
deadline. You know, if we looked at the GPRA, you know, 
Government Performance and Results Act, their evaluation of 
that program was an ineffective rating in the last budget. I 
haven't had a chance to look at it on this budget. There are so 
many questions on that program, I think it needs to be 
examined. You can expect me to be there.
    Ms. Jonas. Yes, sir.

                        MISSILE DEFENSE PROGRAM

    Senator Allard. The other thing that I have concern on is 
the Missile Defense Program. I use to chair the subcommittee 
that had oversight in Armed Services on missile defense. I 
noted in the President's budget that he has cut it by $1 
billion. We're also looking at, perhaps, some additional cuts 
in the future. I think somebody suggested that in the 
Department of Defense. So I would like to hear some of your 
thoughts and what your plans are for missile defense.
    Ms. Jonas. Okay. I may turn some of the planning piece over 
to the Admiral to talk to. I would say this budget maintains a 
commitment to the Block 2004 and the Block 2006 programs, which 
are substantial. The Block 2004 program has 20 ground-based 
interceptors, 10 sea-based interceptors. And, of course, the 
Block 2006 program would add an additional 20 ground-based 
interceptors and an additional 40 sea-based, and with the 
accompanying radars and infrastructure on that.
    So the President remains committed to this program. We 
remain committed to the program. And maybe the Admiral can fill 
in a little bit on the rest of the program.
    Senator Allard. Okay.
    Admiral.

                            MISSILE DEFENSE

    Admiral Willard. And I think the points that Secretary 
Jonas brings up, with regard to achieving our milestones with 
regard to interceptors, is an important element of this, to 
represent the fact that this budget supports the missile 
defense levels of effort, ongoing.
    General Obering has been asked to look for efficiencies 
within his organization, and he's done that, and that's been 
part of the savings that we've seen. In addition, his 
methodology for achieving his missile defense objectives dealt 
with a number of different programs, varieties of options, to 
attain those missile defense objectives that he was intending 
to neck down over time as some of those options became more 
promising than others. And he is doing that.
    And, frankly, the savings that were taken from missile 
defense has had him invest in that option sooner rather than 
later. And, in a fairly recent summary of his missile defense 
activity, it's evident to us that he has both achieved the 
efficiencies and has laid out his milestones to attain the 
President's objectives in missile defense with this savings 
intact.
    So, we're confident that General Obering has the plan to 
achieve what we hope to achieve objectively out of missile 
defense.

         SUSTAINING MISSILE DEFENSE TESTING AND QUALITY CONTROL

    Senator Allard. Well, I'm pleased to hear that, you know, 
you're getting more missiles in the ground and you're going 
ahead with that. I do think that we need to make sure we don't 
back off on our testing, because, as you know, the last two 
failures we had--as far as I'm concerned, weren't because of 
new technology. The gates aren't opening right or there's a 
misfiring of some type on the ground, and we haven't even 
gotten an interceptor in the air. So we've got to have some 
controls in that, because every time you have a failure in 
something like that--and particularly when it's older 
technology and it ought to be operating--it's difficult to 
explain up here to those people who oppose missile defense. 
It's a great program. We need to have it, and we need to make 
sure that it doesn't stumble.
    And so, I would hope that we have the testing part of it, 
so we don't have the old technology, so we could test out the 
new technology, find out how it performs in the air. We have 
had a lot of good tests, that succeeded. Then we've had some of 
these failures. They've been disappointments to me, because it 
hasn't been on the new technology side; it's been on the old 
technology side.
    So, again, I just raise some concerns about that and would 
hope that, if you're cutting back on the spending on that, that 
where we've got enough quality control in there that we're not 
losing sight of our older technology. We know it works. We just 
have to make sure the mechanics of it are there so we get a 
successful firing. So I just wanted to share that with you.
    Mr. Chairman, I don't want to abuse my time here. I don't 
have a time limit here. So I will yield back. And if there's 
more time later on, I may have some more questions. Thank you.
    Senator Stevens. Well, since there are so few of us, I 
decided not to put a time limit on, but we'll come back to you, 
Senator.
    Senator Dorgan.

                MONTHLY SPENDING IN IRAQ AND AFGHANISTAN

    Senator Dorgan. Mr. Chairman, thank you very much.
    I have read the statement. I was detained this morning. I'm 
sorry I wasn't here for your presentations. But I would like to 
ask a couple of questions.
    We have had questions, previously, about the amount of 
money that is being spent on a monthly basis in Iraq and 
Afghanistan. My understand is, you were asked that question 
this morning, and the answer is about $4.9 billion----
    Ms. Jonas. That's correct----
    Senator Dorgan [continuing]. Per month?
    Ms. Jonas [continuing]. Senator.

          WHAT OPERATIONS FUNDING IS INCLUDED IN SUPPLEMENTAL

    Senator Dorgan. Questions have been raised previously about 
what is in your budget request for the next fiscal year and 
what is left out of the request. I want to just take you 
through this issue of why the request does not include funds 
for ongoing operations in Iraq and Afghanistan. I've raised 
this the last two successive years. And the Congress also 
included a provision, as you will recall, last year, asking 
that the President's budget should include a request for funds 
for Iraq and Afghanistan operations.
    Having said that as a precursor, tell me, the supplemental 
request that is now before the Congress includes funding for 
what kind of operations that have not been requested in your 
annual budget?
    Ms. Jonas. Certainly, the funds that are included in the 
supplemental are those related to Operation Enduring Freedom 
and Operation Iraqi Freedom. In the past, we've asked for 
Operation Noble Eagle costs in the supplemental. We've included 
those in the baseline budget this year, which is a change.
    Senator Dorgan. But if I can try to understand this, the 
costs for an operation, the costs would include the cost of the 
soldiers. Obviously, the cost of the soldiers----
    Ms. Jonas. For personnel----
    Senator Dorgan [continuing]. Exists whether you have the 
operation or don't have the operation. So that's a cost that I 
assume is in your regular budget request.
    Ms. Jonas. Yes. Our estimates are based on a cost model, 
which includes a number of different things, including 
personnel, transportation, other special pays, depending upon 
the deployment.
    Senator Dorgan. Okay, personnel--we have the personnel, 
whether they're in Iraq or not in Iraq. We're paying for them. 
So are they not in the regular budget? I'm just trying to 
understand----
    Ms. Jonas. They're incremental costs, Senator.
    Senator Dorgan. What's that?
    Ms. Jonas. Incremental costs of personnel including special 
pays--for example, hazardous duty pay, danger pay, other types 
of things.

                            PERSONNEL COSTS

    Admiral Willard. Additionally, there are personnel overage 
right now that is attendant to the war, and in the Army, in 
particular, and that is captured, as well, in the supplemental.
    Senator Dorgan. And those costs are something like $75 
billion a year, over and above that which is in the regular 
budget for the cost of personnel, the cost of transportation, 
the cost of weapons and so on? It's $75 billion a year?
    Ms. Jonas. The military personnel costs are about $16.9 
billion. The operations costs are $31.1 billion. We've 
requested $16.1 billion for procurement. This is different from 
past supplementals, and that is associated with what we call 
wear and tear on the equipment. We include about $3.2 billion 
for depot maintenance. These are readiness-related matters.
    As the Admiral pointed out earlier, we've asked for some 
funds for the Army's restructuring or modularity.
    Senator Dorgan. Right.
    Ms. Jonas. And that, of course, is related to units that 
are rotating into the theater, and then they're reset when they 
come out. So we want to make sure that those that are going in 
are prepared and ready to go, and those that come out are--
their equipment is up to standard.
    Senator Dorgan. Let me ask, then, on--how much did you say 
was for wear and tear on equipment?
    Ms. Jonas. Well, we've got about $16 billion in the 
procurement account, which includes about $12 billion for the 
wear and tear, and also includes some force protection.
    Senator Dorgan. And that's in the supplemental.
    Ms. Jonas. Yes, sir.
    Senator Dorgan. How much is in next year's budget for wear 
and tear on equipment?
    Ms. Jonas. We can get that number for the record.
    [The information follows:]

    The wear and tear on equipment due to deployments in Iraq 
and Afghanistan are generally costs over and above the on-going 
baseline equipment maintenance program. The fiscal year 2005 
supplemental includes $5.3 billion to finance the incremental 
(that is, above the baseline appropriation) costs of equipment 
maintenance. The additional funding requested for fiscal year 
2005 is: $1.4 billion for organizational level maintenance; 
$0.7 billion for intermediate level maintenance and $3.2 
billion for depot level maintenance. This work is required to 
bring weapons and weapon system platforms up to ready levels 
after the wear and tear of combat operations in Iraq, 
Afghanistan, and other areas elsewhere in support of OIF and 
OEF.
    The Department anticipates that an fiscal year 2006 
Supplemental request will include funding for maintaining 
equipment returning from theater. The fiscal year 2006 cost has 
not yet been estimated but is likely to be in a similar range 
as reflected in the fiscal year 2005 supplemental.

    Ms. Jonas. We have normal depot maintenance that we do in 
the----
    Senator Dorgan. All right.
    Ms. Jonas [continuing]. In the regular budget.

                 APPROPRIATENESS OF USING SUPPLEMENTALS

    Senator Dorgan. Whether it's personnel or wear and tear on 
equipment, it seems to me like this is a kind of a game, 
unfortunately, that no money is requested for these 
extraordinary expenses for Iraq and Afghanistan in the regular 
budget, anticipating that we'll do a supplemental later, on an 
emergency basis, not paid for. And we do that each year.
    Now, the year before last, I asked this question. Last year 
I asked this question. I asked the question again this year. To 
use Secretary Rumsfeld's terms, it is certainly not unknowable 
that we will have expenditures from the regular budget next 
year with respect to ongoing operations in Iraq and 
Afghanistan. You can argue, we don't know exactly what the 
expenditures will be, but it is also the case that we know they 
will not be zero. So won't there, at some point, be a 
requirement for you to give us your best estimates of what we 
expect to expend in the coming year?
    Ms. Jonas. Well, certainly, I understand there is a 
significant amount of discussion between the Congress and the 
administration on the appropriateness of using supplemental 
funding for the war. I would note that Director Bolten 
testified a few weeks ago before the Senate Budget Committee 
and articulated his position, which is that these funds are 
one-time, not permanent costs, and that his position was that 
they should be funded in supplementals.
    So we clearly work very closely with the Office of 
Management and Budget on that, and we will work with them in 
the future on any future requirements.
    Senator Dorgan. But with--you know, only in Washington 
could Mr. Bolten say that, without evoking some sort of 
laughter. We understand that these are more than one-time 
knowable costs. We understand that from the year previous, the 
year previous to that. At some point, it becomes a game. And I 
understand why some want it perpetuated; but it would make much 
sense, it seems to me, for the Congress to receive from you 
what you expect to expend in the coming year, given the 
circumstances that you face.
    We certainly are going to support, and I'm going to vote 
for, the request for the urgent supplemental. I'm not going to 
suggest, and I don't think my colleagues will, that we should 
commit our troops and then not give you everything that is 
requested to support those troops. But I think when you get to 
the third or fourth year, where your contention is we're going 
to spend zero in the next year, or at least you have no 
knowledge of what we will spend, therefore, you will request 
zero for the specific operations, I think the Congress will be 
better served if you would say, ``Look, here's our best 
estimate. And we understand things can change, but here's what 
we think we will have to spend.''
    Ms. Jonas. I understand your concern, sir.
    Senator Dorgan. And Congress has put that, as you know, in 
the statute and requested that you do that. And you have not, 
this year. Why not? As you know, the statute exists that says 
you should.
    Ms. Jonas. Sir, we are constantly working with the Office 
of Management and Budget on a number of these things. We are 
working with them on the particular provision that you cited.
    Senator Dorgan. All right.
    Let me just ask, for a moment, about missile defense. Do I 
have a couple of more minutes?
    Senator Stevens. Yes.

                       MISSILE DEFENSE REDUCTIONS

    Senator Dorgan. About missile defense. You know, I'm one of 
those that's skeptical. I think we're spending a great deal of 
money on something that, at the moment, is not demonstrated to 
work. And it's very unusual, in any circumstance, to be buying 
products that are not demonstrated to have worked. But the $8.8 
billion in fiscal year 2006 is down from the current spending 
level, is that correct?
    Ms. Jonas. Yes, sir.
    Senator Dorgan. And that relates to, Admiral, efficiencies 
in the program or to--can you describe to me the circumstances 
of the $1 billion reduction?

                            MISSILE DEFENSE

    Admiral Willard. Yeah. General Obering came back to the 
building to discuss the restructuring of his program, as would 
be necessary in order to incorporate those savings. And, in 
that, he showed a combination of efficiencies and decision 
points that he was making in order to neck down the number of 
options that he had for particular capabilities that he was 
seeking, based on their research and development programs, and 
the ones that appeared to be most promising. And he 
demonstrated his ability to deliver the interceptors, as 
Secretary Jonas pointed out earlier. So it's a combination of 
both in his plan.
    Senator Dorgan. Admiral, is there an open question of 
whether, at some point, this will be determined to be either a 
project or a program that works or doesn't work? And if there's 
a potential that we may decide, at some point, that it doesn't 
work--the last two tests, the missiles remained in the silo, 
for example--if there's a potential that, at some point, we may 
decide this doesn't work, would we then expect, on this 
subcommittee, a substantially reduced level of expenditure?
    Admiral Willard. I think, right now, that we're committed 
to the fact that it will work, and is working. And Senator 
Allard's point and disappointment with regard to the efforts 
that have occurred, the two test failures that have occurred 
that were really outside the high technology, new technologies 
areas, were a disappointment for all of us. I would point out 
that, on the maritime side, there was a successful test this 
past week in missile defense, and we are seeing progress made, 
both in terms of the technologies and in terms of those that 
are most promising in the concept of operations and in 
attaining this capability.
    So, first, I think the commitment that we're making in this 
budget to missile defense is based on a level of confidence 
that we have that we're on the right track. That said, we're 
constantly reviewing the appropriateness of all of our 
capabilities, to include missile defense, and will continue to 
do that. And we'll make adjustments along the way if, in those 
reviews, we determine that either the security environment has 
changed, or will change in the future, or our capabilities are 
more or less attainable.
    Senator Dorgan. My State housed the only antiballistic 
missile program that was ever deployed in this country. It was 
operational for only 30 days. But my own view is that the 
threat meter that would describe the threats against this 
country would provide that the least likely threat would be a 
rogue nation or a terrorist organization would use an 
intercontinental ballistic missile to deliver a nuclear 
warhead.
    Having said all that, we're spending a massive amount of 
money on this program at a time when we don't have quite as 
much money as we had hoped to try to deal with our fiscal 
policy issues. And I hope that we take a hard look at this 
program, with a critical eye. And if, at some point, we 
determine hitting a bullet with a bullet is not going to work, 
that we don't pursue this with tens and tens of billions of 
dollars.
    Let me----
    Senator Stevens. Senator, we're going to have to move on, I 
think.
    Senator Dorgan. Yeah, let me--Mr. Chairman, let me thank 
our witnesses.
    The first line of questioning is only to try to elicit, as 
best we can, what our total obligation and costs are going to 
be, not whether we support our troops or whether we support 
missions. I do, and want to be helpful, but I think, in the 
longer term, it is better for the Congress if we put all of 
these estimated costs on the table so that we can evaluate 
them. And I appreciate very much your service. Thank you for 
being here.
    Senator Stevens. Well, thank you very much, Senator.
    One of these days, we'll have to have a debate about that 
missile defense system, because I certainly disagree with what 
you said. The Aegis system worked four and five times. The 
system in your State would have worked. The decision was made 
to put it in my State, and we have had some malfunctioning, in 
terms of the test--launching the test vehicles from Kwajalein. 
But we still have every confidence that the system will work.
    Senator Dorgan. I think a debate of that type would be 
meritorious for this subcommittee, as a matter of fact.

              DEPARTMENT OF DEFENSE HEALTHCARE FACILITIES

    Senator Stevens. Senator Byrd is not here, Ms. Jonas, but 
he is very concerned about the status of the medical care 
facilities that are available. And he has had the good fortune 
of establishing, in West Virginia, a system to bring about a 
healthcare tool for the country at the country's leading 
military hospitals. It's Walter Reed's facility that is in West 
Virginia, called HealtheForces, and he was the one who 
initiated the cooperation between the two.
    Incidentally, I would like to talk to you about carrying 
out the commitments that were made in Alaska when we moved the 
Hospital of the Pacific to Anchorage from Clark Field. It was 
our understanding that such a facility would be established in 
Alaska, but it never has been established. And the people from 
Korea and all over the Pacific, fly all the way into the 
mainland rather than come to Alaska, which is a day short, 
really, almost, in terms of flying time, as far as people that 
need healthcare.
    But Senator Byrd's agreement between Walter Reed and 
Marshall University and the National Technology Transfer 
Center, with regard to diabetics and chronic disease sufferers, 
has been established. It is called the Byrd Center. And he has 
some--he believes this is a shining example of linking national 
healthcare advancements with local expertise to meet healthcare 
needs, a very worthwhile concept.
    How is this program progressing toward implementation in 
West Virginia now?
    Ms. Jonas. Senator, I would have to provide the details of 
that program's status for the record.
    [The information follows:]

    The Marshall's Byrd Center is currently implementing 
HEALTHeFORCES to selected facilities within West Virginia. The 
HEALTHeSURVEY module was implemented at Marshall University 
Medical Center in June 2004. HEALTHeCARD and HEALTHeNOTE 
modules were implemented in March 2005. Pre-implementation 
activities are currently underway at Tug River Health Clinic, 
McDowell County, WV.

    Ms. Jonas. I'd be happy to talk to the Army and to Dr. 
Winkenwerder about the program. I would simply say that--
healthcare is absolutely a critical and vital area for our 
military members and their families. We'd be very happy to work 
closely with Senator Byrd and his staff to make sure that the 
program is proceeding as intended by Congress.

   EXPANDED USE OF INFORMATION TECHNOLOGY TO REDUCE HEALTHCARE COSTS

    Senator Stevens. Well, the Senator has asked me to ask this 
specific question. Given the fact that President Bush has 
pointed to an expanded use of information technology as a 
primary way to reduce healthcare costs in America, and given 
the fact that the HealtheForces has proved to be incredibly 
cost efficient and consumer friendly, what steps will the 
Department take, in conjunction with the National Technoloogy 
Transfer Center (NTTC), to expand the use of this healthcare 
forces technology to other States? And I would invite it to 
Alaska, obviously.
    Ms. Jonas. Certainly, Senator. Again, I would be happy to 
provide the details of where we are with our information 
technology in the medical healthcare arena, particularly for 
those programs that you cited. I would be delighted to work 
with you and your staff, and Senator Byrd's staff, on that 
matter.
    Senator Stevens. Perhaps we will visit with some other 
representatives of the Department at a later date. I'm 
increasingly disturbed at the number of veterans in my State 
that have to fly to Seattle or Portland or San Francisco or Los 
Angeles, at their own expense, to deal with these problems of 
chronic diseases, and particularly diabetes and cancer, because 
there are no facilities in Alaska. But the people fly right 
over them that come in from Korea and from the bases in the 
Pacific--the North Pacific, I'm talking about now, rather than 
the South Pacific, going to Hawaii, obviously. But it's 
something that I would like to explore, also.
    Senator, do you have any further questions?
    Senator Allard. Mr. Chairman, I do have a couple of 
questions, if it's possible, that I would like to pursue, just 
briefly. It shouldn't take too long.
    Senator Stevens. I was urged to finish this by 11 o'clock. 
Why don't you take part of the time and I'll finish with the 
questions for the full committee.
    Senator Allard. Thank you, Mr. Chairman.
    I just want to, for the record, make the point that where 
we've shot a bullet with a bullet, or a rocket with a rocket, 
is a successful program. It's the Patriot advanced capability-3 
(PAC-3). It has been very successful. Our issues are with the 
long-term things, and a lot of that's coordinating 
communication and all of that.

                        MILITARY SPACE PROGRAMS

    But to move on to--I notice, in your written testimony, you 
didn't discuss any of the military space programs. And so, my 
question is, To what extent does the budget reflect the 
importance of military space programs, and particularly the 
ones--the Air Force is focused on developing a number of 
advanced satellites, including space-based radar, 
transformational communications satellites and space-based 
infrared radar system-High (SBIRS). Is there sufficient funding 
in the future year defense plan to sustain these programs?
    Ms. Jonas. Certainly, Senator, space is a very important 
aspect of our program. I can provide a lot of detail for the 
record, if you would like. On the SBIRS-High program, we have 
about $757 million in the program now; for the transformational 
satellite, about $836 million; for the space-based radar, about 
$226 million for that. We also have commitments to other 
programs, like the advanced extremely high frequency satellite. 
We've got about $1.2 billion in the program for that.
    So space is a fair amount of our investment, and we agree 
with the importance of space.
    [The information follows:]

    The fiscal year 2006 President's Budget request for the 
Space Based Infrared System (SBIRS)-High Program is $761 
million; the request for Space Radar is $226 million; the 
request for the Transformation Satellite (TSAT) Communications 
program is $836 million; and for the Advanced Extremely High 
Frequency (AEHF) Program is $1.2 billion. There is currently 
sufficient funding in the future year defense plan to sustain 
these programs.

            BASE REALIGNMENT AND CLOSURE COMMISSION SAVINGS

    Senator Allard. The second issue I want to discuss briefly 
is the BRAC process that's going into effect this year. And so, 
now we're beginning to talk about the 2006 budget. And so, I 
would assume it would have a little bit of an impact on the 
2006, maybe even more on 2007. So I'm interested in what you 
anticipate might be the savings with the BRAC in the early 
years here, and then as we progress over time. And to what 
extent, with our global posture, will that reduce the size and 
scope--do you think it will occur?
    Ms. Jonas. I can certainly talk to what we have 
experienced, in terms of savings in past BRAC rounds. We 
eliminated about 21 percent of our excess capacity in past BRAC 
rounds, and got about $17 billion worth of savings, and 
recurring savings of about $7 billion annually.
    Senator Allard. What was that? How many billion?
    Ms. Jonas. Seventeen billion dollars.
    Senator Allard. Seventeen billion dollars.
    Ms. Jonas. I believe that's a General Accounting Office 
(GAO) and Congressional Budget Office (CBO) estimate on that. 
But that's what we've done.
    Senator Allard. This is with past rounds.
    Ms. Jonas. With past BRAC rounds. I cannot speak to what we 
would expect. I'm not part of the group that is considering 
BRAC issues.
    With respect to global posture, certainly the BRAC 
Commission will be informed by the global posture initiative. 
Again, I cannot speak to the details of that; I'm not involved 
in that. But certainly it will have an impact.
    Senator Allard. Very good.
    Thank you, Mr. Chairman, for allowing me that extra time.
    Senator Stevens. Thank you very much.

                 ACHIEVING SUFFICIENT ARMOR PROTECTION

    Secretary Rumsfeld announced that we are really proceeding 
as rapidly as possible on appropriate armor for all vehicles in 
the war zone. I'm told that the Army has spent $4.1 billion on 
vehicle armoring, and this has provided armor packages for 
about 60 percent of the 35,000 tactical wheeled vehicles in the 
theater. I was further told that those that have not been up-
armored are kept within secure bases.
    Now, the Marine Corps has spent $290 million, so far, on, I 
think, 30,000-plus Humvees. Is the funding in this request now 
sufficient to ensure that we can tell people that all vehicles 
operating outside of protected compounds will have the 
appropriate armor protection soon? And how soon?

                             VEHICLE ARMOR

    Admiral Willard. Sir, the statement that was made by the 
Secretary during testimony was that General Casey had assured 
him that by February 15--so already past date--that, with few 
classified exceptions, no vehicles would be utilized outside 
their garrisons within Iraq without appropriate armor on them. 
So we are past that deadline date at this point, and the 
expectation is that our uniformed personnel that are 
transported around Iraq are in appropriately up-armored 
vehicles and convoys when they do it.
    Senator Stevens. Does this include helicopters? Have we 
included some additional armor on helicopters?

                         HELICOPTER PROTECTION

    Admiral Willard. Sir, the helicopters--the rotary-winged 
assets that are in theater are armored. And when we have 
referred to ``up-armor'' in the past, we're referring to up-
armor on our wheeled vehicles, by and large; and there are up-
armored kits, and they range from, literally, steel to 
composite-material up-armor, which is significantly lighter, 
but, nonetheless, affording some protection. So there are 
various tiers of armor, but it's generally the wheeled vehicles 
that we're talking about.
    Senator Stevens. Well, the last time I managed a bill on 
the floor, I faced substantial questions from Members about 
whether this amount was sufficient to up-armor the vehicles. 
Can you assure us the money that's in this bill will take care 
of the demands for up-armoring in the balance of this fiscal 
year?
    Ms. Jonas. Senator, we have $2.7 billion in the 
supplemental request. And, to our knowledge, that meets the 
requirement that U.S. Central Command (CENTCOM) has, at this 
point. We've also asked for about $200 million in the baseline 
2006 budget. Just to note, up to this point we've spent about 
$5.4 billion from the funds that were provided through the $25 
billion that this subcommittee helped with, and also 
reprogrammed about $2.6 billion. So we think we're fairly well 
covered, to this point.

                PROPOSED AIRCRAFT PROCUREMENT REDUCTIONS

    Senator Stevens. All right. The 2006 budget produces the 
planned buys for both the C-130J and the F/A-22. Secretary 
Rumsfeld has testified that both reductions may be reversed. 
And the QDR that's coming out, the Quadrennial Defense Review, 
will address, specifically, the F-22, I am informed. The Air 
Force initially planned to buy 168 C-130J's and signed a 
contract to buy 62. But the 2006 budget proposes to end that 
program after buying 53 aircraft. The 2006 budget also called 
for ending production of the F/A-22 in 2008, at 179 aircraft, 
as opposed to the previously planned 268. And that was expected 
to save $10.4 billion.
    Some of us raised questions about the cancellation costs 
and whether they were adequately taken into account. I 
understand that the Department is considering a reversing 
decision by the Secretary's decision. And can you tell us--What 
should we do? Should we wait for a budget amendment, or should 
we take it on our own to try and adjust this? When will the 
decision be made?

                     AIRCRAFT PROGRAM: C-130J/F-22

    Admiral Willard. Sir, we have a number of both studies in 
play and reviews coming up that are intended to answer the 
question on the capabilities mix of both our mobility forces 
containing C-130J and our tactical forces within the scope air 
dominance that contained the F-22 capabilities. A mobility 
capability study is current ongoing, expected to read out at 
the end of March; and that mobility capability study is all 
forms of strategic mobility--air, ground, and sea--in addition 
to intra-theater lift assets, such as C-130J. And we will be 
better informed when that mobility capability study is under 
review with regard to the exact mix of aircraft that are 
required.
    One of the key factors in the C-130J decision had to do 
with Marine Corps aircraft and the intent to supply a full 
number of Marine Corps tankers from that buy. And that's one of 
the challenges that we face now with regard to the exact timing 
of, and scope of, the reduction, the savings, to ensure that 
the Marine Corps get those aircraft.
    Insofar as F-22 is concerned, the upcoming Defense review 
will study air dominance within an air control operations 
capability area. And within air dominance, a very heavily 
invested area for the Department, there are a variety of both 
tactical aircraft and other systems involved. F/A-22 is one of 
those. And within the scope of that capability area, we intend 
to determine where the F-22 fits and what mix of F-22s--what 
number of F-22s are most appropriate for the Department.

                         OTHER AREAS OF CONCERN

    Senator Stevens. We need to talk to--it's my understanding 
that some of the monies requested are not currently authorized. 
They're in the intelligence portion of the budget. And so, I 
think, Ms. Jonas, that our only alternative now is to have a 
classified hearing on that portion of the request that are 
before us. And I would hope that you would cooperate with us on 
that sometime soon.
    Ms. Jonas. Certainly, Senator.
    Senator Stevens. I'm really very concerned about some other 
questions, but time is running on us. We, in particular, want 
to talk about modularity, in terms of the change to the 
brigade-based force. Perhaps those questions would be best 
addressed to the chiefs, when they appear before us, 
particularly the Army chief. But the Army National Guard 
problem has not been finalized. We're going to have a difficult 
time handling that money unless we understand what's going to 
be the contribution of the Guard to total force in that area. 
But I also have a question here regarding the decision to 
decommission the John F. Kennedy. I'm going to submit several 
of those questions to you, just for the record, because they're 
questions that have been suggested by other Members.
    We look forward to working with you. And I know it's a 
difficult problem.
    I think I should tell you that a number of our colleagues 
now share some of the comments we're hearing from the 
Democratic members of the committee concerning the question of, 
When will we start full budgeting for the ongoing operations, 
on the basis that what we're doing is no longer conducting a 
war, but peacekeeping operations in both Afghanistan and Iraq? 
That's going to be a difficult question for us on the floor, 
and I urge you to work with other members that are going to be, 
from the Department, coming before us, so we can be assured 
that we're all operating on the same assumptions with regard to 
this process of having budgets for the war zones be continued 
in supplementals after that basic war has been terminated. We 
still have the war on terrorism, as such, and we can understand 
the antiterrorism activities may be difficult to budget for in 
advance, but the planning for the continued assistance through 
the period of adjustment, in both Afghanistan and Iraq, are 
such that many of--as I said, many members are telling me and 
members of this subcommittee that they believe we ought to see 
a normal budgeting process.
    Now, the President has submitted a 2006 budget, and that's, 
you know, an accomplished fact. I'm sure we're not going to ask 
to change that. But looking forward to 2007, I'd like to know 
what representations we can make about the practices that the 
administration will follow with regard to ongoing peacekeeping 
operations in Afghanistan and Iraq.
    I hope that you will consider that a fair question and will 
get some response from the Department before we get to the 
floor on the supplemental.
    Ms. Jonas. Certainly, Mr. Chairman. We look forward to 
working with you on those questions.
    Senator Stevens. Thank you very much. I appreciate your 
patience.

                     ADDITIONAL COMMITTEE QUESTIONS

    I should tell you, there's a full-blown debate going on, on 
the floor, and there are two other subcommittees meeting at the 
same time, so there are others who may have questions to 
submit, and we will notify you if they do.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                  Questions Submitted to Tina W. Jonas
               Questions Submitted by Senator Ted Stevens

                               RETENTION

    Question. We are concerned about retention of our Special 
Operations forces. We understand that both the 2006 President's Budget 
and the Emergency Supplemental request include additional funding to 
support retention. What is the status of Special Forces retention and 
how is the Department addressing this issue?
    Answer. Preliminary reports from the Special Operations Command 
(SOCOM) indicate that fiscal year 2005 retention is beginning to show 
improvement with special offerings recently made available. Currently, 
the Services are preparing their first fiscal year 2005 retention 
report for submission to the personnel community within the Office of 
the Secretary of Defense with a mid-April target date. The report will 
be submitted quarterly. Additional information should be available 
after the Service reports are submitted.
    Beginning on January 1, 2005, the Department implemented a SOF 
retention package that included: Critical Skills Retention Bonus (CSRB) 
for Enlisted personnel and Warrant Officers in designated occupational 
specialties; Special Duty Assignment Pay (SDAP) for Enlisted personnel 
(E-4 through E-9) in SOCOM designated billets; Assignment Incentive Pay 
(AIP) for Enlisted personnel and Warrant Officers operators in SOCOM 
designated billets with more than 25 years of service; and Critical 
Skills Accession Bonus for Warrant Officers with SOF skills.

         COST OF OPERATIONS ENDURING FREEDOM AND IRAQI FREEDOM

    Question. I understand that the Department has absorbed the cost of 
Operation Noble Eagle within the baseline budget for fiscal year 2006. 
What is the Department's plan for absorbing the cost of Operations 
Enduring Freedom and Iraqi Freedom within the baseline budget?
    Answer. The Department included ONE costs in the baseline budget 
because these costs are no longer temporary in nature and can be 
predicted.
    Baseline DOD budgets include funds for organizing, training and 
equipping our military. They do not include costs for Operation 
Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF) operational 
tempo (OPTEMPO). These costs are more difficult to predict because of 
the continuing insurgency activity. Currently, we are not able to 
estimate with great certainty the troop deployment, fuel utilization, 
logistics and transportation requirements, nor the composition (Active 
vs. Reserves) of forces to be deployed. Because of these unknowns, any 
estimate prepared in time to be included in the fiscal year 2006 
President's request would have been flawed.
    Once these operations have fully stabilized and have predictable 
costs, and, if the decision is made to continue the operation on a 
long-term basis, the Department will transfer responsibility for OEF 
and OIF to the baseline budget, similar to when the funding from Balkan 
operations was transferred from the Overseas Contingency Operations 
Transfer Fund (OCOTF) to the Services accounts in fiscal year 2003.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

                           CORROSION FUNDING

    Question. Last year the Government Accountability Office reported 
that corrosion costs the Department of Defense as much as $20 billion 
per year. The Services and GAO estimate the funding needed for 2006 is 
approximately $332 million for corrosion prevention projects. The GAO 
estimates the savings to investment ratio is 10 to 1, and projects with 
an 80 to 1 savings ratio are not uncommon. It would seem to me that 
programs which demonstrate a savings to investment ratio of 10 to 1 
would be the type of programs that you would want to fund. Since the 
return on investment is so great and the annual costs of corrosion so 
high, why is the Pentagon recommending not only such a small amount of 
funding this year but also an amount that is significantly less than 
what was recommended last year? Can we expect to see an increase in 
corrosion funding in the future?
    Answer. In the fiscal year 2006 President's budget request, the 
Department has included approximately $15 million annually (fiscal year 
2006-fiscal year 2011) in Defense-wide accounts. The decision on how 
much to request in fiscal year 2006 was based on the need to fund 
competing priorities as we established an on-going corrosion prevention 
program.
    The Department's fiscal year 2006 request for corrosion prevention 
provides funding for projects with a projected average return on 
investment (ROI) of at least 10 to 1. We will re-examine corrosion 
prevention funding in fiscal year 2007 and beyond as we are able to 
assess the actual savings realized by our fiscal year 2005 and fiscal 
year 2006 funded projects. Thus, any future funding increase will 
depend on our ability to validate our ROI projections and realize 
projected savings while taking into account the Department's other 
funding needs. The Department believes this approach in combating the 
insidious effects of corrosion is both sound and methodical.
    The Department is taking steps to address corrosion and is taking 
corrosion seriously. All major systems are required to address 
corrosion prevention and control throughout the total life cycle of 
systems, from development through sustainment. This requirement is 
expected to result in significant long term corrosion cost avoidance.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby

                          JOINT COMMON MISSILE

    Question. As you know, the Joint Common Missile (JCM) was 
terminated in Presidential Budget Decision 753. Eight months into Phase 
1 of System Design and Development, JCM is a remarkably healthy, low-
risk program on schedule, on budget, and successfully demonstrating 
important new capabilities for the warfighter. Canceling the JCM 
ignores the opinion of our top military leaders and deprives our 
servicemembers of a new capability they need to survive against future 
threats. Can you explain why this program was targeted?
    Answer. The Joint Common Missile was terminated for a variety of 
reasons, including affordability, as well as demonstrated capabilities 
of current munitions such as Hellfire II, the Joint Direct Attack 
Munition, and Laser-Guided Bombs. Good alternatives for Joint Common 
Missile exist, so this is an area where the Department is able to take 
a certain amount of risk. Also, the Air Force is refurbishing Maverick 
missiles and is developing the Small Diameter Bomb Increment 2 to field 
similar capabilities as the Joint Common Missile.
    Question. Further, the JCM meets Joint Service requirements and 
fills a critical capabilities gap that cannot be met by upgrading 
existing weapon systems. For example, JCM has twice the standoff range 
of the Hellfire, Longbow, and Maverick missiles it will replace on 
Army, Navy and Marine Corps aircraft. The accuracy of its tri-mode 
seeker will give our forces precision-strike lethality to eliminate 
threats that are located near non-combatants. That is why the top-
ranking officers in all three services that have requested JCM--the 
Army, Navy, and Marine Corps--all believe the program must be restored. 
How can you justify terminating this program?
    Answer. As stated above, the Joint Common Missile was terminated 
for reasons of affordability and demonstrated performance of other 
munitions. In addition to capable weapons such as Hellfire II, Joint 
Direct Attack Munition, and Laser-Guided Bombs, the Department is 
scheduled to begin production of the Small Diameter Bomb Increment 1 
this fiscal year, which will also limit collateral damage for fixed 
target attack. A follow-on Increment 2 for Small Diameter Bomb under 
development will offer moving target attack, which will offer 
capabilities similar to the Joint Common Missile.

                     KWAJALEIN JOINT CONTROL CENTER

    Question. It is my understanding that your Department is 
considering the increased use of ``remote operations'' for the 
Kwajalein Test and Space Operations site. As I understand it, this 
would mean both a cost savings and increased efficiencies with the 
handling of sensitive data. Further, I have heard that this 
``remoting'' will be conducted from a new ``Kwajalein Joint Control 
Center'' to be located in Huntsville, Alabama. I support this move in 
efficiency and cost savings and would ask that you provide me an update 
on the current status of this proposed project and the out-year funding 
profile necessary to support this activity.
    Answer. The Army is currently conducting an in-depth review of the 
U.S. Army Kwajalein Atoll/Reagan Test Site (USAKA/RTS) to determine a 
means of optimizing range operations. A key cost saving recommendation 
is to remote the operation of radars and sensors from Kwajalein back to 
the United States via fiber optic connection. Some of the operations 
personnel, currently located on Kwajalein, could be moved to a remote 
operations center in the United States. With fewer personnel on 
Kwajalein the cost of supplying public works, services and 
infrastructure on the atoll could be reduced. The Army is studying the 
concept of remote operations, including a survey of possible locals in 
the United States for the remote operations center, but has not yet 
selected a location for that center.
    The Army has not yet committed to any changes in operations at 
Kwajalein. The Army has funded a marine survey to determine the 
possibility of fiber installation on the ocean floor. The total cost of 
installing fiber could be between $36 million and $55 million--
depending upon whether or not there is Federated States of Micronesia 
and/or Marshall Island National Telephone Authority participation. 
Leasing the fiber is also under consideration, and may be more cost 
effective. The cost of standing up a remote operations center is 
estimated at $7 million.
                                 ______
                                 
             Questions Submitted by Senator Robert C. Byrd

                           ACCOUNTING REFORM

    Question. Secretary Jonas, the reform of the Pentagon's accounting 
systems is imperative to allowing the Defense Department to pass a 
thorough audit, as required by law. But funds appropriated for the 
Business Management Modernization Program (BMMP) in past years have 
been under-expended, indicating that the program has slowed down from 
its rapid start.
    What specific goals or milestones do you expect the BMMP to achieve 
in fiscal year 2006?
    Answer. The program is being realigned to support tangible 
transformation efforts. Essential to this effort is delivering BEA 3.0 
and a complete, comprehensible Transition Plan by September 30, 2005. 
These deliverables will facilitate the Department's transformation 
efforts which are now focused on rapidly implementing specific Business 
Enterprise Priorities. The first priorities we are addressing are: 
Acquisition visibility; common supplier engagement; materiel 
visibility; real property visibility; financial visibility; and 
personnel visibility.
    Within each of these priorities are a set of initiatives that have 
short (6 months), mid (12 months) and long term (18+ months) impact on 
the Department's transformation efforts and will be selected based on 
its ability to deliver a needed capability or business improvement to 
the Department.
    It is true that the BMMP has under-expended in prior years. 
However, beginning in fiscal year 2005, execution is on track. As of 
June 2005, over 91 percent of Operation and Maintenance, Defense-Wide 
(O&M, D-W) and approximately 90 percent of Research, Development, Test 
& Evaluation, Defense-Wide (RDT&E, D-W) funds (including prior year 
funds) are obligated. The balance of funds available will be obligated 
during the fourth quarter projected to be disbursed by September 30, 
2005, with the remaining dollars disbursed in October and November 
2005.
    Question. Do you expect that the Department of Defense will 
continue to have a significant amount of unexpended funds by the end of 
the current fiscal year? When do you expect the unexpended funds that 
existed at the end of fiscal year 2004 to be fully obligated?
    Answer. The Department is projecting that approximately $251 
billion will be unexpended at the end of fiscal year 2005. Of this 
amount, approximately $205 billion (unliquidated obligations) represent 
legally binding contracts resulting in the ultimate cash payment at a 
subsequent time. The remaining $46 billion (unobligated balances) 
represent amounts which are available for approved programs but which 
are not yet obligated. These funds are committed to the programs for 
which initially appropriated but are awaiting the completion of 
contracting or other legal prerequisites of contracting before the 
funds are fully obligated.
    The unobligated balances related to multiyear appropriations at the 
end of fiscal year 2004 will be fully obligated by the end of fiscal 
year 2006 with the exception of Shipbuilding and Military Construction 
appropriations that will expire for obligational purposes at the end of 
fiscal year 2008.
    Question. What is the status of efforts to cut down on the large 
number of unnecessary charge cards in the Department of Defense? How 
many charge cards are now in circulation, and is the Department now 
carrying out credit checks to cut down on the number of cards issued to 
individuals whose credit record might indicate a high risk for charge 
card abuse?
    Answer.
Efforts to cut down the number of cards
    For the purchase card, we have established internal controls to 
automatically shut down a card that has been inactive for 6 billing 
cycles. In addition, Program Coordinators can now run a report that 
lists cards with little or no activity.
    For the travel card, the Department entered an agreement with Bank 
of America to prevent charges against accounts that have not been used 
in a twelve month period.
    For the Fleet and Aviation Intoplane Reimbursement (AIR) cards, 
accounts that do not show activity over a 6 month period will be 
highlighted and the account will be closed unless sufficient rationale 
to keep the account open is provided.
Number of charge cards in circulation and credit checks
    For the purchase card, the number of card holder accounts is 
approximately 112,000, which is less than half of the over 230,000 
purchase cards that were in circulation in 2001. Regarding the issue of 
credit checks, the Department's legal determination is that existing 
statutes preclude obtaining actual credit checks without the 
cardholder's consent (i.e. Privacy Act, Fair Credit Reporting Act, 
etc). If cardholders consent, the Department uses a ``Creditworthiness 
Evaluation'' to assist in determining the creditworthiness of potential 
cardholders. The Systems of Records Notice to allow credit checks 
without cardholder consent is being reviewed by GSA's Office of General 
Counsel. Once completed, bargaining with local bargaining units will be 
required, which will involve discussions with over 1,400 bargaining 
units and is expected to take a minimum of 2 years.
    For the travel card, there are approximately 975,783 open accounts, 
down from 1,370,477 in 2002. The Department has always conducted credit 
checks from the outset of the program, if an individual gave consent. 
We cannot conduct credit checks without individual consent under the 
Fair Credit Reporting Act. Individuals with a satisfactory credit score 
are issued a standard card with $5,000 limit and individuals with a 
lower score, or who decline a credit check, are issued a restricted 
card with a $2,000 limit. Since January 2004, 1,917 applications have 
been denied.
    For the Fleet and Aviation Intoplane Reimbursement (AIR) cards, 
there are 58,221 and 20,075 cards, respectively. Since the Fleet cards 
are issued to DOD owned or leased vehicles or equipment and the AIR 
cards are issued to aircraft, no credit checks are performed because 
neither card is assigned to a specific individual.

                             HEALTHEFORCES

    Question. Thanks to a collaborative effort that I helped to 
initiate between Walter Reed, Marshall University, and the National 
Technology Transfer Center (NTTC), diabetic patients and other chronic 
disease sufferers in Southern West Virginia will be better able to 
manage their disease and enhance their quality of life. Marshall's Byrd 
Center for Rural Health has adapted the HEALTHeFORCES program and is in 
the process of launching HEALTHeWV at Marshall University Medical 
Center and other rural clinics in Southern West Virginia. The NTTC, in 
turn, will lay the groundwork for the program's implementation at other 
sites in the State and nation. HEALTHeWV is a shining example of 
linking national health care advancements with local expertise to meet 
West Virginia's unmet health care needs.
    Secretary Jonas, how is this program progressing toward 
implementation in West Virginia?
    Answer. The Marshall's Byrd Center is currently implementing 
HEALTHeFORCES to selected facilities within West Virginia. The 
HEALTHeSURVEY module was implemented at Marshall University Medical 
Center in June 2004. HEALTHeCARD and HEALTHeNOTE modules were 
implemented in March 2005. Pre-implementation activities are currently 
underway at Tug River Health Clinic, McDowell County, WV.
    Question. Given the fact that President Bush has pointed to an 
expanded use of information technology as a primary way to reduce 
health care costs in America, and given the fact that HEALTHeFORCES has 
proved to be incredibly cost-efficient and consumer-friendly, what 
steps will the Department take in conjunction with the NTTC to expand 
the use of HEALTHeFORCES technology in other states?
    Answer. The Army has delivered a functioning HEALTHeFORCES 
technology to the National Technology Transfer Center for further 
expansion as appropriate.
                                 ______
                                 
            Questions Submitted to Admiral Robert F. Willard
               Questions Submitted by Senator Ted Stevens

                           REDUCTION IN FORCE

    Question. The fiscal year 2006 budget requests funding to 
decommission the U.S.S. John F. Kennedy. How will this reduction in 
force affect readiness and our overseas military presence?
    Answer. The Fleet Response Plan enables the Navy today to surge 
multiple carriers on demand. Under the 6+2 plan, 6 carriers are 
available within 30 days to meet commitments and another 2 will be 
available within 90 days. A force reduction of one carrier may alter 
the availability to either 6+1 or 5+2, depending on scheduling factors. 
However, a fleet of 11 carriers will maintain readiness standards to 
source the most demanding defense scenarios within acceptable risk 
guidelines. Additionally, the reduction from 12 to 11 carriers aligns 
with the currently available 11 Carrier Air Wings.
    A primary contribution of carriers to the defense strategy is 
deterrence through global presence. The Navy will continue to maintain 
the required carrier presence. Innovative global force management 
practices will enable joint solutions, such as Air Force aircraft in a 
forward region, to augment or substitute for carrier presence to meet 
Combatant Commander needs. Overseas presence and deterrence is further 
bolstered by an increase in rotational expeditionary forces from all 
Services under the global presence and basing strategy.
    In summary, the Department of Defense must make difficult force 
structure trades under a constrained budget to meet current and 
emerging challenges. The Department of Defense and the Navy are 
undergoing aggressive transformation while still executing phase IV 
operations in Operations IRAQI and ENDURING FREEDOM. The future 11-
carrier fleet enabled by the Fleet Response Plan, technological 
advances, improved training, and superior maintenance will provide the 
capability required to successfully execute the defense strategy.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

                            MISSILE DEFENSE

    Question. I understand that a key aspect of the Department's 
missile defense strategy is to pursue a layered defensive system, 
designed to intercept and destroy ballistic missiles of all ranges, 
during any phase of their flight. The recent successful test of an 
operationally configured Standard Missile 3 from a Navy Aegis cruiser 
is an indication of the potential for one part of the layered system. 
Could you share with this committee your assessment of the missile 
defense effort, and how this budget proposal might affect the 
Department's ability to achieve the layered system that is envisioned?
    Answer. The Missile Defense Agency (MDA) continues to develop and 
incrementally field a joint, integrated and multi-layered defense--the 
Ballistic Missile Defense System (BMDS)--against all ranges of 
ballistic missiles. Layered defenses are important because they provide 
defense in depth across all phases of flight (boost, midcourse and 
terminal) and make deployment of enemy countermeasures more difficult. 
The recent success of the Standard Missile 3 test from an Aegis cruiser 
adds confidence to our ability to address the short- to intermediate-
range ballistic missile threats. Development of other capabilities 
continues to address the entire capability range of the threats.
    The MDA has followed a funding strategy of retaining alternative 
development paths until a capability is proven. The fiscal year 2006 
budget proposal supports the development for fielding of various BMDS 
elements and components, including the: Ground-based Midcourse Defense 
(GMD), Terminal High Altitude Area Defense (THAAD), Airborne Laser 
(ABL), Kinetic Energy Interceptor (KEI), improved sensors, and battle 
management. All of these elements of the BMDS, and other efforts, will 
combine to achieve a robust, layered defense.
    The warfighter's assess that MDA has a balanced approach to 
developing and fielding capabilities that take into account the 
evolving threats. The fiscal year 2006 missile defense budget proposal 
supports the funding strategy by focusing resources on the most 
promising development paths to create a multi-layered defense to 
protect the homeland, deployed forces, friends, and allies against 
ballistic missile attack.
    Question. The budget proposal truncates the C-130J program after 
fiscal year 2006, leaving both the Air Force and Marine Corps short of 
their modernization objectives. From the joint perspective, how will 
this proposal affect the Defense Department's air transport and 
refueling capabilities?
    Answer. At the time the decision was made to truncate the C-130J 
program, recent studies indicated that the current tactical airlift 
fleet could support the military strategy. Additionally, there was an 
incomplete understanding of the associated contract termination 
liabilities. However, with the recent flight restrictions placed on 
portions of the C-130 fleet and better understanding of the contracting 
implications, the Department of Defense has recently stated a 
willingness to re-evaluate the C-130 capability required and the 
decision to truncate the C-130J program.
    The Mobility Capability Study (MCS) and the Quadrennial Defense 
Review (QDR) will address the transport and refueling requirements for 
the Department. These studies will also help determine the quantity and 
right mix of transports and cargo aircraft required for the joint 
force. The MCS should be ready for release in the spring of 2005 and 
the QDR should be completed by February 2006.

                          SUBCOMMITTEE RECESS

    Ms. Jonas. Thank you, Mr. Chairman.
    Senator Stevens. Thank you very much.
    Admiral Willard. Thank you, Mr. Chairman.
    [Whereupon, at 11:03 a.m., Tuesday, March 2, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                        WEDNESDAY, MARCH 9, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Hutchison, Burns, 
Inouye, Leahy, Durbin, and Mikulski.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

                        Office of the Secretary

STATEMENT OF HON. FRANCIS HARVEY, SECRETARY OF THE ARMY
ACCOMPANIED BY GENERAL PETER J. SCHOOMAKER, CHIEF OF STAFF OF THE ARMY

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Good morning, Mr. Secretary, General. 
We're going to receive testimony from the Secretary of the 
Army, the Army Chief of Staff. Secretary Harvey, we welcome 
you. It's your first appearance before our subcommittee, and we 
look forward to working with you during these challenging 
times. They're difficult for all of us, but we're anxious to 
hear your plans for sustaining the force.
    I want to welcome some soldiers attending today, Sergeant 
First Class Jason Straight, of the Army Reserve, Operations 
Sergeant for the 459th Engineering Company, Staff Sergeant 
Clarke Caporale, Army National Guard from New York, Information 
Assurance Manager, at the Joint Forces Headquarters in New 
York, and Sergeant--Staff Sergeant Thomas Kenny, the Active 
Component Rifle Squad Leader of the 2nd Platoon of the 502nd 
Infantry of the 101st Airborne. I'm sorry to have botched up 
those introductions, gentlemen.
    We welcome you all, and we're honored to have you here with 
us, and we thank you for your service, as we thank all of you 
for your service.
    General Schoomaker, we welcome you to the subcommittee and 
look forward to your testimony. We will later welcome Senator 
Mikulski, who is a new member of our subcommittee and will be 
very valuable to us as we go forward.
    This initiative known as ``modularity'' is designed to 
reduce stress on the force by creating more deployable units 
and to ensure our soldiers are properly equipped when they 
rotate into theater operations. It's an ambitious endeavor, 
General and Mr. Secretary, that we must balance with many other 
budgetary challenges facing the Army and the whole Department. 
These include recruiting and retaining an all-volunteer force, 
improving the protection systems, recapitalization of damage to 
destroyed equipment, and reposturing our forces around the 
globe. In addition to that, we are fielding new technologies 
for the warfighter.
    The fiscal year 2006 budget proposal totals $98.6 billion 
for the Army, and the supplemental request before us--that and 
the supplemental request before us are critical for addressing 
these issues. It's imperative we exercise due diligence in 
reviewing the requests, and we want to work with you to ensure 
that our Army is provided the resources necessary to accomplish 
its mission and to continue the momentum toward the 
democratization of the Middle East.
    I want to turn this over now to my co-chairman and see if 
he has comments before we ask you to prepare--to give us your 
remarks.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. I thank you very much, Mr. Chairman. I wish 
to join you in welcoming General Schoomaker and Dr. Harvey, our 
new Secretary of the Army.
    The Army is now undergoing a period of challenge and 
change, and the pace of overseas operations is clearly 
straining our Active, Guard, and Reserve forces. And we know 
that it's not going to be an easy job, but we stand to work 
with you, sir.
    And may I have my full statement made part of the record?
    Senator Stevens. Yes, sir, it will be.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Today we welcome the Army Chief of Staff, General 
Schoomaker, along with Dr. Francis Harvey, the Army Secretary. 
Mr. Secretary, we welcome you here for your first appearance 
before this committee.
    Gentlemen, the Army is undergoing a period of challenge and 
great change. The pace of overseas operations is clearly 
straining our Active, Guard and Reserve forces.
    At the same time, we are implementing the first phase of 
Army transformation with the creation of Stryker brigades. And, 
to complicate matters further, the Army is proceeding with its 
modularity initiative, restructuring its divisions with a goal 
of increasing combat capability by creating an additional 10 
brigade combat teams.
    The cost of these efforts, both in stress and monetary 
resources, is understandably high.
    We are informed that the Army was unable to meet its 
recruiting goal for active duty soldiers last month and also 
falling short of the recruiting goals of the Reserve forces.
    In this period of change we have seen the termination of 
the Comanche helicopter and the Crusader, and the restructuring 
of the future combat system program and Army aviation.
    The Congress has fully supported the Army even adding more 
than $600 million in fiscal year 2005 to accelerate equipment 
for the Stryker brigades, but more is required.
    In the supplemental request, we find an unprecedented 
request of $5 billion to support modularity, and the creation 
of brigade combat teams. Some of our colleagues have questioned 
the propriety of using an emergency supplemental to pay for 
this new initiative.
    So, I believe it is obvious that this is a period of great 
upheaval. Gentlemen, I don't know how you are able to balance 
all of these issues in this time of war. I tip my hat to you.
    As you know, this committee has been steadfast in its 
support of the Army. I can assure you that we will do our best 
to support the needs of our men and women in uniform especially 
during this trying time.
Mr. Chairman, I look forward to hearing our witnesses discuss 
the many challenges facing the Army and their plans to meet 
them head on.

    Senator Stevens. Senator Leahy, do you have any opening 
comments?
    Senator Leahy. I don't, Mr. Chairman. I will have 
questions, though.
    Senator Stevens. Thank you very much.
    Mr. Secretary, we're pleased to have your statement. Both 
of your statements will appear in the record in full, as though 
read, but we'd take your comments, whatever you wish to say.
    Secretary Harvey. Thank you, Mr. Chairman.
    Chairman Stevens, Senator Inouye, and distinguished members 
of the subcommittee, General Schoomaker and I appreciate the 
opportunity to be here this morning and to offer testimony on 
the posture of the United States Army, which today is 
conducting operations in Iraq, Afghanistan, and some 120 other 
countries around the world.
    Let me begin by saying a few words about the great soldiers 
of our Army, the centerpiece of our formations.
    Our Nation is blessed with the world's finest Army, an all-
volunteer force representing the best our country has to offer. 
On that note, General Schoomaker and I are pleased to be joined 
today by three soldiers who, in turn, represent the over 1 
million soldiers in our Army. The Chief will introduce these 
soldiers to you at the end of my opening statement.
    The events of 9/11 radically altered the realities of 
America's security environment, making it clear that the United 
States is in a protracted war against a global enemy that 
fights with different means and standards of conduct that 
includes a total disregard for human life. To be successful in 
this protracted conflict, we must transform our Army to be more 
expeditionary, joint, rapidly deployable and adaptive, as well 
as enhance our capabilities across the entire range of military 
operations, from major combat to stability.
    To accomplish our mission of providing the necessary forces 
and capabilities to the combatant commanders in support of the 
national security and defense strategies, we have developed and 
are executing four overarching and interrelated strategies 
supported by 20 initiatives. Transformation is ingrained in all 
of these strategies, as well as in each one of the initiatives.
    These strategies are: first, providing relevant and ready 
land power to the combatant commanders; second, training and 
equipping our soldiers to serve as warriors and growing 
adaptive leaders; third, attaining a quality of life for our 
soldiers and their families that match the quality of their 
service; and, finally, providing the infrastructure to enable 
the force to fulfill its strategic roles and missions.
    We are implementing these strategies by means of 20 
supporting initiatives. In executing these initiatives, our 
actions will, at all times and in all places, be guided by the 
highest of ethical standards. Among the nine initiatives 
supporting our strategy of providing relevant and ready land 
power, I want to emphasize our major transformational effort, 
the Army modular force initiative.
    This initiative involves the total redesign of the 
operational Army into a larger, more powerful, more flexible, 
and more rapidly deployable force that will move us from a 
division-centric structure to one built around what we call the 
Brigade Combat Team Unit of Action.
    Let me note here that when discussing the size and power of 
the Army, one should not only talk about end strength, because 
the Brigade Combat Team is a much more capable and powerful 
unit. It is more useful to talk about the number of units, as 
well as the power--combat power of those individual units.
    The combat power of an individual unit is not only a 
function of people strength, but also the technology and 
quality of the equipment, particularly the weapons systems and 
the information network, the effectiveness of the tactics, 
techniques, and procedures, the adaptability and flexibility of 
the organization, the level of training, and, finally, the 
caliber and quality of the leadership. At the end of the day, 
it is the combat power of the operational Army that counts.
    There is another important point to be made regarding Army 
end strength. Because we are initiating a number of initiatives 
to transform the way the Army does business, including the 
conversion of military jobs to civilian ones in that part of 
the Army which generates the force, the so-called 
``institutional Army,'' it is possible to increase personnel 
strength of the operational Army without necessarily increasing 
overall end strength.
    Now, returning to the Army modular force initiative, the 
Brigade Combat Team Unit of Action is a standalone, self-
sufficient, and standardized tactical force of between 3,500 
and 4,000 soldiers that is organized the way it fights. 
Consequently, these brigades are more strategically responsive 
across the broad spectrum of operations required by the 21st 
century security environment.
    This transformational effort will result in a force with a 
number of key advantages. First, there will be at least a 30-
percent increase in our Active component's combat power by 
2007, an increase from 33 to 43 Brigade Combat Teams. Second, 
the number of usable Brigade Combat Teams in the rotational 
pool will increase from 48 to 77. Third, the headquarters will 
be joint-capable and organized the way it will operate in 
theater. Fourth, future network-centric developments can be 
readily applied to the modular force design as the first step 
in evolving the Brigade Combat Team Unit of Action into a 
future combat system design. Finally, and very importantly, 
when complete, modularity in combination with rebalancing the 
type of units in both the Active and Reserve components will 
significantly reduce the stress on the force because of a more 
predictable rotational cycle for all components, coupled with 
much longer dwell times at home base.
    With our four overarching strategies and 20 supporting 
initiatives, in conjunction with a fully funded base budget and 
supplemental, the Chief and I are confident that the Army can 
accomplish its mission and reach our strategic goal of being 
relevant and ready both today and tomorrow.
    Let me end by saying that none of this would be possible 
without the continuing strong support of Congress and, 
specifically, the Defense Subcommittee of the Senate 
Appropriations Committee. Thank you for this past support. And 
I ask for your full support on the base budget request, as well 
as the supplemental.
    General Schoomaker will now introduce the three soldiers 
with us today. And, after that, we'll be more than happy to 
answer the questions.
    Thank you.
    Senator Stevens. You can tell us more about them if you'd 
like, General.
    General Schoomaker. Sure, I'd like to.
    Chairman Stevens and Senator Inouye and other distinguished 
members of the subcommittee, I stand with Secretary Harvey on 
his statement, and we've submitted our posture statement and 
written statements for the record, as you've said.
    I would like to introduce these three soldiers. They've 
earned the right to sit in the front row and observe how our 
Government works. And we're very proud of them. As we've 
already said, they're the centerpiece of our Army. And I 
invited them here so they could have that front-row seat, they 
represent all three components, the Active, Guard, and Reserve 
components of our Army.
    The first is Sergeant First Class Jason Straight, who is 
from the United States (U.S.) Army Reserve. He deployed with 
his unit from West Virginia. He deployed with the Bridge 
Company from January 2003 to February 2004. He was first 
attached to the 1st Marine Expeditionary Force, and they are 
the ones that forged the river--the Tigris River to allow the 
marines to advance. They did it under fire, put the bridge in 
so that they could proceed in their attack to Baghdad. In 
addition to bridge construction, his unit was involved in the 
destruction of enemy ammunition, doing mine clearance 
activities and destroying other foreign ammunition that was 
over there. So we're very proud of him. And he represents the 
great soldiers of our U.S. Army Reserve. Thank you very much, 
Sergeant Straight.
    The next soldier I'd like to introduce is Staff Sergeant 
Clarke Caporale. Sergeant Caporale is from New York. He's a 
member of the National Guard. He's a mortarman. And during his 
time deployed on Operation Iraqi Freedom (OIF) from February 
2004 to January 2005, he was involved in firing over 150 
missions in combat with his mortar element. He was also one of 
the soldiers that became a primary trainer for the Iraqi 
National Guard and was involved in training Company D of the 
203rd Battalion Iraqi National Guard. He was a member of the 
joint coordination cell and the staff in the province there 
where he was. He earned a Combat Infantryman's Badge and the 
Expeditionary Medal for the Global War on Terrorism. Thank you.
    Staff Sergeant Thomas Kenny is a member of the regular 
Army. He is 11-Bravo Rifle Squad Leader, Infantry, 2nd 
Battalion, 502 Infantry of the 101st Airborne. Staff Sergeant 
Kenny participated in the initial assaults through Iraq, moving 
north through Karbala, Baghdad, Fallujah, and Mosul, beginning 
in March 2003 through February 2004. His unit established 
numerous hard sites that are still in use today in Mosul. He 
was also involved in overseeing the exchange of the Hussein-era 
Iraqi dinars to the post-liberation dollars. He also has earned 
the Combat Infantryman's Badge, been decorated for both the 
campaign in Iraq, as well as in Kosovo, where he was involved 
in the campaign there.
    So, again, we're very proud of these soldiers. They 
represent the centerpiece of our Army, and I join you in my 
great respect for their service and what they contribute to the 
security of our Nation.

                           PREPARED STATEMENT

    So thank you very much. I'm prepared to answer your 
questions.
    [The statement follows:]
Prepared Statement of the Honorable Francis J. Harvey and General Peter 
                             J. Schoomaker
                                                  February 6, 2005.

    America remains a nation at war, fighting adversaries who threaten 
our civilization and way of life. The most significant aspect of our 
current strategic reality is that the Global War on Terror in which we 
are now engaged will be a protracted one.
    The Army's primary mission is to provide necessary forces and 
capabilities to the Combatant Commanders in support of the National 
Security and Defense Strategies. We have more than 300,000 Soldiers 
deployed or forward stationed today to support operations in Iraq, 
Afghanistan, and other theaters of war and to deter aggression, while 
securing the homeland. We are fighting today while simultaneously 
preparing for tomorrow.
    To continue to accomplish our mission, we are aggressively 
restructuring the Army. We are transforming from a force designed for 
contingency operations in the post-Cold War era to a force designed for 
continuous operations in a new era that presents challenges to the 
Nation ranging from traditional to potentially catastrophic.
    The Army is dependent upon the resources requested in the fiscal 
year 2006 President's Budget, coupled with emergency supplemental 
appropriations, to support current operations. These funds will also 
enable the force to recover from the stress placed on equipment and 
Soldiers during combat and continually ``reset'' itself for future 
deployments. Moreover, these resources are required to continue to 
transform the Army into a larger, more powerful force built on self-
sufficient brigade-based modules. This force will be more flexible, 
more rapidly deployable and better able to sustain the protracted 
military campaigns and conduct the joint, expeditionary operations 
required by the 21st century security environment.
    We are sustaining our global commitments while making tremendous 
progress in our transformation. We will need the continued support of 
the Congress, the President, and the American people to accomplish our 
mission today and tomorrow, while providing for the well-being of our 
All-Volunteer Soldiers, their families and our civilian workforce who 
are serving the Nation in this time of war.

                                       Peter J. Schoomaker,
                        General, United States Army Chief of Staff.
                                         Francis J. Harvey,
                                             Secretary of the Army.

           PURPOSE AND ORGANIZATION OF THE POSTURE STATEMENT

    The 2005 Army Posture Statement provides an overview of today's 
Army. Focusing on the Soldier, our centerpiece, it provides a 
perspective on the 21st century security environment. This environment 
provides the context for reaffirming our overarching Strategic Goal and 
our enduring Mission. The Posture Statement describes how the Army is 
executing four overarching, interrelated strategies--centered on 
people, forces, quality of life and infrastructure--needed to 
accomplish this Mission. Our initiatives, posture, progress, and 
requirements are explained within the context of these strategies. Army 
transformation is described not as an end in itself, but rather in 
terms of how it is already contributing to accomplishing the Mission 
today, while preparing the force to accomplish its Strategic Goal--to 
remain relevant and ready to meet the Combatant Commanders' needs--
today and tomorrow. A discussion of Risk and an examination of future 
security challenges are furnished to complete this assessment of our 
current posture as we continue to serve the Nation today, while 
preparing for the uncertainties of tomorrow. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

             2005 ARMY POSTURE STATEMENT EXECUTIVE SUMMARY

21st Century Security Environment: An Era of Uncertainty and 
        Unpredictability
    Operating within an uncertain, unpredictable environment, the Army 
must be prepared to sustain operations during a period of persistent 
conflict--a blurring of familiar distinctions between war and peace.
    To improve our ability to provide forces and capabilities to the 
Combatant Commanders for the foreseeable future, the Army is undergoing 
its most profound restructuring in more than 50 years.
    With the support of the Congress, the President, and the Department 
of Defense, we are making tremendous progress.
Transforming to Accomplish the Mission: Modularity, Rebalancing, and 
        Stabilization
    Army Transformation is focused to improve the capability of the 
Soldier, who remains the centerpiece of our formations. It has four 
primary goals.
  --First, we are restructuring from a division-based to a brigade-
        based force. These brigades are designed as modules, or self-
        sufficient and standardized Brigade Combat Teams, that can be 
        more readily deployed and combined with other Army and joint 
        forces to meet the precise needs of the Combatant Commanders. 
        The result of this transformational initiative will be an 
        operational Army that is larger and more powerful, flexible and 
        rapidly deployable.
  --This program, which we call modularity, will increase the combat 
        power of the Active Component by 30 percent as well as the size 
        of the Army's overall pool of available forces by 60 percent. 
        The total number of available brigades will increase from 48 to 
        77 with 10 active brigades (three-and-a-third divisions in our 
        old terms) being added by the end of 2006. Our goal for this 
        larger pool of available forces is to enable the Army to 
        generate forces in a rotational manner that will support two 
        years at home following each deployed year for active forces, 
        four years at home following each deployed year for the Army 
        Reserve and five years at home following each deployed year for 
        National Guard forces. Implementing this program will provide 
        more time to train, predictable deployment schedules, and the 
        continuous supply of landpower required by the Combatant 
        Commanders and civil authorities.
  --The force, above the brigade level, will be supported by similarly 
        modular supporting brigades that provide aviation, fires, 
        logistics, and other support. Our headquarters structure will 
        also become far more versatile and efficient as we eliminate an 
        entire echelon of command--moving from three to two levels. 
        Similar innovations will occur in the logistics and 
        intelligence organizations that support our forces and other 
        Services.
  --Our restructuring is already well underway. The 3rd Infantry 
        Division, the vanguard of the invasion of Iraq, will return to 
        Iraq as a restructured, modular force.
  --Second, we are rebalancing our active and reserve forces to produce 
        more units with the skills in highest demand. This will realign 
        the specialties of more than 100,000 Soldiers, producing a 50 
        percent increase in infantry capabilities, with similar 
        increases in military police, civil affairs, intelligence, and 
        other critical skills. We have already converted more than 
        34,000 spaces.
  --Third, Soldiers are being stabilized within units for longer 
        periods to increase combat readiness and cohesion, reduce 
        turnover and eliminate many repetitive training requirements. 
        With fewer Soldiers and families moving, more Soldiers will be 
        available on any given day to train or to fight. This 
        initiative, started in 2004, also transitions our Army from an 
        individual replacement manning system to a unit focused 
        system--to prepare Soldiers to go to war as vital members of 
        cohesive units.
  --Fourth, we are working to complement our operational transformation 
        by ensuring that our business, force generation and training 
        functions improve how we support a wartime Army and the other 
        Services. We are divesting functions no longer relevant and 
        reengineering business processes to increase responsiveness to 
        the Combatant Commanders. Other improvements include developing 
        a joint, interdependent end-to-end logistics structure, and 
        fostering a culture of innovation to increase institutional 
        agility. We seek to improve effectiveness and identify 
        efficiencies that will free human and financial resources to 
        better support operational requirements.
Balancing Risk: The Tension Between Current and Future Demands
    The Army is grateful for the support of the Congress, the 
President, the Department of Defense, and the American people as we 
fight the Global War on Terror. Continued support--financial and 
moral--is vital. This year, like previous years since September 11, the 
Army's base budget supports force generation and sustainment operations 
and the supplemental budget request supports wartime efforts. The 
combination of these spending measures is needed to enable the Army to:
  --Recruit and retain the All-Volunteer Force and their families by 
        enabling the establishment of equitable rotation plans and 
        improving quality-of-life programs;
  --Generate and sustain a force that is properly manned, trained and 
        led, in order to prevail in the Global War on Terror, while 
        sustaining other global commitments;
  --Enhance Soldiers' ability to fight by rapidly spiraling promising 
        technologies that are ready now into the Current Force; and
  --Reset the force by repairing and recapitalizing equipment that is 
        aging rapidly--far faster than projected--due to sustained 
        combat operations in severe environmental conditions.
    The scale and the pace of Army transformation is essential to 
improve the ability of American Soldiers to defeat adversaries who will 
pose complex, irregular challenges that are becoming increasingly more 
sophisticated and dangerous than those we now face.
Focusing Resources on Wartime Requirements: Major Decisions in 2004
    The Army benefited from three major decisions in 2004, all 
providing resources to address immediate wartime needs. The Army 
restructured or adjusted 126 programs. Two of these programs had the 
most significant impact. First, the Army cancelled the Comanche Program 
and reinvested the savings into other urgent aviation requirements. 
This decision enabled us to begin purchasing new airframes, fix many 
equipment shortfalls, enhance survivability, and begin modernizing our 
fleet. Second, we modified the schedule for fielding Future Combat 
Systems to put better capabilities into the hands of our fighting 
Soldiers. Third, Congress provided the authority to increase Active 
Component end strength by 30,000 Soldiers to support the war and the 
Army's conversion to modular formations.
Our Army at War--Relevant and Ready . . . Today and Tomorrow
    Our Nation remains at war. Soldiers understand their mission. They 
are well equipped and trained for the fight. They are well led by 
excellent leaders. Our transformation is already enhancing our 
capabilities today, while ensuring our preparedness for tomorrow. These 
efforts, however, will require full support of the base budget and 
supplemental.

     21ST CENTURY SECURITY ENVIRONMENT: AN ERA OF UNCERTAINTY AND 
                            UNPREDICTABILITY

    We remain an Army at War. It is a war unlike any other in our 
Nation's history, prosecuted not by states, but by extremists employing 
irregular means to erode our power and resolve. Our adversaries 
threaten the ideas that form the bedrock of our society, endangering 
our freedoms and way of life. Fueled by an ideology that promotes 
intractable hatred, this war will endure in some form for the 
foreseeable future. The Army, in service to the Nation, must therefore 
be prepared to sustain operations during a period of persistent 
conflict--a blurring of familiar distinctions between war and peace. 
This is the most significant aspect of the 21st century security 
environment.
    The emergence of unconventional and asymmetric threats, such as 
radical Islamic terrorist efforts aimed at the United States and other 
developed countries, has stretched the U.S. military. Protection 
afforded by geographic distance has decreased, while challenges and 
threats from extremists using weapons of mass destruction and attacks 
on civilian, military and economic targets have increased. While the 
current trend toward regional and global integration may render inter-
state war less likely, the stability and legitimacy of the conventional 
political order in regions vital to the United States are increasingly 
under pressure.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                Figure 1

    There are now new actors, methods and capabilities that imperil the 
United States, its interests and its alliances in strategically 
significant ways. The Defense Strategy has identified four types of 
emerging security challenges for U.S. forces: irregular, traditional, 
catastrophic and disruptive. The ``Four Challenges,'' described in 
Figure 1, categorize many of the issues expected in the future security 
environment. In many situations, these challenges may overlap, may 
occur simultaneously and may offer no easily discernible transition 
from one to another.
    The Defense Strategy still recognizes the traditional threat 
paradigm, focused primarily on other states and known enemies. In the 
aftermath of September 11, 2001, however, it is no longer sufficient to 
be prepared to defend only against this type of threat. Our old 
concepts of security, deterrence and warning, developed through 
traditional intelligence approaches, do not apply sufficiently in this 
new strategic environment. While we must remain ready to sustain the 
full range of our global commitments, our overwhelming military 
superiority no longer serves as an adequate deterrent against many 
emerging threats, especially those of radical fundamentalist 
terrorists.
    The implications of our environment are clear. We must understand 
the character of the irregular warfare we now face and adapt 
accordingly. In waging this war against determined adversaries, we have 
arrayed a vast, hierarchical organization against an elusive, adaptive 
network. Consequently, the Army is adapting to eliminate irrelevant 
policies, processes and doctrines. We must move beyond marginal 
improvements in our efforts to strengthen interdependencies with other 
Services and other agencies and reinforce a culture that fosters 
innovation and agility.
    To respond to the challenges presented in this era of uncertainty 
and unpredictability, the Army has accelerated its transformation. 
During times of peace, change is generally slow and deliberate--at a 
pace supported by limited resources. In wartime, however, change must 
occur faster; a measured approach to change will not work.
    We must remain ready to sustain the full range of our global 
commitments beyond those associated with the Global War on Terror. At 
the same time, the Army must be prepared to conduct sustained 
operations during a period of protracted conflict.

 STRATEGIC GOAL: REMAINING RELEVANT AND READY . . . TODAY AND TOMORROW

    In light of the uncertainty and the challenges inherent to the 21st 
century security environment, the Army's overarching strategic goal is 
to remain relevant and ready by providing the Joint Force with 
essential capabilities to dominate across the full range of military 
operations. The Army will be:
  --Relevant to the challenges posed by the global security environment 
        as evidenced by the organization and training of our forces, 
        the innovation and adaptability of our leaders and the design 
        and practices of our institutional support structures.
  --Ready to provide the Combatant Commanders with the capabilities--
        principally well-led, trained and equipped forces--required to 
        achieve operational objectives across the range of military 
        operations.
    To meet this goal, the Army must position itself in terms of 
mindset, capability, effectiveness, efficiency, training, education, 
leadership and the overall culture of the Service for the context in 
which it will operate for the foreseeable future.
    The American Soldier remains our primary focus--the centerpiece of 
all that we do as an Army. Throughout our history, Soldiers have 
answered the call to end tyranny, to free the oppressed and to light 
the path to democracy for struggling nations. Soldiers--imbued with the 
ideals of the Warrior Ethos, a commitment to defend the freedoms that 
America enjoys and an unwavering belief that they will be victorious--
are, and will remain, the foundation of the Army.
    mission: supporting the national security and defense strategies
    The Army exists to serve the American people, to protect enduring 
national interests and to fulfill national military responsibilities. 
Our mission is enduring: to provide necessary forces and capabilities 
to the Combatant Commanders in support of the National Security and 
Defense Strategies. The Army is charged to provide forces able to 
conduct prompt, sustained combat on land as well as stability and 
reconstruction operations, when required. Moreover, the Army is charged 
to provide logistical and other capabilities to enable other Services 
to accomplish their missions.
    To achieve its mission, the Army is providing the Joint Force with 
capabilities required to prevail in the protracted Global War on Terror 
and sustain the full range of its global commitments. At the same time, 
the Army is undergoing one of its most profound transformations since 
World War II. Army Transformation will meet the needs of Joint Force 
Commanders today and tomorrow, by providing a campaign-quality Army 
with joint and expeditionary capabilities. A continuous cycle of 
innovation and experimentation, informed by experience, is improving 
the forces and capabilities we are providing today and ensuring that we 
are well postured for tomorrow's challenges.
    We are working to create a unique synergy from both of our tasks, 
fighting today while transforming for tomorrow, to ensure we ``get it 
right.'' The size and mix of our components and capabilities must be in 
balance. Our global posture, both at home and abroad, must enhance 
agility and readiness to conduct expeditionary operations on short 
notice. In addition, the force must be designed, equipped, sustained 
and supported in a manner that will enable us to continue to be 
effective partners, with the other Services and the armed forces of 
other nations, in the conduct of sustained, protracted military 
campaigns.
    Soldiers remain at the center of our transformation focus. Soldiers 
are the Army. It is the Soldier--fierce, well trained, well equipped 
and well led--who serves as the ultimate expression of the capabilities 
the Army provides to the Joint Force and to the Nation. As always, we 
remain dedicated to the well-being of our Soldiers, their families and 
our civilian workforce.
    The character and skill of our Soldiers, leaders and civilian 
workforce and the attitudes and actions of our family must reflect our 
military and organizational challenges. Like any large, complex 
organization committed to achieving transformational change, our 
efforts to change our culture will prove to be our true measure of 
success.
    Guided by the compelling requirement to accomplish our mission in 
service to the Nation, the Army is changing now--and making tremendous 
progress. With the continued support of Congress and the Department of 
Defense, we will maintain the momentum we have established, through our 
collective efforts, to transform capabilities, processes, leadership 
and culture.

     ACCOMPLISHING THE MISSION TODAY: SUSTAINING GLOBAL COMMITMENTS

    The Army's first priority is to sustain its increasing global 
commitments that extend across the full range of military missions, 
well beyond those associated with the Global War on Terror. Today, our 
Current Force is engaged, across the range of military operations, in 
ways we could never have forecasted before September 11, 2001, 
operating at a very high pace that will likely continue for some time.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Army is providing forces and capabilities for Operation Iraqi 
Freedom, for Operation Enduring Freedom and for other global 
requirements. The Army continues to deter aggression and keep peace on 
the Korean Peninsula, on the Sinai Peninsula, in the Balkans and 
elsewhere around the world. In addition, the Army supports numerous 
humanitarian assistance missions and supports organizations such as 
Joint Task Force Bravo in Central America to counter illicit narcotics 
trafficking.
    Today, approximately 640,000 Soldiers are serving on active duty. 
315,000 Soldiers are deployed or forward stationed in more than 120 
countries to support operations in Iraq, Afghanistan and other theaters 
of war and deter aggression, while securing the homeland. These 
Soldiers are from all components: Active (155,000), Army National Guard 
(113,000) and Army Reserve (47,000). Soldiers participate in homeland 
security activities and support civil authorities for many different 
missions within the United States. A large Army civilian workforce 
(over 250,000), reinforced by contractors, supports our Army--to 
mobilize, deploy and sustain the operational forces--both at home and 
abroad.
    Soldiers from the Army National Guard and the Army Reserve are 
making a vital contribution. 150,000 Soldiers are mobilized and 
performing a diverse range of missions worldwide. In addition to their 
duties overseas, Soldiers from both the Guard and the Reserve supported 
civil authorities during disaster relief operations, such as those 
which occurred in Florida following four major hurricanes.
    On any given day, the Army National Guard has more than 10,000 
Soldiers on duty to protect key assets across the Nation, including Air 
Force bases. More than 24,000 Soldiers provided security for both the 
Democratic and Republican National Conventions and the Group of Eight 
Summit. National Guard Soldiers are also promoting stability in Iraq 
and in the Balkans, while performing complex, vital tasks such as U.S. 
Northern Command's ballistic missile defense mission. Guard Soldiers, 
operating in an unprecedented role, are organizing and training a 
multicomponent brigade in Colorado and a battalion in Alaska to execute 
the newly assigned mission.
    The Army Reserve, in addition to providing vital support for 
operations in Iraq and Afghanistan, is providing a wide range of 
response capabilities in the event of an attack on the homeland. This 
support includes almost 200 emergency preparedness liaison officers 
that interact with local communities. The Reserve has also fielded and 
trained 75 chemical decontamination platoons with more than 2,400 
Soldiers for mass casualty operations and more than 250 fully equipped 
hazardous material technicians to train with local first responders.

    ENABLING MISSION ACCOMPLISHMENT: FOUR OVERARCHING, INTERRELATED 
                               STRATEGIES

    To enable mission accomplishment, the Army is executing four 
overarching, interrelated strategies. These strategies seek to 
accomplish the Army's mission, consistent with the requirements 
prescribed by the National Security and Defense Strategies. These 
strategies are enabling the Army to continue to accomplish its mission 
today--in service to the Nation--while building and maintaining the 
capabilities to ensure the Army remains relevant and ready to the needs 
of the Combatant Commanders tomorrow. The Army is:
  --Providing Relevant and Ready Landpower in support of the Combat 
        Commanders and the Joint Force to sustain the full range of our 
        global commitments;
  --Training and Equipping our Soldiers to Serve as Warriors and 
        Growing Adaptive Leaders who are highly competent, flexible and 
        able to deal with the 21st century challenges they now 
        confront;
  --Attaining a Quality of Life and Well-Being for Our People that 
        match the quality of the service they provide; and
  --Providing Infrastructure to Enable the Force to Fulfill its 
        Strategic Roles by establishing and maintaining the 
        infrastructure and the information network required to develop, 
        to generate, to train and to sustain the force.
    These interrelated strategies serve to unify our collective 
efforts. Relevant, Ready Landpower depends on Soldiers who are well 
trained, equipped and led. Soldiers must be supported by high Standards 
for Quality of Life and modern infrastructure to Enable the Force to 
Fulfill its Strategic Roles and Missions.
    The Army's current posture, initiatives and progress are described 
within the context of these interrelated strategies. The initiatives 
demonstrate how the strategies are being executed and, in a broader 
sense, the resources required to execute them. Transformation is the 
central thread which runs through each of these strategies.
    Army transformation represents much more than improvements in 
equipment or warfighting methods. It is a multidimensional, 
interdependent process that involves:
  --Adapting new technologies and business operations;
  --Improving joint warfighting concepts and business processes;
  --Changing organizational structures; and
  --Developing leaders, people and culture that reflect the realities 
        of our operating environment.

    PROVIDING RELEVANT AND READY LANDPOWER TO SUPPORT THE COMBATANT 
                               COMMANDERS

Building a Campaign-Quality Force with Joint and Expeditionary 
        Capabilities
    ``Campaign qualities'' refers to the Army's ability not only to win 
decisively in the conduct of combat on land but also in its ability to 
sustain operations. The Army supports the Combatant Commanders and the 
Joint Force, other agencies and coalition partners, for as long as may 
be required.
    The Army continues to improve strategic responsiveness in two ways. 
First, the Army is becoming more expeditionary. We are improving our 
ability to deploy rapidly to conduct joint operations in austere 
theaters. Our enemies are elusive, adaptive and seek refuge in complex 
terrain, often harbored by failed or failing states. They fully 
leverage many of the same technologies we do such as the Internet and 
satellite communications. To improve on our joint warfighting 
proficiency we are embracing these conditions in deployment scenarios, 
training and education.
    Second, we have improved our review and resourcing procedures to 
anticipate and support the Integrated Priority Lists developed by the 
Combatant Commanders. Likewise, we are continuing to anticipate and 
respond with urgency to our commanders' needs.
Enhancing Joint Interdependence
    Each branch of the Armed Forces excels in a different domain--land, 
air, sea and space. Joint interdependence purposefully combines each 
Service's strengths, while minimizing their vulnerabilities. The Army 
is ensuring that our systems are fully complementary with the other 
Services.
    We are working aggressively with the other Services to improve the 
ability to dominate across the range of military operations. Our 
efforts embrace two characteristics of modern warfare. First, 
technology has extended the reach of modern weapon systems to the 
extent that collective force protection and anti-access techniques are 
necessary, even in facing irregular, asymmetric challenges. Second, the 
other Services' capabilities to dominate air, sea and space have direct 
impact on ground forces' ability to dominate on land.
    Our new modular formations will operate better in joint, 
multinational and interagency environments. These formations are 
designed to enhance joint concepts for battle command, fires and 
effects, logistics, force projection, intelligence, as well as air and 
missile defense. Our joint training opportunities will continue to 
improve as we work with Joint Forces Command and the other Services to 
develop a Joint National Training Capability. The planning, scenarios, 
connectivity and overall realism we are working to create will enhance 
critical joint operations skills for commanders and Soldiers.
    The ultimate test of joint initiatives is the Soldier. If a concept 
does not empower Soldiers, then we have to question its relevance. We 
are continuing our work to ensure that emerging capabilities and 
training requirements are created joint from the outset.
Resetting the Force
    Major combat and stability operations in Iraq and Afghanistan are 
placing tremendous demands on our equipment and our Soldiers. As a 
result, we must reset those units--by preparing Soldiers and their 
equipment for future missions--often as part of new modular formations. 
We use this opportunity to reset our units forward to the future--not 
to return them to their legacy designs.
    The major elements of our Reset Program include:
  --Providing considerable training and professional development for 
        Soldiers and leaders;
  --Bringing unit readiness back up to Army standards;
  --Reorganizing returning units into modular unit designs;
  --Retraining essential tasks to incorporate lessons learned from Iraq 
        and Afghanistan; and
  --Adjusting pre-positioned stocks of ammunition and equipment to 
        support the force.
    Resetting the force reflects how we care for our people and prepare 
units for upcoming training and deployments, while positioning the Army 
to be more responsive to emerging threats and contingencies. Today, the 
standard for Active and Reserve Component reset is six and twelve 
months, respectively. Through a focused effort, our reset processes are 
becoming considerably more efficient in terms of both time and 
resources. The Army's depot capability and efforts to partner with 
industry are critical to this effort.
    The Reset Program is designed to reverse the effects of combat 
stress on our equipment. Amidst the constant demands of war, our 
equipment is aging far more rapidly than projected. Because of higher 
operational tempo, rough desert environments and limited depot 
maintenance available in theater, our operational fleets are aging four 
years for every year in theater--dramatically shortening their life. 
Over 6,500 tracked and wheeled vehicles must be recapitalized this year 
alone. An additional 500 aviation systems must also be recapitalized. 
We will require additional funding to ``buy back'' some of this age 
through extensive recapitalization programs as well as replacing combat 
losses.
    The 3rd Armored Cavalry Regiment, the 3rd Infantry Division and 129 
of the more than 500 Army Reserve units (over 25 percent) have already 
completed the Reset Program. The 4th Infantry Division, the 2nd Light 
Cavalry Regiment, the 10th Mountain Division, the 1st Armored Division, 
the 76th Infantry Brigade (Indiana), the 30th Infantry Brigade (North 
Carolina), the 82nd Airborne Division and the 101st Airborne Division 
(Air Assault) are in various stages of the Reset Program.
    Resetting units is not a one-time event. It is required for all 
redeploying units. A window of vulnerability exists at the end of our 
current operations. We project that it will take close to two years 
after the return of forces from Iraq and Afghanistan to completely 
refit our forces and to reconstitute the equipment held in our five 
pre-positioned sets. Only through an appropriately funded Reset Program 
can we extend the life of the operational fleet to remain ready to 
support and sustain protracted conflict. Congress has greatly helped 
the Army by providing supplemental funding to meet this critical need. 
We will continue to require additional resources to complete this 
essential work.
Converting to a Brigade-Based, Modular Force
    Modular conversion will enable the Army to generate force packages 
optimized to meet the demands of a particular situation, without the 
overhead and support previously provided by higher commands. Modular 
units are tailored to meet the Combatant Commanders' requirements. 
These units, known as Brigade Combat Teams (BCTs), are more robust, 
require less augmentation and are standardized in design to increase 
interoperability. They are, in essence, a self-sufficient, stand-alone 
tactical force, consisting of 3,500 to 4,000 Soldiers, that is 
organized and trains the way it fights.
    Modular BCTs will serve as the building blocks of Army 
capabilities. There are three common organizational designs for ground 
BCTs and five for support brigades. The three designs include a heavy 
brigade with two armor-mechanized infantry battalions and an armed 
reconnaissance battalion; an infantry brigade with two infantry 
battalions and an armed reconnaissance and surveillance battalion; and 
a Stryker brigade with three Stryker battalions and a reconnaissance 
and surveillance battalion. Four of the five types of support brigades 
perform a single function each: aviation; fires; sustain; and 
battlefield surveillance. The fifth, maneuver enhancement brigade, is 
organized around a versatile core of supporting units that provide 
engineer, military police, air defense, chemical and signal 
capabilities.
    By creating a modular, brigade-based Army, we are creating forces 
that are more rapidly deployable and more capable of independent action 
than our current division-based organization. Their strategic 
responsiveness will be greatly improved. Modularity increases each 
unit's capability by building in the communications, liaison and 
logistics capabilities needed to permit greater operational autonomy 
and support the ability to conduct joint, multinational operations. 
These capabilities have previously been resident at much higher 
organizational echelons.
    We are also eliminating an entire echelon of command above the 
brigade headquarters, moving from three levels to two. Doing so removes 
redundancies in command structure and frees additional personnel spaces 
for use elsewhere. We are also eliminating several layers of logistics 
headquarters to increase responsiveness, further reduce redundancy and 
improve joint logistics integration.
    In addition, the new higher-level headquarters will become 
significantly more capable and versatile than comparable headquarters 
today. These modular headquarters will be able to command and control 
any combination of capabilities: Army, joint or coalition. Their 
design, training and mindset will allow them to serve as the core of 
joint or multinational task force headquarters, with significantly 
reduced personnel augmentation. This will relieve stress on the force 
by eliminating a continuing demand to fill headquarters manning 
requirements on a temporary basis.
    The Army is also transforming its Reserve Component structures to 
the new BCT organization. We are applying the lessons learned in Iraq 
and Afghanistan to better train, equip, support and generate these 
units from their home stations. The Army Reserve is developing Army 
Reserve Expeditionary Packages to better generate and distribute 
critical force capabilities. This rotational force model streamlines 
mobilization, training and equipping of units; enhances readiness; and 
improves predictability for Soldiers, families and civilian employers.
    Execution of this transformation is already well underway. As units 
redeploy from fighting, their conversion process begins. The 3rd 
Infantry Division and the 101st Airborne Division have already 
reorganized their existing brigades and created a new brigade each. The 
3rd Infantry Division is the first converted unit returning to Iraq. 
The 10th Mountain Division and the 4th Infantry Division will soon 
follow. By the end of 2006, we will have added 10 new brigades. 
Potentially, we will create five more in 2007. The Army National Guard 
is converting 34 BCTs or separate brigades to modular designs. At the 
end of our effort, the Army will have 77 and potentially 82 total BCTs.
Rebalancing Active and Reserve Component Units and Skills
    Our current Active and Reserve Component structure is not optimized 
for rapid deployment and sustainment. We are restructuring the force to 
increase units with special skills that are routinely in high demand by 
the Combatant Commanders, such as infantry, military police, 
transportation and civil affairs. Rather than requesting additional 
force increases, we are decreasing force structure in less demand. When 
completed, we will have restructured and rebalanced more than 100,000 
positions. We have already converted more than 34,000 of these 
positions.
    We are also placing more combat support and combat service support 
structure into the Active Component to improve deployability and the 
ability to sustain operations during the first 30 days of a 
contingency. This increase in high-demand sustainment units will reduce 
the requirements for immediate mobilization of Reserve Component units.
    The Army Reserve's Federal Reserve Restructuring Initiative is 
another program that is helping to resource units at higher levels by 
converting or eliminating current force structure and specialties in 
low demand to increase those in greatest demand. This initiative 
relieves stress on units in higher demand and adds depth to the Army's 
operational forces.
Stabilizing Soldiers and Units to Enhance Cohesion and Predictability
    To improve unit cohesion and readiness, while reducing both 
turbulence in units and uncertainty for families, we are changing how 
we man our units. Our objective is to keep Soldiers in units longer to 
reduce chronically high turnover rates of Soldiers and leaders, improve 
cohesion within units and increase training proficiency and overall 
combat readiness. Units that stay together longer build higher levels 
of teamwork, understand their duties and their equipment better, 
require less periodic retraining and tend to perform better during 
deployments. Fewer moves of Soldiers and their families also saves the 
Army money.
    These assignment policies, now being implemented, will also improve 
quality of life and predictability for Soldiers, families and civilian 
employers. Stabilizing Soldiers, which in certain cases, will be 
challenging to achieve in the near term, will allow their families to 
build deeper roots within their communities and enjoy better 
opportunities for spouse employment, continuity of healthcare, 
schooling and other benefits. This program also reduces the chance of a 
Soldier moving from a unit that recently redeployed to a unit preparing 
to deploy. The Army gains more cohesive, more experienced units while 
Soldiers and families benefit from greater predictability, stability 
and access to stronger support networks that enhance well-being.
    The 172nd Separate Infantry Brigade, in Alaska, was the first unit 
to implement unit stability. The Army will man four more brigades using 
this method this year. The Army will continue to implement 
stabilization policies as units redeploy to their home stations.
Leveraging Army Science and Technology Programs
    The focus of Army science and technology is to accelerate maturing 
technologies with promising capabilities into the Current Force faster 
than expected. These technologies include:
  --Networked battle command and logistics systems;
  --Networked precision missiles and gun-launched munitions; and
  --Improved intelligence sensors, active and passive protection 
        systems, unmanned ground and air systems and low-cost 
        multispectral sensors.
    Many of these technologies are already being fielded to our front-
line Soldiers to dramatically improve their capabilities. Specific 
science and technology initiatives will improve existing capabilities 
to:
  --Detect and neutralize mines and improvised explosive devices 
        (IEDs);
  --Identify friendly forces in combat;
  --Develop medical technology for self-diagnosis and treatment;
  --Identify hostile fire indicators; and
  --Enhance survivability, training systems and robotics.
    We are working to harness the full potential of our science and 
technology establishment to improve the capability of our forces to 
defeat opponents in complex environments, which include urban terrain, 
triple-canopy jungle conditions, desert terrain, mountainous 
environments and caves.
Spiraling Future Combat Systems Capabilities into the Current Force
    Our largest, most promising, science and technology investment 
remains the pursuit of Future Combat Systems (FCS) technologies. The 
FCS-equipped force will add crucial capabilities to the Future Force to 
achieve Department of Defense transformation goals. FCS is not a 
platform. It is a family of 18 networked air and ground-based maneuver, 
maneuver support and sustainment systems.
    Networked FCS capabilities will provide unprecedented levels of 
situational awareness by integrating communications, sensors, battle 
command systems as well as manned and unmanned reconnaissance and 
surveillance systems. FCS-equipped units, operating as a system of 
systems, will be more deployable and survivable than our current units 
and will enhance joint capabilities. They will also be better suited to 
conduct immediate operations, over extremely long distances, with other 
members of the Joint Force, to produce strategic effects.
    In July 2004, the Army restructured the FCS program to accelerate 
the introduction of battle command, the Army network and other crucial 
capabilities to the Current Force, while we continue to build our 
initial FCS-equipped BCT. Improvements to the Army network, known as 
LandWarNet, are focused on applying lessons learned from Iraq and 
Afghanistan to improve our forces' ability to see first, understand 
first, act first and finish decisively. LandWarNet, designed to support 
all Joint communications architectures, will apply the most mature 
technologies commercially available and support the fielding of the 
Joint Network Node, the Warfighter Information Network and the Joint 
Tactical Radio System.
    The Network provides the backbone for introducing the key FCS 
capabilities identified to be fielded early which include:
  --Unattended ground sensors;
  --Intelligent munitions;
  --Non-line-of-sight launch systems and cannon artillery; and
  --A range of unmanned aerial platforms.
    These systems provide greater target detection, force protection 
and precision-attack capabilities than we have today. Specific programs 
will enhance protection from enemy mortars, artillery and rockets and 
improve Soldiers' ability to communicate in urban and other complex 
settings. The acceleration of selective FCS technologies is providing 
immediate solutions to critical problems our Soldiers face today. The 
technologies we spiral into the Current Force today, coupled with the 
doctrinal and organizational concepts being developed to enable them, 
will also help to improve the decisions we make concerning the Future 
Force.
Restructuring Army Aviation
    The Army is also transforming its aviation forces to develop 
modular, capabilities-based forces optimized to operate in a more joint 
environment. This past year, the Army cancelled the Comanche Program 
and redirected its resources into other Army aviation programs. The 
technologies developed by the Comanche Program are being used in our 
current Army aviation platforms.
    The reallocation of funding allowed the Army to modularize, 
modernize and improve its force protection capabilities. The Army is 
accelerating aircrew protection and fielding Aircraft Survivability 
Equipment. Our modular structure reduces the number of brigade designs 
from seven to two. Over the next six years, we are purchasing more than 
800 new aircraft that include 108 attack, 365 utility and 368 armed 
reconnaissance helicopters. We are also modernizing an additional 300 
helicopters. These initiatives will enable the Army to extend the life 
of its critical aviation assets beyond 2020. This will greatly reduce 
the age of our aviation fleet, improve readiness rates and reduce 
maintenance costs.
    As a result of the Comanche termination decision, the Army will:
  --Accelerate the modernization of Reserve Component aviation;
  --Accelerate the Unmanned Aerial Vehicle, Light Utility Helicopter 
        and Armed Reconnaissance Helicopter programs;
  --Focus additional resources on the Future Cargo Aircraft program 
        designed to improve intra-theater lift capacity;
  --Develop a common cockpit for cargo and utility aircraft;
  --Field improved deployability and sustainment kits; and
  --Purchase and install advanced avionics packages.
    This restructuring will result in dramatic Army-wide efficiencies 
by reducing training costs and standardizing both maintenance and 
logistics requirements.

   TRAINING AND EQUIPPING SOLDIERS TO SERVE AS WARRIORS AND GROWING 
                            ADAPTIVE LEADERS

Reinforcing Our Centerpiece: Soldiers as Warriors
    Human skills may change as technology and warfare demand greater 
versatility. No matter how much the tools of warfare improve, it is the 
Soldier who must exploit these tools to accomplish his mission. The 
Soldier will remain the ultimate combination of sensor and shooter.
    The Army prepares every Soldier to be a Warrior by replicating, to 
the maximum degree possible, the stark realities of combat to condition 
Soldiers to react instinctively. We have changed our training systems 
to reflect the realities of war and to better prepare our Soldiers. Our 
goal is to build Soldiers' confidence in themselves, their equipment, 
their leaders and their fellow Soldiers.
    The biggest change is in our initial military training for new 
Soldiers. Initial-entry Soldiers are now being prepared to operate in 
an environment that knows no boundaries. They are receiving 
substantially more marksmanship training, hand-to-hand combat 
instruction, an increased emphasis on physical fitness, live-fire 
convoy training and more focus on skills Soldiers need to operate and 
survive in combat.
    Our Soldiers are smart, competent and totally dedicated to 
defending the Nation. All are guided by Army Values (Figure 2). They 
commit to live by the ideals contained in The Soldier's Creed (Figure 
3). This creed captures the Warrior Ethos and outlines the professional 
attitudes and beliefs desired of American Soldiers.

    ----------------------------------------------------------------

                              Army Values
    Loyalty: Bear true faith and allegiance to the U.S. Constitution, 
the Army, your unit, and other soldiers.
    Duty: Fulfill your obligations.
    Respect: Treat people as they should be treated.
    Selfless-Service: Put the welfare of the Nation, the Army, and your 
subordinates before your own.
    Honor: Live up to all the Army values.
    Integrity: Do what's right, legally and morally.
    Personal Courage: Face fear, danger, or adversity (physical or 
moral).

    ----------------------------------------------------------------

                                Figure 2

    ----------------------------------------------------------------

                          The Soldier's Creed
    I am an American soldier.
    I am a warrior and a member of a team. I serve the people of the 
United States and live the Army values.
    I will always place the mission first.
    I will never accept defeat.
    I will never quit.
    I will never leave a fallen comrade.
    I am disciplined, physically and mentally tough, trained and 
proficient in my warrior tasks and drills. I always maintain my arms, 
my equipment and myself.
    I am an expert and I am a professional.
    I stand ready to deploy, engage and destroy the enemies of the 
United States of America in close combat.
    I am a guardian of freedom and the American way of life.
    I am an American soldier.

    ----------------------------------------------------------------

                                Figure 3

    Mental and physical toughness underpin the beliefs embraced in the 
Soldier's Creed and must be developed within all Soldiers--without 
regard to their specialty, their unit or their location on the 
battlefield. The Warrior Ethos engenders the refusal to accept failure, 
the conviction that military service is much more than just another 
job, and the unfailing commitment to be victorious. It defines who 
Soldiers are and what Soldiers must do. It is derived from our long-
standing Army Values and reinforces a personal commitment to service.
    Soldiers join the Army to serve. Our Soldiers know that their 
service is required to secure our Nation's freedoms and to maintain the 
American way of life. We will never take for granted the personal 
sacrifices our Soldiers and their families endure, which include facing 
the hardship of war, extended periods of separation and, in the case of 
our Reserve Component Soldiers, concerns over continued employment and 
advancement in their civilian jobs.
Recruiting and Retaining Soldiers
    The Army continues to attract highly qualified and motivated young 
people to serve. To maintain our high-quality Army, we must recruit and 
retain good Soldiers. We are proud of the men and women who come into 
the Armed Forces to make a difference, to be part of something larger 
than themselves and to ``give something back'' to their country.
    In 2004, we met our Active and Reserve recruiting goals. The Army 
National Guard fell just short of its overall recruiting goal. While 
the recruiting environment is a challenging one, we have not lowered 
our standards. Our reenlistment rates reflect a positive outlook toward 
continued service. In 2004, the Active Component far exceeded its 
retention goal (107 percent) while the Army Reserve and Army National 
Guard achieved 99 percent of their goals.
    Our continued success is a testament to the citizen-patriots of 
America who enlist and reenlist in our ranks, yet we know that our 
operational situation could negatively impact recruiting and retention. 
We are therefore resourcing several incentives to help attract and 
retain the right people. We continue to offer options for continued 
service while meeting Soldiers' individual goals. Moreover, we continue 
to adjust policies and incentives to access new Soldiers, reenlist 
current Soldiers and reduce unit attrition rates. This ensures that our 
Army is manned with top-quality people and capitalizes on investments 
in training, education and mentoring.
    In light of the challenges we foresee, we will need the best minds 
within the Army, Congress, industry and academia to create the 
environment and to devise and implement strategies to sustain our ranks 
with the high-quality men and women that are our centerpiece.
Equipping Our Soldiers
    Our Soldiers rely on and deserve the very best protection and 
equipment we can provide. To equip them for the challenges they face, 
one of the most critical issues we are addressing is vehicle armor. 
With the support of Congress, acting in full partnership with industry, 
the Army has dramatically increased the pace of both production and 
fielding. By March 2005, the current requirement of approximately 
32,500 tactical wheeled vehicles in the Iraq and Afghanistan theaters 
will be protected either with integrated, add-on or locally fabricated 
armor. By June 2005, we will have replaced all fabricated armor with 
add-on armor. This rapid delivery schedule has increased the number of 
armored vehicles in theater one-hundred-fold since August 2003.
    Figure 4 lists eight key Soldier protection areas ranging from 
providing body armor for Soldiers to armor for HMMWVs, trucks and other 
key vehicles. Our enemies will continue to adapt their tactics; we will 
remain steadfast in our commitment to protect our Soldiers by meeting 
and exceeding theater requirements in all areas.
    In addition to protecting Soldiers, the Army is working 
aggressively to provide them the best possible equipment. The Army has 
established two programs to anticipate Soldiers' needs and respond 
quickly to those identified by commanders. Through emergency 
supplemental appropriations, Congress has been particularly helpful in 
funding these vital programs.

                   EQUIPPING OUR SOLDIERS: SOLDIER PROTECTION PROGRAMS IN IRAQ AND AFGHANISTAN
----------------------------------------------------------------------------------------------------------------
               Area                       Where we were August 2003             Where we are in January 2005
----------------------------------------------------------------------------------------------------------------
Soldier body armor...............  Estimated 109,000 soldiers equipped;    All soldiers and DOD civilians in
                                    Deltoid Auxiliary Protectors not        theater equipped; plus 60,000
                                    fielded.                                Deltoid Auxiliary Protectors issued
Up-armored HMMWVs................  Approximately 250 in theater..........  More than 6,400 HMMWVs fielded
Tactical wheeled vehicle add-on    Developing plan to equip more than      More than 19,000 vehicles in theater
 armor kits.                        10,000 vehicles.                        have add-on armor kits
Armored security vehicles (ASV)..  ASV program cancelled during the 2003   82 ASVs in theater; total requirement
                                    budget and programming decision.        of 872 approved
Bradley reactive armor tiles       140 vehicle sets delivered............  592 sets delivered; acceleration plan
 (BRAT).                                                                    in execution
Counter-IED device...............  Minimal capability in theater.........  1,496 systems in theater
Tactical and small unmanned        Two systems deployed to theater;        128 systems deployed; requirement
 aerial vehicle (UAV).              requirement is 194.                     remains 194
Aircraft survivability equipment   No fixed wing ASE; in process of        All theater aircraft upgraded with
 (ASE).                             upgrading CH-47 Chinook and UH-60       basic ASE. In process of upgrading
                                    Blackhawk aircraft with basic ASE.      to an advanced common missile
                                                                            warning system/improved
                                                                            countermeasure munitions dispenser
                                                                            (CMWS/ICMD)
----------------------------------------------------------------------------------------------------------------


                                Figure 4

    The Rapid Fielding Initiative (RFI) is designed to fill Soldier 
equipment shortfalls by quickly fielding commercial off-the-shelf 
technology rather than waiting for standard acquisition programs to 
address these shortages. RFI is increasing Soldier capabilities at an 
unprecedented pace. Since September 2002, we have equipped 36 Brigade 
Combat Teams. In 2004 alone, the Army equipped more than 180,000 
Soldiers.
    We are equipping deploying National Guard, Army Reserve and Active 
Component Soldiers to a common standard. Current plans call for 
equipping about 258,000 Soldiers in 2005 and the entire operational 
force by September 2007. We are using fielding teams at home stations 
and in theater to ensure that every Soldier receives 49 items including 
body armor, advanced ballistic helmets, hydration systems, ballistic 
goggles, kneepads, elbow pads and other items. The equipment being 
issued to units reflects the lessons learned during three years of 
fighting in complex environments, including optical sights for weapons, 
grappling hooks, door rams and fiber optic viewers to support Soldiers' 
ability to observe from protected positions.
    The Rapid Equipping Force (REF) typically uses commercial and 
field-engineered solutions to quickly meet operational needs. REF has 
executed numerous initiatives to support the Army's Improvised 
Explosive Device (IED) Task Force and the requirements of the other 
Services. REF solutions meet immediate needs and are then assessed for 
wider fielding and incorporation into standard acquisition processes.
    REF teams in Afghanistan and Iraq interact with commanders at 
brigade and battalion levels. Equipment provided ranges from lock shims 
to open padlocks nondestructively to far more sophisticated, remote-
controlled reconnaissance devices to explore caves, tunnels, wells and 
other confined spaces without endangering Soldiers. REF also provides 
predeployment and in-theater training on the technological solutions it 
provides.
Training Soldiers and Growing Adaptive Leaders
    A balance of training and education is required to prepare Soldiers 
to perform their duties. Training prepares Soldiers and leaders to 
operate in relatively certain conditions, focusing on ``what to 
think.'' Education prepares Soldiers and leaders to operate in 
uncertain conditions, focusing more on ``how to think.'' We are 
developing more rigorous, stressful training scenarios to prepare 
leaders to be more comfortable while operating amidst uncertainty.
    Our programs develop leaders with the right mix of unit 
experiences, training and education needed to adapt to the rigors and 
challenges of war. We continue to adjust training, across the Army, to 
reflect the joint operating environment by incorporating the lessons 
learned from current operations. We are also implementing the National 
Security Personnel System, an innovative new approach to civilian 
personnel management and leader identification. This will help to 
transform our management and development of critical Army civilians and 
achieve our desired objectives for the overall mindset and culture of 
the force.
    In light of the challenges posed by the 21st century security 
environment, the Army is moving from an ``alert-train-deploy'' training 
model to a ``train-alert-deploy-employ'' model. We recognize that, in 
an increasing number of situations, we will have little time to train 
prior to deploying. For this reason, Army transformation is focused on 
providing key training and education to increase readiness for no-
notice expeditionary operations.
    We have incorporated lessons learned into all of our systems and 
training scenarios at our mobilization stations and combat training 
centers. This adaptation is having an immediate, tangible impact on the 
streets of Iraq, the battlefields of Afghanistan and in other places 
around the world. Other key improvements include:
  --Increased funding to adapt ranges and facilities to reflect likely 
        combat situations;
  --Adjusted Defense Language Institute requirements to meet immediate 
        operational needs for Arabic translators;
  --Increased ammunition allocations to improve every Soldier's live-
        fire weapons training; and
  --Required live-fire training to ensure all Soldiers and units 
        develop proficiency in the key battle drills needed to conduct 
        safe convoy operations and other tasks.
    To ensure our leaders learn from our veterans, we have implemented 
formal assignment guidelines to make best use of Soldier and leader 
experiences. We are assigning veterans to key joint billets as well as 
to key instructor and doctrine development positions. In addition, our 
most experienced officers and noncommissioned officers will return to 
operational units to apply their experiences in leading our fighting 
units.
    The Army remains committed to the education of our leaders even 
during this period of war. In fact, we are more aggressively pursuing 
leaders' education now than during any other period of conflict in our 
history. We are educating our leaders to expand their minds, increase 
their cultural awareness and to promote a ``lifetime of learning.'' 
These initiatives to our professional military education are based on 
three pillars--institutional education, self-study and experience. The 
synergy created by the combination of these three forms of education 
provides our leaders with enhanced capabilities to adapt to an 
increasingly ambiguous security environment.
    To facilitate excellence in our leaders at every level, Joint 
Professional Military Education (JPME) is embedded throughout Army 
learning. Joint awareness is introduced in precommissioning education 
and training of all officers, as well as the mid-level noncommissioned 
officer courses. Our training and education systems further emphasize a 
more in-depth understanding of joint principles and concepts beginning 
at the Captain/Major level for officers and the Sergeant Major level 
for our noncommissioned officers. Our senior-level JPME programs 
develop our civilian leaders and further educate military leaders on 
the joint, multinational and interagency processes. This education is 
reinforced by experiences obtained in joint assignments. This increased 
understanding of the capabilities of other Services and external 
organizations significantly improves our leaders' ability to support 
the Joint Force in achieving national objectives.
    Our military education programs teach our leaders critical thinking 
skills in ``how to think'' versus ``what to think.'' Supported by Army 
Values, the Warrior Ethos and the experiences obtained through training 
and combat, Army leaders at all levels continue to hone the skills 
required to win in the complex environment of the 21st century.
Enhancing the Combat Training Centers
    The Combat Training Center (CTC) Program provides highly realistic 
training to prepare Soldiers and leaders to execute our doctrine for 
operating with other Services, the military forces of other nations and 
other agencies of the U.S. Government. This training is essential as we 
become increasingly more interdependent with other Services, allies and 
the interagency community. The training centers include the Battle 
Command Training Program at Fort Leavenworth, Kansas; the Joint 
Readiness Training Center at Fort Polk, Louisiana; the National 
Training Center at Fort Irwin, California; and the Combat Maneuver 
Training Center at Hohenfels, Germany.
    These training centers are agents of change. Training scenarios are 
constantly updated to reflect changing battlefield conditions and 
incorporate lessons learned. In all scenarios, Soldiers and leaders are 
presented with complex, cross-cultural challenges by large numbers of 
role players who act as both combatants and foreign citizens.
    Additionally, each of the training centers is building extensive 
urban combat training facilities, as well as cave and tunnel complexes, 
to simulate wartime environments. As the Army transforms to a modular 
force, the CTCs will improve their ability to export a CTC-like 
training experience to home stations to reduce deployment requirements 
for training. The CTCs will continue to adapt to meet the training 
requirements to best serve a modularized Army.

 ATTAINING A QUALITY OF LIFE AND WELL-BEING FOR OUR PEOPLE THAT MATCH 
                      THE QUALITY OF THEIR SERVICE

Maintaining the Viability of the All-Volunteer Force
    The United States Army owes its success to the All-Volunteer Force, 
which provides the high-quality, versatile young Americans we depend on 
to serve as Soldiers. This is the first time in our history in which 
the Nation has tested the All-Volunteer Force during a prolonged war. 
The quality-of-life programs that support our Soldiers and their 
families, as well as our civilian workforce, will play a major role in 
maintaining the overall viability of this concept. Determining what 
kind of All-Volunteer Army we need and developing the environment, 
compensation, education and other incentives to keep it appropriately 
manned may well be the greatest strategic challenge we face.
    Maintaining the viability of this force will depend on several 
factors. First, American citizens must remain convinced that the Army 
is a great place to serve. While Soldiers perform their duties to meet 
Army expectations, the Army, in turn, must provide an environment in 
which individual aspirations can be met. To concentrate on the 
challenges they face, Soldiers must understand the frequency and cycle 
of projected deployments. Likewise, they must believe that their 
families will be provided for in their absence. Similarly, programs to 
encourage civilian employer support to Reserve Component Soldiers, who 
comprise more than half the Army force, are required to recruit and 
retain Reserve Component Soldiers.
    The Army is executing a full, diverse range of programs and 
activities that will help us to attract and retain the quality people 
we need to maintain a volunteer force during a time of war. It is of 
national interest to retain these dedicated Soldiers to sustain the 
overall viability of our All-Volunteer Army. The support of Congress 
and the American people is vital to this effort.
Caring for Army Families and Soldiers
    Army Well-Being programs contribute to the Army's ability to 
provide trained and ready forces. These programs enable leaders to care 
for their people while accomplishing the missions assigned to their 
units. Providing for the well-being of Soldiers' families is a 
fundamental leadership imperative that requires adequate support and 
resources. We are pursuing numerous programs designed to improve spouse 
employment, ease the transitioning of high school students during moves 
and extend in-state college tuition rates to military families. We are 
also examining how best to expand support for veterans and National 
Guard and Army Reserve Soldiers. For example, TRICARE policies now 
allow for the eligibility of National Guard and Reserve Soldiers and 
their families.
    Housing programs are another way in which we manifest our care for 
Soldiers and their families. We continue to focus considerable effort 
on our Residential Communities Initiative and Barracks Modernization 
Program. Congressional support for these initiatives has had a dramatic 
effect on improving the quality of life for our Soldiers and their 
families. The Army has already privatized more than 50,000 housing 
units and will eventually privatize over 32,000 more.
    Programs like the Residential Communities Initiative, when 
reinforced with other ongoing programs, will greatly help in our 
ability to retain Soldiers and families. These programs include:
  --Improvements in healthcare, child care, youth programs, schools, 
        facilities and other well-being initiatives; and
  --Investments in new barracks for Soldiers without families, new 
        centers for Reserve Component units and significant 
        improvements in training ranges.
    We support our Soldiers who have become casualties during war 
through the Disabled Soldier Support System (DS\3\). This initiative 
provides our Army's most severely disabled Soldiers and their families 
with a system of follow-up support beyond their transition from 
military service. DS\3\ provides support to families during the initial 
casualty notification, tracks the Soldier's return trip home and 
provides appropriate assistance in coordinating pertinent local, 
federal and national agencies. For the Soldier, this support includes 
rehabilitation, support at the medical and physical evaluation boards 
(which embrace unprecedented ways for severely injured Soldiers to 
continue to serve) and integration with veterans affairs organizations, 
as required.
    The Army will continue to look for ways to improve on our DS\3\ 
initiative and deliver on our unfailing obligation to care for our 
people. To monitor and to report on the care being afforded to our 
Soldiers in the DS\3\ program, we have enlisted the support of our 
voluntary Civilian Aides to the Secretary of the Army. These aides are 
notified when disabled Soldiers are released from active service. They 
support the transition of these Soldiers to civilian life and work 
closely with civic leaders to assist in job placement, continued 
rehabilitation, education and other services to benefit these Soldiers 
and their families.
    The resilience of the young men and women and their spouses, who 
have sacrificed so that others might have a brighter future, is 
humbling and exemplary. We will honor their service and sacrifice by 
remaining steadfast in our support to them.

 PROVIDING INFRASTRUCTURE TO ENABLE THE FORCE TO FULFILL ITS STRATEGIC 
                           ROLES AND MISSIONS

Business Transformation
    Transformation of our business, resourcing and acquisition 
processes promotes the long-term health of the Army. It will free human 
and financial resources that can be better applied towards 
accomplishing our warfighting requirements and accelerating other 
aspects of transformation.
    We are working aggressively to streamline our business processes 
and practices by taking advantage of industry innovation through 
commercial off-the-shelf (COTS) products, outsourcing and partnering. 
We are also adopting electronic business operations and a portfolio 
management approach to information technology requirements, while 
continuing to pursue U.S. Government guidelines for competitive 
sourcing. These reform initiatives will remain congruent with other 
Department of Defense transformation initiatives, such as the Defense 
Integrated Military Human Resources System.
    One key business initiative is the General Fund Enterprise Business 
System, an integrated COTS system that will replace the Army's 30-year-
old accounting systems. The objective is to meet legislative 
requirements, while helping the Army to obtain an unqualified audit 
opinion of its annual financial statements.
    Additionally, the Army Review and Resourcing Board is helping to 
validate and resource requirements, to accelerate the ``requirements to 
solutions'' cycle time and to make recommendations to the leadership on 
resource adjustments. The Army intends to make our processes more 
flexible, transparent and responsive to both immediate and future 
requirements of the Joint Force.
    To meet the needs of the Future Force and to improve both 
effectiveness and efficiency, we are also adapting the Institutional 
Army. The Institutional Army helps to accomplish our Title 10 functions 
to recruit and train our Soldiers, generate and sustain the force and 
other Services with materiel and equipment, and prepare the force for 
the future through doctrine development, research and experimentation. 
It represents about one-third of the Army in the form of Active, 
National Guard, Army Reserve units, Department of the Army civilians 
and contractors. It includes Headquarters, Department of the Army; 
Training and Doctrine Command; Forces Command; Army Medical Command; 
Army Materiel Command; Army Corps of Engineers and numerous other 
organizations.
    The idea of adapting the Institutional Army is not new. Driven by 
strategic, operational and fiscal necessities of war, the time to do it 
is now. The Army Campaign Plan communicates the scope of adaptation 
that is required to:
  --Identify and divest ourselves of functions no longer relevant to 
        current missions;
  --Develop a joint, interdependent, end-to-end logistics structure 
        that integrates a responsive civil-military sustaining base to 
        better meet Army operational requirements;
  --Foster a culture of innovation to significantly increase 
        institutional agility; and
  --Convert military positions to civilian positions, where 
        appropriate, to improve the availability of Soldiers for 
        deploying units.
    We are incorporating these objectives into a comprehensive plan for 
adapting the Institutional Army, process-by-process, structure-by-
structure, over a multiyear period. This plan will provide context, 
direction and a general vector to support the immediate adaptation of 
the Institutional Army to reflect our wartime focus. The Army will 
develop this plan during this fiscal year.
Maintaining Our Installations as ``Flagships of Readiness''
    Our installations are an essential component in maintaining the 
premier Army in the world. Our installations are the platforms from 
which we rapidly mobilize and deploy military power and sustain our 
military families. Installations also play a vital role in training the 
force and reconstituting it upon return from deployment. They also 
provide deployed commanders with the ability to reach back for 
information and other support through advanced communications 
technology.
    To enable the creation of new modular brigades, the Army has 
greatly accelerated the normal planning, programming and budgeting 
cycle, requiring installation commanders to find innovative solutions 
to support additional Soldiers training and living on our 
installations. The Army is using existing facilities when available and 
making renovations and modifications, where feasible. Often, we must 
acquire temporary structures to satisfy facility shortfalls. We are 
also funding site preparation work, permanent utility infrastructure 
and renovation projects. Each installation has unique requirements to 
support and sustain the Army's new modular force structure.
    The condition of our installation infrastructure, such as vehicle 
maintenance and physical fitness facilities, continues to present 
challenges due to the compounding effects of many decades of 
underfunding. Investment in the installations that are homes to our 
Soldiers and families, and the workplace for our civilians, will 
continue to play a vital role in attracting and retaining volunteers to 
serve.
Improving Global Force Posture
    The Army is adjusting its global posture to meet the needs of 
Combatant Commanders. The objective is to increase strategic 
responsiveness while decreasing its overseas footprint and exposure. As 
part of a larger Department of Defense program, these adjustments will 
have a fundamental impact on our facilities and our ability to surge 
forces when needed. In place of traditional overseas bases with 
extensive infrastructure, we intend to use smaller forward operating 
bases with pre-positioned equipment and rotational presence of 
personnel.
    Parallel with the Base Realignment and Closure process, the Army is 
identifying critical joint power projection installations to support 
the mobilization, demobilization and rapid deployment of Army forces. 
We are also enhancing force reception and deployed logistics 
capabilities to quickly respond to unforeseen contingencies.
    To complete the transition to an expeditionary force, we will 
reposition ground forces to meet emerging challenges and adjust our 
permanent overseas presence to a unit-rotation model that is 
synchronized with force generation initiatives. In Europe, both heavy 
divisions will return to the United States. They are being replaced by 
expanding the airborne brigade in Italy, enhancing the Army's training 
center in Germany and establishing a possible rotational presence in 
Eastern Europe. We will maintain a rotational presence in the Middle 
East while eliminating many of our permanent bases. In the Pacific, we 
will maintain smaller forward-presence forces, but will station more 
agile and expeditionary forces capable of rapid response at power 
projection bases. Finally, we will leverage our improved readiness to 
increase our rotational training presence among our security partners.
LandWarNet
    LandWarNet is the Army's portion of the Department of Defense's 
Global Information Grid. LandWarNet, a combination of infrastructure 
and services, moves information through a seamless network and enables 
the management of warfighting and business information.
    Operations in Iraq and Afghanistan highlight the power of a highly 
mobile communications network and network-centric operations. A 
network-centric force has dramatically improved situational awareness 
and quality of information which, in turn, leads to dramatic 
improvements in military effectiveness across the range of vital 
functions including operational cycle times, command and control, force 
application, force protection and logistics. These improvements combine 
to create unprecedented levels of flexibility and agility.
    The 1st Cavalry Division and the 1st Armored Division have 
demonstrated this agility in their operations. Using the power of 
networked communications, they have been able to move information at 
unprecedented rates which has shortened the time required to conduct 
tactical and operational updates. This has accelerated the speed of 
command by enabling faster planning and execution of operations. Using 
this technology, Stryker units were able to move from northern 
locations to the south and fight two battles within 48 hours, 
demonstrating a significant improvement in both flexibility and 
agility.
    Equipping Soldiers with world-class communications capabilities is 
also improving the ability to provide logistical support. For example, 
the 3rd Infantry Division was fielded, prior to their redeployment to 
Iraq this year, with the Joint Network Transport Capability-Spiral, 
which includes the Joint Network Node, Trojan Spirit and the Combat 
Service Support Very Small Aperture Terminal. These systems provide 
versatile satellite communications that improve the ability to sustain 
operations over extended distances in complex terrain by reducing gaps 
in current capability. Three other divisions will receive these systems 
this year. We are also fielding commercial solutions available now to 
expand communications capabilities and to increase self-sufficiency.
    The Network will also help to provide ``actionable intelligence'' 
for commanders and Soldiers in a more timely manner than today. The 
Network will improve situational awareness and the quality and speed of 
combat decision making. It will leverage the Army's initiatives to 
expand human intelligence and improve analytical capabilities for 
deployed forces. Moreover, it will enable improvements in collaboration 
and analysis, while making it possible to share intelligence products 
more readily with the commanders and Soldiers that have the greatest 
need for them.
    Accelerating the fielding of Battle Command capabilities to 
establish a more capable and reliable network will support the 
Department of Defense goal to bring the joint community closer to a 
common operational picture. LandWarNet will integrate joint maneuver 
forces, joint fires and actionable intelligence to produce far greater 
capability and responsiveness. The combined effect of our Battle 
Command and Network programs will be to improve combat capability 
today, while enhancing the relevance and readiness of the Future Force.

     BALANCING RISK: THE TENSION BETWEEN CURRENT AND FUTURE DEMANDS

    To reduce the risk associated with operations in support of the 
Global War on Terror, in the aftermath of September 11, we have made 
numerous decisions to allocate resources to immediate, urgent wartime 
needs. These decisions, made prior to and during 2004, have better 
enabled our Soldiers to accomplish their missions. Our challenge, in 
the months and years ahead, will be to establish a balance between 
current and future investments that will keep risk at moderate levels 
as we support the execution of the full scope of our global commitments 
while preparing for future challenges.
``Buying Back'' Capabilities
    Prior to September 11, the Army's strategic investment decisions 
were based on a prevailing view that, in the absence of a peer 
competitor, risk could be accepted in numerous areas of procurement for 
the Current Force to facilitate substantial investment in the Future 
Force.
    In the aftermath of September 11, Army requirements changed 
dramatically. Army decisions made during 2004 reflect the need to ``buy 
back'' many of the capabilities, forsaken in recent years, now required 
to support the Combatant Commanders. Buying back these capabilities has 
reduced operational risk, improved force protection and supports 
evolving priorities. While these decisions have produced dramatic, 
immediate improvements for our Soldiers and for our capabilities in 
Iraq and Afghanistan, the costs, in excess of $6.5 billion, have been 
substantial.
Major Decisions in 2004
    During 2004, the Army restructured or cancelled 126 programs to 
free resources for more pressing wartime requirements. The most 
significant of these decisions are described below.
  --In May 2004, as highlighted earlier, the Army cancelled the 
        Comanche Program. We are reinvesting the $14.6 billion in 
        savings into pressing Army aviation requirements and correcting 
        many chronic equipment shortfalls.
  --In July 2004, the Army restructured the Future Combat Systems (FCS) 
        Program to accelerate the introduction of crucial new 
        capabilities to the Current Force. By accelerating FCS, the 
        Army will be able to spiral promising technologies into the 
        hands of Soldiers and leaders to give them the tools they need 
        now.
    Other decisions made by Congress or the Department of Defense acted 
to significantly enhance the Army's capability to accomplish its 
assigned missions.
  --In October 2004, the Army was authorized by the National Defense 
        Authorization Act to raise Active Component end strength by 
        20,000 Soldiers and, between 2005 and 2009, increase by an 
        additional 10,000 Soldiers. This increase is intended to 
        provide the personnel strength needed to implement our modular 
        conversion and rebalancing initiatives. The increase in end 
        strength also expands the potential options for operational 
        tour lengths, which we are fully evaluating in the larger 
        context of the Army's ability to generate the combat and 
        sustainment forces needed to support operations in multiple 
        theaters of war.
  --During fiscal year 2004, in addition to supporting these critical 
        decisions, the Department of Defense and the other Services 
        supported Army operations and helped to maintain 
        transformational momentum, by reprogramming significant 
        resources to Army accounts. The Army also received more than 
        $15.4 billion of a $25 billion contingency reserve fund 
        appropriated by Congress.
Meeting Today's Demands While Preparing for Tomorrow
    We have done much to mitigate risk, in all dimensions, but 
particularly in operational risk. Creating modular units; fielding of 
Stryker Brigade Combat Teams; restructuring of Army Aviation following 
the cancellation of the Comanche Program; establishing the Reset 
Program and initiating rapid fielding; and rapid equipping programs are 
all helping to meet demands for Army forces, while reducing levels of 
operational risk.
    Due to dramatically increased operational tempo, the operational 
fleet's condition and age are affecting current equipment readiness. 
Increased mileage and flight hours, coupled with the severe 
environmental conditions encountered in Iraq and Afghanistan, have 
placed greater stress on the fleet than expected. The Army will require 
assistance to address the risk. As part of the Reset Program, increased 
repair, recapitalization and replacement of systems will be required to 
ensure our fleet is maintained and fully capable.
    Numerous initiatives are focused to reduce force management risk. 
These include:
  --Establishing a larger pool of rotational forces through modularity;
  --Rebalancing the Active and Reserve Components;
  --Eliminating redundant capabilities;
  --Executing a comprehensive military-to-civilian conversion program;
  --Stabilizing the force;
  --Enhancing recruiting and retention by adding recruiters and 
        creating special incentives; and
  --Increasing the personnel strength of the operational Army.
    In addition, congressional approval of increases in Active 
Component personnel strength is helping the Army to man its 
transforming modular Brigade Combat Teams now undergoing activation or 
conversion.
    Our Army is focusing resources on spiraling higher payoff 
technologies into the Current Force to minimize future risks. Our 
investment accounts will be critical to our ability to maintain 
technological superiority and ensure the development and fielding of 
the Future Force. We will need assistance to maintain these investment 
accounts to strike the proper balance between supporting current 
operations and readiness and investing in capabilities required to 
ensure future success.
    To reduce institutional risk, we are continuing to refine our 
resourcing processes to make them more agile and responsive to the 
immediate requirements of the Combatant Commanders and to help prepare 
the Army for future challenges. Our investments in LandWarNet (to 
facilitate real time, common understanding of dynamic situations) are 
improving our installations' ability to project and sustain forces. 
This result is a more rapidly deployable force that requires less 
logistics overhead structure and a greater capacity to reach back to 
their home stations for intelligence, medical and other essential 
support.
    Increased funding will be required to accomplish our current tasks 
and simultaneously prepare for the future. Reduced funding would have a 
significant impact on procurement; repair, recapitalization and 
replacement of the heavily utilized operational fleet; resetting the 
force; and Soldier programs, while preparing the force to accomplish 
the full range of future requirements, projected in an uncertain, 
unpredictable era.

         REMAINING RELEVANT AND READY IN SERVICE TO THE NATION

    Our commitment to the Nation is certain and unwavering. The Army 
has defended the Nation for 230 years. We continue to remain vigilant 
in this fundamental task by providing the Nation unique capabilities to 
complement those provided by the other Services.
    The Army remains a values-based organization committed to the 
ideals of Loyalty, Duty, Respect, Selfless Service, Honor, Integrity 
and Personal Courage. These ideals are embodied in the Soldier's Creed 
and the Warrior Ethos and are ingrained into the fiber of every 
American Soldier. We remain dedicated to preparing every Soldier to 
face the realities of combat and positioning the Army to face the 
challenges of the future.
    Even as we fight the Global War on Terror and sustain our other 
strategic commitments, we must continue to focus on tomorrow. We are 
challenging our institutional practices and our assessment of current 
and future warfighting capabilities by asking key questions and 
continuing to validate our answers to them:
  --What are the strategic requirements of the 21st century security 
        environment?
  --What are the characteristics and capabilities of a truly joint, 
        interdependent, network-centric force, designed to dominate 
        across the full range of military operations?
  --Will Army and joint transformation activities produce the 
        capabilities required to dominate across the range of military 
        operations in the environment where they will most likely 
        occur?
  --Are joint land forces (Army, Marines and Special Operations Forces) 
        properly sized, structured and trained to perform the full 
        scope of missions required now and in the future?
  --What are the optimal roles for the Army's Active and Reserve 
        Components and the Joint Force in homeland defense?
  --What will the impact of sustained, protracted conflict be on the 
        All-Volunteer force?
  --What combination of quality of life, compensation, incentives, 
        service options and other tools will be required to recruit and 
        retain the All-Volunteer Force of the future?
    We continue in our determination to achieve our overarching 
strategic goal: to remain relevant and ready by providing the Combatant 
Commanders with the capabilities required to dominate across the range 
of military operations.
    With the support of the Department of Defense and Congress, we are 
sustaining our global commitments while making tremendous progress in 
our transformation--the most dramatic restructuring of the Army in more 
than 50 years. We will need your continued support in order to provide 
relevant and ready forces and other capabilities to the Combatant 
Commanders, while providing for the well-being of our All-Volunteer 
Soldiers and their families who are serving the Nation in this time of 
war.

                               ADDENDUM A
                      (DATA REQUIRED BY NDAA 1994)

    Sections 517 and 521 of the National Defense Authorization Act 
(NDAA) for Fiscal Year 1994 require the information in this addendum 
(Note: 521 of the NDAA has been codified in 10 U.S. Code 10542). The 
information is presented in the order and depth as required by the act. 
Section 517 requires a report relating to the implementation of the 
Pilot Program for Active Component Support of the Reserves under 
Section 414 of the NDAA for fiscal years 1992 and 1993. Section 521 
requires a detailed presentation concerning the Army National Guard, 
including information relating to the implementation of the Army 
National Guard Combat Readiness Reform Act of 1992 (title XI of Public 
Law 102-484, and referred in the addendum as ``ANGCRRA''). Section 521 
reporting was later amended by Section 704, fiscal year 1996 NDAA. U.S. 
Army Reserve information is also presented using Section 521 reporting 
criteria.
    Section 517(b)(2)(A).--(See Figure A-1) The promotion rate for 
officers considered for promotion from within the promotion zone who 
are serving as Active Component advisors to units of the Selected 
Reserve of the Ready Reserve (in accordance with that program) compared 
with the promotion rate for other officers considered for promotion 
from within the promotion zone in the same pay grade and the same 
competitive category, shown for all officers of the Army.

                              [In percent]
------------------------------------------------------------------------
                                                  AC in RC       Army
                                                    \1\      Average \2\
------------------------------------------------------------------------
Fiscal Year 2003:
    Major.....................................         87.4         93.8
    Lieutenant Colonel........................         40.5         79.6
Fiscal Year 2004:
    Major.....................................         93.4         96.9
    Lieutenant Colonel........................         38.9         79.0
------------------------------------------------------------------------
\1\ Active Component (AC) officers serving in Reserve Component (RC)
  assignments at time of consideration.
\2\ Active Component officers not serving in Reserve Component
  assignments at the time of consideration.


                               Figure A-1

    Section 517(b)(2)(B).--(See Figure A-2) The promotion rate for 
officers considered for promotion from below the promotion zone who are 
serving as Active Component advisors to units of the Selected Reserve 
of the Ready Reserve (in accordance with that program) compared in the 
same manner as specified in subparagraph (A) (the paragraph above).

                              [In percent]
------------------------------------------------------------------------
                                                  AC in RC       Army
                                                    \1\      Average \2\
------------------------------------------------------------------------
Fiscal Year 2003:
    Major.....................................          3.6          7.5
    Lieutenant Colonel........................  ...........          7.2
Fiscal Year 2004:
    Major.....................................          4.6          7.5
    Lieutenant Colonel........................          3.4          7.5
------------------------------------------------------------------------
\1\ Below-the-zone, active component officers serving in Reserve
  Component assignments at time of consideration.
\2\ Below-the-zone, active component officers not serving in Reserve
  Component assignments at the time of consideration.


                               Figure A-2

Section 521(b).
    1. The number and percentage of officers with at least two years of 
active duty before becoming a member of the Army National Guard or U.S. 
Army Reserve Selected Reserve units:
      a. Army National Guard (ARNG) officers: 20,653 or 56.3 percent.
      b. U.S. Army Reserve (USAR) officers: 9,828 or 25.47 percent.
    2. The number and percentage of enlisted personnel with at least 
two years of active duty before becoming a member of the Army National 
Guard or U.S. Army Reserve Selected Reserve units:
      a. ARNG enlisted: 129,985 or 42.5 percent.
      b. USAR enlisted: 36,396 or 21.64 percent.
    3. The number of officers who are graduates of one of the service 
academies and were released from active duty before the completion of 
their active duty service obligation. Of those officers:
      a. The number who are serving the remaining period of their 
        active duty service obligation as a member of the Selected 
        Reserve pursuant to section 1112(a)(1) of ANGCRRA:
        In fiscal year 2004, no officers were released to the selective 
            reserve to complete their obligation.
      b. The number for whom waivers were granted by the Secretary 
        under section 1112(a)(2) of ANGCRRA, together with the reason 
        for each waiver:
        In fiscal year 2004, no waivers were granted by the Secretary 
            of the Army.
    4. The number of officers who were commissioned as distinguished 
Reserve Officers' Training Corps (ROTC) graduates and were released 
from active duty before the completion of their active duty service 
obligation and, of those officers:
      a. The number who are serving the remaining period of their 
        active duty service obligation as a member of the Selected 
        Reserve pursuant to section 1112(a)(1) of ANGCRRA:
        In fiscal year 2004, no distinguished ROTC graduates were 
            released before completing their active duty service 
            obligation.
        In fiscal year 2004, no waivers for distinguished ROTC 
            graduates were granted.
      b. The number for whom waivers were granted by the Secretary 
        under section 1112(a)(2) of ANGCRRA, together with the reason 
        for each waiver:
        In fiscal year 2004, no waivers were granted by the Secretary 
            of the Army.
    5. The number of officers who are graduates of the Reserve 
Officers' Training Corps program and who are performing their minimum 
period of obligated service in accordance with section 1112(b) of 
ANGCRRA by a combination of (A) two years of active duty, and (B) such 
additional period of service as is necessary to complete the remainder 
of such obligation served in the National Guard and, of those officers, 
the number for whom permission to perform their minimum period of 
obligated service in accordance with that section was granted during 
the preceding fiscal year:
      In fiscal year 2004, four ROTC graduates were released early from 
        their active duty obligation. Of this number, none are 
        completing the remainder of their obligation through service in 
        the Army National Guard, and none through service in the U.S. 
        Army Reserve.
    6. The number of officers for whom recommendations were made during 
the preceding fiscal year for a unit vacancy promotion to a grade above 
first lieutenant and, of those recommendations, the number and 
percentage that were concurred in by an active duty officer under 
section 1113(a) of ANGCRRA, shown separately for each of the three 
categories of officers set forth in section 1113(b) of ANGCRRA (with 
U.S. Army Reserve data also reported):
      a. ARNG.--1,490 ARNG officers from units were recommended for 
        unit vacancy promotion and promoted. An active duty officer 
        concurred with 100 percent.
      b. USAR.--178 USAR officers from units were recommended for unit 
        vacancy promotion. 121 were favorably considered.
    7. The number of waivers during the preceding fiscal year under 
section 1114(a) of ANGCRRA of any standard prescribed by the Secretary 
establishing a military education requirement for noncommissioned 
officers and the reason for each such waiver:
      In fiscal year 2004, no waivers were granted by the Secretary of 
        the Army.
    8. The number and distribution by grade, shown for each State, of 
personnel in the initial entry training and nondeployability personnel 
accounting category established under section 1115 of ANGCRRA for 
members of the Army National Guard who have not completed the minimum 
training required for deployment or who are otherwise not available for 
deployment. (A narrative summary of information pertaining to the U. S. 
Army Reserve is also provided):
      a. ARNG.--In fiscal year 2004, the number of ARNG non-deployable 
        personnel was 38,221. The National Guard Bureau (NGB) maintains 
        the detailed information by State.
      b. USAR.--In fiscal year 2004, the total number of USAR non-
        deployable personnel was 34,318. The United States Army Reserve 
        Command maintains non-deployable Soldier statistical 
        information.
    9. The number of members of the Army National Guard, shown for each 
State, that were discharged during the previous fiscal year pursuant to 
section 1115(c)(1) of ANGCRRA for not completing the minimum training 
required for deployment within 24 months after entering the National 
Guard (and Army Reserve):
      a. ARNG.--The number of ARNG Soldiers discharged during the 
        previous fiscal year pursuant to section 11115(c)(1) of ANGCRRA 
        for not completing the minimum training required for deployment 
        within 24 months after entering the ARNG is 30 Officers and 
        10,285 enlisted, which includes all 54 States and territories. 
        The breakdown by each State is maintained by NGB.
      b. USAR.--The number of USAR Soldiers discharged in fiscal year 
        2004 due to not completing required military Initial Entry 
        Training (IET) includes 109 officers and 415 enlisted. Those 
        Soldiers who have not completed the required IET within the 
        first 24 months are discharged from the Army Reserve. The 
        United States Army Reserve Command maintains statistical 
        information on non-completion of IET by Army Reserve Soldiers.
    10. The number of waivers, shown for each State, that were granted 
by the Secretary during the previous fiscal year under section 
1115(c)(2) of ANGCRRA of the requirement in section 1115(c)(1) of 
ANGCRRA described in paragraph (9), together with the reason for each 
waiver:
      In fiscal year 2004, no waivers were granted by the Secretary of 
        the Army.
    11. The number of Army National Guard members, shown for each State 
(and the number of U.S. Army Reserve members), who were screened during 
the preceding fiscal year to determine whether they meet minimum 
physical profile standards required for deployment and, of those 
members: (a) the number and percentage who did not meet minimum 
physical profile standards required for deployment; and (b) the number 
and percentage who were transferred pursuant to section 1116 of ANGCRRA 
to the personnel accounting category described in paragraph (8):
      a. Screened during the preceding fiscal year to determine whether 
        they meet minimum physical profile standards required for 
        deployment:
        ARNG.--In fiscal year 2004, approximately 70,068 ARNG Soldiers 
            underwent a physical. Of these personnel, 2,068, or 3 
            percent, did not meet the minimum physical profile 
            standards required for deployment.
        USAR.--In fiscal year 2004, approximately 20,864 USAR Soldiers 
            underwent a retention physical. Of these, 2,086, or 10 
            percent, were identified for review.
      b. The number and percentage that were transferred pursuant to 
        section 1116 of ANGCRRA to the personnel accounting category 
        described in paragraph (8):
        ARNG.--In fiscal year 2004 6,223 Soldiers were transferred from 
            a deployable to a non-deployable status.
        USAR.--In fiscal year 2004 312 Soldiers, or less than 1 percent 
            of the Army Reserve Selected Reserve, were transferred from 
            a deployable to a non-deployable status.
    12. The number of members, and the percentage total membership, of 
the Army National Guard, shown for each State, who underwent a medical 
screening during the previous fiscal year as provided in section 1117 
of ANGCRRA:
      Public Law 104-106 (NDAA 1996), Div. A, Title VII, Section 
        704(b), February 10, 1996, repealed Section 1117 of ANGCRRA.
    13. The number of members, and the percentage of the total 
membership, of the Army National Guard, shown for each State, who 
underwent a dental screening during the previous fiscal year as 
provided in section 1117 of ANGCRRA:
      Public Law 104-106 (NDAA 1996), Div. A, Title VII, Section 
        704(b), February 10, 1996, repealed Section 1117 of ANGCRRA.
    14. The number of members, and the percentage of the total 
membership, of the Army National Guard, shown for each State, over the 
age of 40 who underwent a full physical examination during the previous 
fiscal year for purposes of section 1117 of ANGCRRA:
      Public Law 104-106 (NDAA 1996), Div. A, Title VII, Section 
        704(b), February 10, 1996, repealed Section 1117 of ANGCRRA.
    15. The number of units of the Army National Guard that are 
scheduled for early deployment in the event of a mobilization and, of 
those units, the number that are dentally ready for deployment in 
accordance with section 1118 of ANGCRRA:
      Public Law 104-106 (NDAA 1996), Div. A, Title VII, Section 
        704(b), February 10, 1996, repealed Section 1118 of ANGCRRA.
    16. The estimated post-mobilization training time for each Army 
National Guard combat unit (and U.S. Army Reserve Force Support Package 
(FSP) unit), and a description, displayed in broad categories and by 
State, of what training would need to be accomplished for Army National 
Guard combat units (and U.S. Army Reserve FSP units) in a post-
mobilization period for purposes of section 1119 of ANGCRRA:
      a. ARNG.--Estimated time for post-mobilization training is 
        reported through the Unit Status Report, is classified, and is 
        maintained by the Department of the Army, G-3:
        Information on the type of training required by units during 
            post- mobilization is maintained by U.S. Army Forces 
            Command (FORSCOM) and the Continental United States Armies 
            (CONUSAs).
        Post-mobilization training for enhanced Separate Brigades 
            (eSB)/ARNG Brigade Combat Teams (BCTs) can be categorized 
            as maneuver, attack, defend, command and control, gunnery, 
            NBC defense, and sustainment. Theater specific training 
            requirements to include Antiterrorism (AT) and Force 
            Protection (FP) training are also conducted during the 
            post-mobilization training period.
      b. USAR.--To meet the on-going operational requirements of OIF 
        and OEF, Army Reserve training is now based on a higher 
        readiness requirement to meet the train-alert-mobilize deploy 
        model, which reduces emphasis on post mobilization training. 
        The Army Reserve force must be ready before mobilization. This 
        change requires a new training strategy and increased resource 
        requirements for additional individual and unit training:
        Army Reserve units with significant numbers of cross-leveled or 
            Individual Ready Reserve (IRR) Soldier fills require 
            additional collective training time at the Mobilization 
            Stations. Current mobilization timelines often do not allow 
            for a Mission Rehearsal Exercise (MRE) for deploying combat 
            support and combat service support (CS/CSS) units to the 
            same standard as deploying combat units. However, these 
            units receive home station training to compensate for this 
            shortfall.
        To continue providing capabilities to support the Army in 
            sustained joint and expeditionary operations and to provide 
            predictability for Soldiers, families and employers, the 
            Army Reserve is implementing the Army Reserve Expeditionary 
            Force (AREF). Beginning in 2005, ten like-structured 
            deployable organizations called Army Rotational 
            Expeditionary Packages (AREPs) will be formed. Units in 
            each AREP will plan to mobilize to deploy for up to twelve 
            months once every five or six years. Unit capabilities and 
            readiness within an AREP will be formally validated as it 
            approaches the employment window. The Army Reserve will 
            implement the AREF in 10 phases. As the Army Reserve 
            transforms, early AREP rotations and their timelines will 
            be condensed. As the concept is fully implemented, the 
            rotations and their phases will become more distinct and 
            sequential.
    17. A description of the measures taken during the preceding fiscal 
year to comply with the requirement in section 1120 of ANGCRRA to 
expand the use of simulations, simulators, and advanced training 
devices and technologies for members and units of the Army National 
Guard (and the U.S. Army Reserve):
      a. ARNG.--During the preceding fiscal year the ARNG made 
        significant progress towards incorporating Training Aids, 
        Devices, Simulators, and Simulations (TADSS) as an integral 
        part of its training strategy and supported numerous units at 
        mobilization stations with virtual and constructive training 
        tools. In addition, the ARNG training division teamed with the 
        Army G3 to validate virtual maneuver simulators for the entire 
        ARNG heavy force.
      The ARNG is fielding the Advanced Bradley Full-Crew Interactive 
        Simulation Trainer (AB-FIST) that provides full crew precision 
        gunnery for the M2 and M3 family of vehicles. The system 
        underwent a rigorous Limited User Test (LUT) with the U.S. Army 
        Infantry School (USAIS) and the Army Research Institute (ARI). 
        In fiscal year 2004, the AB-FIST was approved by the USAIS 
        Commanding General, as a training device that can be used for 
        Bradley gunnery crew training in addition to the Conduct of 
        Fire Trainer to meet established live fire prerequisites as 
        outlined in DA PAM 350-38. To support maneuver training the 
        ARNG is fielding updated Simulations Network (SIMNET) virtual 
        maneuver simulators for the M1A1 and M2A2 vehicles. The 
        upgraded SIMNET modules feature a new PC-based visual system, 
        host computer, and a sound system. These tank and mechanized 
        infantry platoon sets have upgraded After Action Review (AAR) 
        stations.
      ARNG Battle Staff Trainers are being updated with the Army's 
        latest approved Janus software versions. Janus software 
        operates on portable PCs. The ARNG continues to procure new 
        hardware to ensure these systems can operate the Objective One 
        Semi-Automated Forces (OneSAF) software when it is fielded in 
        fiscal year 2007. Additionally, the Engagement Skills Trainer 
        (EST 2000) continued to be fielded in fiscal year 2004. The EST 
        2000 is the Army's approved collective marksmanship training 
        device. EST 2000 is used by the ARNG to provide unit collective 
        gunnery and tactical training for dismounted Infantry, Special 
        Operations Forces, Scouts, Engineer, Military Police Squads, 
        and Combat Support and Combat Service Support elements. These 
        systems also support units conducting the homeland defense and 
        airport security missions assigned to the ARNG.
      During fiscal year 2004, the ARNG experienced a significant 
        increase in the number of Soldiers mobilized for OIF. The 
        National Guard Bureau procured TADSS sets for deployment to 
        mobilization sites such as Camp Shelby, MS, Fort Bliss, TX, 
        Fort Hood, TX, and Fort Drum, NY. These sets consist of M1 and 
        M2 precision gunnery training devices, rifle marksmanship 
        trainers and other unit specific TADSS. Most importantly in 
        fiscal year 2004, the ARNG led the way in the development of a 
        Virtual Combat Convoy Trainer (VCCT) system. To keep costs low 
        the ARNG required the contractor to leverage existing 
        technology developed for the M1 and M2 virtual gunnery systems. 
        The National Guard Bureau funded the procurement of convoy 
        simulators that train tasks associated with the execution of a 
        convoy. Soldiers train in the simulator prior to executing a 
        convoy live fire exercise.
      Through the ARNG Distributed Battle Simulation Program (DBSP) 
        commanders, staffs and Soldiers receive assistance from 
        ``graybeard'' mentors and TADSS facilitators. DBSP is a 
        contractor organization that provides trained and experienced 
        civilians to ensure the ARNG is using all of the TADSS in a 
        meaningful way to execute annual training requirements. DBSP 
        battle staff training teams provide exercise support during the 
        planning, preparation, and execution of computer-mediated 
        battle staff training. This support augments the support 
        provided by Training Support XXI Soldiers.
      b. USAR.--The Army Reserve has continued to work with the U.S. 
        Army Infantry School and Army Training Support Command to 
        incorporate the Laser Marksmanship Training System into a 
        training strategy that supports initial entry and unit 
        sustainment training. In 2004, Army Reserve efforts with 
        Beamhit Corporation, makers of the laser training system, 
        resulted in the development of full-scale laser targets that 
        support convoy counter-ambush training. These targets permit 
        the Army Reserve's use of current roads and buildings for 
        greater realism in tactical marksmanship training. Soldiers can 
        fire the lasers with blanks from moving vehicles while engaging 
        targets that represent an ambush. Army Reserve units conduct 
        this training at home station rather than waiting to arrive at 
        mobilization stations:
        The Army Reserve also uses simulation devices like the EST 2000 
            and the VCCT systems at consolidated training sites, to 
            include mobilization stations. The Army Reserve has fielded 
            seven EST 2000s and is working with proponents, such as the 
            Military Police School, to leverage its use in MOS 
            reclassification. The Army Reserve mobilized 73 small arms 
            instructors to support CONUSA mobilization operations. At 
            some mobilization stations, ammunition consumption dropped 
            nearly 200 percent of Standards in Training Commission 
            (STRAC) ammunition authorizations to 75 percent. A second 
            mobilization of small arms instructors began in October 
            2004.
    18. Summary tables of unit readiness, shown for each State, (and 
for the U.S. Army Reserve), and drawn from the unit readiness rating 
system as required by section 1121 of ANGCRRA, including the personnel 
readiness rating information and the equipment readiness assessment 
information required by that section, together with:
      a. Explanations of the information shown in the table:
        Unit readiness reporting information and summary tables are 
            classified. This information is maintained by the 
            Department of the Army, G-3.
      b. Based on the information shown in the tables, the Secretary's 
        overall assessment of the deployability of units of the Army 
        National Guard (and U.S. Army Reserve), including a discussion 
        of personnel deficiencies and equipment shortfalls in 
        accordance with such section 1121:
        Unit readiness summary tables and overall assessments are 
            classified. Department of the Army, G-3, maintains this 
            information.
    19. Summary tables, shown for each State (and the U.S. Army 
Reserve), of the results of inspections of units of the Army National 
Guard (and Army Reserve) by inspector general or other commissioned 
officers of the Regular Army under the provisions of Section 105 of 
Title 32, together with explanations of the information shown in the 
tables, and including display of (a) the number of such inspections; 
(b) identification of the entity conducting each inspection; (c) the 
number of units inspected; and (d) the overall results of such 
inspections, including the inspector's determination for each inspected 
unit of whether the unit met deployability standards and, for those 
units not meeting deployability standards, the reasons for such failure 
and the status of corrective actions. Summary tables depicting CONUSA 
inspection numbers by State for the ARNG and by Regional Readiness 
Command for the USAR units are available from U.S. Army, FORSCOM:
      a. ARNG.--During fiscal year 2004, ARNG State level Inspector 
        General (IG) conducted extensive inspections throughout the 
        United States. State level IGs conducted approximately 336 
        inspections during the year, visiting 538 separate units. 
        Because IG inspections focus on findings and recommendations, 
        the units involved in these inspections were not provided with 
        a pass/fail rating. Results of individual inspections conducted 
        by an IG may be requested for release through the Inspector 
        General of the Army. Operational Readiness Evaluation Data for 
        FSP and eSBs is unavailable as these inspections were 
        eliminated as requirements in 1997. Data available under the 
        Training Assessment Model (TAM) relates to readiness levels and 
        is generally not available in an unclassified format. TAM data 
        is maintained at the State level and is available upon request 
        from State level training readiness officials.
      b. USAR.--In accordance with AR 1-201, the United States Army 
        Reserve Command (USARC) conducts inspections of Regional 
        Readiness Commands (RRCs) and Direct Reporting Units (DRUs) 
        within the USARC Organizational Inspection Program (OIP). USARC 
        maintains the results of all OIPs. The OIP focuses on findings 
        and recommendations. Units do not receive pass/fail ratings. 
        During fiscal year 2004, five OIPs were scheduled, but none 
        were conducted. Units were not inspected because of the high 
        OIF/OEF OPTEMPO. However, the Army Reserve did conduct 12 
        Battle Focus Readiness Reviews, which involved a review of over 
        180 brigade and below units. The Army Reserve also conducted 
        400 command inspections, which represents more than one-third 
        of USAR units. U.S. Army Forces Command (FORSCOM) maintains the 
        results of unit TAMs and the data for Reserve Component FSP 
        unit inspections.
    20. A listing, for each Army National Guard combat unit (and U.S. 
Army Reserve FSP units) of the active duty combat units (and other 
units) associated with that Army National Guard (and U.S. Army Reserve) 
unit in accordance with section 1131(a) of ANGCRRA, shown by State, for 
each such Army National Guard unit (and for the U.S. Army Reserve) by: 
(A) the assessment of the commander of that associated active duty unit 
of the manpower, equipment, and training resource requirements of that 
National Guard (and Army Reserve) unit in accordance with section 
1131(b)(3) of the ANGCRRA; and (B) the results of the validation by the 
commander of that associated active duty unit of the compatibility of 
that National Guard (or U.S. Army Reserve) unit with active duty forces 
in accordance with section 1131(b)(4) of ANGCRRA.
    The listing described above is contained in FORSCOM Regulation 350-
4-Active Component/Reserve Component Partnerships. Detailed assessments 
of specific RC units by associated active duty commanders are 
maintained within FORSCOM at the two CONUSAs and three CONUS-based 
corps. General comments of manpower, equipment and training resource 
requirements in accordance with ANGCRRA follow:
      a. ARNG.--For Army National Guard divisions and BCTs:
      -- Manpower.--Several BCTs have shortages in enlisted personnel 
        and junior officers. Duty Military Occupational Specialty 
        Qualification (DMOSQ) is a training challenge because Military 
        Occupational Specialties (MOS) require extensive training, 
        during a limited training window, in schools that are often 
        taught simultaneously. Within the BCTs, Full-Time Support (FTS) 
        continues to be a challenge, currently filled at approximately 
        55 percent of requirements. In ARNG divisions, recent force 
        structure changes and rebalancing actions are causing short-
        term shortfalls in fill percentages.
      -- Equipment.--The Army is making extraordinary efforts to fully 
        equip all units deploying to theater in terms of vehicles, 
        weapons, communications, force protection equipment and other 
        areas. However, the lack of modernized equipment continues to 
        hamper the BCTs. Shortages in chemical defense equipment and 
        night vision devices limit the full range of capabilities for 
        training of the BCTs. The BCTs continue to receive the bulk of 
        any new equipment fielded to the ARNG.
      -- Training.--Adequate training resources in fiscal year 2004 
        enabled BCTs to sustain platoon pre-mobilization training 
        proficiency. Distances to crew-served weapons ranges and the 
        availability of adequate maneuver areas continue to challenge 
        most units. Virtual and constructive simulation systems combine 
        with live training to provide multi-echelon collective 
        proficiency.
      b. USAR.--Within the Army Reserve, use of the Force Support 
        Package (FSP) unit model is in the process of being replaced by 
        the Army Reserve Expeditionary Packages (AREP) force management 
        model:
      -- Manpower.--The Army Reserve is continuing to improve its 
        operations and training management by building FTS manning as a 
        result of the Congressionally approved Active Guard/Reserve 
        (AGR) and Military Technician (MILTECH) ramps. However, 
        sustaining DMOSQ is impacted in some cases by limited school 
        spaces that are based on class size and student to instructor 
        ratio (2:1 for some course phases). To address this situation, 
        Army Reserve schools have begun to mobilize qualified Army 
        Reserve instructors to teach only in RC schools. The Army 
        Reserve is also starting to accelerate the conduct of courses 
        and use web-based training whenever feasible. Some MOSs require 
        extensive training, for example 15N, 25B, 45G, 91W, and 97B, 
        and sequential schools require a Soldier's absence from their 
        civilian employment for extended periods.
      -- Equipment.--Prior to September 11, the Army's strategic 
        investment decisions were based on a prevailing view that, in 
        the absence of a peer competitor, risk could be accepted in 
        numerous areas of procurement for the Current Force to 
        facilitate substantial investment in the Future Force. The 
        impact of these decisions has been evidenced across all 
        components. In the case of the Army Reserve, this has resulted 
        in not fully fielding force modernization equipment. Today, the 
        Army Reserve has approximately 78 percent of its authorized end 
        items. New procurement and cascading of older equipment from 
        the Active Component (AC) is only keeping pace with battle 
        losses and attrition. The shortage of modern equipment and the 
        retention of obsolete and obsolescent items to maintain 
        equipment on-hand readiness have begun to adversely impact the 
        Army Reserve's ability to continue to support the Army's 
        sustained joint and expeditionary operations.
           Today almost 76 percent of on-hand Army Reserve equipment is 
        deployed, mobilizing, demobilizing or assigned as ``Stay Behind 
        Equipment'' (SBE) in theater. Replacement of SBE for the Army 
        Reserve is an immediate force multiplier for the Army. The Army 
        Reserve continues to support subsequent OIF/OEF rotations and 
        other requirements by using assets from its stateside-based 
        institutional training structure. Much of the equipment 
        returning from OIF/OEF has rapidly expended its service life 
        under combat conditions and must be replaced. The concept of a 
        transformed, modular Army of ``plug and play'' units demands 
        that all units, regardless of component, be equipped to the 
        same levels and with compatible and interoperable systems. 
        Current Army procurement planning, with the assistance of 
        Congressionally directed procurement within the Total 
        Obligation Authority and the National Guard and Reserve 
        Equipment Appropriations (NGREA), are the keys to achieve this 
        goal.
      -- Training.--Some Equipment Readiness Code-A (ERC-A) equipment 
        shortages inhibit effective training. High levels of SBE and 
        backlogs at reconstitution and depot sites further exacerbate 
        the problem. Army Reserve units often have a significantly 
        older generation of equipment on which to train. Units will 
        require additional training time after mobilization to achieve 
        proficiency on collective tasks, especially if modernization 
        equipment is provided after mobilization.
    The results of the validation by the commander of that associated 
active duty unit of the compatibility of that National Guard (or U.S. 
Army Reserve) unit with active duty forces in accordance with ANGCRRA 
are maintained by the Department of the Army, G-3. General comment 
follows:
    For ARNG divisions, BCTs, ARNG Force Support Package (FSP) Units 
and Army Reserve FSP Units: Lack of Force Modernization equipment 
within the Reserve Component (RC) is the foremost AC compatibility 
issue. Until the RC units are modernized and supported at the same 
level as the AC units, most RC units will not be fully compatible with 
AC units until after mobilization. Decreased mobilization to deployment 
and/or employment timelines makes it imperative that RC units be 
modernized and equipped at the same level as the Active Component prior 
to mobilization. As Modified Tables of Organization and Equipment in 
units are updated and unit reorganization continues, the compatibility 
issue will improve.
    21. A specification of the active duty personnel assigned to units 
of the Selected Reserve pursuant to section 414(c) of the National 
Defense Authorization Act for Fiscal Years 1992 and 1993 (10 U.S. Code 
261 note), shown (A) by State for the Army National Guard (and for the 
U.S. Army Reserve), (B) by rank of officers, warrant officers, and 
enlisted members assigned, and (C) by unit or other organizational 
entity of assignment:
      As of September 30, 2004, the Army had 4756 Active Component 
        Soldiers assigned to Title XI positions. The Army goal is 100 
        percent of the total (officer and enlisted authorizations) 
        5,000 personnel authorized for the AC/RC Program. Although 
        constrained by ongoing support to the Global War on Terror, the 
        Active Army is maintaining AC/RC program strength and plans to 
        maintain not less than an aggregate strength level of 90 
        percent (officer and NCO) during the fiscal year 2005 period as 
        addressed in the fiscal year 2005 NDAA. Army G-1 and U.S. Army 
        Human Resources Command carefully tracks fill of Title XI 
        positions (See Figure A-3).

                TITLE XI FISCAL YEAR 2004 AUTHORIZATIONS
------------------------------------------------------------------------
                                          Enlisted   Warrant
                               Officers   Soldiers   Officers    Total
------------------------------------------------------------------------
PERSCOM.....................  .........          5  .........          5
USAR........................         39        332          2        371
TRADOC......................        110        275  .........        385
FORSCOM.....................      1,428      2,471        153      3,899
GFR.........................  .........          2  .........          2
USARPAC.....................         32         62          1         94
                             -------------------------------------------
      Total.................      1,609      3,147        156      4,756
------------------------------------------------------------------------


                               Figure A-3

                                ACRONYMS

AAR--After Action Review
AB-FIST--Advanced Bradley Full-Crew Interactive Simulation Trainer
AC--Active Component
AGR--Active Guard and Reserve
ANGCRRA--Army National Guard Combat Readiness Reform Act
AREF--Army Reserve Expeditionary Force
AREPs--Army Rotational Expeditionary Packages
ARNG--Army National Guard
ASE--Aircraft Survivability Equipment
ASV--Armored Security Vehicle
AT--Antiterrorism
BCT--Brigade Combat Team
BRAT--Bradley Reactive Armor Tiles
CH--Cargo Helicopter
CONUSAs--Continental United States Armies
COTS--Commercial-Off-the-Shelf
CS/CSS--Combat Support and Combat Service Support
CTC--Combat Training Center
DBSP--Distributed Battle Simulation Program
DMOSQ--Duty Military Occupational Specialty Qualification
DOD--Department of Defense
DRUs--Direct Reporting Units
DS\3\--Disabled Soldier Support System
ERC--Equipment Readiness Code
eSB--enhanced Separate Brigades
EST 2000--Engagement Skills Trainer 2000
FCS--Future Combat Systems
FORSCOM--U.S. Army Forces Command
FP--Force Protection
FSP--Force Support Package
FTS--Full-Time Support
GFR--Ground Forces Readiness
HMMWV--High-Mobility Multipurpose Wheeled Vehicle
IED--Improvised Explosive Device
IET--Initial Entry Training
IG--Inspector General
IRR--Individual Ready Reserve
JNTC--Joint National Training Capability
LMTS--Laser Marksmanship Training System
LUT--Limited User Test
MILTECH--Military Technician
MOS--Military Occupational Specialties
MRE--Mission Rehearsal Exercise
NBC--Nuclear, Biological, and Chemical
NCO--Noncommissioned Officer
NDAA--National Defense Authorization Act
NGB--National Guard Bureau
NGREA--National Guard and Reserve Equipment Appropriations
OEF--Operation Enduring Freedom
OIF--Operation Iraqi Freedom
OIP--Organizational Inspection Program
OneSAF--Objective One Semi-Automated Forces
OPTEMPO--Operational Tempo
PERSCOM--Personnel Command
RC--Reserve Component
REF--Rapid Equipping Force
RFI--Rapid Fielding Initiative
ROTC--Reserve Officer Training Corps
RRCs--Regional Readiness Commands
SBE--Stay Behind Equipment
SIMNET--Simulations Network
STRAC--Standards in Training Commission
TADSS--Training Aids, Devices, Simulators, and Simulations
TAM--Training Assessment Model
TRADOC--Training and Doctrine Command, U.S. Army
UA--Unit of Action
UAV--Unmanned Aerial Vehicle
UH--Utility Helicopter
U.S.--United States
USAIS--U.S. Army Infantry School
USAR--United States Army Reserve
USARC--United States Army Reserve Command
USARPAC--U.S. Army Pacific Command
VCCT--Virtual Combat Convoy Trainer
WMD--Weapons of Mass Destruction

    Senator Stevens. General, thank you very much. We're 
pleased to have that further explanation on these soldiers' 
background.
    Mr. Secretary, we welcome Mrs. Harvey. I see she's 
sitting----
    Secretary Harvey. Thank you.
    Senator Stevens [continuing]. Behind you, and we're pleased 
to have her with us today.
    I also want to call attention to the fact that, from the 
Guard and Reserve, we had Lieutenant General Steve Blum, Chief 
of the National Guard Bureau, Lieutenant General Roger Schultz, 
who's Director of the Army National Guard, Lieutenant General 
James Helmly, Chief of the Army Reserve.
    And let me welcome Senator Mikulski. I did so in her 
absence, but she has joined our subcommittee. We have served 
with her for many years on the full committee, and are 
delighted that she has come to this subcommittee.
    Senator Mikulski. Thank you very much, Mr. Chairman. I look 
forward to an active service here. Reporting for duty.
    Senator Stevens. It is welcome duty. Having been whip for 8 
years, I understand, Senator Durbin, you have duty on the floor 
and would like to be recognized. We're pleased to recognize you 
first.
    Senator Durbin. Mr. Chairman, thank you very much. And I 
want to thank Senator Inouye, as well, for giving me this 
opportunity, since I have to be on the floor in a few moments.
    Before I ask my questions, let me just say thank you. Thank 
you to the Secretary, thanks to all of the men and women in 
uniform, and those who--their families and others who support 
them. You make us proud. All of your service is--we'll never be 
able to repay. The best we can do is to say that we're going to 
stand behind you. I think you're going to find that in this 
appropriation bill, both political parties. It is nonpartisan.
    I also want to say that I've been out to Walter Reed 
several times. I've met with some of the fine men and women out 
there who have been injured in combat, and those who are 
treating them. And it is a great facility. I always ask them, 
``Is there anything I can do for the Illinois soldiers, in 
particular?'' And they say, ``They're taking care of us.'' They 
never ask me for anything, which is a good indication.

                            FORCE PROTECTION

    But for one thing, Mr. Secretary, and that was--one of the 
first visits out there, one of the soldiers said, ``You've got 
to do something about these Humvees.'' And that goes way back, 
1\1/2\ years ago. He said, ``There's just not enough protection 
on those Humvees.'' Well, that's become a major national issue, 
and many of the amputees and soldiers who have been injured, 
unfortunately, were in Humvees that were not protected. And 
they were subject to rocket-propelled grenades and these 
roadside bombs and--which still harass our troops and endanger 
them. I'm glad we're moving forward on that.
    The same complaint came about body armor. Many troops did 
not have them. A friend of mine, with a son in active military 
ended up collecting the money, paying for it himself, sending 
the body armor out to his son. He said, ``I just can't wait any 
longer. I've got to do this.''

                              TOURNIQUETS

    Now there's a new issue, Mr. Secretary, and there's one--
it's so simple and basic that I really--I've got to ask you to 
address it. And you may have seen it in the Baltimore Sun on 
Sunday. They did a lengthy piece on the whole question of 
tourniquets and whether that would be standard-issue to our 
soldiers.
    Now, I think everyone agrees that having a tourniquet ready 
and available at a moment's notice is essential in combat, to 
save lives, particularly bleeding from the extremities. Long 
before the--well, at least before the invasion of Iraq, we said 
that this should be standard-issue. Again this year, the issue 
came up, as well.
    This report from the Baltimore Sun, which I know Senator 
Mikulski is well acquainted with, goes through all of the units 
of the military that currently are given tourniquets, these $20 
tourniquets, as standard-issue: Army Rangers, Special Op 
troops, 82nd Airborne, 3rd Infantry, all marines--all carrying 
tourniquets. And yet when the survey was made of other groups, 
particularly Guard and Reserve activated groups, it was found 
that this basic $20 piece of equipment wasn't being issued to 
the soldiers. And your experts on medical treatment and making 
certain that we save lives have said this is an essential part 
of equipment.
    When the Pentagon was asked, ``Why haven't you issued 
tourniquets if they're readily available and so cheap?'' 
someone in the Pentagon said, ``Because we're in the midst of 
designing a pouch to carry them in.'' I hope that's not 
accurate.
    I would like to have you, Mr. Secretary, tell me if you are 
familiar with this problem, whether you could tell us how many 
of our soldiers today in Iraq carry with them, as standard-
issue, a tourniquet, and, if not all of them, how quickly we'll 
be able to provide this life-saving piece of equipment.
    Secretary Harvey. Yes, Senator, good question. I, like you, 
am very concerned. Soldier protection, force protection, 
quality of life of the soldiers, nothing is more important to 
me than that. As I've said on several occasions, providing for 
the well-being of the soldiers and their families is my number 
one priority.
    I am generally familiar with this issue. It came up in a 
hearing a couple of weeks ago in the--in terms of whether we 
issue our soldiers something called QuickClot, which is issued 
to the marines. And I looked into that and have found out that 
this QuickClot is--can have some side effects, in terms of 
burns and in clotting outside the wound itself. I'm informed 
that we issue a pressure bandage--it is an Israeli-designed 
pressure bandage--to our soldiers.
    So I can't give you the exact numbers, but it's--I'm under 
the opinion that we issue this pressure bandage to all our 
soldiers. The Chief may want to comment on that.
    Senator Durbin. Mr. Secretary, this is not a pressure 
bandage. I'm talking about a tourniquet. And a pressure 
bandage, even if it's standard-issue, or a clotting bandage, 
will not be adequate to deal with bleeding from an extremity. 
And if you read the story, and I'm going to send it to make 
sure you----
    Secretary Harvey. Yeah, I've perused it, yes.
    Senator Durbin. I hope you'll get a chance to look at it. 
They make it clear that, sadly, we've lost some soldiers 
because there was no place to turn for a tourniquet, a basic 
tourniquet, which is an element of first aid.
    Let me give you an example. One of the lieutenants in the 
Army, David Bernstein, who is noted in this article, bled to 
death. A West Point graduate. As Senator Mikulski adds here, 
they couldn't find anything to use as a tourniquet. They used a 
sling from an M-4 rifle, and the nozzle from a fuel can to 
twist it, to try to stop the bleeding. Sadly, he lost his life 
because a $20 basic tourniquet was not provided.
    So your response about pressure bandages and clotting 
bandages, those will not do. This article makes it clear, they 
are not responsive to the need when you have this severe trauma 
and bleeding from the extremities. And so, I hope that you will 
look very closely at this. I think it's a critical--an 
inexpensive element to save the lives of our soldiers here.
    I don't know if--General Schoomaker, if you've had 
familiarity with this.
    General Schoomaker. Sir, first of all, I'm not familiar 
with the article at all. Quite frankly, your bringing it up 
here is the first time I've heard of any problem like that. 
We've had tourniquets in the Army for almost all of my 36 years 
of service.
    Senator Durbin. Are they standard-issue to every soldier?
    General Schoomaker. They are standard in the medical 
channels. There have been improvements in the tourniquets. 
Typically, in the old days, we would carry cravats, which we 
used as tourniquets, which were standard-issue. There have 
been, since then, a variety of--the one-handed tourniquet that 
has come up more recently--there have been a variety of them, 
and I have known of no shortage of them. But this is something 
we could get into and certainly----
    Senator Durbin. General, I am told they are not standard-
issue, that they are affordable, that what is presently being 
given to soldiers does not really fit----
    General Schoomaker. Typically----
    Senator Durbin [continuing]. The need.
    General Schoomaker [continuing]. Typically, medical gear 
like this is not issued as part of a soldier's--what we would 
call organizational clothing and individual equipment (OCIE). 
It is--comes through medical channels. It's typically a unit 
standard-operating-procedure problem, and the unit generally 
will dictate what medical gear a soldier will have. And I see 
no reason why there is any shortage. And certainly 
affordability is not at issue.
    Senator Durbin. Affordability is not an issue.
    Secretary Harvey. For sure. We'll get you a detailed answer 
for the record.
    [The information follows:]

                              Tourniquets

    All Soldiers receive training on use of tourniquets upon 
initial entry into the Army, and sustained training and testing 
through the Soldier Common Task Test. Training is imperative 
for effective tourniquet application. Effective April 1, 2005, 
all new Soldiers will receive specific training on the new-
generation Combat Application Tourniquet (CAT) in Basic Combat 
Training.
    Every Soldier now carries a first aid pouch with a first 
aid dressing for use as a pressure dressing and tourniquet. 
Under current practice, all Combat Medics (military 
occupational specialty (MOS) 91W), and Combat Lifesavers (CLS) 
will carry new-generation tourniquets; however, new-generation 
tourniquet fielding to these Soldiers is not complete. (The 
target ratio of CLS to Soldiers in deploying units is one per 
squad or better.)
    Between March 2003 and March 2005, the U.S. Army Medical 
Materiel Center-Southwest Asia (USAMMC-SWA) issued 58,163 new-
generation tourniquets (four types) to CENTCOM-deployed units. 
Medical authorities in theater estimate 41 percent of deployed 
Soldiers have an approved tourniquet.
    The Defense Logistics Agency ordered 172,000 CATs in mid-
March 2005. Initial delivery of 15,000 CATs will be mid-April 
2005, with the entire 172,000 delivered to theater by mid-July 
2005. On March 31, 2005, the Army directed the USAMMC-SWA to 
order 56,000 Special Operating Forces--Tactical Tourniquets 
(SOFTT) for delivery before May 31, 2005.
    The new Soldier Improved First Aid Kit (IFAK) includes a 
CAT and is being fast-tracked via the Soldier as a System Rapid 
Fielding Initiative.
    The U.S. Army Institute of Surgical Research (USAISR) 
recently tested nine new-generation tourniquet systems and 
demonstrated that three were 100 percent effective. Based on 
these data, the CAT was selected as the tourniquet to be issued 
to individual Soldiers. USAISR recommended the SOFTT as an 
acceptable alternative to the CAT when the CAT was not 
available through the supply system. USAISR also recommended 
the emergency medical tourniquet for use in medical evacuation 
vehicles and at Echelon I-III medical facilities.

    Senator Durbin. Well, if you would--the fact that the 
Rangers, Special Ops, some divisions, like 82nd Airborne, 3rd 
Infantry, and the marines all carry it as standard-issue, I 
think, is a clear indication that----
    General Schoomaker. I will promise----
    Senator Durbin [continuing]. It could help----
    General Schoomaker [continuing]. You that the most combat--
the most combat-experienced soldiers and marines and special 
operators don't go into battle without these kinds of things.
    Senator Durbin. On themselves, individually?
    General Schoomaker. On themselves, individually. This is 
something that experience will tell you. This isn't something 
you wait for the system to give you. This is something you 
requisition through medical channels, because you have the 
experience, the knowledge, the training, and the readiness----
    Senator Durbin. And you will give----
    General Schoomaker [continuing]. To understand you need it.
    Senator Durbin [continuing]. You will give me a report on 
how many soldiers----
    General Schoomaker. We will be glad to.
    Senator Durbin [continuing]. Currently----
    General Schoomaker. Yes, sir.
    Senator Durbin [continuing]. In Iraq and Afghanistan----
    General Schoomaker. And we----
    Senator Durbin [continuing]. Carry tourniquets?
    General Schoomaker. There is no reason why there should be 
any shortage in any unit of that kind of----
    Senator Durbin. There is no reason why there should be.
    Secretary Harvey. No. No.
    Senator Durbin. Thank you very much, Mr. Chairman.
    Senator Stevens. Senator, I'm constrained to say that when 
I was in the Army, they told us to take off our belt and take a 
knife in a sheath and use it to make a tourniquet immediately.
    General Schoomaker. Exactly right.
    Senator Stevens. It's one of those things.
    I note that the chairman is here, and I know he has other 
subcommittees to go. Remember when he used to yield to me? I 
would be pleased to yield to you.
    Senator Cochran. I'll wait my turn, Mr. Chairman. Thank 
you.
    Senator Stevens. Thank you very much.

                        RECRUITING AND RETENTION

    Secretary Harvey, what are the problems in our recruiting 
efforts? I think most of us are thinking about the problems of 
recruiting and retention--in the Army, in particular; and in 
the Guard and Reserve, as well. We seem to have a--you know, 
we--I'm told we exceeded the goal for the Army last year. And 
the goal this year is 100 percent retention. How are you doing?
    Secretary Harvey. In terms of retention, Senator, we're 
just about on our goals. Retention in the Active is 99 percent 
of goal--these are our year-to-date goals--97 for the Reserves, 
and 98 for the Guard. So, from a retention point of view, I 
think we're okay. And, as we like to say, I think we're on our 
mission for the year.
    Our challenge is in recruiting, and the Chief and I are 
both concerned about that. I don't think we're in crisis, but 
we're concerned about it. At the current time, we're at 94 
percent of our goal in the Active, 90 percent in Reserves, and 
the problem area is the National Guard, which is at 74 percent.
    Now, in response to that, we're taking the following 
actions. We're increasing the number of recruiters across the 
board, in all three areas, from 9,000 total to 12,000. We're 
increasing incentives--retention incentives, recruiting 
incentives--across the board for all three components. And, as 
you may know, we take surveys every month to ensure that the--
as we call them, ``the influencers'' are satisfied, and what 
the influencers are thinking; and that's the parents and 
coaches and counselors and so forth.
    So, it's a concern with us. I'm not going to sit here and 
tell you that we're 100 percent sure we're going to make it. 
And I'm also not going to sit here and tell you--we're not 
going to give up. We are going to put a lot of emphasis and 
focus on this area. I give it a lot of thought. And when 
someone says, ``Well, you put the recruiters''--the recruiters 
are like drilling the oil well. You say, ``I've got more 
recruiters there, now they have to strike oil.'' And we have 
another 6 months to go in the mission. And, believe me, as I 
said, we're very concerned about it. We put a lot of emphasis 
and focus and attention to it. And I meet every other week with 
our human resource people to ensure that we're doing everything 
we need to do and our message is getting across. And we do a 
lot of innovative things, like we sponsor National Association 
for Stock Car Auto Racing (NASCAR), dragsters, rodeos, and so 
forth. So we're very focused in this area, and I think the 
takeaway is that it's important, and we're doing everything 
possible to attain our goals.
    And let me note that, this year, our goal in the Active 
component is to recruit 80,000 soldiers. Last year, it started 
at 72,000; it was revised in the middle of the year to 77,000, 
which we made; and the year before that was 68,000. So, our 
goals have gone up, and our focus and initiatives and 
activities have gone up accordingly.
    Senator Stevens. General Schoomaker, have we given you 
enough tools to succeed, in terms of recruiting?
    General Schoomaker. Sir, tools--the tools you have given us 
are more than satisfactory. You've been very supportive in the 
tools. I think the Secretary has it exactly right, retention 
does not appear to be as big a challenge as recruiting. We are 
retaining soldiers. This is counter to many of the stories you 
hear, that the Guard and the Reserve and Active soldiers will 
not stay with us. They are staying with us, in increasing 
numbers.
    But I will tell you, I am personally concerned about 
recruiting. And I think that recruiting this year is going to 
be tough to make our challenge, our increased goals. And I 
think in 2006 it'll be even tougher. And so, we are going to 
have to look very hard at the tools, at our procedures, at our 
approaches. But, as I've testified before, I believe this is a 
national responsibility. This isn't just the responsibility of 
the Army and the Marine Corps, the Air Force, and the Navy to 
recruit soldiers, sailors, airmen, and marines. It is a 
responsibility of the Nation to raise the armies and the navies 
and the air forces and the marines that are necessary to defend 
this country. And I think until people embrace this challenge 
as a national responsibility and necessity, that we will be 
challenged when we're in periods of conflict, as we are today.

                           ARMY MODULAR FORCE

    Senator Stevens. I'm going to ask one of the staff to turn 
this soldier's photo around and show it to the people out in 
the audience. I'm constrained to say that when I went into the 
service, I weighed 155 pounds. And I think Senator Inouye 
weighed just about the same amount. I think that fellow's got 
on his back more than I weighed then.
    Secretary Harvey. He does. It's 150 pounds. That's a 
picture that I--that the Chief gave to me that I have in my 
office. I look at that every morning, and I think, ``How am I 
going to lighten that soldier's load?''
    Senator Stevens. That's what I was going to ask.
    Secretary Harvey. Yes. Yes. And we're--and we think about 
that often. And we're going to do it several ways, one of which 
is, as you heard, the Army modular force. We're going to be 
able to deploy to an area as a unit, not as a group of 
individuals, and that's going to help reduce that load.
    Another way we're going to do that is through information 
technology and situational awareness, where, as I mentioned in 
my opening statement, one of the advantages of the Army modular 
force initiative is that we can start now to spiral in network 
technologies so that all soldiers have better situational 
awareness, so he doesn't have to take everything he has to 
take----
    Senator Stevens. My time----
    Secretary Harvey [continuing]. Because he knows----
    Senator Stevens [continuing]. Is running out, Mr. 
Secretary. But when we went to the Stanford Research Institute, 
they were devising a vest that would really--a shirt that would 
be both armor and have a built-in battery and have a built-in--
a whole series of things that are there now.
    Secretary Harvey. We have a program executive officer (PEO) 
soldier. The Chief----
    Senator Stevens. Are we going to any innovation to try and 
lighten that load?
    Secretary Harvey. Yes. Chief?
    General Schoomaker. Sure we are. First of all--and I don't 
mean to be facetious here, but that's 150 pounds of lightweight 
gear.
    Senator Stevens. I understand that.
    General Schoomaker. That is----
    Senator Stevens. I saw some----
    General Schoomaker [continuing]. That is all the most 
advanced stuff that we can put on them. But I'll give you a 
historical example. When the 82nd Airborne Division and the 
101st Airborne Division jumped behind the lines on the night of 
June 5-6, 1944, when those paratroopers jumped behind the 
lines, they carried 80 rounds of ammunition and two hand 
grenades, a change of socks, and a protective mask. And when 
they got on the ground, they got rid of their protective mask. 
Those soldiers went into combat totally--equipped totally 
differently than these soldiers are today.
    This picture that you see there is a paratrooper in the 
173rd Airborne Brigade that jumped into Northern Iraq. That's 
the morning the Sun rose, and they're stuck up there in the mud 
with all that stuff on their back in Northern Iraq with--you 
know, basically alone and unafraid, not unlike their 
forefathers did in World War II. And they're extraordinarily 
equipped. The problem is that we've got to get the mobility of 
these soldiers, and we've got to get the interdependence of it 
that we're working on so hard with the other services to 
lighten this load. But we also have a responsibility to lighten 
this load in a different way, and that is by taking----
    Senator Stevens. I think we ought to have a copy of that 
for our office here, too, because----
    General Schoomaker. Sure.
    Senator Stevens [continuing]. It worries me.
    Senator Inouye.
    Senator Inouye. Thank you very much.
    If I may----
    Senator Stevens. Sorry to interrupt you, General, we do 
have some time restraints here.
    General Schoomaker. Sure.
    Senator Inouye. If I may follow up on the chairman's 
questioning, are you considering lowering the entry standards 
on recruiting?

                          ENLISTMENT STANDARDS

    General Schoomaker. Sir, we are not considering it, and we 
have not done it. Now, we are bumping up against our standard, 
but we have not crossed the line on our standards. And I can 
describe what they are, or I can get them to you for the 
record.
    [The information follows:]

                          Enlistment Standards

    The Army is currently not considering lowering its quality 
marks. The fiscal year 2005 Army quality goals are  90 percent 
high school diploma graduates,  67 percent test score category 
I-IIIA, and  2 percent test score category IV. The active 
Army's quality marks remain above Army goals. As of the end of 
March, they were at 90 percent high school diploma graduate, 74 
percent test score category I-IIIA, and 1.9 percent test score 
category IV.

    General Schoomaker. But the things that you are reading are 
largely untrue about us lowering standards. And I hope that we 
do not have to lower our standards. In fact, I would prefer not 
to. I'd rather go short than lower the standards that we have.
    Senator Inouye. We have been advised that there is a $285 
million shortfall for recruiting. Can you tell us why?
    General Schoomaker. Sir, I'm not familiar with that.
    Secretary Harvey. No, I'm not familiar with that, Senator. 
We certainly will ask for everything we need in that regard. As 
remarked, it's critical to the all-volunteer force.

                  IMPROVISED EXPLOSIVE DEVICES (IED'S)

    Senator Inouye. Of the 1,500 soldiers killed during the 
operations, 800 were killed by improvised explosive devices. Do 
we have enough funding here to take care of that?
    Secretary Harvey. Yes. I've--let me answer it, that I've 
been assured and informed that we have adequate funds at the 
present time to meet the theater requirements, we have adequate 
funds to do--to fund our technology-development efforts, to 
field the next-generation devices, and that we will be 
rapidly--over the next few months, rapidly fielding a number of 
devices. And we can fill you in on those details, of course, in 
a closed session, if you would like. But I'm assured that we 
have adequate funding. I'm assured that the next-generation 
technology is rapidly maturing. And I will be--and I have, and 
will be, paying very close attention to this. As you remarked, 
that's an important component of soldier protection.
    Senator Inouye. Isn't it also true that no matter how much 
we try, it will not be possible to come up with a perfect 
solution, especially when they use something like a 2,000 
bomb--a 2,000-pound bomb to knock over a tank?
    General Schoomaker. Sir, there is no one solution to this 
dilemma. And, as you know, we have had M-1 tanks totally 
destroyed by thousand pound bombs on the roads. There is the 
ability to get a big enough bomb to destroy any amount of armor 
we'll place. However, there is a prudent level of protection 
that we believe we've asked for the funding to achieve and that 
we're working to obtain. A great deal of this has to do with 
tactics, techniques, and procedures, and experience, 
intelligence, and other kinds of capabilities, obviously that 
we probably shouldn't talk about in an open session. But it is 
a comprehensive approach that must be taken to counter this 
threat, and not just the idea that some--in some physical form, 
that we're going to be able to mitigate the effects of what's 
achievable.

                                OPTEMPO

    Senator Inouye. Mr. Secretary, will the modular units 
lessen the operational tempo for the Army; thereby, reducing 
the number and length of deployments that we are now 
experiencing?
    Secretary Harvey. Yes. The objective is, at the end of the 
modular initiative, when it's totally complete, that the Active 
force will be deployed 1 year in 3. So that's 2 years at home 
station, or, as we like to call it, ``dwell time.'' For the 
National Guard, it'll be 1 year deployed, 5 years at home 
station; and for the Reserves, 1 year deployed and 4 years at 
home station. So that's our objective, and we're slowly but 
surely migrating toward that.
    General Schoomaker. Sir, if I could add to that very 
quickly. Last year, our average dwell was 1.2 years for the 
units that were coming from theater and going back. This year, 
as you take a look at the 101st and the 4th Infantry Division 
(ID), the 3rd ID, if they're--stay on schedule, their dwell 
will be about 1.8 years, on average, some of it a little bit 
longer than that. And this is directly related to the increase 
in these brigades--the brigades that we have added to the Army 
that have allowed us a broader base of rotation.
    And as we achieve the 30 percent increase on the Active 
side, and the modular initiatives on the Guard and Reserve 
side, this will continue to manifest into the kinds of dwell 
times that the Secretary described.
    Senator Inouye. The funding for modularity is included in 
the supplemental. How much of the $5 billion would you have in 
the 2006 budget?

                     FUNDING THE ARMY MODULAR FORCE

    Secretary Harvey. The funding for modularity is in the 
supplemental in 2005, and plans to be in the supplemental in 
2006. Then it will be in the base budget in 2007 beyond, the 
rest of the FYDP.
    Senator Inouye. Do you have any estimate as to the total 
cost of it?
    Secretary Harvey. Yes. The total cost, if you add it all up 
from 2005 through 2011, it's $48 billion. And, again, $10 
billion in the 2005 and 2006 supplementals, and then the 
remainder in the base budget in 2007 to 2011.
    Senator Inouye. When you're completed, you'll have 77 
brigade combat units?
    Secretary Harvey. Seventy-seven Brigade Combat Team Units 
of Action, correct, Senator.
    Senator Inouye. I'm from the ancient war. Can you describe 
what a brigade unit will look like?
    Secretary Harvey. As I mentioned in my opening statement, 
it'll be a unit of about 3,500 to 4,000 soldiers. There will be 
three types of units in the near term. There will be a light 
infantry, heavy, and a Stryker. They'll be standalone, self-
sufficient, and have all the functionality that used to--a lot 
of the functionality that used to reside in the division now is 
embedded in the Brigade Combat Team; therefore, it is 
standalone and self-sufficient. An important dimension, as we--
as I said, is standardized. That is to say--and the Chief can 
chime in here, because he's had direct experience in this--and 
that is that there was no heavy brigade or no light brigade in 
the force that was like any other one. In this, we'll have--a 
Brigade Combat Team, say, in the 3rd ID will be exactly the 
same as in every infantry.
    Chief, you my want to chime in.
    General Schoomaker. Sir, I would agree. The kinds of things 
that'll be in these modular brigades are things like increased 
military intelligence, increased bandwidth to move intelligence 
down to these brigade levels. You'll have your forward support 
battalions, which provide your logistics in the brigade--civil 
affairs, human intelligence (HUMINT), counterintelligence, 
military police (MPs), engineers, their own artillery 
battalion, as well as their own RSTA, which is reconnaissance, 
surveillance, target acquisition capability, inside of these 
brigades.
    But I have to mention, we always focus on the combat 
brigades, but the modular force also--which we don't talk 
about, but is involved in this very same money--are the support 
units of action that are outside these brigades that provide 
the enhanced capabilities, in terms of aviation, increased 
higher-level logistics and maintenance, intelligence, et 
cetera, and then on the Army Guard--or in the Army Reserve side 
or the combat service support aspects, with the expeditionary 
packages that we're putting together.
    So, it's not just at the brigade. It's at the battle 
command level, it's at the support level, all the way up where 
we are building a modular force that can plug and play based 
upon what we have to do. It's much more capable.
    Senator Inouye. Thank you very much.
    Thank you, Mr. Chairman.
    Senator Stevens. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.

    FISCAL YEAR 2005 SUPPLEMENTAL FUNDING FOR MOBILIZATION STATIONS

    Mr. Secretary, I notice in the supplemental budget request 
that's been submitted by the Army, you've requested $70 million 
to construct permanent barracks as part of a new operational 
readiness training complex need to meet the requirements of 
mobilizing Reserve-component units. My question is, Is any of 
this money going to be used to upgrade or improve mobilization 
centers for the National Guard in connection with the 
mobilization for Iraq and Afghanistan duties?
    Secretary Harvey. Senator, I think I'm going to have to 
take that for the record.
    I'm not familiar with that level of detail of exactly what 
that's going to be used for. It wouldn't surprise me if there's 
monies in there to improve our readiness centers.
    Senator Cochran. General Schoomaker----
    Secretary Harvey. We'll get you an answer----
    Senator Cochran [continuing]. General Schoomaker, do you 
have any information along that line?
    General Schoomaker. Sir, I don't have that level of detail, 
and I think it would be better for us to provide it to you 
accurately for the record.
    Senator Cochran. Okay.
    General Schoomaker. I've just glanced over here at our 
Guard leadership, and they also do not have that level of 
detail.
    Senator Cochran. If we could have that, we would appreciate 
it.
    [The information follows:]

 Funding in the Fiscal Year 2005 Supplemental Request for Mobilization 
                         and Training Barracks

    The fiscal year 2005 Supplemental includes $70 million in 
military construction for Mobilization and Training Barracks at 
Forts Carson, Riley, and Bliss. There is an immediate need for 
adequate facilities to support active and Reserve Component 
(approximately 80 percent) mobilization, training, deployment, 
and demobilization. These projects will directly support Army 
National Guard and Army Reserve Soldiers mobilized for the 
Global War on Terrorism. The Army National Guard has training 
and mobilization facilities in their fiscal year Defense 
Program for two of their power support platforms: Camp Shelby, 
Mississippi and Gowen Field, Idaho.

    Senator Cochran. The House is taking up the supplemental, 
as you know, and marking it up in their committee. And we are 
not going to take any action on it until they complete work on 
the bill. But we are going to look at it very carefully. We 
know that we need to supplement the budget for this fiscal year 
in connection with our operations in Iraq and Afghanistan. We 
want to help the administration achieve its goals of total 
support for our military forces so that they have what they 
need to bring this war to a successful conclusion. That's the 
goal, and I know that's your goal, too.
    In that context, a lot of National Guard units are being 
mobilized around the country. And in my State, at Camp Shelby, 
Mississippi, that facility has been designated as a 
mobilization center. And so, we've seen the 155th Armored 
Brigade from our State trained there and brought up to speed 
and deployed to the theaters. And there are other units, as 
well. It is a facility that's been in operation since World War 
II. As a matter of fact, Senator Inouye trained there when he 
was in the Army and just getting ready to be deployed to the 
European theater. And it's continued to have a rich tradition 
of training--excellent training and schools for both enlisted 
and officers.
    My son trained down there, as a matter of fact. And when 
that same unit was mobilized in Operation Desert Shield/Desert 
Storm, he trained there and went to Fort Hood, then on to the 
National Training Center. So we know how important the training 
is to get everybody up to speed.
    But I hope you will take a look to be sure that you're not 
overlooking some facilities--when you're upgrading facilities 
to be sure you have the facilities you need, don't overlook 
some of the National Guard facilities. I hope you'll take a 
look at that and see if any of that money is going to be spent 
upgrading facilities, making sure that the soldiers have what 
they need at those facilities. It may be old, but they're still 
doing a great job for the defense of our country.
    General Schoomaker. Sir, believe it or not, I trained at 
Camp Shelby.

                          IED COUNTERMEASURES

    Senator Cochran. One thing that was asked already, and that 
was about the improvised explosive devices and the 
countermeasures that you're trying to develop. I'm told that 
there was a crash program being developed--and I had the name 
of it here awhile ago--in some testing the other day, they had 
a major setback, I understand. This is called the neutralized 
IED with Radio Frequency Program. And I don't want to get into 
classified information. I note that that probably is 
classified. But there is another technology that has come to my 
attention, developed to use directed energy instead of radio 
frequencies to counteract the effects of improvised explosive 
devices. The Ionatron Corporation is developing that 
countermeasure. I hope you'll look at that, if you have 
difficulty with the improvised explosive device countermeasures 
that you're working on right now. I know you have a task force 
to counter that threat. But we want to support the initiatives. 
A lot of the troops from my State, who have been killed over in 
Iraq, have been killed with those IED weapons.
    What is the status of coming to a point where we have a 
countermeasure that's effective against those devices?
    Secretary Harvey. Let me, we can't say a lot in open 
session, as you know, Senator, but the countermeasure 
technology is a sound technology. And it's a matter of how you 
field it. It's a matter of--I'd better not get into any more. 
I'm familiar with directed energy technologies for other 
applications. I personally worked on that in one of my prior 
jobs. And we'll certainly look into that if it's viable.
    Just one remark is, the countermeasure technology is 
intended to prevent an occurrence where it would appear that 
the directed energy would cause an explosion, which then--then 
there's another dimension to how you do that, when you do that. 
And so, the countermeasure jammer technology has basic benefits 
to it, rather than directed energy.
    But we're open to all this, and it has to be--it's a 
multitude of solutions to get at this; jammers being the major 
technology. But we're certainly open to--if it's viable, to 
look into its application, because, as you said, there is--in 
my way of thinking, and in the Chief's way of thinking, there's 
nothing more important than protecting our soldiers. That's 
foremost on our minds, and we are open to everything. And 
you've been generous in the past. And I appreciate Senator 
Inouye's question about, Are there adequate resources? And this 
is not a resource issue. This is making sure we have an 
effective technology that does its job. And we have fielded 
things--and I know you read certain things in the paper--we've 
fielded things that are 60 percent effective, and we're proud 
that they are 60 percent effective, because it was zero before. 
We're not waiting for the perfect solution. We're going to 
migrate to the--as good as we can get. But we're fielding it as 
soon as we feel like it's going to give the soldiers some 
protection. It may not be 100 percent reliable, but it's better 
than nothing. So I think we have a viable approach.
    We'll look into this, if it has benefits over 
countermeasure jammers.
    Senator Cochran. I wish you provide, for the record, the 
status of the review of the technology that I just----
    Secretary Harvey. Sure.
    Senator Cochran [continuing]. Described.
    Secretary Harvey. No question.
    Senator Cochran. Thank you, Mr. Chairman.
    [The information follows:]

                       Directed Energy Technology

    The Army is aware of the directed energy technology 
developed by the Ionatron Corporation to counter improvised 
explosive devices (IEDs). In fact, the U.S. Army Armaments 
Research, Development, and Engineering Center (ARDEC) has 
reviewed the work being done at Ionatron, specifically the 
Laser-Induced Plasma Channel (LIPC). The technology shows 
promise for countermine neutralization, IED defeat, and 
possibly other non-lethal applications. In addition, other 
applications of this technology are being investigated for 
Homeland Defense. ARDEC is partnered with the Naval Research 
Laboratory, Ionatron, and the Stevens Institute of Technology 
in Hoboken, New Jersey to do further study. The President's 
budget for fiscal year 2006 includes funds for the ARDEC to 
continue evaluation of Ionatron research.

    Senator Stevens. Senator Leahy.
    Senator Cochran. Mr. Chairman, may I ask unanimous consent 
that the statement by Senator Burns be put in the record? He 
had to go to another----
    Senator Stevens. Without objection, so ordered.
    [The statement follows:]

               Prepared Statement of Senator Conrad Burns

    Thank you, Mr. Chairman. I would like to thank Secretary 
Harvey and General Schoomaker for coming before our 
subcommittee this morning, to testify on the Army's fiscal year 
2006 budget. I will keep my comments brief this morning and 
save the remainder of my statement for the record.
    Our military, and the U.S. Army in particular, continues to 
have many folks engaged around the world, especially in 
Afghanistan and Iraq. It is because of today's 640,000 brave 
soldiers serving on active duty, that we are winning this war 
on terror. Our soldiers, sailors, airmen and marines are 
performing magnificently. With more than 300,000 soldiers 
deployed or forward stationed around the world, there is no 
question that our forces are being challenged.
    Out of these approximately 315,000 currently deployed 
soldiers, 113,000 are Army National Guard and 47,000 Army 
Reserve. In Montana, over 40 percent of our National Guard and 
Reserve units have been called to active duty. I intend to do 
my part as their representative to ensure our armed forces have 
what they need to win this war, protect our homeland, and come 
home safely.
    I read daily of our great American soldiers developing 
unconventional solutions to solve various problems they face in 
the field. I think it makes a great deal of sense to have the 
mechanism in place to bring good ideas from our nation's 
universities, laboratories and small businesses to the soldiers 
as soon as possible, bypassing the bureaucracy. I encourage 
your continued support of Army initiatives to expedite the 
fielding of urgently needed equipment and life-saving 
technologies. You will have this Senator's continued support of 
the Rapid Fielding Initiative (RFI) and the Rapid Equipping 
Force (REF)--two programs which accomplish just that. These 
efforts have resulted in the fielding of some truly incredible 
innovations, and I believe it is important that such efforts--
and, therefore, relevant funding levels--continue.
    I look forward to seeing how the Army will meet its 
continual recruitment and retention challenges. I read with 
some recent news articles about the Army's failure to meet 
monthly recruitment goals so far this year, putting the Army at 
risk of not meeting goals for the first time since 1999. I look 
forward to hearing what initiatives you have in place to 
address these challenges, and I pledge to work with you and 
support you on this road ahead.
    When I am back in my State of Montana, I enjoy talking with 
our active and reserve component forces. There is no doubt in 
my mind, the dedication and love these brave men and women have 
to their country and their work. Their increased optempo since 
the attacks of 9/11 and the beginning of the Global War on 
Terror does not, however, come without costs--costs not only to 
the active duty forces, guardsmen and reservists themselves, 
but to their families and employers as well.
    I am pleased to see that Army leadership has realized this 
and has reflected these challenges in the Army fiscal year 2006 
budget. This morning I look forward to hearing about the Army's 
plans for rebalancing its forces and reducing the need for 
involuntary reserve mobilization. I do think it is important 
that we look at ways to add folks to areas where the Army is 
currently facing shortages, such as military police, 
transportation and civil affairs.
    Again, I thank you both for being here this morning. I look 
forward to your testimony.

    Senator Stevens. Senator Leahy.
    Senator Leahy. Thank you very much, Mr. Chairman.

                RESERVE COMPONENTS MODULARITY AND RESET

    Mr. Secretary and General Schoomaker, as you know, Kit 
Bond, Senator Bond, of Missouri, and I are the co-chairs of the 
National Guard Caucus, something we take very seriously. And we 
support the efforts of the National Guard. I think we all agree 
that the National Guard's a critical part of our Nation's 
defense. We also know the--and we hear from our Guard members, 
we hear from other Senators on both sides of the aisle, about 
the mobilization of the Guard and Reserves, in both Iraq and 
Afghanistan. It's the largest, for reservists, since World War 
II. In fact, at my home State of Vermont, the little State of 
Vermont, we have 1,000--over 1,000 Guard members deployed. We 
are the second highest per capita in the country. Senator 
Inouye's State, Hawaii, is the highest.
    Now, we in the Guard Caucus--I think I can speak for both 
Republicans and Democrats on this--we support your efforts to 
include National Guard brigades in the Army's modularity plan, 
which will allow them to provide an important part of the 
Army's combat capability. But they're going to need the same 
advanced equipment as their active-duty counterparts. If 
they're going to be doing the same work as the active-duty 
counterparts, they should have the same equipment. They need it 
as soon as they return from their deployments so they can start 
the training. I think you both agree, training is so essential 
when they deploy.
    Now, I haven't seen any specific official figures from the 
Army about what's exactly included in the supplemental for 
Guard equipment in the reset of the deployed forces. The 
Secretary had said that we would get that information a couple 
of weeks ago. I know the subcommittee requested it. Mr. 
Secretary, we haven't gotten it yet. I wish, in the next couple 
of days, I could get provided with this kind of information. I 
want--and the subcommittee--to have an official breakdown of 
what's included with the Army Guard modularity and the 
equipment reset. Can we get that within the next couple of 
days?
    Secretary Harvey. Certainly you can.
    I'm not familiar with the request. The Chief may want to 
make a few--we can make some comments right now, if----
    Senator Leahy. Yeah, go ahead, but----
    Secretary Harvey. Yeah.
    Senator Leahy [continuing]. If we could get----
    Secretary Harvey. We will get you that----
    Senator Leahy. Yeah.
    Secretary Harvey. We will fulfill that request.
    General Schoomaker. Did you want me to make----
    Secretary Harvey. Yeah, why don't you make a few----
    General Schoomaker [continuing]. Did you want me to 
comment?
    Secretary Harvey [continuing]. Comments about----
    General Schoomaker. All right.
    First of all, in the supplemental, what we're doing to 
reset the units that we have sent to Iraq is without regard to 
component. For instance, the 30th, the 39th, the 81st, those 
units received the most advanced soldier gear that we could put 
on them, even ahead of the active force, because of when they 
were going over there. They will be reset like the active force 
when they return.
    And so, there is--unlike in the base budget, where you have 
discrete lines for Guard and active, in the supplemental we 
have aggregated, and we are resetting the units that have gone. 
Now----
    Senator Leahy. You understand my concern, though. If it's--
--
    General Schoomaker. Yes, sir.
    Senator Leahy [continuing]. Not a discrete line, it 
sometimes--we suddenly find, when you get budget crunches in 
other areas, the Guard and Reserve do not get that reset and do 
not get the----
    General Schoomaker. Yes, sir.
    Senator Leahy [continuing]. The equipment. I just want to 
make sure----
    General Schoomaker. Sure, I think that it's fair to say--
and you certainly talk to the Guard and Reserve leadership--we 
are committed to--you know, part of this reset is also part of 
transforming the Army to a more modular force. They go hand in 
glove. And so, we must use the resources that you're providing 
and the momentum we have from our deployments to expedite this 
process of making the Army more modular, and that's how we're 
doing it.
    Senator Leahy. Let's see if we can get some----
    Secretary Harvey. Senator, I can give you some specifics, 
if you'd like, right now.
    I just wanted to--and the Chief is--and this is his point, 
which is, we don't treat the Guard and Reserve any different 
than we treat the active. The Chief has started this 
initiative. It's an Army of One. And there's no difference, in 
our mind, between the active and the Guard.
    But specifically for in the fiscal year 2005 for reset, 
there's $855 million for modularity. There's $800 million 
specifically for the National Guard. And our plan in 2006 is 
$850 million for reset, $1 billion for modularity; in 2007, the 
same. So, over the next 3 years, we have about--if you add all 
those numbers up, it's about $5 billion for reset and 
modularity for--specifically for the Guard--in the 3-year 
period.
    Senator Leahy. If our staffs----
    Secretary Harvey. And we'll provide that for the record. I 
have it right here.
    [The information follows:]

                Army National Guard Modularity and Reset

    The Department needs flexible, rapidly deployable forces 
and sufficient depth and strength to sustain multiple, 
simultaneous operations. The Army is transforming to a modular 
structure to meet these challenges. This new organization will 
have 77 combat brigades, 43 in the active Force and 34 in the 
Army National Guard. Transforming to a modular organization 
will allow the Army to use its people and equipment more 
efficiently. In fiscal year 2004, the Army added three new 
active brigades and converted 11 others. In fiscal year 2005, 
the Army will add another three active brigades, and will 
convert five active and three Guard brigades into the Modular 
configuration. The investment portion of the supplemental 
contains $787 million to procure equipment to support these 
Guard brigades which are scheduled to deploy to Iraq, in 
accordance with the Army's Campaign Plan. This equipment is 
listed below.

      FISCAL YEAR 2005 ARNG EQUIPMENT SUPPLEMENTAL REQUIREMENT \1\
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                            Fiscal year
                 Nomenclature/item name                      2005 GWOT
                                                               reqts
------------------------------------------------------------------------
SINCGARS................................................          28,800
Tactical Radios (HF-150)................................           7,300
Tactical Radios (PRC-148)...............................           5,900
Tactical Radios (PRC-117)...............................           8,250
JAVELIN Control Launch Unit--RC.........................          88,000
M249 SAW MG, 5.56 mm....................................          15,864
M240 MG, Armor MG 7.62 mm...............................          18,595
M4 Carbine 5.56 mm......................................          12,621
Sniper Rifle, M107......................................           1,188
M4 Carbine Mods.........................................           4,075
M249 SAW MG Mods........................................             556
SHADOW UAV..............................................          12,500
Bradley RECAP (WTCV)....................................          70,300
CI/HUMINT Information Management System.................           5,400
AFATDS..................................................          10,950
AN/PAQ-4 (RC)...........................................           2,700
Driver Vision Enhancer..................................           3,981
Long Range Adv Scout Surveillance System................          36,970
AN/PVS-14...............................................          38,800
M119A2..................................................          23,577
Improved Target Acquisition System......................          35,000
Digitized Topographic Support System....................          10,200
KNIGHT..................................................          12,900
M240 MG Mods............................................             221
JAVELIN Control Launch Unit--AC/RC......................          27,664
Management (ADAM) Cell..................................          18,000
Mortar Fire Control System (MFCS-H).....................          38,577
PROPHET Block II/III....................................           7,891
TROJAN SPIRIT...........................................          11,052
All Source Analysis System..............................           5,856
Distributed Common Ground System--Army..................             120
Q36 (Shelters)..........................................          10,100
BCS3....................................................          21,100
LLDR....................................................          16,000
Abrams Blue Force Tracker Installation Kits.............           2,100
Maintenance Support Device..............................          23,620
FORWARD REPAIR SYSTEM...................................          36,634
Lightweight Handheld Mortar Ballistic computer (LHMBC)..           3,732
SHOP EQUIPMENT CONTACT MAINT TRUCK......................          12,111
120 mm Mortar System....................................          22,700
TRAILER MOUNTED WELDING SHOP............................           1,452
LMTC....................................................          28,200
FMTV....................................................          45,438
                                                         ---------------
      Total fiscal year 2005 ARNG equipment supplemental         787,000
       request..........................................
------------------------------------------------------------------------
\1\ Identified to support the conversion of ARNG BCTs in accordance with
  the ACP.

    Senator Leahy. I appreciate that, Dr. Harvey. I really do. 
And if we can have our staff, sort of----
    Secretary Harvey. Sure.
    Senator Leahy [continuing]. Keep in touch with this.

                    FORCE PROTECTION INDUSTRIAL BASE

    I was concerned, on the article that was in the New York 
Times on Monday, about the delay in providing armor protection 
for our troops in Iraq. The article, sort of, said it was not 
so much the lack of an industrial base, or even bad 
decisionmaking at the highest level, but some kind of absurd 
bureaucratic delays that sound like a Kafka novel as you read 
it. Former Defense Comptroller, Dov Zakheim, who was a frequent 
witness before this panel, pointed out that the Defense 
Department didn't add more manufacturers of armored vehicles 
because it didn't want to acknowledge previous mistakes and 
then alarm the public. Several of your supply chiefs were 
quoted about delays that prevented production orders from going 
out on contract more quickly and about the supply issues that 
prevented what was actually made getting into the hands of 
troops who needed it urgently.
    I think every one of us on here received letters and calls 
on this armor question. I'm hoping that the Armed Services 
Committee, the authorizing committee, will ramp up a series of 
hearings on this.
    I just want to know if you share our concern and our 
outrage. Because you look at this--you find foreign countries 
seem able to somehow get past the bureaucratic delay. I mean, 
what's happening?
    Secretary Harvey. Well, can I just--if somebody would put 
up a chart here, I'll show you, kind of a history, and then 
make some comments about it.
    Senator Leahy. And if you feel the article was inaccurate, 
say so.
    Secretary Harvey. Well, it wasn't totally accurate, for 
sure.
    This is a chart of up-armoring of the spectrum of vehicles 
that we have in theater, from Humvees to medium tactical 
wheeled vehicles to heavy. So we have seven different 
categories. And you can see there, starting in the fourth 
quarter of 2003, when the--kind of, the timeframe certainly 
wasn't around--but when this threat, the IED threat, became 
apparent, there was a very big effort to up-armor all vehicles. 
Today, you can see, over there, that we are now about--31,000 
out of the 32,000 vehicles are up-armored, so nearly 100 
percent are armored. Most importantly, no vehicle that goes out 
of camp with an American soldier goes out without armor. So 
today--and that started in the middle of February--every 
vehicle that leaves a forward operating base is armored, 
because of the record there of up-armoring.
    Now, let me just say, from my point of view, because I've 
been on the other end of procurement and I've worked in the 
aerospace and defense industry. It's universally believed that 
it takes too long--the acquisition process takes too long. 
There's stories galore about it. In this case, it was 
accelerated by leaps and bounds above what it had traditionally 
been. We had the Rapid Fielding Initiative, the Rapid Equipment 
Fielding initiative. My point of view is, progress has been 
made. It still takes too long. And I have tasked my Assistant 
Secretary for Acquisition, Logistics, and Technology--and the 
Chief and I have talked about this in great deal, that we don't 
want to lose the momentum of reducing the cycle time of 
acquisition. We want to codify and institutionalize this. And 
our idea is to see if we can take the best of an acquisitions 
system which is made somewhat for large developments, and 
distill it down so that we can rapidly field this equipment.
    I think that the record will show that we've done better. 
It's still not good enough, in my mind. We still need to get it 
quicker.
    Now, in regard to that article, it failed to mention that 
the body armor that was procured in 12 days was inferior to our 
Small Arms Protective Inserts (SAPI) plates, it was inferior to 
what was fielded. And, quite frankly, we wouldn't put it on our 
soldiers.
    So, there was a little bit of inaccuracies in the article. 
I think that you can--you know, this is half-full/half empty. 
You can look at that and say, you're there now. We're there in 
body armor, we're there in vehicle armor. It took too long. But 
it was accelerated above what it normally would be. And you 
have to understand, also, that this just isn't going to the 
hardware store; this is a design and test phase. It would be a 
tragedy for us to go develop something that didn't provide the 
protection and gave the soldier a false sense of security. So 
it had to be tested, it had to be designed specifically for 
these vehicles that--it was never intended to have armor.
    And as you can see from this picture up here, that's a up-
armored HUMVEE, and every soldier that was in that vehicle 
walked away. So there is some good news in this. But I am 
committed to further improve this acquisition cycle.
    Chief, you may want to make some comments.
    General Schoomaker. Right. May I have a couple of seconds 
to say something?
    Number one, I am not happy with the acquisition system. It 
is a product that a lot of people ought to share the blame for. 
It is designed to never make a mistake. It is not designed to 
be effective, and it is certainly not designed for war. And so, 
I have asked repeatedly that we reform the acquisition system 
to be more closely related to what I had when I was Commander 
in Chief in Special Operations Command, and that is to get the 
bureaucracy and all the fingers and all of the people that want 
to make sure that they get their piece of the lollipop out of 
the system.
    Senator Leahy. Did you say ``lollipop?''
    General Schoomaker. Of the lollipop. Lick the big lollipop. 
Uncle Sam's lollipop.
    I think we all share in some responsibility there for that.
    Number two, we have never up-armored things like jeeps. We 
had 500 of them in the Army. I'm not suggesting this was the 
best move, but it's what we had. And it was designed for scouts 
and MPs. And this war, with what we got, indicated that we had 
to provide better protection for soldiers. As we've already 
said, even M-1 tanks have been blown up. So there is a physical 
limitation to how much armor you can put on things. And one of 
the physical limitations we have are--the vehicles that we had 
to up-armor were not designed to carry the armor. And so, we've 
now had excessive rollovers of these vehicles. We've had 
excessive wear of these vehicles. We've had all kinds of 
problems with these vehicles. And so, we have made some major 
changes to get the right kind of heavy-duty vehicle to carry 
this armor.
    In light of the system we have, this is extraordinary. And 
if you want to read a great story, read about the United States 
Army and this country in World War II and the 2 years and 3 
months and 7 days it took for it to crank up its system from 
the time that the war started to get ready to go into North 
Africa. And you can read it in Rick Atkinson's book, called 
``An Army at Dawn.'' And it would make you very proud of what 
this Army has done to get ready and to fight this war in the 
last year.
    Senator Stevens. Thank you very much.
    Senator Hutchison.
    Senator Hutchison. Thank you, Mr. Chairman.
    I want to assure General Schoomaker, we are very proud of 
the Army and the way----
    General Schoomaker. Thank you.
    Senator Hutchison [continuing]. They have taken the burden 
of this war on terror. It's phenomenal.
    I have two questions. First, let me say, to both the 
Secretary and to General Schoomaker, that I think your efforts 
at modularity are innovative and bold, and we want to support, 
in every way, the efforts that you are making in this regard.

                     MILITARY CONSTRUCTION (MILCON)

    I was concerned, I have to tell you, yesterday, when I was 
in my military construction hearing, to note that Army military 
construction is 16 percent down from last year; Air Force is 61 
percent up. Now, I'm not comparing services, and I am not in 
anyway saying that it's wrong that Air Force is up. However, we 
do know that the Army is carrying such a load in not only the 
war on terrorism, but in the reconfiguration. We do know that 
it will be mostly Army people moving back from Europe for the 
long term. And my question is, How can you get by with a 16 
percent cut in military construction when you are being asked 
to do so much?
    Secretary Harvey. Senator, one of the reasons--and I'll get 
you a detailed answer for the record--is, one of the effects we 
have going on here--there's a number of sub-elements, one of 
which is, because of the residential community initiative, 
which is the privatization of our housing, that--which the 
private sector now----
    Senator Hutchison. Right.
    Secretary Harvey [continuing]. Takes care of--we have less 
need for monies in Army family housing. The other effect is 
that, because we are globally rebasing, as you indicated, and 
bringing a lot of people back from Germany, the Army 
construction housing--we're just maintaining, rather than 
building anything new. We're going to maintain those residents 
in what we have.
    So let me get you a detailed answer for the record.
    [The information follows:]

                       Decrease in Milcon Budget

    While the regular Army's construction budget is lower than 
the fiscal year 2005 level, the budget represents a balance 
among the Army's requirements and supports our highest military 
construction priorities, which includes barracks, family 
housing, training ranges, Army National Guard Readiness Centers 
and aviation facilities and Army Reserve centers. The fiscal 
year 2006 budget request supports global restationing moves, 
part of which is in the base, realignment, and closure wedge. 
Reductions were made to the Army family housing appropriation 
to account for housing privatization. These funds were moved to 
the Military Pay appropriation to cover basic allowance for 
housing so Soldiers could pay their rent.

    Secretary Harvey. But I think, macroscopically, this--I'm 
looking at the numbers, and I realize--and I actually asked the 
same question, because, on the surface, it looks like, you 
know, we're not doing what we need to do. But I think, down in 
the detail, there is these other effects.
    General Schoomaker. If I could, Senator, number one, the 
work last year, where you supported the raising of the cap for 
RCI, has allowed us now to almost double the number of 
installations. We went from 23 installations now to about 45 
installations. We went from something like 30--in the high--
30,000 homes to over 85,000 homes that we're going to be able 
to build now on the RCI project. And so, this has an impact and 
an offset.
    And the second thing is, because of the plan to modularize 
the Army force, we cannot use MILCON. It doesn't work fast 
enough for us to get the barracks, et cetera, built fast 
enough. And, therefore, we're doing some of that with 
supplemental funding for the units that we're standing up to go 
to war through the temporary barracks, as an example. And we 
will follow up with permanent construction in those enduring 
facilities that we know, as we rebase, bringing 70,000 soldiers 
home from Europe, for example, and 100,000 family members, that 
will be absorbed in Continental United States (CONUS), and we 
want to make sure that, when we get through--if there is a Base 
Realignment and Closure (BRAC), we want to make sure that we 
get through the BRAC process and invest in the places that we 
need to invest, you know, as a result of that.
    So it's very complex. I think we owe you an answer for the 
record.
    Secretary Harvey. Yeah, we do.
    General Schoomaker. But my view is, we're advancing the 
checker, not retarding it----
    Senator Hutchison. Well----
    General Schoomaker [continuing]. And there's a fundamental 
difference between the Air Force and the Army in this regard, 
because they have a different situation on their hands than we 
do, as you know.
    Senator Hutchison. Well, that's true. And let me say that I 
like the privatized housing. It is so much better quality. The 
neighborhoods look like neighborhoods, and the--all of the Army 
people that I've talked to love it. Well, all the 
servicepeople, where they have these units, love it, which is 
good. But that does mean you're going to have to use the 
savings from construction to go into the lease payments that 
are a part of that contract.
    So I'm not against that, as long as you're not 
shortchanging the other types of buildings that are needed for 
better training facilities, for all of the troops that will be 
brought home and reconfigured.
    Secretary Harvey. In this regard, let me tell you, Senator, 
something we did--the Chief and I did a couple of weeks ago in 
looking into our Barracks Modernization Program, which is an 
ongoing program to bring the 136,000 barracks that we have up 
to a quality standard, plus what we call a ``One-and-One,'' 
which is a very nice arrangement where there's two separate 
rooms and a common area. We call that the ``One-and-One.'' It 
came to light in one of our briefings, to the Chief and I, that 
there are still 20,000 substandard barracks that don't meet 
quality standards. The Chief and I looked at each other. We 
said, ``That is unacceptable.'' We're reprogramming money 
within our accounts to take care of that this year, so that the 
20,000 substandards--the good news is, 80 have been converted; 
the bad news is, there's 20,000. Then you ask the question, 
``Well, when's that going to happen?'' They say, ``Well, this 
is the program. It goes to 2009.'' You say, ``Unacceptable. 
We're going to do''----
    Senator Hutchison. Good.
    Secretary Harvey [continuing]. It right now.''
    So you can rest assured that we're sensitive to this and 
that we ask our soldiers and their--in this case, the single 
soldiers--to sacrifice for this country; they can live--and, as 
you heard, their quality of life should match their quality of 
service. So we--we're putting our dollars where our words are.
    General Schoomaker. That 20,000 barracks are rooms. That is 
not buildings. So there's 177 buildings and 20,000 barrack 
spaces----
    Senator Hutchison. I understand.
    General Schoomaker [continuing]. Is what we're talking 
about. And we will----
    Senator Hutchison. And I like the----
    General Schoomaker [continuing]. Have that done.
    Senator Hutchison [continuing]. I've seen the ``One-and-
Ones.'' I like them very much.
    Secretary Harvey. Yeah.
    General Schoomaker. Yeah, the ``One-Plus-One.''

                          ARMY DEPOT CAPACITY

    Senator Hutchison. Second question, on depots. We are now--
at Red River Army Depot, for instance, they are putting out two 
to three times the work, doing a great job in armoring 
vehicles. But there was a time when Red River was not doing as 
much. And my question is, as we are looking at the long term 
for the Army, do you look at being able to surge and keeping 
the, maybe, excess depot capacity in the future for your 
vehicles, looking at the kind of security threats we're going 
to have, so that we would looking at needing to keep that 
capability that we are seeing in, now, all three of the vehicle 
maintenance depots that we have?
    General Schoomaker. From the military perspective, the 
answer is, yes. And these are the factors that we placed into 
the whole comprehensive look. I couldn't speak directly to Red 
River. As you know----
    Senator Hutchison. Right.
    General Schoomaker [continuing]. There are a number of 
arsenals and depots, et cetera. But I think it's very clear 
that the surge capacity was absolutely fundamental to our 
success in doing what we just showed here on----
    But I am concerned about things like industrial base. For 
instance, we have one ammunition plant in this country for 50 
caliber and below that services not just the Army, but the Air 
Force, the Navy, the Marine Corps, and the Coast Guard, and 
everybody else. And our requirement's for about $2 billion a 
year, and the machines in this factory are 1940 and 1942 
machines, still run by leather belts. And much of this is a 
hand process. For instance, all of the primers for all of our 
small-arms ammunition are still hand-loaded and eye-inspected.
    Senator Hutchison. Well, General Schoomaker, you mentioned 
that you don't like the acquisition process. That is a factor 
in what you're just saying, because, with one place to make 
that ammunition in America, and the costs are different from 
foreign competitors, I think looking at our own U.S. 
capabilities to make that kind of ammunition should be a factor 
in our----
    General Schoomaker. I couldn't agree more.
    Senator Hutchison [continuing]. Acquisition decisions, 
because we're going to run the one out of business because they 
can't compete with foreign companies.
    General Schoomaker. Senator, I couldn't agree more. And 
I'll tell you that, as a mitigating factor, we went offshore to 
look at foreign capacity to produce the small arms, and we went 
inside the country to look at it, and there are limitations 
commercially; not only limitations in terms of numbers that can 
be produced, but quality. And, as you know, we have very--we 
have to have very high standards in the quality of our 
ammunition, you know, for our troops.
    Senator Hutchison. Well, we want to work with you on that.
    General Schoomaker. Thank you.
    Secretary Harvey. Let me just add, Senator, to your point 
about the depots and the arsenals, which are very important in 
our ability to do what we just showed you, that, besides their 
own product lines and their own reset activities, they 
participate in a lot of the up-armoring. In 2003, across the 
five depots and three arsenals, we generated about 12 million 
productive hours. This is how you measure a factory's output. 
This year, it will be something like 19 to 20 million 
productive hours. And next year, the schedule is for 25 
million. So we have really cranked up, so to speak, the depots 
and arsenals. They have played a very important role. And we 
take a strategic look at those, and that's our view, based--
it's based on this experience.
    Senator Hutchison. Thank you very much.
    Thank you, Mr. Chairman.

                    GROUND-BASED MID-COURSE MISSION

    Senator Stevens. I just want to ask one question, if you 
can provide an answer for the record. I understand there's a 
question of using dual-status 10 title--dual-status, title 10, 
title 32 Guard personnel for the Ground-Based Midcourse mission 
in Alaska. It's my understanding that was in the basis of the 
plan--original planning for that mission, but would you, for 
the record, explain which authority the Guard personnel for 
this mission will be designated, and whether a decision will be 
made to change the original plan?
    Secretary Harvey. We'll do that, Senator.
    [The information follows:]

 Dual Status Technicians for Ground Based Mid-Course Mission in Alaska

    There are no dual status technicians contemplated for this 
mission, all are Active Guard Reserve (AGR) or active duty 
Soldiers. It has been the Army's intent to employ the original 
manning model wherein the Colorado Army National Guard (ARNG) 
and the Alaska ARNG Title 32 Active Guard Reserve Soldiers who 
transition to title 10 to perform federal operational missions. 
These missions include duties to control, operate, or maintain 
the GMD system, or to secure or defend any GMD site or asset. 
Prior to making a formal decision, the Secretary of the Army 
entered into consultation with the Under Secretary of Defense 
for Personnel and Readiness (USD(P&R)). Those consultations 
continue with USD(P&R), with a decision forthcoming.

    Senator Stevens. Now, could we have the honor of having a 
photograph taken with these three young men who are part of the 
newest Greatest Generation? We'd like to personally 
congratulate them, if that would be possible.
    Secretary Harvey. Absolutely.
    Senator Cochran. Can I ask a couple of more questions?
    Senator Stevens. Oh, pardon me, Senator, do you have--yes, 
we have time.
    Senator Cochran. Mr. Chairman, thank you very much.

                FIRESCOUT UNMANNED AERIAL VEHICLE (UAV)

    Let me ask, before we get to the photograph, there are a 
couple of questions that I had that I would like to get on the 
record today, if we could. I don't think the supplemental 
provides a request for funding of the Firescout, but I know 
that this is a new unmanned aerial vehicle that is being looked 
at very closely by both the Navy and the Army. Testing has 
already commenced by the Navy, and I understand the Army plans 
to commence testing soon. And if I'm correct, this is a new 
platform that will provide operational capability for 
commanders in the field far greater than we have in any other 
unmanned vehicle that is in the inventory at this time.
    Could you tell me if--and this is the Firescout system that 
I'm talking about, specifically--it would provide the Army with 
the opportunity to accelerate force capabilities into the 
current force. And this is my question. Even though this was 
looked at as a part of the future Army inventory, could you 
provide an estimate for the record on the earliest integration 
that you foresee for Firescout into the Army's inventory of 
resources?
    General Schoomaker. Just to make sure I understand, I think 
you're talking about the A-160 rotary UAV. Is that----
    Senator Cochran. It is----
    General Schoomaker [continuing]. Correct?
    Senator Cochran [continuing]. It can be used as an attack 
helicopter, it can be used----
    General Schoomaker. Okay.
    Senator Cochran [continuing]. To direct fire. It has a lot 
of capabilities, that's right.
    General Schoomaker. You are correct. That is being looked 
at as part of the Future Combat System. It is something, 
certainly, as it would be available, we would spiral. And we'll 
get you an answer for the record, in terms of that.
    [The information follows:]

         Integration of Firescout Unmanned Aerial Vehicle (UAV)

    The Army has selected the RQ-8 Firescout as the Future 
Combat Systems (FCS) Class IV Unmanned Aerial Vehicle (UAV) 
solution. The Army plans to field all four classes of UAV 
beginning in fiscal year 2014 to the first Unit of Action. The 
Army will continue to assess the technology readiness of the 
FCS UAVs in concert with the other FCS platforms and network to 
determine if an accelerated fielding date is feasible and 
prudent.

    Senator Cochran. Thank you.

                          HOUSING AT KAWAJLEIN

    The Senator from Texas asked you about barracks and the 
need to upgrade facilities. And this is a critical problem in 
some areas. We also want to point out, the Army has control and 
jurisdiction over Kwajalein. There's a lot of work being done 
out there in connection with our missile defense program. A lot 
of people come and go out there. But the facilities for housing 
are dilapidated, old, worn-out facilities. There are a lot of 
trailers that were built--put on the island in the 1960s, and 
are falling apart. There's a new dome construction housing 
program out there that's working well, and I'm told that you 
could use some more housing out there for the people who are 
working in this program. Since it's the Army's responsibility, 
would you look at that and see if you could accelerate the 
purchase of this--dome housing components. We think it's cost 
effective. That's what we were told. But verify that for me, 
and if it needs to be in the supplemental, let us know.
    Secretary Harvey. Okay, we'll do that.
    [The information follows:]

         U.S. Army Kwajalein Atoll (USAKA) Dome Home Initiative

    At this time, the Army is not able to accelerate funding to 
provide dome-style housing for the stationed workforce 
population at U.S. Army Kwajalein Atoll. Other pressing Army 
funding requirements in Military Construction, Army and 
Research, Development, Test and Evaluation (RDT&E), Army 
accounts outweigh the Army's ability to replace the 1960 
vintage trailers.
    While overall Army requirements exceed the ability to 
accelerate funding, the present housing situation is in an 
extremely deteriorated state. Kwajalein, an essential missile 
test and space surveillance facility, is basically a 
government-owned, contractor-operated installation. The 
demographics of Kwajalein include approximately 25 military, 70 
Army civilians, and 1,100 American contractors. For the past 
couple of decades, the infrastructure has been failing and 
continued patchwork on many deteriorated structures, to include 
many of the trailers, is no longer an option. Over 200 single-
wide aluminum 1960's vintage trailers continue to house the 
U.S. Army, government civilian and contractor personnel. Annual 
cost to maintain these trailers exceed $5,000 per unit.
    Direct appropriations for Kwajalein are provided through 
RDT&E. Recent housing upgrades at Kwajalein are the results of 
Congressional add items. Boeing, a tenant on Kwajalein, paid 
for 15 dome facilities for permanent residents in support of 
missile defense programs (specifically Ground-Based Midcourse 
under Missile Defense Agency). These domes have been in use for 
almost seven years, and will revert to government control upon 
vacation of Boeing as the GMD mission concludes. They are leak 
proof, mold and mildew resistant, free of pests, and are 
aesthetically consistent with island infrastructure. USAKA was 
Congressionally authorized and approved to build ten dome homes 
in 2003, but the funding was not appropriated. These homes were 
built with funds shifted away from other infrastructure needs. 
Commensurate with the construction, a number of trailers were 
disposed of. USAKA did receive $2.1 million in a supplemental 
in 2004 to build eight domes, and $1.8 million in 2005 for an 
additional eight domes. Total number of dome housing on island, 
either complete or under construction, is 41. These dome homes 
have a life expectancy of 50-75 years with much more cost 
effective maintenance costs than the trailers.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. Thank you.
    Thanks, Mr. Chairman.
    Senator Stevens. Yes, sir.
    Senator Cochran. I have other questions I'd like to submit 
for the record.
    Senator Stevens. We are going to submit some questions for 
the record, yes, sir. We would appreciate your response to 
those questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department subsequent to the hearing:]

               Questions Submitted to Hon. Francis Harvey
               Question Submitted by Senator Ted Stevens

                         FUTURE COMBAT SYSTEMS

    Question. What is your assessment of the Future Combat System and 
what technologies do you feel pose the greatest challenge to this 
program?
    Answer. Building on the modular organization, the Future Combat 
System (FCS)-equipped Unit of Action (UA) is designed for the future 
operational environment that our strategic thinking predicts. The 
embedded network capabilities allow the FCS-equipped UA to fully 
leverage Joint capabilities and ensure that we have created a force 
that is fully integrated and capable of achieving decision superiority.
    The FCS-equipped UAs will be the Army's future tactical warfighting 
echelon; a dominant ground combat force that complements the dominant 
Joint team. FCS will improve the strategic deployability and 
operational maneuver capability of ground combat formations without 
sacrificing lethality or survivability. The challenges for this program 
and the Army are developing the network centric environment, and 
defeating future kinetic threats. The FCS program takes these 
challenges head on to develop the kind of intelligence and situational 
awareness required for surviving in the current to future environment.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

            ARMY NATIONAL GUARD INFORMATION SYSTEMS REDESIGN

    Question. Secretary Harvey, in February 2004 the President mandated 
a significant redesign of Army National Guard installation information 
systems to bring them into compliance with existing management systems. 
I have been informed this redesign is critical to coordinating national 
and regional responses during a natural disaster or act of terrorism. 
The redesign would also improve mobilization and training of National 
Guard brigades supporting the Global War on Terror. I did not see any 
request in the fiscal year 2006 budget submission to fund this mandate. 
What is your assessment of the Army's approach to improve Enterprise 
Resource Planning for National Guard Installations, the capabilities 
required to support deployments, and the Army plan to fund this 
Presidential mandate?
    Answer. The Army National Guard (ARNG) is currently in the process 
of overhauling and modernizing all of its automated systems to adhere 
more closely to a commercial enterprise resource planning (ERP) 
solution. The ARNG recognizes the importance of this initiative and 
reprioritized existing funding ($1.7 million fiscal year 2004 and $3 
million fiscal year 2005 Operations and Maintenance, National Guard 
(OMNG)) which was supplemented with an fiscal year 2005 Congressional 
add ($1 million OMNG). The ARNG is currently conducting an enterprise 
business process architecture study that includes not only installation 
management but also finance, logistics, and human resources.
    The February 2004 Presidential order mandating establishment of a 
Federal real property asset management system requires a significant 
re-look of the Guard's information systems to bring them into 
compliance. Federal statutes mandate that state Guard funding and 
facilities be managed by the National Guard apart from the active Army. 
The Army has embraced ERP planning philosophy, methodology, and 
commercially-proven software to take an Army enterprise approach to 
modernizing its logistics management systems that affect the operation 
of Guard units in 54 states and territories. The ARNG has begun a 
process to develop an ERP-based Guard installation management system 
which will allow Guard units, in the future, to support local and state 
authorities, state police, and state and federal agencies like FBI, 
NOAA, DEA, EPA, and CDC. Since the ARNG manages its military 
construction program, separately from the active Army, upgrades to the 
installation management system are essential for efficient 
modernization of the Army Guard's national infrastructure. In the 
future, State systems will be linked, allowing efficient and 
coordinated regional and national response. They will also be linked 
with the National Geospatial Agency's vast digital library of 
geospatial and mapping data, providing Guard commanders at all levels 
accurate and actionable visualization information of individual 
buildings, posts and Readiness Centers, highways, cities, counties, 
regions, and other items of interest. Army Guard facilities are used to 
deploy forces during emergencies and combat operations. The Guard's 
legacy information systems for installation management proved to be 
inefficient for deploying units to Afghanistan and Iraq. They are 
incapable of providing critical asset visibility outside of individual 
States, and do not have interfaces to the systems of federal and state 
emergency management agencies such as FEMA. The ARNG facilities 
receive, stage, train, and deploy ARNG during state emergencies and 
preparation for combat operations and require an installation 
management solution that will modernize installation business 
operations and support state and federal missions. In today's climate, 
where the Army plays an ever-increasing role in conflicts all over the 
globe, it is imperative that the ARNG take a proactive approach. The 
ARNG will continue to move ahead with modernization initiatives and 
fully intends to integrate Army initiatives when implemented.
    The ARNG must continue with its efforts to develop an ERP-based 
installations management system. Extending the ongoing business process 
study from high level business processes to the transactional level 
would be valuable in determining the value added of an ERP project. The 
business model, in Department of Defense architecture framework 
standards of the ARNG installations management using the access request 
information system toolset and delivery of an integrated proof of 
concept pilot implementation of the installations management solution 
using commercial, off-the-shelf software--SAP<SUP>TM</SUP> (Enterprise 
and Solution Manager), and ESRI<SUP>TM</SUP>/DISDI Geographic 
Information System would be in concert with other ongoing DOD and Army 
ERP projects. The proof of concept will be piloted at two ARNG 
facilities, to be determined at a later date.

                             ROTORCRAFT HUB

    Question. Secretary Harvey, helicopters continue to perform a 
myriad of missions around the world while the cost of operating and 
maintaining these aircraft continues to rise. I would think that with 
the increased number of aircraft operating in combat, with many 
exceeding expected annual flying hours, any technology that improves 
maintainability and performance would provide a welcome benefit.
    Hub drag is one major problem in helicopter operations that is in 
need of improvements. I have been informed that Brannon Industries, 
located in Johnson City, TN has a rotorcraft hub shroud design 
currently in development which could provide these needed improvements. 
What are your thoughts on this technology and its potential impact on 
aircraft operations, maintenance and overall savings?
    Answer. We recognize the issue of hub drag in Army helicopter 
operations and are evaluating several solutions to this issue, 
including the one offered by Brannon Industries.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

                        RECRUITING AND RETENTION

    Question. Do you believe that enhanced enlistment bonuses, 
increased recruiters and other incentives for individual soldiers will 
be enough to overcome current recruiting difficulties for the Army?
    Answer. The Army has examined the fiscal year 2005 recruiting 
environment and expects this environment to remain equally challenging 
into fiscal year 2006 and fiscal year 2007. The operations in support 
of the Global War on Terror, Operation Iraqi Freedom and Operation 
Enduring Freedom are only a part of this recruiting environment. 
Additionally, the Nation is experiencing an improving economy as well 
as improving unemployment rates. Today's youth continue to have options 
that do not necessarily include the military. We believe that we are 
implementing a sound plan to address these issues.
    The Army is not only aggressively adjusting our number of 
recruiters, advertising dollars, and incentives. We are shaping the 
Army's future policies to allow the components to adapt much quicker to 
the Army's recruiting environment. We remain committed to attracting 
high quality men and women to serve as Soldiers.

                              END STRENGTH

    Question. In a related question, do you believe that the current 
attempt to restructure forces so more soldiers are in combat roles 
rather than administrative jobs are enough to address ``end strength'' 
concerns? Or will a legislative increase in the number of troops be 
required?
    Answer. No. Military to civilian conversions represent a fraction 
of Army efforts to make better use of available manpower and relieve 
force stress. We have numerous other actions underway such as 
rebalancing the numbers and types of capabilities between components, 
adjusting our overseas footprint, modular force designs, improved 
management of readiness and resources with the Army Force Generation 
model, use of contractors on the battlefield to offset soldier 
requirements, applying technology to leverage ``reachback'' 
capabilities here at home, and a host of other initiatives.
    Individually, these actions are not enough to address ``end 
strength'' concerns. Collectively, they represent a powerful large-
scale endeavor to relieve stress on our Soldiers and families. A 
legislative troop increase will be necessary if current force 
requirements persist (or increase) during the coming years. If force 
requirements decline over the coming months, a legislative increase 
will not be required.
                                 ______
                                 
           Questions Submitted to General Peter J. Schoomaker
               Questions Submitted by Senator Ted Stevens

                               MODULARITY

    Question. Many are questioning the inclusion of Modularity funding 
in the supplemental. Please explain why Modularity requirements are 
included in the supplemental request and describe how Modularity has 
helped our troops currently deployed and those preparing to deploy to 
Iraq and Afghanistan.
    Answer. There are two reasons that justify why the cost of 
modularity is part of the fiscal year 2005 Supplemental. First, these 
requirements directly support the war fight because they equip units 
planned for deployment to Iraq or Afghanistan. The Army developed 
estimates for the Army Modular Force after reviewing the specific 
equipment and facility needs of those units planned for conversion. The 
supplemental supports only those equipment requirements for these near 
term deployers, both active and Reserve Component.
    Second, the accelerated process of the supplemental when compared 
to the normal budget process--a matter of months compared to almost two 
years--permits us to more precisely determine our requirements in this 
very dynamic environment. We have programmed for modularity 
requirements beginning in fiscal year 2007 when we will have more 
certainty of our deployment schedules and associated equipment and 
facility needs.
    Modularity helps our forces deployed to or preparing to deploy to 
Iraq and Afghanistan by making them more lethal and mobile. We can 
incorporate the most recent lessons learned in our training techniques 
and tactics and we can ensure our soldiers have the equipment they need 
to defend against and attack the latest tactics used by the enemy.
    In the future, modularity will relieve stress on the force by 
increasing the number of brigades and rotational depth of the force. 
With increased rotational depth, the Army can reduce the frequency and 
duration of deployments. In conjunction with the Army's force 
stabilization initiative, deployment schedules for Soldiers and their 
families will become more predictable. Modular force elements have full 
spectrum capabilities along the entire range of military operations. 
This allows the Army to generate force packages optimized to meet the 
demands of a particular situation, without the need to deploy 
additional Soldiers unless absolutely required.

                      ARMY AVIATION MODERNIZATION

    Question. Your recently released aviation modernization plan 
contains sweeping changes; tell us about the status of this plan and 
how you plan to mitigate risks along the way.
    Answer. The Aviation Modernization Plan is linked to the Army 
Aviation Transformation Plan and the current warfight. As such, we have 
already started the implementation of the modernization plan: 
acceleration of upgrades for aircraft survivability equipment on our 
aircraft deployed to Operation Iraqi Freedom (OIF) and Operation 
Enduring Freedom (OEF), reset and recapitalization of our current 
fleets, and continuing to complete the acquisition documentation for 
the new start programs (armed reconnaissance helicopter, light utility 
helicopter, future cargo aircraft, and the extended range multi-purpose 
unmanned aerial vehicle system). We will continue to mitigate risk by 
leveraging supplemental funding to jump start our Reset and Recap 
efforts for our legacy fleet, oversight provided from the Department of 
Defense and Department of the Army Acquisition Executive, vetting the 
new start programs through the Joint Capabilities and Integration 
Development System (JCIDS), and monitoring programmatics to ensure cost 
and production schedules are maintained for our new start programs.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

                    PROFESSIONAL MILITARY EDUCATION

    Question. I have been informed that Secretary Rumsfeld asked the 
Joint Chiefs of Staff to provide options on how to reduce the officer 
professional military education programs during stress periods, such as 
during current operations. One of the recognized strengths of the 
United States Military is its professional military education. Would 
you share with this committee your thoughts on this matter?
    Answer. The Army is in the process of developing and executing 
training transformation initiatives. These include changes in structure 
(additional Intermediate Level Education (ILE) capacity), course 
content, delivery methods, and course length/administration of 
Professional Military Education/Joint Professional Military Education 
(PME/JPME) (ILE Course Location capability). The Army has made 
significant strides in the execution of JPME. These changes will better 
support both the current war effort and those of the future by 
providing officers who are better educated, more prepared and able to 
adapt easily to situations in a joint/coalition environment. The Army 
can continue to support the combatant commander by releasing the 
minimal number of officers for mission support. This will not reduce 
the Army's educational investment in developing its leaders, who can 
contribute effectively to the joint warfight. The Army is committed to 
developing its leaders, while simultaneously fulfilling all operational 
requirements.

                               MODULARITY

    Question. The Army is placing great emphasis on its efforts to 
transition to a modular force. We know that the fiscal year 2005 
supplemental request contains funding for modularity, approximately $5 
billion for the Army. There are no funds in the fiscal year 2006 budget 
for modularity, even though this effort will continue well into the 
future. Could you describe what the current Army will look like at the 
end of fiscal year 2006 and the rate at which the remainder of the Army 
will become a modular force?
    Answer. By the end of fiscal year 2006, the Army plans for 11 
modular UEx headquarters, 46 modular combat brigades (heavy, infantry 
and Stryker) and 47 modular support brigade headquarters in the active 
Army, Army National Guard, and Army Reserve. The Army will continue 
converting active, Guard, and Reserve structure to modular force 
elements through fiscal year 2010 to create additional modular combat 
brigades, modular support brigades and subordinate elements, and 
modular UEx headquarters.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

               MOBILE TACTICAL HIGH ENERGY LASER (MTHEL)

    Question. The Army has not included funding for the Mobile Tactical 
High Energy Laser (MTHEL) in its fiscal year 2006 budget request. It is 
my understanding that this decision is driven partly by a lack of 
funding contribution from the Israeli government (our international 
partner on MTHEL), and partly because MTHEL funds were reprogrammed to 
support overseas operations.
    One of my great concerns about the operation in Iraq is the 
difficulty of addressing the threat posed to our troops by rockets, 
artillery and mortars (RAM). Furthermore, I believe that directed 
energy is the best solution to this problem. In particular, MTHEL has 
shown maturity and testing success against RAM threats. I believe we 
have an obligation to our troops to accelerate MTHEL operational 
capabilities to achieve better force protection.
    Do you agree that directed energy (DE) is the most practical 
solution to the problem of defending against rockets, artillery and 
mortars? If so, what is the Army's level of commitment to DE?
    Answer. Directed energy (DE) is certainly one solution the Army is 
considering. We have destroyed over 50 rocket, artillery and mortar 
(RAM) targets with the tactical high energy laser (THEL) testbed at 
White Sands Missile Range. In its current form, however, THEL is not 
easily deployable and could not provide a near-term, full-force 
protection capability against mortars.
    The Army is fully committed to researching and developing DE 
weapons and recently established a product manager's office to 
transition DE applications from research and development (R&D) 
activities to the Soldier as fully integrated and supported systems.
    In order to move technology supporting a counter RAM capability 
forward more aggressively, there are several activities we are pursuing 
concurrently. The Army continues to support the Joint Technology Office 
solid state laser (SSL) development strategy and has used fiscal year 
2005 Congressional adds to help accelerate this process. The Army is 
also working with Defense Advanced Research Projects Agency to 
accelerate other highly promising SSL technologies and laser 
architectures.
    Over $21 million is budgeted in fiscal year 2006 for continuing SSL 
technology R&D. However, after discontinuing the MTHEL program, it is 
necessary to establish other means to address required parallel 
development of weapons system components other than the laser 
generator, such as pointing and tracking systems, dynamic fire control, 
and integration into existing air defense architectures.
    Question. Given that solid state lasers (SSL) will not be 
operational for at least a decade (by most estimates) do you agree that 
the chemical MTHEL laser is the best near-term option to pursue?
    Answer. The only demonstrated Directed energy (DE) counter rocket, 
artillery and mortar (RAM) solution to date is the THEL chemical laser. 
But unfortunately, in its current form, the THEL is not easily 
deployable and could not provide a near-term, full-force protection 
capability against mortars. Due to the urgency of the requirement, the 
Army is pursuing a counter RAM kinetic energy solution based on an 
existing gun system to defeat the RAM threat and which is available 
sooner than a directed energy solution.
    Question. Please expand on the Army's decision to ``zero'' MTHEL 
and does the Army plan to reconstitute the program with different 
goals?
    Answer. The Army terminated MTHEL for three reasons. To fund other 
higher priority requirements, Israel decided to reduce its funding 
commitment to the program, and user concerns about supportability of 
the chemical laser.
    The Army has no plan to reconstitute the MTHEL program with 
different goals. Due to the urgency of the requirement, the Army 
decided to fund an existing gun system to defeat the near-term rockets, 
artillery and mortar (RAM) threat. The shorter timeline for integrating 
the gun into the counter RAM architecture was a major factor in this 
decision.
    The Army remains committed to directed energy capabilities. The 
Deputy Assistant Secretary of the Army for Research and Technology has 
a robust Science and Technology effort aimed at development of solid 
state laser (SSL) technology. Solid state is the technology the Army 
will pursue long term.

                         FUTURE COMBAT SYSTEMS

    Question. It is my understanding that the Army's biggest technology 
investment, the Future Combat System program, has been restructured to 
begin introducing more advanced network systems to the current force.
    Can you discuss this restructuring initiative and describe the 
near-term benefit to our troops in the field?
    Answer. On July 22, 2004, Army officials announced plans to 
accelerate the delivery of selected Future Combat Systems (FCS) to the 
current force. The plan expands the scope of the program's system 
development and demonstration (SDD) phase by adding four discrete 
``spirals'' of capabilities at two-year increments for the current 
forces. Spiral 1 will begin fielding in fiscal year 2008 and consist of 
prototypes fielded to the evaluation brigade combat team (E-BCT) for 
their evaluation and feedback. Following successful evaluation, 
production and fielding of Spiral 1 will commence to current force 
units in 2010. This process will be repeated for each successive 
spiral. By 2014, the Army force structure will include one Unit of 
Action (UA) equipped with all 18 + 1 FCS core systems and additional 
modular UAs with embedded FCS capability. This is the centerpiece of 
this adjustment: providing the current force with FCS capability sooner 
rather than later. Examples of the technologies that will be received 
in Spiral 1 are the non-line of sight launch system, integrated 
computer system, a version of the system of systems common operating 
environment, unattended ground sensors and intelligent munitions 
system.
    Question. It is also my understanding that FCS will be comprised of 
a family of networked air and ground-based systems that will ensure 
warfighters and commanders are more interconnected than ever before. I 
assume that testing of these networked systems will require an 
environment that has minimal radio frequency emissions.
    As you know, White Sands Missile Range in New Mexico offers the 
most comprehensive testing environment for military systems in the 
world. Furthermore, Southern New Mexico has relatively low frequency 
interference and may be well-suited for FCS ``system of systems'' 
testing.
    Would you care to comment on the type of environment that is 
optimal for FCS systems testing and whether you believe WSMR might suit 
such testing needs?
    Answer. The test program for the Future Combat Systems (FCS) 
detailed in the Test and Evaluation Master Plan (TEMP) was approved by 
the Office of the Secretary of Defense on May 8, 2003 and is presently 
under revision. The test strategy is well integrated into the systems 
engineering process and is characterized by a ``crawl, walk, run'' 
paradigm. Multiple integration phases are used to develop and integrate 
the Units of Action (UA) first in simulation and progressing to 
hardware, as simulations are replaced by emulations and subsequently 
prototype hardware. A contiguous thread of modeling & simulation (M&S) 
augmentation and support will be maintained throughout all testing and 
integration phases. These M&S include representations of components, 
systems, forces (UA, UE, Joint, and opposing forces), and threats; 
scenario generators; environment simulators; synthetic stimuli; and 
event controllers. These M&S will serve as input or nodes on the SILs 
and System of Systems Integration Laboratory (SoSIL) and wrap-arounds 
or players in technical field tests (TFTs), limited user tests, force 
development test and experiments, and the initial operational test.
    Essential to the success of the FCS is the Army's resourcing of an 
Evaluation Brigade Combat Team (E-BCT) to generate the first FCS 
equipped UA. The E-BCT is a current force Modular Brigade Combat Team 
whose purpose is to support the development, testing and evaluation of 
FCS core program, spin out technologies, and combat development. The E-
BCT will transition over time, as the FCS program matures and 
technology develops, to become the first FCS equipped UA.
    The Program Manager-UA (PM UA) will utilize E-BCT Soldiers to 
facilitate a full-motion test strategy, where movement of the Soldiers 
to multiple test sites is minimized, and Soldier interfacing with 
systems is maximized. All human resources will be conserved and 
leveraged by synchronizing test demands and requirements, and focusing 
soldier utilization to drive down program risk. This will be 
accomplished by effectively and efficiently seizing the full 
opportunity to challenge and test to the SoS's highest potential. The 
strategy/plan allows for continuous-mode operations of training and 
learning for the E-BCT, with a robust feedback mechanism to support 
systems design/engineering. This facilitates continuous improvement, 
leading to superior fielded assets to our armed forces. As stated 
above, the current FCS TEMP is under revision to support a MS B update. 
Many potential locations are being considered, White Sands Missile 
Range being one of them. Therefore, PM UA Combined Test Organization 
and the U.S. Army Test and Evaluation Command (ATEC) are assessing what 
portion of the integrated qualification testing (IQT) can be performed 
at White Sands. This assessment will be included in next iteration of 
the FCS TEMP.
    In addition to IQT, there are opportunities to access progress in a 
field environment during TFTs. A cooperative effort between the Lead 
Systems Integrator (LSI), ATEC, and the PM UA is currently defining 
range requirements and potential infrastructure upgrades to support the 
TFTs. A key to the success of the FCS test program is the SoSIL. The 
SoSIL is a distributed network that connects the LSI facilities in 
Huntington Beach, California (SoCAL Node) to their supplier's 
integration laboratories and the ATEC test ranges over the Defense 
Research Engineering Network. The single point of entry for the LSI to 
the ATEC ranges will be the Inter-range Control Center (IRCC) located 
at the Cox Range Control Facility at White Sands. This facility is 
currently being developed and funded by ATEC as part of its growing 
distributed test mission. The IRCC will enable a key reach back 
capability to the SoCAL Node for FCS systems under test at ATEC ranges.
    In conclusion, PM UA and ATEC are jointly assessing what portion of 
FCS IQT can be executed at White Sands to facilitate the full-motion 
test strategy detailed above.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby

                          JOINT COMMON MISSILE

    Question. The Joint Common Missile (JCM) was terminated in 
Presidential Budget Decision 753. Eight months into Phase 1 of System 
Design and Development, JCM is a remarkably healthy, low-risk program--
on schedule, on budget, and successfully demonstrating important new 
capabilities for the warfighter. Canceling the JCM ignores the opinion 
of our top military leaders and deprives our service members of a new 
capability they need to survive against future threats. Can you explain 
why this program was targeted?
    Further, the JCM meets Joint Service requirements and fills a 
critical capabilities gap that cannot be met by upgrading existing 
weapon systems. For example, JCM has twice the standoff range of the 
Hellfire, Longbow, and Maverick missiles it will replace on Army, Navy 
and Marine Corps aircraft. The accuracy of its tri-mode seeker will 
give our forces precision-strike lethality to eliminate threats that 
are located near non-combatants. That is why the top-ranking officers 
in all three services that have requested JCM--the Army, Navy, and 
Marine Corps--all believe the program must be restored. How can you 
justify terminating this program?
    Answer. The Office of the Secretary of Defense issued PBD 753, 
dated December 23, 2004, which terminated the JCM program. The Army is 
engaged with the Office of the Secretary of Defense, the Joint Staff, 
and the other Services to assess capability and inventory gaps 
generated by the JCM termination and evaluate courses of action which 
mitigate the termination.
    Question. How is the JCM program performing against established 
cost and schedule milestones?
    Answer. The program has performed extremely well with a schedule 
performance index of 0.97 and cost performance index of 0.91 on 
December 23, 2004.
    Question. In particular, what is the projected unit cost for JCM at 
full-rate production vs. the unit cost of a less-capable Hellfire 
missile?
    Answer. The Service's joint cost position identified for JCM an 
average unit production cost of $109,000 (fiscal year 2004 constant 
dollars) per missile based on a missile quantity of 48,613 with 
production planned for fiscal year 2008-18. Total program cost for the 
Army and the Navy is $8.1 billion ($1 billion for system development 
and demonstration and $7.1 billion for procurement). These are the 
baseline costs. The Hellfire model currently in procurement (Metal 
Augmented Charge AGM-114) is estimated at $78,000 (fiscal year 2004 
constant dollars) based on a buy of about 13,250 missiles. The 
estimated unit cost of Longbow Hellfire is $137,000 for a buy of about 
3,500 missiles; however, Longbow Hellfire is no longer in procurement 
and Maverick is estimated at $180,000 with an approximate quantity of 
23,164 (fiscal year 2004 constant dollars) but is no longer in 
procurement for the Navy.

                     167TH THEATER SUPPORT COMMAND

    Question. General Schoomaker, as you probably know, the future of 
Alabama's 167th, which became a Theater Support Command in 2000, is in 
jeopardy due to the Army's push to move from 5 Theater Support Commands 
to 4. Although I do not want to speculate, there appears to be an 
Active Component bias toward the 167th Theater Support Command--which 
comes at the expense of taxpayers' resources. Having one command under 
the control of the National Guard simply makes good sense in terms of 
stewardship of mission and cost. While I originally believed the issue 
would be resolved by moving the 167th under control of NORTHCOM, it now 
appears as if there may be resistance to this idea. In light of this 
development, I would appreciate hearing the Army's take on this 
situation. What is the current status of this issue and when do you 
expect to reach a resolution?
    Answer. As a result of the Army's modular force transformation 
efforts, the Army Staff is revalidating every requirement and examining 
each organization to ensure the capability retained provides the most 
effective use of the force structure available. Part of the 
transformation of Theater Logistics includes conversion of the current 
five theater support commands to somewhat larger, more capable theater 
sustainment commands, each with multiple and separate deployable 
command posts. The exact number and locations of these organizations 
are, as yet, undetermined. The initial analysis and recommendations 
that have been staffed with the combatant commanders, Army components, 
and the National Guard Bureau have included several options for the 
167th Theater Support Command that we continue to explore. A final 
decision on which course of action provides the best solution within 
our force structure requirements is pending a review of the mission 
capability and accessibility required for each type of unit. The 
objective is to ensure an increased capability for Army theater 
logistics and a relevant mission for the Army National Guard.
    The intent is to reach agreement on the number and locations of all 
theater logistics structures in early April.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye

                         PERFORMANCE OF STRYKER

    Question. General Schoomaker, the first Stryker Brigade Combat Team 
was deployed to Iraq in late 2003. Concerns were expressed prior to its 
deployment that it would be vulnerable to the types of threats 
prevalent in Iraq today. Can you comment on the performance of the Team 
to date?
    Answer. The first deployment of a Stryker Brigade Combat Team 
(SBCT) occurred in December 2003 when SBCT 1, 3d Brigade/2d Infantry 
Division (3/2 IN) took over U.S. military operations in northern Iraq 
from the 101st Airborne Division. The SBCT's unique combination of 
increased number of infantry Soldiers and a robust reconnaissance 
capability, have made the SBCT an extremely effective force in 
Operation Iraqi Freedom when compared to other brigades. The SBCT has 
effectively used speed and situational understanding to kill and 
capture a significant number of enemy fighters. Tactics include the 
rapid movement of infantry to objectives and the employment of snipers 
to reduce civilian casualty threat. They have earned the nickname of 
the ``Ghost Soldiers,'' as the non-compliant forces (NCF) never hear 
them coming. The Stryker vehicle is designed to enable the SBCT to 
maneuver more easily in close and urban terrain while providing 
protection in open terrain.
    Stryker vehicle survivability is exceptional; as of March 14, 2005, 
there have been well over 345 incidents where the vehicles have been 
subjected to hostile action. These vehicles have been involved in over 
168 separate Improvised Explosive Device (IED) incidents in Iraq with 
only 25 vehicles declared battle losses, and over 58 incidents 
involving Rocket Propelled Grenades with one vehicle declared a battle 
loss. There have only been three fatalities directly associated with 
these incidents. A majority of vehicles involved with these 345 
incidents were able to continue the mission or return to base under 
their own power. All non-battle loss vehicles were quickly repaired and 
many returned to duty with within two days.
    The operational readiness (OR) rate for the Stryker vehicles is 
being maintained above 95 percent. As of March 14, 2004, the Strykers 
have been driven over 4.7 million miles in Iraq. There are 
approximately 105 contractors embedded in the Stryker Brigade, 
providing logistical support for the Stryker and other systems. These 
contractors, working closely with the SBCT's mechanics, have played a 
key role in maintaining the high Stryker OR rate. Resupply of Stryker-
specific and other repair parts to the brigade is also being 
accomplished very effectively.

          PERFORMANCE OF STRYKER IN SMALL SCALE CONTINGENCIES

    Question. General Schoomaker, the Director of Operation Test and 
Evaluation was critical of several of the Stryker vehicle variants in 
his last annual report. Many of the vehicles in the Stryker family were 
judged to have limitations for use in small-scale contingencies. What 
is your response to that criticism?
    Answer. I would say two things. First, the report published in 
January 2004 was completed prior to the Stryker's remarkable combat 
performance. Second, the range of conditions in which the Stryker has 
and is performing clearly demonstrates its value in small-scale 
contingencies.
    The Stryker Brigade Combat Team (SBCT) is a full spectrum combat 
force. The SBCT is designed and optimized for employment in small scale 
contingencies in complex and urban terrain, confronting low-end and 
mid-range threats that may employ both conventional and asymmetrical 
capabilities. The SBCT's core capabilities are high mobility and an 
ability to achieve decisive action through dismounted infantry assault, 
supported by organic direct and indirect fire platforms, and enabled by 
superior situational understanding.
    True, the January 2004, Director of Operational Test and Evaluation 
(DOTE) Beyond Low Rate Initial Production (BLRIP) report identified 
some concerns about the Stryker. Now, over 14 months since data cut-off 
for the referenced DOTE report, we are well into the second successful 
SBCT operational combat deployment.
    During the past 16 months, at least one SBCT, comprised of 311 
Stryker vehicles, has been deployed in Iraq and has continuously 
demonstrated and validated the effectiveness of this organization. The 
Stryker is but one of the many components responsible for the success 
of the SBCT. Thus far, the Stryker has proven to be extremely reliable 
and survivable in combat operations. The Stryker fleet in Iraq has 
logged over 4.7 million miles (over five times the projected annual 
usage level) and has sustained a readiness rate over 95 percent, 
exceeding the Army standard. These vehicles have been exposed to over 
345 incidents of hostile attacks, including over 168 improvised 
explosive device and vehicular improvised explosive device attacks, and 
over 58 rocket propelled grenade attacks. The cumulative resulting 
battle losses from these 345 attacks are 28 Strykers as of March 14, 
2005.
    Army Test and Evaluation Command's (ATEC) January 27, 2004, summary 
assessment of the Stryker family of vehicles stated ``Overall, the 
Stryker family of vehicles is effective, suitable, and survivable; 
Engineer Squad Vehicle (ESV) suitability to be determined with 
additional testing. Stryker vehicles contribute to the key operational 
capabilities of the SBCT and achieve the desired capabilities of a 
medium-weight force which is more lethal, mobile, and survivable than 
light forces and more deployable and more easily sustained than heavy 
forces.''
    ATEC's assessment was that ``vehicle performance limitations can be 
mitigated through (1) force augmentation as outlined in current 
doctrine, (2) tactics, techniques and procedures and unit leader 
training, (3) tailored support packages and (4) focused product 
improvement initiatives.'' The DOTE concerns were discussed during the 
Army System Acquisition Review Council (ASARC) in January 2004, where 
it was recommended that a systematic process be implemented to address 
these issues. During the Defense Acquisition Board Review, the Defense 
Acquisition Executive concurred with the ASARC recommendations and 
authorized full rate production of seven of the 10 Stryker 
configurations.
    Actions the Army has already implemented include: refined the 
tactics, techniques and procedures for Stryker employment; provided 
digital capability to all Strykers in the SBCT, ensuring that every 
Stryker crew has full access to situational awareness information; 
corrected the quality control and assurance process for the Modular 
Expandable Armor System (MEXAS) such that all 14.5 mm ceramic applique 
armor meets the correct protection level; issued MEXAS battle damage 
repair kits to the Stryker Brigade in Iraq; improved the silent watch 
capability through routine component replacement with a battery 
possessing higher storage capacity; validated several improvements 
required for extreme cold weather operations; replaced the current 
automotive-style seat belt with an aircraft-style belt that 
accommodates easier use in full combat gear; applied selected force 
protection improvements to enhance crew survivability; and recently 
awarded a production contract for one brigade set of Rocket Propelled 
Grenade add-on armor.
    Actions currently being implemented in production, and planned for 
full retro-fit to previous delivered vehicles include: upgrading the 
remote weapon station with a more powerful thermal imagery sight, laser 
range finder, auto-focus and several other improvements; incorporating 
built in diagnostic capability; and integrating several human factor 
engineering modifications.
    Major design actions currently in development include: improved 
central tire inflation system to accommodate the increased weight of 
add-on armor; and improved crew escape hatches for emergency egress.
    We are continuing to assess emerging technologies and review 
recommendations from the deployed SBCT to further enhance the 
capability, force protection and performance of all the Stryker vehicle 
configurations.

                          SUBCOMMITTEE RECESS

    Senator Stevens. The subcommittee will reconvene next week, 
March 16, at 10 a.m., when we will hear from the Department of 
the Navy.
    [Whereupon, at 11:20 a.m., Wednesday, March 9, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
March 16.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                       WEDNESDAY, MARCH 16, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Domenici, Burns, 
Inouye, Dorgan, and Mikulski.

                         DEPARTMENT OF DEFENSE

                         Department of the Navy

                        Office of the Secretary

STATEMENTS OF:
        HON. GORDON R. ENGLAND, SECRETARY OF THE NAVY
        ADMIRAL VERN CLARK, CHIEF OF NAVAL OPERATIONS
        GENERAL MICHAEL W. HAGEE, COMMANDANT, UNITED STATES MARINE 
            CORPS

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Good morning, Mr. Secretary. Good morning, 
Admiral and General. We're pleased to welcome the Secretary of 
the Navy, the Chief of Naval Operations (CNO), and the 
Commandant of the Marine Corps to discuss the fiscal year 2006 
budget request, as well as the current status of the Navy and 
Marine Corps operations.
    Secretary England and General Hagee, we welcome you back to 
the subcommittee and look forward to your testimony.
    Admiral Clark, we welcome you here today for your fifth 
budget hearing before this subcommittee. And you have informed 
us, sadly, that this will be your last hearing, as you plan to 
retire this summer, after 37 years of service. We all 
congratulate you for that service, commend you for the way you 
have conducted yourself and your service to the subcommittee, 
but, even more so, for your service to the Nation, and for the 
long-range thinking you're trying to do in the last months of 
your career, so that you can leave a large footprint on the 
Navy.
    Mrs. Hagee, thank you for coming. We're pleased to have you 
here. We welcome you.
    The fiscal year 2006 budget for the Department of Navy 
totals $125.7 billion, approximately $6 billion above the level 
provided last year, excluding the supplementals. Despite this 
budget increase, the Navy request includes funding for only 
four ships. The shipbuilding budget has been well publicized, 
and we look forward to further discussion on this topic and 
other Navy budget issues today.
    We also look forward to hearing about the performance of 
our Marine Corps and learning more about the Marine Corps plan 
for reorganizing its force structure, while successfully 
continuing to prosecute the global war on terrorism.
    As always, your full statements will appear in the record. 
I must tell you that the two of us, as co-chairmen, are 
involved in the debate on the floor, so, from time to time, one 
of us may go, and then the other will go when the first one 
returns, hopefully. Hopefully, he'll return.
    Senator Inouye. I will.
    Senator Stevens. Let me turn to our co-chairman, Senator 
Inouye, for his statement, if he wishes to make one.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. I thank you very much, Chairman.
    Gentlemen, I join my chairman in welcoming you before this 
subcommittee once again. Let me join my chairman in noting that 
this may well be Admiral Clark's last appearance before this 
subcommittee.
    Admiral, I thank you very much for your service. During 
your tenure, the Navy has undergone some very important 
changes. I recall when you assumed your current position, your 
first goal was to improve readiness and get control over the 
cost of Navy operations.
    You challenged your fleet commanders to work toward 
consistent standards across the Navy communities. Since then, 
you have worked tirelessly with the Secretary and the 
Commandant to streamline the Navy, improving efficiency. And, 
if that weren't enough, you and the Secretary brought a new 
shared vision to the Navy to modernize the fleet, while making 
it more responsive to the Nation's needs. This vision will 
bring the marines and Navy closer together, with the seabasing 
and sea-shield concepts. Sir, I'm certain the Navy will miss 
your steady hand and strong resolve as you depart from your 
position.
    Gentlemen, this is a most challenging time for all of you.
    General Hagee, like the Army, the marines are being called 
upon increasingly for overseas rotations. We know this is 
straining our marines. We have seen it in recent recruiting 
statistics. But, on behalf of all members of the subcommittee, 
I think I can say thank you to all the men and women in the 
Marine Corps for their dedication to duty, their willingness to 
serve us, and their ability to meet any challenge.
    And, Mr. Secretary, no one in this administration has been 
tasked with more duties than you. On top of helping to manage 
the sea services, you have been assigned the responsibility to 
implement a new personnel system for the Defense Department. 
Many would say this has been a thankless task, as you have 
attempted to streamline personnel polices of our Government's 
largest department.
    The budget which you have submitted to this subcommittee is 
not without controversy. The number of V-22s anticipated to be 
purchased is down; so, too, the overall objective for the KC-
130 tanker. Ship production is down. You have plans to reduce 
your carrier force and a proposed acquisition strategy for 
destroyers which may threaten the financial viability of at 
least one private shipyard.
    We have all seen press reports of how our colleagues have 
received your proposals. Based on your testimony, this 
subcommittee understands why you might decide to compete the 
DD(X) and delay the purchases of the V-22s and ships. But we 
will need to hear your explanation for these controversial 
decisions as we establish a permanent record for the United 
States Senate.
    And, Admiral, once again, thank you very much for your 
continued service. We wish you the very best, sir.
    Admiral Clark. Thank you, Mr. Chairman.
    Senator Stevens. Senator Mikulski, do you have an opening 
comment?

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Mr. Chairman, I'm just pleased to be here 
today to hear the testimony of these very fine men.
    You know, we, in Maryland, we're a Navy State, from the 
Naval Academy to Pax River, Indian Head, the hospital ship 
Comfort; the marine presence, from guarding the Academy against 
terrorists to intelligence agencies. And being on the Naval 
Academy Board of Visitors--we're very enthusiastic about 
listening to the leadership and how we can be supportive.
    And I will have other questions.
    Senator Stevens. Well, gentlemen, if Columbus had sailed 
the other way, all those things might be in Alaska. But they're 
not, so----
    Senator Inouye. Or Hawaii.
    Senator Stevens. Or Hawaii. Well, Captain Cook got there 
first, anyway, but we'd be pleased to have your statement, and 
I hope, as we go forward, we can talk how we can maintain the 
Navy that this Nation needs, as a superpower. The two of us are 
very, very worried, as we said to you before, about the rate of 
building our new ships. So maybe this isn't the place, but we 
ought to have some conferences on how to break through this 
barrier and assure that we have the vessels that we need to 
protect this country.
    Secretary England, we'd be pleased to have your statement.

                 SUMMARY STATEMENT OF GORDON R. ENGLAND

    Secretary England. Mr. Chairman, thanks very much. And, 
Senator Inouye, thank you very much.
    First of all, thanks for the opportunity to be here, and 
thanks for your very nice comments about our men and women in 
uniform, and also your very nice comments about my great friend 
the CNO, Admiral Clark, who, unfortunately, will be retiring 
shortly. I just want to comment that all of our men and women 
in military--our sailors, marines, our airmen, Coast Guard, and 
our soldiers--are doing an absolutely magnificent job, and they 
are, indeed, part of this greatest generation. I also thank 
everyone on this subcommittee for your financial support of our 
great Department of the Navy, but also for the support you 
personally provide for our men and women in uniform.
    Regarding your comments about the naval forces, and 
particularly our ships, I will comment that we are in the 
process of making a major transition for our naval forces. And 
this is a very, very challenging and stressful time for some of 
our people in the Department of Navy, both our civilian and our 
military people, and I know it's also a stressful time for our 
valued industrial base, and perhaps even for some of the 
Members of the Congress. Change is always difficult, but it is 
vitally important that we go forward and structure the Navy and 
Marine Corps for the capabilities that we will need in the 
future. And we have not yet fully transitioned from the 
deepwater-centric force of the cold war to the types of ships 
and capabilities that we need to fight the war on terror while, 
at the same time, deterring and, if necessary, defeating future 
threats.
    Now, the leadership team before you today, we have been 
transitioning the naval forces for the past 4 years, and this 
year, fiscal year 2006, is the apex of that change. This year, 
per plans over this period of time, the ship procurement 
funding is down in fiscal year 2006. But that's due to the fact 
that we are turning the corner to new capabilities and on the 
verge of buying new capabilities.
    Our shipbuilding research and development (R&D) is at a 
peak in fiscal year 2006. We have increased our R&D 325 percent 
from 2002 to 2006; or, in absolute terms, our R&D in 
shipbuilding has increased from $705 million to over $2.3 
billion in this year's budget. Now, after 2006, that R&D will 
decrease, while our planned procurement account correspondingly 
increases with the number of ships we will procure. So you are 
at a dip at this point, as we transition to new types of ships 
for the United States Navy.
    We are moving to a different force. It's going to be 
smaller. It's going to be more agile. It's going to be faster 
and more adaptable, and more capable than, we believe, any 
naval force we have had in our Nation's 229 year history. And 
we do need your help to bring this about. And we do look 
forward to having this discussion with you today.
    I do want to make one comment about the great people who 
serve. We do have absolutely magnificent people who serve 
today. They're well educated, they're highly trained, they're 
highly motivated, and they are dedicated to protecting and 
defending our Nation. And they have performed heroically. We've 
had brave young men and women at sea and ashore in Iraq and 
Afghanistan and throughout the world fighting the enemies of 
freedom. And, as Secretary, I'll tell you, I am absolutely 
blessed to be able to serve these magnificent men and women, 
and the leaders of those magnificent men and women who are here 
with me today, the CNO and the Commandant.
    As we look back, the comments of the CNO, after 37 years, 
who is retiring, I do want to make a very brief comment, but a 
very sincere and heartfelt comment. CNO and I are very, very 
close friends, and I have great, great admiration for the CNO, 
for his professional leadership, his ethical leadership, and 
his willingness to tackle very, very tough issues and bring 
about great change in our naval forces. And I have just the 
highest respect for his vision and his capabilities. It has 
been a delight. It has been an honor and a privilege to serve 
with him these past 4 years. He still has a few months to go, 
and, Senator Stevens--Mr. Chairman, you're absolutely right, we 
still have high expectations to utilize his capabilities and to 
leave a legacy and a vision as he goes forward into retirement.
    To Vern and Connie Clark, I do want to wish them both fair 
winds and following seas as they move into a new life together. 
And God bless them for their great service to America.
    With that, I will turn this over to Admiral Clark and 
General Hagee for their opening statements. We, of course, are 
looking forward to a dialogue with you this morning, because 
this is a very, very important year for the Department of Navy. 
It's absolutely critical that we go forward with our new 
programs, and programs that we can afford to fit our budget.

                           PREPARED STATEMENT

    Thanks, again, for the opportunity to be here. We look 
forward to the dialogue. And I'll turn it over to Admiral Vern 
Clark.
    [The statement follows:]
           Prepared Statement of Honorable Gordon R. England
         winning today . . . while transforming to win tomorrow

                              INTRODUCTION

    Mr. Chairman and members of the Committee, I appreciate the 
opportunity to appear today.
    The Navy and Marine Corps Team continues to answer our Nation's 
call in the Global War on Terror (GWOT) and in the establishment of 
stability and security in the world's trouble spots. From combat 
operations in Iraq and Afghanistan to tsunami relief in Indonesia, the 
Navy and Marine Corps Team has proven ready to meet any task and answer 
any challenge. Throughout 2004, the unique capability the Naval 
Services brought to our joint forces was a central element of our 
Nation's military power.
    Outstanding performance in 2004 validated the high return on your 
past investment in our combat readiness, people, and unique maritime 
warfighting capabilities. The challenge for the future is ensuring we 
are maintaining the proper investment balance between the needs of 
today and the requirements of tomorrow. Our fiscal year 2006 Budget 
request strikes that balance. It delivers the appropriate readiness 
posture at the right cost to win the GWOT, to support today's military 
needs, and to continue the transformation needed to ensure that we win 
tomorrow's fights as well. We are good stewards of the taxpayer's 
money, however, no amount of new capability and organizational 
reshaping will matter if we cannot hold down costs. The challenge in 
the coming decade is to stabilize the rising costs of new weapon 
systems, operations and maintenance, and personnel.
    In the past four years, our country has been incredibly supportive 
of the Navy and Marine Corps Team. Since 2001, when I first took over 
as the Secretary of the Navy, the Department's budget has increased 
from over $94 billion to over $125 billion in fiscal year 2006. Your 
investment has been used to significantly increase our operational 
readiness, fund the research and development required to provide the 
foundation for several transformation programs, begin the procurement 
of new classes of ships and aircraft, properly price the acquisition 
accounts, and fairly compensate our people. The Department is eternally 
grateful for your confidence in your Navy and Marine Corps.
    The Department has made significant progress towards achieving the 
transformation goals set forth in the 2001 Quadrennial Defense Review 
(QDR). However, we continue to face the challenge of making the Naval 
Team more efficient to develop an ever more effective fighting force. 
When realized, these efficiencies will not only free up valuable 
resources but also allow the Navy and Marine Corps Team to better 
augment the total joint force. The 2005 QDR provides an opportunity to 
continue to reshape the Department to meet its current and future 
security challenges.
    Our Navy and Marine Corps are actively engaged in combat 
operations--we have a shared responsibility to ensure our Sailors and 
Marines are trained, equipped and prepared for the fights we ask them 
to undertake. The fiscal year 2006 Budget meets these requirements.

                          WINNING TODAY . . .
                               OPERATIONS

    Winning the GWOT is our number one priority. We continue to support 
the GWOT through naval combat forces that are capable and relevant to 
the missions assigned.
Global War on Terror (GWOT)
    During my last testimony to this Committee, the Marine Corps was 
beginning preparations to send the First Marine Expeditionary Force (I 
MEF) to Iraq in support of Operation IRAQI FREEDOM (OIF). Currently, we 
have over 34,000 Marines and 3,000 Navy personnel in Iraq taking part 
in combat operations and providing stability and security in the Al 
Anbar, An Najaf, and Karbala Provinces. Their innovative pre-deployment 
combat skills training, rapid modifications of combat equipment to meet 
evolving threats, and their emphasis on cultural and language 
capabilities contributed to considerable accomplishments in this 
complex region. Marines are currently executing multiple security, 
urban combat, counter-insurgency, command and control, and force 
protection missions with great confidence and skill, in the face of an 
adaptable and dangerous enemy.
    Naval efforts in Iraq include not only the Marine Corps but also 
virtually every type of deployable Naval asset in our inventory. Navy 
and Marine carrier-based aircraft flew over 21,000 hours, dropped over 
54,000 pounds of ordnance and played a vital role in the fight for 
Fallujah. Last year over 1,000 active and reserve Seabees were 
responsible for managing construction projects throughout the I MEF 
area of responsibility. Naval Coastal Warfare forces provided security 
for Iraqi oil terminals and thwarted terrorist forces from disrupting 
one of the world's largest energy supplies. Finally, hundreds of Naval 
medical personnel deployed to Iraq in support of Marine forces. All 
have served with pride and compassion, providing quality medical care 
to wounded American and Iraqi personnel.
    In Afghanistan this past spring, the Marine Corps provided, on 
short-notice, a regimental headquarters, an infantry battalion and a 
combined arms Marine Expeditionary Unit (MEU). This Marine force was a 
major portion of the combined joint task force assigned to counter a 
suspected Taliban ``Spring Offensive.'' This force was a key element in 
setting the conditions for the successful election that has advanced 
the process of establishing a secure and stable government in 
Afghanistan. They continue to provide both ground and aviation forces--
currently an infantry battalion, elements of two helicopter squadrons, 
and training teams--to protect and foster this new democracy.
    Terrorist networks have a wide range of options to move personnel 
and cargo by sea--from containers, to merchant ships, to small dhows. 
The United States Naval forces are well trained to carry out the 
mission of deterring, delaying, and disrupting the movement of 
terrorists and terrorist-related material at sea. In support of the 
GWOT, Naval forces conducted over 2,200 boarding of merchant ships.
    During the year, the Navy and Marine Corps will conduct a major 
rotation of our Central Command deployed forces. Many of these units 
have previously deployed to this theater. We continue to aggressively 
adapt our training and equipment to the changing threat.
Global Presence/Flexibility.
    Humanitarian Assistance and Disaster Relief.--The Navy and Marine 
Corps Team can rapidly respond to crises around the globe, whether they 
are humanitarian or combat-related without impeding our ongoing 
commitments to combating terrorism. We continually train for 
humanitarian assistance missions in order to respond rapidly and 
efficiently to large-scale disasters.
    The Navy and Marine Corps provided assistance to the governments of 
Indonesia, Sri Lanka, Thailand and other affected nations as they dealt 
with the effects of the earthquake and tsunami. At the peak of this 
effort, the Department of the Navy (DON) had more than 13,000 Sailors 
and Marines afloat providing humanitarian assistance. Led by forces 
from the Abraham Lincoln Carrier Strike Group (CSG) and the Bonhomme 
Richard Expeditionary Strike Group (ESG), the Navy and Marine Corps 
Team delivered over six million pounds of relief supplies to the people 
affected by the disaster that swept Southeast Asia on December 26th.
    In addition, nine P-3C reconnaissance and surveillance aircraft 
supported search and rescue efforts, while the High Speed Vessel (HSV) 
Swift, an aluminum hulled catamaran, provided high-speed transport to 
the shore. USNS Mercy is providing a base of operations for joint 
United States military medical organizations and international 
nongovernmental and private relief operations. The hospital ship is 
supporting medical units ashore with internal medicine, pediatric, 
dental, mental health and infectious disease control. Additionally, 
over 400 Seabees are deployed to the region to provide a variety of 
disaster recovery efforts such as clearing roads, removing debris, 
assessing damage, performing port surveys and assisting in offloading 
MPF ships.
    Homeland Security.--Under the National Security Presidential 
Directive (NSPD-41) signed by the President this past December, we are 
continuing to cultivate relationships and develop capabilities to 
maximize the advantage that the maritime domain brings to homeland 
security. We are broadening our relationship with the navies of our 
international allies to prosecute the GWOT. We are expanding the 
Proliferation Security Initiative (PSI) to other countries and working 
bilateral boarding initiatives in all hemispheres. We are integrating 
intelligence and command and control systems with other governmental 
agencies like the United States Coast Guard (USCG) in the Department of 
Homeland Security (DHS) to effectively evaluate the maritime 
environment for anything that could adversely influence the security, 
safety or economy of the United States and our allies. We are 
developing the Navy's role in the Maritime Domain Awareness (MDA) 
concept to identify threats as early and as distant from our borders as 
possible. We are working with other parts of the Department of Defense 
(DOD) and with DHS to develop a comprehensive national maritime 
security response plan to address specific security threats and command 
and control relationships. Lastly, this past October, the Navy, in a 
cooperative agreement with the USCG, transferred four patrol craft to 
the USCG for use in homeland security. Everything we do in the maritime 
domain will take into consideration the broad implication to homeland 
security.
    Surge Capability.--The GWOT requires that the Navy operate 
differently in order to be ready and responsive. We continue our 
successful readiness transformation under the Fleet Response Plan 
(FRP). The goal of the FRP is to provide the Nation with five or six 
CSGs deployed or ready to deploy within 30 days and an additional one 
or two CSGs ready to go within 90 days. The FRP aims to transform the 
fleet into a more effective force by creating a culture of readiness; 
meeting new readiness and surge thresholds; changing manning, 
maintenance and training processes to support surge and deployment; and 
lengthening inter-deployment cycles.
    The readiness efforts developed to support the FRP allowed the Navy 
to surge the USS Bataan, Boxer, and Kearsarge and enabled Marine forces 
to quickly redeploy in support of operations in Iraq. Last year's fleet 
surge exercise, ``Summer Pulse 2004'', successfully demonstrated the 
Navy's ability to operate seven carriers simultaneously in five 
theaters under the FRP.
    Law of the Sea Convention.--Today, the Navy has undisputed command 
of the seas. Joining the convention will support ongoing military 
operations while preserving future access for the force. The CNO and I 
firmly support United States' accession to the Law of the Sea 
Convention.

                          SAILORS AND MARINES

    Smart, motivated and capable people are a key element to any 
successful transformation effort. Our Navy and Marine Corps are 
increasingly a technologically advanced maritime force and we are in 
competition with the private sector to attract and retain the best men 
and women we can find. Accordingly, our budget includes a 3.1 percent 
DOD-wide basic pay raise for all military personnel. The budget 
supports reduced Navy end strength resulting from the way we manage 
military human capital. We will accomplish all assigned missions with 
these reduced levels by changing our force structure, gaining 
efficiencies from technology, altering our workforce mix, and adopting 
new manning practices.
    Concurrent with this commitment to provide an appropriate level of 
pay and benefits to our Sailors, Marines, and their families is a 
responsibility to operate this Department as efficiently and 
effectively as possible. While we want the very best people to serve in 
our Navy and Marine Corps, we don't want a single person more than we 
need to properly operate the force. Job satisfaction comes not only 
from compensation, but also from meaningful service.
Protecting Our Sailors and Marines
    In response to growing force protection concerns in Iraq and 
Afghanistan the Department has expeditiously acquired technology and 
hardware to equip our Marines and Sailors for current wartime 
operations. In excess of $600 million has been reprogrammed to support 
over 120 warfighting requirements including those focused on counter-
fire, counter-improvised explosive devices, and counter-rocket 
propelled grenade technologies. Initiatives include:
    Vehicle Hardening.--We reprogrammed $239 million in fiscal year 
2004 Naval funding to support various Marine Corps vehicle-hardening 
programs. Throughout this effort, both the Marine Corps Systems Command 
and the Marine Corps Warfighting Lab have worked with the Army 
Developmental Test Command to test and rapidly assess various ballistic 
materials to include ballistic glass, armor, and ceramic materials for 
use in vehicle hardening. To date over 4,000 vehicles have been 
hardened. Other vehicle hardening initiatives include the Marine Armor 
Kit (MAK) for the HMMWV and the Medium Tactical Vehicle Replacement 
(MTVR) Armor System (MAS) and Gunner shields. MAK and MAS armor will 
replace the interim (first generation) and zonal (second generation) 
armor with an integrated, comprehensive (improved perimeter, top, and 
under-body) armor kit. One hundred forty-nine MAKs have been installed 
in support of the 26th Marine Expeditionary Unit (MEU) deployment as 
part of the next rotation. MAK installation in theater will begin as 
soon as February 2005 as the operational situation allows. MAS will 
begin low rate initial production in April 2005 with full rate 
production by June 2005. Gunner shields provide an armored turret as an 
additional level of protection for gunners operating in HMMWVs and 
MTVRs; to date over 1,600 are in service.
    Counter-Improvised Explosive Device Technology and Equipment.--The 
Department has reprogrammed over $28 million for the testing, 
assessment and fielding of technology and equipment to counter the IED 
threat. Specific focus areas include robots, IED electronic 
countermeasures, X-Ray systems, and specialized search dogs.
    Personal Protective Equipment.--Every Sailor, Marine and 
Departmental Civilian is issued a complete set of body armor before 
going into Iraq or Afghanistan. To meet this requirement Marine Corps 
Systems Command has procured over 31,000 Armor Protection Enhancement 
Systems as an additional capability to augment the Outer Tactical Vest 
and the Small Arms Protective Insert (SAPI) plate. Over 36,000 SAPI 
plates have been procured. Additionally over 84,000 pairs of ballistic 
protective goggles have been procured. Other initiatives, such as an 
improved lightweight combat helmet, lower face and body armor, are in 
development.
    Unmanned Aerial Vehicles (UAV).--UAV efforts include the Dragon Eye 
and Scan Eagle initiatives. The Dragon Eye is a lightweight, man 
portable system designed to give the small unit leader a reconnaissance 
and surveillance capability to see over the next hill or around the 
next building. Thirty-three Dragon Eye UAV systems have been used in 
Iraq. In addition, I MEF is battle testing two Scan Eagle systems 
consisting of 14 aerial vehicles. The Scan Eagle provides the MEF with 
a persistent (24 hours a day) electro-optical Intelligence Surveillance 
Reconnaissance (ISR) capability.
    Unmanned Ground Vehicles (UGV).--In addition to the robots deployed 
in Iraq for counter IED operations, 12 Dragon Runner man portable UGVs 
used as mobile ISR systems have been fielded. The system is a low 
profile UGV and is being used for small unit reconnaissance and IED 
investigations.
    Other force protection initiatives include language translation 
devices, counter-sniper technology, medical advancements, helicopter 
ballistic protection, and advancements in the tactics, techniques and 
procedures for urban operations.
Recruiting/Retention
    The DON continues to successfully recruit our Nation's finest young 
people while carefully forecasting future recruiting requirements. The 
Navy has met its recruiting goals in each of the last six years, while 
the Marine Corps has met recruiting goals for the last nine years. 
Coupled with higher retention rates, our recruiting success has allowed 
the Navy and Marine Corps to focus on critically manned ratings and 
Military Occupation Specialties (MOS) and on improving recruit quality.
    In fiscal year 2004, the Navy exceeded its recruiting goal and 
attained a 50 percent increase in recruits with college experience 
while at the same time increasing the number of recruits with high 
school diplomas. The Marine Corps also exceeded recruiting goals while 
at the same time 97 percent of their recruits had a high school diploma 
(above the goal of 95 percent). Even with the improved economic 
conditions and higher recruit quality standards, the Navy and Marine 
Corps are on track for meeting their 2005 goals.
    Retaining the best and brightest Sailors and Marines has always 
been a core objective to our continued success. To date in fiscal year 
2005, strong reenlistment activity has occurred along with Navy 
attrition rates at or near 15 year lows. The Marine Corps also 
continued their strong performance in this area by meeting their 
retention goals for the 14th consecutive year. A key to these successes 
has been the DON's aggressive program to enhance quality of service and 
quality of life through innovative programs that ensure our Sailors and 
Marines and their families continue to view the Navy and Marine Corps 
as their career of choice. Targeted and special pays continue to have 
the desired impact on reenlistments, while maintaining Selective Re-
enlistment Bonus (SRB) funding is proving essential to sustaining 
retention of critical skills.
Safety
    The Navy and Marine Corps continues to aggressively pursue the 
Secretary of Defense's two-year goal to reduce mishaps by 50 percent, 
from the fiscal year 2002 baseline, by the end of fiscal year 2005. At 
the end of Calendar Year 2004, the Department was on track to meet the 
50 percent reduction in over 70 percent of the targeted areas. For 
example, the Marine Corps fiscal year 2004 Class A aviation mishap rate 
was reduced by over 76 percent and Marine Corps Personal Motor Vehicle 
(PMV) fatalities dropped 30 percent from the fiscal year 2002 baseline. 
An aggressive return to fundamentals in order to revitalize Operational 
Risk Management (ORM) principles is successfully targeting our aviation 
mishap rates. Over $54.5 million, across the Future Years Defense Plan 
(FYDP), was added in the fiscal year 2006 Budget for military flight 
operations quality assurance--a process to help refine the use of 
recorded flight data to reduce aircrew error and to achieve greater 
efficiencies in aircraft maintenance.
    The Department is pursuing Occupational Safety and Health 
Administration (OSHA) Voluntary Protection Program (VPP) status and has 
achieved significant reduction in lost workdays due to injuries at key 
installations. A professional safety community and safety intern 
program for our civilian personnel has also been established.
    The DON has embraced safety as a readiness multiplier. The Naval 
leadership team (Chief of Naval Operations (CNO), Commandant of the 
Marine Corps (CMC) and Secretary of the Navy) emphasized safety and 
mishap reduction as one of our published top ten 2005 objectives for 
the Department.
Family Support
    Housing Initiatives.--Ensuring service members and their families 
have access to quality housing continues to be a DON top priority. The 
fiscal year 2006 Budget request continues the effort to eliminate 
inadequate family and bachelor housing by fiscal year 2007 through a 
three pronged strategy consisting of privatization of housing, improved 
housing allowances, and military construction. Additionally, housing 
allowances have been increased to eliminate out-of-pocket housing 
expenses for our military personnel. Finally, fifteen Navy and Marine 
Corps family housing privatization projects totaling over 26,000 homes 
have been awarded to date. In addition, we continue on path to provide 
sea duty Sailors with off-ship quarters by 2008 under the Navy's 
``Homeport Ashore'' initiative.
    Healthcare.--Providing quality medical care to our Sailors, 
Marines, and their families is a vital part of the DON's ability to 
fight the GWOT and execute our many worldwide missions. Navy medicine 
continues to ensure that our Sailors and Marines are physically and 
mentally ready for whatever challenges lie ahead. Providing outstanding 
medical care is a commitment we proudly make, however it is a budgetary 
challenge.
    To meet the requirements of the GWOT, Navy Medicine has developed 
and improved methods to expedite care for our forward deployed forces 
around the world. For example:
  --The ten-bed Expeditionary Medical Unit (EMU) is providing Navy 
        medicine with new response capabilities in combat situations.
  --The Forward Resuscitative Surgery Systems (FRSS) are highly mobile, 
        six-bed emergency rooms now deployed as part of the Marine 
        Corps' Combat Service Support Company. Through the FRSS, Navy 
        trauma doctors are available during the ``golden hour,'' the 
        critical period within 60 minutes of an injury.
  --Forward Deployed Preventive Medicine Units (FDPMU) have been 
        created to provide quick, flexible and agile responses to a 
        host of medical contingencies including weapons of mass 
        destruction. These highly specialized units are staffed with 
        preventive medicine physicians, industrial hygienists, hospital 
        corpsmen, environmental and radiation health specialists, 
        microbiologists and entomologists and have been deployed in 
        Iraq, Haiti and other remote locations around the globe. The 
        FDPMU's focus is on decreasing disease and non-battle injuries 
        through health surveillance, environmental monitoring and 
        education.
  --The Disaster Preparedness, Vulnerability Analysis, Training and 
        Exercise (DVATEX) program was developed to evaluate and test 
        military, federal and local community responsiveness. DVATEX 
        includes a military treatment facility, threat vulnerability 
        and capability assessment, and provides training in medical and 
        operational management.
    Navy medicine will continue to evolve to meet the demands of an 
ever-changing battlefield and deliver medical care anywhere around the 
world. Navy medicine is performing its critical mission to promote, 
protect, and restore the health of DON service members, families, and 
retirees, while at the same time ensuring the highest level of 
emergency preparedness.
    Care of Injured Marines and Sailors.--The DON is working closely 
with the DOD to develop new strategies and initiatives that improve 
support to our injured personnel and their families. In an effort to 
improve the immediate and long-term care for injured Marines and their 
families, the Marine Corps has created the Marine for Life--Injured 
Support Program. The program provides a single organization to act as 
the primary patient advocate to improve medical care, provide family 
support, eliminate seams in care, and increase transition assistance 
for disabled Marines. This program began limited operations in early 
January 2005.
    The DON is developing the Injured Marines and Sailors Initiative, 
to formulate policies and procedures to achieve the following 
objectives in support of Marines and Sailors wounded in combat 
operations:
  --Ensure every Marine and Sailor who desires to remain in the active 
        component is provided the opportunity to do so.
  --Ensure that every Marine and Sailor who desires to work within the 
        DON or Federal/State government is provided the opportunity to 
        do so.
  --Ensure that every Marine and Sailor that desires to work in the 
        private sector or to attend school is provided the opportunity 
        to do so.
    A survey of injured service members revealed that over ninety 
percent of Marines and Sailors expressed a desire to remain in service. 
In order to allow injured service members the opportunity to work in 
the Pentagon, the DOD initiated Operation Warfighter. This program 
seeks to reintroduce severely injured service members back into the 
workforce. Additionally, the DON in cooperation with the DOD Joint 
Severely Injured Operations Center and the Marine For Life--Injured 
Support Program is reaching-back to discharged and separated Marines 
and Sailors to render employment assistance, family counseling, and 
transition assistance through Veterans Administration and other 
government agencies.
    Family Programs.--In support of the GWOT, the Navy established 
``Extended Hours'' child care centers for watch-standers and shift 
workers, ensuring our Sailors are mission ready around the clock. These 
successful, 24/7 centers, located in Norfolk and Honolulu, have 
decreased missed man-hours and provided piece of mind to our Sailors as 
they perform their duties in support or our Nation.

                               EQUIPMENT

    The Naval Services are rotational and expeditionary, requiring 
additional funding not in the baseline budget for long and extensive 
contingency operations. The fiscal year 2005 supplemental will request 
funding for incremental war related costs not included in the baseline 
budget. This request includes essential warfighting and force 
protection equipment, replacement of destroyed equipment, anticipated 
attrition repair costs due to accelerated usage and replenishment of 
ammunition. These funds will help sustain the fighting force and enable 
recovery from the accumulated demands on our material assets.

                   WHILE TRANSFORMING TO WIN TOMORROW
                   SHAPING OUR 21ST CENTURY MANPOWER

    At the heart of our combat capability and the future transformation 
outlined in Naval Power 21 are people who are well trained, well led, 
and adequately compensated. America's Naval forces are combat ready due 
to the dedication and motivation of individual Sailors, Marines, and 
civilians. We will continue to dedicate resources on four fronts: 
recruiting the right people, retaining the right people, reducing 
attrition, and training our people to meet the challenges of the 21st 
century.
Human Capital Strategy
    The DON is developing the Human Capital Strategy (HCS) that will 
provide a new framework to assess, train, develop and distribute our 
manpower. The Department faces a number of significant challenges as it 
continues its transformation to a more agile and technology-based 
force. Our strategy envisions a new human capital management system 
that leverages technology to allow each individual to maximize their 
capability to make valuable contributions toward achieving our mission. 
Central to the strategy is the need to fully understand the manpower 
requirement of our future force. This will allow us to tailor our total 
manpower needs, expanding or contracting where it is required. Our 
strategy is aligned with DOD's Human Capital Initiative and responds to 
the President's Management Agenda (PMA) and the priorities of the 
Secretary of Defense. The HCS represents the first step in what will be 
a complex process to meet the challenges of the 21st century. The HCS 
goals include:
  --Implement the National Security Personnel System for the 
        Department's civilian force.
  --Transform our military personnel force by creating a modern human 
        capital management system to replace the Department's legacy 
        human resources systems and achieve the objectives of Naval 
        Power 21.
  --Achieve active /reserve integration by rebalancing requirements and 
        capabilities.
    A key component of HCS is the Sea Warrior program, which is the 
Navy's initiative to develop 21st century Sailors and is the ``people'' 
part of Sea Power 21. This initiative takes into account new platforms, 
technologies, and rotational crewing concepts (Sea Swap) that will 
revolutionize crew sizing, and provide interactive computer based tools 
and training techniques. The goals of Sea Warrior include:
  --A mission-centric force that is effective and efficient.
  --A Navy that maximizes the value of service for all of our Sailors 
        and civilians.
  --A more effective work distribution across the work force.
  --A work and life balance.
  --Recruitment and retention of a diverse range of Sailors and 
        civilians possessing a wide scope of knowledge, skills and 
        experience.
    The Sea Warrior concept and other manpower initiatives such as more 
efficient infrastructure manning, improved training techniques and the 
decommissioning of older, manpower intensive platforms will allow the 
Navy to reduce active end strength from 373,197 in fiscal year 2004 to 
352,700 in fiscal year 2006.
Military-to-Civilian Conversions
    Military-to-Civilian conversions are progressing as planned. The 
programmed conversions target non-warfighting functions currently 
staffed and performed by military personnel. Because the military-to-
civilian conversions are a key component of the Department's objective 
to reduce military authorizations, we have intentionally exceeded the 
established DOD targets. The Navy is scheduled to convert over 2,000 
military billets to civilian positions this fiscal year. The Marine 
Corps is programmed to convert over 1,700 billets in fiscal year 2005. 
While the Navy is principally using this tool to drawdown end strength, 
the Marine Corps is using the military-to-civilian conversions to help 
realign Marines into high-demand specialties and create additional 
warfighting capabilities, such as two additional infantry battalions. 
As part of the Competitive Sourcing Initiative in the President's 
Management Agenda, DOD receives credit for converting military members 
now doing commercial functions into war-fighters and other core defense 
functions.
Active Reserve Integration
    The Reserve Component remains an integral part of our Navy and 
Marine Corps Team. Since September 11, 2001, the Navy has mobilized 
over 25,000 reserve personnel (2,000 of these twice), with 
approximately 3,600 currently mobilized. This is from a drilling 
reservist population of just over 69,000. The Marine Corps has 
mobilized 32,000 reserve personnel from an authorized Selected Reserve 
end strength of 39,600 and just over 4,100 from the Individual Ready 
Reserve. Currently over 13,000 reserve Marines are on active duty.
    The Navy's Zero Based Review is validating the Navy Reserve mission 
requirements and associated billet structure, creating efficiencies, 
and allowing resources to be more effectively integrated into Navy 
operations. Our vision is to create one fully integrated Navy Team and 
the Navy's active reserve integration is the cornerstone of that 
effort. We are aligning organizations, training together, consolidating 
resources and assets, and financially planning as one, so we can better 
operate as one team and ``train like we fight.''
    The Navy and Marine Corps will continually measure its reserve 
billet structure and capabilities against evolving warfighting 
requirements to fill critical billets when needed. Early 
responsiveness, relieving stressed career fields, and employing 
innovative management practices will continually be addressed by both 
services. The Navy and Marine Corps reserve mobilization is a 
requirements-driven process and reservists, trained and ready, are 
making significant contributions. While the numbers of mobilized 
reserves can fluctuate as GWOT requirements dictate, our objective is 
use the efforts stated above to keep the number of mobilized personnel 
at a minimum.
Strategically Focus Naval Education and Training
    Education and training of our Sailors and Marines is critical to 
implementing the Naval Power 21 transformation and ensuring our 
continued combat effectiveness. To more effectively and efficiently 
train our forces the Department is transitioning its training concepts 
and methods from the traditional schoolhouse classroom approach to 
processes that involve the use of simulators, trainers, and other 
computer-based interactive training curriculums. The pace at which 
technology is changing tests our Sailor's and Marine's abilities to 
innovate and adapt, as well as to apply knowledge and experience to new 
and dynamic situations. Old paradigms governing training and education 
must change to meet future technological challenges. It is essential 
that our Sailors and Marines remain on the cutting edge and for our 
leadership to commit to a lifelong educational program. The future 
demands a more highly educated Naval Service capable of operating in an 
environment of ever increasing technical complexity. We intend to meet 
that demand by providing increased opportunity for all Sailors and 
Marines to commit to life-long learning.
National Security Personnel System (NSPS)
    The Fiscal Year 2004 National Defense Authorization Act allowed the 
DOD to establish a new human resource management system for DOD 
civilians known as the National Security Personnel System (NSPS). This 
legislation provides flexibility in the hiring and management of 
civilian workers and links pay to mission accomplishment and 
performance. The NSPS reforms will provide supervisors and managers 
greater flexibility in managing our civil service employees, facilitate 
competition for high quality talent, offer compensation that is 
competitive with the private sector, and reward outstanding service. 
Properly executed, these changes will also assist us in better 
utilizing the active duty force by making it easier to employ civilians 
in jobs currently filled by uniformed military personnel.
    Workers will be converted to the new system in three spirals. 
Spiral One will include approximately 300,000 Army, Navy, Marine Corps, 
Air Force, and other DOD civilian employees and will be rolled out in 
three phases over an 18-month period beginning in July 2005. Spiral One 
includes over 80,000 DON civilian employees. Spiral Two will comprise 
the remainder of the eligible workforce and will be initiated following 
an assessment of Spiral One and after the Secretary of Defense 
certifies the Department's performance management system. Spiral Three 
would comprise the personnel at DOD labs, if current legislative 
restrictions are eliminated.

                      IMPROVING BUSINESS PRACTICES

    Throughout my time as Secretary of the Navy, we have been faced 
with the challenge of making the Naval Team more efficient in order to 
develop a more effective fighting force. These efficiencies will not 
only free up valuable resources but also allow the Navy and Marine 
Corps Team to better augment the total joint force. Our recent 
performance indicates the business initiatives we are pursuing are on 
the right track. Highlights of our business initiatives are discussed 
below.
Enterprise Resource Planning (ERP) Program
    The DON ERP initiative has created the framework that will enable 
the transformation of key acquisition, logistics, and financial 
business activities into an integrated network of decision-making 
processes. This past August the Joint Requirements Oversight Council 
(JROC) approved the Navy ERP Operational Requirements Document (ORD) 
and cleared the way for the Navy to purchase ERP software and hire an 
integration contractor. With the fiscal year 2006 Budget, the Navy will 
continue to capitalize on demonstrated ERP technology advances in 
creating and disseminating decision-making information. The ERP program 
is expected to continue to improve integration, leverage economy-of-
scale, consolidate legacy systems and software using the best business 
and commercial practices available. The first release is scheduled for 
initial deployment in fiscal year 2006.
Sea Enterprise
    Sea Enterprise will improve organizational alignment, refine 
requirements and invest resources to re-capitalize, transform, and 
increase the combat capability of our Naval force. To improve 
efficiency, Sea Enterprise has begun initiatives to improve 
productivity and cost effectiveness, reduce manpower investments, 
streamline processes and organizations, and leverage technology. 
Together these initiatives will produce tens of billions in savings for 
the Department.
Continuous Improvement
    The Navy and Marine Corps Team continues to implement continuous 
improvement initiatives consistent with the goals of the PMA that 
enable realignment of resources to increase our output and re-
capitalize our force. The cornerstone of our continuous improvement 
effort is the implementation of industry proven Lean and Six Sigma 
efficiency methodologies in our day-to-day operations. Our industrial 
activities are all institutionalizing closed loop continuous 
improvement practices. These initiatives enable us to increase our 
combat capabilities with the expectation that we become more efficient, 
agile, flexible and reliable at a reduced cost of doing business.
Commander Navy Installations (CNI)
    Since the establishment of CNI, we have begun to align shore assets 
in support of Navy requirements, to find efficiencies for Navy 
recapitalization and to provide consistent shore installation services 
in order to allow the operational commanders and major claimants to 
focus on primary missions. CNI is the single responsible office for 
Navy shore installations and the services they provide. It includes 
sixteen Navy regions and 98 installations. CNI is providing operating 
forces support, community support, base support and mission support to 
enhance the Navy's combat power. We are providing product and services 
at the right place, at the right time, at the right levels and at the 
right cost to achieve the right fleet readiness.
Acquisition Excellence
    We have substantially streamlined our business practices to work 
toward a more efficient Navy and Marine Corps. By emulating smart 
business practices from commercial industry, we have made management 
teams more product-oriented, and have pushed responsibility, authority 
and accountability down to the operational unit(s) or activities 
wherever possible. We are developing leaders with a better 
understanding of business strategies, cost control, program risk and 
rapid flexible design. In 2004, we worked with industry to identify 
effective ways, including the use of appropriate profit and incentive 
arrangements, to encourage improved performance under Navy and Marine 
Corps contracts.
Naval Acquisition Integrity Office
    To help guard against the ever-present danger of procurement fraud, 
the DON is establishing a new Naval Acquisition Integrity Office. This 
office will coordinate all parts of the procurement fraud program, 
provide training and guidance on procurement fraud matters, serve as 
the DON's central point of contact on this issue, establish and 
maintain a centralized data base for monitoring procurement fraud, and 
interact with other DOD procurement fraud programs. This organization 
will provide the necessary deterrent, detection, protection, and 
recovery functions through increased awareness, a streamlined reporting 
process, internal consistency, and improved communication among all the 
stakeholders.
Maintenance Initiatives
    SHIPMAIN.--SHIPMAIN is a fleet wide initiative designed to improve 
the efficiency of ship maintenance and modernization. The primary 
mission of SHIPMAIN is to generate savings through improvements in the 
surface ship maintenance and modernization planning processes. SHIPMAIN 
is developing a single process that ensures that the right maintenance 
is identified and that it is performed at the right maintenance level 
at the right time.
    One Shipyard Concept.--The One Shipyard Concept is designed to best 
utilize the Nation's four public and two private nuclear shipyards and 
contractor support. Initially established to build commonality and 
leverage best practices across the nuclear capable shipyards, it has 
gained influence across the entire ship repair enterprise. One Nuclear 
Shipyard concept provides the Navy the flexibility to handle 
maintenance surge, emergent, and other ship work with minimal impact to 
ongoing projects across the public and private nuclear shipyard 
industrial base. Illustrative of the One Shipyard Concept in action was 
the post-sea trial work for USS Virginia. When a dry dock was not 
available at the Groton, Connecticut facilities of General Dynamics, 
the Norfolk Naval Shipyard provided a dry dock for USS Virginia and 
support facilities for 250 Electric Boat employees.
    Regional Maintenance Centers (RMCs).--RMCs were established to 
consolidate multiple commands with overlapping responsibilities for 
ship maintenance and modernization within the seven major fleet 
concentration areas. Each RMC provides a fleet concentration area 
single point of contact for all ship maintenance and modernization 
issues. This consolidation was undertaken to gain efficiencies to 
support Navy recapitalization requirements. These savings are being 
realized through a long list of efforts: reduction of overhead 
positions, increased production efficiencies gained by the synergistic 
effect of aligning highly skilled former Fleet Technical Support Center 
personnel with production personnel, reduction of waste and 
inefficiencies, and implementation of improved ship maintenance 
business processes being developed under the SHIPMAIN initiative.
    Naval Aviation Enterprise (NAE).--NAE is improving the readiness of 
Naval Air Forces by defining and executing changes that will sustain 
near and long term aviation readiness goals, including those relative 
to aircraft readiness, financial management, and human capital. The 
aircraft readiness component of NAE is the Naval Aviation Readiness 
Integrated Improvement Program (NAVRIIP), a comprehensive approach that 
changes the way the Navy provides manpower, equipment and training in 
Naval Aviation commands. NAVRIIP integrates best business practices, 
which includes Theory of Constraints, Lean and Six Sigma, into 
maintenance, supply, and administrative processes. Current results 
include the reduction of turnaround time for production of T700 power 
turbines at AIMD North Island from 23 to 1.5 days. By 
institutionalizing this way of doing business through a single process 
owner who integrates the efforts of all levels of maintenance, NAVRIIP 
will enable significant productivity improvements and cost-wise 
readiness throughout the NAE.
    Marine Corps Equipment.-Due to continuous combat operations in 
support of the GWOT, the Marine Corps ground equipment usage rate is 
eight times greater than normal peacetime usage. The high usage rate in 
harsh environments, coupled with added weight of armor and unavoidable 
delays in scheduled maintenance due to combat, is degrading equipment 
at an accelerated rate. To improve equipment readiness, the Marine 
Corps has created a limited aircraft depot maintenance capability, 
coordinated with the Army to leverage their ground depot maintenance 
capability, and established a pool of ground equipment to expedite the 
replacement of damaged major items. Of note, the Marine Corps is using 
pre-positioned stocks to ensure the sustained readiness of deployed 
ground units.
Delegation of Authority/Assignment of Responsibilities
    My goal is to allow all organizations within the DON the latitude 
to lead their activities without intrusion from above. As we delegate 
responsibility and authority, we will unshackle organizations from 
undue administrative processes. By streamlining our organization, we 
are empowering activities to publish details regarding requirements and 
procedures at their level. The ultimate objective is to provide an 
environment for our people to innovate and excel in whatever job 
responsibility they have.
Environmental
    For the last three years, Congress has addressed critical Navy 
needs regarding encroachment and future training challenges. Readiness-
specific changes to the Marine Mammal Protection Act (MMPA), Endangered 
Species Act, and Migratory Bird Treaty Act have helped the Navy meet 
training and operational challenges. The Navy and Marine Corps has and 
will continue to demonstrate leadership in both its military readiness 
role and as an environmental steward of the oceans we sail and the 
lands we train upon. We are pursuing opportunities for acquiring land 
buffers adjacent to our training lands. We are committed to fully 
implementing the Integrated Natural Resources Management Plans prepared 
under the Sikes Act to address endangered species concerns in lieu of 
designating critical habitats. We will continue operational actions to 
minimize harm to marine mammals, as we continue investments in research 
into marine mammal biology and behaviors. The Marine Mammal Protection 
Act is due for reauthorization in this legislative cycle. To continue 
to meet future challenges for military readiness, during the 
reauthorization debate, Congressional support is necessary to preserve 
the proper balance between environmental protection and military 
readiness previously authorized by Congress.
Information Technology
    Implementing Navy and Marine Corps Internet (NMCI) has enabled the 
DON to increase the security posture of our networks and has allowed 
unprecedented visibility into Information Technology (IT) costs and 
capabilities. The budget supports total NMCI-specific costs for fiscal 
year 2006 of $1.6 billion and implementation of approximately 346,000 
seats. To date, we have ordered 338,000 of the expected 380,000 seats 
and cutover approximately 237,000 seats. We have reduced the number of 
legacy applications in the Navy's inventory from 67,000 to around 
8,000--an 88 percent reduction. This reduction of applications will 
continue as we proceed with complete migration to NMCI throughout the 
Department. Additionally, we anticipate other opportunities for 
progress in areas such as enterprise voice, wireless connectivity, 
broadband remote access service for laptop computers, anti-SPAM 
services for all e-mail accounts, and revised focus on many customer 
satisfaction issues.
    The DON leads a robust Information Assurance (IA) program to 
preserve the confidentiality, integrity, availability, authorization 
and non-repudiation of information on DON IT systems. The DON IA 
program provides the warfighter and warfighter support current IA 
guidance to reduce risk and vulnerabilities and enhance the security 
posture of the DON network/systems.
Base Realignment and Closure (BRAC)
    The Fiscal Year 2002 Defense Authorization Act authorized another 
round of BRAC in 2005. We will scrupulously follow the process laid out 
in the law. We will treat each base equally and fairly, whether 
considered for closure or realignment in the past or not. In no event 
will we make recommendations concerning any closures or realignment of 
our bases until all the data has been collected, certified and 
carefully analyzed within the overall BRAC 2005 statutory framework. 
The goal of BRAC is to reconfigure our current infrastructure to 
maximize our warfighting capability. By eliminating excess 
infrastructure, we optimize readiness and realize significant savings. 
Resources freed up by this process will be used to re-capitalize our 
ships, aircraft, equipment and installations for the future.
    Prior Rounds of BRAC.--The DON completed the closure and 
realignment of activities from the 1988, 1991, 1993 and 1995 rounds of 
BRAC. All that remains is to complete the environmental cleanup and 
property disposal on all or portions of 17 of the original 91 bases. We 
made significant successes on both fronts. We are using property sales 
as a means to expedite the disposal process as well as recover the 
value of the property for taxpayers. For example, we sold 235 acres in 
2003 at the former Marine Corps Air Station, Tustin, California for a 
net $204 million. We sold 22 acres at the former Naval Air Facility Key 
West, Florida in January 2004 for $15 million. The public sale of the 
former San Pedro housing site in Los Angeles and the sale of the former 
Marine Corps Air Station El Toro are now underway.
    We are accelerating cleanup at remaining prior BRAC locations. Of 
the original 161,000 acres planned for disposal from all four prior 
BRAC rounds, we expect to have less than five percent (or about 8,000 
acres) still to dispose by the end of this fiscal year. Additionally, 
in 2006 we expect to dispose of property at the former Naval Station 
Roosevelt Roads, Puerto Rico, as directed in the Fiscal Year 2004 
Defense Appropriations Act.

                       CHANGING THE WAY WE FIGHT

    The hallmark of the Navy and Marine Corps Team has been the ability 
to change, adapt, and transform to meet new threats to America. The 
Navy and Marine Corps Team has embraced a culture of transformation 
that will enable us to develop new weapons systems, realign 
infrastructure, establish new concepts of operations, and streamline 
our business practices. The realization of this transformation process 
will ensure that we continue to contribute to joint warfighting in the 
future and will ensure our place as the preeminent global naval power. 
We appreciate the support of Congress in enabling this transformation.
Joint Concepts and Operations
    TACAIR Integration.--The CNO and the CMC approved a plan in 2002 to 
integrate the Navy and Marine Corps tactical aviation (TACAIR) mission 
using fewer units of more capable aircraft. Navy and Marine Corps 
TACAIR integration optimizes core combat capability to meet national 
security requirements with fiscal efficiency. With the implementation 
of the FRP, the Navy and Marine Corps continue to work together to 
fully integrate Marine Corps squadrons into carrier air wings and Navy 
squadrons into the Marine Corps' Unit Deployment Plan (UDP). Highlights 
of the plan include:
  --The TACAIR integration plan reduces the services' tactical aviation 
        force structure by disestablishing five squadrons and reducing 
        the total number of aircraft we plan to buy to 1,296.
  --On September 12, 2004, Navy Hornet Strike Fighter Squadron 97 (VFA 
        97), the Warhawks, deployed to Marine Corps Air Station 
        Iwakuni, Japan, as the first Navy squadron to deploy in support 
        of the UDP. The Navy squadron will spend six months supporting 
        Marine Aircraft Group (MAG) 12 before returning to Naval Air 
        Station Lemoore, California.
    Sea Basing.--Central to Naval Power 21 success is the full 
maturation of the Joint Sea Basing concept. When realized, Sea Basing 
will provide a national capability for projecting and sustaining naval 
power and joint forces from a base at sea, without the need to 
establish an intermediate land base. Sea Basing will strengthen force 
protection, free airlift and sealift assets to support missions ashore, 
and provide a foundation for projecting offensive and defensive fires. 
As the proliferation of weapons of mass destruction grows and the 
access to overseas bases declines, it is militarily and politically 
vital to reduce the vulnerability of our forces through the use of 
secure, mobile, and networked sea bases.
    This year the Sea Basing Joint Integrating Concept (JIC) is in 
development and being worked with the Joint Chiefs of Staff and the 
Joint Requirements Oversight Council (JROC). Sea Basing will provide 
the Joint Task Force Commander with the capability to dissuade a 
potential adversary and, if necessary, project joint combat power 
within reduced timelines. This will enable persistent combat operations 
wherever and whenever required with operational independence of host 
nation or coalition nation support.
    Missile Defense.--A viable regional and terminal sea based 
ballistic missile defense system is important to ensure the safety of 
United States forces and the flow through foreign ports and airfields 
when required. Sea based missile defense can also allow us to assist 
allies and friends while at the same time deterring coercion and 
threats. During the past year, USS Curtis Wilbur became the first ship 
capable of conducting Long-Range Surveillance and Tracking (LRST) in 
support of homeland missile defense. In addition, during fiscal year 
2005 the Standard Missile (SM-3) ballistic missile defense mission 
capability will be available for deployment onboard USS Lake Erie and 
USS Port Royal. Programming is in place to modify fifteen DDGs and 
three CGs to add the LRST and SM-3 mission capability.
    Sea Swap.--Sea Swap is a promising initiative designed to increase 
forward naval presence by keeping a ship continuously deployed in a 
given theatre of operation, while replacing entire crews at six-month 
intervals. The primary objective of Sea Swap is to effectively and 
efficiently increase forward Naval presence without increasing 
operating costs. By leaving the ship in theatre and moving only the 
crews, the Navy saves on ship transit time and fuel costs, while at the 
same time increasing the ships on station time. Sea Swap has the 
potential to reduce force structure requirements in the long term. 
Consequently, the Navy is studying Sea Swap to determine the future 
impact on force structure.
Force Structure/Capability
    Our Department is embarked on a transformation that requires us to 
continuously balance force structure and capability. The transformation 
is driven by technology that is significantly increasing capabilities 
of naval systems. New operating concepts such as the Fleet Response 
Plan have already altered the employment and make-up of naval forces. 
Today's 290 ship Navy is much more capable than the more than double 
the size Navy of the late 1980s. Numbers still matter, but only when 
carefully balanced with capabilities.
    This year's budget reflects the increasing capabilities and 
evolving operational concepts of our forces. After careful and lengthy 
analysis, we decided to retire an aircraft carrier. Our assessment is 
that we have developed the operational flexibility and increased 
capability, to retire an older carrier without risk to national 
security. The cost avoidance of this action will allow additional 
investment in transformational programs that further increase our 
capabilities.
    Our budget request increases investment accounts (Research, 
Development Testing and Evaluation (RDT&E), procurement, and Military 
Construction (MILCON)) from approximately $49 billion in fiscal year 
2005 to about $52 billion in fiscal year 2006. Due to a confluence of 
numerous programs, a peak year for Navy RDT&E funding for the JSF, 
increased aircraft procurement, and our investments in transformational 
ships, we are limiting new construction to four ships in fiscal year 
2006. In fiscal year 2006, we are also investing over $1 billion in 
RDT&E and over $700 million in Shipbuilding and Conversion, Navy (SCN) 
funding toward the first DD(X) as well as over $1 billion in a CVN 
Refueling Complex Overhaul.
    New Construction Ships and Submarines.--Fiscal year 2006 will be a 
transformational year as the Department continues the shift to next 
generation warships. New construction is limited to four ships as we 
focus on shifting to next generation surface combatants and sea basing 
capabilities. The total number of new ships procured over the FYDP is 
49, averaging 8.2 ships per year, including the Virginia Class SSN, San 
Antonio Class LPD, Littoral Combat Ship (LCS), T-AKE, CVN-21, DD(X), 
LHA(R), CG(X), Maritime Preposition Force (Future) (MPF(F)), and the T-
AOE(X). For fiscal year 2006, our shipbuilding programs are limited by 
their place in the development and initial construction phase.
    In 2004, the Department delivered and commissioned the lead ship of 
our newest class of submarines, the USS Virginia, initiating a new era 
of undersea capabilities that are aligned to the littoral regions. The 
lessons learned in constructing and testing the first submarine in more 
than six years are being applied to the follow-on ships. The USS Jimmy 
Carter was delivered to the Navy at the end of 2004 and will be 
commissioned in early 2005. The Navy also commissioned five DDGs in 
2004 and laid the keels for the eighth ship of the LHD Class, the first 
Lewis and Clark Auxiliary Dry Cargo Ammunition Ship (T-AKE), and the 
third and fourth Virginia Class Submarines. In Calendar Year 2004, the 
Navy completed three Engineered Refueling Overhauls of SSN 688 Class 
Submarines.
    Virginia Class SSN. The fiscal year 2006 Budget continues the 
strong support for the Virginia submarine program and provides the 
funding for the eighth submarine of the Class. In addition, funds for 
economic order quantity and advanced procurement for the ninth and 
tenth submarines are requested. These ships will continue to be built 
using the teaming approach adopted by Congress in 1998, which maintains 
two nuclear capable submarine shipbuilders. The Navy is procuring one 
submarine per year through the FYDP.
    San Antonio Class LPD. The LPD-17 is an amphibious transport dock 
ship optimized for operational flexibility and designed to meet Marine 
Air-Ground Task Force lift requirements. In 2005, the first LPD-17, San 
Antonio, will be delivered. The fiscal year 2006 Budget provides full 
funding for LPD-24, the eighth ship of the LPD-17 class.
    Littoral Combat Ship. A critical component of Sea Shield is the 
LCS, which is envisioned to be fast, agile, stealthy, relatively small 
and affordable. Primary missions for the ship will include small boat 
prosecution, mine warfare, shallow water anti-submarine warfare, 
intelligence, surveillance, and reconnaissance. It will operate in 
environments where it is impractical to employ larger ships. LCS final 
system design contracts were competitively awarded to two teams in 
fiscal year 2004. The detail design and construction of the first LCS 
flight ship is underway. Detail design for the second ship is ongoing 
with construction starting in fiscal year 2006. Procurement of the 
three mission packages is also planned in fiscal year 2006.
    Lewis and Clark Class T-AKE. The fiscal year 2006 Budget request 
includes funding for the ninth ship of the class. The first eight ships 
have been authorized and appropriated and are under contract for 
construction. Lead ship construction commenced in September 2003, with 
a projected delivery date of January 2006. Projected delivery date for 
the first follow on ship is September 2006 with remaining ship 
deliveries at three to six month intervals.
    CVN-21. CVN-21 will be the centerpiece of tomorrow's CSGs and 
contribute to every capability pillar envisioned in Sea Power 21. CVN-
21 will provide the United States the capability to quickly project 
combat power anywhere in the world, independent of land based support. 
CVN-21 will increase sortie generation rate and increase survivability 
to better handle future threats. The new design nuclear propulsion 
plant and improved electric plant together provide three times the 
electrical generation capacity of a Nimitz Class carrier. This capacity 
allows the introduction of new systems such as Electromagnetic Aircraft 
Launching System, Advanced Arresting Gear, and a new integrated warfare 
system that will leverage advances in open systems architecture to be 
affordably upgraded. The fiscal year 2006 Budget request includes 
advance procurement funding for the continued development of CVN-21. 
The construction contract is scheduled for award in fiscal year 2008, 
with ship delivery in 2015.
    DD(X). DD(X) will be a multi-mission surface combatant designed to 
provide precision strike, volume fires, and littoral area air defense. 
It will provide credible forward presence while operating independently 
or as an integral part of naval, joint, or combined expeditionary 
forces. Its offensive fires capability will be a critical element of 
our future Sea Strike and Sea Shield capabilities. The fiscal year 2006 
Budget request includes RDT&E funds for continued technology 
development and advance procurement for lead ship detail design and 
construction. The Navy is three years into the competitively awarded 
DD(X) design and technology development effort. Planned technologies 
such as an integrated power system and total ship computing environment 
in an open architecture, will provide more affordable future ship 
classes in terms of both construction and operation. DD(X) will be the 
first forward fit open architecture combat system. This investment will 
pay dividends to other surface ship procurements, including CVN-21 and 
the LHA Replacement Ship.
    LHA Replacement Ship (LHA(R)). The fiscal year 2006 Budget request 
includes advance procurement funding for the LHA(R). The Navy's 
objective for the LHA(R) program is to replace the capability of the 
LHA-1 Class to provide required amphibious lift and presence 
capability. The fiscal year 2007 Flight Zero ship features improved 
aviation capabilities. With the addition of advance procurement in 
fiscal year 2006, construction of the LHA(R) has been accelerated to 
start in fiscal year 2007.
    Maritime Preposition Force (Future) (MPF(F)). Most prominent in 
highlighting the value and power of the nation's naval expeditionary 
capability was the Marine Corps' participation in OIF. Success in this 
operation was due to our naval dominance, our expeditionary nature, and 
our flexibility and adaptability to defeat the challenges posed by 
enemy threats. Among other naval assets, eleven strategically located 
Maritime Pre-positioning Ships (MPS) were unloaded in 16 days to 
provide the equipment and sustainment required for two Marine 
Expeditionary Brigades. Exploiting the operational speed, reach, and 
inherent flexibility of seapower, the Navy and Marine Corps Team 
achieved a rapid buildup of sustained warfighting power that was combat 
ready to support United States Central Command. The current MPS ships 
are essentially forward-located floating warehouses with limited sea-
based logistics support capabilities. They can only off-load pier-side, 
or in-stream close to shore under favorable weather and sea conditions, 
or in a protected harbor. They have a very limited ability to 
facilitate rapid force closure due to limited ship transit speeds and 
extended periods for off-load, assembly and distribution. Equipment 
must be off-loaded from the existing ships, made ready for combat, and 
married up with the troops ashore prior to beginning combat operations. 
The MPF(F) will eliminate these limitations and provide for a greatly 
expanded joint military capability including decking for strike 
aircraft.
    T-AOE(X). The next generation fast combat support ship is being 
studied and may eventually replace the Sacramento Class of fleet 
auxiliaries. The T-AOE(X) is envisioned to provide rapid replenishment 
at sea of petroleum, munitions, provisions, and fleet freight. 
Acquisition is currently scheduled to start in fiscal year 2009.
            Ship/Submarine Conversions and Modernizations
    SSGN. The fiscal year 2006 Budget provides the funding to convert 
the last of four SSBNs to SSGNs. When complete, the SSGN will be a 
covert conventional strike platform capable of carrying up to 154 
Tomahawk missiles and supporting deployed special operating forces.
    Cruiser (CG) Modernization. The CG Modernization program was 
restructured in fiscal year 2006 in accordance with Congressional 
direction. Under the restructured plan, the older Baseline 2 and 3 
ships will be modernized first. Funding begins in fiscal year 2006 for 
long lead-time procurements for a fiscal year 2008 Baseline 2 
modernization availability. This modernization will reduce combat 
system and computer maintenance costs, replace obsolete combat systems, 
and extend service life. It will also incorporate manpower reduction 
improvements and quality of service enhancements from the smart-ship 
program.
    CVN-70. The fiscal year 2006 budget provides funds for the first 
increment of the CVN-70 Refueling Complex Overhaul (RCOH). The planned 
schedule will have the CVN-70 available to the Fleet in late 2009, 
after both RCOH and subsequent work-ups.
    SSBN Extended Refueling Overhaul. The refueling and overhaul of the 
USS Alabama is budgeted in fiscal year 2006. This is the second SSBN 
ERO that will sustain our strategic forces well into the future.
    Mine Warfare.--The fiscal year 2006 Budget includes funding to 
support the Navy's goal of an organic mine countermeasures capability 
while upgrading the dedicated mine countermeasure force. The budget 
continues the development and integration of five organic systems for 
the MH-60S platform to be deployed from the LCS: the AQS-20A 
Minehunting System, the Airborne Laser Mine Detection System, the 
Airborne Mine Neutralization System, the Rapid Airborne Mine Clearance 
System, and the Organic Airborne and Surface Influence Sweep System. 
The fiscal year 2006 Budget request also supports the development and 
procurement of the Remote Minehunting System integrated into DDG-51 
hulls 91-96 as well as for deployment from the LCS. In fiscal year 
2006, we will continue with our Surface Mine Countermeasures (MCM) mid-
life upgrade plan. We have initiated a product improvement program for 
the engines of the MCM-1 Avenger Class mine countermeasure ships to 
enhance their reliability and availability. We are upgrading our 
minesweeping capability with new acoustic generators and magnetic sweep 
cables, and have requested resources to replace our maintenance-
intensive mine neutralization system (AN/SLQ-48) with an expendable 
mine neutralization system. For the Marine Corps, the budget continues 
to support the Assault Breaching System, that, when fielded, will 
counter the mine and obstacle threat in the beach and surf zones.
    Aircraft.--The Department's fiscal year 2006 Budget request is 
structured to maintain the continued aviation superiority of the Navy 
and Marine Corps. The Naval aircraft procurement plan emphasizes 
replacing costly stand-alone legacy platforms with more efficient and 
capable integrated systems. Including the aircraft funded with RDT&E, 
the number of aircraft requested increases from 115 in fiscal year 2005 
to 138 in fiscal year 2006. This includes the first four EA-18G 
aircraft, five VXX helicopters and three Firescout unmanned aerial 
vehicles (UAV). The budget continues to maximize the return on 
procurement dollars, primarily through the use of multi-year 
procurement (MYP) for the F/A-18E/F and EA-18G, the E-2C, and the MH-
60S programs.
    F-35 Joint Strike Fighter (JSF). Our recapitalization plan includes 
the JSF, a stealthy, multi-role fighter aircraft designed jointly to be 
an enabler for Sea Strike and Sea Shield. The fiscal year 2006 Budget 
contains funding for the continuation of System Development and 
Demonstration (SDD) on the JSF. The JSF will enhance the DON's 
precision strike capability with unprecedented stealth, range, sensor 
fusion, radar performance, combat identification and electronic attack 
capabilities. Carrier based JSF will complement the F/A-18E/F and EA-
18G in providing long range strike capability and much improved 
persistence over the battlefield. The Short Take Off/Vertical Landing 
(STOVL) JSF combines the multi-role versatility of the F/A-18 and the 
basing flexibility of the AV-8B. The commonality designed into the JSF 
program will reduce acquisition and operating costs and allow enhanced 
interoperability with our Allies and sister Services. The JSF continues 
working to translate concept designs to three producible variants. 
Manufacture and assembly of the first flight test Conventional Take Off 
and Landing (CTOL) aircraft is underway, with assembly times much less 
than planned. Detailed design work continues for the CTOL and STOVL 
variants. The first flight is scheduled for 2006. The JSF program has 
aggressively addressed weight and airframe design issues identified 
last year. All three variants are projected to meet key performance 
parameter requirements. The JSF program is completing a re-plan effort 
that began approximately a year ago. The fiscal year 2006 Budget 
reflects the revised SDD and production schedule.
    F/A-18E/F and EA-18G. The F/A-18E/F continues to be the centerpiece 
of Navy combat aviation and entered into a five year multi-year 
procurement contracting starting in 2004. The F/A-18E/F program has 
also been funded to introduce a transformational radar, helmet-mounted 
sight, advanced targeting pod, and a fully integrated weapons system. 
The budget also includes funding for the first EA-18G, which is the 
follow-on aircraft to the EA-6B electronic attack aircraft.
    MH-60R/MH-60S. The fiscal year 2006 Budget requests funding for the 
procurement of 12 aircraft and continued RDT&E for the replacement and 
upgrade of Light Airborne Multi-Purpose System MK III SH-60B and 
carrier-based SH-60F helicopters to the new configuration designated as 
MH-60R. In addition, the budget requests funding for RDT&E and the 
procurement of 26 MH-60S, which is the Navy's primary combat support 
helicopter designed to support Carrier and Expeditionary Strike Groups.
    V-22. The V-22 program is designed to meet the expeditionary/
vertical assault needs of the Marine Corps, the strike rescue needs of 
the Navy, and to supplement the special mission aircraft for U.S. 
Special Operations Command. The fiscal year 2006 Budget request 
includes funding for 11 V-22s (9 MV-22s and 2 CV-22s) and funding for 
continued aircraft testing and evaluation. Progress continues towards 
delivering a high-quality aircraft that improves capability and 
interoperability of the aircraft, reduces production costs, and 
maximizes production efficiency. Since the resumption of V-22 flight-
testing, in May 2002, the V-22 is satisfying the threshold levels for 
all its key performance parameters. V-22 test pilots have recorded more 
than 4,500 flight hours since that time. The V-22 will enter 
Operational Evaluation in March 2005, leading to a full rate production 
decision expected in late Calendar Year 2005.
    AH-1Z/UH-1Y. The current fleet of AH-1W attack helicopters and UH-
1N utility helicopters continues to perform superbly in the GWOT. High 
demand for their capabilities in a harsh environment is highlighting 
known deficiencies of these aging helicopters--particularly with regard 
to crew and passenger survivability, payload lift, power, endurance, 
range, airspeed, maneuverability, and supportability. The DON 
determined that the H-1 Upgrade Program is the most cost-effective 
alternative for the Marine Corps' attack and utility helicopter 
requirements. The H-1 Upgrade Program is a key modernization effort 
designed to resolve existing safety deficiencies, enhance operational 
effectiveness of both the AH-1W and the UH-1N, and extend the service 
life of both aircraft. In October 2003, the program entered initial 
low-rate production. A follow-on low-rate production is scheduled to 
start in February 2005, and operational and evaluation testing is 
planned to begin in July 2005. Due to aircraft attrition in combat 
operations, we plan to pursue funding in the future for a ``build-new'' 
strategy for additional AH-1Z and UH-1Y aircraft, in order to prevent 
inventory shortfalls that would be unacceptable in light of current and 
expected operational commitments.
    Multi-Mission Maritime Aircraft (MMA). In June 2004 the Navy 
selected Boeing's 737 for the MMA. The MMA will be a long-range Anti-
Submarine Warfare (ASW), Anti-Surface Warfare (ASUW), and ISR aircraft 
capable of broad area maritime and littoral operations. The MMA is the 
replacement for P-3C Orion and will begin to enter the fleet in 2013.
    CH-53X. The Marine Corps' CH-53E continues to demonstrate its value 
as an expeditionary heavy-lift platform, with significant assault 
support contributions in Afghanistan, the Horn of Africa and Iraq. 
Vertical heavy lift will be critical to successful 21st century 
operations in anti-access, area-denial environments, enabling the force 
application and focused logistics envisioned within the joint operating 
concepts. The CH-53X series aircraft will address our emerging heavy-
lift requirements. The fiscal year 2006 Budget requests RDT&E funds to 
begin the System Development and Demonstration phase of the CH-53X 
program.
    Advanced Hawkeye (AHE). The AHE program will modernize the E-2 
weapons system by replacing the current radar and other system 
components to maintain open ocean capability while adding a robust 
overland capability against current and future cruise missile type 
targets. The budget requests funds to procure two E-2Cs as the third 
year of a four-year multi-year procurement. This effort will keep the 
production line viable while the AHE continues spiral development 
toward an Initial Operational Capability (IOC) in fiscal year 2011.
    Presidential Replacement Helicopter (VXX). The fiscal year 2006 
Budget requests RDT&E funding for VXX systems development efforts and 
the procurement of five pilot production aircraft. The goal of this 
accelerated program is to introduce a new Presidential helicopter by 
October 2009. The VXX program will utilize an evolutionary acquisition 
approach through a two-part incremental development to deliver a safe, 
survivable and capable vertical lift aircraft while providing 
uninterrupted communications with all required agencies.
    Marine Corps Equipment.--The fiscal year 2006 Budget supports the 
development and fielding of equipment used by Marine Corps ground 
forces. The Marine Corps' number one ground acquisition priority 
continues to be the Expeditionary Fighting Vehicle (EFV). The EFV will 
join the MV-22 and the LCAC as an integral component of the amphibious 
triad required for executing expeditionary maneuver warfare. Low-rate 
initial production procurement begins in fiscal year 2007 and will 
start delivery in fiscal year 2008. The Department intends to procure 
15 vehicles in fiscal year 2007 with IOC planned for fiscal year 2010.
    Also critical to the Marine Corps transformation efforts is the 
Lightweight 155 Howitzer (M 777). The M 777 is a joint USMC/Army 155 mm 
towed artillery system that will provide significant improvements over 
the current M198 system. The M 777 is currently in its third year of 
low-rate initial production for the Marine Corps.
    Marine Corps modernization efforts within the fiscal year 2006 
Budget include the High Mobility Multi-Purpose Wheeled Vehicle 
(HMMWVA2) program and the Light Armored Vehicle Product Improvement 
Program (LAV PIP).
    Unmanned Aerial Vehicles (UAV).--The fiscal year 2006 Budget 
continues to demonstrate the DON's commitment to develop, acquire, and 
field transformational UAV technologies for ISR and tactical missions. 
The Navy's UAV programs are focused on two areas, the Vertical Takeoff 
and Landing Tactical UAV (VTUAV), designated the Fire Scout, and the 
Broad Area Maritime Surveillance (BAMS).
    The Fire Scout (VTUAV) is capable of operating from all air-capable 
ships. It carries modular mission payloads and operates using the 
Tactical Control System (TCS) and Tactical Common Data Link. The Fire 
Scout will provide day/night real time ISR and targeting as well as 
communication-relay and battlefield management capabilities for ASW, 
MIW and ASUW on LCS. The BAMS UAV program will meet the Navy 
requirement for a persistent ISR capability as well as address the 
growing ISR gap and the shortfall in maritime surveillance capability. 
The BAMS UAV System is intended to be a Navy fleet asset for tactical 
users such as Battle Group Commanders and the Joint Forces Maritime 
Component Commander (JFMCC).
    The Marine Corps continues to examine options for the sustainment 
and eventual replacement of its aging Pioneer fleet. Requirements for 
Vertical Unmanned Aerial Vehicle (VUAV) are being developed in 
consonance with Ship to Objective Maneuver concepts from Expeditionary 
Maneuver Warfare and with lessons learned from recent operational 
experience. The Marine Corps will procure a small number of United 
States Coast Guard Eagle Eye tilt rotor UAVs as an interim step to 
replace the Pioneer.
    Finally, the Air Force and Navy Joint Unmanned Combat Air System 
(JUCAS) will provide persistent, carrier-based penetrating surveillance 
in high threat areas that will leverage existing investment in long-
range weapons to ensure access against future threat air defense 
systems to allow strike options with low risk of friendly loss/capture. 
This joint program is in the science and technology development and 
demonstration phase.
    Unmanned Surface Vehicles (USV).--The fiscal year 2006 Budget 
request supports advanced technology development for a mine influence 
system integrated into an unmanned 11-meter craft for deployment from 
LCS.
    Unmanned Ground Vehicles (UGV).--We continue to pursue man-
transportable robotic systems to perform explosive ordnance disposal 
tasks, to include technology development of bottom crawling vehicles 
for mine reconnaissance and neutralization.
    Unmanned Undersea Vehicles (UUV).--The fiscal year 2006 Budget 
continues the development of a family of Unmanned Undersea Vehicles as 
described in the UUV Master Plan issued in 2004. The Modular 21-inch 
UUV program will provide a robust mine counter measures capability that 
can be deployed covertly. Its design will support the ability to 
reconfigure for other missions due to its open architecture design. A 
family of smaller diameter (7.5-inch), low-cost, man-deployable UUVs 
will provide the capability for mine clearance in shallower areas as 
was demonstrated during OIF, as well as support force protection 
missions. In fiscal year 2006, we are initiating the development of a 
12.75-inch UUV for deployment from LCS in support of mine 
countermeasures missions and environmental data gathering. A larger 
diameter UUV will provide a long endurance capability and expand the 
types of missions that can be conducted.
    Munitions Programs.--During OEF and OIF, the Department expended 
less precision ordnance than projected. As a result, the purchases for 
fiscal year 2006 have been decreased for Joint Direct Attack Munitions 
(JDAMs) and Laser Guided Bombs (LGBs). This decrease in procurement 
provides no increased risk to the DON but merely reflects lower 
ordnance utilization rates. Partnerships with the Army and the Air 
Force in several of our munitions programs continue to help us optimize 
both our inventories and our research and development investments
    The Navy provided an Early Operational Capability (EOC) and 
accelerated deliveries for 500-pound JDAM variant (GBU-38) for Navy F/
A-18E/F platforms. This variant was deployed immediately after approval 
for production was granted as it met an urgent warfighter need to 
deploy precision munitions with limited collateral effects in congested 
urban environments in support of OIF. The 500-pound JDAM filled the 
mission need so well that over one-third of the initial inventory was 
expended within one month of weapons arriving in theater. This resulted 
in a Navy and Marine Corps request for accelerated production and 
delivery. The fiscal year 2006 Budget funds JDAM to meet all known 
warfighter demands and we will closely monitor expenditures to make any 
adjustments, as needed.
    We also approved a new variant of the JSOW family of weapons for 
Full Rate Production in December 2004. Similar to the new 500-pound 
JDAM program, this capability is in demand by the warfighter to provide 
new options for precision attack against point targets vulnerable to 
blast fragmentation effects and hardened targets.
    Technology Insertion.--We continue to sustain a robust RDT&E effort 
as we transform the Navy and Marine Corps to the next generation of 
combat systems. This budget reflects our commitment to future 
transformational capabilities maintained in joint forward sea basing 
initiatives and technology insertion for major platforms including 
DD(X), LCS, SSN, VXX and MMA, and supports a new design for future 
undersea superiority system. While the long term pace of 
transformational programs has slowed in this budget, desired future 
capabilities have been preserved across the warfighting spectrum. 
Continued technology improvements will ensure Naval forces' ability to 
project offensive power, defend the homeland, and sustain operational 
independence around the world.
    Science and Technology (S&T). The Navy pursues an integrated and 
comprehensive science and technology program, from basic research 
through manufacturing technology, focused on enabling the Naval 
warfighter as outlined in the Department of the Navy's vision Naval 
Power 21. The President's Budget request for science and technology 
efforts to support the Navy and Marine Corps Team is $1.8 billion. 
Program officers manage specific investment portfolios and are 
responsible for integrating basic research with applied science and 
technology in their areas, while promoting the effective and 
expeditious transition of discovery and invention into real-world 
applications. The success of the Navy S&T program is not measured 
simply by the basic science it supports, but also by the successful 
transition of that science to support our Sailors and Marines in the 
field.
    FORCEnet. The Navy and Marine Corps FORCEnet is an initiative to 
achieve Net Centric Warfare and joint transformation by providing 
robust information sharing and collaboration capabilities across the 
Naval enterprise and with other services, agencies, the joint 
community, and coalition partners. We are beginning to implement 
FORCEnet capabilities in our acquisition programs, including programs 
that procure either warfighting or support systems afloat and ashore, 
to provide this critical capability as soon as possible across the 
Department. We expect FORCEnet-supported operations to have a higher 
tempo and greater effectiveness, efficiency and adaptability. In short, 
we expect better results faster, with less waste and greater 
responsiveness to changing circumstances. Some distributed network 
concepts and systems that provide the building blocks for FORCEnet 
include: Open Architecture, Cooperative Engagement Capability, Mobile 
User Objective System, and Joint Tactical Radio System.

                               CONCLUSION

    The Navy and Marine Corps Team is providing great value to our 
Nation. Today, your Navy and Marine Corps Team is forward deployed, 
answering the call in protecting America's strategic interests. ``Being 
there'' around the world, around the clock, with combat ready forces--
your Navy and Marine Corps Team will continue to be ready to win the 
fight across a wide range of contingencies.
    The fiscal year 2006 Budget request is both about prevailing in 
today's environment and bridging for a successful future. While we are 
balancing between today and tomorrow's force, we are clear in purpose 
and focused on success in the future. We are confident in our 
capabilities and where we are headed together with the joint force. In 
preparing for the future, we will never overlook the present. With this 
budget, we have set a course to win our Nation's wars and transform to 
meet future challenges.
    In supporting the challenges outlined in the fiscal year 2006 
Budget request, Congress will continue to provide the DON the right 
capability at the right time to meet our Nation's needs.

    Senator Stevens. Admiral Clark, we welcome you for your 
last statement. But I've got to start off by telling you about 
the advice my first father-in-law gave me as he reached 95. He 
said, ``Just keep in mind that only in the English language 
does the word `retire' mean other than go to bed.''
    We expect to see you again and again. Admiral, welcome 
before the Committee.

                SUMMARY STATEMENT OF ADMIRAL VERN CLARK

    Admiral Clark. Thank you very much, Chairman Stevens, 
Senator Inouye, Chairman Cochran, and Senator Mikulski.
    It is a real privilege to be here; actually, a great honor 
for me to be here representing the sons and daughters of 
America who wear sailor uniforms in service to this Nation, and 
especially to be here with this team that's sitting to my left, 
Secretary England and General Hagee. I am privileged to work 
with people like this, committed to our Nation, and making the 
Navy/Marine Corps team stronger.
    And, as you have said, this is a meaningful event for me, 
because it's the last time I'm going to be here, at least in an 
open session, talking about this Navy that I love.
    This posture statement that I've submitted to you, the 
written one, is the longest one I've ever given to you. I'll 
take about 4 or 5 minutes here and just talk about what's in 
here.
    This budget before you ensures that you will continue to 
see credible combat naval forces deployed overseas in the 
immediate years ahead, just as they are doing this morning, 
providing warfighting and/or deterrent forces in the far 
corners of the Earth. The way I like to say it is, ``options 
for the President with the freedom to represent our Nation in 
the maneuver space that's guaranteed by international law, 
operating in our maritime domain with a capability which comes 
to you only from the investment that this Nation has made in 
its Navy.''
    This is a capability that will become more and more 
important with a future that I believe will focus on 
generation-four warfare in a global war on terror that will 
last for many years to come.
    In this budget proposal, which I support, we've carefully 
allocated the resources provided by this Nation, and propose 
increases in every major segment of the Navy's budget.
    In particular, the military personnel account will increase 
by $1.1 billion in a package that enhances the overall benefits 
of military service, from pay, to housing, to special 
allowances, and directly supports our efforts to recruit and 
retain a talented and dedicated fighting force.
    Our operations and maintenance account increases to ensure 
the continued readiness of the Navy to fight and win in the 
long war against terror. If we've learned anything since 9/11, 
it is that our forces must be ready. And your Navy is more 
ready today than at any time since any of you or I have been 
engaged in this national security business.
    Let's talk about procurement. It increases by almost $2 
billion, seeking to achieve future warfighting wholeness and 
funding important new ship and aircraft programs.
    Continuing the emphasis on transformation, the aircraft 
procurement plan in this budget has $6.6 billion in R&D for our 
aviation programs--Multi-Mission Maritime Aircraft (MMA), Joint 
Strike Fighter, V-22, Aerial Common Sensor (ACS), and 
Presidential Helicopter Replacement (VXX). And the return on 
these programs is high. For instance, today our carrier strike 
groups can strike four times the number of targets per day than 
they could in Desert Storm. And because of our investment 
strategy, what's in the budget today, this naval aviation 
strike capability is expected to double again by the end of 
2010.
    The fiscal year 2006 to 2011 program includes $89.6 billion 
and a procurement plan of 1,263 aircraft across the Future 
Years Defense Plan (FYDP). The 2006 budget alone includes $10.5 
billion to procure 128 aircraft, including helicopters, 
representing an additional $1.7 billion above what was 
appropriated in 2005.
    And we made a significant commitment to increase research 
and development, as the Secretary said. Now, let me just point 
out one fact here. Our research and development budget is now, 
in this budget, double what it was when I came into office 5 
years ago. In 2006, it goes up by $1.2 billion, of which 66 
percent is going to design the ships and the submarines and 
aircraft that will support our transformational goals, like 
seabasing, and maximize our operational availability with 
speed, access, and persistence.
    So, overall, this budget is well balanced. It increases the 
quality of naval service, ensures combat and operational 
readiness for the fighting force today, and invests in future 
capabilities.
    Having said that, I must share with you a number of 
challenges that do lie before us and the Nation.
    First, the majority of our naval force structure was built 
to fight two major theater wars, yet the strategic landscape is 
vastly different today than when I came to this job and 
demands, in my view, a different set of capabilities to 
accomplish increasingly discreet missions. I'm speaking 
specifically about other missions, such as peacekeeping, 
stability operations, and the tasks involved in the global war 
on terror. As a result, I believe that our Navy must be 
reshaped and better balanced to be optimized for the future. 
Building a force set to deal only with major combat operations, 
given all the other tasks that we face in the world today and 
will face in the future is not, in my view, a responsible 
approach.
    The budget is a transformational gearshift, as the 
Secretary said, to properly shape us for the future by fielding 
platforms and sensors and capabilities that are key to winning 
the wars that we may have to fight in the future. We must build 
platforms like the Littoral combat ship, where we've decoupled 
the combat capabilities from the frame--the sea frame itself. 
And the EA-18G, with its advanced weapons and sensors, that 
transforms the battle against IADS, integrated air defense 
systems, from one of suppression to one of lethality. And we 
must also continue development of advanced technology for DD(X) 
and the developing CVN-21 and CG(X), which will take on the 
missile defense threats of the future, along with Joint Strike 
Fighter and maritime pre-positioned force and the replacement 
Amphibious Assault Ship (LHA) for our marine friends.
    Let me give you another challenge. While transitional 
threats are the focus of today's efforts, we must keep watch on 
the increased anti-access and sea-denial capabilities that are 
being developed by nations in the Middle East and Asia.
    Third, we must deal with the spiraling cost of our systems. 
Spiraling costs are competing with our ability to transform for 
the future. Slowing the pace and reducing the scale of our 
vital programs, escalating procurement costs in shipbuilding 
and aircraft are eroding my buying power, and we need your help 
to partner with industry to deliver more fighting power at less 
cost to the Nation.
    My written statement addresses the soaring costs of ships 
and aircraft over time, and the impact of this loss of buying 
power. I think the conclusion is obvious. We must address the 
central issue. What size Navy with what kinds of capabilities 
must this Nation have to live in a world where globalization is 
the rule of the day? This addresses, directly, your comment, 
Mr. Chairman, about your concern for the future and the size 
and the number of ships that we will have in the days to come. 
I believe that this is a national security issue that requires 
our collective attention.
    Finally, personnel costs continue to rise, especially 
regarding healthcare. Now, there is no question that we owe 
them, our men and women and their families, a standard of 
living that properly reflects the value of their service to the 
Nation, and we also owe them the tools to do their job. So, we 
must ensure that our force is properly shaped and trained and 
educated to provide the maximum return on investment. And there 
are many initiatives underway. And I would love to talk today 
about how we are winning the battle for people.
    To meet these future challenges, we need congressional 
support to help us implement more flexible ship and aircraft 
procurement funding mechanisms, such as level funding and 
advanced procurement and split funding and multi-year 
procurements, all of these things somehow put together, just as 
we do with other major defense acquisition programs. In my 
view, the status quo is inadequate. If we do not transform our 
acquisition methods, we will not be able to deliver the 21st 
century Navy that this Nation needs.
    We also ask your support for our continued experimentation 
with innovative force-shaping tools for our people to ensure 
our Navy is properly sized and trained to meet the challenges 
of the 21st century.
    And so, in closing, I want you to know that your Navy is 
ready, as ready as I have ever seen it. And I want you to know 
that this readiness did not happen by accident. You gave us the 
resources, and we got here because of the tremendous men and 
women living a lifestyle of service in uniform today.
    Over the past year, they have deterred and disrupted the 
movement of terrorists at sea, supported the United States 
(U.S.) and coalition forces on the ground in Iraq and 
Afghanistan, guarded Iraq's critical oil infrastructure in the 
Persian Gulf, and provided quick and vital support to the 
tsunami relief effort.
    Today, the spotlight is on the Army and the United States 
Marine Corps, and that's exactly as it should be, as they fight 
in Iraq and Afghanistan. There are, to some people's surprise, 
7,000 sailors ashore in Iraq with them, and that number is 
growing. And there are 13,000 sailors at sea in General 
Abizaid's theater. And when Iraq is over and everybody else 
comes home, your Navy will still be out there every day, just 
like it is today, with our number one joint partner, the United 
States Marine Corps, representing our Nation in ways that no 
other service can on the high seas in our maneuver space, with 
the freedom to go wherever we need to go.

                           PREPARED STATEMENT

    I want you all to know that I could not be more proud of 
the operational accomplishments of our Navy and the men and 
women who make it possible. It's been a thrill of a lifetime to 
have this opportunity. And I thank you for the chance to 
represent them here today, and I look forward to the 
opportunity to discuss our Navy in the future.
    Thank you.
    [The statement follows:]

                Prepared Statement of Admiral Vern Clark

    Mr. Chairman and members of the Committee, this will be my fifth 
opportunity to talk with you about the investments that you've made in 
America's Navy and about our budget request for the coming year. I want 
you to know that it has been an honor for me to come to this ``house of 
the people'' and work with all of you in the service of our great 
nation. Your dedication to the public good has been an inspiration, and 
I am personally grateful for having had the privilege to speak with you 
on so many occasions.
    I also want to express my gratitude on behalf of the men and women 
of your Navy. Your exceptional and continuous support has made possible 
their remarkable achievements of the last five years in manpower, 
readiness levels, and our ability to generate capabilities the joint 
force will need to fight and win in the dangerous decades ahead.
    These marvelous Americans--active and reserve, uniformed and 
civilian--will continue to make this nation proud as they take the 
fight to today's enemy, while steadily transforming our institution to 
meet tomorrow's challenges. It is they who make ours the greatest Navy 
ever to sail the world's oceans; our ability to attract, train, and 
retain them is a testament to the health of our service and an 
indicator of our proper heading as we chart our course into the twenty-
first century.

             YOUR NAVY TODAY--FOCUSED ON WINNING THE FIGHT

    We are engaged in a war that I believe will be a generational 
challenge. Your Navy has been at the forefront of this war at sea and 
on land, and Sailors have represented themselves with great 
distinction. In this fight, your Navy is making history as we 
contribute unprecedented reach, precision, persistence, and awareness 
to the joint force. In this time of great consequence for our future, 
our men and women operating in the air, on and under the sea, and on 
the ground are at the leading edge of the Global War on Terrorism.
    Today, there are 85 ships on deployment (29 percent of the Fleet); 
this includes three aircraft carriers, and two big deck amphibious 
ships (LHA/LHD). They are deployed in support of the nation's interests 
in the Persian Gulf, the Mediterranean, the Indian Ocean and the 
Western Pacific (see Figure 1). And because of the changes we've made 
in how we maintain our ships and train our crews, still others are 
ready to surge forward on short notice or are continuing operations 
like strategic deterrence; intelligence, surveillance and 
reconnaissance missions; and counter-drug patrols in support of other 
national imperatives.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                Figure 1

    There are now approximately 22,000 Sailors deployed to the Central 
Command area of responsibility (AOR) in support of Operations ENDURING 
FREEDOM (OEF) and IRAQI FREEDOM (OIF). This includes more than 14,000 
men and women of the HARRY S. TRUMAN Carrier Strike Group (CSG), CARL 
VINSON Carrier Strike Group and BONHOMME RICHARD Expeditionary Strike 
Group (ESG) as well as some 8,000 Navy personnel on the ground 
throughout the theater. Among them are more than 2,500 medical 
personnel in direct support of ground combat missions, and more than 
1,000 Seabees managing construction projects for new Iraqi schools, 
bridges, roads and facilities. They are also teaching construction 
skills as part of the Iraqi Construction Apprentice Program.
    OIF.--In the past year, Navy aircraft have provided the reach, 
precision, persistence, and awareness needed by Soldiers and Marines 
engaged in OIF ground combat operations. Navy sea-based tactical 
aircraft flew more than 3,000 sorties and dropped more than 100,000 
pounds of ordnance in close support missions. Less visible, but no less 
valuable, have been the nearly 5,000 hours of dedicated surveillance 
and reconnaissance flown by both sea-based and shore-based Navy 
aircraft, providing the eyes and ears of our people on the ground in 
Iraq. At sea, Naval Coastal Warfare forces protect Iraq's oil terminals 
in the Persian Gulf.
    GWOT.--In multiple theaters in the war on terror, your Navy is 
conducting Maritime Interdiction Operations (MIO) and Expanded MIO. 
EMIO is the maritime component of the GWOT and its purpose is to deter, 
delay and disrupt the movement of terrorists and terrorist-related 
materials at sea. With our extensive MIO experience in the Persian Gulf 
and elsewhere, we are well trained to monitor, query and board merchant 
vessels, and we have done so 2,200 times in the last year alone.
    We are actively participating in an ongoing series of Proliferation 
Security Initiative (PSI) exercises as well as working groups composed 
of operational experts from PSI partner nations in an effort to prevent 
the flow of WMD, their delivery systems, and related materials. This 
initiative is led by the State Department and envisions partnerships of 
states working in concert to develop a broad range of legal, 
diplomatic, economic, military, and other tools to interdict shipment 
of such items.
    We have also been working closely with the U.S. Coast Guard to 
better defend the homeland, including developing a new operational 
concept called Maritime Domain Awareness (MDA). MDA will enable 
identification of threats as early and as distant from our borders as 
possible to determine the optimal course of action. Armed with this 
better awareness and visibility, we will provide an active, layered 
system of defense that incorporates not only the maritime domain, but 
space and cyber-space as well. The success of these operations can be 
credited to the synergy developed between our Navy, the Coast Guard and 
other agencies.
    I would like to point out here, as I have testified in prior 
hearings, that to fully develop our concept of Sea Basing and to 
realize the fruits of MDA for the defense of our homeland, we must take 
maximum advantage of the widely accepted rights codified by the Law of 
the Sea Convention.
    From transit passage, to reaffirming the sovereign immunity of our 
warships, providing a framework for countering excessive claims of 
other states, preserving the unfettered right to conduct military 
activities in the exclusive economic zones, the Convention provides the 
stable and predictable legal regime with which to conduct our 
operations today and in the future. Joining the Convention will support 
ongoing U.S. military operations, including continued prosecution of 
the Global War on Terrorism, and will enhance our leadership role in 
maritime matters. I strongly support United States' accession to the 
Law of the Sea Convention because joining the Convention will 
strengthen our nation's defenses.
    Operation UNIFIED ASSISTANCE.--By sea-basing our relief efforts for 
South Asian tsunami victims in Operation UNIFIED ASSISTANCE, for 
example, the ABRAHAM LINCOLN CSG and the BONHOMME RICHARD ESG 
(including Marines from the 15th Marine Expeditionary Unit) delivered 
more than 6,000,000 pounds of relief supplies and equipment quickly and 
with more political acceptance than may have been possible with land-
based relief efforts.
    In addition, nine of our versatile P-3C reconnaissance and 
surveillance aircraft supported search and rescue operations, while the 
High Speed Vessel (HSV) SWIFT, an aluminum-hulled catamaran, deployed 
from Naval Station Ingleside, Texas, in January to provide high-speed 
connectivity to the shore with its ability to transit shallow water. 
The hospital ship USNS MERCY is now on scene to provide a base of 
operations for joint U.S. military medical organizations and recognized 
international nongovernmental and private relief organizations. And, 
more than 400 Seabees assisted in disaster recovery efforts such as 
clearing roads, removing debris and assessing damage.
    Our most precious resource.--At the heart of everything good that 
is happening in our Navy today is the vital fact that we are winning 
the battle for people. We are attracting, developing, and retaining a 
talented cadre of professionals who have chosen a life of service. Our 
ability to challenge them with meaningful, satisfying work that lets 
them make a difference is fundamental to our covenant with them as 
leaders.
    To better fulfill this promise, we are in the process of developing 
a Human Capital Strategy that fits the twenty-first century--a strategy 
that delivers the right skills, at the right time, for the right work. 
We would not be in a position to do that today had we not first tackled 
the fundamentals: recruiting the right people, increasing retention, 
and attacking attrition.
    We have consistently met or exceeded our recruiting goals since 
2000. This has allowed more selectivity and a consequent increase in 
the quality of recruits. Nearly 15 percent of our current recruits, for 
example, now have college experience, up by more than 300 percent since 
2000. More than 95 percent of new recruits now have high school 
diplomas. And minority officer applications have increased by 27 
percent.
    We have experienced extraordinary retention in our Navy fostered by 
a new culture of choice and a focus on professional development for our 
Sailors. This new culture has led to the highest retention in our 
history. Therefore we are able to be more selective in recruiting and 
establish the kind of competitive environment for reenlistment and 
detailing. This, in turn, allows us to more effectively shape of the 
force, developing a more educated and experienced group of 
professionals to lead and manage our high-tech Navy. Sailors in many 
ratings have been given new opportunities to compete and grow in our 
institution through adjusted NEC-targeted Selective Reenlistment 
Bonuses and the Perform-To-Serve program. We have also piloted choice 
in assignments with a new Assignment Incentive Pay pilot program. 
Sailors are now able to compete for select jobs in duty stations across 
the globe.
    Since 2000, we have also reduced attrition by nearly 33 percent. 
This past year alone, leaders throughout our Navy attacked the number 
one cause for attrition: illegal drug use. Despite an increase in 
testing of nine percent Navy-wide, the number of positive samples was 
down by 20 percent since 2003. In short, we now have the highest 
quality workforce the Navy has ever seen.
    Readiness to fight.--We have a responsibility to you in the 
Congress and to the taxpayers to ensure that the Navy the nation has 
already bought is properly equipped. We have invested billions of 
dollars in training, maintenance, spare parts, ordnance, flying hours 
and steaming days so that the current force is prepared on a day-to-day 
basis to deliver combat power whenever and wherever it is needed. Today 
we have the best readiness performance I've seen in my career.
    To enhance our Navy's ability to respond to crises whenever and 
wherever needed, we implemented a Global Concept of Operations that 
increases both the number and capabilities of naval assets that are 
forward deployed throughout the world. This new operating concept 
delivers a sustainable global reach to influence current events through 
the sovereign presence of our naval forces.
    This past year, we maintained Fleet Response Plan's (FRP's) ``6+2'' 
readiness to consistently deliver six forward-deployed or ready-to-
surge CSGs almost immediately, plus two additional CSGs in 90 days or 
less. The FRP allows us to surge 50 percent more combat power on short 
notice to deal with future global contingencies than in the past. For 
example, we were able to maintain the JOHN C STENNIS CSG in a ``ready 
for war'' state for 418 of the 509 days of its most recent readiness 
cycle that included deployed operations.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                Figure 2

    As part of the FRP, we demonstrated ``presence with a purpose'' in 
a multi-CSG surge exercise, SUMMER PULSE 2004 (see Figure 2), as well 
as the four-month deployments of USS RAMAGE and ROSS. We also surged 
USS BATAAN, BOXER, and KEARSARGE to enable Marine Corps deployments to 
ongoing operations in Iraq, and we maintain this surge capability 
across the Fleet 365 days per year. To support this level of 
operational availability, we have been improving our maintenance 
processes and organizations. Innovative programs like SHIPMAIN and the 
Naval Aviation Readiness Integrated Improvement Program (NAVRIIP) 
helped develop and share best practices, streamline maintenance 
planning and improved performance goals in shipyards, depots and other 
maintenance facilities.
    Transforming for the Future.--At the Naval War College in June 
2002, I introduced our vision of tomorrow's Navy, Sea Power 21 (see 
Figure 3).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                Figure 3

    Sea Power 21 began the process of translating theory into practice 
for a wide range of advanced concepts and technologies--ranging from 
the stand up of the Fleet ASW Command to the initiation of ballistic 
missile defense--that will increase the combat effectiveness of the 
joint force. We are moving forward with the main concepts of that 
vision to transform the way we fight.
    We have introduced Sea Strike capabilities that extended our reach 
and precision, providing joint force commanders with a potent mix of 
weapons. In OIF, we deployed F/A-18E/F Super Hornet squadrons, 
providing greatly enhanced range, payload, and refueling capability. 
Tactical Tomahawk has entered service, allowing in-flight target re-
programming and increasing our time sensitive strike capabilities. The 
Shared Reconnaissance Pod (SHARP), the Advanced Targeting Forward-
Looking Infrared (AT-FLIR), the Joint Helmet Mounted Cueing System and 
the Multi-Functional Information Distribution System (MIDS) arrived in 
the Fleet and showed us the power of these new knowledge dominance 
technologies. The Advanced SEAL Delivery System made its first 
deployment with USS GREENEVILLE this year, and we started conversion of 
the third of four SSBNs for conventional strike and SOF insertion.
    Our Sea Shield capabilities also improved, extending the defensive 
umbrella over joint forces ashore during OIF. USS CURTIS WILBUR 
conducted the nation's first ballistic missile defense patrol. Within 
four years, 18 warships will be fitted with a transformational 
ballistic missile surveillance, tracking, and engagement capability. We 
also published an Anti-Submarine Warfare Concept of Operations (ASW 
CONOPs), describing ASW force attributes, warfighting principles, and 
development priorities.
    Recent results from at-sea experiments have yielded significant 
insights into revolutionary distributed ASW sensor technologies and 
communications that demonstrate the potential of this new CONOPs. 
Additionally, we refined our Mine Warfare Roadmap to expedite the 
fielding of new technologies and capabilities into the Fleet, 
demonstrated the defensive capabilities of Anti-Torpedo Torpedoes, and 
awarded a contract to design and develop the Multi-Mission Maritime 
Aircraft for maritime surveillance to replace the aging P-3.
    With our number one joint partner, the Marine Corps, we continue to 
explore options to best realize Sea Basing, studying the optimal ship 
mix for future ESGs and Maritime Pre-positioning Force (Future) 
squadrons. We commissioned USS VIRGINIA (SSN 774), our first submarine 
designed for littoral missions, and accepted delivery of USS JIMMY 
CARTER (SSN 23) with significantly improved payload capability. We also 
approved baseline designs for the Littoral Combat Ship (LCS) and begin 
construction on our first LCS in June of this year.
    Among our FORCEnet initiatives to integrate the power of a 
networked combat force, we established an enterprise-wide architecture 
that puts in place standards for both infrastructure management and the 
networking of combat systems. We have also developed a plan for 
increased use of unmanned systems in tactical ISR and collaborated with 
the Air Force to develop an Airborne Networking strategy for tactical 
as well as command and control aircraft. In that vein, we have begun to 
align the C\4\ISR concepts of all the Services: FORCEnet (Navy and 
Marine Corps), C\2\ Constellation (Air Force) and LandWarNet (Army). We 
have also enhanced joint and coalition interoperability in our 
deploying ships through installation of CENTRIX and COWAN nets.
    Sea Trial, our initiative to streamline and formalize our 
experimentation process, is up and running with the Fleet in charge. 
This past year, we conducted 43 different experiments, ranging from LCS 
concept of operations development to Missile Defense Surface Action 
Groups. We tested SSGN effectiveness in a joint scenario with networked 
forces at sea, in the air, and on land. We conducted a highly complex 
and challenging ASW experiment in UNDERSEA DOMINANCE 04, while we 
tested dynamic bandwidth management and reach-back in TRIDENT WARRIOR 
04. We sponsored leading edge technologies for future naval warfare 
including: X-Craft, an innovative ship to be used as a test platform 
for the Littoral Combat Ship; an operational-scale electromagnetic rail 
gun; new concepts for persistent littoral undersea warfare; programs to 
enhance the joint tactical use of space; and Sea Basing enablers. We 
also focused the Future Naval Capability program to close warfighting 
gaps and overcome technical barriers.
    We are also transforming the business of running the world's 
greatest Navy. Our Sea Enterprise Board of Directors employs a 
disciplined review process that helped ensure maximum effectiveness of 
every dollar we spend. In addition, we established a Corporate Business 
Council to aid business process transformation, and to foster a culture 
of productivity and continuous improvement. This forum of senior Navy 
leaders is chartered to:
  --Develop and advocate high potential, cross-functional initiatives 
        and ensure enhanced performance and organizational 
        efficiencies.
  --Ensure savings are harvested and returned to the leadership for 
        reallocation against other Navy priorities.
  --Track and integrate Echelon II business initiatives, and facilitate 
        barrier removal and organizational impediments to change.
  --Ensure Sea Enterprise and CNO Echelon II Execution Review lessons-
        learned are leveraged across all commands.
    Initiatives such as AirSpeed, Task Force Lean, SHIPMAIN, and 
NAVRIIP are also improving ship and aircraft support processes while 
sustaining readiness.
    Service that Makes a Difference.--Sailors are the core resource of 
the Navy and we compete with industry to retain them. Congressional 
commitment to competitive pay has made this possible including base-pay 
raises and elimination of out-of-pocket expenses for housing. 
Additionally, we have funded achievement of Homeport Ashore, aimed at 
moving single sea-duty Sailors to Bachelor Quarters by fiscal year 
2008.
    Quality of service has also been enhanced for the families of our 
Sailors. We have improved family housing and remain on track to 
eliminate inadequate family housing units by fiscal year 2007. Family 
medical care benefits have been enhanced through the initiation of 
TRICARE for Life, ensuring superb medical care for qualified families 
after their military service. We have also joined partnerships with 
private industry to provide mobile career opportunities and enhance the 
Spouse Employment Assistance Program.
    Training and education for our Sailors are a critical component of 
their quality of service. We have created a system to accelerate the 
implementation of training and education improvements that has become a 
model for DOD. These programs seek to create the workforce for the 
twenty-first century and to ensure the right skills, in the right 
place, at the right time. Education opportunities have also been 
enhanced through the Navy College Program, including partnerships with 
civilian colleges, to provide rating-related associate and bachelor 
degrees via distance learning.
    In July of last year, the Navy established a Professional Military 
Education (PME) Continuum. This continuum of learning will provide 
career-long educational opportunities for the professional and personal 
growth of Sailors. It incorporates Joint PME and Navy PME with advanced 
education and leadership training, and will be a key factor in job 
assignment and career progression.
    The Power of Alignment.--Over the last five years, we launched 
numerous initiatives aimed at increasing the alignment of our 
organization. Alignment within our Navy is about two fundamental 
things. First, it ensures that organizations, systems, and processes 
are constructed to effectively and efficiently produce a combat-ready 
Fleet. It also ensures we share a common understanding of our missions 
and objectives.
    As part of that effort, we created the Commander, Fleet Forces 
Command (CFFC) to integrate policies and requirements for manning, 
equipping, and training all Fleet units. This year, we put in place a 
Fleet requirements generation process with CFFC as the lead Fleet 
integrator, to review and approve all Navy requirements documents, and 
provide formal Fleet input at all requirements generation levels. We 
also aligned the Navy Warfare Development Command and warfare centers 
of excellence under CFFC, to stimulate concept development and 
technology insertion to the Fleet.
    We created Fleet Type Commanders to lead their communities from the 
waterfront. That effort is now helping us to better design a twenty-
first century Human Capital Strategy, and to refine our training and 
maintenance processes.
    The Human Performance Center (HPC) was established in September 
2003 to apply Human Performance and Human System Integration principles 
in the research, development, and acquisition processes. HPC will help 
us understand the science of learning and ensure training is driven by 
Fleet requirements. This is helping to provide better growth and 
development opportunities, eliminate performance and training 
deficiencies, save money, and improve readiness.
    We established the Commander, Navy Installations Command (CNI) to 
guide the operations, administration, and support for Navy 
installations world-wide while reducing infrastructure management 
layers. CNI improved our capability to manage dispersed facility 
operations, conserve valuable resources, establish enterprise-wide 
standards, and improve our facility infrastructure.
    We established the Assistant CNO for Information Technology (ACNO-
IT) to promote Navy-wide alignment between warfighting and business 
information technologies, and to ensure IT investments and resources 
are targeted for highest value efforts and return on investment.
    We also established the Commander, Navy Education and Training 
Command to serve as the Chief Learning Officer for the Navy and to be 
the single authority for individual training (officer and enlisted) 
strategy and policy.
    We improved the integration of our Total Force, streamlining 
Reserve headquarters and increasing Reserve access to Active platforms 
and equipment. On any given day during 2004, more than 20,000 
Reservists were on active duty engaged in Fleet and joint operations as 
part of the ``total force.''

               YOUR NAVY TOMORROW--BRIDGING TO THE FUTURE

    Previously, our force structure was built to fight two major 
theater wars. However, the strategic landscape is vastly different 
today, and this new strategic landscape requires additional 
capabilities to accommodate a wide array of missions. We are therefore 
adjusting the scope and scale of our warfighting capabilities to 
support small-scale contingencies, such as peacekeeping and stability 
operations in addition to traditional warfighting requirements. We are 
also diversifying our capabilities in order to mitigate greater risk 
against irregular, catastrophic, and disruptive challenges that we face 
today and for the foreseeable future. (See Figure 4).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                Figure 4

    In meeting today's challenges, we must improve the strategic speed 
necessary to move significant, joint combat power anywhere around the 
globe. U.S. military force must be immediately employable and rapidly 
deployable, seizing and maintaining the initiative in any fight, 
anywhere.
    Second, we must continue to develop ``precision.'' As precision 
weaponry becomes commonplace throughout the joint force, we must 
develop concepts of operation and doctrine to maximize these powerful 
capabilities.
    Third, we must establish an ``unblinking eye'' above and throughout 
the battlespace. Technological leaps in miniaturization have begun to 
make possible an increasing array of unmanned sensors along with the 
communications networks and command and control (C\2\) capacity to 
yield pervasive awareness of the battlespace.
    We must also continue to develop to the fullest measure of joint 
interdependence. We are more effective as a fighting force and more 
efficient with taxpayer dollars when service missions and doctrine are 
designed from the start to be fully integrated.
    Attributes of Tomorrow's Success.--In short, speed and agility are 
the attributes that will define our operational success. But, the 
importance of these qualities extends beyond operations to the very 
foundations of our institution. This is true regardless of whether 
we're talking about our personnel system, the size and adaptability of 
our technological and industrial bases, the design and function of our 
supporting infrastructure, or the financial planning necessary to put 
combat power to sea. Speed and agility define our operational response 
but also need to characterize our acquisition process. We must continue 
to find new and better ways to develop and field our emerging 
technologies, and the cycle in which this occurs needs to be measured 
in months not years.
    The drive to increase our speed and agility means increasing the 
operational availability of our forces. We will do so by continuing to 
refine and test the Fleet Response Plan and its associated training and 
maintenance processes. It means studying our base structure to ensure 
that we are in a position to win. And it means that we have to do what 
we can to lighten the load of joint forces going ashore and reduce our 
ground footprint. To that end, we must more fully develop the 
operational concepts and tools required for the delivery of precision, 
sea-based fires and logistics to support forces ashore.
    The Maritime Domain.--The increasing dependence of our world on the 
seas, coupled with growing uncertainty of any nation's ability to 
ensure access in a future conflict will continue to drive the need for 
naval forces and decisive joint capability. Additionally, increased 
emphasis on the littorals and the global nature of the terrorist threat 
will demand the ability to strike where and when required and the 
maritime domain will serve as a key enabler for U.S. military force.
    We will continue to refine our operational concepts and appropriate 
technology investments to deliver the kind of dominant military power 
from the sea envisioned in Sea Power 21. We will also continue to 
pursue the operational concepts for sea basing persistent combat power. 
As part of that effort, we will work to expand our combat logistics 
force capacity, and we will build a Maritime Pre-positioning Force 
(MPF) with higher-capability alternatives to support sea basing a 
greater proportion of USMC tactical aviation, other supporting fires 
and logistics.
    We will invest in technology and systems to enable a moderate 
number of naval vessels to fight above their weight, delivering 
decisive, effects-based combat power in every tactical and operational 
dimension. We will pursue network-based, cross-platform systems for 
fusing sensor information and for supporting multi-static processing of 
sensor signals delivered in large part by sea-based, unmanned tactical 
surveillance systems. Our network-based command and decision systems 
will permit tactical commanders to view an integrated battlespace 
picture that supports time-critical, precise, accurate tactical 
actions. We will also pursue an offensive information operations 
capability on naval ships, aircraft, and weapons.
    We will also invest in technology and systems to enhance the 
survivability of the joint force against anti-access threats and 
threats in the densely packed littoral environment. These include hard-
kill defense systems (including directed energy weapons) that are 
effective against anti-ship missiles, small high-speed surface craft, 
and torpedoes. They also include disabling (``non-lethal'') systems 
that can neutralize close-in ambiguous threats; radars and sonars that 
achieve higher performance without higher power; precise, retargetable, 
sea-based strike weapons with significant ``loiter on station'' 
capability for close fire support; over-the-horizon surface-to-air 
missiles and the sensor network to target them; and higher-performance 
organic mine countermeasure systems, including systems for very shallow 
water.
    Total Force Endstrength.--Changes in our operational concepts and 
our investments in technology will require us to recruit, train and 
retain a warrior force that is more educated and technically savvy. 
Smart ship technologies embedded in future-design ship classes, 
capital-for-labor substitutions for performing manpower-intensive 
tasks, and condition-based maintenance with systems that identify when 
maintenance is required will all fundamentally change the nature of the 
work that we do. And because the nature of the work will change, we 
will need to reassess and modify the fundamental elements of our 
personnel structure to maximize the benefits of that change.
    Technology, innovation, and outsourcing are changing the 
endstrength requirements for our Navy. Technology continues to change 
the nature of work and allows us to optimize the number of personnel 
that once performed more manpower intensive tasks. Innovative manning 
methods such as Optimal Manning and Sea Swap also offer enormous 
potential and we will continue our experimentation. Outsourcing non-
warfighting functions and civilian conversions also reduce endstrength 
requirements.
    We therefore seek to reduce our Navy endstrength to 352,700 active 
Sailors by the end of fiscal year 2006 as seen in Figure 5.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                Figure 5

    We have already used existing authorities and our Perform-to-Serve 
program to preserve the specialties, skill sets and expertise needed to 
continue the proper shaping of the force. To date, more than 4,000 
Sailors have been steered to undermanned ratings, and more than 42,000 
have been approved for in-rate reenlistment since the program began. 
Our Perform-to-Serve and early release programs are part of a 
deliberate, controlled, and responsible strategy to become a more 
experienced, better trained, but smaller force.
    The National Security Personnel System (NSPS) provides an 
additional opportunity to increase our organizational speed and agility 
by improving the way we hire, assign and compensate our civilian 
employees. NSPS will make us more effective, while preserving employee 
protections and benefits as well as the core values of the civil 
service.
    Force Capabilities.--As we evolve advanced concepts for employment 
of forces, we will also refine analyses and requirements, to include 
the appropriate number of ships, aircraft, and submarines. As discussed 
above, I believe that the wave of transformation now washing over our 
armed forces is essentially about developing the means for pervasive 
awareness of the battlespace, and for exploiting that knowledge with 
rapid and precise firepower to achieve desired strategic effects. We're 
going to carry that revolution forward into all mission areas, from 
supporting Marines ashore in Distributed Operations, to Anti-Submarine 
Warfare and Missile Defense. To achieve this, we are making significant 
Research and Development (R&D) investments to bring the necessary 
technologies rapidly to the Fleet, with R&D funds surging in fiscal 
year 2006 as several programs--including LCS, MMA, JSF and others--
peak. See Figure 6 below.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                Figure 6

    In fact, our fiscal year 2006 budget request is up in every 
appropriation category compared to fiscal year 2005, including our 
investments in future capabilities. As can be seen in Figure 7, our 
investment glide slope is headed in a positive direction in this 
budget, including money for ship and aircraft procurement, R&D, and 
weapons programs.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                Figure 7

    In a sensor-rich construct, the numbers of platforms are no longer 
a meaningful measure of combat capability. And just as the number of 
people is no longer the primary yardstick by which we measure the 
strength or productivity of an organization in an age of increasing 
capital-for-labor substitutions, the number of ships is no longer 
adequate to gauge the health or combat capability of the Navy. The 
capabilities posture of the Fleet is what is most important.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                Figure 8

    In fact, your Navy can deliver much more combat power, more quickly 
now than we could twenty years ago when we had twice as many ships and 
half again as many people. See Figure 8, for example, on the effects of 
technology and new operational concepts on the capabilities of the 
Fleet.
    Shipbuilding and Design.--In addition to new concepts of operation 
and the technology that supports them, we are thinking anew about 
shipbuilding and design. For the first time in decades, we are building 
entirely new types of ships in fiscal year 2006 and beyond; the modular 
nature of these ships will give us flexibility and adaptability to 
fight in diverse environments against a variety of possible enemies. It 
also allows us to dramatically expand their growth potential with less 
technical and fiscal risk.
    What all of this means is that we are investing in the right 
capabilities for the future, not just the platforms that carry them. 
Further, I believe that the current low rate of ship construction and 
the resultant escalation of platform cost will constrain the future 
size of the Fleet. As I have previously testified, I don't believe that 
it's all about numbers; numbers have a quality all their own, there's 
no question about that. But, it is more important that we buy the right 
kinds of capabilities in the ships that we're procuring in the future, 
and that we properly posture our force to provide the speed and agility 
for seizing and retaining the initiative in any fight.
    The ultimate requirement for shipbuilding, however, will be shaped 
by the potential of emerging technologies, the amount of forward 
basing, and innovative manning concepts such as Sea Swap. Additional 
variables range from operational availability and force posture to 
survivability and war plan timelines.
    The notional diagram below (Figure 9) illustrates how manning 
concepts and anticipated technological adaptation will modify the 
number of ships required. The blue and yellow lines represent levels of 
combat capability and the ships required to achieve that capability. 
For example, the left side of the diagram shows our current number of 
ships (290) and the current projection of ships required to fully meet 
Global War on Terror requirements (375) in the future. The right side 
of the diagram shows a projection that provides the same combat 
capability but fully leverages technological advances with maximum use 
of Sea Swap. It is a range of numbers because the degree of 
technological adaptation is a variable, as is the degree to which we 
can implement Sea Swap. The middle portion of the curve (in the red 
ellipse) shows a projected range that assumes a less extensive 
projection of technological adaptation and use of Sea Swap. Although 
simplified, this diagram shows how the application of transformational 
new technologies coupled with new manning concepts will enable us to 
attain the desired future combat capability with a force posture 
between 260 and 325 ships.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                Figure 9

    Shipbuilding Priorities.--Our shipbuilding priorities and my 
testimony to Congress on that subject over the last five years have 
been consistent. My themes have been and remain:
  --The ship procurement rate--dating back to the procurement holiday 
        of the 1990s--was insufficient to sustain long-term needs;
  --We seek a level-loaded shipbuilding investment stream;
  --We need to partner with you and with industry to regain our buying 
        power. Acquisition and budgeting reforms, such as multi-year 
        procurement, Economic Order Quantity, and other approaches help 
        to stabilize the production path, and in our view, reduce per 
        unit cost of ships and increase the shipbuilding rate.
    In no other area of our Armed Forces do we make such large capital 
investments that, in turn, impact important technological and 
industrial sectors of our economy. In making these investments, we 
would appreciate legislative relief with more flexible funding 
mechanisms to support shipbuilding--such as funding CVN-21 and LHA(R) 
over two years--as we fight a global war while transforming to meet the 
demands of the changed strategic landscape. Our investments are 
influenced by:
    Cost of War.--The shift in the strategic landscape occurs as we 
cope with the fiscal realities of funding current operations. Of note, 
the Navy absorbed $1.5 billion in corporate bills for Cost of War items 
not funded by fiscal year 2004 GWOT Supplemental. To meet this 
obligation, $200 million was charged to my Working Capital Fund, $600 
million was charged to O&M funds (including $135 million from CNI 
infrastructure), and $687 million was charged to our investment funds 
to fund force protection, equipment and personnel costs.
    Procurement cost growth.--Among the greatest risks we face is the 
spiraling cost of procurement for modern military systems, and 
shipbuilding and aircraft procurement are no exception. When adjusted 
for inflation, for example, the real cost increase in every class of 
ship and aircraft that we have bought since I was an Ensign, United 
States Navy, has been truly incredible.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 10

    It becomes more so when taken in comparison to other capital goods 
like automobiles, where the inflation-adjusted cost growth has been 
relatively flat over the same period of time. Cost increases have grown 
beyond our ability to control as compared to decades prior. As we seek 
greater combat capability and greater operational efficiencies through 
upgraded power, propulsion, and computing technologies, we find a ratio 
of cost growth beyond our seeming control, which may not be fully 
explainable solely by reduced economies of scale. See Figure 10.
    The total costs of manpower have increased significantly since I 
have been CNO. Those costs are having an impact, not only on our 
ability to maximize the talents of our people, but also on the 
investments needed to transform our combat capability for the future. 
We have kept faith with those who serve by advocating better pay and 
benefits, and we have also kept faith with the taxpayers who expect 
that the Navy they have bought and paid for is ready when you call upon 
us. Having said that, the combat power of your Navy is not defined by 
the number of Sailors in the ranks. We are therefore taking steps to 
redefine our approach to human capital and to our operational concepts. 
Once again, I ask you to approve a force with reductions in personnel 
endstrength.

                  OUR FISCAL YEAR 2006 BUDGET REQUEST

    This past year our Navy's budget request continued our effort to 
sustain our current readiness gains, shape the twenty-first century 
workforce, and invest in our transformational Sea Power 21 vision while 
harvesting the efficiencies needed to fund and support these three 
critical priorities. The current strategic environment demands balanced 
funding between current operations and future investments, and the 
fiscal year 2006 budget meets this balance in funding.
    This year we intend to:
  --Continue to deliver the right readiness at the right cost to fight 
        the Global War on Terrorism and support the nation's war 
        fighting needs;
  --Accelerate development of our Human Capital Strategy that delivers 
        the right skills, at the right time, for the right work, 
        unleashing the power of our people;
  --Maximize our investment in Sea Power 21 capabilities to transform 
        our force and the joint warfighting team;
  --At the same time, we will continue to pursue the Sea Enterprise 
        improvements that make us a more effective Navy in both fiscal 
        year 2006 and beyond.
    As our budget is finalized in the coming months, there will be a 
number of fiscal issues and processes that will have an impact, 
specifically: the cost of war in Iraq, Base Realignment and Closure 
decisions, and the findings of the Quadrennial Defense Review. With 
that in mind, our Navy budget request for fiscal year 2006 and the 
future includes:
  --Four (4) new construction ships in fiscal year 2006: One (1) SSN 
        774; One (1) Littoral Combat Ship; One (1) T-AKE; and One (1) 
        LPD-17.
      The investment plan across the future year's defense program 
        (FYDP) calls for 49 new construction ships, including DD(X), 
        LHA(R) Flight 0, MPF(F), CVN-21, and SSN 774s. While our build 
        rate dips to four ships in this budget year, this is a 
        reflection of a shift in focus to the next generation surface 
        combatants and sea basing capabilities.
  --Procurement of 138 new aircraft in fiscal year 2006, including the 
        first four EA-18G aircraft and three Firescout unmanned aerial 
        vehicles (UAVs). The budget continues to maximize return on 
        procurement dollars, primarily through the use of multi-year 
        procurement (MYP) for the F/A-18E/F and EA-18G, the E-2C, the 
        MH-60S and the KC-130J programs. We have also made research and 
        development investments in the Joint Strike Fighter (JSF) and 
        the broad area anti-submarine, anti-surface, maritime and 
        littoral intelligence, surveillance and reconnaissance (ISR) 
        capable Multi-mission Maritime Aircraft (MMA).
  --Investment in transformational unmanned underwater vehicles (UUV) 
        like the Mission Reconfigurable UUV System, and unmanned 
        aviation vehicles (UAV) such as the Broad Area Maritime 
        Surveillance UAV and the Joint Unmanned Combat Air System. The 
        budget also requests funding for experimental hull forms like 
        the X-Craft, and other advanced technologies including the 
        Joint Aerial Common Sensor (JACS).
  --A 3.1 percent basic pay raise for our Sailors, a 2.3 percent pay 
        raise for our civilian workforce, and investment in housing and 
        Public-Private Ventures that will help eliminate inadequate 
        barracks and family housing by fiscal year 2007 and enable us 
        to house shipboard Sailors ashore when their vessel is in 
        homeport by fiscal year 2008;
  --Readiness investment that supports the Fleet Response Plan, 
        including sustained funding for ship and aircraft operations, 
        aviation depot maintenance, and precision guided munitions. 
        This includes improvements in ship maintenance and training 
        scheduling to maximize surge capabilities.
Continuing to deliver the right readiness at the right cost to fight 
        the Global War on Terrorism
    Getting to the fight faster to seize and retain the initiative 
means that a key word in our future is ``surge.'' If a resource doesn't 
have surge capability, we are not going to own it. Every part of the 
Fleet will be organized around this surge operational concept and its 
associated training, maintenance, and logistics processes. We must 
understand and adapt our warfare doctrine, supporting procedures, 
training, and schedules to take best advantage of FRP and other 
emerging operational constructs. And we must also determine, accurately 
articulate, and continuously validate our readiness requirements. 
Taking prudent risks and attacking cost will permit us to fund 
essential requirements, optimizing the operational impact of today's 
Navy while creating a future Navy that capitalizes upon and can rapidly 
field new technology.
  --Ship Operations and Flying Hours requests funds for ship operations 
        OPTEMPO of 51 days per quarter for our deployed forces and 24 
        days per quarter for our non-deployed forces. We have properly 
        funded the flying hour account to support the appropriate 
        levels of readiness and longer employability requirements of 
        the FRP. This level of steaming and flying hours will enable 
        our ships and air wings to achieve the required readiness over 
        the longer periods defined by the Fleet Response Plan, and as a 
        result, it will improve our ability to surge in crisis and 
        sustain readiness during deployment.
  --Ship and Aviation Maintenance. We have made significant 
        improvements these last few years by reducing major ship depot 
        maintenance backlogs and aircraft depot-level repair back 
        orders; improving aircraft engine spares; adding ship depot 
        availabilities; ramping up ordnance and spare parts production; 
        maintaining steady ``mission capable'' rates in deployed 
        aircraft; fully funding aviation initial outfitting; and 
        investing in reliability improvements. Our fiscal year 2006 
        request continues the improved availability of non-deployed 
        aircraft and meets our 100 percent deployed airframe goals. Our 
        ship maintenance request continues to ``buy-down'' the annual 
        deferred maintenance backlog and sustains our overall ship 
        maintenance requirement. We are making great strides in 
        improving the visibility and cost-effectiveness of our ship 
        depot maintenance program, reducing the number of changes in 
        work package planning and using our continuous maintenance 
        practices when changes must be made.
  --Shore Installations. Our Facilities Sustainment, Restoration and 
        Modernization (SRM) program remains focused on improving 
        readiness and quality of service for our Sailors. Our fiscal 
        year 2006 Military Construction and Sustainment program 
        reflects difficult but necessary tradeoffs between shore 
        infrastructure and fleet recapitalization. Facilities 
        sustainment is 95 percent in fiscal year 2006, the same as in 
        fiscal year 2005. Our budget request keeps us on a course to 
        achieve the DON goals to eliminate inadequate family and 
        bachelor housing by fiscal year 2007 and provide Homeport 
        Ashore Bachelor Housing by fiscal year 2008. We are exploring 
        innovative solutions to provide safe, efficient installations 
        for our service members, including design-build improvements, 
        and BRAC land sales via the GSA Internet. Additionally, with 
        the establishment of Navy Installations Command, we have 
        improved our capability to manage our dispersed facility 
        operations, conserve valuable resources, establish enterprise-
        wide standards and continue to improve our facility 
        infrastructure.
  --Precision Guided Munitions receive continued investment in our 
        fiscal year 2006 request with emphasis on the Joint Stand-Off 
        Weapon (JSOW), Joint Direct Attack Munition (JDAM), Tactical 
        Tomahawk (TACTOM), and Laser-Guided Bomb (LGB) inventory 
        levels. Joint partnerships with the Air Force and Army in 
        several of our munitions programs continue to help us optimize 
        both our inventories and precious research and development 
        investments and will remain a focus for us in the future.
  --Training Readiness. We continue to make significant strides in this 
        critical area. In fiscal year 2004, the Congress supported two 
        important programs to advance our training readiness. First, 
        you endorsed the Training Resource Strategy (TRS), to provide 
        more complex threat scenarios and to improve the overall 
        realism and value of our training. Additionally, you funded the 
        Tactical Training Theater Assessment and Planning Program to 
        provide for a comprehensive training range sustainment plan. 
        Our fiscal year 2006 budget continues this work. We are working 
        to make the Joint National Training Capability a reality. We 
        have established a single office to direct policy and 
        management oversight for all Navy ranges as well as serve as 
        the resource sponsor for all training ranges, target 
        development and procurement, and the Navy portion of the Major 
        Range Test Facility Base (MRTFB).
  --Environmental Readiness. I would like to highlight our gratitude to 
        you in the Congress for the amendments to the Endangered 
        Species Act (ESA), the Marine Mammal Protection Act (MMPA) and 
        the Migratory Bird Treaty Act (MBTA) enacted in the 2003 and 
        2004 NDAA. These amendments made favorable changes that have 
        improved our Navy's performance in both environmental 
        stewardship and Fleet training operations. Clarifying our 
        current and future responsibilities and providing assurances 
        that these standards will remain constant is helping us to plan 
        and resource for stable, long-term programs that will benefit 
        both fleet readiness and the land and life that abounds on and 
        around our ranges.
Accelerating Development of our Human Capital Strategy
    When I testified before your committee last year, I said that we 
would take the opportunity afforded by success in recruiting, retention 
and attrition to begin the hard work of fundamentally restructuring our 
personnel system to compete for talent in the twenty-first century 
marketplace. Your support has been instrumental in getting to this 
point. The improvements and pilots that Congress has supported--
including bonuses, pay table adjustments, retirement reforms, better 
medical benefits, and our Sea Warrior initiatives--are having the 
desired impact.
    We also continue to challenge all assumptions when it comes to 
determining manning strategies. The Fleet is implementing best 
practices from last year's Optimal Manning experiments to find the 
right mix of talent for pilot programs in USS NIMITZ and Carrier Air 
Wing ELEVEN. We've begun a new pilot program in USS DECATUR designed to 
allow Chief Petty Officers to fill the majority of Division Officer 
billets. And we are continuing our Sea Swap experiments with USS 
GONZALEZ, LABOON, and STOUT crews, even as we examine results from 
previous DD/DDG experiments to determine this concept's applicability 
to other ship classes.
    Inherent to our new Human Capital Strategy will be the pursuit of 
new technologies and competitive personnel policies that will 
streamline combat and non-combat personnel positions, improve the 
integration of active and reserve missions, and reduce the Navy's total 
manpower structure. We will change our processes to eliminate ``make-
work,'' and use available technology to do away with work that is 
unfulfilling. We're going to change policies and organizational 
structures--like non-rated billets--that inhibit the growth and 
development of our people. And we're going to build future ships and 
aircraft to maximize human performance while inspiring great leaps in 
human possibilities.
    Our fiscal year 2006 budget request includes the following tools we 
need to enhance mission accomplishment and professional growth:
  --Selective Reenlistment Bonus (SRB). Targeted bonuses such as SRB 
        are critical to our ability to compete for our highly trained 
        and talented workforce both within the Navy and with employers 
        across the nation as well. Proper funding, adequate room for 
        growth and the flexible authorities needed to target the right 
        skills against the right market forces are important to the 
        shape of the workforce. This program specifically targets 
        retention bonuses against the most critical skills we need for 
        our future. We ask for your continued support and full funding 
        of this program.
  --Perform to Serve (PTS). Two years ago, we introduced PTS to align 
        our Navy personnel inventory and skill sets through a centrally 
        managed reenlistment program and instill competition in the 
        retention process. The pilot program has proven so successful 
        in steering Sailors in overmanned ratings into skill areas 
        where they are most needed that the program has been expanded. 
        More than 46,000 Sailors have been steered to undermanned 
        ratings and approved for in-rate reenlistment since the program 
        began in 2003 and we will continue this effort in 2006.
  --Assignment Incentive Pay (AIP) is a financial incentive designed to 
        attract qualified Sailors to a select group of difficult to 
        fill duty stations. AIP allows Sailors to bid for additional 
        monetary compensation in return for service in these locations. 
        An integral part of our Sea Warrior effort, AIP will enhance 
        combat readiness by permitting market forces to efficiently 
        distribute Sailors where they are most needed. Since the pilot 
        program began in 2003, more than 9,000 AIP bids have been 
        processed resulting in nearly 3,000 Sailors receiving bonuses 
        for duty in these demanding billets. We ask for continued 
        support of this initiative.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

                               Figure 11

  --Professional Military Education (PME). Full implementation of the 
        relevant provisions of the fiscal year 2005 National Defense 
        Authorization Act (NDAA) is a significant step forward for 
        Joint PME, and has my full support.
      This year, we plan to take several actions that can ensure that 
        our professional military education programs continue to foster 
        and build upon the confidence we currently experience in our 
        joint warfighting capabilities.
      First, JPME should focus more sharply on the interagency aspect 
        of military operations. Given the necessity of interagency 
        planning and decision-making in the execution of the Global War 
        on Terrorism, we should examine this area closely for possible 
        introduction to the JPME requirement.
      Additionally, we need to prepare more officers to be joint 
        operational planners. These officers must be ready to plan and 
        execute new joint operational concepts in both headquarters 
        staffs and joint task forces. We also need to better identify 
        the knowledge and skill sets required for specific joint duty 
        assignments, and then provide learning opportunities that 
        target these requirements via multiple delivery methods. This 
        effort should capitalize on reusable content and joint 
        standards at all of our service colleges as well as training 
        within the Combatant Commands.
      In view of the foregoing, JPME is clearly relevant to the Navy's 
        development of a Human Capital Strategy. In fact, JPME must be 
        a central element of that strategy if we are to be successful 
        in creating a better trained, better educated and better 
        compensated, but smaller workforce in the future. In this 
        regard, we are moving forward with efforts to exploit the Naval 
        War College's web-enabled, non-resident program to create new 
        delivery mechanisms for PME across the total force. That 
        includes not just active and reserve forces, but our civilian 
        workforce as well. The Defense Leadership and Management 
        Program (DLAMP) is an important tool that complements DON 
        efforts in this area, and I support DLAMP initiatives to better 
        incorporate senior civilians from DOD and other federal 
        agencies in PME programs. Lastly, I believe we can improve the 
        trust and confidence of officers in coalition forces by 
        focusing on the issue of participation by international 
        officers in our JPME programs and by U.S. students at foreign 
        war colleges.
  --The Integrated Learning Environment (ILE) is the heart of our 
        Revolution in Training. ILE is a family of systems that, when 
        linked, will provide our Sailors with the ability to develop 
        their own learning plans, diagnose their strengths and 
        weaknesses, and tailor their education to support both personal 
        and professional growth. They will manage their career 
        requirements, training and education records. It will match 
        content to career requirements so training is delivered at the 
        right time. Most importantly, these services will be provided 
        anytime, anywhere via the Internet and the Navy-Marine Corps 
        Intranet (NMCI).
Maximizing Our Investment in Sea Power 21
    As I have previously testified, Sea Power 21 defines the 
capabilities and processes that the twenty-first century Navy will 
deliver. Bridging to the future described in that vision requires 
innovation, experimentation, and rapid technology insertion resulting 
in mid- and long-term war fighting improvements. Speed, agility and a 
commitment to joint and coalition interoperability are core attributes 
of this evolving Navy. Further analyzing, understanding, and applying 
prudent risk to capability and program decisions are essential to 
achieving future war fighting wholeness.
    This year, we will further maximize our investment in Sea Power 21 
capabilities, pursuing distributed and networked solutions, focusing on 
the power of Sea Basing and our complementary capability and alignment 
with our number one joint partner, the U.S. Marine Corps.
    Sea Basing is the projection of operational independence. Our 
future investments will exploit the largest maneuver areas on the face 
of the earth: the sea. Sea Basing serves as the foundation from which 
offensive and defensive fires are projected--making Sea Strike and Sea 
Shield a reality. Sea Basing capabilities include: Joint Command and 
Control, Afloat Power Projection and Integrated Joint Logistics. Our 
intent is to maximize our sea basing capability and minimize as much as 
possible our reliance on shore-based support nodes. To do this, we will 
make doctrinal, organizational and operational changes mandated by this 
concept and by the underlying technology that makes it possible. We 
have an opportunity here, along with the U.S. Marine Corps and the U.S. 
Army, to reexamine some of the fundamentals of not only how we move and 
stage ground forces, but how we fight ashore as well.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 12

    Our highest priority Sea Basing investments include:
  --Surface Combatant Family of Ships. As I've already testified, the 
        power of joint forces in OIF was in the synergy of individual 
        service strengths. The same concept holds true within the Navy 
        itself. We seek the synergy of networks, sensors, weapons and 
        platforms that will make the joint force greater in combat 
        power than the sum of the individual parts. Development of the 
        next generation of surface combatants as ``sea frames''--
        analogous to ``air frames''--that are part of a modular system 
        is just such an endeavor.
      The surface combatant family of ships allows us to dramatically 
        expand the growth potential of our surface combatants with less 
        technical and fiscal risk. To bring these concepts to life and 
        to take them--and the fight--to the enemy, we have decided upon 
        three entirely new ship classes. The first to premier will be 
        the Littoral Combat Ship (LCS) in 2007. The advanced guided 
        missile and strike destroyer (DD(X)) will follow in about 2011. 
        And just a few years after the first DD(X), the keel will be 
        laid on the first CG(X), the next class of cruiser designed 
        from the keel up for theater air and ballistic missile defense.
      Our research and development efforts and experimentation with 
        high speed and theater support vessels like HSV SWIFT and the 
        X-Craft are helping us reduce our technical risk and apply 
        important lessons in hull design and mission modularity to the 
        development of the surface combatant family of ships. DD(X)is 
        the heart of the family and will spiral promising technologies 
        to both CG(X) and LCS in the future. I will discuss each one of 
        these ships in more detail below.
  --CVN 21 is the centerpiece of the Navy Carrier Strike Group of the 
        future. It will bring transformational capabilities to the 
        fleet, including a new electrical generation and distribution 
        system, the electro-magnetic aircraft launching system (EMALS), 
        a new/enlarged flight deck, weapons and material handling 
        improvements, and a crew reduction of at least 800 personnel. 
        It will be able to generate higher daily and sustained sortie 
        rates than our NIMITZ-class aircraft carriers. Our fiscal year 
        2006 request of $873 million in SCN and R&D funding continues 
        the development of CVN 21 and several critical technologies in 
        the lead ship, including the EMALS prototype and testing 
        already ongoing in Lakehurst, New Jersey. Construction of the 
        CVN 21 will start in fiscal year 2008 with delivery in fiscal 
        year 2015.
  --MPF(F). These future Maritime Pre-positioning Ships will serve a 
        broader operational function than current pre-positioned ships, 
        creating greatly expanded operational flexibility and 
        effectiveness. We envision a force that will enhance the 
        responsiveness of the joint team by the at-sea assembly of a 
        Marine Expeditionary Brigade that arrives by high-speed airlift 
        or sealift from the United States or forward operating 
        locations or bases. These ships will off-load forces, weapons 
        and supplies selectively while remaining far over the horizon, 
        and they will reconstitute ground maneuver forces aboard ship 
        after completing assaults deep inland. They will sustain in-
        theater logistics, communications and medical capabilities for 
        the joint force for extended periods as well. Our fiscal year 
        2006 request of $66 million in research and development 
        reflects our emphasis on Sea Basing capabilities.
  --CG Modernization. The CG Modernization program was restructured in 
        fiscal year 2006 in accordance with congressional direction. 
        Under the restructured plan, the older Baseline 2 and 3 ships 
        will be modernized first. The Cruiser Modernization Program is 
        a mid-life upgrade for our existing AEGIS cruisers that will 
        ensure modern, relevant combat capability well into this 
        century and against evolving threats. These warships will 
        provide enhanced area air defense to the joint force commander. 
        These modifications include installations of the Cooperative 
        Engagement Capability, which enhances and leverages the air 
        defense capability of these ships, and an ASW improvement 
        package. These converted cruisers could also be available for 
        integration into ballistic missile defense missions when that 
        capability matures. Our first cruiser modernization begins in 
        fiscal year 2008.
  --DDG-51 Modernization. The DDG-51 class guided missile destroyer 
        program has been an unqualified success. We believe these ships 
        will continue to be a ``workhorse'' of the Fleet for the 
        foreseeable future, with 62 hulls eventually planned. But the 
        first ships of this class are already approaching mid-life. 
        Keeping these ships in fighting shape will mean making the 
        appropriate investment in their engineering plants and updating 
        their combat system to pace new threats in the next two 
        decades. It is also important that we continue to apply new 
        technologies to the ARLEIGH BURKEs that will permit reductions 
        in crew size, so that the Navy's manpower footprint continues 
        to decrease. Funding for DDG modernization begins in fiscal 
        year 2006, and the program will commence with the completion of 
        the last new construction DDGs of the ARLEIGH BURKE class in 
        fiscal year 2010.
    Sea Strike is the projection of precise and persistent offensive 
power.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 13

    The core capabilities include Time Sensitive Strike; Intelligence, 
Surveillance and Reconnaissance; Ship to Objective Maneuver; and 
Electronic Warfare and Information Operations. We are already investing 
in impressive programs that will provide the capabilities necessary to 
support Sea Strike; these include the following fiscal year 2006 
priorities:
  --DD(X).--The technology engine for the Fleet and the bridge to 
        CG(X), DD(X) is the centerpiece of a surface combatant family 
        of ships and will deliver a broad range of capabilities. This 
        advanced multi-mission destroyer will bring revolutionary 
        improvements to precise, time-critical strike and joint fires 
        and our Expeditionary and Carrier Strike Groups of the future.
      Transformational and leap ahead technologies include an electric 
        drive and integrated power system; an Advanced Gun System with 
        the high rate of fire and precision to reach almost eight times 
        farther and command more than 110 times the area of our current 
        five inch capability; the new Multi-Function Radar/Volume 
        Search Radar suite; optimal manning through advanced system 
        automation, stealth through reduced acoustic, magnetic, IR, and 
        radar cross-section signature; and enhanced survivability 
        through automated damage control and fire protection systems. 
        DD(X) is an enabler both technically and operationally. This 
        seaframe will also reduce our seagoing manpower requirements 
        and will lower total ownership costs.
      This program will provide a baseline for spiral development of 
        technology and engineering to support a range of future 
        seaframes such as CG(X), LHA(R) and CVN-21; the new Multi-
        Function Radar/Volume Search Radar suite is currently 
        operational at our Wallops Island site and is delivering 
        impressive results. It will also enable the transformation of 
        our operations ashore as on-demand, persistent, time-critical 
        strike revolutionizes our joint fire support and ground 
        maneuver concepts of operation and frees our strike fighter 
        aircraft for more difficult targets at greater ranges. DD(X)'s 
        all-electric drive, called the Integrated Power System (IPS), 
        will not only drive the ship through the water, but will also 
        generate the kind of power capacity that will enable eventual 
        replacement of the Advanced Gun System (AGS). When combined 
        with the physical capacity and volume of the hull form, DD(X) 
        could lead us to revolutionary technologies from the naval 
        research enterprise like the electromagnetic rail gun and 
        directed energy weapons. The fact that rail guns do not require 
        any explosives will free up magazine space for other mission 
        areas and enhance survivability. DD(X) will be in service for 
        decades after that; having the kind of growth potential to 
        install those kinds of technologies dramatically lowers our 
        future development costs.
      The funding profile for DD(X) supports the 14,000-ton design and 
        the S-Band Volume Search Radar (VSR). Lead ship construction 
        starts in fiscal year 2007.
  --JSF.--The Joint Strike Fighter will enhance our Navy precision with 
        unprecedented stealth and range as part of the family of tri-
        service, next-generation strike aircraft. It will maximize 
        commonality and technological superiority while minimizing life 
        cycle cost. The JSF remains vital to our future. It will give 
        us the range, persistence and survivability needed to keep our 
        strike fighters viable for years to come.
  --VIRGINIA-class submarine (SSN-774).--The first ship of this class 
        was commissioned this year. This class will replace LOS 
        ANGELES-class (SSN-688) attack submarines and will incorporate 
        new capabilities, including unmanned vehicles, and the ability 
        to support Special Warfare forces. It will be an integral part 
        of the joint, networked, dispersed twenty-first century Fleet. 
        Our fiscal year 2004 budget funded the first of five submarines 
        under the multi-year procurement (MYP) contract authorized by 
        Congress. The second submarine of the MYP contract was funded 
        in fiscal year 2005. Approximately $100 million in economic 
        order quantity advance procurement is funded in fiscal year 
        2006 in support of this contract.
  --SSGN.--Funding is included in fiscal year 2006 to continue the SSGN 
        conversion program. Our future SSGN capability will provide 
        covert conventional strike platforms capable of carrying 154 
        Tomahawk missiles. The SSGN will also have the capacity and 
        capability to support Special Operations Forces for an extended 
        period, providing clandestine insertion and retrieval by 
        lockout chamber, dry deck shelters or the Advanced Seal 
        Delivery System, and they will be arrayed with a variety of 
        unmanned vehicles to enhance the joint force commander's 
        knowledge of the battlespace. The inherently large capacity of 
        these hulls will enable us to leverage future payloads and 
        sensors for years to come. We still expect our first SSGN to be 
        operational in 2007.
  --EA-18G.--Using the demonstrated growth capacity of the F/A-18E/F, 
        the EA-18G will quickly recapitalize our Electronic Attack 
        capability at lower procurement cost, with significant savings 
        in operating and support costs; all while providing the growth 
        potential for future electronic warfare (EW) system 
        improvements. It will use the Improved Capability Three (ICAP 
        III) receiver suite and provide selective reactive jamming 
        capability to the war fighter. This will both improve the 
        lethality of the air wing and enhance the commonality of 
        aircraft on the carrier deck. We begin purchasing airframes in 
        fiscal year 2006 and will achieve initial operating capability 
        in 2009.
    Sea Shield is the projection of layered, global defensive power. 
Sea Shield will enhance deterrence and war fighting power by way of 
real-time integration with joint and coalition forces, high speed 
littoral attack platforms setting and exploiting widely distributed 
sensors, and the direct projection of defensive power in the littoral 
and deep inland.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 14

    Sea Shield capabilities include: Homeland Defense, Sea and Littoral 
Control, and Theater Air and Missile Defense. Our highest priority Sea 
Shield programs this year include:
    Mine Warfare Programs.--We intend to field a set of unmanned, 
modular Mine Counter-Measure (MCM) systems employable from a variety of 
host platforms to minimize our risk from mines and sustain our national 
economic and military access to every corner of the globe. Our future 
MCM capability will be faster, more precise and organic to both 
Expeditionary and Carrier Strike Groups and will ultimately remove both 
the man and our mammals from the minefield. Within the FYDP, we expect 
to reduce the time that it takes to render sea mining ineffective by at 
least half of the time that it takes us today. Our fiscal year 2006 
budget request includes $943 million in funding to maintain and upgrade 
our existing forces (MCM-1 class ships, MH-53E helicopters) as well as 
funding to field advanced technologies necessary to transform MCM 
capability. We have also requested $6.78 billion across the FYDP for 
mine warfare programs, to include unmanned vehicles such as the Mission 
Reconfigurable Unmanned Underwater Vehicle (MRUUV) which, when fielded, 
will provide a clandestine mine reconnaissance capability from our LOS 
ANGELES-class submarines, and the Remote Minehunting System on ARLEIGH 
BURKE-class destroyers. Both of these programs will reach Initial 
Operating Capability (IOC) within the FYDP. Future introduction of the 
Littoral Combat Ship (LCS) with mine warfare mission modules will 
improve the ability of Strike Groups to neutralize mine threats in 
parallel with--not in sequence before--other operations.
  --Littoral Combat Ship (LCS).--The role of LCS is to provide access 
        to joint forces in the littorals; a capability gap we 
        identified as a result of the 2001 Quadrennial Defense Review. 
        During the past few years, considerable campaign analysis and 
        fleet battle experiments have demonstrated that naval forces 
        need better ways to fight mines; small, fast, highly armed 
        boats; and quiet diesel and advanced air-independent propulsion 
        submarines operating in shallow waters. The performance of U.S. 
        Navy Patrol Craft and the experimental HSV-X1 JOINT VENTURE in 
        the Iraqi littoral was critical to the early detection and 
        destruction of the Iraqi mine threat. The same kind of 
        capability needs to be delivered in a fast, maneuverable, 
        shallow-draft platform that has the survivability to operate 
        independently. LCS will have these characteristics, along with 
        self-defense, navigation, command-and-control systems, and 
        reduced requirements for manpower relative to current warship 
        design. The ship will have a top speed of 56 knots, and a crew 
        requirement of only 76 people.
      LCS will be built from the keel up to be a part of a netted and 
        distributed force, and will be the first ship designed with 
        FORCEnet as a requirement. The main battery of LCS will be its 
        off-board systems: manned helicopters and unmanned aerial, 
        surface and underwater vehicles. It is the off-board vehicles--
        with both sensors and weapons--that will enter the highest 
        threat areas. Its modular design, built to open-systems 
        architecture standards, provides flexibility and a means to 
        rapidly reconfigure mission modules and payloads. In fact, 40 
        percent of LCS's payload volume will be reconfigurable. As 
        technology matures, the Navy will not have to buy a new LCS 
        platform, but will upgrade the mission modules or the unmanned 
        systems.
      LCS also will have an advanced hull design and be significantly 
        different from any warship that has been built for the U.S. 
        Navy. We searched the world over for the very best systems, 
        balancing risk with affordability and speed of construction. 
        LCS will share a common three-dimensional radar with U.S. Coast 
        Guard cutters. In addition, there are three other nations 
        interested in purchasing the seaframe, while 22 more are 
        interested in the mission modules.
      Detail design and construction of the first LCS Flight 0 ship 
        will begin in June of this year. The LCS requirements process 
        is tailored to support the rapid delivery of two flights 
        (Flight 0 and 1) of ships, using an evolutionary, ``spiral'' 
        acquisition approach. The spiral development process allows 
        time-phased capability improvement for ship and mission 
        systems. The first ship of the class will be 80 percent 
        complete when construction on the second ship begins. This 
        incremental development and delivery strategy supports the 
        ship's accelerated acquisition schedule, diverse threat and 
        capability requirements, and dynamic levels of technology push/
        pull. The ship's modular, open design will also enable 
        lifecycle adaptability and affordability.
  --Missile Defense.--Our Navy is poised to contribute significantly in 
        fielding sea-based missile defense capabilities to meet the 
        near-term ballistic missile threat to our homeland, our 
        deployed forces, and our friends and allies. We are working 
        closely under the authority of the Missile Defense Agency (MDA) 
        to deliver this much-needed capability to the nation's 
        Combatant Commanders. Our sea-based missile defense programs 
        experienced an important milestone this year with the first 
        ever deployment of an Initial Defensive Operations capability, 
        providing long-range surveillance and tracking. Within four 
        years, 18 warships will be fitted with this transformational 
        ballistic missile surveillance, tracking, and engagement 
        capability, extending the defensive reach of naval forces deep 
        over land.
  --Multi-mission Maritime Aircraft (MMA)--Broad Area Maritime 
        Surveillance (BAMS).--This year we awarded a contract to design 
        and develop the Multi-Mission Aircraft to recapitalize our 
        1950's-era Lockheed ``Electra''-based P-3 force. Our 
        acquisition plan includes the integration of the Broad Area 
        Maritime Surveillance--Unmanned Aerial Vehicle (BAMS-UAV) 
        program into the overarching Maritime Patrol and Armed 
        Reconnaissance requirement. This lethal combination of manned 
        and unmanned reconnaissance aircraft will recapitalize our 
        maritime patrol anti-submarine warfare, anti-surface warfare 
        and armed intelligence, surveillance and reconnaissance 
        capability. We expect to reach Initial Operating Capability 
        (IOC) of the MMA and BAMS UAV in 2013.
    FORCEnet is the operational construct and architectural framework 
for naval warfare in the joint, information age.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Figure 15

    It will allow systems, functions and missions to be aligned in a 
way that will transform our situational awareness, accelerate speed of 
decisions and allow naval forces to greatly distribute its combat power 
in a unified, joint battlespace. FORCEnet provides the standards of 
interoperability for the world-class IT tools that we need to continue 
to be the world-class Navy.
    Programs that will enable the future force to be more networked, 
highly adaptive, human-centric, integrated, and enhance speed of 
command include:
  --Navy Marine Corps Intranet (NMCI).--NMCI provides commercial IT 
        services for more than 380,000 DON employees. This initiative, 
        as part of our FORCEnet strategy, is providing a single, secure 
        shore-based network and will link with our tactical networks to 
        provide end-to-end collaboration within the DON and across the 
        joint community. Fiscal year 2006 funding of $1.6 billion 
        provides for NMCI operations and, at the same time, continues 
        transition of the remaining legacy IT networks to NMCI 
        enterprise network services.
  --Mobile User Objective System (MUOS).--The MUOS Satellite 
        Communications (SATCOM) program will increase DOD Narrowband 
        UHF SATCOM capacity by roughly 1,300 percent over current 
        capabilities. MUOS is a $6 billion joint interest program, and 
        it supports a particularly important ``Comms-on-the-Move'' 
        capability for handheld terminals, aircraft, missiles, and UAVs 
        in urban and heavily wooded terrain. We plan to reach the 
        Initial Operating Capability milestone in 2010, with Full 
        Operational Capability in 2014.
  --Joint Aerial Common Sensor (JACS).--We have partnered with the Army 
        in the Joint Aerial Common Sensor development program in our 
        pursuit of a replacement for the aging EP-3 airborne 
        information warfare and tactical signals intelligence (SIGINT) 
        aircraft. JACS will provide multi-intelligence strike targeting 
        data and Signals Intelligence capabilities, and will include a 
        Synthetic Aperture Radar, Ground Moving Target Indicator, 
        Electro-Optical and Infrared Sights, and Measurements and 
        Signature capabilities. These will be coupled with automatic/
        manual data fusion. Our fiscal year 2006 request includes $134 
        million for this program.
  --Joint Tactical Radio System (JTRS).--JTRS will be the wireless 
        ``last tactical mile'' component of the Global Information Grid 
        (GIG) ad will transform Navy's tactical communications systems 
        by incorporating Internet Protocol (IP) communications over 
        multi-spectral radio frequency (RF) media. JTRS is a software 
        programmable, multi-band, multi-mode family of net-workable 
        radios, capable of simultaneous voice, data, video 
        communications and mobile ad hoc networking. Our fiscal year 
        2006 request includes $251 million for JTRS.
  --Fire ScoutOur fiscal year 2006 request includes $77.6 million to 
        continue the development of the Fire Scout UAV. The Fire Scout 
        is a Vertical Takeoff and Landing Tactical UAV (VTUAV) designed 
        to operate from all air-capable ships, carry modular mission 
        payloads, and operate using the Tactical Control System and 
        Tactical Common Data Link. The Fire Scout UAV will provide day/
        night real time ISR and targeting as well as communication-
        relay and battlefield management capabilities for ASW, MIW and 
        ASUW.
  --E-2 Advanced Hawkeye.--The E-2 Advanced Hawkeye (AHE) program will 
        modernize the E-2 weapons system by replacing the current radar 
        and other aircraft system components to improve nearly every 
        facet of tactical air operations. The modernized weapons system 
        will be designed to maintain open ocean capability while adding 
        transformational littoral ocean surveillance and Theater Air 
        Defense and Missile Defense capabilities against emerging 
        threats in the high-clutter environment. The AHE program plans 
        to build 75 new aircraft with the modernized weapons system 
        with pilot production in fiscal year 2007.
Continuing our efforts to become more effective and efficient in the 
        use of taxpayer resources
    We are well underway in our Sea Enterprise journey to be more 
effective and efficient, yet more needs to be done to generate the 
resources necessary to implement our Sea Power 21 vision. We must 
provide incentives for innovation in the workplace, and implement tools 
and techniques that enable the workforce to challenge existing 
assumptions, eliminate unnecessary costs, and increase efficiency and 
effectiveness. Sharing best practices, and leveraging core competencies 
and continuous process improvement are essential ingredients to our 
success. The promise of increased effectiveness, productivity, and 
alignment can only be realized by extending both the extent and depth 
of collaboration across the enterprise.
    The DON Enterprise Resource Planning (ERP) initiative has created 
the framework that will enable the transformation of key acquisition, 
logistics, and financial business activities into an integrated network 
of decision-making processes. This past August the Joint Requirements 
Oversight Council approved the Navy ERP Operational Requirements 
Document (ORD) and cleared the way for the Navy to purchase ERP 
software and hire an integration contractor. With the fiscal year 2006 
budget, the Navy will continue to capitalize on demonstrated ERP 
technology advances in creating and disseminating decision-making 
information. The ERP program is expected to continue to improve 
integration, leverage economy-of-scale, consolidate legacy systems and 
software using the best business and commercial practices available and 
align the President's Management Agenda (PMA) within the Department. We 
are pursuing an acquisition strategy that will support operational test 
and evaluation by fiscal year 2006.
    Sea Enterprise efficiency/mitigation initiatives valued in excess 
of $50 billion across the FYDP. More importantly, however, Sea 
Enterprise offers a genuine understanding of program costs that 
empowers our Research and Development, enables our program execution, 
and enhances the overall management of our Navy. Accordingly there is 
increased relevance of our cost data and no built-in cost margins built 
into our budget. Put simply, our budget has the most granularity and 
cost refinement than in any time in my tenure as CNO. This sometimes 
translates into savings for our government but also means that 
unforeseen budget cuts directly affect the heart of our programs and 
not just marginal costs.

                               CONCLUSION

    Our mission remains bringing the fight to our enemies. We will 
execute the Global War on Terror while continuing our transformation 
for the future. We have set in motion forces of change, beginning the 
journey that I believe we must undertake if we are to maintain the 
greatness that our 229 years of naval history has bestowed upon us. But 
change is demanding, difficult, and uncertain in its effects. It 
requires extraordinary effort, especially for a large, public 
institution. And it is precisely for these reasons that change must be 
harnessed as a positive force in our Navy.
    Positive change is the bridge to our future. To get there we must 
also think anew about the opportunities that we have now to make our 
Navy even better. Tomorrow's Navy will, in many ways, be strikingly 
dissimilar to our Navy today. But one thing is clear: the business of 
the Navy will always be combat, and victory is both our mission and our 
heritage. None of this would be possible without the constant support 
of the Congress and the people of the United States of America. I would 
therefore like to thank you once again, on behalf of the dedicated men 
and women prepared to go in harm's way for our great nation, for all 
that you do to make the United States Navy ready today and prepared for 
the future.

    Senator Stevens. General Hagee, do you have a statement to 
make?
    General Hagee. Yes, sir, I do.

             SUMMARY STATEMENT OF GENERAL MICHAEL W. HAGEE

    General Hagee. Mr. Chairman, Senator Inouye, other 
distinguished members of this subcommittee, it's my privilege 
to be here this morning to report on the readiness of your 
Marine Corps.
    I would, also, like to offer my thanks to Vern Clark. I 
think you know there has been no Chief of Naval Operations more 
committed to the Navy/Marine Corps team than Admiral Vern 
Clark. And I wish him all the best, and thank him for his 
friendship and for his professionalism.
    Sir, this past weekend, I was on Iwo Jima with some 
veterans from that particular battle. Just a little over 60 
years ago, on February 19, over 80,000 marines and sailors 
onboard over 880 U.S. ships made a landing on that small 
island. Thirty-six days later, the battle was over, over 25,000 
marines and sailors were wounded, 6,100 gave their lives. And, 
in those 36 days, 27 medals of honor were awarded.
    Mr. Chairman, today we are again at war--a different type 
of war, to be sure, but still a global war. And I can tell you 
that, in my 37 years as a marine, I have never seen a more 
experienced, battle-hardened, and ready force than today's 
Marine Corps. Your consistent fiscal and legislative support 
over the past few years have been critical in delivering the 
force needed today.
    I would also like to thank you personally for your caring 
visits to our wounded and for caring for the families of those 
who have lost loved ones. Your support is greatly appreciated 
by all marines and their families.
    Last year when I appeared before this subcommittee, I 
highlighted the importance of the flexibility and adaptability 
of your marines in rapidly responding to multiple and varied 
contingencies, many on short notice, since 9/11. Again, over 
the past year, the value of this expeditionary force and its 
readiness were demonstrated repeatedly in Iraq, Afghanistan, 
Horn of Africa, Haiti, and, of course, most recently, in the 
relief operations in the Indian Ocean.
    A notable example of the value of your marines' readiness, 
the quality of their training, their leadership, and their 
understanding of joint and coalition operations was in the Al 
Anbar province. In November of last year, the marine force, 
tightly integrated with Army brigades, Seabees, joint air 
assets, coalition forces, including five Iraqi battalions, 
mounted a high-intensity joint assault in a demanding urban 
environment, destroying the insurgents' safe-haven in Fallujah. 
This close-quarters fight against an adaptable and dangerous 
enemy was executed rapidly and successfully. Equally 
impressive, in my opinion, but not often noted, was, after the 
assault, the force immediately returned to counterinsurgency 
and civil-affairs operations.
    While your marines and their equipment have performed well, 
both at home and abroad, we do face some significant 
challenges. The tempo of operation and the demands on the 
forces are extremely high across the entire Marine Corps, both 
regular and reserve. Marine units and operating forces are 
either deployed or are training to relieve deployed units. No 
forces have been fenced. And since 9/11, we have activated in 
excess of 95 percent of our Marine Corps Reserve units, the 
majority of whom have served in either Iraq or Afghanistan.
    Last year, we met our recruiting and retention goals, both 
in quantity and, most importantly, in quality. Although we 
remain on track to meet our annual goals this year, the 
additional effort required by our recruiters and our career 
retention specialists is significant. Your continued support of 
recruit advertising and enlistment bonuses is important.
    The Marine Corps greatly appreciates Congress' 
authorization last year to increase end strength by 3,000 
marines. Additionally, we are implementing internal initiatives 
to provide more capabilities needed by the combatant commanders 
and to reduce our Operating Tempo (OPTEMPO). We have tremendous 
support from our families. This support sustains us both at 
home and when we are deployed in harm's way. They have my 
sincere gratitude for their courage and their sacrifice.
    With regard to our material and equipment, we currently 
have 30 percent of our ground equipment and 25 percent of our 
aviation equipment deployed in theater in one of the harshest 
operating environments on the planet. Usage rates for our 
ground equipment are averaging eight-to-one over planned rates, 
while our aviation assets are flying between two to three times 
their planned rates. Our fiscal year 2005 supplemental 
submission requests funds to begin the reconstitution of this 
equipment. Together, our fiscal year 2006 budget request and 
the supplemental will ensure that our essential warfighting 
capability and readiness remain high.
    The successes of our Armed Forces to date are a reflection 
of Congress' strong fiscal support over the past years. Our 
equipment, support facilities, and the personnel policies that 
attract, create, and keep our most lethal and effective 
weapon--high-quality marines--are the product of your long-term 
sustained investment.
    Joint seabasing is the Navy/Marine Corps team's overarching 
operating concept for using the sea as maneuver space. This 
transformational concept breaks down the traditional sea/land 
barrier. It will enable the joint force commander to project 
joint and combined forces anywhere in the world. Seabasing 
assures joint access by leveraging maneuver of forces on the 
sea and by reducing dependence upon fixed and vulnerable land 
bases. This concept will provide our combatant commanders with 
unprecedented versatility in operations, from cooperative 
security to major combat. In support of our transformation 
efforts, funding for seabasing research and development is 
critical in order to ensure timely design and doctrinal 
decisions.

                           PREPARED STATEMENT

    In conclusion, let me emphasize that your marines are fully 
dedicated to the idea of service to our Nation, and they know 
they have the solid backing of the Congress and the American 
people. We fully understand that our greatest contribution to 
the Nation is our high level of readiness to respond across the 
spectrum of operations. Marines and their families greatly 
appreciate your support in achieving our high level of success, 
and your efforts to ensure that we will be able to respond to 
future contingencies.
    I look forward to your questions.
    [The statement follows:]

             Prepared Statement of General Michael W. Hagee

    Chairman Stevens, Senator Inouye, distinguished members of the 
Committee; it is my honor to report to you on the state of readiness of 
your Marine Corps. Today, we are at war and your Marines are performing 
well because of the support they have received from the Congress and 
their extraordinary courage, dedication, and commitment. Marines 
realize the danger to the Nation, their vital role, and the magnitude 
of their responsibilities. Many have been wounded or killed in action 
over the past year carrying out these responsibilities.
    Marines continue to demonstrate that we are an expeditionary force 
in readiness--Most Ready When the Nation is Least Ready. Your continued 
support has made this possible. The Global War on Terror will be long; 
therefore, sustaining and improving our readiness for future challenges 
is critical to ensuring that the Marine Corps continues to provide the 
combatant commanders the critical capabilities needed. On behalf of all 
Marines and their families, I thank this Committee for your sustained 
and indispensable support during these challenging times.

                INTRODUCTION AND THE VALUE OF READINESS

    Currently, your Marines are fully engaged across the spectrum of 
military capabilities in prosecuting the Global War on Terror. Since 
the watershed events of September 11, 2001, the core competencies, 
capabilities, and emphasis on readiness that the Marine Corps has 
structured itself around over many years have repeatedly proven their 
value in the numerous and varied operations this conflict demands. The 
importance of our Nation's ability to project power and conduct 
military operations over long distances for extended periods of time as 
part of a joint force has been revalidated. The Marine Corps' role as 
the Nation's premier expeditionary force-in-readiness, combined with 
our forward deployed posture, has enabled us to rapidly and effectively 
contribute to these joint operations. Our scalable, combined arms 
teams, seamlessly integrating our robust ground and aviation forces 
with adaptive logistics, create speed, flexibility, and agility to 
effectively respond to each unique emerging situation. The high state 
of training and quality of our Marines along with our warrior ethos--
highlighted by our creed that every Marine is a rifleman--allows 
Marines to thrive in the chaotic, unstable, and unpredictable 
environment that has always characterized warfare and that our very 
adaptable enemies methodically attempt to exploit.
    Previously I have highlighted to Congress that in the early phases 
of Operation ENDURING FREEDOM, two forward-deployed Marine 
Expeditionary Units formed Task Force 58 and projected the first major 
conventional combat units into Afghanistan--more that 350 miles from 
its sea base of amphibious shipping. Operation IRAQI FREEDOM I 
witnessed the flexibility of our projection capabilities when a combat 
ready Marine Expeditionary Force of over 70,000 Marines and Sailors was 
deployed in less than 60 days by multiple means--forward deployed 
Marine Expeditionary Units, amphibious shipping embarked from stateside 
bases, Maritime Prepositioned Ships, the use of amphibious ships as 
sea-based aviation power projection platforms, as well as strategic air 
and sealift assets. The significant capabilities of this combined arms 
force--as it attacked more than 500 miles from its off-load areas in 
Kuwait, rendering ten Iraqi divisions combat ineffective, and seizing 
half of Baghdad as well as key areas to the north--were also 
demonstrated.
    During this past year, Marines have continued to demonstrate their 
readiness across the spectrum of required missions. Shortly after their 
return from Operation IRAQI FREEDOM, the Marine Corps received a short-
notice tasking to deploy 25,000 Marines back to Iraq. Since March 2004, 
Marines have led the Multi-National-Force-West, responsible for 
stability and security in the Al Anbar Province in Iraq. Our 
expeditious and innovative pre-deployment combat skills training 
program, rapid modifications of our training and equipment to meet an 
evolving threat, and our emphasis on cultural and language capabilities 
properly prepared us for the challenges in this complex region. The I 
Marine Expeditionary Force, reinforced by three Marine Expeditionary 
Units, is currently executing multiple security, urban combat, nation 
building, counter-insurgency, aviation command and control, and force 
protection missions with great confidence and skill, in the face of an 
adaptable and dangerous enemy.
    In Afghanistan this past spring, in addition to the infantry 
battalion and helicopter support already supporting Operation ENDURING 
FREEDOM, we provided, on short-notice, a regimental headquarters and a 
combined arms Marine Expeditionary Unit. This Marine force was a major 
element of the combined joint task force assigned to counter a 
suspected Taliban ``Spring Offensive.'' The success of this force 
greatly assisted in setting the conditions for the Afghan national 
elections later in the year and in establishment of a secure and stable 
government. We continue to provide both ground and aviation forces--
currently an infantry battalion, elements of two helicopter squadrons, 
and training teams--to protect and foster this new democracy.
    In addition to these operations, our concurrent support to other 
regions including the Horn of Africa, the Pacific, support to the 
evacuation of non-combatants from Liberia, and the unexpected peace 
operation in Haiti has demonstrated our great range of flexibility. As 
on numerous previous occasions, Marines were deeply involved in the 
recent humanitarian efforts in the wake of the Sumatran earthquake and 
Indian Ocean tsunami. The value of our readiness across the spectrum of 
military capability; our forward presence and security cooperation 
efforts in this region for years; and our significant planning, 
logistical and transportation capabilities from our robust sea-base 
platforms have again proven critical in the effective projection of 
America's power--this time our power of humanitarian assistance. We 
should not underestimate the importance of this humanitarian operation 
on the stability of this critical region nor its potential favorable 
impact on the Global War on Terror.
    Currently, we are conducting a major rotation of our units and 
headquarters in Iraq. Many of these units have previously deployed to 
this theater, but we continue to aggressively match our training and 
equipment to the changing threat. We expect our commitment to Iraq to 
remain at about 23,000 Marines and Sailors, with the Marine Corps 
reserve forces providing about 3,000 of these personnel into 2006.
    Your support has ensured our near-term readiness remains strong. We 
will need your continued support in order to retain this readiness into 
the future. The current demand on the force is high. The entire Marine 
Corps is supporting the Global War on Terror, and no forces have been 
fenced. In the past two years, we have gone from a deployment rotation 
of one-to-three (6 months out/18 months back) to our current one-to-one 
ratio (7 months out/7 months back) for our infantry battalions, 
aviation squadrons, and other, high demand capabilities. This means 
that Marine units in the operating forces are either deployed or are 
training to relieve deployed units. Since 9/11, we have activated in 
excess of 95 percent of our Selected Marine Corps Reserve units. The 
vast majority have served in either Iraq or Afghanistan. Despite this 
high operational tempo, the Marine Corps continues to meet its 
recruiting and retention goals in quantity and quality, but the effort 
required by individual recruiters and career retention specialists is 
significant. The Marine Corps greatly appreciates Congress' 
authorization to increase our end-strength by 3,000 Marines in the 
fiscal year 2005 Authorization Act. These additional Marines will 
assist in reducing demands on Marines by filling our battalions to 
their designed strengths. We are currently assessing whether a further 
increase of personnel beyond 178,000 will be required to meet long-term 
commitments in the Global War on Terror.
    Last year, we completed a force structure review to determine how 
we could better meet the operational needs of the Global War on Terror 
within our then approved end strength of 175,000. This effort, 
addressed in detail in the Personnel Readiness section below, will 
result in the creation of additional high demand units and capabilities 
to address pressures within the force.
    The significant increase in wear and tear on materiel--in addition 
to combat losses--is a considerable monetary challenge that we 
identified in our fiscal year 2005 Supplemental submission. This 
submission also includes our request for essential warfighting and 
force protection equipment. These funds are critical to our sustained 
readiness.
    Operations over these past few years have dramatically highlighted 
that our focus on readiness to fight across the spectrum of conflict is 
on the mark. Your continued support to fully fund our modernization and 
transformation accounts will ensure that Marine forces will be able to 
respond to the joint force commanders' requirements.

                          PERSONNEL READINESS

    The Marine Corps continues to answer the call because of our 
individual Marines and the support they receive from their families and 
from the Nation. Morale and commitment are high. Marines join the Corps 
to ``fight and win battles'' and we are certainly giving them the 
opportunity to do that. We are an expeditionary force accustomed to 
deployments, but never at such a high tempo.
Marines
    End Strength.--The Marine Corps greatly appreciates the 
congressional end strength increase to 178,000. Our first priority for 
this increase is to enhance the manning of our infantry units. We will 
also create dedicated foreign military training units and add to our 
recruiting force, our trainers, and other support for the operating 
forces. Coupled with initiatives implemented as part of the recent 
force structure review and our military to civilian conversions, we 
will place many more Marines in our operating forces to reduce the 
tempo of operations on Marines and their families.
    Force Structure Review.--The Marine Corps--recognizing the need to 
continue transformation and the rebalancing of forces to meet the needs 
of the 21st century and the long-term Global War on Terror--completed a 
review of our total force structure, active and reserve, last year. We 
are implementing the recommended force structure initiatives with the 
majority achieving initial operational capability in fiscal year 2006 
and full operational capability by fiscal year 2008. These initiatives 
are end strength and structure neutral--offsets to balance these 
increases in capabilities are internal to the Marine Corps and come 
from military to civilian conversions and the disestablishment and 
reorganization of less critical capabilities. Implementation of these 
initiatives will require additional equipment, facilities, and 
operations and maintenance resources. The Marine Corps will continue to 
evaluate our force structure to ensure that it provides the needed 
capabilities in a timely manner to support our national security 
requirements.
    Major structure changes in the active component include the 
establishment of two additional infantry battalions, three light 
armored reconnaissance companies, three reconnaissance companies, two 
force reconnaissance platoons, and an additional Air-Naval Gunfire 
Liaison Company (ANGLICO). We will also augment our existing explosive 
ordnance disposal, intelligence, aviation support, civil affairs, 
command and control, and psychological operations assets.
    In the reserve component these structure initiatives will increase 
the capability of Marine Forces Reserve Command to better respond to 
the Global War on Terror. We will establish an intelligence support 
battalion, a security/anti-terrorism battalion, and two additional 
light armored reconnaissance companies. We will also augment existing 
capabilities in the areas of civil affairs and command and control, and 
we are restructuring some reserve units to convert them into Individual 
Mobilization Augmentee (IMA) Detachments--allowing more timely access 
to these Marine reservists to support contingency operations.
    Military to Civilian Conversions.--The Marine Corps continues to 
pursue sensible military to civilian conversions in order to increase 
the number of Marines in the operating force. In fiscal year 2004, the 
Marine Corps converted 664 billets. We plan to continue our program for 
conversions, and we are on course to achieve 2,397 conversions through 
September 2006.
    Retention.--The primary concern with increased personnel and 
operational tempo is its long-term impact on the career force, 
especially the officers and the staff non-commissioned officers who 
have between 8 and 12 years of service. The end-strength increase, 
implementation of our force structure initiatives, and Military-
Civilian conversions are expected to partially mitigate the negative 
effects of this high tempo on the individual Marine and the force. 
Strong retention is a complex function of leadership opportunities, 
sense of purpose, compensation, quality of life, and educational 
opportunities.
    Enlisted Retention. We are a young force. Maintaining a continuous 
flow of quality new accessions is of fundamental importance to well-
balanced readiness. Over 26,000 of our active duty enlisted Marines are 
still teenagers, and 104,000 are serving on their first enlistment. In 
fiscal year 2004, the Marine Corps achieved 100 percent of our goals 
for both first term and career (second reenlistment and beyond) active 
duty reenlistments. Selected Reserve enlisted retention for fiscal year 
2004 was slightly above our historical norm. In fiscal year 2005, we 
are again off to a strong start in all categories. We will continue to 
monitor this area closely. Although the Selective Reenlistment Bonus 
represents just one-half of one percent of our military personnel 
budget, it remains a powerful retention tool, and we take pride in our 
prudent stewardship of this resource. This year it will play an even 
more important role in retaining our best Marines as we maintain an end 
strength of 178,000. These reenlisted Noncommissioned and Staff 
Noncommissioned Officers will form the core of our new units.
    Officer Retention. Overall, we continue to achieve our goals for 
officer retention. We are retaining experienced and high quality 
officers. Our aggregate officer retention rate was 91 percent for 
fiscal year 2004, at our historical average. Reserve officer retention 
of 75 percent is slightly below the historical norm of 77 percent. It 
is important to note that high retention in the active component 
reduces the number of officers transitioning (accessions) into the 
Selected Marine Corps Reserve.
    Recruiting.--A successful retention effort is but one part of 
ensuring there is a properly trained Marine in the right place at the 
right time. Successful recruiting is essential to replenishing the 
force and maintaining a high state of readiness. In fiscal year 2004, 
the Marine Corps recruited 100 percent of its active component goal of 
30,608 Marines, with 97.7 percent being Tier I High School graduates. 
The Marine Corps Reserve also achieved 100 percent of its recruiting 
goals with the accession of 6,165 Non-Prior Service Marines and 2,083 
prior-service Marines. Officer accessions, in both the active and 
reserve components, achieved their goals, but reserve officer numbers 
remain challenging because our primary accession source is officers 
leaving active duty. We are currently exploring new options in this 
area and believe that the authority for a Selected Reserve Officer 
Affiliation Bonus in the Fiscal Year 2005 National Defense 
Authorization Act may contribute significantly to these efforts. For 
fiscal year 2005, both active and reserve recruiting are challenging, 
but we are currently on track to meet our goals.
    We believe the recruiting and retention ``marketplace'' is going to 
become more challenging. Your continued support for a strong 
reenlistment bonus and advertising programs will be essential to meet 
this challenge.
    Marine Corps Reserve.--The morale and patriotic spirit of the 
Marine Reserves, their families, and their employers remains 
extraordinarily high. As demonstrated over this past year, the Marine 
Corps Reserve continues to be fully ready and capable of rapid 
activation and deployment to augment and reinforce the active component 
of the Marine Corps as required. This capability has helped us to avoid 
untimely deployment extensions, maximize force management of our 
reserves, maintain unit integrity, sustain the reserve force, and 
lessen the burden on Marines and their families. To date almost 30,000 
Reserve Marines have served on active duty in the Global War On Terror. 
Currently, over 13,000 reserve Marines are on active duty with over 
11,500 in cohesive reserve ground, aviation and combat support units 
and almost 1,600 serving as individual augments in both Marine and 
Joint commands. As of January 2005, the Marine Corps Reserve began 
activating 3,000 Selected Marine Corps Reserve Marines in support of 
operations in Iraq and 500 for Afghanistan.
    Despite the high tempo of operations, the Marine Corps Reserve 
continues to meet its goals for recruiting and retaining quality men 
and women willing to manage commitments to their families, their 
communities, their civilian careers, and the Corps. The Marine Corps is 
closely monitoring post-mobilization retention in order to assess any 
potential long-term negative impact from recent activations. As we 
build on the lessons of the recent past and begin to implement 
adjustments to the structure of our reserve forces, we will ensure that 
these changes are made with full recognition that the Marine Corps 
Reserve is a community-based force.
    Marine For Life.--Initiated in fiscal year 2002, the Marine For 
Life program continues to provide support for 27,000 Marines 
transitioning from active service back to civilian life each year. 
Built on the philosophy, ``Once a Marine, Always a Marine,'' Reserve 
Marines in over 80 cities help transitioning Marines and their families 
to get settled in their new communities. Sponsorship includes 
assistance with employment, education, housing, childcare, veterans' 
benefits, and other support services needed to make a smooth 
transition. To provide this support, the Marine For Life program taps 
into a network of former Marines and Marine-friendly businesses, 
organizations, and individuals willing to lend a hand to a Marine who 
has served honorably. Approximately 2,000 Marines are logging onto the 
web-based electronic network for assistance each month. Assistance from 
career retention specialists and transitional recruiters helps 
transitioning Marines tremendously by getting the word out about the 
program.
    Marine For Life--Injured Support.--Leveraging the organizational 
network and strengths of the Marine for Life program, we are currently 
implementing an Injured Support program to assist injured Marines, 
Sailors serving with Marines, and their families. The goal is to bridge 
the gap between military medical care and the Department of Veterans 
Affairs--providing continuity of support through transition and 
assistance for several years afterwards. Planned features of the 
program include: advocacy for Marines, Sailors and their families 
within the Marine Corps and with external agencies; pre and post-
Service separation case management; assistance in working with physical 
evaluation boards; an interactive web site for disability/benefit 
information; an enhanced Marine Corps Community Services (MCCS) ``One 
Source'' capability for 24/7/365 information; facilitation assistance 
with federal hiring preferences; coordination with veterans, public, 
and private organizations providing support to our seriously injured; 
improved Department of Veterans Affairs handling of Marine cases; and 
development of any required proposals for legislative changes to better 
support our Marines and Sailors. This program began limited operations 
in early January 2005.
Civilian Marines
    Marine Corps Civilian Workforce Campaign Plan.--Marines, more than 
ever before, recognize the importance of our civilian teammates and the 
invaluable service they provide to our Corps as an integral component 
of the Total Force. To that end we continue to mature and execute our 
Civilian Workforce Campaign Plan, a strategic road map to achieve a 
civilian workforce capable of meeting the challenges of the future. We 
are committed to building leadership skills at all levels, providing 
interesting and challenging training and career opportunities, and 
improving the quality of work life for all appropriated and non-
appropriated Civilian Marines. As part of our effort to meet our goal 
of accessing and retaining a select group of civilians imbued with our 
Core Values, we have developed a program to provide our Civilian 
Marines an opportunity to learn about the Marine Corps' ethos, history, 
and Core Values--to properly acculturate them to this special 
institution. All this supports our value proposition, why a civilian 
chooses to pursue a job with the Marine Corps: to ``Support Our 
Marines. Be Part of the Team.''
    National Security Personnel System.--The Marine Corps is actively 
participating with the Department of Defense in the development and 
implementation of the new personnel system. Following an intensive 
training program for supervisors, managers, human resources 
specialists, employees, commanders and senior management, we will join 
with the Department in the first phase of implementation, tentatively 
scheduled for July of 2005. In the Marine Corps, we will lead from the 
top and have our Headquarters Marine Corps civilian personnel included 
in the first phase of implementation, known as ``Spiral One.''
    Information Technology.--We remain committed to transforming our 
manpower processes by leveraging the unique capabilities resident in 
the Marine Corps Total Force System (MCTFS), our fully integrated 
personnel, pay, and manpower system that serves active, reserve and 
retired members. The integrated nature of MCTFS allows us to develop 
our Total Force Administration System (TFAS); a web based and virtually 
paperless administration system that provides Marines and commanders 
24-hour access to administrative processes via Marine OnLine. Our TFAS 
allows administrative personnel to refocus their efforts from routine 
tasks to more complex analytical duties, and ultimately will enable 
greater efficiencies. Additionally, MCTFS facilitates our single source 
of manpower data, directly feeding our Operational Data Store 
Enterprise and Total Force Data Warehouse. This distinctive capability 
allows us to accurately forecast manpower trends and fuels our Manpower 
Performance Indicators, which provide near real time graphical 
representation of the Corps' manpower status such as our deployment 
tempo. Properly managing our manpower requirements and processes 
requires continued investment in modern technologies and we are 
committed to these prudent investments.
Quality of Life
    Marine Corps Community Services.--Taking care of Marines and their 
families is essential to the operational readiness of the Corps. The 
relevance of this mission is particularly evident when leaders at all 
levels assess preparedness of their command and unit functioning 
before, during, and after forward deployments. As an expeditionary 
force we are accustomed to frequent deployments, yet the current 
environment contains elements of personal danger and family risk that 
must be addressed with appropriate and timely support. To date in 
Operations IRAQI FREEDOM and ENDURING FREEDOM, we have been careful to 
closely monitor our programs and adjust support to ensure our Marines 
and their families receive the necessary care to sustain them 
throughout the deployment cycle. In this regard, our Marine Corps 
Community Services (MCCS) organizations' combined structure of Family 
Services, Morale, Welfare and Recreation Programs, Voluntary Off Duty 
Education, and Exchange operations has positioned us to efficiently and 
effectively leverage and direct community services assets to help 
Marines and their families meet the challenges associated with our 
lifestyle and current operational tempo.
    Deployment Support.--During pre-deployment, Marines and families 
attend to wills, powers of attorney, and family care plans; and spouses 
establish a vital connection through the commander's Key Volunteer 
Network that is organized to provide accurate and timely information on 
the status of the deployment. We have developed a series of pre-
deployment, in-theater, return and reunion, and post deployment 
awareness and support services to mitigate problems created by 
traumatic combat experiences and their associated stress. We fully 
understand that Marines and their families are not immune from social 
risks such as suicide, domestic violence, or sexual assault. We also 
understand that risk factors can be exacerbated by the current 
operational tempo, and we have a variety of proactive counseling 
services to address individual and unit readiness concerns. We are ever 
watchful for symptoms and risks of untreated combat stress and its 
signs and advise Marines of the resources available for treatment. 
Combat stress is also addressed with counseling provided by the Navy's 
Operational Stress Control and Readiness Program (OSCAR), which embeds 
mental health professionals within the Marine Division and has resulted 
in a marked decrease in medical evacuations for mental health reasons. 
Prior to departing a combat zone, we also plan for a decompression 
period in which military chaplains provide a Warrior Transition Brief 
focused on better preparing our Marines to reintegrate with family and 
community. We offer similar return and reunion programs for families 
awaiting the homecoming of a deployed Marine. A wide array of services 
is available at our installations through chaplains, medical treatment 
facilities, and MCCS to support the Marine and family members in the 
post deployment phase. For those Marines and families in need who are 
residing a distance from our installations, face-to-face counseling 
services are available through MCCS/Military One Source. MCCS/Military 
One Source offers 24/7/365 information and referral services via toll-
free telephone and Internet access. MCCS/Military One Source has also 
proven to be an especially valuable resource to assist Reserve Marines 
and their families who often experience special challenges when trying 
to acclimate to requirements, procedures, and support associated with 
various military programs and benefits.
    We recognize that family readiness is integral to unit readiness. 
To help our families through the separation and stress of deployment, 
respite and extended childcare services have been made possible by 
Congress in supplemental appropriations. Information and referral 
services are offered via different access points such as unit/command 
websites, hotlines and MCCS/Military One Source. While forward 
deployed, Marines have access to tactical field exchanges; a variety of 
fitness, recreation, and leisure facilities; and telecommunication 
services. We are utilizing our postal Marines to expedite mail 
delivery. We also conducted a successful voter awareness campaign that 
ensured our Marines had the opportunity to exercise their right and 
civic responsibility to vote, even from austere, forward deployed 
locations.
    Casualty Assistance.--The Marine Corps, and most importantly Marine 
families, appreciate recent legislative actions, including the expanded 
authorizations for parents of our deceased to attend funerals when they 
are not the primary next-of-kin, and also the enhanced travel to 
bedside benefits that are so important to the morale of those Marines 
subject to extended hospital stays. We have built internal support 
services, including an extensive network of Casualty Assistance Calls 
Officers (CACOs) throughout the country who serve as the primary point 
of contact for the families of deceased and severely injured Marines 
regarding all military benefits, entitlements, or offers from 
benevolent organizations. CACO support is managed through our 
Headquarters Casualty Affairs section and has been enhanced by the 
development and implementation of an Office of the Secretary of 
Defense-funded Injured/Ill Patient Tracking website in March of 2004. 
Commanders at all levels now have visibility of their Marines at all 
stages in the medical and convalescence process.
    I would like to thank Congress for your continued support of the 
programs and services so critical to the readiness of our Corps, to 
include provisions of supplemental appropriations; all of which 
directly contribute to quality of life enhancements. Also, your kind 
and caring visits with our wounded Marines, Sailors, and their families 
are greatly appreciated.

                         TRAINING AND EDUCATION

    The Marine Corps' Training and Education Command continues to 
incorporate lessons learned from the Global War on Terror, ensuring 
that Marines are fully trained and prepared to meet the challenges of 
the demanding operational environments in Afghanistan, Iraq, and around 
the world. In many respects, the hard won lessons from these most 
recent battlefields have served to validate our training policies and 
programs. The training at the recruit depots continues to deliver basic 
trained Marines, imbued with the core values and warrior ethos 
necessary to ensure their rapid integration into operational units. In 
particular, our fundamental tenet, ``Every Marine a Rifleman,'' has 
proven its worth time and again. Marines in almost every occupational 
field have executed the tasks of provisional riflemen, from 
establishing security to patrolling their areas of responsibility. In a 
conflict where nearly every convoy is a combat patrol, the fact that 
all Marines are taught basic combat and infantry skills at the Schools 
of Infantry has helped ensure their survival and mission accomplishment 
in an environment where traditional lines between the front and the 
rear are virtually indistinct.
    Adapting to a Thinking Foe.--Where needed, we have adjusted the 
curricula at formal schools to ensure that Marines are trained using 
the latest lessons learned. Our enemies are constantly adapting, and we 
must ensure that our training reflects the modifications to tactics, 
techniques, and procedures that are necessary to counter these changes. 
Our schools maintain close communication with the operating forces 
through the review of after-action reports, lessons-learned data, 
surveys, and personal interviews with returning Marines. For example, 
classes in Improvised Explosive Device awareness, reaction to vehicle 
ambush, and combat leadership discussions with returning combat 
veterans have been integrated into appropriate programs of instruction. 
In addition, new infantry lieutenants receive enhanced training in 
urban patrolling, and their 96-hour final field exercise encompasses 
both conventional operations and stability and support operations. 
Military Occupational Specialty schools are also adjusting their 
curricula to ensure that we adapt our focus from fighting a 
conventional force to dealing with the challenges posed by irregular 
forces. For example, at our intelligence schools, counter-insurgency 
training has been added to the curriculum, illustrating changes in the 
collection procedures necessary for greater effectiveness in an 
insurgency environment. We are weaving cultural training throughout the 
training continuum to reinforce the understanding of the operational 
importance of culture and to help Marines more effectively interact 
with civilian populations.
    Focused Pre-Deployment Training.--To focus training efforts, all 
deploying Marine units rotate through a standardized training package. 
Building on home station training in basic urban skills, ground units 
deploy to the Marine Air Ground Task Force Training Center at 
Twentynine Palms, California, for in-depth training in convoy 
operations, fire support, and small-unit coordinated assaults against 
defended positions. Following that, the units move to March Air Reserve 
Base at Riverside, California, for a graduate-level training exercise 
in urban operations, including stability and support operations. In 
addition, ground units scheduled to deploy to Afghanistan train at the 
Marine Corps Mountain Warfare Training Center at Bridgeport, 
California. Here they focus on gaining the skills necessary to operate 
in demanding high-altitude environments like they will experience in 
Afghanistan. Marine Corps aviation units participate in a standardized 
training package, Desert Talon, in Yuma, Arizona. All of these training 
events are solidly grounded on lessons learned from the operating 
forces.
    Initiatives for Future Challenges.--While we adjust to the current 
operational environment, we also keep our eye on the future. We are 
currently undertaking initiatives that will further strengthen the 
training and education that Marines receive in years to come. One key 
initiative is the development of Military Occupational Specialty 
Roadmaps to help individual Marines and leaders map out career paths. 
Complementing this effort, we are conducting a complete reevaluation of 
our entire professional military education program to ensure that it 
seamlessly reinforces our Military Occupational Specialty training as 
well as ensuring, at the appropriate levels, a strong bond with joint 
professional military education. In the joint arena, we are also 
heavily engaged in supporting the Department of Defense efforts to 
create a flexible and dynamic Joint National Training Capability. In 
this respect, and thanks to the generous support of Congress, we are 
making large infrastructure investments at our Combat Training Center 
at Twentynine Palms, California. We are in the process of building a 
number of urban warfare training facilities on this base that will 
allow us to conduct battalion and company-sized urban warfare training, 
further enhancing the combat ability of Marine units. All these efforts 
will ensure the continued ability of the Marine Corps to respond 
whenever and wherever the Nation calls.

                    EQUIPMENT AND MATERIEL READINESS

    Our readiness priority is the support and sustainment of our 
forward deployed forces. Currently, the Marine Corps has 26 percent of 
our active operating forces deployed in support of the Global War on 
Terror utilizing 30 percent of our ground equipment and 25 percent of 
our aviation assets.
    Demand on Equipment.--The Global War on Terror equipment usage 
rates average 8:1 over normal peacetime usage due to continuous combat 
operations. This high usage rate in a harsh operating environment, 
coupled with the added weight of armor and unavoidable delays of 
scheduled maintenance due to combat, is degrading our equipment at an 
accelerated rate. More than 1,800 principal end items valued at $94.3 
million have been destroyed. Repairs on 2,300 damaged end items will 
require additional depot maintenance.
    Readiness Rates.--The equipment readiness (mission capable) rates 
of our deployed forces average 95 percent for ground equipment and 72 
percent for aviation units. Our pre-positioned stocks, within both the 
Marine Corps Preposition Program--Norway and Maritime Prepositioned 
Shipping--have ensured the sustained readiness of our deployed ground 
units. In order to improve our readiness rate in theater, we are 
creating a limited aircraft depot maintenance capability, coordinating 
with the Army to leverage their ground depot maintenance capability, 
and establishing a pool of ground equipment to expedite the replacement 
of damaged major end items. The corresponding equipment readiness 
(mission capable) rates for units remaining in garrison are 81 percent 
for ground equipment and 69 percent for aviation units. We currently 
are rebalancing the ground equipment assets of our non-deployed units 
to maximize equipment availability for unit training. We anticipate a 
reduction in the size of our force deployed to Iraq in the Operation 
IRAQI FREEDOM 04-06 rotation and plan to return the associated 
equipment to the non-deployed operating forces. Due to the extensive 
wear and tear on our assets, we believe that at some point in the 
future we will need to replace equipment because restoring it to like-
new condition may not be cost effective. We will need your continued 
support in order to recapitalize and reconstitute our prepositioned 
stocks and to replace our combat losses. We have requested $250 million 
via the fiscal year 2005 Supplemental to begin replacing our 
prepositioned equipment.
    Meeting Urgent Operational Requirements.--A critical factor for 
both Operations ENDURING FREEDOM and IRAQI FREEDOM in ensuring our 
Marines were as adequately equipped as possible is the Urgent Universal 
Needs Statement (UUNS) process that we initiated in 2002. This process 
has provided a way for the leaders and members of our operating forces 
to identify and forward new requirements for weapons and gear up the 
chain of command for quick review and approval -most in under 90 days. 
Upon approval by the Marine Corps Requirements Oversight Council, the 
Marine Corps and the Department of the Navy have realigned funds as 
necessary within permitted reprogramming thresholds. When required by 
reprogramming authority rules, we have forwarded requests that exceed 
the established reprogramming thresholds to the Congress for approval. 
The sources for these reprogramming actions have been our investment 
account assets. In many cases, the funding was made available by our 
decision to accept risk and defer the full execution of otherwise 
approved programs in order to address immediate warfighting needs. 
Through this process we have acquired more than 200,000 pieces of 
essential warfighting equipment that have been provided to the 
operational commanders. Some examples are:
  --Vehicle hardening: Purchased factory produced and field expedient 
        armor for nearly 4,000 vehicles; fielded 37 export model M1114 
        up-armored High Mobility Multi-purpose Wheeled Vehicles 
        (HMMWV); will procure and field 498 M1114s up-armored HMMWVs; 
        and producing the Marine Armor Kit (MAK) for HMMWVs and the 
        Marine Armor System (MAS) for the Medium Tactical Vehicle 
        Replacement (installation for both systems will be 
        operationally driven and is planned to begin between February 
        and May 2005).
  --Numerous types of weapons sights: Advanced Combat Optic Gunsights 
        (ACOG); and thermal Weapons Sights
  --Family of Explosive Ordnance Disposal (EOD) equipment including 
        unmanned robotics and blast suits
  --Counter Improvised Explosive Device (IED) Jammers
  --Unmanned Aerial Vehicles (UAV)--Dragon Eye and Scan Eagle
  --Hardened Engineer Vehicles--Cougar and Buffalo systems being 
        acquired from the U.S. Army
  --Radios: Personal Role Radios, PRC-148, PRC-117F, and Tropo 
        Satellite Support Radios
  --Unit Operations Centers
  --Night Vision Devices
  --Dust abatement chemicals and sprayer systems
  --Individual body armor
  --Backscatter X-Ray machines
  --Blue Force Tracker.
    The Marine Corps, with superb assistance from the Department of the 
Navy, realigned funds and received supplemental funding to fund these 
acquisitions. The impact of the reprogramming was deferred deliveries 
or delays in the execution of other approved procurement programs. 
Affected Marine Corps programs include personal gear and weaponry, 
vehicles, command and control systems, communications, and tactical 
computers at a cost to the Marine Corps of over $300 million. 
Similarly, Marine Corps initiatives within the Navy budget affected by 
reprogramming included ships, naval weapons systems and aircraft 
replacements/modifications that Marines man or that directly support 
us. The funding required to buy back some of these critical 
capabilities is included in the fiscal year 2005 supplemental request.
    Replacements and Depot Maintenance.--Our equipment replacement 
strategies support our long-term commitment and considerations for new 
item modernization or transformation opportunities whenever possible. 
Use of the Marine Corps depot maintenance capability has been optimized 
using our organic depots, other service depots, and commercial 
sources--in that order. For our depots, we have requested $319 million 
in fiscal year 2005, which includes the baseline programmed 
appropriation of $114 million, an approved Congressional increase of 
$43 million, and our request for an additional $162 million in 
supplemental funding.

                            FUTURE READINESS

    While the primary focus of the Marine Corps is supporting the 
Global War on Terror, we also have a responsibility to prepare for 
future conflicts and contingencies. Our continued transformation 
recognizes that an array of non-traditional threats will increasingly 
influence our development of tomorrow's Corps. Our challenge is to 
determine the right balance of capabilities that the Marine Corps must 
provide to the Nation in order to help defeat a broad range of 
adversaries. The review of our force structure, referred to earlier, is 
an example of how we are adapting to better prosecute the Global War on 
Terror and meet future national security requirements.
    Logistics Modernization.--Logistics Modernization is the most 
comprehensive approach ever to improving tactical and operational level 
logistics. It is a Marine Corps-wide, multi-year, people-focused 
program designed to improve processes and technology supporting Marine 
Air Ground Task Force operations. Logistics Modernization consists of 
seven initiatives that--when fully implemented--will; modernize our 
people through logistics chain-oriented education and effective change 
management and communications; will modernize processes through moving 
to a logistics chain management approach that integrates supply, 
maintenance and distribution; and will modernize technology through 
acquisition and fielding of Global Combat Support System Marine Corps 
(GCSS-MC). Logistics Modernization initiatives will address Operation 
Iraqi Freedom lessons through their laser focus on the deployed 
environment and the last tactical mile and increase Marine Air Ground 
Task Force lethality by providing increased accuracy, reliability, and 
responsiveness of logistics information to Marines deployed on the 
battlefield.
    Power Projection and Sustainable Forcible Entry Capability.--
Whatever the future brings, we believe that the Nation will continue to 
require the capability to project and sustain joint power from the sea, 
despite adversaries' attempts to deny us access. The Navy-Marine Corps 
team--with the immediate capabilities of our forward deployed forces, 
the rapid deployment of medium weight forces, and the full spectrum 
capability for major combat operations--provides our joint force 
commanders with flexible options to meet a wide range of potential 
circumstances. As we look into the future, the requirements for naval 
forces to maintain presence, engage allies and potential coalition 
partners, build understanding and operational relationships for the 
future, relentlessly pursue terrorist organizations, and project 
sustainable forces ashore for a wide variety of operations will only 
increase. We must continue to improve our ability to use the sea and 
our maritime superiority in order to gain access, to reinforce and 
defend allies, aid victims of catastrophic disaster, or defeat 
aggressors.
    As an element of our joint power projection capability, forcible 
entry is a core competency that the Navy-Marine Corps team provides to 
joint force commanders. Our ability to use the sea as maneuver space, 
to provide us with overwhelming strategic mobility, and to protect us 
from the majority of challengers must remain one of our asymmetric 
advantages. It ensures that any adversary must devote considerable 
resources and time in attempting to deal with our unique ability to 
hold the length and depth of his coastline at risk, while he considers 
his military--even political--options. As we increase our investment in 
non-traditional capabilities, we will continue to transform the means 
by which the Nation projects offensive, defensive, sustainment, and 
command and control capabilities from the freedom of the high seas.
    Amphibious and Maritime Preposition Force Capability.--To this end, 
amphibious and maritime prepositioned force capabilities remain the 
critical factors necessary to fully realize this essential warfighting 
capability for the Nation. Naval forces must maintain the ability to 
rapidly close, effectively employ, and sustain a persistent military 
force from the sea, thereby willfully projecting power ashore. The 
Marine Corps warfighting requirement for forcible entry amphibious 
shipping remains the ability to lift the assault echelon of three 
Marine Expeditionary Brigades, fiscally constrained to 2.5. In 
addition, our proven maritime prepositioned ships--capable of 
supporting the rapid deployment of three Marine Expeditionary Brigades 
are an important complement to our amphibious capability. Combined, 
these capabilities enable the Marine Corps to rapidly react to a crisis 
in a number of potential theaters and the flexibility to employ forces 
across the battlespace.
    Seabasing Concept.--Seabasing is our overarching operating concept 
for using the sea as maneuver space. This transformational concept 
breaks down the traditional sea-land barrier. It will enable us to 
project naval, joint, and combined forces anywhere in the world. 
Recognized as a key future joint military capability, Seabasing assures 
joint access by leveraging the operational maneuver of forces on the 
sea and by reducing dependence upon fixed and vulnerable land bases. 
This concept will provide our Combatant Commanders with unprecedented 
versatility in operations spanning from cooperative security to major 
combat. A Department of the Navy requirements study planned for this 
year will identify the necessary naval capabilities and requirements 
for Seabasing--particularly with regard to amphibious and pre-
positioned shipping, connectors, fires, and other necessary support. We 
are also leading the development of a Seabasing Joint Integrating 
Concept to better consider opportunities and options for each of the 
Services to exploit our command of the sea.
Programs
    The following is a summary of programs to achieve these concepts, 
requirements and capabilities:
    Maritime Prepositioning Force (Future) (MPF(F)).--The MPF(F) will 
be a key enabler for sea-based operations. It will allow us to better 
exploit the sea as maneuver space to conduct joint operations at a time 
and place of our choosing. MPF(F) will enable four new capabilities: 
(1) at-sea arrival and assembly; (2) direct support of the assault 
echelon of the amphibious task force; (3) long-term, sea-based 
sustainment; and (4) at-sea reconstitution and redeployment. These 
capabilities will be invaluable in supporting forward engagement, 
presence, and relationship building operations with allies and 
potential coalition partners by our forward deployed forces as well as 
through support to disaster relief and humanitarian operations. During 
the combat phases of a joint campaign, these platforms as element of 
the seabase will deliver and support the rapid reinforcement by a 
single Marine Expeditionary Brigade as well as key support to the 
Marine Expedition Force and elements of the joint force from the sea. 
Additionally, these flexible assets can remain in support of post-
conflict activities and forces from a relatively secure location at 
sea. The specific ship mix and number of Maritime Prepositioning Force 
(Future) ships are yet to be determined, but the final mix will be 
capable of prepositioning critical equipment and 20 days of supplies 
for our future Marine Expeditionary Brigades in each Maritime 
Prepositioning Squadron.
    Landing Platform Dock (LPD).--The LPD 17 San Antonio class of 
amphibious ships represents the Department of the Navy's commitment to 
a modern expeditionary power projection fleet. The lead ship was 
successfully launched in July 2003 and production efforts are focused 
on meeting test milestones for a summer 2005 delivery. The LPD 17 class 
replaces four classes of older ships--the LKA, LST, LSD 36, and the LPD 
4--and is being built with a 40-year expected service life. The LPD 17 
class ships will play a key role in supporting the ongoing Global War 
on Terror by forward deploying Marines and their equipment to rapidly 
respond to crises abroad. Its unique design will facilitate expanded 
force coverage and decreased reaction times of forward deployed Marine 
Expeditionary Units. In forcible entry operations, the LPD 17 will help 
maintain a robust surface assault and rapid off-load capability for the 
Marine Air Ground Task Force far into the future.
    Landing Helicopter Assault (Replacement) (LHA (R)).--Our Tarawa-
class amphibious assault ships reach the end of their service life 
during the next decade (2011-2015). An eighth Wasp-class amphibious 
assault ship is under construction and will replace one Tarawa-class 
ship during fiscal year 2007. In order to meet future warfighting 
requirements and fully capitalize on the Navy's investment in aviation, 
ships with enhanced aviation capabilities will replace the remaining 
LHAs. The LHA(R) will support requirements in the larger context of 
Joint Seabasing, power projection, and the Global War On Terror. The 
first ship, LHA(R) Flight Zero, is a transitional ship to the 
succeeding ships in the class that will be transformational in 
capability and design--interoperable with future sea-basing ships and 
platforms that will better support and take advantage of our investment 
in the MV-22 and Joint Strike Fighter. This lead ship is currently in 
the capabilities development stage of the acquisition process with 
advanced procurement funds provided in the fiscal year 2005 budget.
    High Speed Connectors.--The Joint High Speed Vessel will address 
Combatant Commanders' requirements for a forward deployed rapid force 
closure capability. Army, Marine Corps and Navy programs were recently 
merged into a Navy-led program office with an acquisition strategy 
intended to leverage current commercial fast ferry technology. We are 
pursuing an aggressive research and development effort to enhance our 
capability to conduct ship-to-ship transfers of personnel and 
equipment. Capitalizing on lessons learned in recent operations, United 
States European Command's Exercise AFRICAN LION 05 is being planned to 
explore the capability of high speed connectors to facilitate 
reception, staging, onward movement and integration of forces. To meet 
the Combatant Commanders' high-speed intra theater lift requirements, 
we are investigating ways to continue leases of foreign-built vessels 
until U.S.-built ships are available. HSC-2 Swift and Westpac Express 
enabled the Third Marine Expeditionary Force to expand training and 
engagement in the western Pacific while increasing training time. They 
are currently being used in support of tsunami relief operations in the 
Indian Ocean. HSC-2 Swift provides a research and development test bed 
and serves as an operational platform in support of contingency 
response requirements. Contract awards for new vessels are expected in 
fiscal year 2008 with delivery in 2010.
    MV-22 Osprey.--The MV-22 remains the Marine Corps' number one 
aviation acquisition priority. The Osprey's increased range, speed, 
payload, and survivability will generate transformational tactical and 
operational capabilities. The superior mobility of the MV-22 allows the 
sea-based force to bypass enemy strengths and anti-access measures, 
attack vulnerabilities, and contribute substantially to the operational 
agility necessary to establish advantages of dominant maneuver. Ospreys 
will replace our aging fleets of CH-46E Sea Knight and CH-53D Sea 
Stallion helicopters beginning in fiscal year 2007 and provide both 
strategic and tactical flexibility to meet emerging threats in the 
Global War on Terror. Utilization rates far above peacetime rates and 
the physical demands of continuous operations in the harsh conditions 
of Iraq and Afghanistan are accelerating the deterioration of aircraft 
and increasing operating costs. The combination of these factors makes 
a timely fielding of the MV-22 necessary.
    Short Take Off Vertical Landing Joint Strike Fighter (STOVL JSF).--
The STOVL JSF will be a single engine, stealthy, supersonic, strike-
fighter capable of short take-offs and vertical landings. The aircraft 
was designed to replace the current F/A-18 and AV-8B with an affordable 
platform that optimizes Marine Corps Tactical Aircraft (TacAir) 
missions through improved survivability, lethal precision engagement 
capability, and supportable expeditionary operations. The STOVL 
aircraft is capable of operating from amphibious ships, aircraft 
carriers, and austere sites. It is designed to survive in the future 
battlespace because of a reduced radio frequency and infrared 
signature, on-board sensing and countermeasures, and agile combat 
maneuverability. Able to perform offensive air support, destruction of 
enemy air defense, armed reconnaissance, and control of aircraft and 
missiles missions, the Joint Strike Fighter will counter existing and 
emerging threat systems at extended ranges providing a highly 
effective, flexible, responsive capability.
    H-1 (AH-1Z/UH-1Y).--The current fleet of AH-1W attack helicopters 
and UH-1N utility helicopters continue to perform superbly in the 
Global War on Terror. High demand for their capabilities in a harsh 
environment is highlighting known deficiencies of these aging 
helicopters--particularly with regard to crew and passenger 
survivability, payload lift, power availability, endurance, range, 
airspeed, maneuverability, and supportability. The Department of the 
Navy determined that the H-1 Upgrade Program is the most cost-effective 
alternative for the Marine Corps' attack and utility helicopter 
requirements. The H-1 Upgrade Program is a key modernization effort 
designed to resolve existing safety deficiencies, enhance operational 
effectiveness of both the AH-1W and the UH-1N, and extend the service 
life of both aircraft. Additionally, the commonality gained between the 
AH-1Z and UH-1Y (84 percent) will significantly reduce life-cycle costs 
and logistical footprint, while increasing the maintainability and 
deployability of both aircraft. In October 2003, the program entered 
initial low-rate production. A follow-on low-rate production commenced 
in February 2005, and Operational and Evaluation testing is planned to 
begin in July 2005. Due to aircraft attrition in operations supporting 
the Global War on Terror, we are pursuing funding for a ``build-new'' 
strategy for additional AH-1Z and UH-1Y aircraft, in order to prevent 
inventory shortfalls that would be unacceptable in light of current and 
expected operational commitments. We appreciate the subcommittee's 
support by approving our request to reprogram non-recurring engineering 
funding of the UH-1Y Build-new program.
    Heavy Lift Replacement (HLR).--The HLR will replace our aging fleet 
of CH-53E Super Stallion helicopters to fulfill the Marine Corps' 
vertical heavy lift requirement. The aircraft will provide required 
capabilities, not resident in any other platform, to insert and sustain 
a credible sea-based force. The HRL will transport 27,000 pounds to 
distances of 110 nautical miles under most environmental conditions. 
Its payloads will include armored combat vehicles or two armored High 
Mobility Multi Wheeled Vehicles per sortie. To sustain the force, the 
HLR will transport three independent loads tailored to individual 
receiving unit requirements and provide the critical logistics air 
connector to facilitate sea-based power projection operations. This 
reliable, cost-effective heavy lift capability will address critical 
challenges in maintainability, reliability, and affordability found in 
present-day operations supporting the Global War on Terror.
    Vertical Unmanned Air Vehicles (VUAV).--Unmanned Air Vehicles (UAV) 
have played a critical role in recent operations, and they are also a 
key element of our transformation. We are pursing the replacement of 
our almost 20-year old Pioneer UAV systems--which are currently flying 
at almost ten times the normal peacetime rate--with the Eagle Eye tilt-
rotor VUAV beginning in fiscal year 2009. The Eagle Eye platform is 
being developed by the Coast Guard, and spiral development of the 
program will achieve the speed, range, payload, survivability, 
reliability, interoperability, and supportability required by our 
Marines well into the future. Our intended procurement of a common Air 
Force, Army, and Marine Corps UAV ground control station will enhance 
cost efficiency and interoperability of the system.
    Expeditionary Fighting Vehicle.--The Expeditionary Fighting Vehicle 
(EFV), our priority ground program, will provide Marine surface assault 
elements the operational and tactical mobility to exploit fleeting 
opportunities in the fluid operational environment of the future. 
Designed to launch from amphibious ships from over the horizon, the EFV 
will be capable of carrying a reinforced Marine rifle squad at speeds 
in excess of 20 nautical miles per hour in a significant wave height of 
three feet. This capability will reduce the vulnerability of our naval 
forces to enemy threats by keeping them well out to sea while providing 
our surface assault forces mounted in EFVs the mobility to react to and 
exploit gaps in enemy defenses ashore. Once ashore, EFVs will provide 
Marine maneuver units with an armored personnel carrier designed to 
meet the threats of the future. With its high-speed land and water 
maneuverability, highly lethal day/night fighting ability, enhanced 
communications capability, advanced armor and nuclear, biological, and 
chemical collective protection, the EFV will significantly enhance the 
lethality and survivability of Marine maneuver units and provide the 
Marine Air Ground Task Force and Expeditionary Strike Group with 
increased operational tempo across the spectrum of operations. 
Beginning in fiscal year 2010, the EFV will replace the aging Assault 
Amphibious Vehicle (AAV) that has been in service since 1972.
    Ground Indirect Fires.--As events in Iraq and Afghanistan have 
demonstrated--and suggest for the future--the increased range and speed 
of expeditionary forces and the depth of their influence landward has 
increased and will continue to do so. In addition, the complementary 
capabilities of surface- and air-delivered fires continue to be 
highlighted in ongoing combat operations in Operation ENDURING FREEDOM 
and Operation IRAQI FREEDOM. The importance of both precision and 
volume fires is critical to the lethality and survivability of Marine 
forces. Precision fires assist in reducing both collateral damage and 
the demands on tactical logistics. Marine combat forces continue to 
validate the requirement for volume fires in support of maneuver 
warfare tactics. These fires allow maneuver forces to take advantage of 
maneuver warfare opportunities before precision intelligence can be 
developed and precision fires can be employed against fleeting targets 
or rapidly developing enemy defensive postures. The Marine Corps will 
address the need for complementary fire support capabilities through 
procurement of a triad of ground-based indirect fire support systems, 
and support for acquisition of Naval aviation and surface fire support 
capabilities.
    The new M777A1 lightweight howitzer completed operational testing 
in November 2004. It will replace M198 howitzers in the Marine Corps, 
as well as the M198s in Army Airborne, Light Units, and Stryker Brigade 
Combat Teams. The howitzer can be lifted by the MV-22 and CH-53E 
helicopters and is paired with the Medium Tactical Vehicle Replacement 
truck in the Marine Corps for improved cross-country mobility. The 
M777A1, through design innovation, navigation and positioning aides, 
and digital fire control offers significant improvements in lethality, 
survivability, mobility, and durability over the M198 howitzer. 
Delivery to the Marine Corps of low rate initial production howitzers 
began in December 2004. A full rate production decision is expected in 
February 2005, and full operational capability in the Marine Corps is 
planned for fiscal year 2009.
    The High Mobility Artillery Rocket System (HIMARS) fulfills a 
critical range and volume gap in Marine Corps fire support assets by 
providing 24-hour, all weather, ground-based, General Support, General 
Support-Reinforcing, and Reinforcing indirect precision and volume 
fires throughout all phases of combat operations ashore. HIMARS will be 
fielded to one artillery battalion of the active component and one 
battalion of the Reserve component. An interim capability of one 
battery is planned during fiscal years 2005-2006. An initial 
operational capability is planned for fiscal year 2007 with a full 
capability expected during fiscal year 2008.
    The Expeditionary Fire Support System (EFSS) is the third element 
of the triad of indirect fire support systems. It will be the principal 
indirect fire support system for the vertical assault element of a 
Marine Expeditionary Unit (Special Operations Capable). The EFSS is a 
towed 120 mm mortar paired with an Internally Transported Vehicle, 
which permits the entire mortar/vehicle combination to be internally 
transported aboard MV-22 and CH-53E aircraft. EFSS-equipped units will 
provide the ground component of a vertical assault element with 
immediately responsive, organic indirect fires at ranges beyond current 
infantry battalion mortars. Initial operational capability is planned 
for fiscal year 2006 and full operational capability is planned for 
fiscal year 2008.
    DD(X) Land Attack Destroyer.--The DD(X) Land Attack Destroyer will 
provide both precision and volume fires to supported ground forces 
ashore. The planned 155 millimeter Advanced Gun System (2 per ship) 
will provide increased firepower range and lethality over currently 
available naval guns through its associated Long Range Land Attack 
Projectile. This combination of gun and projectile will enable target 
engagement up to 83 nautical miles from the ship with precision 
accuracy. Each ship will be designed to carry 600 long range land 
attack projectiles. Additionally, long-range strike options are 
provided through use of Tomahawk Land Attack Missiles from the ship's 
Peripheral Vertical Launch Systems. The DD(X) will provide Marine and 
joint force commanders with an immediately responsive, sustainable, 
lethal fire support capability at ranges in support of current and 
future operating concepts. Initial operational capability is planned 
for fiscal year 2013.
Initiatives
    The following key initiatives will increase our flexibility and 
required warfighting capabilities:
    USMC/US Special Operations Command Initiatives.--Ongoing operations 
in support of the Global War on Terror highlight the interdependence in 
the battlespace between Marine Corps operating forces and Special 
Operation Forces. Initiatives directed at improving the manner in which 
the Marine Corps and U.S. Special Operations Command (USSOCOM) operate 
together fall into three broad categories: people, equipment, and 
training. The Marine Corps and USSOCOM continue to assess current and 
future personnel exchanges to enhance respective warfighting 
capabilities. Recently, the Marine Corps initiated formation of three 
Foreign Military Training Units to assist USSOCOM with this critical 
military cooperation mission. Compatibility of equipment is another key 
ingredient to our successful relationship. A number of collaborative 
efforts, from the Internally Transportable Vehicle to the MV-22, 
demonstrate the commitment to compatibility and efficiencies gained 
through joint acquisition. Lastly, we continue to improve our 
relationship through pre-deployment training, which materially 
contributes to battlefield success. Despite current operations tempo, 
our forces are making great strides.
    Tactical Air Integration Initiative.--Naval Tactical Aircraft 
(TacAir) Integration is a program that allows all Naval Strike-Fighter 
aircraft to meet both Services' warfighting and training requirements. 
Marine Fighter-Attack squadrons are deploying with carrier air wings 
aboard aircraft carriers, and Navy Strike-Fighter squadrons are being 
assigned to the Marine Corps' Unit Deployment Program for land-based 
deployments. Force structure reductions associated with this plan and 
the fielding of the Joint Strike Fighter should result in a total cost 
savings and cost avoidance of over $30 billion.
    TacAir Integration retains our warfighting potential and brings the 
Naval Services a step closer to the flexible sea based force satisfying 
all Global War on Terror, Global Naval Force Presence Posture, and 
Operation Plan requirements. A leaner, more efficient Naval fighter/
attack force is possible through ``Global Sourcing''--the ability to 
task any Department of the Navy squadron to either Service's mission. 
This concept is enabled by maintaining a ``Level Readiness'' posture 
through alignment of resources to operational and training 
requirements.
    Experimentation.--Rigorous experimentation, assessment, and 
analysis are the primary mechanism for fostering innovation. 
Experimentation is vital to provide valuable information that 
determines the extent that concepts and force development strategies 
need revision. The Marine Corps works closely with our sister Services 
and the Joint Forces Command in fostering the creation of new concepts, 
refining them in the experimentation crucible, and aligning the efforts 
of Combatant Commanders, Services, interagency, multi-national, and 
industry partners. We believe experimentation is the foundation for all 
new joint concept recommendations.
    The Marine Corps Combat Development Command has realigned its 
experimentation program around the Sea Viking Campaign. The insights 
gathered from Sea Viking are essential in determining potential joint 
force capabilities required for the conduct of forcible entry 
operations from a sea base. Our experimentation efforts will continue 
as we explore new and emerging technologies to address the interface 
challenges of transferring personnel and equipment utilizing sea base 
connectors and maritime prepositioned ships. In addition, the Marine 
Corps continues to conduct vital experimentation with non-lethal 
weapons due to the nature of conflict and its proximity to non-
combatants. Although lethal force is necessary to wage successful war, 
we have learned that it is not always appropriate for winning the 
peace. As we field these important new tools for operating in adverse 
environments where combatants and non-combatants are often 
intermingled, we are also assessing new options that will assist us in 
accomplishing our mission while minimizing unnecessary loss of life, 
injury, and damage to property. Research and vital experimentation 
continue as we evaluate new technologies to refine our capability 
needs.
    Sea Swap.--Sea Swap is a concept for gaining efficiencies in 
forward deployed naval forces. The concept extends ship deployment to 
12 to 24 months, while rotating crews and embarked personnel on shorter 
periods, generally 6 months. Deployed forces increase on-station 
forward presence by reducing steaming time from homeport to fleet 
operating areas. The Marine Corps is committed to developing and 
testing the Sea Swap concept. While current operational tempo precludes 
us from dedicating a Marine Expeditionary Unit to Sea Swap 
experimentation in the near future, we are continuing analytical work 
in conjunction with the Navy to thoroughly examine the concept to 
identify benefits and risks. As our operational tempo normalizes, we 
anticipate developing a phased training approach that will experiment 
with elements of the concept that apply to a Marine Expeditionary Unit.
    Expeditionary Strike Groups.--The Navy-Marine Corps team has 
completed deployments of several Expeditionary Strike Groups (ESG) to 
the U.S. Central Command area of responsibility. The ESG combines the 
capabilities of surface combatants, a submarine, and a tethered 
maritime patrol aircraft with those of an Amphibious Ready Group and 
Marine Expeditionary Unit (Special Operations Capable) to provide 
greater combat capabilities to regional combatant commanders. Current 
operations have precluded us from conducting further testing to make 
key decisions about doctrine, organization, training, and leadership. 
Future proof of concept deployments will assist us in determining the 
way ahead for the ESG.

                             INFRASTRUCTURE

    The Marine Corps continues to make wise use of constrained 
resources in operating and maintaining its infrastructure. This is 
being accomplished by balancing new construction with demolition of 
inadequate or unsafe facilities, use of sustainment metrics in 
maintaining the structures we have, reduction in energy consumption, 
and use of better business practices. Long term planning is also being 
used to ensure our installations evolve and transition in step with our 
operating forces. The end state of these on-going efforts is support of 
combat ready Marines and their families.
Corps Better Business Practices
    Marine Corps Business Enterprise.--The Business Enterprise Office 
is charged with the mission of improving the Corps' business practices. 
The recently approved Business Enterprise Strategic Plan is designed to 
guide end-to-end assessment and improvement of Marine Corps business 
processes through fiscal year 2012. It incorporates regionalization, 
competition, divestiture, elimination of low-value activities and 
services, continuous process improvement, and investment in training 
our Civilian Marine workforce to facilitate transforming the Marine 
Corps into a performance based organization in support of the 
warfighter. The plan establishes a savings goal for the Program 
Objective Memorandum 2008 period that culminates in $200 million annual 
savings across all business processes and frees 1,700 Marines for 
reassignment to warfighting requirements.
    Regionalization of Bases and Stations.--The Marine Corps is 
transforming its bases from singularly managed and resourced entities 
to ones strategically managed in geographic regions. Our goal is to 
position our installations to be more effective and consistent 
providers of support to the warfighter and will use the Marine Corps 
Business Enterprise and other initiatives to do so. Our regions will 
reach initial operational capability during fiscal year 2005 and full 
operational capability during fiscal year 2006.
    Public Private Venture.--Efforts to improve housing for Marines and 
their families continue. Thanks to Congressional action last year that 
eliminated the budgetary authority cap on Public Private Venture 
investments in military family housing, the Marine Corps remains on 
track to meet the Strategic Planning Guidance goal to eliminate 
inadequate housing by 2007.
    Force Structure Review Initiative Facility Requirements.--
Implementation of the approved force structure review initiatives 
includes facilities construction requirements to support rapid and 
significant force structure changes. New force structure that must be 
supported includes infantry, reconnaissance and intelligence units in 
the active component, and reconnaissance, anti-terrorism, and an 
intelligence unit in the reserves. Your support for the acquisition of 
facilities needed to support the standup of these units is appreciated.
    Encroachment.--The Marine Corps has been successful in using the 
land-space buffering tool Congress provided the armed services in 2003 
to protect areas in proximity to military lands from incompatible 
development. We are participating in conservation forums with land 
conservators, city and county planners, and open land advocates in 
communities where our training ranges are located. One of the goals is 
to preserve open space and endangered species habitat in those areas as 
well as deter potential incompatible development near our 
installations. These projects are ongoing at most of our installations.
    Last year's Defense Authorization Act also amended the Endangered 
Species Act to allow the Secretary of the Interior to accept Integrated 
Natural Resources Management Plans as suitable substitutes for critical 
habitat designation. The Marine Corps is using this legislation to 
protect and enhance populations of these species while continuing to 
conduct essential training.

                                 SAFETY

    Effective safety programs are vital to force protection and 
operational readiness. Marine leaders understand the importance of 
leadership, education, and accountability in the effort to reduce 
mishaps and accidents. As a result of actions taken and programs 
implemented, fiscal year 2004 mishap fatalities were driven downward 
from the previous fiscal year. Operational mishap fatalities during the 
same period were also significantly reduced. Although Aviation mishaps 
trended upward during fiscal year 2004, Marine Aviation is working 
myriad initiatives to improve our aviation safety performance this 
fiscal year. Additionally, we saw a reduction in mishap fatalities 
(fatalities not resulting from enemy action) in Operation IRAQI FREEDOM 
II from Operation IRAQI FREEDOM I. Our leadership is energized at every 
level. From the Executive Safety Board's leadership initiatives, to the 
introduction of mentorship programs at the unit level and driver's 
improvement in recruit training, we are actively involved in the effort 
to safeguard our most precious assets--our Marines and Sailors.

                               CONCLUSION

    In conclusion, let me emphasize that your Marines, as shown in 
recent battles like Fallujah, are courageous and fully dedicated to 
whatever sacrifice is required to protect this Nation. Their bravery, 
sacrifice, and commitment to warfighting excellence have added new 
chapters to our Corps' rich legacy. Your Marines recognize they have an 
essential mission. They know that they are well equipped, well led, 
well trained, and have the solid backing of the American people. The 
Marine Corps fully understands that our greatest contribution to the 
Nation is our high-level of readiness--across the spectrum of conflict. 
With your continued support, we will ensure that your Marines, their 
equipment, their training, and our organization are ready for any 
potential contingency. Marines and their families greatly appreciate 
the unwavering support of Congress in achieving our high level of 
success.

    Senator Stevens. Thank you very much, General, Admiral, Mr. 
Secretary.
    We've heard some interesting testimony so far this year. 
I'll not forget the photograph we had of the young Army person, 
who had parachuted into Iraq, carrying, on his back, more than 
I weigh. And we think we're dealing with just an enormously 
capable generation of volunteers, who are just doing this 
magnificent job, that they certainly will go down in history as 
being the most--really, the greatest generation. There's only 
five of us left in this Senate from World War II days. None of 
us could have carried that load. Days are different now, and we 
congratulate you very much for what you're doing, all of you, 
with the military.

                              SHIPBUILDING

    Admiral Clark, as I indicated, at least I, and I'm sure my 
co-chairman, feel that we're sort of in a box now with 
shipping. Some of our colleagues want to have a process called 
advanced appropriations, and increase advanced appropriations, 
but then tie that down only for shipping for the future. It's 
sort of like preplanning the budget. I understand what you say 
about needing some assistance to develop a new concept. I wish 
we could have war bonds and have people buy them and understand 
they're putting up money to refurbish the military, and let us 
pay them off over a period of years. That might work. But these 
advanced appropriations worry me. Is this a--is this something 
that you have suggested, Admiral?
    Admiral Clark. Mr. Chairman, in the 5 years that I've been 
here, I've brought several different proposals forward to try 
to move ahead in this area, but the common--of all the 
features--and I believe that we have to look at a combination 
of features--of all the features that I believe will be 
beneficial is a level-funding approach. I do not believe that 
advanced appropriations, viewed as some sort of a short-term 
windfall, is the answer to our problem. In fact, because, when 
we fully fund a ship today, we spend just a very small 
percentage of that money in the first year of the program--
between 6 and 10 percent we might spend in the first year--some 
people have viewed advanced appropriations as a windfall. But 
that will not work.
    It is going to take a combination of features. And that's 
why I talked, in my opening testimony, about multi-year 
contracts and aggressive use of R&D. I believe advanced 
appropriations could play a role, but that alone will not solve 
the problem.

                          SHIP FORCE STRUCTURE

    Senator Stevens. As you look at the force now, how many 
ships do you have, compared to how many you had when you became 
CNO?
    Admiral Clark. I have, this morning, 290 ships, and I had 
about 310--I'd have to validate the number, but about 310 when 
I got here. And, by the way, Mr. Chairman, you can count me 
guilty for accelerating the decommissioning of some of the 
older ships that, in my view, were no longer providing the kind 
of capability that we needed, and that we need to redirect 
those resources to the future. I recommended that to the 
Secretary. He bought my proposal. And let me tell you how 
painful that is. Next week, I'm going to go down and 
decommission the class leader of the Spruance class--and I 
commanded it. You know, this is personal.
    But my view was that it no longer did the kind of things we 
need for our ships to do. And so, I took out the whole class, 
31 of them, early, with the whole idea to redirect those 
resources.
    And I would like just to be on record that this Department 
has worked aggressively to try to run this Department in the 
most effective and efficient way. My Secretary taught me to say 
``effective first, and efficiencies would follow.'' There are 
over $50 billion worth of cost avoidance and savings in this 
FYDP that has been submitted by the Navy Department.
    We're doing everything we can to redirect, but, when it 
shows you the spiraling, accelerating costs in programs--as 
numbers fall down, we're not keeping up. And so, now, today, 
when I buy an aircraft carrier, and I have to pay for it all in 
1 year or 2 years, it takes an incredible divot out of the rest 
of my structure, and it's having an extraordinarily negative 
impact on our financial posture.

                         U.S.S. JOHN F. KENNEDY

    Senator Stevens. Well, Mr. Secretary, what's it going to 
take to change this around? Let me first ask, Are you going to 
be terribly disturbed if we tell you to keep the Kennedy where 
it is?
    Secretary England. Yes, sir, we would be terribly disturbed 
to keep the Kennedy where it is. First of all, the money is out 
for the Kennedy; it's not in our budget. So if we have to keep 
the Kennedy, then something else has to go. So we don't have 
the money in the budget for the Kennedy. It's gone. It's $1.2 
billion. The Kennedy is, by the time it comes--it's in an 
overhaul right now. It'll be 40 years old. And it's an old 40 
years old; it's never been through a major upgrade. It was a 
reserve carrier. So we've always had expense and issues keeping 
the Kennedy properly maintained, frankly. So it's expensive for 
us, and it's of marginal capability.
    As the CNO said, our carriers today are at least four times 
more capable than they were during Desert Storm. We're about to 
double this capability by 2010. Frankly, it's probably even 
more than that. At a minimum, I would say, that's the 
capability. As we bring on new airplanes, more precision 
weapons, and our new carriers, which have even more sortie 
rates when the CVN-21 and that class comes along--frankly, we 
do not need this carrier. And we have talked in past years 
about how many carriers did we need. We've actually thought, 
prior to this year, about taking out a carrier.
    So we fully support taking out the Kennedy. And, Mr. 
Chairman, if we're required to keep the Kennedy, then we're 
going to have to take money out of someplace else, because we 
do not have the money to keep the Kennedy.
    Senator Stevens. Well, I don't want to say this wrong. Once 
I said on the floor that I was half Scots and--one of my 
friends in the House said, ``That Senator just went out and 
admitted he was half full of Scotch.'' I am half Scots. So 
you've just paid for this overhaul. If I did that to my car, at 
least I'd keep it for awhile.
    Secretary England. No, sir.
    Senator Stevens. Why did we have an overhaul on this and 
then want to pull it out of service when it comes out of 
overhaul?
    Admiral Clark. No, I'm sorry, Mr. Chairman, we have not--it 
is scheduled for an overhaul. That is, it is scheduled now to 
be down until late 2007. We are not going to do that overhaul. 
And the fact is, this week we plan to redirect that money to 
other ships that need maintenance in the Department of the 
Navy.
    Senator Stevens. I beg your pardon. I was informed it was 
in overhaul. It's not in overhaul now?
    Secretary England. No, sir, it's not. It is scheduled to go 
into overhaul. So we will not do that.
    Senator Stevens. How much useful life does it still have?
    Secretary England. Well, typically we keep our carriers 
about 50 years. When it comes out of overhaul, it'll be 40 
years old, so it'll have about 10 years of life when--if we 
were to go into overhaul and keep the Kennedy, by the time it 
came out of overhaul it would have about 10 years of useful 
life.
    Admiral Clark. Can I piggyback on that, Mr. Chairman?
    Senator Stevens. One more answer. Just tell me this. We're 
both from the Pacific. Aren't we losing our carrier for the 
Pacific when you have the rest of them over there involved in 
the war against terrorism?
    Secretary England. No, sir. When we look at the war plans, 
and when we look at what we anticipate in the Quadrennial 
Defense Review (QDR) with 11 carriers, we can meet the 
Combatant Commander (COCOM) requirements. And, frankly, it 
looks like we can do that as long as, you know, we can project 
into the future. That's the maximum size force we need.
    I will tell you, it's not evident to me that it'll always 
stay at 11. As this capability increases, it's quite possible, 
frankly, the number of carriers could go down, because we will 
go to other type ships that utilize our short takeoff and 
vertical landing (STOVL) aircraft capability, smaller decks--
Amphibious Assault Ship Replacement (LHA(R)), for example; it 
will carry a lot of STOVL airplanes, which also give us 
striking power. So I think, in the future, you're going to see 
a different mix of capability, and you're probably talking the 
top side of our carrier force at 11.
    Senator Stevens. I cut you off, Admiral. Did you have 
something to say?
    Admiral Clark. Just to say that we are designing our 
nuclear carriers to live for 50 years, but they have an 
entirely different maintenance structure than we had when we 
put the JFK in commission. And we did not do a midlife Service 
Life Extension Program on the Kennedy. So 50 years would be a 
great stretch for that platform. It was not designed to be 50 
years when we built it. And so, 40 years would be--and what we 
have already, 37 years of utilization out of this platform, is 
in the ballpark for what we envisioned we would get when we 
built the ship. Today, our standards are higher, and we're 
seeking to get more utility out of the investment.
    Senator Stevens. Thank you. I'll come back again.
    Senator Inouye?

                              BATTLESHIPS

    Senator Inouye. Mr. Secretary, I don't suppose you 
anticipated this question. Four battleships were built after 
World War II. They served in Korea and Vietnam. And beginning 
in 1981, they were reconditioned and refurbished. They carried 
cruise missiles and electronic equipment. Some of my colleagues 
suggest that these ships should continue to be utilized. On the 
other hand, we have naval experts who suggest that they have 
exceeded their useful service life.
    With that thought in mind, we've heard some suggest that 
perhaps we need to bring them out of mothball to provide 
gunfire support for our forces going ashore. Do you have any 
views on that?
    Secretary England. Senator, I will tell you that that is 
absolutely not the plan of the Department of the Navy. And I 
would think that would be a huge mistake, to bring those ships 
out of mothballs. They would be hugely expensive, difficult to 
maintain, to train crews in both the maintenance and the 
operation. It would take a long time and, frankly, have very, 
very little utility. I think, just the opposite, we're trying 
to move into a new future, and not to hold onto the past from 
World War II. So I would tell you, in the strongest possible 
terms, that that would be a great mistake. And, by the way, 
those funds would be diverted from other ships we need to build 
and airplanes we need to build and marines we need to deploy.
    So, Senator, I would definitely not support that. I would 
think that would be harmful to the Department of the Navy. And 
I'd like to have the CNO comment, also.
    Admiral Clark. Senator, please don't let anybody do that.
    There is legislation that requires me to keep those 
battleships in a standby status. I support taking them out of 
that status.
    Here's what we know about the battleship. Extraordinarily 
costly to operate. A gun system that shoots a big round, but 
doesn't have the accuracy to even come close to dealing with 
the kind of precision warfare that we're talking about today. 
One Next Generation Destroyer (DD(X)) will put all of those 
battleships--would put 'em in the dust. And the reason is 
exactly the same kind of logic with using the Joint Direct 
Attack Munition (JDAM) in airplanes today. We know that we sent 
airplanes after a single bridge in Vietnam for months and 
months and months, and they never got it. And one JDAM would 
take it out, just like that.
    Today's world is so different with the precision effects 
that I do not need those battleships. They have cost a fortune, 
and they will not produce the kind of warfighting effect.
    Senator Inouye. I've heard your message.
    When you testified just a few moments ago, you said that 
the capability of our carriers has increased four times. Can 
you describe that?
    Admiral Clark. Well, we're talking now about precision and 
the weapons that we carry and the effects. And so, 10 years 
ago, when we were conducting operations in Desert Storm, the 
world, for the first time, saw precision elements going down 
smokestacks and so forth. And the Navy had a little bit of that 
capability, but now we are totally a precision force. And the 
force multiplication effect of that has increased our 
warfighting capability and combat effects by four times in the 
striking force. And what I'm saying is, we're going to double 
it again in the next 4 to 5 years. That's how rapidly we are 
moving toward the kind of improvements that change the face of 
warfare.
    Senator Inouye. Thank you.

                        MARINE CORPS RECRUITING

    General Hagee, for the first time in nearly 10 years, the 
Marine Corps has missed its recruiting target. I believe you 
missed it for the last 2 months. What initiatives are underway 
to get recruiting back on track?
    General Hagee. Senator, thank you for that question. We did 
miss our contracting monthly goal for December and January. We 
continue to ship--actually, we're ahead of schedule on shipping 
individuals to boot camp. And we're just about on the annual 
goal to make mission for this fiscal year.
    So, I'm a golfer. Not a very good golfer, but a golfer. And 
in December and January, we shot a bogey--two bogeys. But we 
shot several birdies before that. So we're just about at par 
right now, as far as our annual goal is concerned.
    But, as I said in my opening remarks, it is a tough 
environment out there. And it's--as I have testified before, 
it's primarily because parents are asking more questions now, 
and our recruiters are spending more time with the parents 
answering their questions before they're willing to advise 
their son or daughter to come in the Armed Forces. So we are 
putting more recruiters out on the street, and we are spending 
more time with the parents.
    Senator Inouye. Mr. Chairman, I have a few more questions, 
but I believe I have to go to the floor now.
    Senator Stevens. Yes, Senator. I do appreciate the fact 
that you have duty there. And I hope you'll come back when 
you're finished.
    Senator Inouye. I'll be back.
    Senator Stevens. Senator Mikulski, you're recognized for 7 
minutes.
    Senator Mikulski. Gentlemen, thank you very much for your 
testimony and these very candid answers to the questions.

                           BLOODSWORTH ISLAND

    I would like to begin with, first, a local question 
directed to Secretary England, and then perhaps Admiral Clark 
would like to answer it, and then go on to some questions about 
protecting our troops, our service people.
    Early in March, out of the blue, the Navy, at Pax River, 
announced that they were going to start doing military 
exercises on Bloodsworth Island, an island in the Chesapeake 
Bay. And they talked about flying, using bombs, using live 
ammunition, amphibious landings. And there was a sense that it 
was going to be like a Guadalcanal operation. The community is 
very concerned.
    All of you have been in Maryland--you've gone to school in 
Maryland, you know our resources, and you know we're Navy 
supporters. On the Chesapeake Bay, we have commercial shipping 
lanes, our famous watermen, and recreational boating. The 
community is really concerned, not about supporting the need 
for robust training, but the concern about safety with live 
ammunition, the disruption to lives, and the threat to 
livelihoods in the famous and fabulous Chesapeake Bay.
    Secretary England. Senator, first of all, my apologies. 
Obviously, there are a lot of misconceptions, and we obviously 
didn't handle that very well. And I'll ask the CNO to give you 
the detail. But we're not going to do any of those things on 
Bloodsworth Island. So I think that just got out of hand. I 
apologize. And I'll let the CNO, who had a lot of detail 
discussions last night, give you the specifics on that. But 
we're not going to have amphibious assaults and drop bombs and 
all those things on Bloodsworth Island. So I'll let the CNO 
give you more detail.
    Admiral Clark. It's a real privilege to be able to pass 
along this answer to you, Senator. First of all, the event is 
fundamentally a nonevent. Here's what happened. It turns out 
that Bloodsworth wasn't under the control of Naval Air Systems 
Command (NAVAIR) when they did its rounds of compliance and 
environmental assessments that were required under law in the 
late 1990s. And so, it came to their attention that in order to 
comply with the law, we have to go back and do an environmental 
assessment on property that we own.
    Senator Mikulski. That's right, and Senator Sarbanes has 
called for an environmental impact statement.
    Admiral Clark. Okay. And so, that's what this is. And in 
the context of conducting this assessment, they put, in the 
list of things to assess, all of the activity that had ever 
happened in the past.
    Now, let me make it real clear. There are no plans for any 
kind of increased operations on Bloodsworth.
    Senator Mikulski. So you don't intend to bomb it?
    Admiral Clark. No. That's correct.
    Senator Mikulski. You don't intend to land on it with live 
ammunition?
    Admiral Clark. There are no plans, and there will be no 
changes in the operational status of Bloodsworth.
    Senator Mikulski. Well, that's going to be great news to 
the community.
    Admiral Clark. Is that clear?
    Senator Mikulski. Admiral, I think that's very clear. I 
know that the Navy has scheduled a variety of public hearings 
or public information sessions. At the first public information 
hearing, they had a lot of little tables, as if they were going 
to give counseling services. I'm not being sarcastic here. 
Again, we appreciate this conversation. I really think that, 
for the other sessions that are scheduled around Dorchester 
County--remember, they fought off the British; they don't want 
to get into it with you--that there should really be a true 
public information hearing about what's called for. Because 
from accounts in the newspaper that I'm sure your very able 
staff has brought to your attention, it really sounded over the 
top for an exercise in the Bay.
    Admiral Clark. We were exercising in accordance with the 
rules that we have to do to conduct an electronic attack (EA). 
What we have been doing there is conducting non-ground impact 
operations, radar evaluations, those kinds of things.
    Senator Mikulski. No, no, we know that you've got to use 
it, and we want you to use it.
    Admiral Clark. I have no plans to change that.
    Senator Mikulski. But, Admiral, I would like to bring to 
your attention the Sun paper articles, so you know what the 
people are hearing, so then they can go back and do a better 
job of communicating.
    Admiral Clark. Understood.
    Senator Mikulski. Thank you.
    Secretary England. Our apologies, Senator. We didn't want--
you know, obviously we didn't want that to get that far out of 
the line, and sorry we got to that point. But, hopefully, just 
this hearing will clarify that, and hopefully the press will 
report that there is no change at Bloodsworth Island.

                    PROTECTIVE EQUIPMENT FOR MARINES

    Senator Mikulski. Well, this, then, comes back to the fact 
that we do need to have training for our military. And, of 
course, we need to protect our military so they can protect us. 
In your testimony--this, then, goes to what both the marines 
and the Navy need to protect the sailors, protect the marines--
in your testimonies, you outlined a variety of techniques that 
you're using to protect them, from Unmanned Aerial Vehicles 
(UAVs), these robots--could you share with me, number one, what 
you think are working, are there new things you would like to 
try, and do you have enough money to buy the equipment that you 
need to protect them--from technology to tourniquets--while 
they're carrying out the missions that we ask them, to perform?
    General Hagee. Senator, it's a very complex battlefield, 
both in Iraq and Afghanistan. And there's not one technology, 
there's not one tactic or one procedure that will guarantee 
success. It's really the combination of all of those.
    First off, on the money, I can tell you, thanks to the 
Secretary of the Navy, money has not been an issue. He has told 
us that, ``If you need the money, you've got it. If you find 
something that will work, either technologically or there's a 
tactic or a procedure, and it requires funding, don't worry 
about funding.'' So over the past 2 years, we have not. And we 
have not put a marine vehicle out in harm's way that did not 
have some armor on it. And over the past 1\1/2\ years we have 
continually improved the armor. In fact, right now we are 
putting on what we call a marine armor kit, a MAK. In many 
ways, it's actually better than the 1114, which is the factory-
built up-armored Humvee. By this summer, we will have all of 
our Humvees armored in that way. We have designed, and are 
putting on, a similar set of armor on our 7-ton trucks.
    Every marine, obviously, is wearing the Small Arms 
Protective Inserts (SAPI) plates and the flak vests. They are 
also wearing the new helmets. They're wearing eye-protective 
goggles. They have hearing devices that we have improved. The 
protection of our individual serviceman and our individual 
servicewoman is the highest priority that we have.
    Senator Mikulski. But I also presume you're doing R&D. This 
must weigh a lot. A ton weighs more than a ton if you're 
putting it on a Humvee or you're carrying it on your back.
    General Hagee. Yes, ma'am. We are doing R&D. And, as two of 
the members have mentioned, the weight is significant. We're 
doing a great deal of research with the United States Army on 
how to bring that weight down and provide at least as good, if 
not better, protection.
    Secretary England. Pardon me. Senator, also----
    Senator Stevens. The Senator's time has expired.
    Senator Mikulski. Thank you.
    Senator Stevens. Senator Cochran.
    Senator Mikulski. Well, we'd like to hear more about that.
    Thank you very much.
    Secretary England. We'll get back with you, Senator.
    Senator Stevens. Senator Cochran.
    Senator Cochran. Mr. Chairman, the Navy and Marine Corps 
provide essential pillars of our national security today, and I 
commend the outstanding job being done every day by our sailors 
and marines. The Marine Corps, particularly, has taken on some 
of the toughest tasks in Iraq and Afghanistan, and the results 
have been very impressive. So, I'm glad to be here today to 
thank you for your leadership of the Navy/Marine Corps team.

                              SHIPBUILDING

    As we look at the budget request for shipbuilding, in 
particular, there are some things that stand out to me, and 
that is that it's going to be very difficult for our 
shipbuilding industry to continue to maintain its capabilities 
and an expertise that we've come to depend upon, and probably 
take for granted. But to continue to maintain the capabilities 
of our shipbuilding facilities, we're going to have to provide 
a shipbuilding budget that permits these yards to carry on.
    Some of us think that we need to have a competitive 
environment, that yards in Maine and Mississippi right now are 
building the larger ships for the Navy and Marine Corps, and 
forgetting about the aircraft carriers for the time being, but 
talking about surface combatants. We hope to be able to 
continue to see that level of competition maintained. And 
there's some concern about that.
    My colleague, this morning, Senator Lott, is introducing 
legislation which would express the sense of Congress that we 
continue to maintain shipyards that can compete for these 
contracts. And that's a big challenge.
    I wonder if, this morning, you could give us any insight 
into how you see that capability being sustained with the 
shipbuilding budget request that's contained in the budget that 
you're here to defend this morning.
    Mr. Secretary?
    Secretary England. Senator, thanks for the opportunity to 
discuss this, because this is a critical question for the Navy 
and for our industrial base.
    First, I need to comment that, frankly, we have very little 
competition in the shipbuilding industry. I mean, we basically 
allocate our ships. We have certain yards, and they do certain 
ships, and that's where we are. And so, we do not have 
competition today, frankly. We allocate our ships, and most of 
our yards do one kind of ship. The only case where that's not 
the case is in Maine and down in Mississippi. Mississippi does 
a variety of ships. Maine does one type of ship, which is the 
destroyer.
    Our budget is down this year. I mean, last year we had a $9 
billion shipbuilding budget. This year, it's down to about $6.5 
billion. It goes back to $9 billion next year, and then 
continues to grow. And that's more than it was throughout the 
whole 1990s. And we have 40 ships, 38 under contract and 2 more 
about to be under contract, in the backlog. So there is a 
healthy backlog in the industrial base right now. And this 
year, as I said, was a planned down year, as we move into new 
capability.

                                 DD(X)

    I believe there's only one real issue in the industrial 
base, and that issue involves the DD(X). The DD(X) is the 
replacement for the DDG. We've been building Guided Missile 
Destroyers (DDGs) in large numbers, but we will be building 
DD(X) in small numbers, 8 to 12 total, and we will be building 
at 1 a year.
    So the dilemma we have is that, at one a year, it is not 
efficient to build those in two yards. If we do, our analysis 
says each ship will cost us $300 million more to build them in 
two yards. And, by the way, we just had the discussion on the 
Kennedy. When we take the Kennedy out, we save $300 million a 
year. And now we would basically spend it--if we had two yards, 
we'd just spend that $300 million a year to keep another yard 
building this ship. So having two yards is very costly to the 
Department of the Navy.
    Frankly, if we allocate ships, we don't get competition. 
The only way we can get competition is, frankly, to compete the 
DD(X) on the front end. That does give us competition, and that 
competition could, indeed, have long-term benefits to the 
Department of the Navy, because those companies would each have 
to respond to that competitive environment and, hopefully, be 
very innovative in their response to our solicitation.
    So this is an issue of affordability and allocation, versus 
competition. But it is a critical question, I understand, for 
the shipbuilders and for the Navy--but we are in the dilemma of 
either spending $300 million more a ship or competing those 
ships, and we have elected to compete, because, frankly, we 
don't have an extra $300 million a ship. If we keep paying more 
for our ships, then we buy less ships. If we buy less ships 
that cost more, then, frankly, we're in a death spiral. So, 
that's where we are, Senator.
    Senator Cochran. Thank you, Mr. Secretary.

                                 LHA(R)

    Admiral Clark, I understand that if additional funding is 
made available for shipbuilding, that the top item on the 
Navy's list is $417 million to accelerate the delivery of the 
LHA replacement amphibious ship. Could you share with the 
subcommittee your thoughts on this? Is this an accurate 
statement about what the Navy's intentions would be if 
additional money were made available?
    Admiral Clark. Mr. Chairman, I put that list together, and 
I put that in the place I did on the list to emphasize how 
important I think it is to get going and get started with one 
of the huge transformations in the Navy/Marine Corps team.
    Joint Strike Fighter is going to deliver for the Marine 
Corps. When it does, they need a ship that's going to be 
designed, from the ground up, to be more air capable, to reap 
the harvest of the multi-billion dollar investment we're going 
to take with Joint Strike Fighter. So, I was, frankly, 
disappointed last year that we were not able to move along at a 
faster pace. So that's the reason I put that in its place.
    Equal to it, I would say, although it doesn't show it by 
the list, is moving forward as rapidly as we can with the 
Littoral combat ship. And I believe that we need to move 
forward rapidly in the maritime pre-positioning force of the 
future. And, in fact, we're looking at ways that we can get 
involved in some experimentation. The three of us have held 
meetings to try to see how we could accelerate that process. We 
believe this produces the kind of force in the future that our 
Nation is going to need.
    So, that representation is an indicator of how important I 
think that move is.
    Senator Cochran. Thank you.
    Senator Stevens. Senator Domenici, you're recognized for 7 
minutes.
    Senator Domenici. Thank you, Mr. Chairman.
    First, I want to say it's a privilege to be here with all 
of you.
    I want to say to you, Admiral, I understand that you may be 
retiring this summer. I wish it wasn't so, but I guess that's 
the way it is. We owe you a real debt of gratitude for your 
great service; in particular, this last part of your life, when 
you've undertaken this tremendous job of transforming the Navy. 
I believe, whatever the complaints are, and whatever the 
parochial interests are, the parochial interests are 
legitimate, people are concerned, in terms of changes--but I 
think there has to be change. If you look at what we're doing 
now, we cannot continue to both modernize and keep everything 
we've got. It's going to be tough to pay for the defense we 
need over next 10 or 15 years, with the deficits we have. If we 
don't have a strong economy, you don't have a Navy, or you 
don't have a Marine Corps--so that's very important.
    I also want to say to you, General Hagee, I was privileged, 
just recently, to have a young man in my office from the Marine 
Corps. His last name is Valles--that's V-a-l-l-e-s; that's a 
Spanish name--and he and his wife Sandra were there because 
he's recuperating, getting well, here at Walter Reed. I want to 
say, he is a terrific young man. He's someone to be proud of.
    I will share with you--if you find a moment that we might 
talk on the phone that the care in all of the hospitals to 
which these young men go is not equal. In Washington, Bethesda 
and Walter Reed are held up by everybody that we run into, but 
there are some others about which there are some concerns. I 
want to share them with you, because I think you would be 
concerned about some of them also if we shared them with you. 
We need the best for them, right? There's no doubt about it. 
When they get to recuperating, we can't have any doctors or 
second-rate service around, because they deserve far better 
than that.
    Enough said. Let me say to both the Secretary of the Navy 
and you, Admiral, I have read, and been briefed on, the changes 
you are making, and hope to make over time, to make the fleet 
modern. Certainly that means far more technologically modern. I 
can do nothing but commend you. I hope that you have the 
fortitude and the courage to stick with it.
    I say that to you, also, Mr. Secretary. We are beginning to 
understand that you are a very superb Secretary. I'm sure the 
men in uniform are glad to have you at their side. I mean that 
literally. And so, I hope----
    Secretary England. Thank you.
    Senator Domenici [continuing]. That we do that right.

                           IRAQI ARMED FORCES

    With reference to the Iraq war, I have two questions, and 
you can answer them as you wish. I think the most important 
thing that we have to accomplish is that we have to change this 
war into an Iraqi war. I think you'll agree with that. I want 
to know, for the record, what you think about the progress on 
that front. General, I know this means that your men and women 
have to rely upon Iraqi soldiers and Iraqi military police. 
We're counting on them taking over, here, pretty soon. I know 
it's not easy to talk in public about these things, but, for a 
minute or so, would you tell us what you think about this and 
how you think it's working?
    My last question has to do with the technology that we have 
that could make a real dent in these explosives that are along 
the highways that seem to go without detection. It seems almost 
impossible that our technology would not be able to do a lot 
better than just have them explode. You are testifying here 
that, ``We've got the best armaments, so the explosions will do 
the minimum damage.'' We have to be making some progress to get 
rid of them before they explode. I know we have scientists that 
eventually will do that. I need information that we're doing 
the best we can, and that we might succeed in that regard 
sooner, rather than later.
    Secretary England. Senator, if I can take your second 
question, I'd like, first, though, to have the Commandant to 
address your first question. Then I'll address your second 
question.
    Senator Domenici. Fine.
    General Hagee. Sir, as far as the performance of the Iraqi 
soldiers----
    Senator Domenici. No, that was my first question. You're 
going to take the second one?
    General Hagee. Yes, sir.
    Senator Domenici. All right, General.
    General Hagee. As I mentioned in my opening remarks, during 
the battle of Fallujah, we had five Iraqi battalions operating 
with us. And I can report to you, sir, that they did extremely 
well. More importantly, after the vote on January 30, we have 
noticed, in the Al Anbar province--and that's where the marines 
are located--a respect by the Iraqi people toward their armed 
forces, and a new motivation by the Iraqi armed forces. We have 
several Iraqi battalions that are working with the marines and 
the soldiers in the Al Anbar province, and they get better 
every day.
    Over the past couple of weeks, we have had a couple of 
Iraqi battalions that have planned and executed operations--
cordon and search operations, going after weapons caches--on 
their own. So, they are definitely improving. We are able to 
draw back some of our forces and let them take over the 
security inside of the cities, like Fallujah and Ramadi. So I'm 
optimistic that they are going to be able to take this job.
    Now, are they ever going to be a United States marine or a 
U.S. soldier? No, sir. But they don't need to be, to do the job 
over there.
    Senator Domenici. Okay.
    Mr. Secretary?

               IMPROVISED EXPLOSIVE DEVICE (IED) RESEARCH

    Secretary England. Senator, regarding IEDs, we have $1 
billion allocated to the defeat of IEDs in the Department of 
Defense, and we have all the services and scientists and 
industry working on that problem. We have fielded a lot of 
equipment. We continue to field equipment. I will tell you, 
however, that the foe is very smart and very adaptable. And so, 
they keep adjusting as we find ways to defeat them, as you 
would expect. So, this will be an ongoing problem for America 
for a long time.
    Recognizing that, the Department of the Navy has taken 10 
percent of our research Science and Technology (S&T) dollars at 
the Office of Naval Research, and we are starting what I call 
the ``seed corn'' for research; not application, which is the 
billion dollars, but fundamental research. We've had the head 
of the National Academy of Science, we've had Dr. Marburger, 
we've had the National Academies of Engineering all coming 
together, and we are about to initiate, literally, a nationwide 
research effort for long-term research, because this problem 
will be with us a long time.
    So, I just want to reassure you that this gets our daily 
attention. I mean, this is something that's the very highest on 
our list of things to go solve, but it is a very difficult and 
an ongoing issue.
    Senator Domenici. Mr. Chairman, I have three New Mexico 
issues that I want to submit to you. They're kind of peripheral 
to this discussion, desalinization and some other things. I 
won't take the time, but I'll submit them to you for your 
attention, and I thank you for your testimony.
    Secretary England. And we'll get back with you, Senator. 
Thank you very much, sir.
    Senator Domenici. General, when you get a moment, we'll 
talk on the phone about my Lieutenant, who has some concerns.
    General Hagee. Yes, sir. I'll look forward to it, sir.
    Senator Domenici. Thank you.
    Senator Stevens. Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    Mr. Secretary, welcome, and General and Admiral.

                  BASE REALIGNMENT AND CLOSURE (BRAC)

    I'd like to ask a bit about base closings. We don't, 
obviously, have a Navy base in North Dakota, but we have been 
very supportive of the Navy, and we've sent a great many 
admirals to the Navy from our State, including recently Admiral 
Owens, Vice Chair of the Joint Chiefs. But let me ask about 
base closing.
    On May 16, Secretary Rumsfeld will announce to the country 
the bases that he would like closed or realigned. This time 
things have changed. In the past, the military service's have 
picked the bases that were put on the BRAC list. In this 
circumstance, the Secretary of Defense is responsible for the 
list on May 16. Can you describe for me the activities that you 
have had that will involve themselves in the Secretary of 
Defense's decision on May 16?
    Secretary England. Senator, I have a person who reports 
directly to me out of our installation and environment, and 
they have a team across the Department of the Navy. And I 
believe I can say this is the case for the three military 
services. And then we do all the analysis of all of our bases 
within the Department of the Navy. And then there are internal 
recommendations made to the three of us regarding all of the 
facilities within the Department of the Navy.
    There's another group within the Office of the Secretary of 
Defense, and we have people on those teams, and they look 
across the services, in terms of jointness, because that is a 
hallmark and a tenet--that is, they get better jointness out of 
this--and also how we may jointly have higher efficiency and 
effectiveness. So there's another team that works that.
    All three of these teams report to the Secretary of 
Defense. And there's a board at the Secretary of Defense level, 
of which the three of us are part of that review board.
    So we participate at the Navy level, we participate at the 
joint level, and we participate at the Secretary of Defense 
level. And on that latter meeting--there's a number of those 
scheduled, obviously, between now and May 16 when the final 
list is put together--but we have full involvement, and we have 
full visibility into all the analysis and everything that goes 
into that decision-making process, and we are part of that 
decision-making process.
    Senator Dorgan. So----
    Senator Stevens. Would the Senator yield for just one 
moment?
    Gentlemen, I must go to the floor. Our subcommittee will 
reconvene in closed session on Thursday, March 17, to discuss 
classified programs in the fiscal year 2005 supplemental. Our 
next open session will be Wednesday, April 6, at 10 a.m., when 
we'll hear from the Air Force.
    I thank you all very much, and wish you the best, Admiral. 
I apologize for the interruption.
    Secretary England. Thank you, Mr. Chairman.
    Senator Dorgan. Mr. Secretary, then the speculation--by 
some, at least--that the Secretary of Defense (SECDEF) has 
taken this process into the SECDEF office and will make these 
judgments, is not entirely accurate. You're saying that 
services are full partners, and you're not going to be 
surprised on May 16 by what is announced. Is that correct?
    Secretary England. That's correct. I won't be surprised, 
Senator. I mean, we have been a full partner. Ultimately, it's 
the decision of the Secretary of Defense. I mean, ultimately, 
he will make the final decision. We may disagree on some of 
those decisions. We're not at that point yet. But we have a 
full input into that system, and we debate those with the 
Secretary, you know, in open meetings with him. So each one of 
these is discussed, debated, and our recommendations are made. 
So I would say it is a total involvement of everyone in the 
Department. Everyone in the service departments certainly has 
an input into that system.
    Senator Dorgan. And based on your knowledge, the same 
response would come from the Air Force and the Army?
    Secretary England. Yes, sir, because they're all in the 
meetings with us.
    Senator Dorgan. Okay, well, that's helpful, because I think 
there's a lot of speculation about how this list is developed 
and--so that's a very helpful answer, and I appreciate getting 
that information.

                        MARINE CORPS RECRUITING

    General Hagee, tell me what you expect with respect to 
future recruiting. I heard the question from my colleague about 
the last 2 months. I was driving to work the other day, and I 
heard that we are paying $150,000 bonuses for special 
operations folks who re-enlist. And so, we have a series of 
bonuses, I assume, to enhance recruitment. But as you look down 
the road a ways, what's your impression? You indicate that 
parents are more involved, you've got more people out 
recruiting. Do you anticipate that--for the balance of this 
year and next year, to be able to meet the recruiting goals?
    General Hagee. As far as recruiting is concerned, I believe 
that the environment will remain challenging for the next 
couple of years. In fact, as long as there are major operations 
going on in Iraq and Afghanistan, I believe that the 
environment will remain challenging.
    I do remain optimistic that we're going to be able to get 
the right numbers of young Americans with the right skills, the 
right quality, into the Marine Corps.
    I can tell you, on the retention side--and these are 
individuals that had either finished their first enlistment or 
their subsequent enlistment, and deciding on whether they're 
going to stay in the Marine Corps and make it a full career--we 
are actually doing better this year than we have in the past 
couple of years. Our retention right now for first-term re-
enlistees for this fiscal year is about 85 percent of our 
annual goal, and we're getting the occupational skills that we 
need. So I'm very optimistic on retention.
    Senator Dorgan. Well, General Hagee, I think all of the 
members of this panel would tell you how proud they are of your 
troops, and I've met a number of them over at Walter Reed, and 
they're quite a remarkable bunch, an inspiring bunch of 
Americans who serve this country.

                          SHIP FORCE STRUCTURE

    Secretary England, how many ships do we have--active 
ships--at this point?
    Secretary England. 290.

                              SHIP NAMING

    Senator Dorgan. And let me ask you a parochial question, if 
I might. The last ship that was named for North Dakota was 
named in 1907, and you and I have had a discussion about that. 
We have a lot of North Dakotans very proud of their service in 
the Navy and the marines. As I said, the Vice Chair of the 
Joint Chiefs, Admiral Bill Owens, has written a letter, and 
we've got a lot of folks out there that have written letter 
after letter after letter to the Navy to say, ``You know, think 
about a ship that might commemorate the service of those in 
North Dakota who have joined the Navy and joined the marines.'' 
Some States have had as many as six ships named after them. And 
that's perfectly appropriate. But would you take a look at 
this, on behalf of those many North Dakotans who have served in 
the Navy and marines and who would like to see one of those 290 
ships--at least you've got a couple that you're going to name 
in the future--would like to see consideration given to a 
landlocked State that still contributes a lot to the Navy and 
the Marines?
    Secretary England. No, I understand, and I appreciate your 
input to me. I appreciate your comments today. And we are 
definitely working it. I'll get back with you, Senator.
    So it is, quote, ``in the hopper,'' and we will work that.
    Senator Dorgan. In the context of warfighting and dealing 
with terrorism and all those issues, Mr. Chairman, I understand 
the naming of ships ranks well below many of the other 
decisions, and yet it also is an honor that is bestowed upon 
the men and women who volunteer from all across this country to 
serve.
    Secretary England. No, absolutely.
    Senator Dorgan. Thank you, Mr. Secretary.
    Mr. Chairman, thank you very much.
    Senator Cochran [presiding]. Thank you very much, Senator.

                   AMPHIBIOUS TRANSPORT DOCK (LPD-17)

    General Hagee, the budget terminates the LPD-17 program 
after the ninth ship, which is to be purchased in 2007. One 
concern that some of us have with this change is that it is a 
budget-driven decision. I recall last year's shipbuilding 
program included 12 of these ships. And I've been informed that 
as many as 15 LPD-17s are required to support the Marine Corps' 
requirement to lift three marine expeditionary brigades. So it 
seems that the program was already budget constrained before 
this year's budget was submitted containing an even lower 
number. So what are the Marine Corps' global lift requirements? 
That's my question. And what is the required number of LPD-17s 
to support those requirements?
    General Hagee. Sir, thank you for that question.
    To simply answer how many LPDs one needs for lift is a very 
complicated question, because obviously there are more 
platforms than just LPDs, and how they combine. Right now, our 
war plans require that we have 29 amphibious ships, and we have 
35 amphibious ships right now. And we have 11 LPDs right now. 
As you know, the program of record is 12. The war plan requires 
an absolute minimum of nine LPDs. The current war plans require 
a minimum of nine LPDs. That assumes that they're all 
available. My professional opinion is that, with nine, we take 
a risk. I would feel much more comfortable with 10 LPDs. I 
think that would reduce the risk. But, you're right, it is an 
affordability question, as both the Secretary and the CNO have 
testified to.
    If we had more money, I'm not sure that I would put the 
next dollar into an LPD. I am quite concerned about getting on 
with LHA(R). I am concerned about getting on with maritime pre-
positioning force future, and buying the Littoral combat ship 
and the other platforms that are going to give us the ability 
to put those marines ashore.
    But to go right to your question, nine is the minimum. I 
think there is risk associated with that. And if we had 
sufficient funding, ten would make me much more comfortable.

                                 LHA(R)

    Senator Cochran. Okay. I understand the proposed design for 
LHA(R) lacks a well deck. Given the proposed reduction in the 
number of LPD-17s, how will this aspect of the LHA(R) design 
affect Marine Corps operations?
    General Hagee. I think when you're talking about major 
combat operations, and you're talking about putting a marine 
expeditionary brigade ashore, you're talking about more than 
LHA(R) and LPD-17, you're also talking about the maritime pre-
positioning force future that is going to bring a lot of that 
square and cube that we need. So when you're talking about 
putting a force ashore, it's really a system of systems and how 
all of these platforms support one another.
    Just as important, you're also talking about the highspeed 
connectors, those smaller ships that are going to allow you to 
quickly offload and project that force 20, 25 miles from sea 
onto the shore.

                  SEA SWAP CONCEPT ON AMPHIBIOUS SHIPS

    Senator Cochran. General Hagee, we've had some experience 
in observing the Sea Swap concept. There have been two 
demonstrations to date, as I understand it. But, also, these 
demonstrations have not involved amphibious ships. What unique 
risk may come into play if you attempt to apply Sea Swap to 
amphibious ships?
    General Hagee. Unfortunately, we haven't had the 
opportunity to experiment with Sea Swap on amphibious ships, 
primarily because as soon as the expeditionary strike group, or 
the Amphibious Ready Groups (ARGs), arrive in theater, the 
marines are taken off and put ashore either in Iraq or in 
Afghanistan. And I don't know whether we're going to have, 
anytime in the near future, a real opportunity to do some real-
world testing on that.
    Having said that, some of the challenges with amphibs, of 
course, you have a greater number of both marines and sailors 
on those amphibious ships. In addition, you have flight 
operations and you have the safety of flight operations that 
need to be considered.
    I think that Sea Swap can work. But, right now, we plain do 
not know, because we haven't had the opportunity to do it on 
larger-deck ships.
    Senator Cochran. Senator Inouye. Senator Stevens had to go 
to the floor to make statements, and you're in charge now, with 
the seniority you have and the experience you have.
    Senator Inouye. Are we recessing?
    Senator Cochran. No, sir. I was just going to yield to you 
for any further questions you have. Or, Senator Domenici----
    Senator Domenici. Thank you, Senator Inouye.
    I also know why you left the hearing for a few minutes. I 
wasn't there to hear your comments, but I want to thank you for 
them, because I know what you said. I thank you very much.

                         POST COLD WAR CHANGES

    I want to ask a general question. You can take a couple of 
minutes to respond, Mr. Secretary and Admiral. You know, it 
seems to me that a lot of our preparations and military buildup 
was prepared and planned based upon the cold war. I think it 
took us quite a while to understand that the end of the cold 
war meant a really different world. Could you, for the record, 
talk about how much of the changes we're making really are 
because we don't have a Union of Soviet Socialist Republics 
(U.S.S.R.) in the world. If we're not changing because of that, 
why not? If that is true, it would seem to me that many things 
would be different. We're not going to be engaged in the kind 
of confrontation that we expected, except we have a nuclear 
power, and that doesn't have a lot to do with the budgets we're 
talking about. That means the nuclear deterrent and some kind 
of control over nuclear weapons in the hands of the wrong 
people. I wonder if I am thinking right and if this has 
anything to do with what we're preparing for.
    Secretary England. Senator, if I can just make a general 
comment, and then I'll turn it over to my colleagues.
    I will tell you, that is what we are about. In my opening 
statement, I said we had not fully transitioned from the cold 
war, but we are trying to transition to this global war on 
terror, because we believe we'll be at this for a long time, 
while, at the same time, deterring any future threat to 
America, and, if necessary, defeating a future threat. So we 
are moving to a new Navy, and this is the pivotal year to do 
that.
    And we talked about LHA(R), the new deck for the Marine 
Corps to have more air power. We are looking to be able to 
deploy marines twice as fast, with twice the capability, with 
our new Navy. So that is specifically in response to this new 
kind of threat. And we are moving away from the Deep Blue. I 
mean, that's why the DD(X), frankly, is a much smaller number.
    We are changing the Navy from what we had structured in the 
cold war, to the Navy for the future. And that is causing, 
frankly, some angst and some stress in Washington and around 
the country, but it's a change we absolutely have to make; 
otherwise, we will be ill-prepared in the future.
    I understand it's a difficult year for a lot of people, but 
we need to make this change. And I'll let the CNO and 
Commandant say a little more about this.

                          AIRCRAFT PROCUREMENT

    Senator Domenici. Well, let me ask about airplanes. It 
seems to me we continue to keep on the books and keep planning 
for airplanes, when there's nobody in the world going to have 
airplanes to compete with the ones we've got, much less the 
newer versions. That's just an aside. Maybe you could talk 
about it, generally, Admiral, in just a few comments. I'm 
taking too much time, but----
    Admiral Clark. Well, the Secretary would jump right on this 
one, since he built airplanes for much of his life. He's taught 
us a lot about that end of the business.
    But let me tell you, the Commandant and I are in total 
agreement with you. There's no way for you to know the 
specifics of this, but the Marine Corps and the Navy went 
together and decided we were going to integrate our tactical 
air. That move changed the requirement for the taxpayers of the 
United States of America by the tune of $30 to $35 billion. We 
decided that we could do a lot better for the country if we 
figured out how to make this asset work in both the Marine 
Corps and the Navy. So right now, as we speak, I've got a Navy 
squadron operating in Japan in support of his deployed forces. 
This year, he's got a marine that is the deputy commander of 
the air group on a U.S. aircraft carrier, and he will rise up 
to be the commander of the air group. Now, this hasn't happened 
in a long time.
    This is all about a different view of the world. And our 
view was this. The day of long-range Soviet naval air coming at 
us over the horizon is not what this is about. By the way, the 
Navy doesn't even believe in Combat Air Patrol (CAP) stations 
anymore because we believe in persistent combat power. And our 
persistence comes from the Aegis system that--we don't have to 
worry about if we've got the CAP station 20 degrees off axis, 
and then it's not going to do any good, and blowing dollar 
bills out of the tailpipe of airplanes orbiting on station. And 
so, our approach--there are a lot of things that have changed 
in the last 3 or 4 years.
    And the Secretary's comment about, ``How many big ships are 
we going to have?''--we've got a 50-year supply of aircraft 
carriers, and we cannot be the Navy that this Nation needs 
without aircraft carriers. The question of the future, and we 
have put forth--is, we must be more than just an aircraft-
carrier-centric force. And so, 3 years ago, we brought up a 
proposal up here that said this. No longer will we look at the 
amphibious ready groups of old, and that if they ever have to 
do anything serious, well, the carrier's going to have to go 
there with them. And we decided we're going to start putting 
other assets with them so they can go take on issues themselves 
and distribute this force globally to deal with today's world. 
And that's a fourth-generation warfare world that's focused on 
non-nation states and asymmetric warfare. And the kind of 
things that we see, where the marines are going to have to be 
able to go where you can't get a foothold--somebody doesn't 
give you a permission slip to bring your people ashore, we're 
going to be able to go, using the maritime domain, and make 
quiet little visits to people that they didn't expect us to 
come, with smaller and smaller force sets. All of this is about 
DD(X) and the kind of precision that enables them to not have 
to take such a big footprint ashore, because we can support 
them with precision from a long-range, in the sea and from the 
air, with Joint Strike Fighter in the future.
    So, that's a very, very short answer to a long question 
that deserves better. But this is also a key issue in the QDR 
and the things that we need to be focusing on in the days 
ahead.

                       FOURTH GENERATION WARFARE

    Senator Domenici. Mr. Chairman, I know that the General 
wants to answer. I must go to preside at a meeting to report 
out a couple of nominees. I don't want him to think I'm not 
here. If you can handle it, however, he can either not answer 
or he can answer for you and--even though it's my question, 
whichever you'd prefer.
    Senator Inouye [presiding]. Please proceed, sir.
    General Hagee. Thank you very much for that question, sir. 
I think that's really a very, very important question.
    I won't talk about platforms. I could talk about platforms 
for some time, and what they're doing on today's battlefield. 
But Admiral Clark talked about fourth-generation warfare, and 
one of the things about fourth----
    Senator Domenici. General, before I leave, after you were 
finished, I would have asked, How come it took so long? You 
know, the cold war has been over a long time. But, anyway, I'm 
glad we're doing transforming the military in a large way.
    Thank you.
    General Hagee. One of the things about fourth-generation 
warfare is that the individual squad leader and the platoon 
commander are going to have to make more and more of those 
strategic type of decisions. And in order to properly prepare 
him or her to make those decisions, we are significantly 
changing how we educate and how we train marines, especially on 
the enlisted side. And it's just not combat skills. We've 
always had those skills, and we're going to continue to have 
those skills. But, for example, over the past year, we have 
sent 4,000 marines to foreign-language school, most of them in 
Arabic, but in some of the other languages in that particular 
region. We have contracted professors from the Naval Post-
Graduate School to give us classes on the Islamic religion, on 
the Arabic culture, so that they have a sensitivity, a 
situational understanding of the environment in which they are 
going to operate so that they can make better decisions. These 
types of educational initiatives are going to become part of 
our professional military education so that that young marine 
is better able to make decisions on the fourth-generation 
battlefield.

                        SAILORS DEPLOYED TO IRAQ

    Senator Inouye. Mr. Secretary, if I may ask a question. I 
notice that you're deploying 5,000 more sailors to Iraq and 
Afghanistan. Are they receiving any special training? Because, 
after all, they're seagoing men.
    Secretary England. Mr. Chairman, the CNO is probably more 
attuned to the specific people, but, frankly, I believe most of 
the people we have in Iraq now are corpsmen deployed with our 
marines and our Sea-Air-Land Naval Special Warfare Forces 
(SEALs). As the CNO says, our SEALs haven't seen the water for 
a long time. But we have, basically, our special forces SEALs 
and our corpsmen, and that's the bulk of the people, along with 
our Seabees. So the people we have there are very attuned to 
that environment. Our Seabees, they spend a lot of time there, 
obviously, in the reconstruction. They're very valuable. So I 
think it's--the people I meet there, the Seabees, it's the 
corpsmen and the SEALs, and they're obviously well equipped for 
everything that takes place in Iraq and Afghanistan.
    Senator Inouye. So it's not unusual.
    Secretary England. It's not unusual. And we also have force 
protection people there. As a matter of fact, we are augmenting 
the Army in various places now by putting in some of our force 
protection people. No, I would say they're right at home, in 
terms of their training and capability. That's where they 
should be for the nation at this time.
    Admiral Clark. Those individuals are the normal ones that 
we would send in there. In the last cycle, we started sending 
some Navy people in to work hand in hand with the Army, because 
they were short of combat service and combat service support 
people. So we now have individuals that are literally in Army 
billets, and those are increasing. Those people are receiving 
special training, and we send them through a course hosted by 
the Army before we send them in country.

                            MISSILE DEFENSE

    Senator Inouye. I'd like to congratulate all of you for 
another successful missile intercept in the Aegis Missile 
Defense Program. Five out of six strikes, you did very well. 
This program is run by the Missile Defense Agency. Is the Navy 
thinking of taking it over?
    Secretary England. No, sir, we're not thinking of taking it 
over. We are part of this total missile defense; but, as you 
comment, it is a very, very successful part of the program.
    Senator Inouye. And you've been running it.
    Secretary England. Yes, sir, we have been running it. It is 
within the Department of the Navy, for the Missile Defense 
Agency. But it is an inherent Navy capability. We have been 
modifying our Aegis fire control systems. I believe we have two 
more launches this year still scheduled. So we continue to 
develop and improve this capability; and our judgment is, this 
will be a very valuable capability for America. It's already 
been demonstrated to be very valuable, but I think Missile 
Defense Agency will, you know, obviously increase their efforts 
in this area. But it is their program, and we do support them.

                       FUTURE OF THE NAVY STUDIES

    Senator Inouye. Mr. Secretary, as you know, many studies 
have been published on the future of our Navy. Recently, your 
Office of Force Transformation issued a report calling for more 
ships, dispersed over broader areas, smaller, faster, increased 
capability and flexibility. Is that within your vision? Do you 
approve this? Or, is this just talk?
    Secretary England. Well, there are a lot of studies, but I 
would tell you, that is very attuned. And I think attuned to 
what you've heard today; in particular, the Littoral combat 
ship. Also, we have these highspeed connectors. We have X-
Craft. We have a number of experimental craft right now which 
all fit that description. But our vision is Littoral combat 
ship will have a very, very large role in the future Department 
of the Navy, and that's why it is so important that we continue 
to pursue that program with rigor. We would like to build those 
as fast as we can.
    We've used new design approaches, new acquisition 
approaches. We are trying to get that fielded. It will be 
utilized in a large number of areas. It will be just literally 
moving our marines and their equipment, very, very highspeed. 
As you know, we have two contractors working. We will decide, 
at some future date, if we want to down-select or continue with 
each design. That decision has not been made.
    This is a very valuable part of our future force. It will 
augment almost everything we do in the Department of the Navy. 
And so, I would say that a report like that, that says, 
``larger, faster, more adaptable''--``smaller''--pardon me--
``smaller, faster, more adaptable, quick roll-on and roll-off 
of our equipment, in terms of changing the capability of those 
Littoral Combat Ship (LCSs),'' that is the future, Senator. 
That is where we're going. And it's important we get there as 
soon as we can.
    CNO?
    Senator Inouye. Does this budget bring you toward that 
future?
    Secretary England. Yes and no. We would like, this year, to 
have one more LCS, Mr. Chairman. We did have one in the budget, 
and we were directed, last year, to take it out of this year's 
budget, so we did. But we would like to have one more in the 
budget this year. That is one area that would be very helpful 
to us, would be to add an LCS, because we now have a gap year, 
and we would like to fill that gap. So that would be very 
helpful this year, if we could add that LCS back into the 
budget.
    And the CNO, if you----
    Senator Inouye. I can assure you that has been noted.
    Secretary England. Good. Thank you very much, Senator.
    Admiral Clark. I would say, Admiral Cebrowski's study, out 
of the Office of Transformation, you know, had near term and 
far term very extreme kinds of recommendations. His extreme 
recommendation was this. And he told me personally, he said, 
``Vern, when you finish LCS and prove that it functions well at 
that size with the roll-on/roll-off modules and all this, which 
is a revolution, in concept--when you finish that, you need to 
build one-half the size of LCS, and then you need to build one-
half that size, because the smaller--the more force you have, 
and more lethality, in smaller packages, the more he's going to 
like it.''
    Well, I would say, we agree with that concept completely. 
Now, all of his study was all done with nonparametric analysis, 
which means that you've got to do it on the parametric side 
before you really know you can do this. And so, we have to 
prove that we can do this, and you can't do it overnight.
    He then goes on to talk about miniature aircraft carriers 
and pieces like that, that will capitalize on the Joint Strike 
Fighter STOVL concept. Well, that's exactly what we have been 
saying for the last 3 years, that we're going to invest 
billions of dollars in that capability; we want platforms that 
can carry it around. And that's why LHA(R) is where it is on my 
unfunded priority list. I want to get going.
    Now, he would then want to go half the size again, and so 
forth. My view is, for a long term--his study is a concept, and 
we are in support of that concept. Now we have to make it 
reality, and we're moving toward that as rapidly as we can.

                           STEALTH ON VESSELS

    Senator Inouye. Are you keeping up with the Air Force on 
maintaining stealth on your vessels?
    Admiral Clark. It's a different environment to maintain 
stealth, but when Joint Strike Fighter delivers, we will have 
the same kind of challenges the Air Force has, in a different 
environment. By the way, the Joint Strike Fighter is going to 
be a phenomenal airplane. And the carrier version of this is 
going to have combat reach that we have never had. No other 
strike--no other attack air platform will come close to it. And 
it's going to have--I guess, be careful here in an open forum, 
but it's going to have--let me just say, it's going to have 
terrific stealth properties.
    On the ship-borne side, remember, we're doing all this--
DD(X), for example, a 14,000-ton ship, is going to look, to the 
enemy, like a fishing boat. It's a pretty stealthy platform, 
and I have said, in the public domain, that it's quieter than a 
688 submarine. It's going to be a tough platform for enemies to 
deal with.
    And so, this whole array of what the Secretary talked 
about--this is a critical year. Everything in our program on 
the shipbuilding side--the world has not seen it delivered yet, 
except the very first Virginia-class submarine, which delivered 
a few weeks ago. Everything else is out in front of us. And so, 
we're turning the corner toward a new future.
    Senator Inouye. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.

                          U.S.S. SAN FRANCISCO

    Mr. Secretary, on January 8, we had a bad accident on the 
U.S.S. San Francisco, a collision with an undersea structure--
``mountain,'' it was called by some. And I wonder if this 
illustrates the fact that our Navy needs to upgrade the charts 
and capabilities of detecting undersea obstructions so that we 
won't see this kind of accident in the future. And, if so, what 
is in this budget that would address that issue? Or, if there 
is no specific request for additional oceanography activity, or 
a ship for oceanography activity that may be needed, or 
upgrading plans for mapping the ocean areas where we're 
operating now and will likely operate in the future, should we 
include that in the supplemental?
    Secretary England. Mr. Chairman, from all the briefings 
I've had, I believe it would be premature, because the analysis 
is still in process, in terms of what happened with U.S.S. San 
Francisco. So there's still an accident investigation ongoing, 
there is not a final report. I think there are some tentative 
conclusions, but the last report I saw--I mean, I would not 
make any final conclusion until that accident investigation is 
complete. So I would defer that.
    CNO may have a different view, but I believe we still need 
to wait until we have a final analysis, final findings of that 
accident.
    Senator Cochran. Admiral Clark, what's your reaction?
    Admiral Clark. My reaction is, Mr. Chairman, that we don't 
have perfect knowledge of the underwater world. And we won't in 
our lifetime. That does not mean we're not investing in it. And 
we have been investing in it for years. And so, there are 
resources invested to improve our understanding of that. But 
the key here, from the analysis of this accident, will be, are 
we prioritized correctly in where we are expending our research 
resources to improve our knowledge and understanding? And is it 
at a rate that is going to be correct? It has been correct up 
until now, with the understanding that nobody will ever have 
perfect knowledge.
    Now, then, that does suggest that there will be parts of 
the world that we know more than others, and commanders have to 
know how to operate with that as an understanding. So, that's 
where I would go, based upon what I know today.
    Senator Cochran. Mr. Chairman, thank you. I have some other 
questions, but I will submit them for the record.
    And I join you, Mr. Chairman and other members, in 
expressing our appreciation for the tremendous leadership this 
panel is providing for our Navy and Marine Corps team. It's 
truly outstanding. We're proud of you, and you make us proud of 
our Navy and Marine Corps.
    Secretary England. Thank you, sir.

                             MEDAL OF HONOR

    Senator Inouye. I have just one more question, if I may ask 
the Commandant. I believe I followed the press reports coming 
out of Iraq and Afghanistan as closely as any American. I have 
yet to see any marine, or, for that matter, any sailor, 
soldier, or airman, being cited or awarded the Medal of Honor. 
Am I wrong?
    General Hagee. No, sir. There has not been a Medal of Honor 
awarded from this particular conflict.
    Senator Inouye. Is that unusual?
    General Hagee. Sir, one thing I am not allowed to comment 
on, by policy, is whether or not there are any that have been 
recommended. I can just report that there have been none 
awarded.
    Senator Inouye. Well, we have read accounts of individual 
heroism, and I'm just wondering if we are recognizing the 
service that our men and women provide us.
    General Hagee. Sir, I would be very surprised if there were 
not some recommendations for the Congressional Medal of Honor 
working their way up the chain of command. As you know, for 
that particular medal, that can take some time for it to get 
all the way to Washington.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Inouye. Well, I join Senator Cochran in thanking 
all of you for your service to our Nation, and the men and 
women who serve under your command. It's been extraordinary. I 
used to think that my generation was the super-generation, but 
I've changed my mind; it's your generation.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

                Question Submitted to Gordon R. England
               Question Submitted by Senator Thad Cochran

                        JOINT HIGH SPEED VESSEL

    Question. Secretary England, I understand the Navy has been 
designated the lead Service for the procurement of the Joint High Speed 
Vessel program to meet Army and Navy theater transport needs. I 
understand the Army was pleased with the catamaran design they leased 
from Australia, and I have been informed the Navy and Marine Corps have 
also leased similar vessels over the past several years. I am sure 
there are several companies in the United States that can produce an 
equivalent vessel to support intra-theater transport, alleviating the 
need for costly, long-term leases.
    Can you provide the committee with the status of the Navy's efforts 
on this joint program?
    Answer. The Navy is in the process of initiating an Analysis of 
Alternatives (AoA). A detailed AoA is expected to be available this 
November.
                                 ______
                                 
               Questions Submitted to Admiral Vern Clark
              Questions Submitted by Senator Thad Cochran

                       SEA-BASED MISSILE DEFENSE

    Question. Admiral Clark, I am aware of the Navy's conversion of 
Aegis cruisers to perform missile defense functions, including a ship-
based defense against short and medium range missiles. I applaud the 
accomplishments to date, including another successful test last month 
(February 24, 2005) of this capability.
    What role do you envision for the Navy in the future of missile 
defense? Additionally, you have estimated the future fleet size at 
between 243 and 375 ships, and my understanding is the Navy's role in 
missile defense will have a significant influence on this number. What 
specific missile defense missions would most affect the size of the 
fleet?
    Answer. The Missile Defense Agency (MDA) is funding and developing 
the Aegis Ballistic Missile Defense Program (Aegis BMD) and 
collaborating closely with Navy to fully leverage existing systems to 
their fullest capability. MDA's record of success since 2002 with Aegis 
BMD is five successes out of six efforts, a strong level of performance 
for any missile development, but particularly for one of this 
complexity. The ability to project defense against ballistic missiles 
from the sea is critical to reducing the operational risk posed during 
forcible entry operations and prior to the establishment of tactical 
BMD forces ashore. Developing this capability on existing ships is an 
important operational advantage and prudent expenditure of taxpayer 
resources. By integrating the BMD mission on existing platforms, Navy 
anticipates meeting the BMD mission requirements within the force 
structure I outlined in my testimony (260-325 ships). Upgrading 
existing Aegis platforms and a firm commitment to the development of 
CG(X) is, however, absolutely required to meet ballistic missile 
threats. CG(X), our future maritime dominance ship, will be the first 
ship designed from the keel up to both command and actively participate 
in the missile defense battle.

                      AIRCRAFT CARRIER PROPELLERS

     Question. Admiral Clark, I have been informed that our older 
Aircraft Carriers have a high wear-out rate on their propellers, which 
are based on a 30 year old design. As I understand it, the choice is to 
either replace the propellers with refurbished ones or to replace 
propellers with a newer design that we put on Aircraft Carriers 
currently being built and which do not wear-out like the older design.
    Admiral, in order to help maintain a more ready Fleet, would you 
agree that it is in the Navy's and the Nation's best interest to limit 
unnecessary downtime to Aircraft Carriers for things such as repeated 
propeller replacements, especially when the Carrier Fleet may be 
reduced from 12 to 11?
    Answer. The Fleet Response Plan and careful scheduling of 
maintenance periods has significantly increased the operational 
availability of the carrier force. Replacement of carrier propeller 
blades is currently accomplished during regularly scheduled maintenance 
periods. NIMITZ-class aircraft carriers were originally built with 
propellers designed for a much smaller carrier (CV 59) and, as a 
result, propellers wear faster with replacement accommodated within the 
scheduled maintenance availabilities. Specifically, outboard propeller 
refurbishment is required every three years and inboard propeller 
refurbishment required every six years. Propeller wear is tracked 
through routine underwater hull inspections between maintenance 
periods.
    To increase efficiency and reduce overall life-cycle costs, a new 
propeller design was completed in June 2000 and three ship sets are 
under contract with delivery lasting until November 2007. A contract 
for two additional ship sets is being negotiated with delivery at a 
rate of one every three months beginning in February 2008 and ending in 
November 2009. The new propellers are initially targeted for CVN 77, 
CVN 70 RCOH and CVN 21, with a back-fit planned for the entire NIMITZ 
Class.

            LITTORAL COMBAT SHIP (LCS) FIRE SCOUT EMPLOYMENT

    Question. Admiral Clark, I noticed in reviewing your unfunded 
programs list that you require an additional 6 Fire Scout Unmanned 
Aerial Vehicles. I believe most of us have heard commanders in 
Afghanistan and Iraq attest to the vital capabilities Unmanned Aerial 
Vehicles provide. Can you explain how these additional Fire Scout 
Unmanned Aerial Vehicles would expand the capabilities you envision for 
the Littoral Combat Ship?
    Answer. The additional six Fire Scouts would triple the operational 
availability of Fire Scouts, provide additional flexibility in 
employment and speed development of concepts of operations at the 
tactical level. Operating as an extension of the ship, Fire Scout 
greatly expands the LCS' area of control. Initial Fire Scouts will be 
equipped with proven surveillance systems--electro-optical, infrared, 
and laser designator--for maritime surveillance and targeting.
    Leveraging the ability to configure the Fire Scout's payload at 
sea, planning is underway for block upgrades including the Coastal 
Battlefield Reconnaissance and Analysis (COBRA), the Airborne 
Communication Package (ACP), and future weaponization. COBRA will 
detect mines in the beach and surf zone; ACP will relay communications 
over the horizon, netting dispersed units; and air-to-surface weapons 
will assist in countering small boat threats. Future spiral development 
efforts being considered include anti-submarine warfare sensors and a 
very lightweight torpedo for engaging submarines. The Fire Scout 
Vertical Takeoff Unmanned Aerial Vehicle (VTUAV) will extend LCS' span 
of control by providing a complementary capability to manned 
helicopters and other strike group or joint assets.

                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

            HIGH ENERGY LASER LETHALITY EXPERIMENT (HELSTF)

    Question. Admiral Clark, it is my understanding that the Navy has 
been conducting a series of experiments at the High Energy Laser 
Systems Test Facility (HELSTF) in New Mexico. These experiments have 
looked at the very difficult problem of defending against targets such 
as cruise missiles that approach a target ``head on''. As part of the 
solution, the Navy has looked at using directed energy systems to 
overcome the technical difficulties of tracking and targeting low 
flying targets.
    Would you care to comment, in general, about the Navy's progress in 
developing high energy laser weapons? Can you comment specifically on 
the status of the high energy laser program (known as HEL-LLAT) to 
target and track low flying targets? What progress has the Navy made on 
the program?
    Answer. The Navy high energy laser weapon development is focused on 
two laser technologies, Free Electron Laser (FEL) and the Solid State 
Laser (SSL). The Free Electron Laser (FEL) program's goal is 
development of megawatt class devices that could be effective against 
current and future threats and suitable for new construction ships with 
Integrated Power Systems. Currently, a 10 kW FEL has been developed at 
the Thomas Jefferson National Accelerator Facility and additional 
studies are being conducted to determine the best approach for reaching 
the 100 kW power levels, the next developmental milestone.
    Solid State Lasers (SSL) are being developed by all Services and 
the Joint Technology Office for use on vehicles, aircraft and ships. 
These systems are smaller than free electron lasers but operate at 
lower power levels. SSL research is focused on increasing power and 
efficiency while decreasing size and weight. It is projected that a 100 
kW Solid State Laser will be available in the next three to four years 
with systems engineering and development leading to a deployable system 
within the next ten years.
    For tracking and beam control, the Navy has unique requirements. 
This is due primarily to the large range of potential threats from 
unmanned air vehicles, small boats and anti-ship cruise missiles; the 
most stressing threat is the inbound, supersonic, highly maneuverable 
missile. The High Energy Laser-Low Aspect Target Tracking (HEL-LATT) 
program was created to determine requirements and develop tools to 
support laser tracking using existing systems and off the shelf 
technology. To date, new optical systems have been integrated, 
sensitive cameras are being delivered, and the tracking algorithm 
effectively acquires and tracks inbound targets through high gravity 
maneuvers. This year, Navy is funding the integration and evaluation of 
the new hardware to assess its potential against future threats.

                    NAVY DESALINATION PROGRAM (EUWP)

    Question. Admiral Clark, as you may know, the Navy is set to 
deliver the Expeditionary Unit Water Purification (EUWP) system to 
Alamogordo, NM at the beginning of April for field testing. This unit 
will be capable of supplying 100,000 gallons of portable water per day 
from contaminated sources and will eventually support Marine Corps 
expeditionary operations and homeland security needs. As the chief 
sponsor of this program in Congress, I want to thank you and the Office 
of Naval Research for the good work you have done on this program and I 
look forward to seeing the unity firsthand in Alamogordo.
    Given that the Navy has taken on a civilian partner (the Bureau of 
Reclamation) to jointly manage this desalination research program, do 
you believe this arrangement will facilitate a smooth transfer of 
technology to the civilian desalination market? Can you provide (for 
the record if necessary) an update on the phase-two of the EUWP 
program? What are the milestones that have been set for the 500,000 
gallon unit?
    Answer. The Expeditionary Unit Water Purification (EUWP) program 
has benefited from the expertise of many organizations, including other 
DOD Services, Federal Agencies, and private contractors. In particular, 
the Bureau of Reclamation's (BOR) participation is expected to assist 
in the transfer of beneficial desalination technology to the civilian 
market in its role as the principal conduit of desalination systems to 
both consumers and suppliers. The EUWP Generation I (GEN I), a 100,000 
gallon per day (gpd) technology demonstrator, completed fabrication and 
is undergoing extensive testing to exercise the full range of 
performance specifications.
    Current efforts to increase the output of water purification 
facilities are on schedule. Existing plans are to integrate and 
evaluate promising technology into a 300,000 gpd engineering prototype 
model, designated GEN II (there are no efforts to develop a 500,000 gpd 
system). The preliminary design of GEN II--suitable for use on a large 
aircraft carrier--is complete. The two GEN II milestones currently 
underway are (1) component development and (2) analysis of alternative 
contracting options for managing the integration, assembly, and 
evaluation of the large capacity technology demonstrator.
                                 ______
                                 
            Questions Submitted to General Michael W. Hagee
               Question Submitted by Senator Thad Cochran

                     FISCAL YEAR 2005 SUPPLEMENTAL

    Question. General Hagee, the Marines continue to perform well in 
Iraq and around the world. In Iraq, your Marines are operating in one 
of the toughest areas where insurgents and Sunni extremists still wish 
to disrupt stability. I understand that the supplemental request 
contains approximately $5 billion for the Marine Corps. What I would 
like to know is if the request contains all the resources necessary to 
ensure the Marines on the ground have the equipment necessary to 
successfully accomplish their mission? What additional resources does 
the Congress need to provide to ensure continued success in Iraq as 
well as to prepare for the future?
    Answer. The fiscal year 2005 Supplemental fully supports the 
Marines deployed in support of the Global War on Terrorism, including 
those deployed in support of Operation Iraqi Freedom. Additionally, the 
fiscal year 2005 Supplemental begins to address our future 
requirements. Included in the fiscal year 2005 Supplemental are 
requirements in support of our Force Structure Rebalancing effort, our 
long-term plans in Djibouti, and shortfalls in Prepositioning and Home 
Station equipment that are currently being used in Operation Iraqi 
Freedom. The Marine Corps preliminary estimate to ``set the force'' is 
approximately $10 billion, but we continue to refine this to ensure 
accuracy in reporting future needs for continued success.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

                   ROCKET, ARTILLERY, MORTAR DEFENSE

    Question. General Hagee, as you know, one of the difficult problems 
our Marines and soldiers face in Iraq is the threat of rockets, 
artillery and mortars. My state is at the forefront of directed energy 
research and testing, and I have long supported DE as a 
transformational capability that can provide solutions to problems like 
RAM defense. You hear from your commanders on the ground and from 
Marines who face these threats on a daily basis.
    What is the current Marine Corps approach for protecting Marines 
against rockets, artillery and mortars?
    Answer. Protecting our Marines is one of our primary concerns and 
is essential to mission accomplishment. To specifically address 
mortars, I MEF has had success with two Lightweight Counter-Mortar 
Radar (LCMR) loaned from the Army. The LCMR detects incoming mortar 
rounds, enabling units to take appropriate countermeasures. Success in 
theater has prompted the Marine Corps Warfighting Lab to purchase one 
additional LCMR for testing and evaluation with our operational forces. 
In a parallel effort, we are requesting supplemental funding to procure 
ground counter fire sensor systems to quickly locate incoming fires, 
including mortars with low trajectories. Marine Corps Systems Command 
is evaluating two passive sensors systems to complement the currently 
fielded Q-46 counter-battery radars in providing 24/7 and 360-degree 
force protection.
    Directed Energy (DE) weapons remain an area of interest for 
protecting our Marines as well. The Marine Corps, in coordination with 
the Joint Non-Lethal Weapons Directorate, is participating in several 
different DE weapons developmental efforts lead by the other services. 
Only one of the on-going DE developmental programs, the Airborne 
Tactical Laser program lead by SOCOM, appears to have the potential to 
defeat artillery and mortar equipment.
    Question. Are you aware of the capabilities of the Mobile Tactical 
High Energy Laser (at HELSTF) and the success it has had in testing 
against artillery?
    Answer. The Marine Corps is aware of the capabilities of the Mobile 
Tactical High Energy Laser (MTHEL) and its successful tests in late 
2004 against dynamic targets such as mortar rounds. The Marine Corps 
will continue to monitor the progress of the US Army's MTHEL program 
for applicability to its Counter Rocket Artillery Mortar (C-RAM) 
defense.
    Question. Do you believe it would be worth accelerating the 
fielding of directed energy systems to protect our men and women in the 
field from RAM threats?
    Answer. Directed energy is one of many technologies that may 
ultimately be utilized in Rocket, Artillery, Mortar (RAM) defense. The 
U.S. Army is managing the development of Counter RAM technologies that 
do not include Directed Energy and are currently deployed in Iraq in an 
initial capability status. At this point in time, directed energy may 
be too immature as a technology to be a candidate for accelerated 
fielding.

                          SUBCOMMITTEE RECESS

    Senator Inouye. Thank you very much. The hearing is 
recessed.
    [Whereupon, at 11:50 a.m., Wednesday, March 16, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
April 6.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                        WEDNESDAY, APRIL 6, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Domenici, Inouye, 
Leahy, and Dorgan.

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                        Office of the Secretary

STATEMENTS OF:
        HON. MICHAEL L. DOMINGUEZ, ACTING SECRETARY OF THE AIR FORCE
        GENERAL JOHN P. JUMPER, CHIEF OF STAFF

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Good morning, Mr. Secretary and General 
Jumper. It's good to see you before our subcommittee at this 
time.
    It's great--a matter of great importance. I'm sorry to say 
that there are problems about votes and schedules that have 
been changed due to the joint session of Congress. We do thank 
you each for your dedicated service to our Nation and to the 
people that serve with you in the Air Force. We remain 
committed to do as much as we can to assist you in your jobs, 
and we know you're confronted with a very difficult task in 
modernizing the Air Force and meeting the challenges that we 
have in Afghanistan and Iraq.
    We have begun our review of the 2006 Defense budget. And 
from your budget request and from your posture statement, we 
understand the Air Force is placing priority on modernization 
through the continued investments in the F/A-22, the C-17, and 
the F-35. We also note a significant commitment to the next 
generation of space platforms, and look forward to hearing your 
statements and priorities today.
    Senator Inouye will be along momentarily. He's asked us to 
proceed. Your full statements are already part of the record. 
We appreciate your having provided them, according to our 
rules, and would like to have you make your remarks at this 
time.
    Mr. Secretary.
    Mr. Dominguez. Thank you, Mr. Chairman and distinguished 
members of the subcommittee.
    I'm honored to appear before you today representing our 
United States Air Force. I'm especially honored to be here with 
General John Jumper, the Air Force Chief of Staff. Together, we 
direct a fantastic group of military and civilian airmen at 
work every day defending this country.
    I thank this subcommittee and the entire Congress for your 
support to our airmen. We will need your continued support as 
we face demanding challenges in the months and years ahead.
    As Acting Secretary, I have five major priorities for the 
coming months. They are, first, recapitalizing our force; 
second, weathering the 2005 fiscal storm; third, re-balancing 
and shaping our force; fourth, continuing transformation; and, 
finally, restoring your trust and confidence in the Air Force 
and its leadership.

                      RECAPITALIZING AGING SYSTEMS

    The Air Force's number one challenge is recapitalizing our 
aging systems. We need to find the right balance between 
acquiring new systems and keeping our legacy systems flying. 
Addressing this long-term recapitalization problem is made all 
the more demanding by the huge shortfalls we face this year in 
our personnel and operations accounts. General Jumper and I 
recently directed the Air Force to cut back on peacetime 
readiness and training operations to conserve funds. But 
cutting back, alone, can't close the $3 billion gap in our 
operation and maintenance (O&M) account. We are also short some 
$700 million in our military personnel account. And there, too, 
cutting back will not close the gap. We'll need your help, by 
acting quickly on the President's supplemental budget request 
and by considering favorably the painful reprogramming actions 
we will undoubtedly forward to you in the coming months.

                             FORCE SHAPING

    In force shaping, we face the challenge of our own success. 
In the current fiscal year, we temporarily slowed recruiting so 
that the Active Force will be at or below our congressionally 
authorized end strength by October 1. Fiscal year 2006 will 
return us to a normal recruiting year, and we'll need your 
support in the fiscal year 2006 appropriation for robust 
recruiting and accession programs. Our goal is a properly sized 
and shaped force, with the right end strength, the right skill 
mix, and the right balance between active duty, Guard, Reserve, 
and civilians.

                       CONTINUING TRANSFORMATION

    My fourth priority is to sustain our momentum in 
transforming the way we manage our part of the Department of 
Defense enterprise. From the national security personnel system 
to our capabilities review and risk assessment, base 
requirements determination process, to improved information-
technology domain management, we are ensuring that our Air 
Force remains efficient, agile, and adaptable to meet the 
emerging threats of this century.

                     RESTORING TRUST AND CONFIDENCE

    Finally, I'm concerned that events of the last few years 
have eroded your trust and confidence in your Air Force and its 
leaders. Restoring that trust and confidence is a solemn 
obligation I take very seriously.
    Mr. Chairman and distinguished members of the subcommittee, 
thank you again for your consistent support. The United States 
Air Force remains committed to protecting and defending our 
country's interests at home and abroad by enabling freedom of 
maneuver for joint and coalition forces and applying combat 
power, when directed. We are meeting today's threats, and, with 
your continued support, we will be prepared to meet tomorrow's 
threats, as well.

                           PREPARED STATEMENT

    Thank you for the opportunity to be here today. I look 
forward to your questions.
    [The statement follows:]
 Prepared Statement of Honorable Michael L. Dominguez and General John 
                               P. Jumper
    Mr. Chairman and distinguished members of the committee, the Air 
Force has a boundless future. The Service continues its transformation 
to meet the emerging challenges of a dynamic world, and to ensure the 
nation's security by dominating the global commons of air, space, and 
cyberspace. The fiscal year 2006 budget takes a significant step toward 
that future.
    During the last decade the United States Air Force transformed to a 
modular expeditionary force of ten Air Expeditionary Force packages 
providing agile air and space power that has proven so successful 
across the spectrum of operations from No-Fly Zone operations to the 
Global War on Terrorism. We will continue transforming to meet the 
challenges of a dynamic world by rebalancing the force and realigning 
our structure into a Future Total Force that meets increased demands 
for persistent intelligence, rapid mobility, and precision strike 
capabilities. These requirements-based capabilities, derived from our 
Concepts of Operation, are the necessary capabilities for joint and 
combined force operations; and represent the trades available between 
and among service components to deliver the right effects to combatant 
commanders.
    We are rebalancing the force by prudently changing our accession 
goals and realigning manpower to overstressed career fields to better 
balance our Airmen skill sets to get us to our authorized end strength. 
We will take advantage of our Total Force expertise by more closely 
aligning our Active Duty, Air National Guard, and Air Force Reserve 
units into associate units to enhance our overall capability. We will 
transform our command and control structure by establishing new 
Warfighting Headquarters, positioned globally, to provide Combatant 
Commanders the most effective means to command and control air and 
space forces. The efficiencies realized will help ensure the air 
dominance required for U.S. global operational access. But 
reorganization is just one effort used to adapt and enhance our force.
    Recapitalization and modernization of our aging weapon systems and 
wise investments in science and technology are crucial if we are to 
realize improvements in close air support, long-range strike, and 
operationally responsive space. Likewise, changes in the traditional 
methods of deterrence will require new capabilities to transform the 
current Triad of intercontinental and sea-launched ballistic missiles, 
and bomber aircraft into a New Triad--a diverse portfolio of non-
nuclear and nuclear ``strike capabilities'' and active and passive 
defenses. While we remain engaged in contingency operations and 
homeland defense missions, we look to the future where completely 
networked, horizontally integrated operations will lead to complete 
domination of the global commons of air, space, and cyberspace.
    Our 2005 Posture Statement reflects our good stewardship to manage, 
maintain, and develop an irreplaceable defense resource--America's Air 
Force. It is our vision for the future--a future in which the world's 
finest Airmen, together with our sister Services, will remain 
effectively decisive in combat to attain victory.

                              INTRODUCTION

    Today's security environment is characterized by change and 
ambiguity. The future will include a variety of challenges, including 
the risk of catastrophic attacks on the homeland, and the possibility 
of disruptive technological breakthroughs by our adversaries. The 
number and character of potential U.S. adversaries is growing and 
changing, as states and non-state actors acquire advanced technology 
and even weapons of mass destruction. We can foresee the near-term 
threats posed by ballistic and cruise missiles; chemical, biological, 
radiological, and nuclear weapons; advanced double-digit surface-to-air 
missiles; and sophisticated combat aircraft. We should also anticipate 
computer network attacks and attacks on other critical infrastructure, 
including space networks. Not only must we be prepared to confront 
these known threats, but we also must be ready for unexpected, 
disruptive breakthroughs in technology that may undercut traditional 
U.S. advantages. Maintaining a strong defense able to overcome and 
defeat these threats remains an imperative for our nation. Currently, 
the Air Force can command the global commons of air and space, and 
significantly influence the global commons of sea and cyberspace; 
however, we cannot maintain this advantage using yesterday's technology 
in the systems and air and space vehicles of our current force 
structure. Recapitalizing our aging systems is our number one 
challenge.
    We are steadfastly meeting these challenges head on. With 
capabilities-based planning; investments in modernization, science and 
technology; Airmen development; and a focus on integration, we will 
transform into a more lethal force.
    We are working with equal intensity to increase the integration and 
effectiveness of the joint and interagency team. The Air Force is 
responsible for several missions essential to the successful 
prosecution of any joint expeditionary operation: we provide the 
persistent intelligence and communications networks that deliver 
decision-quality information to the joint force commander; we provide 
global mobility in the airlift and tanker forces that move people and 
equipment anywhere on the planet; and we provide rapid strike by 
employing an umbrella of kinetic and non-kinetic strike capabilities to 
deliver precise, tailored effects.
    For America to hold its military advantage, the Air Force must 
continue to improve its vital national capabilities. This means 
anticipating the battlespace effects required in the future; we must 
begin today to create the force we will need tomorrow. The Air Force 
must adapt for the future without degrading its ability to conduct 
operations now and in the near term. At the same time, we must 
recognize fiscal constraints and remain a responsible custodian of the 
taxpayers' dollar. We have developed a long-range plan to allocate 
resources, balance risks, and shape the force to protect our nation--a 
comprehensive Future Total Force (FTF).
    Within FTF, we are restructuring our organizations for the decades 
ahead. The organizational concept within FTF leverages the strengths of 
all three components (Active Duty, Air Force Reserve, and Air National 
Guard), as well as anticipated advances in technology, to create the 
effects needed in tomorrow's battlespace. FTF encompasses all domains: 
space, air, ground, and information. Most importantly, it capitalizes 
on our most potent, flexible resource: our Airmen.
    Our Airmen are a vital national resource. A key element in their 
development is continuing to adapt the force structure to support 
expeditionary operations. We face the paradox of suffering shortfalls 
in certain high-demand career fields while exceeding our overall 
congressionally authorized end strength. Therefore, we have enacted 
several programs to reduce the total number of Air Force personnel 
while reinvigorating career fields experiencing shortfalls.
    As this century unfolds, technological innovation is accelerating 
at an unprecedented pace. Our challenge is to quickly convert 
laboratory ideas into battlefield effects. This entails more than 
creating new weapon systems; it means adopting a developmental culture 
that is inherently agile and responsive, enabling state-of-the-art 
technologies to reach the battlefield in real time. Such institutional 
agility will allow us to aggressively divest our legacy systems, field 
the capabilities needed to meet new strategic challenges, and integrate 
operations with those of the other Services and our coalition partners.
    Air and space power is an essential component of a joint 
warfighting team and a critical force multiplier for our Soldiers, 
Sailors, and Marines. Our paramount responsibility is to provide air 
and space dominance over the battlefield to enable the freedom of 
maneuver necessary for the success of joint and coalition operations.
    Whether strengthening the capabilities of Airmen on the 
battlefield; enabling joint service net-centric operations; furnishing 
more airlift and aerial refueling capability; or establishing an Air 
Component Coordination Element with ground force commanders, the Air 
Force is committed to increasing support to the joint warfighter. The 
United States Air Force makes the whole team better.

                       AIR AND SPACE POWER TODAY

    Even as the Air Force moves forward with the Future Total Force, we 
are engaged around the globe. Across many continents and missions in 
air and space, the Air Force is a complete partner with our sister 
Services, inter-agency partners, and friends and allies.
Global War on Terrorism
    Since the shockwaves of September 11, 2001, the Air Force has been 
integral to conducting and enabling joint and coalition operations in 
the Global War on Terrorism (GWOT). Across three campaigns, Operation 
NOBLE EAGLE (ONE), Operation ENDURING FREEDOM (OEF) and Operation IRAQI 
FREEDOM (OIF), the Air Force capabilities of rapid strike; global 
mobility; and persistent command, control, communications, computers, 
intelligence, surveillance, and reconnaissance (C\4\ISR) helped defend 
the air sovereignty of North America; break Taliban control of 
Afghanistan; identify, target, and destroy al Qaeda terrorist nests in 
Afghanistan; overthrow Saddam Hussein's regime; and conduct 
reconstruction and counter-insurgency operations in Iraq. Although the 
threat of terrorist attacks against the United States remains, the 
joint team--strengthened by the Air Force--has made substantial 
progress in putting terrorists on the defensive and developing the new 
security partnerships essential for a sustained GWOT.
Operations IRAQI FREEDOM and ENDURING FREEDOM
    The Air Force continues joint operations against Taliban remnants 
and Iraqi insurgents. At the close of 2004, we maintained nearly 31,000 
Airmen in the region--including 5,000 Air National Guardsmen and 2,500 
Air Force Reservists--and we were flying 225 sorties a day over Iraq 
and Afghanistan. Having already flown more than 250,000 sorties, the 
Total Force team of Active, Guard, and Reserve Airmen continues to 
perform aeromedical evacuation, persistent C\4\ISR from air and space, 
close air support, aerial refueling, and intertheater and intratheater 
airlift, while successfully adapting to the dynamic environment of 
asymmetric warfare.
    While certainly prominent in Major Combat Operations, rapid strike 
has continued to enhance joint warfighting during reconstruction and 
stability operations. Strikes against Taliban forces and Iraqi 
insurgents show the enduring need for strike capabilities and the 
capability of the Air Force to strike time-sensitive targets with 
minimal collateral damage. The Air Force is bolstering this capability 
with the deployment of 500-pound Joint Direct Attack Munitions now in 
theater, development of the Small Diameter Bomb, and development of 
directed energy weapons capable of delivering precise and tailored 
effects in adverse environments.
    Not only are Airmen directly overhead in Iraq and Afghanistan, but 
Airmen from as far away as Nevada are controlling remotely piloted 
aircraft critical to persistent C\4\ISR and rapid strike missions. For 
instance, Predator aircraft are able to transmit their live video 
pictures to ground-based targeting teams that are equipped with the 
prototype Remote Operations Video Enhanced Receiver (ROVER) system. 
Linking rapid strike and persistent C\4\ISR to forces on the ground, 
ROVER has been used repeatedly to detect, target, and destroy 
improvised explosive devices (IEDs), mortars, rockets, and other 
insurgent activities across the region. Bolstering these capabilities 
are Tactical Airborne Reconnaissance System (TARS) equipped F-16s flown 
by deployed Air National Guard units. The digital cameras on the TARS 
pod allow the pilot to conduct reconnaissance while simultaneously 
providing close air support. Integrating these two missions is the 
essence of responsive reconnaissance and integral to Air Force support 
to ground forces.
    To help defeat IEDs, the Air Force has fielded Specialized 
Explosive Detection Dogs and upgraded three flying platforms that 
specifically focus on detecting and defeating IEDs. In the future, we 
will deploy IED Defeat Field Teams to further study where Air Force-
unique systems can make an impact.
    To ensure uninterrupted sustainment of our deployed forces and 
unhindered global mobility, several initiatives are being implemented 
to enhance aircraft protection capabilities, including upgrades to 
existing aircraft defensive systems, accelerated installation of new 
systems, and improvements in software and flare dispensing patterns. 
These improvements will increase the capability to detect and defeat 
shoulder-fired missiles being used against our mobility aircraft.
    Recently, these mobility assets have been used to reduce the need 
for ground convoys on supply routes in Iraq. Flying above the IEDs and 
ambushes that challenge convoys, the use of Air Force airlifters like 
the C-130 and C-17 has reduced the number of trucks in convoys by 
nearly 350 trucks per day.
    Operations in Iraq and Afghanistan also highlight the importance of 
space-based C\4\ISR capabilities to U.S. and coalition forces. These 
capabilities have become integral to effective warfighting operations 
and include precision position, navigation and timing; secure 
communications; global weather; launch and support operations; 
persistent worldwide missile warning; and intelligence gathering. OIF 
and OEF relied on the all-weather precise position, navigation, and 
timing capability provided by the Air Force's Global Positioning System 
(GPS) constellation, satellite communications (SATCOM), and timely 
observations of weather and enemy activity. Carrying out time-sensitive 
targeting of Iraqi leadership and other critical targets during major 
combat operations, nearly 40 percent of all munitions used in OIF were 
GPS-guided and unaffected by the driving sand storms and inclement 
weather. Holding the ultimate high ground, Air Force space 
professionals keep a constant vigil over a global battlespace--
planning, acquiring, maintaining and operating the systems that sustain 
America's decisive advantage in space.
Operation NOBLE EAGLE and Homeland Defense
    The Air Force's principal Homeland Defense mission is Air Defense 
and preserving the air sovereignty of the United States and its 
territories. Since 9/11, more than 37,000 fighter, aerial refueling, 
and airborne early warning sorties have been flown in defense of the 
United States, while more than 1,800 air patrols have responded to 
actual incidents and suspicious flight operations. A mission that 
leverages the Air Force Reserve, Air National Guard, and Active Duty 
components, the Citizen Airmen of the Air National Guard have primary 
responsibility for providing alert aircraft at 17 of 18 sites.
    The Air Force has also worked extensively with joint, interagency, 
and combined organizations to improve the effectiveness of Homeland 
Defense activities. Exercises like DETERMINED PROMISE-04 and UNIFIED 
DEFENSE-04 illustrated how rapid strike, persistent C\4\ISR, and global 
mobility can be seamlessly integrated with other agencies, and prove 
critical to supporting U.S. Northern Command and the Department of 
Homeland Security.
    The Civil Air Patrol provides additional capability to Northern 
Command, federal agencies, and state and local governments in the 
Global War on Terrorism. Located throughout all 50 states, the District 
of Columbia, and Puerto Rico, the Civil Air Patrol leverages the skills 
and vigilance of 64,000 non-paid volunteers in more than 1,700 units to 
bolster the Nation's defense.
Other Contingency Operations
    In addition to operations at home and Southwest Asia, the Air Force 
supported multiple other operations around the globe in 2004. 
Complementing our permanent presence in Northeast Asia, we bolstered 
the deterrence of North Korea with the continuous deployment of six B-
52 bomber aircraft to the American territory of Guam. The 8,400 Airmen 
stationed in South Korea alongside Soldiers, Sailors, Marines and our 
South Korean allies are critical to regional stability, and have 
maintained the United Nations armistice on the Korean peninsula for 
over 51 years.
    In the Balkans, Airmen have flown more than 27,000 sorties in 
support of Operations JOINT FORGE and JOINT GUARDIAN. These NATO-led 
operations combine joint and allied forces to implement the Dayton 
Peace Accords in Bosnia-Herzegovina and enforce the Military Technical 
Agreement in Kosovo. At the end of 2004, approximately 475 Airmen were 
supporting NATO's goal of achieving a secure and stable environment.
    Since December 1989 and throughout 2004, Airmen have been a 
critical part of the interagency fight against illegal drug and 
narcotics trafficking. Deployed along the southern United States, in 
the Caribbean, and Central and South America, eight aerostats and five 
ground-based radars provide around-the-clock monitoring of airspace. 
Operating these C\4\ISR installations, Airmen detected, monitored, and 
provided intercepts on hundreds of targets attempting to infiltrate 
U.S. airspace without proper clearance. Along with our joint and 
interagency partners, these operations resulted in hundreds of arrests 
and stopped thousands of pounds of contraband from being smuggled into 
the United States.
    Additionally, the Air Force is heavily involved in providing 
humanitarian relief to people in need around the globe. Most recently 
the Air Force deployed aircraft and Airmen to assist in relief efforts 
for the Southeast Asian countries struck by tsunamis. In the initial 
days, C-130s and KC-135s, flying 21 missions, delivered over 120 tons 
of food, water, medical supplies, vehicles, and personnel to assess 
relief assistance. In another region of the world, the Air Force 
provided airlift and logistical support to the deployment of African 
Union peacekeepers to the war torn area of Darfur in Sudan. Also, 
during recent elections in Afghanistan, we airdropped water and food to 
remote areas to help ensure a secure and smooth voting process.
    Supporting all of these world-wide operations is a robust training 
program that allows our Airmen to train like they fight. Competition 
for scarce air, land, and water resources threatens to further encroach 
onto our installations, ranges, and airspace--vital national assets for 
developing and testing new weapons, training forces, and conducting 
joint exercises. The Air Force supports legislative, regulatory, and 
management initiatives that protect Air Force operational capability 
while sustaining, restoring, and modernizing our natural 
infrastructure.
Air and Space Expeditionary Force
    The Air and Space Expeditionary Force (AEF) is how the Air Force 
organizes, trains, equips, and sustains forces to meet defense strategy 
requirements outlined in the National Military Strategy and Strategic 
Planning Guidance. Including the Active Duty, Air Force Reserve, and 
Air National Guard, the Air Force is divided into ten AEFs and an 
enabler force to support and sustain global expeditionary operations. 
Each AEF provides a portfolio of effects-based capabilities for the 
Combatant Commander. These capabilities are immediately available in 
two AEFs continually postured for rapid deployment. The remaining eight 
AEFs are in various stages of redeployment, rest, training, or 
deployment preparation but could rapidly deploy to a combat area if 
needed. When necessary, the full capability of the Total Force can be 
realized by surging the remaining AEFs.
    During 2004, worldwide requirements of OIF, OEF, and GWOT placed 
high demands on our Expeditionary Combat Support (ECS) forces, long-
range bombers, security forces, and other units. Due to this increased 
tempo, selected Air Force forces are still deployed at nearly twice the 
numbers that AEF policy defines as ``sustainable.'' To adapt to this 
new set of circumstances, we changed our AEF deployment length from 90 
days to 120 days, and the AEF cycle from fifteen months to twenty 
months. The greater deployment length allows greater continuity for 
expeditionary commanders in the field.
New Triad
    The National Military Strategy impacts our strategic forces as 
well. The Department of Defense's new defense strategy of employing a 
capabilities- vs. threat-based approach to planning led to the ongoing 
transformation of the existing triad of U.S. strategic nuclear forces 
(intercontinental and sea-launched ballistic missiles and bomber 
aircraft) into a New Triad composed of a diverse portfolio of systems. 
The elements of the New Triad will contain non-nuclear and nuclear 
``strike capabilities;'' active and passive defenses; and research and 
development and industrial infrastructure for developing, building, and 
maintaining offensive forces and defensive systems.
Worldwide Force Protection Challenges
    The United States faces an array of asymmetric threats from 
terrorists and rogue states necessitating a new Force Protection 
concept of Integrated Base Defense. The new concept draws from recent 
lessons learned and defines a Force Protection role for every Airman as 
a defender of bases and critical assets. We are also developing a wide 
range of offensive and defensive capabilities to include new ground 
sensors, unmanned aerospace sensors, a common operating picture, and a 
command and control suite that links these sensors to remotely-operated 
weapons and robotic systems. Non-lethal weapon systems have the 
potential for bringing a revolutionary set of capabilities to 
commanders.
    Countering and defending against chemical, biological, 
radiological, nuclear, and high-yield explosive (CBRNE) weapons is 
another element of Force Protection and Integrated Base Defense. To 
prevent adversary acquisition or development of these weapons, 
neutralize their capabilities, and restore essential operations and 
services after an attack, we are implementing a Counter-CBRNE Master 
Plan. This will improve our ability to meet operational needs, while 
maximizing joint cooperation and leveraging existing institutions and 
capabilities.
             air and space power, tomorrow through the fydp
Base Realignment and Closure 2005
    Base Realignment and Closure (BRAC) 2005 is the primary means by 
which the Air Force will optimize current infrastructure to enhance 
both warfighting capability and efficiency for the future. Taking a 
comprehensive, 20-year view, BRAC 2005 will allow the Air Force to 
realign the posture of our forces to better address the new challenges 
we face. Through creation of innovative organizational and basing 
solutions, the Air Force will facilitate joint and multi-component 
missions, reduce inefficiencies, and free up valuable resources to 
recruit quality people, modernize equipment and infrastructure, and 
develop the capabilities needed to meet 21st Century threats.
    While doing this we will remain focused on our three core 
competencies, which enable us to create the effects required on the 
battlefield of the future: Developing Airmen, Technology to 
Warfighting, and Integrating Operations. By focusing on these areas the 
Air Force has created a program through the Future Years Defense 
Program, which optimizes the return on our resources.
Developing Airmen
    To adapt to dramatic changes in force structure and the security 
environment, we established a set of strategic goals to focus our 
personnel mission.
            Force Shaping
    We are on track to bring active duty end strength to the 
congressionally-authorized level of 359,700 by the end of fiscal 2005. 
This planned reduction shapes the future force without jeopardizing 
career field health.
    The Force Shaping plan has two phases: (1) increase voluntary 
separations and retirements, and (2) further increase voluntary 
separations while simultaneously reducing programmed accessions. Phase 
1, implemented in February 2004, was used to judge retention behavior 
and ensure a measured approach to reducing end strength. Phase 2, begun 
in May 2004, allowed more service members an opportunity to leave 
active duty. Additionally, we significantly reduced the Selective 
Reenlistment Bonus (SRB) program from 146 to 62 enlisted skills, 
resulting in a significant decrease in first-term reenlistment rates, 
and we continue to review further reduction of SRB skills.
    Other Force Shaping initiatives include the PALACE CHASE program--
early separation from Active Duty to serve with the Air National Guard 
or Air Force Reserve--waiving of active duty service commitments, and 
resurrection of the Career Job Reservation Program to correct skill 
imbalances and re-train first-term Airmen into needed skills. 
Additionally, we took advantage of the statutory authority that allows 
2 percent of colonels and lieutenant colonels with two years time-in-
grade to retire in grade instead of waiting the normal three years; and 
some Air Force Reserve Officer Training Corps graduates may now go 
directly into the Air National Guard or Air Force Reserve.
    In fiscal 2004, we lowered accession goals by approximately 3,000. 
In fiscal 2005, we continued to lower our accession goals and have 
temporarily limited enlisted accessions to only the 58 most critical 
combat and combat support skills.
    The results of our Force Shaping efforts are positive, facilitating 
the migration of personnel into critical shortage specialties while 
reducing manpower to ensure we meet authorized end strength 
requirements by the end of fiscal 2005.
            Rebalancing the Force
    As we return to our authorized end strength, relief is flowing to 
``overstressed'' career fields. This is a multi-step process, but our 
guiding principle is simple--we will properly size and shape the force 
to meet the needs of the AEF. We are drawing down prudently, 
designating specialties and specific year groups within those 
specialties where we have more people than we need. At the same time, 
we are correcting our skill imbalances by realigning manpower and 
expanding training pipelines.
    We are also taking a hard look at where our people serve. We have 
Airmen serving outside the Air Force who don't deploy as part of an Air 
Expeditionary Force. They serve in joint and defense agency positions, 
some of which require uniformed people; however, others do not. Through 
military-to-civilian conversions and Competitive Sourcing initiatives, 
we are returning these Airmen ``to the fold.''
    The Guard and Reserve play a critical role in this endeavor. Today, 
25 percent of the air expeditionary packages are composed of Air 
National Guard and Air Force Reserve volunteers. As we take steps to 
ensure the long-term health of our Active Duty forces, we must do the 
same for our Citizen Airmen.
            Recruiting/Retention
    While reducing accessions is a tool currently being used to bring 
the force down to authorized levels, it is imperative that we continue 
to renew and replenish the ranks with targeted recruiting. For fiscal 
2005, we plan to access nearly 19,000 enlisted members and just over 
5,000 officers--a 44 percent reduction from normal enlisted recruiting 
levels and a slightly lower level of officers compared to fiscal 2004.
    As outlined under Force Shaping, a significant one-year reduction 
in our recruiting goal is part of a deliberate effort to reduce force 
size without jeopardizing long-term health. A one-year reduction will 
create a temporary decrease offset by the number of personnel accessed 
in preceding and subsequent years. We are committed to returning to 
normal recruiting targets as quickly as possible. Continued 
congressional support of our recruiting and marketing programs will 
greatly enhance the Air Force's competitiveness in a dynamic job 
market.
    A critical element for success is the ability to offer bonuses and 
incentives where we have traditionally experienced shortfalls. To 
protect this valuable resource we ensure active senior leadership 
management, including semi-annual reviews of which career specialties, 
and which year groups within those specialties, are eligible for 
bonuses. Congressional support for these programs, along with increases 
in pay and benefits and quality-of-life initiatives, has greatly helped 
us retain Airmen and their families.
            Personnel Service Delivery Transformation
    To achieve the Secretary of Defense's objective of shifting 
resources ``from bureaucracy to battlefield,'' personnel services are 
being overhauled. Our Personnel Service Delivery Transformation 
dramatically modernizes the processes, organizations, and technology by 
which we support Airmen and their commanders. Routine personnel 
transactions, for instance, may now be done ``on-line.''
    As a result, we deliver higher-quality personnel services with 
greater access, speed, accuracy, reliability, and efficiency. We 
programmed the resulting manpower savings to other compelling Air Force 
needs over the next six years. This initiative enhances our ability to 
acquire, train, educate, and deliver Airmen with the needed skills, 
knowledge, and experience to accomplish Air Force missions.
            National Security Personnel System
    Our civilian workforce will go through a significant transformation 
as well with implementation of the Department of Defense National 
Security Personnel System (NSPS). NSPS is a simplified and more 
flexible civilian personnel system that will improve the way we hire, 
assign, compensate, and reward our valuable civilian employees. This 
modern, agile human resource system will be responsive to the national 
security environment, while preserving employee protections and 
benefits, as well as the core values of the civil service. 
Implementation will begin as early as July 2005.
    NSPS design and development has been a broad-based, participative 
process including employees, supervisors and managers, unions, employee 
advocacy groups, and various public interest groups. Employees slated 
for conversion to the new system will be included in groupings called 
Spirals. Spiral One will include approximately 85,400 General Schedule 
and Acquisition Demonstration Project, U.S.-based Air Force civilian 
employees and will be rolled out in three phases over an 18-month 
period. The labor relations provisions of NSPS will be implemented 
across the Department this summer as well. NSPS is the most 
comprehensive new Federal personnel system in more than 50 years and a 
key component in the Department's achievement of a total force 
structure.
            Culture of Airmen
    We completed an Air Force-wide assessment of our sexual assault 
prevention and response capabilities, knowing we were not where we 
needed to be in addressing this societal problem that has serious 
readiness implications. A Campaign Plan was approved, and we are 
implementing specific initiatives to better understand the problem of 
sexual assault, do everything within our ability to prevent it, and 
prepare ourselves to provide consistent and continuing care for victims 
when it occurs.
    In response to an increased suicide rate among Airmen, we 
reemphasized, and continue to stress, the need for Airmen to look after 
one another. Commanders and co-workers are rethinking the way Airmen 
interact with one another, calling attention to behavioral indicators 
and risk factors associated with suicide. Safety and risk management 
are also being emphasized to reduce the number of accident-related 
fatalities. We are weaving this mindset into the very fabric of our 
culture.
    All Airmen have a responsibility to get involved, pay attention and 
ensure the health and well-being of their wingman. It's not a program, 
it's a mindset; a cultural shift designed to take better care of our 
most valuable resource--our people.
            Air Reserve Component (Air Force Reserve and Air National 
                    Guard)
    Recruiting and retaining quality service members are top priorities 
for the Air Force Reserve. Despite the strains mobilization places on 
the personal and professional lives of Reserve members, volunteerism 
remains high. In fiscal 2004, and for the last four years, the Air 
Force Reserve exceeded its recruiting goal. Despite the long-term 
effects of high operations and personnel tempo, Air Force Reserve end-
strength was within 0.7 percent of fiscal 2004 congressionally-mandated 
requirements.
    Reduced success in attracting military Air Force members who are 
separating from Active Duty has steered the Air Force Reserve toward 
recruitment and accession of non-prior service members. To meet the 
resulting increased training demand, 4,000 training slots per year are 
now allocated and funded for the Air Force Reserve. In addition, the 
Air Force Reserve is taking advantage of the previously mentioned 
PALACE CHASE program, which allows Active Duty members the opportunity 
to move to the Air Force Reserve or Air National Guard. These 
experienced members are then placed into critical career skills.
    Complementing the Air Force Reserve, the Air National Guard plays a 
vital role in support of the Homeland Defense mission and force 
transformation. The ability of the Air National Guard to achieve 
recruiting and retention goals through fiscal 2006 will help determine 
how well the Air Force assumes new missions and supports Homeland 
Defense.
    As the Air Force Reserve and Air National Guard continue to surge 
to meet operational requirements, we are examining existing law and 
policy that govern enlisted incentives and related compensation with an 
eye toward identifying changes that will encourage volunteerism. The 
reserve enlisted bonus program is a major contributor to attracting and 
retaining both unit and individual mobilization augmentee members in 
critical career fields. To enhance retention, we are ensuring relevant 
compensation statutes reflect the growing reliance on the Air Force 
Reserve and Air National Guard to accomplish Air Force missions. We 
continue to explore enhanced bonus authorities, which will provide the 
flexibility to target our most pressing needs.
    In addition, the Aviation Continuation Pay, the Career Enlisted 
Flyers Incentive Pay, and Aircrew Incentive Pay continue to be offered 
to retain our rated officer and enlisted personnel. We expanded the Air 
Force Reserve Special Duty Assignment Pay (SDAP) program by including 
an additional six career fields to enhance recruiting and retention, 
improve program alignment, and provide parity to Air Force Reserve 
members. The expansion authorizes the payment of SDAP to a reservist 
qualifying in the same skill and location as their Active Duty 
counterpart.
    The Air Force has made great strides in increasing education 
benefits for our Air Force Reserve and Air National Guard members, 
offering 100 percent tuition assistance for individuals pursuing an 
undergraduate degree and continuing to pay 75 percent for graduate 
degrees. In addition, we appreciate the President proposing and 
Congress enacting enhanced Montgomery GI Bill benefits for reserve and 
Guard members who have served lengthy deployments.
    The fiscal 2005 National Defense Authorization Act (NDAA) made 
permanent several authorities providing enhanced Health Care/TRICARE 
benefits for Air Force Reserve and Air National Guard members. For 
members with delayed-effective-date orders to serve on active duty in 
support of a contingency operation for more than 30 days, the new 
legislation permanently authorizes TRICARE eligibility for up to 90 
days prior to the member's activation date for eligible members and 
their families. Additionally, the NDAA extended the Transitional 
Assistance Management Program benefit period from 60 and 120 days to 
180 days for eligible members and their families.
            Training
    Distributed Mission Operations (DMO) is the cornerstone for Air 
Force training transformation. It is a readiness initiative to train 
warfighters as they expect to fight using simulation and high-fidelity 
architecture to link training at dispersed locations. DMO will reduce 
travel costs and operations tempo while providing mission rehearsal in 
an operationally realistic environment to maintain combat readiness and 
provide support to operations. It will prepare and assess Air and Space 
Expeditionary Forces and prepare AOC weapon systems, including Joint 
Force Air Component Commanders, for real-world missions. As an 
integration effort, DMO will leverage existing and emerging programs 
and technologies to fill gaps in total team training, rehearsal, and 
operations support.
    Due to the continuing high operations tempo, the Air Force is 
filling over 2,500 positions in 20 different combat support skills for 
the U.S. Army in deployed locations--one of those skills is combat 
convoy operations. As a result, we established the Basic Combat Convoy 
Course to supplement Army training. This comprehensive, self-contained 
course emphasizes small unit leadership, teamwork, weapons training, 
and tactical convoy operations, greatly improving convoy operations and 
personnel survivability. It also reduced total training time in Kuwait 
from approximately six weeks to one.
            Housing and Military Construction
    Through military construction and housing privatization, we are 
providing quality homes faster than ever. Over the next two years, we 
will renovate or replace nearly 36,000 homes through privatization, and 
an additional 11,000 homes through military construction.
    Still, Airmen primarily live in communities near our installations. 
Basic Allowance for Housing increases have reduced their average out-
of-pocket costs over the past few years, and will eliminate out-of-
pocket costs altogether in 2005, allowing greater flexibility for 
Airmen who reside off base.
    Investment in dormitories continues to accelerate in order to 
provide superior housing to our unaccompanied members--evidenced by 
nearly 4,400 dormitory rooms programmed for funding over the next four 
years. Approximately 75 percent of these will address existing 
inadequate dormitory conditions. Our new ``Dorms-4-Airmen'' standard is 
designed to increase camaraderie, social interaction, and 
accountability by providing four single-occupancy bedrooms/bathrooms 
with a common kitchen and living area in each module. The combination 
of the new standard and the Air Force's unit integrity assignment 
policy provides an excellent platform to increase interaction within 
the same unit. Finally, the remaining dormitory program jumpstarts a 
buy-out of inadequate ``pipeline'' dormitories--those dorms that house 
young enlisted students during their initial technical training. 
Pipeline dormitory standards provide a large living area for two 
students, two walk-in closets, a bathroom, and a separate vanity for 
each occupant. All substandard dorms will be replaced by 2009. Knowing 
the Air Force provides for a family's housing needs allows every Airman 
to focus on the mission.
    Airmen's performance and morale is directly influenced by quality 
work centers as well. Therefore, we've placed significant emphasis on 
recapitalizing and improving work facilities. We've focused investment 
in training facilities to ensure a quality technical and mission-
oriented learning environment. Similarly, we've implemented a plan to 
ensure all fitness centers meet current Air Force standards by 2011. 
Finally, we've continued our focus on providing quality childcare 
facilities.
            Battlefield Airmen
    Airmen are engaged beyond the air base; bringing technology to 
warfighting on the ground using advanced systems to designate targets, 
control aircraft, rescue personnel, and gather vital meteorological 
data. The Air Force is optimizing this family of specialties, known as 
Battlefield Airmen. So far, we have identified program management, 
acquisition, and sustainment synergies across the Combat Rescue, Combat 
Control, Terminal Attack Control, and Special Operations Weather 
functional areas. Because Air Force personnel are an integral part of 
the battlespace, we are also identifying common training requirements 
for these Airmen.
    We need to organize Battlefield Airmen for maximum effectiveness in 
the modern battlespace. In addition, we must train Battlefield Airmen 
in the skills required to maximize airpower, and standardize that 
training across those specialties with different Battlefield Airmen 
skills. Finally, we want to equip our Battlefield Airmen with improved 
and standardized equipment for missions in the forward and deep 
battlespace.
    This will expand commanders' abilities to employ battlefield 
airpower experts who can introduce unequaled accuracy, responsiveness, 
flexibility, and persistence into designated air operations.
    Joint Terminal Attack Controllers (JTACs), a subset of Battlefield 
Airmen, direct the action of combat aircraft engaged in close air 
support and other offensive air operations from a forward position. For 
the first time, JTACs will be recognized across the Department of 
Defense as capable and authorized to perform terminal attack control in 
accordance with a joint standard. The Joint Close Air Support Executive 
Steering Committee directed the drafting of a Memorandum of Agreement 
defining the qualifications, certifications, and currencies these JTACs 
must possess and maintain.
    In addition to night-vision equipment, JTACs carry a hardened 
laptop computer and multi-channel radio. We've significantly reduced 
the weight these Battlefield Airmen must carry while simultaneously 
providing them with the ability to do such things as designate targets 
several kilometers away. We must further decrease the weight of their 
gear while increasing the capabilities and interoperability of their 
equipment with other air, space, and ground assets. This combination of 
technology facilitates the direct transfer of information to combat 
aircraft, minimizing errors in data transfer. To that end, the 
Integrated Air-Ground Imaging Initiative enables the A-10 to send 
digital targeting information instead of lengthy voice briefings; 
provides a LITENING or Sniper Targeting Pod video down link to the 
JTAC; and equips our JTACs with a multi-channel video receiver. This 
equipment will increase situational awareness, assist in combat 
identification, maximize first-attack success, shorten the kill-chain, 
and ultimately provide better support to ground forces.
Technology-to-Warfighting
            Capabilities-based Concepts of Operation
    The Air Force has established a capabilities-based approach to both 
war planning and force development, allowing focused investments on 
those capabilities needed to achieve the battlespace effects required 
by the joint warfighter. Our capabilities-based approach frees us from 
platform-centric force planning, leading to new ways of thinking and 
innovative combinations of systems.
    The Air Force has developed seven concepts of operation (CONOPS)--
six operational and one supporting foundational concept--for 
capabilities-based planning. The CONOPS define the effects we can 
produce across the span of joint tasks we may be tasked to perform, and 
help us identify those capabilities an expeditionary air force will 
need to achieve the desired battlespace effects. They also provide an 
operational context for determining how good our capability levels need 
to be and assessing how close we are to that objective.
  --Homeland Security CONOPS leverages Air Force capabilities with 
        joint and interagency efforts to prevent, protect, and respond 
        to threats against our homeland.
  --Space and Command, Control, Communications, Computers, 
        Intelligence, Surveillance, and Reconnaissance (C\4\ISR) CONOPS 
        encompasses the integration of manned, unmanned, and space 
        systems to provide persistent situational awareness, space 
        control, and decision-quality information.
  --Global Mobility CONOPS provides the planning, command and control, 
        and operations capabilities to enable timely and effective 
        projection, employment, and sustainment of U.S. power in 
        support of U.S. global interests.
  --Global Strike CONOPS employs joint power projection capabilities to 
        engage anti-access and high-value targets, gain access to 
        denied battlespace, and maintain that operational access for 
        required joint/coalition follow-on operations.
  --Global Persistent Attack CONOPS provides a spectrum of capabilities 
        from major combat to peacekeeping and sustainment operations. 
        Global Persistent Attack assumes that once access conditions 
        are established via the Global Strike CONOPS, there will be a 
        need for persistent and sustained air, space, and information 
        operations.
  --Nuclear Response CONOPS provides the deterrent ``umbrella'' under 
        which conventional forces operate and, should deterrence fail, 
        provides options for a scalable response.
  --The Agile Combat Support CONOPS details the capability to create, 
        protect, and sustain Air and Space Forces across the full 
        spectrum of military operations. It is the foundational, 
        crosscutting, and distinctive capability that enables Air Force 
        Operational Concepts.
    The CONOPS approach articulates operational capabilities that will 
prevail in combat and avert technological surprises. Through 
capabilities-based planning, we will continue to invest in our core 
competency of bringing technology to the warfighter, which will 
maintain our technical advantage and keep our air and space 
capabilities up-to-date.
            Capabilities Review and Risk Assessment
    The Capabilities Review and Risk Assessment (CRRA) process is the 
starting point for Air Force force planning and capabilities 
development. It replaced an outdated threat-based review process that 
focused on platforms instead of warfighting effects and the 
capabilities needed to achieve them. The CRRA requires a focus on 
capabilities and fosters development of innovative solution sets. The 
CRRA uses our six operational concepts and the foundational Agile 
Combat Support concept to examine and assess our Air Force capabilities 
now and in the future.
    During the CRRA cycle, Risk Assessment Teams, composed of experts 
drawn from all specialties in the Air Force and supported by models, 
simulations, and other analytical tools, consider the requirements of 
the CONOPS. They review existing and planned programs, Science and 
Technology activities, and non-materiel factors. They determine the Air 
Force's ability to deal with an adverse event and the impact on 
achieving the joint warfighting effects if the Service fails to provide 
the capability. Any shortfalls are screened against documented Lessons 
Learned and Combatant Commander Integrated Priority Lists.
    The CRRA provides senior Air Force leaders an operational-, 
capabilities-, and risk-based focus for investment decision-making. It 
uses operational warfighting effects as the drivers for Air Force 
resource allocation, while also protecting public health and natural 
resources.
            Recapitalization/Modernization
    The number one challenge for the Air Force is the need to 
recapitalize our aging systems. For example, our aircraft fleet now 
averages 23 years old. To determine the viability of these aging 
fleets, we chartered the Air Force Fleet Viability Board (AF FVB) in 
2004 to establish a continuous, repeatable process for conducting fleet 
assessments. The AF FVB completed its first assessment, of the C-5A, in 
July 2004, and is currently studying the 43-year-old KC-135 fleet.
    The principles we applied this year during the CRRA process ensured 
sufficient readiness to support the Global War on Terrorism while 
transforming the force and maintaining an acceptable level of risk. We 
have proposed recapitalization and modernization project funding 
necessary to extend today's legacy forces while bridging to required 
future systems.
    Our primary modernization program is the F/A-22 Raptor. The F/A-
22's revolutionary low observable technology, supercruise (Mach 1.5 
without afterburner), integrated avionics, and exceptional 
maneuverability will guarantee America's air dominance and joint force 
freedom of operation. The F/A-22 program is transitioning from 
development to full rate production and fielding, where the aircraft 
will join an integrated air and space force capable of responsive and 
decisive global engagement.
    The program entered Initial Operational Test and Evaluation (IOT&E) 
in April 2004 to evaluate its operational effectiveness and 
suitability. Air-to-air capabilities were successfully demonstrated and 
initial air-to-ground capabilities were demonstrated with successful 
testing of the Joint Direct Attack Munition. In parallel with IOT&E, F/
A-22 aircraft deliveries continue at Tyndall Air Force Base, Florida, 
where the first cadre of operational F/A-22 pilots is training. The 
27th Fighter Squadron at Langley Air Force Base, Virginia, is on track 
to establish Initial Operational Capability for the F/A-22 in December 
2005.
    Complementing the tremendous capabilities of the F/A-22 is the F-35 
Joint Strike Fighter, an important element of the Joint Warfighter's 
Tactical Aircraft Modernization plan. For the Air Force, it will 
recapitalize today's F-16 and A-10 combat capabilities. Specifically, 
it will provide affordable and survivable precision engagement and 
global persistent attack capabilities. Optimized for all-weather 
performance, the F-35 will destroy an enemy's ability to attack or 
defend. In 2004, the F-35 program successfully addressed early design 
maturity challenges. The Service Acquisition Executive responsibility 
also switched from the Navy to the Air Force. In this capacity, we will 
continue to develop the three basic aircraft variants and coordinate 
the interests of the Navy and Marines, along with our numerous 
international partners.
    Remotely Piloted Aircraft have demonstrated their combat value in 
the Global War on Terrorism. The RQ-1/MQ-1 Predator continues to 
transform warfighting; providing persistent intelligence, surveillance, 
and reconnaissance; target acquisition; and strike capabilities against 
time sensitive targets. Used in every Air Force operation since 1995, 
Predator has amassed over 100,000 flying hours. Today, with U.S.-based 
flight and mission control, Predator is truly providing a revolutionary 
leap in how we provide military capability. Equipped with an electro-
optical, infrared, and laser designator sensor, and armed with Hellfire 
missiles, Predator not only shortened the sensor-to-shooter timeline--
the sensor is now the shooter.
    We are developing the ability to operate multiple aircraft from a 
single ground station--in effect, multiplying our overall combat 
effectiveness over the battlefield. We are also developing and 
deploying a larger, more capable, and more lethal variant--the MQ-9 
Predator B. The MQ-9 Predator B will employ robust sensors to 
automatically find, fix, track, and target critical emerging time 
sensitive targets.
    By contrast, Global Hawk is a high altitude, long endurance, 
remotely piloted aircraft that provides robust surveillance and 
reconnaissance capabilities. Through the innovative use of synthetic 
aperture radar and electro-optical and infrared sensors, Global Hawk 
provides the warfighter unrelenting observation of intelligence targets 
in night, day, and adverse weather. Since its first flight in 1998, 
Global Hawk has flown over 5,000 hours--over half of that time in 
combat.
    Global Hawk provides superior intelligence, surveillance, and 
reconnaissance data while deployed in support of the Global War on 
Terrorism. While cruising at extremely high altitudes, Global Hawk can 
collect information on spot targets and survey large geographic areas, 
providing military decision-makers the most current information about 
enemy location, resources, and personnel.
    Dissemination and ground support exploitation systems consistently 
deliver timely intelligence to bring immediate advantage to combat 
operations. Despite its developmental status, Global Hawk is in 
constant demand by Combatant Commanders.
    The C-17 production program continues to be a success story for the 
joint warfighting community. We are on schedule to receive the 180th of 
these force multipliers in 2008. In concert with C-5 modernization 
programs, C-17 acquisition is the critical enabler for meeting 
established airlift requirements in support of the current force-
planning construct. Currently, the Joint Staff, Office of the Secretary 
of Defense, and Air Mobility Command are reviewing mobility 
requirements in light of the new National Military Strategy and the 
Global War on Terrorism. This Mobility Capabilities Study will provide 
a basis for determining future wartime airlift requirements. In the 
meantime, the C-17 has been the airlifter of choice in contingency 
operations. During Operation ENDURING FREEDOM, C-17s airdropped over 
two million humanitarian rations. In Operation IRAQI FREEDOM, the C-17 
performed the largest troop airdrop since Operation JUST CAUSE in 
Panama, opening the Northern Front during initial operations.
    Tomorrow's enabling capabilities will be hosted on a variety of 
systems to include the E-10A aircraft. The E-10A is being developed to 
identify and track enemy, friendly, and neutral forces, as well as non-
combatants. It will provide persistent intelligence, surveillance, 
reconnaissance, and environmental data, and fuse multi-source 
information into a common operating picture. In addition, it will find, 
fix, track, and target low-flying cruise missiles and moving surface 
targets. The E-10A program and its Multi-Platform Radar Technology 
Insertion Program, in conjunction with other weapon system platforms, 
will give the Combatant Commander a seamless picture of the battlespace 
and an integrated defense against the cruise missile threat. This 
capability allows friendly forces to respond to time-sensitive 
opportunities with decisive force.
    The Air Force has also emphasized the Persistent Ground Attack 
mission for the next-generation Joint Unmanned Combat Air System 
capability demonstration program. This system will undergo an 
operational assessment in the 2007 to 2010 timeframe.
    We must also recapitalize our aging tanker aircraft fleet. Based on 
the completion of the KC-135 Recapitalization Analysis of Alternatives, 
the air refueling portion of the Mobility Capabilities Study, and the 
results of the Air Force Fleet Viability Board study, the Air Force 
anticipates Department of Defense direction to execute the KC-135 
recapitalization program of record. This program will support both the 
2005 National Defense Authorization Act, which authorized purchase of 
up to 100 tanker aircraft through a multi-year contract, and the 2004 
Defense Appropriations Act that established a $100 million tanker 
replacement transfer fund.
    Capabilities-driven modernization and recapitalization efforts 
continue on space systems as well; as we modernize our critical 
constellations and capabilities across the spectrum of navigation, 
weather, communication, missile warning, launch, surveillance, and 
ground systems.
    The Evolved Expendable Launch Vehicle (EELV) fields two launch 
designs to provide assured access to space for government systems. The 
Transformational Communications Satellite will employ Internet Protocol 
networks and high-bandwidth lasers in space to dramatically increase 
warfighter communications connectivity. Modernization of Global 
Positioning System (GPS) and development of the next-generation GPS III 
will enhance navigation capability and improve resistance to jamming. 
In partnership with NASA and the Department of Commerce, the Air Force 
is developing the National Polar-orbiting Operational Environmental 
Satellite System, which offers next-generation meteorological 
capability. We are well on the way to deployment of the Space-Based 
Infrared System, a transformational leap in capability over our aging 
Defense Support Program satellites. The Space Radar effort has been 
refocused on developing a system that meets the needs of both military 
and intelligence community users. Each of these systems support 
critical C\4\ISR capabilities that give the Joint Force Commander 
increased technological and asymmetric advantages.
    Space superiority efforts are enabled by comprehensive space 
situation awareness (SSA) and defensive and offensive counterspace 
capabilities. Enhanced ground-based and new space-based SSA assets will 
provide the necessary information to gain and maintain space 
superiority. With respect to defensive counterspace, we maintain a 
diversified ground-based command and control network and are developing 
increased protection for our satellites and space-based services to 
ensure the capabilities are there in time of battle. We also recently 
fielded the counter-communications system to deny these same services 
to our adversaries. A well-balanced architecture will enable execution 
of an effective space superiority strategy.
    Our Depot Maintenance Strategy and Master Plan calls for major 
transformation in financial and infrastructure capitalization. To 
support this plan, the Air Force increased funding in fiscal 2004-2009 
for depot facilities and equipment modernization. We also began a 
significant push to require weapon system managers to establish their 
product support and depot maintenance programs early in the acquisition 
cycle, and to plan and program the necessary investment dollars 
required for capacity and capability. Additionally, we are partnering 
with private industry to adopt technologies to meet capability 
requirements. The result--enhanced warfighter support.
    Finally, improvements to our air and space systems will require 
improvements in our foundational support systems. Deteriorating 
airfields, hangars, waterlines, electrical networks, and air traffic 
control approach and landing systems are just some of the 
infrastructure elements needing immediate attention. Our investment 
strategy focuses on three simultaneous steps: disposing of excess 
facilities, sustaining our facilities and infrastructure, and 
establishing a sustainable investment program for future modernization.
            Expectation Management/Spiral Development/Systems 
                    Engineering
    To improve effectiveness in providing technology to the warfighter, 
we've enacted several new acquisition policies. Expectation management, 
spiral development, and renewed emphasis on systems engineering will 
eliminate technological surprises and reduce weapon system delivery 
cycle times.
    Expectation management means better collaboration between the 
warfighting and acquisition communities during the life cycle of a 
weapon system. At least yearly, general officers from the major 
commands and acquisition community will formally review the cost, 
schedule, and performance of acquisition programs. Beginning with frank 
discussion about the ``art of the possible,'' these sessions will 
subsequently inform decision makers about the ramifications of evolving 
requirements and funding changes.
    With a spiral development acquisition process, we expect to deliver 
a baseline combat capability to the warfighter faster than a process 
which focuses solely on a ``100 percent solution.'' This approach 
increases flexibility to respond to the ever-changing nature of 
external threats and resource fluctuations. Building on a solid systems 
engineering foundation, we expect to maximize improvements in 
communication and development strategy, paying dividends in 
transitioning technology to warfighting faster, and at reduced cost.
    Systems engineering ensures that contractor-proposed solutions are 
both consistent with sound engineering principles and are spiral 
capable. It is the chief means by which we can hedge against technology 
risk. We must have the capability to proceed smoothly from one spiral 
development effort to the next, capturing as much capability as current 
technology and funding can produce. Under the direction of the Service 
Acquisition Executive, Milestone Decision Authorities will now review a 
program's proposed approach to systems engineering prior to approving 
Acquisition Strategy Plans. Indeed, systems engineering performance is 
so critical to our capability to transition technology to the 
warfighter that it is included among contractor incentives. Many of the 
above approaches are already in use.
    In our space system acquisition, we will continue to emphasize the 
transition from ``cost as the primary driver'' to ``mission success as 
the primary driver.'' We will also continue to stress the importance of 
budgeting to the most probable cost--with realistic reserves--and the 
value of independent cost assessments, independent technical 
assessments, program assessments, and reviews. Maintaining sufficient 
reserves is essential to effectively executing these challenging 
National Security Space Programs.
            Transforming Business Process
    By leveraging the availability of global information, we are 
achieving significant operational advantages. All Air Force CONOPs rely 
heavily on critical information resources that are available ``on the 
network'' and delivered through a net-centric operating environment 
that is robust, secure, and available. To maintain information 
superiority, the Air Force must target a common infrastructure and 
fully leverage enterprise services and shared capabilities. To ensure 
the most efficient infrastructure, we are identifying enterprise-wide 
information resource solutions. These solutions are designed to deliver 
and implement efficiencies, which allow us to accelerate horizontal 
information integration, reduce information exchange barriers, reduce 
the total cost of information delivery, and shift resources to support 
warfighter operations and weapon system modernization.
    For example, we reduced operating costs over the last two years by 
consolidating our networks and servers that provide Information 
Technology (IT) services. More importantly, networks are more stable 
with increased uptime and lower failure rates. We have improved our 
security with a better computer defense posture and are able to deploy 
patches and updates to the field quickly, resulting in fewer successful 
intrusions and denial of service incidents. In addition, the stand up 
of the Air Force Network Operations and Security Center will advance 
our consolidation efforts and real-time monitoring of performance, 
configuration control, and security posture.
    The GeoBase program provides standardized installation mapping and 
visualization support to Airmen through deployment of integrated aerial 
photography and geospatial data layers. These IT products support the 
joint warfighter common operating picture, minimize wasteful and 
potentially dangerous redundant data collection efforts, and enable 
cross-service situational awareness and decision-making capabilities.
    IT Portfolio Management ensures IT investments align with Air Force 
priorities and produce measurable results. Annual Air Force-wide 
portfolio assessment ensures scarce resources are managed through the 
Capital Planning Investment Control processes: select, control, and 
evaluate. Senior leadership support of Portfolio Management enables the 
Air Force to gain greater visibility into resources from an IT 
enterprise perspective.
    Likewise, we are transforming financial management by procuring and 
implementing a modern commercial-off-the-shelf accounting system that 
will produce accurate, reliable, and timely information. We are also 
streamlining and centralizing our customer service organizations and 
processes to invest more resources towards value-added demands while 
reducing the cost of transaction-oriented tasks. The result will be a 
smaller, but more efficient organization with enhanced financial 
management skills that can partner with stakeholders to make informed 
financial decisions based upon real-time information.
            Department of Defense Teleport Program
    The DOD Teleport program is the expansion of Defense Satellite 
Communications System's Standardized Tactical Entry Point (STEP) 
program. Teleport builds on the existing STEP program concept and was 
approved for initial development in 1998. Seven STEP sites have been 
selected to be upgraded to six Teleports: Defense Information Systems 
Network Northwest, Virginia; Fort Buckner, Japan; Wahiawa, Hawaii; Camp 
Roberts, California; Lago di Patria, Italy; and Ramstein Air Base/
Landstuhl, Germany (combined Teleport site). Teleport extends services 
to the deployed user, providing secure and non-secure telephone 
service; secure and non-secure Internet Protocol routing; and video 
teleconferencing through worldwide satellite coverage between 65 
degrees North and 65 degrees South latitudes. DOD Teleport provides 
these services through a variety of satellite communication systems, 
including the use of commercial satellites.
            Air and Space Operations Center Weapon System (AOC WS)
    The AOC WS is the focal point where command and control of all air 
and space power is harnessed to deliver combat effects to the 
warfighter. To make this center more effective, we made it a weapon 
system--and we man it and train like it's a weapon system: certified 
and standardized. We've injected the technology to increase machine-to-
machine connectivity by developing the software and procedures to 
enable information fusion and accelerate the decider-to-shooter loop. 
We expect to have all five of our AOC weapon systems (known as 
Falconers) fully operational by fiscal 2006.
Integrating Operations
    The Air Force provides a global presence and response capability 
for the National Military Strategy that gives warfighters timely and 
reliable access to all human, materiel and information resources. With 
our expeditionary approach to warfighting, we are relying more heavily 
on global operational support processes and extensive reachback--the 
ability to support overseas operations from stateside locations. We are 
modernizing these processes and related systems.
    Key to this modernization is the establishment of common and 
interoperable capabilities such as a single Air Force Portal and data 
repository within the classified and unclassified domains. Over the 
past 18 months, we have designed and implemented the Global Combat 
Support System-Air Force program--a set of capabilities that support 
our vision and objectives. Using these capabilities, we have rapidly 
integrated legacy and newly developed applications and services, drawn 
information from global sources to provide a composite view of 
information, and eliminated the costly requirement for each program to 
purchase and support unique hardware and system software.
            Operational Support Modernization Program
    The Air Force's Operational Support (OS) transformation is a seven- 
to ten-year journey. By focusing on effectiveness and contribution to 
warfighting effects, we can identify the early steps in this 
transformation journey, and accelerate the delivery of changes that 
contribute to the core mission of the Air Force.
    In May 2004, a Commanders' Integrated Product Team (CIPT) issued 
the Operational Support Modernization Program (OSMP) Flight Plan. The 
plan identified four OS critical processes--Deployment Management, 
Operational Response, Agile Sustainment, and Focused OS Command and 
Control. The plan identified three enablers of OS transformation--
providing Shared Authoritative Data, executing an Integrated Workflow, 
and providing a Common Operational Support Picture.
    Money has been set aside from fiscal 2005 to fiscal 2009 to fund 
modernization and transformation efforts under the Operational Support 
Modernization Initiatives (OSMI). This venture capital funding provides 
seed money for innovative ideas, allowing organizations to accelerate 
delivery of capabilities to the warfighter to improve effectiveness.
    In 2004, the CIPT established organizations that have captured a 
significant portion of the operational support enterprise architecture; 
coordinated the OSMI-04 analysis and decision process; developed a 
draft version of the OS Concept of Operations for Business 
Modernization; and initiated a ``Lean'' reengineering process within 
the OS community while establishing the foundation for the cooperation 
and coordination of Business Modernization efforts among the Air Force 
Domains and major commands. The present Lean efforts focus on three OS 
critical processes: AEF Deployment Management, OS Command & Control, 
and Full Spectrum Threat Response, and are aimed at the needs of the 
warfighter.
    In 2005, the CIPT expects to realize the initial benefits of the 
OSMP Flight Plan, including managing the OS processes and portfolio, 
fielding initial capabilities, beginning horizontal integration, 
increasing breadth of efforts, and engineering additional critical 
processes. Over the long term, CIPT hopes to institutionalize 
capabilities-based operational support.
    OS modernization promotes Air Force-wide transformation efforts, 
ensuring a cross-functional, cross-major command, enterprise approach 
with the goal of a fast flexible, agile, horizontally integrated OS 
process and system infrastructure.
    Likewise, warfighters and decision-makers are dependent on 
information generated and shared across networks worldwide. Successful 
provision of warfighting integration requires an enterprise approach of 
total information cycle activities including people, processes, and 
technology. To best leverage current and emerging technologies with 
warfighting operational and legal requirements, we are establishing a 
new organization in 2005, Networks & Warfighting Integration-Chief 
Information Officer (SAF/NWI-CIO). This new organization will absorb 
and consolidate the Deputy Chief of Staff for Warfighting Integration, 
Chief Information Officer, and Communications Directorate within the 
Secretariat. The organization will be led by an active duty lieutenant 
general.
    Our logistics transformation provides a recent example of these 
transformation efforts. While current logistics operations are 
effective, sustainment costs are rising. In fiscal 2003, the Air Force 
spent over $27.5 billion in operations and sustainment of weapon 
systems and support equipment. The costs will continue to escalate 
unless current logistics processes and associated information systems 
are improved.
    The Expeditionary Logistics for the 21st Century (eLog21) Campaign 
is the Air Force's logistics transformation plan, and it is essential 
to our overall Air Force Transformation program. The eLog21 goals are 
straightforward: a 20 percent increase in equipment availability by 
2009 and a 10 percent reduction of annual operations and support costs 
by fiscal 2011. The savings gained through eLog21 will provide the 
resources to support our warfighters by getting the right equipment to 
the right place, at the right time, and at the right price.
    At the core of this effort is a comprehensive examination of the 
core processes used to support warfighters. A few years ago, Air Force 
Materiel Command began a comprehensive process improvement effort 
called ``Lean'' within our three Air Logistics Centers. ``Lean'' 
produced, and will continue to produce, substantial results. For 
example, Robins Air Force Base, Georgia, freed up 20,000 square feet of 
valuable industrial floor space to support expanded activities. We seek 
to expand this transformational approach to base level maintenance, 
installation support, and training activities.
    There are many other facets of eLog21 that will leverage these 
improvements: expanding the regional repair concept we have employed in 
many deployed areas; streamlining the supply chain through better 
collaboration with vendors; using commodity councils that are 
responsible for managing the purchasing of weapon system components; 
and leveraging the power of information technology through enterprise 
resource planning, known as the Expeditionary Combat Support System.
    Ultimately, eLog21 is about our people. The most important factor 
will be our ability to tap into the ideas and energy of the thousands 
of logisticians who keep our Air Force operating every day. It is not 
just a staff project or a new information technology. It is a team of 
Airmen developing new concepts in global mobility.

                 SHAPING TOMORROW'S AIR AND SPACE POWER

Future Total Force
    As we move into the 21st century, the Air Force faces increasing 
modernization and recapitalization challenges, increasingly hard to 
define adversaries, and constrained budget realities. While we possess 
weapon systems to meet today's challenges and are investing in cutting 
edge technology and highly capable, highly trained personnel, we must 
make transformational changes to maximize the capability these advances 
provide. To accomplish this, the Air Force has developed a modified 
force structure and new organizational construct--the Future Total 
Force (FTF).
    FTF provides the Air Force the capability and organizational 
flexibility to address the near-term challenges of aging systems and 
emerging missions. Furthermore, FTF will increase the Air Force's 
ability to deploy in support of combat while maintaining a credible 
force to continue necessary stateside training missions and Homeland 
Defense.
    In the future, the Air Force will shift investment from 
``traditional'' combat forces with single mission capabilities to 
multi-role forces, and aggressively divest itself of legacy systems. 
The result is a force structure with expanded capability to combat 
irregular, catastrophic, and disruptive threats, while maintaining the 
capability to combat ``traditional'' threats.
    This smaller but more capable force will provide for modernization 
and recapitalization of selected weapon systems, allowing us to commit 
more resources to networked and integrated joint enablers. Overall, 
this modified force structure increases support to the joint 
warfighter. With more airlift and aerial refueling capability, more 
capable space constellations, persistent air-breathing ISR, and new 
ways to think about close air support, the future Air Force will 
provide more of the capabilities demanded by the joint force.
    As part of this overall effort, the Air Force has developed an 
organizational construct that capitalizes on the inherent strengths of 
the Air Force's three components: the Active Duty, Air Force Reserve, 
and Air National Guard. In order to capitalize on these strengths, we 
based the FTF organizational construct on the successful associate 
model. Associate units are comprised of two or more components that are 
operationally integrated but whose chains of command remain separate.
    Toward this vision, new organizational constructs will integrate 
Air Force Reserve and Air National Guard personnel with their Active 
Duty counterparts in virtually every facet of Air Force operations.
    One of the key strengths of the Air Force Reserve and Air National 
Guard is higher personnel experience levels relative to Active Duty 
personnel. Increased integration will allow us to ``rebalance'' these 
experience levels, seasoning our Active Duty personnel through exposure 
to senior Reserve and Guard members. This also allows our Active Duty 
pilots to gain experience flying operational sorties while capitalizing 
on Reserve and Guard experience in an instructor capacity.
    In addition to enhancing our efforts on the battlefield, Air Force 
Reserve and Air National Guard members give us unsurpassed tools to 
conduct Homeland Defense missions. While still involved in 
expeditionary operations, FTF will increase the role of the Reserve and 
Guard in emerging stateside missions--a perfect fit for our Citizen 
Airmen. These changes will not only improve our operational 
effectiveness, but will reduce reliance on involuntary mobilization, 
providing more stability for Citizen Airmen and their civilian 
employers.
    The FTF, a modified force structure and new organizational 
construct, will give us the needed capabilities to meet future 
strategic challenges. Along with FTF, the Air Force has instituted 
initiatives in several key areas for the future.
Science and Technology
    The Air Force is committed to providing the nation with the 
advanced air and space technologies required to protect our national 
security interests and ensure we remain on the cutting edge of system 
performance, flexibility, and affordability. Air Force Science and 
Technology (S&T) investments are focused on achieving the warfighting 
effects and capabilities required by the Air Force Concepts of 
Operations.
    By focusing on the technologies we believe we will need in the next 
10 to 25 years, we have made great strides in the information 
technology, battlefield air operations, space operations, directed 
energy, and sensors areas. We are pursuing key technologies, for 
example, sensors to identify concealed targets; automated information 
management systems essential to net-centric warfare; and 
countermeasures for Man-Portable Air Defense Systems.
    One example, under development, is an integrated Surface Moving 
Target Indicator (SMTI) network composed of manned and unmanned air and 
space assets that will enable the Combatant Commander to remotely find, 
fix, track, target, and engage moving targets. Lessons learned from 
Operations DESERT STORM, ENDURING FREEDOM, and IRAQI FREEDOM reflect 
the growing importance of SMTI. This proven capability shortens the 
kill chain by providing the warfighter the ability to ``put a cursor on 
the target.'' By linking future SMTI capability to find, fix, and track 
a moving target to the F/A-22 and F-35 capability to target and engage 
that same target, we achieve a transformational battlefield capability.
     Other technologies, such as laser communications to increase data 
transfer rates or advanced micro air vehicles to provide persistent 
intelligence, surveillance, and reconnaissance, will increase future 
warfighting capabilities.
Command, Control, Communications, Computers, Intelligence, 
        Surveillance, and Reconnaissance
    Our goal is to achieve joint horizontal Command, Control, 
Communications, Computers, Intelligence, Surveillance, and 
Reconnaissance (C\4\ISR) integration and interoperability for the 
entire joint force. The vision is a seamless and ubiquitous network 
where space, air, and terrestrial assets have global machine-to-machine 
connectivity; where warfighters are armed with decision dominance, 
speed, and precision; and where weapon systems and platforms are 
``network-enabled.''
The Airborne Network for ConstellationNet
    The Air Force provides transportation layer components of the 
overall Department of Defense Global Information Grid under an effort 
we call ConstellationNet. The ConstellationNet is the information 
transport network (space, air, and ground) that allows a free flow of 
information rapidly accessible and presented to warfighters at the 
right time and right place to create the Combatant Commander's desired 
effects. The key to achieving information superiority is developing a 
robust space and air network that provides connectivity to network 
enabled platforms, fused intelligence, and real-time command and 
control. We are building the architecture and infrastructure that 
connects these platforms, creating a network in the sky.
    The space and air network will leverage evolving technologies and 
bring about the network-centric operations capabilities of Internet 
Protocol-based networks to overcome the current challenge of making the 
information exchange between platforms completely interoperable without 
degrading performance. These new technology standards and protocols 
will be incorporated through programs like the Joint Tactical Radio 
System, the Transformational Communications Satellite System, and the 
Global Information Grid-Bandwidth Expansion.
            The Ground Network for ConstellationNet
    The Combat Information Transport System (CITS) provides the Air 
Force ground segment of the ConstellationNet. CITS is structured into 
three components. The first is the communications transport component, 
which delivers high-speed and high-capacity network backbone capability 
for the distribution of voice, video, data, sensor, and multimedia 
information inside the base campus, as well as the gateway off the base 
to the Defense Information Systems Network and Global Information Grid 
Bandwidth Expansion locations. The second component is Net Battle 
Management. This component provides the capability to Air Force Network 
Operations and Security Centers (NOSCs) to centrally command and 
control the Air Force ConstellationNet across space, air, and ground 
information transport domains. To command and control the network, the 
NOSCs must have the ability to control the flow, routing, and traffic 
priorities of information based on mission requirements. Additionally, 
they must have the ability to grant and deny access to the network 
based on mission need and threat to the Global Information Grid. This 
leads to the third component of CITS, Net Defense. The Net Defense 
component integrates and fields information assurance capabilities 
across the ground component, to prevent unauthorized access to 
ConstellationNet.
    The Air Force envisions machine-to-machine communication between 
platforms, manned and unmanned, on the ground, in the air, and in 
space. To command and control these interactions, the Air Force has 
initiated an effort called Warfighting Headquarters.
Warfighting Headquarters
    We are transforming our command and control structure by 
establishing new Warfighting Headquarters (WFHQ), positioned globally, 
and replacing our old Cold War structures to provide the Joint Force 
Commander with the most effective means to command and control air and 
space forces in support of National Security objectives. This new 
standing command structure consists of the Commander of Air Force 
Forces (COMAFFOR), the COMAFFOR's personal and special staffs, and the 
Air Force Forces functional staff. These forces will be organized and 
resourced to plan and deliver air and space power in support of U.S. 
and Unified Combatant Commander (UCC) strategies at a core capability 
level on a daily basis, further easing the transition from peacetime to 
wartime operations. The WFHQs are also structured to assume 
responsibilities immediately as the Combined or Joint Force Air 
Component Commander, and with the appropriate augmentation from the 
UCC, could assume the role as a Joint Task Force headquarters. The 
Warfighting Headquarters will also leverage the increased capabilities 
developed through Joint Warfighting Space.
Joint Warfighting Space
    The Air Force is intensifying its focus on operationally responsive 
space--the ability to rapidly employ responsive spacelift vehicles and 
satellites and deliver space-based capabilities whenever and wherever 
needed. The first step in achieving a global Operationally Responsive 
Space capability is the Joint Warfighting Space (JWS) concept. JWS will 
provide dedicated, responsive space capabilities and effects to the 
Joint Force Commander in support of national security objectives. The 
concept seeks immediate and near-term initial operating capabilities to 
meet pressing Joint Force Commander needs, and a Full Operational 
Capability beyond 2010. Additionally, the Air Force envisions that JWS 
system capabilities will evolve as technology advances and the needs of 
the theater commander change.
    In the near-term, JWS will exploit existing off-the-shelf 
technologies from each Service. It will enhance and incorporate space 
capabilities in joint training and exercises, increase space 
integration in the AEF, and allow the Joint Force Commander to take 
advantage of the many synergies provided by multi-service space 
professionals. Lessons learned from JWS in exercises and crisis 
employment will initiate changes to space doctrine and help the Air 
Force, fellow Services, and joint community develop innovative space-
derived effects.
    As technologies mature, JWS will bring the Joint Force Commander 
enhanced, dedicated capabilities that eliminate gaps in present-day 
space operations. The long-term plan envisions a fully capable 
expeditionary force, ready and responsive to theater warfighters' needs 
at the operational and tactical levels of war.
    When fully operational, the JWS capability will deliver responsive 
near space (i.e., the area above the earth from 65,000 to 325,000 feet 
altitude) and on-orbit capabilities to directly support the Joint Force 
Commander. If required, JWS squadrons could deploy from stateside to 
operate near space assets or integrate JWS capabilities into theater 
operations.
Improving Close Air Support and Battlefield Airmen
    To increase its rapid strike capabilities in the close battlefield, 
the Air Force is examining new ways to improve upon its joint close air 
support (JCAS) mission, as well as implementing a way to better train 
personnel for the employment of air and space power.
    By combining the payload, long-loiter, and high-altitude capacity 
of bombers with precision munitions, improved command and control, and 
precise targeting, we have expanded our ability to conduct CAS. 
Performing CAS at high altitude with great precision and persistence is 
a major advancement in joint operations with land forces. Using laser 
and Global Positioning System-guided bombs such as the Joint Direct 
Attack Munition (JDAM), and with direct communications with a ground 
controller, a variety of aircraft are able to drop large numbers of 
JDAMs very close to friendly troops, destroying the enemy with massive, 
yet tailored, firepower. This capability provides day/night and all-
weather support to ground forces.
    Today, primarily fighter and bomber aircraft, like the A-10, B-52, 
and F-16, conduct CAS. As these aircraft begin to reach the end of 
their service lives, F-35A Conventional Takeoff and Landing (CTOL) and 
F-35B Short Takeoff and Vertical Landing (STOVL) variants will become 
the Air Force's workhorses for CAS and other missions.
    The F-35B STOVL variant offers a capability to operate with 
advancing U.S. Army, Marine, and Special Operations forces in a non-
linear, dynamic battlefield. In addition, the F-35B will have 
commonality and interoperability with F-35s operated by other Services 
and Allies, facilitating Joint and Coalition operations.
    Additionally, Tactical Air Control Party Modernization Program 
improvements are transforming close air support control from reliance 
on voice communications during day/good weather conditions to digital/
video and night/all-weather capability. The Remote Operations Video 
Enhanced Receiver kit provides real-time video from remotely piloted 
aircraft and other video transmitters. It includes computers, software, 
and data link operations, and can transmit targeting information as 
well as formatted and free-hand messages. Laser range-finders and laser 
designators provide the ability to take full advantage of precision and 
near-precision munitions. Quickly and accurately identifying and 
relaying target information not only makes our forces safer by allowing 
engagement of enemy forces in minimum time, but also reduces the risk 
of engaging the wrong target.
Long-Range Strike
    To further refine its rapid strike capabilities, the Air Force is 
transitioning its Long-Range Strike strategy to focus on effects 
instead of platforms. We view long-range strike as the capability to 
achieve the desired effects rapidly and/or persistently on any target 
set in any environment anywhere at anytime. The Air Force is 
responsible for conducting long-range strike missions as part of the 
Global Strike Concept of Operations. Our forces must be responsive to 
multiple Combatant Commanders simultaneously and able to strike any 
point on the planet.
    Today, we provide deep strike capabilities through a variety of 
platforms and weapons. Future capabilities must continue to enhance the 
effectiveness of the system. Responsive capabilities combine speed and 
stealth with payload to strike hardened, deeply buried, or mobile 
targets, deep in enemy territory, in adverse weather, with survivable 
persistence in the battlespace.
Special Operations Forces
    We are emphasizing the unique effect produced by the synergy of 
Special Operations Forces (SOF) and rapid strike, and evolving 
requirements for SOF in the Global War on Terrorism. As part of meeting 
these new mission sets, we will continue to work in an increasingly 
joint environment with our sister service SOF units, and in concert 
with U.S. Special Operations Command. Our SOF units will enhance Army 
operations concepts resulting in a wider dispersion of ground forces 
across the battlefield.
    New mobility platforms such as the CV-22 Osprey and the Advanced 
Air Force Special Operations Forces Mobility Platform will add a new 
dimension in the ability to conduct SOF operations. Additionally, the 
F/A-22 will be a key enabler of forward operational access for joint 
forces. The Raptor will use its stealth and supercruise capabilities to 
support SOF and other maneuver elements deep in enemy territory, in 
what would otherwise be denied airspace.
    Closely related is the need to rapidly recover and extract 
personnel. We have begun the Personnel Recovery Vehicle Program, 
seeking to achieve initial operational capability in fiscal 2013 and 
replace the aging HH-60 combat search and rescue aircraft.
    We will continue to leverage our highly trained, highly motivated 
SOF personnel and develop technologies to devise a smaller, harder-
hitting, faster-reacting, highly survivable force that maximizes the 
element of strategic and tactical surprise to defeat America's current 
and potential adversaries.

                   SUMMARY--ON COURSE FOR THE FUTURE

    The Air Force of the future makes the whole team better. Built 
around the 2025 Force and its accompanying organizational construct, 
the Future Total Force, the Air Force will be a more capable, smaller 
force. As such, the future Air Force increases the capability and 
flexibility of the joint force--and, subsequently, increases options 
for the Secretary of Defense and the President. These military options 
will be crucial to the defense of the nation as the United States 
continues to wage the GWOT while transforming and strengthening the 
joint force for any future contingency.
    The Air Force offers an unparalleled set of combat capabilities to 
directly influence any joint or interagency operation, as well as the 
enabling capabilities to improve joint warfighting capabilities on the 
ground, on or under the sea, and in the air and space. Recognizing that 
no Service, or even DOD, can achieve success by itself, the Air Force 
has focused on increasing the integration and effectiveness of the 
joint force and interagency team.
    To achieve new levels of integration and effectiveness, the Air 
Force will take advantage of the United States' long-held command of 
the global commons--air, sea, space, and cyberspace. The Air Force 
intends to extend its current air and space power advantage. As part of 
the joint force, the Air Force is positioned to leverage its persistent 
C\4\ISR, global mobility, and rapid strike to help win the GWOT, 
strengthen joint warfighting capabilities, and transform the joint 
force--while minimizing risk.
    To accomplish this requires focused investment in our people, 
science, and technology, and recapitalization of our aging aircraft and 
weapon systems.
    As threats change and America's interests evolve, we will continue 
to adapt and remain the world's premier air and space force. Together 
with our fellow Services, we stand resolute, committed to defending the 
United States and defeating our enemies.

    Senator Stevens. General Jumper.
    General Jumper. Mr. Chairman, Senator Inouye, Members, it's 
a pleasure to share this table this morning with Mr. Dominguez, 
and I want to second my support for the priorities that Mr. 
Dominguez has laid out this morning. My comments this morning 
will be very brief.

                        RECRUITING AND RETENTION

    Today, we have 28,000 airmen deployed, working the issues 
that confront us around the world. Six thousand of those are 
from the Air National Guard and the Air Force Reserve; and 
2,000 of that 6,000 are volunteers. We are making our 
recruiting goals in almost every category, and our retention 
goals, also, in almost every category. And we enjoy great 
support from our Air National Guard and our Air Force Reserve 
of the missions of the United States Air Force.

                           FLYING OPERATIONS

    We're flying about 150 sorties a day over Iraq, and about 
75 sorties a day over Afghanistan every day. These missions 
include close-air support and surveillance missions. We have 
Predator--multiple Predator orbits up, doing surveillance for 
the forces on the ground; a very significant airlift effort, 
both the strategic airlift that comes across the oceans to 
resupply our forces and the tactical airlift that flies within 
the theater every day. A significant tanker effort, that is 
required to keep the airplanes from all of the services in the 
fight, takes place every day and goes largely unsung as our 
mobility force participates in Operation Iraqi Freedom. In the 
midst of all of this, we responded to the tsunami with more 
than 18 million pounds of relief supplies that were delivered 
in the tsunami effort in and around Indonesia to relieve the 
beleaguered people there. Overall, over 300,000 sorties this 
past year in our efforts around the world.

                     RECAPITALIZING FORCE STRUCTURE

    I share Mr. Dominguez's grave concern, and put the highest 
priority on recapitalizing our force. As an example, our tanker 
force and our--portions of our C-130 fleet are over 40 years 
old, and we are already seeing about 2,000 of the 6,000 
airplanes in the United States Air Force are under some sort of 
a flight restriction, mainly due to aging considerations. We 
need to put emphasis on this. And, again, I share Mr. 
Dominguez's priority to put emphasis on recapitalizing our 
fleet.

                    VISITING AIRMEN AROUND THE WORLD

    And, finally, Mr. Chairman, you know the great people that 
are out there. And let me just tell you how important it is 
when you and members of this subcommittee, which you have all 
done, travel over to the area of responsibility (AOR) to visit 
our people. Believe me, they notice, and they--and I hear about 
it--and they appreciate that visible sign of support, when you 
all come and see them in action. It lets them know that the 
people back home do, indeed, support them. So I thank you for 
all your personal efforts to go make yourself visible to the 
forces that are, indeed, engaged around the world.
    I look forward to your questions, sir.
    Senator Stevens. Thank you, sir. And thank you both for 
your brief statement.
    I'm going to yield to Senator Inouye. We have a vote that's 
going to start at 10 o'clock, and then we have to go join the 
House for a joint session, starting at about 10:25, so this 
hearing will end about 10 minutes after 10.
    I yield to you, my friend and co-chairman.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. I thank you very much, Mr. Chairman.
    I have a prepared statement. I ask that it be made part of 
the record.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Mr. Chairman, I join you in welcoming our representatives 
from the Air Force. General Jumper, Secretary Dominguez we 
thank you for being here today.
    As the President's request was being formulated this 
winter, word of many changes started to crop up in the press, 
such as terminating the C-130, and canceling the F-22.
    As we review the actual budget we see that many of these 
issues are really recommendations that would occur in future 
budgets.
    For example, this budget includes funding to purchase the 
F-22, and while it does not include funding for Air Force C-
130's, it does fund the Marine Corps C-130 tanker.
    Nonetheless, the decisions to truncate plans for the F-22 
and C-130 are controversial matters that we will need to 
understand. We would expect that today's hearing would provide 
a forum to address these issues.
    Mr. Secretary, the Air Force is to be commended for its 
support of Operation Noble Eagle here at home, and Operations 
Enduring Freedom and Iraqi Freedom overseas.
    We know that the Air Force has provided great support for 
our ground forces in theater, using your tremendous airlift, 
reconnaissance, and fighter aircraft.
    In addition, what many people may be surprised to learn is 
that there are approximately 2,600 airmen and women in Iraq in 
direct support of the Army and marines serving as truck 
drivers, security guards and combat engineers.
    Mr. Secretary, General Jumper, in our hearings with the 
Army, Navy and marines I have expressed my concern about 
recruiting and retention. The other services are experiencing 
difficulties recruiting or retaining personnel. At this moment, 
the Air Force has the opposite problem, you have more military 
personnel than you can afford. So, I hope you will address this 
matter today to explain how the Air Force can be exceeding its 
personnel goals while the other services are having shortfalls.
    Gentlemen, we sincerely appreciate all that you and the men 
and women in your service are doing for our Nation. We cannot 
be more grateful for the sacrifices that you make every day.
    Mr. Chairman, I thank you for calling this hearing and I 
await the testimony of our witnesses.

    Senator Inouye. I want to point out that most Americans 
don't realize that you have about 2,600 men and women in Iraq, 
airmen and airwomen, driving trucks, doing combat engineer 
work, traffic, the jobs that other people do, like the Army or 
the Marines. And I want to commend you for pitching in to help 
the other services.
    Second, As you know, General, at this time, all services, 
with the exception of one, are having problems on recruiting 
and retention. You have a problem of your own. You've got too 
many of them.
    General Jumper. Yes, sir.
    Senator Inouye. We'd like to get some explanation on how 
you're able to achieve all of that. Naturally, as I've pointed 
out in the past, I'm concerned about the plans you have for C-
130s and the F/A-22s. These are--matters, I believe, which are 
not only of concern for Hawaii and Alaska, but for the whole 
Nation, and, for that matter, for the security of this globe.
    So I thank you very much for the service that all of you 
have rendered in Operation Iraqi Freedom and Enduring Freedom 
and Noble Eagle. Great job, sir.
    General Jumper. Thank you very much, sir. I appreciate that 
very much.
    Senator Stevens. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. I know time is 
short. I just want to welcome General Jumper and Secretary 
Dominguez to the subcommittee. I felt fortunate that I've spent 
a great deal of time with both of them. I think I even made 
their staff nervous because of the amount of time it took in my 
office with them yesterday. I spent the time because of the 
great respect I have for General Jumper's leadership. And, Mr. 
Secretary, I'm glad you're here. I've known General Jumper for 
some time, and I greatly admire him and his leadership team. I 
know they face some significant shortfalls--$3 billion in 
operations and maintenance, almost $750 million in personnel 
costs. I know we've always tried to work together in a 
bipartisan way to help them on these budgets, Mr. Chairman, and 
I pledge to work with you and Senator Inouye on that. But I 
just wanted to compliment them. If we don't have time for 
questions, I'll submit it for the record.
    General Jumper. Thank you, sir.

               MILITARY PERSONNEL END STRENGTH MANAGEMENT

    Senator Stevens. Thank you very much. You both have 
mentioned the fact that you're, sort of, utilizing attrition to 
meet your top line, as far as personnel is concerned. Tell us 
about that. You expect to go down to October--is that what you 
said, Mr. Secretary?--and then start recruiting? Our figures 
show that you're pretty much above your end-strength level 
authorized right now.
    Mr. Dominguez. Senator, we're--right now, at the end of 
March, we're about 3,000 airmen over our authorized end 
strength. That's the place we're supposed to be September 30. 
So we are in very comfortable territory. It's within the 
margin, now, of the wiggle room authorized by the Congress, 
plus or minus 3 percent of our end strength.
    We've been working the problem pretty aggressively for a 
couple of years. Of course, the biggest gains were the ones 
that we resisted having to make, and that's taking a very steep 
nosedive in our recruiting in fiscal year 2005, which we have, 
but we are recruiting. We are recruiting to our most critical 
shortfall skills. And we figured we could do that with a 1-year 
holiday. But we need, in fiscal year 2006, to return back to a 
normal recruiting year about 30,000 active component airmen, 
and that is the plan.
    Now, in addition to dealing with accessions to get to our 
end strength, we've been doing some pretty aggressive things to 
try and entice people to leave us when they're in overage 
skills. We've implemented career job reservation, where, if 
you're in an overage skill, you have to retrain into a shortage 
skill when you re-enlist. So these are all difficult kinds of 
things. We didn't like doing them, but we were obligated to do 
so.
    I want to highlight, one thing that we are trying to do is 
that we've worked in close partnership with the Army. Anyone in 
the Air Force who wants to move into the Army and continue 
their service there, we have a program called ``Blue to Green'' 
to help facilitate that movement.

                               RECRUITING

    General Jumper. We essentially cut our recruiting in half 
for this fiscal year, sir. And, essentially, from October to 
February, we essentially shut down recruiting. We picked it up 
again in February and are trying to work our way back into 
normal recruiting. But that's the step, the major step, we took 
to meet our end strength problem.
    Senator Stevens. Thank you very much.
    Let me state, for the members here, we have 20 minutes left 
of this hearing. The vote will start at 10 o'clock. Let me 
yield each of you 5 minutes, and then we'll see what happens 
with the last 5 minutes, whether someone else comes in.
    Senator Inouye is recognized for 5 minutes.
    Senator Inouye. Mr. Secretary and General, I'd just like to 
make a note and reflect upon history. When the B-2 was planned, 
we had planned for, I believe, 132. And, at that time, I 
believe the B-2 was going to cost us about $350 million per 
aircraft. In order to cut costs, so they were told, we cut it 
down to 21, and each B-2 cost around $2 billion. I see 
something like that happening to the F/A-22. Would something 
like that happen again, sir?
    General Jumper. Go ahead.

                          AIRCRAFT ACQUISITION

    Mr. Dominguez. Senator, we may be poised on that, and 
that's certainly part of the discussion that we're going to 
have with Secretary Rumsfeld and his team through the summer in 
the Quadrennial Defense Review (QDR). But, largely, the up-
front investment costs of building that airplane are sunk. If 
you--to buy the airplanes that were taken out of the budget in 
this latest round--costs about $10 billion for 100 airplanes. 
That's about $100 million a copy for the product. And legacy 
airplanes, the F-15E, if you were going to buy another one of 
those today, you'd be in the $90 to $100 million range, as 
well. So the sunk-cost argument is something we have to be 
really careful to explain.

                       QUADRENNIAL DEFENSE REVIEW

    General Jumper. We've got to make sure, sir, that, as we go 
into the Quadrennial Defense Review--I don't think that there's 
an argument about the capability of the airplane; it's going to 
be an argument--not an argument--it's going to be a discussion 
about the numbers of airplanes. And that's a relevant 
discussion. And the Secretary of Defense said we would have 
that discussion. And, hopefully, we'll be able to amortize all 
this investment we've had over the correct number of airplanes 
when we finish the Quadrennial Defense Review.
    Senator Inouye. I wish you the best, sir.
    General Jumper. Thank you, sir.
    Senator Inouye. We'll do whatever we can.
    The other matter that concerns me is the C-130J termination 
plans. I've been told that it may cost an extra billion 
dollars. Is there any truth to that?

                             C-130J PROGRAM

    Mr. Dominguez. Sir, what is accurate today is that the 
costs estimated for termination of the C-130J multiyear that 
are in the President's budget were underestimated. We know 
that, absolutely. The Secretary of Defense has acknowledged 
that. And his Office of Program Analysis and Evaluation is, 
right now, re-looking at that, trying to get a handle on what--
the more accurate figure of the costs of terminating the 
multiyear. The Secretary has committed to providing that 
information to the Congress, if not by the end of this month, 
certainly in the early part of May, before you're deep into 
your markup of the 2006 budget.
    General Jumper. And we also think, Senator, that, as the 
mobility requirements study is completed by the end of this 
month, that the mobility capabilities study will help inform 
the Office of the Secretary of Defense (OSD) and the Secretary 
of Defense on the proper steps to take for the C-130J multiyear 
contract.
    Senator Inouye. And I think the study will show that the C-
130J is needed. Am I correct?
    General Jumper. Sir, I haven't seen the study, but if I 
look at the world out there that we live in today, certainly 
there's great demand for the C-130. And, as you well know, the 
C-130s in the Air Force that we have today, many of them are 
facing groundings because of wing cracks. So that requirement, 
I see--personally, as I see it, is growing.
    Senator Inouye. Thank you very much, Mr. Chairman.
    Senator Stevens. Senator Domenici is recognized for 5 
minutes.
    Senator Domenici. Thank you very much, Mr. Chairman.

                  FUTURE AIRSPACE AND TRAINING RANGES

    General, I want to talk a little bit about airspace for the 
future. It's my understanding the Air Combat Command has 10 
training ranges across the United States. These ranges support 
different types of aircraft and targets, and allow for live-
ordnance delivery. These ranges and the airspace are critical, 
as I understand it, to the training of our Nation's premier 
aircraft. I believe it's less likely that new sources of 
airspace will be available for the Department of Defense in the 
future. In addition, recapitalizing tactical air assets with 
the Joint Strike Fighter (JSF) and with the F-22 will place 
greater demands on the need, as I understand it, for quality 
ranges. Is that correct?
    General Jumper. Sir, that's absolutely correct.
    Senator Domenici. Do you share my view that airspace for 
the Air Force will be at a premium in the future?
    General Jumper. I do, indeed, sir.
    Senator Domenici. All right. Why is it important that the 
Air Force of the future control large training ranges and the 
associated airspace?
    General Jumper. Well, sir, the very speed of the airplanes 
and the standoff distances of our weapons dictate ever-
increasing demands for airspace in an environment where that 
airspace is decreasing. So, if you take, for instance, an F/A-
22 that can supercruise at 1.5 Mach, or a small-diameter bomb 
that, when released, can glide out 65 miles to its target, 
those parameters are much different than anything we've seen 
with legacy airplanes in the past.
    Senator Domenici. And we hear a lot about training without 
having to do actual missions and actual in-the-field training, 
but do you believe that live, realistic training aircraft, like 
the JSF, will be critical to the combat success of those kind 
of airplanes?
    General Jumper. We'll never be able to substitute for all 
of live training. There's no doubt about it. Certainly, 
distributed mission training and distributed mission operations 
will allow us to have our aircrews train with certain types of 
platforms that are hard to get into the training environment, 
especially surveillance platforms. And we'll do that in a 
distributed way.
    There will be some training with next-generation munitions 
that we'll do in a simulator environment. But, in the end, you 
can never substitute--and, as a matter of fact, the great 
leverage that our airmen have is training, and the great 
leverage that we have over other air forces in the world is our 
ability to go out and do this live training, as you described.
    Senator Domenici. Well, I would assume, with all that, that 
it will be difficult to go out and obtain new facilities, new 
airspace, new ranges to do this. Is that correct, General?
    General Jumper. Absolutely, sir.
    Senator Domenici. I look out in the West, and I don't see 
where you'll get them.
    General Jumper. Yes, sir.
    Senator Domenici. Is that a----
    General Jumper. It's going to be----
    Senator Domenici [continuing]. Fair statement?
    General Jumper [continuing]. It's going to be very 
difficult to get more than we have, yes, sir.
    Senator Domenici. And will not the JSF, which is a higher-
performance aircraft as compared with the F-16--will it not 
need supersonic ranges for it--to complete its overland 
training?
    General Jumper. Sir, to a lesser extent than the F/A-22, 
but, yes, similar to the F-16. But, still, that makes that 
supersonic airspace very precious.
    Senator Domenici. And why is it important that they be able 
to train at supersonic?
    General Jumper. Well, sir, you can't--in the modern 
airplane, quite frankly, and you're in the middle of a fight, 
you don't know when you've gone supersonic. So, if you're 
having to pay attention to your airspeed indicator all the time 
to make sure that you don't create that sonic boom and disturb 
the people on the ground, whose support we need, then you're 
paying attention to artificialities that you don't want to be--
have in your habit patterns.
    Senator Domenici. So the same thing would be true as you 
train.
    General Jumper. Precisely, sir.
    Senator Domenici. Thank you very much.
    Senator Stevens. Thank you.
    Senator Leahy.
    Senator Leahy. Thank you. Thanks, Mr. Chairman.

                      COMMUNITY BASING INITIATIVE

    General Jumper, we discussed this somewhat yesterday, but 
the Air Force has currently launched an important community 
basing initiative with the 158th Fighter Wing in the National 
Guard. I'm well aware of it, because the 158th is in my home 
State of Vermont. You're going to station active duty personnel 
at Guard bases to work alongside their counterparts. I think 
it's an excellent idea. It's going to allow the regular Air 
Force to draw on the Guard's knowledge and expertise, and vice 
versa. The F-16 pilots that are maintained at the Vermont Guard 
have an incredible amount of experience. They are, of course, 
the ones who flew cover over New York City after 9/11 around 
the clock for some considerable period of time.
    My understanding is that 12 Air Force personnel will be 
coming to Vermont. We could accommodate an active duty 
associate unit of at least 200 pilots and maintenance 
personnel. I know a lot of other Guard units, very good Guard 
units around--across the country could do that. Where do you 
see this going? I know this is something you're looking at not 
just for today, but where we are 3 years and 5 years down the 
road. Where do you see it going?
    General Jumper. Sir, Mr. Dominguez has been in the 
personnel business in our Air Force before he became the Acting 
Secretary, and he and the rest of us have been very involved in 
making sure that the Air National Guard participates in the 
missions that are in demand of our Air Force, as the active 
duty also transforms itself--so, missions such as, not only the 
flying mission, but space, information warfare, unmanned air 
vehicles, et cetera. We want the Air National Guard and the Air 
Force Reserve to participate in all of those.
    We also want to make sure that, wherever we can, we have 
the active and the Air National Guard working together. And 
this is the case in the community basing idea, which we are 
looking very much forward to testing, beginning this summer 
when all of our people arrive.
    I've told you that the Chief Master Sergeant of the Air 
Force has been up to visit that unit, and his report was 
absolutely outstanding. I have every confidence that this 
experiment will be a success, and we'll look for other similar 
opportunities to either grow this capability or put it 
elsewhere. And I have a feeling that this model will be in 
demand in several other places. So, it's a very good model, 
sir.

                           FUTURE TOTAL FORCE

    Senator Leahy. I have sort of a corollary question. I see, 
in the Air Force's future total force, a disproportionate 
number of tactical airplanes in the Guard being retired. And 
I'm just wondering if we're, on the one hand, working with the 
Guard, but, on the other hand, cutting back their ability to 
carry out this integral part. And I'm not just singling out the 
Air Force; I think everybody throughout the military command 
are going to hear this question, whether it's the Army or the 
Navy or whatever, because of the huge contribution the Guard's 
been making in the last 3 years in all these branches.
    General Jumper. Sir, our full intention is to bring the 
Guard along with us. And, as you know, we have an associate 
Guard relationship at Langley Air Force Base, Virginia, which 
will be the first F/A-22 unit with the Air National Guard unit 
in Richmond, Virginia. So, our intention is to, as I said 
before, bring the Air National Guard into the main mission 
stream, continue them into the main mission stream, as they 
have been.
    In the plans that we have, there is absolutely no intention 
to bring down the end strength of the Air National Guard. So, 
if there are cuts in personnel, those cuts will come out of the 
active duty force.
    With regard to the aircraft, we are simply trying to align 
the hardware in the Air Force where the demands for the 
missions exist. And we are doing that in full collaboration 
with the National Guard. We have National Guard members on the 
team that are working these issues. They are in the Pentagon 
with us every single day working these issues.
    So, I think it's with full visibility, sir, that we're 
trying to do the right thing as our missions transform in the 
Air Force.
    Senator Leahy. Well, General, if you, and, Mr. Secretary, 
if you, as this goes on, can you periodically give briefings to 
my staff. I would really appreciate it. Thank you.
    Thank you, Mr. Chairman.
    Senator Stevens. Thank you, Senator.
    Senator Dorgan is recognized for 5 minutes.
    Senator Dorgan. Mr. Secretary and General, thank you very 
much.
    General, I understand this may well be the last time you 
will appear before the Appropriations Committee as Chief.
    General Jumper. Yes, sir.
    Senator Dorgan. And let me just tell you that, from my 
standpoint, I think you've done an outstanding job. I've 
appreciate working with you. I think you've always been 
straight with this subcommittee, and we appreciate your 
service.
    General Jumper. That's very kind, sir, thank you.

                      BASE REALIGNMENT AND CLOSURE

    Senator Dorgan. Let me ask you about Base Realignment and 
Closure (BRAC), base closing. What kind of excess capacity have 
you indicated to the Secretary of Defense exists in the Air 
Force? How much, and what kind of excess capacity?
    General Jumper. Sir, what we did in the BRAC process was 
lay out our military requirements. And in the military 
requirements that have to do with range space and the necessity 
to distribute ourselves properly around the United States to be 
postured for various contingencies, either homeland 
contingencies or deployment contingencies, we've laid out those 
requirements, which then go into an analytical process.
    So, sir, we, quite frankly, have not taken this as a base-
by-base issue. It's an overall requirements issue. And to keep 
this process completely clean, I have absolutely stayed away 
from any consideration of base-by-base matters.
    Senator Dorgan. General, I understand that. That wasn't 
what----
    General Jumper. Yes.
    Senator Dorgan [continuing]. I was trying to get at. My 
question was, there have been--all of us, on this subcommittee, 
I think, have read assessments that there's 20 percent excess 
capacity here or there, or 15 percent or 25 percent, it's in 
this area or that area. And that's the set of information that 
gave rise to a BRAC.
    General Jumper. Right.
    Senator Dorgan. So I assume, coming from each of the 
services, and all of the services, the notion of how much 
excess capacity they had was a stimulant for the Department of 
Defense (DOD) requesting a BRAC round. And I guess, I'm trying 
to evaluate, not with respect to individual bases----
    General Jumper. Right.
    Senator Dorgan [continuing]. Or major installations----
    General Jumper. Right.
    Senator Dorgan [continuing]. What kind of excess capacity 
do you think, or did you recommend, exist at this point?
    General Jumper. We weren't asked the question exactly that 
way, but if I give you my estimate, it was about 20 percent. 
Now, that's just for the Air Force. As this goes into 
consideration, joint usage comes into the equation, too. So 
that 20 percent may become less as joint utilization options 
also are considered.
    Senator Dorgan. Are there categories in which that 20 
percent exists relative to other categories, such as, in some 
areas they talk about training, and other areas as having 
substantial--or depots having excess capacity?
    General Jumper. Um----
    Senator Dorgan. Do you recall----
    General Jumper [continuing]. Sir, I don't want to try--I 
don't want to be overly specific here, because I'm not exactly 
sure. It's not just training; it would be training and 
education, for instance.
    Senator Dorgan. Right.
    General Jumper. So the categories are parsed out, the way I 
understand it, and I don't want to sit here and quote what the 
categories are, because I'm not sure I'd get it right. But, if 
you don't mind, I'd take that for the record, if that's okay 
with you----
    Senator Dorgan. That's fine.
    General Jumper [continuing]. And get that to you.
    [The information follows:]

                    BRAC Excess Capacity Categories

    The Air Force analyzed infrastructure capacity in terms of 
installation categories, more specifically a set of 
installations identified as ``major installations.'' A 
parametric analytical technique was used which provided a rough 
measure of excess capacity. The results of this methodology 
provide a credible assessment of aggregate excess capacity.
    The Air Force identified nine categories of supporting 
infrastructure needed to support its current and future force 
structure. The categories and aggregate excess capacity numbers 
are broken down as follows: Administrative: 31 percent; Air 
Force Reserve: 36 percent; Air National Guard: 34 percent; 
Depots: None; Education and Training: 45 percent (classroom 
space), 12 percent (ramp & supporting facilities); Missiles & 
Large Aircraft: 27 percent; Small Aircraft: 16 percent; Space 
Operations: 35 percent; and Labs Test Centers etc.: 18 percent.
    This and a more detailed description may be found in the 
Report to Congress on Base Realignment and Closure 2005, dated 
March 22, 2004.

    Mr. Dominguez. Senator, if I might, the answers to those 
questions are in the analysis that General Jumper described and 
these are rough-order-of-magnitude estimates, but the details 
are being worked now.
    Senator Dorgan. Right.
    Mr. Dominguez. And so, the answers are still forthcoming, 
sir.
    Senator Dorgan. Well, there will be no small amount of 
interest in all of these issues, in virtually every office here 
on Capitol Hill.

                           AGING TANKER FLEET

    Let me ask about tankers. In recent years, General, you 
have come to us to talk about the aging tanker fleet and the 
urgency with which that we deal with that. As you know, we've 
proceeded with the 767 issue. That's gotten snarled in a number 
of different ways. And so, the question is, Does the urgency 
still exist? If so, where do you think we are? And I don't 
see--at this point, we don't have, I think, a mechanism 
underway to try to find a way around this. So give us your 
assessment of the tanker-fleet situation.
    General Jumper. Sir, I think that we are--we'll await the 
outcome of the analysis of alternatives, which is formally 
being done now, and expect to see the results of that in the 
summertime. As soon as that analysis of alternatives is 
complete, then we'll have a path ahead to start a formal 
acquisition program. The urgency of recapitalizing the tanker 
fleet, I think, grows every day, and my concern is if I lose 
sleep over one thing at night, it's about the aging aircraft 
problem and the corrosion problems we have, and it's especially 
in our tanker fleet. So, I think that we will step out with all 
urgency, once we see the analysis of alternatives, to get a 
formal program underway, with all the provisions of the 
acquisition process that have been a concern with the formal 
proposal.
    Senator Dorgan. Mr. Chairman, I will just conclude by 
saying, I think of significant interest to all of us, as well, 
is the issue of the Air Guard and the----
    General Jumper. Yes, sir.
    Senator Dorgan [continuing]. F-16s and all the related 
issues of the Air Guard.
    General Jumper. Yes, sir.
    Senator Dorgan. And I want you, always, when you go to bed, 
to remember the Happy Hooligans, who have--as you know, have 
won the William Tell Trophy more than once and are, I think, 
the best fighter pilots in the Air Force.
    General Jumper. They're hard to forget, sir.
    Senator Dorgan. Well, again, General, you've done a first-
rate job, and thank you very much for being here.
    General Jumper. Very kind.
    Senator Dorgan. Mr. Secretary, thank you.
    Senator Stevens. Thank you all for your brevity.

                             F/A-22 PROGRAM

    On the F/A-22, it's got a similar problem now, as I see it. 
Am I wrong? We have a proposed reduction in procurement of the 
F/A-22, and that's going to have some change in terms of future 
investment and cost. What is the future operational impact of 
this request to reduce the investment in the F/A-22 this year?
    General Jumper. Sir, I think that if the number is, indeed, 
reduced, as the proposal exists today, then we will be 
returning with a request for something to fill in for those 
capabilities.
    Our proposal right now, if we lay out the Air Force 
requirement, I would ask for about 380 F/A-22s that would 
replace between 800 and 900 legacy airplanes. If we can't get 
to that number, or if the number is significantly less than 
that, then we'll have to come back and ask to fill in some of 
those blanks with legacy airplanes. And, as I pointed out 
earlier, I think those legacy airplanes will cost just about as 
much as an F/A-22.
    Mr. Dominguez. Senator, if I might, that exact question is 
a thing that we'll be wrestling with through this summer in the 
Quadrennial Defense Review, because they're going to be looking 
at the air dominance problem and what's the best way to get to 
air dominance and sustain it.
    Senator Stevens. Well, that suggestion--really a request--
to reduce the investment that is in this budget is not being 
too well received on Capitol Hill--what worries me is that 
we're going to be faced with a demand to maintain the previous 
level of procurement of F/A-22 and there have to be adjustments 
elsewhere in the budget. Have you looked at that, the two of 
you? Where if we have a vote that requires us to increase the 
rate of procurement of the F/A-22 in 2006, what's that going to 
do to the balance of the budget?
    Mr. Dominguez. Sir, I don't believe----
    Senator Stevens. It's 2008, she tells me. It's----
    Mr. Dominguez. Yes, sir.
    Senator Stevens [continuing]. 2008.
    Mr. Dominguez. This is not a problem for the Congress in 
the fiscal year 2006 appropriation. It is something we will 
wrestle with--the program was terminated by Program Budget 
Decision 753 in 2008, so this is a problem we must wrestle with 
this summer, and we'll be communicating with you shortly after 
that, sir.
    Senator Stevens. These suggestions we're having--we're 
receiving from other members to try to eliminate that impact in 
2008, do you think that's premature?
    Mr. Dominguez. I don't--I'm not aware of any decision 
you're being asked to make this year, in this President's 
budget, that will prejudice the issue, one way or the other.
    General Jumper. And I think, Senator, considering this in 
the Quadrennial Defense Review, as the Secretary of Defense has 
promised, is the correct thing to do, and I think we'll be able 
to answer these questions in plenty of time to affect a 
decision that now doesn't impact us until 2008.
    Senator Stevens. When's that due, General?
    General Jumper. Well, it's due--the whole thing is due out 
next February, but I think the major part of the work that's 
going to go into the Quadrennial Defense Review is going to be 
done this summer, and results will be forthcoming from that 
this summer.
    Senator Stevens. Senator Cochran, we have 9 minutes left on 
that vote, I'm told.
    Senator Cochran. Mr. Chairman, I appreciate the 
recognition.
    I wanted to just congratulate General Jumper and the 
leadership of the Air Force on the fine job they're doing in 
helping us protect the security of our country. You have a lot 
of competing interests and demands for equipment, materiels, 
funding, generally. It's a tough year to make choices and to 
try to assign priorities. But I look forward to working with 
them and with you and Senator Inouye in helping to support the 
effort to be sure we get it right and that we fund those 
activities that are important for our security needs.
    I just would put my statement in the record, with your 
permission. And, under the constraints we have for voting on 
the floor, thank you for recognizing me.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased to join you in welcoming these 
two distinguished leaders of the Department of the Air Force.
    I commend the outstanding efforts demonstrated each day by 
our airmen. The country has come to expect air dominance in all 
military conflicts, and our reliance on space assets is 
significant and steadily increasing. The total Air Force, the 
active duty, Guard, and Reserve, is playing a pivotal role in 
the Global War on Terror, and not just in operations in Iraq 
and Afghanistan. We also appreciate your homeland defense 
mission, which includes daily patrols over United States 
airspace.
    I thank you both for your leadership, and for the service 
of the women and men you represent. I look forward to your 
testimony.

    Senator Stevens. Thank you, Mr. Chairman. Thank you for 
coming by.
    General Jumper, you reflect well upon the education 
received at the Anchorage High School.
    General Jumper. Thank you, sir.
    Senator Stevens. I want to tell you that your many friends 
wish you well----
    General Jumper. Thank you, sir.
    Senator Stevens [continuing]. As you go through this final 
year. And I, personally, look forward to being with you, 
General.

                     ADDITIONAL COMMITTEE QUESTIONS

    Secretary Dominguez, we're pleased to have you here with us 
for the first time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted to Michael L. Dominguez
             Questions Submitted by Senator Robert C. Byrd

                           FUTURE TOTAL FORCE

    Question. Mr. Secretary, I am advised that as part of the 
Department of Defense's transformation of its military forces, the U.S. 
Air Force is developing an initiative known as ``Future Total Force 
(FTF),'' which focuses on accelerated reductions of legacy weapons 
systems and the procurement of newer weapons systems. Considering that 
many of the legacy weapons systems are found at Air National Guard and 
the Air Force Reserve units, would you please describe in detail the 
impact of ``Future Total Force'' on these entities?
    Answer. The traditional mix of Air National Guard, Air Force 
Reserve and Active component aircraft has served the nation well in the 
context of legacy platforms and traditional threats. However, as we 
move into the 21st century, the Air Force faces increasing 
modernization and recapitalization challenges, an adversary 
increasingly hard to define, and strained budget realities. While we 
possess weapon systems to meet today's challenges and are investing in 
cutting edge technology and highly capable, highly trained personnel, 
we must make transformational changes to maximize the capability these 
advances give us. One way we will do this is through the Future Total 
Force (FTF).
    The FTF concept will enable the Air Force to meet the challenge of 
ensuring a sustainable 20-year strategic vision. Through the use of 
innovative organizational constructs such as associate units, we seek 
to be better able to match the skills of our highly experienced Air 
Reserve Component (ARC) personnel with our fewer, but more capable, 
cutting edge weapon systems. This fundamentally changes an old paradigm 
of putting Guard and Reserve in ``hand-me down'' systems and instead 
puts them in front line systems with decades of relevancy. This new 
force structure focuses on programs, forces and technology, as well as 
new organizational concepts that strive to fundamentally improve the 
effectiveness of our Active Duty, Guard and Reserve personnel and 
systems. Ultimately, FTF is designed to provide the means for the Air 
Force to improve its overall combat capabilities and continue to be a 
primary enabler in joint operations.
    In addition, the FTF vision does not mean taking flying missions 
away from the Air National Guard without a viable, meaningful mission 
to replace it. In fact, FTF will guarantee that both the Air Force 
Reserve and Air National Guard are full partners as new weapons systems 
like the F/A-22 and Joint Strike Fighter come on line. In addition, our 
reserve components will be key players as we adopt emerging 
technologies to fight the fight of the future, allowing them to be 
involved in these exciting new missions, yet taking advantage of the 
``reachback'' these missions provide, minimizing the need for 
disruptive mobilizations.
    Question. Under ``Future Total Force,'' what aircraft will be 
retired and under what timeframe?
    Answer. Future Total Force (FTF) is a fundamental element of Air 
Force transformation. Comprised of two major components, 2025 Force 
Structure and innovative organizational constructs, FTF will create 
efficiencies, retain valuable human capital, and above all, increase 
the combat capability across all Air Force components. Specifically, 
this effort will divest the oldest and least capable aircraft in our 
inventory, including the A-10, F-16, F-117, and older F-15 models. The 
drawdown of some of these aircraft begins in fiscal year 2007 and 
continues through 2025. A recapitalized force consisting of F/A-22s, F-
35s, and unmanned combat aerial vehicles (UCAVs) will replace legacy 
fighters, whose average age today is more than 17 years.
    Question. What safeguards are in place to ensure that while the Air 
Force is reducing the current legacy aircraft inventory, it is not also 
undermining the country's ability to protect itself from multiple 
airborne threats?
    Answer. In order to face uncertain threats of the future, the Air 
Force must pursue aggressive divestiture of aging aircraft that are 
increasingly expensive to operate, deliver less capability and 
experience higher attrition rates. To determine the best course of 
action, the Air Force Studies and Analysis Agency (AFSAA) ran a variety 
of defense planning scenarios (with threats determined externally by 
the Central Intelligence Agency, Defense Intelligence Agency, etc.) 
against 14 force structure models. AFSAA determined the optimal force 
structure, called the Future Total Force, requires retirement of aging 
aircraft, primarily older model F-16s, C-130s and KC-135s. From a 
business case perspective, the savings realized through this 
divestiture are critical if we are to move into high-tech emerging 
missions that will make the Air Force more relevant to the joint 
warfighter well into the 21st century.
    Because these emerging mission areas will provide an exponential 
increase in capability, we will need the additional manpower and 
capability resident in our Air National Guard and Air Force Reserve to 
get the most ``bang for our buck.'' Using innovative organizational 
constructs, members of the Active Duty, Guard and Reserve will work 
side-by-side at unprecedented levels to achieve the crew ratios these 
highly capable platforms demand.
    Homeland Defense is the most vital mission responsibility of the 
U.S. Air Force, and for that reason, the Air Force looked very closely 
at what capabilities are and will be required for that mission. Those 
capabilities requirements were identified and separated out of the mix 
so as not to be jeopardized throughout the FTF analysis process. In 
other words, at no time will the capabilities requirements necessary to 
provide homeland defense be vulnerable to divestments or reorganization 
efforts.
    It is important to point out that exempting the capabilities 
required for homeland defense does not necessarily isolate a particular 
unit or installation from divestments or reorganization efforts. There 
are many considerations that will help determine which units and 
installations will be selected for FTF implementation, but primary 
among these will be the impact on the Air Force's ability to provide 
homeland security.
    The FTF is a twenty-year plan. It will evolve over time and will in 
fact enhance the Air Force's ability to protect the homeland.
    Question. Does ``Future Total Force'' seek to reduce Air National 
Guard personnel authorization? Could the accelerated pace of retiring 
Air National Guard aircraft leave units and personnel without missions?
    Answer. The Future Total Force (FTF) Plan does not seek to reduce 
Air National Guard (ANG) personnel end strength. In order to face 
uncertain threats of the future, the Air Force must pursue aggressive 
divestiture of aging aircraft that are increasingly expensive to 
operate, deliver less capability and experience higher attrition rates. 
To determine the best course of action, the Air Force Studies and 
Analysis Agency (AFSAA) ran a variety of defense planning scenarios 
(with threats determined externally by the CIA, DIA, etc.) against 14 
force structure models. AFSAA determined the optimal force structure, 
called the Future Total Force, requires retirement of aging aircraft, 
primarily older model F-16s, C-130s and KC-135s. From a business case 
perspective, the savings realized through this divestiture are critical 
if we are to move into high-tech emerging missions that will make the 
Air Force more relevant to the joint warfighter well into the 21st 
century.
    Because these emerging mission areas will provide an exponential 
increase in capability, we will need the additional manpower and 
capability resident in our Air National Guard (ANG) and Air Force 
Reserve to get the most ``bang for our buck.'' And, as I have stated, 
ANG end strength will remain constant. Using innovative organizational 
constructs, members of the Active Duty, Guard and Reserve will work 
side-by-side at unprecedented levels to achieve the crew ratios these 
highly capable platforms demand.
    There is a common misperception that because the predominant number 
of older model F-16s reside in Guard units that these units will be 
left without a mission until they receive new, emerging missions, or 
that they will lose their mission altogether. Nothing could be further 
from the truth. The Air Force needs the experience and capability that 
resides in the Guard and Reserve. Without it, we would be unable to 
meet the needs of the Nation. Members of the Guard and Reserve will be 
a part of all new weapons systems from their inception. In fact, we are 
in the process of standing up a new associate relationship between the 
Air National Guard and the Active Duty at Langley AFB, Virginia flying 
the F/A-22.
    Once basing decisions are made under Base Realignment And Closure 
(BRAC), we plan to implement force structure plans through a 
redistribution of airframes as well as the stand-up of new and exciting 
emerging missions. Air National Guard end strength will be preserved. 
An ANG unit may lose older model F-16s, but may get another weapon 
system, even a newer airframe of the same model. Please be assured that 
we will work with the National Guard Bureau to make any ANG unit 
transition, if deemed necessary, as smooth as possible.
    Question. Has the Air Force examined alternatives to modernizing 
some current systems in the event that funding and procurement of new 
weapons systems are delayed?
    Answer. Modernizing and extending the service life of our aging 
legacy fighter force will not replace the vital transformational 
capabilities of the F/A-22 and the F-35. Tactical aircraft force 
structure trades and capability mix considerations are currently being 
studied in the Department's ongoing Quadrennial Defense Review Joint 
Air Dominance Study Analysis. Results of this study will determine 
modernization needs of our legacy fighter fleet.
    Question. Has the ``Future Total Force'' initiative been presented 
to the Adjutants General so that the total impact on the Air National 
Guard (ANG) can be adequately assessed and reasonable alternatives can 
be developed that allow the Air Force to modernize while, at the same 
time, maintain an appropriate balance of Air National Guard assets so 
the Guard can continue to accomplish its air sovereignty mission?
    Answer. The Future Total Force (FTF) Plan has been communicated to 
The Adjutant Generals (TAGs) through a variety of venues and means. 
First, both the Secretary and the Vice Chief of Staff have spoken at 
TAG meetings. Second, the TAGs have two colonel-level representative's 
working in the Air Force FTF office, as well as a full-time 
representative from the Guard Bureau. The Air Force convened a General 
Officer Steering Committee to oversee FTF actions; there are three 
Adjutants General who sit on that Committee.
    The Air Force Directorate of Plans and Programs recently hosted a 
classified meeting with the TAGs to share the entire Force Structure 
Plan and to answer any questions the TAGs may have. Furthermore, the 
ANG's Future Total Force office is working in lock step with the HQ 
USAF FTF office, including attendance at Air Force/FTF staff meetings. 
The Air Force will continue to work with both the Air Force Reserve and 
the Air National Guard as we make decisions regarding the Air Force's 
future.
    Homeland defense, to include air sovereignty, is the most vital 
mission responsibility of the United States Air Force, and for that 
reason, the Air Force looked very closely at what capabilities are and 
will be required for that mission. Those capabilities requirements were 
identified and separated out of the mix so as not to be jeopardized 
throughout the FTF analysis process. In other words, at no time will 
the capabilities requirements necessary to provide homeland defense be 
vulnerable to divestments or reorganization efforts.
    Question. Mr. Secretary, in representing a state where the Army and 
Air National Guard Forces represent, by far, the most significant 
military presence, it is my very strong hope that transformation can be 
accomplished without undermining National Guard personnel and its 
assets. Please respond for the record what you will do to make sure 
that the Guard's interests are represented in this process.
    Answer. The Future Total Force (FTF) Plan has in fact been 
communicated to The Adjutant Generals (TAGs) through a variety of 
venues and means. First, both the Secretary and the Vice Chief of Staff 
have spoken at TAG meetings. Second, the TAGs have two colonel-level 
representative's working in the Air Force FTF office, as well as a 
full-time representative from the Guard Bureau. The Air Force convened 
a General Officer Steering Committee to oversee FTF actions; there are 
three Adjutants General who sit on that Committee.
    The Air Force Directorate of Plans and Programs recently hosted a 
classified meeting with the TAGs to share the entire force structure 
plan and to answer any questions the TAGs may have. Furthermore, the 
ANG's FTF office is working in lock step with the HQ USAF FTF office, 
including attendance at Air Force/FTF staff meetings. The Air Force 
will continue to work with both the Air Force Reserve and the Air 
National Guard as we make decisions regarding the Air Force's future.
                                 ______
                                 
             Questions Submitted to General John P. Jumper
               Questions Submitted by Senator Ted Stevens

                          PERSONNEL STRUCTURE

    Question. As the Air Force continues to transform to meet the 
challenges of today and the future, what is your plan to shape and 
balance the personnel structure in the Air Force?
    Answer. The Air Force's ongoing Force Shaping program is still on 
track to ``right size'' the Active Duty end strength to the 
congressionally mandated level of 359,700 Airmen by the end of fiscal 
year 2005. We were able to successfully draw down approximately 22,000 
Airmen in excess skills predominantly by waiving service commitments, 
reducing accessions, and allowing transfers to the ``Total Force'' 
(through PALACE CHASE) and to the Army (``Blue-to-Green'').
    As the Air Force returns to authorized end strength, we will 
continue ``right shaping'' efforts by providing relief to overstressed 
career fields through recruiting, retention, and retraining 
initiatives. We have focused fiscal year 2005 recruiting efforts 
towards the 58 most critical combat and combat support specialties. 
Additionally, where we are experiencing shortfalls, we have targeted 
our bonus programs in order to retain our Airmen. Finally, we have 
restarted our Career Job Reservation program and implemented a robust 
retraining program migrating excess Airmen to shortage career fields.
    However, as the Air Force corrects our active skill imbalances by 
realigning manpower and expanding training pipelines, the Total Force, 
to include our civilian workforce and the Air Reserve Component (ARC), 
will play a critical role in rebalancing the force for the future. We 
will continue initiatives that produce greater efficiencies through 
military-to-civilian conversions and competitive sourcing. 
Additionally, with the Guard and Reserve volunteers providing greater 
participation in our air expeditionary packages, we will take 
appropriate ``right shaping'' steps to ensure long-term health of both 
our Active Duty and ARC forces. As we move forward, we will constantly 
review our Active/ARC mix across all of our mission areas.

                           PROGRAM MANAGEMENT

    Question. Space is very important for our national security. We 
seem to be experiencing cost growth problems in some of our space 
programs. What steps is the Air Force taking to improve program 
management and to control costs of our important space programs?
    Answer. The Department has reorganized to vest many space 
responsibilities and authorities with one individual. We continue to 
refine the space acquisition decision-making process. One change is the 
creation of National Security Space (NSS) Acquisition Policy 03-01. 
Hallmarks of NSS 03-01 include: OSD-led independent cost estimates at 
each key decision point and build approval, increased attention on 
technology maturation, requirements documentation advanced earlier in 
the program cycle, acquisition phases aligned with key design reviews, 
and an emphasis on management reserve as key to acquisition success.
    We find ourselves trying to manage programs in the non-recurring 
research and development field where the government program manager has 
inadequate reserve to apply to problems as they occur. As a result, 
problems that occur in the development phase of some of our very 
complex satellite systems take months before help is on the way in the 
form of additional resources to solve problems. In those months, those 
problems have festered and gotten worse. We can do better as a 
community working with Congress to give some flexibility to government 
program managers that are developing these complex systems. One of the 
features is an ability to maintain a reserve that can be applied to a 
problem without months of delay.
    We still need to make improvements in our program management 
processes. While we have confidence in the overall skills and 
experience in our personnel, we need to establish processes that will 
improve our ability to manage our programs in this environment. 
Therefore, significant efforts are underway to identify and develop 
Space Professionals, particularly within the acquisition corps. The 
System Program Director (SPD)/Program Manager (PM), as the leader of 
the Government-Contractor team for a program, must be accountable and 
have the authority to accomplish the program's objectives and meet the 
user's needs. The Air Force recognizes that improving program 
management is critical for bringing program costs under control, and 
that such effective program management must include both contractor and 
Government program managers at all levels within their respective 
organizations. Further, these managers must be empowered to make not 
just the routine but also the controversial decisions based on timely, 
accurate, and complete information. We are also addressing continuity 
by instituting controlled tours for SPDs/PMs at Space and Missile 
Systems Center (SMC). Another aspect of growing our team of space 
professionals is continuing to improve system engineering training and 
discipline. The formation of SMC's Systems Engineering Center is a 
positive first step that we need to continue to cultivate in order to 
grow our cadre of experienced space systems engineers.
    The NSS 03-01 policy documents several principles important to 
controlling and managing costs of our space systems. First is using 
mission success as the primary driver when assessing risks and trades 
among cost, schedule and performance. Mission success drives risk 
management, test planning, system engineering and funding profiles. The 
second principle centers on credibility. The NSS process is meant to 
encourage incentives and foster quality decision making for programs 
that exhibit necessary maturity to proceed into the next acquisition 
phase. The third principle, cost realism, is key in that the cost 
estimating capability shall be independent and accomplished in a 
timely, realistic, and complete manner. Finally, the new Joint 
Capabilities Integration and Development System (JCIDS) process helps 
program managers address cost growth driven by uncontrolled 
requirements growth by taking steps to ensure stability and 
predictability in identifying requirements for the acquisition 
community. To ensure warfighter input prior to firming up design 
concepts, NSS 03-01 requires a Joint Requirements Oversight Council-
approved Initial Capability Development Document (CDD) prior to 
entering the concept development phase. A refined CDD is required prior 
to commencement of the preliminary design phase.
    Although we have the ability to generate good cost estimates today, 
we need to merge this with better schedule estimating to come up with 
better phasing of near-year estimates. The nature of our 
transformational space programs means that problems that are common to 
all acquisitions are significantly greater due to their degree of 
complexity. We need to ensure that program managers get good data as 
early as possible to make informed decisions.
    While cost estimating is not an exact science, we've put in place a 
system to ensure past experience and solid costing methods are used and 
will lead to realistic cost numbers. The Independent Cost Estimate 
(ICE) is effective in giving the program's milestone decision authority 
(MDA) a comprehensive estimate. All elements of cost are considered 
when deciding when or if to proceed with a space system. The ICE is a 
requirement for each Defense Space Acquisition Board (DSAB) meeting 
when the MDA approves the program's entrance into the next phase of the 
space acquisition process. We will continue to apply rigor in budgeting 
to the ICE, with the goal of securing additional management reserve to 
plan for the unforeseen issues that are certain to arise.

                              SPACE RADAR

    Question. Last year, the Appropriations Conference report expressed 
concern over the ability of the Space Radar (formerly the Space Based 
Radar) program to attain its goal of ``global persistent surveillance'' 
and whether the system is affordable. What changes has the Air Force 
implemented to make this a viable and affordable program?
    Answer. We have formulated and revised our fiscal year 2005 funding 
plan and redirected our prime contractors to comply with last year's 
Congressional language.
    We plan to achieve a militarily significant level of global 
persistent surveillance through horizontal integration with other 
Intelligence, Surveillance, and Reconnaissance (ISR) platforms and 
target characterization technologies. Horizontal integration allows us 
to tip and cue targets of interest to air and space ISR platforms 
passing ``target custody'' to the best situated collector to satisfy 
the mission. In addition, when other ISR platforms are not available, 
we can use target characterization to re-identify targets in subsequent 
Space Radar (SR) satellite passes over an area of responsibility. The 
number of satellites required to support this ``custody'' Concept of 
Operation (CONOP) for persistence is significantly fewer than that 
required for a tracking CONOP, consequently reducing overall program 
costs while delivering equivalent utility to DOD and intelligence 
community users.
    In addition, in order to improve affordability, we have made major 
program changes such as the establishment of SR as a single acquisition 
program that would satisfy both the DOD and Intelligence Community 
needs. This single shared system would eliminate the need for two 
programs or funding lines, thereby eliminating duplication of costs. 
Another fundamental change was to increase the focus on developing the 
Electronically Steered Array and other advanced technologies as part of 
an overall risk reduction framework culminating in an on-orbit 
demonstration to reduce technical and cost uncertainties. An 
Independent Technology Assessment Panel was also formed to explore 
concepts that could dramatically affect the SR cost-benefit equation. 
Results of this effort are due summer of fiscal year 2005. We are also 
evaluating architecture options concentrating on reuse of existing 
infrastructure to minimize SR ground investment costs.
    Over the span of five months, we ensured that contract 
modifications were in place that would shift the majority of funding to 
risk reduction efforts. The implementation of these efforts is intended 
to address the fiscal year 2005 Congressional language and their 
culmination will lead to a more affordable SR architecture.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

                      TACTICAL AIR TRAFFIC CONTROL

    Question. The Air Force and the Air National Guard have the 
critical mission of air traffic control in operational theaters. These 
airmen perform a difficult mission. However, the equipment the air 
traffic controllers use was developed long before many of them were 
born. Could you describe the efforts the Air Force is taking to 
modernize tactical air traffic control systems for the Air Force and 
the Air Guard?
    Answer. The Air Force is modernizing Air Force and Air National 
Guard tactical air traffic control (ATC) systems by acquiring a new 
mobile air traffic control radar known as the Mobile Approach Control 
System (MACS). MACS will replace the Air Force's 1970's vintage TPN-19 
and the Air National Guard's 1960's vintage MPN-14K analog radar 
systems. Due to their advanced age, the TPN-19 and MPN-14K have many 
obsolete components. The difficulty in obtaining replacement parts has 
made these aging systems difficult and expensive to maintain and has 
resulted in operational availability rates of only 70-85 percent, far 
short of the 98 percent availability standard. MACS will be easier and 
less costly to deploy, requiring only three C-130s to airlift it versus 
seven for the TPN-19 and MPN-14K. The digital systems in MACS will 
allow it to share radar information with other ATC and non-ATC systems, 
a capability not provided by the currently fielded systems. This could 
enhance our ability to provide the type of en route ATC we found we 
needed in Afghanistan and Iraq.
    Question. The Air Force and the Air National Guard have the 
critical mission of air traffic control in operational theaters. These 
airmen perform a difficult mission. However, the equipment the air 
traffic controllers' use was developed long before many of them were 
born. Is the Air Force capable of meeting the combatant commanders' 
tactical air traffic control needs with the current arcane system?
    Answer. Although the Air Force has not lost any missions due to air 
traffic control, our maintenance downtime is significant and we have 
been fortunate to have relatively good weather when our systems have 
needed repair. The current Air Force and Air National Guard systems are 
operational 70-85 percent of the time, while the benchmark goal is for 
them to be available at least 98 percent of the time.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby

                    UNMANNED AERIAL VEHICLES (UAVS)

    Question. I have been advised that the Department of Defense (DOD) 
is considering designating the Air Force as the DOD Executive Agent for 
unmanned aerial vehicles (UAVs). Why do you believe Executive Agency is 
necessary? And why is the Air Force the best candidate to take control 
of UAVs?
    Answer. The United States Air Force (USAF) is not in a position to 
speak for the Office of the Secretary of Defense (OSD), the agency with 
responsibility of determining the requirement for any Executive 
Agency's establishment. The USAF would, however, welcome the 
synchronization and harmonization of UAV efforts across DOD that should 
result from OSD's establishment of a UAV Executive Agent. Of the 
Services, the USAF is in the unique position of possessing the 
necessary airspace, intelligence, and aviation frequency management 
experience necessary to coordinate and synchronize UAVs across the 
Joint Force. No other Service has as much expertise in coordinating the 
use of airspace and air-developed Intelligence, Surveillance & 
Reconnaissance in peacetime and warfare to support the Soldier, Marine, 
Sailor, and Airman from foxhole to near space and beyond.
    Question. How does the warfighter benefit from this effort to take 
UAV work away from one Service and consolidate it with a Service with 
less experience?
    Answer. Should the Office of the Secretary of Defense decide to 
create a UAV Executive Agent, the warfighter will benefit from the 
resulting synchronization and integration of UAV systems and the 
effects they create on the joint battlefield. Rather than seen as 
moving UAV work between Services, Executive Agency is more properly 
framed as coordination and synchronization of air assets and the 
effects they generate, regardless of type and size, to produce the 
capabilities required by the Joint Force today and far into the future. 
Thus an Executive Agent would aid but not subsume the work of any 
Service by coordinating efforts across the DOD in areas such as 
airspace management and the collection and distribution of UAV 
generated information.
    Question. Setting up a single authority for all Service UAVs is the 
unmanned equivalent of establishing an Executive Agent for all manned 
aircraft. How do you justify this?
    Answer. Today, we find ourselves in circumstances similar to the 
early development of manned flight, a debate over aviation-produced 
effects on the battlefield. Experience and debate over time has created 
an imprecise and often overlapping synchronization of aviation roles 
and missions across the Services. Currently, we are in the infancy of 
UAV development; each Service is rapidly expanding the role UAVs play 
in contributing to joint warfighting capabilities. UAVs, like all 
aircraft, pose the capability of operating and creating effects at all 
levels of warfare, often simultaneously, regardless of size or Service 
affiliation. Projected DOD budgets and rapidly increasing UAV's 
capabilities mean that the coordination of UAV roles and missions 
within the DOD will become increasingly necessary in the future. The 
designation of one agent to ensure the DOD does not squander its 
resources by creating unnecessarily redundant capabilities early in the 
history of UAVs will head off much of the debate and duplication of 
effort which has resulted from the service-centric development of 
manned aircraft.
    Question. What percent of tactical UAVs are currently being 
employed by the Air Force in theater?
    Answer. Tactical UAV is defined as anything smaller than a 
Predator. Currently, the Air Force has 53 percent of our Air Force 
Special Operations Command (AFSOC) and Security Forces small tactical 
UAVs supporting the Global War on Terrorism (GWOT). Specifically, AFSOC 
has 22 of 54 (41 percent) systems and Security Forces has 17 of 20 (85 
percent) systems in support of the GWOT.
    Question. Your staff provided my office with no statistics on 
flight hours for Air Force ``small UAVs.'' We were told the ``Air Force 
does not keep these types of statistics for its small UAVs.'' How can 
you defend the decision to make the Air Force Executive Agent over 
tactical UAVs when you don't even log the minuscule amount of flight 
hours for your own tactical UAVs?
    Answer. The Office of the Secretary of Defense (OSD) is currently 
defining what a UAV Executive Agent's role would be in the event one is 
designated. The designation of specific UAVs as tactical--operational--
or strategic is artificial. In many cases the designation small and 
large is also ambiguous, since size may improperly characterize the 
impact of the capability the UAV provides. However, the Air Force does 
capture flying hour costs associated with tactical UAVs considered 
Major Weapons Systems (MWS) such as Predator. Funding for ``small'' 
tactical UAVs, which are not designated as MWS aircraft, are captured 
at the unit-level due to their very low operational costs. All Services 
are moving toward what is envisioned, as a net-centric form of warfare 
where information developed from any source is available to everyone 
with access to the network. This means that UAVs of every sort and size 
will be providing information to the Global Information Grid. The 
United States Air Force (USAF) has the preponderance of experience 
within the DOD in management of airspace and the collection and 
distribution of air generated information. Debate over UAV Executive 
Agency is more properly framed as coordination and synchronization of 
air assets and the effects they generate, regardless of type and size, 
to produce the capabilities required by the Joint Force today and far 
into the future. The USAF is the Service with the most experience in 
managing airspace and the collection and distribution of air generated 
information. The USAF stands ready to perform the Executive Agency role 
if called upon by OSD.
    Question. Without flight information, doesn't this basically mean 
you don't even know how, where, and when your own UAVs are flying?
    Answer. The lack of flight information referenced in this question 
is not well defined. In the past, the management of UAVs was not like 
that of fixed wing aircraft. One of the lessons learned from the 
unexpected proliferation of UAVs is the need to, in some but not all 
cases, coordinate UAVs like fixed and rotary wing aircraft. 
Operationally, several UAV aircraft fly above the coordination altitude 
on a battlefield and all are tracked at the Joint Force Air Component 
Commander's Air Operations Center. They are flown in accordance with 
the Air Tasking Order, providing visibility and accountability on how, 
where, when and why they are flown. Backpack UAVs, on the other hand, 
are designed to be launched and controlled by personnel engaging in a 
fluid tactical environment, and are de-conflicted in most cases by 
flying below the coordination altitude. Taking into account the limited 
capability of these smaller UAVs and the nascent stage of net-centric 
warfare, current airspace coordination procedures do not require the 
Services to specifically track how, when, and where backpack UAVs are 
flying. Requiring tactical users to integrate their use on the 
battlefield below the required airspace coordination altitude would 
currently place an undue burden on the Soldiers, Airmen, Marines, and 
Sailors operating them. In the future, the proliferation of these UAVs 
on the battlefield, and their increasing payload capabilities, may 
require coordination and monitoring within, and across, all the 
Services and Agencies engaged in joint warfare.

                           FUTURE TOTAL FORCE

    Question. Future Total Force (FTF), as currently proposed by the 
Air Force, presents a significant challenge to our citizen-airmen 
because it disproportionably impacts the Air National Guard. Currently, 
the Air National Guard maintains at least one flying unit in every 
state. This structure is a vital component to homeland defense.
    How do you propose securing our homeland or responding to a major 
disaster when no units are available to our Governors because FTF has 
removed them?
    Answer. Homeland defense is the most vital mission responsibility 
of the United States Air Force, and for that reason, the Air Force 
looked very closely at what capabilities are and will be required for 
that mission. Those capabilities requirements were identified and 
separated out of the mix so as not to be jeopardized throughout the FTF 
analysis process. In other words, at no time will the capabilities 
requirements necessary to provide homeland defense be vulnerable to 
divestments or reorganization efforts.
    It is important to point out that exempting the capabilities 
required for homeland defense does not necessarily isolate a particular 
unit or installation from divestments or reorganization efforts. There 
are many considerations that will help determine which units and 
installations will be selected for FTF implementation, but primary 
among these will be the impact on the Air Force's ability to provide 
homeland security.
    The FTF is a twenty-year plan. It will evolve over time and will in 
fact enhance the Air Force's ability to protect the homeland.
    Question. Under the Future Total Force plan, there appears to be a 
significant time lapse between when airframes are removed from a unit, 
and when that same unit would receive a follow-on mission. What do you 
propose to do with those airmen in that timeframe?
    Answer. First, a little background on the Air Force's effort to 
meet the concurrent challenges of increasingly complex threats to our 
national security and budget pressures, two issues with which you are 
very familiar. Last year, Congress asked the Secretary of Defense to 
submit a 20-year Force Structure Plan. Based on two assumptions: (1) 
the capabilities required for the future and (2) the anticipated levels 
of funding for the Department of Defense. After a significant two-year 
internal Air Force debate (including full participation from the Air 
National Guard and Air Force Reserve at many points along the 
development process), the Air Force submitted its proposed plan for the 
Future Total Force (FTF). This plan recommended divesting the oldest 
and least capable aircraft in our inventory. These older and less 
capable aircraft are predominately located in Air National Guard units.
    It is important to note that simply identifying the oldest 
platforms for divestment does not mean there won't be other platforms 
that will ``roll-down'' to replace the current systems. Discussions to 
this effect have been ongoing during the Base Realignment and Closure 
(BRAC) deliberation process. However, these deliberations, by law, 
cannot be made public until recommendations are given to the BRAC 
committee in May of 2005. The planned divestment of aircraft will 
happen over a 20-year timeframe. If we are going to eliminate a 
particular mission and it is replaced with another mission, we will 
time that transition so as to avoid a costly lag period that would 
leave a unit without a mission. In short, we will ensure that units 
have a meaningful mission to meet the needs of the Nation. In addition, 
analysis included the very important requirements of the Homeland 
Defense missions and other State roles performed by our Air National 
Guard units.
    Question. Recruitment for the National Guard is down. Would you 
agree that removing units from states, therefore forcing Guardsmen to 
travel long distances for drill weekends, will only hurt recruitment?
    Answer. Yes. Recruiting is currently down in the Air National 
Guard, specifically non-prior service (NPS) recruiting. Currently, only 
meeting 65 percent of NPS goal to date.
    We do understand that removing units from states will not only 
affect recruiting, but retention as well. As we transition through 
Future Total Force and Base Realignment And Closure, we will be asking 
our members to move, retrain into another career field, or leave 
earlier than expected. We do anticipate some unexpected losses, thus 
having to recruit to these losses. However, we must move forward with 
these transitions to new missions to not only remain relevant, but to 
also support the war fighter of the future.
    Our plan to combat this potential problem is to use all the 
personnel force management tools available, to include incentives, 
transition authorities, and training opportunities. Additionally, 
leadership will undoubtedly play a large role in the transition to new 
missions. We will continue to take great care of our members, as we 
have in the past. We have always had one of the best retention rates 
and plan to keep it that way.
    Question. Recruitment for the National Guard is down. Do you have 
any plan as to how you will combat this problem?
    Answer. Yes. Recruiting is currently down in the Air National 
Guard, specifically non-prior service (NPS) recruiting. Currently, only 
meeting 65 percent of NPS goal to date.
    We do understand that removing units from states will not only 
affect recruiting, but retention as well. For example, prior to the 
move of the 126th Air Refueling Wing (ARW) from Chicago, Illinois to 
Scott Air Force Base, Illinois, their unit end strength was 104.2 
percent. After we moved the unit, their end strength dropped to 83.3 
percent. Over 25 percent of the 126th ARW personnel were lost due to 
the move. It took five years to return the end strength of the unit to 
previous levels.
    As we transition through Future Total Force and Base Realignment 
And Closure, we will be asking our members to move, retrain into 
another career field, or leave earlier than expected. We do anticipate 
some unexpected losses, thus having to recruit to these losses. 
However, we must move forward with these transitions to new missions to 
not only remain relevant, but to also support the war fighter of the 
future.
    Our plan to combat this potential problem is to use all the 
personnel force management tools available, to include incentives, 
transition authorities, storefront recruiters, and training 
opportunities. Additionally, leadership will undoubtedly play a large 
role in the transition to new missions. We will continue to take great 
care of our members, as we have in the past. We have always had one of 
the best retention rates and plan to keep it that way.
    Question. It is my understanding that the Guard will lose 60 
percent of their airframes due to the newer F-22 and JSF coming on-
line. In the past, both the Air Force and Guard leadership have stated 
that due to FTF, end strength won't be reduced. However, if there are 
fewer planes, and therefore less airtime for the same amount of Guard 
personnel, what will these Guardsmen be doing?
    Answer. First, a little background on the Air Force's effort to 
meet the concurrent challenges of increasingly complex threats to our 
national security and budget pressures, two issues with which you are 
very familiar. Last year, Congress asked the Secretary of Defense to 
submit a 20-year Force Structure Plan. Based on two assumptions: (1) 
the capabilities required for the future and (2) the anticipated levels 
of funding for the Department of Defense.
    After a significant two-year internal Air Force debate (including 
full participation from the Air National Guard and Air Force Reserve at 
many points along the development process), the Air Force submitted its 
proposed plan for the Future Total Force (FTF). This plan recommended 
divesting the oldest and least capable aircraft in our inventory. These 
older and less capable aircraft are predominately located in Air 
National Guard units. Again, our Force Structure Plan does not 
specifically identify who would have responsibility for the particular 
equipment under a specific organizational construct, or where the 
remaining aircraft will be based. It is important to note that simply 
identifying the oldest platforms for divestment does not mean there 
won't be other platforms that will ``roll-down'' to replace the current 
systems. Discussions to this effect have been ongoing during the Base 
Realignment And Closure (BRAC) deliberation process.
    The planned divestment of aircraft will happen over a 20-year 
timeframe. If we are going to eliminate a particular mission and it is 
replaced with another mission, we will time that transition so as to 
avoid a costly lag period that would leave a unit without a mission. In 
short, we will ensure that units have a meaningful mission to meet the 
needs of the Nation. In addition, analysis included the very important 
requirements of the Homeland Defense missions and other State roles 
performed by our Air National Guard units.
    Another aspect of the FTF plan is to increase the ``association'' 
of all three Components--Active, Guard and Reserve, in order to produce 
the most effective organizations and preserve the benefits of the 
highly experienced Guard and Reserve personnel. One example is the 
Chief of Staff of the Air Force FTF Test Initiative at Langley Air 
Force Base where the Virginia Air National Guard's 192nd Fighter Wing 
will begin to fly the F/A-22 at the same time as the Active Duty in an 
Associate Unit arrangement with the 1st Fighter Wing. This 
fundamentally changes an old paradigm of putting Guard and Reserve in 
``hand-me down'' systems and instead puts them in front line systems 
with decades of relevancy. In addition to units such as the association 
at Langley, an important part of our plan is to increase the number of 
``active associate'' units. That is, units in which an Active Duty unit 
is located at a Guard or Reserve location. The Air Force is highly 
cognizant of the value our Air Reserve Component bases bring to their 
surrounding communities, as well as the sensitivities to considerations 
such as recruiting demographics our Reserve and Guard Components must 
enjoy in order to be successful. Please know that the FTF effort is 
mindful of the different cultures that reside across our three.
    Question. Do you really believe a trained pilot or maintainer would 
happily take a desk job?
    Answer. The Future Total Force (FTF) vision does not simply mean 
taking flying missions away from the Air National Guard without a 
viable, meaningful mission to replace it. In fact, units of all 
components of the Air Force face significant change as we work to shape 
the optimal force to meet future threats.
    The FTF will guarantee that both the Air Force Reserve and Air 
National Guard are full partners as new weapons systems like the F/A-22 
and Joint Strike Fighter come on line. In addition, our reserve 
components will be key players as we adopt emerging technologies to 
fight the fight of the future, allowing them to be involved in these 
exciting new missions, yet taking advantage of the ``reachback'' these 
missions provide, minimizing the need for disruptive mobilizations.

                          SUBCOMMITTEE RECESS

    Senator Stevens. Our next hearing of the Defense 
Subcommittee will be a closed session to discuss the 2006 
budget request for intelligence. That's scheduled for April 13. 
A classified memo will be available to Senators for review, 
beginning Monday, April 11. The memo is located in Dirksen, 
119. Arrangements can be made for individual Senators to view 
that memo elsewhere if they contact the staff.
    We do appreciate both of you for being here with us today, 
and your brevity, and wish to thank you, again, for your 
service, and thank you for, through you, all the men and women 
who wear your uniform so well.
    General Jumper. Thank you, sir.
    Senator Stevens. Thank you very much.
    [Whereupon, at 10:10 a.m., Wednesday, April 6, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                       WEDNESDAY, APRIL 20, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Domenici, Bond, Inouye, 
Leahy, Dorgan, Durbin, and Mikulski.

                         DEPARTMENT OF DEFENSE

                             National Guard

STATEMENT OF LIEUTENANT GENERAL H STEVEN BLUM, UNITED 
            STATES ARMY, CHIEF, NATIONAL GUARD BUREAU

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Thank you very much. We are pleased to 
have the opportunity to be with you this morning. We have just 
had the privilege of meeting them and having a photograph with 
them, but let me introduce to all who are here, and will you 
please stand when I call your name: First Lieutenant Reginald 
Brownlee of the Mississippi Army National Guard; Sergeant First 
Class Tara Niles, Illinois Army National Guard; Michelle 
Nelson, who is the spouse of Captain Mark Nelson, who is 
currently deployed with the Third Battalion of the 116th 
Infantry in Afghanistan, who is working with us on family 
affairs; Staff Sergeant Benjamin Moore of the Texas Air 
National Guard; and Staff Sergeant Charles Post of the Vermont 
Air National Guard.
    Thank you very much for being with us and thank you for 
your service. We all are delighted to have you here this 
morning. Thank you very much.
    This morning we are going to review the National Guard and 
Reserve programs. We have two panels scheduled. First we will 
hear from the National Guard leadership and then from the 
leaders of the four Reserve forces. I want to tell you all that 
we are in session now and we are going on the supplemental 
bill. We do not know when--we know the first hour we will not 
have amendments, but right after that we will start amendments 
and probably voting fairly early this morning.
    Our first panel consists of: Lieutenant General Steven 
Blum, Chief of the National Guard Bureau; Lieutenant General 
Roger Schultz, Director of the Army National Guard; Lieutenant 
General Daniel James, Director of the Air National Guard. We 
welcome you all this morning and thank you for what you have 
done in working with us.
    We want to acknowledge, General Schultz, this is your final 
appearance, as we understand it, before the subcommittee. I am 
told you are retiring after 42 years of service. I have told 
others, my first father-in-law told me: Only in the English 
language does the word ``retire'' mean other than go to bed. So 
do not retire, General; just go to another job, okay. We thank 
you very much for your dedication and leadership and for your 
future endeavors.
    I have a substantial introduction here, but I think I will 
yield to our co-chairman and see if he has remarks.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Well, I would like to join you in welcoming 
our witnesses this morning. We have entered a new era in our 
Nation's military history. Your forces are spread around the 
globe and serving here at home by the thousands. Never before 
in our history has the Nation demanded so much from our Reserve 
component in a period where we are not at world war.
    By all accounts, your forces have responded magnificently. 
The integration of Reserve forces by combatant commanders in 
Afghanistan and Iraq has been seamless and the bravery 
displayed by your members has been most impressive. All of you 
here today, especially those young men and ladies, should be 
congratulated for the jobs you have done in preparing the men 
and women under your command for the challenges that they have 
met and continue to meet every day.
    I believe every Member of the Senate would concur in 
offering you and those who serve the utmost thanks.

                           PREPARED STATEMENT

    Mr. Chairman, I have, as you have indicated, a rather 
lengthy opening statement, but I just want to say that we are 
very proud of the officers and men of the Reserves components.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Mr. Chairman, I want to join you in welcoming our witnesses 
today. Gentlemen we have entered a new era in our Nation's 
military history. Your forces are spread around the globe and 
serving here at home by the thousands. Never before in our 
history has the Nation demanded so much from our Reserve 
component in a period where we were not in a world war.
    By all accounts your forces have responded magnificently. 
The integration of Reserve forces by combatant commanders in 
Afghanistan and Iraq has been seamless. The bravery displayed 
by your members has been most impressive.
    All of you here today are to be congratulated for the jobs 
you have done in preparing the men and women under your command 
for the challenges that they have met and continue to meet 
every day. I believe every Member of the Senate would concur in 
offering you and those who serve with you our utmost thanks.
    But as I say this, I know that the challenges facing our 
Reserve component are many and growing.
    We know that many of you are facing recruiting 
difficulties.
    We are aware of rising concerns that our returning 
reservists may be hard to retain in your units.
    We know that shortfalls of equipment are likely to exist 
for those units when they return from service overseas.
    We understand that some Reserve units that have been called 
to deploy overseas more than once since 9/11.
    We know the stress and strain that our reservists, their 
families, and employers are experiencing from this 
unprecedented level of utilization.
    So today gentlemen, we are here to hear your concerns and 
your proposals to right some of these problems that we see 
today and can expect in the future.
    This is your opportunity to enlighten us on your challenges 
and your ideas. I very much look forward to your testimony 
today. Mr. Chairman, thank you the opportunity to hear from 
these much admired leaders.

    Senator Stevens. Let me recognize the chairman of the full 
committee, Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much. I am 
pleased to join you and Senator Inouye this morning in 
welcoming our witnesses and thanking them and all who they 
represent for their great service to our country in this time 
of serious need. We appreciate the service of those who have 
been deployed to the theaters in Afghanistan and Iraq and 
elsewhere around the world. They are achieving great success in 
helping create a pathway to freedom and democracy and a world 
that will be free from terror for generations to come, and we 
appreciate that commitment very much.
    I am glad to see Lieutenant Brownlee from Mississippi among 
the group that you introduced at the beginning of the hearing. 
We are proud of him, as we are all of those who are serving 
from all of our States.
    Thank you, Mr. Chairman.
    Senator Stevens. Thank you, Mr. Chairman.
    Senator Dorgan.

                  STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. Mr. Chairman, I will ask some questions 
following the statements, but I did want to add to the comments 
of the Senator from Mississippi. I think we have called on the 
National Guard and Reserve for an unprecedented commitment 
recently. They have performed in a spectacular way. I am very 
proud of the men and women of the National Guard.
    General Schultz, thank you for your service. We wish you 
well in your retirement.
    Senator Stevens. Senator Mikulski.

                STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Thank you very much, Mr. Chairman. I too 
look forward to hearing the testimony of our outstanding 
witnesses. Like my colleagues, I just want to express my 
gratitude for the National Guard, truly the citizen soldiers 
who, serving in Iraq, Afghanistan, have served nobly, but are 
also right now in my home State of Maryland ready to do 
whatever our Governor demands that they need to do, either in 
support of national responsibilities or our State. Of course, 
with General Blum, he is a Maryland guy. We have been together 
for some time and we are so very proud of his leadership here, 
and of course General Tuxell of our Maryland National Guard.
    Senator Stevens. Senator Leahy.

                 STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. Well, thank you, Mr. Chairman. I too am glad 
to see they are here. I have worked with General Schultz and 
General Blum and General James. They know Vermont and the 
Vermont Guard. We are very proud of them. I am also glad we 
have a Vermonter, Sergeant Post, sitting in the front row.
    General Schultz, I am going to miss you, but you can leave 
your office with the flags flying proudly for what you have 
done. I will continue to work with you.
    Mr. Chairman, Senator Bond and I are the co-chairs of the 
National Guard Caucus and we have worked very hard with these 
gentlemen. I think all of us on the subcommittee are fortunate.
    I know with more than one-third of our Vermont Guard 
mobilized, I am glad that we have leadership like you. Thank 
you.
    Senator Stevens. Thank you very much.
    As I met those young people, my mind went back to the time 
when Senator Stennis was chairman of this committee and he 
asked Senator Hollings and me to go to Europe to find out about 
the morale of our people there. That was in the early 70s and 
we were at war in Vietnam. We were drafting a great many young 
people and an enormous number of them were in Europe, 
unaccompanied tours.
    We went over there and found that many of them were married 
and their wives had followed them and they were living in third 
and fourth floor what we called cold water flats, but the 
morale was terrible.
    Now we see the great advantage of relying on Americans to 
volunteer. This force that you all command, totally volunteers. 
That makes us doubly proud of them because they have signed up 
to defend our country. So we are honored to have these young 
folks with us this morning.
    General Schultz, you are first, I believe, in presentation. 
May we call upon you--or was it you, General Blum? Who goes 
first?
    General Blum. Whichever, Mr. Chairman. We will go in 
whatever order you would like.
    Senator Stevens. No, no. You wear the stars; you tell me 
which is going first.
    General Blum. I will go ahead and start.
    Senator Stevens. Thank you very much. General Blum.
    General Blum. Mr. Chairman, members of the subcommittee: 
Thank you for inviting us today to speak before you, and we 
anxiously will await questions at the conclusion. We would ask 
that our formal statements be entered in the record.
    As you all have stated, and I am so glad that you are 
aware, we are a Nation at war and your National Guard is in 
this war shoulder to shoulder with the active component. As 
each and every one of you know, you have combat brigades from 
Mississippi, Hawaii, just off of this committee, and every 
single member here has soldiers that I have just seen since 
Easter in Iraq, doing magnificently well, performing in an 
exemplary manner in a combat zone.
    As a matter of fact, over one-half, over one-half, of the 
Army's combat power in Iraq today is Army National Guard, 
citizen soldiers from eight brigade combat teams. Eight brigade 
combat teams are on the ground in Iraq and one of the division 
headquarters from the National Guard, the 42nd Rainbow 
Division, is in Iraq today. So they are shouldering over one-
half of the load and they are doing exceedingly well.
    The National Guard, as you might imagine, has had to 
transform from what used to be a strategic reserve to an 
operational force that can deliver these kinds of numbers to 
the Air Force and the Army and to the combatant commanders 
overseas. As Senator Mikulski noted, they are not only in Iraq 
and Afghanistan; they are in Kosovo and Bosnia and the Sinai 
and Guantanamo and, as a matter of fact, 44 other nations as of 
this morning.
    The National Guard is rebalancing to ensure that the 
Governors and the President has the National Guard that either 
the Governor needs day to day in the homes, in the States and 
the territories, or the President needs to be a Federal reserve 
of the Army or the Air Force and provide forces and 
capabilities to the combatant commanders.
    The Air Guard continues to be involved in what the Air 
Force labels as the future total force and trying to determine 
what the Air Force of the future will look like in the next 20 
years.
    Let there be no mistake, our first and primary mission is 
homeland defense. You cannot be the National Guard and not be 
concerned with, not be concerned about defending the homeland. 
It has to be mission one for us, but it is not the only thing 
we do and it is not the mission that we have to perform at the 
exclusion of being able to be a Federal reserve of the Army or 
the Air Force.
    The Guard supports emergency response managers in every 
State and territory in this Nation. We have committed to the 
Governors that we will never have less than one-half of the 
capability available to the Governor in that State or territory 
to do the protection of the citizens of those States and 
territories, either from terrorist acts or the ravages of 
Mother Nature that routinely come through our States and 
territories.
    However, while the Air Force and the Army and the 
Department of Defense are keenly interested in ensuring that we 
have the equipment for the overseas war fight, we need to also 
make sure that they remain as keenly interested in providing us 
the equipment that we need so that we can retain these soldiers 
that come back from Afghanistan and Iraq, the most experienced 
force we have ever had, come back and have the equipment to 
train on for the next time they are needed, and to have the 
capability to deliver to the Governor; if something untoward 
should occur in a State or a territory, they would have the 
right capabilities with the right equipment.
    So I would ask your attention and your assistance in 
ensuring that the reset or the reequipping of the Army National 
Guard and the Air National Guard after they come out of the 
combat zone to replace the equipment that was either asked to 
be left in theater, rightfully so, or worn out through fair 
wear and tear in very harsh conditions, or battle damaged, is 
restored so that when they come home we have more than just 
people coming home, we have capabilities coming back home to 
the National Guard that can be called upon, maybe even this 
evening if necessary.
    Since October 2003, every single State has established a 
standing joint force headquarters, which is absolutely right 
when you are talking about how you are going to defend the 
homeland. This enables each Governor and each adjutant general 
of every State and territory the ability to leverage the joint 
capabilities of its Army and its Air National Guard, as well as 
the other Department of Defense assets that may be located in 
that State or territory and, beyond the military, it also 
allows them to have the relationships and exercise the 
capabilities with the inter-agencies that exist and the 
intergovernmental partners that will be so important in the 
defense of our homeland.
    We have established 12 regional chemical, biological, 
radiological, and nuclear high-yield explosive enhanced 
response force packages that, when they are pulled together, 
give this Nation the capability to have, not one chemical 
biological incident response force (CBIRF) capable unit, but 13 
CBIRF capable units. They are trained and equipped by the U.S. 
Marine Corps CBIRF and the First and Fifth United States Armies 
have certified their fitness and their readiness to respond to 
weapons of mass destruction effects or any other things that 
might require their special skills.
    As you all know, recruiting has been a special challenge 
for the National Guard. This should not be a surprise to 
anyone. We were resourced, we had policies. We are a recruited 
force. But that was all set up for a National Guard that was a 
strategic reserve. So we have been scrambling along with the 
Congress in the last year and a half to make sure that we had 
the authorities and the resources we need to actually compete 
head to head in an environment where we have to be an 
operational force.
    I want to thank this subcommittee and the other Members of 
Congress for the authorities that you have extended us, the 
reasonable changes that have been made, and the ample resources 
that you have provided us. We are not yet out of the woods, but 
we are starting on the road to recovery. We had a very good 
recruiting month in the month of March. It looks like we are 
going to have another good recruiting month in the month of 
April.
    This would not have been possible if you had not given us 
those authorities and not given us the resources that we needed 
in terms of enlistment and reenlistment bonuses. There is one 
bonus floating out there I would ask you to look very hard at, 
and that is a bonus that is an affiliation bonus that allows 
someone from active duty to transition directly into the 
National Guard without having to be discharged and processed 
from active duty and then re-processed and spend taxpayers' 
money, several thousands of dollars, to bring them back into 
the system.
    I think if we were to offer a $15,000 bonus we would have 
something that provides us the bridge for a seamless transition 
from active duty to the National Guard and it would help us 
immeasurably in recovering our recruiting force from prior 
service, our most experienced recruits and the ones that are 
most valuable to us, because they are already trained. The 
training has already been paid for and they are proven 
performers.
    We have increased our enlistment and reenlistment bonuses. 
We have added 1,400 new recruiters. Thank you for allowing that 
to happen, and that is starting to make a significant 
difference in the production rates that we are experiencing in 
our recruiting force.
    Our Army National Guard units are not resources for high 
levels of readiness that today's environment demands. We had a 
full-time recruiting ramp--I mean a full-time force ramp, that 
probably was acceptable when we were a strategic reserve 
because it did assume some risk. It was not fully resourced at 
100 percent, but when you use it as an operational force I 
think it is time to relook at the full-time manning ramp for 
the National Guard because we cannot take risks. When the 
President calls us or the Governors call us to do the type of 
work they are asking for today, we cannot fail and we need that 
full-time manning to ensure the equipment and the training and 
the personnel are ready and available when needed. So I would 
please ask this subcommittee to look hard at that.
    Your Air National Guard is undergoing dramatic change and 
General James will talk about that in more detail in a few 
moments. The total force will provide a balanced force with 
proportional capabilities, but what concerns me, and I will say 
it outright, is that I am not certain that the Department of 
the Air Force and the Air Staff that is putting together this 
program really understands the essential element of a 
community-based Air National Guard.
    If you lose a community base, I think we will lose 
something very, very valuable to this Nation that we will not 
be able to reestablish in a time of need. I would ask that as 
this future total force comes together that we consider the 
goodness of community basing in that program.

                          PREPARED STATEMENTS

    In closing, I would tell you that the Guard is undergoing 
change at an unprecedented rate, we are operating as a joint 
entity, and we are proud to serve as America's 21st century 
Minutemen and women, always ready, always there, and we 
anxiously await your questions. Thank you.
    [The statements follow:]

                              IN MEMORIAM

    A Special Dedication to the men and women of the Army and the Air 
National Guard who made the ultimate sacrifice while serving the United 
States of America.
     america's 21st century minutemen--always ready, always there!
    National Guard Soldiers and Airmen lost during the attacks on 9/11, 
Operation Noble Eagle, Operation Enduring Freedom and Operation Iraqi 
Freedom as of March 11th, 2005.
SGT Leonard Wade Adams, NC
PVT Algernon Adams, SC
SPC Segun F. Akintade, NY
SPC Michael Andrade, RI
SPC Azhar Ali, NY
SGT Christopher James Babin, LA
SSG Nathan J. Bailey, TN
SPC Ronald W. Baker, AR
SGT Sherwood R. Baker, PA
1LT Gerald Baptiste, NY
SGT Michael C. Barkey, OH
1LT Christopher W. Barnett, LA
SGT Michael Barry, KS
SPC Todd M. Bates, OH
SPC Alan Bean Jr., VT
SGT Bobby E. Beasley, WV
CPL Joseph Otto Behnke, NY
SGT Aubrey D. Bell, AL
SPC Bradley John Bergeron, LA
SSG Harold D. Best, NC
SGT Dennis J. Boles, FL
SFC Craig A. Boling, IN
COL Canfield ``Bud'' Boone, IN
PFC Samuel R. Bowen, OH
SGT Larry Bowman, NY
SSG Hesley Box, Jr., AR
SSG Stacey C. Brandon, AR
SPC Kyle A. Brinlee, OK
SSG Cory W. Brooks, SD
SPC Philip D. Brown, ND
PFC Nathan P. Brown, NY
PFC Paul J. Bueche, AL
SPC Jimmy Dale Buie, AR
SPC Alan J. Burgess, NH
SGT Charles T. Caldwell, RI
SSG Joseph Camara, MA
SPC Jocelyn L. Carrasquillo, NC
SGT Frank T. Carvill, NJ
CAPT Christopher S. Cash, NC
SPC Jessica L. Cawvey, IL
SPC James A. Chance III, MS
SSG William D. Chaney, IL
SSG Craig W. Cherry, VA
SPC Don A. Clary, KS
MSG Herbert R. Claunch, AL
SPC Brian Clemens, IN
SGT Russell L. Collier, AR
SFC Kurt Joseph Comeaux, LA
SFC Sean M. Cooley, MS
SGT Alex J. Cox, TX
SPC Carl F Curran, PA
SPC Daryl Anthony Davis, FL
SPC Raphael S. Davis, MS
SSG David Fredrick Day, MN
SGT Felix M. Del Greco, CT
SPC Daryl T. Dent, DC
SPC Daniel A. Desens, NC
SPC Ryan E. Doltz, NJ
SPC Thomas John Dostie, ME
SPC Christopher M. Duffy, NJ
SGT Christian Philip Engeldrum, NY
SPC Michael Scott Evans II, LA
SGT Justin L. Eyerly, OR
SPC Huey P. Long Fassbender, LA
CPT Arthur L. Felder, AR
SPC Jon P. Fettig, ND
SGT Damien Thai Ficek, WA
SGT Jeremy J. Fischer, NE
SPC David Michael Fisher, NY
SGT Paul F. Fisher, IA
SPC Craig S. Frank, MI
SSG Bobby C. Franklin, GA
SSG Jacob Frazier, IL
SPC Armand L. Frickey, LA
SGT Seth Kristian Garceau, IA
SPC Tomas Garces, TX
SGT Landis W. Garrison, IL
SGT Christopher Geiger, PA
SPC Christopher D. Gelineau, ME
2LT Richard Brian Gienau, IL
SPC Richard A. Goward, MI
SGT Jamie A. Gray, VT
1LT Robert L. Henderson II, KY
SSG Kenneth Hendrickson, ND
SPC James J. Holmes, MN
SPC Jeremiah J. Holmes, ME
SGT Jessica Marie Housby, IL
SPC Robert William Hoyt, CT
SSG Henry E. Irizarry, NY
SPC Benjamin W. Isenberg, OR
SPC William Jeffries, IN
SPC David W. Johnson, OR
SFC Michael Dean Jones, ME
SPC Alain Louis Kamolvathin, NJ
SPC Mark J. Kasecky, PA
SPC James C. Kearney, IA
PFC David M. Kirchoff, IA
SGT Floyd G. Knighten Jr., LA
SPC Joshua L. Knowles, IA
SSG Lance J. Koenig, ND
CW3 Patrick W. Kordsmeier, AR
SFC William W. Labadie Jr., AR
SGT Joshua S. Ladd, MS
SPC Charles R. Lamb, IL
CW4 Patrick Daniel Leach, SC
PFC Ken W. Leisten, OR
SSG Jerome Lemon, SC
SPC Tiothy J. Lewis, VA
SGT Jesse Marvin Lhotka, MN
SPC Justin W. Linden, OR
SPC Jeremy Loveless, AL
SSG David L Loyd, TN
CPT Robert Lucero, WY
SPC Wai Phyo Lwin, NY
SSG William Francis Manuel, LA
SPC Joshua Samuel Marcum, AR
PFC Ryan A. Martin, OH
SPC Nicholas Conan Mason, VA
SPC Patrick R. McCaffrey, Sr., CA
1LT Erik S. McCrae, OR
SPC Donald R. McCune, MI
SPC Jeremy Wayne McHalffey, AR
SPC Eric S. McKinley, OR
SSG Heath A. McMillan, NY
SPC Robert Allen McNail, MS
SPC Kenneth A. Melton, MO
SPC Michael G. Mihalakis, CA
SFC Troy L. Miranda, AR
SPC Dennis B. Morgan, NB
SGT Shawna M. Morrison, IL
SPC Clifford L. Moxley, PA
SPC Warren Anthony Murphy, LA
SPC Nathan W. Nakis, OR
SPC Creig Lewis Nelson, LA
SPC Joshua M. Neusche, MO
SPC Paul Anthony Nicholas, CA
SGT William J. Normandy, VT
PFC Francis Chinomso Obaji, NY
SGT Nicholas Joseph Olivier, LA
SSG Todd Donald Olson, WI
SPC Richard P. Orengo, PR
SSG Billy Joe Orton, AR
SGT Timothy Ryndale Osbey, MS
SSG Michael C. Ottolini, CA
PFC Kristian E. Parker, LA
SGT Theodore L. Perreault, MA
SSG David S. Perry, CA
SGT Jacob Loren Pfingsten, MN
SGT Ivory L. Phipps, IL
SGT Foster Pinkston, GA
SGT Darrin K. Potter, KY
SGT Christopher S. Potts, RI
SGT Lynn Robert Poulin, SR, ME
SPC Robert Shane Pugh, MS
SPC Joseph Andrew Rahaim, MS
SPC Eric U. Ramirez, CA
SPC Christopher J. Ramsey, LA
PFC Brandon Ramsey, IL
SSG Jose Carlos Rangel, CA
SSG Johnathan Ray Reed, LA
SSG Aaron T. Reese, OH
SPC Jeremy L. Ridlen, IL
CPL John T. Rivero, FL
SSG William Terry Robbins, AR
SSG Alan Lee Rogers, UT
SFC Daniel Romero, CO
SFC Robert E. Rooney, NH
SPC David L. Roustrum, NY
SGT Roger D. Rowe, TN
SPC David Alan Ruhren, VA
CW4 William Ruth, MD
SPC Lyle Wyman Rymer II, AR
SPC Jeremiah W. Schmunk, WA
SPC Jeffrey R. Shaver, WA
SGT Kevin Sheehan, VT
1LT Andrew Carl Shields, SC
SPC Roshan ``Sean'' R. Singh, NY
SPC Aaron J. Sissel, IA
1LT Brian D. Slavenas, IL
SGT Keith Smette, ND
SGT Michael Antonio Smith, AR
CPL Darrell L. Smith, IN
CW4 Bruce A. Smith, IA
Maj Gregory Stone, ID
2LT Matthew R. Stoval, MS
SSG Michael Sutter, IL
SGT Robert Wesley Sweeney III, LA
SGT Deforest L. Talbert, WV
SFC Linda A. Tarango Griess, NE
SPC Christopher M. Taylor, AL
MSG Thomas R. Thigpen, Sr., GA
1LT Jason Gray Timmerman, MN
SGT Humberto F. Timoteo, NJ
SPC Seth Randell Trahan, LA
SPC Quoc Binh Tran, CA
2LT Andre D. Tyson, CA
PFC Daniel P. Unger, CA
PFC Wilfredo Fernando Urbina, NY
SGT Michael A. Uvanni, NY
SGT Gene Vance Jr., WV
1LT Michael W. Vega, CA
PFC Kenneth Gri Vonronn, NY
SSG Michael Scott Voss, NC
PFC Brandon J. Wadman, FL
SFC Mark C. Warren, OR
SSG David J. Weisenburg, OR
SPC Cody Lee Wentz, ND
SPC Jeffrey M. Wershow, FL
1LT Charles L. Wilkins III, OH
SPC Michael L. Williams, NY
SFC Christopher R. Willoughby, AL
SSG Clinton L. Wisdom, KS
SPC Robert A. Wise, FL
SPC Michelle M. Witmer, WI
SGT Elijah Tai Wah Wong, AZ
SGT Roy A. Wood, FL

         Prepared Statement of Lieutenant General H Steven Blum

                         CNGB EXECUTIVE SUMMARY

Overview
    The National Guard is essential and engaged in our hometowns and 
across the globe.
    As of January 1st, there are more than 109,000 Army and Air 
National Guardsmen on active duty worldwide, with another 9,700 alerted 
and awaiting mobilization, and 2,900 more serving in a Title 32 or 
State Active Duty status. Over 240,000 guard members have been 
mobilized since September 11th. Today more than 40 percent of the 
forces on the ground in Iraq are Guard and Reserve, and that proportion 
is set to grow this year.
    We conduct peacekeeping operations in Bosnia, Kosovo and the Sinai. 
We man the Avenger air defense batteries protecting our Nation's 
Capital, as well as Ground-based Mid-course Missile Defense 
interceptors in Alaska. We fly the vast majority of the air sovereignty 
missions over American cities.
    The Guard supports emergency responders and managers at local, 
state and regional levels. We respond to fires, floods, blizzards, 
tornadoes and hurricanes. We counter narco-terrorism, protect critical 
infrastructure, conduct airport and border security missions and defend 
against physical and cyber attacks on our homeland.
    We assist four combatant commanders as they engage in Theater 
Security Cooperation with our allies through our unique State 
Partnership Program, forging close bonds between our states and 
sovereign nations.
    We continue to invest in our nation's most precious resource, our 
youth, through the Starbase, About Face, Drug Demand Reduction and 
ChalleNGe programs.
    As the National Guard engages in every one of these endeavors, it 
also engages our families, employers, cities, towns and villages across 
this land--committing them to America's cause. When you call out the 
Guard, you call out America!
Support the Warfight Anytime, Anywhere
    The Army National Guard is rapidly transforming from an under-
resourced, Cold War, strategic reserve to an Operational Force ready 
for immediate employment across the full spectrum of the Global War on 
Terror.
    In the 1990s, our National Guard divisions were not even in the 
Army's war plans; today, the first Guard division headquarters to 
deploy to combat since the Korean War is on the ground in Iraq and 
commanding active duty, Guard and Reserve forces.
    We are rebalancing our forces in accordance with Army and Air Force 
requirements to ensure we have the right capabilities, in the right 
numbers, at the right places. We are converting, for example, our Cold 
War artillery into the military police, chemical, intelligence, 
surveillance and reconnaissance units we need for the current warfight. 
During the next three years, the Army National Guard will restructure 
to a Modular and Expeditionary force. No longer a ``legacy force'' or a 
strategic reserve, the Army Guard will have the same units and same 
equipment as the active Army. In order for this transformation to 
become a reality, it will require a long-term resource commitment on 
the part of Congress.
    The Air Guard continues to modernize, creating a more capable and 
versatile force that will ensure continued American dominance in air 
power for the next 20 years. Air National Guard planes carry most of 
the precision-guided munitions dropped in Iraq, the result of 
congressionally directed procurement of targeting pods that has given 
the Air Guard capabilities superior to those of many active Air Force 
units.
    The Guard's State Partnership Program provides a unique tool to 
strengthen our international alliances. This is a highly successful, 
direct military-to-military engagement program that has blossomed to 
embrace military-to-civilian and civilian-to-civilian interaction with 
48 countries around the globe. It supports the theater engagement 
efforts of the commanders of Pacific Command, European Command, Central 
Command and Southern Command, and it is in direct support of the 
National Security Strategy imperative that we deter forward in those 
four critical areas.
    More than 210 National Guardsmen and women have made the ultimate 
sacrifice in Iraq and Afghanistan, and thousands have been injured. We 
as a nation must ensure that the military medical system treats our 
wounded with the utmost care and respect. We also have a responsibility 
to Guardsmen who are so critically injured that they cannot return to 
military service or their former civilian careers. We want to ensure 
they have a smooth transition to Veterans Administration care. 
Additionally, we will do everything within our abilities to assist them 
in obtaining civilian jobs compatible with their grave injuries. The 
National Guard took the first step by creating a position in every 
state dedicated to helping all catastrophically wounded veterans--
regardless of service or component--make that transition and receive 
the benefits they are due. Wherever possible, we hire a seriously 
wounded veteran to perform this duty. We also reach out to employers 
across America to encourage them to hire our wounded heroes.
    A key aspect of the Guard's preparedness to go to war--or to 
provide service here at home--is the necessity to rearm and reequip our 
units as they return from abroad. Warfighting not only wears out 
equipment; in many cases, Guard units redeploying home are ordered to 
leave their equipment behind for follow-on forces. An Engineer company 
that returns home without bulldozers or earthmovers cannot train for 
the next deployment. It has trouble recruiting new Soldiers and is of 
diminished use to a governor in the event of an emergency. As 
operational tempo remains high across the Guard and we shift to 
becoming a no-notice or short-notice reserve, we cannot ignore the 
costs of ``resetting'' the force once it returns home. These costs, 
when added to the necessary expense of converting to modular and 
expeditionary units with equipment levels equal to those of their 
active Army counterparts, will be high--but will only increase if the 
inevitable is delayed.
Homeland Defense: Here and Abroad for over 368 Years
    Mission One for the National Guard is Homeland Defense. The 
President, the governors, Congress and the Secretary of Defense have 
clearly insisted that the Guard be fully prepared to engage in Homeland 
Defense and to support Homeland Security missions while simultaneously 
engaged in combat overseas; in fact, they insist that we be more 
accessible than we've ever been in the past. Congress further enhanced 
the Guard's domestic Homeland Defense and Security mission capability 
in the 2005 Defense Authorization Act, by amending Title 32 of the U.S. 
Code to authorize the funding of homeland defense activities by the 
National Guard, upon approval of the Secretary of Defense.
    We have committed to the governors--our state Commanders in Chief--
that the National Guard will have sufficient capabilities under their 
control to meet their needs. Those capabilities include key assets for 
command, control and immediate response--the Joint Force Headquarters, 
Civil Support Teams, rapid reaction forces, medical, aviation, 
decontamination and engineering units.
    At the state level, the Guard continues to strengthen ties with the 
Department of Homeland Security. In 23 states and territories, the 
Adjutant General serves as either the state Director of Emergency 
Management, the state Director of Homeland Security or both. The 
National Guard Bureau is also taking the lead in promoting increased 
sharing of interagency and intergovernmental intelligence. By using a 
host of communications and intelligence networks linked to each state 
Joint Forces Headquarters, we are rapidly achieving a nationwide, 
state-by-state Common Operating Picture.
    We are rebalancing forces among the states. Some of this is taking 
place across service lines; a medic is a medic, whether Army green or 
Air Force blue. The Joint National Guard Bureau will apportion medical, 
transportation, communication, police and other assets based on state 
needs--not just service-unique criteria.
    Innovative solutions to Homeland Defense and Security challenges 
led us to leverage many capabilities previously envisioned for use only 
in our federal warfighting role. A year ago, we conceptually spoke of 
leveraging these capabilities. Today, it is a reality. Every state now 
has reaction forces to rapidly respond to a governor's summons--a 
company of 125 Army or Air Guard personnel within four to eight hours; 
a battalion of 500 personnel within 24 to 36 hours.
    The Department of Defense has announced the activation of the final 
11 Civil Support Teams. As a result, every state, territory and the 
District of Columbia will have this full-time asset capable of 
deploying, detecting and advising civil authorities on managing the 
effects of a Weapons of Mass Destruction attack.
    Twelve regional Chemical, Biological, Radiological, Nuclear and 
high-yield Explosives Enhanced Response Force Packages--modeled on the 
single existing Marine Corps unit--were established and subsequently 
certified by the U.S. Marine Corps and U.S. Army. These force packages 
provide mass casualty decontamination, security and urban search and 
extraction in contaminated environment capabilities in addition to 
those of the Civil Support Team. The power of these response packages 
is that we leverage existing warfighting units in the Army and Air 
Guard by providing only modest amounts of additional equipment and 
training to create this critically needed, new capability.
    Since October 2003, every state has had a provisional standing 
Joint Force Headquarters with the capability to coordinate, synchronize 
and control all military efforts in support of the lead state, local or 
federal agency responding to a crisis. These headquarters proved 
themselves remarkably capable last year handling myriad challenges--
from responding to multiple deadly hurricanes in Florida, to 
operational control of forces for border security during Operation 
Winter Freeze, to full-scale command and control of all federal and 
state military forces during three separate National Security Special 
Events--the G-8 summit and the Democratic and Republican National 
Conventions.
    The National Security Special Event command and control construct 
was a landmark achievement. For the first time in our nation's history, 
we attained unity of command for all military forces operating in 
support of a major security event--National Guard on state active duty, 
National Guard under USC Title 32 control, Army, Navy, Air Force and 
Marine Corps Title 10 forces--all commanded by a single National Guard 
commander from a state Joint Force Headquarters, operating in a joint, 
combined, intergovernmental and interagency environment.
    Once the mission statements of the 54 state Joint Force 
Headquarters, as well as the Joint National Guard Bureau, are formally 
approved, we will begin providing our personnel with the Joint 
Professional Military Education they require to most effectively serve 
in their role as the 54 forward deployed headquarters for homeland 
defense and security. We are well within reach of our goals to improve 
the Guard's readiness to fight the Global War on Terror both at home 
and abroad and provide greater value in terms of efficiencies and 
effectiveness to the citizens of the states and of the United States.
    Ground-based Midcourse Missile Defense interceptors, manned 
entirely by full-time members of the Alaska Army National Guard, have 
achieved limited operating capability at Fort Greeley. Similarly, the 
Air Guard continues the air sovereignty mission it has been conducting 
over this nation since September 2001, employing new facilities and new 
command and control infrastructure to improve the effectiveness of this 
mission. We continue to stand watch, as we have for nearly 400 years.
Transformation for the 21st Century
    Transforming the Cold War-era mobilization process is a must in 
order to speed our shift from a strategic reserve to an operational 
force--and to increase Soldier retention.
    Last year, we promised the governors--and our Soldiers and Airmen--
a more predictable model for operational rotations. This makes it 
easier to plan for which units will be available for homeland defense 
and helps Guard members, families and employers better understand and 
prepare for their own future. We began implementing our plan this year, 
distributing the burden of deployments among states and units as 
equitably as possible. Our goal is for every Guard member to know when 
and for how long they will deploy well in advance of their deployment 
date.
    Recruiting for the Army Guard has been a challenge this past year. 
We saw remarkably high levels of retention among Soldiers and Airmen 
who deploy overseas with their units. However, prior service 
enlistments are significantly down and recruiting new Soldiers has been 
difficult. With the extensive new resources devoted by Congress, we 
hope to once again meet our goals. As a result of this congressional 
attention, we dramatically increased enlistment and reenlistment 
bonuses and added 1,400 new recruiters across the nation--an increase 
of more than 50 percent over the 2,700 recruiters we had. There remain, 
however, continued inequities between the bonuses and entitlements for 
which the Guard and Reserve are eligible and those that the active 
component receives.
    Army Guard units are not resourced for the high level of readiness 
that today's environment demands. Since 9/11, over 75 percent of our 
divisional combat battalions--among the lowest resourced Army units--
have been mobilized. Because of decades of maintaining units in 
peacetime at lower strength than authorized for wartime, nearly every 
Guard unit mobilized has required fillers. In effect, we are unable to 
mobilize a full-strength battalion without reducing the readiness of a 
second battalion.
    In order to transform to a modern operational force, we need to 
change this practice. The Army Guard needs to man its units like the 
active Army, at full wartime strength. While this means reducing the 
overall structure, the result will be fully manned units and a more 
ready and accessible National Guard.
    The number of aircraft in the Air National Guard will decrease as 
technologies increase capabilities. We will expand our medical, 
engineering, security and intelligence units through the Vanguard 
transformation program. The Air Guard also strives to increase its 
capabilities in joint operations through network-centric systems, such 
as the Enhanced Radio Location Reporting System--a means for tracking 
friendly units on the ground--and the Expeditionary Medical Support 
system--a highly mobile, integrated and multifunctional medical 
response suite that is currently in use in Iraq and is also ideal for 
rapid response here at home.
    The Guard is undergoing change at an unprecedented rate. We are 
operating as joint headquarters in the states and jointly at the 
National Guard Bureau. We are leveraging new capabilities from our 
warfighting units for Homeland Defense, adopting new missions such as 
civil support and missile defense, working with the Army to revamp the 
mobilization process and the way we man our units. We are rebalancing 
forces for both the federal and state missions--all while conducting 
the daily business of disaster response at home and peacekeeping and 
warfighting overseas. Your National Guard--the spirit of our Soldiers 
and Airmen, is indomitable!
    We are proud to serve as America's 21st Century Minutemen--always 
ready, always there!
                                 ______
                                 
       Prepared Statement of Lieutenant General Roger C. Schultz

            ``SERVING A NATION AT WAR: AT HOME AND ABROAD''

Message from the Director
    The Army National Guard is an integral and vital component of the 
United States Army. The Guard is organized, trained and resourced to 
support the President and Congress of the United States. Since 
September 11, 2001, the Army National Guard has provided trained and 
ready units across the entire nation and the globe. The Army National 
Guard commits to continued support of the Global War on Terrorism both 
at home and abroad.
    In 2004, the Army National Guard supported ongoing combat service 
in Iraq and Afghanistan, emergency service and reconstruction efforts 
in the aftermath of Florida's record number of hurricanes and enduring 
missions to the Balkans and Sinai Peninsula. The Army National Guard 
met the challenge of balancing our federal and state missions. Our 
Soldiers, families and employers deserve credit for a job well done in 
the face of strained resources.
    This Posture Statement presents an opportunity to lay out in detail 
the Army National Guard actions to ensure our nation's defense, meet 
our strategic and legislative goals and transform to meet tomorrow's 
challenges. The Chief of the National Guard Bureau established our 
fiscal year 2006 priorities to Support the Warfight, Defend the 
Homeland and Transformation for the Future.
    The Army National Guard balances its status as an integral element 
of the United States Army with its readiness to serve state governors 
and the people of our communities. Our Citizen-Soldiers represent 
thousands of communities across America. Our Soldiers bring with them 
real-world experience and provide capabilities to address both domestic 
disasters and foreign conflicts.
    The Army National Guard remains committed to transform into an 
Operational Force that continues to be capable of its dual role to 
support the Global War on Terrorism and the state governors. The Army 
National Guard's commitment to domestic and foreign affairs will remain 
at a consistent pace for the coming years. We are able to keep this 
commitment because of the continued dedication of our Soldiers, support 
from the families and the resources provided by Congress.
                 support the warfight anytime, anywhere
The Citizen-Soldier: Defending the Nation
    The Army National Guard demonstrates it is a full partner of the 
Total Army Force. The Army National Guard provided ready units in 
support of a variety of overseas missions throughout fiscal year 2004.
    The Army National Guard mobilized and deployed more than 95,000 
Soldiers to war in support of Operation Noble Eagle (America's Homeland 
Defense), Operation Enduring Freedom (Afghanistan) and Operation Iraqi 
Freedom (Iraq). The Army National Guard conducts operations ranging 
from combat to peacekeeping and force protection to national missile 
defense missions. The Army National Guard meets operational 
requirements in conjunction with training activities in 84 countries. 
The Army National Guard balances missions with continued support to 
state and local authorities during natural and manmade disasters, 
Homeland Defense and Homeland Security.
    The Army National Guard fortified its success with a long-term 
leadership role in the Balkans, supporting Peacekeeping Operations in 
Bosnia and Kosovo. Army National Guard units received assignment as 
Multi-National Force Observers in the Sinai Peninsula. The Active 
Component previously supported each of these operations. The Army 
National Guard will conduct these missions in the future.
Equipping the Force
    The Army National Guard established funding priorities based on the 
Army Chief of Staff's vision for modernizing the total force core 
competencies. These competencies include training, equipping Soldiers, 
growing capable leaders and maintaining a relevant and ready land 
power. The Army National Guard focus is to organize and equip current 
and new modularized units with the most modern equipment available. 
This modernization ensures our ability to continue support of 
deployments, homeland security and defense efforts while maintaining 
our highest war-fighting readiness. This requires the Rapid Fielding 
Initiative to equip our Soldiers with the latest force protection 
items, such as body armor with Small Arms Protective Insert Plates, 
Night Vision Devices and small weapons.
Intelligence Operations
    Army National Guard Soldiers assigned to Military Intelligence play 
a vital role in the Global War on Terrorism and National Security. The 
Army National Guard deployed these Soldiers worldwide to support 
intelligence operations at the tactical, operational and strategic 
levels. During 2004, Army National Guard Military Intelligence units 
supported combatant commanders deployed in Bosnia, Kosovo, Afghanistan, 
Iraq, Kuwait, Saudi Arabia, Jordan, Turkey, Bahrain, Qatar, Oman, 
Djibouti, Guantanamo Bay and to Continental United States locations. 
Army National Guard linguists and analysts provided capabilities for 
government agencies such as the National Security Agency, Defense 
Intelligence Agency and elements of the State, Treasury and Justice 
Departments. At all levels of operation, Soldiers participate in 
sanctioned activities including imagery intelligence, signals 
intelligence, document exploitation, counter-drug and analysis-based 
intelligence. Our Soldiers engage in intelligence activities 
concurrently with training to improve their readiness and ability to 
remain a key asset in the defense of our nation.
Information Operations
    The Army National Guard continues to provide Full Spectrum 
Information Operation Teams to support a broad range of Army missions. 
The Army National Guard Information Operations Field Support Teams 
provide tactical planning capabilities at all echelons. Army National 
Guard Brigade Combat Teams are deployed to theater with information 
operation cells that provide planning support to each level.
Innovative Readiness Training
    The Innovative Readiness Training program highlights the Citizen-
Soldier's role in support of eligible civilian organizations. By 
combining required wartime training with community support projects, 
Soldiers obtain the training they need and communities receive needed 
assistance in completing various projects. Community benefits usually 
come in the form of construction projects or medical improvements.
    More than 7,000 Soldiers and Airmen from across the United States 
and its territories participate annually in Innovative Readiness 
Training sponsored projects. Army National Guard missions include:
  --Task Force Alaska leadership of a joint, multi-year engineering 
        project to construct a 15-mile road on Annette Island, normally 
        accessible only by boat;
  --In Clarksburg, West Virginia, Army National Guard engineers 
        continue efforts to expand and improve the Benedum Airport 
        infrastructure;
  --Task Force Grizzly and Task Force Douglas improved existing road 
        networks in support of United States Border Patrol in 
        California and Arizona;
  --Rolling Thunder is a series of Oregon Army and Air National Guard 
        projects designed to enhance military skills while adding value 
        to local communities. Rolling Thunder provides a positive 
        presence in Oregon communities and promotes public awareness of 
        the Army National Guard; and
  --The South Carolina Army National Guard instituted the REEFEX 
        project. REEFEX utilizes decommissioned Army vehicles to create 
        artificial reefs in the Atlantic Ocean off the coasts of New 
        England and South Carolina.
Training the Nation's Warfighter
    The Army National Guard's unique condition of limited training 
time, limited training dollars and, in some cases, difficult access to 
training ranges, demands an increased reliance on low-cost, small-
footprint training technologies. Quick response by the Army National 
Guard to our nation's missions requires a training strategy that 
reduces post-mobilization training time. New virtual technologies and 
simulators therefore become critical tools to help Army National Guard 
maintain a ready Operational Force.
    The Bradley Fighting Vehicle is the primary weapon system of the 
United States Army Mechanized Infantry and a critical system to the 
United States Army Cavalry. The Advanced Bradley Full Crew Interactive 
Skills Trainer virtual gunnery training system is a low cost, 
deployable training system that attaches directly to the Bradley 
Fighting Vehicle and supports home station training in advance of a 
live fire event.
    The Virtual Convoy Operations Trainer provides training for combat 
convoys under realistic conditions that simulate the streets of Baghdad 
and other areas. This resource trains Soldiers to anticipate ambushes 
and other insurgent actions from all possible directions by allowing 
the crew to observe, maneuver and fire their weapons in a full, 360-
degree circumference. These systems train mobilizing Soldiers in 
tactics, techniques and procedures for convoy operations within the 
U.S. Central Command Area of Responsibility.
    The Engagement Skills Trainer 2000 simulates weapon-training 
events. This trainer provides initial and sustainment marksmanship 
training, static unit collective gunnery tactical training and rapid 
identity friend-or-foe training. Soldiers utilize this trainer 
primarily for multipurpose, multi-lane, small arms, crew-served and 
individual anti-tank training simulation. The trainer simulates day and 
night, as well as Nuclear, Biological and Chemical marksmanship and 
tactical training.
    The Laser Marksmanship Training System simulates weapons training 
events that lead to live-fire qualifications for individual and crew-
served weapons. This system is similar to the Engagement Skills Trainer 
2000, but it weighs less, is transportable, uses batteries and requires 
no fixed facilities to maintain. This system allows the Soldier to use 
personal weapons to conduct individual and sustainment marksmanship 
training using Nuclear, Biological and Chemical equipment.
    The Joint Training and Experimentation Program is a California 
National Guard training initiative. This program develops the 
technology that links the Live, Virtual and Constructive training 
environments into an architecture, which permits fully integrated 
exercises at the brigade level and below.
Information Technology
    The Army National Guard successfully increased the bandwidth and 
provided a secure data link to the Joint Force Headquarters in each of 
the 50 states, Commonwealth of Puerto Rico, two U.S. Territories and 
the District of Columbia. The Army National Guard synchronizes its 
transformation efforts with the Department of the Army. The Army 
National Guard's modern wide-area network provides improved redundancy 
and increased network security. The Army National Guard G-6 will 
continue to support the Joint Warfighter by enhancing collaboration 
among the Total Force and leveraging superior Knowledge Management 
strategies in fiscal year 2006.
          homeland defense: here and abroad for over 368 years
Prepared and Ready
    The national investment in Army National Guard training and 
readiness programs continues to pay strong dividends. Congressional 
attention and support directly enables the Guard's ability to robustly 
defend the homeland and provide trained and ready units to Combatant 
Commanders waging the War on Terror and engaging enemies abroad.
    The Army and Army National Guard transformation is a process 
critical to meeting the challenges of today and the future. At the same 
time, the Army National Guard advances with proven readiness and 
training programs that are critical to our current successes and 
essential for those in the future.
    The Army National Guard prepares to transform at an unprecedented 
pace while continuing the Warfight. National and state leaders can rest 
assured the Army National Guard remains committed to the 
responsibilities of its dual role. The Army National Guard commits 
itself to continued and immediate support of local civilian authorities 
while maintaining Relevant and Ready Forces in support of the Nation.
Full-Time Support
    Fighting the Global War on Terrorism highlights the vital role 
Full-Time Support personnel serve in preparing Army National Guard 
units for a multitude of missions both at home and abroad. Full-Time 
Support is a critical component for achieving Soldier and Unit-Level 
Readiness. Full-Time Guard members are responsible for organizing, 
administering, instructing, training and recruiting new personnel. They 
maintain supplies, equipment and aircraft. Full-Time Support personnel 
are imperative to the successful transition from peace to war and have 
critical links to the integration of the Army's components. To meet 
readiness requirements, the Chief of the National Guard Bureau, in 
concert with the Adjutants General, increased Full-Time Support 
authorizations as a priority for the Army National Guard.
    While the Army National Guard made progress in recent years to 
increase Full-Time Support, obstacles remain in obtaining acceptable 
Full-Time Support levels. It is critical that Full-Time Manning 
increase in the near term to a minimum 90 percent of the total 
requirement to help ensure the highest readiness level, C1.
Training to Protect the Homeland
    The training priority for the Army National Guard is preparation of 
combat-ready Soldiers that limits lengthy post-mobilization periods. 
The requirements for missions at home and abroad direct the training 
emphasis of the Army National Guard in contemporary operating 
environments. As a result, Army National Guard units remain fully 
prepared, equipped, trained and ready to operationally deploy and 
swiftly mobilize to meet regional and territorial responsibilities.
    For a second consecutive year, the Army National Guard met or 
exceeded the Secretary of Defense's Duty Military Occupational Skill 
Qualification training goals. In fiscal year 2004, the Army National 
Guard achieved 83.08 percent qualification status. This specific 
training goal increases to 85 percent in fiscal year 2005. The Army 
National Guard added training schools to meet the needs of our Soldiers 
for operational missions at home and abroad. These efforts resulted in 
7,000 additional Soldiers now meeting deployment standards.
    In an effort to respond to the contemporary training needs of units 
and Soldiers, the Army National Guard plans to establish ``Training for 
Urban Operations'' at our facilities. We currently operate one entire 
suite and two Mobile Military Operation Urban Terrain sites. Additional 
facility construction programmed over the next five years at four 
National Guard Training Centers will better support mobilizations. A 
future construction plan targets four more sites.
Protecting Those Who Protect America
    The Army National Guard adheres to the Army's new Safety Campaign 
Plan and incorporates it into the Army National Guard's Safety and 
Occupational Health regulation. The Army National Guard will continue 
to emphasize the Defensive Driving Course in the coming years. The Army 
National Guard Safety and Occupational Health Office is a partner with 
adjacent and higher level safety organizations to identify and 
implement successful methods of combating all our safety related 
problems.
Keeping the Force Strong: Recruiting and Retention
    The Army National Guard ended fiscal year 2004 by achieving 99 
percent of our retention objectives and exceeding attrition goals. This 
accomplishment falls 7,082 Soldiers short of our End Strength goal of 
350,000 Soldiers. To meet this same End Strength goal in fiscal year 
2005, the Army National Guard's enlisted accession mission is 63,000 
Soldiers funded at a 50/50 Non-Prior Service/Prior Service ratio. The 
Active Component End Strength increase, high operational tempo and 
reduced propensity of prior service Soldiers to join the Army National 
Guard prove a challenge to our recruiting mission. The reduction in 
Active Component members transitioning into a reserve capacity requires 
the Army National Guard to increase accession of Non-Prior Service 
candidates. Funding constraints limit the Army National Guard's ability 
to maintain a presence on school campuses to attract Non-Prior Service 
candidates. As a result, we witnessed a drop in recruits from the high 
school and college graduate pool. The Army National Guard currently 
works with the Army Personnel leadership to identify funding 
requirements in the Recruiting Action Plan.
    The Army National Guard implemented retention and attrition 
programs and is developing new initiatives to minimize projected 
attrition impacts of the 12-18 month mobilization cycle. To date, 
recent operations have not significantly affected loss rates of units 
returning from deployment. Our current loss rate of Soldiers 
demobilized through December 2004 is 11.3 percent of the entire 
demobilized Soldier population since 9/11. This loss rate is well below 
our current overall Army National Guard loss rate of 18.8 percent with 
the Army National Guard goal being 18 percent losses. We remain 
cautiously optimistic that developing Army National Guard retention 
programs, initiatives and enhancements based on Unit Post Mobilization 
Survey data will preempt the kind of high loss rates resulting from the 
Operation Desert Storm/Shield era.
    The Army National Guard launched an aggressive new marketing 
campaign, ``American Soldier,'' targeting Non-Prior Service candidates. 
This comprehensive campaign reaches prospective Guardsmen through 
radio, television, college marketing, internet media, event marketing 
and point-of-sale materials, promotional items, print media and mass 
mailings. This marketing tool enables the Army National Guard to 
effectively execute its mission and recruit quality Soldiers. 
Supplemental funding identified as required in our Recruiting Action 
Plan is critical to continue ``American Soldier'' through fiscal year 
2005.
    The Army National Guard is taking several steps to ensure we 
achieve fiscal year 2005 objectives. These objectives include 
introduction of a comprehensive Recruiting and Retention Non-
commissioned Officer Sustainment Training program with internal Mobile 
Training Teams. Enhancements to the ``YOU CAN'' school programs and 
educational seminars include six new and 24 updated school 
presentations. These programs provide Army National Guard recruiters 
entry into the secondary school markets. We emphasize access to the 
secondary schools at regional and state-level educational seminars and 
work with professional educators to facilitate direct marketing of the 
Army National Guard programs. Initiatives to strengthen Commissioned 
Officer levels in fiscal year 2005 include a dedicated Officer 
Recruiting blitz. This concentrated effort involves a coordinated 
campaign amongst national, regional and state officer recruiting 
personnel. Additional support focused on Army Medical, Chaplain, 
Warrant Officer and Basic Branch recruiting complement our overall 
Officer Recruitment campaign.
    Recruiting and retaining Soldiers for the Army National Guard 
proves to be challenging during wartime. In fiscal year 2005, the Army 
National Guard increased the accession mission from 56,000 to 63,000 to 
compensate for fiscal year 2004 shortfalls. The Army National Guard 
trained 971 new recruiting and retention non-commissioned officers 
through December 2004 and will add 1,400 more in 2005. This addition 
will increase our ability to recover from current End Strength and 
accession shortfalls. The assistance outlined above, coupled with 
successful implementation of key initiatives, is imperative to 
attaining the End Strength mission.
Environmental Programs
    The Army National Guard continues implementation and full 
utilization of initiatives consistent with the new Army Strategy for 
the Environment and Installation Sustainability. Begun in fiscal year 
2002, the Training Center Sustainment Initiative reduces mission 
impacts through identification and prioritization of environmental 
vulnerabilities. Range sustainment initiatives ensure maximum 
continuous use of Army National Guard training lands for our Soldiers. 
This comprehensive, web-based tool provides sustainability analysis on 
our training lands and valuable analytical decision-making tools for 
Army National Guard leaders. The Training Center Sustainment 
Initiative, in conjunction with Environmental Management Systems 
implementation and continued Geographical Information Systems 
integration, greatly supports active stewardship of the environment.

  TRANSFORMATION FOR THE 21ST CENTURY: READY, RELIABLE, ESSENTIAL AND 
                               ACCESSIBLE

Ground-based Midcourse Defense
    Defending against ballistic missile attack is a key component of 
the National Security Strategy for Homeland Security. In the initial 
defensive operations phase, the Army National Guard will play a major 
role in this mission as the force provider for the Ground-based Missile 
Defense system. We requested a fiscal year 2005 funding increase in the 
Active Guard Reserve manpower authorization in the President's Budget 
Request to support this new role. The Ballistic Missile Defense program 
is dynamic--undergoing constant refinement and often late-breaking 
changes and decisions. The Army National Guard, as the force provider, 
may require last-minute changes in Active Guard Reserve manpower 
authorizations and related funding for missile defense decisions. 
Timely congressional support of these requests is imperative for the 
Army National Guard to provide the necessary manpower resources to the 
vital Homeland Defense mission. Soldiers serve in two statuses: (1) 
Title 32 Active Guard Reserve status performing duty consistent with 
the core functions by 10 USC 1019d)(6): organizing, administering, 
recruiting, instructing or training other members of the reserve 
components; (2) Title 10 Active Guard Reserve status performing the 
Federal Ground-based Missile Defense operational mission duties (for 
the duration of those duties). To support these manpower resources, 
Soldiers performing operational missions function in Title 10 status. 
Soldiers performing non-operational missions remain in Title 32 status.
Logistics and Equipment
    The Army National Guard continues modernization to the digital 
force with the emerging technologies that will dramatically improve 
logistical support for these systems, substantially reduce repair 
times, increase operational readiness rates and eliminate obsolete and 
unsustainable test equipment. Use of these technologies allows the Army 
National Guard to operate heavy equipment at a higher operational rate 
while reducing the overall costs for these systems.

    ----------------------------------------------------------------

     Equipment Modernization Shortfalls in the Army National Guard
    High-Mobility Multi-Purpose Wheeled Vehicles
    Single-Channel Ground and Airborne Radios
    UH-60 Helicopter
    Night Vision Devices
    Small Arms

    ----------------------------------------------------------------

    The Army National Guard currently retains a significant portion of 
the Army's maintenance infrastructure. This Cold War infrastructure is 
expensive and redundant. Under the Army's new maintenance strategy, the 
Army National Guard and other Army elements continue consolidation of 
maintenance systems. This initiative enhances the maintenance system 
and improves efficiency. Army maintenance personnel effectively 
diagnose and maintain equipment by reducing maintenance tasks to two 
levels instead of four.
Personnel Transformation
    Critical ``paperless'' Personnel Transformation innovations are 
underway within the Army National Guard. Our web-based Personnel 
Electronic Records Management System utilizes digital imagery to store 
and retrieve personnel records. This state-of-the-art technology 
provides seamless records management capability throughout the Total 
Army. The system enhances both mobilization and personnel readiness. 
With over 320,000 Soldiers deployed in over 120 countries, the 
necessity for a Total Army Records Management solution is paramount.
Aviation Transformation and Modernization
    The Army National Guard's aviation transformation supports efforts 
to transform for the future. Aviation transformation and modernization 
increases our ability to support a joint warfight while enhancing our 
responsiveness for Homeland Defense. We are reconfiguring our aviation 
units into modularized units of action and units of employment to align 
with Army plans. Reduction of the UH-1 Huey fleet to 100 aircraft 
should occur by the end of 1st Quarter fiscal year 2005. We will 
complete aircraft reallocations within the National Guard system, turn 
in aircraft legacy systems and transfer remaining aircraft from active 
component units.
    The Army National Guard provides almost half of the Army's aviation 
structure. The rate of modernization, planned quantities of most 
aircraft and current funding levels influence the ability to maintain 
combat-ready status. Aging and obsolete rotary wing assets average over 
twenty years of service life. Fixed wing assets also show signs of age. 
The Army National Guard started removing Utility C-26 aircraft from 
service and retiring utility C-12 aircraft. C-23 cargo aircraft offer 
marginal capabilities for wartime cargo movement requirements. Current 
plans provide no alternative replacement for our fixed wing assets.
    The active Army cascaded significant quantities of UH-60 Blackhawk, 
CH-47 Chinook and AH-64 Apache aircraft to the Army National Guard. 
This procurement still leaves us permanently short of adequate combat 
rotary wing systems. The Army National Guard anticipates receiving only 
174 of the required 220 AH-64 Apaches, 131 of the required 159 CH-47 
Chinooks and 662 of the required 710 UH-60 Blackhawks. Acquisition of 
AH-64 Apaches will consist of only 60 of the modernized AH-64D 
``Longbow'' model.
    Modernized aircraft require modern facilities to support them. 
Upgraded and updated facilities ensure our ability to logistically 
support modernized systems once in place. Fielding equipment (tool set, 
tool kits, test equipment and parts) necessary to support new aircraft 
failed to keep pace with transformation. We fund the majority of 
support items by diverting funds from other Army National Guard 
programs. Training demands for transitioning units cause further stress 
for already overburdened training sites. While the Army National Guard 
meets these challenges, eventually we will exceed our capacity to 
respond and adapt. We need to obtain necessary logistical support and 
infrastructure to sustain our aviation structure in accordance with 
Army readiness standards. Without increased funding, the Army National 
Guard Aviation Force risks lower readiness rates, reduced capability 
and obsolescence.
Training in ``One Army''
    Training centers support our ability to conduct performance-
oriented training under real-world conditions. The Army National Guard 
modernizes and restructures in accordance with transformation needs for 
Future Force ranges and maneuver areas that effectively meet evolving 
warfighting requirements. Ranges and training land provide live fire 
experience. We face a number of continuing challenges in sustaining 
Power Support Platforms and modernizing Army National Guard live-fire 
ranges and range operations for the Stryker Brigade Combat Team. The 
Army National Guard will consolidate range and training land investment 
documentation under the Sustainable Range Program.
    The Army National Guard achieves training excellence by leveraging 
the Distributed Learning construct. Distributed Learning improves unit 
and Soldier readiness through increasing access to training resources 
and reducing unnecessary time away from the home station. Interactive 
Multimedia Instruction courseware, Satellite programming and distance 
learning offer needed instruction for Soldiers and units. Current 
Distributed Learning addresses training priorities such as Duty 
Military Occupational Skill Qualification reclassification and other 
professional military and functional training.
    The Army National Guard engages in a full spectrum of civil-
military operations. Our Soldiers represent every state, territory and 
sector of society. Today they represent their nation serving honorably 
throughout the world. In these critical times, the Army National Guard 
must maintain readiness. A vital part of the Army's force structure, 
the Army Guard remains a community-based force committed to engage in 
overseas missions while protecting and serving our cities and towns. 
The Army National Guard has proven itself capable of carrying out its 
goals of supporting the Warfight, defending the Homeland and 
transforming into a ready, reliable, essential and accessible force for 
the 21st century.
                                 ______
                                 
       Prepared Statement of Lieutenant General Daniel James, III

                       MESSAGE FROM THE DIRECTOR

    This has been another exceptional year for the Air National Guard. 
Despite our serious obligations and missions in prosecuting the Global 
War on Terrorism, our members remained at the forefront of Homeland 
Defense abroad and at home. During fiscal year 2004, Air National Guard 
crews flew well over 50 percent of the fighter, tanker and airlift 
sorties for Operation Noble Eagle while postured for Air Sovereignty 
Alert at 16 of 17 sites; provided almost one-third of the fighter 
sorties in Operation Enduring Freedom; and provided over one-third of 
the fighter and tanker sorties for Operation Iraqi Freedom. Air 
National Guard crews also supported 75 percent of the tanker sorties 
and over 60 percent of the airlift sorties to other theaters. In 
addition, Air National Guard Expeditionary Combat Support capabilities 
support operations and exercises around the world. More than two-thirds 
of the Air National Guard force engaged in worldwide operations since 
9/11.
    Air National Guard members could not participate at these levels 
without continued support from Congress and the American people. 
Congress has worked hard to provide the support and the necessary 
resources to take care of the troops and their families, allowing the 
troops to focus on the mission. Citizen-Airmen answer the call as they 
always have and are receiving the tools to accomplish these demanding, 
dynamic missions at home and abroad. Additionally, our members' 
employers continue to step up to the plate by providing financial and 
employment security that exceeds the standards. This, too, helps our 
people focus on the mission.
    The Air National Guard will continue to perform these homeland 
defense and expeditionary missions even as our organization transforms 
to meet future requirements. Through VANGUARD, the Air National Guard's 
strategy to remain relevant, we will continue to work with Air Force 
leadership to achieve the right mix of forces across the full spectrum 
of operations. We will continue to develop organizations that create 
synergistic effects for the resources involved by adhering to the core 
values associated with unit-equipped missions, by integrating where it 
is smart or by creating other unique organizational structures. We will 
seek new missions, such as the F/A-22, Predator, missions in space and 
information operations, while modernizing systems that will increase 
mission effectiveness. We will recruit and retain the best the nation 
has to offer while developing our people into Total Force leaders. Our 
success will require the focused effort of all stakeholders to ensure 
the necessary capabilities will be available for Hometown America while 
leveraging the community experience of our members. While we face these 
challenges together, community, state and national leaders can be sure 
the Air National Guard will remain Ready, Reliable, Relevant . . . 
Needed now and in the future!

                 SUPPORT THE WARFIGHT ANYTIME, ANYWHERE

Total Force Partner in the Expeditionary Air and Space Force
    The Air National Guard has been and will continue integrating into 
the Air and Space Expeditionary Force employment concept. Since its 
inception, Air National Guard men and women in aviation and support 
packages routinely rotated to support exercises and real-world 
operations around the globe. As the Air Force adjusts this concept to 
meet current and future requirements, the Air National Guard adjusts as 
well to maintain Citizen-Airmen presence globally. Air National Guard 
capabilities are often singularly sought because of our experience and 
unique capabilities. Two such capabilities are the Theater Airborne 
Reconnaissance System and the ability to employ the 500-pound Joint 
Direct Air Munitions.
    Across the full spectrum of operations, Air National Guard men and 
women continue to volunteer for duty in record numbers. The Volunteer 
is a key attribute continuously leveraged to supply needed capabilities 
while giving commanders the ability to efficiently and effectively 
manage the most precious resource: People. Volunteerism combined with 
high experience levels and unique skills mean an outstanding support 
for the war fight.
Network Centric Warfare and the Air National Guard
    The Air Force's vision of Network Centric Warfare is a fully 
integrated digital system, which delivers seamless, survivable, instant 
capability to execute the Joint Force Commander's desired effects. This 
system provides Global Network Connectivity, network enabled weapons 
platforms, fused intelligence capability, real-time situational 
awareness and command and control. A dramatic transformation must occur 
in the Air Force and the Air National Guard in order to make the vision 
of this integrated digital system a reality.
    With this transformation initiative, our focus shifts from 
information technology to the management of information. Information 
technology personnel will no longer merely manage circuits, computers 
and the infrastructure, but also manage the movement of information. 
Information will be stored centrally, with authoritative ownership, in 
a common format. This will permit information to be accessed by anyone, 
across functional domains, in real-time. Governance of the information 
structure will be elevated to the Air Force global level, with tiered 
responsibilities down to the client device. Systems and their 
infrastructures will utilize standardized components and 
configurations. Applications, systems and content will be web-enabled, 
stored in the Global Combat Support System and accessed through the Air 
Force portal from anywhere, at any time.
    Transformation in the Information Technology domain is expensive. 
Information management initiatives affect every mission and member in 
the Air National Guard. Legacy systems must be retired; Information 
Technology infrastructure must be dramatically reduced and centralized. 
New systems and their infrastructures must be implemented even as 
existing systems continue to be used.
    These initiatives will reduce strategic decision cycles to minutes 
and tactical decision cycles to milliseconds. Transformation in the 
Information Technology domain is expensive, but participation in 
NetCentric Warfare brings continued relevance to the Air National Guard 
by ensuring that our weapon systems, command and control processes and 
information are fully integrated with the Air Force. We must remain 
linked with the Air Force's transformation efforts in order to remain 
responsive to combatant commanders and continue to be a responsive, 
enabled and reliable partner in the Total Force. Continued fiscal 
support in the Information Technology arena must be sustained.
Engineering Support to the Warfighter
    The Air National Guard civil engineering structure is based on a 
joint military-state cooperative agreement for the day-to-day operation 
of installations. This lean and efficient structure allows our 
organization to support the many missions of the National Guard while 
concentrating on support to the wider Air Force engineering mission. 
The Air National Guard contributes roughly 30 percent of the total Air 
Force engineering capability and has been involved in front line 
operations in Afghanistan and Iraq. Recent gains in operations and 
maintenance funding for mobility equipment allowed engineering teams to 
outfit for their prominent role in the current War on Terrorism. 
Important gains were made in acquiring equipment resources for more 
specialized items like chemical detectors and RED HORSE equipment. This 
is one area where an increased capability will ensure mission 
effectiveness.
Intelligence, Surveillance and Reconnaissance Systems and Support: 
        Holding the High Ground
    The Air National Guard's Intelligence, Surveillance and 
Reconnaissance personnel and systems play a vital role in the defense 
of our nation. Air National Guardsmen and women are essential to Air 
Force tasking, processing, exploitation and dissemination missions to 
support Global Hawk, Predator and U-2 collection missions in every 
combat theater today. Through Eagle Vision, a deployable commercial 
imagery downlink and exploitation system, the Air Force transformation 
keeps the Air National Guard a responsive, enabled and reliable part of 
the total force responding to the combatant commanders' requirements.
    The Air National Guard provides valuable support to aircrew mission 
planning and targeting, as well as imagery support for counter-
terrorism and natural disasters.
    Other developing Air Force capabilities entrusted to the Air 
National Guard include the F-16 Theater Airborne Reconnaissance System 
and the C-130 SCATHE VIEW tactical imagery collection system. The 
Theater Airborne Reconnaissance System emerged as a major impact 
capability in the Operation Enduring Freedom and Operation Iraqi 
Freedom theaters as the need for timely imagery became vital to the 
ground battles there. The presence of the Air National Guard Theater 
Airborne Reconnaissance System prompted Air Force leadership to 
conclude that manned tactical reconnaissance is still required in 
today's joint combat operations and will remain so into the near 
future. Consequently, Air National Guard is bolstering the airborne 
reconnaissance capability to include a Synthetic Aperture Radar, a 
streaming datalink and, eventually, a multi-spectral sensor to provide 
battle managers with real-time, allweather, 24-hour ``kill-chain'' 
support.
    SENIOR SCOUT remains the primary signal collection asset to support 
the nation's war on drugs and the Global War on Terrorism within the 
southern hemisphere. The expanding, ever-changing world of 
Intelligence, Surveillance and Reconnaissance promises to continue 
challenging the Air National Guard to remain a relevant part of the 
success of this vital mission for the Total Force.
          homeland defense: here and abroad for over 368 years
Air Sovereignty Alert
    Since September 11, 2001, thousands of Air National Guard personnel 
have provided complete air sovereignty across the United States. 
Maximizing the traditional basing locations, capitalizing on high 
experience levels and leveraging a long professional history in Air 
Defense operations, the Air National Guard continues to serve as the 
backbone of this vital mission for the near future. A major improvement 
to the alert force manning posture is the current transition to a more 
``steady state'' force from the traditional mobilized force. In 
addition, the national command and control infrastructure, to include 
datalink connectivity, is undergoing a major upgrade to digitize air 
sovereignty information, allowing real-time assessments for the 
national-level decision-makers. The Joint Air Operations Center that 
enhances the protection of the Nation's Capital is one example of new 
hardware and software sets available to streamline alert operations and 
to reduce reaction and decision-making times to a fraction of the 
former capability. As we move toward the fiscal year 2006 Program 
Objective, the National Guard will continue toward a more modernized 
alert force and successfully execute this vital Homeland Defense 
mission.
Facilities Supporting Homeland Defense
    Air National Guard Civil Engineering infrastructure is available at 
87 locations across the United States. This level of unit distribution 
supports the Air National Guard missions by providing a broad base for 
recruiting and retention and enhancing the overall need for a response 
capability in the event of a terrorist attack or natural disaster. 
Civil support teams are a highly visible response capability within 
each state, but the disaster response capabilities of the Air National 
Guard civil engineering units located within each state are significant 
as well. Civil Engineering capabilities provide fully equipped fire 
departments staffed with personnel trained in hazardous material 
response, disaster preparedness specialists equipped with chemical and 
biological detection equipment and the full range of craftsmen and 
equipment operators that can be brought to bear for any situation in a 
matter of hours. Continued funding support will further strengthen this 
capability by providing an essential equipment package for emergency 
response--a capability already on hand at active duty bases but not yet 
deployed to Air National Guard locations. The post-September 11 
environment placed new requirements on the facilities program as well. 
Our efforts to implement appropriate anti-terrorism and force 
protection features are progressing, but there is much work ahead. 
Plans focus future efforts on improving base entry gates, perimeter 
security and internal circulation patterns and parking. These 
improvements will create a safer platform for execution of the Air 
National Guard's missions.
Medical Service Transformation--Dual Mission Concepts Supporting the 
        Warfight and Homeland Defense
    The Expeditionary Medical Support system provides highly mobile, 
integrated and multifunctional medical response capabilities. They are 
the lightest, leanest and most rapidly deployable medical platforms 
available to the Air National Guard today. This system is capable of 
simultaneously providing expeditionary combat support to the warfight, 
the Air and Space Expeditionary Force missions and Homeland Defense 
emergency response capabilities to the states and the Air National 
Guard Wings. ONE SYSTEM--TWO MISSIONS!
    The U.S. Central Command validated that the Expeditionary Medical 
Support System is a perfect fit for the Chief of Staff, U.S. Air Force 
Global Strike Task Force and Concept of Operations. The Expeditionary 
Medical Support System is currently utilized in Iraq to provide medical 
support to the combatant commanders and all components. The modular 
``building block'' capability of the system provides an advanced 
technology and an essential, tailored medical capability in a small, 
forward footprint expandable to meet situational needs.
    The National Guard Chemical, Biological, Radiological, Nuclear and 
High-Yield Explosives Enhanced Response Force Packages were mission-
tasked to deploy, on order, to a chemical, biological, radiological, 
nuclear or high-yield explosives incident to support both Department of 
Defense installations and civil authorities in conducting consequence 
management operations. The time of response for this capability is 
between six and 72 hours. This timeframe is the perceived gap between 
local and federal response times. This package will serve as a medical 
reach back capability for the National Guard, will ultimately ensure a 
seamless medical response between the local-state-federal agencies and 
will provide support to the Civil Support Teams.
    To date, Small Portable Expeditionary Aeromedical Rapid Response 
packages, which comprise the initial components of the Expeditionary 
Medical Support packages, are available in twelve states. Numerous 
state emergency plans cite emergency departments, operating rooms and 
medical bed expansion as serious constraints or shortfalls in 
effectively managing an incident. Expeditionary Medical Support systems 
will most definitely be able to provide medical triage and treatment 
until civilian sources are capable of absorbing patients into the 
civilian healthcare system. Future plans include at least one 
Expeditionary Medical Support system capability in each Federal 
Emergency Management Agency region and to complete the packages and 
provide training for the medical counter-chemical, biological, 
radiological, nuclear and high-yield explosives mission at each Air 
National Guard unit in each state not collocated with an active duty or 
reserve unit.
    The Air National Guard will continue to transform medical 
capabilities to support the warfight, support homeland defense and meet 
both federal and state requirements. This will be accomplished through 
the efficient, effective, and economical use of resources by developing 
dual tasked missions. ONE SYSTEM--TWO MISSIONS!

  TRANSFORMATION FOR THE 21ST CENTURY: RELEVANT NOW . . . AND IN THE 
                                 FUTURE

    Clearly a full partner across the spectrum of operations and in 
every theater, the Air National Guard will strive to maintain its 
proportionality across the major weapons systems as it transforms 
through the VANGUARD strategy. With experience levels normally higher 
than our active duty counterparts--especially in the pilot and 
maintenance communities--it is only natural that this experience be 
leveraged for future missions. The integration of the 192nd Fighter 
Wing, Virginia Air National Guard, with the active component's 1st 
Fighter Wing at Langley AFB, VA, to fly the F/A-22 Raptor; the stand-up 
of the first integrated Predator unit in which the California and 
Nevada Air National Guard are members; and the activation of a 
``Community Based'' F-16 unit with the Vermont Air National Guard are a 
few of our current initiatives. The Nebraska Air National Guard is 
continuing to use its unique capabilities to find new ways to support 
the 55 Wing at Offutt AFB, NE, Recent initiatives by the Air Force 
include a partnered Texas and Arizona Air National Guard Predator unit 
and a Distributive Ground Station with the New York Air National Guard. 
These initiatives show commitment by the current Air Force and National 
Guard Bureau leadership to transform air and space capabilities as a 
Total Force; however, Air National Guard leadership will use required 
resources to ensure the right mix of forces in future missions. It is 
also imperative that developing mission requirements be identified so 
units can more easily transfer from one mission to the next.
    The Air National Guard's 88 flying locations provide a broad 
spectrum of support to governors and the Nation as a whole. Mission 
areas such as Civil Engineering, Security Police, Medical and Civil 
Support Teams provide critical links from National Command Authority 
down to first responders in our local communities. The synergies that 
exist due to the Air National Guard Units locations on Civilian 
Airports strengthen ties to both National and state leadership that 
reinforce the homeland defense mission in ways not found on Active Duty 
installations. Efforts are underway to put appropriate anti-terrorism 
and force protection measures in place at all 88 flying locations, but 
much work and resources are required to complete the task. These and 
future improvements will create unique civilian and military 
capabilities in the homeland defense mission that cost the country very 
little, yet afford protections of vital transportation modes that are 
the economic engine of the United States.
    Continued transformation is needed in the joint battle arena to 
ensure full connectivity among the joint and coalition forces. Lessons 
learned from recent operations are flowing into the planning and 
modernization efforts across the Air Force and the Air National Guard. 
A current example of this effort to transform into a seamless joint 
force is the use of the Enhanced Radio Location Reporting System-based 
networks in ground operations. A U.S. Army developed tactical internet 
system, the network information provides positive location of all 
friendly forces, a particularly valuable piece of information in urban 
air operations.
Modernizing for the Future
    The Air National Guard modernization program is a capabilities-
based effort to keep the forces in the field fully mission capable. As 
a framework for prioritization, the modernization program is segmented 
into three periods: short-term, the current and next year's Defense 
budget; medium-term, out to fiscal year 2015; and long-term, out to 
fiscal year 2025 and beyond. In the short-term, the Air National Guard 
Modernization Program focuses on the ongoing Global War on Terrorism. 
Theaters of operation range from domestic efforts, such as fire 
fighting, to full partners overseas in Operation Iraqi Freedom and 
Operation Enduring Freedom. The modern battlefield demands that Air 
National Guard weapons systems and crews have identical or equivalent 
capabilities as joint and coalition forces. The results of the 
modernization program are graphically demonstrated in both Operation 
Iraqi Freedom and Operation Enduring Freedom. The Block 25/30/32 F-16s, 
with their laser designator LITENING II targeting pods, and the 
Enhanced Position Reporting System/Situation Awareness Data Links are 
the air weapons system of choice for the combatant commanders in both 
theaters, especially when performing very demanding close air support 
missions.
    Air National Guard weapons systems are crucial now and will 
continue to be vital as the Air National Guard transitions to new 
missions. The timeless warrior for ground forces, the A-10 requires an 
upgraded digitized cockpit, precision targeting pods, a tactical 
datalink, upgraded engines and a robust data processing capability to 
allow the accurate delivery of current and future weapons.
    During 2004, Air Guard F-16s provided crucial combat capabilities 
in Operation Noble Eagle, Operation Iraqi Freedom and Operation 
Enduring Freedom. The current modernization program includes the 
Commercial Central Interface Unit, Color Multifunctional Displays, the 
Heads-up Display Advanced Electrical Unit, the Radar Modernized 
Programmable Signal Processor, the AN/ALR-69 Radar Warning Receiver 
Antenna Optimization, Situational Awareness Data Link upgrade and the 
Electronic Attack upgrade. Fiscal year 2005 funding for the 40 Advanced 
Identify Friend or Foe upgrade kits was secured along with funding for 
six F100-PW-229 engines for Block 42 aircraft combat capability 
enhancements.
    The Theater Airborne Reconnaissance System became a key capability 
for the theater commanders after the recent deployment of the Air 
National Guard F-16s with this capability. The installation of the 
Forward Looking Infrared system, an essential capability during combat 
rescue operations, on the HC-130 is complete. The HC-130 is also being 
equipped with the Large Aircraft Infrared Counter Measure system that 
will increase survivability in face of the ever-increasing threat from 
hand-held missiles.
    The HH-60 program started installation of the new M3M .50 caliber 
door guns and replaced personal equipment for the pararescue jumpers 
with state-of-the-art weapons and technologies. The initiation of the 
Personnel Recovery Vehicle program to take the place of the HH-60 
replacement program will further slow modernization efforts.
    The Operational Support Aircraft Modernization Program leased two 
C-40s, the military version of the 737 Boeing Business Jets. These have 
become the aircraft of choice for the U.S. Congress and civilian and 
military leaders. The Air National Guard provides crucial first class 
support for the active duty Air Force by providing these aircraft to 
the airlift pool.
    Training the Air National Guard air and ground crews remains a top 
priority. This is evidenced by the Air National Guard investment in the 
Distributed Mission Operations infrastructure and facilities. The A-10, 
F-16, F-15 and E-8C Joint Surveillance and Target Attack Radar System 
have all attained various levels of service and provide valuable, 
theater-level warfare training. The continued development of the 
Distributed Training Operations Center in Des Moines, Iowa, makes it 
the hub of Distributed Mission Operations across the Air Force.
    The E-8C Joint Surveillance and Target Attack Radar System was 
deployed before the start of combat operations in support of Operation 
Iraqi Freedom, and remains in-theater as a constant presence and 
critical warfighting capability. The operators developed new techniques 
to fuse intelligence with other resources and sensors. When combined 
with a robust theater datalink network, Joint STARS becomes an 
especially formidable battlefield asset. Several key upgrades were 
highlighted by recent deployment and combat operations: re-engining to 
enhance reliability, maintainability and operational availability, in 
addition to installation of the Traffic Alert Collision Avoidance 
System to comply with Global Air Traffic Management standards.
    To retain critical tactical airlift capability, the Air National 
Guard is modernizing the C-130 fleet by installing the multi-command 
Avionics Modernization Program, acquiring the AN/APN-241 Low Power 
Color Radar, installing the Night Vision Imaging System and continuing 
the development of Scathe View. Other Air Guard programs include the 
AN/AAQ-24 (V) Directional Infrared Countermeasures System, propeller 
upgrades like the Electronic Propeller Control System and NP2000 eight-
bladed propeller and the final certification of the Airborne Fire 
Fighting System. Additionally, the Air National Guard continues to 
field new C-130J aircraft to replace the aging C-130E fleet.
    The KC-135 weapons system installed the cockpit upgrade and 
continued the R-model upgrades. Keeping the aging fleet modernized 
challenges the Air National Guard as the refueling operations evolve to 
meet the next mission.
    The Air National Guard Modernization Program is essential to 
fielding a relevant combat capability, ensuring the dominance of 
American air power for the next 15 to 20 years. An open and honest 
dialogue from the warfighter through Congress will maximize this 
investment of precious tax dollars. The modernization program is a 
process, not a goal. Recent combat successes validate that process and 
serve as a model for future transformation of the United States Air 
Force.
Facilities Supporting Transformation
    As the Air National Guard continues with transformational 
initiatives, the facilities program keeps pace. Drastically improved 
funding levels for both maintenance and repair and minor construction 
allow us to focus on both new mission infrastructures, like the 
conversion to C-5's at Martinsburg, WV, and Memphis, TN, as well as 
support improvements to existing facilities. As Air Force and Air 
National Guard transformation initiatives progress, there will be a 
continuing drain on the construction program to support these new 
missions. Although funding is currently secured to implement plans, 
continued support is vital so existing infrastructure and facilities 
are not neglected.
Recruiting, Retaining and Developing the Right People With the Right 
        Skills for Today and Tomorrow
    Air National Guard Recruiting and Retention programs play a vital 
role in supporting our Homeland Defense mission and our successful 
transformation to the future, and they are the driving factor as to how 
well we support the warfighter. The Air National Guard has been very 
successful in the past by recruiting quality members and retaining them 
by taking care of their needs. It is critical for us to access the 
right people and retain current members as we transform our force and 
transition to different missions.
    Provisions of the 2005 National Defense Authorization Act enhance 
recruiting and retention for the Reserve Components. Though provisions 
of the 2005 National Defense Authorization Act provide enhanced 
authority for bonus programs, the Air National Guard budget does not 
yet have the wherewithal to adequately fund these programs. Our ability 
to achieve recruiting and retention goals through fiscal year 2006 will 
undoubtedly be a key factor in how well we assume new missions and 
support Homeland Defense for the Nation. Continued support will 
establish a strong baseline from which to achieve future goals.
Diversity
    One aspect of the Force Development construct is ensuring 
implementation of the Air National Guard's national diversity strategy. 
This approach increases mission readiness in the organization by 
focusing on workforce diversity that assures fair and equitable 
participation for all. The Air National Guard developed a formal 
mentoring initiative that is ready for a nationwide rollout. This 
program will be a key component in the professional development of Air 
National Guard members with a keen focus on leadership. In today's 
unpredictable world, the Air National Guard builds on its diversity for 
a broader variation of career paths to include experience, education 
and training. Our nation is multi-cultured, and the Air National Guard 
strives to reflect that in our units.
Personnel Force Development
    The Air National Guard partners with the Air Force in multiple 
Total Force transformation initiatives. These initiatives are tied with 
the Office of the Secretary of Defense's new paradigm--Continuum of 
Service--and will require simplified processes and rules. Continuum of 
Service is a transformation for personnel management designed to remove 
legislative and policy barriers to the seamless transition of our 
members to and from the various military statuses in order to 
facilitate the way our members are employed in the full range of 
operational worldwide missions. A more integrated approach to military 
personnel management is imperative to face the emerging threats of the 
21st century.
                                 ______
                                 
          Prepared Statement of Major General Paul J. Sullivan

                          JOINT STAFF OVERVIEW

    In 2004, we reported on the many changes in the areas of 
Transformation, Jointness and Homeland Defense within the National 
Guard. These initiatives transformed the way we do business today and 
bring us fully in line with the Goldwater-Nichols era of jointness. We 
made significant progress in transforming into an organization that is 
doctrinally and functionally aligned like the Joint Staff of the 
Department of Defense.
    A parallel transformation to a joint headquarters continues in the 
states as well. In 2004, the Chief of the National Guard Bureau 
approved provisional operation of the Joint Force Headquarters in the 
50 states, Commonwealth of Puerto Rico, two U.S. Territories and the 
District of Columbia. A draft Joint Table of Distribution to make each 
a recognized joint activity was submitted to the Joint Staff in 
September 2004.
    We started the implementation of the Joint CONUS Communications 
Support Environment. It provides a common, secure means through which 
the Joint Force Headquarters State, U.S. Northern Command, U.S. 
Strategic Command and U.S. Pacific Command can coordinate their 
response to any domestic emergency. We continue to address emerging 
requirements with the combatant commanders as they develop. And we 
continue to work with the Adjutants General to leverage National Guard 
force capabilities through initiatives such as the regional Chemical, 
Biological, Radiological, Nuclear and High-Yield Explosive Force 
Packages and the reaction forces at the state level.
    These transformation initiatives capitalize on the unique nature of 
the National Guard--there is no other active or reserve component 
positioned and experienced to work in a joint interagency and 
intergovernmental environment through a single command authority 
(governor through the Adjutant General). In the Global War on 
Terrorism, the ability to work in a joint, combined interagency and 
intergovernmental environment is more important than ever.
    Our goal is to achieve full operating capability for our Joint 
National Guard Bureau and Joint Force Headquarters State by September 
2006. Improving the Department of Defense's access to National Guard 
capabilities is our principal focus. Our transformation will ensure 
that the Guard remains ready, reliable, essential and accessible!

                 SUPPORT THE WARFIGHT ANYTIME, ANYWHERE

State Partnership Program
    The National Guard State Partnership Program links states with a 
foreign nation partner to improve bilateral relations with the United 
States. The program's goals reflect an evolving international affairs 
mission for the National Guard. Specifically, it promotes regional 
stability and civil-military relationships in support of U.S. policy 
objectives, and at this moment it is helping to develop dependable 
collaborative partners for U.S.-led coalition operations in support of 
the Secretary of Defense's concept of global engagement.
    The program supports the combatant commanders in that cooperative 
security is achieved, and just as importantly, the National Guard 
personnel gain invaluable experience interfacing with people of diverse 
cultures. The state partners actively participate in a host of 
engagement activities ranging from bilateral familiarization and 
training events to exercises, fellowship-style internships and civic 
leader visits. The partner countries benefit from exposure to the 
concept of military support to civil authority as well as to a cost-
effective reserve component model.
    Since the last Posture Statement, the State Partnership Program has 
held more than 325 events between the partners and added six new 
partnerships--Florida-Guyana, Virginia-Tajikistan, Colorado-Jordan, 
Delaware-Trinidad & Tobago, North Dakota-Ghana and Wyoming-Tunisia. And 
because of the success of the program, the countries of the Bahamas, 
Serbia and Montenegro have also requested partnerships.
    The National Guard, with its ability to develop long-term 
relationships with people from other countries as well as develop 
contacts in both civil and military realms, is better positioned than 
the active components to enhance regional stability and promote civil-
military relationships.
    In fiscal year 2006 and beyond, we expect to take the program to 
the next level of security cooperation by working with geographic 
combatant commanders. We look for increased interaction at the action 
officer and troop level. The partner countries are eager for more 
hands-on (how to) engagement events. The National Guard will step up 
and accomplish these new objectives.
National Guard Family Programs
    Since 9/11, National Guard members have been deployed in greater 
numbers and in more locations than at any time since World War II. The 
role and support of the family has been and continues to be critical to 
mission success. The National Guard Family Program has developed an 
extensive communications and support infrastructure to assist families 
during all phases of the mobilization and deployment process. There are 
more than 400 National Guard Family Assistance Centers located 
throughout the 50 states, Commonwealth of Puerto Rico, two U.S. 
Territories and the District of Columbia. These centers provide 
information, referral and assistance for anything that families 
experience during a deployment. Most importantly, these services are 
available to any military family member from any branch or component of 
the Armed Forces. National Guard Online Community, which is comprised 
of the public website, www.guardfamily.org, as well as an internal 
Knowledge Management site and computer-based training modules to assist 
families and Family Program staff, supports the Family Assistance 
Centers.
    If family members are not prepared for deployments, a service 
member's readiness, morale and ultimately retention will be affected. 
The Family Program office provides support to program coordinators 
through information-sharing, training, volunteer management, workshops, 
newsletters, family events and youth development programs among other 
services. Since last year, the National Guard Family Program has 
initiated its Guard Family Team Building Program, which trains and 
educates families on National Guard missions and expectations, 
readiness responsibilities and systems to support more self-reliant, 
independent and self-sufficient lifestyles for all Guard families.
Employer Support of the Guard and Reserve
    The National Defense Strategy requires that the National Guard and 
Reserve be full partners in the Total Force. Our National Guard and 
Reserve members will spend more time away from the workplace defending 
the nation and training to maintain mission readiness. Employers are 
inextricably linked to a strong national defense.
    A nationwide network of local Employer Support volunteers is 
organized in Employer Support of the Guard and Reserve (ESGR) 
Committees within each state, the District of Columbia, Guam, Puerto 
Rico and the Virgin Islands. In this way, Employer Support programs are 
available to all employers, large and small, in cities and towns 
throughout our country. Today, nearly 4,500 volunteers serve on local 
ESGR Committees. With resources and support provided by the National 
ESGR Committee and the National Guard Bureau, the 54 ESGR state 
committees conduct Employer Support and Outreach programs, including 
information opportunities for employers, ombudsman services and 
recognition of employers whose human resource policies support and 
encourage participation in the National Guard and Reserve. In 
recognition of the importance of Employer Support to the retention of 
quality men and women in the National Guard and Reserve and the 
critical contributions of the ESGR state committees, the National Guard 
Bureau provides full-time assistance and liaison support to the Joint 
Forces Headquarters and the 54 ESGR state committees.
    The success of the nation's defense depends on the availability of 
the highly trained members of the Total Force. The basic mission of 
Employer Support of the Guard and Reserve is to gain and maintain 
support from all public and private employers for the men and women of 
the National Guard and Reserve, as defined by a demonstrated employer 
commitment to employee military service. The National Guard Bureau is 
committed to the additional mission of Employment Support. In today's 
environment, there is a strong need to provide employment opportunities 
for our redeploying service members with an emphasis on our disabled 
veterans. One of the most important tasks our country faces is ensuring 
that our men and women in uniform are fully reintegrated into the 
civilian workforce when they return from service to our country.
Youth ChalleNGe Program
    The award-winning National Guard Youth ChalleNGe Program is a 
community-based program that leads, trains and mentors at-risk youth at 
29 program sites throughout the country to become productive citizens 
in America's future. As the second largest mentoring program in the 
nation, the ChalleNGe program is coeducational and consists of a five-
month ``quasi-military'' residential phase and a one-year post-
residential mentoring phase. A Cadet must be a volunteer, between 16 
and 18 years of age, drug free, not in trouble with the law, unemployed 
or a high school dropout.
    Serving as a national model since 1993, the 24 states and the 
Commonwealth of Puerto Rico that offer the program graduated over 
55,800 young men and women. Participants graduate from the program 
equipped with the values, skills, education and self-discipline 
necessary to succeed as adults in society. Significantly, although many 
ChalleNGe candidates are from at-risk populations, over 70 percent of 
ChalleNGe graduates have attained either a General Equivalency Diploma 
or a high school diploma. Furthermore, approximately 20 percent of all 
graduates choose to enter military service upon graduation.
The National Guard Counterdrug Program
    In 1989, the U.S. Congress authorized the National Guard to perform 
drug interdiction and counterdrug activities under Section 112, USC 
Title 32. For more than 15 years, this program has built great 
credibility with over 5,000 law enforcement agencies through consistent 
and reliable support of counterdrug operations. That support has 
complemented America's homeland security through a visible deterrent to 
potential threats. The primary mission of the counterdrug program is to 
support law enforcement operations aimed at the importation, production 
and distribution of illegal drugs and, secondly, to support community-
based drug demand reduction programs, which touched nearly 2.5 million 
people in 2004.
    In fiscal year 2004 (October 1, 2003-September 30, 2004) the 
National Guard supported efforts that led to 61,029 arrests and 
assisted law enforcement in seizing the following:

------------------------------------------------------------------------

------------------------------------------------------------------------
Cocaine..................................  102,382 pounds
Crack Cocaine............................  7,162 pounds
Marijuana eradicated.....................  1,878,108 plants
Marijuana (processed)....................  842,509 pounds
Methamphetamines.........................  10,759 pounds
Heroin...................................  1,389 pounds
Ecstasy..................................  411,520 pills
Other/Designer Drugs.....................  14,870,793 pills
Weapons..................................  8,359
Vehicles.................................  15,102
Currency.................................  $216,000,270
------------------------------------------------------------------------

    There are six general counterdrug mission categories: program 
management; technical support; general support; counterdrug related 
training; reconnaissance and observation; and drug demand reduction 
support. In 2004, approximately 2,372 National Guard personnel in a 
Title 32 status provided counterdrug support, in addition to preparing 
for their wartime mission through required training.
    Due to the tremendous effectiveness of National Guard training 
programs and the growing need for specialized training, the National 
Guard also operates five congressionally authorized counterdrug 
training academies to provide training to both law enforcement and 
community-based officials. These no-cost school programs are open to 
both civilian and military personnel and offer courses in both supply 
interdiction and demand reduction training.
    The National Guard Counterdrug Program is an integral part of the 
synchronized cooperation between and among the Department of Defense 
and federal, state and local agencies across the full spectrum of 
homeland defense operations. With the annual authorization and 
appropriation by the Congress and the support of the Secretary of 
Defense, the governors' annual counterdrug state plans will become the 
framework for domestic operations. Through these operations, National 
Guard personnel assist nearly 5,000 law enforcement agencies at home 
each year. As we continue our support and engagement with the Global 
War on Terrorism, the National Guard Counterdrug Program provides 
critical complementary support to the combatant commanders in Northern 
and Southern Commands. By leveraging our unique military capabilities, 
national resources and community focus, we can play a central role in 
shaping our nation's response to drugs and associated transnational 
security threats.

          HOMELAND DEFENSE: HERE AND ABROAD FOR OVER 368 YEARS

National Guard Reaction Force
    The National Guard has over 368 years of experience responding to 
both the federal government's warfighting requirements and the needs of 
the states to protect critical infrastructure and ensure the safety of 
our local communities. To improve the capability of the states to 
respond to threats against the critical infrastructure within their 
borders, the Chief of the National Guard Bureau asked the Adjutants 
General to identify and develop a Quick Reaction Force-type capability. 
The goal is to provide a trained and ready National Guard force to the 
governor of each state or territory capable of responding in support of 
local, state and, when required, Department of Defense requests. The 
National Guard Bureau works with the states and territories to identify 
current response capabilities, as well as with U.S. Northern and U.S. 
Pacific commands to ensure that National Guard capabilities are 
understood and incorporated into their response plans. We have also 
begun to identify additional requirements for force protection and 
interoperability with civilian emergency responders. The National Guard 
Reaction Force is not a new capability or concept. What is new is the 
concept of standardized training and mission capabilities shared by the 
50 states, Commonwealth of Puerto Rico, two U.S. Territories and the 
District of Columbia, thereby enhancing those capabilities.
Full Spectrum Integrated Vulnerability Assessment
    The Full Spectrum Integrated Vulnerability Assessment program is 
another National Guard Homeland Defense initiative. Teams of National 
Guard Soldiers or Airmen are trained to conduct vulnerability 
assessments of critical infrastructure in order to prepare and plan 
emergency mission response in the case of a terrorist attack or natural 
disaster. This program is designed to execute the necessary pre-
planning to educate civilian agencies on basic force protection and 
emergency response; develop relationships between emergency responders, 
owners of critical infrastructure and National Guard planners in the 
states; and deploy traditional National Guard forces in a timely 
fashion to protect that critical infrastructure. In developing this 
concept, the National Guard Bureau worked with the Office of the 
Assistant Secretary of Defense for Homeland Defense to establish 
policies and standards. During 2004, the Guard Bureau trained six teams 
to conduct vulnerability assessments. With this new initiative, the 
National Guard continues its time-honored tradition of preparedness to 
respond at a moment's notice in defense of America.
Weapons of Mass Destruction Civil Support Teams
    The National Guard continued to strengthen its ability to respond 
to chemical, biological, radiological, nuclear and high-yield explosive 
events by adding twelve new Weapons of Mass Destruction Civil Support 
Teams during 2004. Since the September 11, 2001, attacks, the existing 
32 certified Civil Support Teams have been fully engaged in planning, 
training and operations in support of local and state emergency 
responders. These full-time teams were designed to provide specialized 
expertise and technical assistance to the incident commander by 
identifying chemical, biological, radiological or nuclear substances; 
assessing the situation; advising the incident commander on potential 
courses of action; and assisting the response team with innovative 
technology and expertise.
    Operationally, these teams are under the command and control of the 
governors through the respective Adjutant General in a USC Title 32 
status. The National Guard Bureau provides logistical support, 
standardized operational procedures and operational coordination to 
facilitate the employment of the teams and to ensure supporting 
capability for states currently without a full-time Civil Support Team.
    During fiscal year 2004, the National Guard Civil Support Teams 
were actively involved in assisting emergency responders throughout the 
country. This included 52 requests from civil authorities.
    In accordance with Congressional mandate and Department of Defense 
direction, the National Guard will add 11 new teams in fiscal year 2005 
so that each of the 50 states, Commonwealth of Puerto Rico, two U.S. 
Territories and the District of Columbia will have at least one full-
time team.
Chemical, Biological, Radiological, Nuclear, and High-Yield Explosive 
        Enhanced Response Force Package
    The National Guard developed an initiative to equip and train 
existing traditional National Guard units in 12 states to provide a 
regional response in the event of a domestic Chemical, Biological, 
Radiological, Nuclear, and High-Yield Explosive attack. This Enhanced 
Response Force Package capability consists of traditional National 
Guard Soldiers and Airmen who are rapidly recalled and deployed in 
teams to assist emergency responders. These units can secure an 
incident site, search for and extract casualties, and conduct mass 
casualty decontamination. The Enhanced Response Force Package is 
designed to be a follow-on force that complements the detection and 
advisory functions of the Civil Support Teams.
    The National Guard Bureau identified 12 states to test this 
initiative and provided them with specialized equipment necessary to 
conduct mass casualty decontamination, medical triage, and casualty 
search and extraction. Individual and collective training on 
decontamination and medical triage tasks were successfully conducted 
during fiscal year 2004, with search and extraction training scheduled 
for fiscal year 2005.
    These traditional National Guard units are now organized, trained 
and equipped to perform this critical mission and are able to provide a 
regional response in support of both Defense Department installations 
and the civilian community should a Chemical, Biological, Radiological, 
Nuclear, or High-Yield Explosive attack occur.
National Security Special Events
    During fiscal year 2004, three National Security Special Events 
required National Guard leadership and forces to provide support to the 
Department of Homeland Security. These events were the G-8 Summit 
Conference in Sea Island, GA, the Democratic National Convention in 
Boston, MA, and the Republican National Convention in New York City. 
For each of these events, the National Guard provided support to local, 
state and federal agencies for security and protection to the 
participants and local citizenry.
    For the first time ever, these events formalized the use of a 
National Guard Officer, in a dual United States Code Title 10 and Title 
32 status as a Joint Task Force Commander. For these events, the Title 
10 and Title 32 forces were under a command and control configuration 
that promoted a single point of accountability for operations to the 
combatant command, U.S. Northern Command. It also ratified a concept of 
operations that provided unity of effort for both Homeland Security and 
Homeland Defense activities. These events and the concept of the 
operations involving the incorporation of the Title 32 forces 
established a baseline precedent that will serve this nation in the 
security and defense of its homeland.
Intelligence for Homeland Security
    During fiscal year 2004 and continuing into 2005, the National 
Guard Bureau's Joint Intelligence Directorate instituted a number of 
well-designed initiatives. An unclassified information system called 
Homeland Security Information System was installed and is operational 
in all 54 Joint Force Headquarters. An additional unclassified system, 
the Open Source Information System, is also operational at most of 
these headquarters, with training on the system either underway or 
completed at most sites. The directorate has provided daily 
intelligence briefings to these headquarters while developing 
intelligence architecture and standardized intelligence tools that 
result in a common operating picture, situational awareness and maximum 
efficiency for information-sharing. Working with the Joint Force 
Headquarters, the Intelligence Directorate has drafted a Joint 
Intelligence Table of Distribution and Position Description, which is 
under review for approval at the Department of Defense.
    The directorate continues to evolve within the National Guard 
Bureau. We have produced the Joint Intelligence mission statement and a 
mission essential task list. A classified information system is being 
installed at the Joint Operations Center to provide information-sharing 
at the classified level. The directorate continues to establish 
partnerships with national-level intelligence agencies for information-
sharing and to leverage training opportunities. In addition, 
intelligence support to National Security Special Events and to 
Homeland Security joint exercises is a top-priority of Joint 
Intelligence. National Guard Bureau leaders receive regular 
intelligence briefings on such events, as well as briefings on world 
and local events.

                  TRANSFORMATION FOR THE 21ST CENTURY

Transformation to a Joint National Guard Bureau
    The central elements of our historic dual mission are to provide 
policy, coordination and resources that permit the augmentation of the 
Army and Air Force with federalized National Guard forces in time of 
war or national emergency and to support the governor and combatant 
commanders with non-federalized forces to meet homeland defense needs.
    The National Guard Bureau crafts the strategies that will result in 
the implementation of the Secretary of Defense's guidance to improve 
National Guard relevancy and support to the War on Terrorism, Homeland 
Defense and Homeland Security. The National Guard Bureau has presented 
the concept and implementation plan to achieve formal recognition as a 
joint activity of the Department of Defense to the services, which 
would formally establish the National Guard Bureau as the Joint 
National Guard Bureau.
Joint Force Headquarters-State
    In fiscal year 2004, the Chief of the National Guard Bureau 
approved provisional operation of the Joint Force Headquarters in each 
of the 50 states, Commonwealth of Puerto Rico, two U.S. Territories and 
the District of Columbia. These headquarters serve as joint activities 
and exercise command and control over all assigned, attached or 
operationally aligned forces. They provide situational awareness of 
developing or ongoing emergencies and activities to federal and state 
authority and, as ordered, provide trained and equipped forces and 
capabilities to the military services and combatant commanders for 
federal missions. They support civil authority with capabilities and 
forces for homeland security and domestic emergencies.
    The National Guard Bureau is working to obtain approval of Joint 
Force Headquarters-State as a recognized joint activity, and submitted 
a draft Joint Table of Distribution to the Joint Staff in September 
2004.
National Guard Enterprise Information Technology Initiatives
    The National Guard continues to aggressively promote and support 
the use of its Enterprise Information Technology for our warfighters in 
the execution of their missions at all levels, including Homeland 
Security and Homeland Defense. The National Guard Bureau is 
implementing new initiatives as part of the National Guard Enterprise 
to support the Guard's expanding role for Homeland Defense, as well as 
for mobilization and deployment. The initiative will utilize National 
Guard telecommunications resources, specifically distributed learning 
classrooms and video teleconferencing assets to link Civil Support 
Teams in thirteen states. In March 2004, the National Guard resources 
assisted the Department of Homeland Security with the ongoing 
development of Buffer Zone Protection Plans. These are a vital 
component to the overall protection of the country's key assets and 
critical infrastructure. Use of this technology saved thousands of 
dollars in travel costs; promoted sharing and collaboration among 
senior homeland security coordinators and advisors in the 50 states, 
Commonwealth of Puerto Rico, two U.S. Territories and the District of 
Columbia; and helped standardize information and guidance for the 
field.
    Another initiative is the development of the Virtual Mission 
Preparation capability. This is a prototype that provides a web-based, 
portal technology with the capability to display real-time unit status, 
as well as overall mobilization readiness status down to the individual 
Soldier level. It was developed in Pennsylvania to support the 28th 
Division's rotation to Bosnia. It is now being applied to Operation 
Iraqi Freedom and to stand up the 56th Stryker Brigade of the 
Pennsylvania Army National Guard. The system provides functionality 
that has application across the Army National Guard to improve 
deployability and capability to meet Department of Defense and 
emergency response missions.
Homeland Security Joint Interagency Training Centers
    In April 2004, the Chief of the National Guard Bureau commissioned 
a study on the feasibility of creating a Homeland Security Center of 
Excellence with sites in the eastern and western United States. These 
centers would function as Joint Interagency Training Centers (JITC), 
which would provide the needed education and training to National Guard 
personnel and our intra- and interagency partners in Homeland Security 
and Homeland Defense.
    The study recommended that:
  --Camp Dawson, WV, be known as JITC-East, with the primary focus on 
        Chemical, Biological, Radiological and High-Yield Explosives 
        and Continuity of Operations
  --The National Interagency Civil Military Institute relocate from 
        Camp San Luis Obispo to the Naval Air Station at San Diego, 
        enabling the establishment of JITC-West with the mission focus 
        on maritime/port security and cross border security.
    The mission of the centers is to provide a joint training 
environment that focuses on the detection, prevention and deterrence of 
the terrorist cycle over the near-term and supports the transformation 
of the Armed Forces for the long-term to win the Global War on 
Terrorism. The centers will be dual-use, military and civil support; 
provide a range of training consistent with the June 2003 Department of 
Defense Training Transformation Implementation Plan; and educate, train 
and exercise Department of Defense and Intergovernmental, Interagency 
and Multi-national partners/organizations in conjunction with ongoing 
Homeland Defense operations in accordance with guidance from the 
National Guard Bureau.
Joint CONUS Communications Support Environment
    Under USC Title 10, one of the National Guard Bureau's purposes is 
to be the channel of communications between the National Guard of the 
several states and the Departments of the Army and Air Force. That role 
includes providing an interface for communications between federal and 
state agencies concerning incidents involving homeland security. U.S. 
Northern Command, U.S. Pacific Command, U.S. Strategic Command and 
other federal agencies require ``continuous situational awareness'' of 
incidents occurring in the states related to homeland security and the 
associated activities of the National Guard while acting under state or 
federal control. A command and control requirement exists when both the 
president and governor agree to designate a National Guard commander 
under the provisions of USC title 32, Section 325 for National Security 
Special Events. This was the case during 2004 for the G8 Summit and 
both national political conventions.
    In 2004, the National Guard Bureau initiated implementation of the 
Joint Continental United States Communications Support Environment. 
This state-federal network connectivity concept involves national-level 
management and integration by long haul, tactical and other service 
communication capabilities. This system will provide U.S. Northern 
Command, U.S. Pacific Command, U.S. Strategic command and the Joint 
Force Headquarters-State with connectivity to and through state 
networks to an incident site. The system environment includes 
information technology support to the National Guard Bureau Joint 
Operations Center, a Joint Force Headquarters-State communications 
element, network-centric connectivity state-to-state, vertical 
connectivity to incident sites (to include mobile wireless capability) 
and both radio and satellite systems to provide a National Guard 
Homeland Security Communications Capability. This approach was used in 
real world situations during the political conventions and the 
hurricanes in Florida with outstanding results.
Transforming the Mobilization and Demobilization Process
    The Logistics Directorate of the National Guard Bureau is charged 
with the responsibility for monitoring the mobilization process of 
National Guard units. Transformation of these processes is essential to 
maintain a strong, reliable National Guard and to support the combatant 
commanders during wartime.
    Mobilization of the National Guard is continuing at historic 
proportions. Not since World War II have the numbers of reservists who 
have been called to active duty been as high as they are today. 
Currently, more than 40 percent of the Soldiers, Sailors, Airmen and 
Marines participating in Operation Enduring Freedom and Operation Iraqi 
Freedom are Reservists. The Guard alone has mobilized over 100,000 
Soldiers and Airmen since the attack on the United States on September 
11, 2001.
    Transformation and reform of the mobilization and demobilization 
process go hand-in-hand for the National Guard. In 2003, the United 
States Joint Forces Command was tasked to transform the mobilization 
and demobilization processes. The National Guard Logistics Directorate 
worked with the command and the other services and components to report 
recommendations to the Chairman of the Joint Chiefs of Staff in the 
fall of 2004. Many of those recommendations have been instituted by the 
services, either as a result of that report or as self-initiated better 
business practices.
    Greater time efficiency is achieved by improving the mobilization 
process. Several of the recommendations focused on the readiness of 
Reserve units prior to their mobilization date. Implementing those 
recommendations resulted in a reduction in the length of time a unit or 
Guardsman spends at a mobilization station.
    The mobilization and deployment processes at the onset of the 
Global War on Terrorism were designed for the Cold War era. Today, 
there is a more immediate and urgent demand for the National Guard. We 
must transform the process to be more efficient and effective in 
putting more ``boots on the ground'' . . . Protecting America at Home 
and Abroad!

                        STATE ADJUTANTS GENERAL

    Major General (Ret) Crayton M. Bowen, The Adjutant General, 
Alabama.
    Major General (AK) Craig E. Campbell, The Adjutant General, Alaska.
    Major General David P. Rataczak, The Adjutant General, Arizona.
    Major General Don C. Morrow, The Adjutant General, Arkansas.
    Major General Thomas W. Eres, The Adjutant General, California.
    Major General Mason C. Whitney, The Adjutant General, Colorado.
    Major General William A. Cugno, The Adjutant General, Connecticut.
    Major General Francis D. Vavala, The Adjutant General, Delaware.
    Major General (DC) David F. Wherley, Jr., The Adjutant General, DC.
    Major General Douglas Burnett, The Adjutant General, Florida.
    Major General David B. Poythress, The Adjutant General, Georgia.
    Colonel Jerry M. Rivera, The Adjutant General, Guam.
    Major General Robert G. F. Lee, The Adjutant General, Hawaii.
    Major General (ID) Lawrence F. Lafrenz, The Adjutant General, 
Idaho.
    Brigadier General (IL) Randal E. Thomas, The Adjutant General, 
Illinois.
    Major General R. Martin Umbarger, The Adjutant General, Indiana.
    Major General G. Ron Dardis, The Adjutant General, Iowa.
    Major General (KS) Tod M. Bunting, The Adjutant General, Kansas.
    Major General (KY) Donald C. Storm, The Adjutant General, Kentucky.
    Major General Bennett C. Landreneau, The Adjutant General, 
Louisiana.
    Brigadier General (ME) John W. Libby, The Adjutant General, Maine.
    Major General Bruce F. Tuxill, The Adjutant General, Maryland.
    Major General (Ret) George W. Keefe, The Adjutant General, 
Massachusetts.
    Major General Thomas G. Cutler, The Adjutant General, Michigan.
    Major General Larry W. Shellito, The Adjutant General, Minnesota.
    Major General Harold A. Cross, The Adjutant General, Mississippi.
    Brigadier General (MO) King E. Sidwell, The Adjutant General, 
Missouri.
    Major General (MT) Randall D. Mosley, The Adjutant General, 
Montana.
    Major General Roger P. Lempke, The Adjutant General, Nebraska.
    Major General Giles E. Vanderhoof, The Adjutant General, Nevada.
    Brigadier General Kenneth R. Clark, The Adjutant General, New 
Hampshire.
    Major General (NJ) Glenn K. Rieth, The Adjutant General, New 
Jersey.
    Brigadier General (NM) Kenny C. Montoya, The Adjutant General, New 
Mexico.
    Major General Thomas P. Maguire, Jr., The Adjutant General, New 
York.
    Major General William E. Ingram, Jr., The Adjutant General, North 
Carolina.
    Major General Michael J. Haugen, The Adjutant General, North 
Dakota.
    Major General (OH) Gregory L. Wayt, The Adjutant General, Ohio.
    Major General (OK) Harry M. Wyatt, The Adjutant General, Oklahoma.
    Brigadier General Raymond C. Byrne, Jr., The Acting Adjutant 
General, Oregon.
    Major General (PA) Jessica L. Wright, The Adjutant General, 
Pennsylvania.
    Brigadier General (PR) Francisco A. Marquez, The Adjutant General, 
Puerto Rico.
    Major General Reginald A. Centracchio, The Adjutant General, Rhode 
Island.
    Major General (Ret) Stanhope S. Spears, The Adjutant General, South 
Carolina.
    Major General Michael A. Gorman, The Adjutant General, South 
Dakota.
    Major General Gus L. Hargett, Jr., The Adjutant General, Tennessee.
    Major General Wayne D. Marty, The Adjutant General, Texas.
    Major General Brian L. Tarbet, The Adjutant General, Utah.
    Major General Martha T. Rainville, The Adjutant General, Vermont.
    Major General Claude A. Williams, The Adjutant General, Virginia.
    Brigadier General (VI) Eddy L. Charles, The Adjutant General, 
Virgin Islands.
    Major General Timothy J. Lowenberg, The Adjutant General, 
Washington.
    Major General Allen E. Tackett, The Adjutant General, West 
Virginia.
    Major General Albert H. Wilkening, The Adjutant General, Wisconsin.
    Major General (WY) Edward L. Wright, The Adjutant General, Wyoming.

    Senator Stevens. General Schultz.

STATEMENT OF LIEUTENANT GENERAL ROGER C. SCHULTZ, 
            DIRECTOR, ARMY NATIONAL GUARD, UNITED 
            STATES ARMY
    General Schultz. Thank you, Mr. Chairman. Mr. Chairman, 
thanks for recognizing the soldiers here with us today and 
Michelle Nelson, our family volunteer. This team and those they 
represent have answered every call, been up to every task. To 
this subcommittee and your colleagues, you have made what we do 
possible and we say thanks.
    Mr. Chairman, for us in the Army National Guard, we have 
$618 million being considered in the supplemental and I am here 
to tell you we need that money in both the operations and the 
personnel accounts. Without favorable consideration, we will 
not be able to make it through the May timeframe within our 
current budgets. Mr. Chairman, that same condition would not be 
found inside the active component budgets today, and anything 
that you can do to help encourage the process through the 
supplemental reviews would be most important for the Army.
    Mr. Chairman, I stand by for your questions.
    Senator Stevens. General James.

STATEMENT OF LIEUTENANT GENERAL DANIEL JAMES, III, 
            DIRECTOR, AIR NATIONAL GUARD, UNITED STATES 
            AIR FORCE
    General James. Thank you, Mr. Chairman and members of the 
subcommittee. It is always a pleasure to come here and speak 
before this subcommittee because of the support that you have 
provided to our National Guard and Reserve components. Without 
your support and help, we would not have the readiness levels 
and the quality of life that we enjoy today as the 21st century 
Minutemen and women.
    Also, thank you for your recognition of these fine soldiers 
and family members that are here today. They all serve in their 
own capacity and we could not do our job without them.

                         AIR SOVEREIGNTY ALERT

    As we sit here today, I reflect on the members of this 
subcommittee and every face that I see has a member, on this 
subcommittee, has an organization that is now engaged in the 
war on terrorism, whether it be on air sovereignty alert, where 
the Happy Hooligans and the Green Mountain Boys and the Tacos 
from New Mexico are sitting alert today and the Warriors from 
the F-15 squadron in Hawaii are also sitting alert.
    We truly guard America's skies and we are very proud and 
capable of doing that. We want to continue to do that because 
we bring great value to our Nation.

                   AIR NATIONAL GUARD FLYING MISSIONS

    The C-130J is being introduced for the 175th there in 
Maryland. The C-17, the premier airlifter in Air Mobility 
Command and U.S. Transportation Command, from the 172nd in 
Jackson, Mississippi, is engaged in their conversion and will 
soon be mission ready, but they are already still flying 
missions in theater as part of their training. Of course, we 
will have involvement in the C-17 in Hawaii in a unique 
arrangement with the active component as well, and possibly in 
the future in Alaska. So this diverse missioning that is 
represented by the members that are here today does not go 
unnoticed.
    The men and women of the Air National Guard have had 
another very exceptional year. We have been engaged both in 
theater and around the world in different exercises, but most 
importantly in the war, in the global war on terrorism. We 
believe, as the Chief mentioned, that our primary mission is in 
homeland defense, but one of the things that allows us to do 
that mission is that we are trained for a Federal mission. 
Homeland defense in depth is our primary mission and we also 
want to make sure that we have the capabilities that our 
Governors need when called upon, whether it be for a natural 
disaster or a man-made emergency.
    We will continue to perform both the homeland defense 
mission and the expeditionary missions as our organization 
transforms to meet our future requirements.
    I thank you again for your support and I look forward to 
entertaining your questions.
    Senator Stevens. Thank you very much.
    We will have a 5-minute rule now and we will recognize 
members in the order in which they came to the subcommittee's 
table, with the exception of the chairman. Mr. Chairman.
    Senator Cochran. Mr. Chairman, thank you very much.
    I am happy to hear the report about the combat brigade. We 
are really proud in Mississippi that the 155th Combat Brigade 
is on duty and discharging their responsibilities in a 
professional way, with a lot of courage and skill. We 
appreciate their service. I remember that we had that similar 
brigade mobilized 10 years ago in Desert Shield/Desert Storm. 
They did not quite make it to the theater that time. They ended 
up in the training center when the war was over. But they went 
through training in Fort Hood and were ready to go if needed as 
a round-out brigade of the First Cavalry at that time. So we 
are very proud of our soldiers and all of them have acquitted 
themselves honorably, I am advised.
    General James, you mentioned the aircraft, the C-17 in 
Jackson, Mississippi. We were very proud to be selected as a 
port, as a facility, as an airfield for those planes. Do you 
see this continuing to be part of a plan of the Air National 
Guard forces? You mentioned Hawaii. Are there plans to also 
deploy those C-17's elsewhere in the country at National Guard 
facilities?

       BASE REALIGNMENT AND CLOSURE (BRAC) AND FUTURE TOTAL FORCE

    General James. We cannot say exactly where they will be 
deployed. With the impact of BRAC and future total force, we 
will make an adjustment where we can. Right now, with the buy 
as set at 180, we do not have any other aircraft that are being 
designated to go to National Guard units in the country.
    That is why we have used the different type of structures. 
We have an associate type unit in Hawaii, where we have active 
duties and National Guard members flying the aircraft in 
Hawaii, as opposed to what we call a unit-equipped unit in 
Jackson. I look forward to a day when we will have community 
basing and where we will have active duty members coming to 
Jackson, living in the community, and flying there. That would 
impact the connection to the community in the very positive way 
that General Blum mentioned earlier.
    Also, I believe--and my colleague Lieutenant General John 
Bradley will probably talk about this--there is an associate 
Active and Reserve associate C-17 unit that will be operating 
in Alaska. But if the buy goes past 150, then we will have 
additional assets to look at stationing in other places in the 
United States, continental United States or overseas.
    Senator Cochran. General Blum, you mentioned the incentives 
that you are suggesting that we consider providing funding to 
support for reenlistments and streamlining the process from 
active duty to Reserve units or National Guard units. Do you 
have any cost estimates of what the impact will be on the 
budget, if any, for these initiatives that you are suggesting?
    General Blum. Yes, Senator. What we have done is we have 
consulted with all of the 54 adjutants general (TAGs) that are 
responsible to recruit and retain citizen soldiers and airmen 
in their States and territories. We have distilled this down 
into the top 10 initiatives that we think that we will require 
some additional authorities or policies adjustment to be able 
to do that.
    Then what we did is our best estimate of what those 
policies or authorities might mean in terms of dollars amount 
or in terms of authorizations that would have to be associated 
with them. We have provided that to this subcommittee. I am 
comfortable with 8 out of 10 of these. Two of them are shown 
as--essentially, you could read this as cost-neutral, but I do 
not think they really are. I would, rather than put ``not 
available'' (NA) on this chart, I would rather put ``unknown.'' 
There is some associated cost to it, but I am not prepared to 
tell you what that is today. I would have to take that for the 
record and do a little bit of homework for those two.
    But the rest--but the authorities are exactly what the 
adjutants general have advised the three of us as the tools 
they will need to be able to achieve end strength in 
Mississippi and Hawaii and Maryland and every other State and 
territory in the country.
    Senator Cochran. General Schultz, there was some question 
10 years ago. I mentioned the experience of the 155th being 
mobilized. There was concern about the physical conditioning of 
the troops and whether or not they were ready for combat 
situations. I am told that that is not a problem now, that this 
is a situation with recent experience that the physical 
condition and the physical readiness of the troops were such 
that no delay was needed, and that is one reason we were able 
to see troops transferred directly to the theater where they 
were needed to take part in active combat operations.
    Is that a correct assumption that I am making?
    General Schultz. Mr. Chairman, that is a correct 
assumption. Average age of the Army National Guard soldiers on 
active duty today is 31 years, so perhaps slightly older than 
an Active component peer. But we track statistics all the time 
in terms of medical condition, reasons soldiers leave the 
theater, and the issue of fitness is not a question.
    Senator Cochran. Thank you, Mr. Chairman.
    Senator Stevens. Thank you.
    Senator Inouye.
    Senator Inouye. Thank you very much, Mr. Chairman.
    General Blum, the State of Hawaii as a territory and as a 
State has always stood high in sending their sons and daughters 
to serve when called upon. I notice from your chart here that 
the State of Hawaii has 51 percent of the Guard committed and 
mobilized, to a low of 5 percent for some other States. What is 
the policy that brings about this divergence of percentages?
    General Blum. That is an excellent question, Senator 
Inouye. The contribution Hawaii made in this particular case 
was a decision made by the adjutant general and the Governor in 
consultation with the National Guard Bureau and the Department 
of the Army as to how much of the 29th Brigade Combat Team we 
wanted to take out of Hawaii and how much was going to actually 
remain in State. There was some flexibility offered to the 
State. Governor Lingall and General Lee felt that we could take 
the entire brigade, as we did. In fact, they almost insisted on 
it, and they felt comfortable that we had leveraged enough Air 
National Guard and Army National Guard units remaining in 
Hawaii to provide them 49, just about 50 percent, about one-
half of the capabilities, which is what we promised the 
Governor we would do.
    In addition, because of Hawaii's unique location and who 
lives there in terms of Department of Defense equities that are 
there, they have a fairly robust Navy and Air Force and Coast 
Guard contribution that is also, because the joint force 
headquarters exists in Hawaii, they are able to leverage those 
capabilities as well. So Governor Lingall is quite comfortable 
that if anything were to happen in Hawaii she has the Civil 
Support Team, she has one of these CERFP packages, this 
enhanced response, weapons of mass destruction (WMD) force 
packages. One of those is existing in Hawaii today. It is there 
now. She has and General Lee has over just one-half of their 
joint capabilities between the Army and the Air National Guard.
    You notice that Hawaii is the lowest, the lowest percentage 
of capability that we left in the States. All of the other 
States--red is good on this chart, by the way, for those of you 
that are not used to looking at a chart with red on it and 
seeing it as good. The larger the piece of the pie that is red, 
the better it is for the Governor. That means the more 
capabilities that are still home and available to them.
    You can see that all of those pie charts, almost three-
quarters of the pie is still there, even though we have such a 
large number of troops deployed. That is done in conjunction 
and collaboration with General Schultz with the Army Guard, 
General James of the Air Guard. And frankly, the United States 
Army, General Schoomaker and United States Air Force, General 
Jumper, have worked very closely with us to make sure we had 
the flexibility to not pull too much capability out of any 
State and leave any State or Governor uncovered such if a 
natural disaster or terrorist attack should occur in their 
State.
    Sir, does that address your concern?
    Senator Inouye. In other words, General, are you telling me 
that if the Governor had resisted or requested a smaller force 
to be mobilized Hawaii would have had a smaller force?
    General Blum. Yes, sir, they would have. We would have left 
another battalion in Hawaii and we would have taken another 
battalion from another State that has a much larger piece of 
the pie, so to speak, left in State. I think that is the right 
way to defend America, frankly, and I think also modularity, 
the Army modular force, will even give us greater flexibility 
in the future as we move to that, because we will be able to 
plug and play pieces and elements, where in the past we would 
have to pull a big unit out of one State and leave that State 
with no capability to respond here at home.
    Senator Inouye. So in a State that has 5 percent mobilized, 
I would assume that the Governor did not want the troops to be 
sent out?
    General Blum. No, that is not the case, sir. I do not want 
to mislead anybody. A State that only has 5 percent mobilized 
right now on a chart 6 months or 1 year ago may have had 40 or 
30 or 20 percent of that State gone. It just means that we have 
probably used those soldiers already and now it is someone 
else's opportunity to serve.
    Senator Inouye. General Schultz--thank you very much, 
General Blum.
    General Blum. Thank you, sir.
    Senator Inouye [continuing]. I note that the Guard is 
having problems with recruiting and retention. Can you tell us 
about it?
    General Schultz. Yes. Senator, we have today reached 97 
percent of our end strength objectives for the year. Now, as a 
data point that sounds okay, but what we are really in need of 
today is recruiting performance, more enlistments. Today both 
in the prior service and the non-prior service marks we are off 
our objectives by some measure.
    General Blum has already outlined March was a 5,200 plus 
enlistment month. We expect April to be another 5,000 plus 
enlistment month.
    Mr. Chairman, as we talk about recruiting I would just 
outline that incentives make a difference. For example, in the 
area of retention we have, by comparison with last year's 
reenlistment rates, three times the number of soldiers 
reenlisting than we did just 1 year ago. So a 3 to 1 ratio in 
terms of an incentive that this committee helped clear last 
year from the Congress. So those items in terms of incentives 
are making a difference.
    Our challenge is in recruiting and that is the target that 
we have had at the recruiters and no doubt given more focus out 
in the States.
    Senator Inouye. Thank you, sir.
    Senator Stevens. General Blum, following up on that 
enlistment bonus, I am told we have bonuses that range from 
$1,000 for a 2-year enlistment to $20,000 for a 6-year 
enlistment and that you have been reviewing those. We have in 
the bill already before us a $10,000 increase for enlistment 
from the Air Force to the Army--from active duty into the Guard 
or Reserve.
    Now, what you just said is going to mean I am going to face 
an amendment on the floor pretty clearly. Why can you not use 
the money we have got now? You have authority to go up to 
$20,000 if you want to do it. Why do you ask now for a change? 
In effect, you are asking for a change in our bill today; you 
know that, General?
    General Blum. Well, that would be the second order effect, 
yes, Mr. Chairman, I understand that. But if we have the clear 
authority to go beyond the $10,000--here is my concern----
    Senator Stevens. You do have that authority up to $20,000 
in special circumstances.
    General Blum. Then we would have no issue. If I have that 
authority, then we can make the programmatic change.
    Senator Stevens. Am I correctly informed? It is based on 
critical skills to go above the $10,000.
    General Blum. Well, if we have that authority and we have 
the authority to determine what the critical skills are and 
what the needs are, then I have adequate authority and we can 
reprogram the money we have.
    Senator Stevens. Senator Inouye and I are reluctant to see 
a start of amendments to this bill of ours at the last minute. 
So I would hope that we will try to take it into conference the 
way it is, and you let us know if you do not have the authority 
you need. I am sure in conference both House and Senate will 
respond to your needs, but I just do not want to have a flood 
of amendments here at the last minute trying to add to this 
bill.
    General Blum. I appreciate that, Mr. Chairman. I think, 
based on what you just outlined to me, we have adequate 
authorities to move forward with this and I appreciate, 
frankly, the significant change in the bonus offering because I 
think it will have a dramatic effect.
    Senator Stevens. That is our intent, to work with you. I do 
think recruitment is absolutely essential, that we pay a great 
deal of attention right now. There is no question a substantial 
number of reenlistments are necessary to maintain the force we 
have.
    General Schultz, we provided $95 million for the Guard and 
Reserve equipment in the 2005 bill. General Schultz--General 
James, we had the same amount for the Air National Guard. Are 
those going to fulfil your requirements?
    General Schultz. Mr. Chairman, they have filled critical 
needs for us. Most of the items, much of the equipment we 
bought with that amount of appropriations, you will find in 
Iraq and Kuwait and Afghanistan today. We bought critical items 
of need for our units deploying and of course we deploy units 
at the highest level of readiness: machine guns, night vision 
devices, trucks. We bought all kinds of things that our units 
were short prior to their deployment into the combat theater. 
So we have applied those units to our readiness-related 
requirements.
    But we do still have a shortage, but our priority across 
the Guard is to get units ready for their combat tours, and we 
are able to do that by cross-leveling some of the items that 
this community has provided for us.
    Senator Stevens. General James, the same question to you 
about the $95 million that we provided you.
    General James. Well, first of all thank you for that. That 
account is one of the ways that we are able to fund some 
programs that do not make the cut with the program objective 
memorandum (POM) at the Air Force level. The Senate has been 
very generous in doing that.
    We do feel we still do have some requirements that we would 
like funded. However, we have prioritized that, filled the 
critical ones that we have. It has given us the opportunity to 
do some things that we need to do, but there are still some 
issues that need funding. One of them is the large aircraft 
infrared countermeasures systems, the LAIRCM modification. I 
have a list of how the moneys are being spent that I can give 
the staff and I can highlight some of the areas that you can 
give us some additional help if it is there.
    Senator Stevens. Well, as you indicated, I just finished 
visiting the 172nd at Fort Wainwright and Fort Richardson in my 
State and they are in transition now to go over with their new 
equipment. The items you mentioned, are they available for 
units such as that?
    General James. The C-130 has a high priority in getting an 
updated large aircraft infrared system.
    Senator Stevens. Thank you very much.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    General Blum, I wrote down one of your statements and I 
think I am probably quoting you correctly. Correct me if I am 
wrong. You said you were not certain that the Air Staff 
understands the value and benefit of a community-based Air 
National Guard.
    That set off a lot of alarm bells and sort of reconfirmed a 
fear I have. I appreciate your candor. It is helpful to us. I 
hope it is not hurtful to you. But let me ask about that. We 
are going into a BRAC round where there will be decisions made 
that can have a profound impact on the Air Guard. Can you 
amplify on this statement that you are not certain the Air 
Staff understands the value and benefit of community-based----
    General Blum. Yes, Senator. And it is not only the Air 
Staff. There is nothing evil in this. It is sort of like high 
frequency hearing loss.
    Senator Dorgan. That is even more candor, General.
    Senator Stevens. We can all tell you something about that.

            COMMUNITY-BASED CITIZEN SOLDIER AND AIRMEN FORCE

    General Blum. The Active component I do not think has an 
intrinsic appreciation for the fact that when you call out the 
Guard you call out America. That is very, very powerful for 
this Nation. The reason that when you call out the Guard you 
call out America is that you are calling up every home town, as 
you can see from the charts that we have been showing and as 
you can tell from your constituents. They feel the people that 
are at war in this Nation really are those that are serving and 
the families and employers of those people. When you are 
talking about families and employers you are only usually 
talking about the Reserve component, and the Guard has an 
extremely high number of this contribution.
    I do not want to lose the goodness of a community-based 
citizen soldier and airman force. I am afraid that some well-
intended people who put their programmatics together or their 
analytics together for the future force did not factor in the 
fact that if you do not have a community base you probably do 
not have a community-based force, and pretty soon you do not 
have the capability that we have come to expect and call upon 
in this Nation for the last at least 32 years. The next time we 
need it, we will not be able to regenerate it or reestablish 
it.
    So if it puts some alarm bells off, that is good. I think 
it should and I think it should be a tough question that 
defense planners and senior military people like myself should 
have to be able to answer as we talk about how we are going to 
defend the Nation in the future and how we are going to shape 
the Army and the Navy and the Air Force of the future.
    Senator Dorgan. General, I share those concerns and I think 
every State has an Air Guard. Some have more than one Air Guard 
unit. There is a lot of concern about where we might be after 
BRAC. Especially if homeland security is a priority, when you 
take a look at what is implied with respect to the retiring of 
the number of airplanes in the Air Guard, you wonder how that 
can square with the top priority being homeland security.
    I would like to mention, General James, I spent Monday with 
the Happy Hooligans, which is the Air Guard unit in Fargo. You 
are well familiar with them. They have had more accident-free 
hours in F-16s than anyone else in the entire world. They are 
the only Air Guard unit that has ever won the William Tell 
Trophy three times. This is an Air Guard unit which flies in 
the worldwide meet to test pilots and crews against the best of 
our Air Force and the best in the world. They are the only Air 
Guard unit that has won it three times, the only F-16 unit that 
has won the Hughes Award.
    In fact, they are flying fighter cover over our Nation's 
Capital, as you know, out of Langley. But the best pilots in 
the world happen to fly the oldest iron, the oldest F-16s, 
which are set to retire in 2007. Then we see coming from the 
Pentagon discussions about the number of F-16s and the older 
planes that will be retired, a dramatic percentage. In my 
judgment that seems at odds with the top priority of homeland 
security.
    I wonder if you could tell me your impression of that and 
perhaps also General Blum.

                      AIR NATIONAL GUARD AIRCRAFT

    General James. Well, Senator, you are right. The Air Force 
has a difficult decision to make. They have to program for the 
new aircraft that are coming, and we know that there will be 
dramatically fewer aircraft, i.e., the F/A-22 and the Joint 
Strike Fighter, the F-35 as it has been designated. Because 
there will be fewer, we still will have the capability because 
these aircraft are more capable.
    Our problem becomes one in the National Guard, in the Air 
National Guard, that the F-16s that we have are more what they 
call the legacy airplanes. The Block 15s that you have and that 
we have in Tucson, in the unit in Tucson, the foreign training 
unit, are the oldest, and then the Block 25s and the Block 30s. 
Right now the Block 25s and some of the Block 30s are slated to 
go out of the inventory.
    I would propose that we look very closely at this after 
BRAC comes out and work very closely with the adjutants general 
and with the programmer for the Air Force, Lieutenant General 
Wood, to make sure that we do this in such a manner that if we 
do not have aircraft to replace those aircraft that come out, 
that we do have new missions to replace those aircraft that 
come out. Otherwise, we could get in a situation where I call 
it the units would be uncovered, in other words they would not 
have a Federal mission.
    In my mind that really sets off bells, because the Air 
Force has told us that they are going to sustain our current 
level of manpower, however I am not sure that folks in other 
parts of the Pentagon will see that as sustainable in fact if 
we have units uncovered. So we are going to work very hard to 
get missions to those units that lose aircraft.
    Senator Dorgan. Could either of you just address that 
question of the top priority being homeland security with a 
substantial----
    Senator Stevens. Your time has expired.
    Senator Dorgan. All right, Mr. Chairman.
    Senator Stevens. Senator Mikulski.
    Senator Mikulski. Thank you, Mr. Chairman, and to the 
Generals and to the men and women that you represent at this 
table.
    I would like to come back to the issues related to 
recruitment and retention and to focus on retention, because I 
think that has been a troubling aspect. General Blum, when you 
talked about those bonuses and that they have been effective, 
are those bonuses tax free?
    General Blum. Senator Mikulski, they are tax free if you 
take advantage of them in the combat zone. For instance, I 
watched 256 soldiers from Louisiana reenlist in theater, which 
is quite remarkable in itself. They were from the 256th Brigade 
Combat Team. They reenlisted en masse. Each one of them would 
have had a tax-free reenlistment. All 15,000 would have been.
    Senator Mikulski. But for anyone else reenlisting--it is 
only tax free in a combat zone, is that correct?
    General Blum. That is correct. Sorry. That is correct.
    Senator Mikulski. And we understand why. I mean, they are 
literally in the line of fire and it is a way of thanking them 
for being willing to re-sign up.
    Is this an issue also, for those who are not in the combat 
zone? Would a tax free status be helpful in terms of retention 
or a way that does not exacerbate tensions with those that are 
literally in the line of fire? This is a tricky question. It is 
not meant to be a trick question. But it is delicate or 
possibly prickly.
    General Blum. A simple candid answer is that incentives 
work. So the more of it that you get to keep, the more of an 
incentive it is.
    Senator Mikulski. The more cash they end up with.
    General Blum. Of course, yes.
    Senator Mikulski. I understand.
    Now, when we look at retention, we also know that there has 
been, as you said in your own testimony, the inequities at 
times with active duty. Again, we do not want to exacerbate 
problems between active duty and Guard and Reserve, but what is 
one of the most significant drawbacks that the troops have told 
you about retention? Is it the operations tempo (OPSTEMPO)? Is 
it the fact that they are called up so frequently? Is it the 
fact that there is such a big pay gap that their family is 
enormously suffering because of this?
    What are the retention flashpoints?
    General Blum. There are two that come to mind. And General 
Schultz, if I fail to cover them, you jump in on this. There 
are two that come to mind.
    The first one, which you would least expect, is that 
soldiers have told me they will redeploy to the combat zone 
again, but they will not go through the mobilization process 
again, they would get out first. So that tells me we need to 
really look at the mobilization process hard and make sure that 
it is not as painful as it appears to be, is perceived to be by 
those who have to live it and go through it, not the ones that 
conduct it, the ones who actually have to suffer through that 
process.
    Then the other item is that about one-third of our soldiers 
suffer financial losses to the point that it is almost 
untenable for them.
    Senator Mikulski. What would be the recommendation on that? 
We have heard horror stories in Maryland. I worked hands-on 
with you when your duty assignment was Maryland, with General 
Tuxell, our Air Force guy, now head of our Maryland National 
Guard. What are these issues?
    We, Senator Durbin and I, have talked about the Federal 
Government making up the pay gap. What would be some of the 
concrete steps that we could take to deal with this financial 
hardship that families are facing, not for a few months, but 
now for multi-years? I talked to one marine who has come back 
and he has lost $20,000 a year for 3 years. That is $60,000. 
That could have put his son or daughter through the University 
of Maryland for 4 years.
    General Blum. Senator, there are three elements to having a 
sound and functional Army and Air Guard. One is the citizen 
soldier. We have to get the right people, the right incentives 
to be able to compete in a level playing field for a recruited 
force. That is what we are talking. They are all volunteers, 
but they are recruited.
    The second is we have got to make sure the families do not 
suffer too extremely while they are deployed----
    Senator Mikulski. Right, and how do you want to do that? 
What are your recommendations?
    General Blum. Then the third is the employer. I think that 
we probably need to look at some way to ensure that families 
are not financially ruined for answering the call.
    Senator Mikulski. What are your recommendations and what 
does the top civilian leadership at the Pentagon say?
    General Blum. Well, I will tell you what. I will take that 
for the record and I will provide you some ideas that we have 
come up with. But it really would be for this body and Congress 
to decide what they would like to legislate. The tax relief----
    [The information follows:]

    The top three recommendations for Personnel Benefits 
provided below will assist the National Guard in meeting their 
recruiting and retention goals.
    First, BAH II should be eliminated or the threshold should 
be reduced for paying BAH II in lieu of BAH. BAH II is the 
housing allowance that is presently authorized for reservists 
serving on active duty for fewer than 140 days. The net 
averages of the difference between BAH II and BAH have been 
approximately $300 per member per month. This has a direct 
impact on bottom line take home pay. Active duty and reserve 
component members serving side-by-side should be compensated at 
the same rate. Therefore, BAH II should either be eliminated 
completely or at least the threshold for paying BAH II should 
be reduced from the current 140 days threshold.
    Second, we want to have the authority and funding to pay 
the $15,000 affiliation bonus which would allow us to 
transition someone directly from active duty into the National 
Guard. In the Supplemental which was passed in May 2005, we 
received the authority to pay a $10,000 affiliation bonus, 
however this authority will expire on September 30, 2005 unless 
a new authority is passed. The reason we need this affiliation 
bonus at the $15,000 mark is because Prior Service members 
without a Military Service Obligation (MSO) are eligible for a 
Prior Service enlistment bonus of $15,000. This means there is 
a built in incentive for a Prior Service member with the MSO to 
wait for the MSO to expire and then enlist without the MSO to 
receive the $15,000 bonus. Therefore, if we are able to offer 
the $15,000 affiliation bonus, it would help us recover these 
members who are already trained from their active service.
    Third, as you know the National Guard is comprised of both 
the Army National Guard and the Air National Guard and, in this 
case, we have slightly different requirements which could meet 
their needs. For the Army National Guard, we would like to 
expand the parameters of offering the tax-free reenlistment 
bonus to include all members who deploy for one year, even if 
the actual reenlistment doesn't occur while they are in the 
combat zone. We believe all our members who deploy for one year 
should be eligible for this tax-free benefit without penalizing 
those members who will deploy, however, not have their 
reenlistment occur during the actual deployment. Air National 
Guard members are deployed for shorter periods of time and few 
would be eligible for the tax-free reenlistment bonus. Since a 
much larger number of Air National Guard members will be 
substantially impacted from BRAC, we want an increase in the 
retraining bonus from the current $2,000 to $10,000. By using 
this $10,000 retraining bonus, we could entice members to stay 
and retrain and therefore save money we would otherwise have to 
spend on recruiting. We believe this increased retraining bonus 
will serve us well in retaining our Air National Guard members 
during the difficult BRAC transition period.

    Senator Mikulski. But I would like to know the top three.
    General Blum. I would think that employers would benefit 
greatly. They are full partners in the defense of this Nation. 
They would benefit from some form of tax relief for being able 
to make up the differential for the employee's salary.
    Senator Mikulski. General, I would welcome those ideas.
    My time has expired, but we are all Team USA here and we 
need to make sure we not only recruit, but retention is another 
form of recruitment----
    General Blum. Absolutely.
    Senator Mikulski [continuing]. To keep the best and, as you 
said, these wonderful men and women are coming back with 
exceptional capabilities. They are going to serve Maryland, 
they are going to serve the Nation. We have got to really show 
that we are on their side and on the side of the families.
    So thank you, Mr. Chairman.
    Senator Stevens. Thank you very much, Senator.
    Senator Leahy.
    Senator Leahy. Thanks, Mr. Chairman.
    I would like to follow up on this question that there are 
sometimes inequities with the National Guard and Reserve at a 
time when, as you know, we go into active areas and you really 
cannot tell who is Guard and who is Active military. For 
example, when a member of the National Guard or Reserve is 
called to active duty for a period of less than 140 days, that 
citizen soldier, airman, or marine receives a lower BAH II, 
basic allowance for housing. Actually that can be as much as 
$300 per month less than he or she would receive on regular 
active duty.
    Now, I raise this because last year Congress enacted a 
piece of legislation sponsored by me and Senator Bond as the 
Guard Caucus co-chairs. It authorized greater use of the Guard 
for national homeland security missions.
    A number of soldiers from the Vermont National Guard were 
called up to help increase security along the northern border, 
where we have far less people deployed than our southern 
border. They worked side by side with their active duty 
counterparts, but they received $300 per month less in housing 
allowance. They are doing exactly the same thing.
    I think it is unfair. I want you to take a look at BAH II. 
Is there any justification for keeping this lower tier of 
housing allowance in place?
    General Blum. No, sir. The way we look at it is as a 
general rule when you are called to active duty you should get 
all the rights and benefits and entitlements as anybody else 
that is serving right alongside of you in the same status, 
performing the same duty. I will go back and look at that. If 
there is something that we can do, we will do it. If not, if we 
need some assistance with legislation, we will come back to 
you, sir.
    Senator Leahy. Please let us know because I am actually 
looking forward to introducing some legislation on this. I want 
to make sure it is bipartisan legislation. So whatever you can 
give us for information will be very helpful.
    General James, Senator Dorgan was talking about the future 
total force initiative you and I have talked about this because 
of the talk of significant cuts in the Guard's aircraft force 
structure. At the same time, we are starting city basing. It is 
going to begin imminently with the Vermont Air National Guard 
in Burlington, Vermont. Active duty pilots and maintainers are 
going to come to Guard bases. I think it creates a synergy 
where the total may be greater than the sum of the parts.
    Can this basing arrangement be a model for the whole Air 
Force? Because if it would be, does that bring about an 
argument against making significant cuts in the Air National 
Guard's force structure?
    General James. Senator, the answer to that is yes, it could 
be. Community basing, as we call it now, is, as the Chief 
pointed out, a way of balancing the needs of the Air Force in 
terms of their skill levels. We have very experienced people. 
Sixty-two percent of our maintainers are seven skill levels, 
seven or higher, whereas the majority of theirs are three level 
skills.
    So it takes the best of the Guard and helps balance some of 
the needs of the Air Force. Now, the debate comes down to can 
the active duty folks who go there have the same quality of 
life. I say yes, they can. If you select Jackson, Mississippi, 
and have community basing there with active duty crews coming 
to Jackson, I think they can have the same quality of life 
there. There are some other places where there are even bases, 
like Kirtland in New Mexico, where you could have active duty 
folks there and supported by the base and flying with the New 
Mexico Air National Guard.
    So I think the community basing, city basing concept is an 
excellent way of balancing the force, giving the personnel 
system options to station people throughout the United States, 
and when they rotate back from an overseas deployment or an Air 
Expeditionary Force (AEF) involvement they have more options as 
to what assignment, where they can be assigned. I think it will 
be--I think it could turn into a win-win force.
    Now, those folks--there are people who say, no, we cannot 
do that, it is not appropriate to do that, they will not have 
the quality of life and we cannot afford it. I think we should 
look into it. I do not think this should be just a random test 
case that falls off the table. I fully support the concept of 
community basing and community involvement of the National 
Guard and the active duty.
    Senator Leahy. Thank you.
    Senator Stevens. Senator Durbin.
    Senator Durbin. Thank you, Mr. Chairman.
    General Blum, you were spelling out the three elements that 
you thought were important and I want to make sure I heard the 
third one, which I do not believe you had a chance to say a 
word on: the citizen soldier, the family support, and then you 
said employer; did you not?
    General Blum. Yes, sir.
    Senator Durbin. Could you just say a word or two about 
that?
    General Blum. Well, I talk about a three-legged stool, the 
seat being the National Guard, the Army and Air Guard, but the 
legs that hold that stool up are these three elements: the 
soldiers themselves, the uniformed member; their families, 
because you may enlist soldiers, but you retain the families. 
And frankly, you are not going to have either one if the 
employer does not stay a willing partner. So just like a three-
legged stool, if you pull one leg away the stool is very 
unstable and will fail. That is why I think we need to pay 
particular attention to the employers and the employer-employee 
relationship, the family member relationship, as well as the 
citizen soldier-airman relationship.
    Senator Durbin. Thank you.
    If I am not mistaken, we maintain a program and a web site, 
the Employer Support of Guard and Reserve, ESGR, and we 
acknowledge companies and employers that make up the 
differential in pay for Guard and Reserve. Is this a positive 
element when it comes to recruitment and retention of members 
of the Guard and Reserve?
    General Blum. Of course, sir, of course it is. Any time 
someone--there is enough angst with changing from a civilian to 
a soldier to go in a combat zone or go have separation from 
your family, your loved ones, and your employer, to have added 
to that the concern that you are not going to have your job 
when you get back or you are not going to have employment when 
you get back or you are going to suffer financial ruin while 
you are gone I think was not intended by anyone and probably we 
should address that wherever we can.
    Senator Durbin. So the survey, when they ask for the 
reasons that Guard and reservists do not re-up and are not 
retained, said that family burden was number one, 95 percent. 
Too many activations and deployments, 91 percent. Deployments 
too long, 90 percent. Income loss, 78 percent. Conflict with 
civilian job, 77 percent. So that really kind of tells the 
story as to the retention challenge that we have.
    Now, some members seem to believe that there is a 
resentment among the active military when a Guard or Reserve 
member is receiving this pay differential, meaning that that 
Guard or reservist may be actually getting more money each 
month than the active soldier. Have you heard of this?
    General Blum. I do not actually think that that exists, 
frankly, Senator. There are no two soldiers that ever existed 
or ever will exist that had exactly identical income. I mean, 
you know that some soldiers get chocolate chip cookies from 
their mom, they get their family sends them extra money. That 
does not mean there is angst in the ranks over that.
    It is very, very rare that two soldiers sharing a foxhole 
are going to talk about their income tax returns or how much 
money they make. They are worried about doing their mission and 
defending their Nation.
    Senator Durbin. That is the point that Senator Mikulski and 
I have made in our bill here, because it turns out that 10 
percent of the Guard and Reserve happen to be Federal employees 
and it turns out that the Federal Government is one of the 
few--I should not say one of the few--is one of the major 
employers which does not make up the difference in pay. So we 
have introduced a bill together--this is our third try--to make 
that--do away with that inequity, to make sure that the Federal 
Government makes up that pay differential.
    But I wanted to address the necessity, number one, and the 
most common complaint, that active soldiers would resent it, 
which you have addressed as well. So thank you very much for 
doing that.
    General Blum. Thank you, sir.
    Senator Durbin. General James, you mentioned an unfunded 
need for large aircraft infrared countermeasures. Could you 
tell us a little bit more about that?

                LARGE AIRCRAFT INFRARED COUNTERMEASURES

    General James. The newer equipment that comes on, the C-17s 
and so forth, have built-in infrared countermeasure protection. 
One of our highest priorities is to fund that for our C-5s and 
our C-17s and even the C-130Js I do not believe have that. That 
is why it is at the top of our list. We have such a high 
OPTEMPO there in those airplanes with the two-theater or two 
locations of the conflict that is going on.
    I can give you the exact numbers. I do not know that I have 
what the shortfall is, but I would be more than happy to 
furnish that.
    Senator Durbin. Would you please do that, provide some 
detail for us? I would appreciate that very much.
    [The information follows:]

    The Air National Guard is currently installing Large 
Aircraft Infrared Countermeasures (LAIRCM) on Special Mission 
HC/MC-130s in two of our three Combat Search and Rescue 
Squadrons. We have also made strides in installing LAIRCM on 
our combat delivery C-130s. As Air National Guard (ANG) force 
structure changes, every aircraft we employ and deploy must be 
as survivable as possible. With this philosophy in mind, the 
ANG has invested in excess of $42 million of fiscal years 2004 
and 2005 National Guard and Reserve Equipment Account funding 
on LAIRCOM to modernize our Special Mission/Combat Delivery C-
130 fleet. We have an overall requirement to equip 152 C/HC/MC/
EC-130s with LAIRCM.

    Senator Durbin. Mr. Chairman, I will not use the rest of my 
time, but I would like to take what is remaining and 
acknowledge in the audience here Sergeant Tara Niles, who is 
from the Illinois National Guard, who has been activated, 
served in Iraq, left two children behind with godparents who 
were happy to watch them, and she is now back home in 
Springfield, Illinois, going to school and working at Camp 
Lincoln. I want to thank her and all of the soldiers here for 
their service, particularly the Guard and Reserves that I have 
had a chance to meet and to share some of those experiences 
with.
    Thank you very much, Mr. Chairman.
    Senator Stevens. Thank you very much.
    For the information of the subcommittee, there are 
amendments now pending on the floor that directly impact this 
subcommittee. Senator Inouye has gone to watch the floor for 
us. We will continue here into the next panel.
    Senator Domenici.
    Senator Domenici. Mr. Chairman, I am sorry that we have to 
stay on so long, but some of us have some urgency about our 
questions.
    First, I say to all three of you Generals, I do not believe 
the active military leaders had ever contemplated that we would 
place such burdens on the National Guard and Reserves. As a 
consequence, I believe you are treated as second class 
generals. And I hate to tell you that, but I do.
    For instance, as they talk about in the Pentagon, about the 
new kind of military we are going to have in the future, you 
have heard the Secretary of Defense talk about how it is going 
to be different. I just wonder, maybe you could tell me, 
General Blum, how much input have they asked of you in terms of 
how that new force structure, new military, is going to look 
like under this streamlined, changed military of the future?
    General Blum. Senator Domenici, are we talking about the 
Army or the Air Force?
    Senator Domenici. I do not care. You tell me all of them, 
each one of you.
    General Blum. I do not wait, Senator. I have got a clear 
record. First of all, I do not consider myself nor my two 
colleagues second class in any respect.
    Senator Domenici. Oh, that is all right. I am a Senator; I 
can say what I want. You can say what you like.
    General Blum. We do not often wait to be asked. We have our 
opinions and our inputs. They are not always considered--I 
mean, they are not always accepted, but they are always 
considered, at least at the highest levels. General Jumper on 
the Air side and General Moseley and General Schoomaker and 
General Cody on the Army side, we have their ear. We can get 
our thoughts in to them when we need to.
    The head of the snake, I think, the heads of the two snakes 
are solid. The problem is that there is a whole lot, there is a 
whole lot of snake that pig has to go through in the Pentagon 
before it comes out. So while the head can agree----
    Senator Domenici. You have got it right.
    General Blum [continuing]. The process can take it many, 
many different directions, and often does, and we have to stay 
very vigilant to that to make sure that what the senior leaders 
agree to and accept ends up happening.
    Senator Domenici. I want to clarify the record. I was not 
suggesting that you are second class Generals. You are first 
class Generals.
    General Blum. I did not take it that way, sir. I just want 
to make sure you know that they do not treat us as second 
class. I do not perceive it at all.
    Senator Domenici. Well, let me tell you. The record seems 
to me to reflect that they do, and it seems to me that if they 
ever are going to learn that you cannot have two armies, two 
air forces, and expect them to be ready to fight the same war 
on the same trenches and the same skies, then you cannot have 
different equipment, you cannot have different training, and 
you cannot treat one as a purely citizen group and another as a 
ready army.
    There has got to be more meshing of the two or you are 
going to have the problems we all heard about. You all know the 
problems were there. You had your people going over there, 
especially the Army, with lesser equipment, lesser protection. 
And they got over there and then we found out about it. In 
fact, some of that had to be ascertained by people telling us. 
Defense did not come up here and tell us. We found out kind of 
by freedom of the press, to be honest with us, and military 
people being worried.
    I do not want to argue with you.
    General Blum. No, no, sir.
    Senator Domenici. But you go ahead. If you want to comment 
on that, fine.
    General Blum. I would tell you that what you said is 
entirely true until this last, until this last generation of 
senior leadership in the Army and the Air Force. Quite 
different than anything I have seen in my entire adult life 
before that. I would never have stood before this committee 3 
years ago and said anything other than what you just said. But 
with General Schoomaker's leadership of the Army and Secretary 
Harvey, they are committed to exactly what you just said 
happening.
    Senator Domenici. Are you saying the same thing, General 
James?
    General James. I agree with the Chief on that. I will tell 
you there is a differential in our staffs unlike you may have 
in your staffs. Many of our directorates are led by full 
colonels and their counterpart on the Active component is a 
one-or two-star general. So they have to be very careful about 
the way they present National Guard equities and it takes a lot 
of tact and it takes timing.
    So at the highest level there is no question of how they 
feel and look upon us and how they value us, but when it is 
time to get down to the details and slug it out for what we are 
going to really do here with this force or with this budget or 
with this weapon system, sometimes our people, they are out-
horsepowered.
    Senator Domenici. How about General Schultz?
    General Schultz. Senator, the points you raise about 
equipment inequities were initially existing. We have taken 
those issues on and, with the support of the senior leadership 
in the Army, we have addressed those items of concern and made 
fairly serious progress in the journey here. In some cases 
Guard units are actually receiving equipment ahead of their 
active counterparts.
    Senator Domenici. Look, I have never asked the chairman how 
he felt about this, so I do not know. I understand it is hard, 
that there are two different institutions and it is not always 
that we are going to have the same kind of need to fit as we 
have right now. But we have had two in a row. One is very 
different than the other because of time.
    General Blum. I honestly think it will be more important in 
the future than it is even now, so we have got to get this 
right.
    Senator Domenici. I believe that is right. Look, I am 
talking about the F-16 versus the F-22 and F-35. Right now we 
already know they have fewer of the new ones ordered. We 
understand that. But you are not included in that at the 
offset. You are left out.
    My last question--I know I am out of time, but I want to 
say to all of you I am very worried about the fact that we have 
post-traumatic injuries to a far greater extent in this war 
than we had even in the Vietnam war, and they are real. I want 
you to be sure you look at and urge that there be adequate 
military--adequate doctor help for those that have that kind of 
problem.
    Thank you, Mr. Chairman.
    Senator Stevens. I would agree with the Senator, but we 
have to move on because we have another panel.
    Senator Domenici. Thank you.
    Senator Stevens. Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman.
    I join with my colleagues in welcoming Generals Blum, 
Schultz, and James. As the co-chair with Senator Leahy of the 
National Guard Caucus, I share the concerns that Senator 
Domenici has just expressed, particularly when the National 
Guard has 50 percent of the combat force in Iraq and 40 percent 
of the total force. We know that the Guard is being called on 
and we are very much concerned that you are getting short 
shrift.
    Now, progress has been made on the Army side, but let me 
address something--let me just address this to General Blum. I 
continue to hear concerns from the TAGs about the future total 
force strategy of the Air Force. I have two letters. Mr. 
Chairman, I would like to make these part of the record.
    The first one is from Brigadier General Stephen Koper, 
President of the National Guard Association. In that letter, 
addressed to Congressmen Hunter and Skelton, he talks about the 
Air National Guard. But he said, ``Our membership is expressing 
grave concerns about the direction of the future, the future 
total force (FTF) plan, and its immediate negative impact on 
Air Guard force structure. Such concerns include,'' among other 
things, ``the limited role the adjutants general have played in 
developing the FTF plan and the impact these force structure 
reductions will have on Air Guard basing in anticipation of 
BRAC.''
    Major General Ratacrak, the President of the Adjutants 
General Association, in his letter to General Jumper said: ``As 
BRAC draws near, I am becoming increasingly convinced that the 
process has been designed to validate a predetermined view of 
the futile--future total force as defined strictly by the 
active Air Force, without the substantive input of the Air 
National Guard.''
    I apologize, I had a freudian slip. I said ``the futile 
total force.'' I meant ``the future total force,'' because 
there is no substantive input from the National Guard.
    [The information follows:]

                                                    March 17, 2005.
The Honorable Duncan L. Hunter,
Chairman, House Committee on Armed Services, 2120 Rayburn House Office 
        Building, Washington, DC 20515-6035.
The Honorable Ike Skelton,
Ranking Minority Member, House Committee on Armed Services, 2120 
        Rayburn House Office Building, Washington, DC 20515-6035.
    Dear Chairman Hunter and Congressman Skelton: This decade our 
military forces have faced some of the greatest challenges in our 
nation's history. By supporting successful missions in Operation 
Enduring Freedom, Noble Eagle and Operation Iraqi Freedom, while at the 
same time transforming to face the threats of the future, our Air 
National Guard has played a critical role in supporting U.S. strategic 
interests at home and abroad.
    Currently, the Department of the Air Force is developing its 
transformation plan, called Future Total Force (FTF). Over the years, 
the ANG has proven its willingness to transform and evolve. However, 
our membership is expressing grave concerns about the direction of the 
FTF plan and its immediate negative impact on Air Guard force 
structure. Such concerns include: continuation of the Air Sovereignty 
missions; funding to transition personnel from current missions to 
``future missions;'' the limited role that The Adjutants General have 
played in developing the FTF plan; and the impact these force structure 
reductions will have on Air Guard basing in anticipation of BRAC.
    As you and your staff continue holding hearings, NGAUS respectfully 
requests that the House Armed Services Committee conduct a hearing on 
Future Total Force. Should any hearing be scheduled, we respectfully 
request that the National Guard Association of the United States 
(NGAUS) be invited to testify on behalf of the National Guard and its 
membership to outline the Guard perspective in relation to FTF. In 
addition, we offer to coordinate with you and your staff the selection 
of appropriate Adjutants General that could also offer relevant and 
critical testimony.
    The NGAUS recognizes a need for the Air National Guard to remain a 
ready, reliable and relevant component of our total air force 
capability. We also believe it is imperative that any future force 
modernization discussions that impact the Air National Guard involve a 
cooperative and collaborative interaction with the Adjutants General.
            Respectfully,
                                          Stephen M. Koper,
                          Brigadier General, USAF (ret), President.
                                 ______
                                 

        Adjutants General Association of the United States,
                                     Washington, DC, March 9, 2005.
General John P. Jumper,
Chief of Staff, United States Air Force, HQ USAF/CC, 1670 Air Force 
        Pentagon, Washington, D.C. 20330-1670.
    Dear General Jumper: The Adjutants General of the 54 states see the 
USAF transformation strategy known as Future Total Force (FTF) having a 
profound effect on the Air National Guard (ANG). We want to help the 
Air Force shape a strategy and force structure that uses the ANG to its 
full potential. Homeland defense is a critical issue for us as we are 
responsible to our Governors for homeland security matters.
    Adjutant General involvement with the FTF initiative only began 
recently with three Adjutants General being invited to participate on 
the AF/XP sponsored General Officer Steering Committee (GOSC). 
Lieutenant General Steve Wood has actively engaged us since coming on 
board late last year. His focus on open exchange of information is 
refreshing and is setting a course that will benefit all.
    From our initial perspective the FTF initiative seems to focus on 
accelerated reductions of current weapon systems located predominately 
in the Air National Guard and the relocation of ANG units to active 
duty bases. The loss of flying units will be compensated by rolling ANG 
force structure into new missions to sustain its end strength. Issues 
exist that could be very detrimental to the National Guard to the point 
of irreversible deterioration. In particular, we fear the initiative as 
we understand it will cause serious gaps in our capability to defend 
the homeland.
    Our concern compels us to ask you to undertake actions to refine 
and improve the FTF initiative. These proposals are necessary to 
preserve the Air National Guard, ensure defense in depth of the 
homeland, and provide the most lethal and cost effective force in the 
future.
    The Adjutants General can add significant value to Air Force 
modernization initiatives. First, we feel we should be involved with 
developing and vetting options, and be given the opportunity to 
contribute data and analysis to various studies. Through our Adjutants 
General Association of the United States (AGAUS) we can offer valuable 
ideas and critiques in a timely manner that will enhance the FTF 
initiative by making it more palatable to a broader range of interested 
parties.
    Second, the Air Force should thoroughly evaluate the air 
sovereignty mission after receiving USNORTHCOM requirements from which 
to develop a realistic force structure plan for homeland defense. The 
evaluation should consider weapon system dispersion as well as 
lethality and determine more precisely the extent other services will 
support this vital mission.
    Third, we want to work with the Air Force to develop a roadmap to 
2025 that uses proportionality as a key principle for determining roles 
and missions for the Air National Guard. This is not to say that 
current proportionality must be strictly adhered to. But rather, it is 
a starting point for determining the best mix of active and reserve 
component forces for future operations. We believe increasing full time 
strength for key weapon systems in the ANG deserves evaluation. The ANG 
may more effectively support critical Air Expedition Force rotations 
and other vital missions with a different mix of full time and 
traditional Guard personnel in units.
    Fourth, the community basing plan should be expanded immediately to 
include additional sites and different weapon systems for a more 
comprehensive evaluation. The Adjutants General believe very strongly 
that community basing is a key to sustaining the relevant and ready Air 
National Guard which has performed so magnificently in homeland defense 
and contingency missions.
    Fifth, to sustain an effective ANG end strength of approximately 
107,000 the FTF schedule must be adjusted to slow aircraft retirements 
while accelerating the assumption of new missions by the ANG to avoid a 
lengthy gap between mission changes during the transitory period. A gap 
will cause the loss of experienced personnel while impeding our 
transition to the Air Force of the Twenty-first Century.
    Sixth, the ANG should field new Air Force aircraft weapon systems 
in ratios consistent with our contribution to the war fight and 
interspersed throughout each system's fielding plan. The nation will be 
well served by involving the Air National Guard early on during the 
fielding F/A-22, C-17, and F-35 weapon systems. This would also apply 
to the new tanker and other flying systems (such as intra-theater lift) 
as they emerge from development. The Adjutants General can provide the 
Air Force valuable support if given a clear picture showing ANG 
participation throughout weapon system fielding.
    The Adjutants General have an obligation to nurture the rich 
heritage of the Air National Guard and ensure its readiness and 
relevance. We have defined several principles that will guide our 
actions in influencing the make up of the future of the Air Force.
    1. Retain the militia basing concept which connects the Air Force 
to communities dispersed throughout the nation and provides for agile 
and quick responses to dispersed threats;
    2. Leverage the cost efficiencies, capabilities, and community 
support generated by ANG units in the several states by including them 
as an integral part of the Future Total Force structure;
    3. Each state needs a baseline force for homeland defense which 
includes civil engineering, medical, and security forces;
    4. The Air National Guard maintains essential proportions of flying 
missions to nurture and sustain direct connectivity with America's 
communities while supporting the expeditionary Air Force cost 
effectively, captures the extensive aircrew and maintenance experience 
of the Air National Guard;
    5. The nation is well served by a continuing dialog involving the 
Air Force, National Guard Bureau, and the Adjutants General as new 
missions emerge and threats change.
    Our desire is to work with the National Guard Bureau in developing, 
vetting, and implementing initiatives. We provide perspectives from the 
field that when aligned with the programmatic expertise of NGB will 
result in sound courses of action with solid support from the several 
states.
    Sir, we truly understand and appreciate your Herculean efforts to 
transform the greatest Air Force in the World into something even 
better. We only ask that we are allowed to help in the process.
            Respectfully,
                                         David P. Rataczak,
  Major General, AZ ARNG, President, Adjutants General Association.

    Senator Bond. Can you, General Blum, give me your 
assessment of the Guard's role in the development of the future 
total force strategy of the Air Force? And I refer to the input 
of the TAGs from States with significant Air Guard assets.
    General Blum. Sir, we cannot pull in a committee of 54 to 
do that, although we have brought senior members of the Air 
Staff, to include the Air Force Vice Chief, General Moseley 
himself, and General Jumper has actually addressed all of the 
TAGs, the adjutants general, on the future total force.
    The problem is there is not great fidelity on the future 
total force because of exactly the process as you talked--
Quadrennial Defense Review (QDR), BRAC, some other things that 
nobody knows how it is going to shake out yet. So in 
uncertainty there is always discomfort and paranoia.
    I am not ready to say that--I think it bears close watching 
for exactly the reason I said. I cannot have a community-based 
force if we do not have a community base. I think once you lose 
that community base, I cannot think of a place in this country 
where you can open up a new military airport in our lifetime. 
So if you lose that capability, you will never reclaim it.
    I think those things need to be factored in. We have 
engaged with the senior leadership of the Air Force and 
expressed our concerns. We have not been dismissed. They do 
listen to this and they are making adjustments. Now, how it 
will all come out I do not know, but we will watch it very 
closely. And we do have members, representatives, from the 
adjutant generals who are involved in this process, but it is 
clearly the business of the National Guard Bureau to be the 
interface between the Air Force and the States and we will 
discharge our duties.
    Senator Bond. General, I have to--I will say regretfully, 
we are not paranoid. They really are after us. I have heard 
reports about closing of National Guard, Air National Guard 
facilities that I think are absolutely unwarranted in the BRAC 
process and would cause me grave concern about the BRAC process 
if they are not fully engaged.
    I have fought long and hard to get upgraded radars on the 
F-15s because that will make them fully homeland defense 
capable, and I would like to see support for it.
    Let me ask one last thing. Equipment requirements. General, 
can you expand on your pie chart about the Guard equipment 
requirements? What is being done to address the equipment 
shortfalls?
    General Blum. Put up chart 4, please.
    On this part you notice, the part in green are the soldiers 
that are deployed around the world and they are on active duty 
right now in the Army Guard for 18 months. In the Air Guard it 
varies, different times. The average is about 120 days.
    The yellow, the yellow part of the chart, are those that 
are getting ready to replace those in the green sector. The 
part in red is what is available to the Governors of the States 
and territories for homeland defense and support to homeland 
security. We have, as we described earlier, have worked very 
closely with the Governors and the adjutants general to ensure 
that as we call up Army and Air Guard units we leave at least 
50 percent of their capability in the State for command and 
control, maintenance, medical, communications, transportation, 
security, and engineers and other critical skills.
    What I am concerned about is that the Pentagon is very 
willing to resource us adequately, in fact superbly, 
unprecedented equipping of the National Guard for an overseas 
war fight, but when they come home to the Governor of whatever 
State or territory, I do not want them to be without the 
equipment they need to provide the Governor the capabilities 
that that Governor requires in terms of tornadoes, floods, 
hurricanes, or counterterrorist acts or critical infrastructure 
protection missions that may be required in today's 
environment.
    That is where I share some concern that we get adequate 
resources in the red part of that chart.
    Senator Bond. Thank you very much, Mr. Chairman.
    Thank you, Generals.
    Senator Stevens. Thank you. We thank you very much.
    General Blum, I hope we can find some way to deal with the 
problem that was mentioned about this increment of pay that 
people lose when they are called up. We have had to oppose 
those because there is no ceiling. I think there are some 
people that enter the Guard or Reserve when they are in college 
or first starting out in business, and 10 years later they find 
they are making $1 million a year.
    Now, these amendments say we are going to make up the 
difference. In terms of Government employees, of course, there 
is no million dollars a year, but there are people that are 
paid $175,000, $200,000 in specialty pay in various Government 
agencies and they are in the Reserve or Guard. Now, I think 
there ought to be some limit, upper limit, on what that makeup 
is in that gap between the pay of a person in the service and 
the pay that they are getting performing different skills in 
the civilian branch of Government.
    Doctors, psychiatrists, lawyers, a bunch of things, we have 
discretion to pay some people much higher than the normal rate 
of general service.
    So I hope that you will study that and give us some 
recommendations. This has been a bruising fight on this floor 
so far and the amendment that has been passed has no limit. It 
has happened twice before and we have dropped it in conference. 
I do not think that is fair, but I do think that we have to 
have a fair upper limit to what the difference is if we are 
going to pay that automatically when people are called up.
    I hope you will help us find that upper limit. If you can, 
we might come out of this conference with success this year.

                     ADDITIONAL COMMITTEE QUESTIONS

    Thank you all very much. We appreciate your service and 
your testimony here today.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

        Questions Submitted to Lieutenant General H Steven Blum
              Questions Submitted by Senator Thad Cochran

                        GUARD MOBILIZATION SITES

    Question. General Blum, as the regular Army continues to transform 
to the modular force and garrison space at home stations become more of 
a premium, the use of National Guard facilities will increase as 
reserve component units are mobilized for deployments. Critical to 
mobilization is having the necessary infrastructure to support all 
aspects of mobilization, especially medical screening and training 
facilities.
    Is the Army providing the necessary funding to ensure that key 
mobilization sites are resources to support units preparing to deploy 
in support of the Global War on Terrorism?
    Answer. The Army continues to provide adequate funds to resource 
mobilization sites to ensure our soldiers are receiving the very best 
training possible prior to being deployed in harms way. Typically, Army 
National Guard mobilization site funding requirements are validated by 
their respective Continental U.S. Army and Forces Command 
representatives. After the requirements have been validated, the 
Continental U.S. Army and Forces Command organizations provide the 
approved funding. As we utilize these sites more in the future, we need 
to consider long term Military Construction investments.
    The Army National Guard programmed $284 million in the Future Years 
Defense Plan that will provide facilities such as barracks, maintenance 
facilities, dining facilities, and unit administrative facilities. 
These programmed projects will directly support our mobilizations 
sites. Moreover, we have worked with the Army to establish an 
Operational Readiness Training Complex model to enable our training and 
deployment capabilities of our mobilization sites. The monies we have 
programmed can be indirectly associated with the Operational Readiness 
Training Complex model.

                      RESERVE SOLDIERS EMPLOYMENT

    Question. General Blum, recently there have been several news 
articles citing examples of employers not allowing reserve soldiers 
coming back from deployment to return to their jobs. This is especially 
troubling in light of the debate about the overuse of the reserve 
component, and the challenges with meeting recruiting and retention 
goals.
    How prevalent of a problem is this, and specifically, how many 
soldiers and airmen are being denied their right to return to their 
jobs?
    Answer. There are not a significant number of soldiers and airmen 
who are being denied their rights to return to their jobs at this time. 
The majority of service members return to their place of employment 
with little or no problem. In calendar year 2004, the Nation called 
76,952 Army National Guard and 33,397 Air National Guard men and women 
to federal active duty. Of these, the National Committee for Employer 
Support of the Guard and Reserve (ESGR) show less that 2,100 with 
employment or reemployment incidents that required mediation (1,500 for 
the Army National Guard and 500 for the Air National Guard). That is 
0.02 percent of our mobilized population. Of that group, only 2 percent 
reported being denied the right to return to work. ESGR resolves such 
problem via its Ombudsman Volunteers. Using education and mediation, 
these volunteers resolve 95 percent of all cases. Those that cannot be 
resolved are referred to the Department of Labor for formal 
investigation.
    ESGR is the Department of Defense's outreach agency whose mission 
is to educated employers about their legal requirements under the 
Uniformed Services Employment and Reemployment Rights Act (USERRA, U.S. 
Code 38, sections 4301-4334). ESGR also provides free ombudsman 
services to our military members and their employers concerning 
employment and reemployment issues.
    Service Members may also seek remediation of possible USERRA 
violations via the Department of Labor (DOL). In its 2004 report to 
congress, DOL reported a total of 440 cases, for all services, 
specifically concerning a refusal to reinstate or reemploy an 
individual following a period of military service.
                                 ______
                                 
       Questions Submitted to Lieutenant General Roger C. Schultz
               Question Submitted by Senator Ted Stevens

                        RECRUITING AND RETENTION

    Question. What recruiting and retention incentives are working well 
for your services and are there any additional authorities you believe 
would be more helpful then what you currently have?
    Answer. The PS bonus of $15,000 and the reenlistment bonus of 
$15,000 both are working extremely well. The ARNG PS recruiting mission 
YTD is 99.3 percent and the retention mission is at 106 percent of YTD 
mission.
    The following are new authorities that we believe would be helpful 
in meeting our fiscal year 2006 recruiting and retention mission:
  --Increase Enlistment NPS Bonus authority to equal that of Active 
        Component;
  --Provide the ARNG with an every Soldier a Recruiter referral bonus 
        of $2,500;
  --Provide AC to RC soldiers a one time $15,000 affiliation bonus;
  --Allow RC prior Service soldiers to receive PS Enlistment bonus;
  --Increase MOS conversion bonus from $2,000 to $4,000 and allow 
        concurrent receipt of bonus;
  --Allow the RC to offer a separate quick ship bonus;
  --Allow flexibility to offer multiple combinations of reenlistment 
        bonus;
  --Allow a variable term retention bonus beyond 16 years of service; 
        and
  --Increase Montgomery GI Bill for SELRES to 50 percent of the AC 
        benefit.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

                         LEFT BEHIND EQUIPMENT

    Question. General Shultz, Mississippi has a proud history of 
contributing to our nation's defense through both the deployment of 
troops and the production of military supplies and equipment. We are 
proud of the 155th Armor Brigade, Mississippi National Guard, which 
deployed to Iraq this past December and January. I understand that many 
reserve component units have redeployed home and left their equipment 
behind for follow-on units.
    Once the 155th Armor Brigade returns from Iraq, will it, along with 
other forces returning home, have the equipment necessary to perform 
future training and missions?
    Answer. The 155th was equipped to deploy with 100 percent of their 
Modified Table of Organization and Equipment (MTOE) requirements as 
well as additional mission required items. Some of that equipment has 
been designated as Stay Behind Equipment (SBE), equipment that will 
remain in theater to assist follow-on reserve or active component units 
is subsequent missions. The SBE typically consists of the following 
equipment: Armored tactical vehicles, newer versions of small arms/
electronics and specified specialty equipment.
    The SBE order from the Department of the Army for the 155th has not 
been published. Once published, the SBE order will articulate the time 
the equipment is expected to remain in theater. Historically, this can 
range from one year to an undisclosed period of time (end of 
hostilities). Assuming the $2.94 billion fiscal year 2006 Army National 
Guard Supplemental is approved, additional items will be fielded to the 
155th Brigade Combat Team in accordance with production and Army 
policies calling for S-3 (approximately 70 percent) at conversion/
employment date and S-1 (approximately 90 percent) at employment date 
plus 24 months. Additional equipment may be funded by other sources.
    Any of that equipment subsequently not deployed (identified as not 
required for the specific mission or available in theater as SBE from 
the unit relieved, such as armored vehicles) was left in CONUS or 
returned from theater without use.
                                 ______
                                 
      Questions Submitted to Lieutenant General Daniel James, III
               Question Submitted by Senator Ted Stevens

                          RECRUITING/RETENTION

    Question. What recruiting and retention incentives are working well 
for your services and are there any additional authorities that you 
believe would be more helpful then what you currently have?
    Answer. The Reserve Component cash bonuses are our most effective 
incentives in today's difficult recruiting and retention environment, 
and the increase in bonus authorities authorized by the Fiscal Year 
2005 National Defense Authorization Act are a big reason for our 
success. However, there are two incentives that we believe could be 
improved to be even more effective. We feel the retraining bonus will 
be critical as we attempt to retain as many members as possible through 
Future Total Force and Base Realignment and Closure. We will be asking 
thousands of members to move and/or retrain and, the current $2,000 
retraining bonus is not a sufficient incentive to ask them to do that. 
We would like to see the retraining bonus increased to $10,000. In 
addition, the reserve affiliation bonus of $50 per month for every 
month remaining on a member's military service obligation, has not 
changed since the late 1980's, while all other incentive programs have 
increased substantially. We would like to see the reserve affiliation 
bonus increased to at least $10,000, to make it a more viable 
recruiting tool for these fully qualified prior service members who 
save us millions in training dollars.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

                          AIR TRAFFIC CONTROL

    Question. General James, I have been informed that the Air National 
Guard has the critical mission of air traffic control in operational 
theaters. I have also been told that the equipment the air traffic 
controllers' use was developed long before many of them was born. Could 
you describe to this committee the efforts the Air Force is taking to 
modernize tactical air traffic control systems for the Air Force and 
the Air Guard? Is the Air Guard making use of the Mobile Approach 
Control System?
    Answer. The primary Air Force deployable Air Traffic Control 
Systems (ATCALS) are the TPN-19 and the MPN-14K. These systems include 
an airport surveillance radar, precision approach radar and operations 
center. The Active Duty Air Force is currently using the TPN-19 and the 
Air National Guard is using the MPN-14K. The MPN-14K was designed and 
purchased in the late 1950s while the TPN-19 was designed and purchased 
in the early 1970s. Both systems have already exceeded their expected 
life-cycle and are reaching unsupportable levels. The Air Force has an 
on-going acquisition program to replace these systems called the Mobile 
Approach Control System (MACS).
    The Air Force has defined a requirement to purchase 18 systems for 
both the Active Duty and Air National Guard. To date, two test units 
and three pre-production systems have been procured. These systems will 
support developmental testing at Duke Field, Florida this summer and 
operational testing in early 2006 at Shaw AFB, South Carolina. 
Additionally, these pre-production units will support training for 
maintenance personnel and air traffic control operators. The remaining 
13 MACS systems will be procured after completion of the operational 
testing. Using these systems, an initial operational capability is 
planned in 2007.
    Funding for the remaining 13 systems was not within the Air Force 
fiscal year 2006 budget. However, the high operations tempo and 
increased use of tactical radar systems to support Operation Enduring 
Freedom and Iraqi Freedom resulted in MACS being elevated to number 
four on the Air Force's fiscal year 2006 Unfunded Priority List. The 
current shortfall is $121 million.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby

                           FUTURE TOTAL FORCE

    Question. General James, Future Total Force (FTF), as currently 
proposed by the Air Force, presents a significant challenge to our 
citizen-airmen because it disproportionably impacts the Air National 
Guard. Currently, the Air National Guard maintains at least one flying 
unit in every state. This structure is a vital component to homeland 
defense. How do you propose securing our homeland or responding to a 
major disaster when no units are available to our Governors because FTF 
has removed them?
    Answer. We recognize the fact that a preponderance of legacy 
aircraft reside in the Air National Guard (ANG) and are now working 
with the Air Force to ensure that the Future Total Force vision does 
not simply mean taking flying missions away from the Air National Guard 
without a viable, meaningful mission to replace it whether it is 
existing legacy aircraft or new emerging missions. We are making every 
effort to work with the Air Force to ensure that we ``bridge the gap'' 
between our divestiture of legacy systems and our stand-up of these new 
and emerging missions.
    In fact, we want to ensure that we retain one of our most valuable 
assets--our high experience base. There will be some changes, but we 
will continue to work with the Air Force to make sure that we minimize 
the loss of the valuable experience resident in the Air National Guard. 
From our perspective, one of the most exciting changes underway is the 
``Community Basing'' concept test in Vermont recently approved for 
implementation by the CSAF and SECAF.
    The Community Basing concept should provide us with a model that we 
can expand to other guard locations. By placing active duty personnel 
at Air National Guard locations, we can take full advantage of the 
experience that resides in the Air Guard and increase our utilization 
across the entire Total Force. As this concept matures, we will be able 
to maintain a dispersion of our ANG forces with their inherent 
Expeditionary Combat Support capability that can be dual-used for 
defense of the homeland and to meet Combatant Commander requirements. 
Our role in defense of the homeland doesn't include just Air 
Sovereignty Alert; we maintain a vast skills base in Expeditionary 
Medical Support to Chemical Biological Radiological Nuclear and High-
yield Explosives Enhanced Response Force Packages (CERFPs), Civil 
Support Teams, secure communications, fire fighting, etc. The Community 
Basing concept is a Future Total Force vehicle that will allow us to 
keep these dual-use skills where they are needed.
    Question. Under the Future Total Force plan, there appears to be a 
significant time lapse between when airframes are removed from a unit, 
and when that same unit would receive a follow-on mission. What do you 
propose to do with those airmen in that timeframe? How are you working 
with the Air Force to solve this problem?
    Answer. The Air National Guard (ANG) agrees that the need exists to 
modernize our force structure and bring online new and emerging 
missions. We are making every effort to work with the Air Force to 
ensure that we ``bridge the gap'' between our divestiture of legacy 
systems and our stand-up of these new and emerging missions. Our 
greatest concern, as you have noted, is ending up in a position where 
we have transferred out of a system prematurely, thereby losing our 
most valuable asset--our experienced guardsmen. As we move forward we 
will continue to keep a watchful eye on the training pipelines for 
these new roles and ensure our guardsmen have adequate access to 
training. In addition, we are working with the Air Force to identify 
adequate resourcing for these new and emerging mission areas. We will 
make every effort to ensure our future guardsmen are equipped and 
trained for their new role.
    Because we await the basing decisions of BRAC 2005, we cannot 
predict with any certainty which units will get which missions, but as 
soon as the BRAC announcements are made, please be assured that the Air 
National Guard will work with the Air Force to make any ANG unit 
transition, if deemed necessary, as smooth as possible.

                              RECRUITMENT

    Question. Recruitment for the National Guard is down. Would you 
agree that removing units from states, therefore forcing Guardsmen to 
travel long distances for drill weekends, will only hurt recruitment? 
Do you have any plan as to how you will combat this problem?
    Answer. Yes, recruiting is currently down in the Air National 
Guard, specifically Non-prior service (NPS) recruiting.
    We do understand that removing units from states will not only 
affect recruiting, but retention as well. As we transition through 
Future Total Force and Base Realignment and Closure, we will be asking 
our members to move, retrain into another career field, or leave 
earlier than expected. We do anticipate some unexpected losses, thus 
having to recruit to these losses. However, we must move forward with 
these transitions to new missions to not only remain relevant, but to 
also support the war fighter of the future.
    Our plan to combat this potential problem is to use all the 
personnel force management tools available, to include incentives, 
transition authorities, and training opportunities. Additionally, 
leadership will undoubtedly play a large role in the transition to new 
missions. We will continue to take great care of our members, as we 
have in the past. We have always had one of the best retention rates 
and plan to keep it that way.

                           FUTURE TOTAL FORCE

    Question. It is my understanding that the Guard will lose 60 
percent of their airframes due to the newer F-22 and JSF coming on-
line. In the past, both the Air Force and Guard leadership have stated 
that due to FTF, end strength won't be reduced. However, if there are 
fewer planes, and therefore less flight time for the same amount of 
Guard personnel, what will these Guardsmen being doing? Do you really 
believe a trained pilot or maintainer would happily take a desk job?
    Answer. We recognize the fact that a preponderance of legacy 
aircraft reside in the Air National Guard (ANG) and are now working 
with the Air Force to ensure that the Future Total Force vision does 
not simply mean taking flying missions away from the Air National Guard 
without a viable, meaningful mission to replace it. As previously 
stated, we are making every effort to work with the Air Force to ensure 
that we ``bridge the gap'' between our divestiture of legacy systems 
and our stand-up of these new and emerging missions. As we move forward 
we need to continue to keep a watchful eye on the training pipelines 
for these new roles and ensure our guardsmen have adequate access to 
training. In addition, we are working with the Air Force to identify 
adequate resourcing for these new and emerging mission areas. Through 
the addition of new and emerging missions, as well as, the increased 
crew ratios and new organizational constructs, we believe all of our 
guardsmen will be key players in relevant missions well into the 
future.
    To remain a key part of the Air Expeditionary Force and provide for 
the Air Defense of the Homeland, it will be necessary for the United 
States Air Force to continue cascading existing modern aircraft and 
ensure the Air National Guard is also participant in new aircraft.
    There will be some changes, but we will continue to work with the 
Air Force to make sure that we minimize the loss of the valuable 
experience resident in the Air National Guard. From our perspective, 
one of the most exciting changes underway is the ``Community Basing'' 
concept test in Vermont recently approved for implementation by the 
CSAF and SECAF.
    The Community Basing concept should provide us with a model that we 
can expand to other guard locations. By placing active duty personnel 
at Air National Guard locations, we can take full advantage of the 
experience that resides in the Air Guard and increase our utilization 
across the entire Total Force.

                                Reserves

STATEMENT OF LIEUTENANT GENERAL JAMES R. HELMLY, CHIEF 
            AND COMMANDER, ARMY RESERVES, UNITED STATES 
            ARMY
    Senator Stevens. Let us now hear from the commanders of the 
Reserve forces: Lieutenant General James Helmly, Chief of the 
Army Reserve; Vice Admiral John Cotton, the Chief of the Naval 
Reserve; General Dennis McCarthy, Commander of the Marine Force 
Reserve; and Lieutenant General John Bradley, Chief of the Air 
Force Reserve.
    We welcome you, gentlemen. General Bradley, you are making 
your first appearance before the subcommittee. We welcome you 
and look forward to hearing from you. We also acknowledge, 
General McCarthy, that this is your last statement before us. I 
understand you have had 38 years in the Marine Corps and we 
wish you the best for the future.
    I must say to you, you have seen the subcommittee has sort 
of disappeared. They are on the floor and there are several 
amendments pending, as I have said before, that affect this 
panel and this hearing. But I do wish to have your statements.
    By the way, all the statements that are presented today by 
the general officers will appear in the record as though read.
    I welcome whatever statements you all would like to make 
here this morning. I do not know whether any of my colleagues 
will come back. I may be called to the floor to vote before you 
are finished. But let me ask, who will open this? General 
Helmly.
    General Helmly. Sir, the Army is the senior service. We 
will be happy to oblige.
    Sir, I am Ron Helmly. I am an American soldier and it is 
with great professional pride and personal humility that I come 
before you today to discuss the posture of our Army Reserve 
with my fellow chiefs of Reserve components. Let me state first 
that I am proud to be in their company as well.
    One thing. While we are, as was noted earlier, 
institutionally charged in law separately, funded separately, 
and we do different things for our services, the facts are that 
we are blessed with an exceptionally strong joint team, not 
only across the components but also across the services. So it 
is a distinct privilege for me to serve with these gentlemen to 
my left.
    I am also privileged this morning to introduce two of our 
soldiers: Captain Damon A. Garner and Sergeant First Class 
James J. Martin. They represent the centerpiece of our 
formation across all components of our services, our people, 
our uniformed members and in turn their families, and our 
civilian employees.

                           PREPARED STATEMENT

    I look forward to your questions during the course of the 
hearing. Thank you for allowing us to be with you this morning.
    [The statement follows:]

        Prepared Statement of Lieutenant General James R. Helmly

    The Purpose of the Army Reserve ``. . . to provide trained units 
and qualified persons available for active duty in the armed forces, in 
time of war or national emergency, and at such other times as the 
national security may require, to fill the needs of the armed forces 
whenever more units and persons are needed than are in the regular 
components.''----Title 10 USC, subsection 10102
    ``. . . The Army isn't just an ordinary institution, it's a great 
institution with an unparalleled set of enduring core values, a long, 
rich tradition, and a demonstrated ability to change and adapt to new 
situations . . . We must . . . develop a future force that is better 
able to meet the challenge of our security environment by transforming 
the way the Army fights and the way it does business . . . We will keep 
the best of the past, while transforming to be better able to meet the 
challenge of the future.''----Secretary of the Army Francis J. Harvey, 
Welcome Ceremony, December 6, 2004

                  RECOGNIZING THE NECESSITY FOR CHANGE

Dual Missions for Citizen-Warriors
    We are your Army Reserve. We are waging two battles simultaneously. 
First, we are 205,000 Citizen-Soldiers, serving with our Army at war, 
an integral and complementary part of our Army's capabilities, 
decisively engaged with the Army in joint and expeditionary operations 
around the world. In all, about 130,000 Army Reserve Soldiers have 
served on active duty since 2001, waging the Global War on Terror, and 
deploying in support of Operations Noble Eagle, Enduring Freedom, and 
Iraqi Freedom. We are an integral component of the world's best army, 
complementing the joint force with skill-rich capabilities. 
Simultaneously, we are an Army Reserve decisively engaged in the 
process of change, transforming itself to better meet the challenges of 
the 21st century and beyond. We are reinventing ourselves as Warriors 
even as we fight the war. The change is essential and profound, of a 
scope unprecedented in our history.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

A Smaller Army: an Army Reserve Refocusing
    After nearly 50 years of Cold War and a victory, our Armed Forces 
were reduced in size--our active duty Armed Forces by 33 percent; our 
Army Reserve force by 36 percent. Throughout these reductions, The Army 
essentially remained a smaller version of its Cold-War self, still 
oriented on large-scale, maneuver warfare appropriate to a campaign in 
the Fulda Gap and to Armageddon on the plains of Germany. Post-Cold War 
campaigns taught us that the wars of the 21st century would be a 
different item altogether. Future, regional conflicts would not be 
fought on open plains, by superpowers' massed armored formations, but 
by smaller units maneuvering their way though devastated urban areas 
and congested villages of the third world. Local warlords and strongmen 
with private militias would replace regular forces as adversaries. 
Speed, mobility, agility, and the correlation of forces became 
ascendant military virtues. An expeditionary force (Active and Reserve) 
would be the weapon of necessity to fight our country's battles, while 
essentially retaining campaign qualities. The roles of intelligence, 
special operations, psychological operations, and civil affairs forces 
were moving to center stage and beginning to expand and proliferate. 
Moreover, the fact that after Operations Desert Shield/Storm, Reserve 
component support had leveled off and was maintaining a steady-state of 
about 12.5 million mandays per year (up from an average of less than a 
million mandays per year in the mid-eighties), raised some very 
interesting issues about overall force balance for Total Force 
planners. Things were changing profoundly, indeed.
    During this period, the Army Reserve, reacting to these reductions 
realigned its internal command and control structure. Smaller commands 
were folded into one another wherever possible to increase command 
efficiency and reduce the size of the force structure. Command 
boundaries were redrawn and aligned with existing federal 
administrative regions to improve emergency planning, coordination, and 
response. Economies of scale and focus were achieved, while enhancing 
responsiveness and flexibility. All of this took place before September 
11, 2001. Then the world changed.
Filled With a Terrible Resolve
    In the wake of the attacks of September 11th, came the Global War 
on Terror, and Operations Enduring Eagle, Enduring Freedom, and Iraqi 
Freedom. The reduced Army and its smaller Reserve components were at 
war, and the system was being stressed. The need to change radically 
the operational paradigms of the Army and its Reserve components became 
ever more apparent. The Army leadership embarked on an ambitious and 
far-reaching program of change intended to redefine, realign, 
rebalance, and refocus the force to meet the new realities of the 21st 
century and beyond. The focus and expectations had changed because the 
realities of war had changed.
    In a time of war when there were no secure rear areas, the Army's 
Chief of Staff declared that every Soldier would be a rifleman, a 
Warrior. The twenty-first century Reserve Soldier would become a new 
model Citizen-Warrior, who, though he would remain a citizen first and 
foremost, would always be a Warrior. Operations Enduring Freedom and 
Iraqi Freedom tested the mettle of these Warriors.
    At the same time, long-accepted Cold-War planning assumptions and 
expectations concerning duration of operations required continuous 
adjustment and recalculation to accommodate a period in which offensive 
operations had widely ceased, but in which counter-insurgency, combat, 
pacification and stability intermeshed in high tempo. Rotation 
timetables and troop levels were subject to frequent adjustments. 
Predictability was becoming a morale issue, and the potential adequacy 
of available troop levels was also being questioned in light of 
foreseen and developing strength management shortfalls. The problem was 
institutional.
    The management problems that were emerging were clearly tied to 
obsolete, Cold-War models, based upon legacy force structure, personnel 
management and policy, and operational responses to unconventional and 
asymmetrical military threats. The key to meeting this challenge would 
have to be the development of a coherent and integrated plan that would 
change Army Reserve force structure, manpower planning training, 
equipping, and employment policies, and merge the results into an 
entirely new approach to future combat operations. Transformation and 
change were recognized not as processes separate from fighting the war 
on terror, but as necessary preconditions to successfully waging the 
war. Change became a strategic imperative.

                       EMBRACING PROFOUND CHANGE

A Catalyst for Change
    The Federal Reserve Restructuring Initiative (FRRI).--In 2003, the 
Army Reserve, having assessed its organization and many of its legacy 
management policies, began implementing the FRRI, an integrated 
structural and manpower reorganization program that would realign force 
structure, and focus assets, resources, and policies on improving 
wartime readiness rather than peacetime, organizational-support 
missions. The project was an ambitious one that sought to remedy a 
hollow force and its inherent lack of readiness; build rotational depth 
into the force; create a command and control system that produced 
active duty-ready Soldiers and units; and established Soldier lifecycle 
management. It realigned support commands to focus their efforts on 
mobilization readiness rather than peacetime operations. It introduced 
a Reserve human resources lifecycle management system that offered 
personalized, centralized management, scheduled professional 
development education, facilitated assignments among all portions of 
the Selected Reserve. It developed leaders, and fully manned and 
resourced the Reserve structure. In sum, the FRRI prepared the way for 
many personnel and force management features that support change and 
the Army Reserve Expeditionary Force (AREF).
Mobilization Issues
    One other issue that the FRRI addressed was the mobilization 
system. During the Cold War, mobilized Army Reserve units were 
typically sequenced to flow in a prescribed order at a modest readiness 
level. Preparation and qualification time were built into an alert-
mobilize-train-deploy model, that was linear and rigidly sequential in 
nature. This system protected unit integrity and presupposed extensive 
post-mobilization training and that unit sets of mission-essential 
equipment would also be issued after mobilization. The old system also 
provided predictability in the process and a minimum of 30+ days from 
alert to mobilization. Partial mobilization authority allowed for a 
full year or more of employment in theater.
    During the Bosnia and Kosovo period, Presidential Selected Reserve 
call-up authority was used to call up smaller numbers of Soldiers in 
accordance with the old model. However, because total Army Reserve 
requirements were relatively modest, we did not reach deep into the 
force and exhaust any one set of skill capabilities. The old system 
held up--for the time being.
Even as We Speak
    Current mobilization practice (the new model) is built around 
combatant commanders' requests for forces (RFF) and deployment orders 
(DEPORDs). Typically RFFs could consist of as little as one Soldier or 
range up to an entire unit. (Fifty-two percent of the Army Reserve's 
mobilizations under OEF and OIF have been for 6 Soldiers or less.) 
Typically, multiple RFFs are made and each element is placed on alert. 
Some have received short-fused DEPORDs in as few as a couple of days, 
while other elements have been left on alert awaiting orders for 
months. There has been little predictability in the process as required 
forces have been deployed from virtually anywhere on our troop list. A 
much higher deployment criterion was regularly called for, and this 
required the Army Reserve to perform extensive reassignment of Soldiers 
and realignment of equipment. Today, on average, 35 percent of the 
Soldiers in a deploying unit are reassigned from elsewhere. This has 
presented us with an extremely difficult challenge--manage the current 
mobilization process to keep it from breaking the readiness of not-yet-
alerted units. These remaining units will be needed later in the 
warfight and, if ``cherry-picked,'' will not be able to reach 
deployment standards themselves without additional personnel 
reassignments.

                     TOWARD AN EXPEDITIONARY FUTURE

The Army Reserve Rotational Concept and the AREF
    The centerpiece of the Army Reserve's change to the future is its 
expeditionary force packages, an integrated rotational model that grows 
out of the Army's efforts to transform itself and restructure its 
forces to remain relevant and responsive in an era of uncertainty and 
change.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Army Reserve Expeditionary Force (AREF) synchronizes Army 
Reserve structures, programs, and operations to sustain responsive, 
effective and available support of the Army mission. The AREF is a 
major institutional response to the changing nature of war, and a 
significant departure from historical Army mobilization and management 
models that had not contemplated sustained Reserve deployments as an 
essential feature of military campaigns. It supports the Army's concept 
of modularity, and the brigade combat teams that are organized under 
that concept to be more readily deployable and more capable of meeting 
combatant commanders' needs. The AREF is intended to make the Army 
Reserve's provision of campaign quality combat support and combat 
service support forces to the combatant commanders more sustainable.
AREF: the Lynchpin of Army Reserve Readiness
    In August 2003, the Army Reserve, building upon the Federal Reserve 
Restructuring Initiative, and Active component expeditionary 
structures, began to refine and implement a complementary expeditionary 
support force concept. The Army Reserve Expeditionary Force (AREF), 
which itself reflects and complements Active component management 
models, provides available and ready Army Reserve Soldiers, and 
synchronizes Army Reserve equipping and training cycles to develop and 
sustain the readiness of Reserve component forces required to support 
Active Army formations, readiness, and operations.
    The Global War on Terror was as much as any other single factor, 
responsible for the development of the Army's expeditionary force 
concept and its Army Reserve counterpart, the AREF. The protracted 
nature of the GWOT as well as the heavy investment in equipment 
required to carry it out, mandated that certain planning factors had to 
be addressed for the long term if the war on terror was to be waged 
successfully. The expeditionary force concept is a solution to that 
problem. It allows a force of limited size to sustain a campaign for a 
long, if not indefinite period, by cycling its limited, though 
renewable, assets and resources through a synchronized, progressive, 
and focused schedule of deployments, engagements, and regeneration, 
refit, and retraining to achieve serial, selective readiness.
    When we speak of assets and resources, we mean the personnel, 
equipment, and training needed for units to be campaign-ready when 
required for a predetermined period. In this case, we mean an 
institutional goal of units capable of deploying to the theater of 
operations for 9 months on 120 hours' notice every 5 years. We must 
generate the force; equip the force; and train the force to achieve 
adequate campaign readiness. We are focusing our efforts and assets on 
these areas in turn as the constituent units of the AREF move through 
their service cycles.
    The Army Reserve will provide units supporting Army Expeditionary 
Force Packages (AREP), consisting of trained and progressively 
mobilization-ready forces. The first two expeditionary packages (AREP) 
are expected to be ready for deployment in the fall of 2005. Army 
Reserve expeditionary packages will contain a number of units, each of 
which will move through a progressive readiness cycle. In a steady 
state, each Army Reserve expeditionary package has a planned activation 
period of 270 days to capitalize on the Presidential Reserve call-up 
with 6-7 months' ``boots on the ground.'' The goal is a package 
rotation of one deployment in five years. Our analysis indicates that 
single-package availability to the combatant commands is sustainable 
over an indefinite period of time. In a surge state, the Army Reserve 
can make available up to 4 packages (roughly 40 percent of our force) 
for a limited period. Based on surveys from both in-theater and 
recently returned Soldiers, the Army Reserve believes this new strategy 
is sustainable over the long term. ``Transformation and change were 
recognized not as processes separate from fighting the war on terror, 
but as necessary preconditions to successfully waging the war.''
    The benefits of these new training and equipping strategies to the 
Army are many. Most notably, they allow the Army Reserve to provide 
fully trained and equipped units and Soldiers, while reducing the need 
to reassign personnel and equipment upon receipt of mobilization 
orders. These strategies also position the Army Reserve for 
transformation to support the modular force structure of the Army.

                          GENERATING THE FORCE

The New Force
    The all-volunteer Army is required by its nature to constantly 
regenerate itself quantitatively and qualitatively if it is to survive. 
As with any living entity, it must change to accommodate external 
forces and events that impinge upon it and its mission. In the face of 
external change, the Army Reserve is restructuring its forces and 
rebalancing its skill inventories to support the Army Reserve 
Expeditionary Force. It also seeks to provide sustainability and 
predictability in mobilization and utilization of Reserve forces (while 
avoiding wholesale cross-leveling and its inevitable results). At the 
same time, we want to improve management efficiency, and focus training 
on skills and specialties required by the combatant commanders. These 
force-generation changes mirror similar major initiatives throughout 
the rest of the Army. Because they are being pursued concurrently while 
we are at war, they are complex, intricate, time-consuming, and 
dynamic; but once completed, they will enable us to remain engaged as 
an integral, complementary, participant in an expeditionary army with 
campaign qualities. As we noted earlier, they are an essential 
precondition to winning the war on terror.
Restructuring the Force
    Significant changes originally undertaken as a part of the Federal 
Reserve Restructuring Initiative remain central to the Army Reserve's 
strategic vision for regenerating and transforming its command and 
control force structure. In keeping with the National Defense Strategy, 
the National Military Strategy, OSD's comprehensive review of Reserve 
Component Contributions to National Defense, and the strategic global 
military environment, these changes provide the basis and rationale for 
moving from the older Army Reserve regional support commands, to 
operationally deployable commands. Peacetime command and control has 
been replaced with wartime readiness.
Optimizing the Force
    The Army Reserve's Citizen-Soldiers have been continuously 
mobilized since 1995. Prior to September 11th, the annual manday usage 
for the Reserve components had leveled off at a steady state of about 
12.5 million per year (the equivalent of more that two traditional Army 
divisions). From the very beginning of the Global War on Terror, we 
have known that it would be a long war that had to be sustainable in 
order to be won. Because many of our military formations were 
misaligned to meet the current threat, our legacy force structure was 
being stressed in ways that we had not anticipated by missions that we 
had not contemplated (or if we did envision them, we did not foresee 
the degree and frequency to which they now occurred). This was 
particularly true in some military specialties that were assigned 
entirely or nearly so to the Reserve components. Military police, 
transportation, petroleum and water distribution, civil affairs and 
psychological operations units were among those finding themselves 
spread thin by heavier-than-anticipated demands for their specialized 
support services. They had been aligned for a different war than we 
were now fighting, a war based on a whole other set of operational 
assumptions that were no longer useful and functional. As a result, 
these units were experiencing sufficient stress to potentially 
challenge our ability to sustain the long push needed to bring the 
second Gulf War and the Global War on Terror to successful conclusions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Based upon an analysis ordered by the Secretary of Defense, the 
military services undertook a comprehensive assessment of their forces 
and components, seeking ways to relieve the stress on certain high-
demand-low-density units, particularly those that are found primarily 
in the Reserve components. ``Optimizing'' is intended to refocus Total 
Army assets on current and emerging missions. It will allow us to trim 
away low-demand force structure and convert it to directly usable 
forces to meet missions that would otherwise require more frequent 
repetitive mobilizations and deployments. More than 100,000 Active, 
Army National Guard, and Army Reserve spaces have been earmarked for 
restructuring and in some cases elimination between 2004 and 2011 as 
Cold-War over-structure. Specifically, the intent of optimizing is to
  --Develop a flexible, modular force structure with a proper force mix 
        and depth to sustain homeland defense, major combat operations, 
        smaller-scale contingencies, stability operations, and other 
        requirements of our defense strategy.
  --Optimize the Army's ability to respond with a predominantly AC 
        force within the first 15 days of an operation and ensure 
        sufficient AC-RC force structure depth to sustain and support 
        both operational rotations and contingencies.
  --Develop plans to fully man Active and Reserve component units and 
        improve the readiness of all our formations.
  --Resource high-demand unit requirements by eliminating less-utilized 
        force structure and capabilities.
    Optimizing paves the path to modularity, stability, and 
predictability. It successfully regenerates and restructures the force, 
creating a flexible, modular Army Reserve that provides stability and 
predictability for our Soldiers, their families, communities and 
employers. This initiative will result in a rapid and responsive, 
campaign-quality Army, while maintaining the depth necessary to meet 
any threat across the full spectrum of conflict. We will eliminate 
unnecessary Cold-War over-structure to pay the bill; there will be no 
reduction in the number of Soldiers. Sustained operations will be the 
norm for the future, so we must optimize our capabilities to meet this 
reality.
    Our formations must be relevant to the defense and military 
strategies--modular, interoperable, and agile. They will optimize our 
capabilities and sustainability by expanding in specialties that are 
most in demand. We remain convinced that manning our forces at 100 
percent will increase readiness and reduce turbulence for Soldiers and 
their units. We further believe that building rotational-based, modular 
force packages will provide predictability and sustainability for 
Soldiers in the Army Reserve.
The Army Modular Force
    Closely aligned to these force structure changes is the issue of 
the Army Modular Force. The Army has historically favored mobilizing 
its assets as discrete units. This practice helps ensure unit 
efficiency and morale as well as effectiveness by allowing Soldiers who 
have trained and worked together to be mobilized and to serve together. 
One of the lessons of the campaigns of the last 15 years is that our 
traditional NATO/Cold-War divisional structure is no longer optimal for 
the nature of the wars we are now fighting. Expeditionary formations 
must be smaller, more adaptable, and provide combatant commanders 
greater flexibility when they task organize their forces to meet 
emerging threats and evolving situations. The intent is to develop 
interchangeable units (modules) that can be assigned with a minimum of 
cross-leveling of assets, across a spectrum of task-organized forces in 
what the Army calls its ``plug and play'' mode. All of the components 
of the Army share this organizational imperative. The Army Reserve is 
incorporating this principle in its restructuring and rebalancing 
initiatives, and has allocated 30,000 spaces to support modularization 
of its force.

                  FORCE GENERATION MANAGEMENT PROGRAMS

The Test
    When we discuss ``generating the force,'' we address issues that 
range from recruiting and retention and the tools associated with those 
functions, to the broader topic of human resource management and its 
supporting programs and policies. Ultimately, the issue is people--
attracting, retaining, and managing the best, most motivated and 
qualified people and Soldiers we can to make up our Army and its Army 
Reserve.
    The Global War on Terror is the first real test of our all-
volunteer force. It will sorely try the soul of our Armed Forces and 
our ability to recruit, retain, and manage the human resources we need 
to defend ourselves and our interests over time.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Recruiting and Retention
    The Army Reserve has been working very hard to meet its programmed 
manpower goals. The challenges that we face in this area have caused us 
to reconsider our historic approach to manpower recruiting and 
management. We recognized the need to take more active steps toward 
meeting our Soldiers' needs and structuring their careers. While our 
level of success in this endeavor remains to be seen, the array of 
initiatives and incentives to service that we have developed with the 
help of the Army and the Congress bodes well for the future. Among 
these initiatives are the following:
  --Expanded Recruiting Force--we have reassigned 734 more Active Guard 
        and Reserve (AGR) NCOs to the USAR recruiting force. This 
        brings our recruiting force total to nearly 1,800.
  --Incentives--During the preparation of the fiscal year 2005 National 
        Defense Authorization Act, we worked closely with members of 
        the congressional oversight committees to improve the 
        attractiveness of the Selective Reserve Incentive Program, 
        enhance prior-service enlistment and reenlistment bonuses, and 
        establish a $6,000 officer accession bonus.
  --For our own part, we have moved aggressively to
    --Realign Individual Ready Reserve and troop program unit mission 
            responsibilities to increase retention.
    --Place 49 recruiting NCOs at transition points to work with 
            Soldiers leaving the Active Army and help them find units 
            to continue serving the nation.
    --Resource the start-up costs for the 734 new AGR recruiters.
    --Realign funding to support increased bonuses and program 
            enhancements.
    --Increase funding support for national and local advertising.
Officer Recruiting
    Currently, Army Reserve troop program units reflect a shortage of 
company grade officers. The Army is taking the following actions to 
remedy this shortfall:
  --We have increased officer accessions into the Army Reserve. U.S. 
        Army Cadet Command now has a formal mission for Reserve 
        Officers Training Corps (ROTC) for 670 cadets a year. In 
        February 2005, we also implemented the officer accession and 
        affiliation bonuses that were authorized in the fiscal year 
        2005 National Defense Authorization Act (NDAA). These tools 
        will enable us to attract more officers to serve in the Army 
        Reserve and will help us with our accession mission.
  --We have implemented the Army Reserve Green to Gold pilot program 
        and plans are being made for its expansion. The Green to Gold 
        program, which began at the University of Pittsburgh and now 
        has been expanded to six universities, is managed by the 80th 
        War Division (institutional training). Army Reserve-wide there 
        are approximately 35,000 enlisted service members who meet 
        minimum requirements for appointment as commissioned officers.
  --Active component and National Guard officer candidate schools 
        remain a strong venue for appointment of company grade 
        officers.
  --Direct appointment remains a strong commissioning source.
  --The Army has also implemented several initiatives that will greatly 
        improve the retention of our junior officers. Some of the 
        initiatives include: (1) We've increased the number of officer 
        basic course training seats and are reducing the time it takes 
        for a reserve officer to get to training; (2) we are now 
        assigning newly commissioned officers directly to a troop unit 
        rather than to the Individual Ready Reserve; (3) we've 
        streamlined promotions to first lieutenant and changed 
        promotion policy for centralized promotion boards. These 
        changes will enable us to increase retention while improving 
        readiness.
Medical Officer Recruiting
    The Army Medical Department (AMEDD) continues to be mindful of the 
challenges to the recruiting of medical professionals. We have taken 
active steps to address challenges and will continue to monitor these 
numbers to determine if additional changes are required. One of the 
most frequently cited barriers to effective AMEDD recruiting is 
repeated mobilizations. To address this we have implemented the 90-day 
boots-on-the-ground program for many critical, hard-to-recruit medical 
positions This change, which allows shorter deployments, was developed 
from input from our Reserve component AMEDD personnel, and today we 
believe it is successful. However, we will continue to monitor these 
types of challenges to ensure we maintain a ready force and will 
continue to work with AMEDD recruiters to develop initiatives tailored 
to meet current and emerging requirements.
Individual Augmentation Program
    One of the significant force-generation challenges the Army Reserve 
faces is the large number of taskings to provide the Army with 
individual Soldiers, or small, nontask-organized groups of individuals 
to fill specific individual mobilization requirements. To fill these 
requests, the Army Reserve has typically had to mobilize groups of six 
or less Soldiers, making personnel tracking and accountability 
extremely difficult. To re-engineer and streamline the individual 
mobilization process and improve accountability, we established the 
United States Army Reserve Command Augmentation Unit (UAU) as a holding 
element for individual mobilized Soldiers.
    Soldiers living in areas without a unit that supports their MOS or 
grade may be assigned to the UAU and attached to a troop unit near 
their home of record for training. Individual Augmentees may also 
support force generation requirements by being temporarily attached to 
fill critical MOS/grade shortfalls in mobilizing Army Reserve units.
    Currently there are more than 7,500 Army Reserve Soldiers 
registered in the IA Program Volunteer database.
    Since October 2003, the IA Program has provided approximately 1,200 
volunteers to fill individual augmentee mobilizations, replacement 
operations, World-wide Individual Augmentee System requirements, or be 
cross-leveled to fill critical military occupational specialties in 
deploying units.
Full-Time Support
    The Army Reserve is a full partner in Army transformation, the 
Global War on Terror, and support for ongoing strategic operations in 
Iraq and other parts of the world. Full-time support (FTS) levels 
directly affect all facets of force generation and unit readiness--
personnel, training, and equipment--by providing the core expertise and 
continuity required to effectively prepare for and efficiently 
transition to war. The Congress has long recognized that adequate 
levels of full-time support, both Active Guard and Reserve (AGR) and 
military technicians (MILTECHs), are essential for units to attain and 
maintain the heightened levels of mobilization readiness demanded the 
Global War on Terror and ongoing strategic operations.
    The current FTS ramps for AGRs and MILTECHs, established in January 
2001 by the Army, in cooperation with the Army Reserve and the Army 
National Guard, were designed to gradually achieve minimum essential 
resource levels (73 percent of requirements) in support of RC unit 
readiness.
    The Army Reserve historically has had the lowest FTS percentage of 
any DOD Reserve component, including the Army National Guard, and this 
will still be the case when the current approved ramps reach end-state 
in fiscal year 2010. The fiscal year 2005 DOD average FTS manning level 
is 21 percent of end strength, while the fiscal year 2005 total for the 
Army Reserve is 11.3 percent.
    In fiscal year 2005, the Army Reserve was tasked with additional 
FTS mission requirements above and beyond programmed requirements, 
including:
  --Replacing 223 Active component training advisers (Title 11) to the 
        Reserve components who will be reassigned to support Active 
        component missions.
  --Providing U.S. Army Recruiting Command 734 additional recruiters 
        for fiscal year 2005 and fiscal year 2006.
    In cooperation with the Department of the Army, the Army's Reserve 
components are revalidating their FTS requirements to ensure that 
existing FTS models and support structure remain relevant to current 
missions and the needs of the Soldier. We expect that, as a result of 
this effort, requirements may increase, not decrease. It is imperative 
that the programmed resourcing of full-time support not only be 
maintained, but increased, as the Army Reserve restructures to move to 
a more ready, campaign-capable, and accessible future force.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                   FORCE GENERATION SUPPORT PROGRAMS

Army Reserve Well-Being Program
    As a major element of its long-term force generation plan, the Army 
is formalizing the concept of well-being. The Army Reserve Well-Being 
Program enhances the institutional strength of the Army Reserve through 
a comprehensive strategy that integrates all well-being resources to 
enable Soldiers, civilians, retirees, veterans, and their families to 
become more self-reliant and better able to meet their personal needs 
and aspirations. Army well-being integrates and incorporates existing 
quality of life programs into a framework that supports performance, 
readiness, recruiting, and retention.
    The Army Reserve's well-being program consists of more than 30 
elements. Our goal is to raise awareness and an understanding of the 
relevance of well-being and its impact on Soldiers, civilians, family 
members, and The Army. We are developing strategic communications that 
inform, educate, and engage each Army Reserve well-being constituent. 
The Deployment Cycle Support Program, the Army Reserve Family Program, 
Army Reserve Rear Detachment Operations, and ``Welcome Home, Warrior'' 
program are among the most significant of the initiatives that provide 
force generation support for deployed Soldiers and their families.
            Deployment Cycle Support Program
    The Deployment Cycle Support Program (DCS) supports all Soldiers 
and units undergoing reconstitution upon completing a deployment. It is 
a three-phase program. Phase 1 (redeployment) begins when the unit is 
released from its mission and reports to the rear assembly area in 
theater. Phase 2 (demobilization) involves five days of DCS/
reintegration focus training at the facility from which the unit 
mobilized. Phase 3 (reconstitution) consists of a series of sustainment 
activities at home station.
    Army Reserve units and individual Soldiers (including Individual 
Ready Reserve and Individual Augmentee Soldiers) will return to Reserve 
status as quickly as possible, consistent with mission accomplishment, 
achieving required levels of readiness, and the need to complete key 
DCS tasks.
    The Army Reserve is developing a DCS assistance team to support the 
completion of reconstitution activities at home station. Part of this 
effort will include reinforcement of key information previously 
provided at demobilization stations (e.g., information regarding 
medical and dental entitlements, Veterans Administration services, Army 
Career and Alumni Program (ACAP) services, and family reunion 
workshops). We are developing a DCS program (tools and techniques) to 
ensure that our Soldiers complete all DCS elements, and ensure that 
they have full access to all services throughout their personal 
reintegration.
            Army Reserve Family Program
    Support to Army Reserve Soldiers and their families has been 
paramount to our senior leadership since the beginning of the Global 
War on Terror. The Army Reserve is committed to providing a full range 
of essential support and service to all Soldiers and their families. 
Many initiatives implemented since September 2001 continue to be 
refined as funding becomes available.
    The Army Reserve has nearly 150 full-time and contract family 
program staff members providing essential services to Reserve Soldiers 
and their families. Services are provided through 10 regional readiness 
commands and 26 other general officer commands or separate units in the 
continental United States, the 7th Army Reserve Command in Europe, the 
9th Regional Support Command in Hawaii, and United States Army Civil 
and Psychological Operations Command (Airborne).
    Services provided by Family Program personnel include support and 
assistance to unit leadership. Training programs include the following:
  --Fundamental and Developmental Family Program Academy (FPA). 
        Fundamental training includes the basics that help establish 
        and maintain a viable, functioning family readiness group at 
        the unit level. Developmental FPA training builds on those 
        basics and enhances the participants' capability to sustain and 
        enhance unit family programs.
  --Operation READY (Resources for Educating About Deployment and You) 
        curriculum is a series of training modules, videotapes, and 
        resource books published for the Army as resources for staff in 
        training Army families affected by deployments.
  --Chain of command training is designed to assist the personnel staff 
        from the headquarters through the unit leadership in learning 
        more about the scope of family programs within the Army 
        Reserve.
  --Deployment Cycle Support training provides instruction for unit 
        personnel who assist and manage Soldiers and families during 
        the mobilization, deployment, sustainment, and reunion phases 
        of the deployment cycle.
  --Mobilization/deployment and reunion briefings are provided by 
        family program directors or coordinators at the unit level at 
        the time mobilizations, deployments or reunions occur.
  --Senior Volunteer Resource Instructor (SVRI) training provides 
        initial and advanced training to volunteer instructors who 
        represent the regional readiness command and Army Reserve.
  --The Army Reserve provides direct support to families of Individual 
        Ready Reserve and Individual Augmentation Soldiers. The staff 
        contacts families by telephone within 48 hours of Soldier 
        mobilization and follows up with additional information and 
        points of contact. Assistance and support is currently being 
        provided to 6,400 families.
            Army Reserve Rear Detachment Operations (ARRDO)
    The Army Reserve is reviewing its Rear Detachment Operations 
(ARRDO) procedures to identify systemic problems and develop solutions 
that update current guidance and outline the way ahead.
    Inadequate information flow from forward command elements to rear 
detachment commanders, pay issues, and family support have surfaced as 
continuous challenges for Soldiers.
    Given the magnitude and the unique nature of Army Reserve rear 
detachment operations, full-time support is critical to providing the 
stability to support current and future contingency operations.
Welcome Home Citizen--Warrior Program
    This program is intended to ensure that each returning Citizen-
Warrior understands that his contribution to accomplishing the mission 
and making the homeland more secure for all of our citizens is 
recognized and appreciated by the nation and The Army. The program is a 
vehicle for conveying public recognition and private gratitude that 
might otherwise slip by in the press of demobilization tasks and events 
and the rush to reunite families and friends. Each returning Soldier is 
presented with a shadow-boxed American flag, a Welcome Home, Warrior-
Hero flag, a Soldier and spouse pin set, and a commemorative coin. The 
Soldier and family reactions at these award ceremonies, which are held 
within 30 days of the units' return to home station, have been 
overwhelmingly positive, and suggest that recognition effort is 
sincerely appreciated.
Medical Readiness and Medical Hold Improvements
    The Army Reserve has listened to the concerns of all its Soldiers 
and their families, and we have sought ways to provide the best 
healthcare possible and improve administrative processes for Soldiers 
and their families--before, during, and after mobilization. Since 
combatant commanders need a force that is medically fit and ready, the 
Army Reserve has placed increasing stress on medical readiness.
    During the alert phase, the 90 days of pre-mobilization TRICARE 
benefits authorized in the fiscal year 2004 National Defense 
Authorization Act (NDAA) and made permanent in the fiscal year 2005 
NDAA is used to improve medical readiness of Army Reserve Soldiers. The 
Federal Strategic Health Alliance, also known as (FEDS-HEAL), is a huge 
success story for the Army Reserve. FEDS-HEAL is a joint venture 
between the Army Reserve and the Department of Health and Human 
Services. This unique program utilizes civilian medical and dental 
services across the United States to provide care to Army Reserve 
Soldiers in their neighborhoods. The program allows alerted Soldiers to 
receive required medical and dental services before they arrive at the 
mobilization site so they are medically ready to deploy with their 
units.
    Because of its remarkable effectiveness, the FEDS-HEAL Program has 
expanded eightfold in the past four years, e.g., Army Reserve Soldiers 
received 47,500 dental exams; 20,600 physical exams; 58,100 
immunizations; 3,600 eye exams; and 4,000 dental treatments through 
FEDS-HEAL in fiscal year 2004, a tremendous boost to Army Reserve 
medical readiness.
Mobilized Soldier Pay
    One of the difficulties that Reserve Soldiers have had to deal with 
while mobilized and deployed is pay discrepancies. The Army Reserve has 
worked hard to find effective short- and long-term solutions to these 
problems and to improve pay processing for our troops and their 
families. Pay support for tens of thousands of Army Reserve Soldiers 
deployed worldwide was significantly improved during the past year. 
Major actions to improve pay support include:
  --Reserve Pay Training.--The USAR Pay Center has assumed a vital role 
        in training mobilizing USAR and ARNG finance units. Since April 
        2003, the Army Reserve pay inquiry team has answered over 
        23,000 pay inquires from mobilized Army Reserve Soldiers around 
        the world.
  --Publications and Soldiers' Guides.--The Army Reserve published the 
        ``Army Reserve Finance Guide for Mobilizing Soldiers'' in 
        October 2004, and officials at the U.S. Army Finance Command, 
        in conjunction with the Defense Finance and Accounting Service 
        (DFAS), the Army Reserve, and the Army National Guard, have 
        recently published a finance mobilization/demobilization 
        standard operating procedure manual that clearly defines the 
        roles and responsibilities of the various pay offices involved 
        throughout all phases of a Soldier's mobilization.
  --Automated Mob Pay Transactions.--The Army Reserve has developed 
        software applications to improve the timeliness and accuracy of 
        mobilization pay. One application allows units to initiate 
        mobilization pay and entitlements for Soldiers prior to their 
        reporting to the mobilization station. Additionally, it reduces 
        the amount of manual pay entitlement processing at the UPC and 
        the mobilization station. We are also developing and testing 
        software for the Forward Compatible Payroll system. DFAS is 
        currently conducting software acceptance testing and an 
        operational assessment. Once these tests are completed, three 
        Army Reserve units will be serviced in a field test. Current 
        plans call for the rest of the Army to come on board by mid-
        summer 2005.

                          EQUIPPING THE FORCE

The Mother of Invention
    The prolonged nature of the GWOT and the campaigns in Afghanistan 
and Iraq prompted our Army to adopt an expeditionary force structure 
that supports long-term military actions. Our Army's efforts to 
``modularize'' its structure to achieve depth, flexibility, agility, 
and predictability testify to the necessity of such a change in 
strategies. Equipping the resultant expeditionary force requires no 
less effort or innovation.
    One of the lessons learned in the first Gulf War, which has been 
strongly reinforced in the second, is that wars in the deserts of 
Southwest Asia are as hard on equipment as they are on Soldiers. Our 
ability to equip our forces adequately for a prolonged campaign has 
become a major factor in our ability to close that campaign 
successfully.
    For the Army Reserve, this means profound and enduring change in 
the way we do business. Our previous equipping strategy no longer fits 
how we go to war. The Army Reserve faces several challenges in 
equipping--wartime losses, compatibility, modernization, and resources. 
To focus our attention on this critically important aspect of war 
fighting, we have designated 2005 as the ``Year of Equipping'' in the 
Army Reserve.
    Everything is aimed at the units' in the expeditionary packages 
being able to deploy to support contingency operations. Such units must 
have priority of equipment fill when they deploy; however, as a result 
of the heavy equipment wear associated with desert operations, the use 
of stay-behind equipment, and other related issues, it is not possible 
for us to support full equipment issue for all of our units all of the 
time. Rather, we must intensively manage the equipping of our units not 
only in the theater of operations, but also during all of the stages of 
preparation and training leading to deployment to the theater. Using 
this staged process, we can ensure that each Soldier in each unit has 
the equipment he needs when he needs it.
    We are losing equipment that has been destroyed in combat, and our 
aging inventory is wearing out under extremely heavy usage. The Army 
Materiel Command's projections from the theater indicate that battle 
losses and attrition will be as much as 12 percent of the equipment we 
sent to Iraq and Afghanistan. Additionally, to better equip incoming 
units, the Army has directed that a portion of Army Reserve equipment 
remain in theater as Stay-Behind Equipment (SBE). Wartime losses and 
SBE decrease equipment available for training for Army Reserve units 
preparing for deployment, homeland defense, or other contingency 
requirements.
    Because the Army Reserve is 75 percent equipped to its authorized 
levels, and due to equipment losses, we must take extreme care of what 
we have available. Sustaining on-hand equipment is resource intensive 
and places great demand on Operations and Maintenance accounts. The 
Depot Maintenance Program is the Army Reserve's strategic sustainment 
base, and its only source to fully recondition, overhaul, and rebuild 
equipment to meet subsequent readiness requirements. Therefore, it is 
imperative that the Army Reserve maintain its current depot maintenance 
funding levels to meet mobilization equipment requirements, extend 
service life, reduce lifecycle costs, and improve safety for Army 
Reserve Soldiers.
    The National Guard and Reserve Equipment Appropriation (NGREA) are 
essential to the Army Reserve equipping program and over the past five 
years has addressed a number of critical shortfalls. During that time, 
the Army Reserve has received an average of $35 million annually to 
procure additional equipment that would have been impossible to procure 
from our base budget. Although the Army Reserve received $40 million in 
NGREA funding for fiscal year 2005, an equipment shortfall totaling 
more than $1 billion still remains. We are continuing to work with Army 
and OSD leadership to resolve our equipping shortfalls, but additional 
congressional support remains the most viable solution.
New Equipping Strategy
    The Army Reserve is actively working to help itself with equipment 
readiness. We have adopted an equipping strategy that is synchronized 
with the five-year AREF rotation cycle. As units progress through each 
year of the five-year cycle, their state of readiness increases 
incrementally. Units ready to deploy, are at the highest level of 
readiness (Year One). Units reconstituting from a deployment, are at 
the base level of readiness (Year Five). Units that are between 
reconstitution and deployment (Years Two-Four), receive the full 
complement of modernized equipment compatible with AC. This will allow 
Army Reserve units to train with their go-to-war systems prior to 
mobilization and deployment.
    The equipping strategy goes one step further by identifying the 
equipment for the individual Soldier training that is done in Year Five 
and for collective training in Years Two through Four. The Army Reserve 
will rotate this equipment on the five-year AREF cycle through its five 
training readiness platforms in California, Texas, Wisconsin, New 
Jersey, and Arkansas. In Year Four, units will draw minimum-essential-
equipment-for-training sets, which they will use through Year One for 
individual training at home station. Our goal is to fully equip units 
going into a theater of operations.
    There are two important benefits that result from applying these 
equipping strategies. First, reduce the need to cross-level equipment 
upon receipt of mobilization orders. Second, the Army Reserve will 
provide transformed units that are fully interoperable and integrated 
into the Army's modular framework.
    The Army Reserve is also investing aggressively in Depot 
Maintenance and Cascading of equipment. In the Depot Maintenance 
Program, operated by Army Material Command, the Army Reserve is 
overhauling and rebuilding hundreds of aging tractors into the newer 
configuration. In the area of recapitalization, the Army has provided 
the funding to rebuild hundreds of Army Reserve High Mobility Multi-
Purpose Vehicles, Heavy Expanded Mobility Tactical Trucks, and Heavy 
Equipment Transporter Systems.
    Cascading, is the transfer of Active Army equipment to the Reserve 
components and is an essential method of equipping the Army Reserve. By 
cascading, we have integrated hundreds of tactical wheeled vehicles and 
almost a thousand M16A2 rifles into our inventory. We expect that the 
continued cascading of the newer model M16A2 rifles, coupled with NGREA 
funding, to eliminate the over 10,000 older, non-deployable, model 
M16A1 rifles still on-hand. Finally, the Army Reserve has initiated 
equipment conversion programs, such as the gas-to-diesel conversions we 
perform on generators, air compressors, and decontamination equipment. 
The conversion program allows us to be more interoperable with the 
Active force.
    We are continuing to work with the Active Army and OSD leadership 
to resolve our equipping shortfalls, and we appreciate continued 
congressional support of our transformation efforts.

                           TRAINING THE FORCE

Cyclic Training
    The term ``cyclic'' suggests how the Army Reserve will train and 
develop a sustainable force capable of supporting the Joint Force and 
Army requirements. Tied directly to the rotational structure of the 
Army Reserve Expeditionary Force (AREF), cyclic readiness will 
simultaneously establish priorities for resources, synchronized 
readiness levels, and provide predictable training and deployment time 
frames for Army Reserve Soldiers, families, and employers. Cyclic 
readiness reflects a dramatic change in the Army resulting from the 
Global War on Terror and renders many of the manning, equipping, 
modernization, and training models and policies of the past simply 
irrelevant.
    Train-Alert-Deploy.--In the past the Army Reserve used a ``tiered'' 
system of readiness. The assumption was that the Army Reserve would 
have the time after being alerted to resource, train and deploy units 
when they were ready.
    The strategic environment today does not afford us this luxury. The 
Army Reserve is not a supplemental force, but a force complementary to 
the Active Army. Thus, we must be ready to deploy whenever and wherever 
military forces are needed. Further, our force must be ready to deploy 
to support the combatant commander and also to perform homeland defense 
missions in support of civil authorities. Our forces must be ready to 
conduct their missions with very little time for pre-deployment 
training. Therefore, our readiness paradigm has changed from alert-
train-deploy to train-alert-deploy. This means that we must start with 
a firm individual readiness base and devote the resources we have to 
training the Army Reserve Expeditionary Packages (AREPs) to ever higher 
states of collective readiness as they progress through each year of 
their five-year cycle. Our strategy is based on having a full array of 
combat support (CS) and combat service support (CSS) capabilities ready 
and available to the nation.
    Readiness Assessment.--The readiness and training expectations for 
Army Reserve forces are the same as those for the Active component. 
While the standards are the same, the conditions under which the Army 
Reserve prepares for its missions are significantly different. The 
limited ``train, alert, and deploy'' training time for our Citizen-
Soldiers competes with numerous priorities and must be used effectively 
and efficiently.
    Leadership.--The Army Reserve is strengthening its leaders by 
executing the Army Reserve Leadership Campaign Plan. The future Army 
Reserve demands leaders who are self-aware, adaptable and agile, and 
life-long learners. The quality of Army Reserve leadership is the 
foundation for achieving Army Reserve readiness and relevance for the 
21st century. Institutional leader development consists of officer, 
warrant officer, noncommissioned officer, civilian, and MILTECH 
training. The operational aspects of leader development occur in 
company-team leader and pre-command courses (battalion and brigade), 
battle staff simulation exercises, combat training center (CTC) or 
``CTC-like'' events, and culminate in mission-rehearsal exercises. The 
self-development aspects of revitalized leader development include 
improved mentorship programs, a leader development assessment program 
that includes command climate surveys (also part of operational 
experiences), and use of Battle Command Knowledge System (BCKS) 
products.
    Training Support.--The integrated training divisions (ITD) provide 
support to AREF leaders. These ITDs will provide full-spectrum support 
for individual through collective training. All Army Reserve 
organizations are transforming. Separate divisional forces that support 
training (training support and institutional training divisions) are 
becoming integrated training divisions, with some current institutional 
training division capabilities migrating to the 84th Army Reserve 
Readiness Training Command (ARRTC). ITDs provide specialty 
reclassification training as a part of the NCO educational system 
throughout the five-year AREF cycle. In addition, these elements 
provide skill reinforcement and refresher training through the use of 
mobile training teams that partner with ITD collective training support 
organizations. Collective training support elements consist of training 
exercise developers, trained and certified observer/controllers, and 
simulations support elements. The ITDs are multi-component 
organizations composed of Active component, Army National Guard, and 
Army Reserve personnel. Thus, the ITD includes a combination of combat 
arms, combat support, combat service support, and simulations skills 
capable of simultaneously supporting both post-mobilization validation 
(if required) as well as pre-mobilization training support during years 
two and three of the AREF cycle.
    Army Reserve Installations are a vital part of training and 
deployment activities we continue to upgrade and modernize our four 
major installations--Fort Dix, NJ, Fort McCoy, WI, Fort Hunter-Liggett/
Parks Reserve Forces Training Area, CA, and Fort Buchanan, PR. We are 
also partnering with the Army National Guard to provide mutual and 
accessible training areas and ranges for Reserve component units.

                          SHELTERING THE FORCE

More than Bricks and Mortar
    Today, the Army Reserve owns and operates buildings and facilities 
in a thousand communities across the nation. Our Reserve centers are 
frequently the most visible evidence of the presence of our Citizen-
Warriors in their communities. These Reserve centers (many of them 
joint centers, operated with the Reserve components of other services) 
are representative of our Soldiers and the federal government to 
members of the community at large. They speak of us and of our 
commitment to the national defense and our national interests.
    Our training, storage, and maintenance facilities stand as 
reminders of the nobility of service and the duty that all citizens owe 
to their country. They reflect upon our Soldiers' commitment, 
dedication, and professionalism. We are judged to some degree at least 
on the public face that our facilities present to those who see them 
daily and who mark their fortunes by what they see. Citizens who see 
clean, well-maintained, and modern facilities judge their occupants by 
appearances and measure their occupants' professional competence, in 
part, by the impression that these facilities present. Attractive, 
adequate facilities raise our fellow citizens' trust and confidence in 
their Army and its Reserve components.
    In a time when recruiting and retention are challenging our best 
efforts, these facilities can be a great advantage if they tell the 
right story and assure our Soldiers that their leaders are concerned 
about their surroundings and the facilities in which they work and 
train, daily, weekly, monthly, and often at their own expense. Good 
facilities reflect the nation's esteem and priorities and encourage 
good Soldiers to stay with the program and to recruit others to the 
mission that they have themselves undertaken and that is symbolized by 
the facilities in which they train. Modern, uncrowded facilities speak 
eloquently of the investment that the federal government has made in 
the competence, well-being, morale, and dedication of its Citizen-
Warriors. Investment in new Reserve facilities and maintenance and 
restoration of existing facilities are more than bricks and mortar, 
they are strong and indisputable evidence of the nation's recognition 
and gratitude, and the belle-weather of our commitment to our Citizen-
Warriors who train and work within their walls.
    The fiscal year 2006 budget request includes four new Reserve 
training centers and second phases for two others, as well as the first 
phase of an NCO academy and six training ranges. When complete, the 
Reserve centers will support over 2,700 Army Reserve Soldiers, and the 
training ranges will support over 130,000 Soldiers from all Army 
components and other services. These projects are currently under 
design and will be ready for award in fiscal year 2006. We can do more 
if we can do more.

                           READYING THE FORCE

The Cost of Readiness
    A trained and ready Army Reserve is essential to the Army's ability 
to execute the national military and security strategies. Currently the 
Army Reserve is fully engaged in the Global War on Terror, meeting the 
needs of the combatant commanders, transforming, and preparing for 
future mobilizations. Over the past 39 months, the Army Reserve 
mobilized and deployed units at much higher personnel and equipping 
levels than authorized and resourced. All of this has not been without 
cost in resources and readiness.
  --Army Reserve readiness requires adequate resources--specifically in 
        Reserve Personnel, Army (RPA), Operations and Maintenance, Army 
        Reserve (OMAR), and Other Procurement, Army (OPA) funding--to 
        be fully operational, properly maintained, and mission capable.
  --A large number of the Army Reserve's units will be required in 
        follow-on rotations. In order to meet future requirements, the 
        Army Reserve is working with the Active Army and OSD leadership 
        to develop balanced, responsive, and effective strength 
        management policies and programs.
  --The Army Reserve needs support to modernize and re-equip its force 
        in support of a modular Army engaged in the GWOT.

                               CONCLUSION

    The Army Reserve is changing daily as it advances in the Global War 
on Terror. We face a battle with two fronts, each one feeding and 
feeding on, the other. The Global War on Terror drives us to rethink, 
reform, regenerate, and optimize our force so we can carry out our 
mission with greater efficiency and more effectively support the nation 
and the troops who are themselves supporting the same mission. 
Simultaneously, realigned, reset, and re-oriented, our Citizen-Warriors 
cycle through a progression of serial stages of preparation, 
mobilization, deployment, engagement, and regeneration in support of 
the same global campaign that precipitates the cycle. The military and 
political world of the 21st century has changed dramatically and 
exponentially in the past few years and the changes show no hint of 
slowing down. Your Army Reserve continues to perform its vital mission 
under Title 10, USC, providing trained, equipped, and ready individuals 
and forces to meet the nation's military needs. With the help of the 
Congress and our fellow citizens, we will continue to serve as an 
increasingly essential element of our Army and our nation.

    Senator Stevens. Thank you very much, and we welcome you. 
Would you tell me again your names and where did you serve?
    General Helmly. Sir, Captain Damon Martin--I am sorry. 
Captain Damon Garner and Sergeant First Class James Martin. I 
would ask them to stand at this time.
    Senator Stevens. Captain, where did you serve?
    Captain Garner. Iraq, sir.
    Senator Stevens. Very good. How long were you over there?
    Captain Garner. One year, sir.
    Senator Stevens. Sergeant.
    Sergeant Martin. I have been in Schofield Barracks, Hawaii, 
sir, with the infantry, 25th Infantry Division. Also, presently 
I am with the 99th Region Readiness Command (RRC).
    Senator Stevens. Very good. Thank you very much for joining 
us here today. We appreciate it. These hearings are sort of 
difficult when we have the Senate in session, but we are glad 
to have you visit. Thank you very much.
    General Helmly, are you the first?
    General Helmly. Yes, sir.
    Senator Stevens. Admiral Cotton.

STATEMENT OF VICE ADMIRAL JOHN G. COTTON, CHIEF, NAVAL 
            RESERVE, UNITED STATES NAVY
    Admiral Cotton. Good morning, Mr. Chairman. Thanks for this 
opportunity to address everyone.
    The Navy's Reserve component is more ready, responsive, and 
relevant than it has ever been. Last year when I appeared 
before this subcommittee I stressed Active-Reserve integration 
and especially alignment. I would like to say that has 
continued and I am very encouraged by the way that we have 
worked with Navy leadership. We have been blessed by two 
leaders who understand the total force and its importance, 
Secretary of the Navy Gordon England and of course our Chief of 
Naval Operations (CNO), Admiral Vern Clark.
    We have over 23,000 reservists on orders right now 
providing operational support to the fleet, over 4,000 
mobilized, with 3,000 in Central Command providing critical 
support to our operations there. We have worked together 
closely in the past year on all initiatives--BRAC, Quadrennial 
Defense Review, and our budgets. I am proud to say that we are 
acting as a team like never before.
    I look forward to your questions, sir.
    Senator Stevens. Thank you very much.
    [The statement follows:]
           Prepared Statement of Vice Admiral John G. Cotton

                                OPENING

    Mr. Chairman and members of this subcommittee, thank you for the 
opportunity to speak with you today about some of the important changes 
that are happening in the Navy and its Reserve Force, and to give you a 
report on our accomplishments and current state of readiness.
    Last year, Admiral Vern Clark challenged us with the statement, 
``Change to make us better is completely necessary--to make our Navy 
even better and to build the 21st century Navy, and the Reserve is a 
key part of our growth and our future.'' We have met this challenge and 
have attained dramatic improvements, changing our culture and the shape 
of the Force, moving away from an obsolete Cold War construct to one 
that provides the flexible capabilities needed to fight the 
unconventional threats of the 21st century.
    You can't change culture with money; it takes leadership. I want to 
thank this distinguished panel for the leadership demonstrated in 
voting for the 2005 National Defense Authorization Act, which provided 
the legislative basis for the Secretary of the Navy to facilitate 
changing our name from the United States Naval Reserve to the United 
States Navy Reserve. We soon hope to have Presidential approval, and 
are in the process of complying with the provisions of the Act, 
including future submission of the required conforming legislation to 
Congress. Once we have become the U.S. Navy Reserve, the Chief of Naval 
Operations (CNO) intends to promulgate guidance to ``drop the R,'' like 
the Marines did in 1997. Our great Sailors have always been in the 
Navy--they are the RE-serve component of the greatest Navy ever. The 
initials USNR, USNR-R, USNR TAR will no longer be used--we are all in 
the Navy. We will still have Reserve Component (RC) commissions and 
designators that put us in the right personnel categories, but we're in 
the Navy, ready and fully integrated. We might work just 2 or more days 
a month, but you cannot turn off the honor, courage and commitment that 
comes with being in the Navy 24/7/365, ready to serve.
    Today's busy Navy Reservists have three missions. Their primary job 
revolves around increasing our Navy's warfighting capability. Periodic 
and predictable service provided by our RC Sailors, in the right place, 
at the right time, with the right skill sets enhances the operational 
effectiveness of the supported command--affordably. Second, Reservists 
will be key players in homeland security and defense. By aligning our 
capabilities and shaping our force to support the missions of NORTHCOM, 
Reservists have the skills that will not only improve security at home, 
but will enable active forces to take the fight to the enemy and win 
the ``away'' game. Lastly, every Sailor acts as a service ambassador 
and recruiter in every town in America. The broad distribution of these 
Sailors provides a constant and visible reminder to citizens in every 
state, and especially in the Nation's heartland, that the Navy is on 
watch, providing them with unmatched capability in the maritime domain, 
as well as educating and calling our young people to serve our Nation. 
This affiliation with ``Main Street USA'' and the fabric of our Nation 
is something else that money can't buy, and is a mission that the Navy 
Reserve embraces.

                                MANPOWER

    Our most important asset is, always has been, and forever will 
remain, our Sailors--our ``Sea Warriors.'' Admiral Clark stresses the 
importance of continuously enabling and developing every Sailor, and 
has challenged the Navy to deliver a Human Capital Strategy (HCS) in 
2005. This HCS theme will repeat throughout my statement.
    The Navy's Total Force HCS will build upon last year's successes:
  --Continue development of Active-Reserve Integration.
  --Execute elimination of Naval Reserve ``titles'' and foster Active 
        Component (AC) ownership of the RC elements in one Navy.
  --Continue analysis of the functions and roles of the RC in the 
        future Total Force.
  --Complete the consolidation of Active-Reserve recruiting.
  --Continue to identify and develop RC skills training and 
        professional military education requirements for incorporation 
        into Sea Warrior.
    The Navy will deliver a HCS that is both mission and cost 
effective, while remaining ``capability focused.'' Typically, when a 
24/7/365 presence is required, the AC would provide the preponderance 
of the capability. When the requirement is periodic and predictable, 
the capability should be provided by an RC Sailor at about one-fifth 
the cost of their AC counterpart. When the requirement is best 
supported by specialized skills and long-term continuity, our civilian 
workforce provides the best fill. Finally, when time critical 
requirements are identified that fall beyond the scope of Navy skill 
sets, then contractors should be utilized to fill the need pending 
development of the capability or for the duration of a short-term 
requirement. Presence, predictability, periodicity and skill sets 
determine work division, not arbitrary lines drawn between components.
    The Navy HCS is already demonstrating ``value added'' in that Navy 
requirements are met with RC capabilities, no longer simply a matter of 
``mobilization numbers.'' Historically, effectiveness of the RC has 
been measured by the number of personnel mobilized and on active duty. 
More than 28,000 Navy Reservists have been mobilized since 9/11, and 
nearly 12,000 served on active duty during the peak of OIF in May 2003. 
However, the mobilization metric falls far short of measuring the work 
being done by Reservists each and every day. On any given day, over 
20,000 RE-servists are on some type of orders, providing fully 
integrated operational support to their AC and joint commands, both at 
home and overseas. This contribution is extremely valuable and 
represents a significant return on ``sunk'' training costs, enabling 
mature, seasoned and capable veterans to surge to Fleet requirements. 
The judicious use of operational support enables the Navy RC to meet 
surge requirements short of mobilization, while providing enhanced 
``volunteerism'' options for our Sailors. Thus, operational support 
provides full spectrum access to RC capabilities, which are more 
relevant than ever.
    The greater readiness provided by full spectrum access is evident 
by the effective and judicious use of our ``high demand, low density'' 
units and individual augmentee skill sets. A prime example is 
demonstrated daily by the Navy Reserve Intelligence Program, which is 
fully integrated into all Fleet operations. These highly skilled 
professionals face increased Global War on Terrorism (GWOT) demands not 
only from the Navy but also from every Combatant Commander (COCOM). 
Navy leadership is utilizing Intelligence Reservists daily with 
inactive duty drills and annual training, active duty for training, and 
active duty for special work, and mobilization to provide consistent, 
high quality support to joint operating forces. More than 1,700 Sailors 
have been mobilized since 9/11, representing over 40 percent of the 
Intelligence program's nearly 4,000 Reservists, in support of 117 Navy 
and Joint Commands in 150 different locations worldwide, providing 
real-time operational support to senior decision makers and commanders 
in the field.
    The roles and missions of these professionals have been wide 
ranging. RC targeting officers have augmented every Carrier Air Wing 
deployed for Operations ENDURING FREEDOM and IRAQI FREEDOM since 9/11. 
Interrogators at Guantanamo Bay and elsewhere have obtained information 
leading to the breakup of global terror cells. They have deployed with 
Navy SEAL teams, augmented combat staffs aboard ships, stood 
counterterrorism watches, supported Joint Task Forces, and captured 
foreign materiel. Also, the effective use of Joint Reserve Intelligence 
Centers (JRICs) since 9/11 has added a new tool for deployed 
warfighters in all COCOMs.
    While most mobilized Reserve Intelligence professionals have 
reported to their supported Joint and Navy Commands, over 13 percent 
have been mobilized to 27 JRICs located throughout the country. They 
are an example of an evolving reach-back capability that directly 
supports forward operations and represents one more step in the Navy's 
progress toward a net-centric future. Intelligence Reservists averaged 
over 80 days of active duty per person each year since 9/11. This high 
RC personnel tempo is an excellent example of the immense value added 
by these Sailors, largely through ``volunteerism.''

                           CURRENT READINESS

Global War On Terrorism
    Navy Reservists are performing superbly in many important GWOT 
roles. To date, 19 of our RC Sailors have made the ultimate sacrifice 
while deployed in support of current operations, with many more 
suffering serious injuries. On July 11, 2004, I had the distinct 
privilege of presenting the Purple Heart Medal to 16 Seabees from Naval 
Mobile Construction Battalion (NMCB) 14, in Jacksonville, FL. A total 
of 7 Sailors were killed and 19 were wounded in attacks on April 30 and 
May 2, 2004 while mobilized in support of OIF. The loss of these brave 
Americans underscores the honor, courage and commitment that drive our 
Nation's Reservists, and the willingness of citizen Sailors to make 
tremendous sacrifices for not only our freedom, but also for our 
coalition partners.
    Perhaps the biggest challenge involves the anticipated GWOT demand 
for Navy Reservists to support land-based missions in CENTCOM. The 
Secretary of Defense has directed Navy to take a close look at the 
combat service support missions, and we are leaning forward to 
aggressively plan our engagement strategies. The GWOT presents new and 
dynamic challenges to our Navy and our Nation, and will require a 
flexible Navy Reserve capable of supporting non-traditional missions.
    One way we are meeting this challenge is to develop a customs 
inspection capability to support deployed forces. Over 450 SELRES and 
volunteers from the Individual Ready Reserve (IRR) were screened and 
selected for this new mission. Mobilized Sailors reported to the Naval 
Expeditionary Logistics Support Force HQ in Williamsburg, VA, in early 
December 2004 for outfitting and training, which included Customs 
Inspector certification and expeditionary warfighting skills. 
Subsequently, they deployed to Kuwait in late January 2005 for turnover 
with Air Force personnel.
    Additionally, Navy has assumed the responsibility for managing the 
detainee program at Guantanamo Bay, Cuba. AC and RC have blended 
qualified personnel as needed to enhance the security force.
    Mobilized Navy ``Seabees'' have continuously deployed in support of 
CENTCOM operations. Over 40 percent of the Seabee force has been 
mobilized since 9/11, providing critical combat construction support to 
forces in Iraq and Kuwait. Navy construction forces rely heavily upon 
RC Sailors, bringing critical civilian skill sets, maturity and 
experience to the mission.
    In January 2004, Navy Expeditionary Logistics Support Force 
mobilized more than 525 Sailors from four of its Cargo Handling and 
Supply Support Battalions, who relieved and augmented a variety of Army 
and Marine Corps logistics units. These Navy Reserve cargo handlers 
(stevedores, fuels and mail) are working with the Army to provide 
critical combat support to Soldiers and Marines in Iraq and Kuwait in 
support of Operation IRAQI FREEDOM. Subsequently, additional Sailors 
have been mobilized and have relieved these forces in theater.
    In March 2003, the Navy deployed Helicopter Combat Support Special 
Squadron Five (HCS 5) to Iraq to provide a key capability in support of 
active ground forces in OIF. Maintaining a high operational tempo, HCS 
5 supported the Joint Special Operations Aviation Command, flying 
combat missions against the enemy. One year later, HCS 5 was relieved 
by her sister squadron, HCS 4, who remains in theater to date. These 
two RE-serve squadrons represent 50 percent of Navy's helicopter combat 
support capability.
    The Navy Reserve will expand its role in combat service support. 
Our dedicated Reservists will be placed into training pipelines for up 
to 4 months to develop and hone special skill sets and combat 
capabilities needed to support the GWOT. These Sailors will then go 
forward, ``boots on ground'' with the Army. When they return, we will 
establish Joint Provisional Units to house these unique skill sets, 
where Reservists will remain on ``hot standby'' for consequence 
management in support of NORTHCOM Homeland Defense requirements.
Homeland Defense
    ``We the People'' are all joined in a common interest, homeland 
defense. Only a few times in our history has the enemy brought the 
fight to our country. Declaring independence in 1776, we defeated the 
British twice in a span of nearly 40 years. No one can forget the ``Day 
of Infamy'' at Pearl Harbor on December 7, 1941, nor will anyone soon 
forget the events of 9/11, 3 short years ago, in New York City, at the 
Pentagon, and in a field in Pennsylvania. We are now engaged in the 
GWOT, another long war to preserve our way of life. We must win this 
``away'' game to ensure that it never again becomes another ``home'' 
game.
    While most Reserve Sailors are compensated for only a few days each 
month, they are in the Navy 24/7/365, selflessly serving their Nation 
with honor, courage and commitment. As the President instructed them 3 
years ago, they stand fully ready--they are the new minutemen in the 
same tradition as those who stood on the Commons in Lexington and at 
the North Bridge in Concord, Massachusetts. As veterans, they provide 
military experience and capabilities as well as a myriad of civilian 
skill sets critical to the support of Sea Power 21, ready to quickly 
surge to any global crisis and respond to disasters at home. Reserve 
Sailors live in every state and will become more regionally aligned 
with NORTHCOM as the Nation develops its Homeland Defense strategy. We 
are ready to answer the call, as Americans have done for 229 years. The 
CNO recently stated, ``I am convinced that responsibility for Maritime 
Domain Awareness (MDA) should rest first and foremost with the United 
States Coast Guard. I am also convinced that there is a role for the 
United States Navy to play in response and in support of the Coast 
Guard, bringing our resources to bear wherever they are required.''
    The Navy is partnering with the Coast Guard because we share a 
common interest in defending our Nation's maritime approaches. When a 
ship comes near our coastlines, we need to know where it is going and 
what cargo it is carrying. MDA is the effective understanding of all 
elements of the global maritime environment that could impact the 
security, safety, economy or environment of the United States.
    Significant roles will be played by several combatant commanders, 
NORTHCOM, SOUTHCOM, STRATCOM, and many other Federal and State 
Departments. PACOM, EUCOM and CENTCOM will also contribute to MDA if we 
are to be successful in countering threats far from our shores. Efforts 
by the Department of Defense and Department of Homeland Security to 
make MDA truly an interagency effort are just beginning, and the Navy 
Reserve has tremendous potential to join other major stakeholders in 
providing workable solutions to ensure a more cost effective MDA 
strategy.
    In November 2004, Admiral Tim Keating assumed command of NORTHCOM. 
In developing MDA, his staff will be utilizing lessons learned from 
many years of successful North American Air Defense operations that 
have monitored all air traffic in U.S. airspace. Navy Reservists stand 
ready to augment the MDA staff with personnel from the Space Warfare 
Command, Intelligence, Naval Control and Guidance of Shipping, Tactical 
Support Center, Mobile Inshore Undersea Warfare (MIUW), Military 
Sealift Command, Naval Air Force Reserve, and Distributed Common Ground 
System-Navy (DCGS-N) units.
    NORTHCOM is planning to stand up a Joint Reserve Unit with 
Intelligence community watch standers and analysts that will conduct 
port security surveys while working with the Coast Guard's Joint Harbor 
Operation/Maritime Operations Centers. The Navy Reserve will fully 
support this new capability.
    One capability central to Homeland Defense (HLD) is provided by 
Navy Coastal Warfare (NCW), whose mission is to provide surface and 
subsurface surveillance in littoral areas throughout the world. 
Secondary missions include command, control and communications 
functions. Navy Reserve MIUW units and Inshore Boat Units have, until 
recently, provided the sole capability for this mission within the 
Navy. Due to the ``high-demand/low-density'' mission and structure, the 
Navy has established eight AC NCW units, under the operational control 
of the newly established Maritime Force Protection Command to aid in 
force protection missions. This vital capability will now be provided 
by a mixture of AC and RC forces, once again aptly demonstrating the 
ability of the Navy Reserve Force to serve as a test bed for new 
capabilities and as an enabler for transitioning validated capabilities 
to the AC when required.
    The Navy has, in fact, already begun joint experimentation with the 
Coast Guard, exploring new situational awareness systems, and plans are 
being formulated to provide demonstrations later this year. One such 
system, a littoral version of DCGS-N, was provided to the Navy by the 
Congress over the past few years. DCGS-N merges intelligence, 
surveillance, reconnaissance, targeting, mission planning, and 
situational-awareness functions into a web-enabled, net-centric, Joint-
interoperable architecture. This invaluable capability, long the 
province of Strike Groups and major ground combat units, will soon 
demonstrate its potential value in supporting MDA.
    Another potential Homeland Defense capability is being demonstrated 
by Operation VIGILANT MARINER. Embarked Security Teams (EST) will 
provide security augmentation to Military Sealift Command/Ready Reserve 
Fleet/Contract Carrier ships to detect, deter and defend against 
waterborne and land-based terrorist attacks. The initial teams will be 
composed of AC Sailors, with RC EST's providing ready surge capability 
for global operations. These RC EST's will also be able to perform 
CONUS-based force protection missions either in civilian ports or as an 
augmentation force to Navy installations and shore facilities requiring 
extra protection.
    To effectively support Homeland Defense initiatives, every state 
should have a Joint Headquarters, manned by personnel from each of the 
seven Reserve Components. While the National Guard will focus on 
states, the Navy will focus on regions as part of Commander, Navy 
Installations' ongoing alignment initiative. When we respond to a 
crisis, we will do so under a regional construct, surging both AC and 
RC Sailors to assist with threats. As we continue to develop this 
concept, we will work closely with the National Guard Bureau and other 
agencies. This structure further aligns our organizations to provide 
enhanced support and coordination by having citizen Sailors protect 
their home regions.

                            FUTURE READINESS

    The Navy is taking ownership of its RC. Some specialized 
communities, such as Public Affairs, now direct the entire personnel 
selection and processing system, and are detailing Reservists to 
supported commands. This is exactly how all RC assignments will be done 
in the future, leveraging experience, demographics, special skill sets 
and desire to serve in operational units and perform operational 
mission support.
    The future detailing of our Reservists will incorporate a Sea 
Warrior initiative known as the Career Management System. This self-
service, web-based tool will provide every Sailor visibility into all 
available Navy billets. It will also provide the necessary details, 
including job description, required competencies, unit location and 
special requirements, so that our Sailors can apply for jobs that best 
fit their career plans while meeting the needs of the Navy.
    In 2003, we began another very productive initiative to enable Navy 
leadership to view RC readiness information through the Type Commander 
Readiness Management System (TRMS). We created an innovative module 
called the Navy Reserve Readiness Module that links numerous databases, 
including the Medical Readiness Reporting System (MRRS), the Navy 
Reserve Order Writing System (NROWS), the Reserve Headquarters System 
(RHS), and the Navy Marine Corps Mobilization Processing System 
(NMCMPS).
    Decision makers and force providers can use this system on any 
desktop computer to drill down through every region, every Reserve 
Activity, every unit, down to the individual Sailor. This easy-to-use 
system has greatly improved readiness and will allow the AC to better 
match resources to requirements, identify gaps, and provide focused 
training to close those gaps. AC ownership of, and responsibility for, 
the readiness of its assigned Reservists is the objective. This is a 
significant shift in culture that will greatly improve the readiness 
and effectiveness of the Total Force.
    A major thrust over the past year has been the improvement of the 
Navy Reserve's enterprise efficiency while enhancing operational 
effectiveness. Knowledge Management (KM) methodology has been the 
driver of this effort, and the Navy Reserve is leading the way. KM has 
been applied across the enterprise, resulting in better organizational 
alignment with the AC, better understanding of Navy requirements for 
its RC, and development of quicker response mechanisms that will better 
support the Joint Force. KM focuses our efforts on readiness, and helps 
us get the most ``bang for the buck'' in terms of operational 
availability and speed of response.

                           QUALITY OF SERVICE

    The Secretary of Defense instituted a force structure planning goal 
of limiting the involuntary mobilization of Reservists to 1 year out of 
every 6. When Reservists deploy to support the war, they want to know 
three things: ``when, where, and for how long?'' They are ready to 
serve, and while deployed deserve the same pay and benefits earned by 
AC personnel. The Department of Defense is working toward a common pay 
and benefits system for personnel from all components, Active, Guard 
and Reserve, which will support the Navy's efforts to properly support 
Sailors, whether mobilized or performing operational support.
    Additionally, the Navy's HCS is validating the requirement for 
different levels of RC participation. Today, about one-third of our 
Force participates at the traditional level of 38 days per year of 
inactive duty drills and annual training. Another one-third operates at 
an increased level of participation between 38 and 100 days per year. 
The remaining one-third is able to serve in excess of 100 days per 
year, with some being able to recall for years. Given a continued 
demand signal for all of these levels of participation, innovative 
methods to predict and budget for requirements will have to be 
developed by resource sponsors. The result will be a much more 
integrated Total Force and greatly enhanced full spectrum RC 
operational support.
    One of our efforts to improve the delivery of support across the 
``capability spectrum'' is the consolidation of the RC MILPERS 
appropriation budget activity structure. The current ``two budget 
activity'' structure of RC MILPERS appropriations, as set up over 20 
years ago, is outmoded, cumbersome and not adequately responsive for 
21st century budget execution. It leads to inefficiencies in the 
Department's administration of funds, creates unnecessary budget 
execution uncertainties, and can result in the receipt of unexpended 
funds so late in the year that their effective use is minimized.
    Combining the two RC MILPERS budget activities, BA1 and BA2, into a 
single budget activity within the RC appropriation is a sensible 
adjustment which enables more efficient use of resources, permits 
sufficient continued oversight of budget execution, and supports the 
Secretary's desire to transform and improve financial processes.
    The Navy Reserve's fiscal year 2006 budget submission accounts for 
this consolidation and has been fully approved and supported by the 
Department of Defense. This initiative will have a dramatic impact on 
our ability to provide full spectrum operational support, as well as 
improve our Sailors' quality of service through the ability to tailor 
their orders to actual requirements. This also furthers our ability to 
leverage the 2005 National Defense Authorization Act authority to have 
up to 6200 Sailors performing full time operational support for up to 
three out of 4 years, a very welcome change in policy that enhances our 
ability to surge to GWOT requirements.
    The timeliness and way that information flows to the Reserve Force 
is one of our biggest challenges in ensuring Quality of Service. The 
degree to which we effectively communicate significantly impacts our 
level of success. We have created several forums for communicating Navy 
priorities, key leadership messages, relevant news, and opportunities 
to and from the field, and they have proven to be very effective. We 
host a bi-weekly briefing by video teleconference to inform the Force 
and solicit input from every echelon. We established an e-mail 
communication protocol through the Public Affairs office to 
electronically distribute information to more than 5,000 key Navy 
Reservists and Department of Defense personnel. Our award-winning 
magazine, The Navy Reservist, is mailed monthly to every Navy 
Reservist's home (over 80,000 individuals and their families). The flow 
of information enables us to quickly identify issues and opportunities 
and to target the proper audiences for action. The speed of actionable 
information has greatly increased as we build the Navy of the future.
    Most critical to our success remains the important roles of our 
families and employers in supporting our Sailors. Our families enable 
us to go forward with love and support, and our employers guarantee our 
jobs when we return, often with additional benefits as their much 
appreciated contributions to the cause. We all serve together and 
cannot win the GWOT without the many tremendous sacrifices Americans 
make for national defense.
    In the past year, we have worked to strengthen the already very 
effective Employer Support of the Guard and Reserve (ESGR) program. For 
the first time since the 1994 Uniformed Services Employment and 
Reemployment Rights Act (USERRA) was passed, the Department of Labor 
has published regulations to enhance understanding and assist in the 
enforcement of this landmark legislation. Never before have our 
Nation's employers played such a critical role in our National Defense, 
with many providing benefits far beyond the USERRA requirements. We 
should continue to look for opportunities to further incentivize and 
partner with employers who do so much to care for our Reservists.

                               ALIGNMENT

    Through ongoing transformation, the Navy is accelerating the 
Nation's warfighting advantage. Admiral Clark has detailed the ``state 
of the Navy'' more fully in his testimony, but several initiatives will 
have a direct and positive impact on the Navy Reserve, the most 
significant being Active-Reserve Integration (ARI). ARI is more than a 
``bumper sticker'' . . . it is a key component of the evolving HCS. The 
key step in achieving ARI is to determine what the AC requires its RC 
to do, as well as how and when to surge Reservists. Accordingly, 
Admiral Clark tasked Fleet Forces Command to conduct a review of all RC 
capabilities, and in August 2004 approved the results. This ``Zero-
Based Review'' (ZBR) laid the groundwork for a more integrated and 
aligned Total Force in which RC capabilities directly support SEAPOWER 
21.
    The ZBR systematically studied gaps in AC capabilities that could 
or should be filled by the RC. Cost and risk values were assigned to 
each validated RC capability relative to the AC mission to enable 
leadership to make informed decisions regarding appropriate levels of 
investment. The result was a blend of existing and new capabilities, 
while others were recommended for realignment or divestment. The review 
acknowledged two essential types of support the AC will receive from 
the RC: (1) units that stand up when required to provide a specific 
capability, and (2) individuals or portions of units that can augment 
existing active commands. Validated capabilities are designed to 
increase the warfighting wholeness of the Navy, and represent ``what 
the AC needs to have,'' not just what is ``nice to have.''
    We have changed the way we assess ourselves, as well as the way we 
train in support of the Fleet Response Plan (FRP). We are transitioning 
to a capabilities-based Force driven by Navy requirements. The ZBR 
inventoried the RC against sixty-one capabilities and ``mapped'' them 
to Navy mission areas. Every billet and every unit was examined for 
both surge and operational support value. We are synchronizing data to 
enable us to plan and act as ``One Navy.'' The results of the 
assessment are included in the OPNAV programming, budgeting and 
execution system, partnering resources to provide better support to the 
warfighters.
    One of the most significant outcomes of the initial ZBR is that in 
fiscal year 2006, the Navy Reserve will reduce end strength by 10,300 
Sailors. To execute the FRP, Navy Active and Reserve Components have 
accelerated their alignment, synchronizing their efforts to become a 
more effective and efficient warfighting team. This is a ``win-win'' 
scenario for the Navy and the taxpayer, reflecting not a reduction in 
capabilities, but rather capabilities more effectively and much more 
efficiently delivered!
    We are expending significant effort to ensure effective RC 
management as well. AC and RC manpower experts are partnering to 
conduct a Full Time Support program ``Flag Pole Study'' to determine 
the most effective and efficient manner to structure and allocate our 
RC management personnel across Navy Reserve Activities and in Fleet 
commands.
    Another key element of our Full Time Support program is our 
civilian employees. Over 100 civilian employees assigned to Commander, 
Navy Reserve Forces Command and the Office of the Chief of Navy Reserve 
will be among the first Navy employees to be administered under the new 
National Security Personnel System (NSPS). July 2005 transition 
activities will be preceded by on-line and class room training for all 
affected civilian employees and their supervisors (both civilian and 
military). This initial group represents approximately one-quarter of 
the Navy Reserve's civilian employee population.
    Another component of ARI is the alignment of RC infrastructure. 
Commander, Naval Installations (CNI), the Navy's landlord, now includes 
every Navy Reserve activity in its regions for better processing of 
service and support requests. There are no longer any Navy Reserve 
Bases, only Navy Bases with different human capital strategies, and 
we're all working together to support the Fleet.
    We can no longer think of ourselves as separate Reserve activities 
in every state. We must integrate as part of Navy Regions. We hope to 
never build another Navy-Marine Corps Reserve Center, but will instead 
build only modern Armed Forces Reserve Centers or Joint Operational 
Support Centers that will promote joint operations, enhance 
interoperability and significantly reduce overhead costs. We will train 
jointly at home to deploy and fight jointly overseas.
    One significant alignment success story that has resulted in 
achievement of major efficiencies is the Navy Recruiting mission. The 
former Navy Reserve Recruiting Command has merged with Navy Recruiting 
Command to provide a seamless recruiting organization capable of 
providing all service options to potential Navy Sailors. Not a mere 
name change, RC recruiters and staff are serving alongside their AC 
counterparts. Some of our Navy Recruiting Districts are commanded by 
Full Time Support Officers. We also have senior enlisted FTS Career 
Recruiter Force personnel serving as NRD Chief Recruiters. Total Force 
recruiting epitomizes a truly customer-oriented focus, where a 
potential Sailor is exposed to every option for service in the Navy. 
Every career consideration and every possible enlistment incentive is 
now tailored to the needs of the individual. Our ultimate goal is to 
recruit 100 percent of the qualified applicants that ``cross the brow'' 
and retain 100 percent of the Sailors with viable career options in the 
Navy, whether AC or RC.
    Our vision continues to be support to the Fleet, ready and fully 
integrated. The RC provides predictable and periodic surge support in 
the FRP, and has been very effectively integrated into all capabilities 
in the Navy's operating forces. The Navy is getting slightly smaller, 
but much more effective, providing increased warfighting wholeness and 
a much better return on investment.

                                SUMMARY

    Navy RE-servists provide worldwide operational support and we are 
proud of our many accomplishments since 9/11. We continue to push for 
further integration and alignment within the Navy, while surging with 
greater speed, flexibility and responsiveness than ever before. Our 
dedicated Sailors provide the key to future success. During Operation 
ENDURING FREEDOM, a deployed combatant ship Commanding Officer said, 
``People ask me if I'm worried about the youth of America today. I tell 
em not at all, because I see the very best of them every day.''
    Navy Reserve leadership agrees. Our Sailors have never been so 
capable and committed. Their honor, courage and commitment make our 
profession the most highly respected profession in the United States 
today and our Navy the most admired around the world. We could not be 
more proud of the effort they put forth and the results they have 
achieved over the past year. We are looking forward to even greater 
success as our alignment efforts progress and many new initiatives 
mature and become adopted by the Fleet.
    In closing, I would like to thank this committee for the support 
you have provided the Navy Reserve and all of the Guard and Reserve 
components. The 2005 National Defense Authorization Act provided 
several significant, positive benefits that will help us recruit and 
retain our talented Sailors to better support the Navy and Joint 
commands. As you can see, this is a very exciting period for the Navy 
and the Navy Reserve. The CNO has challenged every Sailor to review 
current ways of doing business and suggest solutions that will improve 
effectiveness and find efficiencies. The Navy Reserve has accepted that 
challenge and promises the members of this committee that we will 
continue to do just that--examine every facet of our operation, to 
support the fleet, and to accelerate our Navy's advantages while 
providing the best value to the American taxpayer.

    Senator Stevens. General McCarthy.

STATEMENT OF LIEUTENANT GENERAL DENNIS M. McCARTHY, 
            COMMANDER, MARINE FORCES RESERVE, UNITED 
            STATES MARINE CORPS RESERVE
    General McCarthy. Mr. Chairman, good morning. Like my 
colleagues, it is an honor for me to appear. As you have noted, 
this will be the last time I appear, at least in uniform. I 
hope to remain engaged in these issues.
    But I am here on behalf of the men and women of the Marine 
Corps Reserve and I am extraordinarily proud of what they have 
done. We have mobilized over 95 percent of the Marine Corps 
Reserve units; 98 percent of those we have mobilized have 
served in combat, either in Iraq or Afghanistan. We have 
sustained, unfortunately, a share of casualties, but, as you 
have heard, they, like their counterparts in the Army and the 
Navy and the Air Force, have served shoulder to shoulder with 
the active component and have done so with great distinction.
    Our recruiting remains strong. Where our ranks are filled 
we are making our recruiting numbers. Our retention numbers are 
slightly above the historic average. I believe that is because 
of, not in spite of, the service that they have been called 
upon to perform. The kind of men and women that we have 
recruited seek service and they seek an opportunity to serve in 
combat, and they have had that opportunity.
    What I owe them as their commander is to continue to ensure 
that they can train and be appropriately equipped, so that when 
they are called upon the next time they can return to service. 
The only way we will retain the right kind of people, the only 
way we will recruit the right kind of people, is to provide 
them with an opportunity to serve in combat-ready units. So 
that is our effort and we are very appreciative of what the 
committee and the Senate, the Congress, have done to enable us, 
and we hope for your continued support.
    Thank you, Mr. Chairman.
    Senator Stevens. Thank you very much.
    [The statement follows:]

      Prepared Statement of Lieutenant General Dennis M. McCarthy

                              INTRODUCTION

    Chairman Stevens, Senator Inouye and distinguished members of the 
Committee, it is my honor to report to you on the state of your Marine 
Corps Reserve as a partner in the Navy-Marine Corps team. Your Marine 
Corps Reserve continues to be ``Ready, Willing, and Able.'' We remain 
firmly committed to warfighting excellence. The support of Congress and 
the American people has been indispensable to our success in the Global 
War on Terrorism. Your sustained commitment to care for and improve our 
Nation's armed forces in order to meet today's challenges, as well as 
those of tomorrow, is vital to our battlefield success. On behalf of 
all Marines and their families, I would like to take this opportunity 
to thank Congress and this committee for your continued support.

                    YOUR MARINE CORPS RESERVE TODAY

    The last 4 years have demonstrated the Marine Corps Reserve is 
truly a full partner of the Total Force Marine Corps. I have been the 
Commander of Marine Forces Reserve since June 2, 2001 and as I prepare 
for retirement this summer, I can assure you the Marine Corps Reserve 
still remains totally committed to continuing the rapid and efficient 
activation of combat-ready ground, air, and logistics units to augment 
and reinforce the active component in the Global War on Terrorism. 
Marine Corps Reserve units, Individual Ready Reserve (IRR) Marines, 
Individual Mobilization Augmentees (IMAs), and Retired Marines fill 
critical requirements in our Nation's defense and are deployed 
worldwide in Iraq, Afghanistan, Georgian Republic, Djibouti, Kuwait, 
and the U.S., supporting all aspects of the Global War on Terrorism.
    ``Train, Activate, Deploy'' has always been a foundation of the 
Marine Corps Reserve. Following that foundation, your Reserve is 
maintained as a pre-trained, balanced and sustainable force capable of 
rapid deployment into a combat environment.
    Reserve Marines continuously train to maintain high levels of 
combat readiness. Because we currently have the luxury of scheduled 
rotations, we utilize a 48-day activate to deploy schedule. A demanding 
Mobilization and Operational Readiness Deployment Test program 
eliminates the need for post activation certification upon activation. 
The 48-day schedule includes a 9-day Security and Stability Operations 
training package and completes the preparations for the Marine Reserve 
unit to deploy. The impact of the ``Train, Activate, Deploy'' 
foundation is the seamless integration with the Gaining Force Commander 
of a combat capable active duty Marine unit.
    Your Marine Corps Reserve is pre-trained-able to activate, spin-up, 
deploy, redeploy, take leave and deactivate all within 12 months. 
Twelve-month activations with a 7-month deployment have helped sustain 
the Reserve force and contributed to the regeneration of our units. In 
so doing, the Reserves follow the same 7-month deployment policy as our 
active forces. This activation/deployment construct has allowed the 
Marine Corps to maximize management of the Reserve force, maintain unit 
integrity, and lessen the burden on Marine Corps families by 
maintaining predictable deployments while allowing adequate dwell time 
between unit deployments.
    As of early March 2005, over 13,000 Reserve Marines were activated 
in support of Operation Enduring Freedom, Operation Iraqi Freedom and 
Horn of Africa operations. Of these Marines, approximately 11,500 were 
serving in combat-proven ground, aviation and service support units led 
by Reserve Marine officers and non-commissioned officers. The remaining 
1,600 Reserve Marines were serving as individual augments in support of 
Combatant Commanders, the Joint Staff and the Marine Corps. Since 
September 11, 2001, the Marine Corps has activated over 36,000 Reserve 
Marines, and more than 95 percent of all Marine Forces Reserve units.
    The Global War on Terrorism highlights our need to remain flexible 
and adaptive as a force. During the aftermath of 9/11 and the 
commencement of the Global War on Terrorism, the Marine Corps Reserve 
was the force the Marine Corps needed. As new war fighting requirements 
have emerged, we have adapted our units and personnel to meet them, 
such as with the rapid formation of security forces from existing 
units, or the creation of provisional Civil Affairs Groups. We reviewed 
our Total Force Structure during 2004, and laid the blueprint for 
refining the force from 2005 to 2006. In the coming years, the Marine 
Corps Reserve will be increasing intelligence, security, civil affairs, 
mortuary affairs and light armored reconnaissance capabilities, while 
we pare down some of our heavier, less required capabilities, such as 
tanks and artillery. However, we are adjusting less than 8 percent of 
Reserve end strength to support these new capabilities required for the 
war on terrorism. By reassessing and fine-tuning our Reserve Force, we 
are enhancing our ability to provide required war fighting 
capabilities. Although adjusted, the Reserve Force will continue to 
provide a strong Marine Corps presence in our communities.
    Your Marine Corps Reserve continues to prove we are ``Ready, 
Willing and Able'' to accomplish our primary mission of augmenting and 
reinforcing the active component with fully trained, combat capable 
Marines.

                          RETURN ON INVESTMENT

    The Marine Corps is committed to and confident in the Total Force 
Concept as evidenced by the overwhelming success of Marine Reserve 
units serving in support of the Global War on Terrorism. Activated 
Marine Reserve units and individuals are seamlessly integrating into 
forward deployed Marine Expeditionary Forces and regularly demonstrate 
their combat effectiveness. The recent efforts of your Reserve Marines 
are best illustrated in the following examples of a few of the many 
Reserve units supporting the war effort:
Force Units
    Fourth Civil Affairs Group (4th CAG), commanded by Col. John R. 
Ballard USMCR, a professor at the Naval War College, and assisted by 
his senior enlisted advisor, Sgt. Maj. Joseph A. Staudt, a construction 
appraiser and project manager, was instrumental in rebuilding 
communities from the ground up in the Al Anbar Province of Iraq. They 
assisted in everything from recreating the infrastructure for a city or 
town, to clearing unexploded ordinance and equipment left by the Iraqi 
army from school buildings. Fourth CAG was instrumental in projects 
such as supporting local elections in Fallujah and assisting the Iraqis 
in reopening schools in Al Kut. Just last month, 4th CAG ended its tour 
of duty in Iraq and were replaced by 5th Civil Affairs Group (5th CAG), 
commanded by Col. Steve McKinley USMCR, a retired bonds salesman from 
Wachovia, with the assistance of Sgt. Maj. John A. Ellis, a Baltimore 
fireman.
Fourth Marine Division
    First Battalion, 23d Marines (1/23), under the command of Lt. Col. 
Gregory D. Stevens USMCR, a building contractor in southern California, 
supported by his senior enlisted advisor, Sgt. Maj. David A. Miller, a 
military academy instructor, were the first to enter and assess the 
threat in Hit, Iraq last year and won decisive battles with insurgents 
in that city. Sgt. Herbert B. Hancock, a sniper from 1/23 was credited 
with the longest confirmed kill in Iraq during the battle for Fallujah, 
taking out insurgent mortarmen from a distance of over 1,000 yards. 
From October 2004 to January 2005, the Mobile Assault Platoons of 1/23 
patrolled the supply routes around the Haditha Dam area in Iraq. With 
the aid of long-range optics, night vision and thermal imaging scopes, 
they vigilantly watched day and night for insurgent activity, while 
remaining unobserved. During their last month in Iraq, the efforts of 
the Mobile Assault Platoons caused an 85 percent decrease in the total 
number of mines and IEDs utilized in the Haditha Dam area.
    Second Battalion, 24th Marines, commanded by Lt. Col. Mark A. Smith 
USMCR, an Indiana state policeman, with Sgt. Maj. Garry L. Payne, a 
business owner, as his senior enlisted advisor, supported the 24th 
Marine Expeditionary Unit (24th MEU) by bringing a measure of security 
to northern Babil Province. Marines with law-enforcement background 
were so common in the battalion that even the smallest units boasted of 
having a few police officers. Many law-enforcement strategies and 
tactics employed in the Chicago area were mimicked in Iraq such as 
executing raids, handling heavy traffic jams and conducting crime scene 
analysis. The battalion even used police procedures in its intelligence 
battle, comparing anti-Iraqi forces to criminals back home. As Chief 
Warrant Officer-5 Jim M. Roussell, an intelligence officer and 28-year 
veteran of the Chicago Police Department stated, ``There are a lot of 
similarities between street gangs and the guys we're fighting out 
here.'' Working alongside Iraqi security forces, the Marines rounded up 
nearly 900 criminals, thugs and terrorists and seized more than 75,000 
munitions to make the local area safer for the Iraqi residents.
Fourth Force Service Support Group
    Throughout my tenure as Commander, Marine Forces Reserve, I have 
made repeated visits to Marines serving abroad. During a recent trip to 
Iraq with my senior enlisted advisor, Sgt. Maj. Robin W. Dixon, I 
visited our Marines from Fourth Force Service Support Group (4th FSSG) 
who were serving with 1st FSSG. I can confidently state that the 
Reserve Marines were fully integrated with 1st FSSG and were meeting 
all the challenges to ensure Marines throughout Iraq had everything 
from food and medicine to mail and ammunition. They willingly braved 
dangerous roads filled with IEDs to ensure supplies arrive at their 
destination. Our Marines on the front lines can execute their tasks 
superbly because their needs back at the base camp are all being met by 
the FSSG Marines. From refueling to performing major overhauls on 
vehicles, to moving the fuel and materials of war from the rear to the 
front, to distributing ``beans, bullets, and bandages''--the FSSG takes 
care of all the needs of their fellow Marines.
    The most sobering task that the Reserve Marines from 4th FSSG 
perform in Iraq is Mortuary Affairs, which is predominately a Reserve 
mission. Chief Warrant Officer-2 Anthony L. High, the Officer in Charge 
of Mortuary Affairs, ensures that the remains of the fallen in Iraq 
return home with the proper dignity and respect they deserve for the 
price they have paid for our country. Even enemies killed in Fallujah 
were given burials commensurate with the customs and procedures of 
their native country and religious beliefs, winning approval of Iraqi 
religious leaders.
Fourth Marine Aircraft Wing
    The accomplishments of Marine Aerial Refueler Transport Squadron 
452 (VMGR-452), of Marine Aircraft Group 49, 4th Marine Aircraft Wing, 
under the command of Lt. Col. Bradley S. James USMCR, a United Airlines 
pilot, supported by his senior enlisted advisor, Sgt. Maj. Leland H. 
Hilt Jr., an auditor for the IRS, show the overwhelming commitment we 
impose on our Reserve Marines. VMGR-452 has been activated twice since 
9/11. A detachment from VMGR-452 was activated in January 2002 to 
support Operation Enduring Freedom (OEF). The remainder of the squadron 
was activated later in support of Operation Iraqi Freedom I (OIF-I). 
Upon deactivation, the squadron immediately reverted back into their 
normal high operational tempo, supporting reserve missions worldwide. 
The squadron supported the full spectrum of KC-130 missions that 
included aerial delivery in support of Special Operations Command, 
performing multiple aerial refueling missions in support of the Fleet 
Marine Force and the U.S. Army, logistics runs in support of Marine 
Forces Europe and deployed units in Djibouti, and support of a Hawaii 
Combined Arms Exercise. The entire squadron was reactivated in June 
2004 and deployed in August to Al Asad Air Base, Al Anbar Province, 
Iraq. They quickly began combat operations in support of First Marine 
Expeditionary Force (I MEF). The squadron conducted numerous types of 
tactical missions, to include logistics support, Fixed Wing Aerial 
Refueling and radio relay throughout several countries to include Iraq, 
Kuwait, Qatar, Bahrain, Turkey and Italy. On November 7, when Operation 
Phantom Fury commenced in Fallujah, VMGR-452 found its versatile KC-130 
platforms greatly needed for a variety of missions. The squadron flew 
341 sorties, logged 864.9 flight hours, transported 1,273,150 pounds of 
cargo and 1,980 personnel, and offloaded 4,324,300 pounds of fuel to 
502 receivers during the operation. After Operation Phantom Fury, the 
squadron conducted its most important mission of the deployment--the 
movement of Iraqi election officials during Operation Citadel II. 
During this operation, the squadron transported over 1,200 Iraqi 
election officials from An Najaf to Al Taqaddum and Mosul so that they 
would be in place before the election on January 30. Following the 
elections, the squadron transported the election officials back to An 
Najaf in less than six hours by running three fully loaded KC-130's 
continuously. February saw the squadron surpass 3000 mishap-free flight 
hours for the deployment.

                         ACTIVATION PHILOSOPHY

    Sustaining the force has been consistent with Total Force Marine 
Corps planning guidance. This guidance was based on a 12-month 
involuntary activation with a 7-month deployment, followed by a period 
of dwell time and, if required, a second 12-month involuntary 
reactivation and subsequent 7-month deployment. This force management 
practice was designed to enhance the warfighting and sustainment 
capability of the Marine Forces Reserve by providing trained, well-
balanced and cohesive units ready for combat. We view this both an 
efficient and effective use of our Reserve Marines' 24-month cumulative 
activation as it serves to preserve Reserve Units to sustain the long-
term nature of the GWOT that will require future Reserve force 
commitments.

                           ACTIVATION IMPACT

    As of January 2005, the Marine Corps Reserve began activating 
approximately 3,000 Selected Marine Corps Reserve (SMCR) Unit Marines 
in support of the next Operation Iraqi Freedom rotation and 500 SMCR 
Unit Marines in support of Operation Enduring Freedom. Even with 
judicious use of our assets and coordinated planning, the personnel 
tempo has increased. As the members of this committee know, Reserve 
Marines are students or have civilian occupations that are also very 
demanding, and are their primary means of livelihood. In the past 2 
years, 933 Reserve Marines exceeded 400 days deployed time. In total, 
approximately 3,900 Reserve Marines have been activated more than once; 
about 2,500 of whom are currently activated. Information from March 
2005 indicates that approximately 65 percent of the current unit 
population and 47 percent of the current IMA population have been 
activated at least once. About 1 percent of our current Individual 
Ready Reserve (IRR) population deployed in support of OIF/OEF. If you 
include the number of Marines who deployed as an active component and 
have since transferred to the IRR, the number reaches 31 percent. This 
is worth particular note as the IRR provides us needed depth--an added 
dimension to our capability. Volunteers from the IRR and from other 
Military Occupational Specialties, such as artillery, have been cross-
trained to reinforce identifiable critical specialties.
    Although supporting the Global War on Terrorism is the primary 
focus of the Marine Corps Reserve, other functions, such as pre-
deployment preparation and maintenance, recruiting, training, 
facilities management and long term planning continue. The wise use of 
the Active Duty Special Work (ADSW) Program allows the Marine Corps to 
fill these short-term, full-time requirements with Reserve Marines. In 
fiscal year 2004, the Marine Corps executed 947 work-years of ADSW at a 
cost of $49.1 million. Continued support and funding for this critical 
program will enhance flexibility thereby ensuring our Total Force 
requirements are met.

                               EQUIPMENT

    Our readiness priority is the support and sustainment of our 
forward deployed forces and, secondly, ensuring units slated to deploy 
in follow-on rotations possess adequate levels of equipment for 
training. Currently, the Marine Corps has approximately 30 percent of 
its ground equipment and 25 percent of its aviation equipment forward 
deployed. In certain critical, low-density items, this percentage is 
closer to 50 percent. This equipment has been sourced from the active 
component, Marine Forces Reserve, the Maritime Prepositioned Force as 
well as equipment from Marine Corps Logistics Command stores and war 
reserves. Primarily, our contributed major items of equipment remain in 
theater and rotating Marine forces fall in on the in-theater assets. In 
some cases where extraordinary use has resulted in the inordinate 
deterioration of equipment (such as the Corps' Light Armored Vehicles), 
equipment rotations have been performed as directed and managed by 
Headquarters, Marine Corps.
    Maintaining current readiness levels will require continued support 
as our equipment continues to age at a pace exceeding replacement peace 
time rates. The Global War on Terrorism equipment usage rates average 
eight to one over normal peacetime usage due to continuous combat 
operations. This high usage rate in a harsh operating environment, 
coupled with the weight of added armor and unavoidable delays of 
scheduled maintenance due to combat, is degrading our equipment at an 
accelerated rate. If this equipment returns to CONUS, extensive service 
life extension and overhaul/rebuild programs will be required in order 
to bring this equipment back into satisfactory condition.
    Even with these wartime demands, equipment readiness rates for 
Marine Forces Reserve deployed ground equipment in the CENTCOM AOR is 
averaging 93 percent. At home, as we continue to aggressively train and 
prepare our Marines, we have maintained ground equipment readiness 
rates of 91 percent. The types of equipment held by Home Training 
Centers are the same as those held within the Active Component. 
However, the ``set'' of ground equipment presently in garrison is not 
the full equipment combat allowance for Marine Forces Reserve. To reach 
the level of full equipment combat allowance for Marine Forces Reserve 
would require us to draw ground equipment from other allowances and 
inventory options across the Marine Corps. Additionally, due to the 
Marine Corps' cross-leveling efforts of equipment inventories to 
support home station shortfalls resulting from equipment deployed in 
support of the Global War On Terrorism, Marine Forces Reserve will 
experience some equipment shortfalls of communication and electronic 
equipment. This specific equipment type shortfall will be approximately 
10 percent across the Force in most areas, and somewhat greater for 
certain low density ``big box'' type equipment sets. Also, an infantry 
battalion's worth of equipment originating from Marine Forces Reserve 
remains in support of deployed forces in the CENTCOM AOR. Although the 
equipment shortfalls will not preclude sustainment training within the 
Force, this equipment availability is not optimal.
Strategic Ground Equipment Working Group
    For the past year, Headquarters, Marine Corps Installations and 
Logistics has chaired the Strategic Ground Equipment Working Group 
(SGEWG). The mission of this organization is to best position the 
Corps' equipment to support the needs of the deployed Global War on 
Terrorism forces, the Corps' strategic programs and training of non-
deployed forces. My staff has been fully engaged in this process and 
the results have been encouraging for Marine Forces Reserve, leading to 
an increase in overall Supply Readiness of approximately 5 percent in 
most equipment categories. The efforts of the SGEWG, combined with the 
efforts of my staff to redistribute equipment to support non-deployed 
units, have resulted in continued training capability for the reserve 
forces back home.
Individual Combat Clothing and Equipment, Individual Protective 
        Equipment
    In order to continue seamless integration into the active 
component, my ground component priorities are the sustained improvement 
of Individual Combat Clothing and Equipment, Individual Protective 
Equipment and overall equipment readiness. I am pleased to report that 
every Reserve Marine deployed over the past year in support of 
Operation Iraqi Freedom and Operation Enduring Freedom, along with 
those currently deployed into harm's way, were fully equipped with the 
most current Individual Clothing/Combat Equipment and Individual 
Protective Equipment. Your continued support of current budget 
initiatives will continue to properly equip our most precious assets--
our individual Marines.
Critical Asset Rapid Distribution Facility
    In order to ensure equipment is available to our deploying forces, 
I created the Marine Forces Reserve Materiel Prepositioning Program and 
designated my Special Training Allowance Pool (which traditionally held 
such items as cold weather gear) as the Critical Asset Rapid 
Distribution Facility (CARDF). The CARDF has been designated as the 
primary location for all newly fielded items of Individual Clothing and 
Combat Equipment for issue to Marine Forces Reserve. Equipment such as 
the Improved Load Bearing Equipment, Lightweight Helmet and Improved 
First Aid Kit has been sent to the CARDF for secondary distribution to 
deploying units.
Training Allowance
    For Principle End Items (PEIs), Marine Forces Reserve units have 
established Training Allowances (on average approximately 80 percent of 
their established Table of Equipment). This equipment represents the 
minimum needed by the unit to maintain the training readiness necessary 
to deploy, while at the same time is still within their ability to 
maintain under routine conditions. Establishment of training allowances 
allows Marine Forces Reserve to better cross level equipment to support 
CONUS training requirements of all units of the Force with a minimal 
overall equipment requirement. Of course, this concept requires the 
support of the service to ensure that the ``delta'' between a unit's 
Training Allowance and Table of Equipment (that gear necessary to fully 
conduct a combat mission) is available in the event of deployment. 
Current Headquarters Marine Corps policy of retaining needed equipment 
in theater for use by deploying forces ensures that mobilized Marine 
Forces Reserve units will have the PEIs necessary to conduct their 
mission.
Modernization
    We are currently engaged in a two-pronged equipment programmatic 
strategy--resetting today's Force with operational equipment and 
determining the equipment requirements of your Future Force. I am 
extremely pleased to report to you that your Marine Reserve Component 
continues to evolve and adapt to best prepare and meet the spectrum of 
threats. Some of the most noteworthy accomplishments are those 
associated with the Marine Corps Force Structure Review Group (FSRG). 
As part of a Total Force effort, the Marine Corps Reserve is 
transforming underutilized legacy units into new units with higher 
threat-relevant capabilities while providing operational tempo relief 
in high-demand areas. These new units include an Intelligence Support 
Battalion, an Anti-Terrorist Battalion and two Light Armored 
Reconnaissance Companies.
    The establishment of a Reserve Intelligence Support Battalion, 
presently underway, will enhance command and control while 
simultaneously establishing additional reserve component intelligence 
structure and capabilities. This initiative places Reserve Marine 
intelligence detachments at Joint Reserve Intelligence Centers (JRICs) 
throughout the continental United States, providing enhanced ``reach 
back'' through JRIC connectivity. Additionally, the ISB will enhance 
the capability to provide task-organized, all-source intelligence 
detachments to augment forward-deployed MAGTFs.
    The 4th Marine Division's new Anti Terrorism Battalion will provide 
designated commanders with rapidly deployable, specially trained and 
sustainable forces that are capable of detecting terrorism, conducting 
activities to deter terrorism, defending designated facilities and 
conducting crisis response.
    Finally, two new Light Armored Reconnaissance (LAR) Companies will 
increase the number of Reserve LAR Companies from four to six, thus 
supporting the equipping of units for future OIF rotations, adding much 
needed depth, and affording the combatant commander with enhanced 
maneuver capability. Light Armored Vehicles (LAV) from the four 
existing units will be redistributed among the six new LAR Companies to 
meet initial needs. However, internal LAV redistribution will not 
provide sufficient assets to maintain skill proficiency and deployment 
readiness, particularly for Marines just completing formal LAV training 
and joining their Reserve LAR units. Presently, both new LAR Companies 
are converting from two Tank Companies being divested as a result of 
FSRG, and personnel to man the new LAR Companies are available and have 
commenced formal LAV training.
National Guard and Reserve Equipment Appropriation
    The Marine Corps Reserve appreciates past Congressional support 
provided under the National Guard and Reserve Equipment Appropriation 
(NGREA), an account that provides extraordinary leverage in fielding 
critical equipment to your Guard and Reserves. In fiscal year 2005, 
NGREA provided $50 million ($10 million for OIF/OEF requirements, and 
$40 million for Title III procurement requirements), enabling us to 
robustly respond to the pressing needs of the individual Marine, Total 
Force and Combatant Commanders. This funding procures 
Counterintelligence HUMINT equipment suites, various communications 
gear (PRC-117F, PRC-150, Integrated Intra Squad Radios), laser target 
designators, night vision devices, Advanced Combat Optic Gunsight 
(ACOG) 432 scopes, simulators, AH-1W Aircraft Survivability Equipment, 
CH-46 lightweight seats, and many more war-fighting essential end 
items.
    Highlighting selected items, NGREA enabled the procurement of the 
Virtual Combat Convoy Trainer--Marine (VCCT-M), a cognitive skills 
simulator that provides realistic convoy crew training and incidental 
driver training to your Marines. The first of these systems will be 
deployed to Naval Station Seal Beach, home site to 5th Battalion, 14th 
Marine Regiment, to assist in their preparation for deployment to Iraq. 
Another device procured through NGREA is the Medium Tactical Vehicle 
Replacement Training Simulator, a combined operator and maintenance 
training system that supports our new medium tactical vehicle. 
Additionally, NGREA afforded us the opportunity to purchase 1,175 TA-
31F Advanced Combat Optic Gunsights (ACOG) 432 scopes. Marine Corps 
Program Managers have worked directly with the manufacturer in order 
for Marine Forces Reserve deploying units to receive the ACOG scopes 
before departing their home training center. I am also pleased to 
report that we have a combat capable F/A-18A+ squadron currently 
deployed as a direct result of previous years' NGREA funding for F/A-
18A ECP-583 upgrades. Marine Fighter/Attack Squadron-142 has already 
seen action in Iraq. In summation, I can state without hesitation that 
NGREA is extremely vital to the Marine Corps reserve and that your 
Marines and Sailors are reaping the benefits both here and in theater.
    My top modernization priorities looking forward and as described in 
the fiscal year 2006 National Guard and Reserve Equipment Report and 
other documents, include additional Light Armored Vehicles, PRC-117 
radios, LAV Product Improvement Program, Initial Issue equipment (light 
weight helmets, outer tactical vests, Small Arm Protective Inserts 
(SAPI) plates), PRC-150 radios, CH-53 Integrated Mechanical Diagnostics 
System (IMDS), and Family of Mountain and Cold Weather Clothing and 
Equipment.

                             INFRASTRUCTURE

    Marine Forces Reserve is and will continue to be a community-based 
force. This is a fundamental strength of Marine Forces Reserve. Our 
long-range strategy is to retain that strength by maintaining our 
connection with communities in the most cost effective way. We are not, 
nor do we want to be, limited exclusively to large metropolitan areas 
nor consolidated into a few isolated enclaves, but rather we intend to 
divest Marine Corps-owned infrastructure and locate our units in Joint 
Reserve Training Centers throughout the country. Marine Forces Reserve 
units are currently located at 185 sites in 48 states, the District of 
Columbia, and Puerto Rico; 35 sites are owned or leased by the Marine 
Corps Reserve, 150 are either tenant or joint sites. Fifty-four percent 
of the Reserve centers we occupy are more than 30 years old, and of 
these, 41 are over 50 years old. The fiscal year 2006 budget fully 
funds sustainment of these facilities and we are working through a 
backlog of restoration and modernization projects at centers in several 
states.
    The age of our infrastructure means that much of it was built 
before Anti-Terrorism/Force Protection (AT/FP) was a major 
consideration in design and construction. These facilities require AT/
FP resolution through structural improvements, relocation, replacement 
or the acquisition of additional stand-off distance. We appreciate the 
Congressional support provided for our Military construction program in 
fiscal year 2005 as it enables us to construct modern Amphibious 
Assault Vehicle maintenance facilities in Gulfport, Mississippi; 
Norfolk, Virginia and Jacksonville, Florida, and to replace the Reserve 
Center in Wilmington, North Carolina, a wood frame structure 
constructed in 1939. The fiscal year 2006 budget includes the 
replacement of the Reserve Centers in Charleston, South Carolina, a 
complex of buildings dating to 1942, and Mobile, Alabama. Other older 
Reserve Centers programmed for replacement include Dayton, Ohio; 
Memphis, Tennessee; Newport News, Virginia and Fresno, California.
    Maintaining adequate facilities is critical to training that 
supports our readiness and sends a strong message to our Marines and 
Sailors about the importance of their service. With the changes in 
Force structure mentioned earlier, extensive facilities upgrades are 
required at a few locations. Our top priority sites are San Diego, 
California; Windy Hill (Marietta), Georgia; and Camp Upshur (Quantico), 
Virginia.
BRAC 2005
    We look at BRAC 2005 as an opportunity to realize our long-range 
strategic infrastructure goals through efficient joint ventures and 
increased training center utilization without jeopardizing our 
community presence. We have integrated our force structure changes into 
our BRAC efforts to the greatest extent possible. In cooperation with 
other reserve components, notably the Army Reserve and the Army 
National Guard, we are working toward Reserve basing solutions that 
further reduce restoration and modernization backlogs and AT/FP 
vulnerability.

                        RECRUITING AND RETENTION

    Like the active component, Marine Corps Reserve units primarily 
rely upon a first term force. Currently, the Marine Corps Reserve 
continues to recruit and retain quality men and women willing to manage 
commitments to their families, their communities, their civilian 
careers and the Corps. Recruiting and retention goals were met in 
fiscal year 2004, but the long-term impact of recent activations is not 
yet known. Despite the high operational tempo, the morale and patriotic 
spirit of Reserve Marines, their families and employers remains 
extraordinarily high.
    At the end of fiscal year 2004, the Selected Marine Corps Reserve 
was over 39,600 strong. Part of this population is comprised of Active 
Reserve Marines, Individual Mobilization Augmentees and Reserve Marines 
in the training pipeline. An additional 60,000 Marines serve as part of 
the Individual Ready Reserve, representing a significant pool of 
trained and experienced prior service manpower. Reserve Marines bring 
to the table not only their Marine Corps skills but also their civilian 
training and experience as well. The presence of police officers, 
engineers, lawyers, skilled craftsmen, business executives and the 
college students who fill our Reserve ranks serves to enrich the Total 
Force. The Marine Corps appreciates the recognition given by Congress 
to employer relations, insurance benefits and family support. Such 
programs should not be seen as ``rewards'' or ``bonuses,'' but as tools 
that will sustain the Force in the years ahead.
    Support to the Global War on Terrorism has reached the point where 
80 percent of the current Marine Corps Reserve leadership has deployed 
at least once. Nevertheless, the Marine Corps Reserve is currently 
achieving higher retention rates than the benchmark average from the 
last three fiscal years. As of January, fiscal year 2005, the OSD 
attrition statistics for Marine Corps Reserve unit officers is 10.9 
percent compared to the current benchmark average of 15.8 percent. For 
the same time period, Reserve unit enlisted attrition is 6.4 percent 
compared to 8.5 percent average.
    Good retention goes hand-in-hand with the successes of our 
recruiters. In fiscal year 2004, the Marine Corps Reserve achieved 100 
percent of its recruiting goal for non-prior service recruiting (6,165) 
and exceeded its goal for prior service recruiting (2,083). For our 
reserve component, junior officer recruiting remains the most 
challenging area. We are successfully expanding reserve commissioning 
opportunities for our prior-enlisted Marines in order to grow some of 
our own officers from Marine Forces Reserve units and are exploring 
other methods to increase the participation of company grade officers 
in the Selective Marine Corps Reserve through increased recruiting 
efforts and increased active duty command emphasis on Reserve 
opportunities and participation. We thank Congress for the continued 
support of legislation to allow bonuses for officers in the Selective 
Marine Corps Reserve who fill a critical skill or shortage. We are 
aggressively implementing the Selected Reserve Officer Affiliation 
Bonus program and expect it to fill fifty vacant billets this year, 
with plans to expand the program in the coming years. We appreciate 
your continued support and funding of incentives such as this, which 
offset the cost that officers must often incur in traveling to billets 
at Marine Corps Reserve locations nationwide.

                            QUALITY OF LIFE

    Our future success will rely on the Marine Corps' most valuable 
asset--our Marines and their families. We, Marine Forces Reserve, 
believe it is our obligation to arm our Marines and their families with 
as much information as possible on the programs and resources available 
to them. Arming our Marines and their families with information on 
their education benefits, available childcare programs, family 
readiness resources and the health care benefits available to them, 
provides them with unlimited potential for their quality of life.
Education
    Last year I testified that there were no laws offering academic and 
financial protections for Reserve military members who are college 
students. I was glad to see that there is movement in Congress to 
protect our college students and offer greater incentives for all 
service members to attend colleges. I appreciate recent 2005 
legislation protecting a military member's college education 
investments and status when called to duty.
    More than 1,000 Marine Forces Reserve Marines chose to use Tuition 
Assistance in fiscal year 2004 in order to help finance their 
education. This Tuition Assistance came to more than $1.9 million in 
fiscal year 2004 for more than 3,700 courses. Many of these Marines 
were deployed to Afghanistan and Iraq, and took their courses via 
distance learning courses. In this way Tuition Assistance helped to 
mitigate the financial burden of education and maintained progress in 
the Marine's planned education schedule. We support continued funding 
of Tuition Assistance as currently authorized for activated Reserves. I 
fully support initiatives that will increase G.I. Bill benefits for 
Reserve and National Guard service members, as it is a key retention 
and recruiting tool and an important part of our Commandant's guidance 
to enhance the education of all Marines. House Resolution 4200, passed 
by both the House and Senate in October 2004 authorized Montgomery G.I. 
Bill benefits for certain Reserve and National Guard service members 
and increased the benefits for others. I heartily thank you for this 
initiative and look forward to it's anticipated implementation by the 
Department of Veterans Affairs in September 2005.
Child Care Programs
    Marines and their families are often forced to make difficult 
choices in selecting childcare, before, during and after a Marine's 
deployment in support of the Global War on Terror. We are deeply 
grateful for the joint initiative funded by the Department of Defense 
and announced on March 3, 2005 by the Boys and Girls Clubs of America 
and the National Association of Child Care Resource and Referral 
Agencies. Without the fiscal authorization provided by the Senate and 
House, these programs could not have been initiated or funded. These 
combined resources have immeasurably contributed to the quality of life 
of our Marines' and their families. I thank you all for your support in 
the past and the future in providing sufficient funds for these key 
initiatives.
Family Readiness
    Everyone in Marine Forces Reserve recognizes the strategic role our 
families have in our mission readiness, particularly in our 
mobilization preparedness. We help our families to prepare for day-to-
day military life and the deployment cycle (Pre-Deployment, Deployment, 
Post-Deployment, and Follow-On) by providing educational opportunities 
at unit Family Days, Pre-Deployment Briefs, Return and Reunion, Post-
Deployment Briefs and through programs such as the Key Volunteer 
Network (KVN) and Lifestyle Insights, Networking, Knowledge and Skills 
(L.I.N.K.S.). We also envision the creation of Regional Quality of Life 
Coordinators, similar to the Marine Corps Recruiting Command program, 
for our Reserve Marines and their families.
    At each of our Reserve Training Centers, the KVN program serves as 
the link between the command and the family members, providing them 
with official communication, information and referrals. The Key 
Volunteers, many of whom are parents of young, un-married Marines, 
provide a means of proactively educating families on the military 
lifestyle and benefits, provide answers for individual questions and 
areas of concerns and, perhaps most importantly, enhance the sense of 
community within the unit. The L.I.N.K.S. program is a spouse-to-spouse 
orientation service offered to family members to acquaint them with the 
military lifestyle and the Marine Corps, including the challenges 
brought about by deployments. Online and CD-ROM versions of L.I.N.K.S. 
makes this valuable tool more readily accessible to families of Reserve 
Marines not located near Marine Corps installations.
    MCCS One Source is another important tool that provides Marines and 
their families with around-the-clock information and referral service 
for subjects such as parenting, childcare, education, finances, legal 
issues, elder care, health, wellness, deployment, crisis support and 
relocation via toll-free telephone and Internet access.
    The Peacetime/Wartime Support Team and the support structure within 
the Inspector and Instructor staff uses all these tools to provide 
families of activated or deployed Marines with assistance in developing 
proactive, prevention-oriented steps such as family care plans, powers 
of attorney, family financial planning, and enrollment in the Dependent 
Eligibility and Enrollment Reporting System.
    All of these programs depend on adequate funding of our manpower 
and O&M accounts.
Managed Health Network
    Managed Health Network, through a contract with the Department of 
Defense, is providing specialized mental health support services to 
military personnel and their families. This unique program is designed 
to bring counselors on-site at Reserve Training Centers to support all 
phases of the deployment cycle. Marine Forces Reserve is incorporating 
this resource into Family Days, Pre-Deployment Briefs and Return & 
Reunion Briefs to ensure a team approach. Follow-up services are then 
scheduled after Marines return from combat at various intervals to 
facilitate on-site individual and group counseling.
TRICARE
    Since 9/11, Congress has gone to great lengths to improve TRICARE 
benefits available to the Guard and Reserve and we are very 
appreciative to Congress for all the recent changes to the program. 
Beginning April 2005, TRICARE Reserve Select will be implemented, 
providing eligible Guard and Reserve members with comprehensive health 
care. This new option, similar to TRICARE Standard, is designed 
specifically for reserve members activated on or after September 11, 
2001 who enter into an agreement to serve continuously in the Selected 
Reserve for a period of 1 or more years. Other key provisions include 
coverage for Selected Reserves after an activation, which provides a 
year of coverage while in non-active duty status for every 90 days of 
consecutive active duty. The member must agree to remain in the 
Selected Reserve for one or more whole years. Also, a permanent earlier 
eligibility date for coverage due to activation has been established at 
up to 90 days before an active duty reporting date for members and 
their families.
    The new legislation also waives certain deductibles for activated 
members' families. This reduces the potential double payment of health 
care deductibles by members' civilian coverage. Another provision 
allows DOD to protect the beneficiary by paying the providers for 
charges above the maximum allowable charge. Transitional health care 
benefits have been established, regulating the requirements and 
benefits for members separating. We are thankful for these permanent 
changes that extend healthcare benefits to family members and extend 
benefits up to 90 days prior to their activation date and up to 180 
days after de-activation.
    Reserve members are also eligible for dental care under the Tri-
Service Remote Dental Plan for a moderate monthly fee. In an effort to 
increase awareness of the new benefits, Reserve members are now 
receiving more information regarding the changes through an aggressive 
education and marketing plan. I would like to also ask Congress and 
this committee for their support of the new fiscal year 2005 
legislation that includes improvements. These initiatives will further 
improve the healthcare benefits for our reserves and National Guard 
members and families.
Casualty Assistance
    One of the most significant responsibilities of the site support 
staff is that of casualty assistance. It is at the darkest hour for our 
Marine families that our support is most invaluable. By virtue of our 
dispersed posture, Marine Forces Reserve site support staffs are 
uniquely qualified to accomplish the majority of all Marine Corps 
casualty notifications and provide the associated family assistance. 
Currently, Marine Forces Reserve conducts approximately 92 percent of 
all notifications and follow-on assistance for the families of our 
fallen Marine Corps brethren. In recognition of this greatest of 
sacrifices, there is no duty to our families that we treat with more 
importance. However, the duties of our casualty assistance officers go 
well beyond notification. We ensure that they are adequately trained, 
equipped and supported by all levels of command. Once an officer or 
staff noncommissioned officer is designated as a casualty assistance 
officer, he or she assists the family members in every possible way, 
from planning the return and final rest of their Marine, counseling 
them on benefits and entitlements, to providing a strong shoulder when 
needed. The casualty officer is the family's central point of contact, 
serving as a representative or liaison with the media, funeral home, 
government agencies or any other agency that may be involved. Every 
available asset is directed to our Marine families to ensure they 
receive the utmost support. The Marine Corps Reserve also provides 
support for military funerals for our veterans. The Marines at our 
reserve sites performed 7,621 funerals in calendar year.
    The Marine Corps is also committed to supporting the wishes of 
seriously injured Marines, allowing them to remain on active duty if 
they desire or making their transition home as smooth as possible. 
Leveraging the organizational network and strengths of the Marine for 
Life program, we are currently implementing an Injured Support program 
to assist injured Marines, Sailors serving with Marines, and their 
families. The goal is to bridge the gap between military medical care 
and the Department of Veterans Affairs--providing continuity of support 
through transition and assistance for several years afterwards. Planned 
features of the program include: advocacy for Marines, Sailors and 
their families within the Marine Corps and with external agencies; pre 
and post-Service separation case management; assistance in working with 
physical evaluation boards; an interactive web site for disability/
benefit information; an enhanced Marine Corps Community Services ``One 
Source'' capability for 24/7/365 information; facilitation assistance 
with Federal hiring preferences; coordination via an assigned Marine 
liaison with veterans, public, and private organizations providing 
support to our seriously injured; improved Department of Veterans 
Affairs handling of Marine cases; and development of any required 
proposals for legislative changes to better support our Marines and 
Sailors. This program began limited operations in early January 2005. 
We are able to support these vitally important programs because of the 
wide geographic dispersion of our units.
Marine For Life
    Our commitment to take care of our own includes a Marine's 
transition from honorable military service back to civilian life. 
Initiated in fiscal year 2002, the Marine For Life program continues to 
provide support for 27,000 Marines transitioning from active service 
back to civilian life each year. Built on the philosophy, ``Once a 
Marine, Always a Marine,'' Reserve Marines in over eighty cities help 
transitioning Marines and their families to get settled in their new 
communities. Sponsorship includes assistance with employment, 
education, housing, childcare, veterans' benefits and other support 
services needed to make a smooth transition. To provide this support, 
the Marine For Life program taps into a network of former Marines and 
Marine-friendly businesses, organizations and individuals willing to 
lend a hand to a Marine who has served honorably. Approximately 2,000 
Marines are logging onto the web-based electronic network for 
assistance each month. Assistance from career retention specialists and 
transitional recruiters helps transitioning Marines tremendously by 
getting the word out about the program.
Employer Support
    Members of the Guard and Reserve who choose to make a career must 
expect to be subject to multiple activations. Employer support of this 
fact is essential to a successful activation and directly effects 
retention and recruiting. With continuous rotation of Reserve Marines, 
we recognize that a the rapid deactivation process is a high priority 
to reintegrate Marines back into their civilian lives quickly and 
properly in order to preserve the Reserve force for the future. We 
support incentives for employers who support their activated Guard and 
Reserve employees such as the Small Business Military Reservist Tax 
Credit Act, which allows small business employers a credit against 
income tax for employees who participate in the military reserve 
component and are called to active duty.

                               CONCLUSION

    As I have stated in the beginning of my testimony, your consistent 
and steadfast support of our Marines and their families has directly 
contributed to our successes, both past and present, and I thank you 
for that support. As we push on into the future, your continued concern 
and efforts will play a vital role in the success of Marine Forces 
Reserve. Due to the dynamics of the era we live in, there is still much 
to be done.
    The Marine Corps Reserve continues to be a vital part of the Marine 
Corps Total Force Concept. Supporting your Reserve Marines at the 185 
sites throughout the United States, by ensuring they have the proper 
facilities, equipment and training areas, enables their selfless 
dedication to our country. Since 9/11, your Marine Corps Reserve has 
met every challenge and has fought side by side with our active 
counterparts. No one can tell the difference between the active and 
reserve--we are all Marines.
    The consistent support from Congress for upgrades to our war 
fighting equipment has directly affected the American lives saved on 
the battlefield. However, as I stated earlier, much of the same 
fighting equipment throughout the force has deteriorated rapidly due to 
our current operational tempo. In this regard, I fully support the 
fiscal year 2005 Supplemental request.
    Although we currently maintain a high level of readiness, we will 
need significant financial assistance to refresh and/or replace our war 
fighting equipment in the very near future. Also, as the Marine Forces 
Reserve adjusts its force structure over the next 2 years, several 
facilities will need conversions to create proper training environments 
for the new units. Funding for these conversions would greatly assist 
our war fighting capabilities.
    As I have stated earlier, NGREA continues to be extremely vital to 
the health of the Marine Corps Reserve, assisting us in staying on par 
with our active component. We would not have been able to attain our 
current level of deployed readiness while providing in-theater 
operational capabilities without your support of this key program.
    My final concerns are for Reserve and Guard members, their families 
and employers who are sacrificing so much in support of our Nation. 
Despite strong morale and good planning, activations and deployments 
place great stress on these honorable Americans. Your continued support 
for ``quality of life'' initiatives will help sustain Reserve Marines 
in areas such as employer incentives, educational benefits, medical 
care and family care.
    My time as Commander, Marine Forces Reserve has been tremendously 
rewarding. Testifying before congressional committees and subcommittees 
has always been a great pleasure, as it has afforded me the opportunity 
to let the American people know what an outstanding patriotic group of 
citizens we have in the Marine Corps Reserve. Thank you for your 
continued support.

    Senator Stevens. General Bradley.

STATEMENT OF LIEUTENANT GENERAL JOHN A. BRADLEY, CHIEF, 
            AIR FORCE RESERVE, UNITED STATES AIR FORCE
    General Bradley. Senator Stevens, sir, it is an honor to be 
here, a privilege to represent the men and women of the Air 
Force Reserve Command before you today. I want to thank you. I 
have provided a written statement, but orally I want to thank 
you for the generous support that you have given us over the 
years, and solicit your continued support for us.
    We have so many thousands of very hard-working young men 
and women serving our Air Force, serving our Nation, helping it 
do its job around the world. I am very proud of them. 
Representing our enlisted force, I have with me today my 
Command Chief Master Sergeant, Chief Master Sergeant Jack 
Winsett with me here today in the hearing room. He gives me 
great advice and counsel about taking care of our enlisted 
force, the force who really help us get our job done.
    Again, we thank you for the great support you have given us 
and we look forward to your questions, sir. Thank you.
    Senator Stevens. Thank you.
    [The statement follows:]

        Prepared Statement of Lieutenant General John A. Bradley

    Mr. Chairman, and distinguished members of the Committee, I 
appreciate the opportunity to appear before you today. I want to thank 
you for your continued support, which has helped your Air Force Reserve 
address vital recruiting, retention, modernization, and infrastructure 
needs. Your passage of last year's pay and quality of life initiatives 
sent a clear message to our citizen Airmen that their efforts are 
appreciated and supported by the American people, and also by those of 
you in the highest positions of government. Wherever you find the 
United States Air Force, at home or abroad, you will find the active 
and Reserve members working side-by-side, trained to one tier of 
readiness, seamlessly integrated into a military force that is READY 
NOW!

                              TOTAL FORCE

    The Air Force Reserve (AFR) continues to address new challenges in 
2005. Although Partial Mobilization persists, demobilizations have 
increased significantly. In spite of the strains that mobilization has 
placed on the personal and professional lives of our Reserve members, 
volunteerism continues to be a significant means of contribution. 
Volunteerism is the preferred method of fulfilling requirements for 
future Global War On Terror (GWOT) actions. While dedicated members of 
the Air Force Reserve continue to meet validated operational 
requirements, the AFR, in cooperation with the Air Force Personnel 
Requirements division is exploring ways to enhance volunteerism, 
including use of volunteer Individual Ready Reserve (IRR) members. 
Recruiting and retention of quality service members are a top priority 
for the Air Force Reserve and competition for these members among other 
services, as well as within the civilian community has reached an all-
time high.
Recruiting
    In fiscal year 2004, and for the last 4 consecutive years, Air 
Force Reserve Command (AFRC) exceeded its recruiting goal. This 
remarkable feat is achieved through the outstanding efforts of our 
recruiters and with the superb assistance of our Reserve members who 
help tell our story of public service to the American people. Despite 
the long-term effects of high Operations and Personnel (OPS/PERS) 
Tempo, AFRC only fell short of its fiscal year 2004 end-strength by .7 
percent, reaching 99.37 percent, or merely 578 assigned short of 
congressionally funded requirements.
    Recruiting continues to face significant challenges. The pool of 
active duty separatees continues to shrink due to force reductions over 
the last decade, and the competition for these members has become even 
keener. The active duty is intensifying its efforts in retention and 
the National Guard is competing for these assets as well. Additionally, 
the current high OPS/PERS Tempo and a perceived likelihood of 
activation and deployment are being routinely cited as significant 
reasons why separating members are declining to choose continuing 
military service in the Reserve. These issues further contribute to the 
civilian sector's ability to attract these members away from military 
service. One consequence of the reduced success in attracting 
separating members from active duty is the need to make up this 
difference through attracting non-prior service (NPS) members. 
Historically, Reserve Recruiting accesses close to 25 percent of 
eligible separating active duty Air Force members (i.e. no break in 
service), which accounts for a significant portion of annual 
accessions. While having enough Basic Military Training and Technical 
Training School quotas has long been an issue, the increased dependence 
on NPS accessions strains these requirements even further. To meet 
training requirements, 4,000 training slots per year are now allocated 
and funded for the Air Force Reserve.
    A new forecasting tool developed by our training division allows 
everyone, from unit level to wing training managers, to Numbered Air 
Force (NAF) and AFRC Air Force Specialty Code (AFSC) functional 
managers, to participate in the forecasting with the Chief of 
Recruiting Services providing final approval.
    Finally, with overall end-strength of the Air Force Reserve dipping 
below 100 percent, some career-fields are undermanned. In order to 
avoid possible readiness concerns, recruiters will continue to meet the 
challenge of guiding applicants to critical job specialties.
    The Reserve is taking advantage of an active duty Force Shaping 
initiative. Beginning in fiscal year 2004 and ending in fiscal year 
2005, the Air Force will offer active duty members the opportunity to 
use the Palace Chase program to change components. The Air Force 
Reserve is using this opportunity to access prior service members with 
critical career skills. In fiscal year 2004, 1,200 active duty members 
utilized Palace Chase to join the Air Reserve Component, with over half 
selecting the Air Force Reserve. This number may grow in fiscal year 
2005.
    For recruits who have not served in a military component, the 
development of the ``Split Training Option'' which began in October 
2003, provides a flexible tool for recruiters to use in scheduling 
Basic Military Training classes and Technical School classes at non-
consecutive times.
Retention
    Retention in both officer and enlisted categories has remained 
strong. Fiscal year 2004 ended with officer retention at 92.3 percent 
and overall enlisted retention at 88.4 percent. These retention rates 
are in line with averages over the last 5 years.
    As the Reserve Component (RC) continues to surge to meet 
operational requirements necessary for the successful prosecution of 
the GWOT, we continue to examine existing laws and policies that govern 
enlisted incentives and related compensation issues. The reserve 
enlisted bonus program is a major contributor to attract and retain 
both unit and individual mobilization augmentee members in those 
critical unit type code tasked career fields. To enhance retention of 
our reservists, we work to ensure relevant compensation statutes 
reflect the growing reliance on the RC to accomplish active duty 
missions and provide compensatory equity between members of both 
components. The reenlistment bonus authority of the active and reserve 
components is one area we are working to change. We continue to explore 
the feasibility of expanding the bonus program to our Air Reserve 
Technician (ART) members. In addition, the Aviation Continuation Pay 
(ACP), the Career Enlisted Flyers Incentive Pay (CEFIP) and Aircrew 
Incentive Pay (ACIP) continue to be offered to retain our rated assets, 
both officer and enlisted.
    The Reserve has made many strides in increasing education benefits 
for our members, offering 100 percent tuition assistance for those 
individuals pursuing an undergraduate degree and continuing to pay 75 
percent for graduate degrees. We also employ the services of the 
Defense Activity for Non-Traditional Education Support (DANTES) for 
College Level Examination Program (CLEP) testing for all reservists and 
their spouses.
    We will continue to seek innovative ways to enhance retention.
Quality of Life Initiatives
    We expanded the AFR Special Duty Assignment Pay (SDAP) program by 
including an additional six Air Force Specialty Codes to enhance 
recruitment and retention, improve program alignment, and provide 
parity to Reserve members. Where there is Reserve strength, the 
expansion authorizes the payment of SDAP to a reservist qualifying in 
the same skill and location as their active duty counterpart. The AFR 
SDAP program has continued to evolve and improve since Secretarial 
authority removed the tour length requirement for the Air Reserve 
Component in July 2000.
    We appreciate the support provided in the fiscal year 2005 National 
Defense Authorization Act that expanded the Reserve health benefits. At 
your direction, the Department is implementing the new TRICARE Reserve 
benefits that will ensure the individual medical readiness of members 
of the Guard and Reserve, and contribute to the maintenance of an 
effective Air Force Reserve force. The Department has made permanent 
their early access to TRICARE upon notification of call-up and their 
continued access to TRICARE for 6 months following active duty service 
for both individuals and their families. We are implementing the 
TRICARE Reserve Select (TRS) coverage for Air Force Reserve personnel 
and their families who meet the requirements established in law. TRS is 
a premium-based healthcare plan available for purchase by certain 
eligible members of the National Guard and Reserves who have been 
activated for a contingency operation since September 11, 2001. This 
program will serve as an important bridge for all Reserve and Guard 
members as they move back to other employment and the utilization of 
the private health care market. We believe that the design of TRS in a 
manner that supports retention and expands health benefits is creative 
and should be studied before any further adjustments are contemplated.
    A change in the Joint Federal Regulation Travel policy authorized 
expenses for retained lodging for a member who takes leave during a TDY 
contingency deployment to be paid as a reimbursable expense. This 
change became effective February 24, 2004, and has since alleviated the 
personal and financial hardship deployed reservists experience with 
regard to retaining lodging and losing per diem while taking leave.

                          FLEET MODERNIZATION

F-16 Fighting Falcon
    Air Combat Command and AFRC are upgrading the F-16 Block 25/30/32 
in all core combat areas by installing Global Positioning System (GPS) 
navigation system, Night Vision Imaging System (NVIS) and NVIS 
compatible aircraft lighting, Situational Awareness Data Link (SADL), 
Target Pod integration, GPS steered ``smart weapons'', an integrated 
Electronics Suite, Pylon Integrated Dispenser System (PIDS), Digital 
Terrain System (DTS), and the ALE-50 (towed decoy system). The 
acquisition of the Litening Advanced targeting pod (ATP) marked the 
greatest jump in combat capability for AFRC F-16s in years. At the 
conclusion of the Persian Gulf War, it became apparent that the ability 
to employ precision-guided munitions, specifically laser-guided bombs, 
would be a requirement for involvement in future conflicts. Litening 
affords the capability to employ precisely targeted Laser Guided Bombs 
(LGBs) effectively in both day and night operations, any time at any 
place. This capability allows AFRC F-16s to fulfill any mission tasking 
requiring a self-designating, targeting-pod platform, providing needed 
relief for heavily tasked active-duty units. These improvements, and 
recent funding to upgrade all Litening pods to the latest version 
(Litening AT), have put AFRC F-16s at the leading edge of combat 
capability. The combination of these upgrades are unavailable in any 
other combat aircraft and make the Block 25/30/32 F-16 the most 
versatile combat asset available to a theater commander.
    Tremendous work has been done to keep the Block 25/30/32 F-16 
employable in today's complex and demanding combat environment. This 
success has been the result of far-sighted planning that has 
capitalized on emerging commercial and military technology to provide 
specific capabilities that were projected to be critical. That planning 
and vision must continue if the F-16 is to remain useable as the 
largest single community of aircraft in America's fighter force. Older 
model Block 25/30/32 F-16 aircraft require structural improvements to 
guarantee that they will last as long as they are needed. They also 
require data processor and wiring system upgrades in order to support 
employment of more sophisticated precision attack weapons. These models 
must have improved pilot displays to integrate and present the large 
volumes of data now provided to the cockpit. Additional capabilities 
are needed to eliminate fratricide and allow weapons employment at 
increased range, day or night and in all weather conditions. They must 
also be equipped with significantly improved threat detection, threat 
identification, and threat engagement systems in order to meet the 
challenges of combat survival and employment for the next 20 years.
A/OA-10 Thunderbolt
    There are five major programs over the next 5 years to ensure the 
A/OA-10 remains a viable part of the total Air Force. The first is 
increasing its precision engagement capabilities. The A-10 was designed 
for the Cold War and is the most effective Close Air Support (CAS) 
anti-armor platform in the USAF, as demonstrated during the Persian 
Gulf War. Unfortunately, its systems have not kept pace with modern 
tactics as was proven during Operation Allied Force. Until the Litening 
II Advanced Targeting Pod (ATP) was integrated, the AGM-65 (Maverick) 
was the only precision-guided weapon carried on the A-10. The 
integration method used to employ the targeting, however, was an 
interim measure and the A-10 still lacks a permanent, sustainable means 
of integrating the Litening pod into its avionics. Additionally, there 
has been a critical need for a datalink to help identify friendly 
troops and vehicles, which will reduce fratricide. There has been a 
datalink solution available for the A-10 since 1996 and is currently 
employed on the F-16. Newer weapons are being added to the Air Force 
inventory regularly, but the current avionics and computer structure 
limits the deployment of these weapons on the A-10. The Precision 
Engagement (PE) and Suite 3 programs will help correct this limitation, 
but the AFR does not expect to see PE installed until fiscal year 2008 
and it still does not include a datalink. Next, critical systems on the 
engines are causing lost sorties and increased maintenance activity. 
Several design changes to the Accessory Gearbox will extend its useful 
life and reduce the existing maintenance expense associated with the 
high removal rate. The other two programs increase the navigation 
accuracy and the overall capability of the fire control computer, both 
increasing the weapons system's overall effectiveness.
    Looking to the future, there is a requirement for a training 
package of 30 PRC-112B/C survival radios for 10th Air Force fighter, 
rescue, and special operations units. While more capable, these radios 
are also more demanding to operate and additional units are needed to 
ensure the aircrews are fully proficient in their operation.
    One of the A-10 challenges is money for upgrade in the area of high 
threat survivability. Previous efforts focused on an accurate missile 
warning system and effective, modern flares; however, a new preemptive 
covert flare system may satisfy the requirement. The A-10 can leverage 
the work done on the F-16 Radar Warning Receiver and C-130 towed decoy 
development programs to achieve a cost-effective capability. The A/OA-
10 has a thrust deficiency in its operational environment. As taskings 
evolved, commanders have had to reduce fuel loads, limit take-off times 
to early morning hours and refuse taskings that increase gross weights 
to unsupportable limits. Forty-five AFRC A/OA-10s need upgraded 
structures and engines (two engines per aircraft plus five spares for a 
total of 95 engines).
B-52 Stratofortress
    In the next 5 years, several major programs will be introduced to 
increase the capabilities of the B-52 aircraft. Included here are 
programs such as a Crash Survivable Flight Data Recorder and a Standard 
Flight Data Recorder, upgrades to the current Electro-Optical Viewing 
System, Chaff and Flare Improvements, and improvements to cockpit 
lighting and crew escape systems to allow use of Night Vision Goggles.
    Enhancements to the AFRC B-52 fleet currently under consideration 
are:
  --Visual clearance of the target area in support of other 
        conventional munitions employment
  --Self-designation of targets, eliminating the current need for 
        support aircraft to accomplish this role
  --Target coordinate updates to JDAM and WCMD, improving accuracy
  --Bomb Damage Assessment of targets
    In order to continue the viability of the B-52, several 
improvements and modifications are necessary. Although the aircraft has 
been extensively modified since its entry into the fleet, the advent of 
precision guided munitions and the increased use of the B-52 in 
conventional and Operations Other Than War (OOTW) operation require 
additional avionics modernization and changes to the weapons 
capabilities such as the Avionics Midlife Improvement, Conventional 
Enhancement Modification (CEM), and the Integrated Conventional Stores 
Management System (ICSMS). Changes in the threat environment are also 
driving modifications to the defensive suite including Situational 
Awareness Defense Improvement and the Electronic Counter Measures 
Improvement (ECMI).
    Recently, the B-52 began using the Litening Advanced Targeting Pod 
to locate targets and employ precision weapons. The targeting pod 
interface has adapted equipment from an obsolete system. The system 
works but requires an updated system to take full advantage of the 
targeting pod capability.
    Like the A-10, it also requires a datalink to help reduce 
fratricide as its mission changes to employ ordinance closer and closer 
to friendly forces. The Litening pod continues to see incremental 
improvements but needs emphasis on higher resolution sensors and a more 
powerful, yet eye-safe laser, to accommodate the extremely high 
employment altitudes (over 40,000 feet) of the B-52.
    The B-52 was originally designed to strike targets across the globe 
from launch in the United States. This capability is being repeatedly 
demonstrated, but the need for real time targeting information and 
immediate reaction to strike location changes is needed. Multiple 
modifications are addressing these needs. These integrated advanced 
communications systems will enhance the B-52 capability to launch and 
modify target locations while airborne. Other communications 
improvements are the Global Air Traffic Management (GATM) Phase 1, an 
improved ARC-210, the KY-100 Secure Voice, and a GPS-TACAN Replacement 
System (TRS).
    As can be expected with an airframe of the age of the B-52, much 
must be done to enhance its reliability and replace older, less 
reliable or failing hardware. These include a Fuel Enrichment Valve 
Modification, Engine Oil System Package, and an Engine Accessories 
Upgrade, all to increase the longevity of the airframe.
MC-130H Talon
    In 2006, AFRC and Air Force Special Operations Command will face a 
significant decision point on whether on not to retire the Talon I. 
This largely depends on the determination of the upcoming SOF Tanker 
Requirement Study. Additionally, the MC-130H Talon II aircraft will be 
modified to air refuel helicopters. The Air Force CV-22 is being 
developed to replace the entire MH-53J Pave Low fleet, and the MC-130E 
Combat Talon l. The CV-22 program has been plagued with problems and 
delays and has an uncertain future. Ultimately, supply and demand will 
impact willingness and ability to pay for costly upgrades along with 
unforeseeable expenses required to sustain an aging weapons system.
HC-130P/N Hercules
    Over the next 5 years, there will be primarily sustainability 
modifications to the weapons systems to allow it to maintain 
compatibility with the remainder of the C-130 fleet. In order to 
maintain currency with the active duty fleet, AFRC will accelerate the 
installation of the APN-241 as a replacement for the APN-59. 
Additionally, AFRC will receive two aircraft modified from the `E' 
configuration to the Search and Rescue configuration. All AFRC assets 
will be upgraded to provide Night Vision Imaging System (NVIS) mission 
capability for C-130 combat rescue aircraft.
HH-60G Pave Hawk
    Combat Search and Rescue (CSAR) Mission Area modernization strategy 
currently focuses on resolving critical weapon system capability 
shortfalls and deficiencies that pertain to the Combat Air Force's 
Combat Identification, Data Links, Night/All-Weather Capability, Threat 
Countermeasures, Sustainability, Expeditionary Operations, and Para 
rescue modernization efforts. Since the CAF's CSAR forces have several 
critical capability shortfalls that impact their ability to effectively 
accomplish their primary mission tasks today, most CSAR modernization 
programs/initiatives are concentrated in the near-term (fiscal year 
2000-2006). These are programs that:
  --Improve capability to pinpoint location and authenticate identity 
        of downed aircrew members/isolated personnel
  --Provide line-of-sight and over-the-horizon high speed LPI/D data 
        link capabilities for improving battle space/situational 
        awareness
  --Improve Command and Control capability to rapidly respond to 
        ``isolating'' incidents and efficiently/effectively task 
        limited assets
  --Improve capability to conduct rescue/recovery operations at night, 
        in other low illumination conditions, and in all but the most 
        severe weather conditions
  --Provide warning and countermeasure capabilities against RF/IR/EO/DE 
        threats
  --Enhance availability, reliability, maintainability, and 
        sustainability of aircraft weapon systems
WC/C-130J Hercules
    The current fleet is being replaced with new WC-130J models. This 
replacement allows for longer range and ensures weather reconnaissance 
capability well into the next decade. Once conversion is complete, the 
53rd Weather Reconnaissance Squadron will consist of 10 WC-130J's. 
Presently, there are ten WC-130J models at Keesler AFB, MS undergoing 
Qualification Test and Evaluation (QT&E). Deliveries were based on the 
resolution of deficiencies identified in test and will impact the start 
of operational testing and the achievement of Interim Operational 
Capability (IOC). Major deficiencies include: propellers (durability/
supportability) and radar tilt and start up attenuation errors. AFRC 
continues to work with the manufacturer to resolve the QT&E documented 
deficiencies.
C-5 Galaxy
    Over the next 4 years, there will be primarily sustainability 
modifications to the weapons systems to allow the C-5 to continue as 
the backbone of the airlift community. Several major modifications will 
be performed on the engines to increase reliability and 
maintainability. Additionally, the remainder of the fleet will receive 
the avionics modernization that replaces cockpit displays while 
upgrading critical navigational and communications equipment. Also, 
consideration is being made to install Aircraft Defensive Systems on C-
5A aircraft. Installation of Aircraft Defensive Systems will increase 
the survivability of the C-5A in hostile situations.
C-17 Globemaster
    In the summer of fiscal year 2005, the first AFRC Unit Equipped C-
17 squadron will stand up at March AFB. This new squadron will enhance 
the mobility capabilities for the United States military in peacetime 
and in conflict by rapid strategic delivery of troops and all type of 
cargo while improving the ability of the total airlift system to 
fulfill the worldwide air mobility requirements.
C-141 Starlifter
    For the past 31 years, the C-141 has been the backbone of mobility 
for the United States military in peacetime and in conflict. In 
September 2004 the C-141 retired from the active-duty Air Force; 
however, Air Force Reserve Command will continue the proud heritage of 
this mobility workhorse and will fly the C-141 through the third 
quarter of fiscal year 2006. AFRC remains focused in flying the mission 
of the C-141 and looks to the future in transitioning to a new mission 
aircraft.
C-130 Hercules
    AFRC has 127 C-130s including the E, H, J and N/P models. The 
Mobility Air Forces (MAF) currently operate the world's best theater 
airlift aircraft, the C-130, and it will continue in service through 
2020. In order to continue to meet the Air Force's combat delivery 
requirements through the next 17 years, aircraft not being replaced by 
the C-130J will become part of the C-130X Program. Phase 1, Avionics 
Modernization Program (AMP) program includes a comprehensive cockpit 
modernization by replacing aging, unreliable equipment and adding 
additional equipment necessary to meet Nav/Safety and GATM 
requirements. Together, C-130J and C-130X modernization initiatives 
reduce the number of aircraft variants from 20 to two core variants, 
which will significantly reduce the support footprint and increase the 
capability of the C-130 fleet. The modernization of our C-130 forces 
strengthens our ability to ensure the success of our war fighting 
commanders and lays the foundation for tomorrow's readiness.
KC-135E/R Stratotanker
    One of Air Force Reserve Command's most challenging modernization 
issues concerns our unit-equipped KC-135s. Eight of the nine air 
refueling squadrons are equipped with the KC-135R, while the remaining 
one squadron is equipped with KC-135Es. The KC-135E, commonly referred 
to as the E-model, has engines that were recovered from retiring 
airliners. This conversion, which was accomplished in the early- to 
mid-1980s, was intended as an interim solution to provide improvement 
in capability while awaiting conversion to the R-model with its new, 
high-bypass, turbofan engines and other modifications. The final KC-
135E squadron is currently transitioning to the KC-135R/T Model 
aircraft which is scheduled to be completed in fiscal year 2005.
    The ability to conduct the air-refueling mission has been stressed 
in recent years. Although Total Force contributions have enabled 
success in previous air campaigns, shortfalls exist to meet the 
requirements of our National Military Strategy. Air Mobility Command's 
(AMC) Tanker Requirements Study-2005 (TRS-05) identifies a shortfall in 
the number of tanker aircraft and aircrews needed to meet global 
refueling requirements in the year 2005. There is currently a shortage 
of KC-135 crews and maintenance personnel. Additionally, the number of 
KC-135 aircraft available to perform the mission has decreased in 
recent years due to an increase in depot-possessed aircraft with a 
decrease in mission capable (MC) rates.
    I would like to close by offering my sincere thanks to each member 
of this Committee for your continued support and interest in the 
quality of life of each Air Force Reservist. The pay increases and 
added benefits of the last few years have helped us through a 
significant and unprecedented time of higher operations tempo. This is 
my first opportunity to represent these fine young men and women as the 
Chief of Air Force Reserve, and I know that we are on the right path in 
establishing a stronger, more focused, force. It is a force no longer 
in Reserve, but integrated into every mission of the Air Force.

    Senator Stevens. Do you have anything further, General 
Helmly?
    General Helmly. No, sir.
    Senator Stevens. Gentlemen, you heard the discussion, I 
believe, about the bonuses and incentives for reenlistment. 
Could each of you tell me, what do you think is the most 
important incentive we have from your point of view for your 
service? General?
    General Helmly. Sir, let me say first that I am very 
conscious of the fact that there are two factors that play into 
a decision to enlist, as well as reenlist. The first one is of 
course the monetary factor. The second one is a service ethic. 
We have recently really started to emphasize the service ethic.
    I found when I assumed this position it was my judgment we 
had strayed too far in the direction of monetary only, so we 
have changed our recruiting ads, we have changed our retention 
focus. As I personally participated in reenlisting about 105 
soldiers in January between Afghanistan and Iraq, there were 
two factors they cited when I signed their reenlistment papers 
after the ceremony.
    The first one was that the $5,000 to $15,000 bump in the 
fiscal year 2005 authorization act for first term reenlistment 
was a deciding factor for them and their families. The second 
one, though, was--General McCarthy noted this--that the 
soldiers said, to a person: I am finally getting an opportunity 
to perform the skill for which I enlisted in the Army Reserve. 
That says to us that use of Reserve components, while not an 
anomaly in our Nation's history, has a decided effect on 
reenlisting the soldier.
    Thus, I caution against those who would say that the stress 
on the Reserve components is such we should not use them. It is 
my judgment we will be more unready if we return to that kind 
of usage factor.
    With regard to added incentives, I am conscious of the 
cost, and therefore it is my judgment that addressing the age 
at which the soldier becomes eligible to receive non-regular 
retired pay is a decided issue. I would also add that, while 
there is a decided monetary factor, our increase in money, I 
believe that we can create that money by looking at how we pay 
our soldiers on a daily basis.
    Largely, we pay our soldiers through 27 different forms of 
orders, each of which carries different entitlements for 
different periods. The type I and II BAH, which has been 
examined, we should move to a simpler pay formula that largely 
pays the Reserve component member a day's pay for a day's duty 
with a single BAH and the same kinds of entitlements that the 
active member receives--flight pay, parachute duty, hazardous 
duty, language proficiency, medical proficiency, et cetera, a 
much simpler formula that would put them on a scale roughly 
equivalent to their active counterparts.
    Last, I am not certain--in fact, I will tell you straight 
out, I share your concerns with regard to this pay 
comparability between my civilian employment level and the 
military pay. It is the lot of the American service member, all 
services, that all sacrifice. We have tremendous people in our 
Active components. To deny that some of them could achieve 
higher levels of pay in civilian life is a denial of the 
obvious. Many of them could.
    I will turn it over to my colleagues, sir.
    Senator Stevens. I appreciate that.
    Anyone else? Admiral.
    Admiral Cotton. Sir, I would echo every one of the 
General's comments, and I would add three thoughts. I would say 
that recruiting for the Reserve component starts while still in 
the Active component. This is a culture piece that we are 
attacking in the Navy, to educate everyone in the Active 
component about the importance of the total force. We believe 
in this so much that we think that when you are in the Active 
component you should no longer fill out a resignation letter. 
We think instead you should fill out a transition letter, 
because everyone does go to the Reserve component. We create 
expectations then.
    When they go into the Reserve component, they either go 
full-time support, they become a selected reservist, or, as 
many of them do, they go into the IRR, the individual ready 
reserve, which I think that we have not paid much attention to 
in the past. There are a lot of skill sets out there. We need 
to devise the systems whereas we track people and incentivize 
them to update, probably web-based, the things that they are 
doing in their civilian lives that we could reach out and get 
them while under contract in the IRR. We call that Sea Warrior. 
We are using a five-vector model. We measure the civilian skill 
sets which sometimes are used in the global war on terror.
    There is one other thought. There is a transition period, 
too. Our best recruit is someone who wants to re-serve. They 
are already trained. We recruit non-prior service, but the best 
people come with taxpayer money invested in them already as 
prior service. There is a transition period. For some people it 
is 3 months, 6 months; once they get steady, then they want to 
return to the force.
    We need to open up the aperture going after those folks 
when they leave and incentivize them and our leadership to look 
at those folks. If people return within an amount of time, then 
the Active component should not be hurt on retention or 
attrition because they stay in the force.
    Then last, about the parity, pay parity. We have to be 
careful of unintended consequences, because once you get in 
that foxhole, once you get out on the flight line, once you get 
aboard ship, when someone is earning more money than someone 
else because of some decision they made in prior life, you 
start to take apart good order and discipline. So I think we 
better watch that closely, sir.
    Senator Stevens. General McCarthy.
    General McCarthy. Mr. Chairman, I have not heard anything 
from either General Helmly or Admiral Cotton that I disagree 
with. I think, quite frankly, that from my own service 
perspective that the bonuses that are in place right now seem 
in terms of recruiting and reenlistment, seem to be sufficient.
    I will go back to what I said in my opening statement. 
Providing the funds and the equipment to enable first class 
training, first class preparation for combat of everybody in my 
force is the most important thing that I can do to recruit and 
retain the right people.
    We have been asked and have made some transformations of 
the force. We have shifted, not a great deal, but we have made 
some shifts in force structure in line with what we have 
learned in the war. We have got to equip these new units with 
the things that they need. We have got the people now and we 
can call them newly transformed units, but if they are not 
equipped with the right gear we are going to lose those folks.
    So those are very important issues, issues for us.
    Senator Stevens. Thank you.
    General Bradley.

               AIR FORCE RESERVE RETENTION AND EQUIPMENT

    General Bradley. Senator Stevens, briefly--I will not 
elaborate at all. I agree completely with my colleagues. On the 
issue of bonuses, they work certainly, but I do believe that 
there is an element of service that is keeping our people in, 
as General Helmly said earlier. They are very proud of what 
they are doing and the reason Air Force Reserve retention is 
higher than ever I believe is because people are very proud of 
what they do. They enjoy their jobs and their units and they 
believe they are contributing to something that is very good.
    On the pay parity, it is a tough issue, but I believe the 
best quality of life is keeping people alive and the generosity 
that you all have shown, your subcommittee has shown, in 
helping fund our equipment items through the equipment accounts 
have had a dramatic impact on keeping people alive and giving 
us a much greater combat capability.
    There is no free money anywhere, so making pay parity for 
the Federal Government, even though certainly employees would 
enjoy that, I think the inequities that it brings on between 
folks who are mobilized and Active component folks is not 
helpful. I would rather spend money that we could get for the 
continued equipment improvements that you have given us in the 
past, continuing to do those unfunded items that give us much 
greater combat capability. We have demonstrably improved our 
capabilities and are a much more effective force because of 
that, and I think that is where we ought to put the money, to 
give us the better equipment and properly equip our people so 
that they can stay alive and do that job.
    Senator Stevens. I have been called to the floor, but I do 
have one last question I would like to have your views on. We 
have been told that we have another amendment that is involved 
in our bills this year. We have been told that if the tempo of 
operations is such that people in the Guard and Reserve are 
being called up too often, one of the amendments says if they 
are called up for a period of time and serve more than 6 months 
they cannot be called up again for 1 year.
    What would that do to your operations if we agreed to an 
amendment like that?
    General Helmly. Sir, as you know, the partial mobilization 
law under which we are operating carries with it a legal limit 
of 2 years, and I believe I am correct that the language in 
that law specifies that 2 years is computed as consecutive, 24 
consecutive months. After the President declared partial 
mobilization in a national emergency on September 14, 2001, the 
Department of Defense issued guidance that limited us to a 12-
month limit and that was to be counted as not consecutive but 
cumulative. We are still operating under that, except that 
frequently it is 18 months.
    We have heard from Reserve component members in our force 
that they can stomach a deployment of about 12 to 14 months 
every 4 to 5 years. Thus, we have built a model that would 
routinely plan to call them to active duty for 6 to 9 months 
every 4 to 5 years, understanding it could be more frequently.
    It is my judgment if we went to 6 months out of 18, that 
period of time we call dwell time in the Army, between the 
mobilization or call to active duty, is in fact too short and 
too frequent. I believe that we need to make the dwell time for 
the Reserve component member a minimum of 3 years, and that is 
why we are using the 4-to 5-year model, with 6 to 9 months' 
active duty during that time every 4 to 5 years.
    Some people will wish to exceed that. I believe that our 
authorities, given increased flexibility, can accommodate that.
    Senator Stevens. Admiral Cotton.
    Admiral Cotton. I would agree with the General and add a 
couple of thoughts. We tend to try to make it clean and simple, 
one rule fits all. In this case it does not. We have HD/LD--
high demand, low density--capabilities and units that we seem 
to have an appetite for as we do phase four war. There also is 
an intensity factor as well as a definement of deployment. 
Deployment to Guantanamo Bay is far different than it is to the 
Sunni Triangle, as it is to the highlands of Afghanistan or to 
other installations around the world that we use to prosecute 
the global war on terror. So there is a fatigue factor for 
people going to different theaters.
    We like to use a 6- to 7-month deployment model, with 
training en route as well as a decompression time, to limit to 
about 1 year. Then, using the Secretary of Defense's (SECDEF's) 
planning factor of 1 year out of 6, or 6 months every 3 years 
or however you want to do this, best use the skill set, keeping 
in mind that certain HD/LD assets are being used inside that 
planning factor just like the general set.
    With that said, I would echo all the Generals that the 
response by our people is fantastic. Everywhere I go there are 
hands in the air for people to go for the first time as well as 
to go for the second and third time. Keeping in mind that some 
people cannot, we have other volunteers. So unit integrity is 
important, but I tell everyone that they are individually 
mobilizable, that they can train en route and fill the holes, 
the requirements we need.
    Thank you, sir.
    Senator Stevens. General McCarthy.
    General McCarthy. Sir, I would think that the provision 
that you talked about would be very destructive. One size does 
not fit all. My force is a different size and shape than Ron's 
and it needs a metric that fits the Marine Corps model, not 
something that is cast over everybody. So I think that 6 months 
and 1 year would be a bad and an adverse provision for the 
Marine Corps Reserve.
    Senator Stevens. Thank you very much.
    General Bradley.

                     AIR FORCE RESERVE RECRUITMENT

    General Bradley. Senator Stevens, sir, I would agree 
entirely with General McCarthy. The Air Force has a different 
model. We do as much as we can through volunteerism. In fact, 
we do a very large percentage of Air Force missions every day 
with volunteers.
    That being said, we have mobilized nearly 40 percent of the 
Air Force Reserve since September 11, 2001. We have had 
thousands of people who have been mobilized, demobilized, and 
remobilized, sometimes three mobilizations. It certainly is a 
little bit disruptive. But I would be very opposed to tieing 
the hands of our service in being able to get access to the 
people it needs.
    We are allowed, as senior leaders in the Air National Guard 
and Air Force Reserve, to work inside the service many times to 
use volunteers to fill those slots. So it is not someone who is 
disrupted badly or opposed to it. So we would be opposed to 
those strictures.
    Senator Stevens. Well, thank you all very much. When 
Senator Hollings and I came back from that trip that I talked 
about, we recommended to Senator Stennis that he recommend to 
the Department that we use Guard and Reserve forces selectively 
in Europe. At that time there were none there at all. That 
interjected into the draftee regular services the volunteers 
who were in the Guard and Reserve for a short period of time at 
that time.

                     ADDITIONAL COMMITTEE QUESTIONS

    But I do think that we have come a long way now with the 
total force, and you all make a terrific case for this. I have 
advocated that the Chief of the Guard and Reserve Bureau, and 
that it be that, have a place in the Joint Chiefs of Staff. 
That has never occurred, but I do think total force now calls 
for a permanent presence on the Joint Chiefs of Staff of a 
representative of all of these people who do fill in so often 
and so well into the total force. We are going to continue with 
that. I hope some day we will win.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

       Questions Submitted to Lieutenant General James R. Helmly
               Question Submitted by Senator Ted Stevens

                        RECRUITING AND RETENTION

    Question. What recruiting and retention incentives are working well 
for your services and are there any additional authorities that you 
believe would be more helpful than what you currently have?
    Answer. The Army Reserve is making every effort to improve 
recruiting and retention by utilizing the current incentives authorized 
and by recommending possible changes in laws and policies that are 
outdated for the current Global War on Terror missions. Prior to the 
implementation of the new bonuses (Oct-Dec), the average monthly 
reenlistment production was 1,241 reenlistments. The following are 
working well:
  --The increase in the reenlistment bonus amount to $15,000; payable 
        in lump sum and in conjunction with the expanded eligible years 
        of service from 14 years to 16 years to qualify for a 
        reenlistment bonus.
  --The Selective Reenlistment Bonus (SRB) for Army Reserve, Active 
        Guard Reserve (AGR). The total number of reenlistments for AGR 
        Soldiers can be attributed to the SRB and expanding the 
        eligible years of service from 14 years to 16 years to qualify 
        for a reenlistment bonus. The number of Soldiers on their 
        initial AGR tours increased along with the number of indefinite 
        reenlistments.
    After the implementation of the bonuses (Jan-May), the average 
monthly production rose to 1,511 reenlistments per month. That equates 
to a 22 percent increase in reenlistments after the introduction of the 
new bonuses. For AGR Soldiers, in fiscal year 2003, we had a total of 
1,040 reenlistments, fiscal year 2004 1,527, and fiscal year 2005, as 
of June 30, a total of 1,515.
    The Officer Affiliation Bonus implemented, January 25, 2005, has 
not had the anticipated effect of attracting Active Component officers 
to the Army Reserve as troop program unit members. The law that defines 
this incentive prohibits officers who have service in the Selected 
Reserve previously from being eligible for the incentive. The removal 
of this restriction along with an increase in the bonus amount from 
$6,000 to $20,000 will assist in reducing the Army Reserve company 
grade shortage. Other improvements we believe will assist us in 
recruiting and retention include establishing a stabilization policy 
for active duty Soldiers who have deployed and subsequently opt to join 
the Selected Reserve, increasing the Non-Prior Service Enlistment Bonus 
cap to $40,000, increasing the eligible years of service for a 
reenlistment bonus to 20 years, raising the SRB for AGR cap to $30,000, 
the TPU reenlistment bonus cap to $45,000, the Officer Accession and 
Affiliation Bonus cap to $20,000, and increasing the Prior Service 
Enlistment Bonus cap to $25,000.
                                 ______
                                 
            Question Submitted by Senator Richard C. Shelby

              FISCAL YEAR 2006 ARMY RESERVE TRANSFORMATION

    Question. What are the plans to transform the Army Reserve and why 
do you believe that during this time of war it is so important to 
radically change how the Army Reserve does business? Do you have the 
resources to accomplish this transformation, both equipment and 
personnel, and what can Congress do to assist?
    Answer. ARFORGEN, the Army Force Generation Model, is a centerpiece 
of Army transformation. It is a managed force readiness framework 
through which all units flow. The Army Reserve organizes into 
expeditionary force packages of skill-rich combat support and combat 
service support units that complement other Army and Joint capabilities 
in support of Combatant Commanders. Unit manning strategies bring 
enhanced stability, facilitating training for Army Reserve Soldiers and 
units and growth and development of Army Reserve leaders. Advancing 
through ``Reset/Train'', ``Ready'', and ``Available'' force pools, 
these modular packages progress through individual training and 
increasingly complex collective training and achieve readiness levels 
heretofore unattainable. Additionally, this cyclic pattern eases one of 
the biggest concerns of our Soldiers, their families, and their 
employers--a lack of predictability, a major factor in recruiting and 
retention.
    In order to fully support ARFORGEN, we are restructuring and 
modularizing our units in order to maximize operational capabilities. 
One element of that initiative is the establishment of a Trainees, 
Transients, Holdees, and Students (TTHS) account, similar to that used 
by the Active Army, which will allow commanders to focus on their 
primary mission--training Army Reserve Soldiers and units and growing 
and developing Army Reserve leaders. Active and intensive management of 
the TTHS ensures that Soldiers return to their units as quickly as 
possible. Another element is the divesture of unnecessary command and 
control (C\2\) structure. Specifically, reducing non-deployable 
overhead by inactivating 10 Regional Readiness Commands (RRC) creates 
an opportunity to establish four Regional Readiness Sustainment 
Commands (RRSC) and new modular operational and deployable C\2\ 
structures. While the manning, training, equipping, and sustaining 
strategies continue to be developed, Army Reserve transformation is 
generally resourced through investment and re-investment of available 
and programmed resources.
    These changes are all taking place as the Department of Defense 
Base Realignment and Closure (BRAC) recommendations are being studied 
by the BRAC Commission. BRAC is a good news story for the Army Reserve, 
and, as an active participant in the process, the expectation is that 
the outcome will be very beneficial. Strategically placed, new and 
efficient Armed Forces Reserve Centers not only create efficiencies, 
but also encourage ``Joint-ness'' and honor our Soldiers and civilian 
employees by providing facilities commensurate with the quality of 
their service.
    Finally, efforts are underway to reengineer the process by which 
Soldiers are mobilized and brought to active duty. They capitalize on 
all the initiatives mentioned above to move from an ``alert-train-
deploy'' construct to a ``train-alert-deploy'' model. Central to those 
efforts are investments and reinvestments in all areas of Soldier 
readiness (medical, dental, training, and education) before 
mobilization to ensure that required capabilities are available to the 
Combatant Commanders as quickly and efficiently as possible.
                                 ______
                                 
           Questions Submitted to Vice Admiral John G. Cotton
               Question Submitted by Senator Ted Stevens

    Question. What recruiting and retention incentives are working well 
for your services and are there any additional authorities that you 
believe would be more helpful than what you currently have?
    Answer. The Fiscal Year 2005 National Defense Authorization Act 
made significant changes to our existing Reserve Component bonus 
structure, in many cases tripling the amount of bonuses as well as 
permitting lump sum payments. These changes have significantly enhanced 
our ability to compete for talent in a very challenging recruiting 
environment, as well as in our ability to retain quality Sailors.
    The Department of Defense has submitted two legislative proposals 
for fiscal year 2006 that will provide additional authorities to 
further enhance our Reserve Component incentivization ability.
    The first proposal would modify 37 U.S.C. 316 regarding payment of 
Foreign Language Proficiency Pay (FLPP) to permit payment of FLPP 
either in an annual lump sum or in installments.
    This proposal would also permit both Active and Reserve Component 
members to receive the maximum of $12,000 in one year period, further 
enabling our ability to acquire and retain these GWOT-critical skill 
sets. This would increase the Reserve Component benefit to match the 
Active Component benefit.
    The second proposal to 37 U.S.C. 308c would revise the existing 
Selected Reserve enlistment and affiliation bonuses to provide the 
Reserve components with a more flexible and enhanced incentive for 
members separating from active duty to affiliate with a unit or in a 
position in the Selected Reserve facing a critical shortage.
    Section 618 of the 2005 National Defense Authorization Act 
increased the Selected Reserve enlistment bonus to $10,000, which will 
help the Reserve components meet their non-prior service recruiting 
objectives. This new proposal would extend the enhanced enlistment 
bonus to members who are separating from active duty and agree to 
affiliate with the Selected Reserve. The current prior service 
enlistment bonus is only available to individuals who have completed 
their military service obligation and been discharged. The current 
affiliation bonus for members with a remaining military service 
obligation is inadequate; it only pays members $50 for each month of 
remaining service obligation. This section would increase the maximum 
bonus amount paid to members with a remaining service obligation who 
agree to continue their military career by joining the Selected 
Reserve. Because of their military training and experience, the 
military departments place great emphasis on retaining these members in 
the Selected Reserve after they separate from active duty. It is more 
cost-effective and provides a more ready force than only recruiting 
individuals who never have served in the armed forces. Having the 
authority to provide a richer incentive to members who agree to serve 
in the Selected Reserve following release from active duty is 
increasingly more important in light of the recruiting challenges 
experienced by some Reserve components in fiscal year 2005.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

    Question. Admiral Cotton, I have been informed that the Navy's 
Distributed Common Ground System has arrived at Naval Station 
Pascagoula. The potential Homeland Defense capabilities it can provide 
are impressive and we are glad to have it at the Naval Station. Admiral 
Clark stated that the Navy plays a critical role in supporting the 
Coast Guard with the Maritime Domain Awareness program. Your statement 
indicates that the Navy Reserve plans to fully support this initiative.
    How will the Distributed Common Ground System support the Maritime 
Domain Awareness requirements?
    Answer. The system associated with Pascagoula is the Littoral 
Surveillance System (LSS), which is a Navy System under the resource 
sponsorship of OPNAV N71 (Net-Centric Warfare Division). LSS is a 
legacy precursor of the Distributed Common Ground System (DCGS), which 
is designed to support deliberate strike and time sensitive targeting 
missions. There is no Navy requirement to utilize LSS or DCGS in 
support the Maritime Domain Awareness (MDA) mission.
    The Navy plays an integrated role in supporting the Coast Guard in 
MDA. Ongoing efforts are focused in the areas of data fusion and a blue 
water broad area surveillance capability. A congressionally-directed 
Coast Guard demonstration of LSS will be conducted at the Joint Harbor 
Operations Center (JHOC) in Pascagoula.
                                 ______
                                 
      Questions Submitted to Lieutenant General Dennis M. McCarthy
               Question Submitted by Senator Ted Stevens

    Question. What recruiting and retention incentives are working well 
for your services and are there any additional authorities that you 
believe would be more helpful then what you currently have?
    Answer. Incentives are an integral tool used in the proper manning 
of our Reserve Force. Currently, the recruiting and retention 
incentives working well for the Marine Corps include the enlistment and 
reenlistment bonus (Title 37, sec. 308b/c), the affiliation bonus 
(Title 37, sec. 308e), and the Montgomery GI Bill-SR Kicker. The 
authorized increases in the bonus amount for these bonuses in fiscal 
year 2005 will assist us in keeping our best and brightest Marines. The 
Marine Corps Reserve is in the process of implementing the Conversion 
Bonus (Title 37, sec. 326) in order to facilitate changes for Reserve 
Marines impacted by the recent changes approved by the 2004 Force 
Structure Review Group.
    The funding increases and flexibility provided in the Fiscal Year 
2005 National Defense Authorization Act are an invaluable asset to our 
continued recruitment and retention mission. The approved legislation 
allowing payment of an affiliation bonus for officers to serve in the 
Selected Marine Corps Reserve will greatly assist in increasing officer 
participation and meeting our current junior officer requirements. The 
ability to pay lump sum payments for enlistments and reenlistments is 
expected to increase the present value of the incentive and continue to 
positively influence highly qualified personnel. The Critical Skills 
Retention Bonus under consideration for fiscal year 2006 will provide 
us greater flexibility to meet the emerging requirements of the Global 
War on Terrorism and will allow us to better target bonuses where they 
are needed most.
    The Marine Corps takes pride in prudent stewardship of the 
resources allocated to the Selective Reserve Incentive Program. Reserve 
Affairs has recently conducted a thorough review of its incentive 
programs and is in the process of improving the implementation of these 
programs. Many of the programs are in the initial stages of change and 
will be constantly monitored to improve their effectiveness.
                                 ______
                                 
       Questions Submitted to Lieutenant General John A. Bradley
               Question Submitted by Senator Ted Stevens

                        RECRUITING AND RETENTION

    Question. What recruiting and retention incentives are working well 
for your services and are there any additional authorities that you 
believe would be more helpful then what you currently have?
    Answer. Enlistment bonuses continue to work well, however, we are 
at a competitive disadvantage as other Services and Components have 
opted to fund these programs due to their current recruiting and 
retention problems.
    Recruits routinely consider all the different Services and are 
aware of the bonus amounts available. When job counseling, applicants 
routinely ask, ``What career fields are paying bonuses and how much?'' 
Additional benefits of high interest are health benefits that bridge 
periods of non-active participation as well as expanded education 
benefits.
    The Student Loan Repayment Program (SLRP) is an often-requested 
incentive. The Air National Guard offers enlistees the SLRP as do most 
other Services in the Department of Defense. A recent study by the 
National Center for Education Statistics shows that about 50 percent of 
recent college graduates have student loans with an average debt of 
about $10,000. In fiscal year 2004 almost 29 percent of all Air Force 
Reserve Component accession had some college and 17 percent of all 
enlisted accessions had some college.
    Basic Allowance for Housing (BAH) rate II is a barrier to 
volunteerism. Eliminating BAH II will create parity with Active Duty 
members performing the same types of duty.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

                           FUTURE TOTAL FORCE

    Question. General Bradley, with the intense pace of military 
operations around the world, all the Services must face tough decisions 
when it comes to providing enough experienced personnel to serve back 
home as instructors. I have been informed that the Air Force Reserve 
augments the active Air Force with experienced instructor pilots; 
ensuring flight training units like the one at Columbus Air Force Base 
have the personnel they need to train future forces. Does this budget 
request provide the necessary resources for the reserves to perform 
this additional mission?
    Answer. The Air Force Reserve submitted a budget for fiscal year 
2006 that attempted to provide adequate resources for all competing 
requirements. An aggregate of all unit-submitted requirements amounts 
to a significantly larger set of needs than the available resources. In 
the specific instance of the training being accomplished at Columbus 
AFB, full-time Active Guard/Reserve personnel provide much of the 
instructor workload. We also have a smaller population of Traditional 
Reserve personnel who also provide instruction. Both sets of personnel 
are resourced within the Reserve Personnel, Air Force and Air Force 
Reserve Operations and Management appropriations. In the broader 
context of providing both training and trained personnel in support of 
the Active Air Force, the Air Force Reserve also has three unit-
equipped, Flight Training Units (FTUs), has Individual Mobilization 
Augmentees (IMAs) assigned at most Air Force training venues, and 
provides a host of training resources at the many installations on 
which we are co-located or associated with active duty units. In all of 
these instances, there is recognition that additional resources would 
improve the quantity and quality of the support the Reserve would be 
able to provide. In terms of buying power, the re-allocation of 
resources from traditional Reserve training activities to supporting 
the Global War On Terrorism has significantly diminished school and 
qualification/certification training opportunities throughout the Air 
Force Reserve.

                                 C-130E

    Question. General Bradley, I am aware of the proposal to terminate 
the C-130J program, and the recent grounding of part of the C-130E 
fleet. I understand that the C-130 is being heavily used in on-going 
operations, and that its use in Iraq has reduced the number of truck 
convoys, and therefore reduced the exposure of our ground troops to 
threats like improvised explosive devices. If the C-130J program is 
terminated, what will be the impact on the reserve forces?
    Answer. If the C-130J program is terminated, the short-term effect 
(five years) to Air Force Reserve Command (AFRC) is minimal, and the 
long-term impact (ten plus years) would be moderate. However, the 
indirect impact is yet to be determined as the program termination may 
result in the transfer of newer AFRC C-130H-models to active duty units 
to fill the C-130J gap.
    No impacts to 815 AS, Keesler, MS. Unit will receive full 
complement of 8 x C-130J aircraft by end fiscal year 2007 under the 
pre-termination procurement plan.
    Willow Grove will not receive 8 x C-130J in fiscal year 2014 and 
fiscal year 2015 as planned.
    Current C-130E's at Willow Grove have no restrictions on the Center 
Wing Box (First restricted plane estimated fiscal year 2017).
    Minneapolis-St Paul will not receive 8 x C-130J in fiscal year 2014 
and fiscal year 2015 as previously planned.
    C-130E aircraft were replaced with newer H models, therefore, no 
impact on mission.
    Eight recently assigned C-130Hs to be modernized under the Aircraft 
Modernization Program in fiscal year 2010 and fiscal year 2011.

                          SUBCOMMITTEE RECESS

    Senator Stevens. Thank you all for your service. We are 
going to reconvene this subcommittee to hear testimony from 
Secretary Rumsfeld and General Myers on Wednesday, April 27. 
Thank you very much.
    [Whereupon, at 11:42 a.m., Wednesday, April 20, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
April 27.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                       WEDNESDAY, APRIL 27, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:47 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Specter, Bond, Shelby, 
Gregg, Burns, Inouye, Byrd, and Feinstein.

                         DEPARTMENT OF DEFENSE

                        Office of the Secretary

STATEMENT OF HON. DONALD H. RUMSFELD, SECRETARY OF 
            DEFENSE
ACCOMPANIED BY:
        GENERAL RICHARD B. MYERS, U.S. AIR FORCE, CHAIRMAN, JOINT 
            CHIEFS OF STAFF
        HON. TINA JONAS, UNDER SECRETARY OF DEFENSE--COMPTROLLER

                    STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Secretary Rumsfeld, General Myers, we 
welcome you back before the subcommittee at this important time 
for our Nation and the Department of Defense (DOD) and we 
welcome the Comptroller, Tina Jonas. The focus of our hearing 
today is on the fiscal year 2006 defense budget. This is our 
normally scheduled hearing where we ask the Secretary of 
Defense and the Chairman of the Joint Chiefs to testify near 
the end of our hearing cycle to provide their important 
perspectives on the budget.
    General Myers, I understand this may be your last hearing 
with us as you plan to retire this year after 40 years of 
service. We hope we will see you again, but in any event we 
congratulate you and commend you for your service to our Nation 
and your appearances before our subcommittee and for your 
personal friendship.
    General Myers. Thank you, Mr. Chairman.
    Senator Stevens. We have enjoyed that very much.
    General Myers. Thank you.
    Senator Stevens. The budget request for defense reflects a 
shift in priorities for the Defense Department, spending more 
on personnel, the defense health programs, special operations 
forces, chemical and biological defense, and restructuring Army 
and marine ground forces and less on aircraft and ships 
designed for conventional war.
    The subcommittee continues to review this request and we 
look forward to this hearing today and the discussion with you 
of your priorities in the budget regarding investments for the 
future of our military. We would also welcome any operational 
update you may wish to provide.
    Your full statements will be part of our subcommittee 
record. We would ask each member to be limited to 5 minutes in 
an opening round of questions. Time permitting, we will proceed 
to a second round of questioning.
    I would like to ask our chairman if he has any remarks. 
Chairman Cochran, do you wish to make a comment?

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, no. I just join you in 
welcoming our distinguished witnesses and commend them for the 
tremendous leadership that they are providing to our country in 
this very important time in our history.
    Senator Stevens. Thank you very much, Mr. Chairman.
    Our co-chairman, Senator Inouye.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Mr. Chairman, thank you. I want to echo 
your comments in thanking General Myers for his long service to 
our Nation and for the stellar job he has done. I can tell you 
that we sincerely appreciate all you have done for us.
    General Myers. Thank you very much.
    Senator Inouye. Gentlemen, the Defense Department has 
received unprecedented funding levels during the past few 
years. Even in inflation-adjusted dollars, the levels surpass 
anything we have seen since World War II. One would think that 
with the funding that has been provided we would not be facing 
any budgetary issues. Unfortunately, that is not the case.
    We understand the services are having problems with 
recruiting and retaining military personnel. We know that some 
have raised concern about the proposed cuts in the F-22, C-130, 
and shipbuilding. We recognize that there is a great demand to 
expand pay and benefits for men and women who serve. So too, 
there are difficult policy questions being considered.
    So how does the military adapt to improve intelligence 
capability without violating policies on the conduct of covert 
activity? Will we require a permanent increase in our forces to 
meet the challenges that the Nation faces today? Is the Nation 
prepared to implement changes in defense policy regarding space 
control? Does the new conventional global strike concept create 
challenges for arms control treaties?
    Today we have more than 150,000 men and women deployed in 
harm's way in Iraq and Afghanistan, and their willingness to 
serve and the heroism they have displayed every day is an 
inspiration to all of us. We know you share our goal to ensure 
that they are taken care of. Together we have a responsibility 
to provide them with the equipment they need to fight, to offer 
support for their families back home, and to guarantee fair 
policies which ensure equitable treatment for each service 
member across all departments.
    I am certain I speak for all when I say we appreciate all 
that you have done on our behalf.
    So, Mr. Chairman, General Myers, we are most pleased you 
could be with us to share with us your views, and I look 
forward to the testimony.
    Thank you very much.
    Senator Stevens. May I ask if any member has a problem and 
must leave before we have a chance to hear the Secretary and 
General through? Senator Bond.

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Thank you very much, Mr. Chairman. My 
apologies to my colleagues, but we are trying to get the long-
delayed highway bill to the floor at 11 o'clock and there is 
some interest, as I gather from talking to my colleagues, about 
trying to pass the highway bill. If it is all right, I would 
like to make a very brief statement to our distinguished panel, 
leave some questions for the record, because I will not be able 
to participate.
    Senator Stevens. Each member is going to be recognized for 
5 minutes. We would recognize you at this time, Senator.
    Senator Bond. Thank you very much, Mr. Chairman.
    Mr. Secretary, General Myers, Under Secretary Jonas: We 
thank you for being here, the great work you do, the positions 
and responsibility you hold. Several items that are very 
important to me and to the people I serve. As founding co-chair 
of the National Guard Caucus, we do not have to tell you that 
50 percent of the combat force in Iraq and approximately 40 
percent of the entire force is composed of the National Guard. 
Anybody who knows the Guard, as I have known from working as 
their commander in chief in Missouri for many years, knows that 
it comes at a price.
    Lieutenant General Blum has expressed concern about 
equipment shortfalls for Guard forces here at home, and I would 
ask most respectfully that you focus your attention on the 
readiness needs of the CONUS-based forces. Additionally, I 
would ask that you review the future total force (FTF) strategy 
of the Air Force, which has many Guard leaders and several of 
my colleagues and me concerned that the future total force may 
turn into a futile total force if the Air Guard is not provided 
a substantive role.
    I have two letters that I recently received copies of from 
senior representatives of the National Guard. I will provide 
those for the record and copies for you, sir. A letter from 
Major General Rataczak, the President of the Adjutants General 
Association, to General Jumper expressing concerns about the 
FTF, stating that ``Issues exist that could be very detrimental 
to the National Guard, to the point of irreversible 
deterioration. In particular, we fear the initiative as we 
understand it will cause serious gaps in the capability to 
defend the homeland.''
    The second letter, from Brigadier General Stephan Koper, 
President of the National Guard Association, to Congressmen on 
the House Armed Services Committee (HASC), says: ``Our 
membership is expressing grave concern about the direction of 
the FTF plan and its immediate negative impact on the Air Guard 
force structure. Concerns include continuation of the air 
sovereignty mission, funding transition mission personnel from 
current missions to future missions, and the limited role 
adjutants general have played in the developing the FTF plan 
and its impact on the Air Guard in anticipate of base 
realignment and closure (BRAC).''
    [The information follows:]

                                                    March 17, 2005.
The Honorable Duncan L. Hunter,
Chairman, House Committee on Armed Services, 2120 Rayburn House Office 
        Building, Washington, DC 20515-6035.
The Honorable Ike Skelton,
Ranking Minority Member, House Committee on Armed Services, 2120 
        Rayburn House Office Building, Washington, DC 20515-6035.
    Dear Chairman Hunter and Congressman Skelton: This decade our 
military forces have faced some of the greatest challenges in our 
nation's history. By supporting successful missions in Operation 
Enduring Freedom, Noble Eagle and Operation Iraqi Freedom, while at the 
same time transforming to face the threats of the future, our Air 
National Guard has played a critical role in supporting U.S. strategic 
interests at home and abroad.
    Currently, the Department of the Air Force is developing its 
transformation plan, called Future Total Force (FTF). Over the years, 
the ANG has proven its willingness to transform and evolve. However, 
our membership is expressing grave concerns about the direction of the 
FTF plan and its immediate negative impact on Air Guard force 
structure. Such concerns include: continuation of the Air Sovereignty 
missions; funding to transition personnel from current missions to 
``future missions;'' the limited role that The Adjutants General have 
played in developing the FTF plan; and the impact these force structure 
reductions will have on Air Guard basing in anticipation of BRAC.
    As you and your staff continue holding hearings, NGAUS respectfully 
requests that the House Armed Services Committee conduct a hearing on 
Future Total Force. Should any hearing be scheduled, we respectfully 
request that the National Guard Association of the United States 
(NGAUS) be invited to testify on behalf of the National Guard and its 
membership to outline the Guard perspective in relation to FTF. In 
addition, we offer to coordinate with you and your staff the selection 
of appropriate Adjutants General that could also offer relevant and 
critical testimony.
    The NGAUS recognizes a need for the Air National Guard to remain a 
ready, reliable and relevant component of our total air force 
capability. We also believe it is imperative that any future force 
modernization discussions that impact the Air National Guard involve a 
cooperative and collaborative interaction with the Adjutants General.
            Respectfully,
                                          Stephen M. Koper,
                          Brigadier General, USAF (ret), President.
                                 ______
                                 

        Adjutants General Association of the United States,
                                     Washington, DC, March 9, 2005.
General John P. Jumper,
Chief of Staff, United States Air Force, HQ USAF/CC, 1670 Air Force 
        Pentagon, Washington, D.C. 20330-1670.
    Dear General Jumper: The Adjutants General of the 54 states see the 
USAF transformation strategy known as Future Total Force (FTF) having a 
profound effect on the Air National Guard (ANG). We want to help the 
Air Force shape a strategy and force structure that uses the ANG to its 
full potential. Homeland defense is a critical issue for us as we are 
responsible to our Governors for homeland security matters.
    Adjutant General involvement with the FTF initiative only began 
recently with three Adjutants General being invited to participate on 
the AF/XP sponsored General Officer Steering Committee (GOSC). 
Lieutenant General Steve Wood has actively engaged us since coming on 
board late last year. His focus on open exchange of information is 
refreshing and is setting a course that will benefit all.
    From our initial perspective the FTF initiative seems to focus on 
accelerated reductions of current weapon systems located predominately 
in the Air National Guard and the relocation of ANG units to active 
duty bases. The loss of flying units will be compensated by rolling ANG 
force structure into new missions to sustain its end strength. Issues 
exist that could be very detrimental to the National Guard to the point 
of irreversible deterioration. In particular, we fear the initiative as 
we understand it will cause serious gaps in our capability to defend 
the homeland.
    Our concern compels us to ask you to undertake actions to refine 
and improve the FTF initiative. These proposals are necessary to 
preserve the Air National Guard, ensure defense in depth of the 
homeland, and provide the most lethal and cost effective force in the 
future.
    The Adjutants General can add significant value to Air Force 
modernization initiatives. First, we feel we should be involved with 
developing and vetting options, and be given the opportunity to 
contribute data and analysis to various studies. Through our Adjutants 
General Association of the United States (AGAUS) we can offer valuable 
ideas and critiques in a timely manner that will enhance the FTF 
initiative by making it more palatable to a broader range of interested 
parties.
    Second, the Air Force should thoroughly evaluate the air 
sovereignty mission after receiving USNORTHCOM requirements from which 
to develop a realistic force structure plan for homeland defense. The 
evaluation should consider weapon system dispersion as well as 
lethality and determine more precisely the extent other services will 
support this vital mission.
    Third, we want to work with the Air Force to develop a roadmap to 
2025 that uses proportionality as a key principle for determining roles 
and missions for the Air National Guard. This is not to say that 
current proportionality must be strictly adhered to. But rather, it is 
a starting point for determining the best mix of active and reserve 
component forces for future operations. We believe increasing full time 
strength for key weapon systems in the ANG deserves evaluation. The ANG 
may more effectively support critical Air Expedition Force rotations 
and other vital missions with a different mix of full time and 
traditional Guard personnel in units.
    Fourth, the community basing plan should be expanded immediately to 
include additional sites and different weapon systems for a more 
comprehensive evaluation. The Adjutants General believe very strongly 
that community basing is a key to sustaining the relevant and ready Air 
National Guard which has performed so magnificently in homeland defense 
and contingency missions.
    Fifth, to sustain an effective ANG end strength of approximately 
107,000 the FTF schedule must be adjusted to slow aircraft retirements 
while accelerating the assumption of new missions by the ANG to avoid a 
lengthy gap between mission changes during the transitory period. A gap 
will cause the loss of experienced personnel while impeding our 
transition to the Air Force of the Twenty-first Century.
    Sixth, the ANG should field new Air Force aircraft weapon systems 
in ratios consistent with our contribution to the war fight and 
interspersed throughout each system's fielding plan. The nation will be 
well served by involving the Air National Guard early on during the 
fielding F/A-22, C-17, and F-35 weapon systems. This would also apply 
to the new tanker and other flying systems (such as intra-theater lift) 
as they emerge from development. The Adjutants General can provide the 
Air Force valuable support if given a clear picture showing ANG 
participation throughout weapon system fielding.
    The Adjutants General have an obligation to nurture the rich 
heritage of the Air National Guard and ensure its readiness and 
relevance. We have defined several principles that will guide our 
actions in influencing the make up of the future of the Air Force.
    1. Retain the militia basing concept which connects the Air Force 
to communities dispersed throughout the nation and provides for agile 
and quick responses to dispersed threats;
    2. Leverage the cost efficiencies, capabilities, and community 
support generated by ANG units in the several states by including them 
as an integral part of the Future Total Force structure;
    3. Each state needs a baseline force for homeland defense which 
includes civil engineering, medical, and security forces;
    4. The Air National Guard maintains essential proportions of flying 
missions to nurture and sustain direct connectivity with America's 
communities while supporting the expeditionary Air Force cost 
effectively, captures the extensive aircrew and maintenance experience 
of the Air National Guard;
    5. The nation is well served by a continuing dialog involving the 
Air Force, National Guard Bureau, and the Adjutants General as new 
missions emerge and threats change.
    Our desire is to work with the National Guard Bureau in developing, 
vetting, and implementing initiatives. We provide perspectives from the 
field that when aligned with the programmatic expertise of NGB will 
result in sound courses of action with solid support from the several 
states.
    Sir, we truly understand and appreciate your Herculean efforts to 
transform the greatest Air Force in the World into something even 
better. We only ask that we are allowed to help in the process.
            Respectfully,
                                         David P. Rataczak,
  Major General, AZ ARNG, President, Adjutants General Association.

    Senator Bond. Finally, the third major item, I would ask 
you to look closely at the Air Force decision not to leverage 
its $68 million investment in the V-3 AESA radar, which upon 
completion of development within the next year will be the most 
advanced weapon system in the world for tactical fighters. The 
V-3 not only increases the expeditionary capability of our air 
forces, it also makes CONUS-based aircraft the most capable 
homeland defense platform in the world, second to none.
    I am mystified why the Air Force elected not to acquire 
this system. If this is the Pentagon's idea of a sound business 
plan, I need to go back to school and take a refresher course 
on good Government.
    I would just--the one question I would ask you, Mr. 
Secretary: Have you been briefed on why the Air Force elected 
to shelve the----
    Senator Stevens. Senator, you may submit the questions.
    Senator Bond. I will submit that.
    Senator Stevens. Thank you.
    Senator Bond. All right, thank you, sir.
    Senator Stevens. Yes, sir.
    Senator Bond. Thank you very much.
    Senator Stevens. Mr. Secretary, we want to recognize you 
and General Myers and then we will proceed with questions from 
the subcommittee.
    Secretary Rumsfeld. Thank you very much, Mr. Chairman, 
members of the subcommittee.
    Sixty years ago, allied forces fought in some of the 
fiercest battles of World War II. The outcome of that difficult 
struggle certainly helped to transform much of the world, 
bringing freedom to distant shores, turning dictatorships into 
democracies, and longstanding enemies into friends. Today 
another generation of Americans, along with our coalition 
allies, have come to freedom's defense and thank you are 
helping millions of liberated people transform their countries 
from terrorist states into democracies.
    Two weeks ago I met again with coalition forces in Iraq and 
Afghanistan and with officials of those countries on the front 
lines of the struggle. Everywhere we traveled I saw first-hand 
the point you made, Mr. Chairman: the men and women in uniform, 
volunteers all, undertaking difficult duties with confidence 
and with courage. The debt we owe them is a great one.
    Members of this subcommittee who have visited with them and 
the wounded here in the hospitals, I thank you for it. You 
cannot help but come away, as I do, inspired by their courage 
and their skill.
    I certainly thank the Congress for providing the resources 
necessary to support them as they complete their missions. It 
is becoming increasingly clear that the sacrifices they are 
making have made a difference in bringing about a world that is 
freer and more peaceful and that rejects terrorism and 
extremism.
    If you think of what has been accomplished in the past 3 
years, we have--Afghans and Iraqis have held historic elections 
and selected moderate Muslim leadership. Extremists are under 
pressure. Americans' national security apparatus is seeing 
historic changes. The North Atlantic Treaty Organization (NATO) 
is undergoing reforms in organization and missions, deploying 
forces outside of the NATO treaty area for the first time, 
outside of Europe. And some 60 nations are engaged freshly in 
an unprecedented multinational effort to address the 
proliferation of dangerous weapons.
    We are here today to discuss the President's fiscal year 
2006 request for the Department, as well as funding for the 
ongoing operations in the global war on terror. Before 
discussing dollars and programs and weapons, let me just offer 
some context for the tasks ahead. When President Bush took 
office 4 years ago, he recognized the need to transform our 
defense establishment to meet the unconventional and somewhat 
unpredictable threats of the 21st century. The attacks on 
September 11 gave urgency and impetus to the efforts then 
underway to make the armed forces more agile, more 
expeditionary, and more lethal.
    The national security apparatus of the United States has 
undergone and continues to undergo historic changes on a number 
of fronts. We are addressing the urgency of moving military 
forces rapidly across the globe, the necessity of functioning 
as a truly joint force, the need to recognize that we are 
engaged in a war and yet still bound by peacetime behavior and 
practices and constraints and regulations and requirements. But 
we are up against an enemy that is unconstrained by laws or 
bureaucracies. We are adjusting to a world where the threat is 
not from a single superpower, as it was, that we could become 
quite familiar with over a sustained period of time, but rather 
from various regimes and extremist cells that can work together 
and proliferate lethal capabilities.
    After more than 3 years of conflict, two central realities 
of this struggle are clear. First is that the struggle will not 
be won by military means alone. That is clear. Second is the 
reality that in this new era the United States cannot win the 
global struggle alone. No one nation can. It will take 
cooperation among a great many countries to stop weapons 
proliferation, for example. It takes nations working together 
to locate and dismantle extremist cells and to stop future 
attacks.
    One thing we have learned since September 11 and in 
operations in Afghanistan and Iraq and elsewhere is that in 
most cases the capacities of our partners and our allies can be 
critical to the success of our own military forces, as is the 
ability and proclivity of our partners to curb the spread and 
appeal of that poisonous ideology in their education systems, 
news media, religious and political institutions.
    Mr. Chairman, for all the progress that has been made, and 
it is substantial, the armed forces are still largely equipped, 
understandably, to confront conventional armies, navies, and 
air forces. We have made major commitments to modernize and 
expand the Army, adding some $35 billion over the next 7 years 
in addition to the $13 billion the Army has in the baseline 
budget.
    We are increasing deployable combat power from 33 active 
duty brigades to 43 more powerful modular brigade combat teams. 
These teams are designed to be able to deploy quickly abroad, 
but will have firepower, armor, and logistics support to be 
sustained over a period of time.
    In addition to increasing overall combat capability, the 
Army's modularity initiative plus an increase of 30,000 troops 
in the size of the operational Army is to reduce stress on the 
force by increasing by 50 percent the amount of time that 
active duty soldiers will be able to spend at home between 
overseas deployments.
    As a result of a series of reforms, we are making the 
Reserve components, those individual reservists and guardsmen 
in high demand specialties, will be in the future be deployed 
less often, for shorter periods of time, and with more notice 
and predictability for themselves and for their families.
    The Department continues to reevaluate our contingency 
plans, our operations, force structure, in light of the 
technological advances of the past decades. These advances, 
plus improved force organization and deployment, have allowed 
the Department to generate considerably more combat capability 
with the same or in some cases fewer numbers of weapon 
platforms.
    For example, in Operation Desert Storm one aircraft carrier 
could engage about 175 targets per day. During Operation Iraqi 
Freedom in 2004, one aircraft carrier, instead of engaging 175 
targets per day, could engage 650 targets per day, more than a 
threefold increase. Today one B-2 bomber can be configured to 
attack as many as 80 different targets with 80 precision 
weapons during one sortie.
    In the past the Navy maintained a rigid deployment 
schedule. Ships would deploy for 6 months, overlapping with the 
ships they relieved, and upon arriving home they would become 
relatively useless. Training and equipment readiness plummeted 
into what became known in the Navy as ``the bathtub,'' with 
many battle groups unavailable for missions. The Navy's new 
fleet response plan has the capability to surge five or six 
carrier strike groups in 30 days, with the ability to deploy an 
additional two in 90 days.
    In consultation with Congress and our allies, the 
Department is making some long overdue changes in global 
basing. We are moving away from the cold war garrisons toward 
an ability to surge quickly to wherever capability is needed. 
When the President took office, the cold war had been over for 
a decade, but the United States (U.S.) forces overseas 
continued to be stationed as if we expected a Soviet tank 
attack in Germany and as though South Korea was still an 
impoverished country devastated by the Korean War.
    We advanced the commonsense notion that U.S. troops should 
be where they are needed, they should be where they are wanted, 
a hospitable environment, and they should be where they can be 
used effectively in the 21st century. Those changes are 
bringing home some 70,000 troops and up to 100,000 family 
members. Military personnel and their families as a result will 
experience fewer changes of station, less disruption in their 
lives, which of course is an important factor in reducing 
stress on the force.
    The new global security environment drives the approach to 
our domestic force posture as well.
    Some thoughts about the future. To the seeming surprise of 
some, our enemies have brains. They are constantly adapting and 
adjusting to what we are doing. They combine medieval 
sensibilities with modern technology and with media savvy to 
find new ways to exploit perceived weaknesses and to weaken the 
civilized world.
    We have to employ the lessons of the past 3\1/2\ years of 
war to be able to anticipate, adjust, and act and react with 
greater agility. These necessary reforms have encountered and 
will continue to encounter resistance. It is always difficult 
to depart from the known and the comfortable. Abraham Lincoln 
once compared his efforts to reorganize the Union army during 
the Civil War to bailing out the Potomac River with a teaspoon. 
We are finding it tough, but it is not going to be that tough.
    If you consider the challenge our country faces to not only 
reorganize the military, but also to try to transform an 
enormous defense bureaucracy and to fight two wars at the same 
time--and if that were not enough, we are doing it, all of 
this, for the first time in history in an era with 24-hour 
worldwide satellite news coverage, live coverage of terrorist 
attacks, cell phones, digital cameras, global Internet, e-mail, 
embedded reporters, and increasingly casual regard for 
protection of classified documents and information, and a 
United States Government that is essentially still organized 
for the industrial age as opposed to the information age.
    Mr. Chairman, the President's 2006 budget request proposes 
some tough choices and it proposes to fund a balanced 
combination of programs to develop and field the capabilities 
most needed by the American military. It continues to use Navy 
and Marine Corps shift toward a new generation of ships and 
related capabilities. It continues the acquisition of Air 
Force, Navy, and other aircraft to sustain U.S. air dominance 
and provide strong airlift and logistics support. It continues 
to strengthen U.S. missile defenses. It advances new 
intelligence and communication capabilities with many times the 
capacity of existing systems.
    The budget would maintain the President's commitment to our 
military men and women and their families as well. It includes 
a 3.1 percent increase in military base pay. The budget keeps 
us on track to eliminate all inadequate military family housing 
units in the next 3 years.
    As to the current budget process, I appreciate your efforts 
to move the President's supplemental request quickly. It is 
critical that the military services receive these funds soon. I 
know that the Members of Congress understand that. The Army's 
basic readiness and operating accounts will be exhausted in 
early May. Now it is just a matter of days. And it has already 
taken to stretching existing funds to make up the shortfalls.
    So I urge the Congress to achieve final passage of the 
supplemental before the recess later this week.
    Afghan and Iraqi security forces. Transferring resources 
away from the training and equipping of Iraqi and Afghan 
security forces of course would seriously impede their ability 
to assume responsibilities that are now borne by U.S. troops, 
and I would add at vastly greater cost to our country in both 
dollars and lives. We need the flexibility to channel this 
funding to where it is needed most. The House's reductions in 
funding for sustaining other coalition forces as well as the 
underfunding of the President's request to reimburse 
cooperating nations would make it vastly more difficult for 
allies and partners to support military and stability 
operations in Iraq and Afghanistan, further increasing the 
strain on U.S. forces.
    Failure to fund projects that Central Command requested 
could impede our ability to support ongoing operations in the 
theater with respect to military construction.
    We believe that restriction on acquisition of the DD(X) 
destroyer would drive up costs and would restrict options while 
the Navy and the Department conduct a detailed evaluation of 
the program. The pending Senate restrictions on the U.S.S. John 
F. Kennedy would prevent the Navy from freeing up resources to 
counter current threats while preparing for future challenges.
    Finally, underfunding known costs, such as higher fuel 
expenditures, or including new unfunded death and injury 
benefits in the final bill will of necessity force us to divert 
resources from other troop needs.
    So I respectfully ask this subcommittee to take these 
considerations into account.
    Mr. Chairman, across the world brave men and women wearing 
America's uniform are doing the truly hard work of history. I 
know you share my desire to see that they have all the support 
they need. Bringing the hope of freedom to some of the darkest 
corners of the Earth will render a powerful blow to the forces 
of extremism, who have killed thousands of innocent people in 
our country and across the globe.

                           PREPARED STATEMENT

    I thank you all for what you have done on behalf of our 
troops and we look forward to responding to questions. Thank 
you, sir.
    [The statement follows:]

                Prepared Statement of Donald H. Rumsfeld

    Mr. Chairman, Members of the Committee, good afternoon.
    Sixty years ago this month, Allied forces fought in some of the 
fiercest battles of World War II. Many young men lost their lives and 
were grievously wounded in those battles, and I would be remiss if I 
did not recognize the service and heroism of at least two of the 
members of this distinguished committee.
    The outcome of that long, difficult struggle helped to transform 
much of the world--bringing freedom to distant shores, turning menacing 
dictatorships into peaceful democracies, and longstanding enemies into 
friends.
    Today, another generation of Americans, along with our Coalition 
allies, have come to freedom's defense. They are helping millions of 
liberated people transform their countries from terrorist states into 
peaceful democracies.
    Two weeks ago, I met again with our Coalition forces in Iraq and 
Afghanistan and with officials in countries that are on the front lines 
of this global struggle. Everywhere we traveled, I saw firsthand our 
men and women in uniform--volunteers all--undertaking difficult duties 
with confidence and courage. The debt we owe them and their families is 
immeasurable. Members of this Committee have visited with the wounded 
and their families. You, as I, cannot help but come away inspired by 
their courage, and their skill.
    I thank the American people and their Congress for providing the 
resources and support our forces need to complete their missions. It is 
becoming increasingly clear that the sacrifices they are making have 
made a difference in bringing about a world that is freer, more 
peaceful and that rejects the viciousness of terrorism and extremism.
    Consider what has been accomplished in three years plus:
  --Newly free Afghans and Iraqis have held historic elections that 
        selected moderate Muslim leadership;
  --Extremists are under pressure, their false promises being exposed 
        as cruel lies;
  --America's national security apparatus is seeing historic changes;
  --NATO is undergoing reforms in both organization and mission 
        deploying forces outside of its traditional boundaries; and
  --Some 60 nations are freshly engaged in an unprecedented 
        multinational effort to address the proliferation of the 
        world's most dangerous weapons.
    We are here today to discuss the President's fiscal year 2006 
request for the Department as well as funding for ongoing operations in 
the Global War on Terror. Before discussing dollars, programs and 
weapons, let me offer some context for the tasks ahead.
    When President Bush took office over four years ago, he recognized 
the need to transform America's defense establishment to meet the 
unconventional and unpredictable threats of the 21st Century. The 
attacks of September 11th gave new urgency and impetus to efforts then 
underway to make our Armed Forces a more agile, expeditionary and 
lethal force.
    The national security apparatus of the United States has undergone, 
and continues to undergo, historic changes on a number of fronts.
    We have confronted and are meeting a variety of challenges:
  --The urgency of moving military forces rapidly across the globe;
  --The necessity of functioning as a truly joint force--as opposed to 
        simply de-conflicting the Services;
  --The need to recognize we are engaged in a war and yet still bound 
        by a number of peacetime constraints, regulations and 
        requirements, against an enemy unconstrained by laws; and
  --Adjusting to a world where the threat is not from a single 
        superpower, but from various regimes and extremist cells that 
        can work together and proliferate lethal capabilities.
    After more than three years of conflict, two central realities of 
this struggle are clear.
    First is that this struggle cannot be won by military means alone. 
The Defense Department must continue to work with other government 
agencies to successfully employ all instruments of national power. We 
can no longer think in terms of neat, clear walls between departments 
and agencies, or even committees of jurisdiction in Congress. The tasks 
ahead are far too complex to remain wedded to old divisions.
    A second central reality of this new era is that the United States 
cannot win a global struggle alone. It will take cooperation among a 
great many nations to stop weapons proliferation. It will take a great 
many nations working together to locate and dismantle global extremist 
cells and stop future attacks.
    One thing we have learned since September 11th and in the 
operations in Afghanistan, Iraq and elsewhere, is that in most cases 
the capacities of our partners and allies can be critical to the 
success of our own military forces. As is the ability--and proclivity--
of our partners to curb the spread and appeal of that poisonous 
ideology in their education systems, news media and religious and 
political institutions.
    Mr. Chairman, for all the progress that has been made in recent 
years, the Armed Forces are still largely organized, trained and 
equipped to confront other conventional armies, navies and air forces--
and less to deal with the terrorists and extremists that represent the 
most recent lethal threats.
    We have made a major commitment to modernize and expand the Army, 
adding some $35 billion over the next seven years, in addition to the 
$13 billion in the Army's baseline budget. We are increasing deployable 
combat power from 33 active duty combat brigades to 43 more powerful 
``modular'' brigade combat teams. These teams are designed to be able 
to deploy quickly abroad, but will have the firepower, armor and 
logistical support to sustain operations over time.
    In addition to increasing overall combat capability, the Army's 
modularity initiative, accompanied by an increase of 30,000 in the size 
of the operational Army, is designed to reduce stress on the force by 
increasing by 50 percent the amount of time active duty soldiers will 
be able to spend at home between overseas deployments.
    And, as a result of a series of reforms we are making in the 
Reserve Components, those individual Reservists and Guard personnel in 
high demand specialties will in the future be deployed less often, for 
shorter periods of time and with more notice and predictability for 
themselves and their families.
    The Department continues to reevaluate our contingency plans, 
operations, and force structure in light of the technological advances 
of the past decade. These advances, plus improved force organization 
and deployment, have allowed the Department to generate considerably 
more combat capability with the same, or in some cases, fewer numbers 
of weapons platforms.
    For example, in Operation Desert Storm, one aircraft carrier could 
engage about 175 targets per day. During Operation Iraqi Freedom in 
2004, one aircraft carrier could engage 650 targets per day--more than 
a three fold increase. And today, one B-2 bomber can be configured to 
attack as many as 80 different targets with 80 precisions weapons 
during one sortie.
    In the past, the Navy maintained a rigid deployment schedule. Ships 
would deploy for six months, overlapping with the ships they relieved, 
and upon arriving home, become relatively useless. Training and 
equipment readiness plummeted into what became known as the 
``bathtub,'' with many battle groups unavailable for missions. The 
Navy's new Fleet Response Plan has the capability to surge five or six 
carrier strike groups in 30 days, with the ability to deploy an 
additional two in 90 days.
    In consultation with Congress and our allies, the Department is 
making long overdue changes in U.S. global basing, moving away from 
fixed Cold War garrisons and towards an ability to surge quickly to 
wherever capability is needed.
    When President Bush took office the Cold War had been over for a 
decade, but U.S. forces overseas continued to be stationed as if Soviet 
tank divisions threatened Germany and South Korea was still an 
impoverished country devastated by war. We advanced the common sense 
notions that U.S. troops should be where they're needed, where they're 
wanted, and where they can be used.
    Those changes will bring home some 70,000 troops and up to 100,000 
of their family members. Military personnel and their families will 
experience fewer changes of station and less disruption in their 
lives--an important factor in reducing stress on the force.
    The new global security environment drives the approach to our 
domestic force posture as well. The Department continues to maintain 
more military bases and facilities than are needed--consuming and 
diverting valuable personnel and resources. Base Realignment and 
Closure, or BRAC, will allow the Department to reconfigure its current 
infrastructure to one that maximizes warfighting capability and 
efficiency. And it will provide substantial savings over time--money 
that is needed to improve the quality of life for the men and women in 
uniform, for force protection, and for investments in needed weapons 
systems.
    Another challenge the Department faces is attracting and retaining 
high-caliber people to serve in key positions. For decades, the 
Department has lived with personnel practices that would be 
unacceptable to any successful business. With the support of Congress, 
the Department is now instituting a new National Security Personnel 
System, designed to provide greater flexibility in hiring, assignments 
and promotions--allowing managers to put the right people in the right 
positions when and where they are needed. About 60,000 Department of 
Defense employees, the first spiral in a wave of over 300,000, will 
transition into this new system as early as this summer.
    The Pentagon also began to change the way it does business.
    We have adopted an evolutionary approach to acquisition. Instead of 
waiting for an entire system to be ready before fielding it, this 
approach has made it possible, for example, to more rapidly field new 
robots to detonate roadside bombs in Iraq.
    Some thoughts about the future.
    To the seeming surprise of some, our enemies have brains. They are 
constantly adapting and adjusting to what we're doing. They combine 
medieval sensibilities with modern technology and media savvy to find 
new ways to exploit perceived weaknesses and to weaken the civilized 
world.
    We must employ the lessons of the past three and half years of war 
to be able to anticipate, adjust, act and react with greater agility. 
These necessary reforms have encountered, and will continue to 
encounter, resistance. It is always difficult to depart from the known 
and the comfortable. Abraham Lincoln once compared his efforts to 
reorganize the Union Army during the Civil War to bailing out the 
Potomac River with a teaspoon.
    But, consider the challenge our country faces to not only 
reorganize the military, but to also transform the enormous Defense 
bureaucracy and fight two wars at the same time. And, if that were not 
enough, to do all this for the first time in an era with:
  --24 hour worldwide satellite news coverage, with live coverage of 
        terrorist attacks, disasters and combat operations;
  --Cell phones;
  --Digital cameras;
  --Global internet;
  --E-mail;
  --Embedded reporters;
  --An increasingly casual regard for the protection of classified 
        documents and information; and
  --A U.S. government still organized for the Industrial Age, not the 
        Information Age.

                        FISCAL YEAR 2006 REQUEST

    Mr. Chairman, the President's fiscal year 2006 Budget request makes 
some tough choices and proposes to fund a balanced combination of 
programs to develop and field the capabilities most needed by America's 
military.
  --It continues the Navy and Marine Corps shift towards a new 
        generation of ships and related capabilities;
  --It continues the acquisition of Air Force, Navy and other aircraft 
        to sustain U.S. air dominance and provide strong airlift and 
        logistics support;
  --It continues to strengthen U.S. missile defenses; and
  --It advances new intelligence and communications capabilities with 
        many times the capacity of existing systems.
    The Budget would maintain the President's commitment to our 
military men and women and their families. It includes a 3.1 percent 
increase in military base pay. The Budget also keeps us on track to 
eliminate all inadequate military family housing units over the next 
three years.

                 FISCAL YEAR 2005 SUPPLEMENTAL REQUEST

    As to the current budget process, I appreciate your efforts to move 
the President's supplemental request quickly. It is critical that the 
Military Services receive these funds very soon. The Army's basic 
readiness and operating account will be exhausted in early May--a 
matter of days--and it has already taken to stretching existing funds, 
such as restraining supply orders, to make up the shortfalls.
    I urge Congress to achieve final passage of the supplemental before 
the Senate recesses later this week.
    Afghan and Iraqi Security Forces.--Transferring resources away from 
the training and equipping of Afghan and Iraqi security forces would 
seriously impede their ability to assume responsibilities now borne by 
U.S. troops--at vastly greater cost to our nation in both dollars and 
lives. We need the flexibility to channel this funding to where it is 
needed most.
    Coalition Partners.--The House's reduction in funding for 
sustaining other Coalition forces, as well as the underfunding of the 
President's request to reimburse cooperating nations, will make it 
vastly more difficult for allies and partners to support military and 
stability operations in Iraq and Afghanistan--further increasing the 
strain and stress on U.S. forces.
    Military Construction.--Failure to fund projects that Central 
Command requested impedes our ability to support ongoing operations in 
the theater. Of special concern are the projects at Ali Al Salem 
Airfield and Al Dhafra Air Base to provide needed upgrades to 
logistics, intelligence and surveillance support.
    Unrequested Provisions.--The President's fiscal year 2006 Budget 
reflects the Department of Defense's commitment to meeting the threats 
and challenges of the 21st Century. However, the Senate-passed bill 
limits the Department of Defense's flexibility for its transformation 
agenda by affecting the planned acquisition strategy for several major 
programs. The Department of Defense is examining strategies to control 
costs in its modernization effort and should be allowed to balance 
cost, schedule, and performance in an optimum manner.
    The Administration is also concerned that the Senate bill includes 
a provision that would prevent the Navy from retiring the U.S.S. John 
F. Kennedy. Any requirement to obligate funds for the maintenance and 
repair of a ship the Navy believes is no longer essential is not a good 
use of resources. Further, the Administration opposes a requirement to 
maintain at least 12 active aircraft carriers as the Department is 
currently engaged in a Quadrennial Defense Review that will examine 
options for the Navy shipbuilding program and make recommendations to 
ensure force structure addresses future needs.
    Finally, new or expanded benefits, such as for payments to 
survivors of fallen servicemembers, must be fully funded in the bill. 
Otherwise, the effect will be to divert resources from other troop 
needs.
    I respectfully ask this Committee to take these considerations into 
account.

                               CONCLUSION

    Mr. Chairman, across the world, brave men and women wearing 
America's uniform are doing the hard work of history. I know you share 
my desire to see that they have the support they need. Bringing the 
hope of freedom to some of the darkest corners of the Earth will render 
a powerful blow to the forces of extremism who have killed thousands of 
innocent people in our country and across the globe.
    I thank you for all you have done on behalf of our troops, and I 
look forward to responding to your questions.

    Senator Stevens. General Myers, do you have a statement, 
sir?

                 STATEMENT OF GENERAL RICHARD B. MYERS

    General Myers. Thank you, Mr. Chairman, and thank you, 
Senator Inouye and members of the subcommittee. Once again, 
thank you for your unwavering support of our armed forces and, 
more specifically, the men and women in uniform, particularly 
as they fight this all-important global war on terrorism and 
violent extremism.
    We remember the brave service men and women and Government 
civilians who have been wounded or given their lives for this 
noble cause and we grieve with their friends and with their 
families.
    We are now in the fourth year of sustained combat 
operations and our soldiers, sailors, airmen, marines, Coast 
Guardsmen, and U.S. Government civilians continue to perform 
superbly under extremely challenging conditions. I am 
tremendously proud of them, as I know you are.
    Our forces are fully prepared to support our national 
defense strategy and to assure our allies, while we dissuade, 
deter, and defeat any adversary. The fiscal year 2006 defense 
budget request provides critical funding for winning the global 
war on terrorism, securing peace in Iraq and Afghanistan, 
combatting weapons of mass destruction, enhancing our joint 
warfighting capabilities, and transforming the armed forces to 
meet the challenges of the 21st century.
    Our forces are the world's most capable, in large part 
because they are the best trained and equipped. The 2006 
defense budget and the funds you supported in the fiscal year 
2005 supplemental request are vital to ensuring our troops are 
trained and resources for the missions they are assigned and to 
sustain their readiness while they are deployed.
    In my opinion this is a pivotal moment in our Nation's 
history and in world history. We must stay committed in this 
global war on terrorism and violent extremism if justice, 
tolerance, and freedom are to triumph over violence, fear, and 
oppression. Make no mistake, we have undertaken a long and hard 
task to help people long brutalized by repressive regimes build 
a future based on freedom and tolerance.
    Our significant progress in Iraq and Afghanistan and other 
places around the world is a tribute to the hard work and 
sacrifice of our dedicated American service members and our 
coalition partners and to the continuing dedication of the 
American people and the Congress.
    In Iraq, the United States remains committed to helping the 
Iraqis build a secure and peaceful future with a representative 
government based upon the rule of law. Over the last year, the 
Iraqi people have become more and more self-reliant. The 
transfer of sovereignty last June, the successful election, 
followed by the Transitional National Assembly selection of the 
Presidency Council and the Prime Minister, showed their courage 
and determination to support a free and democratic country and 
also to continue to represent a moral defeat for the 
insurgents.
    Despite the many challenges, the Iraqis have shown a strong 
pride of ownership in their new government and in their future. 
Forming a new government is not easy, but continued progress is 
essential to sustaining the positive momentum seen since the 
January elections.
    In Afghanistan, the coalition continues to make great 
progress. Congress' firm commitment is leading the 
international effort to fund and equip Afghan reconstruction. 
NATO and the coalition will continue to help build and train 
the commands and institutions the Afghans need to sustain and 
manage their security apparatus.
    One of the great challenges in Afghanistan is the illegal 
drug trade. The Afghan government and the international 
community must continue to combat these challenges.
    All these operations at home and overseas, they all come at 
a cost, especially for our people, both our Active and Reserve 
component. They are so tremendously dedicated. They understand 
their mission very, very well and they understand what a huge 
difference they are making, and their morale is good.
    In the face of continued demands on our forces, we are 
analyzing all our policies and making changes to mitigate 
readiness challenges. I am concerned with the wear and tear on 
our equipment and I thank this subcommittee for its continued 
support of our request to help repair and replace our rapidly 
aging resources. Congressional support, both in the annual 
budget and supplemental funding, has been exceptional and 
essential for funding our continued operations and for funding 
Army modularization, recapitalization, and transformation.
    I am proud of our transformational efforts and successes 
and we must continue to invest heavily in transformation both 
intellectually and materially so we can meet the challenges 
facing our country today and in the future.
    This year we are working through three major processes that 
will have a far-reaching impact on the future force posture. 
The first of course is the 2005 Quadrennial Defense Review 
(QDR) and it will provide a comprehensive strategic plan for 
transforming the armed forces.
    Second, the base realignment and closure process provides 
an excellent opportunity to further transform our warfighting 
capability and eliminate excess capacity.
    Third, our global basing strategy transforms the cold war 
footprint into one that is focused on combining the 
capabilities of U.S.-based rotational forces that are lean and 
agile with strategically placed overseas-based forces.
    The important transformational decisions we make today will 
have a lasting impact on our Nation's defense capabilities and 
the capabilities of our allies and coalition partners.
    As I know all of you know, we must stay committed if we are 
to win this global war on terrorism and extremism and defend 
the United States and our national interests. As the Secretary 
said, the U.S. military cannot do this alone. Success in this 
21st security environment requires cooperating with our 
multinational partners and integrating military capabilities 
across the U.S. interagency. In my view, our way of life 
remains at stake, so failure is not an option. With Congress' 
continued strong support, our military will continue to be 
unwavering in our focus, our resolve, and our dedication to 
peace and freedom.

                           PREPARED STATEMENT

    Thank you, Mr. Chairman and committee, and we look forward 
to your questions.
    [The statement follows:]

                 Prepared Statement of Richard B. Myers

    In my fourth and final Posture Statement, I look forward to 
reporting to you on the state of the United States Armed Forces, our 
successes over the last year, our continuing challenges, and our 
priorities for the coming year. I also would like to thank you for your 
unwavering support of our armed forces and our servicemen and women.
    Our Nation is entering the fourth year of sustained combat 
operations. Our successes in the past year are clearly due to the 
dedicated and courageous service of our Nation's Soldiers, Sailors, 
Airmen, Marines, Coastguardsmen, and civilians who are serving within 
our borders and around the globe. Their service as warriors, diplomats, 
peacekeepers and peacemakers has been exceptional. They are truly our 
Nation's most precious and important assets. Serving alongside our 
Coalition partners and allies, they have accomplished very demanding, 
and many times, very dangerous missions.
    Building democracy and hope in areas long ruled by terror and 
oppression is a long, hard task. Our success in both Iraq and 
Afghanistan is a tribute to the hard work and sacrifice of our 
Coalition partners and our dedicated American servicemembers. The U.S. 
Soldiers, Sailors, Airmen, Marines, Coastguardsmen and U.S. Government 
civilians who have been killed or wounded sacrificed to make the world 
safer and provide hope to millions. We grieve with their families, and 
with the families of all the Coalition forces and civilians who made 
the ultimate sacrifice in these noble endeavors.
    While overall results are positive, significant challenges affect 
our forces engaged in demanding combat operations. These operations 
create many readiness challenges, including Combat Service and Combat 
Service Support capability limitations, Reserve Component mobilization 
challenges, equipment challenges, and manning a growing number of 
Combined and Joint Force headquarters. The past 3 years have been 
demanding, and while there are no ``silver bullets'' to make our 
problems go away, I will outline our way ahead to address our long-term 
challenges.
    We remain resolved, dedicated, and committed to winning the Global 
War on Terrorism (GWOT), securing the peace in Iraq and Afghanistan, 
combating Weapons of Mass Destruction (WMD), enhancing joint 
warfighting capabilities and transforming the Armed Forces to meet the 
challenges of the 21st Century.
    We are making steady progress in these areas. Our homeland is safer 
and we are committed to winning the Global War on Terrorism. 
Afghanistan has a democratically elected president and three quarters 
of al-Qaida's leadership has been killed or captured. In January, the 
Iraqi people democratically elected a Transitional National Assembly, a 
crucial step toward a permanent government and their first legitimate 
election in generations. We continue to improve our world-class joint 
warfighting capability, and we are making good progress in transforming 
our Armed Forces.
    Despite the current operational demands on our forces, we remain 
ready to support the President's National Security Strategy to make the 
world not just safer, but better. We are fully prepared to support our 
strategy to assure our allies while we dissuade, deter and defeat any 
adversary. Our revised National Military Strategy links this strategic 
guidance to operational warfighting, defining three interrelated 
National Military Objectives--protect the United States, prevent 
conflict and surprise attack, and prevail against adversaries--along 
with supporting additional military tasks and missions. Success in 
meeting these objectives necessitates cooperating with multinational 
partners and integrating military capabilities across the Interagency 
to harness all elements of National power.
    Executing our strategy requires a force fully prepared to 
simultaneously conduct campaigns to prevail against adversaries, 
protect the United States from direct attack, and undertake activities 
to reduce the potential for future conflict. Success requires an array 
of capabilities, from combat capabilities to defeat the forces that 
threaten stability and security, to capabilities integrated with the 
Interagency for stability and security operations. We must continue to 
invest in activities such as International Military Education and 
Training and Theater Security Cooperation that serve to expand and 
strengthen alliances and coalitions. These alliances and activities 
contribute to security and stability and foster international 
conditions that make conflict less likely.
    We expect this year will be no less challenging than last year, as 
we fight the Global War on Terrorism, continue to excel in joint 
operations, and transform our Armed Forces. With the continued strong 
support of Congress and the dedicated service of the men and women of 
our Armed Forces, we will succeed.

                  WINNING THE GLOBAL WAR ON TERRORISM

    The Global War on Terrorism will continue to be a long and 
difficult war affecting the entire global community. It will require 
our firm commitment and the cooperation of our allies and coalition 
partners as well as international organizations, domestic state 
governments, and the private sector.
    The United States is fighting a new kind of war against a new kind 
of enemy. This enemy is motivated by extremist ideologies that threaten 
such principles as freedom, tolerance, and moderation. These ideologies 
have given rise to an enemy network of extremist organizations that 
deliberately target innocent civilians to spread fear. Extremists use 
terrorism to undermine political progress, economic prosperity, the 
security and stability of the international state system, and the 
future of civil society. We are fighting to bring freedom to societies 
that have suffered under terrorism and extremism and to protect all 
societies' right to participate in and benefit from the international 
community.
    The United States cannot defeat terrorism alone, and the world 
cannot defeat terrorism without U.S. leadership. We must ally ourselves 
with others who reject extremism. Success in this war depends on close 
cooperation among agencies in our government and the integration of all 
instruments of national power, as well as the combined efforts of the 
international community.
    The U.S. Government strategy for winning the Global War on 
Terrorism has three elements: protect the homeland, disrupt and attack 
terrorist networks, and counter ideological support for terrorism. We 
continued to make progress in the Global War on Terrorism during 2004 
and the beginning of 2005. Democratic forms of government now represent 
people who were controlled by brutal dictatorships. Lawless territories 
have now been reclaimed. Terrorist networks have been disrupted and 
their safe havens have been denied. The United States and its allies 
have captured or killed numerous terrorist leaders in Iraq and around 
the world. Freedom has replaced tyranny in parts of the world.
    Despite this success, the United States continues to face a variety 
of threats from extremist networks, criminal organizations, weapon 
proliferators, and rogue states that cooperate with extremists. To 
combat these threats, we continue to refine the role of the Armed 
Forces in homeland defense by combining actions overseas and at home to 
protect the United States. Critical to this role are U.S. Northern 
Command's (NORTHCOM) mission of homeland defense and DOD's 
contributions to consequence management. NORTHCOM can deploy rapid 
reaction forces to support time-sensitive missions such as defense of 
critical infrastructures or consequence management in support of the 
Department of Homeland Security or other lead federal agencies. 
NORTHCOM's Joint Task Force Civil Support coordinates closely with 
interagency partners and conducts numerous exercises to integrate 
command and control of DOD forces with federal and state agencies to 
mitigate chemical, biological, radiological, nuclear and high-yield 
explosive incidents. The National Guard now has thirty-two certified 
Weapons of Mass Destruction (WMD) Civil Support Teams. Twelve 
additional teams are undergoing the final 6 months of certification 
training. Congress established 11 more teams in fiscal year 2005. Those 
teams will conduct individual and unit training over the next 18-24 
months. I thank Congress for your continued support of these important 
WMD Civil Support Teams. Additionally, last October the National Guard 
reorganized their state headquarters into 54 provisional joint force 
headquarters, allowing them to interact more efficiently with other 
military organizations.
    The North American Air Defense Command (NORAD) is providing robust 
air defense of the continental United States, Alaska, Puerto Rico, and 
the Virgin Islands through Operation NOBLE EAGLE. We are developing 
plans that build on the success of NORAD to improve maritime warning, 
maritime control, information operations, and enhanced planning. 
Although the effort expended on defending our country may be 
transparent to some, the operations and exercises being led by federal 
agencies, including the Department of Homeland Security, NORTHCOM and 
NORAD, are robust, successful, and extremely important. The Total Force 
is doing a superb job in defense of our country, and I thank Congress 
for its continued funding of homeland defense initiatives.
    Forces overseas, led by our Combatant Commanders, are conducting 
offensive counterterrorism operations along with interagency and 
international partners to defeat these threats closest to their source. 
In addition to attacking and disrupting terrorist extremist networks, 
Combatant Commanders assist in building counterinsurgency, 
counterterrorism, internal defense and intelligence capabilities of 
partner nations. Strengthening partner capacity improves internal 
security, and ultimately contributes to regional stability and the 
creation of global environment inhospitable to terrorism. The Special 
Operations Command is designated as the combatant command responsible 
for planning and directing global operations against terrorist 
networks.
    The offensive efforts of our Global War on Terrorism strategy are 
designed to deter, disrupt, and defeat terrorist operations, affecting 
terrorists' ability to effectively execute their attacks or sustain 
their ideology. DOD efforts include information operations that impede 
our enemy's ability to perform critical functions. Ultimately, 
continuous and successive attacks against the enemy cause their 
operations to fail.
    These offensive actions overseas constitute the first line of 
homeland defense. In the land, air, space, maritime, and cyber domains, 
DOD will continue to coordinate closely with allies and partner nations 
and other U.S. agencies to interdict terrorists and their resources 
before they enter the United States. The United States goal is to 
disrupt their efforts to access targets, and defeat attacks against our 
homeland. This requires effective information sharing, persistent 
intelligence, surveillance, reconnaissance, more and better human 
intelligence, and improved interoperability between the Armed Forces 
and other U.S. Government agencies.
    The third and most important element of this strategy to defeat 
terrorism includes de-legitimizing terrorism so that it is viewed 
around the world in the same light as the slave trade, piracy, or 
genocide. Terrorism needs to be viewed as an activity that no 
respectable society can condone or support and all must oppose. Key to 
this effort are actions to promote the free flow of information and 
ideas that give hope to those who seek freedom and democracy. DOD 
contributes to this important effort with security assistance, 
information operations, assisting humanitarian support efforts, and 
influencing others through our military-to-military contacts.
    The Global War on Terrorism will be a long war, and while the 
military plays an important role, we cannot win this war alone. We need 
the continued support of the American people and the continued support 
of the entire U.S. Government. The United States will have won the 
Global War on Terrorism when the United States, along with the 
international community, creates a global environment uniformly opposed 
to terrorists and their supporters. We will have won when young people 
choose hope, security, economic opportunity and religious tolerance, 
over violence. We will have won when disenfranchised young people stop 
signing up for Jihad and start signing up to lead their communities and 
countries toward a more prosperous and peaceful future--a future based 
on a democratically-elected government and a free, open, and tolerant 
society.

                     OPERATION IRAQI FREEDOM (OIF)

    The United States is committed to helping the Iraqis build a secure 
and peaceful future with a representative government based upon the 
rule of law. The list of important accomplishments in Iraq in every 
sector--education, medical care, business, agriculture, energy, and 
government, to name a few--is long and growing. Most importantly, Iraq 
has reached several important milestones on the road to representative 
self-government: transfer of sovereignty, parliamentary and provincial 
elections leading to a Transitional National Assembly, selection of a 
Presidency Council, a new Prime Minister and Cabinet. The key to 
success in Iraq is for Iraqis to become self-reliant. A timetable for 
leaving Iraq would be counterproductive, leading the terrorists to 
think they can wait us out. We are in Iraq to achieve a result, and 
when that result is achieved, our men and women will come home.
    With the help of the Coalition, the Iraqi people are creating a 
country that is democratic, representative of its entire people, at 
peace with its neighbors, and able to defend itself. The Iraqi people 
continue to assume greater roles in providing for their own security. 
The recent Iraqi elections showed their courage and determination to 
support a free and democratic country, and represented a moral defeat 
for the insurgents. The Iraqi people have a renewed pride of ownership 
in their government, and their future. Voters paraded down the street 
holding up their fingers marked with purple ink from the polls. They 
carried their children to the polls as a clear symbol that they were 
courageously voting to improve the Iraq their children would inherit.
    This very successful election is just one milestone on a very long 
road. Together with our Coalition partners, the international 
community, Interagency partners, and Non-Governmental Organizations, we 
are fully committed to helping the Iraqi people provide for their own 
security and supporting their dream of a free, democratic, and 
prosperous future. I thank Congress for its continued support of our 
budget submissions and supplemental requests to help fund our 
operations and sustain our readiness posture. Your support and the 
support of the American people are key and have been exceptional.
    Many Americans have paid with their lives to ensure that terrorism 
and extremism are defeated in Iraq, but the morale of our 
servicemembers remains very high, and they are dedicated to helping 
achieve peace and stability. There are approximately 140,000 U.S. 
servicemembers in Iraq and approximately 22,000 coalition forces. 
Commanders in the field will continue to evaluate our force structure 
and recommend changes as security conditions and Iraqi Security Forces 
capabilities warrant.
    The insurgency in Iraq is primarily Sunni extremist-based and 
focused on getting Coalition forces out of Iraq and regaining 
illegitimate power in Iraq. Its leadership is predominantly former 
regime elements drawn from the Ba'ath Party, former security and 
intelligence services, and tribal and religious organizations. Other 
groups contribute to the instability, including militant Shia, 
Jihadists groups, foreign fighters, and extensive criminal networks and 
activity. They are generally well resourced with weapons, munitions, 
finances and recruits.
    The greatest threat to stability in Iraq comes from former regime 
elements and their supporters. In the near-term, however, a group of 
Sunni extremists comprising the al-Qaida Associated Movement adds to 
the security challenge. This al-Qaida Associated Movement is part of a 
global network of terrorists. Other elements of this movement were 
responsible for some of the deadliest terrorist attacks in 2004, 
including the March 11 train bombings in Madrid, and the September 9 
bombing of the Australian Embassy in Jakarta, Indonesia. In Iraq, the 
al-Qaida group led by al-Zarqawi claimed responsibility for the tragic 
suicide bombing of the mess tent at Forward Operating Base Marez in 
Mosul in 2004. He has claimed responsibility for additional deadly 
attacks against Coalition forces and innocent Iraqi civilians this 
year.
    We expect insurgents to persist in their attacks, particularly as 
the Coalition continues to help Iraqis rebuild their country and form 
their new government. The Coalition will stand firmly beside the Iraqi 
people to sustain momentum and progress in helping the Iraqi Security 
Forces defeat these insurgents and terrorists.
    Reconstruction and economic stabilization efforts are expanding 
steadily In 14 of the 18 provinces in Iraq. In the other 4 provinces, 
the insurgents are sustaining a hostile environment that undermines 
reconstruction and economic stabilization. The use of Improvised 
Explosive Devices (IED), car bombs, and stand-off attacks continue at 
elevated levels.
    The insurgents are tough enemies, but they offer no alternative 
positive vision for Iraq. Instead, they offer the old vision of Iraq: 
extremism, tyranny, violence and oppression. Insurgents are conducting 
an intimidation campaign to undermine popular support for the Iraqi 
Government, Iraqi Security Forces and emerging institutions. They use 
barbaric and cowardly attacks to target Iraqi government officials, 
their families and others who are trying to improve conditions in the 
country. We will continue to help the Iraqis hunt down extremists and 
their accomplices and capture or kill them.
    Elements in neighboring countries are interfering with democratic 
efforts in Iraq. In Syria, displaced Iraqi Sunnis and Ba'athists are 
also influencing events in Iraq. These efforts include aiding and 
funding insurgents, extremists, and terrorists, to plan attacks inside 
Iraq and transit from Syria to Iraq. The Syrian military and government 
have made some attempts to halt this influence and the illegal flow of 
terrorists into Iraq, but they need to do much more.
    Establishing Iraqi stability and security is a complex process but 
an important one, because it is the path to peace. There are several 
key components to this complex issue, including physical, social, 
economic, and political security. Coalition forces play a direct role 
in many of these key components, but we must address all of these 
components simultaneously. The U.S. military cannot do it alone. This 
is an Interagency as well as an international effort. We must balance 
all components to avoid making the Coalition military presence a 
unifying element for insurgents. The objective must be to shift from 
providing security through Coalition counterinsurgency operations, to 
building Iraqi capacity to operate independently.
    Currently, the Coalition is helping to provide physical security by 
protecting Iraq against both internal and external threats and training 
Iraqi military and police forces to provide their own physical 
security. Coalition military, NATO, and interagency cooperation has 
been very good. Currently, 31 (including the United States) countries 
and NATO are serving in Iraq. Based on the request of the Interim Iraq 
Government at the July 2004 Istanbul Summit, NATO representatives 
agreed to help train Iraqi Security Forces. In February 2005, NATO 
opened their Training Center for mid-grade to senior officers in the 
International Zone, and continues to work toward launching an expanded 
program at Ar Rustamiyah later this year to include training for senior 
non-commissioned officers. NATO will employ a ``train-the-trainer'' 
approach to capitalize on existing Iraqi capabilities and grow their 
cadre of trainers. NATO has established a Training and Equipment 
Coordination Group located in Brussels. The Iraqi-chaired Training and 
Equipment Coordination Committee in Baghdad is helping to coordinate 
donated equipment and training opportunities for Iraqi Security Forces 
outside of Iraq. In order to maximize our efforts, NATO countries and 
the international community must fully support and contribute forces to 
the mission.
    The Iraqi Government has over 155,000 security forces trained and 
equipped at varying levels of combat readiness. The growing Iraqi Army 
now comprises over 80 combat battalions. Not all of these battalions 
are combat ready; readiness capability is a function of numbers, 
training, equipment, leadership and experience. We continue to work 
with the Iraqi government on raising, training, and equipping even more 
security forces. Just as importantly as increasing forces, the 
Coalition is helping improve the capability and readiness of the 
security forces. Iraqi division commanders have recently been appointed 
and are receiving training and mentoring. Coalition forces are working 
with them to build their headquarters and forces capable of independent 
operations. These leaders will be critical to conducting independent 
counter-insurgency efforts as they gather intelligence, shape plans, 
and direct operations.
    Iraqi servicemembers have fought valiantly alongside their 
Coalition partners in combat, and have had to face the constant threat 
of insurgent attack. Over 1,600 members of the Iraqi Security Forces 
have been killed in service to their country. Immediately on the heels 
of many effective combat operations, Iraqi and coalition partners have 
restored effective local governments that are responsive to the 
national government.
    Training Iraqi police forces is a longer-term project, but good 
progress is being made, especially with the special police battalions. 
The Iraqis now have nine public order battalions, a special police 
brigade, nine police commando battalions and seven regional SWAT teams 
actively engaged in the fight against insurgents and terrorists on a 
day-to-day basis.
    During the liberation of Fallujah, the Coalition that included 
Iraqi Security Forces made great progress in eliminating the 
insurgents' safe havens. Urban counter-insurgency operations are among 
the most difficult combat missions, but the Coalition courageously and 
successfully liberated the city, block by block and building by 
building. We continue to conduct effective offensive operations and 
help the Iraqi forces eliminate other safe havens.
    The social aspect of security includes ensuring educational 
opportunities, adequate wages, health care, and other safety-net 
programs are available to ensure the population has basic human 
services. Economic security requires helping to promote the Iraqi 
economy and industrial base to create jobs and sources of income 
sufficient to support local and state government services, individuals 
and families. Although neither social nor economic security are primary 
U.S. military responsibilities, Coalition forces are actively involved 
in these efforts to bolster the legitimacy and effectiveness of local 
Iraqi governments. As much as possible, we are turning over 
responsibility for administering these projects to Iraqi leadership.
    In June of 2004, there were 230 projects from the Iraq Relief and 
Reconstruction Fund on the ground ``turning dirt.'' By January 2005, 
more than 1,500 projects were underway, accounting for more than $3 
billion in reconstruction funding and the progress continues. The U.S. 
military, Interagency, Coalition and non-governmental organizations are 
helping the Iraqis build sewers, electrical and water distribution 
systems, health centers, roads, bridges, schools, and other 
infrastructure. I cannot overemphasize the importance of these 
activities to help the Iraqis rebuild their infrastructure, after 
decades of decay under Saddam Hussein's oppressive regime.
    The Commander's Emergency Response Program (CERP) is a high-impact 
program that has been instrumental in our efforts to help secure peace 
and help stabilize Iraq and Afghanistan. Allowing commanders to respond 
immediately to urgent humanitarian relief and reconstruction 
requirements, this program proved to be an immediate success story. In 
fiscal year 2005, the Consolidated Appropriations Act provided a total 
of $500 million of budget authority for CERP. Through the supplemental 
budget request, DOD has requested a total of $854 million for this 
program in fiscal year 2005, $718 million for Iraq and $136 million for 
Afghanistan. I support the request for an increase in authorizations 
for CERP in fiscal year 2005 and thank Congress for your continued 
support of the Commander's Emergency Response Program.
    Political security means the Iraqis must be able to participate in 
the government processes without fear of intimidation. Last summer, 
Iraq began its transition to sovereignty. In August, military 
commanders shaped a plan that helped bring Iraq through the January 
elections and on to the constitutional elections in December 2005. The 
plan is on track. On January 30th, Iraqis elected a 275-person 
transitional national assembly, who will write a new Iraqi 
constitution. This was a very important step on the road to peace and 
security in Iraq.
    The Coalition goal is for the Iraqis to have a safe and secure 
country. The political process is moving forward. The country needs to 
be rebuilt after 30 years of decay, and we need to continue to help 
build Iraqi military and security forces and encourage good governance. 
We are making excellent progress in so many areas in Iraq, even though 
this progress does not always get the attention it deserves. Daily 
reports alone cannot define our successes or failures. From a broad 
perspective, the Coalition has successfully reached the first of many 
important milestones. Less than 2 years ago, Coalition forces defeated 
a brutal dictator and his regime. We established a provisional 
authority to get Iraq back on its feet, and transferred sovereignty to 
an interim government. The Iraqis have elected their Transitional 
National Assembly, which has elected their Presidency Council. The 
National Assembly will write a new constitution that will lead to 
another round of nation-wide elections and a permanent government. The 
Iraqis have many challenges ahead and many more milestones to meet, and 
the Coalition forces are supporting their efforts to ensure democracy 
and freedom will prevail.
    Although the stresses on our Armed Forces remain considerable, I am 
confident that we will achieve the goals set forth by the President. 
Our Coalition forces are dedicated, and the Iraqis are dedicated, as 
they proved on January 30th. As long as America keeps its resolve, we 
will succeed. Resolute Congressional leadership will be as important to 
our success in the future as it has been to date.

                    OPERATION ENDURING FREEDOM (OEF)

    2004 was a historic year for Afghanistan. The entire region is a 
much better place due to the commitment of the United States, our Armed 
Forces and our Coalition partners. Currently in Afghanistan, 42 
countries and NATO are working to protect and promote a democratic 
government, with NATO assuming an increasing role in stability and 
reconstruction efforts. We currently have approximately 20,000 United 
States servicemembers in Afghanistan.
    The October 9, 2004 presidential election in Afghanistan was a 
historic moment for that country. Over 8 million people, 40 percent of 
whom were women, braved threats of violence and overcame poor weather 
to cast their ballots. The elections were conducted under the 
protection of their own National Army and Police Forces with the 
assistance of the Coalition and the International Security Assistance 
Force. The election of President Hamid Karzai is providing new momentum 
for reform efforts such as the demobilization of private militias, 
increased governmental accountability, and counter-narcotics planning 
and operations. Taking advantage of his electoral mandate, Karzai 
assembled a cabinet of well-educated and reform-minded ministers who 
reflect Afghanistan's diverse ethnic and political environment. 
National Assembly elections, currently scheduled for this spring, will 
provide additional leadership opportunities. The Presidential election 
represented a serious real and moral defeat to the insurgency. The 
Taliban's failure to disrupt the election further divided an already 
splintered insurgency. Nonetheless, some radical factions remain 
committed to the insurgency. Frustrated by their lack of success, these 
factions may seek to launch high profile attacks against the upcoming 
National Assembly elections, necessitating continued robust security.
    Congress's firm commitment to Afghanistan is leading the 
international effort to fund and equip reconstruction in Afghanistan. 
In fiscal year 2005, $290 million of the authority enacted by Congress 
to train and equip security forces will be used to accelerate the 
growth of the Afghan National Army (ANA). Now numbering approximately 
22,000 personnel--three times greater than last year--the Afghan 
National Army is a multi-ethnic, visible symbol of national pride, 
unity, and strength in Afghanistan. The goal is to fully man the ANA 
combat force with 43,000 servicemembers by late 2007, about 4 years 
earlier than originally planned. This is truly a success story. Fiscal 
year 2004 funding enabled the opening of 19 regional recruiting 
centers, which have been critical to attracting quality recruits to 
accelerate the growth of this force. In the next several years, the 
Coalition and NATO will help build the commands and institutions the 
Afghans need to sustain and manage their military. The ANA is on the 
path to becoming a strong military force, and in its early stages has 
proven tough and well disciplined in the field.
    The Provincial Reconstruction Team (PRT) program is a great 
success. As hubs for security sector reform initiatives, 
reconstruction, good governance programs and humanitarian efforts, 
these teams are key to stabilizing Afghanistan. There are now 19 
operational PRTs, 8 more than I reported last year. The Coalition 
currently leads 14 of these teams and NATO leads 5. With an improvement 
in security and increased Afghan governance and security capacity, the 
PRTs will eventually be transformed into civilian-only assistance 
teams, with Afghan district and provincial governments taking over an 
increased number of their functions.
    Last October, the United Nations approved a resolution extending 
NATO's International Security Assistance Force for another year. ISAF 
now controls five PRTs in the North, with Phase Two of NATO expansion 
into the west occurring in 2005. The intent is to continue NATO 
expansion by region, gradually replacing Coalition forces with NATO 
forces.
    In spite of the successes to date, low-scale insurgent attacks 
continue, and more disturbingly, opium production reached record levels 
last year. Afghanistan is responsible for most of the world's opium 
supply, and 80 to 90 percent of the heroin on the streets of Europe. 
Eliminating the cultivation of poppies used to produce opium is 
Afghanistan's number one strategic challenge. Illicit drug activity in 
Afghanistan funds terrorism and interferes with good government and 
legitimate economic development.
    Coalition soldiers are assisting in the counternarcotics effort in 
Afghanistan by reporting, confiscating or destroying drugs and drug 
equipment encountered in the course of normal operations, sharing 
intelligence, helping to train Afghan security forces, and, through our 
Provincial Reconstruction Teams, by providing assistance in communities 
migrating to legal crops and businesses. Ultimately, the Afghan 
government, aided by the international community, must address drug 
cultivation and trade with a broad-based campaign that includes 
creating viable economic alternatives for growers and manufacturers.
    Achieving security in Afghanistan is very dependent on disarmament, 
demobilization and reintegration; cantoning heavy weapons; curbing 
warlordism; and defeating the narcotics industry. President Karzai's 
patience and persistence in dealing with factional leaders continues to 
achieve results. Over 40,000 former militia troops have been disarmed 
and demobilized, nearly 96 percent of the known heavy weapons were 
cantoned peacefully, and factional disputes continue to yield to 
central government resolution. The power of the warlords is 
methodically giving way to credible, effective national institutions.
    Working closely with President Musharraf of Pakistan and President 
Karzai, we have been able to increase coordination among Coalition, 
Afghan and Pakistani forces along the border. The Pakistani government 
has taken the initiative to increase their military presence on the 
border, including manned outposts, regular patrols and security 
barriers. Pakistani military units also patrol in the Federally 
Administered Tribal Areas, once considered ``no-go'' areas. Pakistan's 
support in securing key border points was instrumental in shaping a 
relatively secure environment during the Afghan presidential election. 
The Pakistani Army has significantly improved their counter-terrorism 
capabilities, thanks in part to equipment we are providing them, and 
has played a vital role in enhancing security in this region.

                     OTHER U.S. OVERSEAS OPERATIONS

    Even as operations in Iraq and Afghanistan continue, the United 
States will face a number of other challenges and demands for military 
capabilities. Throughout the world, U.S. forces provide stability, 
peacekeeping, humanitarian assistance, and hope; ultimately spreading 
democracy and progress and aiding in the Global War on Terrorism. U.S. 
Armed Forces have conducted operations ranging from our support to 
South and South East Asia for the Tsunami disaster, to keeping the 
peace in Kosovo. Of the over 2.6 million servicemembers serving in the 
Total Force, over 240,000 are deployed overseas in 54 countries or at 
sea. Additionally, 65,000 of these servicemembers are members of the 
Reserve or National Guard.
    Our Armed Forces still have many enduring missions and challenges 
around the world as we fight the Global War on Terrorism. The Joint 
Task Force Horn of Africa at Camp Lemonier, Djibouti continues to 
conduct counter-terrorist and civil affairs operations in Eastern 
Africa. This contingent of 1,100 U.S. forces provides critical security 
assistance in support of civil-military operations and supports 
international organizations working to enhance long-term stability in 
this region.
    In April 2004, we successfully completed the Georgian Train and 
Equip Program, training over 2,700 Georgian troops to meet the rising 
threat of transnational terrorism in the Caucasus. DOD recently 
accepted a Georgian request for U.S. support in training additional 
troops for the United Nations Protection Force and to sustain their 
current troop rotations in Iraq and Afghanistan. Additionally, in 
support of Operation ENDURING FREEDOM, a small contingent of U.S. 
military personnel remains in the southern Philippines aiding their 
forces in training for counter-terrorism operations.
    Expanded Maritime Interdiction Operations (EMIO) have been a very 
successful international effort over the past year to interdict 
terrorists and their resources by sea. All geographic Combatant 
Commanders are successfully pursuing this initiative with particular 
focus on the Persian Gulf, Horn of Africa, the Mediterranean and 
throughout the Pacific Command. Beyond the goal of eliminating 
terrorist access to the maritime environment, EMIO has had other 
positive effects for the international community, including lower 
insurance premiums in the shipping industry, considerably less illegal 
immigration, and a reduction in piracy and narcotics smuggling.
    The Korean peninsula continues to be a region of concern. North 
Korea's military is the world's fifth largest and remains capable of 
attacking South Korea with little further preparation. Our goals are 
for North Korea to dismantle their nuclear programs in a verifiable 
manner, eliminate their chemical and biological weapons programs, 
reduce their conventional threat posture, and halt their development 
and proliferation of ballistic missiles. North Korea announced its 
withdrawal from the Nuclear Non-proliferation Treaty (NPT) in January 
2003, and made clear its intentions to pursue its nuclear weapons 
program. To deal with the threat presented by North Korea's nuclear 
program, the United States has steadfastly pursued a multilateral 
diplomatic solution through the Six-Party talk process. There have been 
three rounds of the talks to date, the last occurring in June of 2004. 
North Korea has refused to return to the talks, citing United States 
``hostile policy,'' despite our government's clear and unequivocal 
statements that the United States has no intent to invade or attack 
North Korea.
    North Korea is also one the world's leading suppliers of missiles 
and related production technologies, having exported to countries in 
the Middle East and North Africa as well as Pakistan. North Korea is 
expected to increase its nuclear weapons inventory by the end of the 
decade and continues to invest heavily in ballistic missiles and the 
infrastructure to support them. Taken together, North Korea's actions 
constitute a substantive threat to global security.
    The United States remains committed to maintaining peace and 
stability on the Korean Peninsula. We provide military deterrence and 
defensive capabilities in combination with our South Korean ally and 
through maintaining strong military and diplomatic ties with our 
regional partners. The United States and Republic of Korea (ROK) 
alliance remains strong, and we are improving our overall combat 
effectiveness while eliminating dated infrastructure and reorganizing 
our footprint to lessen the burden on the people we are defending. We 
still need to resolve a number of issues, but there is no doubt that 
the alliance is enduring, as is the U.S. commitment to the defense of 
the Republic of Korea. The Republic of Korea is a major contributor to 
the Coalition in Iraq, providing over 3,300 troops.
    Iran's apparent pursuit of nuclear weapons and the implications of 
their being a nuclear-equipped state sponsor of terrorism adds 
substantially to instability throughout the Middle East. While I hope 
that the efforts of the International Atomic Energy Agency and the 
European Union will deter and dissuade Iran from pursuing a nuclear 
weapons program, I have no long-term basis for optimism. So far, there 
have been no signs that Iran will give up its pursuit of uranium 
enrichment capability. I am also concerned with the Iranian 
government's continued attempts to influence the political process in 
Iraq and marginalize U.S. assistance in Iraq and throughout the region.
    We must stay focused on the enormous global threat posed by the 
proliferation of Weapons of Mass Destruction (WMD). Although 
operationally deployed nuclear weapon numbers are declining in Russia 
and the United States because of treaty commitments, we continue to 
prioritize the safety, security and accountability of these types of 
weapons. Furthermore, we project a slow increase in other states' 
inventories. We are particularly troubled about North Korea's and 
Iran's on-going nuclear weapons-related activities. The trend toward 
longer range, more capable missiles continues throughout the world. We 
believe that some chemical and biological warfare programs are becoming 
more sophisticated and self-reliant, and we fear that technological 
advances will enable the proliferation of new chemical and biological 
warfare capabilities.
    Fighting the proliferation of WMD is a challenging worldwide 
problem and is one of my greatest concerns. Terrorists have stated 
their desire and intent to obtain WMD. While most of this proliferation 
in the past was state-sponsored, proliferation by companies and 
individuals is growing. The revelations about the AQ Khan international 
and illicit nuclear proliferation network show how complex 
international networks of independent suppliers with expertise and 
access to the needed technology, middlemen, and front companies can 
successfully circumvent domestic and international controls and 
proliferate WMD and missile technology. Within DOD, the SecDef has 
tasked the U.S. Strategic Command to synchronize our efforts to counter 
WMD and ensure the force structure and the resources are in place to 
help all combatant commands defeat WMD.
    Proliferation Security Initiative (PSI) operational activities are 
central to DOD efforts to counter proliferation of WMD. We will 
continue to work with key countries to develop expanding circles of 
counter proliferation cooperation. We have been very successful in the 
last year. Today, more than 60 nations have endorsed the principles of 
PSI, with a number of others expressing willingness to cooperate in PSI 
efforts. 19 nations form the PSI Operational Experts Group. We are 
conducting PSI exercises around the world to enhance international 
interdiction capabilities and to serve as a deterrent to curtail the 
proliferation of WMD and the means to deliver those weapons. In October 
2003, our WMD counter proliferation efforts provided a key motivation 
for Libya's abandonment of its WMD programs and helped speed the 
dismantling of the AQ Khan nuclear proliferation network. The key to 
success in combating WMD proliferation remains committed international 
partnership.
    Today, the NATO Alliance is the most important and capable security 
alliance in the world. NATO commitment across the globe, to include 
operations in Iraq and Afghanistan, has been very good. However, there 
is room for improvement. Lack of defense funding by NATO Allies places 
a strain on the Alliance and our collective defense capability. Despite 
the general agreement that nations would hold their defense budgets at 
no lower than 2 percent of their gross national product, unfortunately, 
today, 50 percent of the nations in the Alliance are below 2 percent. 
This inadequate spending threatens NATO's ability to transform and 
adequately meet the Alliance's commitments. Additionally, member 
governments place numerous caveats on the use of their forces, 
rendering these forces less effective. For example, during the unrest 
in Kosovo last March, governmental caveats kept some countries from 
responding to the crisis. Finally, NATO needs to create a decision-
making process that supports time sensitive requests. NATO forces have 
been slow to respond to security challenges because the NATO 
bureaucracy was too slow to react. Even with these deficiencies that 
need to be addressed, NATO has proven indispensable in today's security 
environment, and has committed itself to improving its capability.
    Operations in Kosovo and Bosnia and Herzegovina stand as the 
definitive examples of how NATO can bring peace and stability to war-
torn regions. Additionally, the NATO Response Force (NRF) reached its 
initial operating capability last October. The NRF gives NATO a joint 
force tasked to quickly deploy and execute the full spectrum of NATO 
missions. The Alliance's most recent success occurred in December when 
NATO concluded its first successful peacekeeping mission in its 
history. The successful Stabilization Force Mission in Bosnia-
Herzegovina was brought to completion after 9 years and, at its peak, 
consisted of over 60,000 Allied troops. In total, over 500,000 NATO 
soldiers from 43 nations and 90,000 U.S. troops participated in 
operations that set the stage to establish judicial, economic, and 
governmental systems leading to self-governance in Bosnia and 
Herzegovina. NATO and the United States will remain engaged in Bosnia, 
where NATO has established a new headquarters that will have the lead 
role in supporting Bosnian defense reform. NATO forces will continue to 
hunt for war criminals, and will prevent terrorists from taking 
advantage of Bosnia's fragile structures. This NATO force will work 
closely with the newly created European Union (EU) Force and will 
retain access to the full range of military authorities provided under 
the Dayton Accords. The EU mission will focus on Bosnia's current 
security challenges, such as organized crime. This spring, the North 
Atlantic Council will review the Kosovo mission and the forces 
required. Based on this review, we will work with our NATO Allies to 
respond to the evolving security environment.
    Narco-terrorism presents a global threat to security, prosperity, 
and good governance. Through Counter Narco-Terrorism operations, the 
United States is building coalitions, training and equipping forces, 
and enhancing the capabilities of allies in the Global War on 
Terrorism. Ongoing U.S.-sponsored multilateral operations promote 
security, improve effective border control, deny safe havens and 
restrict the ability of the narco-terrorists to operate with relative 
impunity.
    Counter Narco-Terrorism (CNT) successes in Colombia over the last 
year have been exceptional. We appreciate recent Congressional action 
to increase the troop cap for DOD personnel operating in Colombia. This 
allows U.S. Southern Command (SOUTHCOM) to maintain the flexibility to 
meet existing mission requirements while increasing information, 
logistic and training support to the Government of Colombia during the 
execution of Colombia's current Counter-Narco Terrorism campaign, Plan 
Patriota.
    With approximately 18,000 members, the Revolutionary Armed Forces 
of Colombia (FARC) is the largest Narco-Terrorist (NT) group operating 
in Colombia, followed by the United Self-Defense Forces of Colombia 
(AUC) and the National Liberation Army (ELN). In the past year, through 
a combination of aggressive CNT operations and offers of amnesty, 
Colombian security forces engaged in Plan Patriota have killed or 
captured 10 senior ranking members of the FARC and have demobilized 
record numbers of Narco-Terrorism group members. The Colombian 
Government is engaged in a peace process with the AUC that has already 
resulted in the demobilization of over 4,000 combatants. As a measure 
of the improved quality of life in Colombia, in the last year, 
massacres committed by Narco-Terrorism groups against civilians have 
decreased 44 percent, kidnappings decreased 42 percent, and attacks 
against infrastructure have decreased 42 percent. Cocaine seizures have 
increased 43 percent while heroin seizures have increased 72 percent.
    In response to the devastating and tragic Tsunami last December, 
the U.S. military responded immediately with humanitarian assistance to 
South and South East Asia. We quickly established a Combined Support 
Force headquarters in Thailand. During the height of the humanitarian 
effort, more than 25 U.S. ships, 50 helicopters, numerous support 
aircraft and 15,000 U.S. troops were involved in delivering and 
distributing relief. Over 3,300 relief sorties were flown. Sailors, 
Marines, Soldiers, Airmen and Coastguardsmen provided over 5000 tons of 
relief supplies including over 420,000 gallons of water. Working with 
local governments, NGOs and international organizations, servicemembers 
provided all facets of humanitarian assistance, including providing 
medical care, clearing debris, and repairing critical infrastructure. 
This operation was a tribute to the versatility, responsiveness and 
compassion of our joint forces.
    The U.S. Government has recently developed an excellent combating 
terrorism planning mechanism through the NSC-led Regional Action Plans 
for Combating Terrorism (RAP-CTs). These RAP-CTs are the primary 
vehicle for the Interagency to coordinate and deconflict Global War on 
Terrorism activities on a regional basis. This process is an 
Interagency success story, and the DOD is fully engaged in these 
planning activities.
    Our global operations show the remarkable versatility, flexibility, 
agility, and professionalism of our American Armed Forces and highlight 
our effectiveness in fighting the Global War on Terrorism. Very few 
nations can field a force capable of expertly conducting simultaneous 
combat, peacekeeping, and humanitarian operations around the world, 
while maintaining the flexibility to seamlessly transition from one 
mission to another.

                           JOINT WARFIGHTING

    Our forces are the world's most capable, in large part because they 
are the best trained and equipped. They continually strive to be the 
best joint warfighters in the world, they work extremely hard and they 
are taking joint warfighting to the next level by working closely with 
our interagency partners. Our forces possess the requisite personnel, 
equipment, and resources to accomplish the military objectives outlined 
in the National Military Strategy. Our forces--whether forward 
deployed, operating in support of contingency operations, or employed 
in homeland defense--remain capable of executing assigned missions. But 
there are many challenges to meeting these commitments.
    Our Nation's number one military asset remains the brave men and 
women serving in our Armed Forces. They have the training, spirit and 
agility to use modern technology to form the world's preeminent 
military force. They have the dedication, courage, and adaptability to 
combat dynamic global threats. The Administration, Congress and DOD 
have made raising our servicemembers' standard of living a top 
priority, and I thank Congress for your tremendous support to our 
troops and their families during my tenure as Chairman.
    The President's budget includes a 3.1 percent increase in basic 
pay, which keeps military pay competitive. We must ensure the civilian-
military pay gap does not widen and that we support our Armed Forces 
with pay befitting their experience level, skills, and service. Thanks 
again to your actions, the aggressive increases in Basic Allowance for 
Housing eliminated an 18.8 percent deficit over the past 5 years and 
allowed us to eliminate average out-of-pocket housing expenses this 
year. Danger area compensation and other combat-related initiatives 
passed into law have also had a positive impact, mitigating the 
challenges of retaining and compensating our servicemembers serving in 
combat. Benefit increases have helped close the pay gap, improve health 
care and housing, and significantly contributed to improving the 
quality of life of our forces. As fiscal challenges mount for the 
Nation, I stand ready to work closely with Congress and the 
Department's civilian leadership regarding future benefit increases. 
Close coordination will ensure that our limited resources are used 
effectively to sustain our all-volunteer force.
    DOD and Congress are working together to increase benefits for the 
survivors of deceased servicemembers. While no benefits can replace the 
loss of a human life, I agree that improvements are needed.
    Current stresses on the force are significant and will remain so 
for the near term. I am concerned with the wear and tear on our 
equipment, especially our vehicles. High operational and training tempo 
is putting up to 5 years worth of wear on equipment per year, placing a 
huge demand on maintenance, supply, depot repair and production. In 
some units, combat-related damage is high, and there is substantial 
equipment damage caused by the harsh environment in Iraq and 
Afghanistan. Additionally, many units leave their equipment overseas 
when they return from deployment, requiring re-supply and 
reconstitution as they train for their next deployment.
    We continue to analyze our policies and make changes to mitigate 
readiness challenges to include how forces are selected for deployment, 
reserve mobilization, training, equipment wear and reset, unit 
reconstitution, and improving Command, Control, Communication, and 
Computer System infrastructures. Congressional support, both in the 
annual budget and supplemental funding, has been essential for 
continued operations, Army modularization, and recapitalization. 
However, many of the programs we have put in place take time to 
develop. We are currently addressing the significant stress in critical 
specialties in Combat Support and Combat Service Support, as well as 
Low Density/High Demand assets. Unit reconstitution of both equipment 
and trained personnel is also a challenging process. Our DOD fiscal 
year 2005 Supplemental request currently before the Congress is 
essential to all of these efforts, and I urge the Congress to act 
promptly and fully on this request.
    We continue to rely heavily on our Reserve and Guard personnel. Our 
Reserve Components are serving critical roles in OIF and OEF, the 
Global War on Terrorism, and Homeland Defense, as well as serving 
around the world in other operations and activities. Citizen-soldiers 
in the Reserve Component are an important link to the American people. 
Morale in both the active and Reserve Component remains high, and their 
support by the American people has never been higher. As of April 2005, 
Guard and Reserve personnel comprised 33 percent of our Force in Iraq, 
21 percent in Afghanistan, and 45 percent in Djibouti. We need to 
continue to review and update our processes to improve the efficiency 
and agility of our mobilizations. We are well aware of the strains on 
members, their families, and their employers, and we continuously seek 
better ways to support them.
    While we have made strides in improving predictability and benefits 
for our Reserve Component servicemembers and continue to pursue 
rebalancing initiatives--especially in low density and high demand 
forces--significant additional steps are underway. The Reserve 
Component Cold War-era processes and policies that have guided 
training, readiness, administration, pay and health benefits, personnel 
accountability and mobilization must be reformed and streamlined if we 
are to have the deployable and sustainable Reserve Component force that 
our Nation needs. I look forward to working with the new Congressional 
Commission on Guard and Reserve matters to chart the future course for 
our very important Reserve Component.
    In order to help compensate for the high-tempo force and materiel 
requirements associated with ongoing operations for the Total Force, we 
have revised many of our processes to improve readiness forecasting. We 
have identified Service and Combatant Command requirements, determined 
the scope of required reset actions, improved on forecasting demands, 
and addressed industrial base shortfalls. We have developed many of 
these solutions with the help of the Joint Quarterly Readiness Review 
process, and the DOD is developing a web-based Defense Readiness 
Reporting System. These efforts are part of an ongoing effort to 
improve our readiness reporting and responsiveness throughout the 
Services, the DOD and the Joint Staff.
    By using all of these tools, we have identified readiness 
challenges and will continue to refine our priorities to successfully 
carry out our missions. This year's budget submission and the 
supplemental request greatly mitigate some of these readiness 
challenges, but many will remain as we continue to engage in sustained 
combat operations.
    Because today's security environment demands a global perspective, 
in June 2004, SecDef approved a new Global Force Management process and 
designated Joint Forces Command (JFCOM) as the primary Joint Force 
Provider. These changes will ensure the warfighters get the right 
forces from the right sources, focusing globally instead of regionally. 
In the future, JFCOM will coordinate all conventional force sourcing 
recommendations, excluding those assigned to Special Operations Command 
(SOCOM), Strategic Command (STRATCOM), and Transportation Command 
(TRANSCOM). This is a new mindset. Integral to this new methodology is 
the Global Force Management Board. This board is composed of General 
Officer/Flag Officer-level representatives from the Combatant Commands, 
Services, Joint Staff and OSD who review emerging force management 
issues and make risk management recommendations for approval by the 
SecDef.
    The pace of operations around the globe since 9/11 has led to 
Operational Tempo (OPTEMPO) and Personnel Tempo (PERSTEMPO) that are 
hard to sustain indefinitely in many specialties. As a risk mitigator, 
we have temporarily increased our end strength in the Army and Marine 
Corps. Making these personnel increases permanent is very expensive. 
Before making our currently increased level of forces permanent, we 
need to assess current force management initiatives and our future 
global commitments. Initiatives like the Army's transformation to a 
modular-based organization help accomplish this. Having the right force 
to meet today's threats is critical. The Quadrennial Defense Review 
will aid in this assessment and help us make informed decisions about 
the appropriate size and composition of our force structure and manning 
to achieve our strategic objectives.
    One of the readiness challenges facing our forces is adequately 
resourcing Combat Service and Combat Service Support billets. To help 
these stressed career fields, we are aggressively rebalancing our force 
structure and organizations. Through fiscal year 2011 we expect to 
rebalance mission and skills for over 70,000 billets in the Active and 
Reserve components. Additionally, we have approximately 42,000 military 
to civilian conversions planned. The conversions will free up military 
billets to help reduce stress on the force. Together, these initiatives 
rebalance over 110,000 billets with a primary focus on high-demand 
specialties, including civil affairs, military police, intelligence, 
and Special Forces.
    The DOD depends on the skills and expertise of its civilian 
workforce as a force multiplier. We simply could not perform our 
mission without the support, dedication, and sacrifice of our DOD 
civilian employees at home and overseas. To help simplify and improve 
the way it hires, assigns, compensates, and rewards its civilian 
employees, the DOD will implement the first phase of the National 
Security Personnel System this July. This system will improve the 
management of our civilian workforce, allowing for greater flexibility 
to support evolving missions.
    As of April 1, 2005, enlisted recruiting within the active 
components remains strong except for the Army, which is at 89 percent 
of their goal. Many factors contribute to the Army's recruiting 
challenge, including their fiscal year 2005 end-strength increase and a 
resulting increase in the total number of recruits needed in fiscal 
year 2005. In the Reserve Component, recruiting continues to be a 
challenge. Of the six Reserve Components, only the USMC Reserve and Air 
Force Reserve made their recruiting goals through March. Each Service 
and component has mitigating plans and is aggressively attacking the 
problem. The Army Reserve Components will continue to be particularly 
challenged since more active Army soldiers are staying in the active 
force, and of those who get out, fewer are joining the Army Reserve 
Component. We have increased the number of recruiters and restructured 
enlistment bonuses to help mitigate these challenges.
    The Services are on track to meet their annual end strength goals 
except for the Army Reserve Components and the Navy Reserve. The Army 
National Guard's end strength is currently at 95 percent and the Army 
Reserve's strength is 96 percent. The Navy Reserve is at 94 percent of 
its authorized end strength, which is on track to meet their target for 
fiscal year 2007.
    We also need to look very closely at the experience level and 
demographics of the people who are leaving the Armed Forces. The 
leadership skills and combat skills that our servicemembers are gaining 
while fighting this Global War on Terror are priceless. It takes years 
to train quality leaders, and we need today's best officers and NCOs to 
become tomorrow's senior leaders.
    The Army Stop Loss policy is vital to their efforts in the GWOT. 
This policy affects the Active Army forces in OIF and OEF, and Army 
National Guard and Reserve members assigned to units alerted or 
mobilized that are participating in OIF, OEF or Operation NOBLE EAGLE. 
Stop Loss currently affects alerted Active and Reserve soldiers 
typically from 90 days before their mobilization or deployment date, 
through their deployment, plus a maximum of 90 days beyond their return 
from deployment. Stop Loss is essential to ensuring unit integrity 
during combat operations. As authorized under Title 10, the size of 
future troop rotations will in large measure determine the levels of 
Stop Loss needed in the future. Initiatives such as Force 
Stabilization, Modularity and the Army's active and reserve component 
rebalancing should alleviate some of the stress on the force.
    Protecting our troops remains a top priority. The rapid production 
and distribution of Interceptor Body Armor to our forces in OIF and OEF 
was a tremendous success. 100 percent of U.S. Government civilians and 
U.S. military members in Iraq, Kuwait, Afghanistan, and the Horn of 
Africa have had body armor since February of 2004. The Army has 
aggressively managed this critical item, accelerating production and 
fielding rates. The Army is now fielding Deltoid Auxiliary Protection 
armor and the Marine Corps is fielding Armor Protective Enhancement 
System to help protect shoulder and armpit regions that are not 
currently covered by Interceptor Body Armor. With your support, we will 
continue to work diligently to provide the best protective equipment 
for our troops.
    Clearly as essential as providing body armor for our troops is 
providing armored vehicles to transport them. Our successes in 
increasing armor production have recently allowed us to institute a 
policy that servicemembers leaving Iraqi forward operating bases must 
be in vehicles with armor protection, whether a Humvee, truck, or other 
tactical wheeled vehicle.
    The evolving threat in the Central Command Area of Responsibility 
(CENTCOM AOR) has significantly increased the requirements for the Up 
Armored Humvee and armor protection for all vehicles. In May 2003, the 
CENTCOM requirement for Up Armored Humvees was just 235. Their 
requirement is now over 10,000. CENTCOM has over 7,300 Up Armored 
Humvees, and the Army will meet the requirement of 10,000 by this July.
    There are three levels of armor protection for all tactical 
vehicles. A Level 1 vehicle is provided directly from the manufacturer 
with integrated armor protection against small arms, IEDs, and mines. A 
Level 2 vehicle is equipped with a factory built, add-on kit installed 
in theater, to provide similar protection. Level 3, is a locally 
fabricated armor kit. Level 3 provides comparable protection to Level 
2, excluding ballistic glass. All three levels meet detailed Army and 
Marine Corps specifications. Overall, of the more than 45,000 tactical 
wheeled military vehicles in CENTCOM, 87 percent have armor protection. 
As factory production of Level 2 kits has steadily increased to meet 
the changing requirement, the Army is replacing Level 3 with Level 2 
armor. To accelerate this transition, the Army has added two truck 
installation facilities, making a total of five facilities in theater 
dedicated to installing factory-produced protection to our vehicles. 
Navy and Air Force military and civilian personnel are continuing 
efforts to accelerate armor installation in Iraq and Kuwait. 
Additionally, the Army is applying Level 2 armor in the United States 
before units deploy.
    Even as we approach our goals for the number of armored vehicles in 
Iraq, the Army is fielding new capabilities to further protect our 
troops. Troops returning from Iraq are talking to industry leaders 
about better, and safer armor design and systems. We continue to refine 
the entire range of tactics, techniques, and procedures used to move 
needed personnel and supplies. For example, we have doubled the number 
of direct air delivery hubs in Iraq, and expanded intra-theater airlift 
to reduce the number of convoys traveling through high-risk zones. 
Since the beginning of these air-delivery initiatives earlier this 
year, we have been able to reduce the number of truck movements used to 
move equipment and supplies by 4,200. Because we cannot eliminate the 
risks entirely, we are rapidly developing systems to counter threats, 
including Improvised Explosive Devices. Overall, our efforts have been 
successful and are saving lives and limbs. With the continued strong 
support of Congress, we will continue to provide the best protection 
possible for our personnel.
    Combatant Commanders and Services continue to identify preferred 
munitions shortfalls as one of their areas of concern, including Laser 
Guided Bombs and Joint Direct Attack Munitions production. Supplemental 
funding and programmed budget authority have bolstered Joint Direct 
Attack Munitions 193 percent and Laser-Guided Bomb kits 138 percent in 
the past year, continuing to reduce the gap between requirements and 
available inventory. In the long-term, we need to continue to fund the 
development of weapons like the Small Diameter Bomb, Joint Air-to-
Surface Standoff Missile, and Joint Standoff Weapon to build on our 
precision-delivery capabilities.
    Last year, the DOD developed overarching policy and procedures for 
managing contractors during contingency operations. Once reviewed and 
approved by the Department, these documents will greatly aid in 
coordinating contractor operations.
    The vision for Joint Professional Military Education (JPME) can be 
summed up as delivering the right education, to the right people, at 
the right time, focusing on improved joint warfighting. Cold War 
threats and force structure were the building blocks for Joint Officer 
Management policies codified in the 1986 Goldwater-Nichols legislation. 
The requirement for JPME trained forces throughout different levels of 
seniority has grown significantly since the law went into effect. Over 
the last 3 years we have expanded JPME across the ranks and components 
to include an expansion of JPME phase two opportunities, JPME 
opportunities for enlisted personnel, junior officers starting with 
precommissioning, Reserve Component officers, senior enlisted advisors, 
and for two-and three-star general and flag officers. Training for 
Combatant Commanders is in the planning stage.
    As we redefine jointness with our changing roles and missions, 
Congress has played a vital role in adapting JPME to this new 
environment by tasking DOD in the National Defense Authorization Act 
for 2005 to develop a new strategic plan for joint officer management. 
We must develop leaders at all levels capable of effectively 
accomplishing our strategic and operational objectives. As an example, 
we are looking at the core competencies required for our Joint C4 
Planners and defining what it takes to train, educate and certify them 
in their profession, similar to our certification and training 
standards for our pilots.
    Providing opportunities for foreign military personnel to train 
with U.S. forces is essential to maintaining strong military-to-
military ties. Whether through classroom training or major exercises, 
training and education received by our allies helps build and maintain 
skilled coalition partners and peacekeepers and affords many future 
leaders the opportunity to live in our culture and understand our 
values. Many of the sharp mid-grade foreign officers who attended U.S. 
military training and exercises in the past decades are leading their 
militaries and countries around the world today. Over the past 5 years, 
the IMET budget has nearly doubled, from $50 million in fiscal year 
2000 to nearly $90 million in fiscal year 2005. It is in our best 
interest to keep this important IMET process on track, and I thank 
Congress for continued support and funding of this important program.
    Because these training opportunities and military-to-military 
relationships forged among allies are so important, I am concerned with 
U.S. Government restrictions that limit these relationships. The first 
is the Visa restrictions that affect foreign military personnel 
visiting the United States for training. The second is legislative 
restrictions. One example is the restriction placed on countries 
affected by the American Servicemembers' Protection Act (ASPA). ASPA's 
provisions ensure and enhance the protection of U.S. personnel and 
officials, but an unintended consequence has been a reduction in 
training opportunities with countries not supporting the Act.
    Anthrax represents a significant threat to our Forces and I fully 
support the resumption of the Anthrax vaccine program. DOD is in full 
compliance with the April, 2005 court order requiring DOD to explain to 
servicemembers their right to refuse the vaccine.
    Ongoing operations in Iraq and Afghanistan and the current global 
environment have made the Combatant Commander Initiative Fund (CCIF) a 
high demand asset for sourcing the combatant command's emergent 
warfighting needs. These funds allow the warfighting commanders to 
quickly mitigate financial challenges encountered during combat 
operations. Combatant Commanders use CCIF extensively and I support the 
full funding of this program to ensure we are responsive to the 
warfighter's short-fused needs.
    The CJCS managed Joint Exercise Program (JEP) provides the 
transportation funding that supports the Combatant Commanders' Joint 
and multi-national training which influences the Global War on 
Terrorism, and supports our theater security cooperation plans 
worldwide. Since 9/11, high OPTEMPO and PERSTEMPO have forced the 
Combatant Commanders to reduce the Joint Exercise Program demand by 36 
percent. In response to this dynamic environment, the Joint Staff has 
changed the program to make it strategy based and more responsive to 
the warfighters requirements. This year, JEP is conducting 117 
exercises. 82 percent of these are focused on Theater Security 
Cooperation, preparation for OIF and OEF, and special operations forces 
activities, all of which are directly applicable to fighting the Global 
War on Terrorism. It is essential that Congress fully fund the 
Combatant Commanders' Joint Exercise Program.
    Our joint warfighting operations around the world have clearly 
shown that freedom of navigation, both on the sea and in the air, 
remains absolutely critical to military planning and operations and is 
vital to U.S. national security interests. I strongly support U.S. 
accession to the Law of the Sea Convention as the best means to protect 
our navigational freedoms from encroachment.
    We have many challenges facing our Joint Warfighting team as we 
enter our fourth year of sustained combat operations. I am acutely 
aware of the effects of operational demands on our Total Force. The 
Army Reserve recently highlighted that under current policies governing 
mobilization, training, and manpower management, they cannot sustain 
their current OPTEMPO demands and then regenerate their forces. This is 
a tough problem, but we have many initiatives in place to mitigate this 
and other challenges affecting our overall readiness status in 2005. 
Our Total Force can continue to support the National Security Strategy 
and this current high operational tempo, but we must analyze, refine 
and reassess our efforts so we can transform the force for the 
challenges of the 21st Century.

                         TRANSFORMING THE FORCE

    I am proud of the transformational efforts and successes in the 
U.S. military, but we must continue our efforts to meet the challenges 
facing our country today and in the future. We are a Nation at war, so 
one of our greatest challenges in the military is to transform while 
conducting joint warfighting in the Global War on Terror, protecting 
the United States from direct attack, and reducing the potential for 
future conflict. We must continue to invest heavily in transformation, 
both intellectually and materially.
    Transformation is not simply applying new technology to old ways of 
doing business. Transformation requires cultural change, new ways of 
thinking about problems, and changes in how we organize and train. I am 
proud of the innovation and initiative I see from our servicemen and 
women, both on headquarters staffs and in the field. The concept of 
Transformation is central to all our assessment and procurement 
processes. This year, we will work through three major processes--QDR, 
Base Realignment and Closure Commission (BRAC) and Integrated Global 
Presence and Basing Strategy--that have a long term, broad impact on 
our force posture.
    The Office of the Secretary of Defense is leading the 2005 
Quadrennial Defense Review process. The QDR will provide a 
comprehensive strategic plan that will set the standard for 
transforming the Armed Forces to ensure success against a wide range of 
national security challenges. This is the third Quadrennial Defense 
Review, and it is unique in that we have been engaged in sustained 
combat operations for the last 4 years. The QDR is underway and is 
scheduled to be released in February 2006. By law, the CJCS will assess 
the results, and risks, and make recommendations on the roles and 
missions of the DOD.
    I thank Congress for continued support of our Base Realignment and 
Closure process. Past BRAC efforts, in the aggregate, closed 97 
installations and affected many others within the United States. 
Through fiscal year 2001, these actions produced a net savings of $17 
billion and an annual savings thereafter of about $7 billion. In March 
of 2004, the SecDef and I reported to Congress that the Department had 
substantial excess capacity. While we recognize BRAC is a challenging 
process, clear evidence of this excess capacity, coupled with a history 
of savings from past BRAC efforts, makes the argument for completing 
BRAC 2005 all the more compelling. BRAC 2005 provides an excellent 
opportunity to further transform the DOD by comparing our 
infrastructure with the defense strategy. BRAC is a valuable tool for 
maximizing our warfighting capability and eliminating excess capacity 
that diverts scarce resources away from more pressing defense needs.
    One of our near-term transformational challenges is to better use 
the forces we have to provide needed capabilities to the Combatant 
Commander. The Integrated Global Presence and Basing Strategy (IGPBS) 
transforms the Cold War footprint into one focused on capabilities, 
employing CONUS-based rotational forces that are lean and agile. This 
strategy enables rapid power projection and expands global presence and 
theater security programs by combining quick deployment, CONUS-based 
forces, with strategically positioned overseas-based forces. This 
strategy reduces the requirement for overseas support infrastructure 
and forces. Fewer remote-duty tours and longer CONUS assignments will 
mitigate family stress. Complementing IGPBS is the Army's 
transformation to brigade-centric modular forces that will increase the 
number of brigades available to rotate overseas from 33 to at least 43 
active brigades by 2010.
    DOD has already made many changes to our global posture since the 
2001 Quadrennial Defense Review. The Combatant Commanders have 
continued to adjust our footprint to make our forward-stationed forces 
more relevant to our current and future challenges. These posture 
initiatives are not only about adjusting numbers, but also about 
positioning the right capabilities forward to meet our needs and 
security commitments, while enhancing allies' and partners' 
transformation efforts in support of the Global War on Terrorism and 
regional security initiatives. For example, the SecDef has already 
approved several reductions within EUCOM and U.S. Forces Korea. The 
DOD, with the help of the Interagency, is moving forward in discussions 
with allies and partners on other specific proposals. As these 
discussions mature we must address the facilities and infrastructure 
needed to enable these capabilities. Our requests for overseas military 
construction this year are consistent with these plans and support our 
Combatant Commanders' transformation initiatives. I encourage your 
support in funding these critical projects.
    We are reviewing many important weapon systems and DOD programs as 
we continue to transform. The Department's fiscal year 2006 budget 
submission restructured or reduced some programs and force structure. 
We focused on supporting current operations, near-term readiness and 
critical transformational programs. Reductions targeted areas where we 
have capability overlap, or the near-term risk was deemed acceptable to 
fund higher priorities. We will examine all of these programs and 
issues during the Quadrennial Defense Review and through other 
assessment tools like the Joint Requirements Oversight Council. We will 
maintain sufficient combat capability to execute our National 
strategies as we transform the Armed Forces to counter increasingly 
dangerous, dynamic, and diverse threats.
    We are transforming across the force. In 2004, we took some big 
steps and made some difficult decisions, and we are already seeing 
positive results. Examples include the Army's restructuring into 
modular formations, and the Navy's continuing transformation of its 
force to include the restructuring of deployment cycles. Despite the 
demands of current operations, we remain focused on a wide array of 
transformational weapon systems and programs.
    Maintaining supremacy over our enemies in both combat aircraft and 
combat support aircraft is a top joint warfighting priority. The 
continued development and production of the F/A-22 Raptor, V-22 Osprey, 
C-17 Globemaster III, E-10 Battle Management, F/A-18 Super Hornet, P-8A 
Multi-mission Maritime Aircraft, and UAVs are critical to maintaining 
this air supremacy. While some of these programs have been 
restructured, they remain very important joint warfighting platforms 
that are required to meet our National Security and military 
strategies.
    We need to continue to fully support the F-35 Joint Strike Fighter 
program. The F-35 is truly a joint aircraft, with three variants 
planned. This aircraft will be the mainstay of the next generation of 
the Air Force, Navy, Marine Corps and our allies' tactical aviation 
wings. The aircraft is in its 4th year of an 11-year development 
program, and will be a giant leap over the existing fighter and attack 
aircraft it is programmed to replace. The current design challenge is 
weight, which impacts performance requirements, particularly for the 
Short Takeoff and Vertical Landing variant. Design teams have worked 
diligently to solve the weight issue and the F-35 is on track to meet 
weight requirements at IOC. The DOD has moved the first planned 
production procurement to the right 1 year, to fiscal year 2012 for the 
USMC variant and fiscal year 2013 for the USAF/USN variant. DOD has 
also added extra money to development.
    To remain a truly global force, we must modernize our aging aerial 
refueling fleet. In November 2004, the Joint Resources Oversight 
Council approved the Air Refueling Aircraft Initial Capabilities 
document that identified a shortfall in our air refueling capability 
and provided a modernization, recapitalization, and transformation plan 
for the Air Force aerial refueling fleet. The Air Force is still 
studying alternatives. Based on the results of these studies, the DOD 
will develop a cost-effective strategy for sustaining this critical 
joint warfighting capability.
    The DOD continues to make progress in providing missile defenses 
for our homeland, deployed forces, friends and allies. The DOD placed 
six ground-based interceptors in Alaska and two in California to 
provide a rudimentary capability to defend the United States from 
ballistic missile attack. The system is undergoing operational 
shakedown concurrent with continued research, development and testing. 
Confidence in the system readiness will come from ongoing ground 
testing, flight-testing, modeling and simulation, war games and 
exercises. As we make progress in the program and refine our 
operational procedures, the SecDef will decide when to place the system 
in a higher state of readiness.
    Our maritime forces are aggressively pursuing their transformation 
efforts. The Navy is moving toward a more flexible and adaptable new 
generation of ships including nuclear aircraft carriers (CVN-21), 
destroyers DD(X), cruisers CG(X), the Littoral Combat Ship (LCS), the 
VIRGINIA-class fast attack submarine, and the enhanced aviation 
amphibious assault ship (LHA (R)). The Marine Corps is working in 
consultation with the Navy concerning the future maritime 
prepositioning force (MPF(F)). The fleet of the future will likely be a 
numerically smaller force, but one with greater combat capabilities. 
The Navy is continuing to study the overall capability and size mix 
required for the Navy of the future.
    Part of our transformation to a more lethal and agile force is our 
move toward Network Centric operations. Network Centric operations 
enable us to provide decisive combat power from a fully connected, 
networked and interoperable force. Central to this capability is the 
Global Information Grid (GIG). The GIG provides the backbone systems 
that provide global, end-to-end communications for DOD. The GIG will 
combine our future-force space and terrestrial C4 programs under one 
communications umbrella. Protecting the information on the GIG is also 
essential to warfighting operations, and our information assurance 
efforts continue to be a very high priority.
    DOD Space capabilities are integral to the broad range of military 
operations we face today, and essential to meeting the challenges of 
the future. These capabilities provide decisive advantages for our 
Nation's military, intelligence, and foreign policy. They help warn of 
terrorist attacks and natural disasters. To meet these needs, Joint 
force commanders must have integrated Command and Control systems to 
dominate the battlefield.
    Today, bandwidth demand exceeds our DOD space system capabilities, 
and our warfighting requirements continue to increase at a very high 
rate. More and more of our aging satellites are nearing the end of 
their expected life cycle. In response, DOD is developing new space 
communication systems such as the very important Advanced Extremely 
High Frequency (AEHF) Satellite program and the Transformational 
Communications Satellites (TSAT)/MILSATCOM program. AEHF is a critical 
system that will significantly increase our secure communication 
capabilities over the current Milstar system, and provide a bridge to 
TSAT. TSAT will provide a leap in our communications capabilities and 
will greatly enhance communications on the move, and assured command 
and control of our conventional and nuclear forces. It will allow 
small, mobile units to connect to the GIG anywhere in the world and 
will help provide persistent and detailed intelligence to the 
warfighters.
    The Joint Tactical Radio System (JTRS) is a transformational 
software-programmable radio that will provide seamless, real-time 
voice, data, video and networked communications for joint forces. More 
than a radio replacement program, JTRS provides the tactical warfighter 
with net-centric capabilities and connectivity to the GIG. This new 
radio system is a significant improvement in capability and 
interoperability for the joint warfighters, and plays a critical role 
in networking our 21st century force.
    Internationally, we made progress last year negotiating with the 
European Union with regard to their Galileo global positioning 
satellite system. The United States and the EU signed an agreement in 
June 2004 that stipulates Galileo signal structures will ``cause no 
harm'' to our future military use of GPS. Several international working 
groups established by that agreement will soon assess how future GPS 
and Galileo signal structures will interact.
    Moving away from specific systems, there are several 
transformational concepts and programs. One of the most important goals 
of the Intelligence Reform efforts must be to ensure warfighters have 
unhindered access to intelligence to conduct their operations. We must 
be able to task national assets for intelligence to support the 
warfighter and enable users to pull and fuse information from all 
sources. As the roles and responsibilities of the intelligence 
organizations are refined, these changes must not weaken intelligence 
support to the warfighters. I strongly agree with the law's 
recommendation that either the Director of National Intelligence or the 
Principal Deputy Director be an active duty commissioned military 
officer.
    The information-sharing environment will be a force multiplier for 
countering terrorism by integrating foreign and domestic information 
into a single network. Initiatives such as incorporating Intelligence 
Campaign plans into Operational plans will inform the intelligence 
community what the warfighters need and greatly improve joint 
warfighters' use of intelligence.
    Many of the successes in the GWOT are a direct result of successful 
information sharing with our allies and coalition partners. Ongoing 
operations in Afghanistan, Iraq, the Philippines, and Africa 
demonstrate both the importance and the shortfalls that exist in the 
timely sharing of intelligence. To be truly global in our fight on 
terrorism, we must continue to improve coalition command and control 
capabilities. To accomplish this, we have established a centralized 
multinational executive agent and a Joint Program Office to improve 
secure information sharing. Our goal is to incorporate multinational 
information sharing systems as an integral part of the Global 
Information Grid. Congressional support is needed as we continue to 
enhance our ability to network with our allies and global coalition 
partners.
    As I deal with the Interagency on a daily basis on national 
security issues, I firmly believe we need to become more efficient and 
effective in integrating the efforts of various government agencies. I 
was pleased to observe and advise on the successful creation of the 
Department of Homeland Security and the recent Intelligence reforms. 
These two reforms should be just the beginning of our reform effort in 
the Interagency. Unifying the Interagency will be incredibly important 
to our country as we fight the GWOT and face the changing threats of 
the 21st Century.
    In April 2004, the NSC Principals' Committee directed the 
establishment of Office of the Coordinator for Reconstruction and 
Stabilization at the State Department. This office will lead, 
coordinate, and institutionalize U.S. Government efforts to prepare for 
post-conflict situations and help stabilize and reconstruct societies 
in transition from conflict to peace. This is an important step because 
the Interagency has been challenged to meet the demands of helping 
post-conflict nations achieve peace, democracy, and a sustainable 
market economy. In the future, provided this office is given 
appropriate resources, it will synchronize military and civilian 
efforts and ensure an integrated national approach is applied to post-
combat peacekeeping, reconstruction and stability operations.
    Last year I reported that we had shifted the focus of our Joint 
Warrior Interoperability Demonstration--now named Coalition Warrior 
Interoperability Demonstration--to Homeland Defense and Homeland 
Security requirements. The purpose of these demonstrations and 
warfighter assessments is to enable government and industry to join 
together in their use of Information Technology assets to solve 
Homeland Defense IT challenges. The goal is to field off-the-shelf 
products to meet Combatant Commander and Coalition Commander 
requirements in 12-18 months, greatly minimizing the normal acquisition 
timeline. I am happy to report that NORTHCOM, the Federal Emergency 
Management Agency, the U.S. Coast Guard, and the National Guard Bureau, 
along with the Services and more than 20 countries, will participate in 
these programs this year.
    Joint Experimentation is central to transformation. Led by Joint 
Forces Command and involving Services, Combatant Commands, Government 
Agencies, and Multi-national partners, joint experimentation seeks to 
refine joint concepts and, ultimately, future joint force capabilities. 
Recent productive examples include UNIFIED QUEST 2004 and UNIFIED 
ENGAGEMENT 2004. In UNIFIED QUEST, the Army and JFCOM examined and 
assessed major combat operations and the very important transition to 
post-conflict. UNIFIED ENGAGEMENT was a joint, interagency, and 
multinational wargame that explored ways to sustain persistent 
dominance in the battlespace of the future. As we revise our joint 
concepts, we are incorporating results from these and many other 
experiments and wargames. These experiments and wargames have provided 
potential solutions to problems of joint force projection, multi-
national and interagency operations, and decision making in a 
collaborative environment.
    We must be able to rapidly deliver combat forces to the Joint Force 
Commanders and sustain them in combat operations. The Joint Staff is 
working with JFCOM and TRANSCOM to integrate our Deployment and 
Distribution Process and to develop a Joint Theater Logistics 
capability (JTL). Operations IRAQI FREEDOM and ENDURING FREEDOM 
highlighted our need for JTL and logistics integration. These programs 
will provide a more responsive force projection and sustainment 
capability to the warfighter.
    Another improvement to our logistics management processes is using 
state-of-the-art technologies like Radio Frequency Identification 
(RFID) technology. DOD used RFID during OIF as a supply-chain 
management tool to track supplies from the warehouse to the warrior. 
Other new technologies are helping us capture data at its source, 
modernize and transform our logistics systems, and improve the accuracy 
of data in our common operational picture, ultimately deploying 
resources to the warfighter more quickly.
    In November 2004, we finalized an instruction on joint doctrine 
development to move valid lessons learned more rapidly into doctrine. 
When joint doctrine needs to change, there are now mechanisms in place 
to change doctrine outside the normal revision process. One example of 
this expedited review is the JROC validation of OIF and OEF lessons 
learned. When the JROC validates recommended doctrinal changes, layers 
of bureaucracy are removed, and the warfighters receive updated 
doctrine more quickly.
    The Joint National Training Capability is an important Joint Forces 
Command-led program that will eventually encompass all joint training. 
This system became operational in 2004 and is beginning to link all 
training ranges, sites, nodes, and real and virtual events into a 
single network, allowing world-wide participation in training 
activities and integration of all joint training programs. For 
individual training, the Joint Knowledge Development and Distribution 
Capability also became operational in 2004. Managed and led by the 
Joint Staff, this project develops and shares up-to-date, critical 
joint military knowledge for education and training.
    DOD is in the midst of completing a Strategic Capabilities 
Assessment to review the progress in fielding the New Triad, which 
includes non-nuclear and nuclear strike capabilities, defenses, and 
responsive infrastructure. This assessment will help recommend the 
number and types of forces needed to meet the President's goal of 
reducing our reliance on nuclear weapons. We have begun to make 
significant reductions on our way to 1,700 to 2,200 operationally 
deployed strategic nuclear warheads by 2012. This reduction is possible 
only if Congress supports the other parts of the New Triad, our 
defenses and responsive infrastructure. STRATCOM has revised our 
strategic deterrence and response plan that became effective in the 
fall of 2004. This revised, detailed plan provides more flexible 
options to assure allies, and dissuade, deter, and if necessary, defeat 
adversaries in a wider range of contingencies.
    The transformational decisions we make today will have a lasting 
impact on our Nation's defense capabilities and strategic and tactical 
warfighting capabilities well into the 21st Century. These decisions 
will also have a lasting impact on our allies and coalition partners, 
who use our capabilities to improve many of their capabilities and 
technologies. Transformational decisions are difficult. We must make 
thoughtful, informed choices about systems and program that may be 
``new and improved'' but not significantly transformational to keep up 
with our dynamic security environment. The Joint Chiefs understand this 
fully, and are leading our armed forces to transform.

                               CONCLUSION

    We are a Nation at war. The demands placed on our Armed Forces this 
past year have been extensive, but our servicemen and women continued 
to perform superbly under conditions of significant stress and in the 
face of myriad challenges. I am tremendously proud of the men and women 
of the U.S. Armed Forces for their continued hard work and sacrifice 
and that of their families.
    This is a pivotal moment in our Nation's history and in world 
history. We must stay committed if we are to win the Global War on 
Terrorism and defend the United States and our national interests. Our 
way of life remains at stake, so failure is not an option. Our military 
is unwavering in our focus, resolve and dedication to peace and 
freedom. With Congress's continued strong support, our military will 
continue to effectively combat terrorism, counter the proliferation of 
WMD, help Iraq and Afghanistan build a stable and secure future, 
improve our joint warfighting capabilities, and transform our Force to 
meet future threats. I greatly appreciate your efforts and your focus 
to help the military meet its objectives and make the world a better 
and safer place for our citizens and the generations to follow.

    Senator Stevens. Thank you very much.
    We will have a period now of 5 minutes apiece of our 
members here. I am informed that most members of the 
subcommittee are going to attend, so we have limited it to 5 
minutes.
    Let me recognize the chairman of the full committee first.

           EMPLOYER TREATMENT OF GUARD AND RESERVE PERSONNEL

    Senator Cochran. Mr. Chairman, thank you very much.
    There has been some concern expressed about the fact that 
those who serve in the Reserve components of the armed forces 
when they are coming back to civilian status are in some cases 
losing the opportunity to work in the jobs they had before they 
were deployed and went on active duty. To what extent is the 
Department undertaking to try to deal with that situation and 
help make it possible for reservists and guardsmen to serve our 
country in this time of need and at the same time be treated 
fairly by the private sector when they return?
    Secretary Rumsfeld. Senator, first of all I would say that 
the employers of America have been terrific in general across 
the country. I am sure there are always situations where that 
is not the case, but they have done a great many things to be 
supportive of members of the Guard and Reserve during the 
periods that they have been activated and when they return.
    As you know, reservists' jobs are protected by law under 
the Uniformed Services Employment and Reemployment Rights Act. 
We have an organization within the Department of Defense that 
works directly with employers when a reemployment problem 
arises and there is a national committee for employer support 
of the Guard and Reserve that exists and functions. They 
contact employers and attempt to work out problems with 
informal means. If that fails, then there is a formal complaint 
process that can go forward in the Department of Labor, which 
has the responsibility for investigating and resolving any 
complaints under that statute.
    So I would say that I have heard of relatively few 
instances of problems and I hope that that is a reflection of 
the actual situation.

                 URGENCY OF SUPPLEMENTAL APPROPRIATIONS

    Senator Cochran. We are working with our colleagues over on 
the House side to resolve differences on the supplemental 
appropriations bill that provides substantial funding for 
military operations in the global war on terror and 
particularly with respect to our deployments in Iraq and 
Afghanistan. We hope to complete action on that conference 
committee work this week, as you suggested in your opening 
statement. But what difficulty would the Department encounter 
if we are not able to do that, as we hope we can? Give me 
something I can pass on to the members of the conference 
committee as we meet today to try to light a fire under the 
process?
    Secretary Rumsfeld. We checked with the services and the 
Army estimates that--I guess this is, what April 27. They 
estimate that around May 5 some of the commands may have to 
stop hiring and stop ordering supplies and stop awarding 
contracts until the House-Senate conference has completed their 
work and the supplemental been dealt with by the President.
    The Army has already started slowing some obligations to 
try to make funds last so that they would not have to do that. 
Of course, once you start swinging funds around from one 
activity to another frequently it requires reprogramming, it 
requires inefficiencies that are unfortunate, that they have to 
be made up later.

                  MAINTAINING INDUSTRIAL CAPABILITIES

    Senator Cochran. One of the concerns in some of our States 
is where we have industrial activities relating to shipbuilding 
or airplane manufacturing or other activities that provide 
armaments and equipment to the military forces, that in some 
cases there are substantial cutbacks in projected spending, so 
that the budgets that had been anticipated for building ships 
and some of these other activities are not what they are--what 
they were, they are not what they were expected to be, putting 
a lot of pressure on the ability of the employers to predict 
how many people they need to continue working at their 
shipyards and in other plants.
    Do you expect that there would be any change in the 
requests that we are beginning to hear, cutting back the number 
of ships that we need in the future or other armaments? How do 
you expect we are going to be able to maintain the efficiency 
in these industrial capabilities in the face of these 
unexpected cutbacks?
    Secretary Rumsfeld. Senator, the Navy has done a great deal 
of study on the shipbuilding, to take that specifically into 
account, and they now have some suggestions that are being 
considered by the Department of Defense and by the Congress, 
obviously. My anticipation is that they will have clarity and 
conviction in an appropriate time. The Quadrennial Defense 
Review also is something that is underway and that enters into 
this discussion.
    But one of the important things I would say is that if we 
look only at numbers of ships it seems to me that we miss 
something terribly important. The fact is that when we had a 
fleet of 485 ships we routinely were able to deploy 102 ships 
out of 485, and that is because of the way the fleet was 
managed. Large numbers were constantly under repair, the crews 
were on leave. The whole process was arranged that way.
    Today the fleet size is plus or minus 285 ships. It is low. 
On the other hand, we are routinely deploying 95 ships out of 
285, compared to 102 ships out of 485. So what is really 
important is what are you able to use, what is the useability 
of the fleet, not the total number. Clearly, the useability is 
about the same.
    Then the second question is the one I mentioned in my 
opening remarks, which was what can that ship do or what can 
that carrier battle group do? It can do three or four times as 
much as carriers and capabilities 10, 15, 20 years ago. So I 
think we need to look at capability. I do not deny that 
presence is important, but the deployability affects the 
presence issue.
    Senator Cochran. Thank you, Mr. Chairman.
    Senator Stevens. Thank you, Mr. Chairman.
    The chair recognizes our ranking member, Senator Byrd, for 
5 minutes.
    Senator Byrd. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary. Thank you, General.
    One of my constituents, Mrs. Lisa Vance of Morgantown, West 
Virginia, contacted my office last week. She is the widow of a 
West Virginia National Guardsman killed in Afghanistan in May 
2002. She relates her story of the incredible burdens that she 
has had to face after her tragic loss. Mrs. Vance has gone 
through more trouble than any military widow ought to have to 
bear.
    Mrs. Vance reported that paperwork errors nearly cost her 
$50,000 in life insurance funds. She has never received the 
financial counseling to which she is entitled. She received no 
explanation of the health insurance benefits that she was 
eligible for immediately after her husband's death. A simple 
pay issue took 3 years to resolve. Some of the guidance Mrs. 
Vance received on important matters was based on Army field 
manuals that were more than 10 years out of date. At one point, 
her casualty assistance officer retired. No replacement ever 
arrived to assist her.
    The bottom line is that the casualty assistance officers 
who assist widows do not appear to have adequate training for 
the incredibly difficult job that they must perform. I do not 
question the dedication or commitment of the soldiers who must 
perform this job. There are questions about whether the 
military is giving these officers sufficient training to assist 
grieving widows in their hour of greatest need.
    General Myers, how much training is given to casualty 
assistance officers before they are sent out to care for 
grieving families?
    General Myers. You know, Senator Byrd, that is an issue 
that we follow very, very carefully. My suspicion is this is a 
unit-specific problem where the training either was not done 
properly or, for whatever reason, the proper leadership was not 
provided. I do not think this is a problem that is systemic. I 
will get you the facts for exactly how much assistance, but 
from the information that I get this is obviously an isolated 
case and it is a very bad case and nobody should have to go 
through that.
    Senator Byrd. Thank you.
    [The information follows:]

    The goal of our Casualty Assistance programs is to provide 
prompt reporting, dignified and humane notification and 
efficient and compassionate assistance to family members, 
including a thorough review of the death benefits, compensation 
and entitlements. We have confirmed that our National Guard 
casualty assistance officers or representatives receive the 
same comprehensive training and use the same policies, 
schoolhouses and syllabi as their active duty counterparts.
    The Military Services ensure that personnel assigned 
casualty assistance or notification responsibilities receive 
appropriate training. Training is conducted in multiple ways: 
course of instruction at formal schools; classroom instruction; 
training videos; video teleconferencing; and distance learning 
via the Web; review of applicable Service Directives and 
Instructions; hard copy casualty assistance guides.
    Assignment as a casualty assistance officer can be one of 
the most challenging and emotionally charged duties a Service 
member will ever assume. Therefore, we train and prepare them 
as much as possible to perform their mission well. Assistance 
officers can be assigned from the unit of the deceased, from 
the parent installation, or from the unit closest to where the 
family is located. As a result of this dedicated and 
professional assistance and a genuine desire to assist the 
families of a fallen brother or sister, we often hear from the 
families that they consider their Casualty Assistance Officer 
part of the family.
    In those cases where we discover that the assistance 
provided was less than adequate, immediate actions are taken to 
address any unresolved issues or problems with the family.
    Question. Do members of the National Guard receive the same 
training as their active duty counterparts?
    Answer. Yes. The National Guard receive the same level of 
training provided to the active force members. When a member of 
the National Guard becomes a casualty, a trained casualty 
officer, who may be either active duty or National Guard, 
nearest to the next-of-kin is assigned to the family.
    Question. Have there been any changes to the training for 
casualty assistance officers based upon the experiences of war 
widows like Mrs. Vance?
    Answer. Yes. To ensure that our policies and programs stay 
current and address the needs of our Service members and their 
families, we chair a Joint Casualty Advisory Board that meets 
three times a year to review, assess, and recommend appropriate 
changes. Along with the normal attendees at these meetings, the 
Casualty Heads from each of the Military Services, the Joint 
Staff, representatives from other Federal agencies such as the 
Department of Veterans Affairs and the Social Security 
Administration, and non-profit organizations, we have added 
family support groups and surviving family members. This 
partnership approach on policy development, especially 
involving those who have experienced a loss and received the 
follow-on assistance, guarantees our program is addressing the 
required services to meet the needs of our Service members and 
their families.
    Feedback from family members has assisted the Military 
Services in updating their casualty assistance training 
programs. Specifically, training improvements have included 
increased emphasis on providing family members with factual 
information on their loved one's case without speculation, 
responding to family member questions in a more timely manner, 
ensuring family members have a complete understanding of their 
benefits and entitlements, expediting the return of personal 
effects, and maximizing the use of chaplain support in the 
notification and assistance process.
    Additionally, family member input has resulted in new 
policies pertaining to the public release of casualty 
information, additional resources for bereavement counseling 
for extended family members, and expedited claims processes 
from the Department of Defense, Department of Veterans Affairs, 
and the Social Security Administration.

    Senator Byrd. Do members of the National Guard receive the 
same training as their active duty counterparts?
    General Myers. They should, absolutely.
    Senator Byrd. Are there adequate numbers of chaplains in 
the armed forces to comfort the war widows?
    General Myers. I would say for the most part there are, 
although there is and has been for some time a lack of adequate 
Catholic priests in the armed forces chaplaincy, as there are a 
lack of priests in the civilian community. It has been a 
continuing problem. But I think in other denominations that is 
not a problem.
    Senator Byrd. General Myers, do you feel that there is a 
need to increase the chaplains to compensate for the strain of 
overseas deployments, and is there a need for more funding to 
provide more chaplains for the armed services?
    General Myers. It has not been brought to my attention that 
that is a shortfall that needs to be addressed, so I cannot 
answer that question.
    [The information follows:]

    Upon further analysis, there are chaplain shortages in the 
Reserve Components (RCs) of the Services. We need to 
concentrate recruiting efforts so that RCs are properly manned 
with chaplains to serve the needs of deployed Service members, 
as well as Service members and families at home. RC chaplain 
manning expressed as a percentage of the requirement is:

------------------------------------------------------------------------
                                                              Percentage
                                                                Manned
------------------------------------------------------------------------
Army National Guard.........................................          60
Army Reserve................................................          72
Navy Reserve................................................          84
Air National Guard..........................................          89
Air Force Reserve...........................................          95
------------------------------------------------------------------------

    Chaplain retention is very high in all components. The 
lower manning numbers reflect the challenge in recruiting 
civilian clergy as chaplains and mirror the challenges that the 
Army National Guard and Army Reserve are having in recruiting 
all types of Soldiers. Current initiatives to recruit more RC 
chaplains include:
    1. Developing legislation to provide a seminary tuition 
loan repayment plan for those who serve 3 years in the Army 
Reserve or Army National Guard chaplaincies after graduation. 
If adopted, this legislation would require a funding increase.
    2. Increasing recruiting efforts in all components, with 
recruiters visiting seminaries and attending faith group annual 
conferences.
    3. Increasing efforts to recruit prospective chaplain 
candidates from Service members with college degrees who are 
leaving active duty to attend seminary.
    With these initiatives in place, and the continued support 
of Congress, we expect to see an increase in RC chaplains to 
better support our Service members and their families.

    Senator Byrd. Have there been any changes to the training 
for casualty assistance officers based upon the experiences of 
war widows like Mrs. Vance?
    General Myers. You bet, because the benefits have changed 
over time and so that is a program that is continually updated 
by the services who are responsible for that.
    Senator Byrd. How can Congress assure that the widows of 
troops who were killed in Iraq in recent days will not have the 
same problems that Mrs. Vance encountered?
    General Myers. Well, it is something we have addressed from 
the day that we started this war on terrorism and against 
violent extremism. In an effort to try to do that, we have--to 
help, if everything else fails, we have an operation called 
Military One Source that has been set up here, actually I think 
in Virginia. It is available 24 hours a day, 7 days a week, to 
provide the kind of assistance that you just mentioned. So if 
they are not getting the help, if people are not getting the 
help they need on any question, they have a toll-free telephone 
number, Internet, and e-mail access, and we will refer the 
questions to the appropriate authorities and follow up to make 
sure it gets done.
    As you know, also early on we had some questions about the 
Reserve components' ability to provide the kind of information, 
not just on casualties, but basic information to the families. 
This is because in the Reserve component case many of the 
families are not co-located on a base or a camp or a station or 
a post, and the Reserve component has really stood up to that 
requirement and provides excellent, I think, information to the 
families and the employers, for that matter, of those that are 
employed.
    Senator Byrd. Thank you, General Myers.

      SERVICES AND COUNSELING PROVIDED TO SURVIVING FAMILY MEMBERS

    Secretary Rumsfeld, are you satisfied with the services and 
counseling provided to war widows?
    Secretary Rumsfeld. Senator Byrd, any time one hears a 
story that you have cited about Mrs. Vance, obviously you 
cannot be satisfied. The points that General Myers made, there 
are a variety of ways to try to assist people in the event that 
there is a breakdown in the system. There is frequently 
breakdowns in any system, as we all know.
    One other thing that exists today is an organization called 
AmericaSupportsYou.mil, where you can go on the Internet and 
you can find out ways that citizens in communities are helping 
people who may have difficulties. It is a terrific web site 
because it shows all the things that are being done around the 
country to assist people who are connected with the military 
and to support them as well as to support the troops.
    Senator Byrd. Mr. Secretary, what are the areas that need 
improvement and what is being done about it?
    Secretary Rumsfeld. Well, the things that have been done, 
in addition to what General Myers has cited here, this family 
support activity, there is for the really injured, there is a 
separate activity that is designed to assist people who come 
back with severe injuries of any type and to assist them and 
their families in that period after they begin to become 
disconnected from the military in the event that they do 
disconnect from the military, although I must say there are an 
increasing number of severely injured people who are staying in 
the military and being able to continue to serve.
    Senator Byrd. Thank you, Mr. Chairman.
    Senator Stevens. Thank you, Senator. We will come back 
later, Senator Byrd.
    Senator Feinstein is recognized for 5 minutes.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    General, let me thank you very much for your service to our 
country. I know the days have been tough and long and I just 
want you to know that Californians are very grateful and thank 
you for your service.

                            F-22 ACQUISITION

    I would like to ask two questions on procurement, having to 
do with the F/A-22 and the C-130J. If I understand the 
President's budget correctly, it is going to complete the 
procurement program for the F/A-22 with the production of 179 
planes instead of the original 750. It will end the program in 
2008 instead of 2011. Are you effectively then truncating this 
program and completing it by 2008?
    Secretary Rumsfeld. Senator, I would describe it slightly 
differently. Last year's planned purchase of F/A-22s was 277 
and that has been brought down to 170 aircraft through 2008. 
This is a very fine aircraft from everything I can tell. It is 
still in process, however, and it is very expensive.
    As a result, the Quadrennial Defense Review is designed to 
in this case determine the number of wings, whether a single 
wing or one and a half wings or two wings might be appropriate. 
Until that work is done, we will not know whether--what number 
between 170 and something like 277 might be appropriate.
    I think that as we come out of the QDR, where we are 
looking at other capabilities that relate to air dominance, we 
ought to have a better idea of what portion of the air 
dominance role would be played by a F/A-22 from a cost benefit 
standpoint.
    Senator Feinstein. So it is 170 by 2008. Are you figuring 
the additional aircraft at $250 million per plane?
    Secretary Rumsfeld. The last number I heard was about $250 
million. $257 million is the latest rounded number.

                           C-130J ACQUISITION

    Senator Feinstein. Now let me ask you about, if I can, the 
C-130J. You end procurement in 2006. You are going to be 100 
short of the original purchase. It is a $3.5 billion saving; $1 
billion is just in cancellation of the contract--is that true?
    Secretary Rumsfeld. I am not certain of that number. I know 
there has been a good deal of debate about what the 
cancellation or termination of a multi-year contract would cost 
and the issue is open. We have said that there is some 
additional information that has become available subsequent to 
putting the President's budget to bed and at some point in the 
weeks ahead we will have better information. To the extent it 
suggests that any adjustments ought to be made in what we 
propose, obviously we will come back to the Congress with those 
proposals.

                    ROBUST NUCLEAR EARTH PENETRATOR

    Senator Feinstein. I appreciate that.
    Now, very smart, Mr. Secretary. You have apparently divided 
the money for the Robust Nuclear Earth Penetrator between the 
energy budget and the defense budget, with $4.5 million in one 
and $4 million in the other. As you know, in the energy budget, 
the funding was deleted last year. So this year you have 
divided it.
    In March, the Secretary of Energy was asked on the House 
side about how deep he thought the bunkerbuster could go and he 
said ``a couple of tens of meters maybe.'' He was asked if 
there was any way to have a bomb that penetrated far enough to 
trap all fallout, and he said: ``I do not believe that. I do 
not believe the laws of physics will ever permit that.''
    I asked him that same question when the Energy 
Appropriations Subcommittee met just a few weeks ago. He said 
essentially the same thing. It is beyond me as to why you are 
proceeding with this program when the laws of physics will not 
allow a missile to be driven deeply enough to retain the 
fallout which will spew in hundreds of millions of cubic feet 
if it is at 100 kilotons.
    So I am mystified by the fact that the money was deleted 
last year, but you are back this year and you have split it 
into two budgets.
    Secretary Rumsfeld. Senator Feinstein, you make a mistake 
by saying I am very smart by splitting it. I had no idea.
    Senator Feinstein. Well, I figure you figured you have a 
better chance in this subcommittee than you do in Energy.
    Secretary Rumsfeld. Maybe just lucky rather than smart.
    Let me just take a minute on the subject. It is an 
interesting subject. There are some 70 countries that are 
currently pursuing underground programs. Today dual use 
equipment that is available anywhere in the world to anybody 
who wants it can dig in 1 day a distance in solid rock longer 
than a basketball court and twice as high as the basket, one 
machine, 1 day, underground in solid rock.
    Seventy countries are pursuing activities underground. So 
the question comes what ought our country to do about that or 
do we want to think about, study, the idea of having a 
capability of dealing with that. At the present time we do not 
have a capability of dealing with that. We cannot go in there 
and get at things in solid rock underground.
    The proposal--the only thing we have is very large, very 
dirty, big nuclear weapons. So the choice is not do we have--do 
we want to have nothing and only a large dirty nuclear weapon 
or would we rather have something in between? That is the 
issue. It is not the way your question characterized it in my 
view.
    Now, are we proposing a specific weapon? No. We are 
proposing a study. We are proposing that some work be done, 
analysis, not nuclear explosion work but a study, to see if we 
are capable of developing or designing something that would 
give us the ability to penetrate, not with a large nuclear 
explosion but penetrate either with a conventional capability 
or with a very small nuclear capability in the event that the 
United States of America at some point down the road decided 
they wanted to undertake that kind of a project.
    It seems to me studying it makes all the sense in the 
world.
    General, do you want to comment?
    General Myers. I would make the exact same point. The 
choice is between targets today that we have weapons assigned 
against, underground targets, which the only capability we have 
is a big weapon. What we are looking at and what we have 
proposed in the study is can some of the smaller weapons be, 
can the case be hardened enough to get enough penetration to 
have some impact against these targets without going to the 
option that nobody likes, which is a more robust, a bigger 
weapon? And the issue also is, it is a study and it is not to 
design a new weapon.
    Senator Feinstein. I thank the Chair.
    I would just appreciate a clarification. Are you saying 
that the 100 kiloton bomb is out, that you are not looking at 
the development of a 100 kiloton bomb, but it is a low yield 
bomb?
    Secretary Rumsfeld. My understanding is that they are not 
talking about making any weapon. They are talking about a study 
that relates particularly to penetration.
    General Myers. And they are looking at specific weapons 
that are in the inventory and can the case be made hard enough 
on those particular weapons to get the kind of penetration they 
think will be effective against these deeply buried and 
hardened targets.
    Senator Stevens. Senator Specter is recognized for 5 
minutes.
    Senator Feinstein. My time is up. Thank you.
    Senator Specter. Thank you, Mr. Chairman.
    Thank you very much for your service. Beginning with the 
base closure issues, Pennsylvania has been very hard hit in the 
past, characterized by the closing of the Philadelphia Navy 
Yard, for which we still have not recovered in our State as 
there was some proliferation of contracts which went out from 
that installation. I am going to be submitting to you questions 
for the record and I do not want to ask a question now to take 
up the time. I want to move on. But I do hope that 
consideration will be given to the historic import of the bases 
in Pennsylvania, which of course has been around for a long 
time as a State. Illustrative of that is the War College, where 
there is enormous pride in the community Carlisle, 
Pennsylvania, where it is located. When the President decided 
where he wanted to go, he went to the War College with great 
pomp and ceremony, made quite a point that only two Georges as 
sitting Presidents marched into Carlisle; one was George 
Washington on a great stallion, a great portrait, and the other 
was President Bush.
    So I would just hope that real consideration would be given 
to the tradition and the economic factors, where people are 
biting their nails in Pennsylvania as to what is going to 
happen next after we have had so many closures.
    This afternoon a conference committee will be sitting on 
the $81 billion request by the Department of Defense, and it 
has been broadly supported. We are appreciative of what you are 
doing, Mr. Secretary, and what you are doing, General, and what 
the troops are doing, and we are going to back you. But there 
is a lot of disquiet out there among the people as to what is 
happening in Iraq and disquiet as to what is happening to our 
discretionary budget.
    I chair a subcommittee which is responsible for education, 
health care and worker safety and it has been cut by almost a 
full percent, and with the inflation factor I am about $7 
billion short. That makes it very, very tough to sell when you 
have the National Institutes of Health (NIH), health care 
programs, Pell grants, and education.
    The question that I have for you, Mr. Secretary, comes up 
on the Rand report. It was summarized in the Washington Post 
and it was highly critical, as is known. This is a report, at 
least according to the Post, that was prepared for you and that 
you thought was worthy of careful consideration.
    We had the situation with General Shinseki some time ago, 
who had made a prediction about the number of troops which 
would be necessary to handle post-Iraq problems, and I will not 
characterize the response to General Shinseki, but it was not 
one of approbation as to what happened. But the Rand study, and 
I will not quote it extensively, criticizes DOD for a lack of 
political-military coordination and actionable intelligence in 
dealing with the counter-insurgency campaign.
    Well, it is just highly critical. I have a three-part 
question for you, Mr. Secretary. Was General Shinseki right, 
number one? Number two, is the Rand report right? Number three, 
what has been or will be done to meet the questions raised by 
the Rand report?

                     NUMBER OF TROOPS FOR IRAQ WAR

    Secretary Rumsfeld. Well, I will start and General Myers 
may want to comment on it. But I think that the first thing I 
would say about the troop strength that General Shinseki was 
asked about in a congressional committee, and his response was 
that he thought it would take, as I recall--and I am going the 
paraphrase; I do not have it in front of me. His response after 
being asked two or three times was that he thought it might 
take roughly the same number of troops to deal with the country 
after major combat operation as it would take to prevail in the 
conflict, and I believe he then said several hundred thousand.
    It turned out that General Franks had several hundred 
thousand ready to go in and he also had a plan that if he 
decided he did not need them he would have excursions, escape 
plans, so that they would not go in. We would put in what he 
believed to be the right number.
    General Franks, General Abizaid, General Myers, General 
Pace proposed the correct number of troops and--correction. 
They proposed a number of troops. That is the number we went 
with. That is the number we have in there today. It is 
perfectly possible for anyone in or out of Government to 
critique that and say: Gee, I think there ought to be more or 
there ought to be less. But the fact of the matter is that the 
military experts on the ground from the beginning have said 
what they thought the number ought to be.
    The tension that they have balanced is this. The more 
troops you have, the more targets that you have and the more 
people you might get killed. The more troops you have, the more 
of an occupying power you are, the heavier footprint, the more 
force protection you need, the more logistics you need, and the 
more intrusive you are on the people of that country.
    Now, the Soviets had 300,000 people in Afghanistan and they 
lost, and we had 20,000 or 30,000 people in Afghanistan and it 
is coming out pretty darn well. So I must say I am tired of the 
Shinseki argument being bandied about day after day in the 
press.
    Senator Specter. It was not an argument. It was a question.
    Secretary Rumsfeld. Well, I understand that. But the fact 
is that we have done what the generals on the ground believed 
to be the right thing. I believe they are right and I think 
that the progress that was made in Afghanistan demonstrates 
that, and I think the progress being made in Iraq demonstrates 
that. When the President went around the room and asked if all 
the chiefs--well, I will let you describe it, General. You were 
there.
    General Myers. Well, of course before major combat in Iraq 
the Commander in Chief had all his service chiefs, and as a 
matter of fact at a separate session all of General Franks' 
commanders and General Franks, and asked if anybody had any 
reservations, if they had everything we needed, and if we were 
ready to go. And everybody gave a thumbs-up on that. So that is 
how that process worked.
    I would say on----
    Secretary Rumsfeld. And General Shinseki was there in the 
room.
    General Myers. Certainly I do not think anybody argues----
    Senator Specter. And he was silent? Was General Shinseki 
silent in the face of that question put to him, or in a room 
where he was present?
    General Myers. I cannot remember. He certainly did not 
bring up a couple hundred thousand. We were all--all the 
service chiefs were in total support of General Franks' plan, 
the numbers that we had planned, all of that. Yes, we were all 
on board. There was nobody--there were no outliers.
    On the other hand, just one more time: General Shinseki was 
in front of a Senate committee. He was asked a question and he 
said several times, you know, that is really not my business, I 
would need to talk to the combatant commander and I have not 
done that, and when pressed offered a number.
    He is an experienced, very experienced Army officer. He had 
a lot of experience in the Balkans and he gave them a number 
based on his experience and so forth. I do not think he would 
ever say that he was prepared to go to the bank with that 
number. He was providing the number when asked, when asked 
several times, and it is his right to give that number. We had 
lots of discussions later on about what is the right number and 
is the force strength appropriate for the tasks and the mission 
that we had inside Iraq. In the end we all agreed that the 
plan--and by the way, the plan was developed over some time in 
a very iterative fashion between the Commander in Chief, the 
Secretary of Defense, and the military leadership, and evolved 
over time. I mean, it changed dramatically from the first time 
we ever got together with General Franks on this issue, which 
was before any thought of going into Iraq was actually on the 
table, until we finally went in. So it was a long process.
    I would only comment on the Rand report, I am aware of it. 
I have not read it. I have read the executive summary. It is in 
the joint staff, in my case it is in the joint staff, and we 
are looking at each of those, those pieces.
    One of the things that has characterized this effort both 
in Afghanistan--well, in the last 3\1/2\ years, different from 
previous I think is that we have really paid attention to 
trying to capture what we have done right and what we have done 
wrong, the lessons learned process, Senator Specter. It is very 
aggressive, and when I say aggressive we have people in Iraq 
today, but we have had them since major combat, that have been 
participating with the forces there, helping them, but also 
capturing lessons learned for Joint Forces Command to compile 
so we can then take action.
    So we have I think a very good process on how we capture 
those and then try to internalize them, put the resources to 
them and solve the problems. That is what we are all about, and 
the Rand report will help in that regard. I do not have 
specific comments on it today.
    Secretary Rumsfeld. There is not a month that goes by that 
we do not look at troop levels in Iraq and troop levels in 
Afghanistan and ask people what is the right number, what is 
the best way to use them, what are the advantages and 
disadvantages of more or less. It is a constant process for us.
    Senator Stevens. Senator Inouye is recognized.
    Senator Inouye. Mr. Secretary, we are relying heavily on 
our National Guard and the Reserves, so much so that some are 
suggesting that the Reserve component is already broken. 
Furthermore, it is becoming much more difficult to recruit and 
retain our ground forces and for the first time in many years 
the Army and Marine Corps are not meeting their recruiting 
targets, and there are some who are already discussing the 
draft.

                    STATUS OF OUR MILITARY PERSONNEL

    In your view, what is the current status of our military 
personnel, including end strength and recruiting and retention 
numbers?
    Secretary Rumsfeld. Senator, generally retention has been 
fine in the services. With respect to recruiting, there has not 
been a problem of recruiting in the Air Force or the Navy. The 
Army and the marines have missed their targets by relatively 
small amounts. A couple of reasons for that. One is the targets 
are up. We are increasing the size of the Army and we are 
increasing the size of the Marines.
    A second reason is because retention of people who have 
served in Iraq and Afghanistan is high. They are the normal 
people that would be recruited into the Guard and Reserve and 
instead many of them are being retained because our troop 
levels are higher. So we are not surprised that that exists, 
and as a result we have had to deploy additional recruiters and 
provide additional incentives and there is some debate within 
the experts who do this as to whether or not they will meet 
their goals by the end of the year, the fiscal year.
    I do not know if they will or not for the Army or the 
marines in terms of recruiting, but it certainly looks like 
they will in retention. They are taking all the appropriate 
steps to get there.
    Second, generally what is the state of the Guard and 
Reserve? I think the idea that they are broken is not correct. 
I think they are performing fabulous service overseas. They are 
getting experience that has not existed since the Vietnam war, 
and these individuals have additional training and additional 
experience and additional capability. I think the only people 
who could conceivably be talking about a draft are people who 
are speaking from pinnacles of near-perfect ignorance. The last 
thing we need is a draft. We just do not. We have got a 
volunteer Army, a Navy, Marines, an Air Force, and they are 
doing a fabulous job, and all we have to do is see that we 
provide the right incentives to attract and retain the people 
we need, and we will continue to have a superb total force.
    General Myers. If I may just tag on a little bit, let me 
talk about retention for just a minute. As the Secretary said, 
retention is exceeding all goals. It is particularly high in 
the Reserve component units that have been mobilized and 
deployed. That tells you something right there. It tells you 
that these folks are proud to serve, they understand the 
mission, they are willing to serve.
    That retention, both in the Active component, particularly 
in the Active component, where it is high as well, that hurts 
our recruiting for the Army National Guard and the Army 
Reserve. It continues to be a problem because they rely on 
those folks that are getting out of the Army to come on to 
Reserve duty, at a time when the active Army is building up to 
30,000 additional end strength. So the recruiting goal this 
year is huge. I think it is 80,000 or in that realm.
    The Marine Corps has missed its recruiting goals in 
January, February, March, but the numbers, particularly in 
March, are very small. We will have to see what additional 
recruiters, what additional incentives do to correct that. I 
hope it turns around.
    I hope the moms and dads and the aunts and the uncles and 
the grandparents in this country understand that this is a 
Nation at war, that the stakes are extremely high. Just 
transport yourself back to the days and weeks following 
September 11, 2001, and reflect on the uncertainty that was in 
all our minds. And another event like that would have serious 
consequences for this country, of course, and it would put at 
stake our way of life. So this is noble business that our 
service men and women are doing in Iraq, Afghanistan, Djibouti, 
around the world, and we need the encouragement from the moms 
and dads and the aunts and uncles and the rest of the folks out 
there to encourage the young men and women of this country to 
sign up for this noble cause, which I think will have a huge 
impact on the outcome of our future and our way of life.

                          STRESS ON THE FORCE

    Secretary Rumsfeld. If I could just add, Senator, there is 
stress on the force. However, we have only activated out of the 
Guard and Reserve about 40 percent. The problem is not that we 
have got too few. The problem is that we are so badly organized 
and have been for decades. We have the wrong skill sets on 
active duty relative to the Guard and Reserve. We need to get 
some of those skill sets out of the Guard and Reserve, onto 
active duty, so we do not have to overuse a small fraction of 
the Guard and Reserve.
    We also have to rebalance within the active force and the 
Guard and Reserve so that we have the best skill sets, more of 
skill sets that are more likely to be needed. That is just 
something that is going forward. We are already doing a great 
deal of that. Pete Schoomaker and Fran Harvey have done a lot 
to do that and it has been very helpful.
    One other thing we are doing, thanks to the National 
Security Personnel System, is we are going to be able to do a 
better job of getting military people out of civilian jobs. 
There may be 200,000, 300,000 military people out of 1.4 
million active duty that are doing jobs that can be done by 
civilians or contractors.
    So there are plenty of ways to reduce stress on the force 
just by good management practices, which we are hard at.
    Senator Inouye. Thank you very much, sir.

                           C-130J ACQUISITION

    Senator Stevens. Mr. Secretary, I think you have commented 
that there has been additional information received about the 
C-130J since the President's budget was submitted. I am not 
asking you a question, but I just encourage you to give us a 
supplemental if you possibly can, because clearly that 
amendment is going to come on the floor. If it is not covered 
by the budget, we are going to run into problems as far as 
stretching, taking something out to make room for that C-130J 
amount.
    Secretary Rumsfeld. I see.

                   PROCUREMENT OF PLANNED NEW SYSTEMS

    Senator Stevens. Let me ask you this. According to the 
plans we have seen, Department of Defense procurement accounts 
will grow about 50 percent from $70 billion to $118 billion 
from this fiscal year to the 2011 timeframe. Even with such 
growth, it looks like the Department's ability to field many 
new systems that are in development or initial development, 
initial procurement--F-22, Joint Strike Fighter, DD(X), the 
Littoral combat ship, the Future Combat System, space 
satellites, a whole series of things, to name them.
    What is going to be the ability to continue on those 
systems with that type of projection of the procurement 
accounts?
    Secretary Rumsfeld. Well, that is a question, Senator, Mr. 
Chairman, that we all wrestle with. It has been one that has 
been around as long as I have been connected with the Defense 
Department, is the so-called bow wave problem. What happens is 
that a lot of things get started and that one then looks out 
and says, well, once you start into development, as opposed to 
research and the early stages, the costs go up. Therefore, you 
have to manage that so that you have an ability to cope with 
whatever needs to be procured in those out-years.
    But for a variety of reasons, some things disappear, some 
things do not work, sometimes needs change and tough choices 
get made. We made tough choices in this budget. Four years ago 
we made tough budget choices when we looked at the bow wave 
problem. You are quite right, I see a bow wave looming now, 
procurement bow wave looming. But on the other hand, I have a 
feeling that it will be like every other time: When the going 
gets tough, people make tough decisions, and that is the way it 
has to be.

                  COST AND IMPACT OF NEW TECHNOLOGIES

    Senator Stevens. Well, in the general economy the 
progression is such that the next generation of technology is 
usually less costly and more efficient than its predecessor. In 
terms of defense procurement, it seems that we continue to grow 
in terms of costs notwithstanding the differences in size, et 
cetera. Is anyone examining into that? Why can we not get more 
technology development that is related to costs?
    Secretary Rumsfeld. A couple of thoughts. Time is money and 
you are quite right, 25 years ago when I was Secretary of 
Defense the length of time to acquire a weapon system was about 
half of what it is today. This is during a period in the last 
25, 30 years where technology has sped up, it has accelerated 
rather than decelerated.
    So something is wrong with the system. We are going to have 
a very serious look at the acquisition process in the 
Quadrennial Defense Review period. Gordon England, who just 
shortly I believe will be confirmed by the Senate and sworn in, 
will be the person who will be deeply involved in that.
    I would say one other thing, however. If a ship costs twice 
as much but it is three times as capable, then one has to say, 
what have we got? Well, we have got something that is more 
valuable at a higher cost, but on a cost-benefit basis it is 
improved as opposed to deteriorated. A smart bomb may cost what 
a precision bomb costs or somewhat less, but you have to drop 
10 dumb bombs to equal one smart bomb, the lethality of one 
smart bomb.
    So apples-to-apples comparisons it seems to me do not quite 
work necessarily. But we do have that problem and it is 
something we are concerned about and it is something we are 
addressing.
    Senator Stevens. Thank you.
    General Myers, we are all worried about retention 
throughout the services. What is your feeling about retention 
as we come through this period we are in now? Do we need 
additional incentives to retention and enlistment?
    General Myers. Well, Mr. Chairman, I think we have some 
pretty good incentives in place and, as I said earlier in 
response to Senator Inouye's question, retention right now is 
very good in all the services. If you look at the statistics, 
you may think the Air Force and the Navy retention is down a 
little bit, but that is programmed because both of those 
forces, the Air Force and the Navy, are shrinking and so they 
do not want to retain as many people.
    But for the Army, the Army active, the Army Reserve 
component, for the Marine Corps and Reserves, retention 
actually is very, very good. So I guess my quick analysis would 
be that we have got the incentives about right.
    I would like to tag on just a little bit more about the 
Reserve component. This is an extremely important part of our 
military capability and our national security. So whatever we 
do, the incentives and so forth, recruiting and retention in 
that component, we have got to do it right because this is a 
great way for the military, the volunteer military, to connect 
to America.
    If you look at a map of America and you look at all the 
Guard and Reserve locations, some of them pretty small 
admittedly, it is a great way to connect to the American 
people, to the employers out there, to family and friends. I 
think it is extremely important and wanted to mention that, 
Senator. This is not a capability, while it is being used 
pretty hard in terms of personnel tempo and operational tempo, 
that we ought to fritter away. We ought to take very good care 
of it.
    In our retention money, I think--and this is the fiscal 
year 2006 budget--we have got almost $1 billion in retention 
items for selected reenlistment bonuses and Reserve component 
health care, educational benefits, enlisted supervisory 
retention pay, critical pay for our special operators, who are 
in big demand now by contractors in Iraq or Afghanistan or 
other places in the world, tuition assistance, almost $900 
million, almost $1 billion in retention items there that will 
help.
    I was in Kabul about 6 or 7 weeks ago. I got to reenlist I 
think at one time 29 people out of an Army National Guard unit 
from Indiana. It was, first, a great privilege--that was the 
day I was there. I think the week before they reenlisted 
something like 200. So once we can get them in the door we are 
keeping them, because they are fulfilled by the mission that 
they are performing.
    Senator Stevens. Senator Cochran, do you have any further 
questions?
    Senator Cochran. No further questions.
    Senator Stevens. Senator Byrd, do you have any further 
questions?

                       PAY AND ACCOUNTING SYSTEMS

    Senator Byrd. Thank you, yes. Thank you.
    In January of this year members of the 201st Field 
Artillery Battalion of the West Virginia National Guard 
contacted me from Iraq with a serious pay problem. Last year 
the Government Accountability Office reported that members of 
the 19th Special Forces Group of the West Virginia National 
Guard came under enemy fire during a trip from Afghanistan to 
Qatar to fix the rampant pay problems in that unit.
    Secretary Rumsfeld, I understand that the accounting system 
used to process pay for reservists in other military services 
do not have the same problems as those for the National Guard. 
Why do these problems persist with the National Guard, and when 
will they be fixed? Why cannot the Department of Defense get 
rid of the accounting systems that do not work for the National 
Guard and simply adopt the computer systems that pay other 
troops fairly and accurately?
    Secretary Rumsfeld. That is exactly the question I ask in 
the Department frequently. As you know as well as I do, 
Senator, the services have their own systems in large measure 
and the Guard and Reserve systems have tended to be different 
from the active duty systems. It was a result of the 
departments growing up as separate entities and their policies 
were different and their approaches were different and their 
systems were different. Some of them used a shoe box with three 
by five cards, some used a shoe box with five by seven cards, I 
guess. The net result was that you have problems.
    Now, we are testing and deploying a forward-compatible pay 
modern integrated pay system, I am told. The end state should 
be a fully integrated pay and personnel system for the 
Department of Defense. I do not know when that end point is. 
Tina, do you?
    Ms. Jonas. We are beginning to deploy that system this 
year. We have some testing issues with it, but we are beginning 
to deploy that.
    Also, the defense integrated military human resource system 
(DIMHRS) program, which I am sure you are aware of, Senator, is 
another key program which will be coming on line in 2006.
    Senator Byrd. Well, does Congress need to step in with 
legislation to fix this problem? How long do you think it will 
take for the Pentagon to address these pay problems once and 
for all?
    Ms. Jonas. Sir, the Congress has been extremely helpful 
with respect to the funding. The DIMHRS program in particular 
has been of great interest to us and the Congress has been very 
generous in that regard. We appreciate your help on that.

                  PROTECTIVE EQUIPMENT FOR U.S. TROOPS

    Senator Byrd. Last week the Dallas Morning News carried an 
article about the need for special bulletproof shorts to 
protect the legs of troops while traveling in vehicles in Iraq. 
Although Congress has provided additional funds for bulletproof 
vests for all troops in combat zones, the large number of 
roadside bombs in Iraq are known to cause deadly injuries to 
the legs of soldiers. The article reports that the marines have 
developed a low-cost set of bulletproof leggings, but the Army, 
which has the bulk of the troops in Iraq, is insisting on 
buying its own version of this protective gear which costs 
$9,400 a set, requires special air-conditioning technology, and 
weighs 38 pounds.
    Secretary Rumsfeld, we now know that our troops did not 
have enough bulletproof vests to protect them in the early 
stages of the occupation of Iraq. What are we doing to 
accelerate the schedule to get this type of protective 
equipment out to our troops?
    Secretary Rumsfeld. Senator Byrd, we have got some charts 
here. I do not know if we want to bother to put them up. But 
the Department has looked at the requests from the combatant 
commanders as to what they believed were needed by way of 
capabilities and equipment. The job of the combatant commander 
is to look at what he has, ask for what he needs, but in the 
meantime adapt tactics, techniques, and procedures so that he 
can protect his troops. He has the obligation of seeing that 
they can perform their mission and simultaneously that they are 
managed and deployed used in a way that is respectful of the 
value that they are to our society.
    That is what they are doing, and they have had an up-ramp, 
for example, in up-armored Humvees. That is the chart on the 
small arms protective inserts. As you can see, production has 
gone from December 2002, where the production rates were 
40,000, up to production rates at very high levels, up in the 
high 400,000s.
    So they have responded very rapidly and very successfully. 
But the important thing is, for the lives of the troops, that 
between the time that they need something and the time they get 
it--and that changes because the enemy has a brain. The enemy, 
for example with respect to explosive devices, may use one 
frequency and you get a jammer that will stop that, and they 
will change frequencies and they will use a different 
technique. They will use a telephone technique or a garage door 
opener or something.
    So you have to keep adapting continuously, and that shows 
the rate at which the adaptation took place, which is quite 
impressive.
    Senator Byrd. Well, are there additional funds included in 
the supplemental appropriation bills or your regular 
appropriation request to provide for new types of bulletproof 
armor to protect our troops in Iraq? If so, how many sets of 
bulletproof leggings or similar equipment will be provided to 
our troops and when will they receive this equipment?
    General Myers. Senator Byrd, the answer to your question is 
yes, there is funding. There is an effort ongoing in the armed 
services to continually improve the garments they wear. A 
couple of the improvements are to make them better against a 
more serious threat. I do not want to get into the classified 
here, but a more serious threat. And also to make them lighter, 
because obviously the troops in many cases, in most cases, have 
to move around in this gear as well.
    So that is ongoing. There is money in both budgets to help 
do that. They are fielding advance sets as the technology 
becomes available for the current vests. We see some inserts; 
there are some new inserts being developed that are being 
fielded as we speak and they are producing tens of thousands of 
these to go into theater.
    But this is a continuing process and in both budgets there 
is adequate money for this effort. On the leggings, I have not 
heard that. I will personally look into that issue. I had not 
heard that before. I will go look at it.
    Senator Byrd. I thank you.
    I think that chart is about bulletproof vests.
    Senator Stevens. Senator, Senator Shelby is here. Could we 
go to him and we will come back to you again, sir.
    Senator Byrd. I just have one more question and you will be 
through with me.

                 PROTECTING TROOPS FROM ROADSIDE BOMBS

    What specifically needs to be done to protect the legs of 
our troops from roadside bombs?
    Secretary Rumsfeld. Well, I will start and Dick can pick it 
up. It seems to me the first and most important thing is what 
is being done, and that is to, to the extent possible, not have 
vehicles out operating without appropriate armor in areas 
outside of protected compounds. So the first thing would be, if 
you had too little armor to protect those vehicles, you would 
not use those vehicles outside of a compound. You would find 
different ways to do it. You use airlift or you would have 
different supply centers, or you would use contractors. There 
are a variety of things that people can do to change their 
tactics and their techniques and their approaches.
    Today we now have a situation where only occasionally would 
there be a U.S. vehicle with U.S. military people in it outside 
of a protected compound that did not have an appropriate level 
of armor.
    Now, the problem with armor, what does it mean, appropriate 
level? We have seen M-1 tanks that have been totally destroyed. 
So armor is not necessarily going to protect somebody. If you 
have a protective insert and body armor and then you get an 
armor-piercing shell, for example, it is going to go through 
it. There is no protection that is perfect and 100 percent and 
all the time everyplace, and that is just the reality of it.
    Senator Byrd. That is a given. We all understand that.
    Thank you.
    General Myers. I would just like to go back to the point, 
because you asked the question what can we do. The part that 
plays the biggest role here, besides the vehicles and the 
personal protection, it is the tactics that the non-
commissioned officers (NCOs) and the officers devise and their 
reaction to the enemy as they change their tactics.
    So technology can help. You can do things with body armor, 
with armored vehicles. But in the end the biggest thing we can 
do is make sure we have smart, well trained, educated, 
informed, good intelligence, so troops out there that can 
address this threat.
    You asked the question earlier. Let me just fill in the 
blank here a little bit. Since the beginning of fiscal year 
2004 we have spent $5.5 billion on force protection efforts and 
we plan on spending another $3.3 billion in fiscal year 2005. 
Interestingly enough, in the supplemental there is $2.7 billion 
in force protection efforts, which is just another reason we 
need to get the supplemental as soon as possible. That money 
will not get spent until we get it.
    Senator Byrd. Mr. Chairman, I hope we will be sure that we 
are providing enough money for this, and I hope that we will 
take every step possible to see that this equipment is provided 
as soon as possible.
    Senator Stevens. Thank you, Senator.

                  CANCELLATION OF JOINT COMMON MISSILE

    Senator Shelby is recognized.
    Senator Shelby. Thank you, Mr. Chairman.
    Secretary Rumsfeld and General Myers, welcome again. 
Everybody has welcomed you, but we appreciate what you are 
doing, the challenge you have, and we are here to do what we 
can to help you in that regard.
    The joint common missile, if I could get into that just a 
minute. The joint common missile was proposed for termination 
in Presidential Budget Decision 753. Eight months, Mr. 
Chairman, into phase one of system design and development, the 
joint common missile, a remarkably healthy, low-risk program, 
on schedule, on budget--think of that, on budget--and 
successfully demonstrating important new capabilities for the 
warfighter.
    Cancelling the joint common missile, I believe, ignores the 
opinion of our top military leaders and deprives our service 
members of a new capability, Mr. Secretary, that they believe 
they need to survive against future threats. Further, the joint 
common missile meets joint service requirements and fills a 
critical capabilities gap that cannot be met by upgrading 
existing weapons systems.
    An example: The joint common missile--I know you both know 
this--has twice the standoff range of the Hellfire, Longbow, 
and Maverick missiles it will replace on Army, Navy, Marine 
aircraft. The accuracy of its trimode seeker would give our Air 
Force--give our forces precision strike lethality to eliminate 
threats that are located near noncombatants.
    That is why the top-ranking officers in all three services 
that have requested the joint common missile--the Army, the 
Navy, and the Marine Corps--all believe that the program must 
be restored.
    What is the justification, other than trying to save some 
short-term money, for proposing eliminating this? I think it is 
a mistake. I think a lot of people think it would be a big 
mistake.
    General Myers. Senator Shelby, the reason that our advice 
to the Secretary was to cancel this particular program was that 
it had been in development for a long period of time and they 
actually have--they have a very ambitious goal, as you know, of 
a seeker that has I think three different technologies in it, 
three different--it is a trimode, three modes of acquiring the 
target. Designing that seeker was certainly high technical 
risk.
    With the inventory of Hellfires and Maverick missiles over 
35,000, we have other ways of doing the job. So it was thought 
this program, let us terminate this program. The requirement 
does not go away. The requirement recycles back down to our 
capabilities requirements system, and we will look at the 
requirement and maybe back off some of the features we want in 
this missile. But it was technically having some difficulties 
and that is why we joined in.
    Senator Shelby. Well, we have been told recently that they 
have been jumping over all the barriers, that everything was 
working well; it was, as I said, under budget and the program 
was moving very fast. This is in the last few days.
    General Myers. The information we had back in December when 
these decisions were made is that there was cost growth, 
schedule creep, and high technical risk in the seeker, and that 
is why it was--I have not reviewed it here----
    Senator Shelby. We would like to further talk with you and 
the Secretary. A lot of us, about this, not just myself, but a 
lot of us believe that it would be a big, big mistake to cancel 
this very promising, very on-budget, on-time joint common 
missile. So we will get back with both of you on this, and that 
will ultimately be a decision of the committee anyway.
    Mr. Chairman, that is all I have today. Thank you.
    Senator Stevens. Thank you very much, Senator.
    Senator Inouye.
    Senator Inouye. Mr. Chairman, I just have a statement I 
would like to make.
    Mr. Secretary, as part of your global posture review you 
will be repositioning forces around the world. In the Asia 
Pacific region you will be moving forces out of Korea and 
possibly moving some marines out of Okinawa. As you know, our 
Asian neighbors, both friends and potential adversaries, are 
very sensitive to changes in the U.S. military posture and 
management structures which govern these forces.
    In that light, I was disturbed to learn that the Navy is 
contemplating changes to its management structure for the 
Pacific fleet separate from your global posture review. 
Considering all the other changes that are underway in the 
region, I would hope that you would not support any changes to 
the operational or administrative control or other management 
functions of the Pacific fleet.
    Senator Stevens. Mr. Secretary, that is a request, but I 
would state this, that Senator Inouye and I have made a 
practice of traveling to the Pacific now for over 30 years. 
Every time we go to a foreign country we ask the same question 
of a new generation of people involved in the operation. We 
literally have been doing this now for more than 30 years. We 
ask them: What do you think about the presence of the United 
States in the Pacific? Do you think we should reduce it or 
should we increase it?
    I think I cannot remember one single country, including 
China, who ever said anything to us about reducing the forces 
in the Pacific. We are the stabilizing force in the Pacific. So 
I emphasize his question or his statement.

                COMPLETION OF QUADRENNIAL DEFENSE REVIEW

    Let me ask you one last question. I did promise we would be 
out of here by 12:30. Will the QDR be completed in time for the 
President to take it into account in terms of the 2007 budget 
request?
    Secretary Rumsfeld. The QDR of course is an activity that 
is made up of many parts and the answer is that there is no 
question but that we will be informed as we go through the QDR 
process this year in ways that will in fact affect the fiscal 
year 2007 budget. There may very well be pieces of it that we 
would assign for further study and that would not be at a stage 
of completion that would enable us to be informed by the 
outcomes for the 2007, in which case they would very likely 
affect 2008 or later. But a lot of it will be.
    Senator Stevens. Well, again, I think we can remember times 
when the QDR came to us at a time that we already had the 
President's request and it certainly confused the subject of 
defense before this subcommittee. So whatever we can do to get 
the information that pertains to the appropriations request 
before the 2007 budget is received I think would be very 
helpful here, very helpful.
    Secretary Rumsfeld. We will certainly try to do that. You 
are quite right, it is a distraction to send up a budget and 
then be asked by Congress to do a Quadrennial Defense Review 
simultaneously and begin that process and have it reveal things 
that lead you to a different conclusion, and I can well 
understand the layering effect and the distraction it causes 
and we will try to do our best.
    Senator Stevens. Thank you.
    Well, again, gentlemen and Ms. Jonas, we thank you very 
much for your testimony. I want to make this statement to you. 
I have made it to you privately and others may not agree with 
me. But I have been privileged to be at meetings, Mr. 
Secretary, that you have had with the Joint Chiefs. I have 
never seen such a relationship between the chiefs and the 
Secretary--open discussion, open critique, and really a give 
and take that was very, very, really I think very helpful and 
very healthy as far as the Department is concerned.
    You obviously, Mr. Secretary, had a previous iteration as 
Secretary, so there has never been a Secretary that had more 
background than you have.
    But I will say this to General Myers. I have been a devotee 
of General Eisenhower since World War II and had the privilege 
of serving under him. As I have told you personally and I would 
like to say publicly now, you come as close to Ike as any 
general I have ever known. So we thank you very much for your 
service and we will look forward to being with you whatever you 
do.

                     ADDITIONAL COMMITTEE QUESTIONS

    There will be questions submitted for the record, Mr. 
Secretary. I failed to notify that, but that is common 
practice.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted to Hon. Donald H. Rumsfeld
              Questions Submitted by Senator Arlen Specter
    Question. As Chairman of the Senate Depot Caucus, I am a strong 
advocate for maintaining a viable organic depot maintenance capability 
within the Department of Defense. I would like to note that the 
Government Accountability Office has criticized the Defense Department 
for failing to develop a long-term strategic plan for the military 
depots. What is your long-term strategic plan for this dedicated group 
of highly skilled civilian workers who have served you and our 
warfighters so well in peacetime and in war?
    Answer. The Department is engaged in a multiple-year transformation 
of its organizations and doctrine to better focus force structure and 
resources on the national security challenges of the 21st century. An 
integral part of this activity is an ongoing analysis of options for 
transforming DOD's support infrastructure to become more agile and 
responsive. As such, DOD's long-term strategy for providing depot 
maintenance is still evolving, and is guided by the following:
  --Depot maintenance mission. Sustain the operating forces with 
        responsive depot-level maintenance, repair, and technical 
        support--worldwide.
  --Depot maintenance vision. Agile depot maintenance capabilities that 
        are fully integrated into a warfighter-focused sustainment 
        enterprise, supporting the full spectrum of operational 
        environments.
    Question. It has been reported that the Army will spend $7 billion 
this year to repair and replace equipment returning from Iraq. Depots 
have doubled their workforce and are working around the clock and still 
we hear reports of vehicles lacking significant armor. If the war ended 
today, it is estimated that it would take all of our depots two years, 
at full capacity, to restore all the equipment used in Iraq. 
Considering that some of these vehicles are being run at six times the 
normal rate and that we will be maintaining a significant presence in 
Iraq for some time to come, how will this impact your recommendation on 
the future of our depots to the BRAC Commission?
    Answer. Our BRAC analysis of the organic depot maintenance 
infrastructure was reviewed by a joint group with representatives from 
all Services. Existing and projected workload levels as well as the 
anticipated requirements of the 2025 force structure were considered. 
Military value, coupled with the capacity analysis formed the basis for 
our recommendations.
    Question. You are driving the Defense Department's transformation 
from an industrial age military organization to a 21st century 
information age force focused around the advanced sensors and 
communication systems that are Tobyhanna's expertise. The support of 
these systems matches Tobyhanna's mission perfectly and thus it seems 
natural that Tobyhanna should conduct the depot support for these 
advanced systems.
    What steps have been taken to ensure Tobyhanna has the skills, 
facilities, and latest technology to support the maintenance and 
logistical requirements of the future weapons systems that you so 
strongly advocate?
    Answer. We have taken a number of steps to assure that Tobyhanna 
Army Depot has what it takes to support current and future weapon 
systems in their areas of expertise. Preparing the depot for a new 
weapon system starts early in the acquisition of the that system with 
the Core Depot Analysis, performed in compliance with Title 10, United 
States Code, Section 2464. This analysis determines the depot 
maintenance that must be performed on a weapon system in order to fully 
support the most intense of the war scenarios planned for by the Joint 
Chiefs. The depot that performs that work must then be equipped, the 
employees fully trained, and any necessary facilities prepared to take 
on that maintenance. We have established a process in which the program 
manager works with the depot and its parent command to assure that this 
analysis is complete and that the budgets for the weapon system reflect 
any requirements to purchase equipment and build or upgrade facilities 
to perform the new workload. In the past, this was somewhat difficult 
because the program managers operated independently--not in the same 
chain of command as the depot. We are now establishing Life Cycle 
Management Commands (LCMC) which merge the staffs of the Program 
Executive Officers (for whom the program managers work) and the 
commodity commands (for whom the depots work), giving us seamless 
control over the development of a new weapon system and the 
establishment of its support structure. Tobyhanna's parent LCMC, the 
Communications-Electronics LCMC, was the first ``out-of-the-box'' of 
these centers. In addition to the steps taken with each specific weapon 
system, we have well-established programs in the depot to keep the 
facilities and equipment up-to-date by investing the depot's own 
capital, and to train the workforce for each weapon system supported--
including training provided at the equipment manufacturer.
    Question. Letterkenny Army Depot is the number one provider of 
tactical missile system support to the Department of Defense. Our 
military arsenal has several hundred thousand aging, deteriorating 
missiles. Demilitarization for these missiles requires disassembly and 
open burning or detonation. Letterkenny is the major storage site for 
tactical missiles on the East Coast and could offer safer, 
environmentally sound technology to recover, recycle, and reuse (R\3\) 
these missile components. However, there is no consolidated program to 
research and operate a large scale, environmentally friendly 
demilitarization program for tactical missiles.
    In May of 2003, I proposed to you the establishment of a Center of 
Technical Excellence (CTX) for missile demilitarization be created at 
Letterkenny Army Depot. There was $1.75 million in the fiscal year 2004 
budget to initiate a pilot program for MLRS recycle/reuse at 
Letterkenny. There was no funding for this initiative in fiscal year 
2005 budget. I am again proposing a CTX for missile demilitarization/
R\3\ be created at Letterkenny Army Depot. I would like your input on 
this proposal.
    Answer. Letterkenny Munitions Center (LEMC) is currently working 
with Defense Ammunition Center (DAC) and Aviation and Missile Research 
Development and Engineering Center (AMRDEC) to develop a resource 
recovery and recycling (R\3\) capability for missiles. In fiscal year 
2004, DAC received $1.75 million to start this process. A team was 
formed utilizing personnel from DAC, AMRDEC and LEMC to look at the 21 
different missile systems stored at LEMC, to include MLRS. We are 
leveraging the process at Anniston Defense Munitions Center (ADMC) for 
the TOW missile R\3\. This initial funding is being used to develop 
Technology Trees to determine all of the hazardous components in each 
missile and the technology possibilities for each. It is also being 
used to develop methods and equipment for removing explosives from 4 
different warheads, and to prepare a building at LEMC for the warhead 
equipment. The initial $1.75 million is enough only to start the 
process. We believe the amount required will be at least $10 million 
over the next two years and more as newer technology becomes available.
    Question. Tobyhanna, Letterkenny and the entire organic industrial 
base have responded magnificently in supporting the GWOT, especially 
operations in Iraq. This performance reinforces my belief that we must 
maintain a strong, public sector capability to meet the logistics needs 
of our Warfighters. Do you share that belief, and, if so, how will you 
ensure we retain that capability during BRAC 2005. Specifically, what 
is the Defense Department doing, through BRAC and in other 
transformational planning, to ensure that DOD retains a robust, 
efficient, well-trained and well-equipped public depot maintenance 
structure for the challenges of the present and future?
    Answer. I do share your assessment of the performance our organic 
industrial base. Our BRAC analysis of the organic depot maintenance 
infrastructure was reviewed by a joint group with representatives from 
all Services. Existing and projected workload levels as well as the 
anticipated requirements of the 2025 force structure were considered. 
Military value, coupled with the capacity analysis formed the basis for 
our recommendations. Our recommendations retain the essential 
capabilities of the Departments' organic industrial base.
    Question. How will the Department ensure that the BRAC 
recommendations comply with the national defense mandates of Title 10, 
namely Sections 2464 and 2466, which ensure a ready source of depot 
maintenance?
    Answer. Our depot-related BRAC recommendations are consistent with 
the mandates prescribed by Title 10. Existing workloads, workloads 
necessary to sustain core capabilities and projected requirements 
associated with the 2025 force structure were all considered in our 
analysis and subsequent recommendations.
    Question. Does the Department intend to privatize its depots and 
other maintenance facilities?
    Answer. No. The Department is committed to maintaining depot 
maintenance core capabilities and other related maintenance 
capabilities in Government-owned and operated facilities using 
Government equipment and personnel to assure effective and responsive 
maintenance support for DOD operations.
    Question. The 193rd SOW is one of the largest units in the Air 
National Guard with 1,700 military personnel. The 193rd conducts 
psychological operations and civil affairs broadcast missions and is 
the only Air National Guard unit assigned to Special Operations Command 
and the only unit in the military that conducts this mission. The 
ongoing quest to equip the 193 Special Ops Wing with its last two C-
130J models continues. The original plan, which began five years ago, 
called for replacing eight older models with eight new J models but the 
USAF keeps postponing the procurement of the last two planes leaving 
the 193rd with the six planes. What is the timeline for delivery of the 
final two C-130Js to the 193rd SOW?
    Answer. The United States Special Operations Command's requirement 
is for a total of six EC-130Js at Harrisburg. To assist the 193rd SOW 
with training requirements, the Air Force will provide one additional 
C-130J (aircraft number seven) in September 2005. The number seven C-
130J aircraft has already been delivered to the USAF and will be 
transferred from another station to the 193rd SOW.
    Question. I am concerned about the Defense Department's diminishing 
support for Guard counterdrug programs and the related funds it needs. 
The Guard is one of the best vehicles for doing this mission because 
they are in the communities served, and have existing networks with law 
enforcement and other first responders. Our civilian law enforcement 
will be seriously degraded without the Guard counterdrug programs. What 
is your position on the Guard's counterdrug mission and do you have any 
plans to enhance or decrease their role?
    Answer. The NG fulfills a vital role in performing CN operations. 
The Guard is also a major contributor in the on-going War on Terrorism, 
a major priority that has challenged both active and reserve 
components. The Department must carefully balance the ability of the NG 
to support both missions. The Department agrees that the NG can provide 
military unique services in support of CNs operations.
    In 2003, the Department conducted a comprehensive review of its 129 
counterdrug programs to transform DOD's CNs Activities in a post 9/11 
environment. In certain cases, in order to relieve stress on our Title 
10 forces, we increased the levels of effort and type of support (air/
ground reconnaissance, intelligence analysts, and training for LEAs) 
that we wanted the NG to provide. In cases where the NG was providing 
support that Federal, state and local law enforcement ought to be doing 
on their own (i.e. missions that were not military unique), we 
recommended that those activities be transferred or terminated. For 
example, the U.S. Customs Service stated that they would be able to 
``effectively discharge'' its cargo/mail inspection duties without 
support from the NG.
    The support that DOD provides should not only complement domestic 
law enforcement, but should also enhance unit readiness.
    Question. Will you please provide the Department of Defense's 
efforts to armor vehicles from all services? I would appreciate current 
statistics on the status of the armoring of vehicles, including 
specific levels of armor, and a timeline detailing the efforts and 
challenges the Department faces in achieving this requirement.
    Answer. The Department is on track to meet CENTCOM (Level I and II) 
armor vehicle requirements by September 2005. Our biggest challenge is 
to keep pacing items for the Level I and II application on schedule.
    As of May 27:
    Level I (Up Armored Humvees)--8,279 completed of 10,577 required;
    Level II (Steel and Ballistic Glass)--22,242 completed of 29,974 
        required; and
    Level III (Steel only)--11,378 completed.
    The Marine Corps achieved the Level I/II goal in August 2004. Army 
is on track to achieve this objective by September 2005. Air Force 
vehicles are level I and II, and Navy uses non-tactical vehicles for 
on-base use only.
    Question. The Naval Foundry and Propeller Center at the Norfolk 
Naval Shipyard Detachment-Philadelphia has been in existence for more 
than 85 years and is the Navy's only remaining propeller foundry. Are 
there any plans to privatize this mission?
    Answer. No privatization initiatives are currently planned. Any 
initiative to privatize an organic depot capability could possibly 
require a DOD request for Congressional amendment of 10 U.S.C. 2464 
(core depot capability requirement) or 10 U.S.C. 2466 (50-50 law) to 
prevent non-compliance with Title 10 requirements.
    Question. The Army War College at Carlisle Barracks has a long and 
distinguished history. One of the key aspects of having the College in 
close proximity to Washington, D.C. is the ability for the AWC to draw 
upon the expertise of high ranking leaders to lecture and meet with 
tomorrow's military leaders. Do you agree that the student experience 
of having access to these leaders is an invaluable component of their 
educational experience?
    Answer. The U.S. Army War College (USAWC) must be close enough to 
the National Capital Region (NCR) to both support and influence the 
Army Staff. USAWC support to organizations inside NCR has expanded to 
include: CSA, HQDA, Joint Staff, DOD agencies, Inter-Agency communities 
(DOS, DHS, DOJ). The close proximity to the NCR facilitates access to: 
key national and international policy makers, senior military leaders, 
director level personnel from OSD, JS, ARSTAF, Inter-Agency 
environment, governmental, military, and private think tanks, and the 
Defense intellectual community in the ``Northeast Corridor''. The 
current location supports curriculum IAW Congressional intent and 
JPME--USAWC curriculum focuses on national military strategy. USAWC 
curriculum, therefore, addresses the nexus between national security 
strategy, national military strategy, and theater strategy and 
campaigning which is directly linked to the activities within the 
National Capital Region. Recent increases in U.S. military interaction 
with interagency organizations reinforces the need for proximity to 
National Capital Region. The current location allows for access for 
academic trips to interagency bodies, think tanks, and corporate 
locations, it is a transportation hub that facilitates speakers, 
support, and coordination efforts, it allows for continuity of 
operations and faculty recruitment and retention. Carlisle, 
Pennsylvania promotes Army well-being and quality of life: Carlisle 
area rated second least stressful metropolitan area in America. 
[Sperling's Best Places]; Lower cost of living eases recruitment and 
retention; provides access to the U.S. Army Heritage & Education Center 
(AHEC), the Army Physical Fitness Research Institute (APFRI), the 
Center for Strategic Leadership (CSL), U.S. Army Peacekeeping & 
Stability Operations Institute (PKSOI), the Strategic Studies Institute 
(SSI), personnel for core and elective curricula faculty. USAWC offers 
a comprehensive professional and personal program in an overall 
environment that encourages students to study and confer; it provides a 
``community of senior leaders'' that fosters free exchange of ideas 
without distractions of other competing activities. Since 1973, 15 
separate studies examined location or command arrangements of the USAWC 
and have supported retaining USAWC at Carlisle Barracks.
    Question. The Naval Support Activity in Philadelphia, and 
specifically the Defense Supply Center Philadelphia (DSCP) and DLA 
missions, play a critical role in supporting our forces. Would 
privatizing or moving these individuals and missions disrupt the flow 
of supplies and harm our warfighters?
    Answer. Ensuring the uninterrupted and seamless flow of supplies 
from America's industrial base to our warfighters is at the heart of 
the Defense Logistics Agency's mission and our unwavering first 
priority.
    The Defense Supply Center Philadelphia (DSCP), a tenant of the 
Naval Support Activity Philadelphia, plays a vital role in execution of 
this vital mission. DSCP has been a leader in innovative approaches to 
providing outstanding support in an efficient manner.
    As to privatization, or competitive sourcing, under OMB Circular A-
76, the Agency retains responsibility for the function. The OMB 
Circular A-76 contains guidance to determine whether a function is 
commercial in nature as opposed to inherently governmental. Only those 
that are commercial in nature can be subjected to public-private 
competition. The premise of, and our experience with, A-76 is that 
employee status of the service provider should be transparent to the 
customer. Once it has been decided to subject a function to A-76, the 
procedures of the Circular are implemented to ensure that the selected 
service provider's performance proposal meets the requirements of the 
warfighter as outlined in the performance work statement, demonstrating 
its capability to take on and continue the mission. Past DLA 
performance work statements have included specific requirements 
concerning the transition from Government performance to either 
implementation of the Government Most Efficient Organization (MEO) or 
contractor performance. These requirements are designed to deliver a 
seamless transition of responsibility. The performance work statements 
also have acceptable performance level standards that the selected 
service provider is required to meet throughout the performance period.
    There are no current plans to move DSCP, however if a decision were 
made to move DSCP, the agency would take all necessary measures to 
ensure the transition is executed with the absolute minimum amount of 
impact on the warfighter. As we know from experience, some personnel 
working in the four supply chains currently managed by DSCP would not 
transition and this experience and expertise would be quickly 
reconstituted in the new location.
    Question. Since we are experiencing severe reserve component 
retention and recruiting shortfalls at this time, how important is the 
maintenance of joint service footprints near major population centers 
in recruitment and retention?
    Answer. Maintenance of the Department's footprint is a priority. We 
continue to aggressively model the infrastructure to assure best 
industry practices are applied to our facilities. The current 67 year 
recapitalization rate metric and the 93 percent sustainment rate assure 
the proper funding is in place to maintain this joint Service 
footprint.
    Question. Can you describe the domestic homeland security mission 
requirements of our forces? Are these missions joint in nature? How has 
the Department of Defense and Department of Homeland Security 
coordinated its efforts and funds?
    Answer. The Department of Defense (DOD) augments the resources and 
capabilities of domestic civil authorities when their resources have 
been overwhelmed or DOD can provide a unique capability. The Department 
of Defense is in support of civil authorities. Therefore, requirements 
are determined by other Federal agencies and are situation specific.
    The Commanders of U.S. Northern Command (USNORTHCOM) and U.S. 
Pacific Command (USPACOM) are responsible for supporting civil 
authorities once requests have been approved by the Secretary of 
Defense. USNORTHCOM has two tasks forces, Joint Task Force Civil 
Support and Joint Task Force North that provide command and control of 
forces in its area of responsibility. USPACOM utilizes Joint Task Force 
Homeland Defense to provide command and control with their area of 
responsibility.
    Support provided by DOD's U.S. Army Corps of Engineers (USACE) is 
the exception. USACE responds to civil authorities under Public Law and 
the National Response Plan. In accordance with the National Response 
Plan, USACE is the Primary Agency for Emergency Support Function #3, 
Public Works and Engineering. Funding for USACE missions are part of 
their operating budget or may be reimbursable under the Stafford or 
Economy Act depending on the mission requirement.
    A difference of note between Homeland Security and Homeland Defense 
is simply that in a Homeland Defense mission, DOD will be the lead (as 
opposed to Defense Support to Civil Authorities where typically a DHS 
agency will lead).
    Homeland Defense is broken down into domains. The defense domains 
consists of air, land and maritime. Current Homeland Defense mission 
requirements are no different than standard warfighting requirements, 
except that they are oriented more towards protection vice attacking 
for offensive operations. Some current Homeland Defense missions are 
the Air Patrols over the National Capitol Region flown by the Air 
National Guard in support of Operation NOBLE EAGLE and Quick Reaction 
Forces on stand-by for domestic deployment.
    Question. Are these missions joint in nature?
    Answer. All domestic missions are joint in nature. Once a 
requirement has been established, the Department looks for the Service 
or Services that can best provide the resources and/or capabilities to 
effectively and efficiently meet the mission requirements.
    This is true of Homeland Defense missions as well. The DOD will 
lead any Homeland Defense mission, most likely through USNORTHCOM or 
one of its subordinates. JFCOM, as the force provider, will look at 
forces available to best provide the particular capability to satisfy 
mission requirements across the spectrum of defense domains.
    Question. How has the Department of Defense (DOD) and Department of 
Homeland Security (DHS) coordinated its efforts and funds?
    Answer. The Departments of Defense and Homeland Security are 
involved in continuous coordination to ensure national homeland 
security objectives are met.
    Examples:
  --DOD worked with DHS's U.S. Secret Service to plan for and execute 
        security at National Special Security Events (NSSEs) in 2004. 
        These NSSEs include the Group of Eight (G8) Summit, Republican 
        and Democratic National Conventions, the State of the Union and 
        the State Funeral for former President Reagan.
  --DOD provide DHS with unmanned aerial vehicles in support of their 
        Arizona Border Control Initiative from June 2004 to January 
        2005.
  --From October 2004 to February 2005, DOD provided support to DHS's 
        Interagency Security Plan. DOD is still involved in the DHS 
        Interagency Security Plan (ISP) 2005, which is a vehicle for 
        putting forward DHS initiatives that DOD may be required or 
        requested to support. This is a ``living document'' that 
        requires continual coordination between DOD and DHS for new and 
        ongoing DHS programs.
  --In support of DHS's Federal Emergency Management Agency, DOD 
        provided personnel, facilities, equipment, food, water, ice and 
        medical support to the state of Florida after an unprecedented 
        four hurricanes hit the state in August and September.
    DOD normally provides support on a reimbursable basis under the 
Stafford or Economy. One exception was the support provided to DHS's 
Interagency Security Plan. The Secretary of Defense determined that 
support provided to the ISP provided a training benefit to the 
Department and reimbursement was waived.
                                 ______
                                 
           Questions Submitted by Senator Christopher S. Bond

    Question. The (V)3 AESA radar system once it completes development 
within the next year will be the most advanced and capable tactical 
aircraft weapons system in the world. It also makes the F-15C the most 
capable homeland defense platform on the planet which is why I am 
mystified the Air Force elected to not pursue production once the 
system completes the design phase.
    Are you aware that the U.S. Air Force elected to shelve the (V)3 
AESA radar system after almost $68 million invested? And has your staff 
briefed you on the capabilities of this system as it compares to the 
system in the F-22 and the F-16 and how this system will enhance the 
homeland defense capabilities of CONUS based aircraft?
    Answer. Yes, I am aware of Air Force budget decisions, system 
capabilities/comparisons (including the AESA radar) in Homeland Defense 
and other mission areas, and how budget limitations impact force 
capabilities. The Air Force is committed to completing the development 
of the F-15C/D AESA radar program in fiscal year 2006. We plan to 
continue to incorporate AESA technologies on various platforms, 
including the F-15. However, at this time, higher Air Force funding 
priorities preclude AESA procurement for the F-15C/D fleet. The Air 
Force's investment strategy seeks to strike a sound, capabilities-based 
balance between modernizing legacy fighters and fielding F/A-22 and F-
35 in a timely manner.
    Question. If this country needs more affordable fighters we may 
very well need more F-15's but I cannot get the Pentagon to release $1 
million for an RFP so that Boeing and the Air Force can begin 
negotiations for the purchase of at least two aircraft which will keep 
the production line open through the end of calendar year 2008. The 
action of the Air Force is shortsighted and detrimental to the 
diminishing aircraft industrial base which now consists of just two 
prime manufacturers. It is not in the best interests of the nation or 
the taxpayer to have just one supplier of tactical aircraft for the Air 
Force, which is Lockheed Martin, yet this is exactly what will happen 
if the F-15 line closes.
    Can you provide me an update on the status of the $1 million which 
OSD needs to release in order for an RFP for two aircraft to move 
forward? Failure to do this could result in an additional cost of $20 
million if we have to negotiate a sale late in this legislative cycle.
    Answer. The $1 million for an F-15E Request for Proposal (RFP) is 
released to the F-15 program. We expect to be on contract for the RFP 
effort by May 30, 2005. The remaining portion of the $110 million 
Congressional add for advanced procurement will remain on Air Force 
withhold pending fiscal year 2006 Congressional add to fully fund the 
aircraft procurement.
    Question. As BRAC draws near and as it relates to the Air National 
Guard I am concerned that the process has been designed to validate a 
pre-determined view of the Future Total Force as defined strictly by 
the active Air Force, without the substantive input of the Air National 
Guard. Without the substantive input of the National Guard I question 
the validity of the plan and possibly the BRAC process and its impact 
on the ability of the Air Guard to remain an integral partner in the 
Total Force.
    Can you give me your assessment of the Guard's role in the 
development of the Future Total Force Strategy of the U.S. Air Force? 
By the Guard's role I refer to the input of the TAG's from states with 
significant Air Guard assets.
    Answer. Yes, I am aware of Air Force budget decisions, system 
capabilities/comparisons (including the AESA radar) in Homeland Defense 
and other mission areas, and how budget limitations impact force 
capabilities. The Air Force is committed to completing the development 
of the F-15C/D AESA radar program in fiscal year 2006. We plan to 
continue to incorporate AESA technologies on various platforms, 
including the F-15. However, at this time, higher Air Force funding 
priorities preclude AESA procurement for the F-15C/D fleet. The Air 
Force's investment strategy seeks to strike a sound, capabilities-based 
balance between modernizing legacy fighters and fielding F/A-22 and F-
35 in a timely manner.
    Question. I understand you are committed to outsourcing military 
functions that can be ably performed by civilian contractors. Are you 
aware that the Army Military Postal Service Agency conducted an 
internal study of the MPSA and published its findings in year 2000 
which recommended that ``all'' or some of the functions of MPSA be 
outsourced? Are you aware that I have recommended to Army that the 
Department move to outsource all MPSA functions? Are you also aware 
that a significant number of Army billets are dedicated solely to 
moving and sorting military mail?
    Answer. The military Postal System operates as an extension of the 
U.S. Postal System under Title 39 U.S.C.; therefore outsourcing of 
military postal functions must be coordinated and agreed to by the 
Postal Service. The Military Postal Service Agency (MPSA), conducted an 
internal study on outsourcing and they have been working with the 
military services to outsource functions within the military postal 
system. As an example, the Air Force has outsourced the majority of 
their main mail terminal in Frankfurt (66 military positions; 3 
civilian positions), and the U.S. Army has outsourced most of their 
mail processing and surface transportation at the Joint Military Mail 
Terminals (JMMT) in both Kuwait and Baghdad and several military post 
offices (MPO), including the Coalition Provisional Authority MPO at the 
Palace Compound in the Green Zone, Baghdad, Iraq. Furthermore, MPSA is 
currently reviewing guidelines for the Services on what functional 
areas within the Military Postal Service may be considered for further 
outsourcing, by the services, versus what is inherently governmental. 
Upon completion of this policy, a meeting with all Services, U.S. 
Postal Service (USPS), and DOD will take place to coordinate a way 
ahead. We are doing this with USPS input to ensure the policy adheres 
to all laws and regulations binding USPS. Currently throughout DOD 
there are approximately 2,274 active duty personnel of which 570 are 
Army personnel providing full-time postal duties.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                         IRAQI SECURITY FORCES

    Question. Do you still stand by your earlier estimates of the 
number of ``trained and equipped'' Iraqi security personnel?
    Answer. I do stand by my earlier estimates of the number of trained 
and equipped Iraqi security personnel. Each week I receive a report 
from the Multinational Security Transition Command-Iraq. This report is 
put together by Lieutenant General Dave Petraeus' Headquarters and is 
reviewed by General Casey. This number reflects the number of Iraqi 
forces who have been trained and equipped to the standards previously 
provided to Congress. However, ``trained and equipped'' does not tell 
you the capability of Iraqi security personnel. We have recently begun 
to measure this capability. The new process for measuring Iraqi 
Security Forces capability looks at six areas of readiness: personnel, 
command and control, training, sustainment, equipping and leadership. 
Using these measurements, units are assessed on their ability to 
execute counterinsurgency operations and are given a readiness rating 
of Level 1-4. A Level 1 unit is fully capable of planning, executing 
and sustaining independent counterinsurgency operations.
    Question. To what extent are the Pentagon's estimates of the Iraqi 
Ministry of Interior forces reliable?
    Answer. The estimates reflect the number of police who have been 
trained and equipped minus estimated losses based on reports from 
Multi-National Corps-Iraq. They are the best estimates available, and 
Multi-National Forces-Iraq is constantly reviewing means to improve 
upon them.
    Question. What specifically do you attribute to the difficulty of 
training an adequately-sized Iraqi Security Force--funding, capability, 
equipment, or some other factor?
    Answer. Training the Iraqi Security Forces (ISF) with the right 
balance of capabilities presents many challenges, and steps are being 
taken to ensure the ISF has the means to maintain domestic order and 
deny a safe haven to terrorists. Some of the challenges in developing a 
capable Iraqi Security Force are: working with a different culture; 
overcoming poor leadership habits and corruption developed under the 
former regime; working within a cash-based economy; developing capable 
bases that have largely been destroyed; developing command, control and 
communication systems where none existed; and training security forces 
to conduct counterinsurgency operations when they had never performed 
them.
    Question. How many Iraqi security personnel do you estimate will be 
recruited, equipped, and trained by the $5.7 billion that was allocated 
for this purpose in the fiscal year 2005 Supplemental bill?
    Answer. The fiscal year 2005 supplemental will fund the most 
critical institutional training, equipment and infrastructure 
requirements for about 270,000 Iraqi Security Forces.
    Question. You also state in the funding justification language for 
the fiscal year 2005 Supplemental, and I quote: ``The Iraqi Interim and 
Transitional Governments, with Coalition assistance, have fielded over 
90 battalions in order to provide security within Iraq . . . All but 
one of these 90 battalions, however, are lightly equipped and armed, 
and have very limited mobility and sustainment capabilities.'' (page 
25)
    Does this statement remain true today?
    Answer. At the time of that statement, only one mechanized 
battalion was operational. Currently there are two mechanized 
battalions that are capable of planning and executing counterinsurgency 
operations in conjunction with Coalition units. The vast majority of 
Iraqi security forces are infantry and police-type units, which we 
consider to be ``light'' forces.
    Question. Would you please tell the Committee how many Iraqi 
battalions today are fully-equipped, armed, and capable of successfully 
carrying out their mission in Iraq?
    Answer. There are 102 battalion level combat units in the Iraqi 
Ministry of Interior and Defense conducting operations at the company 
though battalion level. 81 of these battalions are in the Ministry of 
Defense and 21 battalions are in the Ministry of Interior. These forces 
are capable of conducting security operations--in some cases with 
Coalition assistance and in some cases without assistance.

                APPROPRIATE NUMBER OF UP-ARMORED HUMVEES

    Question. Since the beginning of this year, it is my understanding 
that the U.S. Central Command has increased its estimate of the number 
of up-armored Humvees needed in Iraq and Afghanistan at least 5 
separate times. And earlier this month, the Army stated that it was 855 
vehicles short of procuring the 8,105 factory-armored Humvees needed 
for its missions in the Middle East. In addition, it has come to my 
attention that several days ago the U.S. Central Command again 
increased its estimate of required Humvees to 10,079. I remember you 
came before this Committee in February and told us that there were no 
longer any military vehicles operating in Iraq (outside of a protected 
zone) that lacked ``an appropriate level of armor?
    Can you explain why the Pentagon has so often underestimated the 
need for up-armored Humvees since the beginning of this war?
    Answer. The Pentagon has not under estimated the need for Up-
Armored Humvees. The increase in Up-Armored Humvee requirements 
corresponds with the results of a constant mission analysis conducted 
by the Operational Commander and his staff. This analysis takes into 
account the changing tactics, techniques, and procedures of the Iraqi 
insurgents, and the requirement for U.S. forces to operate outside of 
secure operating bases. As the enemy's tactics, techniques, and 
procedures change so will the requirements.
    Question. Are you confident that we currently have an appropriate 
number of up-armored Humvees in Iraq and Afghanistan? If not, when do 
you estimate that we will have the necessary number of vehicles?
    Answer. The Combatant Commander, CENTCOM determining the need for 
UAH through the use of an Operational Need Statement (ONS) to request 
what he needs to conduct military operations. Since the first ONS for 
235 UAH in May 2003, the validated theater requirement has grown to the 
current requirement of 10,079. Almost without exception, each jump in 
the requirement was preceded by an operational event in theater whereby 
the insurgency began employing a different method of attack against the 
coalition forces. The Army will continue producing UAH at the maximum 
monthly production rate of 550 until the requirement of 10,079 is 
satisfied from production in July 2005 with in-theater delivery by 
September 2005.
    Question. A GAO report released this month suggests that the 
Pentagon ``failed to use the maximum available production capacity'' to 
produce factory-armored Humvees even as the requirements increased.
    How many factory-armored Humvees are currently being produced each 
month?
    Answer. O'Gara-Hess (OHEAC) is currently producing at their maximum 
production rate of 550 vehicles per month.
    Question. Can you say confidently that all 5 Army depots are now 
operating at their ``maximum'' capacity in regards to up-armoring and 
repairing Humvees?
    Answer. The Army Depots have completed theater validated production 
requirements for HMMWV's add-on armor kits. The Validated Theater 
requirement is 13,872 kits of which the Army has produced 14,220 kits.
    Question. And is it true that only one small factory in Ohio is 
producing the armor to fortify Humvees?
    Answer. No; armor for HMMWVs has been produced in four 
configurations. O'Gara-Hess & Eisenhardt Armor Company is the armor 
producer for the M1114 Up-armored HMMWV. Ground System Industrial 
Enterprise (GSIE) with seven Army Depots have produced the Armor 
Survivability Kit (ASK) Add-on Armor, O'Gara-Hess & Eisenhardt with 
Simula produced the Enhanced HARDkit Add-on Armor and ArmorWorks is the 
producer of the HMMWV troop carrier.

                      RESERVE AND GUARD RETENTION

    Question. It has been reported that the Army National Guard missed 
its recruiting goal by 27 percent in the first half of this fiscal 
year, while the Army Reserve came up 10 percent short.
    Can you comment on the current recruitment and retention rates of 
the Army Guard and Reserve?
    Answer. LTG Schultz: The Army National Guard is at 77 percent of 
its accession mission to date for fiscal year 2005 (26181/34167). 
However, it has accomplished its retention mission at a rate of 103 
percent (18796/18231). Overall, the Army National Guard is at 98 
percent of its authorized strength. The accession mission is developed 
based partly on attrition rates from previous years. With its improved 
retention this fiscal year, the Army National Guard can achieve its 
endstrength requirements while still falling short of its accessions 
mission.
    Question. Has raising the maximum enlistment age from 35 to 39 led 
to an increase in the number of recruits?
    Answer. LTG Schultz: The ARNG has enlisted 101 Non Prior Service 
Soldiers who were 35-39 years old. This is relatively a small amount of 
accessions and there are no current marketing initiatives to penetrate 
this population. The Army National Guard anticipates the annual 
enlistments to be around the 600 mark.
    Question. What about pay incentives? Do you think increasing pay 
and benefits for the Guard and Reserve would be a helpful tool to 
recruiting?
    Answer. LTG Schultz: The Army National Guard is not unlike any 
other business in the open market, the higher the pay and incentives, 
the more recruits you have applying for the job regardless of the risk. 
The current economy has fewer eligible applicants being sought after by 
a larger and larger pool of businesses and governmental entities. It 
goes without saying, improving pay and incentives would show an 
increase in recruits.

              STRESS ON THE ACTIVE-DUTY AND RESERVE FORCE

    Question. Since September 2001, over a million active and reserve 
forces have been deployed. Of that, one-third have been deployed twice. 
The Pentagon's current policy sets a standard of one-year deployed for 
every three years of duty for active-duty forces and one-year in every 
5 to 6 years for reserve forces. Deployment data shows that over one-
third of the 457,000 Army active duty and Army National Guard and Army 
Reserve forces have been deployed more than once since September 2001. 
That suggests that DOD's current policy standards are not being met for 
a large share of Army forces.
    Assuming current force levels continue in fiscal year 2005 and 
fiscal year 2006, how many and what share of Army active duty and 
reserve forces will have been deployed: More than once? More than 
twice? Since 9/11?
    Answer. The number of Active and Reserve Soldiers who will be 
deployed more than once by the end of fiscal year 2006 is difficult to 
determine accurately at this early date. If today's statistics hold 
true throughout the next 18 months an increasingly larger number of 
Active Soldiers will deploy for a second time and third time while the 
Reserve Forces will continue to contribute but at a much lower rate due 
to two mitigating policies, the Office of the Secretary of Defense's 
limiting Partial Mobilization service to 24 cumulative months and the 
Army's 12 months ``boots on the ground'' policy. Combined these two 
policies will temper the reuse of our Reserve Component (RC) Soldiers.
    The Army estimates that approximately 185,500 Soldiers currently 
assigned to the Active Component will have or are currently deployed, 
whereas 258,000 currently assigned RC Soldiers have or are currently 
mobilized with the majority serving overseas and many less in support 
of an operation stateside but away from their homes. I emphasize that 
the RC figures are the total number mobilized of which the majority are 
or have deployed overseas. In order for an RC Soldier to be deployed to 
a combat zone more than once they must currently be a volunteer.
    Projecting current required deployment force levels to the end of 
fiscal year 2006 implies the Active Army number will grow to 
approximately 206,000 who have deployed for at least one six month or 
longer period. Of these, 18,700 (3.8 percent) will have deployed twice 
and 370 (less than .1 percent of AC assigned strength) will have 
deployed three times.
    The number of Reserve of the Army Personnel who have been mobilized 
more than once is approximately 46,000 (8.7 percent), mobilized more 
than twice is approximately 7,500 (1.4 percent) of the present 
population. The vast majority of these Soldiers volunteered to be 
remobilized. By the end of fiscal year 2006, the percentage should not 
be significantly changed based upon the policies already cited. These 
projections are only estimates.
    Question. Assuming, conservatively, that current force levels 
continue, could DOD meet its stated standards for active and reserve 
forces in: fiscal year 2005? fiscal year 2006? fiscal year 2007?
    Answer. As the Army begins its third major rotation of forces to 
Iraq and its seventh major rotation of forces to Afghanistan, we remain 
committed to meeting CENTCOM requirements for trained and ready forces. 
The Army will continue to adapt to ensure our nation's success in what 
will be a continued War on Terrorism. We are pursuing polices and 
initiatives focused on providing the active duty force necessary to 
meet global force commitments and to increase the dwell times for 
deploying units in order to attain the DOD standard. The centerpiece of 
these efforts has been the transformation of the current Active 
Component (AC) and RC force to a 21st century modular force, and the 
expansion of the AC combat force structure from 33 brigades to 43 
brigades. These efforts create a larger force of more capable brigade 
combat teams, relieving some of the stress of current force 
requirements. Another initiative aimed at increasing dwell time is the 
Army Force Generation (ARFORGEN) readiness model. ARFORGEN establishes 
a three year cycle for AC units, which includes the availability for 
one deployment in three years and a six year cycle for RC units, which 
includes availability for one year of deployment in six years. The 
initial application of ARFORGEN will focus on the BCT. Application of 
ARFORGEN for echelons above brigade CS/CSS units is more difficult and 
will be dealt with in subsequent applications of ARFORGEN as force 
requirements permit. Additional efforts to increase dwell include 
contracting logistics requirements, utilizing ``in lieu of'' 
substitutions for force requirements, and accelerated rebalancing of AC 
and RC forces to replace low demand units with high demand units (i.e. 
changing RC field artillery units to military police units). The 
projected result of these initiatives is an increase in average dwell 
time for active component forces from the OIF/OEF 04-06 to OIF/OEF 05-
07, OIF /OEF 06-08, and OIF 07-09.
    Sustaining the Army's current level of commitment presents several 
challenges. Successive year-long combat rotations have had an impact on 
overall Army readiness. Moreover supplying the necessary Combat Support 
and Combat Service Support (CS/CSS) capabilities to our coalition 
forces has become increasingly difficult with each rotation, causing 
the Army to adopt new and innovative sourcing solutions. In order to 
maintain current force levels the Army has had to increase the 
operational tempo (OPTEMPO) for active duty forces deploying most units 
with dwell time less than the two year DOD goal. These challenges, 
while significant, are manageable, but the DOD stated standards will 
not be achieved for a portion of the Force. Today the Army has been 
able to achieve an average dwell time peak of 19 months between regular 
Army Brigade Combat Team (BCT) rotations. The length of Soldier's dwell 
time will decrease as the Army loses access to Reserve Component (RC) 
BCTs as well as other High Demand/Low Density RC formations:
    As a rule RC utilization continues to meet the DOD stated standard, 
with involuntary redeployment of personnel to a contingency operation 
being the exception. Maintaining the current level of force commitments 
will require the remobilization of selected RC units, however every 
effort will be made to fill these units with personnel who have not 
deployed to a contingency operation or personnel who volunteer for 
redeployment to a contingency operation. Maintaining the current force 
levels will require the continued deployment of forces at less than the 
two year DOD goal. However, the Army is taking steps to increase active 
duty unit dwell time.
    Iraqi Security Forces continue to improve and accept a growing 
share of the security responsibilities. As Iraqi Security Forces 
achieve the ability to conduct independent operations, the requirements 
for U.S. forces will begin to decrease. Potential force reductions 
would result in greater average dwell times for the OIF/OEF 07-09 
rotation.
    While the OPTEMPO for Army units has been high for the last three 
years, a combination of Army initiatives and potential decreases in 
force requirements should reduce the stress on the force. The Army 
remains committed to achieving the DOD standard of one deployment in 
three years for AC forces and one deployment in six years for RC forces 
and will take all measures possible towards that goal.

                           ARMY RESTRUCTURING

    Question. The Army requested $4.6 billion in the fiscal year 2005 
Supplemental for ``modularity,'' or force restructuring at the brigade-
level. The Army first announced this modularity initiative in August 
2003 with a plan to create between 43 to 48 units of action by 2007.
    While the $4.6 billion for the Army's modularity initiative may be 
necessary, why was it not included in the President's fiscal year 2006 
base budget?
    Answer. The Army developed estimates for the Army Modular force 
after reviewing the specific equipment and facility needs to those 
units planned for conversion. The fiscal year 2005 supplemental 
supports only those equipment requirements for these near term 
deployers, both active and Reserve Component. The accelerated process 
of the supplemental when compared to the normal budget process--a 
matter of months compared to almost two years--permits us to more 
precisely determine our requirements in this very dynamic environment. 
We have programmed for modularity requirements beginning in fiscal year 
2007 when we will have more certainty of our deployment schedules and 
associated equipment and facility needs.
    Question. I would also be very interested to know where you plan to 
request modularity funding next year: In the fiscal year 2007 base 
budget or in another supplemental?
    Answer. We have realigned a portion of the fiscal year 2006 PB to 
support Army Modular Forces, and expect to need an additional $5 
billion in an fiscal year 2006 supplemental for investment items and $3 
billion for fully-burdened personnel costs. From fiscal year 2007 
through fiscal year 2011, the Army base program will fund the remaining 
requirements for the Army Modular Force, not to include personnel 
costs. Upon return from operations in Iraq, the Army anticipates it 
will need $4 billion per year from the end of the conflict plus two 
years to fully reset its equipment to mission capable standards.
    Question. On a different note, as you move to reorganize the Army 
into faster, smaller, and more mobile combat units, concerns have been 
raised that this would lead to a loss of ``armor and firepower'' and 
the ability to wage more conventional warfare. In addition, I 
understand that this restructuring is based on the assumption that 
there is no need to permanently increase troop endstrength.
    How will the transition from a Division-centric force to a Brigade-
centric force affect our ability to engage in not only non-
conventional, but conventional warfare?
    Answer. The Army Modular Force Brigade Combat Team (BCT) is full-
spectrum capable in major combat operations, stability and support 
operations. The modular BCT has equal and in many ways greater 
capability to engage in conventional and unconventional warfare 
compared to a division-based brigade. Fundamentally, the modular BCT is 
a more informed, agile, cohesive, combined-arms team. The modular heavy 
BCT retains the M1A2 Abrams tank, the M2A3 Bradley Fighting Vehicle, 
and the M109A6 Paladin self-propelled howitzer. Instead of 3 battalions 
of 3 companies in the non-standardized baseline, every BCT has 2 
battalion task forces of 5 companies (2 armor, 2 infantry, 1 engineer). 
Instead of 3 batteries of 6 field artillery systems, there are 2 
batteries of 8 guns. This is a comparable level of armor, infantry and 
firepower, but the BCT has significantly increased intelligence, 
surveillance, reconnaissance and communication capabilities that were 
formerly found at division-level. The modular BCT has an entire Armed 
Recon Squadron,18 more UAVs, a company of Military Intelligence 
analysts, and a Signal company with greater network connectivity and 
space-based access to Joint intelligence. With improved network-enabled 
battle command and Future Combat Systems spiral acceleration, leaders 
have greater quality of information, ability to collaborate and 
coordinate, improved situational understanding, and greater agility to 
seize opportunities on the battlefield to fight on the most favorable 
terms. A RAND study has shown these network-centric capabilities in the 
modular Stryker BCT increased mission effectiveness and reduced 
casualties by a factor of 10 during urban operations at the Joint 
Readiness Training Center. Adding capability for unconventional 
warfare, the BCT has more human intelligence and robust command posts, 
with planning expertise in civil affairs, psychological, public affairs 
and information operations. Thus the modular BCT improves capability 
for unconventional warfare while retaining conventional overmatch 
against any current threat. This force structure also offers the 
optimum capability balance for the new strategic context of continuous 
full-spectrum operations in persistent conflict. 43-48 active component 
BCTs and assured, predictable access to 34 reserve component BCTs 
provides the rotational base needed to meet Army strategic 
requirements, including the Global War on Terror, and preserve the 
quality of the All Volunteer Force. The Army will address the question 
of end-strength within the on-going QDR and the Army Campaign Plan.
    Question. You have also suggested that you plan to re-train about 
100,000 soldiers, or 10 percent of the current force, in order to 
better position the Army for the combat challenges it will face today 
and in the future.
    While I agree that it makes sense at some level to re-train 
soldiers based on our current needs, would it not, in the long-term, be 
more cost-efficient and practical to simply increase troop endstrength, 
rather than attempt to solve the shortages by potentially creating new 
ones?
    Answer. The Army had cold war capabilities that were no longer 
relevant for the current strategic environment. Our rebalancing 
adjusted this existing force structure to provide a more ready force 
properly balanced and postured as a full joint war fighting partner. 
Rebalancing as part of the Transformation process will posture the Army 
to better fight the Global War on Terrorism. Additionally, the 
temporary 30,000 end strength increase allows the Army to continue to 
transform while sustaining its current level of operational 
commitments. A permanent increase in troop end strength is based on 
many factors including the defense strategy, Combatant Commander Force 
requirements and other factors.

                ABUSE OF IRAQI FEMALE PRISONERS IN IRAQ

    Question. Last time you appeared before us in February, Senator 
Leahy and I both asked you a question about whether you were aware of 
any mistreatment of female Iraqi prisoners by U.S. forces in Iraq--
allegations that included assault and rape. At the time you promised to 
``get back to us and get the answer for the record.''
    I have yet to receive a response to this question so I will ask you 
again--Secretary Rumsfeld, are you aware of any mistreatment of Iraqi 
women prisoners, including allegations of sexual abuse?
    Answer. I transmitted the following to Congress on April 27, 2005 
in response to questions for the record from my appearance before the 
Senate Appropriations Committee on February 16, 2005.
    The Department of Defense investigates all allegations of abuse of 
detainees. There have been four investigations into allegations of 
sexual misconduct involving female detainees. The investigations are 
described below:
    (1) The Taguba Report included an incident where 3 soldiers took a 
female detainee to another area of Abu Ghraib. There was an allegation 
of sexual assault in which the detainee's blouse was removed and one 
soldier apparently kissed the detainee. An investigation concerning 
this incident was opened. The soldiers involved were assigned to the 
519th Military Intelligence Battalion, Fort Bragg, NC. Initially, the 
soldiers were charged with sexual assault, conspiracy, maltreatment of 
a prisoner and communicating a threat (for allegedly telling a female 
detainee that she would be left in the cell with a naked male 
detainee). The investigation was closed as a result of insufficient 
evidence to prove or disprove the allegations. However, the unit 
commander determined that the soldiers violated a unit policy that 
prohibits male soldiers from interviewing female detainees. The 
soldiers received non-judicial punishment under Article 15 of the 
Uniform Code of Military Justice (UCMJ) for violation of a lawful 
regulation or order, (Article 92, UCMJ). A Sergeant was reduced from 
the grade of E-5 to the grade of Specialist, E-4 and forfeited $500 of 
his pay and allowances for one month; a Specialist, was reduced from 
the grade of E-4 to the grade of Private First Class, E-3 (the 
reduction was suspended), and also forfeited $750 of his pay and 
allowances for one month; and a second Specialist was reduced from the 
grade of E-4 to the grade of Private First Class, E-3 and forfeited 
$500 of his pay and allowances for one month.
    (2) The Taguba Report includes a statement that a male MP Guard had 
sex with a female detainee. The witness statement references a video of 
Private Graner having sex with a female in the prison. After an 
extensive investigation into the allegations of abuse by Private Graner 
and others at the Abu Ghraib prison, there has been no evidence 
uncovered that establishes that Private Graner had sexual intercourse 
with female detainees.
    An allegation was substantiated against Private Graner, however, 
for photographing a female detainee exposing her breasts. On January 
10, 2005, Private Graner was convicted by a ten-member enlisted panel 
at a General Court-martial for numerous offenses stemming from his 
abuse of detainees while stationed as a guard at Abu Ghraib prison. 
Included in the charges was a multi-specification charge of Dereliction 
of Duty which included one specification alleging that ``[t]he accused 
photographed a female detainee exposing her breasts.'' Private Graner 
was found guilty of this specification. He was sentenced on all the 
charges to which he was found guilty and sentenced to reduction from 
the grade of Staff Sergeant, E-6, to the lowest enlisted grade, 
Private, E-1, to total forfeitures of pay and allowances, to 
confinement for 10 years, and to a Dishonorable Discharge.
    (3) A 75-year old Iraqi female alleged she was captured and 
detained for 10 days and claimed that she was robbed, sodomized, 
indecently assaulted and deprived of food and water at a remote 
location. The woman described her captors as American Coalition Forces 
but could not provide any further descriptions of the personnel 
allegedly involved. The investigation was initially closed for 
insufficient evidence, but has since been re-opened for further 
investigation after the identification of additional leads.
    (4) A female detainee alleged she was raped and knifed in the back 
by unknown U.S. personnel at the Baghdad Central Confinement Facility. 
These allegations were reported via a newspaper article in the Los 
Angeles Times. Following the publication of the article, CID opened an 
investigation and attempted to locate the alleged victim and her 
attorney. CID coordinated with the Iraqi Ministry of Justice and made 
numerous attempts to locate witnesses for information. After extensive 
efforts, CID closed the investigation as a result of insufficient 
evidence either to identify potential suspects or to prove or disprove 
the allegations.

                     WITHDRAWAL OF TROOPS FROM IRAQ

    Question. General George Casey stated on CNN's ``Late Edition'' in 
March that there would likely be ``very substantial reductions in the 
size of our forces'' in Iraq by March 2006.
    Does the Pentagon have a timetable for withdrawing troops in Iraq?
    Answer. The President has stated on numerous occasions that 
Coalition forces will remain in Iraq until the mission of stabilizing 
the country is complete. Articulating a detailed plan for withdrawal 
before we have completed this mission would undermine confidence in our 
commitment to defeating the terrorists in Iraq. To create such doubts 
about American resolve would only lead to increased attacks against 
U.S. forces in Iraq, and likely to more attacks against Americans 
throughout the world. It is far more important, therefore, to focus on 
the objectives we are trying to achieve rather than set arbitrary 
deadlines.
    Question. Do you agree with General Casey's assessment that there 
will be a ``substantial reduction'' of our forces in Iraq within a 
year?
    Answer. General Casey's full statement was: ``By this time next 
year . . . Assuming that the political process continues to go 
positively, and the Sunni are included in the political process, and 
the Iraqi army continues to progress and develop as we think it will, 
we should be able to take some fairly substantial reductions in the 
size of our forces.''
    I agree that if at this time next year the political process and 
security situation in Iraq met the standards of success as defined by 
the President, we will be able to make some reduction in the size of 
our forces in Iraq. However, it is far more important that we focus on 
achieving our objectives of helping the Iraqi people to create a stable 
and secure Iraq than on setting arbitrary deadlines.

                         F/A-22 RAPTOR PROGRAM

    Question. The Pentagon's budget request would prematurely terminate 
the procurement program for the F/A-22 Raptor by fiscal year 2008, 
ending with the production of 179 planes rather than the original 
production request of up to 750 aircraft through fiscal year 2011.
    Can you tell me if the Pentagon still plans to end the F/A-22 
program early? If so, why?
    Answer. The President's Budget for fiscal year 2006 allocates 
funding for production of F/A-22 aircraft through fiscal year 2008. In 
making this recommendation to the President, senior members of the 
Department of Defense considered the full range of investments underway 
in air dominance (F/A-22, F-35, Joint Unmanned Combat Air System, F/A-
18 E/F/G, and the networks to link them). The Secretary decided to 
continue funding production of the F/A-22 through fiscal year 2008 to 
provide the nation a significant number of F/A-22s in the overall mix 
of systems. The Secretary also decided to continue the F/A-22 
modernization effort to provide the airplanes with a broad range of 
attack capabilities.
    The Secretary has committed to a discussion of joint air dominance 
capabilities in the context of the Quadrennial Defense Review. All 
systems' contributions to joint air dominance will be assessed to 
determine how the investment plan balances 
near-, mid-, and far-term risks.
    Question. How much money does the Pentagon expect to save by ending 
procurement of the F/A-22 by fiscal year 2008?
    Answer. The President's Budget for fiscal year 2006 cut the F/A-22 
program by $10.5 billion. These savings will be partially offset by the 
cost to extend the service life of existing aircraft, or procure new 
aircraft to provide the required capability. There may also be some 
cost impacts on other programs, including the Joint Strike Fighter, 
because Lockheed-Martin's facilities share overhead rates.
    Question. Is this number based on an estimated cost of $250 million 
per aircraft?
    Answer. The President's Budget for fiscal year 2006 reduced the F/
A-22 program by $10.5 billion and the procurement quantity by 96 
aircraft. The 96 aircraft reduction is based on an average Unit Flyaway 
Cost per aircraft of $109 million.

                             C-130J PROGRAM

    Question. I have been informed that the Pentagon estimates that 
ending this program early will save $3.5 billion. Nevertheless, it is 
my understanding that it will cost in the region of $1 billion simply 
to cancel the contract.
    Does the Pentagon still plan on completing the C-130J program in 
fiscal year 2006?
    Answer. No. As I notified the congressional defense committees, we 
have carefully reviewed our decision to terminate the C-130J program, 
and we believe it is in the best interests of the Department to 
complete the multi-year contract.
    Question. Considering that 30 older C-130s were recently grounded 
by the Air Force due to cracks on the exterior of the planes, do you 
anticipate that the Air Force and Navy will have the necessary number 
of cargo aircraft to fulfill their current and future missions?
    Answer. Though operations in the global war on terror have added 
stress to our mobility resources, we currently have enough C-130 
aircraft to accomplish our ongoing intra-theater airlift mission. We 
are assessing the Mobility Capabilities Study (MCS), which is providing 
insights into the right mix of airlift, sealift, air refueling, and 
pre-positioning assets to meet future challenges. In a follow-on study 
to MCS, we are examining future force requirements for intra-theater 
airlift within the context of the Quadrennial Defense Review. We expect 
these analyses to provide a foundation for future C-130 fleet 
recapitalization decisions.

                          GLOBAL HAWK PROGRAM

    Question. I'd like to ask a question about the Global Hawk, which 
is based at Beale Air Force Base in California. This aircraft flies 
very high, very fast, for long periods of time with large powerful 
sensors--I understand that a single Global Hawk could have surveyed the 
entire area devastated by the recent Tsunami in Asia on a single 
mission. It has also performed to rave reviews as part of surveillance 
operations in Iraq. I understand that one Global Hawk identified 55 
percent of time-sensitive air defense targets destroyed during 
Operation Iraqi Freedom.
    Is the Global Hawk something the Combatant Commanders have been 
requesting for operations?
    Answer. Yes. Since September 11, 2001, we have received three 
separate Global Hawk Request For Forces from the Commander, United 
States Central Command. Additionally, the regional Combatant Commanders 
have highlighted a collective requirement for a persistent platform 
with robust Intelligence, Surveillance and Reconnaissance capabilities 
through their Integrated Priority Lists. Global Hawk is the only system 
currently programmed that will be capable of fulfilling this 
requirement.
    Question. Has the Pentagon looked at accelerating delivery of this 
vital capability?
    Answer. The Department of Defense is incrementally fielding 
capability as soon as it becomes available. In addition, we are 
examining ways to accelerate our testing approach. Finally, and most 
importantly, we are on track to deploy our first two production 
aircraft later this summer to augment or replace our deployed Advanced 
Concept Technology Demonstration aircraft currently supporting the 
Global War on Terrorism.

                    ROBUST NUCLEAR EARTH PENETRATOR

    Question. At the March 2, 2005 House Armed Services Strategic 
Forces Subcommittee, Congresswoman Ellen Tauscher asked Ambassador 
Linton Brooks of the National Nuclear Security Administration the 
following question: ``I just want to know is there any way a [Robust 
Nuclear Earth Penetrator] of any size that we would drop will not 
produce a huge amount of radioactive debris?
    Answer. The amount of radioactive debris is commensurate with the 
yield of the weapon.
    Question. Ambassador Brooks replied: ``No, there is not.'' When 
Congresswoman Tauscher asked him how deep he thought a bunker buster 
could go he answered: ``. . . a couple of tens of meters maybe. I mean 
certainly--I really must apologize for my lack of precision if we in 
the administration have suggested that it was possible to have a bomb 
that penetrated far enough to trap all fallout. I don't believe that--I 
don't believe the laws of physics will ever let that be true.''
    Do you agree? If so, why should we move forward with the 
development of a nuclear bunker buster that inevitably will spew 
millions of cubic feet of radioactive debris in the atmosphere?
    Answer. I agree that a nuclear penetrator will never attain a depth 
to prevent all fallout. The recent National Academy of Sciences report 
on Earth Penetrating Weapons (EPWs) is entirely consistent with our 
long understanding of the capabilities and limitations of such a 
weapon. The downward shock multiplying effect of shallow penetration 
led us to field the B61-11 EPW in the 1990's and various precision 
conventional munitions in the last decade to address a growing threat 
from sanctuaries provided by a wide range of Hard and Deeply Buried 
Targets (HBDTs).
    At the present time, the nuclear weapon stockpile consists of 
weapons that were designed for Cold War missions. In order to place at 
risk most of the known HDBTs that are beyond our conventional earth 
penetration capability, our only option is a surface burst nuclear 
weapon 10 to 50 times more powerful than an equally effective nuclear 
earth penetrator, depending on the structural character of the target. 
Accordingly, the fallout is 10 to 50 times less for the smaller RNEP 
weapon.
    A serious shortfall in capability against HDBTs remains today. The 
completion of the RNEP study is necessary if we are to address all 
plausible capabilities to satisfy validated requirements and meet the 
President's direction for options to halt confidently a WMD attack on 
U.S. territory, troops, Allies, and friends, launched or supported from 
HDBT sanctuaries.

                        NATIONAL MISSILE DEFENSE

    Question. President Bush has requested $9 billion for missile 
defense for fiscal year 2006. The United States has spent $92 million 
on missile defense since 1983 and the Administration anticipates 
spending an additional $58 billion over the next six years. Some 
experts put the overall price tag at well over $150 million.
    Given the number of national defense priorities we face--providing 
for non-proliferation activities, deterrence, homeland security--how do 
you justify spending so much on missile defense?
    Answer. The threat to the United States, its deployed forces 
overseas, and its friends and allies from ballistic missile attack is a 
real one. Combined with the proliferation of weapons of mass 
destruction, this threat must be addressed, and our ballistic missile 
defense program is designed to do so.
    Since 1984, I understand that we've spent a little more than 1 
percent of our total Defense budget on ballistic missile defense. When 
one considers that we now have an initial capability to destroy 
incoming long-range missiles where before we had absolutely none, the 
money we have invested to develop this capability has been well spent. 
It is also worth noting that the Government Accountability Office has 
estimated that the damage from the attacks of September 11, 2001 cost 
the nation $83 billion. An attack by even a single ballistic missile 
equipped with weapons of mass destruction could no doubt cost the 
nation far more than that.
    Additionally, Department of Defense funding has contributed to the 
fielding of ground and sea based defenses to protect U.S. and allied 
forces from short and medium range missiles. The Patriot Advanced 
Capability-3 system, for example, performed successfully in an 
operational environment during Operation Iraqi Freedom, successfully 
intercepting and destroying enemy missiles in every engagement.
    I agree that non-proliferation, deterrence, and homeland security 
are all important defense priorities, and the Department is working to 
address each. In fact, as part of the New Triad, which combines active 
defenses with strike capabilities and a responsive infrastructure, our 
ballistic missile defense program plays an important role in stemming 
the spread of weapons of mass destruction, deterring our adversaries 
from attacking the United States with ballistic missiles, and defending 
the homeland in the event of a ballistic missile attack.
    Question. The missile defense system experienced two test failures 
in December, 2004 and February, 2005. The system was not declared 
operational at the end of 2004 as had been planned by the 
Administration.
    What criteria will you use to determine whether or not the system 
will be declared operational? When do you believe this will occur? Will 
you move forward with declaring the system operational if future tests 
fail?
    Answer. We have fielded the initial set of capabilities necessary 
to shoot down an incoming ballistic missile. The system is currently in 
a ``shakedown period'' under which our crews are gaining valuable 
experience in operating the system, and should some threat arise, we 
could transition the system from a test phase to an operational phase 
in a short period of time.
    A decision to put the system on a higher level of alert will be 
based on a number of factions. These factors include: the advice I 
receive from the Combatant Commanders, and other senior officials of 
the Department; our confidence in the operational procedures we have 
developed; demonstrated performance during both ground and flight 
tests; modeling and simulation; and the threat.
                                 ______
                                 
            Questions Submitted to General Richard B. Myers
            Questions Submitted by Senator Patrick J. Leahy

    Question. What type of submunition will the Army and Marine's 
Guided Multiple Launch Rocket System (GMLRS) carry? Will it have a 
self-destruct mechanism? What is its predicted failure rate?
    Answer. The M-30 Guided Multiple-Launch Rocket System (GMLRS) 
carries dual-purpose improved conventional munitions (DPICM) 
submunitions equipped with mechanical fuzes. A self-destruct fuze is 
not currently available to support production in fiscal year 2006. In 
operational testing, the dud rate at ranges between 20-60 kilometers 
was 1.8 percent, and the average dud rate of all other ranges (less 
than 20 kilometers and greater than 60 kilometers) was 3.65 percent.
    Question. Of the 1,026 (Army) and 648 (Marines) GMLRS rockets 
requested, how many would have unitary warheads and how many would 
carry submunitions?
    Answer. All M-30 GMLRS rockets procured in fiscal year 2006 will be 
equipped with DPICM submunitions. In accordance with fiscal year 2005 
appropriations language directing unitary munitions procurement 
acceleration, 486 GMLRS unitary variants with a two-mode fuze are being 
procured under a low-rate initial production (LRIP-II) contract. This 
unitary variant will be available in fiscal year 2007.
    Question. In February 2003 the Army awarded a contract to 
manufacture 500,000 self-destruct fuzes for 105 mm M915 artillery 
shells yet it has requested no money to retrofit those weapons. Why?
    Answer. The self-destruct fuze effort for the 105 mm M915 is new 
production, and, therefore, money for retrofit is not required.
    Question. Why was the Army's fiscal year 2005 request for money to 
retrofit 155 mm projectiles carrying submunitions with self-destruct 
devices cut from $42.2 million to $17.9 million in the final 
Appropriations Act?
    Answer. Fiscal year 2005 funding was redirected from 155 mm self-
destruct fuze retrofit because technological progress in the production 
of electronic self-destruct fuzing has not matured at the pace 
initially anticipated.
    Question. Were the 2,000 Hydra 70 MPSM HE M261 rockets requested by 
the Army in fiscal year 2005 actually procured?
    Answer. No. While the fiscal year 2005 budget request for Hydra 70 
rockets included an overall quantity of 176,000 for the Army, none of 
the requested munitions were of the multi-purpose submunition high 
explosive (MPSM HE) M261 variant. The Army's move to ``smarter'' Hydra 
70 rockets led to a realignment of overall Hydra funding and the end of 
procuring the MPSM HE M261 cluster munitions after fiscal year 2003.
    Question. Why did the Air Force decide not to request procurement 
money for the Wind Corrected Munitions Dispenser (WCMD) this year?
    Answer. The Air Force weighed its procurement priorities and chose 
to terminate the Wind Corrected Munitions Dispense--Extended Range 
(WCMD-ER) production starting in fiscal year 2006. While WCMD-ER would 
provide improvements over the existing WCMD inventory, the Air Force 
determined that WCMD-ER was not as important as other Air Force 
priorities.
    The Department of Defense continues to procure cluster munitions in 
the form of sensor fuzed weapons (SFW) for targets requiring cluster 
effects and also continues to evaluate the need for cluster munitions.
    Question. Why did the Secretary of Defense cut funding for the Air 
Force's WCMD-Extended Range in the Program Budget Decision, December 
2004?
    Answer. In the President's Budget for 2006, critical budget 
shortfalls were balanced, and the Department of the Air Force 
identified WCMD-ER for termination. While WCMD-ER would provide 
improvements over the existing WCMD inventory, the Department balanced 
the continued modification in light of other priorities.
    The Department of Defense continues to procure cluster munitions in 
the form of SFW for targets requiring cluster efforts and also 
continues to evaluate the need for cluster munitions.
    Question. Has the Air Force evaluated the performance of the CBU-
105 (Sensor Fuzed Weapon) in Iraq? Does it plan to do so?
    Answer. The Air Force has employed 68 CBU-105s in Operation IRAQI 
FREEDOM. Formal performance measures have not been collected due to the 
difficult nature of post-attack assessments of SFW submunitions. 
Assessment is difficult because the small projectiles do not leave 
readily identifiable damage other than small holes. Additionally, many 
CBU-105 targets were either completely destroyed or moved from their 
original locations by the Iraqi army. Anecdotally, the Air Force has 
received informal feedback from various credible sources in the field 
on CBU-105 performance, and it has all been extremely positive.
    Question. What weapon will the 15 CBU-87 cluster bomb dispensers 
the Air Force requested this year be used for?
    Answer. The 15 CBU-87(T-3)/B bomb dispensers requested are inert 
dispensers for use as air training munitions used in conjunction with 
the BLU-97(D-4)/B. The ``T-3'' nomenclature indicates a CBU-87 
dispenser equipped with a proximity sensor that initiates canister 
opening and dispersion of inert BLU-97(D-4)/B test submunition. The 
BLU-97 provides realistic training and evaluation of dispenser and 
munitions characteristics and can be dropped from a variety of 
aircraft.

                          SUBCOMMITTEE RECESS

    Senator Stevens. Thank you very much. Our next subcommittee 
meeting will be a closed session this afternoon at 2:30 to 
discuss classified programs in the 2006 budget. Our next open 
session will be Tuesday, May 10, at 10 a.m., when we will 
receive testimony on the defense medical programs.
    The subcommittee stands in recess. We thank you all for 
your attendance.
    Thank you.
    [Whereupon, at 12:25 p.m., Wednesday, April 27, the 
subcommittee was recessed, to reconvene at 10 a.m., Tuesday, 
May 10.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                         TUESDAY, MAY 10, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:07 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Inouye, and Mikulski.

                         DEPARTMENT OF DEFENSE

                            Medical Programs

STATEMENT OF LIEUTENANT GENERAL KEVIN C. KILEY, M.D., 
            SURGEON GENERAL, DEPARTMENT OF THE ARMY

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. My apologies, gentlemen. Too many 
telephones and e-mails. It is one of those things.
    We do welcome you to our hearing today to review the 
Department of Defense (DOD) medical programs. We have two 
panels scheduled. First, we will hear from the Surgeons 
General, followed by the Chiefs of the Nursing Corps. Joining 
us today from the Army, we have Surgeon General Kevin Kiley and 
Admiral Donald Arthur from the Navy. We welcome you both in 
your first hearing before us and look forward to working with 
you closely. We welcome back General Peach Taylor from the Air 
Force.
    The President's fiscal year 2006 request for the defense 
health program is $19.8 billion, an 8.9 percent increase over 
fiscal year 2005. The request provides for health care for over 
8.9 million beneficiaries and the operation of 70 inpatient 
facilities and 1,085 clinics.
    Despite the increase for this year's funding, the 
subcommittee remains concerned that the funding may not be 
sufficient to meet all of the requirements. We recognize that 
the continuing conflict in Iraq and the global war on 
terrorism, along with rising costs of prescription drugs and 
related medical services, will continue to strain your 
financial resources requested in this budget. And they will 
place a demand on our medical service providers, both those 
deployed in combat and those manning the posts here at home.
    Senator Inouye and I are familiar with the value of 
military medicine, and we are interested in hearing from you 
regarding continuing operations.
    Let me yield to my good friend from Hawaii.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Thank you very much, Mr. Chairman. I want 
to join you in welcoming our witnesses this morning as we 
review the state of the Department's medical programs. General 
Taylor, we welcome you back to our subcommittee.
    It is our hope that this hearing will spotlight the 
numerous medical advances achieved by the men and women of the 
medical corps and also accelerate improvement and progress 
where it might be needed. The chairman and I, since World War 
II, have followed the advances in personnel protection and 
combat casualty care which have changed the fate of thousands 
of our military men and women.
    The improvements in battlefield protection and combat care 
have given our military the lowest level of combat deaths in 
history. While there is still regrettable loss of life in Iraq 
and Afghanistan, the fact that we are saving hundreds of lives, 
which could not have been saved in past military operations, is 
proof that these advances are paying off. Several factors 
contribute to this change, and we have read your testimony and 
you have outlined several of them, including medical training 
and facilities operated by the services.
    The training our medical personnel can receive cannot be 
equated with the private sector. One cannot deny that there are 
major differences in the medical requirements of our men and 
women serving in the military to the care required in your 
average civilian hospital. The personnel training and 
facilities of our medical system are all part of the elaborate 
network that feed off each other. Today these pieces are all 
connected and are continuing to make historic advances. 
However, it appears that this system could be on a brink of 
destruction.
    We have been told that there is a chance that the Uniformed 
Services University of Health Sciences and Walter Reed Medical 
Center are potential targets for the base realignment and 
closure (BRAC). I hope not, because I believe this would be a 
tragic mistake. Our military medical facilities are essential 
to winning the global war on terrorism, and as you may know, 
the Senate included language in the supplemental conference 
report directing that funding available to the Department of 
Defense should not be used to close any military medical 
facility which is conducting critical medical research or 
medical training or caring for wounded soldiers. It is our hope 
that this message is received by the Department loud and clear 
before the BRAC list is compiled.
    As a footnote to all of this, the chairman and I have, 
throughout the years, visited with our troops, and in each 
visit, we find that the major concern of all of them has been 
health care. Is my wife being cared for? Are the pediatricians 
working on my child? And I think we should keep in mind that 
there are many men and women who enlist because of the 
availability of health care.
    It is no secret that we are having problems at this time in 
recruiting and retaining, and if we take this benefit away, 
then I think we will have real problems. So we look forward to 
discussing this and many other issues that are crucial to the 
military medical system.
    Once again, I would like to thank the chairman for 
continuing to hold hearings on these issues that are important 
to our military and their families. I thank you very much, Mr. 
Chairman.
    Senator Stevens. Yes, sir.
    General Kiley, do you want to go first? We cannot figure 
out who should be first. Please, we would be glad to have your 
testimony.
    General Kiley. Sir, I would be happy to.
    Chairman Stevens, Senator Inouye, and distinguished members 
of the subcommittee, I am Lieutenant General Kevin Kiley, and I 
am honored to serve as the 41st Surgeon General of the United 
States Army.
    Our medical department, our Army Medical Department 
(AMEDD), is at war in support of our Army, defending our great 
Nation in the global war on terrorism. Since September 2001, 
the Army has been involved in the most prolonged period of 
combat operations since Vietnam. One key indicator of the 
success of our medical training, doctrine, and leadership is 
our casualty survivability. During Vietnam, approximately 24 
percent of all battle casualties died. As recently as Operation 
Desert Shield/Desert Storm, 22 percent of our battle casualties 
did not survive their wounds. In Operation Iraqi Freedom, less 
than 10 percent of these soldiers, marines, sailors, and airmen 
have died of their wounds.
    This improved survivability is due to superior training of 
our combat medics, leveraging technology to provide 
resuscitative surgical care far forward on the battlefield, the 
superb efforts of the Air Force's critical care aeromedical 
evacuation teams, and the advanced research and state-of-the-
art care available at our major medical centers such as 
Landstuhl, Walter Reed, Brooke, and Madigan, as well as other 
sister services.
    This phenomenal improvement in survivability is also due to 
great teamwork on the part of the three services, the United 
States (U.S.) medical industry, and the Members of Congress who 
have supported numerous advancements in combat casualty care. 
On behalf of the Army, I would like to thank you for your 
tremendous support over the years and tell you how much I look 
forward to working with this subcommittee to improve even 
further our ability to sustain the health of the Army family, 
whether it be in combat or at camps, posts, and stations around 
the world in support of the global war on terrorism.
    I would like to take a few minutes to explain how the 
entire Army Medical Department integrates its multiple 
functions to project and sustain a healthy and medically 
protected Army. We are most certainly an AMEDD at war. Since 
the spring of 2003, the Army has sustained a deployed 
population averaging 125,000 soldiers in Southwest Asia, while 
maintaining our global commitments around the world. We have 
mobilized more than 349,000 Reserve component soldiers.
    The demands placed on the Army Medical Department to 
support this effort across the entire spectrum of operations is 
significant. To support the deployed force, more than 36,000 
Army medics, physicians, nurses, dentists, allied health care 
professionals, health care administrators, and our enlisted 
personnel have deployed into Southwest Asia. Nearly 20,000 of 
these personnel are active duty component, and this total 
represents approximately half of the Army's active medical end 
strength not involved in long-term training, our residencies 
and internships. Many of these soldiers are deploying for the 
second time in 4 years. On the battlefield, they have provided 
care to more than 21,000 injured or ill soldiers who were 
evacuated from theater to Landstuhl Regional Medical Center and 
then hospitals in the United States, often within 1 or 2 days 
of injury, and have also cared for more than 16,000 Iraqi 
nationals, coalition soldiers, and U.S. civilians. Fifty-one 
AMEDD personnel have made the ultimate sacrifice in Iraq and 
Afghanistan.
    In theater, our Active and Reserve component medical units 
deliver a standard of care comparable to what soldiers and 
their families receive at our installations here in the United 
States. Technological advancements and improved aeromedical 
evacuation allow us to reduce our initial medical footprint in 
theater to 6 percent of the deployed force, down from 14 
percent in Operations Desert Shield and Storm. Innovative 
medical health care providers have introduced techniques 
normally found in major medical centers to our deployed combat 
support hospitals. As an example, Lieutenant Colonel Trip 
Buckenmaier pioneered the use of advanced regional anesthesia 
and pain management while deployed with the 31st Combat Support 
Hospital with tremendous success. This technique allows 
complicated surgical procedures to be performed on a conscious 
soldier using spinal anesthesia and nerve blocks. It holds 
great promise to improve patient recovery and minimize 
postoperative complications common with general anesthesia, 
certainly as well as making those soldiers much more 
comfortable.
    Back in the United States, our Army Medical Command 
supports the deployment of active component and mobilization 
and deployment of Reserve component units. Our medical 
treatment facilities conduct pre- and post-deployment medical 
screening to ensure soldiers are medically ready to deploy and 
to withstand the rigors of the modern battlefield. Nearly 
23,000 mobilized Reserve component soldiers have developed an 
illness or an injury during their mobilization that required 
the Army to place them in a medical holdover status. 
Approximately two-thirds of these soldiers are returned to the 
Army in a deployable status in an average time of approximately 
93 days from entering medical holdover.
    All of our major medical centers are engaged in providing 
the best possible treatment and rehabilitation to combat 
casualties. You are familiar with the tremendous care provided 
at Walter Reed Army Medical Center, but just as noteworthy is 
the care provided to wounded soldiers at William Beaumont, 
Womack, Madigan, Darnall, Eisenhower, and Tripler Army Medical 
Center, as well as some of our relatively smaller facilities at 
Forts Carson, Stewart, Riley, and Drum, among others.
    We recently expanded our medical amputee program to include 
a second amputee center at Brooke Army Medical Center in San 
Antonio, Texas. This center, collocated with the Institute for 
Surgical Research and the Army Burn Unit, will allow us to 
build upon the innovative care delivered at Walter Reed and to 
export advances in the treatment and rehabilitation of amputees 
and extremity injuries to not only military facilities but the 
rest of the medical community.
    During this period of unprecedented operational tempo, we 
have maintained and improved the quality of care we deliver to 
soldiers, their families, and our retirees. Despite less than 
100 percent backfill for deployed health care providers, we 
have maintained workload levels in our direct health care 
facilities. It is true that private sector workload is 
increasing, but not because we are doing less work at our 
facilities. As we have had to prioritize workload to support 
casualty care and deployment medical screening, family member 
and retiree care has, in some cases, shifted to the private 
sector. Additionally, families of mobilized Reserve component 
soldiers now have TRICARE available to them as their health 
insurance in many areas where military facilities do not exist 
or do not have the capacity to absorb the additional enrollees.
    We have also completed a successful transition to the next 
generation of TRICARE contracts. The reduction in the number of 
regions, a national enrollment database, and increased 
flexibility on the part of market managers, our military 
treatment facility (MTF) commanders, will greatly enhance our 
ability to support ongoing mobilization and deployments, Army 
transformation, and upcoming base realignment and closure 
decisions.
    In closing, I want to emphasize that the defense health 
program is a critical element of Army readiness. Healthy 
soldiers capable of withstanding the rigors of modern combat, 
who know their families have access to quality, affordable 
health care, and who are confident when they retire they will 
have access to that same quality health care, is an incredibly 
powerful weapons system. Every dollar invested in the defense 
health program does much more than just provide health 
insurance to the Department's beneficiaries. Each dollar is an 
investment in military readiness. In Operation Iraqi Freedom 
(OIF) and Operation Enduring Freedom (OEF), that investment has 
paid enormous dividends, and in my visits to Iraq, I can 
document that personally.

                           PREPARED STATEMENT

    Again, I would like to thank you for your past and future 
support and, sirs, I look forward to answering your questions. 
Thank you.
    Senator Stevens. Thank you very much, General.
    [The statement follows:]

        Prepared Statement of Lieutenant General Kevin C. Kiley

    Mr. Chairman and distinguished members of the Committee, thank you 
for your support of the Army Medical Department (AMEDD) which is 
providing world class care to Soldiers in Operations Enduring and Iraqi 
Freedom (OEF/OIF). Without your support we would not have had the 
resources to develop and refine multiple health care initiatives 
designed to enhance and improve medical care for Soldiers and their 
families before, during and after deployments. The AMEDD is at war and 
is spread around the world with an unprecedented operational tempo. I 
returned from my first visit to Iraq in mid-March and am extremely 
proud of the remarkable professionalism and compassionate performance 
of the entire AMEDD team in combat, preparing units for deployment and 
return, and maintaining the health of Soldiers, retirees, and their 
families at home.
    In Iraq and Afghanistan, the United States and our allies continue 
to struggle with forces opposed to freedom. Soldiers know that from the 
91W combat medic riding alongside them in convoy, to the aid station 
and combat support hospital, and throughout the evacuation chain to 
Landstuhl Regional Medical Center and on to home-station hospitals in 
the States, they will receive rapid, compassionate care from the 
world's best military medical force.
    Our medical force in Iraq and Afghanistan has saved hundreds of 
lives--Soldiers, civilians and even those who fight against us--due to 
remarkable battlefield techniques, patient transportation and 
aeromedical evacuation, and state-of-the-art equipment and personnel. 
Battlefield health care for OEF and OIF has been enhanced by placing 
state-of-the-art surgical and medical care far forward on the 
battlefield providing life saving care within minutes after injury. 
This far forward care is integrated with a responsive and specialized 
aeromedical evacuation that quickly moves patients to facilities for 
follow-on care. Improved disease prevention and environmental 
surveillance has reduced the rate of non-combat disease to the lowest 
level of any U.S. conflict. In OIF, more than 91 percent of all 
casualties survive their wounds, the highest survivability rate of any 
US conflict.
    We owe this improvement to several advancements. Improvements in 
tactics and protective equipment allow Soldiers to survive previously 
lethal injuries. The best trained combat medics and far forward 
resuscitative care, have also contributed to survivability. Our combat 
support hospitals in Iraq and Afghanistan support a full range of 
medical specialties, including many subspecialties like cardio-thoracic 
and neurosurgery. Technology now allows the Military Health System to 
deliver the same care available at Brooke Army Medical Center or Walter 
Reed in Mosul, Baghdad, or Kandahar. Today's Soldiers deserve better 
than essential life-saving care while deployed, they deserve the same 
superb quality care available to them and their families here in the 
United States. I am proud to say that we are doing just that today on 
the battlefields of Southwest Asia.
    I would like to highlight several ongoing successes. Since January 
2002, the U.S. Army Trauma Training Center, in association with the 
Ryder Trauma Center, University of Miami/Jackson Memorial Hospital, 
Miami, FL, has trained 32 Forward Surgical Teams and Combat Support 
Hospital surgical elements deploying in support of the Global War on 
Terrorism--more than 650 Active and Reserve Components (RC) healthcare 
providers. The training program has evolved to provide bonafide total 
team training to physicians, nurses, and medics, all focused on care of 
the acutely injured patient. This unique multidisciplinary pre-
deployment clinical training has displaced deployment ``on-the-job'' 
clinical training as the appropriate training method to ensure safe, 
effective combat casualty resuscitative surgery and care--it is 
clinical teamwork that makes a tremendously positive difference in care 
of the wounded. The Center is recognized as the Department of Defense 
(DOD) Center of Excellence for Combat Casualty Care Team Training and 
received the 2005 DOD Patient Safety Award for Team Training.
    Uncontrolled bleeding is a major cause of death in combat. About 50 
percent of those who die on the battlefield bleed to death in minutes, 
before they can be evacuated to an aid station. Tourniquets, new blood-
clotting bandages and injectable clot-stimulating medications are 
saving lives on the battlefield.
    All Soldiers are taught to stop bleeding as a Common Task, 
including applying a pressure dressing and a tourniquet, if needed. 
Currently all Soldiers have the means of using a tourniquet. The new 
Soldier Improved First Aid Kit (IFAK) includes a next-generation 
tourniquet. This tourniquet allows a trained, isolated Soldier to stop 
bleeding in an arm or leg. Between March 2003 and March 2005, U.S. Army 
Medical Materiel Center-Southwest Asia issued 58,163 tourniquets (four 
types) to CENTCOM-deployed units. Since April 1, 2004, a total of 
193,897 tourniquets have been issued to Army units deploying to 
theater. This includes 112,697 of two tourniquets proven 100 percent 
effective in control of severe bleeding (Combat Application Tourniquet 
or CAT and SOFTT). Beginning April 1, 2005 all new Soldiers will 
receive specific instruction on the CAT during Basic Combat Training. 
By the end of June 2005, deployed Soldiers without an approved 
tourniquet will all have received the CAT through the U.S. Army 
Medical Materiel Center-Southwest Asia, which placed an order for 
172,000 CATs and 56,000 SOFTTs in mid-March 2005. The vendors expect 
to fill the complete order of 228,000 by the end of June or earlier. In 
fact, by the end of April more than 121,000 of these tourniquets have 
been shipped to Qatar for distribution throughout the CENTCOM theater 
of operations. Soldiers deploying for the next rotation of OIF/OEF will 
either be issued the CAT as an individual item or the IFAK (which 
contains the CAT) through the Rapid Fielding Initiative (RFI) 
sponsored by Program Executive Office: Soldier.
    The U.S. Army Medical Research and Materiel Command continues to 
study a variety of agents which help control moderate to severe 
bleeding including a bandage made of chitosan (HemCon), a 
biodegradable carbohydrate found in the shells of shrimp, lobsters and 
other animals. Chitosan bonds with blood cells, forming a clot. 
Chitosan was shown to be effective in stopping or reducing bleeding in 
more than 90 percent of combat cases, without known complications. The 
Food and Drug Administration (FDA) cleared this bandage for use in 
November 2002. Army combat medics are using this bandage in Iraq and 
Afghanistan today.
    War is stressful for Soldiers and their families. The AMEDD has 
taken several steps to help minimize stresses associated with frequent, 
prolonged deployments. There are a wide array of mental health assets 
in Theater. These include Combat Stress Control teams and other mental 
health personnel assigned to combat units and hospitals. We have 
conducted three formal Mental Health Assessments, two in Iraq and one 
in Afghanistan. The reports of the most recent Assessments are pending 
DOD review and release.
    Soldiers receive post-deployment briefings as they return home 
focusing on the challenges of reintegration with families and 
employers. Soldiers are cautioned that their families have changed and 
grown, and that they may have a different role. They are also warned 
about possible symptoms of deployment-related stress, such as 
irritability, bad dreams, and emotional detachment.
    The post-deployment health assessment includes several mental 
health questions. The document is reviewed by a licensed healthcare 
provider. If Soldiers answer positively to the mental health questions, 
the provider may direct further evaluation and/or treatment.
    The Assistant Secretary of Defense (Health Affairs) recently 
announced a DOD policy to require all Service Members to receive a 
second post-deployment mental health assessment 90 to 120 days after 
redeployment. Soldiers may be hesitant to admit or are unsure they are 
experiencing mental health issues when they first return. They are more 
likely to develop or recognize problems and report them three to six 
months later, after the ``honeymoon'' period has worn off. We are 
working diligently to identify and assist Active, Reserve, and National 
Guard Soldiers who experience post-deployment difficulties. There is 
more work to be done in this area and we continue to refine and improve 
our ability to identify and provide early and effective treatment to 
Soldiers who are experiencing post deployment mental health issues.
    A Joint Theater Trauma Registry (JTTR) is now becoming a reality, 
modeled after the civilian standard established by Public Law 101-590, 
Trauma Care Systems Planning and Development Act. The JTTR pulls 
together the medical records of wounded (and deceased) Soldiers cared 
for in battlefield hospitals, and includes both their pre-hospital care 
and subsequent care in CONUS. When complete, the JTTR will present the 
most comprehensive picture of war wounds ever assembled. This medical 
database is invaluable for real-time situational awareness and medical 
research. By combining the JTTR with other personnel and operational 
databases, we anticipate its increased value will lead to improvements 
in Soldier Personal Protective Equipment (e.g. body armor), vehicle 
design, and small unit tactics.
    We remain committed to providing high quality, expert medical care 
to all Soldiers who become ill or injured in the line of duty. There is 
only one standard of medical care for all Soldiers regardless of 
Active, Reserve, or National Guard status. That is why we created the 
Medical Holdover (MHO) program. In an effort to report MHO patient data 
up and down the chain, we created a Medical Holdover module in our 
Medical Operational Data System (MODS), a proven system with robust 
capabilities for patient tracking and Soldier health reporting. Once we 
were convinced that the data was timely and accurate, we began to 
integrate data from other systems, eliminating so-called 
``stovepipes''. We started with Medical Evaluation Board (MEB) tracking 
data, and now have three more patient tracking and administrative 
systems feeding into MODS. Those measures were so successful that every 
Army major command involved in MHO operations now uses MODS as the sole 
source for information on MHO Soldiers. To further enhance MODS' 
capabilities, we expect to have pay and finance, and personnel data 
integrated over the next 90 days.
    Management and expeditious disposition of MHO Soldiers must balance 
a great number of factors. First, healing takes time. If all combat 
operations ceased today, we would still have MHO patients to care for 
one and one half years from now. Another factor is the simple fact that 
no one knows Soldier health care better than the AMEDD. We know best 
how to treat Soldiers, when Soldiers are fit to return to duty, and 
when they have to undergo a Medical Evaluation Board. For the RC 
Soldier, however, an Army MTF may be hundreds of miles away from home 
and typically, what a Soldier wants most when he or she returns from a 
deployment is to go home.
    In an effort to allow RC MHO Soldiers to receive care close to 
their homes, the Army developed the Community Based Health Care 
Initiative (CBHCI). CBHCI provides top quality health care for ill and 
injured RC Soldiers. It increases the Army's medical treatment, command 
and control, and billeting capacities. Thus, the CBHCI allows the Army 
to reunite Soldiers with their families. The principal instruments of 
the CBHCI are the Community Based Health Care Organizations (CBHCOs). 
These are units staffed primarily by mobilized National Guard Soldiers. 
Their mission is to provide case management for, and ensure command and 
control of healing RC Soldiers. The CBHCOs acquire health care from 
Army, Navy, and Air Force facilities; the VA; and the TRICARE network. 
They represent the Army's commitment to take care of our Soldiers and 
their families with speed and compassion.
    Accession of Health Care Professionals into our Active force is 
becoming a more significant challenge. We are starting to see a 
downturn in our Health Professions Scholarship applicants for both the 
Medical and Dental Corps. Since student scholarship programs are the 
bedrock of Army Medical Department accessions, I have directed my staff 
to closely monitor this trend. We rely on these scholarship programs 
because direct recruitment of fully qualified physicians, dentists and 
nurses is difficult due to the extremely competitive civilian market 
for these skill sets.
    Likewise I am concerned about the retention of health care 
professionals. Their successful retention is a combination of 
reasonable compensation, adequate administrative and support staffs, 
appropriate physical facilities, equity of deployments and family 
quality of life. Changes in Special Pay ceilings have allowed us to 
increase the rates we now offer physicians that sign a four year 
contract. We also have increased the dollar amount that we pay our 
Certified Registered Nurse Anesthetists to improve their retention 
rates. We will continue to evaluate and adjust rates to improve our 
retention efforts. At the same time, we have developed and implemented 
programs to affect the non-monetary issues positively effecting 
retention. We have implemented policies that ensure equity of 
deployments by maximizing our deployment pool, providing adequate 
notification of impending deployment, and providing a predictable 
period of family separation. All of these assist us in the retention of 
our active component medical force.
    The Commander, U.S. Army Recruiting Command and I are working 
diligently toward the establishment and implementation of new and 
enhanced initiatives to reverse these emerging trends. Some of these 
include increasing the recruitment of Physician Assistants; the 
development of a program to allow serving officers to obtain a Bachelor 
of Science in Nursing and the direct involvement of my senior medical 
and dental consultants in the recruitment effort to continue to tell 
the story of the practice of Army Medicine. Of equal concern to me are 
the recruitment challenges facing the Army Reserve and National Guard. 
I fully support all of the actions being taken by the Chief of the Army 
Reserve (CAR), LTG Helmly, and the Director, National Guard Bureau, LTG 
Schultz) as they deal with the unique issues surrounding Army Reserve 
recruitment efforts in the current operational environment.
    As with Recruitment, my staff and I continue to work hand in hand 
with the CAR and the Director of the Army National Guard to determine 
programs necessary for adequate retention. RC Soldiers have continually 
answered the call to service and it is critical that we develop the 
appropriate programs to ensure that their expertise and experience are 
not lost. Considering that over 50 percent of the total Army medical 
force is in the Reserve Components, issues surrounding the financial 
and family impact of extended and recurring deployments must be 
addressed and resolved if we are to retain a viable medical force for 
future operations.
    Several related Army and DOD initiatives are creating temporary and 
permanent population changes on our Army installations. They include: 
support of GWOT pre- and post-deployment health; Modularity--now known 
as Army Modular Force (AMF); Training Base Expansion; the Integrated 
Global Basing and Presence Strategy and Base Realignment and Closing 
(BRAC) 2005. These major population shifts create a tremendous 
challenge for Army Medicine as we try to adjust to meet local and 
regional medical markets.
    As we rebalance the military Health System in the affected markets, 
our continued focus is to provide quality health care that is 
responsive to commanders and readily accessible to soldiers and 
families. We are working very closely with commanders, installations, 
arriving units, family support groups and the local communities 
surrounding our installations to ensure that access and quality of 
healthcare remain high. We are leveraging all available AMEDD, DOD and 
VA health care capacity in each locale. We are working closely with our 
TRICARE Regional Offices and Managed Care Support Contractors on 
market-by-market business case analyses to strike the right balance 
between Direct Care and Purchased Care capacity.
    It should be noted that these are solutions pending release of BRAC 
2005, after which the AMEDD will develop permanent plans for 
rebalancing health service support across installations and regions. 
During fiscal years 2005 and 2006, at many installations, even our 
temporary expansions may lag the arrival of Soldiers and family 
members. In the interim, we are extending clinic hours, hiring 
additional staff, and temporarily increasing referrals to TRICARE 
network providers to insure continuity of care.
    The AMEDD is actively engaged in the DOD Patient Safety Program, 
which is a system-wide effort to reduce medical errors combined with 
non-attributional reporting and multi-disciplinary analysis of events. 
The goal is the trending of incidents, identification of lessons 
learned and the implementation of best practices that can be propagated 
system-wide by the Patient Safety Center. The AMEDD is making 
significant strides in creating a culture of patient safety where staff 
is comfortable reporting patient safety events in an environment free 
of intimidation. We are improving error reporting by increasing 
leadership awareness at all levels through multiple approaches 
including collaborative training efforts with the DOD Patient Safety 
Program.
    Communication is the number one causal factor in almost all patient 
safety events. The AMEDD Patient Safety Program has made major 
advancements in team training in targeted high-risk environments such 
as emergency departments, labor and delivery units, and intensive care 
units. DOD's Pharmacy Data Transaction Service (PDTS), implemented in 
2001, established a centralized, automated drug data repository 
integrating all DOD patients' medication data from medical treatment 
facility pharmacies, the 54,000 TRICARE retail network pharmacies and 
the TRICARE Mail Order Pharmacy. As a direct result of this system's 
ability to screen all patients' medications against the complete 
medication profile, PDTS has prevented over 60,000 clinically 
significant drug-drug interactions, which would have otherwise resulted 
in patient harm. In 2004, a multi-year strategic Army Pharmacy 
automation initiative was implemented and focused on preventing 
medication errors and improving medication-use safety through the 
integration of automation technology at all Army pharmacies worldwide. 
This initiative will reduce and prevent medication errors that often 
lead to increased utilization of more costly healthcare.
    The AMEDD continues to work with DOD to improved medical care for 
RC Soldiers and their family members. RC Soldiers and their families 
now receive TRICARE coverage not only while on active duty but also 
before and after. This can lessen the worries of deployed personnel 
about their family members' health and also serve as an incentive for 
experienced Soldiers to remain in the Reserve after their deployment. 
When a RC Soldier is called to active duty for more than 30 days in 
support of a contingency operation, they and their family members have 
full TRICARE coverage up to 90 days before the start of active duty. 
The coverage is the same as that provided for family members of any 
active duty Soldier, including options for TRICARE Prime and TRICARE 
Prime Remote and eligibility for family dental coverage. To ensure 
continuity of care, these Reservists and family members continue to 
receive TRICARE coverage for 180 days after leaving active duty under 
the Transitional Assistance Management Program (TAMP). After TAMP, 
Soldiers may choose to continue TRICARE coverage for their families for 
up to 18 months under the Continued Health Care Benefits Program 
(CHCBP) or to enroll in the new TRICARE Reserve Select (TRS) program, 
scheduled to be implemented on April 26, 2005. Under TRS, Soldiers 
agreeing to serve in the Selected Reserve may receive one year of 
purchased TRICARE Standard coverage for their families for each 
consecutive 90 days spent on active duty in support of a contingency 
operation.
    From June to November 2004, TRICARE transitioned from eleven 
contract regions and seven contracts to three CONUS regions. The new 
generation of contracts is performance-based and designed to maximize 
the efficient use of military treatment facilities while flexibly using 
civilian healthcare resources when appropriate. Portability of benefits 
between regions is improved and several functions, such as pharmacy and 
the administration of TRICARE for Life have been consolidated into 
nation-wide contracts. As part of the transition to the new contracts, 
measures are being taken to improve coordination between military 
facilities and civilian network providers and to make access to care 
more patient-centered. TRICARE Online (TOL) offers patients better 
information about their choice of appointments and allows them to make 
appointments after normal duty hours, while reducing the rate of ``no-
shows.'' Over 50,000 appointments were made through TOL in 2004, and 
the program is being expanded to include more facilities. A commercial-
off-the-shelf web-based electronic fax service is providing efficient 
transmission of referrals from military treatment facilities to network 
providers. After a successful pilot at 30 facilities, a contract has 
been awarded to provide this service Army-wide. The Enterprise-Wide 
Referral and Authorization process is a high-priority effort to use 
net-centric technology and improved business processes to streamline 
and standardize the referral and authorization of care to network 
providers. The goals of the three-phase plan are to increase patient 
satisfaction, make the referral process more efficient, and to optimize 
allocation of military and civilian healthcare resources. The current 
short-term phase is standardizing several critical processes while 
emphasizing improved handling of urgent referrals.
    The Army continues to improve the quality of healthcare for 
Soldiers and families stationed overseas. The Vicenza Birthing Center 
initiative was driven by cultural differences between child birth 
procedures in local Italian hospitals and U.S. expectations for 
obstetrical and gynecological care. These differences have had an 
adverse impact on family member morale and Soldier readiness for a 
number of years. In multiple venues, U.S. Soldiers and family members 
of the Vicenza community have, with one voice, asked for a safe, 
reliable and accessible U.S. standard of healthcare, particularly in 
regard to obstetrical services. With the deployment of the 173rd 
Airborne Brigade, this concern is even more acute and being championed 
by the U.S. Army Europe Commander. In response to this need, the AMEDD 
developed an interim solution by establishing a temporary birthing 
center at the Vicenza Army Health Clinic. This birthing center will 
accommodate the needs of the vast majority of normal pregnancies and 
births. We will continue to depend on our Italian host nation hospitals 
for emergency obstetrical care. In these cases, care is comparable to 
U.S. standards. The birthing center is currently under construction and 
will be operational by 8 June 2005.
    On December 13, 2002, the Military Vaccine Agency (an executive 
agency of the Army Surgeon General) began implementation of DOD's 
Smallpox Vaccination Program in support of the national smallpox 
preparedness plan announced by the President. The Smallpox Vaccination 
Program is using the existing FDA-licensed smallpox vaccine consistent 
with its label. The program is tailored to the unique requirement of 
the Armed Forces. Like civilian communities, DOD ensures preparedness 
by immunizing personnel based on their occupational responsibilities. 
These include smallpox response teams and hospital and clinic workers, 
as well as designated forces having critical mission capabilities. Like 
other vaccinations, this will be mandated for designated personnel 
unless they are medically exempt. The last year includes both major 
advances and major setbacks in the Military Immunization Program. Since 
December 2002, the DOD has vaccinated more than 770,000 personnel 
(Army: more than 410,000 personnel [military + civilian]) against 
smallpox, representing the largest cohort of smallpox-protected people 
on Earth. These vaccinations have been conducted with great care to 
exempt people with personal medical conditions that bar smallpox 
vaccination. Review by military and civilian experts shows that adverse 
events after smallpox vaccination have been at or below historical 
rates expected among smallpox vaccines. In early 2003, DOD and Army 
clinicians and scientists identified an elevated risk of heart 
inflammation (myo-pericarditis) in male smallpox vaccines in their 20s. 
Our follow-up of these cases shows them to have a rapid and high degree 
of recovery. With clinical teams focused at Brooke and Walter Reed Army 
Medical Centers, we continue to follow these patients and provide them 
state-of-the-art care, to learn more about the condition.
    The Department lost an important countermeasure against anthrax 
weapons in October 2004, when a U.S. District Court judge enjoined 
operation of the Anthrax Vaccination Immunization Program (AVIP) for 
inoculation using Anthrax Vaccine Adsorbed (AVA) to prevent inhalation 
anthrax. Anthrax spores continue to be the#1 threat among bioweapons. 
Until the injunction, the DOD had administered 5.2 million doses of AVA 
to 1.3 million people (Army: more than 1.9 million doses to over 
500,000 people), as well as assisting with 20 human safety studies 
described in 34 publications in medical journals. In April 2005, the 
Court agreed to allow the DOD to restart the AVIP under a U.S. Food and 
Drug Administration Emergency Use Authorization and the Army is 
preparing to administer AVA to individuals between 18 and 65 years of 
age who are deemed by DOD to be at heightened risk of exposure due to 
attack with anthrax. The terms of the Emergency Use Authorization allow 
Soldiers to refuse receiving the AVA without penalty after reviewing 
educational information on AVA. I expect we will restart the program 
under the Emergency Use Authorization by mid-May 2005 for Soldiers 
serving in, or deploying to, Southwest Asia and Korea.
    Army scientists continue their work in research and development of 
new vaccines, including adenovirus vaccines, malaria vaccine, and 
plague vaccine. These vaccines are needed to protect against microbes 
that threaten Soldiers in basic training, in tropical locations, or as 
bioweapons, respectively. Adenovirus vaccine research involves tablets 
to protect against a militarily relevant respiratory germ. Malaria is 
one of the leading infectious causes of death around the world. The 
Walter Reed Army Institute of Research's malaria research program is a 
world leader in this field. Plague vaccine research is centered at the 
US Army Medical Research Institute of Infectious Diseases, another 
world-class asset of the U.S. Army.
    During all this unprecedented activity and keen competition for 
limited resources, the courage, competence and compassion of the 
AMEDD's people amaze me. Despite the long hours, separation from 
family, danger, and hardship required to fight the Global War on 
Terrorism, they remain firmly committed and motivated to provide the 
best possible support for American Soldiers, their families, and all 
others who are entrusted to their care. Nothing saddens us more than to 
lose a Soldier. With your continued support, the AMEDD will continue to 
do everything possible to prevent these terrible losses whether from 
battle wounds or non-battle illnesses and injuries. We will always 
remember our core mission: to preserve Soldiers' lives and health 
anywhere, anytime, in war and in peace. We will never forget the 
Soldier.
                                 ______
                                 
        Biographical Sketch of Lieutenant General Kevin C. Kiley

    Lieutenant General Kevin C. Kiley, M.D., is a 1972 graduate of the 
University of Scranton, with a bachelor's degree in biology. He 
received his medical degree from Georgetown University School of 
Medicine in 1976. He served a surgical internship and then an 
obstetrics and gynecology residency at William Beaumont Army Medical 
Center, El Paso, Texas, graduating in 1980.
    His first tour was with the 121st Evacuation Hospital in Seoul, 
South Korea, where he was the chief of OB/GYN services from 1980 to 
1982. He returned to the residency training program at William Beaumont 
Army Medical Center and served as Chief, Family Planning and Counseling 
Service. He then served as Assistant, Chief of the Department of OB/GYN 
until February 1985.
    He was assigned as the Division Surgeon of the 10th Mountain 
Division, a new light infantry division in Fort Drum, New York. In July 
1985, he assumed command of the newly activated 10th Medical Battalion, 
10th Mountain Division. He served concurrently in both assignments 
until May 1988. He returned to William Beaumont Army Medical Center, 
where he first served as the Assistant Chief, then Chairman of the 
Department of OB/GYN.
    In November 1990, he assumed command of the 15th Evacuation 
Hospital at Fort Polk, Louisiana, and in January 1991, he deployed the 
hospital to Saudi Arabia in support of Operations Desert Shield and 
Desert Storm. Upon his return, he was assigned as the Deputy Commander 
for Clinical Services at Womack Army Medical Center, Fort Bragg, North 
Carolina, from November 1991 to November 1993.
    He is a 1994 graduate of the U.S. Army War College, Carlisle 
Barracks, Pennsylvania. He assumed command of the Landstuhl (Germany) 
Regional Medical Center and what is now the U.S. Army Europe Regional 
Medical Command at Landstuhl, Germany, June 30, 1994. He also served 
concurrently as the Command Surgeon, U.S. Army Europe and 7th Army from 
September 1995 to May 1998.
    In April 1998 he assumed the duties as; Assistant Surgeon General 
for Force Projection; Deputy Chief of Staff for Operations, Health 
Policy and Services, U.S. Army Medical Command; and Chief, Medical 
Corps. On June 5, 2000 he assumed duties as Commander of the U.S. Army 
Medical Department Center and School and Fort Sam Houston and continued 
as Chief of the Medical Corps. He served as the commander of Walter 
Reed Army Medical Center and North Atlantic Regional Medical Command 
and Lead Agent for Region I from June 2002 to June 2004.
    Lieutenant General Kiley assumed the duties of Acting Commander, 
U.S. Army Medical Command on 8 July 2004. After receiving Senate 
confirmation of his nomination, he was sworn in as the 41st Army 
Surgeon General and assumed the duties as Commanding General, U.S. Army 
Medical Command on October 4, 2004. He was promoted to the grade of 
Lieutenant General on October 12, 2004.
    He is a board-certified OB/GYN and a fellow of the American College 
of Obstetricians and Gynecologists.
    Among his awards and decorations are the Distinguished Service 
Medal, Defense Superior Service Medal, Legion of Merit (three Oak Leaf 
Clusters), Bronze Star Medal, Defense Meritorious Service Medal, 
Meritorious Service Medal (two Oak Leaf Clusters), Army Commendation 
Medal, The Army Superior Unit Award (one Oak Leaf Cluster), the ``A'' 
professional designator, the Order of Military Medical Merit, and the 
Expert Field Medical Badge.

    Senator Stevens. Senator Mikulski, I was not looking in 
your direction. Did you have an opening statement?
    Senator Mikulski. I will do that when I get to my 
questions.
    Senator Stevens. Thank you. I apologize for not recognizing 
you.
    Admiral Arthur.

STATEMENT OF VICE ADMIRAL DONALD C. ARTHUR, MEDICAL 
            CORPS, SURGEON GENERAL, UNITED STATES NAVY
    Admiral Arthur. Yes. Good morning, Chairman Stevens, 
Senator Inouye, Senator Mikulski. Thank you very much for 
having us here this morning.
    I am not going to read my statement. You have read that and 
I appreciate that.
    Senator Stevens. All of your statements will be printed in 
the record as if read.
    Admiral Arthur. Yes, sir. I would like to make some general 
comments and to reiterate some of what is in here, but not all 
of it.
    First, I would like to highlight that we have a series of 
priorities in Navy medicine, and the first will always be our 
readiness. We break readiness down into a number of different 
factors.
    The first and foremost is to make sure that our sailors and 
marines and whatever soldiers, airmen, and coast guardsmen we 
take care of are ready for their duties and are a healthy 
population, as well as their families so that they have the 
confidence that they can go and deploy and we will take care of 
their families.
    Our second readiness priority is to be ready ourselves to 
deploy in whatever manner we are asked to. I was in Iraq in 
December and January. I noticed we had so many significant 
improvements in how we do business in the combat arena over 
Desert Storm where I served with the marines. We had, for 
example, digitized radiography. We had computers all over. We 
had a lot of advanced systems. The thing that was the most 
critical to the care of wounded soldiers and marines over there 
was the training that the corpsmen and medics got. The corpsmen 
and medics were there and delivered the care right at the time 
of wounding. The training of the surgical teams, the rapid 
medevac, and the incredibly great service at Landstuhl on the 
way back to the United States. I think you can be very, very 
proud of the care that your wounded soldiers, marines, sailors, 
airmen, coast guardsmen are getting over there. As Senator 
Inouye said, it is the best in history with the lowest disease 
non-battle injury rate and the greatest survivability in the 
history of combat.
    A third priority for our readiness is homeland security, 
and this is an area of great concern for me because I think 
that in some sectors of our Government, we have not yet fully 
prepared for an attack on our homeland. We have a program with 
the Bethesda Military Medical Center compound, as well as the 
National Institutes of Health (NIH) compound right next door, 
and the Suburban Hospital Trauma Center, to form a mega-center 
which could respond to casualties in the National Capital area, 
and you should be seeing more about that very soon.
    Our second priority is to continue to deliver the quality 
health care for which we have become well known. We have the 
advantage of being a health care system as opposed to much of 
the rest of America where I believe we have a disease care 
industry. We get paid not by how many procedures and how many 
immunizations we give, but we get paid by our line and the 
number of soldiers, sailors, airmen, and marines we have on 
duty, and that is our metric for success.
    The Chief of Naval Operations (CNO) interviewed me 1 year 
ago for this job that I am currently honored to hold, and he 
asked me could our casualties be seen and treated at civilian 
hospitals, and I said, well, sure they could. They can be very 
well treated at Johns Hopkins or at Mayo Clinic. But those 
hospitals would not understand two things that are critical to 
our treatment of our casualties.
    Number one, that the soldiers, sailors, airmen, and 
marines' injuries are not just to that person, they are to his 
or her entire family. These are family injuries.
    The second thing that civilian hospitals will not 
understand about our casualties is that even lying at Bethesda 
or Walter Reed, these marines and soldiers are still in combat. 
They still remember the stresses that they incurred in combat 
and we care for them in a way that civilian hospitals could not 
do just because we have the background and we have shared that 
combat experience with them.
    We have another advantage in our delivery of quality health 
services in our collaboration with the Veterans Administration 
(VA). Yesterday Secretary Nicholson opened up the joint DOD-VA 
clinic at Pensacola, Florida. We have joint clinics which we 
are building in Great Lakes and Charleston, South Carolina that 
I think will be of great benefit to both veteran populations.
    Our third priority is to help shape the force of the 
future, not to meet the needs of yesterday but meet tomorrow's 
needs, which will include not just the traditional combat 
casualty care, but also homeland security, stability 
operations, and the global war on terror requirements. This may 
require that we shape our forces differently, that we have some 
different capabilities than we thought we would need if only 
our missions were combat casualty care, and I refer to the 
recent mission of Mercy in Banda Aceh taking care of tsunami 
and disaster relief victims over there. They needed surgeons. 
They needed the combat casualty care type of specialties, but 
they also needed pediatricians, OB-GYN specialists, preventive 
medicine specialists, and all of those specialties that are not 
necessarily planned for combat casualty care.
    We are focusing on Active and Reserve integration; that is, 
that we more fully incorporate our Reserve component in our 
active duty warfighting plans. We now have six Active duty 
fleet hospitals, for example, and two Reserve fleet hospitals. 
We would like to have just eight fleet hospitals that combine 
Active and Reserve components to be more fully integrated.
    One other integration effort that I think would be of great 
benefit is to better integrate the three service medical 
departments in how we train, equip, recruit, supply, and how we 
deploy so that we can be as fully interoperable in the combat 
arena as we can be.
    And last, I would like to thank you very much for your 
support and the encouragement that you have given us in finding 
the best casualty care management for the veterans that are now 
over there in OIF and OEF.
    I apologize. I will have to leave before my colleague, Rear 
Admiral Lescavage, testifies. I have to fly out of town, but we 
are very proud of the accomplishments of our Navy Nurse Corps 
as a member of our team.

                           PREPARED STATEMENT

    Senator Inouye, you mentioned that you were proud of the 
accomplishments of our Medical Corps. I would say one of the 
great benefits of our Medical Department is that we are not 
just a medical corps or a nurse corps of a medical service 
corps or dental corps or a hospital corps. We are a 
combination. We are the team. It is that teamwork, that 
synergistic effort of all of our corps together, that really 
makes us strong. You do not find that in civilian institutions, 
and that is what I think makes our military medical departments 
great.
    Thank you very much.
    Senator Stevens. Thank you, Admiral.
    [The statement follows:]

          Prepared Statement of Vice Admiral Donald C. Arthur

    Chairman Stevens, Ranking Member Inouye, distinguished members of 
the subcommittee, I welcome the opportunity to share with you how Navy 
Medicine is taking care of our nation's Sailors, Marines, and their 
families.
    As our nation continues to fight the Global War on Terror, Navy 
Medicine will continue to meet the health care needs of our 
beneficiaries, active duty, military retirees, and eligible family 
members. These efforts reflect our unrelenting commitment to our 
primary mission--Force Health Protection. The components of Force 
Health Protection are: (1) preparing a healthy and fit force; (2) 
deploying medical personnel to protect our warriors in the battlefield; 
(3) restoring health on the battlefield; (4) providing care to our 
retired warriors through TRICARE for Life; and (5) providing world-
class health care for all beneficiaries.
Priorities
    To meet the needs of those entrusted to our care, Navy Medicine 
established five priorities to meet our unique dual mission. That dual 
mission is first, to support and protect our operational forces while 
working in concert with the Chief of Naval Operations' and Commandant's 
vision for the Navy-Marine Corps team, and second, to provide health 
care to their family members and retirees.
            Readiness
    Readiness is our number one priority. To be ready, Navy Medicine 
must be responsive, agile and aligned with operational forces. We need 
to have the right people with the right capabilities ready to deploy in 
support of the Navy-Marine Corps team.
    In current operations, Navy Medicine has made significant 
advancements in the health care provided by First Responders and 
improved surgical access during the critical ``golden hour.'' In 
addition to improving health care after traumatic battlefield injuries, 
Navy Medicine is also curbing infectious disease outbreaks, decreasing 
occupational injuries, and providing preventive medicine and mental 
health care services.
    An outstanding example of Navy Medicine's more capable, flexible 
and responsive force is the creation of the Expeditionary Medical 
Facility (EMF). These facilities, with similar capabilities as Fleet 
Hospitals, are lighter and more mobile and can be set up within 48 
hours. EMFs may be used independently or in combination with the 
theater's joint health system for evacuation, medical logistics, 
medical reporting, and other functions, ensuring better 
interoperability with the Army and the Air Force. The flexibility of 
EMFs continues to evolve to meet operational requirements and provide 
robust medical care for major conflicts, low-intensity combat, 
operations other than war, and disaster/humanitarian relief operations.
    We are also expanding the role of Navy Medicine on the battlefield 
with the 1,000 Sailors either deployed overseas or preparing to deploy 
with Maritime Force Protection Command units. These Sailors receive a 
half-day in training from doctors and hospital corpsmen in how to use 
special medical kits. These ``Point of Injury'' kits contain items like 
an easy to use tourniquet, a specialized compression bandage, QuikClot 
(a product designed to stop bleeding), antibiotic and pain medications. 
These kits are designed for self-care or buddy care in the minutes 
before a corpsman arrives on the scene.
    The Global War on Terror has challenged us to broaden our view of 
medical readiness. Our Military Treatment Facilities (MTF) are prepared 
to respond to any contingency, to provide expert health care to 
casualties returning from theater, and be ready to support the Nation's 
needs in collaboration with the National Disaster Medical System. 
Additionally, Navy Medicine launched three major initiatives to meet 
the needs of disaster preparedness focused on staff, supplies and 
systems.
    Using the Strategic National Stockpile as a model, we are planning 
for additional equipment to enhance the capabilities of local MTFs. We 
developed a successful multi-service online medical and emergency 
management educational tool, as well as an Emergency Management Program 
Readiness Course that has become the DOD Medical training standard. The 
Disaster Preparedness, Vulnerability Analysis Program (DVATEX) was 
developed to evaluate military, federal, and local community 
responsiveness. This program goes beyond assessing MTF threat 
vulnerability and capability assessment; it also provides training in 
medical and operational management.
    Collaboration with other organizations, including other federal and 
civilian agencies, is essential for effective and efficient disaster 
response. A local example of this type of collaboration is taking place 
at the National Naval Medical Center in Bethesda, Maryland. Because of 
its proximity to the National Capital Region, the National Naval 
Medical Center established a disaster preparedness and response 
coalition with the National Institutes of Health and Suburban Hospital 
Healthcare System in Bethesda. Recently, they conducted a joint 
disaster drill involving Montgomery County and municipal emergency 
response organizations and other members of the local area hospital 
network.
    Delivering a more fit and healthy force, mitigating the risk of 
injury or illness, and providing more effective resuscitation of 
battlefield casualties will enhance Navy Medicine's readiness and 
ability to prosecute the Global War on Terror. Medical research and 
development is a critical enabler of this effort. Our research 
investments allow us to transform into a defensive weapon system that 
will promote health and fitness, protect people from injury and 
disease, and effectively reduce, manage and rehabilitate casualties. In 
addition, these research investments and capabilities help Navy 
Medicine respond to the current and future needs of the Fleet and Fleet 
Marine Force.
    Navy scientists conduct basic, clinical, and field research 
directly related to military requirements and operational needs. 
Current studies focus on the efficacy trials for blood substitutes to 
treat combat casualties; new treatment modalities for musculoskeletal 
injuries and acute acoustic barotrauma; and solutions for the emerging 
threats of combat stress, among others. Our medical research laboratory 
facilities equal those at modern academic and industrial institutions. 
Beyond this capacity, a number of these laboratories have unique test 
equipment and specialized software for pursuing research on current and 
projected biomedical problems. Research is further supported in other 
Navy laboratories as well as in partnership with the Army and Air 
Force, and other Federal agencies.
    Research in non-government laboratories is promoted through an 
active collaborative research and technology transfer program that 
develops cooperative research and development agreements with 
universities and private industry to ensure that research products from 
our laboratories benefit the entire country. Navy-supported medical 
research efforts have influenced the civilian practice of medicine, 
assisted the Ministries of Health in developing nations, and provided 
technology for other Federal initiatives.
    Our overseas research facilities are national assets serving the 
strategic interests of the regional Combatant Commander and the local 
Ambassador. They bring unique surveillance capabilities and advanced 
laboratory capabilities to areas where infectious diseases are a 
significant threat to our personnel. These capabilities were recently 
leveraged in the tsunami relief effort in Banda Aceh. In addition to 
supporting the mission of Force Health Protection, the overseas labs 
are strategic partners in promoting Theater Security Cooperation. 
Lastly, they are developing a new alliance with the Centers for Disease 
and Control to further that agency's efforts in mitigating the risk 
that emerging infectious diseases pose to the health of our citizens 
and our economy.
Quality, Economical Health Services
    Navy Medicine's second priority is providing quality, cost-
effective health services. While focusing on quality health care, Navy 
Medicine has recognized the need to provide the best possible health 
care within our resource constraints. Through careful business 
planning, Navy Medicine aligned MTF operations to focus on the 
preservation of health, and the prevention of disease and injury. 
Recently, the Naval Health Clinic in Pearl Harbor instituted a new 
Individual Health Readiness (IHR) program. The goal of this program is 
to ensure each Pearl Harbor Sailor is healthy and mission-ready. It was 
established to build and improve total Navy Regional Hawaii health 
readiness in response to a growing number of shore and sea Sailors 
deploying. The IHR program ensures each Sailor has an up-to-date health 
assessment to determine deployment limiting conditions, dental 
readiness, immunization status, lab studies and individual medical 
equipment needs to ensure the command's level of health readiness--both 
dental and medical--is 95 percent or better.
    An enterprise focused on quality must understand what products or 
services have value to its customers and the metrics used to measure 
the delivery of quality health care. In meeting quality standards, Navy 
Medicine must take into consideration regulatory compliance 
requirements, the working environment, as well as evaluating the 
patients' experience.
    The many facets of quality control provide us with constant 
opportunity to evaluate health care delivery. For example, creating a 
fit force translates into improved Medical Readiness for our warriors, 
while ensuring a highly trained and ready Medical team to provide 
compassionate quality care for the wounded, injured, or sick. In 
addition, Navy Medicine has designated a Combat Operational Stress 
Consultant to serve as the Navy and Marine Corps subject matter expert 
on combat and operational stress. This consultant will allow Navy 
Medicine increased oversight and further development of prevention and 
mental health care efforts for our military personnel.
    We established a family-centered care program to enhance patient 
safety, health, cost efficiency and patient and staff satisfaction. We 
are currently working with the TRICARE Management Activity and the 
other services to ensure that the program is widely available. In 
addition, we have coordinated our efforts with other related entities 
within Navy Medicine, such as the Perinatal Advisory Board, to optimize 
our efforts.
    Increased cooperation and collaboration with our federal health 
care partners is essential in providing quality care. As an extension 
of our ability to care for our patients, Navy Medicine's partnership 
with Veterans Affairs medical facilities continues to grow and develop 
into a mutually beneficial partnership. Although not directly related 
to the Military Health System, it is imperative that Navy Medicine 
strengthens its relationship with the Department of Veterans Affairs. 
This begins with the seamless transfer of care for injured service 
members to the VA and includes sharing resources to optimize our 
efforts and avoid duplicating services.
    The care for Sailors and Marines who transfer to and receive care 
from a VA facility while convalescing is coordinated through the VA 
Seamless Transition Coordinator. This full time VA staff member is co-
located at National Naval Medical Center and interacts with OEF/OIF 
Points of Contact at each VA Medical Center. The Seamless Transition 
Program was created by former Veterans' Affairs Secretary Principi 
specifically to address the logistical and administrative barriers for 
active duty service members transitioning from military to VA-centered 
care.
    Although recently-wounded Sailors and Marines differ from the VA's 
traditional rehabilitation patient in age and extent or complexity of 
injury, Navy Medicine and the VA must adapt to meet their needs. In the 
past, patients were admitted to the VA's rehabilitation service with 
multiple clinical services addressing individual requirements. To 
enhance continuity, clinical outcomes, and improved family support, 
National Naval Medical Center physicians now remain as the Case 
Managers throughout the transition process. Currently, weekly 
teleconferences to review Bethesda transfer patients are conducted with 
primary transfer sites, such as the VA Medical Center in Tampa, 
Florida. In addition to site visits and teleconferences, Navy Medicine 
will continue to coordinate with other facilities, forge relationships, 
share best practices, and enhance delivery to all of our patients. This 
level of interaction and cooperation will need to continue at every 
level to ensure the care of our wounded warriors is never compromised.
    With regard to the sharing of resources, the level of sharing 
between DOD and VA health care activities has improved. Navy Medicine 
supports Commanding Officers who pursue sharing and collaboration with 
VA facilities in their communities. In fact, Navy Medicine currently 
manages 28 medical agreements and 45 dental agreements through the 
Military Medical Support Office (an office that coordinates health care 
for active duty members who are stationed in remote areas without local 
Military Medical Treatment Facilities).
    Some of these agreements represent efforts to consolidate support 
functions for the medical facilities. However, other more comprehensive 
examples of resource-sharing efforts between the agencies include: the 
Navy Blood Program at Naval Hospital Great Lakes which uses the North 
Chicago Veterans Affairs Medical Center spaces to manufacture blood 
products in exchange for blood products, precluding the need for Navy 
to build a new blood center at Naval Hospital Great Lakes; and the DOD/
VA Federal Pharmacy Executive Steering Committee (FPESC) which was 
charted to oversee joint agency contracts involving high dollar and 
high volume pharmaceuticals designed to increase uniformity and improve 
the clinical and economic outcomes of drug therapy in both systems.
    Navy Medicine is also partnering or planning to partner with the VA 
in five hospital/ambulatory care center construction projects. Naval 
Hospital Pensacola is working with the VA on a joint-venture outpatient 
medical care facility; Naval Hospital Charleston has a future VA 
construction start for a Consolidated Medical Clinic (CMC) aboard Naval 
Weapons Station Charleston, SC; Naval Hospital Great Lakes is 
considering Joint Ambulatory Care Clinic adjacent to the North Chicago 
Veterans Affairs Medical Center's main facility; Naval Hospital Guam is 
considering a project where the VA would accept an adjacent site to 
construct a small freestanding community-based outpatient clinic from 
Navy; and Naval Hospital Beaufort is also considering a future project 
with the VA.
    Guided by Navy Medicine leadership, last year each MTF developed a 
comprehensive business plan focused on meeting operational readiness 
requirements while improving population health. These plans emphasize 
such areas as improved contingency planning, pharmacy management, 
clinical productivity, implementation of evidence-based medicine, 
advanced access, and seamless referral management for beneficiaries. 
Navy Medicine is currently in the process of creating a system that 
will allow MTF commanders to monitor their performance in these areas 
so they can better balance measures of operational readiness, customer 
satisfaction, internal efficiency and human capital development.
    Beginning in the early 1990's, Navy Dentistry began consolidating 
its command suites from 34 commands to 15. The cost savings included 
the elimination of redundant officer, enlisted and civilian support 
personnel formerly involved in the administration of the separate 
command infrastructure. In 2004, Navy Dentistry again consolidated 15 
commands into three. The primary objective of the most recent dental 
consolidation was to integrate Dental Commands with the larger MTF 
command suite in the shared geographical area to eliminate more than 90 
duplicate administrative functions--all of this was accomplished 
without adverse impact on the dental health care delivered and in a 
manner that is transparent to the customers. The remaining three 
commands are the Dental Battalions supporting the Fleet Marine Force.
    As Navy Medicine strives to obtain long-term value through disease 
prevention and increased quality of life, each MTF business plan 
includes a preventive health initiative with the goal of exceeding 
national measures of breast health promotion, long-term asthma 
management and control of diabetes. Our leadership developed guidelines 
for these Navy-wide efforts and created tools to monitor performance in 
these areas. Next year, we plan to expand our efforts to address 
obesity, lack of exercise and tobacco use; with the goal of reducing 
the risk of long-term disabling illnesses.
    Finally, another critical component of providing quality care 
requires that Navy Medicine be an active participant in the 
implementation of the new TRICARE contracts. Although the TRICARE 
benefit structure remains the same, there have been changes in program 
administration that are intended to make health care delivery more 
customer-focused and support better coordination between MTFs and 
civilian provider networks. Organizational changes implemented to 
support the new business environment include the disestablishment of 
Lead Agents and the establishment of three TRICARE Regional Offices 
(TRO) aligned with the regional contracts in the United States--North, 
South, West. Each of the Services was responsible for providing a Flag/
General Officer or Senior Executive Service civilian dedicated for a 
TRO Director position: Army-North, Air Force-South, Navy-West. The Navy 
has named RADM Nancy Lescavage as the second TRO Director. RADM 
Lescavage is relieving retiring RADM James Johnson in June 2005.
Shaping Tomorrow's Force
    The Navy and Marine Corps are reshaping the fighting force by 
defining future requirements, including the medical requirements of the 
warfighters. As a result, Navy Medicine's third priority--Shaping 
Tomorrow's Force--focuses on recruiting, training, and retaining the 
most capable uniformed members to match manpower to force structure to 
combat capability. This is an important piece of the Department of the 
Navy's more comprehensive Human Capital Strategy.
    Navy Medicine is quickly transforming in concert with the Navy and 
Marine Corps to provide medical support to the fighting forces as they 
adapt to the changing nature of global warfare, including emerging 
missions such as: humanitarian operations, regional maritime security, 
providing care for detainees, and homeland defense--all of which place 
additional requirements on shaping the force of the future. Our 
uniformed personnel will participate in increasingly complex joint 
environments and move efficiently between forward deployed settings and 
fixed facilities ashore. We must be proficient and productive at the 
right cost.
    A recent example of the Navy Medicine's flexibility in engaging in 
a humanitarian mission would be the rapid response to the earthquake 
and tsunamis that struck the Indian Ocean. Within days, U.S.S. Abraham 
Lincoln and U.S.S. Bonhomme Richard were en route to assist those in 
need. U.S. helicopters from Lincoln and from Bonhomme Richard 
Expeditionary Strike Group, afloat in the Indian Ocean, proved 
invaluable in delivering relief supplies to remote areas. After the 
carrier strike group left, one of the Navy's hospital ships, U.S.N.S. 
Mercy, took over the mission and deployed with a robust medical 
capability and the support services appropriate for disaster relief. 
The ship offered shipboard health services and sea-based support to a 
variety of military and civilian support agencies, including U.S. non-
government organizations, involved in the relief effort. In addition, 
Sailors from the Navy Environmental Preventive Medicine Unit out of 
Pearl Harbor worked on improving sanitation and holding down mosquito 
populations, while ship's nurses went ashore and conducted classes on 
patient care.
    Currently, Navy Medicine is deployed afloat and ashore in five 
geographic regions, providing preventive medicine, combat medical 
support, health maintenance, medical intelligence and operational 
planning. This operational tempo, along with the nature of casualties 
from Operations Enduring and Iraqi Freedom, has created new demands for 
medical personnel in terms of numbers and types of specialties needed. 
As a result, Navy Medicine analyzed the uniformed and civilian 
communities of medical and dental providers to ensure it is meeting 
operational requirements as efficiently as possible.
    In order to meet the transformation requirements, the uniformed and 
civilian personnel composition of some Navy medical specialties will 
change in the near future. For example, over 1,700 non-readiness 
related military positions are being converted into civilian positions 
in 2005. We want to ensure operational requirements are fulfilled by 
uniformed personnel-while identifying those functions that can be 
performed by civilian or contractor personnel. Our intent is not to 
eliminate positions, but rather to reduce the number of active duty 
personnel performing non-readiness functions.
    A key component of Shaping Tomorrow's Force is the quality and 
innovative delivery of education and training provided to medical 
personnel. Streamlining our education and training assets has served us 
well as Navy Medicine embraces new technologies and methods of 
learning. These new technologies will have a profound impact upon 
quality of training and in saving money and time. By maximizing the use 
of remote-learning capabilities, Navy Medicine ensures that medical 
personnel have access to the right training at the right time. Also, we 
continue to study the value of advanced simulation training for our 
health care providers. By introducing simulated patients into the 
training curriculum, medical personnel are able to practice skills in 
an environment that will prepare them for real world situations.
One Navy Medicine: Active and Reserve
    Navy Medicine is one team. It is comprised of tremendously capable 
individuals--Active Duty, Reserve and Civilian. We must seamlessly 
integrate the talents and strengths of our entire workforce to 
accomplish our dual mission--Force Health Protection and quality health 
care to our beneficiaries.
    One of our goals is to better utilize the expertise of our Reserve 
force by increasing integration with the active duty component. We no 
longer have separate Active and Reserve fleet hospitals, but one fleet 
hospital system where Reservists work side-by-side with active duty 
personnel. The establishment of these Operational Health Support Units 
(OHSU) has created increased cooperation and collaboration between both 
components. In addition, consolidation of dental units into the OHSUs 
has been done to mirror changes implemented by Navy Medicine's active 
component.
    Reservists comprise 20 percent of Navy Medicine's manpower 
resources and their seamless integration with our active duty force is 
a major priority in achieving our ``One Navy Medicine'' concept. Since 
the beginning of Operation Iraqi Freedom, more than 3,700 Reservists 
have been activated to be forward deployed or to meet the needs of MTFs 
whose active duty personnel were deployed. In addition, the Navy's 
Expeditionary Medical Facility Dallas deployed earlier this year to 
Kuwait with 382 people, 366 of which were Reservists.
    Through an innovative Medical Reserve Utilization Program (MEDRUP), 
Navy Medicine's headquarters assumes operational control of medical 
Reservists called to active duty. They are selected using an 
information system that manages more than 6,000 Navy medical Reservists 
and matches personnel to requirements based on qualifications, 
availability and criteria. This system has proven indispensable in 
employing Reservists in support of the Global War on Terror.
    Finally, with regard to the Reserve Component, Navy Medicine 
provides physical and dental services to the Navy's Reserve Force 
(71,500) and Marine Corps Reserve (37,734) personnel in support of 
individual medical readiness--a critical component prior to 
mobilization.
Delivery of Joint Defense Health Services
    Navy Medicine's final priority addresses how we jointly operate 
with the Army and Air Force. Ideally, all U.S. medical personnel on the 
battlefield--regardless of service affiliation--should have the same 
training, use the same communications system and operate the same 
equipment because we are all there for the same reason--to protect our 
fighting forces. It should not matter whether the casualty is a 
Soldier, a Sailor, an Airman or a Marine. The individual should receive 
the same care, and service medical personnel should be similarly 
trained to provide this same level of care. Along with the Army and the 
Air Force, Navy Medicine is actively pursuing the concept of 
standardized operating procedures to ensure consistency of health care 
and interoperability of our medical forces through a Unified Medical 
Command. As a Unified Medical Command, the mission of our separate 
medical departments could implement reductions to the internal costs of 
executing our missions while providing a framework of interoperability 
among the services.
    Mr. Chairman, Navy Medicine has risen to the challenge of providing 
a comprehensive range of services to manage the physical and mental 
health challenges of our brave Sailors and Marines, and their families, 
who have given so much in the service of our nation. We have 
opportunities for continued excellence and improvement, both in the 
business of preserving health and in the mission of supporting our 
deployed forces, while at the same time protecting our citizens 
throughout the United States.
    I thank you for your tremendous support to Navy Medicine and look 
forward to our continued shared mission of providing the finest health 
services in the world to America's heroes and their families--those who 
currently serve, those who have served, and the family members who 
support them.

    Senator Stevens. General Taylor.

STATEMENT OF LIEUTENANT GENERAL GEORGE PEACH TAYLOR, 
            JR., M.D., AIR FORCE SURGEON GENERAL, 
            DEPARTMENT OF THE AIR FORCE
    General Taylor. Mr. Chairman, Senator Inouye, Senator 
Mikulski, and other members of the subcommittee, it is a 
privilege and pleasure to be here today. I look forward to 
working with you on our common goals to ensure a sustained high 
quality of life for our military members and their families. We 
appreciate your interest and support in providing for America's 
heroes.
    I am proud to say that the men and women of the Air Force 
Medical Service have done an exceptional job throughout 
Operations Nobel Eagle, Enduring Freedom, and Iraqi Freedom in 
providing the expeditious, state-of-the-art health care for 
Active duty and Reserve component personnel of all the 
services. We attribute our success to our continued focus on 
four health effects: providing care to casualties, ensuring a 
fit and healthy force, preventing disease and injury, and 
enhancing human performance.

                     EXPEDITIONARY MEDICAL SUPPORT

    Our light, lean, and mobile expeditionary medical support 
(EMEDS), is the linchpin of our ground mission. Our EMEDS 
modularity has supported our field commanders by ensuring the 
right level of medical care is provided to our warriors 
wherever they are. As important, the speed with which we can 
deploy EMEDS is unprecedented, making EMEDS the choice for 
special forces and quick reaction forces in the United States, 
as well as abroad.
    As part of a joint team, we now have more than 600 medics 
in 10 deployed locations, including running the large theater 
hospital in Balad, Iraq, and two smaller hospitals in Kirkuk 
and at the Baghdad International Airport. Just as in the 
States, these serve as regional medical facilities for all the 
services.
    Our approximately 400 aeromedical evacuation personnel, the 
majority of them Guard and Reserve, are doing incredible work, 
accomplishing more than 55,000 patient movements since the 
beginning of Operation Iraqi Freedom.
    In addition, partnering with our critical care air 
transport teams, our aeromedical evacuation system has made it 
possible to move seriously injured patients with astonishing 
speed, as short as 36 hours from the battleground to stateside 
medical care, unheard of even a decade ago.

                 DEPLOYMENT HEALTH SURVEILLANCE PROGRAM

    Caring for our troops also means ensuring that they are 
healthy and fit before they deploy, while they are deployed, 
and when they return home. We work very, very hard on our 
deployment health surveillance program. The payoff has been 
that we had the lowest disease non-battle injury rates of all 
time. That care extends beyond the area of operations. Since 
the first of January 2003, we have accomplished 100,000 post-
deployment assessments for Air Force Active duty and Reserve 
component personnel with 9.5 percent requiring follow-up for 
deployment related medical or dental health concerns. We are 
meticulously tracking every airman to ensure that he or she 
receives all the health care needed, including mental health 
help, which I would like to describe in some detail.
    We deploy two types of mental health teams to support our 
deployed airmen, a rapid response team and an augmentation 
team. We currently have 49 mental health personnel deployed for 
current operations, 31 of whom are supporting Army or joint 
service requirements. Behavioral indicators during OEF and OIF 
are encouraging. In our review of data from fiscal years 2000 
and 2004, child abuse rates remained virtually unchanged, and 
spouse abuse rates and alcohol-related incident rates actually 
declined over the past 5 years. To date, there have been no Air 
Force suicides in Iraq or Afghanistan during OEF or OIF.
    However, we are increasingly supporting Army and Marine 
operations. We need to be prepared for our Air Force troops to 
have greater exposure to traumatic stress. Initiatives to 
reassess the mental health status of our personnel, 90 to 180 
days post-deployment, will allow us to better monitor and 
address mental health needs as they emerge.

                          FIT TO FIGHT PROGRAM

    Another critical way we are protecting the health of Air 
Force members is with a revitalized physical fitness program 
that will improve their safety and performance in the 
expeditionary environment and help them survive significant 
injury and illness. Our fitness centers have seen an 
approximate 30 percent jump in use. I am proud to be part of 
General Jumper's strong push, fit to fight, an initiative that 
has focused on both the individual and commander 
responsibilities for health and well-being.

                 EPIDEMIC OUTBREAK SURVEILLANCE PROJECT

    Our prevention efforts also include cutting edge research 
and development, such as the epidemic outbreak surveillance 
project (EOS), an Air Force initiative that combines existing 
and emerging biodefense technologies that will eventually be 
deployed worldwide for near real-time total visibility of 
biological threats to our troops. Through gene shift 
technology, EOS will offer us the power of knowing when and who 
a disease is stalking. This is the incredible medicine of the 
future that will change how we do business forever, and we are 
doing it now in the Air Force.

   COMPOSITE OCCUPATIONAL HEALTH AND OPERATIONAL RISK TRACKING SYSTEM

    Another of our exciting initiatives, created with your 
help, is the composite occupational health and operational risk 
tracking system known as COHORT, a program that links Air Force 
information systems such as personnel and operational medical 
systems to surveillance activities, allowing us to track the 
occupational health of our personnel throughout their careers 
and beyond.
    We are also particularly grateful to this subcommittee for 
support of our crucial laser eye protectant initiative which 
will help us study, prevent, detect, and treat laser eye 
damage.
    We continue to partner with civilian institutions for 
training in critical care, such as our Center for Sustainment 
of Trauma and Readiness Skills (C-STARS) platform at Baltimore 
Shock Trauma, as well as groundbreaking research in 
telemedicine and other areas.

                                TRICARE

    Perhaps not as high-tech, but certainly one of the greatest 
tools we have to ensure the health of our troops is TRICARE. 
The TRICARE strategy is vitally important to us, even more so 
in wartime. It supplants direct care for the Active duty 
member, provides peace of mind that family members are taken 
care of, and ensures health care access for our Guard and 
Reserve members in all our communities. Peacetime health care 
through TRICARE cannot be separated from our primary wartime 
mission. We have one mission: to care for our troops and their 
families.

                           PREPARED STATEMENT

    There remain great challenges in our military health care 
system. These include sustaining a world-class environment of 
practice for our men and women practicing medicine and 
dentistry in military facilities around the globe. I am eager 
to work with the Congress as we mold and improve your military 
health care system, a system that has no peer, no rival, one 
that is true to those who work in it every day and one that is 
deserving of the sacrifice and dedication of men and women in 
uniform.
    Thank you, Mr. Chairman and members of the subcommittee.
    [The statement follows:]
   Prepared Statement of Lieutenant General George Peach Taylor, Jr.
    Mr. Chairman, Senator Inouye, and members of the committee; it is a 
pleasure to be here today to share with you stories of the Air Force 
Medical Service's success both on the battle front and the home front.
    Air Force medics continue to prove their mettle, providing first 
class healthcare to more than 1.2 million patients. Additionally, we 
continue to have medics far from home, supporting air and land 
operations from the Philippines to Kyrgyzstan to Iraq.
    The Air Force Medical Service, or AFMS, and medics from our sister 
services have undertaken the most significant changes in military 
medicine since the beginning of TRICARE. In the last few years, we have 
fielded the largest increase in benefits since the creation of Medicare 
and CHAMPUS in the mid-1960s.
    At the same time, we are medics at war. We have been engaged in 
battle for nearly 4 years. Not since Vietnam has our operations tempo 
been as elevated. Not since then has combat been as continuous. The 
Global War on Terror is the most significant engagement of this 
generation . . . and I am immensely proud of the medical and dental 
care we provide anywhere, anytime.
    Some have the opinion that wartime and peacetime care are two 
separate and distinct missions. I disagree strongly. We have one 
mission: to care for our troops, which includes their families. The 
home-station and deployment sides of that mission are inextricably 
linked. We are able to achieve the necessary balance because of our 
ability to focus on what we call our four health effects, the four most 
important services medics contribute to the fight. The four health 
effects are:
    (1) Ensuring a fit and healthy force
    (2) Preventing illness and injury
    (3) Providing care to casualties, and
    (4) Enhancing human performance
    These four effects are what medics must bring to the fight, 
everyday, from Whiteman Air Force Base in Missouri, to Balad Air Base 
in Iraq.

                    ENSURING A FIT AND HEALTHY FORCE

Air Force Fitness Program
    The Air Force's most important weapon system is the Airman. We 
invest heavily in our people to ensure they are mentally and physically 
capable of doing their job. They need to be; we ask them to launch 
satellites, fix aircraft, perform surgery, pilot multi-million dollar 
aircraft, and thousands of other tasks used to support and execute 
battle. Commanders need their Airmen to perform these tasks in harsh 
environments, under extreme stress, often under fire. If any of them is 
unfit or too ill to accomplish their roles, the mission suffers.
    The Roman General Renatus wrote that ``little can be expected from 
men who must struggle with both the enemy and disease.''
    In other words, if we aren't fit, we can't fight.
    Two years ago, General Jumper, our Chief of Staff, unveiled the Air 
Force's new program to improve fitness. The Fit to Fight initiative 
puts greater emphasis on physical fitness training to enhance not only 
the ability of Airmen to work in the challenging expeditionary 
environment, but also the ability to sustain significant injury and 
illness far from home and be able to survive field care and long-
distance aeromedical evacuation. Fit to Fight is working. Across the 
Air Force, fitness center managers report that usage of their 
facilities is up 30 percent. The results: before the program started 
only 69 percent of Airmen passed their fitness test. Now, even with 
more stringent requirements, we have an 80 percent pass rate.
    Additionally, a secure web site gives commanders up-to-the-minute 
reports on the status of their active duty, Guard, and Reserve troops' 
fitness levels. Now leaders know instantly what percentage of their 
troops are fit to fight.
    True fitness is measured by more than strength and stamina--it 
involves a whole person concept that includes physical, dental, and 
mental health. Our Deployment Health Surveillance program gives us 
visibility over each of these important health factors.
    We can never forget that we ask our fighting men and women to do so 
in harsh environments, far from home, far from sophisticated health 
care facilities. A healthy, fit warrior is much better able than a 
less-fit person to sustain a significant illness or injury and be 
stabilized for long distance travel.
Deployment Health Surveillance program
    Our fitness and Deployment Health Surveillance programs complement 
each other. The first provides healthy troops to the fight, the second 
maintains and monitors their health. We are very proud of our 
Deployment Health Surveillance program that has resulted in our lowest 
Disease Non-Battle Injury Rates (DNBI) of all time, about 4 percent 
across the Department of Defense. The Air Force Medical Service 
conducts a variety of activities that ensure comprehensive health 
surveillance for our Total Force Airmen pre-, during, and post-
deployment, and indeed, throughout their entire careers.
    Annual Preventive Health Assessments ensure each Airman receives 
required clinical preventive services and meets individual medical 
readiness requirements. This data is conducted globally and recorded in 
an AFMS-wide database--therefore, the health of each Airman, whether 
active duty, Guard or Reserve, can be tracked throughout his or her 
service and in any location. This is an invaluable medical readiness 
tool for commanders.
    Pre-deployment medical assessments are performed on every Airman 
who deploys for 30 or more days to overseas locations without a fixed 
medical facility. While deployed, the member is protected by preventive 
medicine teams who identify, assess, control and counter the full 
spectrum of existing health threats and hazards, greatly enhancing our 
ability to prevent illness and injury.
    These Preventive Aerospace Medicine teams, or PAM teams, are our 
unsung heroes. They are small units--usually only three or four 
people--including an aerospace medicine physician, bioenvironmental 
engineer, public health officer and an independent duty medical 
technician. Theirs are among the very first boots on the ground 
whenever we build a base in theater. Before the fence is raised and the 
perimeter secured, these medics are securing the area against 
biological and chemical threats. PAM teams sample and ensure the safety 
of water, food, and housing. They eliminate dangers from disease-
carrying ticks, fleas, and rodents. Ultimately, they can claim much of 
the credit for the extremely low Disease Non-Battle Injury Rate.
    As our troops redeploy, post-deployment assessments are conducted 
for the majority of Airmen in-theater, just before they return home. 
Commanders ensure that all redeploying Airmen complete post-deployment 
medical processing immediately upon return from deployment, prior to 
release for downtime, leave, or demobilization.
    During this process, each returning individual has a face-to-face 
health assessment with a health care provider. The assessment includes 
discussion of any health concerns raised in the post-deployment 
questionnaire, mental health or psychosocial issues, special 
medications taken during the deployment, and concerns about possible 
environmental or occupational exposures. The health concerns are 
addressed using the appropriate DOD/VA assessment tool such as the 
Post-Deployment Health Clinical Practice Guideline.
    Since the first of January 2003, we have accomplished 100,000 post-
deployment assessments for Air Force members, including almost 27,000 
from our Air Reserve Component, or ARC, personnel. Of these 
assessments, we identified approximately 6,500--or 9 percent--active 
duty and about 3,000--or 11 percent--ARC personnel that required a 
follow-up referral. This equates to only 9.5 percent of our returning 
personnel that require follow-up due to deployment-related medical or 
dental health concerns.
    To better ensure early identification and treatment of emerging 
deployment-related health concerns, we are currently working on an 
extension of our post-deployment health assessment program to include a 
re-assessment of general health with a specific emphasis on mental 
health. It will be administered within six months of post-deployment 
using a standard re-assessment process. The re-assessment will be 
completed before the end of 180 days to afford Air Reserve Component 
members the option of treatment using their TRICARE health benefit.
    I am pleased to report that a recent Government Accountability 
Office audit on Deployment Health Surveillance concluded that our 
program had made important improvements and that from 94 percent and 99 
percent of our Airmen were receiving their pre- and post-deployment 
assessments.
    To address the mental health needs of deployed Airmen, the Air 
Force deploys two types of mental health teams: a rapid response team 
and an augmentation team. Mental health rapid response teams consist of 
one psychologist, one social worker and one mental health technician. 
Our mental health augmentation teams are staffed with one psychiatrist, 
three psychiatric nurses and two mental health technicians. Deployed 
mental health teams use combat stress control principles to provide 
consultation to leaders and prevention and intervention to deployed 
Airmen. The Air Force currently has 49 mental health personnel deployed 
for current operations, 31 of whom are supporting Army or joint service 
requirements. We currently use psychiatric nurses at our aero-medical 
staging facilities to better address emerging psychological issues for 
Airmen being medically evacuated out of the combat theater.
    The Air Force is also in the process of standardizing existing 
redeployment and reintegration programs, which help Airmen and family 
members readjust following deployments. These programs involve 
collaborative arrangements among the medical, chaplain and family 
support communities. Airmen and their families can also take advantage 
of The Air Force Readiness Edge, a comprehensive guide to deployment-
related programs and services, as well as Air Force OneSource, a 
contractor-run program that provides personal consultation via the web, 
telephone or in-person contacts. AF OneSource is available 24 hours a 
day, and can be accessed from any location.
    After deployments, psychological care is primarily delivered 
through our Life Skills Support Centers, which deliver care for alcohol 
issues, family violence issues and general mental health concerns. 
Staffing of more than 1,200 professionals includes a mix of active 
duty, civilian and contract personnel who serve as psychiatrists, 
psychologists, social workers, psychiatric nurses and mental health 
technicians. We currently offer ready access to mental health care in 
both deployed and home-station locations.
    The Air Force also looked at several behavioral indicators from 
fiscal year 2000 to fiscal year 2004 to examine trends before and after 
initiation of OEF and OIF. Child abuse rates were virtually unchanged 
throughout the Air Force over the 5-year span, and spouse-abuse rates 
and alcohol-related incident rates actually declined somewhat over the 
past 5 years. To date, there have been no Air Force suicides in Iraq or 
Afghanistan during OEF and OIF. Since the onset of OEF (Oct. 7, 2001), 
there have been 125 suicides in the Air Force. Only four suicides 
involved personnel who had been previously deployed to Iraq or 
Afghanistan, representing a rate (4.2 per 100,000) much lower than the 
Air Force historical average over the last 8 years (9.7 per 100,000). 
The Air Force Chief of Staff has placed increased emphasis on adherence 
to existing Air Force suicide prevention policies in recent months, and 
the current very low rates so far for this fiscal year (7.1 per 100,000 
as of March 2, 2005) are encouraging.
    Our reviews indicate that deployed Airmen have faced less exposure 
to traumatic stress than their Army and Marine counterparts, and 
therefore have experienced less psychological impact during current 
operations. We must be prepared, however, for this to change. More 
recently, Air Force personnel have been called upon to support convoy 
operations. Additionally, future operations may place additional 
demands upon our Airmen, and we must be ready to respond. Initiatives 
to re-assess the mental health status of our personnel 90-180 days 
post-deployment will allow us to better monitor and address mental 
health needs as they emerge.

                         PREVENTING CASUALTIES

    Today's Global War on Terrorism will be with us for years to come. 
Terrorism confronts us with the prospect of chemical, biological, and 
radiological attacks. Of those, the most disconcerting to me are the 
biological weapons. Nightmare scenarios involving biologicals include 
rapidly spreading illnesses, ones so vicious that if we cannot detect 
and treat the afflicted quickly, there would be an exponential 
onslaught of casualties.
    Just as General Jumper talks about the need for our combatants to 
find, fix, track, target, engage and assess anything on the planet that 
poses a threat to our people--and to do so in near real time--so must 
medics have the capability to find biological threats, and to track, 
target, engage and defeat such dangers; whether they are naturally 
occurring--like Severe Acute Respiratory Syndrome, or ARS--or manmade, 
like weaponized smallpox.
    The rapidly advancing fields of biogenetics may provide the 
technology that allows us to identify and defeat these threats. Many 
consider the coupling of gene chip technology with advanced informatics 
and alerting systems as the most critical new health surveillance 
technology to explore--and we are doing it now in the Air Force.
Silent Guardian
    This evolving technology was tested recently in a Deployment Health 
Surveillance exercise in Washington, DC. The test started shortly 
before the inauguration and ended with the close of the State of the 
Union Address. The exercise, codenamed Silent Guardian, involved the 
military medical facilities that ring the National Capital Region. We 
placed teams in each of these facilities to collect samples from 
patients who had fever and flu-like illnesses. The samples were then 
transported to a central lab equipped with small, advanced biological 
identification unit--the ``gene chip'' I mentioned--capable of testing 
for, and recognizing, scores of common or dangerous bacteria and 
viruses. And when I say small, I mean that the gene-reading chip at the 
center of this system is smaller than a fingernail.
    To run this many tests using the technology we normally use today 
would require a large laboratory, two to five weeks, numerous staff, 
and thousands of swabs and cultures dishes. But this new analyzer is 
closer in technology to the hand-held medical tricorder used by Dr. 
McCoy in Star Trek than it is to the swab-culture-wait-grow method 
currently used.
    We knew the test results within 24 hours, not the days or weeks 
required in the past. All results were entered into a web-based program 
that tracks outbreak patterns on a map. Additionally, we had mechanisms 
in place to automatically alert medics and officials of potential 
epidemics or biological attacks.
Epidemic Outbreak Surveillance
    The systems used in Silent Guardian are a small part of the 
Epidemic Outbreak Surveillance project, or EOS, an Air Force initiative 
that combines existing and emerging biodefense technologies by using a 
``system of systems'' approach in a rigorous real-world testbed. This 
project is currently in the Advanced Concept Technology Demonstration 
phase, but we hope to eventually deploy this technology to military 
bases worldwide for near real-time, total visibility of biological 
threats to our troops. These threats are not just those of biological 
warfare, but I want this team to focus on threats to our troops from 
naturally occurring disease outbreaks, from adenovirus to influenza. 
Imagine the power of knowing when and who a disease was stalking!
    When fielded, EOS will integrate advanced diagnostic platforms, 
bio-informatic analysis tools, information technology, advanced 
epidemiology methods, and environmental monitoring. Alone, none of 
these provide a defense against a biological attack, either natural or 
manmade. Woven together, they create a biodefense system that permits 
medics to rapidly identify threats, focus treatment, contain outbreaks, 
and greatly decrease casualties.
    Another exciting advancement we expect to start transitioning this 
year is our technical ability to create an unlimited number of COHORTs 
of each Airman, which will provide occupational and medical 
surveillance from the time he or she joins the Air Force until 
retirement or separation, regardless of where the Airman serves or what 
job he or she performs. We will finally be able to tie together medical 
conditions, exposure data, duty locations, control groups, and 
demographic databases to globally provide individual and force 
protection and intervention, reducing disease and disability. These 
tools will be working in near real time, and eventually will be 
automated to work continuously in the background to always be searching 
for key sentinel events.
    Diabetes is another enemy that takes lives, and it too can be 
defeated. We have been collaborating with the University of 
Pennsylvania Medical Center to create Centers of Excellence for 
diabetes care. Diabetes can affect anyone--in or out of uniform--so 
this effort promises to improve the lives of all beneficiaries. 
Together, we are seeking ways to prevent and detect the onset of 
diabetes while providing proven, focused prevention and treatment 
programs to rural communities, minority populations, the elderly and 
other populations prone to this disease.

                             RESTORE HEALTH

High Survivability Rate
    We have enjoyed significant success in the third health effect we 
bring to the fight--that of restoring the health of our sick or injured 
warriors. Innovations in both technology and doctrine are dramatically 
improving survival rates of our troops on the battlefield.
    During the American Revolution, a soldier had only a 50/50 chance 
of living if injured on the battlefield. From the Civil War through 
World War II, about 70 percent of the injured survived their injuries. 
Aeromedical evacuation in Vietnam is partly responsible for increasing 
the survival rate to nearly 75 percent. During Operation IRAQI FREEDOM 
(OIF), 90 percent of those injured in combat survived their wounds. We 
attribute this success to the combination of our rapidly deployable 
modular Expeditionary Medical units, excellent joint operations, and 
our transformed aeromedical operations.
EMEDS
    The Expeditionary Medical Support concept, or EMEDS, has proven 
itself invaluable in OIF. EMEDS is a collection of small, modular 
medical units that have predominantly replaced our large, lumbering 
theater hospitals. Big things come in small packages, and there are at 
least three big benefits to these small EMEDS:
    First, by breaking up our large deployable medical facilities, we 
can spread our resources geographically to locations around the globe 
where they are needed the most; an efficient use of our assets.
    Secondly, EMEDS units are easier to insert far forward and 
integrate with other services, so our medics are closer to the action 
and closer to the wounded who need our lifesaving skills. For example, 
our Aeromedical Evacuation Liaison Teams and aeromedical staging 
facilities were loaded into humvees and provided direct combat service 
support to the Army V Corp and 1st Marine Expeditionary Forces convoys 
as they fought their way along the Tigris and Euphrates from northern 
Kuwait to Baghdad in 2003.
    Finally, these units are small, light, and lean. How small? The 
people and equipment comprising the entire Air Force medical support in 
OIF have taken up less than one percent of the cargo space of all 
assets headed to the war. EMEDS' small footprint allows us to pick them 
up and put them down anywhere quickly. We get to the fight faster. For 
example, in OIF, we opened 24 bases in 12 countries in a matter of 
months, each with a substantial EMEDS presence. That formidable 
presence served not only Air Force troops, but also ground forces 
throughout the region. To further ensure quality care, we deployed 
over-pressurized tents that are capable of keeping biological and 
chemical weapons from seeping into our medical facilities.
    EMEDS' modularity allows its components to be mixed and matched 
effortlessly with other EMEDS units or even another Service's assets to 
create the package of medical care required. Whether it's a small 
clinic or a large 250-bed hospital that does everything short of organ 
transplants, the right level of medical care is prescribed and provided 
to our warriors.
    The speed with which these EMEDS deploy is phenomenal. One of our 
first EMEDS units in theater was a 25-bed hospital based at the Air 
Force Academy in Colorado. The time elapsed from the moment EMEDS 
members got their telephone call notifying them of deployment, gathered 
and transported all 100 medics and their equipment, pitched their tents 
in Oman, and saw their first patient, was just 72 hours. Because of 
this capability, we are the medics of choice for Special Forces and for 
quick-reaction forces in the United States and abroad.
    Less than one month after the September 11th, 2001, attacks, a 
medical team supporting Special Operations saved the life of the first 
soldier severely injured while supporting Operation ENDURING FREEDOM. 
Exactly 3 years later, on September 11th, 2004, Air Force medics 
accomplished the miraculous save of a horribly wounded Airman in 
Baghdad. I will share this story later in my statement. But in between 
and since these two remarkable medical events, there have been volumes 
of compelling stories reflecting the awesome capabilities of the Air 
Force Medical Service and our joint Air Force-Army-Navy medical team as 
we care for our troops.
Caring for Iraqis
    Not all of our patients are American military members. Throughout 
this conflict, we have treated Iraqi civilians, our Iraqi allies, and 
even the enemy. After Saddam was toppled, we moved hospitals into 
places like Tallil, Baghdad International Airport, and Kirkuk, where we 
continue to treat all those caught in harm's way, whether friend or 
foe.
    To emphasize that point, I have two very compelling stories 
concerning the care we provide Iraqi nationals. The first involves a 
horribly wounded detainee believed to have received his wounds while 
engaged in combat against our troops. He was going to be transferred to 
an Iraqi hospital, but begged to remain with American doctors until his 
wounds were resolved. His words to our Air Force surgeon were, ``If I 
go, I will surely die. I trust only you.''
    This trust and faith in Americans plays a role in my next story, 
too. Air National Guard medics from the EMEDS at Kirkuk treated a group 
of badly injured Iraqis brought into camp by American soldiers. While 
the camp was under mortar fire, our medics worked to save the men. By 
morning, all were stabilized. They were transported to another medical 
facility the following day. Captain Julie Carpenter, a nurse, rode with 
one of the men, and because he was still in pain, she tried to provide 
some comfort. She would look in his eyes or hold his hand because, as 
she said, ``I wanted him to feel he wasn't alone; I imagine it was 
scary for him.''
    She thought little of the incident until days later she learned 
that the thankful families of these injured Iraqis approached American 
troops and provided information that led our troops to the location and 
the capture of Saddam Hussein.
    Expeditionary health care is a military tool that not only saves 
lives; it can turn confrontation into cooperation, revealing compassion 
to be the long arm of diplomacy.
Expeditionary Health Technology
    Restoring health in the expeditionary environment requires that our 
dedicated medical professionals are equipped with cutting-edge 
technology. For example, we are seeking techniques to convert common 
tap or surface water into safe intravenous (IV) solutions in the field. 
We are also developing the ability to generate medical oxygen in the 
field rather than shipping oxygen in its heavy containers into the 
field.
    Telehealth is another fascinating technology that enhances the 
capabilities of our medics. It allows a provider in Iraq to send 
diagnostic images such as X-rays through the Internet back to 
specialists located anywhere in the world, Wilford Hall Medical Center, 
for instance, for a near real-time consult. This insures that each 
Soldier, Sailor, Airman or Marine in the field has access to one of our 
outstanding specialists almost anytime and anywhere.
Aeromedical Evacuation
    Restoring health also means bringing casualties back from the front 
as quickly as possible to sophisticated medical care. The Air Force 
Medical Service makes its unique contribution to the Total Force and 
joint environment through our aeromedical mission and the professionals 
who perform it. The job of Aeromedical Evacuation crewmembers is not 
easy. They must perform the same life-saving activities their peers 
accomplish in hospitals, but in the belly of an aircraft at over 20,000 
feet. The conditions are sometimes challenging as crew members work 
under the noise of the engines or when flying through turbulence--but 
there is no place else they would rather be. TSgt Pamela A. Evanosky of 
the 315th Aeromedical Evacuation Squadron out of Charleston AFB said, 
``AE is exhausting duty. But I love it. I know everyday that I make a 
difference. This is the most honorable and rewarding work I could 
possibly ever do.''
    It truly is rewarding, and I am very proud to report, that Sergeant 
Evanosky and her fellow AE crewmembers have accomplished over 55,000 
patient movements since the beginning of OIF, and they have never lost 
a patient.
Critical Care Air Transport Teams
    Occasionally, our AE crews transport a patient who is so ill or 
injured that they require constant and intensive care. When that 
happens, our AE medical capability is supplemented by Critical Care Air 
Transport Teams, or CCATTs. These are like medical SWAT teams that fly 
anywhere on a moment's notice to retrieve the most seriously injured 
troops. Team members carry special gear that can turn almost any 
airframe into a flying intensive care unit (or ICU) within minutes. An 
in-theater EMEDS commander told me that CCATTs are a good news/bad news 
entity. He said, ``The bad news is, if you see the CCATT team jumping 
on a plane, you know someone out there is hurt bad. The good news is, 
if you see CCATT jumping on a plane, you know that someone will soon be 
in the miraculous hands of some of the best trained medics in 
existence.''
    No discussion of aeromedical evacuation is complete without 
recognizing the critical contribution of the Reserve Component. About 
88 percent of AF Aeromedical Evacuation capability is with the Guard 
and Reserve. I am deeply proud of and awed by their dedication and 
self-sacrifice in delivering sick and often critically injured troops 
from the battlefront into the care of their families and our medics at 
the home front.
The Miracle of Modern Expeditionary Medicine
    The seamless health care we provide with our Sister Services from 
battlefield to home station can be illustrated by the miraculous, life-
saving story of Senior Airman Brian Kolfage.
    Airman Kolfage suffered horrendous wounds when an enemy mortar 
landed near him. These mortars have a kill radius of 150 feet. Kolfage 
was about 10 feet away. The blast threw him half the length of a 
football field. It shredded both legs and his right arm. Normally, no 
one could survive such an injury, but an Air Force medic who was close 
by when the blast occurred was able to respond immediately.
    The field surgeons had Airman Kolfage on the operating table in 
five minutes and were able to stabilize him. Aeromedical Evacuation 
crews and CCATT teams transported him halfway around the world to 
Walter Reed Army Medical Center.
    Senior Airman Kolfage was airlifted from the site of injury over 
6,000 miles away to a hospital just 6 miles from where we now sit. And 
this all happened in a time span of just 36 hours. That is something 
that could not have happened in previous conflicts.
    Airman Kolfage lost both legs and his right hand. But he has 
definitely not lost his spirit. He arrived at Walter Reed flat on his 
back, but vows to walk out of there. I believe him. He takes vows 
seriously. As a matter of fact, he just exchanged them with his 
girlfriend--now wife--whom he recently married at Walter Reed.
    This is a miracle of modern technology, seamless joint medical 
operations, and the resiliency of youth. In any other war, this young 
man would have lost his life; now he has it all before him.
    Every day the Air Force Medical Service sees thousands of patients. 
We try to make a difference with each individual; in Airman Kolfage's 
case, we know for sure we made the ultimate difference.

                       ENHANCE HUMAN PERFORMANCE

    The fourth health effect we contribute to warfighting is the 
enhancement of human performance. Helping Airmen perform to the best of 
their abilities means we must have people who are highly trained, 
competent, and equipped with advanced technology that can both help 
them do their jobs and protect them while doing so. We are seeking to 
enhance human performance for our troops through cutting-edge research 
and development that will improve the safety and performance of our 
troops in the expeditionary Air Force.
    For example, we continue to pursue methods of enhancing our 
member's eyesight. Obviously, good vision has always been important to 
our troops, particularly pilots whose eyes may be their navigators. But 
detecting and protecting our troops' eyesight is especially critical 
now that Directed Energy Weapons, or Lasers, are widely available and 
capable of inflicting great injury to the eye.
    A laser pointed into an eye can temporarily or even permanently 
damage an Airman's vision, so we seek special lenses for eyewear and 
helmet shields that can block harmful laser rays. Detecting laser eye 
injuries can be difficult; treating such injuries is currently next to 
impossible. Consequently, we are fielding retinal surveillance units in 
high-threat areas to accomplish eye exams, always looking for evidence 
of laser damage. We are searching for valid therapies to treat these 
types of newly recognized injury patterns. No such therapy currently 
exists.
    Finally, we'll push the envelope on ocular technologies by trying 
to create vision devices that will allow our Airmen to see to the 
theoretical limit of the human eye, which some say is 20-over-8. If 
successful, this will provide our pilots and warriors the ability to 
see twice as far as an adversary.
The Changing AFMS Construct
    The AFMS faces the challenge of delivering these four health 
effects in times of significant change in the two constructs in which 
we operate; that of medicine and of military operations planning--how 
we fight wars.
Changes in Health Care
    Health care has changed radically in the past 15 years. In my 
tenure as a physician, advances in pharmaceuticals, diagnostics--like 
the CAT scan and MRI-fiber optic techniques such as laparoscopy, 
arthroscopy, and the use of stints for blocked arteries, and anesthesia 
breakthroughs have radically altered our military treatment facilities. 
In the private sector, small, full-service hospitals have gone the way 
of the eight-track tape, replaced by more efficient medical complexes 
that focus on outpatient care and ambulatory surgery.
    The same pressures that prompted civilian health care facilities to 
move to outpatient surgery have influenced transitions in the Air Force 
delivery of health care as well. Historically, we structured ourselves 
to have hospitals at most bases. We now have substantially transitioned 
our facilities to the point where fewer than 30 percent of our bases 
have hospitals. In fact, if you look today, we have fewer hospital beds 
in the entire Air Force, 740, than existed at the Air Force's Wilford 
Hall Medical Center in 1990, which had 855.
    Another important way the military has adapted to the changing 
health care construct is to operate much more closely with sister 
service and civilian hospitals to provide comprehensive patient care. 
For instance, the Landstuhl Army Medical Center in Germany--the first 
stop for many of our wounded returning from Afghanistan and Iraq--has a 
contingency of almost 300 permanent-party Airmen working side-by-side 
with their nearly 900 Army counterparts.
    We enjoy a similar sharing opportunity with the University of 
Colorado at Denver. Most of nearby Buckley Air Force Base's patient 
care assets are now located at the University's Fitzsimmons medical 
campus. Our close working relationship with the university hospital and 
its president, Dennis Brimhall, are responsible for the efficient and 
innovative use of medical resources and quality care for our 
beneficiaries.
    Strong relationships with civilian agencies--like that of our 
Center for Sustainment of Trauma And Readiness Skills, or C-STARS 
program--have benefited both our peacetime TRICARE and wartime AEF 
missions. The Air Force has three of these centers, one each in the 
Cincinnati University Hospital Trauma Center in Ohio, Saint Louis 
University Hospital in Missouri, and the R. Adams Cowley Shock Trauma 
Center in Baltimore. Military medics work in tandem with their civilian 
counterparts there to care for seriously ill or traumatically injured 
patients, patients seldom seen in military MTFs. These programs prepare 
our providers for deployment by exposing them to the wounds they will 
treat in combat. In the future, we will be looking for new ways to 
partner with these civilian institutions, such as in education and 
research and development.
Changes in War-Fighting
    The second construct change is that of the Air Force mission 
itself. When I entered the Air Force in the late 1970s, we planned, 
trained, and equipped our medics on the basis of the threats faced in 
two major operational plans of short duration. That construct is no 
longer valid, as can clearly be seen with the Global War on Terrorism.
    The Air Force created its Air Expeditionary Force structure, in 
part, in response to this new construct. The AFMS needed to restructure 
itself, too, so that it could face multiple commitments overseas of 
both short and long duration. Our nation requires that medics field 
combat support capabilities that are very capable, rapidly deployable, 
and sustainable over long periods. This has driven three additional 
changes to our medical system. Our people must be trained, current, and 
extractable to support the warfighter. Medics must be placed at 
locations where they can maintain the skills they need for their combat 
medicine mission. It is also vital that these locations must allow the 
medics to deploy easily without significantly interrupting the care 
they provide the base or TRICARE beneficiaries, especially at those 
locations with sustained medical education training programs.
    This is exactly the challenge that the Air Force Chief of Staff 
Gen. John P. Jumper issued to me in creating expeditionary medics: 
medics who are focused on developing the skills for the field and eager 
to deploy for four of every 20 months.
    We are assigning medics at large facilities into groups of five so 
that one team can be deployed at any one time while the other four 
remain to work and train at home stations. We are also reviewing the 
ratio of active-to-reserve medics and asking ourselves important 
questions: What mix of the active duty to reserve component will ensure 
the best balance between the ability to deploy quickly and the 
capability to surge forces when necessary?
    Finally, we are actively reviewing the total size of the AFMS to 
make sure that over the next few decades we can successfully fulfill 
our wartime mission while still providing the peacetime benefit to our 
members, retirees, and their families.
TRICARE
    The next generation of TRICARE contracts is now completely 
deployed. The transition was smoother than that experienced in the last 
contract transition in the 1990s. Service contracts are now in place to 
fully support the benefit enhancements to our active and reserve forces 
that were temporary in 2004, but made permanent by the fiscal year 2005 
National Defense Authorization Act. Although we experienced some 
challenges with referral management, both the government and our 
contractors are working to find solutions and we have seen improvement 
over the past several months. We will continue to work this issue 
aggressively as access both in the direct care system as well as the 
network continues to be closely monitored.
    The TRICARE benefit is generous, and many retirees who have the 
choice between our care and that offered by their civilian insurers are 
opting for the military's medical system. In spite of the increase in 
benefits and the ever-growing population to whom it is delivered, the 
TRICARE system continues to receive satisfaction ratings superior to 
that of civilian health care systems.
Working with the Department of Veterans Affairs
    Our concern about the care of our beneficiaries continues even 
after they have left the DOD system; therefore, the DOD/VA Resource 
Sharing Program continues to be a high priority for the Air Force 
Medical Service. The new Health Executive Council is making promising 
steps toward removing barriers that impede our collaborative efforts. 
We constantly explore new areas in which we can work to jointly benefit 
our patients and are currently finding these opportunities in 
information technology, deployment health medicine, pharmacy, and 
contingency response planning and patient safety programs. We are 
particularly proud of progress toward improving transitional services 
and the delivery of the benefit to our separating service members. 
These combined, cooperative efforts are a win-win-win for United 
States, the VA, and most importantly, our beneficiaries. Of course, I 
remain very proud of our numerous joint VA-Air Force operations, from 
Anchorage to Las Vegas, from Albuquerque to Travis Air Force Base 
California, we continue to team well with the VA.
Recruiting and Retention
    The AFMS continues to face significant challenges in the 
recruitment and retention of physicians, dentists, and nurses; the 
people whom we depend upon to provide care to our beneficiaries. The 
special pays, loan repayment programs, and bonuses to our active and 
reserve component medics do help, and I thank you for supporting such 
programs. Nearly 85 percent of nurses entering the Air Force say they 
joined in large part because of these incentives.
    We also recognize the importance of maintaining a modern and 
effective infrastructure in our military treatment facilities, from 
clinics to medical centers. The atmosphere in which our medics work is 
as important as any other retention factor. We have wonderful patients, 
patriotic and willing to sacrifice. They deserve not only the most 
brilliant medical and dental minds, but first class equipment and 
facilities. Every day, I strive to make that happen.
Conclusion
    The Air Force Medical Service is proud to be part of a joint 
medical team that provides seamless care to America's heroes, no matter 
what Service they are from. We can boast of a full-spectrum, effects-
based health care system. Our focus on a fit and healthy force coupled 
with human performance enhancement strategies and technologies, 
promotes maximum capability for our Total Force warriors. Our health 
surveillance programs keep them and their units healthy day to day, 
ready to take on the next challenge. When one of our warriors is ill or 
injured, we respond rapidly through a seamless system from initial 
field response, to stabilization care at our expeditionary surgical 
units and theater hospital, to in-the-air critical care in the 
aeromedical evacuation system, and ultimately home to a military or VA 
medical treatment facility. Across service lines, at every step, we are 
confident that our Soldiers, Sailors, Airmen and Marines--active duty, 
Guard and Reserve--are receiving the high level of medical care they 
deserve, from foxhole to home station.
    As we work to improve upon this solid foundation, the men and women 
of the Air Force Medical Service, at home or deployed, remain committed 
to caring for our troops. We appreciate your support as we build to the 
next level of medical capability.
    Thank you.

    Senator Stevens. Thank you very much, gentlemen.
    We have had enormous response as a volunteer military in 
terms of those people who have been coming in, particularly the 
younger people. What success have you had in terms of 
increasing enlistment of medical professionals and retaining 
them after they come in? For instance, are our bonuses and 
other initiatives giving you good enough tools to assure a 
sufficient number of reenlistments? No one is really talking 
about this so far as I can see. But it has got to be different 
now than it was back in the days of the draft. How are you 
doing in terms of recruitment and retention? General Kiley.

             MEDICAL PROFESSIONALS RECRUITING AND RETENTION

    General Kiley. Sir, thank you for the question. I think 
there are two parts to it. Our enlisted combat medic recruiting 
and retention appears to be going pretty well. As you know, our 
combat medics are emergency medical technician-basic (EMT-B) 
certified, and that seems to have been a draw for many young 
men and women to get the opportunity to get that certification.
    The area we are concerned with, which I think you are also 
asking about, is the area of our professional officer corps, 
recruiting and retaining them, both physicians and nurses. We 
are still short, in terms of our authorizations, against what 
we have on hand for both corps. Specifically, we project this 
year to be close to 200 nurses short in terms of our total end 
strength.
    Senator Stevens. What about doctors, physicians?
    General Kiley. Sir, we are probably close to that same 
number short in physicians. The dynamics are slightly different 
for the two corps. I think Colonel Bruno will tell you that 
there is a nationwide shortage of nurses and nursing starts in 
terms of young men and women who would like to go into nursing 
as a profession, a lot more that would like to than can get 
into school. That is one problem.
    We have not offered, until recently, the same level of 
scholarship opportunities that we are offering now, and we are 
starting to get some interest in scholarships in nursing school 
and also in ROTC.
    We have had some difficulty in retaining nurses. This is 
for the same reasons as we have with physicians. This is hard 
duty and deployment for 1 year. It is relatively new, even 
though we have been in the global war on terrorism since 9/11. 
For some, the potential for repetitive deployments has been a 
little bit of an issue.
    I am encouraged. We are taking some steps recently to 
increase bonuses and to look at other opportunities to get 
nurses on board.
    For physicians, recently the Congress increased the 
ceilings on retention bonuses for physicians. We have not fully 
funded those inside the services to the maximum for all 
physicians. There has been an effort between the three services 
to balance the amount of bonuses per specialty, focusing on 
combat-relevant specialists. I think the personnel tempo 
(PERSTEMPO), the deployment tempo, the long deployments have 
also been a challenge for some of our physicians also. About 
half of the physicians in our Army that are not in training as 
interns and residents have had at least one deployment, and 
many are on the second deployment. We have got some of our 
general surgeons that are on a third deployment now between the 
Bosnia and Kosovo, Afghanistan, and now Iraq operations.
    I think it is a little too early to tell in terms of long-
term retention for physicians what the personnel tempo of the 
physicians in terms of deployments and redeployments will be on 
retention. I am still encouraged. I just talked to a young 
physician the other day who took great pride in the fact that 
he spent 1 year with combat troops in Iraq and is now back in a 
training position, training the next generation of physicians. 
We have increased the bonuses and we continue to work that.
    We are also working to get clearer data which, believe it 
or not, tells us each physician, as they arrive at a point 
where they can actually make the decision do I get out or do I 
sign up for another bonus. We do not actually know the numbers. 
We have got a fair number of continuation data, how many 
doctors continue to stay on, and those numbers look relatively 
good. But I am authorized to 43-47 I believe, and I am at about 
41-50, plus or minus. The cycle changes. Over the summer we 
lose and gain, and then in the fall we lose and gain again.
    So I am concerned. I think we have been at our global war 
on terrorism and this deployment challenge for physicians and 
nurses long enough that those that have had bonuses that they 
are letting run out are now at the point where they are 
starting to let them run out.
    Our certified nurse anesthetists. We increased the bonuses 
for certified nurse anesthetist recognizing that we had a real 
retention problem. And the preliminary indications are that 
they have responded to those increased bonuses and that we have 
signed up a fairly large number of our critical nurse 
anesthetists.
    So it is a mixed picture right now. We are watching it 
pretty carefully. We have got a whole host of new plans and 
programs working with our recruiting command getting physicians 
and nurses engaged in going to facilities and talking to 
doctors and medical students as a way to bring them on board. 
So I think we do not have the final answer yet, but I remain 
concerned about that.
    Senator Stevens. You mentioned homeland security. Are you 
prepared to take on the problems of homeland security through 
your Reserve and Guard? Do you have enough medical people in 
those areas?
    General Kiley. Well, that also is an area of concern. As 
you know, we have a policy now, a 90-day boots on the ground, 
for physicians and dentists, so that they can preserve their 
private practices. I do think it is a challenge for the 
Reserves. The nature of health care in the private sector is 
such that physicians cannot afford in their practices to leave 
for 6 months or 1 year, and so they are very reluctant to sign 
up.
    We do watch the numbers very closely, and depending on the 
nature of the mission, we may be stretched very thin using 
medical reserves to support significant homeland defense 
operations. I do not have any more specific answer to that 
question. I know it is a concern for us.
    Senator Stevens. Do you have any comment on those 
questions, Admiral?

                       RECRUITMENT AND RETENTION

    Admiral Arthur. Yes, sir. Thank you. I think that was a 
very good, comprehensive answer, and I echo many of those 
sentiments. I would like to add just a couple of other things.
    I think there is a tremendous value to having an all-
volunteer service. I have talked with many veterans whose sons 
have died in combat, and one of the things they tell me is they 
are very proud of their son, that he--and in some cases a she, 
but not for us in the Navy--volunteered to go there, wanted to 
serve his country, and that he felt that he died in an 
honorable way. I do not think that that same sentiment is 
echoed for people who are conscripted to service.
    One of the great things, I think, about our medical system 
is the camaraderie that we have with other health care 
professionals who share the same core values that we have, the 
great training that we give, but the greatest benefit that I 
have seen is that we never ask any of our patients how sick 
they can afford to be. We give the right care every single 
time. I think it is those things that keep people in the Navy, 
the Army, the Air Force medical systems because it is a job 
satisfaction not only their professional lives, but they feel 
that they are not just not successful, but significant in their 
contributions to their Nation. So I think the voluntary service 
is of great value.
    Like the Army, we have difficulty in retaining those 
specialties who tend to have more deployments than others: the 
surgeons, the nurse anesthetists, the perioperative nurses, the 
combat medic equivalents in the Navy. But I think so far we are 
doing pretty well because people want to serve, and that is the 
volunteer aspect.
    I have gone over there in December and January and talked 
to thousands of our medical department folks out there. They 
all would like to be home, but when their time and their duty 
is done. They know what they are doing over there is important.
    Thank you.
    Senator Stevens. General Taylor.
    General Taylor. Sir, just a couple of points. From the 
Active duty side, we continue to be challenged in the Dental 
Corps and the Nurse Corps with sustaining the right number of 
folks. I believe we have most of the tools to shape the force 
properly and build the force properly. It is just putting these 
things in effect takes time. A lot of the cycling, particularly 
for the nurses, is in relation to the outside communities' 
shortage of nurses and the capability of nurses. So we are in 
competition for many of these and it makes it more difficult. I 
am sure that General Brannon will come in behind and talk about 
some of the efforts in pay, ROTC, and other activities that we 
are trying to do to recruit and retain nurses.
    I have to say one of the things that we have worked real 
hard on is placing our medics in an air expeditionary force 
structure so that they go out 120 days every 20 months. It is a 
system that can sustain itself. It is very enthralling to talk 
to medics, either in Iraq or Afghanistan or upon return, and 
how excited they are being able to participate in the 
activities and supporting the armed forces forward. This 
experience of deploying forward for most of our medics is a 
very important part of their life and their contribution to the 
service.
    From the Medical Corps perspective, we tend to be 
challenged in certain specialty types. We are working to adjust 
that specialty mix, but by and large, you know that most of the 
Medical Corps we get are through two very wonderful programs. 
The Uniformed Services University and our Health Services 
Professional Scholarship program continue to provide 
outstanding physicians for each of us in the services.
    From the Reserve component perspective, the Air National 
Guard is taking up the challenge of homeland security. Their 
greatest challenge, as they reform the Air National Guard to 
create military medical capabilities aligned along the FEMA 
regions, is getting the equipment, getting the training, and 
then getting the staff aboard to move into creating the 
capabilities to provide rapid medical response to a homeland 
security event. So I am working very hard with the Guard to try 
and help them restructure their medics in a way that provides 
not only capability for the Federal forces, as we deploy out, 
but provide a wonderful asset for the States and the Governors 
to use in case of a homeland security strike.
    Senator Stevens. We were disturbed when we heard that the 
Uniformed Services University of Health Sciences (USUHS) might 
be closed and equally disturbed when we heard that Walter Reed 
might be closed. We are monitoring both of those rumors.
    But one thing that disturbs me is the feeling that there 
just are not enough physicians, doctors, professionals who are 
willing to volunteer and stay in the service. Many of those in 
your profession have received substantial Federal assistance in 
their education. We used to have a requirement if the person 
got such assistance, a certain amount of time had to be 
dedicated to service in the military. That has been eliminated 
from our laws. What would you think about reinstating it? Is it 
still there? I do not think it is still there. Well, I will ask 
the staff.
    My information from home is we used to have a provision 
that said that they had to spend some time in places where 
there were not enough physicians in the civilian community, and 
that was one of the commitments that they made if they got 
their financial assistance during their medical education. But 
I do not think we still have the requirement of military 
service for those who have the assistance.
    General Taylor. Sir, as far as I understand it, in the 
Health Professions Scholarship program (HPSP), you owe 1 year 
for every year of training, and for those who go to the 
Uniformed Services University, they owe 7 years after their 
training.
    Senator Stevens. But is that military service?
    General Taylor. Military service.
    Senator Stevens. All right. We will get a report on that. 
Thank you.
    Senator Inouye.
    Senator Inouye. If I may follow up on that, is it not true 
that of the 3,600 graduates of USUHS, the retention rate is 
extraordinary? For example, the medium length of unobligated 
retention for physician specialists, not including USUHS grads, 
I believe is 2.9 years, but for USUHS grads, the unobligated 
service retention is about 9 years. Is that not correct?
    General Taylor. Senator, I do not think we know the 
specific numbers there. It is true it is universally understood 
that those who attend USUHS, because of their long commitment, 
stay longer in the service. You must complete USUHS, complete 
your medical residency training, and then the clock starts 
ticking on your 7 years of service. Certainly that is longer 
than the HPSP where they only owe 4 years. So it is true that 
they will stay longer.
    Senator Inouye. I am told that beyond the unobligated, 
there are 9 years for USUHS grads, medium rate.
    And further, we have been advised that if we compare USUHS 
to the four major physician accession centers, USUHS is cost 
effective. It sounds astounding, but I suppose it is correct.
    Does Walter Reed still maintain 40 medical specialty 
programs?
    General Kiley. To the best of my knowledge, yes, Senator, 
they do.
    Senator Inouye. Because I have been told that that is one 
of the major attractions for physicians in the military.

                           TRAINING PROGRAMS

    General Kiley. Yes, sir. What Walter Reed really is is the 
linchpin for Army medicine. There are very robust training 
programs across the entire spectrum, many of which are combined 
with training programs at the National Naval Medical Center. 
Many students in medical school that get an opportunity to 
rotate at Walter Reed really get excited about being in Army 
medicine and having an opportunity to serve at Walter Reed. 
Some of our best, not all, physicians in the military will 
actively seek to be assigned at Walter Reed because of its 
prestige, not only its location in Washington, DC, but the 
prestige of the research that goes on, the robustness and the 
size of the training programs that allow them to do research to 
train the next generation of physicians and certainly nurse and 
also enlisted personnel, all of whom train at Walter Reed.
    It is a very big, complex organization. It delivers very 
sophisticated tertiary level, university, academic level health 
care. And as you know, it is also our major receiving facility 
in the continental United States for combat casualties that are 
coming back where we apply those skills.
    So it has a recruiting and retention capability. It is 
recognized worldwide as are the prestigious Navy and Air Force 
facilities. So it is not without significance as it relates to 
not only that, but longevity, the same discussion you just had 
with continuation rates of physicians. Certainly many of the 
USUHS grads get an opportunity to rotate as medical students, 
like my daughter, and see that as a career potential for them. 
So there are significant second and third order effects to this 
facility, yes, sir.
    Senator Inouye. Admiral Arthur, during the ancient war, the 
one that the chairman and I were involved in--there was much 
talk about what we called section 8, mental cases. In this war 
we see pictures of amputees and blinded veterans and such, but 
very seldom hear about so-called section 8. What is their 
status? Do we have a lot?

                             COMBAT STRESS

    Admiral Arthur. Section 8 is the psychiatric. Okay. I think 
that is an Army term.
    We are, I think, just seeing the results of combat stress 
in our veterans. I think we have not truly had a major combat 
that our Nation's armed forces have been associated with since 
Vietnam. I think Desert Storm, Bosnia, Grenada, Panama--we have 
been in conflict, but not in such a sustained way.
    Having been in combat, I feel that 100 percent of the 
people who experience combat are in some way affected, some a 
little, some a lot more. I think we as the services need to be 
very sensitive to picking up the combat stress not because the 
children are affected or the spouses are affected or the jobs 
are affected, but because we are sensitive enough in our post-
deployment screening tools to see the effect and to treat it at 
its lowest level, by that I mean in garrison rather than 
sending someone to a hospital, if they go to a hospital to do 
the treatment as a outpatient rather than an inpatient and to 
return people to function.
    I think one of the best things that all three services have 
done is to enlist their retirees and other people in the 
communities so that we do not lose track of anyone who does not 
just return to garrison, but actually gets out of the service 
or goes back to Reserve duty and may not have the support that 
an Active duty member has. I think we are all very, very 
concerned about what I would call combat stress to ensure that 
we properly honor the services of the veterans and understand 
it.
    As I said in my opening statement, I think this is in the 
purview of the military. We know what combat stress is about 
because we have been there and we understand it. I think the 
more we can do that keeps our veterans from having to go to 
civilian centers where they are not as well prepared the better 
we will be, and that includes our Veterans Administration 
hospitals as we partner with them to treat veterans.
    Senator Inouye. Do you believe that we are adequately 
demonstrating this concern and sensitivity?
    Admiral Arthur. I believe that we adequately have attention 
being drawn to it. I think renewed collaboration that DOD has 
with the Veterans Administration in treating combat stress is 
refreshing. We have a lot of programs and I am encouraged by 
the amount of effort and attention that we are bringing to bear 
on this, all three services, right now.
    Senator Inouye. Thank you.
    General Taylor, we have just received a report that the Air 
Force is short in a large array of medical and dental fields. 
For example, the Air Force is now short in dentistry, 
anesthesiology, gastroenterology, rheumatology, pulmonary, 
cardiology, oncology, hematology, internal medicine, and it 
goes on and on. Is that a correct picture?
    General Taylor. Sir, we are short in certain areas. We are 
shorter in other areas than in some other ones. The way we have 
tried to adjust for that, of course, is to work on the pay and 
compensation for those specialties that are in the career 
field. We have been working actively with the recruiting 
services to recruit people, and then we have continued to work 
hard to mold new accessions into those specialty areas.
    Some of the ways that we have adjusted to that is to try 
and ensure that we place our military specialists in those 
locations where they can best maintain their skills. 
Concentrating internists in hospitals and moving them from the 
smaller clinics and into the hospitals has been one way to 
adjust for that. That would allow those small clinics then to 
contract for internal medicine referrals locally rather than to 
put a military internist in a small clinic forward.
    So most of these are trying to adjust to the correct size 
while we continue to press for new entries into the career 
field and that the pay and incentives remain intact. The other 
part of this is to try and ensure that people in those areas of 
expertise are practicing the full spectrum of their health care 
in our larger facilities.
    Senator Inouye. Are you noting success in your programs?
    General Taylor. Sir, I believe we are seeing success in 
that program. It is going to take time, as was mentioned by my 
colleagues here, to see how those incentives work. We 
appreciate what Congress has given us in terms of pay and 
retention and scholarship programs to recruit and retain these 
people, and we believe we have the adequate tools to do the 
work.
    Senator Inouye. Well, as one Member of the Congress, I 
would like to thank all of you for your service. Thank you very 
much.
    Thank you, Mr. Chairman.
    Senator Stevens. Senator.
    Senator Mikulski. Thank you very much, Mr. Chairman, and to 
our Surgeons General.
    First of all, as the Senator from Maryland, we are very 
familiar with military medicine in our State and so honored to 
have Naval Bethesda in our State. Walter Reed, though next 
door, we view as part of--we do not want to say part of our 
State, but certainly close to that. The hospital ship Comfort 
is based in Baltimore, and of course, we have USUHS, the 
uniformed services medical school, and up Route 270, of course, 
is Fort Detrick, though not literally under your command, 
certainly is coming up with the research that is so important 
in what you are doing. So we feel very strong about it.
    We too are really proud of what you are doing in 
battlefield medicine, acute care, and also the primary care 
that you provide to families. So we are on your side, and even 
my own primary care physician gave me an article from the 
Journal of American Medical Association (JAMA), the American 
medical journal, talking about the stunning results in what you 
have been able to do in battlefield medicine. It is beyond all 
expectation and all hope. I know gratitude will come to you the 
rest of your life in this.
    I am worried about the shortages that you are talking about 
with the physicians, and I too have been troubled about the 
rumored closing of both USUHS and Walter Reed.
    In terms of USUHS, I would like to be able to ask you, 
General Kiley, a couple of questions. First of all, is it true, 
picking up on Senators Stevens and Inouye, that the USUHS 
graduate serves a longer time than someone who has come through 
a conventional medical school, and could you share with us how 
committed they stay? All medicine is 24/7, but military 
medicine is 36/7. You work a 36-hour day.
    General Kiley. Senator, that is a great question. Thank 
you.

                   PROGRAMS FOR ASSESSING PHYSICIANS

    I think as General Taylor referenced, there are two general 
programs for assessing physicians, and the Uniformed Services 
University has the students go through an Active duty status 
with pay allowances and privileges. In exchange for those 4 
years as a medical student, the young doctors graduate and are 
commissioned as Medical Corps captains. And then they have a 7-
year obligation. The internship year right after medical school 
or, in many cases now, just the residency, internal medicine 
being 3, general surgery being 5 years, OB-GYN being 4 years, 
as an example--those 3, 4, or 5 years do not count in working 
off the obligation.
    Senator Mikulski. So they do not count toward the 7 years.
    General Kiley. That is correct. But they do count toward 
retirement. So these young physicians get through their 
training, and then they have a 7-year commitment. The intent, 
as I understand it, was pretty clear. I hear this routinely 
from my daughter, who is a USUHS graduate and finishing her 
second year of medicine residency, that they will get out to 
10, 11, 12, 13 years before they reach that first unobligated 
decision point. Many of them--and I cannot give you a number, 
but clearly early on and so some of the more senior 
physicians--many had prior service. So they already had some 
commitment into retirement.
    Senator Mikulski. But the bottom line is do they serve 
longer? Do you know that?
    General Kiley. Our best estimate is yes, Senator, they seem 
to because the HPSPers--the larger group, by the way, at least 
for the Army--we get 60 doctors every year from the Uniformed 
Services. We get between 250 to----
    Senator Mikulski. Well, I am not saying it is not a 
substitute for----
    General Kiley. No, ma'am. I understand.
    Senator Mikulski. So, in other words, USUHS--the Naval 
Academy does not do all of the officer corps for the Navy.
    General Kiley. But if you are a West Point graduate with a 
5-year obligation from West Point and you are a USUHS graduate 
with a 7-year obligation, those two are additive. So you are 
close to retirement before you can even decide----
    Senator Mikulski. Yes, but you might not be coming from 
West Point.
    General Kiley. That is correct.
    Senator Mikulski. You might be coming a different route.
    General Kiley. But the HPSPers--those only owe 4 years. 
They only owe 4 if they do a full 4-year scholarship.
    Senator Mikulski. So the HPSP is the scholarship program. 
Is that correct?
    General Kiley. Yes, ma'am.
    Senator Mikulski. Now, in terms of the scholarship program, 
as I understand it, last year you had less than one applicant 
per slot, while USUHS had 10 initial applicants for every slot 
getting into USUHS. Are you aware of that?
    General Kiley. I do not believe that the number was less 
than one applicant per slot. I believe it was about 1.1 to 1.2 
applicants per slot, which is down from what it used to be.
    Senator Mikulski. Yes, but that is not a lot.
    General Kiley. No, ma'am, it is not.
    Senator Mikulski. That is not a lot. And when you think 
that there are 10 people lining up to get into one slot in 
USUHS and we are talking about closing it, but it is barely one 
on one for the DOD HSP program, then I think we need to 
evaluate the scholarship program and find out why. But it is 
also a lesson saying let us not close USUHS.
    Now, we understand the military doctors are a military 
doctor rather than a doctor who is currently in the military.
    But as I understand it, first of all, you have got about 
1,000 vacant physician positions, and not only are you 
competing with those at Hopkins or Mercy, like in our own 
State, Suburban, which you just referenced, Admiral, but you 
are also competing with the VA. The VA can pay more than the 
military. Am I correct?
    General Kiley. I believe they can, yes, ma'am, at least in 
some specialties.

                          SCHOLARSHIP PROGRAM

    Senator Mikulski. Well, see, I think these are the issues 
that we need to look at, and they would not be necessarily the 
scope of this hearing. But I think we do need to look at the 
scholarship program.
    Senator Stevens. Would you say that again, Senator?
    Senator Mikulski. Well, today the Department of VA, as I 
understand it from my old work on the VA Subcommittee before we 
were reorganized, sir, can pay its civilian physicians more 
than DOD can under title 38. Therefore, not only are you 
competing with academic centers of excellence and community-
based medicine, but you are also competing even against the VA 
in many of the same geographic areas where people are serving. 
Again, I come back to military medicine being a 36/7 calling.
    So we do not want to short change the VA exactly because 
this seamless transition that you are developing and we are so 
enthusiastic about, but at the same time, if you are trying to 
get a surgeon, these specialties, but even in the primary care 
area, this would seem to be a challenge. And also VA is 
offering scholarships in nursing, scholarships in medicine and 
so on. So I think we need to look at this and how you are going 
to be competitive.
    My advice is that we should not close USUHS because USUHS 
might bring not only medical skill but a military culture as 
compared to simply training a doctor to be in the military. I 
think the military doctor has an influence on the doctor in the 
military to grasp this very unique culture that you are the 
leaders of.
    Do you see where I am? So I think we need to look at that.
    I would also think that we should look at perhaps debt 
reduction. When someone has completed their medical school, 
their debt in many instances is over $100,000. It is 
breathtaking for some. Then they think, I want a different life 
here and they are ready to think about this perhaps, but we 
should think about forgiving their debt as they entered the 
military. We already know then they have gotten through medical 
school. So it is not a crap shoot to know if they are going to 
make it. So I think we need some new thinking. Have you thought 
about this?
    Senator Stevens. That is a good idea. We ought to all think 
about that, Senator. That is a very good idea.
    Senator Mikulski. Yes. And then when they come in, 
essentially we swap debt for duty.
    General Kiley. Yes, ma'am.
    General Taylor. Yes, ma'am. We do have certain tools that 
fit that category. The question is whether we are effectively 
using them or do we have the wide range of authority to fully 
execute those. We do have some debt relief tools. We do have 
some recruiting tools, and I think it is a very good question 
as to whether we are effectively using them or we are limited 
in size and scope because of finances or congressional caps. I 
think it is worthy for us to look at it.
    General Kiley. I think you hit on it, $100,000 in debt. If 
you are coming out of Georgetown or George Washington (GW), you 
may be closer to $200,000 in debt based on the estimates of the 
cost. These young physicians then look at an Army salary with 
this debt on them, and it is very hard. Every year we have a 
couple physicians that come on Active duty, having incurred an 
obligation in ROTC in undergraduate, who have those kind of 
debts. They can sometimes struggle.
    We do have some programs that recognize some of that debt 
reduction, but the programs are not nearly robust enough to 
address some of the issues you have had.
    The second piece about the VA receiving more. One of the 
things the VA physicians, as I understand it, have as part of 
their retirement package is that these bonuses that they are 
given as physicians in the VA are all calculated into their 
retirement pay. They are not calculated into the military 
retirement pay.
    Senator Mikulski. Well, I think we need to then look at how 
the VA is doing it and perhaps some lessons learned.
    But the point of debt forgiveness is that perhaps when 
someone has completed their internship, they have got all this 
debt, this could be another recruitment time, or even when they 
have completed their residency. Some young people do not now 
want the hassle, the malpractice issues and the health 
maintenance organization (HMO), the insurance stuff, and the 
idea of being in the military would be very attractive to them.
    I know my time is up, but I am very keen on this 
recruitment and retention.
    Senator Stevens. I want to ask the three witnesses here if 
they will confer and give us a suggestion on how to flesh out 
the Mikulski plan. We have several provisions in Federal law 
that it is really payment rather than forgiveness because those 
loans are not made by the Federal Government primarily. I think 
they are mostly reinsured by the Federal Government. But I do 
think that you ought to give us a plan that would allow the 
services to entice young doctors and professionals to come into 
the services with an addition to their salary to repay those 
loans.

                  MEDICAL PROFESSIONALS LOAN REPAYMENT

    We do that here in the Senate to a certain extent. I do not 
know if you know that. It is not very much. We give the 
authority to a Senator to add to the salary an incentive 
payment for retention of employees who do have these debts. I 
have seen them come to my office with more than $100,000 and 
the lawyers coming in with almost $200,000.
    So I think this is probably one of the things that is a 
deterrent to enter Government service, and particularly 
military medical service. You ought to give us a plan. We will 
flesh it out and see if we cannot get the money for it this 
year.
    Senator Mikulski. Very good.
    Senator Stevens. We will call it the Mikulski plan.
    Senator Mikulski. Okay.
    Senator Stevens. Well, Sonny Montgomery had his plan. You 
have got yours.
    Senator Mikulski. Sounds good to me.
    [The information follows:]

                  Medical Professionals Loan Repayment

    The Health Professions Loan Repayment Program (HPLRP) has 
been a very important accession and retention tool to the Air 
Force Medical Service in certain areas. During the four year 
history of the current program, it has helped sustain the Nurse 
Corps Accession program, accounting for nearly half of the 
Nurse Corps accessions. It has also helped the Air Force Dental 
Corps to slightly improve the retention of general dentists 
(non-residency trained). Although HPLRP has been successful in 
some of our accession and retention endeavors, there is a low 
rate of HPLRP takers among physicians and residency-trained 
dentists.
    Physicians, dentists, and certain Biomedical Sciences Corps 
specialists tend to have larger debt burdens than other health 
professionals and, due to salary differences, have a greater 
potential for quickly paying off these loans working in the 
civilian sector versus the military. Physician and dental 
officer average debt load is $100,000-$120,000 with some even 
approaching $350,000. Health professionals have cited high 
student debt load as a major factor in their decision to 
separate from the Air Force.
    A few recommendations to improve the effectiveness of the 
health professions loan repayment program are: (1) make HPLRP 
tax free, perhaps mirroring the Indian Health Service Loan 
Repayment Program; (2) allow HPLRP service obligation to run 
concurrent with any other service obligation; (3) receive HPLRP 
appropriation to provide adequate quotas to improve the current 
program; and (4) establish an adequate accession bonus for 
physicians and dentists to augment the HPLRP as a more 
attractive accession tool. These improvements would help the 
military services attract and retain fully qualified health 
professionals especially in those extremely hard to recruit 
specialties.

    Senator Stevens. Thank you very much, gentlemen. We 
appreciate very much your service and your testimony here 
today. We look forward to hearing from you further about this 
idea, and I think it is a good one to pursue.
    We will now turn to the Nurse Corps. Thank you again for 
coming.
    We are now going to hear from the nursing corps. This 
subcommittee's view is that the nursing corps are vital to the 
success of our military medical system. We thank you for your 
leadership and look forward to your comments and telling us 
your challenges. From the Army, we will hear from Colonel 
Barbara Bruno, who is the Deputy Chief of the Army Nurse Corps. 
We welcome you here, Colonel. We will also hear from Admiral 
Nancy Lescavage, Director of the Navy Nurse Corps, and Major 
General Barbara Brannon, Assistant Surgeon General for Nursing 
Services for the Air Force.
    Your patron saint is my friend here from Hawaii, so I will 
yield to him.
    Senator Inouye. Welcome. Is this not Nurses Week?
    General Brannon. This is indeed.
    Colonel Bruno. It is.
    Senator Inouye. I think it is most appropriate that you are 
here, and I want to congratulate all of you and thank you for 
the service you are rendering to our country. It is very 
essential. We would rather listen to you than listen to me. So, 
Mr. Chairman.
    Senator Stevens. Senator Mikulski, comments?
    Senator Mikulski. I believe that the issues of recruitment 
and retention are actually severe in nursing because of the 
issues in the larger community. But again, for everybody who is 
at Naval Bethesda and we have seen you on the hospital ship 
Comfort, we are so appreciative of what you do, and want more 
of you.
    Senator Stevens. Colonel Bruno.

STATEMENT OF COLONEL BARBARA J. BRUNO, AN, DEPUTY 
            CHIEF, ARMY NURSE CORPS, UNITED STATES ARMY
    Colonel Bruno. Thank you very much. Good morning, Chairman 
Stevens, Senator Inouye, and Senator Mikulski. Thank you for 
your unwavering support to provide the best nursing care 
possible to American soldiers, their families, and eligible 
beneficiaries.
    I am Colonel Barbara Bruno, Deputy Chief of the Army Nurse 
Corps. It is a real honor and a privilege to speak to you this 
morning on behalf of Major General Gale Pollock, the Chief of 
the Army Nurse Corps. She is hosting an historic military 
medical conference in Hanoi, Vietnam today. She sends her 
regards and wishes she could be here.
    I am going to highlight specific achievements and concerns 
that relate to the ability of the Army Nurse Corps to serve a 
Nation at war. As of March 2005, 765 nurses have deployed to 17 
countries, in addition to Operation Enduring Freedom in 
Afghanistan and Iraqi Freedom.
    Caring for critically injured soldiers can be incredibly 
stressful to the deployed staff and to the staff within our 
medical treatment facilities. Nursing research conducted at 
Walter Reed showed that nurses' feelings and emotions, while 
caring for returning injured soldiers, mirrored their deployed 
nursing counterparts. Yet they experience them in different and 
more long-lasting ways. Whereas deployed nurses have short and 
intense exposures to patients with severe and devastating 
trauma, nurses in our fixed facilities have prolonged and much 
more personal experience. They experienced high levels of 
empathy with the injured and their families. This empathy is 
common amongst all health care providers and is described as 
compassion fatigue. Soldiers involved in health care receive 
awareness training and educational material regarding 
compassion fatigue.
    The shortage of nurses in the civilian sector does have a 
direct impact on the entire Federal nursing force. We continue 
to leverage available incentives and seek additional creative 
avenues to recruit nurses. To remain viable in a very tight 
labor market, we have to be competitive.
    One extremely successful recruiting tool we have used in 
the Army is the Army Medical Department enlisted commissioning 
program. This is a 2-year education completion program for 
enlisted soldiers who have acquired the appropriate 
prerequisites. The Reserve component has expressed interest in 
a similar program.
    Another successful initiative directed at civilian Federal 
nurses is the direct hire authority. With this program, the 
time delay between finding a candidate and acceptance of a job 
offer has been significantly reduced. We are optimistic that 
the National Security Personnel System will alleviate the 
obstacles to hiring civilian nurses.
    While recruiting is an obvious challenge, retention is of 
greater concern and a much less conspicuous one in nature. As 
the incentive gap with the civilian sector widens, it will be 
increasingly difficult to retain qualified nurses in military 
service, and for the Army this loss is twofold. We lose a 
superb soldier and a highly trained, experienced nurse.
    Successful retention of nurses is a combination of 
financial compensation, deployment equitability, and military 
benefit preservation. With the support of General Kiley, as he 
mentioned earlier, we have been very successful in the 
incentive specialty pay program for nurse anesthetists. The 
preliminary numbers reveal that 72 percent of the eligible 
nurse anesthetists have signed a multiyear contract since the 
increase in incentive pay. This information suggests a positive 
correlation between the increased pay and retention and 
provides us with good research for future retention strategies 
of other specialties.
    Our commitment to nursing research remains strong. Walter 
Reed Army Medical Center has partnered with Mount Aloysius 
College in Pennsylvania as part of a congressionally funded 
nursing telehealth applications initiative. This relationship 
provides a quality learning experience to nursing students in a 
rural environment. While students and faculty remained at Mount 
Aloysius, two Army nurses took care of various patients in the 
medical intensive care unit (ICU) at Walter Reed, bringing that 
clinical setting to rural Pennsylvania. Our commitment to 
addressing the nursing education insufficiencies exemplifies 
Army Nurse Corps leadership, innovation, and new approaches to 
solve problems.
    Nursing research is invaluable to excellent, evidence-based 
nursing practice. We thank you for your dedicated funding and 
continued support of the TriService nursing research program.

                           PREPARED STATEMENT

    The Army Nurse Corps continues to move forward with 
initiatives to improve the best nursing organization in the 
world. Our research is changing nursing practice globally, and 
Army nurses are highly valued throughout the world. With the 
continued support of Congress, Army Nurse Corps compassion and 
leadership will ensure that we are able to take care of our 
military men and women and that they receive the finest health 
care anytime anywhere.
    I thank you for this opportunity to speak to you today.
    [The statement follows:]

           Prepared Statement of Colonel Barbara J. Bruno, AN

    Mr. Chairman and distinguished members of the committee, thank you 
for your unwavering support to provide the best nursing care possible 
to American Soldiers, their families and eligible beneficiaries. In 
today's unprecedented environment of global, joint and collaborative 
military medical operations, we continue to see success in the Global 
War on Terrorism, and have made numerous improvements in nursing care 
delivery at home, abroad and on the battlefield.
    I am Colonel Barbara Bruno, Deputy Chief, Army Nurse Corps (ANC). 
It is an honor and privilege to speak to you today on behalf of Major 
General Gale Pollock, the 22nd Chief of the Army Nurse Corps. MG 
Pollock is hosting an historic military medical conference in Hanoi, 
Vietnam.
    Military forces engage in security cooperation activities to 
establish important military interactions, building trust and 
confidence between the United States and its multinational partners. 
The visible and purposeful presence of U.S. Military capabilities is an 
integral part of an active global strategy to ensure security and 
stability. The Asia Pacific Military Medicine Conference (APMMC) is one 
of the critical tools used to accomplish this.
    The APMMC is the premier medical conference in the Pacific Command 
(PACOM) area of responsibility. This conference provides a forum for 
U.S. Military health care providers and leaders to collaborate with 
Allied and friendly countries in the Asia-Pacific region. Topics of 
military medical significance such as interoperability, medical 
readiness, illnesses, battle injuries, medical technological 
advancements, force health protection, and disaster/consequence 
management are the primary foci of the APMMC.
    As the U.S. Army, Pacific Surgeon, MG Pollock will conduct 
bilateral discussions with senior delegates from over thirty countries 
attending the APMMC. These bilateral discussions provide a forum to 
plan future medical events with regional partners, and enhance 
influence and access to these nations in order to combat terrorism, 
transform alliances, and build coalitions for the future. This year's 
APMMC is in Hanoi, Vietnam. This is particularly significant as it is 
the first time the U.S. Military has ever co-hosted a conference of 
this magnitude with the country of Vietnam.
    The ANC is actively engaged in strategic planning to allow us to 
achieve the greatest benefit, both human and monetary. During this 
congressional hearing I will take the opportunity to highlight specific 
achievements and concerns that relate to the ability of the ANC to 
serve a Nation at war.
    Army Nurses possess the expert clinical skills, compassion, and 
leadership acumen requisite to execute the most challenging missions in 
austere environments. As of March 2005, 419 Active Component (AC) and 
151 Reserve Component (RC) nurses were currently deployed to 17 
different countries including Operation Enduring Freedom/Operation 
Iraqi Freedom (OEF/OIF). An additional 95 Army Nurses have supported 
other medical training missions as subject matter experts, trainers, or 
medical augmentees. Since our last testimony, our deployments total 
over 74,045 person-days.
    The 31st Combat Support Hospital (CSH) from Ft. Bliss, TX and the 
67th CSH from Wuerzburg, Germany transitioned at the end of the 2004 
calendar year with the 86th CSH from Ft. Campbell, KY and the 228th CSH 
(a combined AC/RC unit) from San Antonio, TX. The 115th Field Hospital 
from Ft. Polk, LA, is also in Iraq as medical support for Abu Ghraib 
Prison. The RC continues to take the lead in the medical support 
mission in Afghanistan with the 325th Field Hospital from Los Angeles, 
CA being replaced by the 249th Field Hospital from Independence, MO. In 
addition to the CSHs, 45 nurses deployed on eight Forward Surgical 
Teams (FST) in support of OEF/OIF and two RC CSHs deployed to Germany 
as backfill.
    Army Nurses are serving critical roles in direct support of the War 
on Terrorism at all ranks and skill levels. At the company grade level, 
nurses are instrumental in the leadership and direct supervisory 
training that combat medics receive during their Advanced Individual 
Training at Fort Sam Houston, Texas. This training provides combat 
medics with the critical knowledge they need to care for battlefield 
casualties. Often, the diverse clinical experience of the nurse is the 
only conduit between training and the trauma of war for these young 
medics. In addition, 44 Army Nurses are embedded with Divisions and 
Brigade Combat Teams providing direct nursing care to Soldiers in the 
field while also providing advanced training to combat medics prior to 
and during deployment.
    The value of the Advanced Practice Nurse (APN) has never been as 
evident as it is in today's Army. Their expanded roles in the health 
care delivery system make them a highly prized commodity. APNs in 
varying specialties utilize their expertise to ensure patients 
transition smoothly from point of entry through the healthcare system 
based on each patient's individual needs.
    The positive impact Army APNs are having on patient outcomes has 
created a tremendous demand for their services in various healthcare 
settings. Trauma Registry Coordinators, Nurse Practitioners, Nurse 
Anesthetists, Psychiatric Clinical Nurse Specialists, and senior-level 
Case Managers are just a few of the roles in which these highly 
educated nurses are serving.
    In late 2004, six Army APNs deployed to Iraq to serve as Trauma 
Registry Coordinators. These Army Nurses have been an integral 
component of the Army Medical Department's (AMEDD) Theater Trauma 
System. This demonstration project adopted the American College of 
Surgeons Committee on Trauma's model for civilian trauma care into the 
current theater of operation. The Theater Trauma System initiative has 
multiple components: pre-hospital care coordination, utilization of 
clinical practice guidelines for trauma management and patient 
movement, trauma research and integration of clinical information 
systems for care delivery, and command and control. The overarching 
goal has been to ensure ``the right patient, to the right provider, at 
the right location and right time.''
    A cornerstone of the Theater Trauma System is the Joint Theater 
Trauma Registry (JTTR). The JTTR application is used to capture data 
from non-integrated clinical and administrative systems within the 
AMEDD, our sister Services and the Department of Defense. The Trauma 
Registry Coordinators ensure that critical clinical data is collected 
in theater and incorporated into the JTTR to provide a comprehensive 
picture of trauma patients from point of injury through rehabilitation. 
To date, the JTTR contains more than 7,000 records of battle and non-
battle injuries of United States, Allied and enemy combatants. Our 
support of this initiative remains steadfast, for as the Theater Trauma 
System matures, JTTR data will be used to improve the overall quality 
of care provided to our injured Soldiers.
    An unprecedented move for Family Nurse Practitioners (FNP)--
substituting for Physician Assistants at Echelon II medical companies--
begins during the next rotation of OIF. These FNPs will provide primary 
care in field environments and initiate treatment for wounded soldiers.
    Our RC Army Nurses continue to demonstrate excellence in health 
care management. In addition to deploying nurses to theater, numerous 
others are serving in a backfill capacity in our Medical Treatment 
Facilities (MTF). Most noteworthy are the APNs serving as senior-level 
Case Managers at the Regional Medical Commands. These nurses are 
credited with the development of medical holdover case management and a 
patient tracking tool. They supervise 158 Army Reserve and National 
Guard nurses serving as Case Managers in MTFs and Community Based 
Healthcare Organizations located close to Soldiers' homes.
    These RC nurses functioning as Case Managers assist their physician 
colleagues to aggressively manage highly complex wartime patients to 
achieve positive outcomes for the 21,500 Soldiers who have required 
medical care following mobilization. Of the 16,453 Soldiers processed 
since the establishment of the medical holdover management program, 
10,868 Soldiers have returned to their units. This success, a direct 
result of compassionate care and attention to detail, clearly 
demonstrates the need for nurses in the ambulatory healthcare setting.
    Combat is demanding and taxing. Estimates are that between 3 
percent and 4 percent of the general adult population in the United 
States suffers from Post Traumatic Stress Disorder (PTSD) (Narrow, Rae, 
Robins & Regier, 2002). Among Gulf War veterans, estimates are that 
between 2 percent and 10 percent suffer from PTSD (Iowa Persian Gulf 
Study Group, 1997; Kang, Natelson, Mahan, Lee & Murphy, 2003). In a 
systematic review of 20 studies that compared the prevalence of 
psychiatric disorders in Gulf War veterans to a comparison group of 
veterans previously deployed for other conflicts not including current 
operations, Gulf War veterans were three times more likely to develop 
PTSD (Stimpson, Thomas, Weightman, Dunstan & Lewis, 2003). More 
recently, in a cross-sectional study of 3,671 Soldiers and Marines 
surveyed 3 to 4 months after returning from deployments to Afghanistan 
or Iraq, between 6 percent and 13 percent of the participants suffered 
from PTSD (Hoge et al., 2004). The prevalence of PTSD increased 
linearly with the number of firefights Soldiers experienced and being 
wounded.
    The Department of Defense and the Department of Veterans Affairs 
are taking a proactive approach to monitoring and treating PTSD. One of 
the 26 clinical practice guidelines jointly developed by the Army, Air 
Force, Navy, and Veterans Affairs addresses the management of Post-
Traumatic Stress. An Army nurse leads the clinical practice guideline 
effort at the Army Medical Command (MEDCOM) disseminating these 
evidence-based practice recommendations across the AMEDD.
    Caring for critically injured soldiers can be incredibly stressful 
for the deployed staff and the staff within our fixed MTFs. Nursing 
research conducted at Walter Reed Army Medical Center showed that 
nurses' feelings and emotions while caring for returning injured 
soldiers mirrored their deployed nursing counterparts, yet they 
experienced them in different and more long-lasting ways. Whereas 
deployed nurses have short and intense exposures to patients with 
severe and devastating trauma, nurses in our fixed facilities have 
prolonged and much more personal exposure. They experienced high levels 
of empathy with the injured and their families. This empathy is common 
among all health care providers and is described as ``compassion 
fatigue.'' Soldiers involved in healthcare receive awareness training 
and educational material regarding compassion fatigue.
    The shortage of nurses in the civilian sector continues to have a 
direct impact on the federal nursing force, both military and 
government service requirements. The AC accession mission for Army 
Nurses has not been met since 1998 while the RC has not met mission 
since 2002. At the end of fiscal year 2004, the AC ANC was 203 officers 
below its budgeted end strength of 3,415 and missed its goal of 
accessing 385 new officers by 48. The RC ANC also missed its accession 
goal of 507 new officers by 141.
    A recent study commissioned by the United States Army Accession 
Command, determined that specific offers and messages can improve the 
accession rate and help to relieve our shortages. The sample population 
included registered nurses, graduate nurses, and nursing students. 
Reducing minimum service obligations, adjusting deployment length, 
ensuring assignment preferences, and increasing financial incentives 
have the most potential impact on nurse accession. As a result of these 
findings, the Chiefs of Nursing for U.S. Army Cadet Command (USACC) and 
U.S. Army Recruiting Command (USAREC) have developed several 
initiatives aimed at increasing overall nurse recruitment.
    The first initiative from USACC is the Centralized Nurse 
Scholarship program. It was implemented to focus additional Reserve 
Officer Training Corps (ROTC) battalions on the nurse mission. They 
accomplished the initiative by increasing the number of schools 
actively recruiting nursing cadets from 47 to approximately 200 and 
using the nurse mission as a quantifier of success. They also 
consolidated Nursing Scholarships at USACC Headquarters, centralizing 
funds, and providing responsive access to scholarship resources 
wherever qualified nurse applicants are located. The new program also 
allows students to choose how their scholarship dollars are used. This 
benefits those students who may have received additional academic 
scholarships that are specified for tuition only. In addition, the 
tuition cap and book stipend were increased by $3,000 and $300 per year 
respectively.
    The second initiative from USACC is an expanded ROTC Nurse Educator 
Tour and Nurse Summer Training Program (NSTP). Showcasing ROTC's 
Leadership Development and Assessment Course (LDAC) and NSTP are 
significant recruiting tools available to Army Nursing. During the 
summer of 2004, 150 nurse educators were invited to attend the LDAC at 
Ft. Lewis, WA, in an effort to display the versatility of our nursing 
cadets in both the field training and clinical environments. The nurse 
educators who participated in this program witnessed nursing students 
during leadership training at the LDAC and then received a tour of 
Madigan Army Medical Center where they observed nursing students in the 
clinical setting during NSTP. Nurse educators participating in the tour 
left with a new-found dedication to Army ROTC and a better appreciation 
for the ANC as a whole. As a result of their positive experiences, many 
of these educators now require students returning from LDAC and NSTP to 
provide a presentation about the experience to their classmates, 
inviting more queries about the ANC as a career option. Most schools 
are now encouraging qualified students to consider Army ROTC and many 
are giving academic credit for NSTP completion. The success of this 
program has already made a significant impact in nursing student 
recruitment at these universities.
    In light of this success, USACC has experienced a greatly improved 
collegial relationship with all universities in attendance. In an 
effort to improve recruiting efforts while promoting the positive image 
of Army Nursing, focus has shifted this year to universities who have 
been less than supportive in the recent past. One hundred 
representatives from these universities have been invited to attend 
this years Nurse Educator Tour. This type of networking and partnering 
will increase a positive view of Army Nursing in the civilian 
community.
    While USAREC recruiting initiatives are similar in nature to those 
of USACC, their targeted population is larger and more diverse. They 
are solely responsible for recruitment of RC nurses and all other 
nurses and nursing students not eligible for ROTC.
    The Health Professional Loan Repayment Program (HPLRP) was 
instituted in fiscal year 2003 and targeted new accessions to provide 
nurses with an educational loan repayment benefit up to $29,000. Prior 
to HPLRP implementation, USAREC was limited to a sign-on bonus as their 
only financial incentive tool. To date, 345 AC nurses have benefited 
from this program.
    The Army Nurse Candidate Program (ANCP) targets nursing students 
prior to graduation who are not eligible for ROTC but are still fully 
qualified as a direct accession nurse. It provides a $1,000 monthly 
stipend and a $10,000 bonus paid in two increments. The ANCP provides 
USAREC the ability to recruit nursing students as early as their 
sophomore year. This program will give us the leverage to offer 
accession incentives to students much earlier in their education 
program which is essential when competing with the civilian market.
    The Army Enlisted Commissioning Program (AECP), used by AC enlisted 
Soldiers, is an extremely successful recruiting tool. The program 
provides a 2-year education completion program for enlisted Soldiers 
who have acquired the appropriate prerequisites. Currently 75 Soldiers 
are funded annually to obtain their Bachelor of Science Degree in 
Nursing.
    The last AC recruiting initiative we want to highlight is the 
accession bonus. Money is programmed through fiscal year 2008 to 
implement this plan. The current accession bonus is $15,000. The 
proposed increase is $5,000 per year through fiscal year 2008. With 
these targeted increases, USAREC believes we will become comparable to 
the standard sign on bonus of our civilian competition.
    Reserve Component accessions are a concern. Although their overall 
strength remains good, accession percentages have declined in the past 
2 years.
    While recruiting is an obvious challenge, retention is of greater 
concern, and much less conspicuous in nature. Unlike recruitment, the 
inability to retain a mid-level officer comes at a much higher expense. 
For the military, the loss is two-fold--a superb Soldier and a highly 
trained and experienced nurse.
    Nurses have continually answered the call to service and it is 
critical that we develop appropriate retention strategies to ensure an 
adequate force structure exists to support our fighting forces. Their 
successful retention is a combination of financial compensation, 
deployment equitability, and military benefit preservation.
    The critically low density area of concentration that is most 
severely affected by attrition is the Certified Registered Nurse 
Anesthetist (CRNA). CRNA actual end strength has fallen to 70 percent. 
With the support of Lieutenant General Kiley, The Army Surgeon General, 
Health Affairs and the Army, the ANC was successful in implementing a 
major restructuring of the Incentive Specialty Pay (ISP) program for 
CRNAs that addressed two issues important to this population. First, it 
provided the first increase in ISP in nearly 10 years to officers 
fulfilling their initial Active Duty Service Obligation (ADSO). This 
change was central to our retention strategy as disparity in pay for 
this population was identified as a major source of dissatisfaction. 
Additionally, the revised ISP structure provided the option to receive 
significantly higher annual ISP payments in exchange for incrementally 
longer service obligations, one to 4 years, after completing their 
initial ADSO.
    Preliminary numbers reveal that of the 116 CRNAs eligible to sign 
for multi-year contracts, 84 (72 percent) have done so. The information 
suggests a positive correlation and retention of other nursing 
specialties may require ISP programs. Our next specialty concerns are 
the operating room, intensive care unit (ICU), and emergency room (ER) 
nurses who are in high demand both in the Army and the civilian 
healthcare market.
    Financial compensation is also a retention initiative for our 
government service employees. Several civilian personnel initiatives 
are focused on alleviating government nursing shortages. Nursing has 
benefited from Direct Hire Authority (DHA). The time delay between 
finding a candidate and acceptance of a job offer was reduced from over 
100 days to an average of 19 days under DHA.
    Madigan Army Medical Center is participating in the first iteration 
of the National Security Personnel System (NSPS). This system 
recognizes the need to modernize the personnel system for the 
Department of Defense. The NSPS must significantly improve the 
personnel system for healthcare occupations.
    One initiative that demonstrates promise is the Army Civilian 
Training Education Development System (ACTEDS). This program is an Army 
Requirements-based system that ensures development of civilians through 
a blending of progressive and sequential work assignments, formal 
training, and self-development for individuals as they progress from 
entry level to key positions. ACTEDS provides an orderly, systematic 
approach to technical, professional, and leadership training and 
development similar to the military system. It provides civilian 
employees base documents specific for career development within their 
chosen profession. Several ACTEDS plans are now available to government 
civilian nurses.
    Another retention strategy currently implemented focuses on 
intrinsic rewards. The role of the Nursing Consultants to the Surgeon 
General is expanding to include input into the personnel deployment 
system and involvement with the officer distribution process for all 
critical wartime specialties. This strategy coupled with implemented 
policies to ensure equitable utilization of our deployment pool will 
assist us in the retention of highly educated professional nurses. 
Limiting the unknown for nurses by providing adequate notification of 
impending deployment and providing a predictable period of family 
separation should improve retention.
    Walter Reed Army Medical Center has partnered with Mount Aloysius 
College in Cresson, Pennsylvania as part of a phased 4-year Nursing 
Telehealth Applications Initiative. This relationship, which provides a 
quality learning experience to improve the academic preparation of 
nurses, will assist to alleviate the critical nursing shortage.
    The purpose of this study was to determine if the concept of a 
``Virtual Clinical Practicum TM'' was a viable venue for nursing 
students to gain clinical skills in the absence of physically visiting 
clinical sites. Nursing students attending Mount Aloysius College, a 
rural community, have no opportunity to experience an ICU environment. 
Using Telehealth Technology, nursing students observed and learned 
about the nursing care of complicated adult medical patients and 
experienced an ICU clinical experience remotely. While students and 
faculty remained at Mount Aloysius, the nurse experts, two ANC 
Officers, took care of various patients in the Medical ICU at Walter 
Reed.
    The professionalism and clinical expertise of the ANC officers was 
enthusiastically embraced by both the students and faculty. There are 
follow-on studies planned with this technology. Our commitment to 
address nursing education insufficiencies exemplifies ANC leadership, 
innovation, and new approaches to solve current problems.
    Nursing research, like the Nursing Telehealth Applications 
Initiative, is invaluable to excellent, evidence-based nursing 
practice. We thank you for your dedicated funding and continued support 
of the TriService Nursing Research Program. Army nurses along with 
their Federal and civilian colleagues are dedicated to the 
dissemination of knowledge and improvement of professional nursing 
practice.
    Army Nurses are conducting and participating in a number of studies 
specific to the care of deployed troops. Nurses at Walter Reed Army 
Medical Center are collaborating with their Air Force colleagues to 
assess aeromedical evacuation needs of war injured service members. At 
Brooke Army Medical Center, Army and Air Force Nurses are determining 
best methods to teach nurses how to care for chemical casualties and 
how to facilitate long term skills retention.
    Nurse researchers at several locations are investigating deployment 
experiences of AMEDD personnel to seek information on improving quality 
of care for wounded service members and the emotional health of nursing 
personnel. Compassion fatigue of nurses who are working at our fixed 
facilities is another area of ongoing inquiry.
    Nurses at Madigan Army Medical Center are enhancing Combat Medic 
skill sustainment using simulated battlefield conditions and SimMan, 
life-sized, computer-linked robots. This study will validate and 
standardize Combat Medic evaluation scenarios and template evaluator 
competencies.
    Madigan Army Medical Center is also studying the impact of head 
nurse leadership on retention of junior ANC Officers. This research 
will provide information about essential leadership competencies and 
performance expectations from ANC Officers.
    Nurses at Walter Reed Army Medical Center, Madigan Army Medical 
Center, and the Army Medical Department Center and School are 
coordinating the multi-site Military Nursing Outcomes Database (MilNOD) 
study being conducted at six Army, three Air Force, and four Navy 
facilities. This study is investigating the relationship of staffing to 
various nurse and patient outcomes. The study team continues to 
collaborate with the California Nursing Outcomes Coalition and the 
Veteran's Administration Outcomes Database Project (VANOD), building 
upon each other's collective experience in this unique work. The 
research team and collaborators, including the American Nurses' 
Association's National Database for Nursing Quality Improvement 
(NDNQI), created the National Nursing Quality Database Consortium and 
held an invitational methodology conference this past fall. The purpose 
of the conference was to learn from and work with researchers from 
other disciplines, who are at the cutting edge of new methods to 
analyze these types of data. The National Nursing Quality Database 
Consortium is hosting its first national conference this spring to 
share the knowledge gained from this collaboration with other 
colleagues in the nursing field.
    Recognizing the benefit of nursing research departments staffed 
with Doctorally prepared nurse researchers conducting militarily 
relevant nursing research, I am pleased to announce we have opened a 
research department at Tripler Army Medical Center, the fourth in the 
Army Medical Department. These nurses are working with the Hawaii 
Nursing Taskforce and Queen's Medical Center on a grant submission to 
study the Effect of Magnet Environments on Patient and Nursing 
Outcomes. Other research initiatives include evidence-based practice 
projects to develop standards of practice for pressure ulcer prevention 
and preparing children for surgery. Additionally, working with Pearl 
Harbor Naval Base and Hickam Air Force Base clinic nurses, military 
nurse researchers at Tripler will utilize research findings to 
standardize and implement the most appropriate nursing interventions 
and document measurable nursing outcomes for specific inpatient and 
outpatient military beneficiaries.
    Anesthesia students are very involved in research activities 
studying pain and re-warming techniques following surgery, and the 
effects of different anesthetic medication and adjunct therapies on 
patient outcomes. New technologies, such as piezoelectric technology, 
are also being studied. This technology allows a Soldiers' vital signs 
to be continuously monitored while being transferred from the field to 
a definitive care setting.
    In addition to our research activities, the ANC is dedicated to 
Soldier training and professional military education. Preparing our 
Soldiers to provide relevant, competent and professional care in any 
environment requires a robust training program. The ANC is constantly 
adapting our training programs to prepare Soldiers for their primary 
occupational specialty and go-to-war skills.
    The Department of Nursing Science (DNS) at the Army Medical 
Department Center and School (AMEDDC&S) is using research and lessons 
learned from our deployed colleagues to improve training. Among the 
many initiatives over the last year, trauma and burn care was 
incorporated into the ANC Officer Basic Course. Combat stress education 
was added to the Army Nurse Captains Career Course. Ethical treatment 
of all patients is highlighted in all of our courses. In addition, 
components of Warrior Ethos Training and simulation experiences are 
being incorporated into the program to better prepare Soldiers for 
combat survival. The U.S. Army School of Aviation Medicine is piloting 
a Joint Enroute Care Course to prepare ICU and ER Nurses and improve 
care for patients evacuated from the battlefield via rotary wing 
aircraft.
    The ANC extends our appreciation and recognizes the faculty 
leadership of the Uniformed Services University of the Health Sciences 
(USUHS) for their academic achievements and initiatives. The Graduate 
School of Nursing has been instrumental in providing highly trained, 
FNPs, CRNAs, and Doctorally prepared nurses. Graduates from these 
programs continue to enjoy a higher than average national pass rate on 
certification exams. We look forward to the May graduation of their 
first Peri-operative Clinical Nurse Specialist Course and the addition 
of a Military Contingency Medicine course.
    The ANC continues to move forward with initiatives to improve the 
best nursing organization in the world. Our research is changing 
nursing practice globally and the officers of the ANC are highly valued 
throughout the world. With the continued support of Congress, the 
clinical excellence, compassion, and leadership strengths of Army 
Nurses will ensure our military men and women receive the world's 
finest healthcare anywhere, anytime.

    Senator Stevens. Admiral Lescavage.
STATEMENT OF REAR ADMIRAL NANCY J. LESCAVAGE, NAVY 
            NURSE CORPS, UNITED STATES NAVY
    Admiral Lescavage. Good morning, Chairman Stevens, Senator 
Inouye, Senator Mikulski. I am Rear Admiral Nancy Lescavage, 
the 20th Director of the Navy Nurse Corps and Commander of the 
Naval Medical Education and Training Command in Bethesda, 
Maryland. It is indeed an honor and privilege to speak before 
you about our outstanding 5,000 Active and Reserve Navy nurses 
who continue to provide preeminent health care in all 
operational, humanitarian, and conventional settings. I want 
you to know our military and civilian nurses continue to 
proudly demonstrate professional excellence in promoting, 
protecting, and restoring the health of all entrusted to our 
care anytime and anywhere.
    I would like to address five specific areas.
    Number one, as our Surgeon General addressed, is readiness. 
In this area, Navy medicine's first priority, Navy nurses 
remarkably deliver superb medical care throughout the 
battlefield continuum. We have recorded over 125,000 mission 
days in operational and training exercises. Navy nurses have 
deployed this past year throughout the world to Kuwait, Iraq, 
Djibouti, Afghanistan, Bahrain, the Philippines, Thailand, and 
Guantanamo Bay. As you know, humanitarian efforts have been 
provided to tsunami and Haitian relief countries, as well as in 
our homeland in Pensacola after Hurricane Ivan.
    Some examples of our readiness training are the following. 
Through the Navy trauma training course with LA County/
University of Southern California Medical Center in Los 
Angeles, our Navy nurse instructors provide participants real-
life exposure while integrating with the hospital's trauma 
staff to provide specialized care. Our nurses who are training 
there are part of a team of physicians and corpsmen who soon 
will go in harm's way. The newly established Navy EnRoute Care 
Corps has trained 22 Navy nurses at Camp Lejeune, North 
Carolina prior to their deployment to Iraq. This course 
includes a training pipeline involving the Air Force critical 
care air transport course, Navy trauma training course, and 
helicopter egress and water survival training. We also continue 
to contract with civilian trauma centers in close proximity to 
our medical treatment facilities for additional training and 
real-life experiences in trauma.
    To optimize the readiness capability of our sailors and 
marines, we have placed nurse practitioners on board our 
aircraft carriers Nimitz, Kennedy, and Enterprise. In addition 
to rendering traditional episodic care on those carriers, our 
nurse practitioners promote wellness through post-deployment 
health assessments, tobacco cessation, and medical exams. A 
nurse practitioner with two other health care team members was 
recently deployed to the Nimitz to assist 6,000 of our sailors, 
who were just coming back from the Middle East, which resulted 
in the most efficient completion of the post-deployment health 
assessment evolution known to any vessel.
    The second area I want to address is quality health 
services. In sync with Navy medicine's second priority of 
delivering quality and cost-effective health care, our Navy 
nurses span the continuum of care from promoting wellness to 
maintaining the patient's optimal performance. Innovative 
examples include the mental health nurse outreach program with 
the Marine Corps School of Infantry at Camp Lejeune, the 
Partnership for In-Garrison Health and Readiness in Camp 
Pendleton, and the Nurse Managed Welcome Center at Pearl 
Harbor. Through a comprehensive referral network with the VA 
transition program, our nurse case managers are right in there 
assessing rehab specialists in collaboration with other 
specialties for our returning casualties to get the best care 
possible.
    Other initiatives include the Nurse Run Medevac Transport 
Team at Bethesda and our specialized wound care clinics 
throughout our medical treatment facilities (MTF).
    In an age of cost containment, our nurses are savvy in 
business planning and continuously evaluate best health care 
business practices. Nurses in the ambulatory care setting have 
implemented clinical business rules and performance goals to 
guide their daily practice. Disease management programs for 
asthma, diabetes, breast cancer, and cardiac care have improved 
the patient screening rates. They have recaptured network costs 
and they have maximized provider productivity and guaranteed 
exceptional continuity of care, which is what it is all about.
    To enhance our quality of care, a sample of research topics 
includes clinical knowledge development from care of the 
wounded during Operation Iraqi Freedom, retention of recalled 
Nurse Corps Reservists, the effects of oxidative stress on 
pulmonary injury in our Navy divers, and factors associated 
with post partum fatigue in our Active duty women in the 
military. Several of these studies are funded by the TriService 
Nursing Research Program, which fosters military nursing 
excellence and promotes collaboration between not only military 
nurse researchers but with academia as well.
    In support of One Navy Medicine concept, which Admiral 
Arthur spoke to, the integration of our Active, Reserve, and 
civilian nurses renders a more efficient, effective, and fully 
mission-ready nursing force. With the deployment of over 400 of 
our Active duty Navy nurses, along with the mobilization of our 
reserve Navy nurses to support our military treatment 
facilities, there has been neither a reduction of inpatient bed 
capacity nor an increase of disengagements to the network.
    Together, as an example, we have also optimized joint 
training opportunities such as the chem-bio-radiological 
Defense training program between Navy Health Care New England, 
the Rhode Island National Guard and the marines at their local 
Reserve center. In addition, while our Active duty nurses 
attend the EnRoute Care course, our Reserve nurse officers 
participated in a pilot program of the Joint EnRoute Care 
course in the U.S. Army School of Aviation at Fort Rucker.
    Never have opportunities been greater for all of our corps 
to be in executive positions. To meet the mission in all care 
environments through Navy medicine's fourth priority of shaping 
our force, it is critical we specifically shape Navy nursing 
with the right number of nurses with the right education and 
training in the right assignments at the right time. Our Active 
duty component is presently 96 percent manned, with 2,979 of 
our almost 3,100 positions filled. However, for the first time 
in over 10 years, we only attained 68 percent of our fiscal 
year 2004 Active duty recruitment goal, acquiring 63 out of 92 
nurses.
    Of note, though, we recently increased our nurse accession 
bonus to $15,000 to be competitive with the other services. In 
addition, since the inception of the Nurse Candidate Program, 
this is the first year we were able to essentially double the 
accession bonus from $5,000 to $10,000 and their monthly 
stipends doubled as well from $500 to $1,000.
    Regarding our Reserve recruiting goal, we may experience 
challenges in attaining specific specialties. Of particular 
note, the hospital corpsmen professional development option was 
initiated last year for Reserves as part of a 3-year pilot 
program. In this scenario, our Reservists are provided drill 
credits while attending a bachelor of science in nursing 
curriculum. This upward mobility program will serve as an 
accession source for junior Nurse Corps officers.
    We also, in five of our military treatment facilities, are 
doing a pilot program where nurses are paid similar to VA 
nurses for on-call, holiday, weekend, and shift differential, 
and that is registered nurses (RNs) and in the future our 
licensed practical nurses (LPNs).
    Promoting retention, we have several initiatives to retain 
our talented professional nursing force. Our graduate education 
scholarship program is our number one retention tool. We give 
about 90 of those scholarships every year. We carefully 
identify our graduate education programs and we are trying to 
take the specialties that are most used in wartime and train to 
them. We strongly support our nurses to attend USUHS.
    Another significant first-time accomplishment. We were able 
to increase the certified registered nurse anesthetist 
incentive special pay to a multiyear contract this year. As 
part of a 1-year pilot program, we also have initiated special 
pays similar to the VA hospitals, as stated. After 1 year, we 
will evaluate these programs to see what that does for our 
retention and increasing salaries.
    To maximize our joint medical capabilities, as our final 
priority, we collaborate and integrate with the other services, 
as well as with local, State, and Federal agencies. As nurses 
function in significant roles in homeland security within Navy 
medicine, we also participate in joint programs for chemical 
and biological defense, and in many of our treatment 
facilities, nurses are at the forefront for emergency 
preparedness.
    In conclusion, the Navy Nurse Corps has been consistently 
dynamic in this ever-changing world. Our Navy nurses are using 
the latest technology, as you well know. We are conducting 
cutting-edge research and creating health policies across 
military medicine to advance our practice and improve all of 
our delivery systems.
    It has been an honor to serve as the 20th Director of the 
Navy Nurse Corps. I am very proud of our distinguished corps 
and of our great history. The Nurse Corps this Friday on May 13 
turns 97 years old. As I move on to a new assignment as 
Director of TRICARE Regional Office West in San Diego, I remain 
committed to the Navy Nurse Corps, our great Navy, and the 
Marine Corps team, and the Department of Defense. Like many of 
our Navy nurses and my professional colleagues who function in 
pivotal executive roles, I will continue to support our efforts 
to impact legislation, health care policy, and medical delivery 
systems. I hand the Navy Nurse Corps over to the very capable 
leadership of my successor, Rear Admiral (Select) Christine 
Bruzek-Kohler.
    My greatest gift every day lies in working with the fine 
officers and civilians who support our military and in 
collaborating with my splendid colleagues, not only in the 
armed forces, but across academia and in our Federal and 
international governments. I want you to know we give our best 
always to the heroes, past and present, who keep this country 
free and our best to their families who support them so well.
    Thank you. As always, we appreciate your great support.
    Senator Stevens. Thank you, Admiral.
    Admiral Lescavage. You are welcome, Senator.
    [The statement follows:]Lescavage.txt

         Prepared Statement of Rear Admiral Nancy J. Lescavage

    Good morning, Chairman Stevens, Senator Inouye and distinguished 
members of the Committee. I am Rear Admiral Nancy Lescavage, the 20th 
Director of the Navy Nurse Corps and Commander of the Naval Medical 
Education and Training Command. It is indeed an honor and privilege to 
speak before you about our outstanding 5,000 Active and Reserve Navy 
Nurses who continue to provide preeminent health care in all 
operational, humanitarian and conventional settings.
    As key members of the Navy Medicine team, our military and civilian 
nurses proudly demonstrate operational readiness and personal 
excellence in promoting, protecting and restoring the health of all 
entrusted to our care anytime, anywhere. Aligned with our Surgeon 
General's five priorities, we continuously monitor our capabilities and 
embrace innovations to meet challenges head-on during these rapidly 
changing times. I will address each priority and illustrate how Navy 
Nursing meets our unique dual mission in the support and protection of 
our operational forces, while at the same time providing health care to 
family members and retirees.

                               READINESS

    In the area of readiness, Navy Medicine's first priority, Navy 
Nurses continue to readily adapt and remarkably deliver superb medical 
care throughout the battlefield continuum in support of our operational 
and humanitarian mission via Surgical Companies, Surgical Teams, Shock 
Trauma Platoons, the Forward Resuscitative System, Fleet Hospitals, 
Expeditionary Medical Facilities, on Navy and Hospital Ships, and our 
Military Treatment Facilities at home and abroad. In addition to the 
services provided by our nurses assigned to operational billets, we 
have recorded more than 125,000 mission days in operational and 
training exercises. Operational platform and intensive trauma training 
formulate the framework for our nurses to capably provide immediate and 
emergent interventions and perform safely in any situation or austere 
environment.
    In meeting our mission requirements, we continuously shape our 
Force Structure with emphasis on critical care, emergency, trauma, 
perioperative, medical-surgical, anesthesia and mental health nursing 
specialties. Navy Nurses have deployed this past year throughout the 
world to Kuwait, Iraq, Djibouti, Afghanistan, Bahrain, the Philippines, 
Thailand and Guantanamo Bay, Cuba. Humanitarian efforts have been 
provided to Tsunami and Haitian relief countries, as well as Pensacola 
after Hurricane Ivan. Together with our Canadian and British active and 
reserve colleagues, we have also been involved in several large 
combined joint task force exercises. To achieve all of this and more, 
our mobilized Reserve Nurses have spectacularly integrated with our 
military and civilian staff and have dedicated themselves to providing 
exceptional care to our service members and beneficiaries on the 
homefront.
    To enhance our mission-ready capabilities, joint training 
opportunities have been maximized with our military and civilian 
medical communities which involves hands-on skills training, the use of 
innovative state-of-the-art equipment, and the proliferation of web-
based programs for multi-system trauma casualties. Through the Navy 
Trauma Training Course (NTTC) with the LA County/University of Southern 
California Medical Center in Los Angeles, Navy Nurse instructors 
provide participants ``real life'' exposure while integrating with the 
hospital's trauma staff to provide specialized care. Our 46 nurses who 
rotated through the program this past year have stated that they were 
better prepared to treat our trauma casualties. The newly established 
Navy EnRoute Care Course recently trained 22 Navy Nurses at Camp 
Lejeune, North Carolina, prior to deploying them to Iraq. This course 
includes a training pipeline involving the Air Force Critical Care Air 
Transport Course, Navy Trauma Training Course, and Helicopter Egress/
Water Survival training. This highly specialized care is essential to 
our Forward Resuscitative Surgery System in order to transport and 
provide required medical care to patients who are at risk of sudden, 
life threatening changes prior to their transport to a higher echelon 
level of care. Through the Tri-service Combat Casualty Course, our 
nurses train in simulated combat conditions. For specific nursing 
specialty needs, the Services have supported each other. One fine 
example is the coordination of intensive care unit training with 
Landstuhl Medical Center for our nurses in Naples, Italy. We also 
continue to contract with civilian trauma centers in close proximity to 
our Military Treatment Facilities for didactic training and ``hands-
on'' care. In addition, our Nurse Internship Programs at several of our 
teaching facilities continue to facilitate the transition of our new 
nurses into the Navy.
    To optimize the readiness capability of our Sailors and Marines, we 
have placed nurse practitioners onboard the aircraft carriers NIMITZ, 
KENNEDY, and ENTERPRISE. In addition to rendering traditional episodic 
care, they promote wellness through post-deployment health assessments, 
tobacco cessation, and medical exams. Additionally, the nurse 
practitioners conduct medical training (e.g. Basic Life Support and 
Deckplate Health Promotion Courses). They also update medical supplies, 
equipment and practice guidelines while underway. A nurse practitioner 
with two other health care team members was deployed to the aircraft 
carrier NIMITZ to assist 6,000 sailors returning from Iraq, resulting 
in the most efficient completion of the Post Deployment Health 
Assessment Evolution of any vessel as hallmarked by the Commander of 
the Naval Air Force, United States Pacific Fleet.

                        QUALITY HEALTH SERVICES

    In sync with Navy Medicine's second priority of delivering quality 
and cost-effective health care, our Navy Nurses span the continuum of 
care from promoting wellness to maintaining the optimal performance of 
the entire patient.
    Innovative health services programs and joint partnerships across 
our military treatment facilities help us to maintain a readiness focus 
for our patient population. Examples include the Mental Health Nurse 
Outreach Program with the Marine Corps School of Infantry at Camp 
Lejeune; the Partnership for In-Garrison Health and Readiness in Camp 
Pendleton; and the Nurse-Managed Welcome Center at Pearl Harbor, 
Hawaii. Nurses in the Case Management Department at the National Naval 
Medical Center have programs supporting the continuum of care for our 
returning casualties. Through a comprehensive referral network with the 
Veteran Affairs' Transition Program, our nurses can access 
collaboratively-developed clinical practice models such as traumatic 
brain injury and post traumatic stress guidelines. They additionally 
utilize rehabilitation specialists and are now able to identify the 
best available health care while the patient is on convalescent leave 
or is between rehabilitation stays. There are many other military 
member initiatives, such as the Nurse Run Medevac Transport Team at 
Bethesda, Maryland that cares for returning casualties. We have 
specialized Wound Care Clinics throughout our military treatment 
facilities and we, now more than ever, utilize our mental health 
nurses.
    The Nurse Call Center at Jacksonville, Florida is the benchmark for 
other military treatment facilities and provides 24/7 triage and advice 
coverage, emergency room follow-up calls, and a direct link to the 
patient's primary care manager or specialist. Disease Management 
Programs for asthma, diabetes, breast cancer, and cardiac care have 
improved screening rates; recaptured network costs; maximized provider 
productivity; and guarantee exceptional continuity of care at Patuxent 
River, San Diego, and Cherry Point. Other innovative programs include 
the Health Lifestyle Choice Program for children and teens at San Diego 
and the Post Partum Clinics in Bremerton, Pensacola, Guam, Twenty-Nine 
Palms, and Yokosuka. In concert with the Armed Forces Center for Child 
Protection, the Shaken Baby Syndrome Prevention Program is now being 
piloted at six of our hospitals with additional emphasis on parent 
training.
    In an age of cost containment while promoting high quality of 
patient care, it is essential that nurses are trained in business 
planning and continuously evaluate best health care business practices. 
For example, one of our nurses developed a survey to evaluate disease 
(asthma and diabetes) and condition management measures as part of a 
Navy-wide ``Disease and Condition Management Report Card'' which is 
comprised of clinical and financial metrics. At Bethesda, nurses in the 
ambulatory care setting have implemented clinic business rules and 
performance goals to guide daily practice. At Naval Hospital 
Jacksonville and the Naval Medical Center Portsmouth, nurses have 
collaboratively developed an electronic patient tracking system which 
integrates the Emergency Department with Ancillary Services. Through 
the use of information technology, patient status and movement within 
the facility are closely monitored; clinical data is more expeditiously 
recalled; and personnel resources can be adjusted for well-justified 
reasons.
    Research priorities are focused on workforce retention, clinical 
practice, deployment experiences, outcomes management, and the gaining 
of specific competencies. A sample of research topics includes: 
clinical knowledge development from care of the wounded during 
Operation Iraqi Freedom; the perinatal depression screening program; 
retention of recalled Navy Nurse Corps Reservists; the effects of 
oxidative stress on pulmonary injury in Navy divers; retention criteria 
for military health system nurses; and factors associated with post 
partum fatigue in Active Duty military women. Several of these studies 
are funded by the TriService Nursing Research Program, which fosters 
military nursing excellence and promotes collaboration between not only 
military nurse researchers but with academia as well.
    Our nursing research has been disseminated through countless 
professional forums worldwide, such as at distinguished conferences 
sponsored by the National Nursing Honor Society Sigma Theta Tau, the 
Association of Military Surgeons of the United States (AMSUS), TRICARE, 
Royal College of Nursing of the United Kingdom, and the Micronesian 
Medical Symposium. Numerous publications by Navy Nurses can be found in 
prestigious professional journals, such as the Journal of Trauma, 
Critical Care Nurse, Journal of the American Association of Nurse 
Anesthetists, Military Medicine, Geriatric Nursing and many more. In 
addition, many of our nurses have received esteemed awards at 
University Annual Research Day presentations, as well as at the Phyllis 
J. Verhonick Army Research Conference which acknowledged a joint 
service study called, ``A TriService Integrated Approach to Evidence 
Based Practice.''

                           ONE NAVY MEDICINE

    In support of the One Navy Medicine concept as a third priority, 
the integration of active, reserve and civilian nurses renders a more 
effective, efficient and fully mission-ready nursing force both at home 
and abroad. With the deployment of over 400 Active Duty Navy Nurses 
along with the mobilization of Reserve Nurses to support our Military 
Treatment Facilities, there has been neither a reduction of inpatient 
bed capacity nor an increase of network disengagements.
    Together, we have also optimized joint training opportunities, such 
as the Chemical, Biological and Radiological Defense (CTR-D) Program 
training between the New England Naval Health Care Ambulatory Clinics, 
the Rhode Island Air National Guard, and the Marines at their local 
Reserve Center. Expert instructors deliver both classroom and 
confidence chamber training, including exercises involving the use of 
gas masks and chemical suits. While our Active Duty Nurses attend the 
Navy EnRoute Care Course, our Reserve Nurse Corps Officers recently 
participated in a pilot program of the Joint Medical EnRoute Care 
Course at the U.S Army School of Aviation Medicine at Fort Rucker, 
Alabama. This program combines medical skills and rotary wing training 
to create a cadre of joint service, multidisciplinary team members to 
provide an advance level of care during transport.

                        SHAPING TOMORROW'S FORCE

    To meet the mission in all care environments through Navy 
Medicine's fourth priority of shaping tomorrow's force, it is critical 
that we continuously focus on our human capital strategy. Our goal here 
is to specifically shape Navy Nursing with the right number of nurses 
with the right training in the right assignments at the right time, and 
become the premier employer of choice for active, reserve and civilian 
nurses. We accomplish this through several interdependent processes. 
With nurse executive leadership, we have identified specific nursing 
specialties for each deployable assignment to meet operational 
requirements. Personnel with the right clinical expertise are assigned 
to deployable platforms. When not deployed, these nurses serve in our 
Military Treatment Facilities to meet our peacetime mission. We 
carefully identify graduate education programs that best meet our 
specific requirements, such as our wartime specialties in critical 
care, emergency, trauma, perioperative, anesthesia, medical-surgical 
and mental health. Finally, while closely monitoring the national 
nursing shortage, we continue to pursue available authorities to 
recruit and retain our exceptionally talented nurses.
    Our Active Duty component is presently 96 percent manned with 2,979 
of our 3,094 positions filled. As a result, our recruitment efforts are 
focused on maintaining adequate staffing to continue to meet our 
mission, particularly in our critical wartime specialties. Our pipeline 
scholarship programs help contain our annual recruiting goals. However, 
for the first time in over 10 years, we only attained 68 percent of our 
fiscal year 2004 Active Duty recruitment goal, acquiring 63 out of 92 
nurses. We recently met with success in increasing our Nurse Accession 
Bonus to $15,000; we continue to maintain our presence at national 
nursing conferences and tap Navy Nurses at all levels to market our 
career opportunities to their professional associations. Since the 
inception of the Nurse Candidate Program, this is the first year we 
have essentially doubled the Accession Bonus from $5,000 to $10,000 and 
the monthly stipend from $500 to $1,000.
    Regarding our reserve recruiting goal, we may experience challenges 
in attaining our specific specialty in some areas. Of particular note, 
the Hospital Corpsman/Dental Technician Professional Development Option 
was initiated last year for the Reserves as part of a 3-year pilot 
program. Reservists are being provided drill credits while attending a 
Bachelor of Science in Nursing curriculum. This upward mobility program 
will serve as an accession source for junior Nurse Corps Officers.
    Promoting retention, we have several initiatives to retain our 
talented professional nursing force. As mentioned earlier, our graduate 
education scholarship program is a primary motivator for recruitment 
and our number one retention tool. Within our education plan, we 
strongly support nurses who choose to attend the Graduate School of 
Nursing at the Uniformed Services University of Health Sciences. At 
present we have sixteen students in the Nurse Anesthesia, Family Nurse 
Practitioner, Perioperative Clinical Nurse Specialist, and Doctoral 
Programs with an additional eleven students slated to begin in the 
coming academic year. As we continue to collaborate and identify our 
mission requirements, the faculty leadership has refined their 
curricula to meet our needs. Two classic examples include the 
development of the Military Contingency Medicine/Bushmaster Program to 
optimize mission readiness and the focus of research efforts towards 
relevant military nursing topics.
    Another significant first-time accomplishment to assist in our 
retention efforts, we were able to increase the Certified Registered 
Nurse Anesthetist Incentive Special Pay or ISP to a multi-year contract 
program. For all Nurses, we continue to focus on quality of 
professional life by granting appropriate scopes of practice and giving 
them challenging leadership positions.
    To recruit civil service nurses, we continue to use Special Hire 
Authority to expeditiously hire nurses into the federal system. We 
sometimes can supplement these new hires with recruitment, retention 
and/or relocation bonuses depending on staffing requirements and 
available funds. As part of a 1-year pilot program, we have initiated 
Special Pays for registered nurses at five of our Military Treatment 
Facilities for such things as on-call, weekend, holiday, and shift 
differential with increased compensations. We will soon pilot the 
program for Licensed Vocational Nurses at the same sites. After 1 year, 
we will evaluate the effectiveness of these programs in retaining these 
clinical experts.

                       JOINT MEDICAL CAPABILITIES

    In continuously shaping our human capital work force of nurses, we 
are better able to collaborate and integrate with the other Services, 
as well as local, state and federal agencies to maximize our joint 
medical capabilities within our final priority of working jointly. 
Nurses now function in significant roles in Homeland Security within 
Navy Medicine by developing policy, plans and a concept of operations 
and then managing programs that focus on the security of our customers 
and our bases. The challenges of today have created a need to evolve 
the nursing role into a greater perspective that crosses the joint 
service and interagency world at all levels. As one example, a Navy 
Nurse is one of two medical representatives working with the Joint 
Program Executive Office for Chemical and Biological Defense to assess 
and analyze installations to identify appropriate levels of CBRN 
(chemical, biological, radiological, nuclear) equipment distribution 
and support for 59 Navy installations. Nurses at Bethesda, Maryland 
have been at the forefront with the first collaborative emergency 
preparedness exercise involving military, federal and civilian health 
care facilities in the National Capitol Region. In addition, in many of 
our Military Treatment Facilities, nurses are assigned disaster 
preparedness and homeland security responsibilities. Noted for our 
clinical expertise, operational experiences and solid leadership 
qualities, I can assure you that our Navy Nurses are collaborating at 
all levels.

                               CONCLUSION

    The Navy Nurse Corps has been consistently dynamic in this ever-
changing world, remaining versatile as visionary leaders, innovative 
change agents and clinical experts in all settings. Our Navy Nurses are 
at the forefront using the latest technology in the operational setting 
and in our Military Treatment Facilities; conducting cutting edge 
research; performing as independent practitioners; and creating health 
care policies across Military Medicine to advance nursing practice and 
to improve delivery systems.
    I appreciate the opportunity to share the accomplishments and 
issues that face Navy Nursing. It has been an honor to serve as the 
20th Director of the Navy Nurse Corps. I am very proud of our 
distinguished Corps and of our great history. As I move on to a new 
assignment as Director of TRICARE Region West in San Diego, I remain 
committed to the Navy Nurse Corps, our great Navy and Marine Corps 
Team, and the Department of Defense. Like many of our other Navy Nurses 
and my professional colleagues who function in pivotal executive roles, 
I will continue to support our efforts to impact legislation, health 
care policy and medical delivery systems. I hand the Navy Nurse Corps 
over to the very capable leadership of my successor, Rear Admiral 
(Select) Christine Bruzek-Kohler.
    My greatest gift everyday lies in working with these fine Officers 
and Civilians and in collaborating with my splendid colleagues across 
the services, across academia and in our federal and international 
governments. I want you to know we give our best always to those heroes 
and families who keep this country free. There is no greater honor than 
to serve. Thank you.

    Senator Stevens. General Brannon.

STATEMENT OF MAJOR GENERAL BARBARA C. BRANNON, 
            ASSISTANT AIR FORCE SURGEON GENERAL FOR 
            NURSING SERVICES, DEPARTMENT OF THE AIR 
            FORCE
    General Brannon. Chairman Stevens, Senator Inouye, and 
Senator Mikulski, I am delighted to once again represent your 
Air Force nursing team. This year marks my sixth report to you, 
and it is amazing how quickly the years pass by.
    Our Air Force Medical Service has persevered in providing 
outstanding health care in a very dangerous world. Air Force 
nurses and aerospace medical technicians are trained, equipped, 
and ready to deploy anywhere anytime at our Nation's call. It 
has been an honor to care for so many heroes.
    In support of Operations Enduring Freedom and Iraqi 
Freedom, 2,160 Air Force nurses and technicians deployed this 
past year. Our aeromedical evacuation (AE) system has proven to 
be the critical link in the chain of care from battlefield to 
home station.
    In 2004, Air Force nursing AE crews completed 2,866 
missions supporting 28,689 patient movement requests around the 
world. Critical care air transport teams (CCATT) were used in 
486 of the AE operations.

                 CRITICAL CARE AIR TRANSPORTATION TEAMS

    The synergy of combining our AE crews with these critical 
care air transportation teams has enabled us to transport more 
critically ill patients than ever before. Additionally, 
advances in technology and in pain management have greatly 
enhanced patient comfort and patient safety.

                          SPECIALTY PROVIDERS

    The success of deployed medical care depends on having 
specialty providers available when needed. Certified registered 
nurse anesthetists fulfilled 100 percent of their deployment 
taskings, plus 47 percent of the anesthesiologist taskings. 
They have ably met all mission requirements and patient care 
needs.
    Lieutenant Colonel Bonnie Mack and Major Virginia Johnson 
deployed to Tallil Air Base in Iraq as the only anesthesia 
providers for 20,000 United States and coalition forces. On one 
occasion Colonel Mack and Major Greg Lowe provided 24 hours of 
anesthesia for six Italian soldiers who were severely wounded 
in a terrorist bombing. These men survived only because expert 
anesthesia and emergency surgery was close at hand.
    Air Force mental health nurses have also played an 
important role in caring for our wounded and for our health 
care teams. Sixteen mental health nurses were deployed to the 
Ramstein Air Base contingency air staging facility to support 
patients from all services. They provide early intervention to 
ameliorate long-term emotional effects and in some cases even 
facilitate return to duty in theater. We recently incorporated 
mental health nurse practitioners into our provider teams, and 
they can also substitute for psychiatrists and psychologists in 
the deployed setting.

                   332ND EXPEDITIONARY MEDICAL GROUP

    Our largest group of Air Force medical ``boots on the 
ground'' is at the 332nd Expeditionary Medical Group at Balad, 
which transitioned from Army to Air Force staffing last 
September. Its multinational team currently includes 148 Active 
duty Air Force nursing personnel, and they have many stories to 
tell. They provided lifesaving surgery for a 65-year-old Iraqi 
woman who triggered an explosive device as she answered her 
front door. Her daughter was a translator for the U.S. forces. 
They cared for the wife of an Iraqi policeman and her two 
children, all badly burned, when a grenade was thrown into 
their home. Since September, this team has supported 10 mass 
casualties, 3,800 patient visits, and 1,550 surgeries.
    Air Force nurses are outstanding commanders in both the 
expeditionary environment and at home station. This past year, 
3 nurses have deployed as commanders of expeditionary medical 
units, and at home there are 16 nurses commanding Air Force 
medical groups, 45 nurses command squadrons and 1, Colonel 
Laura Alvarado, is serving as a Vice Wing Commander.
    The nurse shortage does continue to pose an enormous 
challenge and we need to maintain robust recruiting to sustain 
our Nurse Corps. This year we have brought 110 new nurses on to 
Active duty, which is slightly more than at this same point 
last year.

                            NURSE RETENTION

    Retention, of course, is the other key dimension of force 
sustainment, and while monetary incentives play the key role in 
recruiting, quality of life issues become important as career 
decisions are being made. We continue to enjoy excellent 
retention in the Air Force and we ended fiscal year 2004 close 
to our authorized end strength.
    In 2004, the services were directed to identify non-wartime 
essential positions for conversion to civilian jobs. Initially 
we targeted almost 400 nursing positions for conversion over 
the next 3 years, primarily in our outpatient areas. This 
allows us to concentrate our Active duty nursing personnel in 
areas that will sustain their wartime skills. As force shaping 
continues, we will identify additional positions, but recognize 
that the nursing shortage may present hiring challenges.

                  TRISERVICE NURSING RESEARCH PROGRAM

    The TriService Nursing Research program continues to 
support major contributions to the science of nursing. This 
year 25 Air Force nurses are engaged in studies covering topics 
from expeditionary clinical practice to retention. For example, 
Reserve nurse Colonel Candace Ross is the principal 
investigator for a study on the impact of deployment on 
military nurse retention. Her findings should provide a road 
map for more effective retention strategies.
    The Graduate School of Nursing at the Uniformed Services 
University is very responsive to developing programs to meet 
our military nursing requirements. The school graduates its 
first class of perioperative clinical nurse specialists in May 
and the inaugural Ph.D. class will complete its very successful 
second year. Our certified registered nurse anesthetists 
(CRNAs) program at USUHS continues to graduate top-notch 
providers who score well above the national average on their 
certification exam. In 2004, 9 out of the 13 graduates earned a 
perfect score on the examination. This program is also unique 
in that it provides hands-on experience in field anesthesia.

                           PREPARED STATEMENT

    Mr. Chairman and distinguished members of the subcommittee, 
it has certainly been a tremendous honor to serve our Nation 
and to lead the more than 19,000 men and women of our Active, 
Guard, and Reserve total Air Force nursing force. I have 
increasingly treasured your support and your advocacy during 
this very challenging time for nursing and for our Nation.
    Thank you for inviting me once again to tell our Air Force 
nursing story. No one comes close.
    [The statement follows:]

         Prepared Statement of Major General Barbara C. Brannon

    Mr. Chairman and distinguished members of the committee, it is an 
honor and great privilege to again represent your Air Force nursing 
team. This year marks my sixth report to you and I am amazed how 
quickly the years pass by. It has been an honor to support and care for 
so many heroes--military men and women ready to sacrifice their lives 
for the cause of freedom, national security and a safer world.
    Our Air Force Medical Service has persevered in providing 
outstanding healthcare in a very dangerous world. Terrorist 
organizations continue to challenge our peace and security and natural 
disasters have taken a huge toll in death and devastation. Air Force 
Nurses and Aerospace Medical Technicians are trained, equipped and 
ready to respond anytime, anywhere at our nation's call.

                         EXPEDITIONARY NURSING

    In support of Operations ENDURING FREEDOM and IRAQI FREEDOM, 2,160 
nurses, and technicians deployed this past year as members of 10 
Expeditionary Medical Support Units, two Contingency Aeromedical 
Staging Facilities (CASF), and five Aeromedical Evacuation (AE) 
locations. Three nurses commanded expeditionary medical facilities and 
provided outstanding leadership. Today, Air Force nursing personnel are 
serving in a large theater hospital in Balad, smaller hospitals at 
Kirkuk and Baghdad International Airport, and in other deployed 
locations.
    The 332nd Expeditionary Medical Group at Balad is currently home to 
70 nurses, 6 licensed practical nurses and 99 medical technicians. This 
multi-national group includes 148 nursing personnel from the Air Force 
active duty team. During this current rotation, they have already 
supported 3,800 patient visits with 1,600 hospital admissions and 1,550 
surgeries. Some patients with massive trauma require surgical teams 
that include up to seven different surgical specialties simultaneously. 
They have responded to at least 10 mass casualty surges and have many 
stories to tell. They provided lifesaving surgery and cared for a 65-
year-old Iraqi woman who triggered an explosive device when she 
answered her front door. Her daughter was a translator for U.S. Forces. 
They cared for a young mother, her two-year old child, and her two-
month old baby, all badly burned when a grenade was thrown into their 
home. Her husband is an Iraqi policeman. The team in Balad is our 
largest group of Air Force medical ``boots on the ground,'' providing 
life-saving surgery, intensive care and preparation for aeromedical 
evacuation.
    I have had the opportunity to watch our tremendous Air Force 
nursing team in action as they provide world-class healthcare to 
wounded soldiers, sailors, marines and airmen. Military medics are 
saving the lives of people with injuries that would have been fatal in 
other wars. During World War I, 8.1 percent of the wounded died of 
their wounds. Today, lifesaving medical capability is closer to the 
battlefield than ever before, and in Iraq only 1.4 percent of the 
wounded have died.
    Aeromedical Evacuation has proven to be the critical link in the 
chain of care from the battlefield to home station. The availability of 
aircraft for patient movement is fundamental to the Aeromedical 
Evacuation system. Patient support pallets and additional C-17 litter 
stanchions have increased the number of airframes that can be used for 
aeromedical evacuation.
    In 2004, our Air Force nursing AE crews have flown 2,866 missions 
supporting 28,689 patient movement requests around the world. The 
majority of our AE missions are crewed by members of the Air National 
Guard and Air Force Reserve; it is a seamless, total nursing force 
capability.
    The synergy of combining aeromedical evacuation crews with critical 
care air transport teams (CCATT), additional high-technology equipment, 
advances in pain management and more extensive crew training has 
enabled us to transport more critically-ill patients than ever before. 
In 2004, CCATT teams were used in 486 patient movement operations. For 
example, Major Gregory Smith from Wright-Patterson Air Force Base was 
deployed as the nurse on a three-person CCATT. The team cared for nine 
casualties who required intensive care and were wounded during the 
Battle for Fallujah. Six of these patients had lifesaving surgery 
within six hours of injury and were evacuated from the field hospital 
within 48 hours of injury. Eight of the nine patients required 
mechanical ventilation during the flight. CCATT capability makes early 
air transport possible, reducing the requirement for in-theater beds 
and delivering injured troops to definitive care within hours rather 
than days.
    There are many, many examples of the tremendous capability and 
endurance of the AE crews. In one instance, Major Marianne Korn, a 
reserve flight nurse from the 452nd Aeromedical Evacuation Squadron, 
March Air Force Reserve Base, and her AE crew transported 82 patients 
from Ramstein Air Base to Andrews Air Force Base in response to 
Operation PHANTOM FURY. Overall, during this time the squadron surged 
to support a 35 percent mission increase and transported more than 
1,400 patients between the CENTCOM, EUCOM and NORTHCOM theaters.
    Another integral part of the aeromedical evacuation system is the 
Aeromedical Staging Facility (ASF) that serves as both an inpatient 
nursing unit and passenger terminal for patients in transit. They are 
staffed primarily by nursing personnel from the reserve, guard and 
active component of the Air Force. The level of activity is tied 
closely to the intensity of the conflict. ASF nurse Lieutenant Karen 
Johnson and her team cared for 296 patients from 13 separate missions 
within a three-day period following fierce fighting in Operation 
PHANTOM FURY.
    About that same time, Colonel Art Nilsen, Chief Nurse of the Air 
Force Squadron at Landstuhl Regional Medical Center, wrote to me and 
highlighted the tremendous accomplishments of the Army and Air Force 
team working together in that hospital. He invited me to visit and, in 
early December, barely three weeks later, I landed at Ramstein Air Base 
in Germany. My first stop was the 435th CASF at Ramstein, celebrating 
its first anniversary. Major Todd Miller, Chief Nurse, shared the 
amazing successes of the CASF over the past year. Deployed personnel 
have staffed the CASF on a rotational basis; a total of 391 nursing 
personnel from 55 Air National Guard, Air Force Reserve and active duty 
units. The team cares for every patient that transits Ramstein, a total 
of more than 22,000 in 2004. In the CASF, an empty bed is a welcome 
sight and means another patient is a step closer to home.
    It was already dark when I went out to the aircraft with the CASF 
team. I had a chance to talk with each patient as they were transferred 
from the aircraft to the waiting ambulance bus. It had been a long and 
uncomfortable flight, but it was obvious that they had been well cared 
for and were anxious to continue their journey home. Many talked about 
the wonderful medical care they had received and gave special praise to 
the Air Force team at the theater hospital at Balad Air Base and to the 
AE crews.
    I met many of these young men again when I visited Landstuhl 
Regional Medical Center. My visit was shortly after the battles in 
Fallujah, and the hospital and AE system were at surge capacity, as 
busy as in the early months of war. I will never forget the wounded 
marines and soldiers at Landstuhl. I was humbled by their acts of 
courage, their unwavering loyalty and sense of duty to their buddies. 
The nursing team on the units looked tired but energized. Everyone was 
working long hours and extra days. But when word came that an aircraft 
was arriving from Iraq, they came in to help--on days off and even 
after finishing a long shift. Many said they thought this would be the 
sentinel experience of their lives and careers. Those who had worked in 
large civilian trauma centers said they had never before cared for 
patients with injuries as severe.
    Two days later, I was headed home on a C-17 with eighteen litter 
patients, another twenty who were ambulatory and an AE crew from the 
315th Reserve Squadron at Charleston, SC and the 94th Reserve Squadron 
at Dobbins, GA. The medical crew director was Major Joyce Rosenstrom, a 
reserve nurse with the 315th. There was also a critically wounded 
marine on board who was accompanied by an active duty CCATT from the 
medical center at Keesler Air Force Base, MS., led by pulmonologist, 
Col Bradley Rust. The other team members were critical care nurse, Capt 
Erskine Cook and cardio-pulmonary technician SrA Laarni San-Agustin. 
The ten-hour flight was relatively uneventful with the medics working 
non-stop to ensure each patient received great care with particular 
attention to pain management. At the Andrews Air Force Base flight 
line, medical personnel from the Air Force hospital, Walter Reed Army 
Medical Center and Bethesda Naval Medical Center transferred patients 
to waiting ambulance buses. The patients' journey from the battlefield 
back to the United States was complete.
    The success of deployed medical care depends on having specialty 
providers available when needed. Anesthesiologists are key members of 
surgical teams, but significant shortages on active duty have left gaps 
on deployment packages. Certified Registered Nurse Anesthetists (CRNAs) 
have filled deployment requirements for anesthesia providers forty-
seven percent of the time and have ably met all mission and patient 
care requirements.
    Lieutenant Colonel Bonnie Mack and Major Virginia Johnson are CRNAs 
deployed to Tallil Air Base in Iraq as the only anesthesia providers 
for over 20,000 U.S. and coalition forces, and civilian contract 
personnel. During their deployment, a terrorist bomb ignited an Italian 
police compound just 10 kilometers from their facility. Colonel Mack 
and Major Greg Lowe provided anesthesia during the surgeries of six 
severely wounded Italian soldiers, working continuously for almost 24 
hours. These men survived because emergency surgical intervention and 
anesthesia were there to support them.
    During her deployment, Colonel Mack also served on a Critical Care 
Expedient Recovery Team assembled at Tallil to provide medical care on 
combat search and rescue missions when a para-rescue team is not 
available. Their role is to provide care during transport of recovered 
crew members to a medical facility. A mission can take the team into 
dangerous territory, but she willingly volunteered. In her words ``it 
is a great honor to be involved in the safe return of even one 
airman.'' Her team flew training missions and launched in response to a 
bombing in Karbala, but fortunately did not have to respond to a downed 
airman.
    Major Delia Zorrilla, a perioperative nurse, was awarded the Bronze 
Star in recognition of her tremendous service while deployed to Manas 
Air Base, Kyrgyzstan in support of Operation MOUNTAIN STORM. She served 
as the Chief Nurse of the facility and established a resupply system 
that ensured critical surgical supplies were available 24/7.
    Our mental health nurses have played an important role in caring 
for patients during Operation IRAQI FREEDOM and Operation ENDURING 
FREEDOM. Sixteen mental health nurses deployed to Ramstein Air Base to 
support Army troops returning from Iraq. They first interact with 
patients in the CASF and screen for Post-Traumatic Stress Disorder. 
They also provide patient education and strategies for coping with 
emotional distress and life-altering injury. Having this capability far 
forward enables early intervention and can ameliorate long-term 
emotional effects and, in some cases, even facilitate return to duty in 
theater.
    In the last sixteen months we have recognized the importance of 
mental health nurse practitioners and inserted the capability into 
deployment packages. They can also substitute for psychiatrists and 
psychologists in the deployed setting. We currently have five working 
in our facilities and five more will begin their practitioner programs 
this summer.
    In addition to providing service in Operation IRAQI FREEDOM, Air 
Force Nursing supports humanitarian relief around the world. Lieutenant 
Colonel Diana Atwell from Beale Air Force Base, CA led a team of 14 Air 
Force and 30 Salvadorian military and Ministry of Health medics in a 
humanitarian mission to San Salvador. The team planned and set up 
healthcare at five sites in impoverished districts within the city. 
They provided primary care, internal medicine, pediatric, optometry and 
dental services to more than 8,000 patients. Patients lined up for 
hours and more than 11,000 patient care services were provided, double 
what the team had anticipated. General Carlos Soto Hernandez, military 
Chief of Staff, visited one of the sites and praised them for their 
dedication and commitment.
    In another humanitarian effort, Major Tina Cueller, a reservist and 
Professor at the University of Texas, launched an initiative to assist 
Iraqi nurses. During her annual tour at Ramstein AB, Maj Cueller 
learned that over the years, looting in Iraq had stripped nursing 
schools of all textbooks. When she returned to the University of Texas, 
she arranged a book drive, collecting over 3,000 nursing textbooks. 
They were delivered through the aerovac system from Lackland AFB, 
Texas, to Ramstein Air Base Germany, to their final destination, Kuwait 
City. Major Cheryl Allen, an Army nurse, received the books in Kuwait 
and forwarded them to Baghdad where Colonel Linda McHale, deployed to 
work with the Iraqi Ministry of Health, coordinated their distribution.
    Humanitarian relief is not confined to far-away places, and the Air 
Force has been called to lend a hand in support of Homeland Medical 
Operations. Capt Ron Leczner from the 81st Aeromedical Staging Facility 
(ASF) at Kessler, MS coordinated the transfer of 47 local nursing home 
patients after the governor of Mississippi declared a mandatory 
evacuation of the Gulf Coast in anticipation of Hurricane Ivan. A 
skeleton crew at the ASF, including medical technician students, moved 
41 non-ambulatory and six ambulatory geriatric patients to Keesler 
Medical Center during 69 mile per hour winds. The nursing home 
residents were returned to their facilities by ASF staff and local 
ambulances within 12 hours after the hurricane passed.
Skills Sustainment
    Lessons learned from the field and after-action reports have led us 
to reevaluate clinical currency and sustainment training for our 
nursing personnel. Our Readiness Skills Verification Program has been 
refined and is web-based with embedded links to specific training 
materials. Units are encouraged ``to think outside the box'' and 
establish training agreements as needed with Army, Navy, VA or civilian 
institutions to keep their members clinically current.
    Air Force nurse and medical readiness officer Major Lisa Corso from 
the 704th Medical Squadron at Kirtland, NM, found new ways to improve 
the readiness skills of her reserve unit. For their annual field 
training and mass casualty exercise, Major Corso invited the local Army 
reserve unit to participate. Both groups were part of the planning 
process and the Army medics had a wealth of first-hand experience from 
members previously deployed. They provided expert instruction on skills 
that were identified for refresher training. The exercise was a huge 
success, and both units look forward to more joint training exercises 
in the future.
Recruiting and Retention
    The nurse shortage continues to pose an enormous challenge 
nationally and internationally. This year, the Bureau of Labor 
Statistics projected registered nursing would have the largest job 
growth of any occupation through the year 2012, and it is now estimated 
that job openings will exceed the available nurse pool by 800,000 
positions. The crisis is complicated by an increasing shortage of 
masters and doctoral-prepared nursing faculty across the country. 
Although the number of enrollments in entry-level baccalaureate 
programs rose 10.6 percent last year, the National League for Nursing 
reported that more than 36,000 qualified students were turned away due 
to limitations in faculty, clinical sites, and classrooms. Employer 
competition for nurses will continue to be fierce, and nurses have many 
options to consider.
    A robust recruiting program is essential to sustain the Nurse 
Corps; our fiscal year 2005 recruiting goal is 357 nurses. As of March 
22, 2005, we have brought 110 new nurses onto active duty, 31 percent 
of our goal and more than at the same point last year. The Air Force 
continues to fund targeted incentive programs to help us attract top 
quality nurses. We have increased our new accession bonuses from 
$10,000 to $15,000 for a four-year commitment and our highly successful 
loan repayment program was again available this year. Last year we 
awarded 134 loan repayments, and this year funds were available for 26. 
Both of these programs have been very successful in attracting novice 
nurses but not as successful in attracting experienced nurses, 
particularly in critical deployment specialties. To further support 
recruiting, we have increased nursing Air Force ROTC quotas for the 
last two years and filled 100 percent of our quotas. We added 
additional ROTC scholarships for fiscal year 2005, increasing our quota 
from 35 in fiscal year 2004 to 2041.
    We continue to advertise our great quality of life, career 
opportunities and strong position on the healthcare team. I also take 
advantage of any occasion to highlight the tremendous personal and 
professional opportunities in Air Force Nursing. I encourage nurses to 
visit their alma mater and nursing schools near their base. Our slogan, 
``we are all recruiters'' continues to reverberate, and active duty 
nurses enthusiastically tell our story and encourage others to ``cross 
into the blue''. We have also expanded media coverage of Air Force 
Nursing activities and accomplishments to attract interest in the 
civilian nurse community. The cover of the December 2004 Journal of 
Emergency Nursing featured Air Force nurse Major Patricia Bradshaw and 
Technical Sergeant Patricia Riordan, respiratory therapist. They 
deployed to the 379th Expeditionary Aeromedical Evacuation Squadron and 
were shown caring for a wounded IRAQI FREEDOM soldier. The article 
showcased the unique role of critical care nurses in the aeromedical 
evacuation environment. Nursing Spectrum magazine honored Lieutenant 
Colonel Cassandra Salvatore as the Greater Philadelphia/Tri-State Nurse 
of the Year and Capt Cherron Galluzzo, Florida Nurse of the Year for 
2004 and Air Force Company Grade Nurse of the Year.
    Retention is the other key dimension of force sustainment. While 
monetary incentives play a key role in recruiting, quality of life 
issues become very important considerations when making career 
decisions. We continue to enjoy excellent retention in Air Force nurses 
and ended fiscal year 2004 close to our authorized end strength of 
3,760.
    We conducted a survey in 2004 to identify positive and negative 
influences on nurse corps retention. The top two factors influencing 
nurses to remain in the Air Force were a sense of duty and professional 
military satisfaction. Our nurses clearly enjoy the unique opportunity 
to serve our country and to care for our troops. Local leadership and 
inadequate staffing were the two primary detractors identified. We are 
clarifying their concerns and are providing better leadership 
development programs. We are also putting senior, experienced nurses 
back at the bedside to guide and mentor our junior nurses and support 
their professional development and satisfaction.
    It has been three years since we initiated our Top Down Grade 
Review to correct our imbalance of novice and expert nurses. We have 
identified a number of company grade authorizations for conversion to 
field grade based on requirements and continue to pursue adjustments of 
authorizations among other career fields. We also identified the 
significant positive impact civilianizing a larger percentage of 
company grade positions would have on grade structure and career 
progression. Serendipitously, the services were directed by the Office 
of the Secretary of Defense to identify military positions not wartime 
essential that could be converted to civilian jobs. In our initial 
evaluation we identified 305 Nurse Corps and 75 enlisted Aerospace 
Medical/Surgical Technician billets to convert to civilian 
authorizations over the next three years. These changes will primarily 
be in the outpatient setting, concentrating our military personnel in 
our more robust patient care areas to maintain clinical currency in 
wartime skills. We will continue to identify nurse positions which do 
not provide expeditionary capability or support our wartime training 
platforms for civilian conversion.
Research
    Air Force nurse researchers continue to excel at expanding the 
science of military nursing practice thanks to the strong support from 
the TriService Nursing Research Program (TSNRP). This year, Air Force 
nurses are again leading the way in advancing our understanding of the 
effects of wartime deployment on today's military force. Twenty-five 
Air Force nurses are currently engaged in research covering priorities 
from clinical practice and training to recruitment and retention 
issues.
    Colonel Penny Pierce is an Air Force Reserve Individual 
Mobilization Augmentee assigned to the Uniformed Services University of 
the Health Sciences (USUHS) Graduate School of Nursing (GSN). She is 
conducting research to determine the effects of deployment experiences 
and stressors on women's physical and mental health, and their 
likelihood to remain in military service. Colonel Pierce received the 
2004 Federal Nursing Services Award at the 110th Annual Meeting of the 
Association of Military Surgeons of the United States for her 
pioneering research on factors that influence the health of military 
women.
    Colonel Candace Ross, a reserve nurse at Keesler Air Force Base in 
Biloxi, Mississippi is heading up a TSNRP-funded study on the Impact of 
Deployment on Nursing Retention. The study is designed to identify 
factors associated with retention of nursing personnel in the military 
service in hopes of identifying actionable areas for retention efforts.
    Colonel Laura Talbot, an Air Force reservist with the 440th Medical 
Operations Squadron at General Mitchell Air Reserve Station in 
Milwaukee, Wisconsin, and nursing faculty member at USUHS, is 
conducting research to test two different approaches to prosthetic 
rehabilitation for soldiers with below-the-knee amputations. This 
research is vital because 2.4 percent of all wounded-in-action during 
Operation IRAQI FREEDOM and ENDURING FREEDOM have suffered traumatic 
amputations. This is almost double the 1.4 percent during the Korean 
Conflict. Her research may promote accelerated rehabilitation for 
amputees and facilitate return to active duty for those who are able.
Education
    The Graduate School of Nursing at the Uniformed Services University 
(USUHS) supports military clinical practice and research during war, 
peace, disaster, and other contingencies. The PeriOperative Clinical 
Nurse Specialist program will graduate its first class of six in May 
2005. The students are conducting research to identifying 
organizational characteristics that promote or impede medication errors 
across the surgical continuum of care. Fewer medication errors will 
save lives and shorten hospital stays. They will be presenting their 
work at the National Patient Safety Foundation Conference later this 
spring.
    The graduates of the Nurse Anesthesia Program in 2004 once again 
scored significantly higher than the national average on their 
certification examination. Nine of the 13 CRNA graduates scored the 
maximum score of 600 and three scored 595 or higher, well above the 
national average of 551.5.
    In addition, the Air Force is currently funding two full-time 
students and another Air Force nurse is enrolled part time in the USUHS 
PhD program.
Nursing Force Development
    The USAF Nurse Transition Program (NTP) marked its 27th year in 
2004. The NTP is an 11-week, 440-hour course designed to facilitate the 
transition of novice registered nurses to clinically competent Nurse 
Corps officers. The program provides clinical nursing experience under 
the supervision of nurse preceptors and training in officership and 
leadership. There were several key changes this year, among them the 
addition of our first overseas NTP training site at the 3rd Medical 
Group, Elmendorf Air Force Base, Alaska. Last November, under the 
guidance of NTP Coordinator, Major Deidre Zabokrtsky, we successfully 
graduated our inaugural class of four nurses from the program.
    Our nurses provide outstanding leadership in the expeditionary 
environment, in military treatment facilities, and in positions not 
traditionally held by Nurse Corps officers. We currently have 16 nurses 
commanding Medical Treatment Facilities and 45 nurse Squadron 
Commanders. Col Laura Alvarado is the first nurse to serve as a Vice 
Wing Commander, and is at the 311th Human Systems Wing, Brooks City 
Base, TX. Maj Kari Howie is a CRNA and the first nurse to serve as the 
Deputy Chief of Clinical Services for a major command headquarters.
    This year, for the first time in history, two active duty nurses 
are serving concurrently as general officers in the Air Force. 
Brigadier General Melissa Rank joins me, and was promoted to her 
current grade on January 1, 2005.
    Colonel John Murray was the first military nurse to be appointed 
full professor at the Uniformed Services University of the Health 
Sciences. Colonel Murray was also selected by the Assistant Secretary 
of Defense for Health Affairs to serve on the National Advisory Council 
for Nursing Research.
    Mister Chairman and distinguished members of the Committee, it has 
been my tremendous honor to serve our nation and to lead the more than 
19,000 men and women of our active, guard and reserve total Air Force 
Nursing team for the last five years. I have increasingly treasured 
your support and advocacy during this challenging time for nursing and 
for our Air Force. Thank you for inviting me to tell our story once 
again. No one comes close!

    Senator Stevens. Well, thank each of you very much. It is 
delightful to have you back with us again this year.
    I only have one question, and I am going to usurp Senator 
Mikulski's role. You have heard her suggestion. Would that 
suggestion have any role in the nursing corps, Colonel?
    Colonel Bruno. Yes, sir, I think it certainly would. We 
currently have a program in place to loan repay, but it is a 
short-term, funded-this-year program to loan repay up to 
$30,000 for Nurse Corps officers, one time. It has been a 
useful tool in our recruiting. It was implemented at a time 
when we also increased the accessions bonus for those nurses. 
So they could come on to active duty and get a longer 
obligation if they took the accessions bonus and the loan 
repayment. So it has been useful, and we think that a continued 
use of that would be great.
    Senator Stevens. Admiral.

                       RECRUITMENT AND RETENTION

    Admiral Lescavage. I believe it is a great idea. As I 
observe recruiting and retention in the Navy Nurse Corps and 
all across military medicine, as the Surgeons General stated, 
it is not necessarily about monetary resources. We stay in for 
certainly greater reasons. However, monetary resources help and 
I believe that we need to be equitable.
    And as I watch recruiting, I can tell you it is difficult 
to be at a recruiting booth where either our sister services or 
other Federal entities or in the civilian arena are all 
offering different options. We all have different programs, and 
perhaps it is time that we all get aligned and we are on the 
same song sheet.
    The idea that Senator Mikulski had is a very good one. As I 
stated, we are doing a pilot program in five of our military 
treatment facilities for the civilian nurses and trying to 
retain them. But as mentioned, you go to the VA, and there are 
different options down that road too. So we are looking for 
anything out there, any ideas. So thank you.
    Senator Stevens. General.
    General Brannon. I would like to make two points. First of 
all, our loan repayments have been the most successful tool to 
bring new graduates into our Nurse Corps.
    Senator Stevens. How much can you repay the debt?
    General Brannon. This year we were repaying $29,000. Last 
year it was $28,000, a one-time thing. We gave 134 loan 
repayments. This year we had 26 to offer, and they went very 
quickly. The $15,000 accession bonus is helpful, but the loan 
repayment is more popular. People come out with a tremendous 
amount of debt from nursing school.
    The one point I would like to make, however, as our 
accession bonus and loan repayment is successful, we do have 
problems attracting experienced nurses in some of the critical 
specialties. Both of these incentives tend to bring people who 
are brand new out of school. So we do spend time molding and 
shaping them.
    Senator Stevens. Thank you very much.
    Senator Inouye.
    Senator Inouye. If I may, I would like to follow up on that 
without getting into Senator Mikulski's territory.
    According to the Department of Labor Statistics of the 
United States, by the year 2012, there will be a demand for 
over 1 million new and replacement nurses, and it appears that 
we will not be able to meet that demand. So obviously it is not 
just in the services but throughout this Nation. I do not know 
what the solution is, but it is a very critical one and 
something has to be done, otherwise we will have great problems 
not in just recruiting nurses but in recruiting military 
personnel.
    I would like to ask a couple of questions. Most Americans 
look upon nurses as being female, but I know that in the 
military there are a lot of men. What proportion of the Nurse 
Corps in the Army is male?

                          MALES IN NURSE CORPS

    Colonel Bruno. About 34 percent.
    Senator Stevens. And in the Navy?
    Admiral Lescavage. One-third.
    General Brannon. We are about the same, sir, about 32 to 33 
percent.
    Senator Stevens. Do you make a special effort to recruit 
men or it is the same?
    General Brannon. It really is the same in the Air Force, 
sir.
    Admiral Lescavage. They seem more than interested in 
joining the military services. Many, I notice, do go on to be 
nurse anesthetists or critical care nurses and operating room 
nurses.
    General Brannon. You know, I do notice that probably a 
larger percentage of the men do have prior service, and I think 
they see nursing as a wonderful career opportunity, they get 
their education, and then they join the Nurse Corps.
    Senator Inouye. General Brannon, what is this air 
expeditionary force concept that you employ in your recruiting?
    General Brannon. You mean as far as----
    Senator Inouye. Deployment.
    General Brannon. In deployment. Well, really the Air 
Force's air expeditionary forces consist of essential teams 
that are on call to deploy and manage our medical facilities in 
the case of medical and to provide patient care for a period of 
time. We have five teams that are in what are called the Air 
Expeditionary Force (AEF) window. So we have one team that is 
deployed at any time.
    We use that combined with our expeditionary medical system 
which is our very capable, small facilities, up to the size of 
a theater hospital that we deploy far forward in kind of a hub 
and spoke arrangement. So we have teams of people that come 
into these areas, take over for the crew that is ready to 
rotate back home, and provide that in-theater care. So it is a 
great system.
    I think now we have all developed the mind set that as 
medics, we are expeditionary. Deployment is no longer something 
that you might be called to do. It is a part of your service 
and you can anticipate and look forward to your opportunity to 
serve. It has created a lot of enthusiasm, I think, for that 
military aspect of service.

                               VA NURSES

    Senator Inouye. Admiral Lescavage, in your presentation I 
got the impression that VA nurses are paid better than Navy 
nurses. Is that correct?
    Admiral Lescavage. Yes, sir, and the VA doctors in many 
cases.
    Senator Inouye. I thought it was the other way around.
    Admiral Lescavage. Well, if you add our retirement, perhaps 
that may change the numbers a bit, but as you know, not 
everyone stays to retirement.
    Senator Inouye. At this moment, the pay of VA nurses is 
higher than military nurses?
    Admiral Lescavage. It depends on the grade level, but many 
times, yes.
    Senator Inouye. Is that the situation in the Army?
    Colonel Bruno. Yes, sir, it certainly is. We can use 
special pay rates that equal what the VA is if the VA is in the 
area, but they are difficult to implement. You have to do 
studies, but we do utilize them effectively.
    Senator Inouye. Is that the situation in the Air Force?
    General Brannon. Well, sir, I do not think there is a 
significant discrepancy in our Active force and the VA nurses. 
What becomes of great concern is the VA nurses and our civilian 
Air Force nursing force. As we look to increase our number of 
civilian nurses, the competition with the VA will be 
significant. So we are seeking to establish pay rates that are 
comparable with VA nursing pay.

                           DEPLOYMENT POLICY

    Senator Inouye. Is the deployment policy among the services 
the same or do they differ in every service?
    Colonel Bruno. I think they are different, sir. In the 
Army, if you deploy, you deploy for 1 year, and you are 
stabilized for as long as possible afterwards, but the 
deployment is 1 year.
    Senator Inouye. What about the Navy?
    Admiral Lescavage. We are about 6 months, depending on the 
mission.
    General Brannon. We have 16 months at home and then a 4-
month deployment, then 16 months at home, 4-month deployment, 
for the most part.
    Senator Inouye. What would happen if the Army adopted the 
Air Force plan?
    Colonel Bruno. Well, I think it might be helpful with our 
retention of some nurses. We have an exit poll that we conduct 
when nurses leave, and one of the issues that has come forward 
in the last 2 years has been the length of deployment. It is 
very difficult to be away from home for that length of time.
    Senator Inouye. What about the Navy?
    Admiral Lescavage. Well, I think our people are pretty 
happy with the 3 to 6 months. We support the marines, as you 
know, and we are sending mostly operating room nurses, critical 
care, and nurse anesthetists. So up to 6 months seems to do the 
trick.
    Senator Inouye. Have your problems increased now that 
sailors are doing ground duty in Iraq?
    Admiral Lescavage. I'm sorry.
    Senator Inouye. The sailors are now doing infantry work in 
Iraq.
    Admiral Lescavage. Yes, sir.
    Senator Inouye. Has that complicated your problems in Iraq?
    Admiral Lescavage. No, sir. We are there to support the 
sailors and the marines and any others.
    Senator Inouye. Thank you, Mr. Chairman.
    Senator Stevens. Thank you.
    Senator Mikulski.
    Senator Mikulski. Thank you very much, Mr. Chairman.
    We are very much on your side. In addition to being on this 
excellent subcommittee, I have a civilian life both on the 
Labor/HHS Committee, and working with Senator Sue Collins, we 
have been working on the civilian nursing shortage. So we know 
that you are in a war for talent with community-based hospitals 
and academic centers of excellence where the nurses themselves 
are being trained. As you know as nurses, you tend to stay 
where you get your training. It is just part of the culture. So 
we understand that. And then VA is competing with them, and now 
we have got all this competition. So we understand the 
challenges that you face.
    One of my first questions is the retention issue and what 
does it take to be able to retain. Now, Senator Inouye raised 
the issue of the OPTEMPO which you are facing, and I think we 
would encourage an evaluation of that. Also, how we could be 
supportive in that evaluation as you have to go up with your 
brass. So you are not functioning by yourself here as 
independent agents.
    Second, I was fascinated, General Brannon, where on page 16 
of your testimony you said two things affected them. It was not 
only money and OPTEMPO, but it was local leadership and 
inadequate staffing. What does local leadership mean? Is that 
the general over the base? Is this the nurse on the floor that 
the young nurse reports to?
    General Brannon. Well, that is a very good question and one 
I have asked myself. We need to go back and survey that. 
Anecdotally when I talk to some of the junior nurses, we tend 
to have a pretty junior staff, and we have very junior folks 
often working together. I think they lack that closer contact 
with the more seasoned, experienced nurses who provide the 
professional development, the support, and really the nurturing 
that every nurse needs. We are looking at changing our system a 
bit to put some of the more senior experienced nurses back into 
direct patient care so they can be the mentors and leaders to 
our promising young officers.

                          INADEQUATE STAFFING

    Senator Mikulski. Also, what about the inadequate staffing? 
It seems like one goes against the other.
    General Brannon. Sure, and I think inadequate staffing 
derives from--our staffing ratios are pretty good, and I know 
you are familiar with that, knowing what is going on in nursing 
around the Nation, but when you have people who are deployed 
off the units or out of the facility, everybody picks up a 
little bit additional duty.
    Senator Mikulski. So there is a lot of stress.
    General Brannon. There is a lot of stress.
    Senator Mikulski. So your nurses, male and female, are 
saying, number one, there is the pay issue.
    Second, there is the deployment, but when you are in the 
military, you know you are going to be deployed, but there are 
different deployment schedules within the services. The 
question is should we have a uniform deployment policy. I do 
not know that. I would look to you and your wise heads.
    And then the other, though, is the staffing. There is the 
staffing in battlefield conditions, or in your riveting story 
about traveling from Iraq all the way back to Andrews, this was 
a very poignant story that you tell in your testimony.
    But the question is what about the use of other kinds of 
nurses. At the hospitals, does everyone have to be a bachelors 
degree nurse to be with you? Can you use community college 
nurses? Can you look at medical corpsmen who have a background 
and perhaps use that medical background, a military background, 
but get an associate of arts of degree in nursing and move them 
quicker into the field? Because if they are enlisted, they tend 
to be older and, quite frankly, cannot take time off while they 
are in school.

                           EDUCATIONAL LEVEL

    General Brannon. Well, frankly, Senator Mikulski, I think 
one of the things that makes our military nursing force so 
strong is our educational level. As you know, we are across the 
services an all-baccalaureate force on Active duty, with about 
one-third having masters degrees.
    It is very difficult to present evidence that says that 
makes a difference. However, this past year in the Journal of 
the American Medical Association there was a great study by 
Professor Linda Aiken in Pennsylvania actually showing that in 
surgical patients, the higher percentage of the baccalaureate 
prepared nurses, the fewer complications and the lower the 
incidence of morbidity and mortality. So I think we are 
beginning to see some substantive evidence that education does 
make a difference----
    Senator Mikulski. I am in no way minimizing the bachelor of 
science (B.S.) or whatever, but we are facing a crisis here. 
And what we are looking at is, in some ways, subsets of who 
does what where. I think I am confused between your use of the 
terms ``military nurses'' and ``civilian nurses.'' Do you have 
civilian nurses?
    General Brannon. We do, indeed, and they are not all 
baccalaureate.
    Senator Mikulski. What do they do?
    General Brannon. They provide nursing care in many of our 
areas, and, as I mentioned, primarily in some of the areas 
where there are critical specialties where experience makes a 
big difference.
    Senator Mikulski. I am going to jump in. I know our time is 
short, but I do not think we understand it. I am new to this 
subcommittee. It is a spectacular subcommittee with astounding 
leadership, and on the 60th anniversary of the Victory in 
Europe (VE) Day, we know we want to salute these guys here, one 
who will forever remember the battle of Monte Cassino.
    But what we are seeing is different pay, and even among all 
of you, different deployment schedules. Then the use of nurses, 
both the military nurses and the civilian nurses. I wonder if 
you could submit to me and to the subcommittee kind of a chart 
on some of these issues as we look at it and then maybe perhaps 
a comparison to VA and other Federal counterparts so we can 
work with you on what we need to do to help you and also then 
to sort out where other talent could be used in the military 
but not at this highly unsophisticated level.
    [The information follows:]

                         Pay Scale Comparisons

    The chart below compares the civilian pay grades assigned 
to inpatient registered nurses at a representative sample of 
our medical treatment facilities (MTFs). The MTFs queried all 
Bachelor of Science in Nursing requirements for their civilian 
nursing staff. Contract employees may hold an Associate Degree 
in Nursing if it is written into the contract. Eglin AFB and 
Wilford Hall Medical Center pay the standard General Schedule 
(GS) rate while other locations are authorized locality pay. 
The civilian pay rates were obtained from Salary.com and are 
current as of June 1, 2005.
    The grade for our nursing positions is predetermined; 
however, the VA does not advertise positions in the same 
manner. Each successful applicant is reviewed by a Nursing 
Professional Standards Board to determine grade and salary 
based on the individual's education and experience. Once the 
grade is determined, the pay scale for that particular locality 
is used. As a result, the VA rates could not be included.

----------------------------------------------------------------------------------------------------------------
                                                                                                 Civilian--Local
            Location                           Facility                      GS Level/Pay              Pay
----------------------------------------------------------------------------------------------------------------
Anchorage, AK..................  Elmendorf AFB......................  GS 9 ($50,476)...........          $67,757
Dayton, OH.....................  Wright-Patterson AFB...............  GS 11 ($54,389)..........          $57,299
Pensacola, FL..................  Eglin AFB..........................  GS 11 ($57,000)..........          $51,694
San Antonio, TX................  Wilford Hall Medical Center........  GS 11 ($53,841)..........          $53,306
San Francisco, CA..............  David Grant Medical Center.........  GS 9 ($49,841)...........          $66,352
                                 ...................................  GS 10 ($54,886)..........  ...............
Washington DC..................  Malcolm Grow Medical Center........  GS 11 ($55,652)..........          $59,941
----------------------------------------------------------------------------------------------------------------

    Senator Mikulski. I just say to my colleagues and to 
everyone listening, starting on page 4 is Major General 
Brannon's story about these thousands of flights that you have 
made and how they made a difference. So let us just kind of 
work together, but we have got a very big job.
    Good luck to you, Admiral. So you are going to be running 
TRICARE.
    Admiral Lescavage. Yes, ma'am.
    Senator Mikulski. Well, that is called jumping out of the 
fat and into the fire.
    Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Stevens. Thank you very much, Senator.
    I thank you very much for your testimony. Senator Mikulski 
is right. We all remember your services very well from our days 
in World War II. It is a few days after the 60th anniversary. 
So none of you were there, but we thank you anyway for being 
part of the group that helped us so much. We look forward to 
working with you in trying to find additional ways to give 
incentives for your recruitment. Thank you very much.
    Colonel Bruno. Thank you, sir.
    Admiral Lescavage. Thank you, sir.
    General Brannon. Thank you, sir.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

        Questions Submitted to Lieutenant General Kevin C. Kiley
               Questions Submitted by Senator Ted Stevens

                       SUPPORTING TRANSFORMATION

    Question. Would each of you please describe some of the new 
technologies and tactics that have proven most effective in caring for 
our front line troops?
    Answer. The adoption of new trauma doctrine, called Tactical Combat 
Casualty Care (TC\3\), has incorporated additional emphasis on care far 
forward, be it self aid, buddy aid, or medic aid. With an emphasis on 
early intervention, this doctrinal change has had a significant effect 
in reducing deaths and limiting subsequent necessary treatment and 
rehabilitation. This doctrine is empowered through the use of new 
products, such as tourniquets, hemostatic bandages, and the newly 
reconfigured first aid kit.
    Another doctrinal change over the past several years has been the 
speedy removal of patients through evacuation chains to definitive care 
within our medical centers and hospital in Europe and the United 
States. There are definitive benefits to the patient who can begin 
treatment routines sooner, but it also reduces the medical footprint in 
theater and thereby medical Soldiers at risk. This doctrinal change 
could not have occurred without a broader scope of evacuation support 
medical devices, such as Codman neurological monitors, Chillbuster 
patient warmers, Belmont fluid warmers, or KCI wound vacuums.
    Question. What tools and equipment are still required to improve 
the care provided to combat casualties?
    Answer. A recent study of all available resuscitative fluids and 
volume expanders was concluded, and the study found the use of hextend 
as the most efficacious in clinical outcomes. This product is being 
worked into our Rapid Equipping Force Initiative for quick fielding to 
the theater for full scale adoption.
    The use of recombinant factor VII as a clotting agent for surgical 
patients as well as internal bleeding from blunt trauma could have an 
incredible effect. This product, which is approved in Europe, is in a 
Phase III clinical trial for a trauma indication and if successful, it 
will be rushed to full scale use. Because it does not have FDA 
approval, it is only used in an off-label, compassionate manner which 
limits its potential value.
    Oxygen remains a consistent treatment component of combat casualty 
care, and many actions are being taken to reduce the need for cylinders 
in theater. Today, oxygen is the largest logistical burden for the 
medics. In an adaptation of industrial oxygen generators, used for 
welding and manufacturing processes, new medical generators are being 
developed in smaller scale and greater oxygen content. This downsizing 
has gotten to the point that wards and operating room tables can be 
supported through these ambient air oxygen generators. Continued 
development is ongoing to reduce them to individual patient sizes that 
will support evacuation patients.
                                 ______
                                 
             Question Submitted by Senator Pete V. Domenici

                    ACCESS TO MENTAL HEALTH SERVICES

    Question. I understand from your statements that you are diligently 
pursuing incidences of mental health issues such as depression, anxiety 
and post-traumatic stress disorder. I commend you for that. It is my 
understanding that to date the Department of Defense has done a good 
job reaching out to soldiers upon their return.
    My concern is for mental health services for rural Guard and Air 
Guard members in particular. Those Guardsmen in places like Springer, 
New Mexico are far from metropolitan areas and do not have access 
following demobilization to military mental treatment facilities with 
mental health services.
    I understand that this rural demographic is a small portion of your 
total population, but do you share my concerns about mental health 
access for rural Guard and Reserve members and if so can you give me 
your thoughts on how we might best address this issue?
    Answer. Providing mental health services for rural Guard and Air 
Guard members is a recognized challenge. Reserve component Soldiers, 
who have been activated, are entitled to all of the behavioral health 
services offered to active duty personnel. After demobilization, 
reserve component Soldiers are entitled to the TRICARE benefit for six 
months. Veterans who have served in OEF/OIF are entitled to care at the 
Veterans' Administration for two years. However, rural Reserve 
component soldiers may not live near military or VA providers. The 
Military One Source program was developed in October 2003 for Soldiers 
and Army civilians redeploying from combat. It includes a 24-hour, 
seven-days-a-week toll-free phone information and referral telephone 
service and a website with links to information and assistance. 
Initially developed by the Army for both active and reserve component 
Soldiers and family members worldwide, it has now been adopted by the 
Department of Defense for all service members, families, and civilian 
employees. In January 2005, the Department of Defense announced a Post-
Deployment Health Reassessment to screen all Soldiers 90 to 180 days 
after deployment. One of the reasons for this additional screening is 
that many Soldiers will not recognize or report mental health symptoms 
at the time they return home, but may later. These reassessments are 
scheduled to begin on September 1, 2005.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby

                          ANTHRAX VACCINATIONS

    Question. Pursuant to the order of a federal district court, the 
anthrax vaccination program has been suspended. However, this past 
December Secretary Wolfowitz requested an emergency authorization to 
resume use of the anthrax vaccine. Considering all the documented 
health risks, does the panel feel it is in the best interest of the 
military to resume vaccinating our troops? And why?
    Answer. Anthrax spores can kill or incapacitate American troops if 
used against us as a weapon. It is clearly in the best interests of our 
troops to use the only round-the-clock protection available against 
this lethal threat. The sudden deaths from inhalation anthrax among 
U.S. Postal Workers and other Americans during the fall 2001 anthrax 
attacks on Senator Daschle and Senator Leahy and other targets 
demonstrate how easy it is for people to breath in anthrax spores 
without realizing they have been exposed. In April 2002, the National 
Academy of Sciences released a Congressionally commissioned report that 
reviewed all available scientific evidence and heard from people 
concerned about anthrax vaccine. The National Academy of Sciences then 
concluded that the anthrax vaccine licensed by the Food and Drug 
Administration protects against all forms of anthrax and is as safe as 
other vaccines.

                      COMBAT STRESS CONTROL TEAMS

    Question. General Kiley, in your testimony you state there are a 
wide array of mental health assets in theater including Combat Stress 
Control teams and other personnel assigned to units and hospitals. Can 
you provide some numbers and tell us how many teams and personnel make 
up this program? Are there any current plans to increase your numbers 
of mental health assets in theater?
    Answer. Since the beginning of Operation Iraqi Freedom, combat 
stress units and other mental health assets have been deployed into 
theater. Personnel include psychiatrists, psychologists, social 
workers, psychiatric nurses, occupational therapists and enlisted 
technicians. As well as the combat stress control teams, there are 
mental health assets organic to the division and combat surgical 
hospitals. They work in close conjunction with the chaplains. The 
combat stress teams work closely with leaders and Soldiers to help them 
cope with both the stresses of combat and the challenges of being away 
from families for long periods of time. Their role is to provide 
education, preventive services, and restoration and treatment services. 
Typical educational activities include combat and operational stress 
control and suicide prevention classes, and preparation for reunion 
with their families. Clinical work includes individual and group 
evaluation and treatment. There are 10 combat stress control teams in 
theater, with a total of 224 mental health personnel. This number is 
appropriate for the number of U.S. forces deployed in the CENTCOM 
Theater. To add more to the theater would not add significant benefit 
and would detract from the staff available in CONUS and OCONUS 
providing care to other Soldiers and their families.

                        RECRUITING AND RETENTION

    Question. In your testimony, General Kiley, you note that you are 
concerned about the retention of health care professionals and that you 
are working with the Commander of Army Recruiting to reverse the 
current trends. How far from your desired retention and recruiting rate 
are you currently? What steps are you taking to address the situation?
    Answer. The Global War on Terrorism and Army transformation make 
recruitment and retention of Army Medical Department personnel 
challenging. Transformation has provided a new set of requirements 
which, given the long training tail for medical personnel, cannot be 
immediately met through recruitment and student programs. The only way 
to meet this need, in the near term, is to retain individuals to fill 
these positions. At the same time, members of the Army Medical 
Department have some of the most ``exportable'' skills in the Army and 
some skills, like the Nurse, are in short supply and high demand in the 
civilian market place. The lure of lucrative employment coupled with no 
deployments is having its effect on retention. A comparison of three 
year average continuation rates for 1999 to 2001 (pre 9/11) against 
2002 to 2004 shows significant changes. At the 7th year of service, 
Nurses are down from 87 percent to 84 percent and at the 5th year, 93 
percent to 90 percent; Physician Assistants have demonstrated a 
remarkable drop in the 12th, 13th and 14th year of service (92 percent 
to 76 percent, 85 percent to 77 percent and 88 percent to 72 percent 
respectively).
    Direct accessions of medical personnel have also proved to be 
challenging. The chart below shows current fiscal year 2005 recruitment 
for both Active and Reserve component medical personnel.

----------------------------------------------------------------------------------------------------------------
                                  Active Duty     Percent     Army Reserve    Percent   National Guard   Percent
----------------------------------------------------------------------------------------------------------------
Medical Corps................  18 of 40.........       45  64 of 201........       32  12 of 104.......       12
Dental Corps.................  10 of 30.........       33  7 of 48..........       15  0 of 32.........  .......
Nurse Corps..................  75 of 170........       40  225 of 485.......       46  13 of 55........       24
----------------------------------------------------------------------------------------------------------------

    The backbone of medical recruiting is our student programs 
(scholarships and stipends). Recruitment for these student programs is 
more difficult than expected. The Army has requested additional Health 
Professions Scholarship Program allocations. We believe that these 
additional scholarships are needed and as individual influencers learn 
that more scholarships are available, they will be filled by quality 
individuals who will shape the medical department of the future.
    Increases in Incentive Special Pays, Accession Bonuses, Loan 
Repayment Programs and other incentive pays are all tools which can be 
utilized by the recruiters and Commanders to influence recruitment and 
retention decisions. In February 2005, the Army increased Incentive 
Special Pays for Certified Registered Nurse Anesthetists retroactive to 
January 1, 2005. As of June 2005, 88 percent of the eligible Nurse 
Anesthetists elected to sign a new Incentive Special Pay contract. 
Twenty-two percent of these nurses opted for 1-year contracts and 78 
percent opted for multi-year contracts.
    The Surgeon General approved the utilization of Active Duty Health 
Professions Loan Repayment as an accession tool to assist U.S. Army 
Recruiting Command (USAREC) in meeting their recruitment mission for 
Physician's Assistants in fiscal year 2006. This will be the first year 
that USAREC has been tasked to directly recruit Physician's Assistants. 
Anecdotal evidence suggests that the ability to offer recent graduates 
from civilian Physician's Assistants programs the opportunity to have 
the Army assist in the repayment of their educational loans will make a 
difference in their propensity to serve. This is a new program for this 
group; however it has proven to be very successful with Pharmacy 
officers and Registered Nurses in the past.
    Finally, USAREC signed a contract with Merritt Hawkins in June 2005 
for a 6-month trial period to recruit Army Reserve Physicians. Merritt 
Hawkins is the top-ranked civilian Healthcare Professional recruiting 
firm in the country. The trial period is to run from July to December 
2005.

                          ANTHRAX VACCINATIONS

    Question. During the height of the Iraq invasion, concern, and more 
specifically controversy, surrounded vaccinating our armed forces for 
anthrax. This debate has not died down. The FDA has reported that there 
are over 50 side effects to the anthrax vaccination, and this is taking 
into account that former FDA Director David Kessler has stated that 
only 10 percent of reactions ever get reported. In 1998 the former 
Secretary of the Army Luis Caldera acknowledged the anthrax vaccine was 
linked to ``unusually hazardous risks.'' There have been documented 
cases of DOD continuing shots after major reactions, which violates 
vaccine instruction and documented cases of DOD administering shots 
from expired lots. Further, Senate Report 103-97 stated that the 
vaccine has still not been eliminated as a cause of the Gulf War 
Syndrome. In the past 5 years, thousands of cases of adverse reactions, 
causing serious health problems, have been linked to the anthrax 
vaccine. Several soldiers have even died from the shots. In light of 
the inherent risks in the program, I would appreciate hearing the 
panels' views as to why are we still mandating that our servicemembers 
receive these shots?
    Answer. Anthrax spores can kill or incapacitate American troops if 
used against us as a weapon. It is clearly in the best interests of our 
troops to use the only round-the-clock protection available against 
this lethal threat. The sudden deaths from inhalation anthrax among 
U.S. Postal Workers and other Americans during the fall 2001 anthrax 
attacks on Senator Daschle and Senator Leahy and other targets 
demonstrate how easy it is for people to breath in anthrax spores 
without realizing they have been exposed.
    In April 2002, the National Academy of Sciences (NAS) released a 
Congressionally commissioned report that reviewed all available 
scientific evidence and heard from people concerned about anthrax 
vaccine. The National Academy of Sciences then concluded that the 
anthrax vaccine licensed by the Food and Drug Administration protects 
against all forms of anthrax and is as safe as other vaccines.
    While some individuals have expressed concern about anthrax 
vaccine, a detailed analysis of 34 peer-reviewed medical journal 
articles shows that people vaccinated or unvaccinated against anthrax 
have the same health experiences. It is well recognized that minor 
temporary side effects are underreported (which is the point Dr. 
Kessler was making); however, serious adverse events are reported, 
especially in a well-monitored integrated health system, such as the 
Military Health System.
    With reference to adverse events, Defense policy requires anyone 
who presents to medical personnel with a significant adverse health 
condition after receiving any vaccination (e.g., anthrax, smallpox, 
typhoid) to be evaluated by a physician to provide all necessary care 
for that event. The physician must determine whether further doses of 
that vaccine should be given, delayed, or a medical exemption--either 
temporary or permanent--be granted. Military medical personnel are 
trained how to manage perceived or actual adverse events after 
vaccination with any vaccine.
    As of July 2005, anthrax vaccinations are voluntary, under an 
Emergency Use Authorization issued by the Food and Drug Administration.
    As for links between anthrax vaccinations and illnesses among Gulf 
War veterans, two publications by the civilian Anthrax Vaccine Expert 
Committee concluded that multi-symptom syndromes among some veterans of 
the Persian Gulf War were not reported more often among anthrax 
vaccines than expected by chance. As explained in these articles, the 
vast majority of adverse-event reports involve temporary symptoms that 
resolve on their own. While one death has been classified as 
``possibly'' related to a set of vaccinations, these civilian 
physicians did not attribute other reported deaths to anthrax 
vaccination.
    Secretary Caldera's actions are quoted out of context. His finding 
related to the risks to the manufacturing enterprise (the only 
manufacturer licensed by the Food and Drug Administration to produce 
anthrax vaccine) if the manufacturer was subjected to multiple 
lawsuits. He was not referring to the risks of the vaccine itself. In a 
Congressionally commissioned report, the National Academy of Sciences 
concluded in April 2002 that anthrax vaccine is as safe as other 
vaccines.
                                 ______
                                 
            Questions Submitted by Senator Daniel K. Inouye

                           SUICIDE PREVENTION

    Question. What is the process for assuring our troops and their 
leadership are well trained in suicide prevention and intervention 
protocols as they relate to both the peacetime and wartime missions?
    Answer. Suicide prevention is a Commander's program. The proponent 
for the program to include training is Army G-1. In general, Army units 
typically have an annual requirement to conduct suicide prevention 
training. This is usually conducted by installation Chaplains or 
Behavioral Health personnel. Many units and installations sponsor 
Applied Suicide Intervention Training (ASIST) that provides specific 
intervention skills to noncommissioned officer leadership and selected 
Soldiers. Formal investigations are done after every active duty 
suicide focusing on lessons learned and prevention. Additional training 
is also provided to support agency staff, including Chaplains and 
healthcare providers, on how to identify signs of suicide and how to 
effectively screen and intervene with service members who are having 
suicidal thoughts. Leaders, both officer and non-commissioned officers, 
receive training on how to take care of their troops in the area of 
suicide.

                           HEALTH ASSESSMENTS

    Question. How does the AMEDD determine if soldiers are both 
psychologically and physically healthy enough to be deployed? What 
improvements should be made in the current pre-deployment evaluation?
    Answer. The Pre-Deployment Health Assessments (DD 2795) falls 
within the overall framework of Force Health Protection, which provides 
comprehensive health surveillance. All Soldiers identified as having 
psychological and/or physical health related concerns are screened by 
medical personnel for further evaluation. Medical personnel make 
recommendations to Commanders concerning whether or not Soldiers are 
healthy enough for deployment. Identifying Soldiers who are at risk for 
physical injury before deployment is an area for improvement in pre-
deployment evaluation. In addition, an annual preventive health 
assessment has been developed and will be fielded in the coming year. 
This annual requirement specifically includes assessment of domains 
relevant to medical readiness, both physical and psychological. The 
implementation of this annual assessment will help to maintain the 
health of our troops across the deployment cycle, not just immediately 
before.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy

    Question. You have been working for four years with congressional 
support to develop a robust, mobile hospital solution to replace the 
Deployable Medical Systems you've had in place for nearly thirty years 
now. With the research and development phase of this work now near its 
end, is it not time to move this effort to the next stage and develop a 
procurement program for these hard-shelled, mobile hospital units?
    Answer. The research and development phase has not been completed 
for hard wall shelters. In fact, the Army only recently received just 
one set of first prototype shelters with the most recent being provide 
in the spring of this year. Though the shelters exhibit promise, there 
are some shortcomings from our initial review and have yet to gather 
the most meaningful data, operational user tests. At this moment, there 
are two competing designs at work with an expected down select in the 
late fiscal year 2006, early fiscal year 2007 timeframe. We anticipate 
that the Army will find separate technologies within each prototype 
system that has value and will compete a requirement that builds upon 
combined characteristics. At present, the further developmental and 
procurement quantities have been programmed as requirements into our 
budget, but higher priority requirements preclude its funding at this 
point in time.

                      COMPOSITE HEALTH CARE SYSTEM

    Question. I have followed the evolution of CHCS II and Tricare 
Online with interest, and it strikes me that there is a confluence of 
maturing technologies that can be leveraged to empower the patient to 
improve health care quality while reducing health care costs. If 
Department of Defense servicemembers and beneficiaries are given the 
ability to securely enter data about themselves and their medical 
problems into CHCS II via Tricare Online, it will solve a huge problem 
facing the military health system, namely how to get standardized 
clinical information into the medical record without using expensive 
and scarce medical personnel. Physicians would get better information 
about their patients, and patients would get immediate guidance from 
the tools mounted on Tricare Online to help them with their problems. I 
know there are knowledge tools in CHCS II, but I would like each of you 
to comment on any plans your service has to offer them to beneficiaries 
on Tricare Online. What are your thoughts about using Tricare Online to 
help populate subjective clinical information into CHCS II?
    Answer. The Health Assessment Review Tool (HART) and Personal 
Health Record (PHR) are two such tools that are projected for a TOL 
interface with CHCS II. A web-enabled HART is by far the most effective 
and efficient method of making HART available to all populations 
(TRICARE Standard, TRICARE Prime, Reserve/National Guard, civilian 
employees of DOD activities). The successful implementation of this 
web-enabled functionality is a positive step toward empowering the 
patient to participate in his or her own heath care.
    The E-Health Personal Health Record (PHR), accessible via TOL, 
addresses the Military Health System's (MHS) need for a secure portal 
for beneficiaries to access their electronic medical record. The MHS is 
working with commercial organizations and the Veterans Health 
Administration to define optimal business processes and to develop 
industry leading functional and technical requirements. This structured 
response capability is scheduled for deployment in fiscal year 2008, 
capabilities will allow the patient to review or enter allergies, past 
medical history and to review test results and other information that 
must be either posted or verified by the medical staff. This will help 
to ensure that the information was received by the patient and prevent 
unnecessary visits to check lab results that were normal.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski

                     POST TRAUMATIC STRESS DISORDER

    Question. The New York Times recently reported that an Army study 
shows that about one in six soldiers in Iraq report symptoms of major 
depression, serious anxiety or post-traumatic stress disorder, a 
proportion that some experts believe could eventually climb to one in 
three, the rate ultimately found in Vietnam veterans. (NY Times, Dec. 
16, 2004). (Reference for the above Army study is: New England Journal 
of Medicine, Vol. 351, No. 1, pg. 13).
    According to the Times and the Army report, ``through the end of 
September, the Army had evacuated 885 troops from Iraq for psychiatric 
reasons, including some who had threatened or tried suicide. But those 
are only the most extreme cases. Often, the symptoms of post-traumatic 
stress disorder do not emerge until months after discharge''. (NY 
Times, Dec. 16, 2004).
    The Times also referenced a report by the GAO that found similarly 
alarming results: ``A September report by the Government Accountability 
Office found that officials at six of seven Veterans Affairs medical 
facilities surveyed said they `may not be able to meet' increased 
demand for treatment of post-traumatic stress disorder.'' (NY Times, 
Dec. 16, 2004).
    However, despite this well-documented crisis, I am concerned that 
we are not doing enough to combat PTSD.
    In light of these very serious concerns, what is the Department of 
Defense doing to address well-documented examples of PTSD in our men 
and women returning from the battlefields of Iraq, Afghanistan and 
elsewhere?
    Answer. The Department of the Army complies with a series of 
Department of Defense policies which govern the Pre- and Post-
Deployment Health Assessment process. A February 2002 Joint Staff 
Policy details the procedures for Deployment Health Surveillance and 
Readiness. The Pre- and Post-Deployment Health Assessments (DD 2795 and 
DD 2796) are designed to provide comprehensive health surveillance for 
service members affected by deployments. The overarching goal of the 
Army is to provide countermeasures against potential health and 
environmental hazards to include Post Traumatic Stress Disorder (PTSD) 
for optimal protection to our troops. Early detection and management of 
all deployment-related health concerns, including PTSD, can reduce 
long-term negative health consequences and improve the quality of life 
for those with deployment concerns. All Soldier's identified with PTSD 
and/or other mental health symptoms are referred to mental health 
providers for further evaluation and follow-up. The Post-Deployment 
Health Assessment provides ongoing identification and management of 
later emerging deployment health concerns. Copies of all Pre- and Post-
Deployment forms are kept in a central database at the U.S. Army 
Medical Surveillance Activity.
    This system of identification and treatment is being further 
enhanced through implementation of a Post-Deployment Health 
Reassessment to be conducted at the 3-6 month period after service 
members return from an operational deployment. This program will 
provide an opportunity for identification and treatment of health 
concerns, including mental health concerns, that emerge over time. In 
addition, DOD and VA have also collaborated in the development and 
dissemination of an evidence-based clinical practice guideline for 
identification and treatment of acute stress and PTSD in both primary 
care and specialty mental health care settings.The guideline supports 
the Post Deployment Health Evaluation and Management Clinical Practice 
Guideline that was fielded for mandatory implementation in every 
military primary care clinic in 2003. Because PTSD is not the only 
mental health concern resulting from deployment and because PTSD is 
often related to physical health symptoms, additional guidelines have 
been developed and disseminated throughout the military health system 
to include a DOD/VA Clinical Practice Guideline for Major Depression, 
Substance Use Disorder, and Ill-defined conditions and concerns.
    Question. Are clinical trials being conducted in conjunction with 
our nation's pharmaceutical industry?
    Answer. The Army Medical Department is not currently conducting 
clinical trials in conjunction with the pharmaceutical industry.
    Question. Is the Department aware that there exists a not-for-
profit organization in Maryland that is committed to pulling together 
all developing new technologies for the treatment of PTSD?
    Answer. The Army is aware that the Department of Defense, in 
collaboration with the Department of Veteran's Affairs, has contracted 
with the Samueli Institute for Information Biology (SIIB) to conduct 
the program entitled Integrative Healing Practices for Veterans (VET 
HEAL). SIIB is a non-profit, non-affiliated medical research 
organization, based in Maryland, supporting the scientific 
investigation of healing processes with Information Biology and its 
application in health and disease.
    Question. What is the Department doing to identify these and other 
innovative approaches to the treatment of PTSD?
    Answer. The Army Medical Department, in conjunction with the 
Department of Defense and the members of the National Center for PTSD 
partnered to develop The Iraq War Clinician Guide, which is now in its 
second edition (June 2004). This guide was developed specifically for 
clinicians and addresses the unique needs of veterans of the Iraq war. 
Topics include information about the management of PTSD in the primary 
care setting, caring for veterans who have been sexually assaulted, and 
the unique psychological needs of the amputee patient. Similarly, the 
Veterans Health Administration and the military services developed the 
VA/DOD clinical practice guideline for the management of post-traumatic 
stress. In addition, the Department of Defense has partnered with the 
Department of Veterans Affairs to conduct two randomized clinical 
trials, including one focused on effective treatment for military women 
and one focused on prevention and education for early intervention 
through a technology enhanced program called DESTRESS. These studies 
aid us in ensuring our treatments are the most effective they can be 
and they are provided at the appropriate time. DOD and VA have also 
collaborated in the development and dissemination of an evidence-based 
clinical practice guideline for identification and treatment of acute 
stress and PTSD in both primary care and specialty mental health care 
settings.The guideline supports the Post Deployment Health Evaluation 
and Management Clinical Practice Guideline that was fielded for 
mandatory implementation in every military primary care clinic in 2003.
                                 ______
                                 
          Questions Submitted to Vice Admiral Donald C. Arthur
               Questions Submitted by Senator Ted Stevens

                       SUPPORTING TRANSFORMATION

    Question. Would each of you please describe some of the new 
technologies and tactics that have proven most effective in caring for 
our front line troops?
    Answer. The Navy is involved in the following projects and programs 
to care for our front line troops:
  --The introduction of Body Armor, the Forward Resuscitative Surgical 
        System, and reduced evacuation times has had a substantial 
        impact in reducing members killed in action (KIA) compared to 
        prior conflicts.
  --The introduction of Quikclot for controlling hemorrhage.
  --Fielding of a Patient Tracking Device in OIF and OEF, the Tactical 
        Medical Coordination System (TacMedCS).
  --Combat Trauma Registry (CTR). This registry has made a major 
        contribution to understanding of casualties. Data summarized 
        from the CTR forms have been used in theater to provide medical 
        situation updates. The CTR is being used for ongoing studies 
        and analyses which include: head, neck and face injury study, 
        extremity injury study, and shunt efficacy study.
  --Field Oxygen Concentration Units, reducing need for cylinders.
  --EnRoute Care System--the supplies, equipment and personnel 
        available to use any mobility platform to transport critically 
        injured casualties.
  --Improved Medical Diagnostic Capabilities in Field of Operations: 
        Digital Radiography.
  --Individual First Aid Kit (IFAK), (including tourniquets and 
        advanced compression dressings for self and buddy aid).
  --Improved First Responder Aid Bag.
  --OSCAR (Operational Stress Control and Relief) to Reduce Combat 
        Stress.
  --New Seats Installed in the Small Special Operations Boats (should 
        reduce injuries to operating personnel through greater shock 
        absorption).
  --Use of a Centralized Computer System to Collect Heat Stress Data on 
        Ships (should reduce the incidence of heat injury and reduce 
        work load. Also has land-based applications).
  --Improved Methods of Rapidly Gathering and Assessing Lessons Learned 
        Data from ongoing experiences linkage to off-the-shelf 
        solutions/ideas for providing care to front line troops.
    The Marine Corps has introduced new technologies and tactics to 
improve first responder care, resuscitative surgery, and patient 
evacuation with enroute care.
  --First responder care. Marines from I MEF and II MEF have received 
        Combat Lifesaver Training to enhance their ability to provide 
        self-aid and buddy aid. These Marines also received a new 
        Individual First Aid Kit (IFAK) to improve their ability to 
        stop life-threatening bleeding. The new IFAK includes a 
        hemostatic agent (QuikClot), a new tourniquet, and improved 
        battle dressings.
  --Resuscitative Surgery. The Marine Corps has successfully used the 
        Forward Resuscitative Surgery System (FRSS) to provide life-
        saving surgery far forward on the battlefield. The FRSS has 
        demonstrated the potential of far forward resuscitative surgery 
        to reduce battlefield mortality among the most seriously 
        wounded.
  --Patient evacuation with Enroute Care. The Marine Corps has also 
        successfully used specially trained nurses and hospital 
        corpsmen to provide enroute care during the evacuation of 
        critically injured casualties onboard its helicopters. 
        Providing enroute care for these critically injured casualties 
        has contributed to reducing battlefield mortality.
    Question. What tools and equipment are still required to improve 
the care provide to combat casualties?
    Answer. While the number of Killed in Action has been greatly 
reduced by the aforementioned capabilities. Much work is need now for 
those who are wounded in action.
  --Improved Body Armor for extremities.
  --Treatments to prevent/treat blast trauma and long term neurological 
        deficits resulting from exposure to blast.
  --Research on Combat and Operational Stress to include enhanced 
        research on Mental Health and Post Traumatic Stress (PTSD).
  --Blood substitutes and improved resuscitation strategies.
  --Technologies to stop internal hemorrhage.
  --Technologies to sustain life support and reduce logistical burden 
        during delayed/prolonged evacuation.
  --Technologies to treat brain injury.
  --Technologies to improve limb and organ viability from trauma.
  --Microbiology of blast and bullet injuries in returning troops.
  --Research on Musculoskeletal Injuries (including epidemiology, 
        prevention, and footwear).
  --Research on Effectiveness of Current Body Armor (i.e., how many 
        casualties prevented).
  --Research on the Causes and Prevention of Motor Vehicle Accidents 
        (almost 10 percent of casualties resulting from hostile enemy 
        action were due to motor vehicle accidents).
  --Improved Medical Diagnostic Capabilities in Field of operations.
  --Improved Bioenvironmental Tools for Operational Risk Management and 
        Deployment of Medical Resources and Identification of Routes of 
        Evacuation.
  --Research on the Impact of Multiple Stressors (Noise, Heat, Chemical 
        Exposure, etc.) on Recuperation of Casualties.
  --Development of Antioxidant Treatment Protocols for Laser Eye 
        Injuries.
  --The Submarine Force Needs Better Casualty Movement and Evacuation 
        Equipment for casualty transfer and MEDEVAC. Currently 
        available stretchers and evacuation equipment do not permit 
        rapid movement of casualties in and out of the tight confines 
        of submarines.
  --Anti-Hypothermia Warming Blankets.
  --Improved Non-Performance Degrading Analgesia.
  --Improved Means for Combat Medic Training.
  --Easy to Use Vascular Shunts for Limb Salvage.
  --Research on Use of Antioxidant Supplementation for Performance 
        Enhancement and Rehabilitation.
  --Research on Development of Back Packs to Transfer Load Carriage 
        From the Shoulders to the Hips to Reduce Injuries.
  --Research to Reduce Concussive Injury from Blast and Bullet Strikes 
        to the Head.
                                 ______
                                 
            Question Submitted by Senator Richard C. Shelby

                            ANTHRAX VACCINE

    Question. During the height of the Iraq invasion, concern, and more 
specifically controversy, surrounded vaccinating our armed forces for 
Anthrax. This debate has not died down. The FDA has reported that there 
are over 50 side effects to the Anthrax vaccination, and this is taking 
into account that former FDA Director David Kessler has stated that 
only 10 percent of reactions ever get reported. In 1998 the former 
Secretary of the Army Luis Caldera acknowledged the Anthrax vaccine was 
linked to ``unusually hazardous risks.'' There have been documented 
cases of DOD continuing shots after major reactions, which violates 
vaccine instruction and documented cases of DOD administering shots 
from expired lots. Further, Senate Report 103-97 stated that the 
vaccine has still not been eliminated as a cause of the Gulf War 
Syndrome. In the past 5 years, thousands of cases of adverse reactions, 
causing serious health problems, have been linked to the Anthrax 
vaccine. Several soldiers have even died from the shots. In light of 
the inherent risks in the program, I would appreciate hearing the 
panels' views as to why are we still mandating that our service members 
receive these shots?
    Answer. DOD's mandatory Anthrax Vaccine Immunization Program is 
currently on a court-ordered pause. We are offering the Anthrax vaccine 
to personnel in high threat areas under an Emergency Use Authorization.
    Anthrax is the #1 threat on the Joint Chiefs bioweapon threat list. 
Anthrax spores make lethal weapons that can be easily disseminated 
through non-traditional means. This was demonstrated in the 2001 
Anthrax attacks, which killed several U.S. Postal Employees. Reports 
continue to be published in newspapers about the attack's infected 
survivors and their persistent health consequences. During the Anthrax 
attacks, city hospitals had only one or two patients requiring 
extensive and lengthy treatment for their illness. In a widespread 
attack, the number of patients requiring hospitalization would 
overwhelm the medical infrastructure. The Department of Defense uses 
Anthrax vaccine to ensure service members are protected against an 
attack using Anthrax.
    Over 1.3 million service members have been protected against 
Anthrax spores since March 1998. While some individuals have expressed 
concern about Anthrax vaccine, a detailed review of 34 peer-reviewed 
medical journal articles shows that people vaccinated or unvaccinated 
against Anthrax have similar health experiences. In 2002, the National 
Academy of Sciences published a congressionally commissioned report 
that concluded Anthrax vaccine has a side-effect profile similar to 
that of other vaccines licensed by the Food and Drug Administration 
[www.iom.edu/Object.File/Master/4/150/0.pdf]. DOD policy requires that 
anyone who develops adverse health conditions after any vaccination be 
evaluated by a physician. This policy also specifies that all necessary 
care be provided and that a determination be made as to whether further 
doses of that vaccine are indicated. It is well recognized that minor 
temporary side effects are underreported, which is the point Dr. 
Kessler was making. Serious adverse events are much more likely to be 
reported, especially in a well-monitored integrated health system, such 
as the Military Health System.
    The civilian Anthrax Vaccine Expert Committee (AVEC) issued two 
publications regarding adverse vaccine events that occurred from 1998-
2001 with respect to multi-symptom syndrome (MSS) described by some 
veterans of the Persian Gulf war. The panel found no evidence of a 
pattern of MSS after Anthrax vaccination. As explained in these 
publications, the vast majority of vaccine adverse-event reports 
involve temporary symptoms that resolve on their own.
    DOD reviews death reports after any vaccination very carefully. One 
death of a DOD service member has been classified as ``possibly'' 
related to the receipt of multiple (Anthrax, Smallpox and others) 
immunizations. The civilian physicians on AVEC evaluated other deaths 
and did not attribute them to Anthrax vaccination.
    The question for the record misstates the former Secretary of the 
Army's position, which was the business situation posed an unusually 
hazardous risk for BioPort Corporation as a small vaccine manufacturer.
    At no time has anyone shipped expired lots or vials of Anthrax 
vaccine to any military facilities. However in an isolated case, 
Anthrax vaccine from vials a few weeks beyond their potency dating was 
inadvertently administered. This 1999 incident was thoroughly 
investigated and correct vaccine management procedures were re-
emphasized to prevent future incidents.
                                 ______
                                 
             Question Submitted by Senator Patrick J. Leahy

                                CHCS II

    Question. I have followed the evolution of CHCS II and TRICARE 
Online with interest, and it strikes me that there is a confluence of 
maturing technologies that can be leveraged to empower the patient to 
improve health care quality while reducing health care costs. If 
Department of Defense service members and beneficiaries are given the 
ability to securely enter data about themselves and their medical 
problems into CHCS II via TRICARE Online, it will solve a huge problem 
facing the military health system, namely how to get standardized 
clinical information into the medical record without using expensive 
and scarce medical personnel. Physicians would get better information 
about their patients, and patients would get immediate guidance from 
the tools mounted on TRICARE Online to help them with their problems. I 
know there are knowledge tools in CHCS II, but I would like each of you 
to comment on any plans your service has to offer them to beneficiaries 
on TRICARE Online. What are your thoughts about using TRICARE Online to 
help populate subjective clinical information into CHCS II?
    Answer. TRICARE Online (TOL) has the potential to provide our 
beneficiaries the ability to convey information about their health 
status and concerns to providers. Our vision is in line with this goal, 
a clinical intervention tool informing beneficiaries, Primary Care 
Managers (PCMs), and Military Treatment Facility (MTF) administrators 
about required preventive services, health risk factors, chronic 
disease history, and health status. This tool assists the MHS at the 
Enterprise, Service, TRICARE Region and MTF level with population 
health management by providing estimates of the health needs and health 
status of the enrolled and non-enrolled TRICARE populations. Currently 
in development are the appropriate screening tools and alert 
functionality to mitigate the medical-legal risk of not being able to 
respond to a concern ``real-time'' while empowering beneficiaries to 
enter historical and screening information at their own pace. This 
information will be saved to the Clinical Data Repository making the 
data accessible via CHCS II.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski

            MENTAL HEALTH AND POST TRAUMATIC STRESS DISORDER

    Question. The major mental health problem being faced by the 
returning veteran is Post Traumatic Stress Disorder (PTSD).
    The New York Times recently reported that an Army study shows that 
about one in six soldiers in Iraq reports symptoms of major depression, 
serious anxiety or post-traumatic stress disorder, a proportion that 
some experts believe could eventually climb to one in three, the rate 
ultimately found in Vietnam veterans (NY Times, Dec. 16, 2004) 
(Reference for the above Army study is: New England Journal of 
Medicine, Vol. 351, No. 1, pg. 13).
    According to the Times and the Army report, ``through the end of 
September, the Army had evacuated 885 troops from Iraq for psychiatric 
reasons, including some who had threatened or tried suicide. But those 
are only the most extreme cases. Often, the symptoms of post-traumatic 
stress disorder do not emerge until months after discharge.'' (NY 
Times, Dec. 16, 2004).
    The Times also referenced a report by the GAO that found similarly 
alarming results: ``A September report by the Government Accountability 
Office found that officials at six of seven Veterans Affairs medical 
facilities surveyed said they `may not be able to meet' increased 
demand for treatment of post-traumatic stress disorder.'' (NY Times, 
Dec. 16, 2004).
    However, despite this well-documented crisis, I am concerned that 
we are not doing enough to combat PTSD.
    In light of these very serious concerns, what is the Department of 
Defense doing to address well-documented examples of PTSD in our men 
and women returning from the battlefields of Iraq, Afghanistan and 
elsewhere?
    Answer. Navy medicine is directly involved in the management of 
PTSD both on the battlefield and at home. Last year, we initiated our 
Operational Stress Control and Readiness (OSCAR) Project with the U.S. 
Marine Corps. This project places mental health assets directly with 
Marine Corps fighting units, and those mental health providers stay 
with the unit both during the period of deployment and in garrison. 
Thus, our Marine Corps mental health providers are truly organic assets 
to the Marine divisions. Likewise, we have psychologists stationed 
aboard each aircraft carrier in the Navy to provide direct services to 
deployed service members. Following on the highly successful example of 
our shipboard psychologists, we have deployed psychologists and 
psychiatrists with Expeditionary Strike Groups (ESGs) to provide 
similar services to detachments of Marines and other service members 
being transported via ESGs.
    Question. Are clinical trials being conducted in conjunction with 
our nation's pharmaceutical industry?
    Answer. Medical Departments of the uniformed services do not work 
directly with pharmaceutical manufacturers as we are legally proscribed 
from doing so. However, under the auspices of the Henry M. Jackson 
Foundation, military researchers may participate as investigators in 
clinical trials with various sources of funding. Military medical 
personnel, both at the Uniformed Services University and at our 
teaching hospitals, may devise and submit for approval through 
appropriate institutional review boards clinical studies that involve 
post-traumatic stress disorder and other conditions. Several joint 
projects with the VA are presently ongoing, including a study at Naval 
Medical Center San Diego of virtual reality technology to assist 
patients with PTSD.
    Question. Is the Department aware that there exists a not-for-
profit organization in Maryland that is committed to pulling together 
all developing new technologies for the treatment of PTSD?
    Answer. Yes. Several not-for-profit organizations exist in the 
State of Maryland that can and have in the past provided expert 
assistance to the DOD in its efforts to understand PTSD and ameliorate 
its effects. For instance, trainers from the International Critical 
Incident Stress Foundation, in Ellicott City, routinely provide 
training in critical incident stress debriefing gratis to military 
mental health providers and military first responders. The Maryland 
Psychological Association has offered the services of its members to 
family members of servicemen and women who may be suffering from the 
effects of combat stress or related disorders. Additionally, the 
Maryland Psychological Association partners with the American Red Cross 
to train its members in disaster response. The services take advantage 
of the expertise of faculty at the Uniformed Services University in 
Bethesda who are world renowned experts in the study of combat stress 
and related disorders, we apply their research findings in our clinical 
practice to better serve active duty members and their families. We 
also work closely with other agencies, both in the federal and private 
sector, such as the VA's National Centers for PTSD, to identify sources 
of expertise in the management of stress and apply findings to our 
service members.
    Question. What is the Department doing to identify these and other 
innovative approaches to the treatment of PTSD?
    Answer. Navy medical resources are intensely involved in the study 
of innovative treatment strategies for PTSD. We work closely with our 
colleagues in the VA and at the Uniformed Services University, as well 
as various private and publicly funded institutions of higher 
education, to educate our providers regarding most effective 
treatments. In addition to collaboration in research endeavors as 
mentioned above, we have jointly produced with the VA a number of 
Clinical Practice Guidelines, including guidelines for the management 
of acute and chronic stress, depression, and other disorders. We co-
sponsor conferences for our clinicians and decision makers regarding 
the management of PTSD, and are involved in a number of joint working 
groups designed to create a true continuum of mental health care for 
our active duty, disabled, and retired service members.
                                 ______
                                 
   Questions Submitted to Lieutenant General George Peach Taylor, Jr.
               Questions Submitted by Senator Ted Stevens

                       SUPPORTING TRANSFORMATION

    Question. Would each of you please describe some of the new 
technologies and tactics that have proven most effective in caring for 
our front line troops?
    Answer. The Air Force Medical Service has clearly played a 
tremendous role in the delivery of health care to our front line 
troops. To open, let me say that prevention has proven to be enormously 
successful in preventing injury and providing superb safe environments 
for our personnel. Our deployed Preventive Medicine Teams have provided 
direct preventive medicine support to military personnel throughout 
Operation Iraqi Freedom, providing such resources as occupational and 
environmental health surveillance, environmental health programs, field 
sanitation training, disease and non-battle injury prevention, health 
risk assessments, and medical force protection.
    The lighter, leaner footprint of Air Force medical resources has 
been extremely effective in providing a consistent clinical capability 
to the Combatant Commander and warfighter. The hard work accomplished 
with focus on interoperability in capability was proven a success 
during the transition from the Army Combat Support Hospital to the Air 
Force Expeditionary Medical System this past fall. Shortly after that 
transition, the vast majority of casualties from the battle of Fallujah 
were received and cared for at that very same facility. The dedication 
and teamwork of our Army and Air Force medics ensured seamless medical 
care, timely evacuation, and lifesaving care to the injured warfighter.
    In December of 2004, the Assistant Secretary of Defense (Health 
Affairs) directed the Services to implement the Joint Theater Trauma 
Registry. Air Force clinicians played a tremendous role in the 
development of the first Joint Theater Trauma System (JTTS). Modeled 
after the successes of the civilian sector, the JTTS keeps us at the 
cutting edge, bringing the skills of trauma centers to the battlefield. 
The goal is to provide a system for routing casualties to destinations 
that are best able to provide the required care: ``The Right patient, 
to the Right place, at the Right time.''
    The employment of critical care capability during aeromedical 
transport and the role of evidence-based medical innovations have also 
been important. Our community has been aggressive in meeting the needs 
of the aeromedically evacuated critical care patients through 
implementation of new technology for intra-cranial pressure monitoring 
ensuring the safe transport of patients with head trauma, as well as 
the latest in pain management using the non-electronic Stryker Pain 
Pump. Additionally, the move to universally qualify aeromedical 
evacuation crew has further ensured the safe passage of our sick and 
injured.
    The Air Force Medical Service clearly plays a critical role in the 
delivery of health care to our front line troops. It has only been 
through the collaborative efforts between the medical and operations 
communities, multi-service and multi-national forces abroad that our 
delivery of health care during the most challenging of contingencies 
has become the best in the world.
    Question. What tools and equipment are still required to improve 
the care provided to combat casualties?
    Answer. Our medical forces are doing tremendous work in the 
delivery of health care to our front line troops and their experience 
provides us with valuable lessons learned. These lessons learned deal 
primarily with the tools and equipment still required to improve the 
care provided to combat casualties. Based on lessons learned, we still 
need solutions for the following requirements to provide the best 
combat casualty care possible. I would be happy to discuss these with 
you at your convenience in greater detail.
    Rapid diagnostics capabilities for deployed and homeland stationed 
medics: This shortfall includes deployment of systems similar to 
Epidemiology Outbreak Surveillance to rapidly diagnose emerging 
threats, as they happen to give commanders the information they need to 
preserve the fighting force through prevention and prophylaxis.
    Near real-time medical surveillance or environmental factors to 
include water sources: This capability enables monitoring of sources to 
allay the damage or illness from weapons of mass destruction.
    Water and Intravenous purification: Exploitation of current 
technology trends to allow on-site water purification to two standards, 
potable and infusion quality. This capability dramatically decreases 
the pallet space and logistical footprint needed to provide water to 
troops.
    Oxygenation capabilities integrated with Aeromedical Evacuation and 
Expeditionary Medical Support: There is an increasing need for deployed 
medical personnel to provide their own oxygen.
    Acute care and local extracorporeal membrane oxygenation to 
facilitate stabilization for transport of critically injured patients.
    Instant reach-back communications for facilitation of inter-service 
patient care coordination: There are considerable shortfalls in 
interoperability for rapid communication leading to delays in 
treatment, transport and communication of care rendered.
    Blood substitutes are needed to not only expand the fluid volume of 
injured patients but to also include increased oxygen carrying 
capability that standard volume expanders lack.
    Medical Scancorder development must be accomplished so that 
Soldiers and Airmen can be monitored for instability of vital signs/
hemodynamics before they experience symptoms.
    Portable anesthesia is now limited by respirator availability or 
intravenous access; stable, simple and effective anesthesia devices are 
needed to allow humane and safe anesthesia to injured patients.
    Patient controlled anesthesia is the standard of care: This 
standard is not currently met by most equipment/personnel medical 
support packages deployed and on modes of transportation available for 
evacuation.
    Trauma registry information as required by DOD Health Affairs 
Policy #04-031: Non-technological solutions are being used, which 
hinders the evacuation and medical care of injured Soldiers and Airmen.
    Despite the challenges we face, it is my privilege to share 
successes of improved combat casualty. The proud men and women of the 
Air Force Medical Service have recently fielded Telehealth initiatives 
within the CENTCOM Area of Responsibility (AOR), which provide reach-
back via Telehealth consultations and Teleradiology. We have also 
provided telephonic FAX capabilities for asynchronous reach-back 
consultations. Pumpless extra-corporeal lung assist has been used to 
evacuate critically ill patients that formerly would have been too 
unstable to transport. And, based on the most recent recommendations 
from our surgeons who have seen large numbers of severe orthopedic 
injuries, the addition of pneumatic tourniquet systems for extremity 
surgery, and compartment pressure monitors to diagnose limb-threatening 
compartment syndrome are examples of improve combat care to our front 
line troops. However, there are more tools needed to achieve improved 
treatment outcomes based largely on lessons learned from the AOR.
    The management of shock is probably the most basic element of 
trauma care. The replacement of fluid, administration of blood 
products, and maintenance of the body at normal temperature are all key 
to this lifesaving process. The thromboelastography (TEG) analyzer is 
a powerful clinical monitor to evaluate the interaction of platelets 
and plasma factors, plus any additional effects of other cellular 
elements (e.g., WBCs, RBCs). To guide administration of blood products, 
TEG has been recommended by our trauma surgeons, as the analysis 
provided by this tool would clearly benefit the management of our 
critically injured casualties. Forced-air warming therapy has become 
the standard choice for preventing hypothermia. Maintaining patient 
normothermia is proven to reduce increased complications for the post-
operative patient as well as the massive trauma patient. The Bair 
Hugger temperature management devices, such as the warming blanket and 
warming units, are those being specifically recommended for addition to 
the deployed inventory.
    There is currently discussion underway about having basic 
diagnostic cardiology in theater, such as a treadmill and 
echocardiogram capability. We are working with the Army and Navy, 
analyzing the benefits of accomplishing basic stress testing in 
theater, prior to evacuation, with the increased chance of returning 
more troops back to their unit rather than being evacuated to 
Landstuhl, Germany.
    Also critical to the effective management of patients is the 
continuity of information transfer. As casualties travel from the 
battlefield and through the military health care system, clinicians are 
known for writing on the dressings of casualties to ensure critical 
information goes with the patient and is readily accessible by all that 
will care for the casualty along the way. Use of the Battlefield 
Medical Information System, ``BMIST,'' has been initiated. This 
wireless electronic information carrier has been successful; however, 
the challenge has been to ensure that every field medic is issued the 
hand-held element so they can complete the casualty's electronic record 
on-site and be able to ``beam'' or give it on a memory chip to the air 
ambulance or aeromedical evacuation crew who can take it with the 
casualty on to their final destination.
    Finally, the challenges of communication between the multiple 
Service medical assets have unfortunately continued through the years. 
There is a wide array of communications tools and equipment among the 
different Services, each fulfilling their own requirements, but 
unfortunately most often not linking with the sister Services. While 
there are numerous initiatives underway addressing this very issue at 
the Joint and individual Service level, the critical key, as with every 
initiative regarding the management and care of our forces, is to 
ensure integration of these efforts.
                                 ______
                                 
             Question Submitted by Senator Pete V. Domenici

                    ACCESS TO MENTAL HEALTH SERVICES

    Question. I understand from your statements that you are diligently 
pursuing incidences of mental health issues such as depression, anxiety 
and post-traumatic stress disorder. I commend you for that. It is my 
understanding that to date the Department of Defense has done a good 
job reaching out to soldiers upon their return.
    My concern is for mental health services for rural Guard and Air 
Guard members in particular. Those Guardsmen in places like Springer, 
New Mexico are far from metropolitan areas and do not have access 
following demobilization to military mental treatment facilities with 
mental health services.
    I understand that this rural demographic is a small portion of your 
total population, but do you share my concerns about mental health 
access for rural Guard and Reserve members and if so can you give me 
your thoughts on how we might best address this issue?
    Answer. Our best efforts address the concern by requiring all 
redeploying members to receive a medical screening to include mental 
health conditions by completing DD Form 2796, Post-Deployment Health 
Assessment prior to theater departure or within five days upon return 
to home station. This screening provides the first sign of the need for 
additional health care and prompt access to care within our Military 
Healthcare System.
    To aid continuity of care and address health conditions frequently 
identified several months following redeployment, Assistant Secretary 
of Defense (Health Affairs) recently announced an extension of the 
deployment health screening process projected to start June 10, 2005. 
Post-Deployment Health Reassessment will involve each member completing 
an additional health screening form three to six months following 
redeployment to specifically address mental and other health concerns. 
The member's responses in coordination with a healthcare provider's 
review will determine the need for additional care, which may then be 
obtained through TRICARE health system referral or through the Veterans 
Health Administration. Additional sources of care for mental health 
concerns in rural areas may include the local department of public 
health and safety and military Family Assistance Centers. In the 
National Guard, the Adjutant General determines the need and location 
of the Family Assistance Center in support of deployment activities, 
and the State Family Program Coordinator is the point of contact.
    Of note, Veterans who serve in a theater of combat operations 
during war are eligible for care for two years from their date of 
active duty discharge provided they first enroll in the Veterans Health 
Administration. Access to Veterans Health Administration-sponsored care 
is visible at: http://www1.va.gov/directory/guide/home.asp?isFlash=1.
                                 ______
                                 
            Question Submitted by Senator Richard C. Shelby

                          ANTHRAX VACCINATION

    Question. During the height of the Iraq invasion, concern, and more 
specifically controversy, surrounded vaccinating our armed forces for 
anthrax. This debate has not died down. The FDA has reported that there 
are over 50 side effects to the anthrax vaccination, and this is taking 
into account that former FDA Director David Kessler has stated that 
only 10 percent of reactions ever get reported. In 1998 the former 
Secretary of the Army Luis Caldera acknowledged the anthrax vaccine was 
linked to ``unusually hazardous risks.'' There have been documented 
cases of DOD continuing shots after major reactions, which violates 
vaccine instruction and documented cases of DOD administering shots 
from expired lots. Further, Senate Report 103-97 stated that the 
vaccine has still not been eliminated as a cause of the Gulf War 
Syndrome. In the past 5 years, thousands of cases of adverse reactions, 
causing serious health problems, have been linked to the anthrax 
vaccine. Several soldiers have even died from the shots. In light of 
the inherent risks in the program, I would appreciate hearing the 
panels' views as to why are we still mandating that our service members 
receive these shots?
    Answer. From the Air Force perspective, the use of anthrax as a 
bio-weapon poses a significant threat to military operations. The 
anthrax vaccine is the most effective means available today to protect 
our forces. Although antibiotics were used following the anthrax 
attacks in 2001, they provide effective treatment only if exposure is 
known before symptoms appear. Unfortunately, we do not always have the 
necessary warning time necessary for antibiotics to work alone. 
Although we will continue to work to increase warning time of pending/
existing attacks, our men and women must be prepared to carry out their 
duties in defense of this country regardless of circumstances. To that 
end, the best currently available round-the-clock protection to prepare 
our forces to counter the threat of anthrax is vaccination. The vaccine 
provides a critical layer of protection that may be augmented by 
antibiotics and other measures.
    Since March 1998, over 1.3 million DOD personnel have been 
protected against anthrax exposure. Over 150,000 Air Force personnel--
Active, Guard and Reserve--in service today have received the anthrax 
vaccination. While some individuals have expressed concern about 
anthrax vaccine, a detailed analysis of 34 peer-reviewed medical 
journal articles shows that people vaccinated or unvaccinated against 
anthrax have the same health experiences. In 2002, the National Academy 
of Sciences published a Congressionally commissioned report that 
concluded anthrax vaccine has a side-effect profile similar to that of 
other vaccines licensed by the FDA (www.iom.edu/Object.File/Master/4/
150/0.pdf). It is well recognized that minor temporary side effects are 
underreported (the point Dr. Kessler makes); however, serious adverse 
events are reported, especially in a well-monitored integrated health 
system, such as the Military Health System.
    In addition, the Air Force--along with the other Services--utilizes 
the Vaccine Adverse Event Reporting System (VAERS), a national vaccine 
safety surveillance program co-sponsored by the FDA and the Centers for 
Disease Control and Prevention. This system collects and analyzes 
information from reports of adverse events that occur after the 
administration of all U.S. licensed vaccines. Reports are encouraged 
from all concerned individuals: patients, parents, health care 
providers, pharmacists and vaccine manufacturers. All anthrax vaccine 
recipients receive information via the Anthrax Vaccination Immunization 
Program trifold brochure and other means on how to access VAERS.
    With reference to adverse events, Air Force policy requires anyone 
who presents to medical personnel with a significant adverse health 
condition after receiving any vaccination (e.g., anthrax, smallpox, 
typhoid) to be evaluated by a physician to provide all necessary care 
for that event. The physician must determine whether further doses of 
that vaccine should be given, delayed, or a medical exemption--either 
temporary or permanent--be granted. Air Force medical personnel are 
trained how to manage perceived or actual adverse events after 
vaccination with any vaccine (i.e., how to assess, treat and report).
    As for links between anthrax vaccinations and Gulf War Syndrome, 
two publications by the civilian Anthrax Vaccine Expert Committee 
concluded that multi-symptom syndromes among some veterans of the 
Persian Gulf War were not reported more often among anthrax vaccinees 
than expected by chance. As explained in these articles, the vast 
majority of adverse-event reports involve temporary symptoms that 
resolve on their own. While one death has been classified as 
``possibly'' related to a set of vaccinations, these civilian 
physicians did not attribute other reported deaths to anthrax 
vaccination in particular.
    With respect to expired lots, at no time has anyone shipped expired 
anthrax vaccine to any military facility. We are, however, aware of one 
incident involving vaccine from expired vials being administered to 
approximately 59 Marines at a military Medical Treatment Facility (MTF) 
in April 1999. That incident involved vaccine that expired after it had 
been stored on site at the medical treatment facility--it was not 
expired at the time of shipment. Corrective measures have been 
implemented to prevent a reoccurrence. For example, the handling 
procedures for vaccines were changed to ensure that, upon receipt by 
the MTF, the lot number and expiration of all vials of vaccine in the 
shipment are recorded. Also, the Distribution Operation Center at the 
United States Army Medical Materiel Agency issues a message to all 
Service Logistic Centers to pre-alert them to when any anthrax vaccine 
lot is about to expire. This message ensures all anthrax vaccine is 
used prior to expiration, and aids in the prevention of a reoccurrence 
of the situation encountered by the Marines.
    All information concerning this expired-vaccine incident was 
forwarded to the Armed Forces Epidemiological Board (AFEB), an 
independent, nationally recognized group of civilian scientific experts 
that advises the DOD on the prevention of disease and injury and the 
promotion of health.
    After reviewing the details of the incident, the AFEB concluded 
that the expired vaccine administered to the Marines posed little or no 
safety risk and any decrement in potency of the expired vaccine would 
be minimal and clinically irrelevant.
                                 ______
                                 
             Question Submitted by Senator Patrick J. Leahy

                       CHCSII AND TRICARE ONLINE

    Question. I have followed the evolution of CHCS II and TRICARE 
Online with interest, and it strikes me that there is a confluence of 
maturing technologies that can be leveraged to empower the patient to 
improve health care quality while reducing health care costs. If 
Department of Defense servicemembers and beneficiaries are given the 
ability to securely enter data about themselves and their medical 
problems into CHCS II via TRICARE Online, it will solve a huge problem 
facing the military health system, namely how to get standardized 
clinical information into the medical record without using expensive 
and scarce medical personnel. Physicians would get better information 
about their patients, and patients would get immediate guidance from 
the tools mounted on TRICARE Online to help them with their problems. I 
know there are knowledge tools in CHCS II, but I would like each of you 
to comment on any plans your service has to offer them to beneficiaries 
on Tricare Online. What are your thoughts about using Tricare Online to 
help populate subjective clinical information into CHCS II?
    Answer. Any technology that helps our providers take better care of 
our patients is worth exploring. As a matter of fact, the TRICARE 
Medical Authority (TMA) is already working on expanding the ability of 
beneficiaries to input data directly into CHCS II. The technology is 
not quite there yet, but TMA has a short-term solution that uses the 
internet and e-mail to allow patients to communicate directly with 
their providers. TMA is also working on an internet based Health 
Insurance Portability and Accountability Act compliant solution 
involving the movement of patient data from TRICARE Online to the 
provider via e-mail.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski

                     POST-TRAUMATIC STRESS DISORDER

    Question. The major mental health problem being faced by the 
returning veteran is Post Traumatic Stress Disorder (PTSD). The New 
York Times recently reported that an Army study shows that about one in 
six soldiers in Iraq report symptoms of major depression, serious 
anxiety or post-traumatic stress disorder, a proportion that some 
experts believe could eventually climb to one in three, the rate 
ultimately found in Vietnam veterans. (NY Times, Dec. 16, 2004). 
(Reference for the above Army study is: New England Journal of 
Medicine, Vol. 351, No. 1, pg. 13).
    According to the Times and the Army report, ``through the end of 
September, the Army had evacuated 885 troops from Iraq for psychiatric 
reasons, including some who had threatened or tried suicide. But those 
are only the most extreme cases. Often, the symptoms of post-traumatic 
stress disorder do not emerge until months after discharge''. (NY 
Times, Dec. 16, 2004).
    The Times also referenced a report by the GAO that found similarly 
alarming results: ``A September report by the Government Accountability 
Office found that officials at six of seven Veterans Affairs medical 
facilities surveyed said they ``may not be able to meet'' increased 
demand for treatment of post-traumatic stress disorder.'' (NY Times, 
Dec. 16, 2004).
    However, despite this well-documented crisis, I am concerned that 
we are not doing enough to combat PTSD.''
    In light of these very serious concerns, what is the Department of 
Defense doing to address well-documented examples of PTSD in our men 
and women returning from the battlefields of Iraq, Afghanistan and 
elsewhere?
    Answer. The Air Force currently screens all Airmen for PTSD 
symptoms upon redeployment. Because PTSD symptoms often emerge over 
time, the Air Force will begin reassessing Airmen 90-180 days after 
return from deployment, starting in June 2005. This reassessment 
screens for PTSD as well as other common mental health related 
concerns. Any deployer, whether active duty or reserve component, who 
endorses any psychological symptoms will receive a full evaluation be a 
healthcare provider, and referred for care when indicated.
    While review of post-deployment health assessment data indicate 
that Air Force deployers face significantly less exposure to traumatic 
stress than Army and Marine ground combat, the Air Force is nonetheless 
committed to identifying and treating all deployment related health 
concerns in an expeditious and thorough manner.
    Question. Are clinical trials being conducted in conjunction with 
our nation's pharmaceutical industry?
    Answer. The Air Force is not currently involved in clinical drug 
trials for the treatment of Post Traumatic Stress Disorder (PTSD) due 
to the very low incidence rate of PTSD within the Air Force.
    Question. Is the Department aware that there exists a not-for-
profit organization in Maryland that is committed to pulling together 
all developing new technologies for the treatment of PTSD?
    Answer. The Air Force relies on the VA/DOD Clinical Practice 
Guidelines for Post Traumatic Stress Disorder (PTSD) management. We are 
open and interested in any and all technologies and innovations in the 
area of PTSD treatment that meet clinical standards of care.
    Question. What is the Department doing to identify these and other 
innovative approaches to the treatment of PTSD?
    Answer. The Air Force has joined a working group with the other 
services, the Department of Veterans Affairs, and the National Center 
for Post Traumatic Stress Disorder (PTSD) to identify state-of-the-art, 
empirically validated treatment approaches to PTSD.
    Our goals are to identify and treat PTSD symptoms as soon as 
possible, and to ensure continuity of care as Airmen move to new 
assignments or separate from the Air Force.
                                 ______
                                 
            Questions Submitted to Colonel Barbara J. Bruno
               Questions Submitted by Senator Ted Stevens

                        RECRUITING AND RETENTION

    Question. How does the Uniformed Services University of the Health 
Sciences support military nursing?
    Answer. The Uniformed Services University of the Health Sciences 
(USUHS) supports military nursing by providing a ``signature 
curriculum'' designed to prepare nurses for practice and research in 
federal health care and military systems. The USUHS Graduate School of 
Nursing is dedicated to quality education that prepares both advanced 
practice nurses and nurse scientists with a Ph.D. to deliver care, 
conduct research and improve services to all military beneficiaries. 
Programs that are currently offered at USUHS include three Masters 
level programs; Perioperative Certified Nurse Specialist, Certified 
Nurse Anesthetist and Family Nurse Practitioner and a Ph.D. program in 
Nursing Science.
    Question. With the current nursing shortage nationwide, and 
continued need for medical support at home and overseas, what is the 
status of your recruiting and retention efforts?
    Answer. The Active Component (AC) Army Nurse Corps (ANC) has a 
requirement of 365 new officers for fiscal year 2005. As of June 30, 
2005, 187 new officers have been commissions and reported for active 
duty. It is projected that the AC ANC will meet 88 percent (322 of 365) 
of its accession requirements this year. The Reserve Component (RC) ANC 
has a requirement of 485 new officers for fiscal year 2005. As of June 
30, 2005, 236 new RC ANC officers have been commissioned. U.S. Army 
Recruiting Command projects that they will achieve 75 percent (366/485) 
of the RC ANC accession requirements this year.
    The ANC recruiting and retention programs are critical to our 
competitiveness in a tight nursing market. Active and Reserve programs 
are detailed below. Program gaps include funding a second baccalaureate 
degree for commissioned officers interested in becoming an Army Nurse 
and a scholarship program to fund enlisted Reserve Soldiers interested 
in obtaining a Bachelors of Science in nursing and pursuing a 
commission as a Reserve ANC officer.
Active Component
    The Health Professions Loan Repayment Program (HPLRP) is a 
successful recruiting and retention tool for the ANC. HPLRP provides 
payment of up to $29,323 toward qualifying educational loans incurred 
from undergraduate nursing education. Currently, all eligible Active 
Component ANC officers have been offered the opportunity to participate 
in HPLRP, either at the time of accession or as a retention incentive, 
or both. Since its inception in 2003, 272 officers have participated in 
this program. Thus far in fiscal year 2005, 17 new direct accession AC 
officers have received HPLRP.
    The ANC offers a $15,000 accession bonus in exchange for a four-
year active duty service obligation. This bonus is projected to 
increase to $20,000 in fiscal year 2006. Thus far in fiscal year 2005, 
15 new AC AN officers have elected this incentive. Officers may also 
choose to receive an accession bonus and participate in HPLRP. They 
receive an $8,000 accession bonus combined with the HPLRP of up to 
$29,323 for a six-year active duty service obligation. Thus far in 
fiscal year 2005, 37 new AC officers have elected to take this option. 
Nursing scholarships are offered through ROTC, the Army Nurse Candidate 
Program, and the Enlisted Commissioning Program. Scholarships vary in 
length from two, three, or four years depending on the program with at 
least a three year active duty service obligation. ROTC nursing cadets 
may participate in the Nurse Summer Training Program (NSTP), a three-
week internship in which they work with an ANC officer caring for 
patients. While ROTC has struggled in recent years to meet nurse 
mission, projections indicate that ROTC will commission the required 
175 nurses by fiscal year 2007. This year's projection is for 131 
nurses.
    The ANC has robust programs for training nurses in specialty areas, 
which also serve as excellent recruiting and retention tools. Under the 
Generic Course Guarantee program new officers can choose critical care, 
perioperative, psychiatric/mental health, or obstetrical/gynecological 
training. All company grade officers are also eligible to apply to 
those courses, as well as courses in emergency and community health 
nursing.
    The Long Term Health Education and Training program is a highly 
successful retention tool for mid-level officers. This program offers 
the opportunity to obtain a fully funded Masters degree or Doctoral 
degree. Officers who participate in the program incur at least a four-
year active duty service obligation depending on the length of the 
program. This past year, the U.S. Army Graduate Program in Nurse 
Anesthesia was ranked second in the nation by U.S. News and World 
Report.
    The ANC also offers specialty pay to nurse anesthetists, nurse 
practitioners, and certified nurse midwives. This year, the ANC 
successfully increased the specialty pay for nurse anesthetists for the 
first time in 10 years. Incentive specialty pay (ISP) is now $15,000 to 
$40,000, depending on their status and length of service agreement. 
Family nurse practitioners and certified nurse-midwives may also 
qualify for special pay that ranges from $2,000 to $5,000 annually.
    The AC ANC centrally manages the deployments of its officers in an 
effort to ensure equity throughout the organization. In terms of 
routine assignments, the ANC works aggressively to meet the personal 
and professional needs of its officers while ensuring both the needs of 
the Army and the officer are met as much as possible. Direct accessions 
usually receive one of their top three choices for their first 
assignment. Additionally, 98 percent of ANC officers married to other 
Army officers and enrolled in the Army Married Couples Program are co-
assigned with their spouse.
Reserve Component
    The HPLRP is available for all for Reserve ANC officers. It 
provides up to $50,000 over a three-year period for repayment of 
educational loans for nurse anesthetists, critical care, psychiatric/
mental health, medical-surgical, and perioperative nurses who agree to 
serve in the Selected Reserve. The Reserve ANC also offers an accession 
bonus of $5,000 per year for up to three years of Selective Reserve 
duty. This year, 283 officers have received this incentive. New Reserve 
ANC officers may take advantage of both of these programs sequentially, 
but not in combination. The Specialized Training Assistance Program 
(STRAP), which provides a monthly stipend of $1,279, is available only 
to officers enrolled in nurse anesthesia and critical care masters of 
science in nursing programs. Currently, there are 120 officers 
receiving STRAP. All are nurse anesthesia students. STRAP for bachelors 
of science in nursing programs is currently being staffed at Department 
of the Army. It is anticipated that it will be available in fiscal year 
2006.
    Question. Can you describe the effects continued deployments have 
had on staffing for Medical Treatment Facilities?
    Answer. The effects continued deployments have had on staffing for 
Medical Treatment Facilities are numerous. Military hospitals are not 
receiving nursing replacements at the same ratio as those nurses 
deploying and overtime for government service employees is not 
mandatory. Therefore, military nurses are required to work additional 
and many times erratic hours to maintain the same level of healthcare 
services offered to our beneficiary population. Army Nurse Corps exit 
surveys reveal lack of compensation for extra hours, not enough time 
spent with family and likelihood of deployment as ``extremely 
important'' reasons for leaving active service. In a recent report 
commissioned by the United States Army Accession Command, reducing the 
length/frequency of overseas deployments has the greatest impact on 
nurse accessions.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski

                            NURSING SHORTAGE

    Question. How many military nurses do you have on active duty? How 
many civilian nurses are employed by your service? How many nurses in 
the Guard and Reserves?
    Answer. The Army Nurse Corps currently has 3,105 nurses on active 
duty; the Army Medical Department had 3,025 civilian registered nurses 
employed; the Army National Guard had 651 nurses, and; the Army 
Selective Reserve had 5,554 nurses.
    Question. What is the deficit/shortage for each, between number on 
duty compared with the number you have authority to hire?
    Answer. The Army Nurse Corps deficit for the Active Component is 
301 nurses. This figure is derived from subtracting current active duty 
nurse inventory from 3,406 authorizations. As of March 31, 2005, there 
were 337 open recruitment actions for civilian registered nurse 
positions with the Army Medical Command. The Army National Guard 
deficit is 26 nurses. This figure represents the difference between 
reported inventory and 677 authorizations. Army Nurse Corps Selective 
Reserves deficit is 270 nurses, the difference between current 
inventory and authorizations.
    Question. What is the average number of years of service for active 
duty nurses? Guard and Reserve nurses?
    Answer. The average number of years of service for an active duty 
nurse is 8 years. The average number of years of service for National 
Guard is 18.0 and for the Reserves is 15.3 years.

                           NURSING EDUCATION

    Question. What percent of your nurses get a graduate degree at 
USUHS? What percent of your nurses get a graduate degree somewhere 
other than USUHS?
    Answer. As of May 31, 2005, 880 Army Nurse Corps officers possess a 
Master's degree, of those 8 percent hold a Master's degree from USUHS. 
Ninety-two percent possess a Master's Degree from an institution other 
than USUHS. The Army Nurse Corps is allotted a set number of seats in 
each of the three graduate nursing programs offered at USUHS. Officers 
interested in obtaining a Masters degree in a field offered through 
USUHS must attend USUHS and may not attend a civilian institution 
through the Long Term Health Education and Training (LTHET) program. 
The Army consistently fills the seats it is allotted at USUHS. In 2004, 
the Army Nurse Corps requested and was granted an expansion to double 
the number of seats in the Family Nurse Practitioner Program from 7 to 
14.
    Question. Does the military pay for advanced degrees for military 
nurses (at USUHS or elsewhere)?
    Answer. Each year the Army Nurse Corps sends 70-90 officers to 
complete graduate studies at USUHS or at a civilian institution through 
LTHET.
    Question. What is the average level of education for Military 
nurses? Civilian nurses?
    Answer. The average level of education for the Active Component 
Army Nurse Corps is a Bachelor's of Science in Nursing degree or 
Bachelor's of Science degree with a major in nursing. The average level 
of education for Civilian nurses is an Associate Degree in Nursing.

                           NURSING EXPERIENCE

    Question. What percent of your nurses come directly from nursing 
school, and what percent are experienced in nursing when they join the 
military? What percent of your nurses are prior service (in any 
specialty)? What percent are prior service and from another service 
(e.g., former Army nurses now working for the Navy)?
    Answer. All active duty officers complete college or university 
prior to their accession. Over the past five years, seventy-six percent 
of newly assessed Army Nurse Corps officers are new college/university 
graduates and twenty-four percent have at least one year of nursing 
experience. Forty-five percent of Active Component Army Nurse Corps 
officers have prior service experience. Eight percent of Active 
Component Army Nurse Corps officers served in another service prior to 
becoming an Army Nurse Corps officer.

                          NURSING DEPLOYMENTS

    Question. Where/how are your nurses currently deployed?
    Answer. In the interest of answering this question thoroughly and 
as succinctly as possible the word ``deployed'' is defined as a nurse 
drawing hazardous fire pay in a theater of operations. Army Nurse Corps 
officers are deployed in support of both Operation Enduring Freedom in 
Afghanistan and Operation Iraqi Freedom in Iraq/Kuwait. These officers 
deploy as nurses in Brigade and Division Support Medical Companies; in 
Corps-level Area Medical Support Companies; in Forward Surgical Teams; 
in Combat Support Hospitals, and; as Chief Nurse in a Corps/Theater-
level Medical Brigade/Medical Command and Control unit.
    Question. How often are Reserve/NG nurses activated?
    Answer. The current rotation policy for Army Reserve and Army 
National Guard units, specified in the Personnel Policy Guidance (PPG) 
of the Army, is a 1 year mobilization followed by 3 years of 
stabilization. The objective set by the Chief, Army Reserve and the 
Department of Defense is a 6 year rotation, 1 year mobilization and 5 
years dwell time. Certified Registered Nurse Anesthetists deploy under 
the Army's 90-Day Boots-on-the-Ground policy--a 120-day mobilization 
(no more than 90-days deployed) followed by at least 12 months 
stabilization. This policy was introduced to help retain critical 
wartime surgical specialties. According to information from the Army 
Reserve 1,272 nurses have been mobilized since November 2001.

                            CIVILIAN NURSES

    Question. Are civilian nurses used any differently than military 
nurses?
    Answer. Civilian nurses are utilized based on the job description 
and scope of practice. Unlike military nurses they do not deploy or 
have additional military training requirements. Civilian registered 
nurses (Civil Service Employees) are available to pull on-call 
schedules, work weekends, holidays and perform overtime within 
budgetary feasibility.
    Question. Do they fall under the same pay scale as military nurses? 
What about retirement benefits?
    Answer. Civilian nurses do not fall under the same pay scale as 
military nurses. Civilian nurses are paid based on the Department of 
Defense General Schedule pay system. Civilian nurses receive the same 
retirement benefits as all other Title 5 Federal civilian employees.
    Question. What is the relationship between AC military and civilian 
nurses, and their counterparts in the Guard and Reserves?
    Answer. Active component military and civilian nurses and their 
counterparts in the Guard and Reserves are invaluable members of the 
healthcare team. Overall a very good working relationship exists 
between our Active and Reserve Components and civilian nurses. The 
Guard, Selective Reserve, and civilian nurses support our ability to 
provide quality nursing care.
    Question. What is the average number of years a civilian nurse is 
employed by the military health care system (is there a high turnover?)
    Answer. The average number of years a civilian nurse is employed by 
the military health care system is 9.9 years. The U.S. Army Medical 
Command Civilian Personnel Office defines turnover rate as losses/prior 
year-end strength. The turnover rate for civilian registered nurses is 
17-20 percent. The replacement rate is calculated as the number of 
fiscal year fills divided by prior year-end strength. The fiscal year 
2004 Replacement Rate was 34 percent.
                                 ______
                                 
         Questions Submitted to Rear Admiral Nancy J. Lescavage
               Questions Submitted by Senator Ted Stevens

                        RECRUITING AND RETENTION

    Question. How does the Uniformed Services University of the Health 
Sciences support military nursing?
    Answer. Programs within the Uniformed Services University of the 
Health Sciences Graduate School of Nursing (USUHS GSN) have been 
successful in meeting our Navy Nursing specialty requirements. In fact, 
the Navy Nurse Corps requires all applicants for Family Nurse 
Practitioner, Perioperative Nursing, and Nurse Anesthesia Master's 
Degree Programs to seek admission to USUHS GSN as one of their two 
schools of choice.
    Our graduating nurses have reported that the graduate level 
education and clinical experiences obtained at the USUHS GSN are of the 
highest caliber, enhancing their medical readiness. During their 
program, our students report extreme satisfaction with the advanced 
professional clinical competencies they attain and the incorporation of 
military relevant practice and mission requirements into the curriculum 
(not available in civilian university programs). In addition, gaining 
commands report that these graduates meet credentialing requirements 
quickly and demonstrate the highest levels of clinical competencies.
    Of particular note, our first two Navy Nurses began the newly 
established Nursing Ph.D. Program this past fall on a full-time basis. 
In our vision, these graduates will take on the ultimate executive 
positions to create health policies, advance research and improve 
delivery systems. Their valued experience will be critical to advance 
and disseminate scientific knowledge, foster nursing excellence, and 
improve clinical outcomes across Navy Medicine and Federal agencies.
    Question. With the current nursing shortage nationwide, and 
continued need for medical support at home and overseas, what is the 
status of your recruiting and retention efforts?
    Answer. Navy Nurse Corps' recruitment efforts include a blend of 
diverse accession sources. Our successful pipeline scholarship programs 
(Nurse Candidate Program, Medical Enlisted Commission Program, Reserve 
Officer Training Corps, and Seaman to Admiral Program) account for 65 
percent of our active duty staffing requirements. The remainder (35 
percent) is acquired through direct accession and reserve recalls.
    For the first time in ten years, we only attained 68 percent of our 
fiscal year 2004 recruitment goal, acquiring 63 out of 92 nurses. As of 
March 2005, we have attained 21 percent of our fiscal year 2005 
recruitment goal, which is 6 percent less than our recorded status 
during the same month of last year. As a result, we carefully monitor 
our progress on a weekly basis.
    Our overall retention rate remains stable at 91 percent. Various 
retention initiatives include: graduate education and training 
programs, pay incentives, operational experiences, and quality of life 
issues (mentorship, leadership roles, promotion opportunities, job 
satisfaction, and full scope of practice). By the end of fiscal year 
2005, based on projected gains and losses, we anticipate a deficit of 
137 with a billet authorization of 3098 (96 percent end strength).
    Question. Can you describe the effects continued deployments have 
had on staffing for Medical Treatment Facilities?
    Answer. In sync with Navy Medicine's priority of delivering quality 
and cost-effective health care, our Navy Nurses span the continuum of 
care from promoting wellness to maintaining the optimal performance of 
the entire patient. With the deployment of over 400 Active Duty Navy 
Nurses along with the mobilization of Reserve Nurses to support our 
Military Treatment Facilities (MTFs), there has been neither a 
reduction of inpatient bed capacity nor an increase of network 
disengagements. Military (active and mobilized reserve components) and 
civilian nurses who remained at the homefront continued to be the 
backbone and structure in promoting, protecting and restoring the 
health of all entrusted to our care. Our success is attributed to 
innovative health services programs and joint partnerships across our 
MTFs. Ultimately, all MTFs do everything possible to conserve and best 
utilize the remaining medical department personnel through appropriate 
resource management practices (i.e. leave control, overtime 
compensation, streamlined hiring practices).
    Through an active Patient Safety Program, our military, civil 
service and contract personnel constantly monitor the safe delivery of 
patient care. In maintaining consistent superior quality of services, 
we utilize research-based clinical practices with a customized 
population health approach across the entire health care team. In 
addition, we maximize our innovative health services programs and joint 
partnerships across our military treatment facilities.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski

                           NURSING SHORTAGES

    Question. How many military nurses do you have on Active Duty?
    Answer. As of March 2005, there were 2,948 Active Duty Navy Nurse 
Corps Officers.
    Question. How many civilian nurses are employed by your service?
    Answer. Currently Navy Medicine employs 1,210 Registered Nurses 
(GS-610); 305 Practical Nurses (GS-620); and 12 Nursing Assistants (GS-
621).
    Question. How many nurses in the Guard and Reserves?
    Answer. The Navy is not organized like the Air Force or Army, and 
does not have a Guard Component. The Reserve Component of the Navy 
Nurse Corps, as of the end of March 2005, had a total end-strength of 
1,718 officers.
    Question. What is the deficit/shortage for each, between number on 
duty compared with the number you have authority to hire?
    Answer. We have 3,098 authorized Active Duty Nurse Corps Billets. 
As of March 2005, we had 2,948 billets filled for a deficit of 150 
Nurse Corps Officers. As of March 2005, the authorized number of 
billets for the Reserve Nurse Corps is 1,370. There are 1,718 Reserve 
Nurse Corps Officers for a total of 348 over our end strength.
    Question. What is the average number of years of service for Active 
Duty nurses? Guard and Reserve nurses?
    Answer. The average number of years of commissioned service for 
Active Duty nurses is 9 years. The average number of years of total 
Active Duty service (commissioned and enlisted years) is 12 years. The 
average number of total years served (enlisted and commissioned) for 
Reserve Nurse Corps officers is 16.13 years.

                               EDUCATION

    Question. What percent of your nurses get a graduate degree at 
USUHS?
    Answer. In calendar year 2004, there were 5 nursing graduates from 
USUHS or 7.0 percent of the total (71) Active Duty Navy Nurse Corps 
graduates in 2004. In 2005, the number of Navy students graduating from 
USUHS is also 5 or 7.0 percent of the total (70) Active Duty Navy 
Nurses expected to graduate. This year we are increasing the number of 
students attending USUHS. There will be a total of 24 students 
attending USUHS beginning fiscal year 2006.
    Question. What percent of your nurses get a graduate degree 
somewhere other than USUHS?
    Answer. In the calendar year 2004, 66 Active Duty Navy Nurse Corps 
Officers received graduate degrees outside of USUHS. This is 93 percent 
of the total (71) Active Duty Navy Nurse Corps graduates in 2004. For 
2005, we anticipate 65 graduates from universities outside of USUHS. 
This is 93 percent of the total (70) Active Duty Navy Nurse Corps 
graduates.
    Question. Does the military pay for advanced degrees for military 
nurses (at USUHS or elsewhere)?
    Answer. Although a few nurses join the Navy with advanced degrees, 
the Navy Medical Education and Training Command is budgeted to fund 
approximately 75 graduate nursing students each year. This ``Duty Under 
Instruction'' scholarship program allows the Navy Nurse Corps to 
prepare Advanced Practice Nurses (APN), Clinical Nurse Specialists 
(CNS) and Certified Registered Nurse Anesthetists (CRNA). These 
scholarships pay for the advanced training needed to support caring for 
those in harm's way.
    Question. What is the average level of education for Military 
nurses? Civilian nurses?
    Answer. Beginning fiscal year 2005, the level of education for 
Active Duty military nurses was 64 percent BSN, 30 percent MSN, 0.6 
percent Doctorate and 5 percent in graduate school. While aggregate 
data is not available on the education levels of our civilian nurses, 
they are graduates of two year community college programs, three year 
hospital based diploma programs, and the majority are four year college 
graduates.

                               EXPERIENCE

    Question. What percent of your nurses come directly from nursing 
school, and what percent are experienced in nursing when they join the 
military?
    Answer. In fiscal year 2004 we had 223 accessions to Active Duty. 
Of these, 38 had some experience (17 percent) and the remainder (185) 
were new graduates directly from school (83 percent).
    Question. What percent of your nurses are prior service (in any 
specialty)?
    Answer. Approximately 45 percent of the 2,948 Nurse Corps Officers 
on Active Duty as of March 2005 have at least 12 months or more of 
prior service. This is a result of the excellent pipeline (enlisted to 
officer) programs in the form of scholarships, that add stability to 
our numbers. This is particularly evident in readiness essential 
specialties such as the Certified Registered Nurse Anesthetist (CRNA) 
community. In this specialty, 68 of 146 CRNA's (47 percent) are prior 
service.
    Question. What percent are prior service and from another service 
(e.g., former Army nurses now working for the Navy)?
    Answer. Of the 2,948 Navy Nurses on Active Duty as of March 2005, 
six (0.2 percent) are inter-service transfers. Since the year 2000, the 
Navy Reserve has had a total of 37 inter-service transfers which 
represents about 2 percent of our total reserve end-strength.

                              DEPLOYMENTS

    Question. Where/how are your nurses currently deployed?
    Answer. Navy Nurses have deployed this past year throughout the 
world to Kuwait, Iraq, Djibouti, Afghanistan, Bahrain, the Philippines, 
Thailand and Guantanamo Bay, Cuba. During these deployments they 
support our operational and humanitarian mission via Surgical 
Companies, Surgical Teams, Shock Trauma Platoons, the Forward 
Resuscitative Surgical System, Fleet Hospitals, Expeditionary Medical 
Facilities, on both Navy and Hospital Ships, and our Medical Treatment 
Facilities abroad.
    Question. How often are Reserve/NG nurses activated?
    Answer. As of December 2004, a total of 385 nurses have been 
activated for Operation Iraqi Freedom. This represents a total of 23 
percent of the Reserve Nurse Corps End-Strength. Current Secretary of 
the Navy policy allows for a non-voluntary recall for up to 24 months. 
Most officers are recalled for a period of one year, with an option to 
serve a second year as needed.

                            CIVILIAN NURSES

    Question. Are civilian nurses used any differently than military 
nurses?
    Answer. Essentially, civilian nurses are hired primarily for their 
clinical expertise. All civilian nurses are hired with a minimum three 
years clinical experience, so they supply an immediate clinical support 
for all of our specialty areas. However, since we have a greater 
deployment requirement for some specialties such as perioperative, 
critical care, anesthesia, emergency/trauma, psychiatric/mental health 
and surgical nursing, there are often more military nurses in these 
specialties. Consequently, there are often more civilian nurses working 
in clinical areas such as obstetrical, maternal-infant, pediatrics and 
newborn nursery.
    Question. Do they fall under the same pay scale as military nurses?
    Answer. Civilian nurses are paid under separate pay scales based on 
the General Schedule or special salary rates established by the Office 
of Personnel Management (OPM) or the Department of Defense under an 
agreement with OPM to use certain pay flexibilities granted to the 
Veterans Administration. For the most part, civil service Registered 
Nurses are paid in the range of $64,000 to $80,000 for base salary.
    Question. What about retirement benefits?
    Answer. Civil service nurses are covered by two retirement plans 
based on when they entered the federal service. Both are contributory 
plans and require the employee to make contributions from pay toward 
their retirement.
  --Civil Service Retirement System--is basically a single 
        contributory, self-insured program supplemented by the non-
        matched Thrift Saving Plan.
  --Federal Employees Retirement System--is a combination of social 
        security, small basic annuity and the Thrift Saving Plan (with 
        some matching contributions).
    Question. What is the relationship between AC military and civilian 
nurses, and their counterparts in the Guard and Reserves?
    Answer. In support of the One Navy Medicine concept, the 
integration of active, reserve and civilian nurses renders a more 
effective, efficient and fully mission-ready nursing force both at home 
and abroad. With the deployment of over 400 Active Duty Nurses along 
with the mobilization of Reserve Nurses to support our Military 
Treatment Facilities, this concept of integration has allowed our 
civilian staff, reserve backfill and Active Duty nurses to work 
seamlessly to care for all of our beneficiaries.
    Question. What is the average number of years a civilian nurse is 
employed by the military health care system (is there a high turnover?)
    Answer. With the keen competition for nurses in many of the more 
populated areas, nurses will move from hospital to hospital based on 
salary. Turnover is a continuing challenge, but with the flexibilities 
in hiring and compensation, we seem to be competitive. At any one point 
in time, there are approximately 50 civilian nurse vacancies, or 4.0 
percent of the 1,210 total Registered Nurse positions.
                                 ______
                                 
        Questions Submitted to Major General Barbara C. Brannon
               Questions Submitted by Senator Ted Stevens

                        RECRUITING AND RETENTION

    Question. How does the Uniformed Services University of the Health 
Sciences support military nursing?
    Answer. The Uniformed Services University of the Health Sciences 
(USUHS) is committed to providing excellence in graduate nursing 
education to prepare advanced practice nurses for the delivery of 
healthcare during peace, disaster response, homeland security threats 
and war. The Graduate School of Nursing (GSN) faculty and staff have an 
exceptional blend of experience in the military and/or the federal 
health care systems, and are prepared to provide a distinctly unique 
educational experience that cannot be found at other universities. The 
GSN signature curriculum is specifically designed to prepare nurses for 
advanced practice and research roles in support of Active Duty members 
of the uniformed services, their families and all other eligible 
beneficiaries. This curriculum for graduate students includes 
operational readiness, evidence-based practice, population health 
outcomes, force health protection, federal health care systems, as well 
as leadership.
    The Perioperative Clinical Nurse Specialist (PCNS) Program (the 
newest Master's program) prepares graduate nurses for clinical 
practice, management, leadership, research, teaching and consultation 
in advanced practice roles within the perioperative environment. This 
is the only program of its kind in the United States focused totally on 
perioperative practice and administration. Military unique aspects of 
the curriculum stresses concepts directed toward delivering 
perioperative care in both the military and federal health care system 
with a strong focus on patient safety research and care in austere 
environments. USUHS graduates are uniquely qualified to provide quality 
care in a variety of settings to include peacetime and wartime 
environments.
    The Registered Nurse Anesthesia (RNA) Program is dedicated to 
providing highly qualified nurse anesthetists for the uniformed 
services. The uniformed services require graduates independently 
provide quality anesthesia care in diverse settings. The military 
unique curriculum is specifically designed to integrate scientific 
principles of anesthesia theory and practice, stressing the unique 
features of operational readiness throughout the curriculum to prepare 
nurse anesthetists ready to deploy immediately upon graduation. USUHS 
Graduate School of Nursing students deploy up to six months earlier 
than graduates from other RNA programs.
    The rigorous curriculum of the Family Nurse Practitioner (FNP) 
Program at USUHS prepares graduate nurses for advanced practice roles 
in the federal sector. Their curriculum is more heavily weighted in 
diagnostic reasoning and clinical decision-making since they practice 
more autonomously in remote settings. In addition, the military unique 
program includes field training to prepare nurses to support combat 
casualties in deployed environment. Like the PCNS and RNA students, FNP 
students graduate with a full compliment of operational readiness 
skills and can deploy immediately upon graduation.
    The Uniformed Services University also prepares military and 
federal health nurses through doctoral education to research subjects 
from operational readiness and deployment health to patient safety and 
population health and outcomes management. This operational plan for 
research has been lauded by the Federal Nursing Service Chiefs, members 
of the USUHS Board of Regents, as well as the Assistant Secretary of 
Defense/Health Affairs.
    Operational readiness research areas at both the master's and 
doctoral level include Active Duty, Reserve and Guard fitness, health 
systems readiness, chemical, biological, radiological, nuclear and 
high-yield explosives (CBRNE) defense, decision support and validation 
of readiness training. Research also focuses on war injuries, care of 
amputees, women's health in the deployed environment and stress and 
coping in military families. Patient safety research is aimed at 
addressing scientific inquiry in the areas of health literacy and 
safety in the emergency room and/or operating room. Finally, research 
in the domain of genetics examines the latest in genetic testing and 
newborn screening.
    The Uniformed Services University provides the nation with premier 
nurses dedicated to career service in the Department of Defense and the 
United States Public and Federal Health Services. The curriculum 
includes military unique content that is not presented at civilian 
universities.
    Question. With the current nursing shortage nationwide, and 
continued need for medical support at home and overseas, what is the 
status of your recruiting and retention efforts?
    Answer. The nursing shortage continues to pose enormous challenges 
in supplying our demand for military nurse accessions and sourcing 
civilian nursing workforce. A robust recruiting program is essential to 
sustain the Air Force Nurse Corps. We have consistently been below our 
goals: 78 percent in fiscal year 2001, 67 percent in fiscal year 2002, 
79 percent in fiscal year 2003, and 71 percent in fiscal year 2004. Our 
fiscal year 2005 recruiting goal is 357 nurses and it appears we will 
end the year around 70 percent of that goal. We use the Health 
Professions Loan Repayment Program (HPLRP), accession bonuses and ROTC 
scholarships to recruit top quality nurses.
    Our most successful tool for recruiting novice nurses has been the 
HPLRP. In fiscal year 2004, we filled 118 quotas of up to $28,000 each. 
For fiscal year 2005, we could only fund 26 HPLRPs, leaving the 
accession bonus as the only financial incentive available. We increased 
the accession bonus from $10,000 to $15,000 for a four-year commitment. 
This has been moderately successful. We are currently formulating 
programs to use the National Defense Authorization Act 2005 authority 
to offer an accession bonus with a three-year commitment.
    We have increased nursing Air Force ROTC quotas for the last two 
years and filled 100 percent of our quotas. We added additional ROTC 
scholarships for fiscal year 2005, increasing our quota from 35 in 
fiscal year 2004 to 41. We are also enhancing our ``grow our own'' 
nurses from our enlisted corps. We revised the eligibility requirements 
for the Airmen Enlisted Commissioning Program (AECP) to increase the 
pool of enlisted to complete a Bachelor of Science in Nursing while on 
active duty. Following graduation they commission into the Air Force 
Nurse Corps. We have accessed 24 nurses through this program since its 
inception in fiscal year 2001.
    Advanced practice nurses are difficult to recruit. We primarily 
meet our requirements by training our active duty nurses in advanced 
specialties. We offer financial incentives to retain board certified 
nurse practitioners, certified nurse midwives and certified registered 
nurse anesthetists (CRNAs) consistent with our sister services. 
Advanced practice nurses earn an additional $2,000 per year for less 
than ten years of experience. In fiscal year 2000 we increased the CRNA 
special pay to $6,000 per year while they complete any time commitment 
for training. For those without a training commitment we increased the 
rate in fiscal year 2005 up to $25,000 per year for a three-year 
commitment. As a result, retention rates for CRNAs have increased from 
a low of 81 percent for fiscal year 2000 to 88 percent for fiscal year 
2004.
    The nationwide nursing shortage has also affected our ability to 
recruit civilian nurses. While the direct hire authority has 
significantly improved the hiring process for nurses, numerous 
positions remain unfilled in select areas of the country. The retention 
of these nurses has also proven to be a challenge. We have difficulty 
competing with civilian facilities that continue to offer more 
attractive incentive packages.
    While this continues to be a challenging time for recruiting, our 
retention has been excellent. We have averaged a loss rate of just over 
eight percent in the last ten years. Our nurses enjoy the opportunity 
for professional development including the opportunity to apply for 
advanced degree programs. They also recognize the promotion and 
leadership opportunities available in the Air Force that are not as 
common in the civilian sector. Our nurses are some of our best 
recruiters as they tell their stories and share their experiences. We 
continue to advertise our great quality of life and career 
opportunities, as we remain focused on attracting top quality 
baccalaureate nurses and nurturing them into tomorrow's nursing 
leaders.
    Question. Can you describe the effects continued deployments have 
had on staffing for Medical Treatment Facilities?
    Answer. The Air Force Medical Service has been faced with the 
challenge of providing consistent medical support to each Air 
Expeditionary Force (AEF) while at the same time maintaining critical 
home station medical support and formal medical education programs. The 
solution has been to optimize use of medical center and large hospital 
staffing to meet most AEF requirements. This has multiple benefits 
including the ability to provide a constant, predictable, measurable 
level of support (same hit for medical treatment facility in every 
bucket). This also allows for better programmatic adjustments as well 
as increased ability to capitalize on resourcing investments and 
enhancement of medical education and training.
    While this process has been successful in anticipating the 
requirements for deployment, several additional challenges have come to 
light. These include tasking for already stressed medical Air Force 
specialties, e.g., Critical Care, Surgical Specialties, Mental Health, 
and Independent Duty Medical Technicians. Also, the Air Force has been 
asked to fill some billets, e.g., Combat Stress Teams, Preventive 
Medicine Teams, Detainee Health Team and others. These additional 
taskings are met within the AEF cycle when possible to maintain a 
predictable level of support. When this cannot be accomplished, 
additional deployable assets may be tasked. Another solution has been 
to use Air Force medics that have not previously been considered 
deployable for medical reasons to fill assignments such as staff 
positions to backfill personnel at either Air Force facilities that 
deploy personnel or to deploy forward. Air Force medics who might not 
be able to deploy forward have also been tasked to fill slots at Army 
facilities such as Landstuhl in Germany and Tripler Army Medical Center 
in Hawaii.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski

                           NURSING SHORTAGES

    Question. How many military nurses do you have on active duty?
    Answer. There are 3,673 nurses on active duty as of April 30, 2005.
    Question. How many civilian nurses are employed by your service?
    Answer. The number of civilian nurses currently employed by Air 
Force is 740.
    Question. How many nurses in the Guard and Reserves?
    Answer. There are currently 797 nurses in the Air National Guard 
and 2,062 in the Air Force Reserve.
    Question. What is the deficit/shortage for each, between number on 
duty compared with the number you have authority to hire?
    Answer. The deficit/shortage between number of nurses on duty 
compared to the number we have the authority to hire for Active, Guard, 
Reserve, and Civilian is as follows:
    Active Duty deficit/shortage equals 277 out of 3,673.
    Guard deficit/shortage equals 120 out of 797.
    Reserve deficit/shortage equals 106 out of 2,062.
    Civilian deficit/shortage equals 28 out of 740.
    Question. What is the average number of years of service for active 
duty nurses? Guard and Reserve nurses?
    Answer. The average number of years of service for Active Duty 
nurses is 11 years, while the average number of years of service for 
Air National Guard and Air Force Reserve nurses is 15 years.

                               EDUCATION

    Question. What percent of your nurses get a graduate degree at 
USUHS?
    Answer. Currently, 2 percent (92) of all nurses on active duty 
(3,675) have a graduate degree from the USUHS. On average, 45.6 percent 
(26) of all nurses are selected each year for Air Force-sponsored 
education opportunities to attend the USUHS in the following programs: 
Masters of Science in Nursing (MSN): Family Nurse Practitioner MSN; 
Perioperative Clinical Nurse Specialist; MSN Nurse Anesthesia; 
Doctorate (PhD), and Nursing Science.
    Question. What percent of your nurses get a graduate degree 
somewhere other than at USUHS?
    Answer. We currently have 1,443 Nurses with Masters Degrees in the 
Air Force. The breakdown is as follows: 915 Other (on their own)--63.4 
percent; 407 AFIT (Air Force Institute of Technology) sponsored--27.0 
percent; 92 USUHS--7.6 percent; 21 Tuition Assistance--1.4 percent; 6 
HPSP (Health Professions Scholarship Program)--0.4 percent; 1 VEAP 
(Veterans Education Assistance Program)--0.06 percent; and 1 Education 
Delay--0.06 percent.
    We currently have 14 Nurses with Ph.D.s in the Air Force. The 
breakdown is as follows: 6 AFIT sponsored; and 8 Other (on their own).
    There are currently three Air Force students enrolled in the Ph.D. 
program at the USUHS.
    Question. Does the military pay for advanced degrees for military 
nurses (at USUHS or elsewhere)?
    Answer. The Air Force has several programs to assist nurses in 
pursuing advanced degrees. In fiscal year 2004 we selected 57 nurses 
for education opportunities. Of these, 31 attended civilian 
institutions for programs not offered at the USUHS. These students are 
sponsored by the Air Force Institute of Technology. The remaining 26 
nurses selected attended the USUHS. The Air Force also offers tuition 
assistance for Airmen that choose to pursue programs during off-duty 
time. Officers can receive up to $4,500 per fiscal year for courses 
that lead to an advanced degree. We also offer scholarships for nurses 
interested in nurse anesthesia and women's health through the Health 
Professions Scholarship Program.
    Question. What is the average level of education for Military 
nurses? Civilian nurses?
    Answer. All nurses in the Air Force Nurse Corps hold a bachelors 
degree in nursing. Of these, 39.3 percent (1,443) also hold a masters 
degree and 0.4 percent (14) hold a Ph.D.
    According to the most recent data from the American Association of 
Colleges of Nursing, in the year 2000, 34 percent of nurses in the 
civilian sector hold an associates degree in nursing (ADN), 22 percent 
practice with a diploma, and 43 percent hold a bachelors degree in 
nursing. Only 9.6 percent hold a masters degree and 0.6 percent hold a 
Ph.D. According to the U.S. Department of Health and Human Services, 
only 16 percent of ADNs obtain a post-RN nursing or nursing-related 
degree.

                               EXPERIENCE

    Question. What percent of your nurses come directly from nursing 
school, and what percent are experienced in nursing when they join the 
military?
    Answer. Nurses are considered inexperienced until they have 
practiced for one year. Experienced nurses, on the other hand, have 
worked in clinical nursing for more than one year or have trained in a 
specialized area. Over the last four years, the percentage of 
inexperienced nurses recruited has steadily increased. In fiscal year 
2001, these nurses comprised 22.8 percent of all new accessions with 
experienced nurses constituting the remaining 77.2 percent. By the end 
of fiscal year 2004 the percentage of inexperienced nurses increased to 
39.3 percent of all nurses recruited, bringing the four-year average to 
30.9 percent. The four-year average for experienced nurses fell to 69.1 
percent.
    Question. What percent of your nurses are prior service (in any 
specialty)?
    Answer. Officers in the Air Force Nurse Corps come from a variety 
of backgrounds. Nurses with prior service in any specialty comprise 
25.6 percent of the Air Force Nurse Corps. Of these, one percent are 
officers commissioned in the Air Force that later transferred to the 
Nurse Corps. Nurses with prior enlisted service make up 24.6 percent of 
the Air Force Nurse Corps. From this category, eight percent were prior 
enlisted in the Air Force and 16.6 percent were prior enlisted in other 
services, including the Air Force Reserve and Air National Guard.
    Question. What percent are prior service and from another service 
(e.g., former Army nurses now working for the Navy)?
    Answer. At the end of calendar year 2004, the Air Force Nurse Corps 
included 392 nurses (10.8 percent) who had been commissioned in a 
different branch of the military and then transferred to the Air Force. 
This includes nurses who transferred from the Air Force Reserve and the 
Air National Guard.

                              DEPLOYMENTS

    Question. Where/how are your nurses currently deployed?
    Answer. The following data is obtained from Deliberate Crisis 
Action Planning Execution Segments (DCAPES) and is as of May 24, 2005. 
The data reflects personnel deployed on Contingency/Exercise Deployment 
(CED) orders at SECRET level and below and includes the type of nurse 
currently deployed by the area of responsibility of deployment.

----------------------------------------------------------------------------------------------------------------
                                                                       TDY--AOR
                    AFSC5D                     -------------------------------------------------------   Total
                                                 CENTCOM     EUCOM     NORTHCOM    PACOM     SOUTHCOM
----------------------------------------------------------------------------------------------------------------
CLINICAL NURSE................................         40         11         13          1          3         68
CN CRITICAL CARE..............................         30         15          7  .........  .........         52
CN Womens Health Care Nurse Prac..............          1  .........          1  .........  .........          2
FLIGHT NURSE..................................         40         28         45  .........  .........        113
MENTAL HEALTH NURSE...........................          2          4          6  .........  .........         12
NURSE-ANESTHETIST.............................          7  .........  .........  .........          1          8
NURSING ADMINISTRATOR.........................          5  .........          3  .........  .........          8
OPERATING ROOM NURSE..........................         19  .........          1  .........  .........         20
NURSE-MIDWIFE.................................  .........  .........  .........  .........          1          1
                                               -----------------------------------------------------------------
      Grand Total.............................        144         58         76          1          5        284
----------------------------------------------------------------------------------------------------------------

    Question. How often are Reserve/NG nurses activated?
    Answer. Based on personnel currently assigned to the Selected 
Reserve (SelRes), there are 2,876 nurses in the SelRes. Of this number, 
733 individuals have been mobilized 845 times since September 11, 2001. 
Specifically, one was mobilized four times; five were mobilized three 
times; 99 were mobilized two times; and 628 were mobilized one time. 
The average number of mobilizations per month since September 11, 2001 
is approximately 19 (about 11 mobilizations a month during the past 12 
months). The peak mobilizations were in February-April, 2003 (490 
total; with 232 in March 2003)--of those mobilized, 475 individuals 
were deployed one or more times. Note: The mobilization data are per 
the Military Personnel Data System (MilPDS) and the deployment data are 
per the Deliberate Crisis Action Planning Execution Segments (DCAPES) 
deployed history file, May, 2005.

                            CIVILIAN NURSES

    Question. Are civilian nurses used any differently than military 
nurses?
    Answer. During peacetime, civilian nurses are used much the same as 
military nurses. One stumbling block to fully integrating civilian 
nurses into our nursing teams is the requirement for overtime pay for 
time worked beyond forty hours. On Air Force hospital inpatient units, 
nurses are scheduled on 12-hour shifts. The rotation requires the 
nurses to work four shifts one week and three shifts on the opposite 
weeks. Civilian nurses would regularly exceed forty hours in a seven-
day period and have fewer than forty hours in others. This would 
increase civilian pay bills. Additionally, when a civilian has a short 
notice absence, the extra coverage usually falls to the military 
nurses. This is manageable with a small civilian force; however, 
scheduling is much more complicated and taxing with a larger civilian 
force. Civilian nurses are currently assigned to all settings, but in 
the future will be concentrated in the outpatient clinics. We need to 
assign military nurses to most of our inpatient and critical care 
authorizations for currency in wartime clinical skills.
    Question. Do they fall under the same pay scale as military nurses?
    Answer. Civilian and military nurses do not fall under the same pay 
scale. Civilian nurses currently receive their pay based on the General 
Schedule (GS) for federal employees or a contractual agreement. Pay 
rates may be adjusted based on locality. The GS rating for nurses may 
vary due to kind of work (inpatient versus outpatient), specialized 
skills necessary (intensive care versus inpatient ward), and management 
responsibilities.
    Basic Pay is the fundamental component of military pay. All members 
receive it and typically it is the largest component of a member's pay. 
A member's grade (usually the same as rank) and years of service 
determines the amount of basic pay received. Their basic pay is not 
affected by the their duty location. The military does offer 
certification pay for our advanced practice nurses and incentive 
special pay for our Certified Registered Nurse Anesthetists.
    Question. What about retirement benefits?
    Answer. The retirement benefits would be computed using the general 
formula for the retirement system the employee is covered under the 
Civil Service Retirement System (CSRS) or the Federal Employees 
Retirement System (FERS). The formulas for the computation of 
retirement benefits can be found in the U.S. Office of Personnel 
Management CSRS and FERS Handbook For Personnel and Payroll Offices 
available on line at http://www.opm.gov/asd/hod/pdf/C050.pdf.
    Question. What is the relationship between AC military and civilian 
nurses, and their counterparts in the Guard and Reserves?
    Answer. Nurses in the Air National Guard (ANG) and in the Air 
Reserve Component (ARC) are utilized several ways once activated. Some 
of the nurses are used to backfill positions vacated by active duty 
nurses deploying. This role has enabled some facilities to continue to 
meet their peacetime mission requirements. Other nurses are deployed 
along with their units. They have manned contingency air staging 
facilities overseas and stateside. They are also responsible for 88 
percent of aeromedical evacuation flights.
    While on active duty, ANG and ARC nurses receive the same pay and 
benefits as their full-time Active Duty counterparts. Civilian nurses 
receive their pay based on the General Schedule (GS) for federal 
employees or a contractual agreement.
    Question. What is the average number of years a civilian nurse is 
employed by the military health care system (is there a high turnover?)
    Answer. The civilian nurses currently employed by the Air Force 
through the military health care system have worked for the Air Force 
for an average of 8.26 years. The nurses who left Air Force employment 
between January 1, 2004 and May 1, 2005 had an average of 7.81 years of 
civilian service some of which may have been performed for other 
governmental agencies.

                          SUBCOMMITTEE RECESS

    Senator Stevens. The subcommittee will reconvene tomorrow 
at 10 a.m., in this room to review the Missile Defense Program 
for 2006. We stand in recess until that time.
    [Whereupon, at 11:59 a.m., Tuesday, May 10, the 
subcommittee was recessed, to reconvene at 10 a.m., Wednesday, 
May 11.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                        WEDNESDAY, MAY 11, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, and Inouye.

                         DEPARTMENT OF DEFENSE

                        Missile Defense Program

STATEMENTS OF:
        GENERAL JAMES E. CARTWRIGHT, UNITED STATES MARINE CORPS, 
            COMMANDER, UNITED STATES STRATEGIC COMMAND
        LIEUTENANT GENERAL HENRY A. OBERING, III, UNITED STATES AIR 
            FORCE, DIRECTOR, MISSILE DEFENSE AGENCY

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. The subcommittee is pleased to welcome 
General James Cartwright, Commander of the United States (U.S.) 
Strategic Command (STRATCOM), and Lieutenant General Henry 
Obering, Director of the Missile Defense Agency (MDA). General 
Obering, this is your first opportunity I believe to testify 
before us as Director of the Missile Defense Agency. We welcome 
you. Given your service at MDA and in other roles, your having 
been a Director for almost 1 year now, we are happy to see you 
on board and to welcome you to our subcommittee. We thank you 
both for coming today.
    Ballistic missile defense (BMD) is one of the most 
challenging missions in the Department of Defense. This 
subcommittee has consistently provided support for missile 
defense programs. It is fair to say that this administration 
has been more active in fielding missile defense to meet the 
current and growing threat than any previous administration. 
Even as its support for missile defense remains strong, the 
administration is also contending with the global war on 
terror. With all the competing priorities, resources are 
extremely limited and funding for missile defense may have 
reached its high water mark in fiscal year 2005. However, we 
must move to ensure that our diminishing missile defense 
resources are well focused on the right priorities.
    General Cartwright, General Obering, we look forward to 
hearing about the missile defense capabilities and receiving an 
update on how the overall program is proceeding. We are going 
to make each of your statements a part of the record.
    I am delighted to turn it over now to our vice chairman for 
his remarks.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Mr. Chairman, I am also pleased to join you 
in welcoming General Obering and General Cartwright.
    These are challenging times and very interesting times for 
missile defense. The program has seen both setbacks and 
achievements this past year. For example, last September the 
President was all set to announce the deployment of a missile 
defense system, but problems persisted in testing the system, 
and that announcement had to be delayed. More recently, we have 
seen two tests where the target was launched, but the 
interceptor never left the silo.
    I understand you are currently considering whether to 
withdraw from the high altitude airship program due to cost and 
schedule overruns. Nevertheless, we recognize that missile 
defense is technologically challenging. Despite these setbacks, 
it is important to note the many successes that have occurred 
over the past year.
    The Aegis ballistic missile defense program had another 
successful intercept last February. This brings you to five out 
of six successes for its testing. In addition, one of the Aegis 
destroyers, equipped with the capability to search and track 
missiles, is now positioned in the Sea of Japan.
    Mr. Chairman, I would like to have the remainder of my 
statement made part of the record, if I may.
    Senator Stevens. Yes, Senator, it will be.
    [The statement follows:]

             Prepared Statement of Senator Daniel K. Inouye

    Today I am pleased to join our chairman in welcoming to the 
committee Lieutenant General Obering, Director of the Missile 
Defense Agency, and General Cartwright, Commander of U.S. 
Strategic Command.
    Gentlemen, you have stepped into your respective positions 
at a very interesting and challenging time for missile defense. 
The missile defense program has seen both set backs and 
achievements this past year.
    Last September, the President was set to announce the 
deployment of a limited national missile defense system. 
However, problems persist with testing the system, and the 
announcement has been delayed.
    More recently, we have seen two tests where the target was 
launched successfully, but the interceptor never left the silo 
because of problems with ground equipment.
    I understand you are currently considering whether to 
withdraw from the high altitude airship program due to cost and 
schedule overruns.
    Finally, the missile defense program was cut back by $1 
billion in the fiscal year 2006 budget request as part of the 
overall pressure to reduce the Defense Department budget.
    Nevertheless, we recognize that missile defense is 
technologically challenging, and despite these setbacks, it is 
important to note the many successes that also occurred over 
the past year.
    The aegis ballistic missile defense program had another 
successful intercept test last February, bringing it to five 
out of six successes in its testing. In addition, one of the 
aegis destroyer equipped with the capability to search and 
track missiles is now positioned in the sea of Japan.
    The airborne laser program met two successful milestones--
the first light of the laser beam and flight of the aircraft. 
This happened after many skeptics believed the program was 
headed toward failure.
    Finally, eight long-range interceptors are in the ground 
and checked-out in Fort Greely, Alaska and Vandenberg Air Force 
Base in California.
    The fact of the matter is that ballistic missiles are 
proliferating. They are a threat to our homeland and to those 
of our allies and friends around the world. Building an 
affordable and workable missile defense system is important for 
our national security for now and for the foreseeable future.
    Gentlemen, this committee understands the importance of a 
strong missile defense. We will continue to support your 
programs, but we will keep an ever watchful eye on the risks 
and costs of your missile defense programs.
    I look forward to hearing from you both on the fiscal year 
2006 budget request and the priorities and challenges of the 
missile defense program.

    Senator Stevens. I call on the chairman of the full 
committee, Senator Cochran.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much. I join 
you in welcoming our witnesses today at this important hearing. 
I think it is important for us to remain engaged with those who 
are involved in developing and deploying comprehensive 
capability of defending against missile attacks.
    We have legislated the authority to deploy a national 
missile defense system, and Senator Inouye and Senator Stevens 
and I cosponsored legislation several years ago that was 
adopted by the Congress and signed by the President calling for 
the deployment of that capability. I think you have 
demonstrated that it is feasible, that we do have the 
capabilities of making this goal come true and become a 
reality. For all of that, we congratulate you and look forward 
to your testimony about this and other capabilities you are 
working on to protect troops in the field and other assets and 
resources that we have that are a matter of supreme national 
interest. Thank you for your service.
    Senator Stevens. Thank you very much.
    General Cartwright, we would be happy to have your 
statement.

                SUMMARY STATEMENT OF GENERAL CARTWRIGHT

    General Cartwright. Thank you, Mr. Chairman and Senator 
Inouye. I would like to take just a few minutes and make a few 
remarks. My presence here is to bring you up to date on some of 
the operational issues as the system starts to transition to 
the operational side.
    I just want to walk back. In 2004, our goal was to provide 
a rudimentary system against a limited threat. That threat was 
defined as two to five missiles coming from North Korea. What 
we were able to put together at the early part of the year and 
at the end of 2004 was what I would describe as a thin line 
system. In other words, we had a command and control system 
that reached to the critical points. We had sensors that were 
on a single thread but were end to end, and we had a weapons 
system that was at that time at one base.
    We put that system together. It was available. If there 
were an emergency, we could use it, but being a thin line 
system, it really was a system that was not set up to do both 
operations and research and development (R&D) simultaneously. 
So we have been moving back and forth on a scheduled basis 
between operations and R&D with a focus mainly on R&D in 2005.
    Our focus in 2005 was to build the system and start to put 
some depth and redundancy into the system to bring the 
assurance levels up and to bring the operational realism and 
start to train our soldiers to operate the system. Behind me is 
Lieutenant General Larry Dodgen who is my commander for missile 
defense. He has the responsibility of training the individuals 
to operate the system on a day-to-day basis.
    In the early part of the year, we asked and worked with 
Secretary Rumsfeld to set up what we called a shakedown period, 
which in Navy terms was to take the system and put operators on 
the system and start to understand the strengths and 
weaknesses, start to understand the concept of operation that 
you would employ on a day-to-day basis, things as simple as 
four people sitting at consoles working the system, what if the 
display shuts off, what if the coms do not work, starting the 
build the procedures which also builds in the confidence for 
the soldier to be able to operate the system. These were 
critical things to start to understand, get the operators 
involved.
    It also helped us shape and define what operationally 
realistic meant, what we needed to work with General Obering 
on, to make sure that the system matched up with the 
expectations of the soldiers, as we learned to operate the 
system. That has gone on since the beginning of the year. We 
have moved back and forth and scheduled activities. I think we 
are on our ninth iteration where we turn the system over to the 
operators, let them work on it for an extended period of time. 
That has given us a lot of insights and a lot of help in 
defining how we are going to use this system.
    Another question that I routinely get is why do we need a 
defensive system. We are putting this investment in. I go back 
really to my marine routes on this. If you talk to Captain 
Cartwright or Private First Class (PFC) Cartwright about having 
a balanced offensive capability with a balanced defensive 
capability, I would not send a marine into the streets of 
Fallujah without armor. It makes a difference in how the enemy 
treats you and it makes a difference in how you behave in a 
threat environment. Having a balanced offense and defense in 
the sophisticated threats that we deal in today, we can have 
snipers and terrorists on the street who hide among civilians, 
take their first shot, thinking they are going to get the 
advantage by getting that first shot off with no regret factor 
because nobody will shoot back at them and you are worried 
about ducking. Having a defense makes all the difference in the 
world in the calculus of the mind of the adversary and the mind 
of our soldiers, sailors, airmen, and marines.
    When we look at the threat that we are facing today, having 
only a strategy of mutual assured destruction, or offense only, 
is just not going to be robust enough for the diverse threat 
that we face today. We have to change the calculus in the mind 
of the enemy so that that first shot, they do not believe that 
they are going to escape with that with no regret. Number two, 
they have got to question whether they are going to be 
successful or not, and number three, they have got to believe 
that we will get them if they take that first shot. It is just 
absolutely essential. So having a balanced offense and defense 
in the world we deal in today is absolutely essential.
    The shakedown for us has provided our soldiers with the 
mind set and the confidence to operate the system. 2005, 
hopefully for us, brings additional weapons, additional sensors 
so that we have the backups and the redundancies and we are not 
relying on a single string. It brings a more robust command and 
control system, and we will start to get to the point where we 
also bring into the equation, as the administration has laid 
out, our first priority of defending the Nation, our second 
priority of defending our forward deployed forces. And with the 
Aegis systems that Senator Inouye alluded to, we start to get 
the capability to bring systems to bear that can defend our 
deployed forces wherever they are in the world. And to me that 
is essential. We have got to extend that umbrella out and have 
it available for our deployed forces and then our allies and 
friends in addition.

                           PREPARED STATEMENT

    So I stand ready for your questions. I hope that gives you 
a context in which STRATCOM has come into this equation.
    [The statement follows:]

           Prepared Statement of General James E. Cartwright

    Mr. Chairman and Members of the Subcommittee: This is my first 
opportunity to appear before you as Commander of the United States 
Strategic Command. Thank you for the time you've given me to discuss 
the missions assigned to us as we continue to prosecute the Global War 
on Terror and take on the challenge of combating weapons of mass 
destruction.
    My prepared remarks cover USSTRATCOM's role in the challenging 21st 
Century environment and plans for addressing those challenges with 
capabilities to serve our nation's needs in war and in peace.

                  THE 21ST CENTURY GLOBAL ENVIRONMENT

    Global interdependence--economic, political, and social--combined 
with near instantaneous global connectivity, is a trademark of the new 
century. It also heightens the importance of strong links between U.S. 
strategic objectives and regional operations. U.S. strategic objectives 
have profound influence on individuals, regions, nations, and non-state 
actors and networks. The tight linkage between U.S. strategic 
objectives and the conduct of regional operations is evident in our 
operations in Afghanistan and Iraq, and more recently in Asia in the 
aftermath of the tsunami. In Afghanistan, the strategic objective to 
combat global terrorism guided, as well as constrained, our regional 
decisions. The regional operations in Iraq are clearly influencing 
cultural, economic, and security considerations around the globe.
    Our adversaries are using asymmetric approaches; exploiting social, 
political, and economic vulnerabilities to avoid confronting superior 
U.S. forces head on. We continue to see increases in the speed and 
deceptive scale of proliferation of potential weapons of mass 
destruction, including delivery and concealment capabilities. We see 
adversaries who would use improvised explosive devices (IEDs) and 
suicide bombs against their own people and infrastructure, as well as 
against deployed multinational forces. These adversaries have easy 
access to the same global technology base we do, and can exploit the 
same communication and information resources as the American public. 
They have proven they are an intelligent and adaptable enemy.
    All operations, while regional in execution, have global 
consequence and therefore require a global perspective. Regional 
combatant commanders, who are responsible and accountable for 
conducting combat and peacekeeping operations in their areas of 
responsibility (AORs), have long depended upon support provided from 
outside their AORs. Much of that support, which in the past was 
provided on an ad hoc basis, has now been codified in the Unified 
Command Plan as a USSTRATCOM global responsibility. We are positioning 
USSTRATCOM to advance a distinctly global and strategic perspective on 
current and emerging capabilities necessary to deter threats to our way 
of life, particularly those threats involving weapons of mass 
destruction. USSTRATCOM will enable combatant commander's regional 
operations through realization of a comprehensive set of global mission 
capabilities, soundly integrated to achieve more effective and 
efficient execution.
    We look upon this responsibility as both an exciting challenge and 
a solemn obligation to the regional combatant commanders, the American 
men and women who serve in their AORs and to the American people.

                            GLOBAL ENABLERS

    21st Century operations are fundamentally different from those of 
the last century. Combat operations are being conducted in rapidly 
changing circumstances, shifting from humanitarian operations to 
intense firefights within a few hundred yards of each other with little 
or no warning. This dynamic nature is matched by a varying composition 
of assisting partners. We must be ready to conduct integrated, 
distributed operations using global and regional military forces. In 
many situations, these forces will be augmented by other U.S. 
Government personnel, coalition and commercial partners, and possibly, 
non-governmental organizations. To plan and effectively execute these 
types of distributed, agile and integrated operations, the regional 
combatant commands increasingly rely on multiple capabilities the 
global commands must support or provide.
    The Unified Command Plan expands USSTRATCOM responsibilities 
through the assignment of global mission areas that span levels of 
authority, cross regional boundaries and intersect with various 
national and international agencies. USSTRATCOM's missions are:
  --Global deterrence;
  --Global support from space-based operations;
  --Global intelligence, surveillance, and reconnaissance;
  --Global strike;
  --Global information and network operations;
  --Global command and control;
  --Global integrated missile defense coordination; and
  --Globally combating weapons of mass destruction.
    Achieving the full potential of these missions is contingent upon 
identifying the right capabilities mix and sustaining our global reach 
through space. However, without the context of advanced situational 
awareness, and the power of collaboration, even the best tools may be 
insufficient to deter and defeat a determined adversary. We are placing 
an emphasis on the following global enablers:
    The New Triad.--USSTRATCOM supports The New Triad concept; a 
strategic way ahead in pursuit of a more diverse set of offensive and 
defensive warfighting capabilities. We are active participants in all 
three legs of The New Triad: offensive nuclear and non-nuclear strike 
(including non-kinetic), passive and active defenses, and a defense 
infrastructure capable of building and sustaining all offensive and 
defensive elements, including the critical support areas of command and 
control and intelligence.
    Coupled with improved collaboration and shared global awareness, 
The New Triad concept will enable more precisely tailored global strike 
operations. With a full spectrum of nuclear, conventional and non-
kinetic options available, regional combatant commanders will be 
enabled to achieve specific local effects against high value targets in 
the context of the strategic objective.
    While we are confident in our ability to support effective global 
strike operations today, we must continue to evolve that capability to 
meet the demands of an uncertain tomorrow. For example, I intend to 
conduct experiments to better understand the value of weapon accuracy 
within a range of stressing environments. If modeling and testing 
confirm the value of such capability, this may lead to new thoughts on 
the balance between nuclear and conventional strike alternatives.
    The new responsibilities assigned to USSTRATCOM have required the 
command to broaden its Cold War focus from deterring nuclear or large-
scale conventional aggression to becoming a major contributor to the 
much broader defense strategy. Nuclear weapons; however, continue to be 
important, particularly for assuring allies and friends of U.S. 
security commitments, dissuading arms competition, deterring hostile 
leaders who are willing to accept great risk and cost, and for holding 
at risk those targets that cannot be addressed by other means. As 
steward of the nation's strategic nuclear deterrent, we have two 
specific areas of focus--rationalizing our nuclear forces, and 
providing for a relevant nuclear stockpile in the context of The New 
Triad. At the same time we will continue to evaluate and provide a 
range of options, both nuclear and non-nuclear, relevant to the threat 
and military operations.
    The New Triad concept presents an opportunity to reduce our 
reliance on nuclear weapons through the evaluation of alternative 
weapons, defensive capabilities and associated risk. It is our intent 
to have the upcoming Quadrennial Defense Review address nuclear issues, 
and the associated infrastructure, to determine transformation 
requirements for our nuclear capabilities in the 21st Century. We will 
look at rationalizing our nuclear forces as an element of the overall 
force structure and the proper tailoring of nuclear effects as part of 
the broad spectrum of national power. These assessments will be 
important to future operational planning as well as future budget 
plans.
    Space.--The importance of the space mission to our national 
security cannot be overstated. The U.S. economy, our quality of life, 
and our nation's defense are all linked to our freedom of action in 
space. For example, satellites are at the heart of routine financial 
activities such as simple automatic teller machine operations or 
complicated international currency and stock market transactions. The 
telecommunication industry is heavily vested in space. Commercial 
airliners, container ships, trains, trucks, police, fire departments 
and ambulances have also become highly dependent upon space-based 
global positioning systems to enhance their ability to safely deliver 
people, goods and services. The fact is, our dependency on space 
increases every day--a fact not lost on our adversaries. This growing 
national dependence on space-based and space-enabled capabilities 
establishes a true imperative to protect our space assets and our 
ability to operate freely in, and from, space.
    We currently enjoy an asymmetric advantage in space, but our 
adversaries are gaining on us. Our space support infrastructure is 
aging and, in some instances, on the verge of becoming obsolete. We 
will continue to face additional challenges as other nations exploit 
new technologies and capabilities in attempts to bridge the gap between 
them and us.
    The space environment itself is also rapidly changing. For example, 
the number of objects in-orbit increases every month, while the size of 
those objects decreases. This is challenging our space surveillance 
technology, developed in the latter half of the 20th Century, because 
it was not designed to detect or track the current magnitude of new, 
smaller objects, including micro-satellites. This increases the chances 
of collisions, which threatens our manned spaceflight program; opens 
the door for unwarned action against U.S. satellites by adversaries; 
and limits our ability to protect our space assets.
    We must do a better job of leveraging the capabilities of our space 
assets--in DOD, national and commercial systems. We must also maintain 
the ability to protect our own space assets and capabilities, both 
actively and passively, while denying our adversaries the military use 
of space--at the time and place of our choosing.
    In order to bring these elements of space control together, our 
near-term plan is to work with the various space programs to identify 
potential gaps and make sure existing information and applications are 
available and provided to authorized users on a global network. This 
plan will serve as the basis for a concept of operations to exploit 
information from our space assets, providing space situational 
awareness to the regional combatant commands.
    Distributed Operations.--For distributed, integrated operations, 
dominant situational awareness is an imperative--globally, regionally, 
and locally. It must exist across the full breadth and depth of 
operations, from planning and combat through post-conflict 
reconstruction, and ultimately, peacetime.
    For our forces to effectively employ collaborative capabilities and 
capitalize upon situational awareness, we must enable them to create 
pictures of the battlespace tailored to their specific needs--what we 
refer to as User Defined Operating Pictures. It is USSTRATCOM's job to 
provide the global capabilities to enhance situational awareness, 
facilitate collaborative planning, and provide a basic User Defined 
Operating Picture capability for all of the combatant commands.
    Many of the capabilities required for agile, distributed operations 
will be facilitated by space and enabled by a global information 
environment with ubiquitous, assured access to information, when and 
where any combatant commander needs it. To achieve this vision, the old 
mantra to provide information on a ``need to know'' basis, must be 
replaced by a ``need to share.'' Critical information that the 
warfighter didn't know existed, and the owner of the information didn't 
know was important, must be made available within a global information 
environment easily accessible to commanders at all levels.
    Interdependent Capabilities.--Our action plan for global command 
and control focuses on ensuring the all-source information needed for 
effective operations is available to all theaters. For the global 
Intelligence, Surveillance, Reconnaissance (ISR) mission, that also 
means developing integrated and persistent systems capable of 
supporting precision targeting. USSTRATCOM has the lead for 
coordinating global ISR capabilities and will be working closely with 
the regional combatant commanders, Joint Forces Command and the 
services to develop the associated strategy.
    The Department's net-centric global information services, currently 
in development, are essential to our global missions. These services 
will connect global and regional applications and improve both 
horizontal and vertical information integration.
    We are developing a prioritized plan for transitioning away from 
stove-piped legacy systems to capabilities that support broader 
information and applications access. Included in this plan are actions 
focused on leveraging existing legacy applications and data by making 
them more broadly accessible. Each user will be allowed the flexibility 
to select from any available data source, anywhere on the network, 
those objects most useful to them at any particular time. Additionally, 
any new data source will be available the moment it comes onto the 
network, rather than requiring a modification to existing systems, as 
is the case today. USSTRATCOM is an advocate for net-centricity. Our 
focus is on:
  --Capability to enable our ``internet-like'' environment and access 
        to information;
  --Realization of a high-bandwidth, ubiquitous communications backbone 
        to deliver information with high assurance and low latency; and
  --Robust information assurance required to defend our networks and 
        our information.
    Creating a collaborative structure is more than just designing and 
disseminating tools--it is also about changing human behavior. Our 
objective is a global, persistent, 24/7 collaborative environment--
comprising people, systems, and tools. Our future structure must 
support real time command and control at both the global and local 
levels as well as enable dynamic, adaptive planning and execution in 
which USSTRATCOM, the regional combatant commanders, and other 
geographically dispersed commanders can plan and execute operations 
together. Our collaborative environment must also provide the 
capability to ``connect all the dots''--enemy dots, friendly dots, 
neutral dots, contextual dots--all the dots that matter--as they 
appear, rather than wait for a post-event analysis when all of the 
different data stores can be opened. With improved collaboration and 
shared awareness, we can more effectively conduct operations using the 
full spectrum of capabilities to achieve desired, focused effects 
against high value targets.
    In that regard, we are actively assessing the currently available 
collaborative environment and processes and investigating potential 
pilot programs to encourage organizational information sharing to build 
trust in shared information. Fundamental to this issue is the 
establishment of data tagging standards and associated information 
assurance policies.
    With regard to sharing information, we are in some respects 
navigating uncharted waters. While the value of sharing information 
with allies, coalition partners and other Federal departments and 
agencies is well understood, sharing information with industry or other 
private sources presents proprietary, intellectual property and privacy 
concerns which are not well understood. Such information has the 
potential to be of great value to USSTRATCOM and the regional combatant 
commanders in accomplishing our missions. We will be attentive to the 
actions currently being taken throughout the Federal government in 
response to Executive Order 13356, ``Strengthening the Sharing of 
Terrorism Information To Protect Americans,'' which may provide us 
valuable insight and guidance in this sensitive area.

                    BUILDING AN ASYMMETRIC ADVANTAGE

    In addition to our role as steward of the nation's nuclear forces 
and guardian of global deterrence, USSTRATCOM now has the 
responsibility for working across regional boundaries to address 
threats in a global perspective. To achieve the asymmetric advantage we 
desire requires us to build the interdependent, collaborative, 
operational environment we've envisioned. It is our responsibility to 
provide global services and global context to the regional combatant 
commands and their deployed forces so we are collectively a more 
effective force--for warfighting, peace and all possible combinations 
of both.
    New Command Structure.--As the latest step in maturing our approach 
to fulfilling USSTRATCOM's global mission responsibilities we are 
implementing a new command structure. This structure is critical to the 
asymmetric advantage we seek, leveraging essential competencies of 
associated components and key supporting agencies through an 
distributed, collaborative environment.
    Rather than creating additional organizational layers, we are 
bringing existing commands and agencies under our global mission 
umbrella through the establishment of Joint Functional Component 
Commands. These interdependent Joint Functional Component Commands will 
have responsibility for the day to day planning and execution of our 
primary mission areas: space and global strike, intelligence 
surveillance and reconnaissance, network warfare, integrated missile 
defense and combating weapons of mass destruction.
    USSTRATCOM headquarters retains responsibility for nuclear command 
and control. Additionally, headquarters will provide strategic level 
integrated and synchronized planning to ensure full-spectrum mission 
accomplishment. USSTRATCOM will also advocate for the capabilities 
necessary to accomplish these missions.
    This construct will allow us to leverage key, in-place expertise 
from across the Department of Defense and make it readily available to 
all regional combatant commanders. Our vision is for the combatant 
commanders to view any Joint Functional Component Command as a means by 
which to access all of the capabilities resident in the USSTRATCOM 
global mission set. Anytime a Combatant Commander queries one of our 
component commands, they will establish strategic visibility across our 
entire structure through our collaborative environment. The fully 
integrated response USSTRATCOM provides should offer the Combatant 
Commander greater situational awareness and more options than 
originally thought available. Specific Joint Functional Component 
Command responsibilities include:
  --Space and Global Strike.--The Commander STRATAF (8th Air Force) 
        will serve as the Joint Functional Component Commander for 
        Space and Global Strike. This component will integrate all 
        elements of military power to conduct, plan, and present global 
        strike effects and also direct the deliberate planning and 
        execution of assigned space operation missions. For plans not 
        aligned with a specific mission set, the Joint Functional 
        Component Command for Space and Global Strike is tasked to work 
        in close coordination with USSTRATCOM headquarters as the lead 
        component responsible for the integration and coordination of 
        capabilities provided by all other Joint Functional Component 
        Commands.
  --Intelligence Surveillance and Reconnaissance.--The Director, 
        Defense Intelligence Agency will be dual-hatted to lead the 
        Intelligence, Surveillance, and Reconnaissance Joint Functional 
        Component Command. This component is responsible for 
        coordinating global intelligence collection to address DOD 
        worldwide operations and national intelligence requirements. It 
        will serve as the epicenter for planning, execution and 
        assessment of the military's global Intelligence, Surveillance, 
        and Reconnaissance operations; a key enabler to achieving 
        global situational awareness.
  --Network Warfare.--The Director, National Security Agency will also 
        be dual-hatted to lead the Network Warfare Joint Functional 
        Component Command. This component will facilitate cooperative 
        engagement with other national entities in computer network 
        defense and offensive information warfare as part of our global 
        information operations.
      Our coordinated approach to information operations involves two 
        other important supporting commands. The Director, Defense 
        Information Systems Agency also heads the Joint Task Force for 
        Global Network Operations. This organization is responsible for 
        operating and defending our worldwide information networks, a 
        function closely aligned with the efforts of the Joint 
        Functional Component Command for Network Warfare. Additionally, 
        the Commander, Joint Information Operations Center coordinates 
        the non-network related pillars of information operations: 
        psychological operations, electronic warfare, operations 
        security and military deception. Both the Joint Task Force for 
        Global Network Operations and the Commander, Joint Information 
        Operations Center will be full members of the USSTRATCOM 
        distributed, collaborative environment.
  --Integrated Missile Defense.--The Commander, Army Space and Missile 
        Defense Command will head the Integrated Missile Defense Joint 
        Functional Component Command. This component will be 
        responsible for ensuring we meet USSTRATCOM's Unified Command 
        Plan responsibilities for planning, integrating, and 
        coordinating global missile defense operations and support. It 
        will conduct the day-to-day operations of assigned forces; 
        coordinating activities with associated combatant commands, 
        other STRATCOM Joint Functional Components and the efforts of 
        the Missile Defense Agency. The Joint Functional Component 
        Command for Integrated Missile Defense is a key element of the 
        ``defenses'' leg of The New Triad concept.
  --Combating Weapons of Mass Destruction.--The Secretary of Defense 
        recently assigned USSTRATCOM responsibility for integrating and 
        synchronizing DOD's efforts for combating weapons of mass 
        destruction. As this initiative is in its very formative 
        stages, we have yet to formalize any specific componency 
        structure. However, we anticipate establishing a formal 
        relationship with the Defense Threat Reduction Agency as an 
        initial starting point.
    This new componency structure is in its infancy and will take 
several months to fully realize. There are detailed issues to work 
through, including the proper distribution of subject matter expertise 
and an assessment of expanding relationships with other U.S. Government 
departments.
    A final element of our evolving organizational structure involves 
developing relationships with the private sector to build upon efforts 
under the Partnership to Defeat Terrorism. This important partnership 
with the private sector supports many of our national objectives and 
crosses into relatively uncharted territory.
  --Partnership to Defeat Terrorism.--The United States has achieved 
        success in the Global War on Terrorism by attacking terrorist 
        infrastructure, resources and sanctuaries. Nevertheless, our 
        adversaries continue to plan and conduct operations driven by 
        their assessment of our vulnerabilities. The main vulnerability 
        requiring our constant vigilance is the nation's economy, and 
        one need look no further than the economic aftershock 
        attributed to the 9/11 terrorist attacks to affirm this 
        assertion. The risk is accentuated given the global 
        underpinnings of our economic structure. Even a small-scale 
        terrorist attack against a lower tier provider in a distant 
        land can have wide-ranging and pervasive economic implications.
      Given the evolving understanding of terrorist's use of global 
        processes, the Partnership to Defeat Terrorism was created to 
        intercede on behalf of combatant commanders, among others, and 
        positively affect outcomes through connections with the private 
        sector. Since November 2001, the Partnership to Defeat 
        Terrorism has successfully combined private sector global 
        processes with other elements of national power to help fight 
        global terrorism as part of USSTRATCOM's global mission 
        responsibilities. This fruitful relationship with the private 
        sector has proven effective on a number of occasions and has 
        garnered the support of influential leaders both within and 
        outside government.
      Yet, the Partnership to Defeat Terrorism is somewhat of an ad hoc 
        process based on trusted relationships. As such, the value of 
        the program is directly related to the availability of the 
        participants. USSTRATCOM was recently contacted by a group of 
        people from various non-military sectors, advocating the 
        creation of a working group to formalize this ad hoc program to 
        begin planning a more permanent approach for the long-term.
      On a strategic level, the value of such an effort is the open 
        realization that all elements of national power, which have not 
        traditionally operated in a synchronized and coordinated role 
        in National Security, understand the urgent need for their 
        involvement.
    Full realization of the benefits inherent in the distributed, 
interdependent organizational structure described above requires an 
effective collaborative operation. A true collaborative environment 
provides us the asymmetric advantage necessary to deter and defeat the 
agile adversaries we face in the 21st Century environment. In the 
future, these skills will take on even greater importance as we broaden 
our partner base within the U.S. government, with coalition partners, 
commercial partners, academia and others, including non-government 
organizations.

                   ACHIEVING THE STRATEGIC IMPERATIVE

    Agile, responsive distributed operations, enabled by meaningful 
information exchange, shared objectives and shared situational 
awareness, are key to the successful performance of USSTRATCOM's global 
missions. We have assessed the capability gaps in our global mission 
areas and have developed action plans, working with our partner 
commands, to improve our collective ability to carry out operations at 
all levels.
    USSTRATCOM's strategy is focused on:
  --Stewardship of the strategic nuclear stockpile;
  --Defending against asymmetric approaches used by our adversaries, 
        including weapons of mass destruction;
  --Responding effectively in a rapidly changing combat operations 
        environment;
  --Achieving prompt, predictable precision operations;
  --Coordinating with U.S. and private sector partners in a 
        collaborative environment;
    Implementing this strategy relies on new and enhanced capabilities, 
including:
  --Dominant situational awareness,
  --A ubiquitous, assured, global information environment,
  --Dynamic, persistent, trustworthy collaborative planning,
  --User Defined Operating Pictures, using distributed, globally 
        available information, and
  --A culture that embraces ``need to share'' rather than ``need to 
        know.''
    We are not there yet. Working with our partner commands, we have 
developed plans to improve our global capabilities. We need your 
continued support to deliver the capabilities needed to combat the 
threats of the 21st Century. We need your support for:
  --Pursuit of high capacity, internet-like capability to extend the 
        Global Information Grid to deployed/mobile users worldwide;
  --Adoption of data tagging standards and information assurance 
        policies to increase government-wide trusted information 
        sharing;
  --Technology experiments to enhance our understanding of the value of 
        accuracy and stressing environments for current and future 
        weapons.
    USSTRATCOM recognizes what has to be done to be a global command in 
support of the warfighter. We are aggressively moving out on actions to 
ensure USSTRATCOM fulfills our full set of global responsibilities, 
supporting our national security needs in peace and in war.
    Thank you for your continued support.

    Senator Stevens. Thank you.
    General Obering, I was pleased to visit Fort Greely last 
month and delighted to have you here today.

         STATEMENT OF LIEUTENANT GENERAL HENRY A. OBERING, III

    General Obering. Thank you very much. Good morning, Mr. 
Chairman, Senator Inouye, Senator Cochran. It is a privilege to 
be here this morning. As you said, we have had many 
accomplishments and a few disappointments since my predecessor 
last addressed this subcommittee, but overall the missile 
defense program remains on track.
    Threats from weapons of mass destruction and ballistic 
missiles continue to present grave security concerns. Now, to 
deal with these, we are developing and incrementally fielding a 
joint, integrated, and layered ballistic missile defense system 
to defend the United States, our deployed forces, our allies, 
and our friends against all ranges of ballistic missiles. We 
have put the foundation of this system in place today.
    We are requesting $7.8 billion in fiscal year 2006, or 
roughly $1 billion less than our fiscal year 2005 request. This 
funding balances continued testing and system improvement with 
the fielding and sustainment of the long-range ground-based 
midcourse defense components, our short- to intermediate-range 
defense involving the Aegis ships with their interceptors, and 
the supporting radars, command, control, battle management, and 
communication capabilities.
    Now, the successful prototype interceptor test that we 
conducted in 2001 and 2002 gave us the confidence to proceed 
with the development and fielding of the system that relies 
primarily on the hit-to-kill technologies. While our testing 
has continued to build our confidence in the system, long-range 
interceptor aborts in our last recent test have been very 
disappointing. These aborts were due to a minor software 
problem in the first test and a ground support arm that failed 
to retract in the second. While these failures do not threaten 
the basic viability of the system, I have taken strong action 
to address them, which I have outlined in my written statement.
    We remain confident in the system's basic design, its hit-
to-kill effectiveness, and its inherent operational capability. 
Nevertheless, neither you, the American public, nor our enemies 
will believe in our ground-based Intercontinental Ballistic 
Missile (ICBM) defense until we demonstrate its effectiveness 
by successfully conducting additional operationally realistic 
flight tests.
    In planning our future test program, the Director of 
Operational Test and Evaluation and I have jointly approved an 
integrated master test plan effective through 2007. The plan 
includes combined developmental and operational testing with 
criteria for operational realism incorporated. Our pace in 
executing this flight test program for the long-range system 
will depend, however, on the recommendations of a mission 
readiness task force which I chartered and those 
recommendations are due in the coming weeks.
    We are on track with our initial fielding of the ground-
based and sea-based block 2004 interceptors, sensors, and the 
command, control, battle management, and communications 
components. Working closely with our warfighter partners, we 
have certified missile defense crews and put in place logistic 
support infrastructure and operational support centers. We have 
been in a shakedown period, as General Cartwright said, since 
last October to get us to the point where we could use this 
developmental system more routinely in an operational mode.
    Over the next decade, we will move toward greater sensor 
and interceptor robustness and mobility while adding a boost-
phase defense layer. We will continue development, testing, 
fielding, and support for the ground-based midcourse defense 
and the Aegis ballistic missile defense elements. We are also 
upgrading additional early warning radars and developing two 
new sensors, a very powerful sea-based X-band radar and a 
transportable X-band radar for forward basing. The terminal 
high altitude area defense program will resume flight testing 
this year and will continue into fiscal year 2006. In 2007, we 
plan to improve our sensor capabilities and coverage with the 
deployment of another forward-based X-band radar and the launch 
of two space tracking and surveillance system test bed 
satellites.
    At the moment, we are preserving decision flexibility with 
respect to our boost-phase defense programs. The airborne laser 
has recently enjoyed success, achieving first light and first 
flight milestones, but many challenges remain and we still need 
an alternative. The kinetic energy interceptor provides that 
alternative, and I have restructured that program to focus on 
the successful demonstration of a high acceleration booster 
flight in 2008. If successful, it could also provide us an 
alternative mobile approach for our next generation boosters.
    Finally, we have been working closely with a number of our 
allied and friendly governments to make missile defense a key 
element of our security relationships. We have signed framework 
agreements with Japan, the United Kingdom, and Australia, and 
are pursuing closer collaboration with Russia.

                           PREPARED STATEMENT

    In closing, Mr. Chairman, I want to thank this subcommittee 
for its continued tremendous support. I also want to thank the 
thousands of dedicated and talented Americans working on the 
missile defense program. I believe that we are on the right 
track to deliver the unprecedented capabilities that we will 
need to close off a major avenue of vulnerability for this 
Nation.
    Thank you, and I look forward to your questions.
    [The statement follows:]

     Prepared Statement of Lieutenant General Henry A. Obering, III

    Good morning, Mr. Chairman, Members of the Committee. It is an 
honor to be here today to present the Department of Defense's fiscal 
year 2006 Missile Defense Program and budget. The Missile Defense 
Agency mission remains one of developing and incrementally fielding a 
joint, integrated, and multilayered Ballistic Missile Defense system to 
defend the United States, our deployed forces, and our allies and 
friends against ballistic missiles of all ranges by engaging them in 
the boost, midcourse, and terminal phases of flight.
    Our program, reflected in the fiscal year 2006 budget submission, 
is structured to balance the early fielding elements of this system 
with its continued steady improvement through an evolutionary 
development and test approach. The budget also balances our 
capabilities across an evolving threat spectrum that includes rogue 
nations with increasing ballistic missile expertise.
    We are requesting $7.8 billion to support our program of work in 
fiscal year 2006, which is approximately $1 billion less than the 
fiscal year 2005 request. About $1.4 billion covers the continued 
fielding and sustainment of our block increments of long-range ground-
based midcourse defense components; our short- to intermediate-range 
defense involving Aegis ships with their interceptors; as well as all 
of the supporting radars, command, control, battle management and 
communication capabilities. About $6.4 billion will be invested in the 
development foundation for continued testing and evolution of the 
system.
    To provide the context for our budget submission, I would like to 
review what we have accomplished over the past year. And while I 
believe the Missile Defense Program is on the right track to deliver 
multilayered, integrated capabilities to counter current and emerging 
ballistic missile threats, I am planning to make some program 
adjustments in light of our two recent flight test failures.
    I also will explain the rationale behind our testing and fielding 
activities and address the next steps in our evolutionary ballistic 
missile defense program.

                   THE EVOLVING SECURITY ENVIRONMENT

    The threat we face from proliferating and evolving ballistic 
missile systems and associated technologies and expertise continues 
unabated. There were nearly 100 foreign ballistic missile launches 
around the world in 2004. This is nearly double the number conducted in 
2003 and slightly greater than the number of launches in 2002. More 
than 60 launches last year involved short-range ballistic missiles, 
over ten involved medium-range missiles, and nearly twenty involved 
land- and sea-based long-range ballistic missiles.
    Operations Desert Storm (1991) and Iraqi Freedom (2003) 
demonstrated that missile defenses must be integrated into our regional 
military responses if we are to provide adequate protection of 
coalition forces, friendly population centers, and military assets. We 
must expect that troops deployed to regional hotspots will continue to 
encounter increasingly sophisticated ballistic missile threats.
    Nuclear-capable North Korea and nuclear-emergent Iran have shown 
serious interest in longer-range missiles. They underscore the severity 
of the proliferation problem. Our current and near-term missile defense 
fielding activities are a direct response to these dangers. There are 
also other ballistic missile threats to the homeland that we must 
address in the years ahead, including the possibility of an off-shore 
launch.
    We have had recent experience with tragic hostage situations 
involving individuals, and we have witnessed how the enemy has 
attempted to use hostages to coerce or blackmail us. Imagine now an 
entire city held hostage by a state or a terrorist organization. This 
is a grim prospect, and we must make every effort to prevent it from 
occurring. Any missile carrying a nuclear or biological payload could 
inflict catastrophic damage. I believe the ability to protect against 
threats of coercion and actively defend our forces, friends and allies, 
and homeland against ballistic missiles will play an increasingly 
critical role in our national security strategy.
Missile Defense Approach--Layered Defense
    We believe that highly integrated layered defenses will improve the 
chances of engaging and destroying a ballistic missile and its payload. 
This approach to missile defense also makes deployment of 
countermeasures much more difficult. If the adversary has a successful 
countermeasure deployment or tactic in the boost phase, for example, he 
may play right into the defense we have set up in midcourse. Layered 
defenses provide defense in depth and create an environment intended to 
frustrate an attacker. The elements of this system play to one 
another's strengths while covering one another's weaknesses.
    With the initial fielding last year of the Ground-based Midcourse 
Defense and Aegis surveillance and track capabilities of this 
integrated system, we are establishing a limited defensive capability 
for the United States against a long-range North Korean missile threat. 
At the same time, we are building up our inventory of mobile 
interceptors to protect coalition forces, allies and friends against 
shorter-range threats. With the cooperation of our allies and friends, 
we plan to evolve this defensive capability to improve defenses against 
all ranges of threats in all phases of flight and expand it over time 
with additional interceptors, sensors, and defensive layers.
    Since we cannot be certain which specific ballistic missile threats 
we will face in the future, or from where those threats will originate, 
our long-term strategy is to strengthen and maximize the flexibility of 
our missile defense capabilities. As we proceed with this program into 
the next decade, we will move towards a missile defense force structure 
that features greater sensor and interceptor mobility. In line with our 
multilayer approach, we will expand terminal defense protection and 
place increasing emphasis on boost phase defenses, which today are 
still early in development.
Initial Fielding of Block 2004
    Since my predecessor last appeared before this committee, we have 
made tremendous progress and have had a number of accomplishments. We 
also came up short of our expectations in a few areas.
    We stated last year that, by the end of 2004, we would begin 
fielding the initial elements of our integrated ballistic missile 
defense system. We have met nearly all of our objectives. We have 
installed six ground-based interceptors in silos at Fort Greely, Alaska 
and two at Vandenberg Air Force Base in California. We completed the 
upgrade of the Cobra Dane radar in Alaska and the modification of seven 
Aegis ships for long-range surveillance and tracking support. These 
elements have been fully connected to the fire control system and are 
supported by an extensive command, control, battle management and 
communications infrastructure. In addition, we have put in place the 
required logistics support infrastructure and support centers.
    Since October 2004, we have been in a ``shakedown'' or check-out 
period similar to that used as part of the commissioning of a U.S. Navy 
ship before it enters the operational fleet. We work closely with U.S. 
Strategic Command and the Combatant Commanders to certify missile 
defense crews at all echelons to ensure that they can operate the 
ballistic missile defense system if called upon to do so. We have 
exercised the command, fire control, battle management and 
communication capabilities critical to the operation of the system. The 
Aegis ships have been periodically put on station in the Sea of Japan 
to provide long-range surveillance and tracking data to our battle 
management system. We have fully integrated the Cobra Dane radar into 
the system, and it is ready for operational use even as it continues to 
play an active role in our test program by providing data on targets of 
opportunity. Finally, we have executed a series of exercises with the 
system that involves temporarily putting the system in a launch-ready 
state. This has enabled us to learn a great deal about the system's 
operability. It also allows us to demonstrate our ability to transition 
from development to operational support and back. This is very 
important since we will continue to improve the capabilities of the 
system over time, even as we remain ready to take advantage of its 
inherent defensive capability should the need arise.
Completing Block 2004
    Today we remain basically on track with interceptor fielding for 
the Test Bed. We have recovered from the 2003 propellant accident, 
which last year affected the long-range ground-based interceptors as 
well as the Aegis Standard Missile-3 (SM-3) and Terminal High Altitude 
Area Defense, or THAAD, booster production. We should have ten more 
interceptors emplaced in Alaska by December of this year. In October, 
we received the first Standard Missile-3 for deployment aboard an Aegis 
ship. To date, we have five of these interceptors with a total of eight 
scheduled to be delivered by the end of the year. By then, we will also 
have outfitted two Aegis cruisers with this engagement capability. So, 
in addition to providing surveillance and tracking support to the 
integrated ballistic missile defense system, Aegis will soon provide a 
flexible sea-mobile capability to defeat short- to medium-range 
ballistic missiles in their midcourse phase.
    Our sensor program is also on track. The Beale radar in California 
is receiving final software upgrades this spring and will be fully 
integrated into the system. We are now testing a transportable X-band 
radar, which can be forward-deployed this year to enhance our 
surveillance and tracking capabilities. Our most powerful sensor 
capability, the Sea-Based X-band Radar (SBX) will be traversing the 
Atlantic and Pacific Oceans this year, on its way to Adak, Alaska, 
where it will be ported. This radar is so capable that, if it were 
sitting in Chesapeake Bay, it could detect a baseball-sized object in 
space over San Francisco. This sea-mobile midcourse radar will allow us 
to increase the complexity of our tests by enabling different intercept 
geometries. And when we deploy it in the Pacific Ocean, it also will 
have an inherent operational capability against threats from Asia. 
Finally, the RAF Fylingdales early warning radar in the United Kingdom 
will be fully integrated for missile defense purposes by early 2006 and 
will provide the initial sensor coverage needed against Middle East 
threats.
    BMD elements will remain part of the system Test Bed even after we 
field them for initial capability. However, the Missile Defense Agency 
does not operate the BMD system. Our job is to provide a militarily 
useful capability to the warfighter. Because the BMD system is 
integrated and involves different Services, the MDA will continue to 
manage system configuration to ensure adequate integration of new 
components and elements and the continued smooth operation of the 
system.
    For these reasons, Congress mandated the Agency to maintain 
configuration control over PAC-3 and the Medium Extended Air Defense 
System (MEADS) following their transfer to the Army. Regarding the 
transition of the system elements, we use several models. Each 
transition, to include time and method of transfer, will be unique. In 
some cases, it may not be appropriate to transfer a BMD system element 
to a Service. The Sea-Based X-band Radar, for example, will likely 
remain a Missile Defense Agency Test Bed asset and be made available 
for operational use as appropriate. In other words, the Services and 
the Missile Defense Agency will have shared responsibilities and will 
continue to work with the Secretary of Defense, the Services, and the 
Component Commanders to arrange appropriate element transfer on a case 
by case basis.
Building Confidence through Spiral Testing
    The development and fielding of Block 2004 was initiated based on 
the confidence we built in our test program between 2000 and 2002. We 
successfully conducted four out of five intercept tests using 
prototypes of the ground-based interceptors we have in place today 
against long-range ballistic missile targets. In addition, in 2002 and 
2003, we successfully conducted three intercept tests against shorter-
range targets using an earlier version of the sea-based Aegis SM-3 
interceptors we are deploying today. These tests demonstrated the basic 
viability and effectiveness of a system that relies primarily on hit-
to-kill technologies to defeat in-flight missiles. In fact, we had 
learned as much as we could with the prototypes and decided it was time 
to restructure the program to accelerate the testing of the initial 
operational configurations of the system elements.
    In 2003 and 2004, we had three successful flight tests of the 
operational long-range booster now emplaced in the silos in Alaska and 
California. The booster performed exactly as predicted by our models 
and simulations. In addition, between 2002 and 2004, we successfully 
executed 58 flight tests, 67 ground tests, simulations, and exercises, 
all of which have continued to bolster our confidence in the basic 
ballistic missile defense capabilities. In the past year, however, we 
had several concerns with quality control and, as a result, executed 
only two long-range flight tests since last spring.
    The interceptor launch aborts in Integrated Flight Test (IFT)-13C 
last December and IFT-14 this past February were disappointments, but 
they were not, by any measure, serious setbacks. The anomaly that 
occurred in IFT-13C, in fact, is a very rare occurrence. As the 
interceptor prepares to launch, its on-board computer does a health and 
status check of various components. In that built-in test, interceptor 
operations were automatically terminated because an overly stringent 
parameter measuring the communications rate between the flight computer 
and its guidance components was not met. The launch control system 
actually worked as it was designed when it shut the interceptor down. A 
simple software update to relax that parameter corrected the problem. 
The fix was verified during subsequent ground tests and the next launch 
attempt. We did enjoy some success in the test. We successfully tracked 
the target and fed that information into the fire control system, a 
process that allowed us to successfully build a weapons task plan that 
we then loaded and, which was accepted, into the interceptor's 
computer.
    In February we used the same interceptor to attempt another flight 
test. Again, the target successfully launched. The interceptor 
successfully powered up and worked through built-in test procedures and 
was fully prepared to launch. Again, the system successfully tracked 
the target and fed the information to the fire control system, which 
generated a weapons task plan accepted by the interceptor's computer. 
This time, however, a piece of ground support equipment did not 
properly clear, and the launch control system did not issue a launch 
enable command.
    Mr. Chairman, I can assure you that while these test aborts were 
major disappointments, they were not major technical setbacks. We 
maintain our confidence in the system's basic design, its hit-to-kill 
effectiveness, and its inherent operational capability. Because of our 
recent test launch aborts, I chartered an independent team to review 
our test processes, procedures and management. They reported their 
findings to me last month. They indicated that we had successfully 
demonstrated the hit-to-kill technology and achieved a major national 
accomplishment in fielding initial defensive capabilities. The team 
described the rapid development and initial deployment of the system as 
comparable to other major military efforts, such as the initial 
deployment of the Minuteman and Polaris ballistic missiles.
    With the basic functionality demonstrated, the independent review 
team believed that we should now enter a ``Performance and Reliability 
Verification Phase,'' in which mission assurance becomes the number one 
objective. They noted that our system reliability is based on multiple 
intercept attempts per engagement, whereas our system testing focuses 
on the performance of a single interceptor. They also observed that our 
flight testing has a strategic significance well beyond that normally 
associated with military systems' development.
    The team recommended specific improvements in five areas. First, 
increase rigor in the flight test certification process, to include the 
addition of a concurrent and accountable independent assessment of test 
readiness. Second, strengthen system engineering by tightening 
contractor configuration management, enforcing process and workmanship 
standards, and ensuring proper specification flow down. Third, add 
ground test units and expand ground qualification testing. Fourth, hold 
prime contractor functional organizations (such as engineering, quality 
and mission assurance experts) accountable for supporting the program. 
And finally, ensure program executability by stabilizing baselines and 
establishing event-driven schedules.
    I also named the current Aegis BMD program director, Rear Admiral 
Kate Paige, as the Agency's Director of Mission Readiness with full 
authority to implement the corrections needed to ensure return to a 
successful flight test program. We have pursued a comprehensive and 
integrated approach to missile defense testing under the current 
program and are gradually making our tests more complex. Prior to the 
establishment of the Mission Readiness Task Force, we had planned a 
very aggressive test program for the next two years. That test plan 
involved flying the ground-based interceptor to gain confidence in our 
corrections and conducting two more long-range interceptor tests this 
calendar year. These flight tests included: an engagement sequence 
using an operationally configured Aegis ship to provide tracking 
information to a long-range interceptor and an engagement sequence 
using an interceptor launched from an operational site, Vandenberg; 
tracking information provided by an operational radar at Beale; and a 
target launched out of the Kodiak Launch Complex in Alaska. We also 
planned to fly targets across the face of the Cobra Dane radar in the 
Aleutians and Beale in California. However, all follow-on GMD flight 
tests are on hold pending the implementation of the Independent Review 
Team recommendations and a return to flight recommendation by the 
Mission Readiness Task Force.
    Missile defense testing has evolved, and will continue to evolve, 
based on results. We are not in a traditional development, test, and 
production mode where we test a system, then produce hundreds of units 
without further testing. We will always be testing and improving this 
system, using a spiral testing approach that cycles results into our 
spiral development activities. That is the very nature of spiral 
development. This approach also means fielding test assets in 
operational configurations. This dramatically reduces time from 
development to operations, which is critical in a mission area where 
this nation has been defenseless. Nevertheless, neither you, the 
American public nor our enemies will believe in our ground-based ICBM 
defense until we demonstrate its effectiveness by successfully 
conducting additional operationally realistic flight tests.
    In fiscal year 2006, we are adding new test objectives and using 
more complex scenarios. Also, war fighter participation will grow. We 
plan to execute four flight tests using the long-range interceptor 
under a variety of flight conditions and, for the first time, use 
tracking data from the sea-based X-band radar.
    In terms of our sea-based midcourse defense element, this past 
February, we successfully used a U.S. Navy Aegis cruiser to engage a 
short-range target ballistic missile. This test marked the first use of 
an operationally configured Aegis SM-3 interceptor. In the last three 
Aegis ballistic missile defense intercept flight tests, we 
incrementally ratcheted up the degree of realism and reduced testing 
limitations to the point where we did not notify the operational ship's 
crew of the target launch time and they were forced to react to a 
dynamic situation. This year, we will conduct two more tests using 
Aegis as the primary engagement platform. In fiscal year 2006, Aegis 
ballistic missile defense will use upgraded software and an advanced 
version of the SM-3 interceptor to engage a variety of short- and 
medium-range targets, including targets with separating warheads. We 
also plan to work with Japan to test the engagement performance of the 
SM-3 nosecone developed in the United States/Japan Cooperative Research 
project.
    Four Missile Defense Integration Exercises involving warfighter 
personnel will test hardware and software in the integrated system 
configuration to demonstrate system interoperability. War games also 
are an integral part of concept of operations development and 
validation. Four integrated missile defense wargames in fiscal year 
2006 will collect data to support characterization, verification, and 
assessment of the ballistic missile defense system with respect to 
operator-in-the-loop planning and the exchange of information in the 
system required for successful development and system operation.
    In addition to having laid out a very ambitious test plan, we are 
working hand-in-hand with the warfighter community and the independent 
testing community. We have more than one hundred people from the test 
community embedded in our program activities, and they are active in 
all phases of test planning, execution, and post-test analysis. We meet 
with them at the senior level on a weekly basis, and they help us 
develop and approve our test plans. All data from testing is available 
to all parties through a Joint Analysis Team and are used to conduct 
independent assessments of the system.
    The Missile Defense Agency and Director, Operational Test & 
Evaluation have completed and jointly approved an Integrated Master 
Test Plan, effective through 2007. The plan includes tests that combine 
developmental and operational testing to reduce costs and increase 
testing efficiency. Within our range safety constraints, we are 
committed to increasing the operational aspects as I stated earlier. 
This accumulated knowledge helps inform the assessment of operational 
readiness.
Building the Next Increment--Block 2006
    In building the Ballistic Missile Defense program of work within 
the top line budget reductions I mentioned earlier, we followed several 
guiding principles. To keep ahead of the rogue nation threats, we 
recognized the need to continue holding to our fielding commitments to 
the President for Blocks 2004 and 2006, including investment in the 
necessary logistics support. We also knew that we must prepare for 
asymmetric (e.g., the threat from off-shore launches) and emerging 
threat possibilities as well in our fielding and development plans.
    In executing our program we are following a strategy to retain 
alternative development paths until capability is proven--a knowledge-
based funding approach. This is a key concept in how we are executing 
our development program. We have structured the program to make 
decisions as to what we will and will not fund based upon the proven 
success of each program element. The approach involves tradeoffs to 
address sufficiency of defensive layers--boost, midcourse, terminal; 
diversity of basing modes--land, sea, air and space; and considerations 
of technical, schedule and cost performance.
    The funding request for fiscal year 2006 will develop and field the 
next increment of missile defense capability to improve protection of 
the United States from the Middle East, expand coverage to allies and 
friends, improve our capability against short-range threats, and 
increase the resistance of the integrated system to countermeasures. We 
are beginning to lay in more mobile, flexible interceptors and 
associated sensors to meet threats posed from unanticipated launch 
locations, including threats launched off our coasts.
    For midcourse capability against the long-range threat, the Ground-
based Midcourse Defense (GMD) element budget request is about $2.3 
billion for fiscal year 2006 to cover continued development, ground and 
flight testing, fielding and support. This request includes up to ten 
additional ground-based interceptors, their silos and associated 
support equipment and facilities as well as the long-lead items for the 
next increment. It also continues the upgrade of the Thule radar 
station in Greenland.
    To address the short- to intermediate-range threat, we are 
requesting approximately $1.9 billion to continue development and 
testing of our sea-based midcourse capability, or Aegis BMD, and our 
land-based THAAD element. We will continue purchases of the SM-3 
interceptor and the upgrading of Aegis ships to perform the BMD 
mission. By the end of 2007 we should have taken delivery of up to 28 
SM-3 interceptors for use on three Aegis cruisers and eight Aegis 
destroyers. This engagement capability will improve our ability to 
defend our deployed troops and our friends and allies. Six additional 
destroyers, for a total of 17 Aegis ships, will be capable of 
performing the surveillance and track mission.
    THAAD flight testing begins this year with controlled flight tests 
as well as radar and seeker characterization tests and will continue 
into fiscal year 2006, when we will conduct the first high endo-
atmospheric intercept test. We are working toward fielding the first 
THAAD unit in the 2008-2009 timeframe with a second unit available in 
2011.
    We will continue to roll out sensors that we will net together to 
detect and track threat targets and improve discrimination of the 
target suite in different phases of flight. In 2007, we will deploy a 
second forward-based X-band radar. We are working towards a 2007 launch 
of two Space Tracking and Surveillance System (STSS) test bed 
satellites. These test bed satellites will demonstrate closing the fire 
control loop and the value of STSS tracking data. We are requesting 
approximately $521 million in fiscal year 2006 to execute this STSS and 
BMDS Radar work.
    All of these system elements must be built on a solid command, 
control, battle management and communications foundation that spans 
thousands of miles, multiple time zones, hundreds of kilometers in 
space and several Combatant Commands. This foundation allows us to mix 
and match sensors, weapons and command centers to dramatically expand 
our detection and engagement capabilities over that achieved by the 
system's elements operating individually. In fact, without this 
foundation we cannot execute our basic mission. That is why the 
Command, Control, Battle Management and Communications program is so 
vital to the success of our integrated capability.
    Building a single integrated system of layered defenses has forced 
us to transition our thinking to become more system-centric. We 
established the Missile Defense National Team to solve the demanding 
technical problems involved in this unprecedented undertaking. No 
single contractor or government office has all the expertise needed to 
design and engineer an integrated and properly configured BMD system. 
The National Team brings together the best, most experienced people 
from the military and civilian government work forces, industry, and 
the federal laboratories to work aggressively and collaboratively on 
one of the nation's top priorities. However, integrating the existing 
elements of the Ballistic Missile Defense System proved to be very 
challenging. Today, we have streamlined the team's activities and 
realigned their priorities to focus on providing the detailed systems 
engineering needed for a truly integrated capability. The team has now 
gained traction and is leading the way to building the system this 
nation will need for the future.
Moving Toward the Future--Block 2008 and Beyond
    There is no silver bullet in missile defense, and strategic 
uncertainty could surprise us tomorrow with a more capable adversary. 
So it is important to continue our aggressive parallel paths approach 
as we build this integrated, multilayered defensive system. There are 
several important development efforts funded in this budget.
    We are preserving decision flexibility with respect to our boost 
phase programs until we understand what engagement capabilities they 
can offer. We have requested approximately $680 million for these 
activities in fiscal year 2006.
    In fiscal year 2006 we are beginning the integration of the high-
power laser component of the Airborne Laser (ABL) into the first ABL 
weapon system test bed and will initiate ground-testing. Following that 
we will integrate the high-power laser into the aircraft and conduct a 
campaign of flight tests, including lethal shoot-down of a series of 
targets. We still have many technical challenges with the Airborne 
Laser, but with the recent achievements of first light and first flight 
of the aircraft with its beam control/fire control system, I am pleased 
with where we are today. We have proven again that we can generate the 
power and photons necessary to have an effective directed energy 
capability. An operational Airborne Laser could provide a valuable 
boost phase defense capability against missiles of all ranges. The 
revolutionary potential of this technology is so significant, that it 
is worth both the investment and our patience.
    We undertook the Kinetic Energy Interceptor boost-phase effort in 
response to a 2002 Defense Science Board Summer Study recommendation to 
develop a terrestrial-based boost phase interceptor as an alternative 
to the high-risk Airborne Laser development effort. We will not know 
for two or three years, however, whether either of these programs will 
be technically viable. With the recent successes we have had with ABL, 
we are now able to fine-tune our boost-phase development work to better 
align it with our longer-term missile defense strategy of building a 
layered defense capability that has greater flexibility and mobility.
    We have established the Airborne Laser as the primary boost phase 
defense element. We are reducing our fiscal year 2006 funding request 
for the KEI effort and have restructured that activity, building in a 
one-year delay, in order to focus near-term efforts on demonstrating 
key capabilities and reduce development risks. We restructured the 
Kinetic Energy Interceptor activity as risk mitigation for the Airborne 
Laser and focused it on development of a land-based mobile, high-
acceleration booster. It has always been our view that the KEI booster, 
which is envisioned as a flexible and high-performance booster capable 
of defending large areas, could be used as part of an affordable, 
competitive next-generation replacement for our midcourse or even 
terminal interceptors. Decisions on sea-based capability and 
international participation in this effort have been deferred until the 
basic KEI technologies have been demonstrated. The restructured Kinetic 
Energy Interceptor activity will emphasize critical technology 
demonstrations and development of a mobile, flexible, land-based ascent 
and midcourse engagement capability around 2011, with a potential sea-
based capability by 2013. A successful KEI mobile missile defense 
capability also could improve protection of our allies and friends.
    We are requesting $82 million in fiscal year 2006 to continue 
development of the Multiple Kill Vehicle (MKV). MKV is a generational 
upgrade to ground-based midcourse interceptors to increase their 
effectiveness in the presence of countermeasures. We look forward to 
the first intercept attempt using MKV sometime in 2008.
    Our flexible management structure allows us to adjust development 
activities based on demonstrated test results, improve decision cycle 
times, and make the most prudent use of the taxpayer's money. Using a 
knowledge-based funding approach in our decision making, we will 
conduct periodic continuation reviews of major development activities 
against cost, schedule, and performance expectations. We have 
flexibility in our funding to support key knowledge-based decision 
paths, which means that we can reward successful demonstrations with 
reinvestment and redirect funds away from efforts that have not met our 
expectations. We have assigned a series of milestones to each of the 
major program activities. The milestones will provide one measure for 
decision-making and help determine whether a program stays on its 
course or is accelerated, slowed, or terminated. This approach gives us 
options within our trade space and helps us determine where we should 
place our resources, based on demonstrated progress. The alternative is 
to terminate important development activities without sufficient 
technical data to make smart decisions. We believe that this approach 
also acts as a disincentive to our contractors and program offices to 
over-promise on what they can deliver.
International Participation
    Interest in missile defense among foreign governments and industry 
has continued to rise. We have been working closely with a number of 
allies to forge international partnerships that will make missile 
defense a key element of our security relationships around the world.
    The Government of Japan is proceeding with the acquisition of a 
multilayered BMD system, basing its initial capability on upgrades of 
its Aegis destroyers and acquisition of the Aegis SM-3 missile. We have 
worked closely with Japan since 1999 to design and develop advanced 
components for the SM-3 missile. This project will culminate in flight 
tests in 2005 and 2006. In addition, Japan and other allied nations are 
upgrading their Patriot fire units with PAC-3 missiles and improved 
ground support equipment. This past December we signed a BMD framework 
Memorandum of Understanding (MOU) with Japan to expand our cooperative 
missile defense activities.
    We have signed three agreements over the past two years with the 
United Kingdom, a BMD framework MOU and two annexes. In addition to the 
Fylingdales radar development and integration activities this year, we 
also agreed to continue cooperation in technical areas of mutual 
interest.
    This past summer we signed a BMD framework MOU with our Australian 
partners. This agreement will expand cooperative development work on 
sensors and build on our long-standing defense relationship with 
Australia. We also are negotiating a Research, Development, Test and 
Evaluation annex to the MOU to enable collaborative work on specific 
projects, including: high frequency over-the-horizon radar, track 
fusion and filtering, distributed aperture radar experiments, and 
modeling and simulation.
    We have worked through negotiations with Denmark and the Greenland 
Home Rule Government to upgrade the radar at Thule, which will play an 
important role in the system by giving us an early track on hostile 
missiles. We also have been in sensor discussions with several allies 
located in or near regions where the threat of ballistic missile use is 
high.
    Our North Atlantic Treaty Organization (NATO) partners have 
initiated a feasibility study for protection of NATO territory and 
population against ballistic missile attacks, which builds upon ongoing 
work to define and develop a NATO capability for protection of deployed 
forces.
    We are continuing work with Israel to implement the Arrow System 
Improvement Program and enhance its missile defense capability to 
defeat the longer-range ballistic missile threats emerging in the 
Middle East. We also have established a capability in the United States 
to co-produce components of the Arrow interceptor missile, which will 
help Israel meet its defense requirements more quickly and maintain the 
U.S. industrial work share.
    We are intent on continuing U.S.-Russian collaboration and are now 
working on the development of software that will be used to support the 
ongoing U.S.-Russian Theater Missile Defense exercise program. A 
proposal for target missiles and radar cooperation is being discussed 
within the U.S.-Russian Federation Missile Defense Working Group.
    We have other international interoperability and technical 
cooperation projects underway as well and are working to establish 
formal agreements with other governments.

                                CLOSING

    Mr. Chairman, I want to thank this committee for its continued 
support of the Missile Defense Program. As we work through the 
challenges in the coming months, we will conduct several important 
tests and assessments of the system's progress. We will continue our 
close collaboration with the independent testers and the warfighters to 
ensure that the capabilities we field are effective, reliable, and 
militarily useful. There certainly are risks involved in the 
development and fielding activities. However, I believe we have 
adequately structured the program to manage and reduce those risks 
using a knowledge-based approach that requires each program element to 
prove that it is worthy of being fielded.
    I believe we are on the right track to deliver multilayered, 
integrated capabilities to counter current and emerging ballistic 
missile threats. For the first time in its history, the United States 
today has a limited capability to defend our people against long-range 
ballistic missile attack. I believe that future generations will find 
these years to be the turning point in our effort to field an 
unprecedented and decisive military capability, one that closes off a 
major avenue of threat to our country.
    Thank you and I look forward to your questions.

    Senator Stevens. Well, thank you very much.
    General Cartwright, the defense budget is coming down, and 
I remember the time I made and I think Senator Inouye made the 
trip up there too. We made several trips to Alaska to accompany 
those who were making the scientific assessment of where these 
ground-based interceptors should be located. It may appear to 
some people that that decision was made because of my 
chairmanship. I do not think so. I was with the scientists when 
they said this is the place. As a matter of fact, they went to 
a place I would not have gone. It was at Fort Greely, which had 
already been closed. That community had been through a trauma 
of one base closure. It did not want to see a buildup and then 
a let down again. But I do believe that the decision has been 
made and we agreed with it.

                          NEAR-TERM PRIORITIES

    I think we now find ourselves in the position, however, 
with the budget coming down. I have to ask, are we clearly 
focused on near-term priorities? It seems to me as you would 
want to balance the budget under these circumstances, that we 
probably should be looking more to the near-term deployment 
priorities. General Obering, I would assume that would be the 
Navy's Aegis system and the ground-based midcourse system. 
Would you comment on that first, General Cartwright, and then 
General Obering. Should we try to maintain that balance, let 
all of these programs go forward, but with emphasis on the 
near-term priorities?
    General Cartwright. Senator, I think you categorized it 
correctly in that the lay down of the system was done based on 
the science involved in intercepting the logical threat zones 
coming toward the United States, but also with a mind toward 
the future of a global system and putting it in the right place 
to make sure that we could advantage ourselves for the entire 
United States and to the extent of the ground-based system, 
that we could protect our deployed forces and allies, that it 
was in its best position. We have evolved it that way, setting 
priorities to cover the largest area as quickly as possible.
    In the balance between the fixed system that defends the 
United States in principal and the system that we have started 
to field and work on that deals with our deployed forces, those 
mobile capabilities like Aegis, we have adjusted the balance. 
We have looked at that balance and we are certainly trying to 
make sure that our investment pattern addresses both the 
defense of the United States and the defense of our forward-
deployed forces in a way that makes sense and can match the 
technologies available to build those systems.

                    NEAR-TERM PRIORITIES--TECHNOLOGY

    I will turn it over to General Obering to talk to the 
technology side of it.
    General Obering. Yes, sir. Senator, you are correct. I was 
not there at the time, but I do know that there were many 
factors that went into the decision to locate the interceptors 
at Fort Greely, not the least of which was soil composition and 
the makeup there and how it supported the silo construction, 
and also its ability to reach and to protect the United States 
from that type of great circle approach.
    Your question about priorities. Sir, we are clearly focused 
on continuing to field the ground-based midcourse interceptors, 
and we have that in our budget to continue to do that and to 
continue to get those missiles into the ground there. We are 
also focused on, as you said, the Aegis with its mobile 
capability, not against an ICBM but against the shorter-range 
missiles, and its flexibility that it brings in the mobility.
    While we are continuing to focus on that, we cannot give up 
the future, though. We have to continue that balance between 
near term and the longer term because building those defenses 
do take time and building these capabilities. So a lot of the 
decisions that we are making today will have consequences 5, 6, 
10 years out that we have to pay attention to because the 
evolving threat environment, as we proceed in the future, and 
the uncertainty of that forced us to have to be able to do 
that. So we are trying desperately to reach that balance 
between the near-term priorities and the longer-term priorities 
that are involved in our development program.
    Senator Stevens. General Cartwright, your comment about the 
defense and offense I think is the most lucid explanation of 
why we have to have a ground-based system in terms of being 
able to do our utmost to catch that first one and to teach the 
person that launched it a very serious lesson. That is 
something that I think misses most people.
    We in Alaska have looked at this as being there to deal 
with places like North Korea where they are so unpredictable 
that no one knows what they will do. They really do not have 
the massive capability of a Soviet Union, but they have got the 
capability, we believe, to launch a missile or missiles at us 
with warheads that would be very dangerous to our survival.

      BALANCED FUNDING--AEGIS, LASER, GLOBAL MISSILE DEFENSE (GMD)

    Now, are you satisfied with the way this funding is set 
forth in this budget in terms of balance? I am trying to get 
back again to the balance between the Aegis system, the laser 
system, and the ground-based system. Has this been worked out 
to your satisfaction?
    General Cartwright. Senator, I think it has. The good news 
here is that in the shakedown, we have been given a voice in 
that discussion so that the warfighter is at the table and has 
an opportunity to make a contribution about that balance. 
Clearly that balance is very important to us. I believe that we 
are on the right path, that we are testing to the right 
criteria to keep it operationally realistic, allowing the 
testing to influence our decisions on what we buy and at what 
pace, and keeping the warfighter in mind, and working the 
balance between all of those three is critical. Like I say, the 
good news here is for STRATCOM we are at the table, we are a 
part of that dialogue, we are allowed to make input, and now we 
are getting to a point where that input has got the judgment of 
people sitting at the console working the system on a day-to-
day basis and making contribution.

                          INFRASTRUCTURE CUTS

    Senator Stevens. Well, General Obering, I am informed that 
in the preparation of this program, there were $80 million from 
the GMD program allocated to another portion of the system. 
Where did that go?
    General Obering. Sir, if you are referring to part of our 
infrastructure cuts, potentially is what you may be referring 
to. If I could for a second, I could put this in context.
    As you heard in my opening remarks, we had a $1 billion 
reduction overall in our program between 2005 and 2006. Even 
given that, the ground-based midcourse defense is $300 million 
more in 2006 than in the President's budget 2005 request for 
2006 in the balance, and it is almost $3 billion across the 
future years defense program (FYDP) for the ground-based 
midcourse defense than it was in the 2005 President's budget.
    Part of that budget reduction, though, was to try to get 
more efficient. General Kadish, my predecessor, did a great job 
in laying the technical foundation for the integration of these 
programs so that we can begin to integrate Aegis and the 
ground-based midcourse and terminal high altitude area defense 
(THAAD) and others. What we have not addressed, though, was the 
programmatic integration across the board such that we could 
begin to combine some of our overhead, if you want to call it 
that, our infrastructure, and getting more efficient in how we 
manage the programs. We had set a target of about $300 million 
a year, beginning in 2006, to try to reduce our overhead by 
those amounts.
    The ground-based midcourse portion of that is around $60 
million to $80 million, in that region. Again, that is a better 
than fair share in terms of its portion of our budget overall. 
But we have taken that across the board, and we certainly hit 
much of our headquarters staff the hardest in this regard.

                    GLOBAL MISSILE DEFENSE SHORTFALL

    Senator Stevens. I am indebted to Ms. Ashworth for her 
research into this. But she tells me that there was a $431 
million shortfall in the President's 2006 budget as far as the 
ground missile defense system. So with the cooperation of the 
chairman, we added $50 million to that supplemental that just 
passed to try and catch up on that. I am sure you are familiar 
with that. Is that shortfall still a realistic number?
    General Obering. Yes. I think if you are referring to the 
cost variance at the end of the current contract, yes, sir. It 
has actually been estimated between roughly that and as much as 
$600 million or more. That is the total cost variance at the 
completion of the contract which is at the end of 2007, which 
represents less than a 5 percent variance in the overall, which 
is about a $12 billion contract value. We have paid down about 
$400 million of that, and so your help there has been 
tremendous in that regard.
    Senator Stevens. Thank you very much.
    Mr. Chairman, do you have a time problem?
    Senator Cochran. No.
    Senator Stevens. Senator Inouye.

                     AEGIS PROGRAM AND FUNDING CUT

    Senator Inouye. Mr. Chairman, if I may follow up. The Aegis 
ballistic missile defense program has been very successful, 
five out of six intercepts, but as a result of the fiscal year 
2006 reduction of $1 billion, about $95 million will be cut out 
of this test program and it might have an impact upon whether 
we have the signal processor, which I have been advised that it 
would be at least a year. Why are we setting aside such a 
successful program where the outcome is almost predictable and 
spending it on other riskier programs?
    General Obering. Yes, sir. First of all, the program has 
been very successful in the testing that we have done to date. 
Now, one of the things we have not done yet is fly against a 
separating target, and that is something that we do need to do 
because that represents the lion's share of the threats that we 
may be facing around the world.
    The reason that we have not done that is because, if you 
recall, the one failure that we did have in the test program 
had to do with the divert attitude control system malfunction 
as we got into the higher pulses that we would need for a 
separating warhead. We have not completely fixed that yet in 
the program. We are still going through the ground testing for 
a new design to validate that we do have a fix. We think we 
have identified the root cause of that and we are taking steps 
to address that, but that is why we do not have a more robust 
profile either in the testing or in our production profile 
because we have not jumped all those technical hurdles yet, but 
we are in the process of doing that.
    The reductions that were taken in Aegis--the program 
director, Admiral Paige, saw some ways that she could combine 
some of the testing that we are doing with our Japan 
cooperative program, also combine some of our software 
deliveries into more efficient drops, and we were able to 
achieve those savings as part of that overall reduction.
    But it is a very successful program. We still have some 
things that we need to address there, though, before we can go 
full bore in that program.

                         AEGIS SIGNAL PROCESSOR

    Senator Inouye. Would it improve the program if you got 
your signal processor?
    General Obering. Yes, sir, it would. It would allow us, 
again, to be able to address more complex threats, and it is 
very definitely a benefit to the Aegis program. There are other 
steps we can take by combining other sensors to achieve the 
same effect, but it certainly helps the Aegis program 
tremendously.
    Senator Inouye. Then it would have some merit for the 
committee to look into that matter.
    General Obering. Sir, we would always enjoy your support. 
Yes, sir.
    Senator Inouye. I would appreciate it if you could give us 
an unclassified version of a memo on the signal processor and 
the capabilities of it and how it would improve your Aegis 
program.
    General Obering. Yes, sir.

                  SPACE-BASED MISSILE DEFENSE TEST BED

    Senator Inouye. The other question I have is on the space-
based missile defense test bed beginning in 2008. Now, we have 
been told that this has a potentially large price tag, 
technological challenges, and tons of people objecting to it. I 
suppose we are going to spend a lot of money and it might 
require setting aside some of the less riskier programs to 
carry out the space program. Why move forward on another 
controversial, costly, and technologically riskier program when 
your other programs have not reached fruition yet?
    General Obering. Well, sir, what you are seeing reflected 
in our program is a very small effort, actually an 
experimentation program, a test bed that we start, relatively 
speaking, overall very small in the budget. The reason for that 
is, as I mentioned earlier, we are trying to deal with the 
world as it may exist in 10 years. In order to be able to 
address that, we believe that there are some prudent 
experimentation steps that we should take because, to be very 
honest with you, sir, in spite of what a lot of people will 
articulate, I am not at all certain that we have tackled all 
the technical issues associated with space-basing of 
interceptors. There are some questions that I think we need to 
answer in terms of the on-orbit storage, so to speak, of 
interceptors. There is a number of issues with respect to 
command and control, with being able to sense the rising 
targets and being able to distinguish those. There are a lot of 
technical challenges that we need to address. I think that 
while it is important to have the debate on the philosophical 
advantage and strategy of having space-based interceptors, it 
would be prudent to lay in a technical experimentation program 
to see if we could even do that.

                 BATTLE MANAGEMENT COMMAND AND CONTROL

    Senator Inouye. General Cartwright, we have been advised 
that at each stage of the missile defense mission, you will 
have combatant commanders in charge of identification, track, 
discrimination, and defending against incoming missiles. How 
are you going to coordinate all of this, especially when the 
time window is not that big?
    General Cartwright. That is one of the key challenges in 
the system when you try to field a global system for which the 
decision windows to decide whether or not you have a threat 
coming at the United States or at our forces. Where did that 
threat come from, where is it going to, what should I use or 
what should the system use to engage it are all decisions that 
have to be made in a very timely fashion and really brings to 
the forefront the technical challenge of a global system.
    The way we have set it up today is that Strategic Command 
provides to the regional commanders the capability. So for 
Northern Command and Pacific Command right now, we are 
providing them with all of the command and control capabilities 
necessary to analyze the threat when it is detected, align the 
sensors so that they can determine where that threat is going, 
characterize that threat, and then align the weapons and use 
the weapons if appropriate. In the case of Pacific Command, 
that capability resides in Hawaii at the commander's 
headquarters there. In the case of Northern Command, that 
capability resides in Colorado Springs with the headquarters 
there. We have built that system. This year sees the system 
being installed in Hawaii. In the first year, in 2004, we had 
the system installed at Northern Command and at STRATCOM with 
situation awareness systems deployed here in Washington to the 
Joint Staff and to the National Command Authority.
    That is what we are working through in the shakedown 
period, understanding the concept of operations and how we will 
deal with a threat that we are watching nine time zones away 
and trying to manage both the sensors, the command and control, 
and the weapons. What we have seen to date is that it is in 
fact working, but we cross several lines of authority between, 
say, Pacific Command and Northern Command and STRATCOM, and in 
the time zones and where the sensors are located versus where 
the weapons are located, et cetera. It is a complex system. 
Like I said, in the shakedown, we have gotten to a point now 
where the soldiers are getting good confidence that the system, 
in fact, can perform, that the commanders can get sufficient 
information to make credible decisions about threats that may 
be presented in the system.

              EXECUTIVE DECISIONMAKING COMMAND AND CONTROL

    Senator Inouye. In this decisionmaking process, I presume 
the President and the Secretary of Defense are involved?
    General Cartwright. Yes, sir. But as you can imagine, this 
is a stressing scenario because the timelines associated with 
those decisions for the stressing threats, which really are the 
threats to Alaska and Hawaii, the timelines are much shorter 
than if you are traveling a greater distance, say, to the 
continental United States.
    Senator Inouye. What would be the decision window for 
launching an interceptor at an incoming ballistic missile, if 
you can give it to us in open session? What is the time?
    General Cartwright. I think we can do this in open session. 
The system is designed so that we can have a characterization 
of the threat in the first 3 to 4 minutes and that we have a 
decision window, depending on where the threat missile is 
moving, probably in the next 3 to 5 minutes in the short 
scenarios like Hawaii and Alaska and expands out as you go 
further. But you are eating up decision time. And so we are 
working through with the Secretary, with General Obering a set 
of tabletop exercises to walk us through and understand where 
the regret factors are, if you do not make a decision on time, 
when does that happen, when are the key windows and the 
vulnerabilities in the decision window that would allow us to 
commit a weapon against a threat in a timely fashion and have a 
secondary opportunity if at all possible.
    As we work those through, then we are also working through 
is it phone calls that we make, do we use the command and 
control system and the displays to inform that National Command 
Authority, how are we going to bring them together? As you can 
imagine, getting the President, the Secretary, the regional 
combatant commander into a conversation and a conference in a 
3-to 4-minute timeframe is going to be challenging. So what are 
the rules that we lay down? That is what the shakedown has been 
about. We are working very hard with the Secretary to lay down 
those rules and understand the risks associated with those very 
quick and timely decisions that are going to have to be made, 
particularly for Alaska and Hawaii when we deal with the North 
Korean threat.
    Senator Inouye. In the Alaska and Hawaii situation, your 
decision window for life and death decisions would be less than 
7 minutes?
    General Cartwright. It would be right in that area, right 
about 7 minutes.
    Senator Inouye. Thank you, sir.
    Senator Stevens. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you.

                  GROUND-BASED SYSTEM TESTING PROGRAM

    The testing program for the ground-based system has had 
some recent difficulties after a series of successful 
intercepts have proven the capabilities are there in the 
system. What are your plans for future tests? Do you have the 
resources in this budget request that will enable you to carry 
those out?
    General Obering. Yes, sir. I will take that. The aborts 
that we had in our last two tests were caused--in the December 
timeframe, we had a software timing issue. As we got in and 
discovered the root cause, we determined that, first of all, it 
was a rare occurrence, and we have actually flown with that 
condition three times before with the booster. And it was 
correctable with a fix to one line of software code and one 
parameter in that software code.
    The failure that we had to launch in February was due to a 
ground support arm that failed to retract. We now know what the 
root cause of that was. We actually had done some work in the 
bottom of the silo to modify that because that silo was 
configured for a ``BV'' configuration booster, an earlier 
configuration that is no longer in the program, and the 
workmanship allowed some leakage and some moisture to gather in 
the bottom of the silo which caused corrosion around the shims 
in that arm on the hinge and basically bound up the hinge to be 
able to move away. And then we had the wrong size crush block. 
It kind of dampens the retraction of the arm so it does not 
bounce into the interceptor when it is launching. That was the 
wrong size and the wrong stiffness. So we had workmanship 
issues, we had quality control issues that we had to go back 
and address.

                  INDEPENDENT REVIEW TEAM AND TESTING

    I got very angry about that because those are basic 
blocking and tackling that you have to do as part of any 
development program. That is why I chartered the independent 
review team that gave me their findings several weeks ago, and 
this mission readiness task force that is taking those 
recommendations along with their Aegis expertise from that 
program and putting that into a road back, a way ahead to a 
successful test program.
    Some of the recommendations coming out of the independent 
team is that we need to do more ground qualification testing as 
part of our overall flight test program. We need to have a more 
rigorous flight certification, kind of a concurrent but 
independent assessment of our readiness to fly. And we are 
factoring that all into our test program.
    The basic content of our tests will not change in terms of 
what we are planning to do over the next 2 years in terms of 
getting more realistic testing. We are going to launch targets 
out of Kodiak, Alaska like we did the last two tests, very 
successfully, by the way. Tremendous help and team support up 
there. It actually demonstrated that we could take the target 
information and inject that into our operational fire control 
system and get the interceptor to accept that, the flight 
computer and be ready to launch.
    But we are going to do that in the next several years. We 
are going to take an operationally configured interceptor and 
fly it out of Vandenberg, which is an operational site. We are 
going to fly it across the face of the Beale radar, which is an 
operational radar with operational crews. So we are going to 
get more and more realism in our test profile.
    Certainly the resources that we have--we believe that what 
we have programmed will allow us to do that, but that still 
depends somewhat on the recommendations that I will be getting 
from this mission readiness task force in the next several 
weeks.
    General Cartwright. Could I just chime in just for one 
second?
    Senator Cochran. Sure.
    General Cartwright. Particularly on this last part that we 
talked about here of actually using the interceptors, launching 
them from operational sites, using operational crews, using 
operational sensors. These are the things that we on the 
STRATCOM side of the equation really wanted to see brought into 
the test program, and in 2005 and forward, General Obering has 
made a great effort to be able to bring that in because we 
think that is important. It gives the soldier confidence that 
the system will work. It gives us confidence that the netting 
together of the system works. To me that is critical on the 
operational side. So I just want to kind of get that in and 
chime in on that, the support for that. To me that is very 
important.

                  OPERATIONAL AND TECHNICAL READINESS

    Senator Cochran. Is the testing program far enough down the 
track now for you to be willing to use the interceptors that 
are in the ground in case of a crisis in trying to defeat a 
missile attack against the United States?
    General Obering. Sir, I will speak technically to that and 
General Cartwright can speak from an operational perspective. I 
believe the answer to that is yes. I believe that we have 
enough confidence that we will have a pretty good chance of 
that succeeding.
    Now, I would like to fly the kill vehicle in its 
operational configuration. We have not done that. We flew 
prototypes of the kill vehicle in our successful intercepts in 
the past. About 67 percent the same hardware, 60 percent the 
same software, as we flew in our previous test, but we did a 
redesign for manufacturability and for more robustness in that 
kill vehicle. We have not flown that configuration, which I 
would like to do, and that is part of our coming test program 
to get into the air and get the data that we need from that 
testing to give you a full confidence answer.
    General Cartwright. And I would chime in that from an 
operational standpoint for the system that we have today, one, 
we are confident that the crews are trained and can use the 
system and that the command and control system will, in fact, 
work for us; two, that the sensors and the weapons are netted 
in such a fashion that they will, in fact, provide us a great 
opportunity to intercept any kind of incoming threat. As it 
gets more redundancy, the system becomes more resilient, we 
understand better how to employ it, we will get better, but in 
an emergency, we are in fact in a position. We are confident 
that we can operate the system and employ it.

                       INTERNATIONAL COOPERATION

    Senator Cochran. One of the things that occurs to me is 
that we are going to be depending on other nations to cooperate 
and support our efforts to have a successful, comprehensive, 
layered missile defense capability, radar sites in the United 
Kingdom, and elsewhere. Even cooperation in the development of 
the Arrow program is also contributing to our own improved 
knowledge and expertise in this area.
    Are you pleased with the cooperation, generally speaking, 
internationally that we are receiving, or do we have problems 
that need to be addressed in diplomatic ways or any ways that 
we can provide funding in this budget cycle that would be 
helpful to you?
    General Obering. Sir, I will take the programmatic aspects 
of that. As I mentioned, we have signed agreements with Japan, 
with the United Kingdom, and with Australia now on broad 
memorandums of understanding to cover joint cooperative 
research and development, as well as procurement and 
cooperation.
    To give you an example of the level of cooperation and 
interest, we co-host a conference every year, a multinational 
conference. Last year it was in Germany. We had over 850 
delegates from more than 20 countries attend that conference. 
We were able to conduct bilateral discussions with many of the 
nations there, looking at what they are interested in and what 
they bring to the table. So I do see a rising tide of interest 
in missile defense. And I see concrete actions like the 
Japanese have taken and the investments that they have made in 
their budget for missile defense because they view the threat, 
I believe, similar to the way that we do, and the cooperation 
that we have received in the United Kingdom with the placement 
and the upgrade of the Flyingdales radar that is placed in that 
nation. So I think it is a very bright outlook, sir.

                         AIRBORNE LASER PROGRAM

    Senator Cochran. Mr. Chairman, I have just one more 
question I will ask and then others, if it is okay, I will just 
submit for the record.
    The airborne laser program is one that has potential for 
use as part of a comprehensive and layered program of missile 
defense. What is your impression so far? Do you have enough 
knowledge from tests that have been undertaken to lead you to a 
conclusion about the utility and the potential success of an 
airborne laser (ABL) program?
    General Obering. Well, sir, we achieved two major 
milestones in that program over this last year. The first light 
in the laser was extremely significant because we had a lot of 
critics in the past believe that that could never be done, 
which is the simultaneous ignition of those laser modules to 
get the power that we need to make this a very viable weapons 
system. We achieved that. We were able to achieve first flight 
of the heavily modified, in fact, the most heavily modified 747 
in history.
    We are continuing with the lasing test today as we speak, 
and we are continuing with the flight test where we begin to 
unstow the ball in the front of the aircraft. That should be 
coming in the next several weeks. So we are gaining confidence. 
We have tackled all of the major technical questions with 
respect to the operation of the system.
    But there is still a long way to go between that and saying 
that we would have a viable operational capability. That is 
where we are today. As we go beyond these first major steps, 
tear down the laser, reassemble it on the aircraft, and then 
fly the joint weapons system, as I said, in the 2007-2008 
timeframe, that is when we will have the real confidence to 
move forward. We are setting up a series of decision milestones 
then that we can provide to the Department, to the 
administration based on knowledge-based results from those 
tests.
    Senator Cochran. Thank you, Mr. Chairman.
    Senator Stevens. Thank you, Mr. Chairman. Glad to have you 
here.

                    OPERATOR EDUCATION REQUIREMENTS

    Pardon my cold here a little bit, General.
    I had a briefing at one place we will not talk about, but 
sitting was this young operator. He demonstrated how he would 
shift from one incoming missile to another one. I said, you 
know, that is pretty fast. He says, it is nothing like 
Nintendo, Senator. I want to ask a little bit about the 
educational requirements now. Are you running into problems 
with regard to educational requirements for the people who will 
man the system?
    General Cartwright. I can ask General Dodgen back here who 
has the lead in the training side of this, but as I have, like 
you, gone out and sat and talked with these young soldiers as 
they work the consoles, it is not like Nintendo, but their 
minds tend to pick up the displays and all of the information 
and process it in ways that leaves me in awe, to tell you the 
truth. They are very good at it. They grew up understanding how 
to look at a screen and take in large amounts of information 
and process it and consistently come out with the right 
answers.
    When we started into the training program, as you always 
do, whether it is an aircraft or a radar site, what do you 
display that cognitively will get the right information when 
you go into sensor overload in your brain, when people have a 
sense of urgency, when people are yelling in the back of the 
room? What gets into your head and do you make the right 
decisions? Part of our shakedown has been taking each operator 
up to a point of stress where they are at overload and then 
seeing what decisions do they make, what information do they 
actually use in those times of stress, and is it presented to 
them in a way that they will retain it. We are pretty confident 
that we have got the displays about right and the cognitive 
reaction to those displays, that they make the right decisions 
time and time again. We have multiple people on those consoles 
to ensure that we are making those decisions right.
    But my sense is we have, in fact, got a good cadre of 
people, that the training regimen is replicatable and can be 
exported to a broader group of people. As you know, we are 
using Guard and Reserve people to do this, soldiers, and they 
are doing a great job with it. My sense is we do have the right 
people, the right skills, and that they can retain them and we 
can teach them on a sustaining basis.
    Senator Stevens. Going on from that, Senator Inouye and I 
were in the Persian Gulf War the night a young man on Joint 
Surveillance and Target Attack Radar Systems (J-STARS), which 
was deployed during the test phase, as a matter of fact, 
noticed that the headlights were going the wrong way. They were 
going north not south. It was his immediate perception of that 
that changed the course of that war.

                      AIRBORNE LASER APPLICATIONS

    This is now getting to the point where this airborne laser 
system comes into play here too. Do you believe that that has 
applications beyond missile defense?
    General Cartwright. Sir, as we understand both what the art 
of the possible would be in an energy-based system that moves 
at the speed of light and the range at which we could apply it, 
we are starting to look at the feasibility of other 
applications for that kind of technology, whether it be 
airborne, ground-based, mobile. We are looking at a wide 
variety of opportunities that could be presented by having that 
kind of technology and starting to explore them. But we are 
still very early in the R&D phase. So these are feasibility 
studies. These are things that we are using, say, our 
universities, our military universities, to start to think 
about, how could you use this kind of a weapon in more than 
just the missile defense role.
    Senator Stevens. My last question. Many people have said to 
me the real problem here is how to hit a bullet with a bullet 
from 1,000 miles away. Does the airborne laser change that 
equation?
    General Cartwright. My sense is it gives you more decision 
time because the weapon actually moves at the speed of light. 
So the first chance to strike the bullet, so to speak, to the 
last chance, you have more opportunity, more decision time, 
more chance for a second shot if the first one did not make it. 
We are trying to understand how precise do we have to be with 
this type of weapon. How much makes a difference? Is it 
millimeters? Is it bigger than that? We do not have those 
answers yet. But at the end of the day, the hope is that, one, 
you have more opportunities, larger decision time, more 
opportunities to make the right decision, and if you miss, for 
whatever reason, a malfunction or an aiming problem or 
something else, the opportunity to have subsequent shots is 
increased.
    Senator Stevens. Is it possible to separate that beam as it 
goes out so there is more than one opportunity to strike the 
incoming missile?
    General Obering. Sir, the aircraft has the ability to hit 
more than one missile. I cannot go into much more detail than 
that, but it does have the ability to do so.
    Senator Stevens. Well, you are in a very exciting area. As 
an old silo jockey, I envy you. Thank you very much.
    Senator Inouye.

              TERMINAL HIGH ALTITUDE AREA DEFENSE TESTING

    Senator Inouye. Testing for THAAD has been continually 
slipping. Can you tell us in this hearing what the causes are 
and what your new schedule is going to be?
    General Obering. Yes, sir, I can. As you may recall, in 
August 2003, there was series of explosions at a motor supplier 
in California, in San Jose. It was the Chemical Systems 
Division of Pratt and Whitney. Now, unfortunately, that 
supplier handled all of THAAD's motors, and in the recovery 
from that, requalifying another supplier and moving out of that 
facility had an impact on the program and began to delay its 
return to flight test.
    Also, the THAAD program, as I think you may be aware of, 
Senator, was plagued with quality control problems in its past 
in the 1999-2000 timeframe and the redesign that it went 
through, which I think is going to be very successful, and the 
manufacturability improvements that have been made have taken 
time. It is the reason it has not been back in flight.
    It is now finished with almost all of its ground 
qualification testing. The flight test missile is in assembly 
as we speak in Troy, Alabama and will be shipped out for flight 
testing. We anticipate that to be by the end of June to return 
to flight, and then we look forward to an intercept attempt, 
after a series of guided flights. By the end of this calendar 
is what our plan is.
    I believe that what I have seen--in fact, to be very frank 
with you, after I saw the quality control problems that we 
experienced on the ground-based midcourse system, I sent an 
audit team out to the contractor facilities for that program. I 
also sent an audit team to take a look at the THAAD program 
before flight to see if we had any problems, and I got a pretty 
glowing report coming back from there. So I am confident that 
we will be able to meet our objectives with that program, but 
as you said, the primary cause of that slippage was the 
recovery from that unfortunate explosion.
    Senator Inouye. So you think you are on track now.
    General Obering. I think so, yes, sir.

      MISSILE DEFENSE AGENCY $1 BILLION CUT AND PROGRAMS AFFECTED

    Senator Inouye. Now, the Missile Defense Agency has been 
told to take out $1 billion. What programs do you believe will 
be impacted the most, if you can tell us?
    General Obering. Sir, we tried to, as I said, in the past 
balance this across our portfolio in terms of how much risk we 
were taking in the development programs and how much we were 
able to meet our fielding and our support commitments that we 
have made. The kinetic energy interceptor (KEI) program is 
where we have taken the largest amount of risk with this. That 
was in part due to two reasons.
    One is because the inception of that program was as an 
alternative to the airborne laser, a risk reduction program for 
the airborne laser. That was at the recommendation of the 
Defense Science Board in 2002. We had laid in a fairly robust 
acquisition program for the kinetic energy interceptor. That 
included land-based and sea-based aspects to that. I felt that 
we were getting out in front of our headlights a little bit too 
much, so to speak, much like we had done on airborne laser. We 
did the same thing. We were spending money 2 years ago on 
airborne laser, worrying a lot about the operational support of 
that program before we had ever even generated first light out 
of the laser. We felt like that that had to be refocused, and 
that is what General Kadish and I did last year and we were 
successful in doing that.
    We did much the same thing on KEI. What is going to make 
this program work is a very high acceleration booster, much, 
much, much faster in acceleration than the ground-based 
interceptor that we have today or Aegis or any of the others. 
So they had to demonstrate to me the ability to do that before 
we make them a full-blown acquisition program, number one.
    Number two, if they are able to do that, it provides us 
some options for the Department on midcourse and even terminal 
phases because of that performance. It begins to expand our 
envelope, so to speak, that we can use. Even if we are 
backfilling missiles and silos in Fort Greely with this 
missile, it gives us that kind of capability.
    So that is where we took the lion's share of the money in 
terms of that cut. That is also why you see that we did not 
terminate anything because I felt that we needed to balance our 
portfolio out.
    Senator Inouye. In cutting out $1 billion, do you believe 
you had to cut out some real flesh, muscle?
    General Obering. Well, what I would say that we did, sir, 
is we just accepted more risk in certain areas. We tried to and 
we did adhere, for the most part, to our fielding commitments, 
which is really the muscle and the flesh that you are referring 
to.
    Senator Inouye. Well, I thank you very much. We will do our 
very best, sir.
    General Obering. Thank you.
    Senator Inouye. Thank you, Mr. Chairman.
    Senator Stevens. Thank you very much.
    Senator Cochran, do you have any further questions?
    Senator Cochran. No.

                            OUT-YEAR FUNDING

    Senator Stevens. We thank you again. I really want you to 
know that I worry a little bit about the out-year funding with 
what is happening right now. I do hope that you will keep in 
touch with us as we go through this work on this subcommittee 
to see if we can find some way to alleviate some of that strain 
in the out-years by a proper allocation of the money now. I do 
not think we can get any more money. He has the problem now.
    I do think we should make certain that the money in the 
near term is directed toward really being able to get a robust 
system in the near term. I can tell you that when I am home, 
everyone reads the papers about what is happening in North 
Korea. It is a very solid worry for those of us, I think in 
Hawaii probably to a lesser extent, but the offshore States do 
worry about that potential they have already. We believe they 
have it already. I cannot get into too much of that here today. 
But we want to work with you in every way possible to assure 
the near-term completion of the test phase, if we can. So call 
on us if there is anything we can do.

                     ADDITIONAL COMMITTEE QUESTIONS

    We look forward to trying to have the subcommittee take a 
look at the ground-based laser again this year. We did that 3 
years ago and I think we ought to play catch-up.
    We do thank you, General Cartwright, General Obering.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
           Questions Submitted to General James E. Cartwright
               Question Submitted by Senator Ted Stevens

                    GROUND-BASED MID-COURSE PROGRAM

    Question. What additional military capabilities would you like to 
see within the Ground-Based Mid-Course Program? Would you use these 
Ground Based Interceptors if a missile were launched at the United 
States? In your opinion, how many interceptors does the United States 
need?
    Answer. Today, we have a thin line Ground Based Mid-Course Defense 
System. Our focus for additional capabilities in the near-term is to 
increase the redundancy of the sensors and command and control 
components so we are not reliant on a single string.
    Although the system is still rudimentary, I am confident that our 
crews are well trained and that the network of sensors, weapons, and 
command and control is configured to optimize success. In an emergency, 
we could employ Ground Based Interceptors against a missile launched at 
the United States. The number of interceptors needed is an issue under 
constant study and will continue to evolve as the threats develop and 
ballistic missile technology continues to proliferate.
                                 ______
                                 
             Question Submitted by Senator Pete V. Domenici

       CONVENTIONAL CAPABILITIES ROBUST NUCLEAR EARTH PENETRATOR

    Question. General Cartwright, it is my understanding that as part 
of the expanded responsibilities of Strategic Command, your 
organization is directly involved in discussions concerning Robust 
Nuclear Earth Penetrator (RNEP).
    As you know, the program was not funded for fiscal year 2005, but 
the budget for next year requests $8.5 million to continue the study. I 
am interested in your views about the conventional capability of RNEP.
    Would the RNEP sled-test data inform us also as to the safety and 
reliability of a conventional penetrator capability? Please discuss 
your views as to why this is important.
    Answer. The Robust Nuclear Earth Penetrator (RNEP) study was 
initiated to determine the technical feasibility of a guided, 5,000-
pound class nuclear earth penetrator capable of surviving penetration 
into the hard surface geologies that lie above most strategic hard and 
deeply buried targets. Data from the RNEP sled test supports nuclear or 
conventional weapons.
    Modeling and simulation developed in the study predict the transfer 
of loads to internal hardware components. The sled test will provide 
critical empirical data to validate these models and simulations for 
both conventional as well as nuclear weapons.
                                 ______
                                 
            Question Submitted by Senator Richard C. Shelby

   JOINT FUNCTIONAL COMPONENT COMMAND FOR INTEGRATED MISSILE DEFENSE

    Question. General Cartwright, I understand that U.S. STRATCOM has 
been assigned new missions over the past few years. As a result of 
these new missions, one of which is missile defense, you are presently 
taking steps to stand up Joint Functional Component Commands (known as 
JFCCs) for each of the new missions. Since today's hearing is focused 
on missile defense, I would like to focus on the JFCC for Integrated 
Missile Defense. I certainly understand that as a Combatant Commander, 
a primary focus must be placed on enhancing and fielding systems such 
as Patriot and the Ground-Based Midcourse Defense System. However, I am 
sure that you would agree that emphasis must be placed on developing 
the next generation of missile defense systems. Please share with the 
committee the process and agreements you have with the Missile Defense 
Agency regarding how technology development for future systems are 
prioritized and funded.
    Answer. It is important the Combatant Commanders have an input into 
the development of future capability. We have addressed this process 
from two aspects to ensure we are capable of effectively advocating for 
future needs. First, the Warfighter Involvement Process was developed 
in concert with the Geographic Combatant Commanders' staffs and Missile 
Defense Agency (MDA) to provide the forum and framework to integrate 
Ballistic Missile Defense System users into the capability development 
and acquisition processes at MDA. Second, my Joint Functional Component 
Command for Integrated Missile Defense has recently concluded an 
agreement with MDA that defines their respective roles and 
responsibilities for advocacy, of advanced concept and technology 
demonstrations. It is through close working relationships such as these 
that we will ensure science and technology programs are prioritized and 
funded to meet our needs in the 10 to 15-year timeframe. I am confident 
we can work effectively with MDA to successfully field the next 
generation of missile defense systems.
                                 ______
                                 
    Questions Submitted to Lieutenant General Henry A. Obering, III
               Questions Submitted by Senator Ted Stevens

    Question. The Administration is fielding the Navy's Aegis Missile 
Defense System and the Ground-Based Midcourse System. Do these remain 
your near-term deployment priorities? Does your budget reflect those 
priorities and your commitment for enhanced testing?
    Answer. Yes, our near-term priority continues to be fielding these 
elements of the Ballistic Missile Defense System (BMDS). In 2004 we 
began fielding the initial elements of the Block 2004 BMDS. In 2005 we 
improved this capability by adding more Ground-Based Interceptors and 
the first Standard Missile-3 (SM-3) missiles. In fiscal year 2006 our 
objective is to complete the development, fielding and verification of 
Block 2004 and begin fielding the next increment of missile defense 
capability, Block 2006. This Block will add 10 Ground-Based 
Interceptors at Fort Greely as well as an Upgraded Early Warning Radar 
in Thule, Greenland and another Forward Based X-Band Radar. We also 
plan to deliver additional SM-3 missiles, and continue upgrading Aegis 
cruisers and destroyers.
    All of this work involves continued development and deployment of 
near-term BMDS assets and this priority is reflected in our fiscal year 
2006 budget request. Our budget includes about $400 million in fiscal 
year 2006 to complete the initial Block 2004 fielding and about $4.9 
billion for the development and fielding of Block 2006.
    Our commitment to enhanced testing is also a priority that is 
reflected in our fiscal year 2006 budget request. Resources for test 
and evaluation are included in our Test & Targets Program Element as 
well as the Program Elements for individual BMDS elements. Total 
funding for test and evaluation activities is about $2.78 billion in 
fiscal year 2006 or about 35 percent of our budget request.
    Let me note that the recent interceptor launch aborts in IFT-13C 
and IFT-14 in the Ground-Based Missile Defense (GMD) program have 
reinforced my commitment to our testing program. I have chartered an 
Independent Review Team (IRT) to review our test processes, procedures 
and management and they have reported back to me with a series of 
specific recommendations. In addition, I have appointed Rear Admiral 
Kate Paige as Director for Mission Readiness. She is leading a Mission 
Readiness Task Force and has full authority to implement the 
corrections needed to ensure a successful flight test program.
    Question. It is very important that we do everything possible to 
get the most capability we can out of our missile defense systems, such 
as the Ground Based Interceptor (GBI), that we have already invested in 
so heavily. What are your plans for spiral development of the GBI, and 
how much funding do you have in the fiscal year 2006 budget and 
throughout the out-years for upgrading the capabilities of the GBI? Is 
this sufficient?
    Answer. The Ground Based Interceptor spiral development strategy 
from fiscal year 2006 through fiscal year 2011 capitalizes on 
concurrent efforts to field additional interceptors while incorporating 
performance upgrades, as well as reliability, maintainability and 
producibility improvements. As we deploy and operate the Limited 
Defensive Operations capability, these development upgrades ensure that 
system limitations in operational performance, availability, or 
sustainability will be addressed. Additionally, the development program 
will ensure the interoperability of the Ground Based Interceptor with 
the other evolving elements of the Ballistic Missile Defense System and 
ensure that the technical capability of the Ground Based Interceptor 
will continue to improve and mature to meet the developing threat.
    Development upgrades to be tested and fielded in fiscal year 2006 
and fiscal year 2007 include Orbital and Lockheed Martin booster 
software builds; an Exoatmospheric Kill Vehicle processor upgrade; 
Exoatmospheric Kill Vehicle software algorithm enhancements; booster-
aided navigation using booster Global Positioning System to improve 
interceptor accuracy; sensor manufacturing improvements and sensor 
enhancement for longer acquisition range; and configuration changes 
necessary to address improved shelf life/reliability. Development 
upgrades planned for fiscal year 2008 through fiscal year 2011 will 
focus on the expansion of the number and capability of Ballistic 
Missile Defense System Ground Based Interceptor Engagement Sequence 
Groups, Warfighter enhancement options, and improved reliability, 
availability, and maintainability. Development program activities are 
being closely coordinated with sustainment activities to ensure maximum 
feedback from the fielded architecture into the development effort.
    Ground Based Interceptor component development is funded within the 
Ground Based Interceptor portion (which also funds flight and ground 
test interceptors, modeling and simulation development, common silo and 
common Command Launch Equipment development, launch complex ground/
system testing, verification/validation and accreditation activities) 
of the Ground-Based Midcourse Defense development and test project. I 
attached a copy for the record of a table that provides the budgeted 
and planned amounts for Ground Based Interceptor component development 
from fiscal year 2005 through fiscal year 2011. I believe these amounts 
are sufficient.

 BUDGETED AND PLANNED AMOUNTS FOR GROUND-BASED MIDCOURSE DEFENSE PROGRAM AND GROUND BASED INTERCEPTOR COMPONENT
                           DEVELOPMENT FROM FISCAL YEAR 2005 THROUGH FISCAL YEAR 2011
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year--
                                    ----------------------------------------------------------------------------
                                        2005       2006       2007       2008       2009       2010       2011
----------------------------------------------------------------------------------------------------------------
Total GMD Budget...................  3,318,623  2,298,031  2,701,940  2,473,388  2,064,754  1,895,820  1,562,709
Total Development and Test.........  2,019,600  1,392,609  1,503,841  1,065,476  1,029,220  1,153,500  1,229,709
GBI (Includes Test GBI Assets).....    621,577    359,900    515,300    413,325    399,400    383,500    388,225
GBI Component Development..........    200,800    182,100    198,400    171,300    145,400    132,700    135,600
----------------------------------------------------------------------------------------------------------------

    Question. Have you discovered anything that would indicate that the 
GMD Technology does not work or do we still have the confidence in the 
interceptors that have been fielded at Fort Greely and Vandenberg Air 
Force Base? How do you plan to get GMD testing back on track? What will 
it cost to implement the recommendations of the Graham Panel?
    Answer. In light of the two recent tests in which interceptors 
failed to launch, I chartered the Independent Review Team in February 
to examine the failures in recent integrated flight tests of the 
Ground-Based Midcourse Defense (GMD) element of the Ballistic Missile 
Defense System (BMDS). Dr. William Graham, Dr. William Ballhaus, and 
Major General (United States Army, Retired) Willie Nance (assisted by 
Dr. Widhopf and Mr. Tosney of Aerospace Corporation) were directed to: 
review analysis of the failures associated with Integrated Flight Tests 
10, 13C, and 14; understand the causes of Ground-based Midcourse 
Defense failures; determine any impact of these failures and other 
problems with the Ground-Based Interceptors and ground support 
equipment located at Fort Greely, Alaska and Vandenberg Air Force Base, 
California; review the pre-flight preparation and test execution 
process and provide recommendations as appropriate; and review in 
detail all actions required for a successful launch.
    The Independent Review Team completed its investigation and 
provided its outbrief to the Missile Defense Agency on March 31, 2005. 
The team determined that the inherent system design was sound and had 
been demonstrated to be effective in previous tests. The team also 
determined that in order to achieve a fully operational missile defense 
system, Ground-based Midcourse Defense needs to enter a new phase, one 
that emphasizes performance and reliability verification. Key 
recommendations include: establishing a more rigorous flight readiness 
certification process; strengthening systems engineering; performing 
additional ground-based qualification testing as a requirement for 
flight testing; holding contractor functional organizations accountable 
for supporting prime contract management; and assuring that the Ground-
based Midcourse Defense program is executable.
    I concur with their findings and recommendations. To focus on these 
and several other initiatives to improve our mission assurance and 
quality control processes throughout the Ballistic Missile Defense 
System, I chartered Rear Admiral Kate Paige as Director of Mission 
Readiness, with responsibility for overarching mission readiness. She 
leads a small, highly experienced Mission Readiness Task Force 
chartered in part to develop a plan for the next few flight tests, 
including objectives and schedules. This flight test plan is part of a 
larger plan, which addresses processes and procedures to enhance the 
verification of operational readiness of the Ground-based Midcourse 
Defense weapons system. The Independent Review Team report will be one 
of the many of inputs she uses to chart the way ahead. The Mission 
Readiness Task force recommendations will be available in June and will 
include cost and schedules for a new Ground-Based Midcourse Defense 
program plan. I will act upon these recommendations in the most 
effective manner possible.
    Question. I'm pleased that Airborne Laser (ABL) has made so much 
progress the last year, although much work remains to be done. Do these 
accomplishments give you confidence that the program can continue to 
overcome its remaining challenges?
    Answer. Yes. The two recent milestones were the culmination of a 
series of significant risk reduction activities including risk 
reduction demonstrations and component/subsystem demonstrations. The 
first laser light in the Systems Integration Lab was completed on 
November 10, 2004. The first aircraft flight with the combined Battle 
Management, Command, Control, Communications, Computers, and 
Intelligence and Beam Control/Fire Control systems was completed on 
December 3, 2004. The remaining program activities, with key knowledge 
points identified annually will continue to build our confidence in 
overcoming the remaining challenges on the program.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

    Question. I have been informed that Admiral Mullen, the President's 
nominee to be the next Chief of Naval Operations, views missile defense 
as a core Navy mission. As you noted in your testimony, the Navy has 
already deployed an Aegis cruiser with a midcourse defense capability, 
in addition to the Aegis system's surveillance and tracking 
capabilities. The Kinetic Energy Interceptor program offers the 
opportunity to expand on these mobile capabilities, and expand the 
layered system by providing a system that would engage its target 
during the boost phase. Could you update us on the progress of the 
Kinetic Energy Interceptor program?
    Answer. The Kinetic Energy Interceptor program is on track to 
demonstrate key boost/ascent phase intercept capabilities this year as 
incremental steps towards a 2008 decision as to if and how to proceed 
further. We have in the field today a mobile Kinetic Energy Interceptor 
Battle Management, Command Control and Communications prototype that is 
demonstrating, with real-time and playback data, our ability to 
generate rapid and accurate fire control solutions with overhead sensor 
data. Next year we plan to upgrade this operational prototype to 
integrate and fuse Ballistic Missile Defense System Forward Based X-
band radar data with the overhead sensors. This Kinetic Energy 
Interceptor fire control capability investment will pay dividends for 
the entire Ballistic Missile Defense System by improving our ability to 
track, type, and predict threat trajectories in the early phases of 
flight.
    Our interceptor development team recently completed a wind tunnel 
test series and the composite case winding and cure of our second stage 
booster motor. We are on schedule for a late August/early September 
2005 static firing of a tactically-representative (same burn time and 
size as the objective design) second stage with a trapped-ball thrust 
vector control system. A tactically-representative first stage static 
firing with a flex-seal thrust vector control system is planned for 
January 2006. The interceptor team will complete an additional eight 
static fires (four with each stage) prior to executing the full-scale 
booster flight test in fiscal year 2008.
    The Kinetic Energy Interceptor specification requires a common 
interceptor design for land and sea basing operations. Sea-basing 
offers unique battlespace access, taking maximum advantage of KEI's 
mobility and its resulting ability to intercept missiles in their boost 
and ascent phases. We are working with the Navy to assess alternative 
platforms for this mission, including cruisers, destroyers and 
submarines. We expect to make a joint decision on a Kinetic Energy 
Interceptor platform strategy in late fiscal year 2006, but the 
acquisition of a sea-based Kinetic Energy Interceptor capability will 
not start until after our overall program plans are settled in fiscal 
year 2008.
    We believe that, for modest increases in funding, we can extend 
KEI's boost/ascent capability to provide a flexible, mobile midcourse 
layer to the Ballistic Missile Defense Systems as a complement to fixed 
site Ground-based Midcourse and sea-based Aegis Ballistic Missile 
Defense. As a result, in fiscal year 2006 we are initiating 
requirements definition, concept design and performance assessment of 
the Kinetic Energy Interceptor capability in a mobile midcourse defense 
role (e.g., asymmetric defense of the United States and Allies).
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici

             VALUE OF TEST RANGES TO MISSILE DEFENSE AGENCY

    Question. White Sands is perhaps the most unique installation in 
all of DOD and, when combined with Fort Bliss (most of which resides in 
New Mexico) and Holloman Air Force Base, it gives the Department a 
highly valuable venue for combining operations and testing.
    Can you describe the value MDA places on its access to an 
installation like White Sands with its enormous geographic size and 
restricted airspace?
    Answer. MDA seeks to achieve realistic testing environments and 
maintain safety to the maximum practical extent. The large land area, 
accompanying restricted airspace and mobile instrumentation at White 
Sands Missile Range provides an excellent location for the conduct of 
short range tactical ballistic missile intercept tests. In the 1990's, 
we developed the Fort Wingate Launch Complex as a remote target launch 
facility to effectively increase the range of the tactical ballistic 
missile intercept tests. Since that time, we have maintained the land 
lease and evacuation rights to the western and northern expansion areas 
to expand capability and enhance safety. We plan to retain the majority 
of this capability for upcoming Terminal High Altitude Area Defense 
testing in fiscal year 2006.
    Question. Does this access provide the type of realistic testing 
environment needed to collect accurate data for your systems?
    Answer. For short range tactical ballistic missile target profiles, 
White Sands Missile Range's size, restricted air space, and array of 
fixed and mobile instrumentation make it an excellent environment for 
testing. Target launch facilities that MDA added at Fort Wingate allow 
flight profiles of up to 370 kilometers into the range. As test 
envelopes continue to expand, the capability of White Sands Missile 
Range is being exceeded. That requires us to look toward other test 
range options. White Sands Missile Range cannot accommodate the 
trajectory and debris hazard patterns from higher energy medium-range, 
intermediate-range and intercontinental ballistic missile targets and 
interceptors within its boundaries. These scenarios require larger and 
more remote ranges that provide the kind of test scenarios and safety 
that we need.
    Question. How will White Sands contribute to the success of the 
Ballistic Missile Defense System in the future?
    Answer. There will continue to be opportunities to conduct 
Ballistic Missile Defense System tests at White Sands Missile Range. In 
addition to short range tactical ballistic missile tests, the Airborne 
Laser program, whose mission is to intercept targets in the boost 
phase, plans to conduct some initial tests at White Sands Missile 
Range.
    White Sands Missile Range is involved in the development and 
deployment of mobile instrumentation and sensors and provides 
knowledgeable test support personnel to support Ballistic Missile 
Defense System testing as members of the Pacific Range Support Team. 
For example, White Sands Missile Range mobile instrumentation and 
approximately 45 White Sands Missile Range test personnel were recently 
deployed to Kodiak, Alaska in support of Ballistic Missile Defense 
System test operations and MDA plans on continuing to use this type of 
support in the future.

           TERMINAL HIGH ALTITUDE AREA DEFENSE TEST SCHEDULE

    Question. It is my understanding that the Terminal High Altitude 
Area Defense (THAAD) missile will return to flight testing at White 
Sands Missile Range this year, and that funding provides for additional 
tests next year.
    What is the THAAD testing schedule for this year and next? What 
will be the nature of those tests?
    Answer. CY 2005 Flight Testing.--THAAD Flight Test (FT)-01, planned 
in summer 2005, is a high-endoatmospheric Control Test Flight at White 
Sands Missile Range (WSMR). This mission will consist of a THAAD 
missile flight without a target to assess missile dynamic flight 
characteristics and vehicle controls in the high-endoatmospheric 
environment.
    THAAD FT-02, planned in late fiscal year 2005, is the first 
integrated system test including all THAAD components (Missile, 
Launcher, Radar and C2BMC). This flight test will be conducted at WSMR 
and will include a virtual target (injected into the radar) in lieu of 
an actual target, and will exercise all functions except the seeker 
endgame.
    THAAD FT-03, planned in early fiscal year 2006, is a Seeker 
Characterization flight with a target in the air, to characterize the 
behavior of the seeker. Although intended as a ``fly by'' against a 
live target, it could result in an intercept. This test will be 
conducted at WSMR against a HERA unitary target at a high-
endoatmospheric altitude.
    CY 2006 Flight Testing.--THAAD FT-04, planned in second quarter 
fiscal year 2006, is an intercept attempt against an exoatmospheric 
HERA separating target to be conducted at WSMR.
    THAAD FT-05, planned in third quarter fiscal year 2006, is a low 
endoatmospheric Control Test Flight at WSMR of a THAAD missile flight 
without a target to assess missile dynamic flight characteristics and 
vehicle controls in the low-endoenvironment.
    THAAD FTT-06-1, planned in fourth quarter fiscal year 2006, is the 
first THAAD flight test at Pacific Missile Range Facility (PMRF). This 
is an integrated element test of a high endoatmospheric intercept 
attempt against a foreign target. It is the first THAAD system test 
against a threat representative target.
    THAAD FTT-06-2, planned in first quarter fiscal year 2007, is an 
intercept flight test mission at PMRF against a mid endoatmospheric 
foreign target.
    THAAD FTT-06-3, planned in first quarter fiscal year 2007, is an 
intercept flight test mission at PMRF against an exoatmospheric unitary 
target.
    Question. Since prior THAAD testing ended in 1999, how has MDA 
incorporated those testing results into today's system to make the 
missile more producible and more reliable?
    Answer. Since we completed testing in the previous phase of the 
program, we have implemented several initiatives that place increased 
emphasis and attention on quality, producibility, and reliability. 
Also, there was a comprehensive independent review conducted late in 
the previous phase of the program and those findings have been 
incorporated into this phase of development. These initiatives include 
an aggressive parts, materials, and processes program; reliability 
growth program; comprehensive closed-loop corrective action system; 
design simplification; enhanced Environmental Stress Screening (ESS); 
verification of critical missile functions (100 percent) prior to each 
flight; enhanced built-in test capability; and increased focus on 
foreign object elimination during assembly.
    We have also made improvements in the area of producibility, such 
as a more modular missile design, use of flex cables, reduction/
elimination of blind mates (or connections hidden behind another 
object), improved production test equipment, and use of automated test 
software. Additionally, we have made changes to improve reliability, 
such as review and approval of all parts and materials during the 
design phase, more robust ESS, extensive qualification of hardware 
beyond expected flight environments, and margin testing of assemblies.

           ARROW MISSILE TESTING AT WHITE SANDS MISSILE RANGE

    Question. I am told that White Sands Missile Range can support 
realistic testing of this shorter range Arrow missile.
    In your opinion, should the United States be supportive of this new 
Arrow program?
    Answer. The current Arrow system, supported by Patriot, has been 
developed and refined to defend Israel against medium-range and most 
short-range ballistic missiles, including SCUD missiles. In fact, 
flight testing in Israel and in the United States has shown the Arrow 
Weapon System to be effective against the short range threat. 
Furthermore, our joint U.S.-Israeli Arrow System Improvement Program 
continues to assess and improve the capability of the Arrow Weapon 
System to meet the evolving threat in the region.
    The proliferation of very short range ballistic missiles and large-
caliber rockets is of great concern to both Israel and the United 
States. At present, the Israeli Patriot system has the capability to 
intercept some of these threats, albeit at a relatively high cost. In 
the United States, the Missile Defense Agency and the military services 
are developing other systems that will add to this capability in the 
future.
    We recognize that developing an effective yet low cost interceptor 
to defend against short range threats will be a significant challenge. 
Recently, Israel began evaluating the feasibility of two concepts for 
low-cost interceptor systems proposed by Israeli industry.
    Question. If so, do you agree that White Sands is the proper venue 
for hosting Arrow tests?
    Answer. It appears upon first examination that White Sands Missile 
Range is a suitable test range to conduct short range ballistic missile 
defense system testing; however, a final determination is contingent 
upon the results of the ongoing feasibility study.
                                 ______
                                 
            Questions Submitted by Senator Richard C. Shelby

    Question. General Obering, I am sure you would agree that the Joint 
Project Office for Ground-Based Midcourse Defense has been an essential 
organization for the development and integration of our system at Fort 
Greely, AK. As the Ground Based Midcourse Defense System continues to 
evolve and mature, what future role do you see for the JPO GMD?
    Answer. The Ground-Based Midcourse Defense Joint Program Office has 
done, and continues to do, a remarkable job in developing, testing and 
fielding our initial defenses against intercontinental ballistic 
missiles. In the process, the Joint Program Office has developed an 
infrastructure and reservoir of experience and talent that we will 
continue to use for missile defense. As we move toward delivery of a 
truly integrated Ballistic Missile Defense System, we need to transform 
the Agency from one comprised of individual programs to one comprised 
of components that we can ultimately integrate into a layered ballistic 
missile defense system. Additionally, we are undertaking infrastructure 
reductions because of decreases in our topline budget over the next 
several years. To effectively deal with these, we are conducting an 
Agency-wide reengineering effort, which we expect to finish by the end 
of this summer. I will at that time inform the Committee of what, if 
any, effect there will be on the Joint Program Office. However, I can 
assure the Committee that the expertise in the Ground-Based Midcourse 
Defense Joint Program Office will not be lost.
    Question. Specifically, do you see their mission and 
responsibilities downsizing over the next year?
    Answer. I believe that the pace of work for the Ground-Based 
Midcourse Defense Joint Program Office will continue to be high during 
fiscal year 2006. There will be an intense workload associated with the 
testing of the system as well as the production of additional 
interceptors. I do see, however, that there will be some changes in the 
Joint Program Office mission and responsibilities because of our 
reengineering and the Ground-Based Midcourse Defense program's 
progress. For example, I see some diminished need for the site 
activation activity in the Joint Program Office. During fiscal year 
2006 Vandenberg Air Force Base and Fort Greely sites will mature and we 
are delaying a decision on a third site until fiscal year 2008. 
Importantly, we will leverage the site activation expertise within 
Ground-Based Midcourse Defense Joint Program Office in order to 
significantly improve Agency-wide efforts for site activation. Finally, 
there will be some consolidating of our functional activities such as 
contracting, security and testing in Huntsville to gain efficiencies 
and take broader advantage of the expertise we have developed in the 
Agency. I do not know how this will affect the Joint Program Office's 
mission and responsibilities. Once we complete the reengineering later 
this summer, I will inform the Committee if there is any downsizing in 
the Joint Program Office's mission and responsibilities.
    Question. Let me follow up on the KEI program. General Obering, are 
there plans in place to stand up a project office for this important 
initiative?
    Answer. We have had a project office in place since we signed the 
development contract with Northrop Grumman in December 2003. I expect 
we will be moving that project office to Redstone Arsenal as part of 
our reengineering effort.
    Question. If so, can you share with the Committee some of the time 
line details?
    Answer. We will be moving the program office responsibility to 
Redstone Arsenal over time beginning in 2006.
    Question. I am concerned about the lack of emphasis within MDA on 
technology development. Technology development funding for sensor 
improvement, better software, faster communications systems, improved 
propulsion systems, lighter and stronger structures, better thermal 
control, enhanced signature discrimination, decoy concepts and 
detection techniques are all vital areas of interest. Does MDA have an 
adequate technology development budget to support spiral development of 
all of your systems?
    Answer. We believe the fiscal year 2006 President's Budget strikes 
the right balance between fielding initial capabilities and developing 
future technologies. The Technology Program Element supports emerging 
technologies, including sensors, propulsion systems, radars, and 
discrimination. It also supports the need to address future threats or 
countermeasures, including technology work on enhanced discrimination, 
laser detection, and radar improvement efforts. Overall for fiscal year 
2006, we remain focused on the specific technology efforts that are 
necessary to field capabilities for the Ballistic Missile Defense 
System.
    Question. Do you have critical technology development requirements 
this budget isn't sufficient to support?
    Answer. No. Our critical requirements are funded and the fiscal 
year 2006 BMD Technology Program Element funding meets near-term and 
far-term requirements for the Ballistic Missile Defense System. 
However, as we focused on technology needed to support the block 
upgrade plan for capability improvements, we made the decision to 
discontinue the Discriminating Sensor Technology, a breadboard Laser 
Radar [LADAR] for Kill Vehicles, after Advanced Measurements Optical 
Range testing for this project concludes. Additionally, we reduced by 
40 percent the number of Laser Technology projects that integrate into 
Airborne Laser and laser radar sensor programs. We also delayed 
prototype demonstration efforts originally planned for the High 
Altitude Airship program due to funding reductions and programmatic 
issues.
                                 ______
                                 
          Questions Submitted by Senator Kay Bailey Hutchison

    Question. General Obering, several years ago the Defense Department 
terminated the Sea-Based Area Theater Ballistic Missile Defense program 
and since that time I believe your agency has been focusing on 
developing and deploying a Sea Based Mid-course capability in your 
Aegis/SM-3 program. It would appear that in situations where our forces 
are projected from the sea into combat operations ashore, you have a 
serious defensive gap that could place our forces in a situation where 
they could suffer undue casualties from tactical ballistic missile 
attacks without an assured lethal terminal capability. Is your agency 
developing a plan and budget to fill that sea-based terminal gap?
    Answer. The Navy and Missile Defense Agency are working together to 
identify options to provide a sea-based terminal ballistic missile 
defense capability. A joint working group was formally assembled in 
January to review recent analyses related to sea-based contributions to 
ballistic missile defense in the terminal phase. The objective of this 
assessment is to propose options that leverage existing Navy and MDA 
development programs in order to provide a mobile sea-based terminal 
BMD capability within the integrated layered ballistic missile defense 
system. The working group is scheduled to report its findings this 
summer, allowing us to make an informed decision in partnership with 
Navy leadership on an appropriate way ahead to address this need.
    Question. I am concerned, General Obering, that with the exception 
of the PAC-3 program, which is a land-based system, that there are no 
funds in the budget to finance a Sea Based Terminal Ballistic Missile 
Defense capability that will give us the same hit-to-kill lethality 
that your agency produced in PAC-3 and SM-3 in either this year's 
budget or in future-year budgets. Are you concerned about this Sea-
Based Terminal gap and if so, what can we do to help you address it?
    Answer. Navy and MDA staffs are working closely to identify options 
leveraging existing Navy and MDA development efforts that can address 
this capability gap. We need to look at this issue in the context of 
the integrated layered system approach MDA is using to develop 
ballistic missile defenses. We have a joint working group that has been 
working this issue over the past several months and will report out 
this summer. We will work closely with Navy leadership to determine a 
way forward when we are better equipped to make an informed decision.
    Question. General, would you mind furnishing for the record what 
the sea-based terminal plan ahead is and the associated budget needed 
to finance it before we mark up the President's Budget Request?
    Answer. The President's fiscal year 2006 Budget Request represents 
the best mix of funding for development and fielding of the Ballistic 
Missile Defense System. The Navy and MDA staffs are working closely to 
lay out potential options for leveraging existing programs to provide a 
sea-based terminal defense capability in future blocks. We anticipate 
being able to make an informed decision on funding requirements in 
fiscal year 2007 and beyond after the joint Navy-MDA working group 
completes their assessment and reports out later this summer.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein

                                  COST

    Question. President Bush has requested $9 billion for missile 
defense for fiscal year 2006. The United States has spent $92 million 
on missile defense since 1983 and the Administration anticipates 
spending an additional $58 billion over the next six years. Some 
experts put the overall price tag at well over $150 million. Given the 
number of national defense priorities we face--providing for non-
proliferation activities, deterrence, homeland security--how do you 
justify spending so much on missile defense?
    Answer. I understand that from 1984 until now the total investment 
in ballistic missile defense made by MDA and its predecessor 
organizations has been about $94 billion. To put that in perspective, 
this is a little more than 1 percent of the total Defense budget. 
Today, the United States has an initial capability to destroy missiles 
heading towards the United States where before we had none. The Block 
2004 BMDS now in place cost about $11.5 billion over the period fiscal 
year 2002-fiscal year 2006. The GAO Report 02-700R estimated damage 
costs for the terrorist attacks of September 11, 2001 alone at $83 
billion. The consequences of an attack by even a single WMD-tipped 
ballistic missile could cost far more.

                        PERFORMANCE AND TESTING

    Question. The missile defense system experienced two test failures 
in December, 2004 and February, 2005. The system was not declared 
operational at the end of 2004 as had been planned by the 
Administration. What criteria will you use to determine whether or not 
the system will be declared operational? When do you believe this will 
occur? Will you move forward with declaring the system operational if 
future tests fail?
    Answer. The initial Ballistic Missile Defense System elements 
planned by the Administration were deployed and operationally available 
at the end of 2004. Those elements could be placed into an operational 
status quickly should the situation dictate, and have been exercised to 
a launch ready status routinely during an on-going series of readiness 
demonstrations. However, the operational availability of the system 
must be balanced against the continuing need for testing and the 
integration of new features which provide expanded capability. But, if 
the nation needs it, we have an emergency capability.
    The Secretary of Defense will make the decision to declare the 
missile defense system operational based on several criteria, including 
but not limited to performance demonstrated during tests. He will make 
that declaration when his confidence in system performance reaches a 
level against the predicted threat he is comfortable with. Conversely, 
he will also make that declaration when the risk from that threat 
increases to the point he is uncomfortable without the protection the 
system provides, limited as it is today.
    When this occurs is difficult to say. Highly visible, successful 
flight tests build confidence in the system, but so do the less visible 
testing of individual components, modeling and simulations which are 
on-going and continuous, and held in conjunction with the war fighters. 
The war fighter's assessment of the system's utility, and their 
willingness to accept it in its current state, also builds my 
confidence.
    Whether or not a subsequent flight test failure would preclude 
declaring the system operational would depend on the root cause of the 
test failure. A failure that identifies an unanticipated problem that 
requires a system-wide reconfiguration could, depending upon risk, 
preclude an operational declaration. A failure due to an individual 
component which can be identified and corrected quickly may not.
    Question. You have said that the system could be ``turned on'' at 
any time, if an emergency arose. Do you have any plans to test the 
system as it would operate in that situation?
    Answer. Yes, the Missile Defense Agency--working closely with the 
Warfighter and testing community--conducts a wide variety of exercises 
and tests of the Ballistic Missile Defense System. For instance, there 
is a continuing exercise program that uses the operational system for 
Ballistic Missile Defense System Capability Readiness Exercises. These 
events are carried out to allow the Warfighters and technicians to 
practice and improve tactics, procedures, processes and checklists for 
such things as bringing the Ballistic Missile Defense System from one 
readiness condition to another. These activities have already 
successfully demonstrated our ability to transition the system from a 
developmental configuration to a defense capable configuration. The 
exercises have also demonstrated the ability of our Combatant 
Commanders to operate the system in the defense capable configuration.
    To characterize the performance of the currently available system, 
we have been conducting and will continue a flight and ground test 
program. The test program will increase the realism of our tests in a 
measured fashion, commensurate with risk and with the constraints of 
flight test range safety, and the needs for engineering data collection 
and evaluation. Although the Ground-Based Midcourse Defense element 
recently conducted two flight tests where the interceptor did not 
launch, there were significant segments of the test that operated 
successfully, providing excellent insight into technical and 
operational performance of those aspects of the system. For example, 
the target warhead configuration and motion was realistic and threat 
representative. The only sensor data allowed into the fire control 
processing was representative of the current operational system. The 
system demonstrated the ability to acquire, to track, classify, do real 
time engagement planning, generate sensor, communication, and weapon 
task plans, and to bring the interceptor to within two seconds of 
launch.
    I have asked Admiral Paige and her Mission Readiness Task Force to 
propose a plan for the next few flight tests, including objectives and 
schedules. This flight test plan is part of a larger plan, which 
addresses processes and procedures to enhance the verification of 
operational readiness of the GMD weapons system. Defining flight test 
objectives and schedules will be a logical part of this ongoing 
process. Over time, we intend to fold in more and more data from 
operational sensors and incorporate additional operational sensors 
(Aegis Ballistic Missile Defense Long Range Surveillance and Tracking 
Destroyers, Upgraded Early Warning Radar at Beale Air Force Base, 
Forward Based X-Band Radar Transportable, the Sea-Based X-Band Radar, 
and others). We plan to begin launching operational missiles 
(configured for test in terms of range safety and data telemetry) from 
operational silos at Vandenberg Air Force Base, California. As the 
Missile Defense Agency further develops the GMD test plan, program and 
procedures, we will continue to work closely with the Operational Test 
agencies and the Warfighter to craft test objectives and scenarios that 
further increase operational realism. The Warfighter is already an 
active participant in all aspects of the ground and flight test program 
and such participation has increased our confidence in the operation of 
the system.
    Question. In other words, will you test the system as it is 
currently being available, so we can get some sense of its capability 
right now? That would mean testing the system with:
  --No prior information on the enemy target, its launch time, intended 
        target, trajectory, or target cluster;
  --No GPS or C-band beacon on the target reentry vehicle;
  --No SBIRS-High or STSS or simulated information from such sources;
  --With only early warning radars, e.g. Aegis, Beale;
  --With no floating X-band radar until it is actually operational;
  --With only DSP for satellite coverage.
    Answer. Yes, the Missile Defense Agency--working closely with the 
Warfighter and testing community--conducts a wide variety of exercises 
and tests of the Ballistic Missile Defense System. For instance, there 
is a continuing exercise program that uses the operational system for 
Ballistic Missile Defense System Capability Readiness Exercises. These 
events are carried out to allow the Warfighters and technicians to 
practice and improve tactics, procedures, processes and checklists for 
such things as bringing the Ballistic Missile Defense System from one 
readiness condition to another. These activities have already 
successfully demonstrated our ability to transition the system from a 
developmental configuration to a defense capable configuration. The 
exercises have also demonstrated the ability of our Combatant 
Commanders to operate the system in the defense capable configuration.
    To characterize the performance of the currently available system, 
we have been conducting and will continue a flight and ground test 
program. The test program will increase the realism of our tests in a 
measured fashion, commensurate with risk and with the constraints of 
flight test range safety, and the needs for engineering data collection 
and evaluation. Although the Ground-Based Midcourse Defense element 
recently conducted two flight tests where the interceptor did not 
launch, there were significant segments of the test that operated 
successfully, providing excellent insight into technical and 
operational performance of those aspects of the system. For example, 
the target warhead configuration and motion was realistic and threat 
representative. The only sensor data allowed into the fire control 
processing was representative of the current operational system. The 
system demonstrated the ability to acquire, to track, classify, do real 
time engagement planning, generate sensor, communication, and weapon 
task plans, and to bring the interceptor to within two seconds of 
launch.
    I have asked Admiral Paige and her Mission Readiness Task Force to 
propose a plan for the next few flight tests, including objectives and 
schedules. This flight test plan is part of a larger plan, which 
addresses processes and procedures to enhance the verification of 
operational readiness of the GMD weapons system. Defining flight test 
objectives and schedules will be a logical part of this ongoing 
process. Over time, we intend to fold in more and more data from 
operational sensors and incorporate additional operational sensors 
(Aegis Ballistic Missile Defense Long Range Surveillance and Tracking 
Destroyers, Upgraded Early Warning Radar at Beale Air Force Base, 
Forward Based X-Band Radar Transportable, the Sea-Based X-Band Radar, 
and others). We plan to begin launching operational missiles 
(configured for test in terms of range safety and data telemetry) from 
operational silos at Vandenberg Air Force Base, California. As the 
Missile Defense Agency further develops the GMD test plan, program and 
procedures, we will continue to work closely with the Operational Test 
agencies and the Warfighter to craft test objectives and scenarios that 
further increase operational realism. The Warfighter is already an 
active participant in all aspects of the ground and flight test program 
and such participation has increased our confidence in the operation of 
the system.
    Question. When do you plan to test against: a. a tumbling warhead? 
b. against more than one target warhead? c. without prior knowledge of 
the target, its trajectory, or the target cluster? d. at night? e. 
without a GPS or C-band beacon on the target warhead?
    Answer. The Missile Defense Agency, working closely with the 
Director of Operational Test & Evaluation, has developed the BMDS test 
bed that significantly improves the test infrastructure by providing 
operational assets to participate in more operationally realistic, end-
to-end ground tests and flight test scenarios. The Missile Defense 
Agency and the Director of Operational Test & Evaluation are working 
with the Operational Test Agency team to increase operational realism 
through the test planning process, consistent with the maturity of the 
Ballistic Missile Defense System test bed. The test bed enables the 
Department of Defense to develop operational concepts, techniques, and 
procedures, while allowing the Operational Test & Evaluation office to 
exploit and characterize its inherent defensive capability. 
``Operational Testing'' is a term typically used for traditional tests 
that are conducted on mature developmental systems by an operational 
test agent. Because of the scope and complexity of BMDS, as well as the 
urgency of the mission, DOT&E, their operational test agents, the BMDS 
operational military commands and MDA have teamed to conduct tests that 
meet all our objectives as we incrementally increase system capability 
through the spiral Block process. The term ``operationally realistic'' 
is used for these combined tests to identify those processes, 
procedures and scenarios that are the same as or closely replicate 
those that will be used in real world operations.
    All operationally oriented testing of complex systems is 
necessarily constrained by such real world issues as the need for range 
safety and to equip the missile with instrumentation to collect data. 
In a system as geographically dispersed as GMD, the issue of test 
geometries vs. operational assets and test launch facilities is an 
added constraint which we are mitigating with the ability to launch 
targets from Kodiak, Alaska, among other initiatives.
    We will continue to work closely with the Operational Test agencies 
and the Warfighters to craft test objectives and scenarios; in 
particular, Warfighters have already begun participating directly in 
ground and flight testing in an operationally realistic manner. As the 
system maturity increases and is demonstrated in test, we will further 
increase the operational realism of the tests, in a measured fashion to 
help us evaluate the system's technical and operational capabilities.
    Question. Why is there no operational testing planned for the 
ground-based mid-course system deployed in Alaska and California, but 
only ``more operationally realistic tests?''
    Answer. The Missile Defense Agency, working closely with the 
Director of Operational Test & Evaluation, has developed the BMDS test 
bed that significantly improves the test infrastructure by providing 
operational assets to participate in more operationally realistic, end-
to-end ground tests and flight test scenarios. The Missile Defense 
Agency and the Director of Operational Test & Evaluation are working 
with the Operational Test Agency team to increase operational realism 
through the test planning process, consistent with the maturity of the 
Ballistic Missile Defense System test bed. The test bed enables the 
Department of Defense to develop operational concepts, techniques, and 
procedures, while allowing the Operational Test & Evaluation office to 
exploit and characterize its inherent defensive capability. 
``Operational Testing'' is a term typically used for traditional tests 
that are conducted on mature developmental systems by an operational 
test agent. Because of the scope and complexity of BMDS, as well as the 
urgency of the mission, DOT&E, their operational test agents, the BMDS 
operational military commands and MDA have teamed to conduct tests that 
meet all our objectives as we incrementally increase system capability 
through the spiral Block process. The term ``operationally realistic'' 
is used for these combined tests to identify those processes, 
procedures and scenarios that are the same as or closely replicate 
those that will be used in real world operations.
    All operationally oriented testing of complex systems is 
necessarily constrained by such real world issues as the need for range 
safety and to equip the missile with instrumentation to collect data. 
In a system as geographically dispersed as GMD, the issue of test 
geometries vs. operational assets and test launch facilities is an 
added constraint which we are mitigating with the ability to launch 
targets from Kodiak, Alaska, among other initiatives.
    We will continue to work closely with the Operational Test agencies 
and the Warfighters to craft test objectives and scenarios; in 
particular, Warfighters have already begun participating directly in 
ground and flight testing in an operationally realistic manner. As the 
system maturity increases and is demonstrated in test, we will further 
increase the operational realism of the tests, in a measured fashion to 
help us evaluate the system's technical and operational capabilities.
    Question. Isn't it useful to test a system under operationally 
realistic conditions, i.e., operational testing, to determine the true 
effectiveness of the system?
    Answer. Yes. Testing the BMDS in scenarios that closely approximate 
all the conditions and environments of actual operational missions 
provides the fullest demonstration of system effectiveness. The BMDS 
test program will progressively increase scenario realism, as the 
system matures, to the extent possible within the constraints of flight 
safety and geographical limitations of the test ranges. BMDS tests 
include both developmental and operational test objectives and 
requirements. In general, the BMDS test program will increase 
operational realism with each successive test as outlined in the Joint 
MDA and DOT&E document ``Ballistic Missile Defense System Response to 
Section 234 Increasing Operational Realism'' dated April 4, 2005.
    Question. If the missiles deployed in Alaska and California are 
``better than nothing'' and the United States is wary of a North Korean 
ballistic missile threat, why isn't the system turned on 24/7?
    Answer. The fielded Ballistic Missile Defense System Test Bed 
supports the continued development and testing of new and evolving 
Ballistic Missile Defense System technologies. We have an emergency 
capability now, and we are making progress towards being able to 
operate on a 24/7 basis. The system has not been turned on 24/7 
because, since October 2004, we have been in a ``shakedown'' or check-
out period similar to that used as part of the commissioning of a U.S. 
Navy ship before it enters the operational fleet. We work closely with 
U.S. Strategic Command and the Combatant Commanders to certify missile 
defense crews at all echelons to ensure that they can operate the 
ballistic missile defense system if called upon to do so. We have 
exercised the command, fire control, battle management and 
communication capabilities critical to the operation of the system. The 
Aegis ships have been periodically put on station in the Sea of Japan 
to provide long-range surveillance and tracking data to our battle 
management system. We have fully integrated the Cobra Dane radar into 
the system, and it is ready for operational use even as it continues to 
play an active role in our test program by providing data on targets of 
opportunity. Finally, we have executed a series of exercises with the 
system that involves temporarily putting the system in a launch-ready 
state. This has enabled us to learn a great deal about the system's 
operability. It also allows us to demonstrate our ability to transition 
from developmental testing to operational support and back. This 
enables us to continue to improve the capabilities of the system over 
time, even as we remain ready to use its inherent defensive capability 
should the need arise.

                              INTERCEPTORS

    Question. Can you explain to me why we should continue to purchase 
additional ground-based interceptors, specifically why we should 
initial funding for #31-40, when we have not had a single successful 
test with this model?
    Answer. North Korea's Taepo Dong-2 intercontinental ballistic 
missile could deliver a nuclear warhead to parts of the United States 
in a two-stage variant and all of the North America in a three-stage 
variant. This missile may be ready for testing. The Defense 
Intelligence Agency has assessed that Iran will have the technical 
capability to develop an ICBM by 2015, though it is not clear that they 
have decided to field such a missile. Additionally, according to the 
Warfighters, one of the primary system limitations is that there are 
too few interceptors. Finally, all of our testing indicates that the 
interceptor design is sound. Our recent failures have not been related 
to the interceptor design, and though disappointing, I do not think 
these failures warrant a costly break in our plan for continued 
development and testing of the interceptor. We have already stretched 
out the delivery of the Ground Based Interceptor 21-30 buy to the 
greatest extent possible without causing a break in manufacturing. If 
deficiencies are discovered in future flight or ground testing, we have 
time to accommodate them.
    Question. You have testified previously [before the SASC, April 7] 
that it would cost $260 million to $300 million to reconstitute the 
ground-based interceptor booster production should it be shut down. Can 
you please break down those costs in detail--how much would be fines we 
would pay, how much would be restarting the line?
    Answer. The primary driver for the cost of a break in the 
manufacturing line is the length of time the line is not operational. 
The longer the shut down period, the greater the increased costs for 
reconstituting the 2nd and 3rd tier vendor base and for mitigating the 
effects of loss of quality control processes and subcontractor/supplier 
obsolescence. If there is a three-month break, the estimated cost to 
restart the manufacturing line is $237 million. If there is a six-month 
break, the estimated cost is $262 million. If there is a one-year 
break, the estimated cost is $300 million. The major cost drivers for a 
six-month break are: loss of learning ($72 million), restoration/
recertification of the manufacturing line(s) ($105 million), loss of 
sole source 2nd and 3rd tier vendors ($45 million), and subcontractor/
supplier parts obsolescence ($40 million).
    The Missile Defense Agency views the break even point for the 
ground based interceptor manufacturing lines as less than five 
interceptors per year. Below five per year, the unit costs of the 
manufactured interceptors increase to a point where it is more cost 
effective to allow the manufacturing line break. However, the current 
Agency budget provides for no less than eight interceptors per year. 
This profile does not provide for optimum unit cost efficiency but it 
does provide an acceptable unit cost and precludes any break in the 
manufacturing line. I have provided a copy of the Manufacturing Rate 
Impact on GBI Unit Prices chart for the record.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question. You have said that the kill vehicle has 62 percent of the 
same software and 67 percent of the same hardware as the version flight 
tested years ago. That means that over one-third of the system is 
different, yet we are planning to buy ten more of these kill vehicles 
and the boosters that go with them, despite the fact that we don't have 
a single successful test with this booster or kill vehicle. Why does 
that make sense?
    Answer. The overall functionality of the kill vehicle has not 
changed since the earliest flight tests demonstrated the soundness of 
the basic design. The changes have focused on producibility, parts 
obsolescence, reliability, and algorithm improvements. These changes 
have been verified by extensive ground-based hardware- and processor-
in-the-loop testing. Buying more kill vehicles is not a high risk 
proposition.
    Question. Are any missile defense tests planned from the silos in 
which interceptor missiles are currently installed?
    Answer. Although, we may at some future date conduct Ground-based 
Missile Defense flight testing out of Fort Greely, Alaska where 
interceptors are currently installed, plans for such flight test from 
the silos in Fort Greely are being held in abeyance pending required 
environmental and safety approval processes. The Ground-based Missile 
Defense system also currently has four operationally configured silos 
at Vandenberg Air Force Base. Two of these Vandenberg AFB silos, do not 
currently have interceptors installed, and we intend to use these silos 
for missile defense flight testing.
    I have asked Admiral Paige and her Mission Readiness Task Force to 
propose a plan for the next few flight tests, including objectives and 
schedules. This flight test plan is part of a larger plan, which 
addresses processes and procedures to enhance the verification of 
operational readiness of the GMD weapons system. Defining flight test 
objectives and schedules will be a logical part of this ongoing 
process. Admiral Paige and the Mission Readiness Task Force will 
recommend a path forward for the GMD program.

               COUNTERMEASURE AND COUNTERMEASURE TESTING

    Question. You recently said that the ground-based system has been 
tested against balloon countermeasures. However, those tests involved 
balloons that were significantly different in size than the warhead, 
and therefore had significantly different infrared signatures. In 
essence, you demonstrated that your sensors and interceptor can 
differentiate between large, medium and small. While this is a 
significant accomplishment, it's also something that dogs and one-year 
old babies can do. But it is nothing like situation the defense would 
face in the real world, where the balloons and the warhead would be 
made to look alike. How would the system differentiate in that 
scenario?
    Answer. [Deleted].
    Question. If North Korea launched a missile at us today, and the 
target suite included a dozen or more objects designed to have infrared 
signatures identical to the warhead, how could the kill vehicle decide 
which was the real target?
    Answer. The Ground-Based Midcourse Defense Exoatmospheric Kill 
Vehicle decides between the warhead and other objects by using multiple 
infrared and visible sensors, each capable of measuring multiple 
features. These features are based upon fundamental physical 
characteristics of the object. Non-warhead objects generally do not 
have signatures identical to the warhead for all the measured features. 
Flight testing has demonstrated the ability of the EKV to discriminate 
between the real target and other objects with similar infrared 
signatures. In addition, it is important to point out that the kill 
vehicle also relies on other GMD system elements for input. For 
instance, data from ground-based radars are relayed to the 
Exoatmospheric Kill Vehicle and are also used to decide which object is 
the warhead. The radar data represents an independent set of target 
features, making it more difficult for all warhead target features to 
be replicated by the other objects. The combination of infrared and 
visible sensors, and radar data enable the GMD system to discriminate 
between warheads and countermeasures and debris.
    Question. What is the status of the Red, Blue, and White teams 
created to increase the robustness of the countermeasures element of 
the missile defense testing program? Are they still functioning? How do 
they interface with the Missile Defense Agency?
    Answer. The Missile Defense Agency Countermeasures/Counter-
Countermeasures Program's Red, Black, Blue, and White Teams are active 
and functioning. The Red, Black, Blue, and White Teams assess technical 
risks, identify mitigation approaches, and support development of 
engineering changes to the baseline Ballistic Missile Defense System to 
improve performance against adversary capabilities, focusing primarily 
on addressing countermeasures. The teams are managed and funded under 
the Missile Defense Agency Deputy for Systems Engineering and 
Integration, and their products are integrated across all aspects of 
the Ballistic Missile Defense System, to include testing.
    Question. A group of 22 scientists recently said that the current 
system ``will be unable to counter a missile attack that includes even 
unsophisticated countermeasures.'' Do you agree with that assessment?
    Answer. No, based upon a large body of ground and flight test data 
I disagree with that assessment.. The ability of the Ballistic Missile 
Defense System to respond to countermeasures has always been a critical 
objective of the MDA ground and flight test program. The Ground-Based 
Midcourse Defense element, for example, executed in fiscal year 2004 
and fiscal year 2005 a series of high-fidelity hardware-in-the-loop 
ground test campaigns employing operational hardware and software; 
these tests included various so-called unsophisticated countermeasures. 
The hardware-in-the-loop test campaigns were preceded by a detailed 
series of ground test events using high fidelity digital simulations of 
the Ballistic Missile Defense System. These digital simulations 
included various countermeasures but with a significantly larger number 
of countermeasure variations. These tests have indicated that the 
Ballistic Missile Defense System has a significant initial capability 
to operate against some countermeasure types.
    In parallel with the ground test venues, there has been flight 
testing of the Ground-Based Midcourse Defense. Using a prototype 
Ground-Based Interceptor, GMD was successfully tested against 
increasingly threat-representative separating reentry vehicles 
accompanied by various debris and countermeasure objects with four hit-
to-kill successes out of five tests.
    Research, development and testing of new discrimination approaches 
also continues. The development effort includes dedicated 
countermeasure flight tests as well as dedicated counter-countermeasure 
ground and flight test demonstrations. Comprehensive countermeasure 
data have been acquired during these developmental flight tests for all 
the countermeasures listed above; flight data on other more advanced 
countermeasures have also been obtained. These data are currently being 
used in the development and testing of additional counter-
countermeasures capabilities to be implemented in Block 2004 Ballistic 
Missile Defense System and beyond.
    Question. Vice Admiral Lowell Jacoby, the Director of the Defense 
Intelligence Agency, recently suggested that North Korea may have 
developed a small nuclear warhead cable of being delivered onto U.S. 
territory. Do you agree with that assessment? If the North Koreans 
don't have the capacity today, how soon could they develop it?
    Answer. As Mr. Di Rita pointed out in the press conference on April 
29th, there is no new assessment on North Korea. Just to reiterate the 
official assessment of the Taepo Dong-2, I'd like to quote from Vice 
Admiral Jacoby's February 16th statement to the Senate Select Committee 
on Intelligence, ``North Korea continues to invest in ballistic 
missiles to defend itself against attack, achieve diplomatic advantage 
and provide hard currency through foreign sales. Its Taepo Dong-2 
intercontinental ballistic missile may be ready for testing. This 
missile could deliver a nuclear warhead to parts of the United States 
in a two stage variant and target all of North America with a three 
stage variant.''

                             EFFECTIVENESS

    Question. In March of 2003, Edward ``Pete'' Aldridge, who was then 
the Under Secretary of Defense for Acquisition, Technology and 
Logistics, testified before the Senate Armed Services Committee that 
the ground-based interceptor system would be 90 percent effective. Can 
you explain how he arrived at that figure and what data it is based on? 
Do you agree with his assessment?
    Answer. Yes, I agree with his assessment. The effectiveness figure 
you cited is known as Probability of Engagement Success. The equation 
relating the probability of engagement success includes the number of 
shots and the probability of kill of the interceptors. It also includes 
all non-kill contributions such as availability, detection, tracking 
and planning which are correlated with each shot against a single 
missile.
    [Deleted].
    Question. David Duma, the Acting Director of the Pentagon's 
Operational Test and Evaluation Office, recently testified that ``I 
don't think that you can say the system is operationally ready today.'' 
What is your view of his assessment?
    Answer. David Duma made two principal points in his testimony. I 
concur with both. First, he stated that ``integrated ground testing 
results to date indicate the testbed has the potential to defend 
against a limited attack under certain conditions,'' but ``difficulties 
in the flight test program have delayed the confirmation of intercept 
capability using the testbed.'' He also stated that the ``maturity of 
the testbed will not yet support realistic operational end-to-end 
testing.'' Both points are valid, and we at the Missile Defense Agency 
are working hard to address them in the remaining months of 2005.
    The recent test aborts we experienced were major disappointments, 
but they were not major technical setbacks. We recognize the importance 
of demonstrating the effectiveness of our system, and realize that 
confidence in its capabilities will be limited until we can demonstrate 
a successful intercept during an operationally realistic test. We 
currently plan to conduct an end-to-end test with operational assets 
this calendar year, and expect to execute three to four more during 
2006. In planning our future test program, I work closely with Mr. 
Duma, and we have jointly approved an integrated master test plan 
through 2007 that combines developmental and operational testing to 
reduce costs and increase test efficiency.
    The maturity of the testbed will also increase significantly when 
the Sea-based X-band radar arrives in the North Pacific later this 
year. While COBRA DANE and Aegis radars can provide initial defensive 
capability, this new radar is an essential element to provide mid-
course discrimination and track updates.
    Until we complete operationally realistic testing, we will not have 
complete confidence that the system is operationally ready. We do, 
however, currently have deployed an increasingly robust system that 
provides an emergency capability.
    Question. The Missile Defense Agency has not been able to conduct a 
successful test even of the highly scripted series currently underway 
since October 2002? How can the system have any credibility?
    Answer. The Ground-based Midcourse Defense System has proven Hit-
to-Kill technology works, and that far-flung sensors, command & control 
components and interceptors can work together to kill a threat target. 
It has done this not only through 5 successful flight tests, but also 
through significant integrated ground testing of the software/hardware-
in-the-loop, providing confidence that the system will perform as 
designed.
    The Agency was not successful on recent flight tests, two of which 
failed to launch the interceptor. However, we have root caused the 
problems, implemented corrective actions, and brought in two separate 
teams of experts to independently assess these and other processes 
across the program. The Independent Review Team (IRT), led by Dr. Bill 
Graham, reviewed the flight failures, and recommended process changes 
to address flaws that they identified. The Director, MDA then 
established the Mission Readiness Task Force, including elements of GMD 
and Boeing, under the command of RAdm Kate Paige to implement changes 
as necessary to assure a GMD system that is ready and able whenever 
called upon by an operational commander, or a test director, based on 
recommendations from the IRT, GMD & Boeing initiatives, and her own 
Task Force.
    The successful testing that has been accomplished to date does not 
excuse the recent flight failures, but it does put the condition of the 
system in perspective and provide confidence that we do indeed have a 
thin line of defense available to us today.
    Examples of the successful testing accomplished over the last one-
two years follow:
    Four software/hardware-in-the-loop Integrated Ground Tests, and 
four System Integration and Check-Out Tests using the actual deployed 
system. Integrated Ground Tests use a software and hardware-in-the-loop 
configuration in the laboratory to test the system against an array of 
threat scenarios. Approximately 80 percent of the laboratory ground 
test configuration is the real Ground-based Midcourse Defense Software/
Hardware and the remaining 20 percent is simulated. The simulated 
portions of the test configurations are accredited to represent the 
threat, environments, and those portions of the system such as 
interceptor fly out, that are not possible in a laboratory. A 
comprehensive set of System Integration and Check Out tests on the 
deployed system certify that the Ground-based Midcourse Defense 
interfaces are fully operational in a fielded environment.
    Ground-based Midcourse Defense conducted a successful flight test 
of the operational configuration of the booster vehicle in January 
2004.
    During IFT-13C and IFT-14, the two recent flight tests where the 
interceptor failed to launch, we were able to test the command and 
control components and their ability to accurately generate sensor, 
communications and weapons task plans necessary to automatically 
initiate the interceptor launch process.
    IFT-13C and IFT-14, as well as the Integrated Ground Tests and 
System Integration and Check Out Tests, exercised the warfighting 
procedures, with soldiers under operational command operating the 
warfighting consoles and operational test agencies observing and 
evaluating.
    Question. The United States has been vigorously pursuing a national 
missile defense for many years. Do you believe that our program has 
served as a deterrent on the nuclear weapons aspirations of either the 
Iranians or the North Koreans?
    Answer. I have not seen any evidence that would indicate that 
either North Korea or Iran has been deterred in their nuclear weapons 
aspirations by our program. I am certain, however, that the serious 
commitment the United States has demonstrated to developing and 
fielding effective missile defenses has greatly complicated the ability 
of North Korea and Iran to threaten the United States with nuclear 
weapon delivery systems.

                          SUBCOMMITTEE RECESS

    Senator Stevens. Our subcommittee will now stand in recess 
until next Tuesday, May 17, when we receive testimony from 
public witnesses concerning the President's budget request. 
That will be an almost all-day hearing.
    Thank you very much.
    [Whereupon, at 10:59 a.m., Wednesday, May 11, the 
subcommittee was recessed, to reconvene at 2:30 p.m., Tuesday, 
May 17.]


       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                         TUESDAY, MAY 17, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:28 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Bond, and Inouye.

                       NONDEPARTMENTAL WITNESSES

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Good afternoon. This is the afternoon for 
public witnesses for consideration for the fiscal year 2006 
defense budget. We have 25 witnesses who have indicated they 
want to testify or submit statements for the record. To keep us 
on schedule, we are going to have to ask that you limit your 
testimony to 4 minutes each. I have to warn you there is going 
to be votes throughout the afternoon and Senator Inouye and I 
are going to be leapfrogging back and forth, and we have 
scheduled this this afternoon because we believe that there is 
going to be all sorts of problems on the floor tomorrow.
    We do appreciate your interest and want you to know, as we 
have every year, we are going to review carefully the items you 
present to us. Your prepared statements will be included in the 
record in full, and when my good friend comes, Senator Inouye, 
our co-chairman, we will, as I indicated, share listening to 
your presentations.
    Our first witness is Susan Lukas, the Legislative Director 
of the Reserve Officers Association of the United States. Ms. 
Lukas.

STATEMENT OF SUSAN E. LUKAS, LEGISLATIVE DIRECTOR, 
            RESERVE OFFICERS ASSOCIATION OF THE UNITED 
            STATES
    Ms. Lukas. Mr. Chairman, on behalf of over 75,000 members 
of the Reserve Officers Association (ROA), I would like to 
thank you for this opportunity to speak today.
    The Reserve components have always relied on Congress to 
provide appropriations for their equipment requirements. While 
active duty considers Guard and Reserve needs, as you know, 
they do not always rate high enough to be funded in the 
President's budget. In particular, your subcommittee's support 
has been invaluable.
    Our testimony this year mainly focuses on equipment needed 
for force protection and mission support. While one would not 
necessarily think of Army trucks as offering personal 
protection, this war has shown us how vulnerable our people are 
when driving vehicles.
    At a recent ROA convention, an Army non-commissioned 
officer (NCO) said he worked hard to train his soldiers how to 
drive in convoy, but nothing could prepare them for the 
conditions they had to operate under. He said one of the first 
things he learned was to drive as fast as if your life depended 
on it, because it did.
    You can well imagine, between those conditions, the 
environment and demands, the fleet is aging quickly. For 
example, there are about 1,800 long haul tractor-trucks being 
used in Iraq. Forty percent of the fleet is at a 20-year life 
expectancy level. The new trucks will reduce fuel and can 
accept 2,900 pounds of up-armoring. This is but one example of 
the trucks that need replacement in the Army.
    The Naval Reserve needs to meet mission requirements by 
replacing their C-9 fleet as it is not compliant with either 
future global navigation requirements or European flight 
restrictions.
    Congress has supported appropriations for the littoral 
surveillance system and continuing support would allow the 
Naval Reserve to meet their homeland security mission and 
deploy this equipment with the fleet.
    The Air Force Reserve equipment requirements focus on 
countermeasure protections such as the large aircraft infrared 
countermeasures system (LAIRCM), LITENING Pods, color radar for 
C-130s, and C-5 Airlift Defense Systems. I will not go into 
detail on the equipment as it is covered in our written 
testimony.
    Several years ago ROA suspected stop-loss and mobilization 
would reduce recruiting and retention. Unfortunately, this has 
happened. The Reserve chiefs recently testified before your 
subcommittee that increased bonus authority has made a 
difference. While bonuses are an effective tool, ROA asks for 
consideration to fully fund advertising and marketing, tuition 
assistance, family support, special training, and school tours.
    In closing, the bond between the United States (U.S.) 
military and our civilian communities is strengthened by the 
mobilization of neighbors and fellow workers, our reservists 
and National Guardsmen. The move toward using the Guard and 
Reserve to meet operational requirements is a natural evolution 
of this very capable force. However, force transformation needs 
to retain surge capability in order to meet emerging threats or 
demands. The Guard and Reserve can be configured to meet both 
operational and surge requirements.
    I look forward to answering any questions you may have and 
again thank you for allowing me to speak to the subcommittee.
    [The statement follows:]

                  Prepared Statement of Susan E. Lukas

                              INTRODUCTION

    ROA's legislative goals for this year have focused on mobilization 
and recruiting and retention. These goals come from our members as they 
identify problems or suggest improvements to the situations they 
encounter. Since we are not in the Department of Defense's chain of 
command we provide a source for candid discourse without fear of 
retaliation. ROA will continue to support the troops in the field in 
any way we can.
    A key factor in supporting the Reserve Components is funding their 
training needs. Cost avoidance cuts for the past 2 years have forced 
the services to take reductions in mobilization training, 
demobilization training, recruiting training, annual training, special 
training, and bonus authorities' accounts. ROA urges Congress to fully 
fund these accounts and reverse the cost avoidance reductions.

                  NATIONAL GUARD AND RESERVE EQUIPMENT

Army Reserve
    Equipping both existing units and new units will be a considerable 
task. Units that deployed and took their equipment to combat have left 
the equipment in the theater. It may have even been damaged or 
destroyed. Many units were already short critical equipment. As the 
Army Reserve creates its ``force packages'' it is understood that the 
earlier deploying force package units will be equipped first. Other 
units will have ``mission essential equipment for training'' and as 
they move closer to their respective rotation dates, they will receive 
more of their needed equipment. There will also likely be increased use 
of pre-positioned equipment much the same as was done during the Cold 
War and to an extent is being done today. The Army Reserve has 
identified fiscal year 2006 as the ``Year of Equipping.'' In doing so, 
they are giving particular emphasis to critical equipment shortfalls 
that will impact the transformation to rotational force packages, 
training, and mission accomplishment. Many of the items on the 
``Unresourced Equipment and Modernization Requirements'' have not 
changed. Priorities may have moved up or down and quantities may have 
increased.
            Light Medium Tactical Vehicle (LMTV)
    This critical item was No. 1 in fiscal year 2005 and will remain 
the No. 1 equipment priority in fiscal year 2006. As indicated earlier, 
the Army Reserve's transportation role is crucial to mission 
accomplishment. The FMTV replaces many Vietnam-era trucks whose 
effective life cycle ended some time ago.
    Required.--4,512; Short.--2,683; Fiscal Year 2006 Buy.--600; 
Cost.--$91.8 million.
            Medium Tactical Vehicle (MTV)
    This item was No. 2 last year and remains the No. 2 equipment 
priority. The vehicles that the MTV's replace are past their useful 
life and the cost to keep them running can challenge the cost of 
procuring the newer and more efficient MTV. The requirement has not 
changed and the number that is currently on hand is staggeringly low.
    Required.--8,784; Short.--6,712; Fiscal Year 2006 Buy.--800; 
Cost.--$146 million.
            Multi-Band Super High Frequency Terminal
    The Army Reserve provides the majority of the Theater Signal 
management in the Army. The terminal provides inter-theater and intra-
theater range extension support. The fiscal year 2005 buy would fill 
the requirement of one integrated Theater Signal Brigade.
    Required.--50; Short.--46; Fiscal Year 2006 Buy.--10; Cost.--$30 
million.
            Truck, Cargo PLS 10X10 M1075 and PLS Trailer
    Again, the combat service support role of the Army Reserve 
highlights the need for the most current model. This requirement also 
includes the Tactical Fire Fighting Truck.
    Truck/Trailer Required.--929/1,484; Short.--275/769; Fiscal Year 
2006 Buy.--88/56; Cost.--$25.4 million/$3.0 million.
            Improved High Frequency Radio (IRFR)
    Provides voice transmission for battle command and is the primary 
means of communications for maneuver battalions.
    Required.--1,750; Short.--937; Fiscal Year 2006 Buy.--937; Cost.--
$39.8 million.
            High Mobility Multi-Purpose Wheeled Vehicle (HMMWV)
    This is the standard version of the much used workhorse of the 
Army. All units need them. Many in the Army Reserve are older models 
and Active Army ``hand-me-downs'' that might not meet deployment 
standards when a unit is mobilized.
    Required.--13,919; Short.--1,543; Fiscal Year 2006 Buy.--321; 
Cost.--$24.0 million.
            Up Armored High Mobility Multi-Purpose Wheeled Vehicle 
                    (HMMWV)
    Much has been reported about the need for this critical vehicle in 
the combat zones. Many units are attempting to ``up-armor'' their 
vehicles in the theater with whatever might be available. This is a 
survival item and needs to be resourced.
    Required.--738; Short.--705; Fiscal Year 2006 Buy.--308; Cost.--
$55.1 million.
            Truck, Tractor Line Haul (M915A3)
    These vehicles haul bulk fuel and supplies from port to combat 
areas for disbursement to brigades. About 1,800 trucks are currently 
being used in Iraq. Forty percent of the fleet is at their life 
expectancy level of 20 years and the current replacement plan would 
take many out to over 30 years old. The Line Haul Tractor would 
decrease fuel demands and maintenance costs. Fuel savings alone could 
buy 140 trucks. Most importantly the suspension system is configured to 
accept the 2,900 pounds of up-armoring required for each truck.
    Required.--2,445; Short.--1,389; Fiscal Year 2006 Buy.--92; Cost.--
$87 million.
            HEMTT Load Handling System
    This requirement would fill the much needed requirement for the 
Improved Cargo Handling Operations and Medical Supply Companies. At the 
present time, there are none on hand in these units.
    Required.--44; Short.--44; Fiscal Year 2006 Buy.--44; Cost.--$10 
million.
            Tactical Fire Fighting Truck
    This improved item of equipment is critical to both the Army 
Reserve's Engineer Fire Fighting units as well as Ammunition Support 
Teams.
    Required.--72; Short.--43; Fiscal Year 2006 Buy.--10; Cost.--$6.0 
million.
    Prior to 1997, the National Guard and Reserve Equipment 
Appropriation was a critical resource to ensure adequate funding for 
new equipment for the Reserve Components. The much-needed items not 
funded by the respective service budget were frequently purchased 
through this appropriation. In some cases it was used to bring unit 
equipment readiness to a needed state of state for mobilization. 
Frequently the funds were used to purchase commercial off the-shelf 
items that units were unable to obtain through traditional sources. 
However, in 1997 an agreement between the administration and Congress 
eliminated the account with the objective of the active component 
providing the needed funds through their individual appropriations.
    The Reserve and Guard are faced with mounting challenges on how to 
replace worn out equipment, equipment lost due to combat operations, 
legacy equipment that is becoming irrelevant or obsolete, and in 
general replacing that which is gone or aging through normal wear and 
tear. Today, the ability to use NGREA funds for cost effective 
acquisition is virtually non-existent as the amount appropriated is a 
fraction of what the Army Reserve requires to meet immediate needs. An 
analysis has shown that with the implementation of the post-1997 
policy, there has been an overall decrease in procurement for the 
reserve components. In fiscal year 2004, procurement for the Reserve 
Components as a percentage of the DOD procurement budget is at its 
second lowest in recorded history at 3.19 percent. This comes even 
after a congressional add of $400 million for NGREA. Meanwhile, 
procurement for the Active Component continues to realize consistent 
real growth from fiscal year 1998 through fiscal year 2009 of 108.6 
percent. In the past, the use of ``cascading'' equipment from the 
Active Component to the Reserve Component has been a reliable source of 
serviceable equipment. However, with the changes in roles and missions 
that have placed a preponderance of combat support and combat service 
support in the reserve components, there has not been much left to 
cascade. Also, funding levels, rising costs, lack of replacement parts 
for older equipment, etc. has made it difficult for the Reserve 
Components to maintain their aging equipment, not to mention 
modernizing and recapitalizing to support a viable legacy force. The 
Reserve Components would benefit greatly from a National Military 
Resource Strategy that includes a National Guard and Reserve Equipment 
Appropriation.
Naval Reserve
            C-40
    The Navy requires a Navy Unique Fleet Essential Airlift Replacement 
Aircraft. This aircraft was designated as the C-40A and will replace 
the aging C-9 fleet. Boeing offered the 737-700 new technology aircraft 
in response to the Navy's request for proposal.
    The C-40A, a derivative of the 737-700C is a Federal Aviation 
Administration (FAA) certified, high performance, fixed wing aircraft 
that will accommodate 121 passengers, or 8 pallets of cargo, or a 
combination configuration consisting of 3 pallets and 70 passengers. 
The C-40A is able to carry 121 passengers or 40,000 pounds of cargo, 
compared with 90 passengers or 30,000 pounds for the C-9. In addition, 
the maximum range for the Clipper is approximately 1,500 miles more 
than the C-9.
    Upgrading the aging C-9 Skytrain II airframe with new engines and 
avionics was considered, but that would leave new equipment in a 30-
year-old+ airframe. The Navy's aging C-9 fleet is not compliant with 
either future global navigation requirements or noise abatement 
standards that restrict flights into European airfields. Twenty-two 
aircraft remain to be replaced.
    A recent study by the Center for Naval Analyses recommends three 
additional C-40A be procured to meet global operational requirements 
and replace the C-9.
            Littoral Surveillance System
    Two Littoral Surveillance System (LSS) have been authorized by 
congress by fiscal year 2003. This provides timely assured receipt of 
all-weather, day/night maritime and littoral intelligence, surveillance 
and reconnaissance data. A third system would be used to support the 
Navy and would be an ideal mission to support Naval and Coast Guard 
Maritime Defense operations, when not deployed. The LSS system has been 
incorporated into the Joint Fires Network (JFN) and the cost for this 
new system is $2.0 million per set.
    JFN provides near real time intelligence correlation, sensor 
control and planning, target generation, precise target coordinates, 
moving target tracks and battle damage assessment capabilities to 
support more timely engagement of time critical targets. This 
capability allows a ship with the full JFN suite to share a greatly 
improved battlespace picture very quickly with other ships in the area 
of operations.
    The system, along with the Army's Tactical Exploitation System-
Forward and the Marines Tactical Exploitation Group, share a common 
software baseline, ensuring joint interoperability.
    At least 141 Reservists have been trained to run the two systems, 
which is viewed as a Naval Reserve mission.
Air Force Reserve
            C-5s
    C-5s are unique national assets that are unrivaled in range and 
payload. Air Force and industry studies confirm the viability of the C-
5 fleet (As and Bs) to serve until approximately 2040. These 
assessments resulted in the Air Force initiating a two-phased 
modernization program designed to improve C-5 reliability, 
maintainability, and availability. Modernization of C-5As assigned to 
the Air Force Reserve should be advanced concurrently with Air Force 
active duty units to include both the Avionics Modernization Program 
(AMP) and the Reliability Enhancement and Re-engining Program (RERP). 
C-5 modernization is the most cost effective solution for generating 
strategic airlift.
    Requirement.--ROA urges Congress to authorize and appropriate funds 
to modernize C-5As with AMP and RERP concurrent with active duty C-5Bs.
            C-17
    The C-17 Globemaster III is the newest, most flexible cargo 
aircraft to enter the airlift force. The C-17 is capable of rapid 
strategic delivery of troops and all types of cargo to main operating 
bases or directly to forward bases in the deployment area. The aircraft 
is also capable of performing tactical airlift and airdrop missions 
when required. The C-17 is the Nation's lowest risk program to increase 
capability.
    Requirement.--Commitment needed beyond 180 in January 2006 due to 
long lead items. Additionally, consideration for procurement beyond 180 
aircraft will support C-17s in the AFR and will increase the Nation's 
surge capability.
            C-40C
    Air Mobility Command's programmed force structure, based on C-9 
retirement schedule, does not include more then three C-40s for the AFR 
even though a hearing before Congress by the Air Force stated the 
demand for airlift was more then the availability of aircraft. For 
instance, the appropriate number of Operational Support Aircraft (OSA) 
does not exist to sufficiently meet increasing Congressional 
Delegation, Combatant Commander, or team travel requests. Operations 
and Maintenance are unfunded in fiscal year 2006 and fiscal year 2007 
for C-9s and C-40Cs.
    Requirement.--Increase procurement of C-40 aircraft by at least six 
additional aircraft to ensure an adequate special mission airlift force 
for the AFR by at least two C-40s per year for 3 years.
            C-130J
    AFRC C-130E aircraft are reaching the end of their economic service 
life, are becoming difficult to support, and must soon be replaced. The 
Air Mobility Command has selected the C-130J to replace these 40+ year 
old aircraft for both active, Reserve, and Guard C-130E units. The C-
130J is the latest version of the venerable C-130 Hercules and utilizes 
advanced composite materials, integrated digital avionics and a state-
of-the-propulsion system to provide significant performance 
improvements, new mission capabilities, and reduced life cycle costs. 
The recently executed C/KC-130J Multiyear Contract provides these 
aircraft at significant cost savings to the government while 
accelerating deliveries to units currently in conversion such as the 
53rd Wing at Keesler AFB, MS.
    Requirement.--ROA urges Congress to authorize and appropriate funds 
for the C/KC-130J Multiyear Procurement as requested in the President's 
Budget Request for fiscal year 2006.
            Large Aircraft Infrared Countermeasures System (LAIRCM)
    The AN/AAQ-24 V (13) LAIRCM is an infrared countermeasure system 
designed to protect both fixed and rotary wing aircraft against man-
portable (shoulder-launched) infrared-guided surface-to-air missiles.
    Requirement.--HC-130/C-130H3, $225.1 million.
            LITENING AT Advanced Targeting Pod
    Precision Attack Targeting System program was developed to fill the 
need for precision strike capability in the Air Reserve Component 
(ARC). The 25 pods will be used in AFRC A/OA-10 and B-52 aircraft.
    Requirement.--A/OA-10 and B-52, 25 pods, $53.0 million.
            APN-241 Low Power Color Radar for C-130s
    The AN/APN-241 combat aerial delivery radar provides enhanced 
safety and operational performance for C-130 aircrews. It offers the 
tanker/transport community some of the same advanced technologies 
originally developed for fighter aircraft. These technologies include 
high-resolution ground-mapping modes that enable very precise 
navigational fixes and aerial cargo drops.
    Requirement.--C-130H2, $37 million.
            C-5A Airlift Defensive Systems
    The Air Force Reserve Command has a total of 32 C-5A aircraft in 
its inventory. Currently, that aircraft has no viable onboard defensive 
system against surface to air (SAM) missiles. Funds to pay for the Part 
A and B installation of AN-AAR-47 and ALE-47 defensive systems stripped 
from C-141 aircraft as these systems become available to the SPO.
    Requirement.--C-5A 32 A/C $30.0 million.
            Situational Awareness Data Link for A-10s and HH-60s
    The Situation Awareness Data Link (SADL) integrates U.S. Air Force 
close air support aircraft with the digitized battlefield via the U.S. 
Army's Enhanced Position Location Reporting System (EPLRS). More than 
just a radio or a data modem, SADL provides fighter-to-fighter, air-to-
ground and ground-to-air data communications that are robust, secure, 
jam-resistant and contention-free. With its inherent position and 
status reporting for situation awareness, SADL provides an effective 
solution to the long-standing air-to-ground combat identification 
problem for preventing unintentional fratricide (http://
www.raytheon.com/products/sadl_eplrs/).
    Requirement.--A/OA-10 and HH-60, $7.7 million.

                           MILITARY PERSONNEL

Recruiting and Retention
            Army Reserve
    As combat operations in Iraq and Afghanistan become ``stability'' 
operations, it is expected that the Army Reserve and National Guard 
will make up 50 percent or more of the force. Both the Active Component 
and the Reserve Component will move to a rotational plan that will 
provide both predictability and stability for soldiers. The Army 
Reserve will organize its units into ``force packages'' that will help 
ensure that Reserve Component Soldiers will be available for 1 year out 
of every 5 to 6 years. This predictability will ease the pressure on 
soldiers, their families, and their employers.
    According to the Army Public Affairs announcement, May 3, 2005, 
``As of end of the April reporting period, Recruiting Command accessed 
7,283 Soldiers for the U.S. Army Reserve, 79 percent of the year-to-
date mission. The fiscal year 2005 Army Reserve recruiting mission is 
22,175.'' For the month of April the command fell short by 37 percent. 
The bonus program from last year helped to reduce recruitment and 
retention losses but with all other conditions remaining the same both 
areas will still be below goals. To overcome this, the Army Reserve 
needs to fully fund their bonus program to $149.5 million and increase 
AGR recruiter positions with funding to $59.1 million.
            Navy Reserve
    There are several challenges facing the services with recruiting 
and retention. The Naval Reserve recruiting is softer than many of the 
Navy's leadership would like to admit. The USNR has been slow to 
implement recruiting bonuses and the result is that the USNR is behind 
the power curve when compared to the other services with recruiting 
incentives for prior service members. The combined recruiting command 
has falling short of USN and USNR goals, and its Reserves are receiving 
short shrift for recruiting priorities. Even though the Navy is 
supporting deep cuts for its Naval Reserve (10,300 in fiscal year 2006) 
the need to recruit for the USNR has not lessened. To meet its 
shortcomings, the USNR is turning to activating drilling Reservists to 
fill the recruiter gap. When a problem exists, you call up the 
Reserves.
            Air Force Reserve
    Prior Service Availability.--In a 10-year period the Air Force 
Reserve went from accessing 50,507 in 1992 to 14,950 in 2005 and this 
trend has continued for the past 3 years. All of the services are 
experiencing this trend as the Guard and Reserve have gradually shifted 
to an operational force. The significance of recruiting fewer prior 
service personnel is lower average levels of experience residing in the 
Reserve Components and loss of investment in specialty training. 
According to the Air Force Reserve the most frequent reasons ADAF 
separatees give for not joining AFRC are:
  --Want to wait and see what happens (with world events);
  --Have seen Reservists deployed and don't want to risk same;
  --Done my time, not interested in continuing;
  --Have been told Reservists are first to be deployed;
  --Concerned Reserve status will negative impact civilian employment;
  --Negative feedback from activated IMAs;
  --Bad press coverage--impression active forces place Reservists & 
        Guardsman on front lines.
    Recruiting Non-Prior Service Personnel.--A decrease in prior 
service means an increase in the need for non-prior service personnel 
to meet recruiting goals. A corresponding increase in the need for 
training dollars results at a time when the administration wants to 
decrease budgets. The use of non-prior service also results in less 
availability of forces as they move through the training pipeline. Once 
formal professional military education is completed training continues 
in a member's specialty, which means it can take between 1 to 2 years 
before an individual can perform duty somewhat independently.
    ROA recommends supporting bonus incentives and reverse cost 
avoidance reduction trends that cut the reserve personnel and 
technician accounts.
Mobilization/Demobilization Impacts to Recruiting and Retention
    The impact of mobilization and demobilization does not rest just 
with the military member; it also affects their families and employers. 
This is important to note because they in turn factor in an individuals 
decision on whether or not to stay in the military.
    Two of the biggest problem areas that ROA members continue to share 
information on are with medical and pay problems.
      Comment: I am a mob'd reserve COL at Walter Reed with PTSD. The 
        problem I see that Reservists and Guardsmen are seeing is that 
        the burden of proof for absence of preexisting is on us. I have 
        seen soldiers with severe PTSD (suicidal/homicidal) be valued 
        by the board here at Walter Reed with 0 percent because they 
        concluded he was bipolar when he entered service, never mind 
        the war exacerbating the condition. I am seeing extremely low 
        valuations of disabilities for loss of limb and other traumatic 
        wounds.
      Comment: Here's the issue in a nutshell: Soldiers, according to 
        the Army Reserve Magazine, are eligible for Tricare benefits 90 
        days prior to mobilization. We have a group order from First 
        Army. When soldiers call Tricare they are told that they cannot 
        be enrolled in Tricare without an individual order. Soldiers 
        are eligible for this insurance but cannot get it. Individual 
        orders will not come until soldiers arrive at the Mobilization 
        station. Basically, we're eligible, but there is no vehicle to 
        provide this insurance. One example, our new officer's wife may 
        be pregnant. (the 2LT type) They currently have no medical 
        coverage. He is covered while on 29 day orders, but his wife 
        has no coverage. According to the AR Magazine, he should be 
        covered. This is a wonderful benefit, but de facto nothing has 
        changed since individual orders, which are required to get 
        coverage, don't come until the active duty period commences.
      Comment: Just wanted you to know that DEERS has dropped my family 
        from Tricare dental for the 4th or 5th time.
      Comment: Well, today is Day 12 of 12 in a row, with a 3-day 
        weekend ahead to recover. Of note, however--and I really hate 
        to continue to bring up pay issues, but I (and hundreds of 
        other recently demobilized reservists) have not been paid out 
        accrued pay--and it's been over 3 months now. SOMEONE has to do 
        something to force DFAS to pay us . . . but who? I'm convinced 
        no one cares or they simply can't fight the bureaucracy. I am 
        owed over $6,000 (after taxes) . . . the issues with DFAS 
        continue--that organization needs to be seriously investigated 
        and heads need to roll! I will have to take out a loan rather 
        than pay with the cash that I earned--how sad is that?
      Comment: I just wanted to touch base with you prior to leaving 
        active duty. I wanted to check on the status of any potential 
        article that was being written and also any help from the ROA 
        regarding the way that reservists (especially Army reservists) 
        have been treated with regard to reimbursements and pay. Since 
        October 1, I have been receiving only one-third of my normal 
        paycheck. Fortunately, I will be demobilizing on November 9,/ 
        2004. Regardless, a large portion of any article written MUST 
        include how DFAS (Indianapolis office) made multiple errors 
        and, yet, reservists (and their families) are paying for their 
        mistakes daily
      Comment: In late September I received a letter from DFAS stating 
        that I had received per diem in error and now owed the 
        government $11,696. I contacted an individual at DFAS and he 
        said that the Army had decided to use DOD Directive 4515.14 as 
        a guide to determine payment of per diem for soldiers in the 
        Washington, DC area. He also told me that there were lots of 
        other soldiers in the same situation and everyone had been 
        assessed with a debt for travel advances paid. I asked what 
        could be done and he said that he will submit a request for 
        waiver of debt for me to DFAS Denver. A few months later we 
        learned that DFAS Denver had denied waivers close to 900 
        soldiers in this situation. We attempted to find out from DFAS 
        Denver how to file an appeal of their decision to the Defense 
        Office of Hearings and Appeals (DOHA) and received no help. 
        October 1, I checked my bank account and discovered that my 
        direct deposit was only $548, I quickly determined that amount 
        to be approximately one-third of my usual deposit and guessed 
        that DFAS had decided to collect on the debt in the punitive 
        manner of two-thirds confiscation. With no warning from DFAS or 
        the Army that this was about to occur I was placed immediately 
        in a dire financial situation. I sought help from Army 
        Community Services by applying for a no interest loan from Army 
        Emergency Relief only to be denied a loan because I only had 35 
        days left on active duty, which would not guarantee loan 
        repayment.
Force Shaping
    The U.S. Naval Reserve has become a test bed for Active and Reserve 
Integration (ARI) and Zero Based Review (ZBR). While these two policies 
make for good endorsements on transformation, the impact of these 
policies will have a negative impact on retention. The bottom line of 
these new policies has been a recommendation within the Presidential 
Budget of a cut of 10,300 to the USNR in fiscal year 2006. Many within 
the Naval Reserve question the validity of these recommendations. The 
near term plan for the USNR is to force shape to Army support; which 
isn't necessarily preparing the force for the next at sea battle.
    The force being fashioned by Iraq is a USNR made up of SeaBee's, 
security forces, port security, custom agents and intelligence. This 
will be a more junior force. While the gain may be less in pay and 
compensation; the cost will be to experience and skill sets.
    The Zero Based Review (ZBR) which has recommend cutting the Naval 
Reserve from and end-strength of 84,300 to about 64,000 members did not 
include all of the roles, missions and demands for Reservists. Among 
the roles left out of this calculation were joint, and homeland 
security requirements. Yet Congress is being asked to cut the USNR to 
70,000.
    To reverse a growing trend ROA recommends:
  --Slow down and reduce the cuts planned for fiscal year 2006; at a 
        minimum the cut of 10,300 should be spread out over 4 to 5 
        years.
  --Determine what future roles the USNR will be supporting which could 
        lead to increases in end-strength, and;
  --Redo the USNR Zero Based Review to include joint and homeland 
        defense requirements. This ZBR should be ongoing rather than 
        periodic.

                               CONCLUSION

    DOD, as we all know, is in the middle of executing a war--the 
Global War on Terrorism and operations in Iraq are directly associated 
with that effort. For the Department, worries have emerged about 
additional spending during these military actions. Almost every 
initiative to include proposed changes to personnel practices and 
improvements in compensation programs are quickly placed under a ``what 
will it cost?'' scrutiny. It is ROA's view that this scrutiny is too 
often oriented toward immediate costs with a lack of appropriate regard 
for long-term results versus life cycle costs. This is not to say that 
prudent, fiscal personnel and budget policies and processes should be 
ignored. At all times what is being achieved should respectfully be 
balanced with how something is being achieved.
    From a positive aspect, DOD's work to change and transform is 
admirable. Although many issues effecting Reservists are difficult and 
complex, the Departments of Defense, Homeland Security, Health and 
Human Services have all accomplished much in streamlining and updating 
mobilization and demobilization and in working health care challenges 
of wounded military members. There are still areas that need scrutiny 
such a depot support and regeneration costs for equipment and training. 
The war on terrorism is our Nation's first threat and this threat will 
not go away. The Reserve Components will take part in countering this 
threat for many years to come which offers us the best opportunity to 
resolve these issues once and for all.

    Senator Stevens. Thank you very much, Ms. Lukas. I am sure 
you realize that this base closure process we are going through 
is to free up money to modernize some of that equipment, just 
as you indicated. We do have a vast need for improved trucks 
and improved vehicles. We are sending the Strykers over there 
so that they can drive them 65 miles an hour and still be safe. 
But there are not enough of them over there yet.
    But I thank you very much for your testimony and hope you 
will be pleased with the results.
    Ms. Lukas. Thank you, sir.
    Senator Stevens. Thank you very much.
    Next is Command Master Sergeant Retired Mark Olanoff, 
Retired Enlisted Association. Yes, sir. Nice to see you again, 
sir.

STATEMENT OF COMMAND MASTER SERGEANT MARK H. OLANOFF, 
            U.S. AIR FORCE (RETIRED), EXECUTIVE 
            DIRECTOR, THE RETIRED ENLISTED ASSOCIATION
    Sergeant Olanoff. Good to see you again, sir, Mr. Chairman.
    First I would like to start and thank you and Senator 
Inouye for everything you have done for us, because, you know, 
over the years we have come to see you and talked about issues 
that really are not within your purview, like concurrent 
receipt and survivor benefit offsets and health care for those 
over 65, which is now TRICARE for Life.
    You told us at one hearing, you might remember, a few years 
ago that we had to go to the authorizing committee to fix those 
problems, and we did that. Here is the debate that happened in 
the fiscal year 2001 conference report, in which virtually 
every Senator who spoke supported the improvements for health 
care. I just want to read a couple points that Senator Warner 
had to say.
    He said that: ``I turn now to what is the most important 
single item in this conference report, military health care, 
particularly for our retired personnel and their families. 
History shows they are the best recruiters of all.''
    In another part of the record he says: ``Two weeks ago in 
the testimony before the Senate Armed Services Committee and 
the House Armed Services Committee, General Hugh Shelton, 
Chairman of the Joint Chiefs of Staff, and each of the service 
chiefs strongly supported making this benefit permanent and 
using the accrual amount method of financing. The Joint Chiefs 
have repeatedly testified that failing to honor the commitment 
to our retirees has been detrimental to their recruiting and 
retention efforts.''
    Yet today we see op-ed pieces put out by the Pentagon that 
now say that military retirees are a drain on the active duty 
force and the Reserve component. This is far from the truth. As 
you know, Mr. Chairman, your subcommittee appropriates money 
for discretionary funding. We won the battle on TRICARE for 
Life through the Armed Services Committee, not here. We won the 
battle on concurrent receipt through the authorizers and it was 
paid for through the Treasury, not from the Defense Department. 
The survivor benefit correction that was done in last year's 
defense bill was offset by crazy accounting the way they do 
things here, but there was an offset of mandatory funding. We 
did not buy tankers that we were going to buy.
    So for the Pentagon to now say that we are a drain on their 
budget is totally unfair. The last point, Mr. Chairman, is I 
did some checking to find out why the Pentagon does not talk 
about civilian retirees, why they are not a drain on their 
budget. There is a good reason. I found out that the health 
care--72 percent that the Government funds for retirees of the 
civil service--is funded through the Office of Personnel 
Management (OPM) budget, which means there is no accrual 
accounting like there is for TRICARE for Life.
    So I believe that we have an obligation to fund military 
health care for military retirees who have earned their 
benefits. Again, I would like to thank you very much for 
everything that you have done to help us over the years.
    Thank you, Mr. Chairman.
    Senator Stevens. Thank you very much.
    I was just talking about looking into that. We will look 
into that.
    Sergeant Olanoff. Thank you, sir.
    Senator Stevens. We appreciate it.
    [The statement follows:]

                 Prepared Statement of Mark H. Olanoff

    Mr. Chairman, it is an honor for The Retired Enlisted Association 
to testify on our concerns for military and veterans' before your 
committee.
    The Retired Enlisted Association is a Veterans' Service 
Organization founded 42 years ago to represent the needs and points of 
view of enlisted men and women who have dedicated their careers to 
serving in all the branches of the United States Armed Services active 
duty, National Guard and Reserves, as well as the members who are doing 
so today.

       FUNDING FOR ACTIVE DUTY, NATIONAL GUARD AND RESERVE FORCES

    The Retired Enlisted Association generally supports the 
administration's request to support today's troops and looks forward to 
working with the committee to that end. TREA is working on issues with 
the Senate Armed Services Committee to improve the quality of life for 
all components, retirees and their survivors.

                            DOD HEALTH CARE

    I would like to start with a statement made by Senator John Warner 
(Virginia), Chairman of the Senate Armed Services Committee during the 
debate on the fiscal year 2001 National Defense Authorization Act 
concerning the Healthcare provisions:

    ``I turn now to what is one of the most important single item in 
this conference report--military healthcare, particularly for our 
retired personnel and their families. History shows they are the best 
recruiters of all.''

    The conference report before the Senate fulfills an important 
commitment of ``healthcare for life'' made by the recruiters--the U.S. 
Government--beginning in World War II and continuing through the Korean 
war and the Viet Nam war. The goal of making that commitment was to 
encourage service members to remain in uniform and become careerists. 
Simply put, a commitment of health care for life in exchange for their 
dedicated career service.
    Again, this convergence report fulfills the promise of healthcare 
for life. I am proud of the bipartisan unanimity with which the Senate 
Armed Services Committee supported this initiative--an initiative never 
taken before by a congressional committee.
    Let me describe for my colleagues and for our active and retired 
service members around the world the legislation in this conference 
report to authorize health care benefits for Medicare-eligible military 
retirees and their families, and how we arrived at this outcome.
    For as long as I can remember, military recruits and those facing 
re-enlistment have been told that one of the basic benefits of serving 
a full military career is health care for life. We all know now that 
this commonly offered incentive was not based in statute, but was, 
nonetheless, freely and frequently made; it is a commitment that we 
must honor.
    Let me briefly review the history of military health care. Military 
medical care requirements for activity duty service members and their 
families were recognized as early as the 1700's. Congressional action 
in the last 1800's directed military medical officers to attend to 
military families whenever possible, at no cost to the family. During 
World War II, with so many service members on activity duty, the 
military medical system could not handle the health care requirements 
of family members. The Emergency Maternal and Infant Care Program was 
authorized by Congress to meet this road. This program was administered 
through state health agencies.
    The earliest reference in statute defining the health care benefit 
for military retirees was in 1956 when, for the first time, the 
Dependent's Medical Care Act specified that military retirees were 
eligible for health care in military facilities on a space-available 
basis. In 1966, this Act was amended to create the Civilian Health and 
Medical Program of the Uniformed Services, CHAMPUS, to supplement the 
care provided in military facilities. This legislation, in 1966, 
specifically excluded from coverage military retirees who were eligible 
for Medicare--a program which had been enacted by the Congress 1 year 
earlier, in 1965.
    The exclusion of over age 65, Medicare-eligible military retirees 
from guaranteed care from the military health care system was masked 
for many years because the capacity of military hospitals an the 
military medical system exceeded that required to care for active duty 
service members; therefore, many Medicare-eligible retirees were able 
to receive treatment, on a space-available basis, at military 
facilities. In the 1990's, we began to reduce the size of our military 
services and the base realignment and closure, BRAC, rounds began to 
close bases--and military hospitals--all across the Nation. The 
combined effect of fewer military medical personnel to provide care and 
the closure of over 30 percent of the military hospitals eliminated the 
excess capacity that had been so beneficial to military retirees. Also 
during this decade the retiree population grew dramatically, adding 
pressure to the military health care system. The true magnitude of the 
problem was finally exposed.
    All of us have heard from military retirees who served a full 
career and, in so doing, made many sacrifices. Many times the 
sacrifices these heroic veterans made resulted in serious medical 
conditions that manifested themselves at the time in their lives when 
they were pushed out of the military health care system. As a nation, 
we promised these dedicated retirees health care for life, but we were 
ignoring that promise.
    On February 23, 2000, I introduced a bill, S. 2087, that provided 
for access to mail order pharmaceuticals for ALL Medicare-eligible 
military retirees, for the first time. The legislation also would 
improve access to benefits under TRICARE and extend and improve certain 
demonstration programs under the Defense Health Program.
    On May 1, 2000, I introduced S. 2486, which added a retail pharmacy 
component to the previous legislation, providing for a full pharmacy 
benefit for all retirees, including those eligible for Medicare.
    On June 6, Senator Tim Hutchinson and I introduced S. 2669, a bill 
that would extend TRICARE eligibility to all military retirees and 
their families, regardless of age. Later that same day, I amended the 
defense authorization bill to add the text of S. 2669. This legislation 
provided uninterrupted access to the Military Health Care System, known 
as TRICARE, to all retirees.
    Permanently funding the military retiree health care benefit will 
be seen by retirees, active duty service members and potential recruits 
as the Nation keeping its commitment of health care for life to 
military retirees. Those serving today and those who are joining the 
military will see that the promise of a lifetime of health care, in 
return for serving a full career, will be honored in perpetuity.
    Two weeks ago, in testimony before both the Senate Armed Services 
Committee and the House Armed Services Committee, General Hugh Shelton, 
Chairman of the Joint Chiefs of Staff, and each of the service chiefs 
strongly supported making this benefit permanent and using the accrual 
account method of financing. The Joint Chiefs have repeatedly testified 
that failing to honor the commitment to our retirees has been 
detrimental to their recruiting and retention efforts.''
    TREA is very concerned with recent articles in national newspapers 
that the Department of Defense is worried that costs for military 
retiree benefits are taking funds away from the troops. These 
statements are not accurate.
    TREA urges the subcommittee to fully fund DOD's health care account 
to include a seamless transition with the Department of Veterans' 
Affairs. Further, TREA recommends report language that specifically 
prohibits the Department of Defense from raising TRICARE co-payments in 
fiscal year 2006. Finally, TREA recommends an oversight hearing with 
the Department of Defense and stakeholders to discuss differences 
between entitlement and discretionary spending.

                      BASE REALIGNMENT AND CLOSURE

    TREA realizes that this subcommittee has very little to do with the 
BRAC process, however, section 726 of the fiscal year 2004, National 
Defense Authorization Act (Public Law 108-136) states ``Working group 
on military health care for persons reliant on health care facilities 
at military installations to be closed or realigned''. Although this 
working group has been established by DOD and the group has had one 
meeting, this issue will become very important after the BRAC list is 
finalized.
    TREA urges the subcommittee to be aware of this issue when 
appropriations are made to fund BRAC.

                               CONCLUSION

    TREA is very grateful for this opportunity to testify before the 
Defense Appropriations Subcommittee and would like to thank Chairman 
Stevens and Ranking Member Inouye for their many years of support to 
the defense of our country.

    Senator Stevens. Our next witness is Retired Captain 
Marshall Hanson, Chairman of the Association for America's 
Defense. Yes, sir.

STATEMENT OF CAPTAIN MARSHALL HANSON, U.S. NAVAL 
            RESERVE (RETIRED), CHAIRMAN, ASSOCIATIONS 
            FOR AMERICA'S DEFENSE
    Captain Hanson. Thank you, sir. Mr. Chairman, the 
Associations for America's Defense (A4AD) are very grateful to 
testify today on issues of national defense equipment and force 
structure. We would like to thank this subcommittee for its 
stewardship on defense issues and setting the example by its 
nonpartisan leadership.
    Support for our deployed troops continues to be a priority 
and warrants top importance. The Reserve Enlisted Association, 
which belongs to A4AD, had one of its members mobilized by the 
marines who is currently in Iraq. When asked about up-armoring 
of vehicles in country, I got an answer from this sergeant by 
e-mail just yesterday that I would like to share with the 
subcommittee. He said:
    ``Sometimes I see soldiers going out in home-armored 
vehicles. We call them grenade buckets. Our teams have two 
vehicles and one of them is a bucket, though this week we will 
be getting it refurbished. They are going to take off the 
homemade armor and add higher sides, higher back gate, 
generation three armor doors, and armor the cab's canvas roof. 
Unfortunately, I was told that we will still need to add the 
Kevlar blast pads on the rear wheel wells because the armor 
does not protect the troops that sit in the back. Another 
problem is that these pads can catch fire.
    ``The insurgents have started using antitank mines, which 
have killed about four soldiers in the next area of operation. 
We had a first sergeant here who may lose his leg. We cannot 
really armor a Hummer enough to stop these mines. We do the 
best we can with the armor and use our intel, tactics, and 
procedures to stop the improvised explosive devices (IEDs) and 
car bomb attacks.
    ``Overall, the main difficulty with the up-armoring is the 
logistics with getting the vehicle to the up-armor location. 
They expect us to take off the welded homemade armor without 
technical support and then there is the risk of driving the 
unprotected vehicle to the armoring sites. Both vehicles we use 
have some wear and tear and could use refurbishing. This is the 
standard around here, although the 7-ton truck and the light 
medium tactical vehicles (LMTV) are in good condition.'' End 
quote.
    A4AD is concerned about this wear and tear on fielded 
equipment and how our soldiers and marines who are returning 
from the combat theater without equipment because they must 
leave it behind. For the demobilized, readiness will become an 
issue because there is no equipment left to train on. Included 
in our written testimony is a list of unfunded equipment we 
would like to see procured for Active and Reserve components.
    It also should be remembered that equipment is only as good 
as the people who use it. We believe Congress must continue to 
make it a high priority to increase end strengths because this 
type of combat we are seeing is stressing our military troops. 
People are more than just human capital assets and if they are 
overtasked and undervalued we will see a growing recruiting and 
retention problem.
    Further, proposed cuts to some of our Guard, Reserve, and 
Active services may be sending out the wrong message to future 
adversaries and to our troops in the field. Increases should be 
made to both the Active and Reserve components as the 
Department of Defense (DOD) missions will continue beyond just 
the operational, to include strategic contingencies and 
homeland defense.
    We are at a point in our history where we are defending our 
national interests at the same time that we are defining our 
future security systems. Let us not overstep our capabilities 
at the risk of defense. The responsibilities that you bear 
toward the future are great and I am sure the opinions you are 
given are many.
    Thank you for your ongoing support of the Nation, the armed 
services, and the fine young men and women who defend our 
country. I am available for any questions.
    [The statement follows:]

                 Prepared Statement of Marshall Hanson

                              INTRODUCTION

    Mister Chairman and distinguished members of the committee, the 
Associations for America's Defense (A4AD) are very grateful for the 
invitation to testify before you about our views and suggestions 
concerning current and future issues facing the defense appropriations.
    The Association for America's Defense is an adhoc group of 12 
military and veteran associations that have concerns about national 
security issues that are not normally addressed by The Military 
Coalition, and the National Military Veterans Alliance. Among the 
issues that are addressed are equipment, end strength, force structure, 
and defense policy. Collectively, we represent about 2.5 million 
members, who are serving our Nation, or who have done so in the past. 
The number of supporters expands to beyond 5 million when you include 
family members and friends of the military.
    A4AD, also, cooperatively works with other associations, who 
provide input while not including their association name to the 
membership roster.

              CURRENT VERSUS FUTURE; ISSUES FACING DEFENSE

    The Associations for America's Defense would like to thank this 
committee for the on-going stewardship that it has demonstrated on 
issues of Defense. At a time of war, its pro-defense and non-partisan 
leadership sets the example.
    Members of this group are concerned that U.S. Defense policy is 
sacrificing future security for near term readiness. So focused are our 
efforts to provide security and stabilization in Iraq, that risk is 
being accepted as an element in future force planning.
    A Pentagon criticism is that our Armed Forces are archaic; 
structured for a Cold War. Instead, transformation is now being touted 
that would now emphasize ``boots on the ground,'' while at the same 
time it encourages technological improvements that would jump a 
generation of weapons. Yet force planning is being driven by the Global 
War on Terrorism, plans to democratize the Middle East, and to allow 
for budget limitations. Cuts are being suggested for legacy weapons and 
infrastructure to pay for current operations and future combat systems.
    What seems to be overlooked is that the United States is involved 
in a Cold War as well as a Hot war. While the United States is 
preoccupied with the Middle East and with the near-term crisis posed by 
North Korea's, China expands its influence over Africa, South America, 
and the underbelly of the former Soviet Union. It builds a military 
designed to counteract American military, and is erecting a Chinese 
stronghold of territorial claims and international lawfare.
    Our military leadership defends it policy with proud display, 
testifying to the fact that our aircraft, missiles and ships have a 
greater capability and effectiveness then ever in the past. Yet within 
the last decade, our picket lines of defense have been gapped several 
times to respond to distant crises. Platform numbers and location are 
as significant as accuracy and payload.
    China is the elephant in the war room that many force planners hope 
will just go away. As the United States expends resources in the Middle 
East and re-structures the military to fight terrorism, China patiently 
waits for America to weaken by withdrawing itself globally by 
transforming into a smaller force. China also awaits for another 
advantage which could be caused by the GWOT: the erosion of the 
American national will.
    The Pentagon has suggested that technology will keep us ahead. By 
reducing procurement of the next generation of systems that are already 
planned by the armed services, and by pouring money into future combat 
systems DOD claims that we will maintain a tactical advantage. The 
question asked by many within the A4AD, will our adversaries wait until 
we attain this future?

                        FORCE STRUCTURE CONCERNS

Aging Equipment
    Tactical Air.--The rapidly aging F-15 Eagles first flew in the 
1970's. In recent mock combat against MiG, Sukhoi and Mirage fighters, 
foreign air forces scored unexpected successes against the Eagles. What 
is characteristic of paradigm shifts in air superiority is that they 
are invariably driven by one or another technological advance. New air 
dominance platforms are urgently needed. The F/A-22 Raptor and the 
Joint Strike F-35 fighters represent vital and complementary 
capabilities.
    Airlift.--Hundreds of thousands of hours have been flown, and 
millions of passengers and tons of cargo have been airlifted. Both Air 
Force and Naval airframes and air crew are being stressed by these lift 
missions. Procurement needs to be accelerated and modernized, and 
mobility requirements need to be reported upon.
    Fleet Size.--The number of ships in the fleet is dropping. At the 
end of April, the Navy had 288 ships. The Chief of Naval Operations, 
Admiral Vern Clark, in testimony before Congress talked about a 260 
ship fleet by the year 2035.
    Under the 260-ship plan, ship purchases and spending would show a 
peak-and-valley pattern over the 2006-2035 period. Through 2015, the 
Navy would buy an average of 9.5 ships per year, at an annual cost of 
about $14.4 billion. The fleet would peak at 326 ships in 2020 and then 
gradually decline to 260 by 2035. The mid-to-late 2020's would be a 
period of low ship purchases under the 260-ship plan.
    As recently as 2003, the U.S. Navy was telling Congress that its 
long-term goal was a 375-ship Navy. According to Admiral Clark, the 
260-ship plan would cost about $12 billion a year for ship 
construction, and the 325-ship plan would cost about $15 billion a year 
for shipbuilding.
    The administration procurement rate is too low and has yet to even 
reach a 9.5 ships per year procurement rate to support a build-up 
toward 2020. It appears that the Navy won't even attain the numbers 
discussed by the CNO before Congress.
    Admiral Clark has accepted the DOD premise that technology can 
replace humans, and now seems to favor a smaller Navy because of lower 
cost and reduced manpower. He has also instituted new procedures like 
surging aircraft carriers to meet crises and keeping ships deployed 
overseas while rotating the crews. To some this means the Navy will 
need no more than 325 ships and possibly as few as 260. Yet this also 
means we will wear out people and equipment faster.
    A4AD favors a larger fleet because of an added flexibility to 
respond to emerging threats. It is also believes that Congress should 
explore options to current ship design, configuration, and shipbuilding 
methods which have created billion dollar destroyers.
A Changing Manpower Structure
    Air Force.--Compared to the Cold War Air Force, today's USAF is 
small and based mostly in the United States, necessitating rapid, 
large-scale deployments over long distances. Over the last two decades, 
the active duty Air Force was reduced by nearly 40 percent--from 
608,000 to 359,000 uniformed members. Higher retention rates have 
caused the active duty force to expand temporarily to 375,000. Now the 
Air Force must shrink by some 16,000 Airmen in order to meet the fiscal 
year 2005 authorized force level of 359,000 people. While the force 
shrinks, operations tempo at stateside and overseas bases remains high. 
Airmen are working long hours, deploying with ever-increasing frequency 
to hot spots around the world, and spending more time away from their 
families. To accommodate the new steady state, service leaders have 
extended overseas rotations for each Air and Space Expeditionary Force 
(AEF), raising it from 90 days to 120 days. Combat deployments have 
been extended. Crews are flying longer missions and have less ground 
time between missions.
    Air Guard and Reserve.--Across the board, the Total Force is 
straining to meet new requirements and challenges. The Air National 
Guard and Air Force Reserve have been activated at unprecedented 
levels. Since September 11, 2001, the Air Force has mobilized nearly 
65,000 Guardsmen and Reservists. Together, they constitute 20 percent 
of Air Force AEF packages supporting operations in Southwest Asia. 
Additionally, they conduct 89 percent of air patrols over American 
cities in support of Operation Noble Eagle. In spite of enormous 
challenges, morale throughout the Total Force remains high. Senior Air 
Force leaders at present do not seek an increase in USAF end strength.
    A4AD cautions that if the level of operations continues at the 
current pace, a decision to request more manpower cannot be avoided. 
The bottom line is that resources must be matched to tasking.
    Army.--The Active Army is currently re-structuring all three 
components (Active, Reserve, Guard) in an attempt to create 77 Brigade 
Combat Teams and the necessary support organizations. To do this, the 
Army has a short-term increase in end strength of 30,000. Many in 
Congress feel that the increase should be permanent and possibly 
increased further.
    As part of its efforts to increase the number and deployability of 
the Army's combat brigades, the Pentagon has begun the Army's 
Modularity Program. The fiscal year 2006 request contains no funding 
for the program.
    Army Reserve.--The Army Reserve has a mandated end-strength of 
205,000. It is likely that they will not end the year within the 2 
percent variance authorized by Congress. It should be considered that 
part of the Active Army end-strength increase should be devoted to 
full-time support in the Army Reserve and Guard. This would enhance 
readiness as well as provide important mentoring to soldiers in 
anticipation of future deployments. At the present time, although 
retention in the Army, Army Reserve and Army National Guard remains 
high, recruiting challenges continue. A4AD anticipates that there will 
be an increased need for monetary incentives in all components.
    Navy.--The official Navy posture is that its force level will 
reduce from approximately 360,000 sailors today to something in the 
neighborhood of 315,000 by the year 2012. A4AD has had an internal 
debate among its own membership on this manpower policy, some favor 
cuts, while others favor increases. Manpower is expensive, but it is 
people, not technology that have always won past battles and salvaged 
ships. If we tailor our fighting force too tightly with a level that is 
too low, we could create a force without indemnity.
    Naval Reserve.--New Navy policies have lead to a recommendation 
within the Presidential Budget of a cut of 10,300 to the USNR in fiscal 
year 2006. A4AD disagrees. At a time when the USN plans to cut the 
active force, these skillsets of these people should be placed into the 
Naval Reserve. Yet rather than increase the USNR as a hedge against 
policy, the Navy wants proportionally bigger cut from its Reserve.
    The Zero Based Review (ZBR) which has recommended cutting the Naval 
Reserve from an end-strength of 84,300 to about 64,000 members did not 
include all of the roles, missions and demands for Reservists. Among 
the missions not included in this review were joint, homeland security 
requirements, spec-ops and non-planned M-day demands. Aviation hardware 
units were also not included in the ZBR.
    Further, proposed civilianization of drilling Reserve and Full Time 
Staff billets do not address the call for war fighting skills and 
risks. A prime example is the Naval Reserve Construction Seabees 
Battalions, which were proposed for reduction prior to 9/11, are now 
touted as the USNR's best assets.
    At a minimum, the proposed USNR fiscal year 2006 cut needs to be 
spread over a number of years, and the Naval Reserve roles and missions 
needed to be examined.
    Marines.--As the Marine Corps is increased in size, the USMC wants 
to maintain the right number and mix of trained experienced Marines 
with first tour recruits. Ideally, 70 percent of the USMC is first 
tour, with the remaining 30 percent on extended service. With an 
expanded force, this ratio has been changing so that the number of 
first tour Marines is growing beyond the 70 percent. The Marine Corps 
will need to retain a greater number of individuals to offset new 
trainees with experienced leadership. Gradual increases need to be 
implemented to maintain the ratio of first tour to experienced Marine.
    Marine Forces Reserve.--With a similar ratio as the Active 
component, historically 70 percent of the USMCR force has been non-
prior service. But this ratio has now climbed past 74 percent which 
causes concern. Retention is also becoming a challenge which 
exasperates the non-prior service ratio. No immediate increase beyond 
500 additional would be recommended for the USMCR.
    Coast Guard Reserve.--The Coast Guard Selected Reserve has been 
held to 8,100 members by appropriation restriction, and no one in the 
Coast Guard leadership has been an advocate to ask for additional 
funding to even cover for the 10,000 billets that have been authorized 
by the Armed Services Committees.
    The 8,100 manning level is no higher than it was prior to the 
terrorist attacks on September 11. Yet, the number of missions for the 
Coast Guard Reserve has increased. Coastal maritime defense is 
considered by many to be the most important challenges facing the 
United States today. Two requirements based studies conducted since 9/
11 recommended that the USCGR strength be increased to 17,353 and 
18,031 respectively. USCGR appropriations need to support authorization 
levels.
Increasing End Strength
    The Army's fiscal year 2006 budget request does not include funding 
for its 30,000-troop increase, nor does the Marine Corps request 
include funding for a 3,000-troop increase. Total estimated cost for 
the additional forces is $3.5 billion.
    A4AD has continuing concerns about the mismatch between reducing 
active duty and reserve force strengths and the increasing mission 
requirements. While retention rates remains highs, the effects of the 
heightened OPTEMPO are beginning to have a measured impact. If the 
current Active Duty end strength was adequate, the demand for Reserve 
and Guard call-up would not be so urgent.
    End strengths need to be closely examined by both the House and 
Senate as a first step in addressing this situation.
Regeneration/Resetting of Equipment
    Aging equipment, high usage rates, austere conditions in Iraq, and 
combat losses are affecting future readiness. Equipment is being used 
at 5 to 10 times the programmed rate.
    Additionally, to provide the best protection possible for Soldiers 
and Marines in the combat theater, many units have left their equipment 
behind for follow-on units, and are returning with no equipment. 
Without equipment on which to train after de-mobilization, readiness 
will become an issue.
    The Army, Army Reserve, Army National Guard, Marines and Marine 
Forces Reserve need continued funding by Congress for equipment 
replacement.
Counter-measures to Improvised Explosive Devices
    A4AD would like to commend the committee for supporting enhanced 
countermeasures for air and ground troops now deployed. For ground 
troops, the biggest threat to safety remains the improvised explosive 
device or IED. As you know, these devices use simple electronic 
transmitters--like garage door openers, remote controls for toys or 
cell phones--to detonate a disguised explosive as a convoy or unit on 
patrol passes by. These devices are usually well concealed in ordinary 
roadside debris like tires or dead animals. One response of the 
Congress to this extraordinary threat to our ground forces has been to 
call for and fund the accelerated purchase and deployment of up-armored 
Humvees.
    A4AD would like to point out to the committee, however, that 
Humvees are not the only vehicle operated in theater and that the 
emphasis on up-armoring one type of vehicle has left others with little 
to no protection. For example, by up-armoring Humvees, we provide a 
greater degree of safety for troops escorting a convoy, but no 
additional protection for those troops driving the large supply trucks 
that are part of the same convoy. Cost-effective solutions that can 
provide an enhanced degree of safety do exist, however, in the form of 
electronic countermeasures. These devices work in one of two ways: 
either by pre-detonating an IED or by preventing the detonation through 
jamming of the signal. The committee has already seen fit to support 
the deployment of these types of solutions through the reprogramming of 
$161 million in last years' supplemental for Iraq and Afghanistan 
operations, but we believe that more remains to be done. We would 
encourage and request the committee to look at specifying that 
additional funds be made available for the purpose of purchasing and 
deploying more electronic countermeasures for ground troops. In this 
way we can provide a greater degree of safety to all of the troops 
facing the IED threat, no matter what type of vehicle they may be 
operating.
    Continued emphasis is needed for the procurement of sufficient 
quantities of countermeasures to protect every unarmored personnel 
carrier now deployed in the battle space.
Aircraft Survivability Equipment
    As for air crews, they face non-traditional threats used by non-
conventional forces and deserve the best available warning and 
countermeasure equipment available to provide the greatest degree of 
safety possible. As an example of this threat, one need only look at 
the downing of a privately-operated helicopter as recently as 1 month 
ago. A4AD hopes that the committee will continue to support the 
purchase and deployment of warning and countermeasures systems for both 
fixed and rotary wing aircraft across all of the services and insure 
that the latest and most advanced versions of these protections are 
made available to all units now deployed or slated for deployment in 
the future--be they active duty, Guard or Reserve.
    Continue to support the purchase and deployment of warning and 
countermeasures systems for both fixed and rotary wing aircraft across 
all of the services and insure that the latest and most advanced 
versions are available.
Maintaining the National Guard and Equipment List
    Pressure continues within the Navy and the Coast Guard to combine 
various appropriations so that Reserve equipment accounts would be 
merged with that of the parent service.
    A single equipment appropriation for each service would not 
guarantee that the National Guard and Reserve Components would get any 
new equipment. The National Guard and Reserve Equipment Account (NGREA) 
is vital to ensuring that the Guard and Reserve has some funding to 
procure essential equipment that has not been funded by the services. 
Without Congressional oversight, dollars intended for Guard and Reserve 
Equipment might be redirected to Active Duty non-funded requirements. 
This will lead to decreased readiness.
    This move is reminiscent of the attempt by DOD to consolidate all 
pay and O&M accounts into one appropriation per service. Any action by 
the Pentagon to circumvent Congressional oversight should be resisted.
    A4AD asks this committee to continue to provide appropriations 
against unfunded National Guard and Reserve Equipment Requirements. To 
appropriate funds to Guard and Reserve equipment would help emphasize 
to the Active Duty that it is exploring dead-ends by suggesting the 
transfer of Reserve equipment away from the Reservists.
Unfunded Equipment Requirements
    (The services are not listed in priority order.)
            Air Force
    F/A-22 and F/35 Joint Strike Fighter
    Accelerate C-17 and C-130J procurement
    Update Tanker Fleet
    E-10 multi-sensor Command and Control Aircraft
    Space Radar
            Air Force Reserve
    C-9/C-40 Personnel Sustainment (O&M) Scott AFB--$40.8 million
    C-130/HC-130 Large Aircraft I/R Counter Measures--$225.1 million
    A-10 LITENING Advanced Targeting Pod Procurement--$53.0 million
    C-130 APN-241 Radar--$37.0 million
    Tactical Data Link for A-10/HH-60--$7.7 million
            Air Guard
    Accelerate C-17 Airlifter (8) add (7)--$180 million each
    Aircraft Rescue and Fire Fighting Vehicles
    E-8C Joint STARS Aircraft Re-engine
    Patient Decontamination Assemblages (20)--$3.4 million
    Bioenvironmental Assemblages (10)--$1.0 million
            Army
    The Army spent $62.4 billion on O&M in fiscal year 2004, is 
estimating O&M spending of $45.4 billion in fiscal year 2005, and is 
requesting only $31.8 billion in fiscal year 2006. If these figures are 
accurate, then Army O&M spending has declined by roughly 50 percent in 
the space of 2 years for a military that's the same size and actively 
engaged in combat operations in Iraq, Afghanistan, and other regions of 
the world.
            Army Reserve
    Light Medium Tactical Vehicles [LMTV] (600)--$92 million
    Medium Tactical Vehicles [MTV] (800)--$146 million
    Multi-Band Super High Frequency Terminal (10)--$30 million
    Truck, Cargo PLS 1010 and PLS Trailer (44/88)--$12.7/$4.8 million
    High Mobility Multi-Purpose Wheeled Vehicle (279)--$21 million
            Army Guard
    Funding for Rapid Field Initiative, special equipment and 
protective garments. RFI is a kit of approximately 50 essential items 
that provide the most up-to-date equipment to Soldiers at war.
    High Mobility Multi-Purpose Wheeled Vehicle (HMMWV, short 13,265)
    Single Channel Ground Air Radio Sys. (SINCGARS, retire obsolete 
20,000 VRC-12)
    Night Vision Goggles (NVG, short 100,000)
            Marine Corps
    Mountain and Cold Weather Clothing Equipment--$24.9 million
    Modernization of Medical Allowance Lists--$19 million
    Shelters and Tents--$23.4 million
    Portable Tent Lighting--$8.5 million
    Tactical Radios (PRC-117 and 150)--$25 million
            Reserve Marine Corps
    Initial Issue equipment--$10 million
    Mountain and Cold Weather Clothing Equipment--$8.4 million
    Portable Tent Lighting--$3.5 million
    Shelters and Tents--$5.2 million
    Light Armored Vehicles (LAV -25, 48)--$104 million
            Navy
    Aircraft Survivability Equipment--(5) MH-53E, (18) H/MH-60, (37) P-
3 AIP--$22.1 million
    Low Band Transmitter (Jammer) pods (11)--$16.4 million
    SH-60B/H Armed Helo Kits (28)--$58.3 million
    Expand Maritime Interdiction Outfitting--personal protection, 
secure comms & cargo access --$10.5 million
    Accelerate repair/replace theater small arms--$24.0 million
            Naval Reserve
    C-40 A Inter-theater Transport (2)--$135 million
    Littoral Surveillance System, LSS coastal defense (1)--$19 million
    Explosive Ordnance Disposal/Naval Coastal Warfare Tactical Vehicles 
and Support Equipment --$14.5 million
    EOD/NWC Small Arms--$36.8 million
    Funds for activation--Funds associated for Reservist mobilize for 
GWOT

                               CONCLUSION

    A core of military and veteran associations is looking beyond 
personnel issues to the broader issues of National Defense. As a group, 
we will continue to meet in the future, and hope to provide your 
committee with our inputs.
    Cuts in manpower and force structure, simultaneously in the Active 
and Reserve Component are concerns in that it can have a detrimental 
effect on surge and operational capability.
    This testimony is an overview, and expanded data on information 
within this document can be provided upon request.
    Thank you for your ongoing support of the Nation, the Armed 
Services, and the fine young men and women who defend our country. 
Please contact us with any questions.

    Senator Stevens. We do not have any questions. He is right, 
of course, and the difficulty is we still have to find a way to 
build them that way to start with. The up-armoring is costing 
us too much money. We have to go back sometimes two or three 
times to get it right.
    We appreciate your testimony, though. We will continue to 
work with you on that.
    Captain Hanson. Thank you, sir.
    Senator Stevens. The next witness is Dr. Jennifer Vendemia 
of the American Psychological Association.

STATEMENT OF JENNIFER VENDEMIA, Ph.D., ON BEHALF OF THE 
            AMERICAN PSYCHOLOGICAL ASSOCIATION
    Dr. Vendemia. Thank you, Mr. Chairman. I am Dr. Jennifer 
Vendemia from the University of South Carolina Psychology 
Department and I am testifying today on behalf of the American 
Psychological Association (APA), a scientific and professional 
organization of more than 150,000 psychologists and affiliates.
    Although I am sure you are aware of the large number of 
psychologists providing clinical services to our military 
members here and abroad, you may be less familiar with the 
extraordinary range of research conducted by psychological 
scientists within the Department of Defense. Our behavioral 
researchers work on issues critical to national defense with 
support from the Army Research Institute and Army Research 
Laboratory, the Office of Naval Research, the Air Force 
Research Laboratory, and additional smaller human systems 
research programs in the Office of the Secretary of Defense, 
Defense Advanced Research Projects Agency (DARPA), the Marine 
Corps, and the Special Operations Command.
    For example, my own brain imaging research, which received 
generous funding through this committee in fiscal year 2005, 
seeks to model the neurocognitive processes of lying in order 
to formulate new deception detection techniques using measures 
of specific brain activity. As a university researcher, I also 
collaborate with scientists conducting credibility assessment 
studies at the nearby DOD Polygraph Institute at Fort Jackson 
and the DOD Counterintelligence Field Activity here in 
Washington. Deception and its accurate detection is of course 
at the heart of counterintelligence work and the research 
collaborations with DOD are designed to bridge results from my 
investigations in basic psychophysiology to the more applied 
mission-specific science and technology work that supports 
counterintelligence activities. APA encourages the subcommittee 
to increase funding for these very small but critical research 
programs.
    In terms of the overall defense science and technology 
(S&T) account, the administration requested less in fiscal year 
2005 than the enacted fiscal year 2004 amount and congressional 
appropriators in turn provided a significant increase over both 
the budget request and the fiscal year 2004 level, for a total 
of $13.33 billion. For fiscal year 2006, the President's budget 
request of $10.52 billion for DOD S&T has again fallen short of 
both the fiscal year 2005 budget request and the fiscal year 
2005 enacted level, representing a 21 percent decrease.
    As a member of the Coalition for National Security 
Research, APA recommends the DOD science and technology program 
be funded at a level of at least 3 percent of total DOD 
spending in fiscal year 2006 in order to maintain global 
superiority in an ever-changing national security environment.
    Total spending on behavioral and cognitive research, in 
other words human-centered research, within DOD has declined 
again in the President's fiscal year 2006 budget. Specific 
human factors and manpower-personnel-training programs were cut 
in the Army. The Navy's applied programs in human systems and 
warfighter sustainment took substantial hits. Support for the 
Air Force's applied human effectiveness, crew systems, and 
personnel protection accounts were down in the President's 
budget request.
    We urge you to support the men and women on the front lines 
by reversing another round of dramatic detrimental cuts to the 
human-oriented research within the military laboratories and by 
increasing support to behavioral research programs within DOD 
activities related to credibility assessment and 
counterintelligence.
    Thank you very much.
    Senator Stevens. Thank you very much.
    [The statement follows:]

                Prepared Statement of Jennifer Vendemia

    ``Conflict is, and will remain, essentially a human activity in 
which man's virtues of judgment, discipline and courage--the moral 
component of fighting power--will endure . . . It is difficult to 
imagine military operations that will not ultimately be determined 
through physical control of people, resources and terrain--by people . 
. . Implicit, is the enduring need for well-trained, well-equipped and 
adequately rewarded soldiers. New technologies will, however, pose 
significant challenges to the art of soldiering: they will increase the 
soldier's influence in the battlespace over far greater ranges, and 
herald radical changes in the conduct, structures, capability and ways 
of command. Information and communication technologies will increase 
his tempo and velocity of operation by enhancing support to his 
decision-making cycle. Systems should be designed to enable the soldier 
to cope with the considerable stress of continuous, 24-hour, high-tempo 
operations, facilitated by multi-spectral, all-weather sensors. 
However, technology will not substitute human intent or the decision of 
the commander. There will be a need to harness information-age 
technologies, such that data does not overcome wisdom in the 
battlespace, and that real leadership--that which makes men fight--will 
be amplified by new technology. Essential will be the need to adapt the 
selection, development and training of leaders and soldiers to ensure 
that they possess new skills and aptitudes to face these 
challenges.''--NATO RTO-TR-8, Land Operations in the Year 2020.

    Mr. Chairman and members of the subcommittee, I'm Dr. Jennifer 
Vendemia from the University of South Carolina Psychology Department. I 
am submitting testimony on behalf of the American Psychological 
Association (APA), a scientific and professional organization of more 
than 150,000 psychologists and affiliates.
    Although I am sure you are aware of the large number of 
psychologists providing clinical services to our military members here 
and abroad, you may be less familiar with the extraordinary range of 
research conducted by psychological scientists within the Department of 
Defense (DOD). Our behavioral researchers work on issues critical to 
national defense, with support from the Army Research Institute (ARI) 
and Army Research Laboratory (ARL); the Office of Naval Research (ONR); 
the Air Force Research Laboratory (AFRL), and additional, smaller human 
systems research programs in the Office of the Secretary of Defense, 
the Defense Advanced Research Projects Agency (DARPA), the Marine 
Corps, and the Special Operations Command.
    For example, my own brain imaging research, which received generous 
funding through this committee in fiscal year 2005, seeks to model the 
neurocognitive processes of lying in order to formulate new deception 
detection techniques using measures of specific brain activity. As a 
university researcher, I also collaborate with scientists conducting 
credibility assessment studies at the nearby DOD Polygraph Institute 
(DODPI) at Fort Jackson and the DOD Counterintelligence Field Activity 
(CIFA) here in Washington. Deception, and its detection, is of course 
at the heart of counterintelligence work, and the research 
collaborations with DOD are designed to bridge results from my 
investigations in basic psychophysiology to the more applied, mission-
specific science and technology work that supports counterintelligence 
activities.
    I would like to address the fiscal year 2006 human-centered 
research budgets for the military laboratories and programs within the 
context of the larger DOD Science and Technology budget.

                   DOD SCIENCE AND TECHNOLOGY BUDGET

    The President's budget request for basic and applied research at 
DOD in fiscal year 2006 is $10.52 billion, a 21 percent decrease from 
the enacted fiscal year 2005 level and a decrease from the President's 
fiscal year 2005 budget request. APA joins the Coalition for National 
Security Research (CNSR), a group of over 40 scientific associations 
and universities, in urging the subcommittee to reverse this cut in 
support and dedicate at least 3 percent of total DOD spending to 6.1, 
6.2 and 6.3 level research in fiscal year 2006.
    As our Nation rises to meet the challenges of current engagements 
in Iraq and Afghanistan as well as other asymmetric threats and 
increased demand for homeland defense and infrastructure protection, 
enhanced battlespace awareness and warfighter protection are absolutely 
critical. Our ability to both foresee and immediately adapt to changing 
security environments will only become more vital over the next several 
decades. Accordingly, DOD must support basic Science and Technology 
(S&T) research on both the near-term readiness and modernization needs 
of the department and on the long-term future needs of the warfighter.
    In fiscal year 2005, the administration requested $10.55 billion 
for defense S&T, less than the enacted amount in fiscal year 2004. 
Congressional appropriators in turn provided a significant increase 
over both the budget request and the fiscal year 2004 level, for a 
total of $13.33 billion. For fiscal year 2006, the President's budget 
request of $10.52 billion for DOD S&T again fell short--of both the 
fiscal year 2005 budget request and the fiscal year 2005 enacted level 
(a 21 percent decrease).
    Despite substantial appreciation for the importance of DOD S&T 
programs on Capitol Hill, and within independent defense science 
organizations such as the Defense Science Board (DSB), total research 
within DOD has remained essentially flat in constant dollars over the 
last few decades. This poses a very real threat to America's ability to 
maintain its competitive edge at a time when we can least afford it. 
APA, CNSR and our colleagues within the science and defense communities 
recommend funding the DOD Science and Technology Program at a level of 
at least 3 percent of total DOD spending in fiscal year 2006 in order 
to maintain global superiority in an ever-changing national security 
environment.

          BEHAVIORAL RESEARCH WITHIN THE MILITARY SERVICE LABS

    In August, 2000 the Department of Defense met a congressional 
mandate to develop a Report to the Senate Appropriations Committee on 
Behavioral, Cognitive and Social Science Research in the Military. The 
Senate requested this evaluation due to concern over the continuing 
erosion of DOD's support for research on individual and group 
performance, leadership, communication, human-machine interfaces, and 
decision-making. In responding to the committee's request, the 
Department found that ``the requirements for maintaining strong DOD 
support for behavioral, cognitive and social science research 
capability are compelling'' and that ``this area of military research 
has historically been extremely productive'' with ``particularly high'' 
return on investment and ``high operational impact.''
    Despite the critical need for strong research in this area, the 
administration has proposed an fiscal year 2006 defense budget that 
again would slash funding for human-centered research. APA urges the 
committee to, at a minimum, restore proposed fiscal year 2006 cuts to 
the military lab behavioral research programs.
    Within DOD, the majority of behavioral, cognitive and social 
science is funded through the Army Research Institute (ARI) and Army 
Research Laboratory (ARL); the Office of Naval Research (ONR); and the 
Air Force Research Laboratory (AFRL). These military service 
laboratories provide a stable, mission-oriented focus for science, 
conducting and sponsoring basic (6.1), applied/exploratory development 
(6.2) and advanced development (6.3) research. These three levels of 
research are roughly parallel to the military's need to win a current 
war (through products in advanced development) while concurrently 
preparing for the next war (with technology ``in the works'') and the 
war after next (by taking advantage of ideas emerging from basic 
research). All of the services fund human-related research in the broad 
categories of personnel, training and leader development; warfighter 
protection, sustainment and physical performance; and system interfaces 
and cognitive processing.
    Despite substantial appreciation for the critical role played by 
behavioral, cognitive and social science in national security, however, 
total spending on this research declined again in the President's 
fiscal year 2006 budget. Specific human factors and manpower/personnel/
training programs within the applied 6.2 and 6.3 accounts were cut in 
the Army, and the Navy's applied 6.2 programs in human systems and 
warfighter sustainment took substantial cuts. Similarly, support for 
the Air Force's applied 6.2 and 6.3 level human effectiveness and crew 
systems and personnel protection accounts were down in the President's 
budget request.
    In addition, I know first-hand the value of supporting the smaller, 
but mission-critical, behavioral research programs within DOD, 
particularly those related to credibility assessment and detection of 
deception. APA encourages the committee to increase funding for these 
programs.
    Behavioral and cognitive research programs eliminated from the 
mission labs due to cuts or flat funding are extremely unlikely to be 
picked up by industry, which focuses on short-term, profit-driven 
product development. Once the expertise is gone, there is absolutely no 
way to ``catch up'' when defense mission needs for critical human-
oriented research develop. As DOD noted in its own Report to the Senate 
Appropriations Committee:

    ``Military knowledge needs are not sufficiently like the needs of 
the private sector that retooling behavioral, cognitive and social 
science research carried out for other purposes can be expected to 
substitute for service-supported research, development, testing, and 
evaluation . . . our choice, therefore, is between paying for it 
ourselves and not having it.''

    The following are brief descriptions of important behavioral 
research funded by the military research laboratories:

 ARMY RESEARCH INSTITUTE FOR THE BEHAVIORAL AND SOCIAL SCIENCES (ARI) 
                   AND ARMY RESEARCH LABORATORY (ARL)

    ARI works to build the ultimate smart weapon: the American soldier. 
ARI was established to conduct personnel and behavioral research on 
such topics as minority and general recruitment; personnel testing and 
evaluation; training and retraining; and attrition. ARI is the focal 
point and principal source of expertise for all the military services 
in leadership research, an area especially critical to the success of 
the military as future war-fighting and peace-keeping missions demand 
more rapid adaptation to changing conditions, more skill diversity in 
units, increased information-processing from multiple sources, and 
increased interaction with semi-autonomous systems. Behavioral 
scientists within ARI are working to help the armed forces better 
identify, nurture and train leaders. One effort underway is designed to 
help the Army identify those soldiers who will be most successful 
meeting 21st century noncommissioned officer job demands, thus 
strengthening the backbone of the service--the NCO corps.
    Another line of research at ARI focuses on optimizing cognitive 
readiness under combat conditions, by developing methods to predict and 
mitigate the effects of stressors (such as information load and 
uncertainty, workload, social isolation, fatigue, and danger) on 
performance. As the Army moves towards its goal of becoming the 
Objective Force (or the Army of the future: lighter, faster and more 
mobile), psychological researchers will play a vital role in helping 
maximize soldier performance through an understanding of cognitive, 
perceptual and social factors.
    ARL's Human Research & Engineering Directorate sponsors basic and 
applied research in the area of human factors, with the goal of 
optimizing soldiers' interactions with Army systems. Specific 
behavioral research projects focus on the development of intelligent 
decision aids, control/display/workstation design, simulation and human 
modeling, and human control of automated systems.
Office of Naval Research (ONR)
    The Cognitive and Neural Sciences Division (CNS) of ONR supports 
research to increase the understanding of complex cognitive skills in 
humans; aid in the development and improvement of machine vision; 
improve human factors engineering in new technologies; and advance the 
design of robotics systems. An example of CNS-supported research is the 
division's long-term investment in artificial intelligence research. 
This research has led to many useful products, including software that 
enables the use of ``embedded training.'' Many of the Navy's 
operational tasks, such as recognizing and responding to threats, 
require complex interactions with sophisticated, computer-based 
systems. Embedded training allows shipboard personnel to develop and 
refine critical skills by practicing simulated exercises on their own 
workstations. Once developed, embedded training software can be loaded 
onto specified computer systems and delivered wherever and however it 
is needed.
Air Force Research Laboratory (AFRL)
    Within AFRL, Air Force Office of Scientific Research (AFOSR) 
behavioral scientists are responsible for basic research on manpower, 
personnel, training and crew technology. The AFRL Human Effectiveness 
Directorate is responsible for more applied research relevant to an 
enormous number of acknowledged Air Force mission needs ranging from 
weapons design, to improvements in simulator technology, to improving 
crew survivability in combat, to faster, more powerful and less 
expensive training regimens.
    As a result of previous cuts to the Air Force behavioral research 
budget, the world's premier organization devoted to personnel selection 
and classification (formerly housed at Brooks Air Force Base) no longer 
exists. This has a direct, negative impact on the Air Force's and other 
services' ability to efficiently identify and assign personnel 
(especially pilots). Similarly, reductions in support for applied 
research in human factors have resulted in an inability to fully 
enhance human factors modeling capabilities, which are essential for 
determining human-system requirements early in system concept 
development, when the most impact can be made in terms of manpower and 
cost savings. For example, although engineers know how to build cockpit 
display systems and night goggles so that they are structurally sound, 
psychologists know how to design them so that people can use them 
safely and effectively.

                                SUMMARY

    On behalf of APA, I would like to express my appreciation for this 
opportunity to present testimony before the subcommittee. Clearly, 
psychological scientists address a broad range of important issues and 
problems vital to our national security, with expertise in 
understanding and optimizing cognitive functioning, perceptual 
awareness, complex decision-making, stress resilience, and human-
systems interactions. We urge you to support the men and women on the 
front lines by reversing another round of dramatic, detrimental cuts to 
the human-oriented research within the military laboratories, and by 
increasing support to behavioral research programs within DOD 
activities related to credibility assessment and counterintelligence.
    Below is suggested appropriations report language which would 
encourage the Department of Defense to fully fund its behavioral 
research programs within the military laboratories:

                        ``Department of Defense
            ``research, development, test, and evaluation

    ``Behavioral Research in the Military Service Laboratories.--The 
Committee notes the increased demands on our military personnel, 
including high operational tempo, leadership and training challenges, 
new and ever-changing stresses on decision-making and cognitive 
readiness, and complex human-technology interactions. To help address 
these issues vital to our national security, the Committee has provided 
increased funding to reverse cuts to basic and applied psychological 
research through the military research laboratories: the Air Force 
Office of Scientific Research and Air Force Research Laboratory; the 
Army Research Institute and Army Research Laboratory; and the Office of 
Naval Research.''.

    Senator Stevens. Our next witness I hate to leave sitting 
here, Dr. Polly. I will be right back. There is a vote. If you 
look back and see all those lights, that means that we are in 
the last part of the vote.
    Our next witness is Dr. David Polly, Professor and Chief of 
Spine Surgery at the University of Maryland, formerly of Walter 
Reed Hospital, an eminent surgeon who made it possible for me 
to walk straight up again.

STATEMENT OF DAVID W. POLLY, JR., M.D., PROFESSOR OF 
            ORTHOPAEDIC SURGERY AND CHIEF OF SPINE 
            SURGERY, UNIVERSITY OF MINNESOTA, ON BEHALF 
            OF THE AMERICAN ASSOCIATION OF ORTHOPAEDIC 
            SURGEONS
    Dr. Polly. Thank you, sir.
    Senator Stevens. Thank you very much.
    Dr. Polly. Mr. Chairman and Senator Inouye: I thank you for 
this opportunity to testify today. I am Dr. David Polly, 
Professor of Orthopaedic Surgery at the University of 
Minnesota, and I speak on behalf of the American Academy of 
Orthopaedic Surgeons.
    I have personally cared for injured soldiers at Walter Reed 
during four different military conflicts and have been deployed 
to a war zone as an orthopaedic surgeon in the military. My 
last assignment was as Chair of the Department of Orthopaedic 
Surgery and Rehab at Walter Reed.
    I speak today in support of the proposal to establish an 
Orthopaedic Extremity Trauma Research Program at the U.S. Army 
Institute of Surgical Research (ISR) at Fort Sam Houston, 
Texas, to fund intramural and extramural orthopaedic trauma 
research. It is no surprise that approximately 70 percent of 
all the trauma out of Afghanistan and Iraq is extremity trauma 
and it is orthopaedic-related--upper extremity, lower 
extremity, as well as spine trauma. Body armor has done a 
remarkable job of protecting the soldier's torso, but his or 
her extremities are very vulnerable to attacks, especially with 
IEDs. Wounded soldiers who may have died in previous conflicts 
from their injuries are now surviving and have to recover from 
these devastating injuries.
    There are remarkable examples of injured soldiers 
overcoming all odds and returning to full function and even 
Active duty, including the recent return of Captain David 
Rozelle to duty in Iraq as the first amputee returning to a 
combat zone in this conflict.
    The American Academy of Orthopaedic Surgeons has worked 
closely with top military orthopaedic surgeons at war class 
facilities, including the Institute for Surgical Research, 
Brooke Army Medical Center, and Walter Reed, to identify gaps 
in orthopaedic trauma research, specifically the need for 
improved anti-microbial bone replacement, systems for rapid 
wound irrigation, cleaning and debridement, laboratory 
investigations of pathogenesis and treatment of persistent 
infections in orthopaedic trauma, and surgical and 
pharmacologic methods to treat direct multiple trauma.
    To ensure that sufficient research is being supported on 
orthopaedic musculoskeletal trauma, it is critical that a 
dedicated program be created within the DOD. Thus the 
establishment of this orthopaedic trauma research program at 
ISR.
    It is important to note that military orthopaedic surgeons, 
in addition to personnel at the U.S. Army Medical Research and 
Material Command at Fort Detrick, have had significant input 
into the creation of this proposal and fully support its goals.
    I commend Congress for its commitment to the amputee care 
funding, especially the establishment of the Amputee Center at 
Walter Reed, which is near and dear to my heart. Thank you, 
sir. But another goal must be to do everything possible to 
salvage wounded limbs in the first place so that a soldier 
ideally does not need the Amputee Care Center at all. An 
expanded Federal commitment to orthopaedic extremity trauma 
would move us closer to this goal.
    National Institutes of Health (NIH) funding is directed at 
problems facing the U.S. population as a whole. This type of 
war extremity trauma is unique to DOD and not highly 
prioritized within the NIH. With over 70 percent of military 
trauma being orthopaedic-related, orthopaedic extremity trauma 
research clearly would be of great benefits to the sons and 
daughters of America serving in the global war on terror and in 
future conflicts.
    On behalf of America's soldiers, military orthopaedic 
surgeons in every branch of the service, and the American 
Academy of Orthopaedic Surgeons, I respectfully request that 
this subcommittee establish and fund the Orthopaedic Trauma 
Research Program to be administered at the U.S. Army Institute 
of Surgical Research.
    Thank you for this opportunity.
    [The statement follows:]

               Prepared Statement of David W. Polly, Jr.

    Chairman Stevens, Ranking Member Inouye, Members of the Senate 
Defense Appropriations Subcommittee, thank you for the opportunity to 
testify today. My name is David W. Polly, Jr., MD., and I speak today 
on behalf of the American Academy of Orthopaedic Surgeons, of which I 
am an active member, as well as on behalf of military and civilian 
orthopaedic surgeons involved in orthopaedic trauma research and care.
    I am a graduate of the United States Military Academy at West Point 
and was an airborne ranger serving as a line officer in the Army. 
Subsequently, I attended medical school at the Uniformed Services 
University of the Health Sciences and trained in orthopaedic surgery at 
Walter Reed Army Medical Center. I have personally cared for injured 
soldiers at Walter Reed during four different military conflicts and 
have been deployed to a war zone as a military orthopaedic surgeon. My 
last assignment was as Chair of the Department of Orthopaedic Surgery 
and Rehabilitation at Walter Reed. I retired at the end of 2003 after 
24\1/2\ years of service. I am currently Professor of Orthopaedic 
Surgery and Chief of Spine Surgery at the University of Minnesota.
    I would like to cover several topics today. First, I would like to 
discuss the common types of orthopaedic trauma seen out of Iraq and 
Afghanistan. Second, I will comment on the current state of orthopaedic 
trauma research. Third, I would like to offer a military perspective, 
as laid out yearly in extensive research priorities documents, of the 
direction in which orthopaedic research should head in order to better 
care for soldiers afflicted with orthopaedic trauma. Finally, I would 
like to encourage subcommittee members to consider favorably a proposal 
to create a peer-reviewed grant program, administered by the U.S. Army 
Institute of Surgical Research (USAISR), to fund intramural and 
extramural orthopaedic trauma research.

         ORTHOPAEDIC TRAUMA FROM OPERATION IRAQI FREEDOM (OIF)

    The Armed Forces are attempting to recover significantly injured 
soldiers to return them to full function or by limiting their 
disabilities to a functional level in the case of the most severe 
injuries. The ability to provide improved recovery of function moves 
toward the goal of keeping injured soldiers part of the Army or service 
team. Moreover, when they do leave the Armed Forces, these 
rehabilitated soldiers have a greater chance of finding worthwhile 
occupations outside of the service and continuing to contribute 
positively to society. The Army believes that it has a duty and 
obligation to provide the highest level of care and rehabilitation to 
those men and women who have suffered the most while serving the 
country.
    It probably comes as no surprise that approximately 70 percent of 
trauma seen out of Iraq and Afghanistan, as well as in previous 
conflicts, is orthopaedic-related, especially upper and lower extremity 
and spine. For example, during the USNS Comfort's 6-month deployment, 
surgeons on board performed 498 orthopaedic-related procedures 
accounting for almost 85 percent of the total surgical procedures 
performed. Of the 210 injured soldiers who have returned to Tripler 
Army Medical Center in Honolulu, 70 percent have had orthopaedic 
injuries. For the 447th Mobile Forward Surgical Team (FST) stationed in 
Baghdad, the extent of orthopaedic injuries has been even greater with 
89 percent of the injuries requiring orthopaedic stabilization.
    While medical and technological advancements, as well as the use of 
fast-moving Forward Surgical Teams, have dramatically decreased the 
lethality of war wounds, wounded soldiers who may have died in previous 
conflicts from their injuries are now surviving and have to learn to 
recover from devastating injuries. The vast majority of the orthopaedic 
injuries seen are to the upper and lower extremities. While body armor 
does a great job of protecting a soldier's torso, his or her 
extremities are particularly vulnerable during attacks.
Characteristics of Military Orthopaedic Trauma
    According to the New England Journal of Medicine, blast injuries 
are producing an unprecedented number of ``mangled extremities''--limbs 
with severe soft-tissue and bone injuries. These can be devastating, 
potentially mortal injuries (``Casualties of War--Military Care for the 
Wounded from Iraq and Afghanistan,'' NEJM, December 9, 2004).
    The trauma seen thus far is usually inflicted from close proximity 
and is most often a result of blast devices, such as improvised 
explosive devices (IEDs) and mortars. The result of such trauma is 
open, complex wounds with severe bone fragmentation. Often there is 
nerve damage, as well as damage to tendons, muscles, vessels, and soft-
tissue. In these types of wounds, infection is often a problem.
Military Versus Civilian Orthopaedic Trauma
    While there are similarities between orthopaedic military trauma 
and the types of orthopaedic trauma seen in civilian settings, there 
are several major differences that must be noted. First, with 
orthopaedic military trauma, there are up to five echelons of care, 
unlike in civilian settings when those injured are most likely to 
receive the highest level of care immediately. Instead, wounded 
soldiers get passed from one level of care to the next, with each level 
of care implementing the most appropriate type of care in order to 
ensure the best possible outcome. The surgeon in each subsequent level 
of care must try to recreate what was previously done. In addition, a 
majority of injured soldiers have to be medevaced to receive care and 
transportation is often delayed due to weather or combat conditions. It 
has been our experience that over 65 percent of the trauma is urgent 
and requires immediate attention.
    Second, soldiers wounded are often in fair or poor health, are 
frequently malnourished, and usually fatigued due to the demanding 
conditions. This presents many complicating factors when determining 
the most appropriate care.
    Third, the setting in which care is initially provided to wounded 
soldiers is less than ideal, to say the least, especially in comparison 
to a sterile hospital setting. The environment, such as that seen in 
Iraq and Afghanistan, is dusty and hot, leading to concerns about 
sterilization of the hospital setting. For example, infection from 
acinetobacter baumanni, a ubiquitous organism found in the desert soil 
of Afghanistan and Iraq, is extremely common. In addition, the surgical 
environment is under constant threat of attack by insurgents. In fact, 
a considerable percentage of the care provided by military surgeons is 
for injured Iraqis, both friendly and hostile. Finally, the surgical 
team is faced with limited resources that make providing the highest 
level of care difficult.
    While, as I have stated, there are many unique characteristics of 
orthopaedic military trauma, there is no doubt that research done on 
orthopaedic military trauma benefits trauma victims in civilian 
settings. Many of the great advancements in orthopaedic trauma care 
have been made during times of war, such as the external fixateur, 
which has been used extensively during the current conflict as well as 
in civilian care.

      THE CURRENT AND FUTURE STATE OF ORTHOPAEDIC TRAUMA RESEARCH

    Since the Vietnam War there have been advances in medical science, 
both on the civilian and the military side. One example is with 
microvascular surgery, which is when reconstructive procedures are 
performed to try to save limbs by putting blood vessels back together 
again, providing definitive wound coverage of severe open wounds to get 
vital structures covered, such as bone, nerves, and tendons. This means 
taking tissue from one part of the body and moving it to another part 
of the body and sewing in blood vessels with the use of a microscope. 
This allows the surgeon to wash, clean, debride and cover severe open 
contaminated wounds with some type of definitive coverage
    At the annual meeting of the Advanced Technology Applications for 
Combat Casualty Care (ATACCC), medical research priorities are laid out 
for military research facilities and programs. Many of the priorities 
expand on research that is currently underway at facilities such as the 
U.S. Army Institute of Surgical Research (USAISR) and Walter Reed Army 
Medical Center (WRAMC). I would like to provide you details of some of 
the research that is already underway and the outlook for these medical 
research advances.
Anti-microbial Bone-replacement Material
    High-energy wounds on the battlefield produce contaminated wounds 
with bone loss. The goal is to develop a product that can be placed 
into an open fracture after initial debridement at far forward medical 
treatment units. The product will deliver a time-release dose of 
antibiotic into the wound as well as promote bone growth. Evaluation of 
various materials has been conducted in animal models to determine the 
best product for treating highly contaminated injuries. Future work 
focuses on accelerating healing in larger defects, as well as 
evaluation of antimicrobial bone replacement materials in humans.
Improved Long Bone Splint/cast
    The current materials employed to splint injured limbs on the 
battlefield do not provide optimal support of the injured limb and are 
too bulky to be carried by the medic along with other required medical 
supplies. The goal is to develop a smaller and lighter weight splint/
cast system that can be molded to the injured limb providing adequate 
structural support. Research is currently underway on a self-contained 
splint that can be molded to an injured extremity like a fiberglass or 
plaster splint without the requirement of external water and extra 
padding that fiberglass and plaster splinting requires.
System for Rapid Wound Irrigation and Cleaning
    Decontamination for prevention of infection in open fractures is 
essential in caring for battlefield extremity injuries. Development of 
strategies for decontamination in the far forward environment includes 
pulsatile irrigation with antimicrobial irrigation solutions. The goal 
is to identify an antimicrobial irrigation solution that produces 
optimal decontamination of open fractures. Activity against organisms 
that are unusual in the United States but have been common and 
problematic in the Iraq and Afghanistan conflicts are being considered. 
Characteristics of the contaminated wound, such as bacterial biofilm 
formation and its effect on the ability to decontaminate, are also 
being explored. Research is currently being conducted in an animal 
model.
Temporary Skin Substitute
    Prevention of contamination of open wounds after battlefield injury 
would prevent infection in minor to moderate wounds. The focus is on 
the development of a rapid set polymer that can be applied to a wound 
after cleaning.
System of Assessing Wound Tissue Viability and Cleaning
    Determination of adequate debridement to remove contaminated and 
dead tissue is essential in the treatment of battlefield injuries. 
Research in this area to produce a hand held, portable device that can 
provide a real time assessment of tissue viability as an adjunct to 
surgical debridement is ongoing.
Measuring Physical and Psychological Outcomes for Survivors of Severe 
        Penetrating Upper Extremity Injury Sustained on the Battlefield 
        in Iraq and Afghanistan
    A proposal to study the functional outcomes of U.S. casualties 
following major limb injury is being finalized by the U.S. Army 
Institute of Surgical Research. This study will help to determine the 
effect of these injuries as well as to identify areas for research in 
the future. The initial look will be a pilot study of the casualties 
from the conflicts. The ultimate goal is to establish a project to 
study these casualties prospectively throughout their treatment course.
Joint Theater Trauma Registry (JTTR)
    The U.S. Army Institute of Surgical Research has developed this 
registry modeled after trauma registries mandated by the American 
College of Surgeons at U.S. trauma centers. This registry provides 
demographic and injury data on U.S. casualties in Afghanistan and Iraq. 
It will be very useful in determining outcomes from major limb 
battlefield injury.
    There are also many exciting proposals for orthopaedic trauma 
research that have not been explored, such as:
  --Laboratory investigations on the pathogenesis and treatment of 
        persistent infections in orthopaedic trauma.
  --Those injured in Iraq are suffering from a significant rate of 
        wound infection, despite standard of care treatment. 
        Acinetobacter, a bacterium, has been identified as a frequent 
        cause of these infections, and research is needed into the 
        pathogenesis of this organism in traumatic wounds, and 
        evaluation of novel treatments.
  --Surgical and pharmacologic methods for the treatment of direct 
        muscle trauma.

                      STORIES FROM THE FRONTLINES

    There have been many heroic stories of injured soldiers struggling 
to regain function and to return to normal life, or even back to 
service. I am sure you heard about Captain David Rozelle, a Commander 
in the 3rd Armored Cavalry Regiment, who was the first OIF amputee to 
return to active duty back in March 2005 less than 2 years after having 
his right foot blown off by a landmine. In an interview with the 
National Review Online (2/14/05), when asked why he wanted to return to 
duty, Capt. Rozelle responded, ``I am smarter, stronger, and more ready 
to help create freedom for the Iraqi people.'' Before returning to 
Iraq, Capt. Rozelle even completed the New York City Marathon. His 
heroic attitude, coupled with the superior care he received following 
his injuries, made Capt. Rozelle's return to service possible.
    Another story was recently highlighted in a March 2005 National 
Public Radio (NPR) series titled ``Caring for the Wounded: The Story of 
Two Marines.'' The story followed two Marines injured in Iraq: 1st Sgt. 
Brad Kasal and Lance Cpl. Alex Nicoll. Lance Cpl. Nicoll had to have 
his left leg amputated as a result of his injuries from gunshot wounds. 
While Nicoll continues to undergo physical therapy at Walter Reed to 
get used to his new prosthetic leg, made from graphite and titanium, 
his doctors, therapists, and he are confident that he will return to 
full function. In fact, shortly after the NPR series ran, Nicoll 
visited New Hampshire for a snowboarding vacation.
    While Sgt. Kasal's was so seriously injured that he lost 4 inches 
of bone in his right leg, due to medical advances in limb salvaging, 
Sgt. Kasal did not have to have his leg amputated. Kasal is currently 
undergoing a bone growth procedure, called the Illizarov Technique, 
which grows the bone 1 millimeter a day. In about 4 months, it is 
likely that Kasal will be able to walk on both of his own legs. These 
stories clearly illustrate the benefits of orthopaedic trauma research 
to America's soldiers.

                  ORTHOPAEDIC TRAUMA RESEARCH PROGRAM

    The American Academy of Orthopaedic Surgeons (AAOS) and military 
and civilian orthopaedic surgeons and researchers are grateful that the 
committee included language in the fiscal year 2005 Defense 
Appropriations Bill to make ``orthopaedic extremity trauma research'' a 
priority research topic within the Peer Reviewed Medical Research 
Program. From all indications, the number of grants submitted under 
this topic has been incredibly high compared to other research 
priorities listed in previous years. Clearly, there is both a need and 
a demand for funding for orthopaedic trauma research.
    With orthopaedic trauma being the most common form of trauma seen 
in military conflicts, it is crucial that there be funding dedicated 
specifically to the advancement of related trauma research. The 
American Academy of Orthopaedic Surgeons (AAOS) has worked closely with 
the top military orthopaedic surgeons, at world-class facilities such 
as the U.S. Army Institute of Surgical Research, Fort Sam Houston, TX, 
Brooke Army Medical Center, and Walter Reed Army Medical Center, to 
identify gaps in orthopaedic trauma research and care, such as the need 
for improved anti-microbial bone-replacement material; systems for 
rapid wound irrigation, cleaning and debridement; laboratory 
investigations on the pathogenesis and treatment of persistent 
infections in orthopaedic trauma; and surgical and pharmacologic 
methods for the treatment of direct muscle trauma.
    The result of these discussions has been a proposal to create an 
Orthopaedic Trauma Research Program, administered by the U.S. Army 
Institute of Surgical Research (USAISR) at Fort Sam Houston, Texas, to 
fund peer-reviewed intramural and extramural orthopaedic trauma 
research. The USAISR is the only Department of Defense Research 
laboratory devoted solely to improving combat casualty care. Having the 
program administered by the USAISR will ensure that the research 
funding follows closely the research priorities laid out by the Army 
and the Armed Forces, will be of the most benefit to injured soldiers, 
and will better ensure collaboration between military and civilian 
research facilities. USAISR has extensive experience administering 
similar grant programs.
    It is important to note that military orthopaedic surgeons, in 
addition to personnel at the U.S. Army Medical Research and Materiel 
Command, Fort Detrick, have had significant input into the creation of 
this proposal and fully support its goals.

                               CONCLUSION

    I hope that I have given you a well-rounded perspective on the 
extent of what orthopaedic trauma military surgeons are seeing and a 
glimpse into the current and future research for such trauma. Military 
trauma research currently being carried out at military facilities, 
such as WRAMC and the USAISR, and at civilian medical facilities, is 
vital to the health of our soldiers. The USAISR takes a leadership role 
in the administration of funding for peer-reviewed intramural and 
extramural orthopaedic trauma research. The research carried out at 
these facilities is vital to the Armed Forces' objective to return 
injured soldiers to full function in hopes that they can continue to be 
contributing soldiers and active members of society.
    Mr. Chairman, the American Academy of Orthopaedic Surgeons, as well 
as the entire orthopaedic community, stands ready to work with this 
subcommittee to identify and prioritize research opportunities for the 
advancement of orthopaedic trauma care. Military and civilian 
orthopaedic surgeons and researchers are committed to advancing 
orthopaedic trauma research that will benefit the unfortunately high 
number of soldiers afflicted with such trauma and return them to full 
function. It is imperative that the Federal Government, when 
establishing its defense health research priorities in the fiscal year 
2006 Defense Appropriations bill, ensure that orthopedic trauma 
research is a top priority.
    I urge you to establish the Orthopaedic Trauma Research Program at 
a funding level of $25 million. While Congress funds an extensive array 
of medical research through the Department of Defense, with over 70 
percent of military trauma being orthopaedic-related, no other type of 
medical research would better benefit our men and women serving in the 
War on Terror and in future conflicts.

    Senator Stevens. Well, thank you very much, Dr. Polly. 
Every time we go out to Walter Reed or Bethesda to visit the 
wounded people, I am convinced in this war we are having fewer 
deaths, but more severe injuries.
    Dr. Polly. Yes, sir.
    Senator Stevens. Those too are going to require a 
considerable amount of research. As I said before, I do not 
know anyone that could match your ability in that.
    For the information of the audience, I had two back 
operations. After each one I went back to the same condition of 
not being able to stand up straight. Dr. Polly theorized that 
there was something in the spine rather than in the disks and 
he pursued his theory to my success. I run, I play tennis, I 
lift weights and I swim because of your skill and research, 
doctor. So we will follow you anywhere.
    Dr. Polly. Thank you, sir.
    Senator Stevens. Thank you very much.
    Senator Inouye. Will you check me out?
    Dr. Polly. Yes, sir. Right now?
    Senator Inouye. May I ask a question.
    Dr. Polly. Yes, Senator.
    Senator Inouye. A few days ago the base realignment and 
closure (BRAC) decisions were announced. Will that have any 
impact on your program?
    Dr. Polly. Sir, it is a needed realignment. There is some 
overt redundancy between Bethesda and Walter Reed and there are 
opportunities from the combination. The challenge is how to do 
it right. I think if you keep the spirit alive--I know that you 
spoke in 1988 at a dining-in at Walter Reed that I attended and 
you inspired each and every one of us, and we will be terribly 
sorry to lose the legacy of that institution and the 100 years 
of service and the many, many, many great Americans who have 
gone through there and received their care.
    But I think we need to move forward and to the future. One 
of the challenges at Walter Reed is simply parking and that 
people cannot get on and off the campus there and they do not 
have good public transportation. Bethesda is a better solution.
    While as a West Point graduate I admit a bias toward the 
Army, I recognize the overriding need for the good of DOD and 
the concept of the Walter Reed National Military Medical Center 
at Bethesda is a good idea. It should allow us to leverage the 
benefits of the NIH and build the world-class--continue the 
world-class facility that it is to provide the best care 
possible today, tomorrow, and in the future for the sons and 
daughters of America.
    Senator Inouye. Do you have any thoughts on the Uniformed 
Services University of the Health Sciences (USUHS)?
    Dr. Polly. Yes, sir. I am a graduate of the Uniformed 
Services University. I went to West Point, I served as a line 
officer, and then decided I wanted to go to medical school. I 
interviewed at the University of Virginia and had a deposit 
down on a place to live there. I went and interviewed at USUHS 
and was so inspired by J.P. Sanford and the program there that 
I changed my mind at the last minute and went to school there.
    That school is the reason that there was military medical 
care coordination in Desert Storm, because the USUHS graduates 
in the Army and the Navy and the Air Force called each other up 
and said: I am short on fluids; what have you got? Well, I got 
this and I got that. And there was a lot of horse-trading that 
went on that coordinated the care because of the network of 
interconnected people across the DOD.
    USUHS now serves as the hub for thinking about military 
medical care and we need to keep the best and brightest minds 
either on a consulting basis or a full-time basis there to 
stimulate the thoughts so that we can do a better job for the 
next generation of people serving our country.
    Senator Inouye. I thank you very much, doctor. You have 
been most reassuring.
    Dr. Polly. Thank you, sir.
    Senator Stevens. Well said, doctor. We are going to pursue 
you on that, too.
    The next witness is Carolina Hinestrosa, the Executive Vice 
President for Programs of the National Breast Cancer Coalition.

STATEMENT OF CAROLINA HINESTROSA, EXECUTIVE VICE 
            PRESIDENT OF PROGRAMS AND PLANNING, 
            NATIONAL BREAST CANCER COALITION
    Ms. Hinestrosa. Good afternoon. Thank you, Chairman Stevens 
and ranking member Inouye. Thank you and your subcommittee for 
your great determination and leadership in helping us secure 
funding for understanding how to prevent and cure breast cancer 
through the Department of Defense breast cancer research 
program.
    I am a two-time breast cancer survivor. I am a wife and a 
mother and, as you know, I am Executive Vice President of the 
National Breast Cancer Coalition. On behalf of the coalition 
and the more than 3 million women living with breast cancer, I 
thank you for the opportunity to speak today.
    We are requesting level funding for the breast cancer 
research program this year. This program is a critical research 
program that has transformed biomedical research. It has 
established itself as a model that is admired around the world 
for its accountability and innovation. This critical program--
it is important that this program maintains its structure and 
integrity. The program fills critical gaps in breast cancer 
research.
    As the Institute of Medicine (IOM) has pointed out in two 
separate reports, the DOD breast cancer research program fills 
an unmet need in breast cancer research in this community and 
is not duplicative of other programs. In both reports the IOM 
recommends that the program continue. Any changes to the 
structure of the program could significantly undermine its 
innovation and its ability to fund cutting edge breast cancer 
research.
    An inherent component of this program has been the 
inclusion of consumer advocates at every level, which has 
created an unprecedented working relationship between advocates 
and scientists and ultimately has led to new avenues of 
research in breast cancer. Since 1992 over 400 breast cancer 
survivors have served in the peer review panels for the DOD 
breast cancer research program and their vital role is key to 
the success of this model of biomedical research which is 
imitated around the world.
    The program is accountable to the public. Every cent that 
is spent must be reported at a public meeting held every 2 
years, called Era of Hope. The Era of Hope meeting this year is 
just a few weeks away in Philadelphia, from June 8 through June 
11. I hope you all will be able to attend this meeting to see 
the incredible progress that is being made through this 
program.
    I want to provide you with a couple of examples of research 
that has been funded through this program and that is making a 
real difference. You have heard about Timoxicin, a drug that 
was developed many years ago for a certain type of breast 
cancer. About 50 percent of women respond to that drug and some 
others and we do not know--we did not know who was able to 
respond. Funding by this program has identified two genes that 
can predict who would respond from this drug Timoxicin, so we 
will be able to give it to the right people.
    But most stunningly, last night I listened to a 
presentation in Orlando at the American Society for Clinical 
Oncology where they presented the results of a study of women 
with earlier breast cancer which was unprecedented. Using a 
biological monitor and an antibody of a drug, Receptin, they 
were able to show a 50 percent improvement in survival for 
women who have a particularly aggressive type of breast cancer.
    This funding for this type of research was possible in the 
early years by the Department of Defense breast cancer research 
program. It was innovative research and visionary research that 
was languishing and not being funded anywhere else. The DOD 
breast cancer research program understood and recognized the 
potential impact of this research and funded it in the early 
years and then the research progressed to women with advanced 
breast cancer and now with early breast cancer. The results 
from this research are about a 50 percent improvement in 
outcomes for these women.
    So clearly the vision, the innovation of this program, is 
paying in a very important way to the American taxpayer.
    On behalf of the women with breast cancer and on behalf of 
our daughters and granddaughters who are counting on us to do 
the right thing, I thank you for your support and urge level 
funding for this program.
    [The statement follows:]

               Prepared Statement of Carolina Hinestrosa

    Thank you, Mr. Chairman and members of the Appropriations 
Subcommittee on Defense, for the opportunity to speak to you today 
about a program that, with little Federal investment, goes a long way 
toward increasing and improving breast cancer research. You and your 
committee have shown great determination and leadership in searching 
for the answers by funding the Department of Defense (DOD) Peer-
Reviewed Breast Cancer Research Program (BCRP) at a level that has 
brought us closer to eradicating this disease.
    I am Carolina Hinestrosa, a two-time breast cancer survivor, a wife 
and mother, and Executive Vice President for Programs and Planning of 
the National Breast Cancer Coalition (NBCC). On behalf of NBCC, and the 
more than 3 million women living with breast cancer, I would like to 
thank you again for the opportunity to testify today.
    The DOD BCRP's 13 years of progress in the fight against breast 
cancer has been made possible by the Appropriations Committee's 
investment in breast cancer research. To continue this unprecedented 
progress, we ask that you support level funding for this program--a 
$150 million appropriation for fiscal year 2006. As an Institute of 
Medicine (IOM) report concluded last year, there continues to be 
excellent science that goes unfunded, but for this small program, which 
is why we believe that the BRCP should be appropriated level funding 
for fiscal year 2006.
    As you know, the National Breast Cancer Coalition is a grassroots 
advocacy organization made up of more than 600 organizations and tens 
of thousands of individuals and has been working since 1991 toward the 
eradication of breast cancer through advocacy and action. NBCC supports 
increased funding for breast cancer research, increased access to 
quality health care for all women, and increased influence of breast 
cancer activists at every table where decisions regarding breast cancer 
are made.

   WHY THE DOD BREAST CANCER RESEARCH PROGRAM NEEDS LEVEL FUNDING IN 
                            FISCAL YEAR 2006

    In the past 13 years, the DOD Peer-Reviewed Breast Cancer Research 
Program has established itself as a model medical research program, 
respected throughout the cancer and broader medical community for its 
innovative and accountable approach. The groundbreaking research 
performed through the program has the potential to benefit not just 
breast cancer, but all cancers, as well as other diseases. Biomedical 
research is being transformed by the BCRP's success.
    This program is both innovative and incredibly streamlined. It 
continues to be overseen by a group of distinguished scientists and 
activists, as recommended by the IOM. Because there is no bureaucracy, 
the program is able to respond quickly to what is currently happening 
in the scientific community. It is able to fill gaps with little red 
tape. It is responsive, not just to the scientific community, but also 
to the public.
    This program has matured from an isolated research program to a 
broad-reaching influential voice forging new and innovative directions 
for breast cancer research and science. The flexibility of the program 
has allowed the Army to administer this groundbreaking research effort 
with unparalleled efficiency and effectiveness.
    In addition, an inherent part of this program has been the 
inclusion of consumer advocates at every level, which has created an 
unprecedented working relationship between advocates and scientists, 
and ultimately has led to new avenues of research in breast cancer. 
Since 1992, nearly 800 breast cancer survivors have served on the BCRP 
review panels. Their vital role in the success of the BCRP has led to 
consumer inclusion in other biomedical research programs at DOD. This 
program now serves as an international model.
    the dod peer reviewed bcrp provides unique funding opportunities
    It is important to note that the DOD Integration Panel that designs 
this program has a plan of how best to spend the funds appropriated. 
This plan is based on the state of the science--both what scientists 
know now and the gaps in our knowledge--as well as the needs of the 
public. This plan coincides with our philosophy that we do not want to 
restrict scientific freedom, creativity or innovation. While we 
carefully allocate these resources, we do not want to predetermine the 
specific research areas to be addressed.
    Developments in the past few years have begun to offer breast 
cancer researchers fascinating insights into the biology of breast 
cancer and have brought into sharp focus the areas of research that 
hold promise and will build on the knowledge and investment we have 
made. The Innovative Developmental and Exploratory Awards (IDEA) grants 
of the DOD program have been critical in the effort to respond to new 
discoveries and to encourage and support innovative, risk-taking 
research. The IDEA grants have been instrumental in the development of 
promising breast cancer research. These grants have allowed scientists 
to explore beyond the realm of traditional research and have unleashed 
incredible new ideas and concepts. IDEA grants are uniquely designed to 
dramatically advance our knowledge in areas that offer the greatest 
potential.
    IDEA grants are precisely the type of grants that rarely receive 
funding through more traditional programs such as the National 
Institutes of Health, and academic research programs. Therefore, they 
complement, and do not duplicate, other Federal funding programs. This 
is true of other DOD award mechanisms as well.
    For example, the Innovator awards are structured to invest in world 
renowned, outstanding individuals, rather than projects, from any field 
of study by providing funding and freedom to pursue highly creative, 
potentially breakthrough research that could ultimately accelerate the 
eradication of breast cancer. The Era of Hope Scholar is intended to 
support the formation of the next generation of leaders in breast 
cancer research, by identifying the best and brightest independent 
scientists early in their careers and giving them the necessary 
resources to pursue a highly innovative vision toward ending breast 
cancer.
    Also, Historically Black Colleges and Minority Universities/
Minority Institutions Partnership Awards are intended to provide 
assistance at an institutional level. The major goal of this award is 
to support collaboration between multiple investigators at an applicant 
Minority Institution and a collaborating institution with an 
established program in breast cancer research, for the purpose of 
creating an environment that would foster breast cancer research, and 
in which Minority Institute faculty would receive training toward 
establishing successful breast cancer research careers.
    These are just a few examples of innovative approaches at the DOD 
BCRP that are filling gaps in breast cancer research. It is vital that 
these grants are able to continue to support the growing interest in 
breast cancer research--$150 million for peer-reviewed research will 
help sustain the program's momentum.
    The DOD BCRP also focuses on moving research from the bench to the 
bedside. A major feature of the awards offered by the BCRP is that they 
are designed to fill niches that are not offered by other agencies. The 
BCRP considers translational research to be the application of well-
founded laboratory or other pre-clinical insight into a clinical trial. 
To enhance this critical area of research, several research 
opportunities have been offered. Clinical Translational Research Awards 
have been awarded for investigator-initiated projects that involve a 
clinical trial within the lifetime of the award. The BCRP expanded its 
emphasis on translational research by offering five different types of 
awards that support work at the critical juncture between laboratory 
research and bedside applications.
    The Centers of Excellence awards mechanism brings together the 
world's most highly qualified individuals and institutions to address a 
major overarching question in breast cancer research that could make a 
major contribution towards the eradication of breast cancer. These 
Centers put to work the expertise of basic, epidemiology and clinical 
researchers, as well as consumer advocates to focus on a major question 
in breast cancer research. Many of these centers are working on 
questions that will translate into direct clinical applications.

 SOME OF THE MANY EXAMPLES OF SCIENTIFIC ACHIEVEMENTS BROUGHT ABOUT BY 
       THIS COMMITTEE'S INVESTMENT IN THE DOD PEER REVIEWED BCRP

    The BCRP research portfolio is comprised of many different types of 
projects, including support for innovative ideas, infrastructure 
building to facilitate clinical trials, and training breast cancer 
researchers.
    One of the most promising outcomes of research funded by the BCRP 
was the development of Herceptin, a drug that prolongs the lives of 
women with a particularly aggressive type of advanced breast cancer. 
This drug could not have been developed without first researching and 
understanding the gene known as HER-2/neu, which is involved in the 
progression of some breast cancers. Researchers found that over-
expression of HER-2/neu in breast cancer cells results in very 
aggressive biologic behavior. Most importantly, the same researchers 
demonstrated that an antibody directed against HER-2/neu could slow the 
growth of the cancer cells that over-expressed the gene. This research, 
which led to the development of the drug Herceptin, was made possible 
in part by a DOD BCRP-funded infrastructure grant. Other researchers 
funded by the BCRP are currently working to identify similar kinds of 
genes that are involved in the initiation and progression of cancer. 
They hope to develop new drugs like Herceptin that can fight the growth 
of breast cancer cells.
    Another example of success from the program is a study of sentinel 
lymph nodes (SLNs). This study confirmed that SLNs are indicators of 
metastatic progression of disease. The resulting knowledge from this 
study and others has lead to a standard of care that includes lymph 
node biopsies. If the first lymph node is negative for cancer cells, 
then it is unnecessary to remove all the lymph nodes. This prevents 
lymphoderma, which can be painful and have lasting complications.
    Several studies funded by the BCRP will examine the role of 
estrogen and estrogen signaling in breast cancer. For example, one 
study examined the effects of the two main pathways that produce 
estrogen. Estrogen is often processed by one of two pathways; one 
yields biologically active substances while the other does not. It has 
been suggested that women who process estrogen via the biologically 
active pathway may be at higher risk of developing breast cancer. It is 
anticipated that work from this funding effort will yield insights into 
the effects of estrogen processing on breast cancer risk in women with 
and without family histories of breast cancer.
    One DOD IDEA award success has supported the development of new 
technology that may be used to identify changes in DNA. This technology 
uses a dye to label DNA adducts, compounds that are important because 
they may play a role in initiating breast cancer. Early results from 
this technique are promising and may eventually result in a new marker/
method to screen breast cancer specimens.
    Investigators funded by the DOD have developed a novel imaging 
technique that combines two-dimensional and three-dimensional digital 
mammographic images for analysis of breast calcifications. Compared to 
conventional film screen mammography, this technique has greater 
resolution. Ultimately, this technique may help reduce the number of 
unnecessary breast biopsies.
    Despite the enormous successes and advancements in breast cancer 
research made through funding from the DOD BCRP, we still do not know 
what causes breast cancer, how to prevent it, or how to cure it. It is 
critical that innovative research through this unique program continues 
so that we can move forward toward eradicating this disease.
congress and taxpayers know how their investment is spent and that the 

           DOD PEER REVIEWED BCRP IS FEDERAL MONEY WELL SPENT

    The DOD BCRP is as efficient as it is innovative. In fact, 90 
percent of funds go directly to research grants. The flexibility of the 
program allows the Army to administer it in such a way as to maximize 
its limited resources. The program is able to quickly respond to 
current scientific advances, and fulfills an important niche by 
focusing on research that is traditionally underfunded. This was 
confirmed and reiterated in an IOM report released last year. It is 
responsive to the scientific community and to the public. This is 
evidenced by the inclusion of consumer advocates at both the peer and 
programmatic review levels. The consumer perspective helps the 
scientists understand how the research will affect the community, and 
allows for funding decisions based on the concerns and needs of 
patients and the medical community.
    Since 1992, the BCRP has been responsible for managing $1.66 
billion in appropriations. From its inception through fiscal year 2003, 
4,073 awards at 420 institutions throughout the United States and the 
District of Columbia have been awarded. Approximately 150 awards will 
be granted for fiscal year 2004. The areas of focus of the DOD BCRP 
span a broad spectrum and include basic, clinical, behavioral, 
environmental sciences, and alternative therapy studies, to name a few. 
The BCRP benefits women and their families by maximizing resources and 
filling in the gaps in breast cancer research. Scientific achievements 
that are the direct result of the DOD BCRP grants are undoubtedly 
moving us closer to eradicating breast cancer.
    The outcomes of the BCRP-funded research can be gauged, in part, by 
the number of publications, abstracts/presentations, and patents/
licensures reported by awardees. To date, there have been more than 
6,200 publications in scientific journals, more than 4,200 abstracts 
and 140 patents/licensure applications. The Federal Government can 
truly be proud of its investment in the DOD BCRP.

 RESEARCHERS, CONSUMERS AND POLICY MAKERS AGREE: THE DOD PEER REVIEWED 
                          BCRP SHOULD CONTINUE

    The National Breast Cancer Coalition has been the driving force 
behind this program for many years. The success of the DOD Peer-
Reviewed Breast Cancer Research Program has been illustrated by several 
unique assessments of the program. The IOM, which originally 
recommended the structure for the program, independently re-examined 
the program in a report published in 1997. They published another 
report on the program in 2004. Their findings overwhelmingly encouraged 
the continuation of the program and offered guidance for program 
implementation improvements.
    The 1997 IOM review of the DOD Peer-Review Breast Cancer Research 
Program commended the program and stated that, ``the program fills a 
unique niche among public and private funding sources for cancer 
research. It is not duplicative of other programs and is a promising 
vehicle for forging new ideas and scientific breakthroughs in the 
nation's fight against breast cancer.'' The IOM report recommended 
continuing the program and established a solid direction for the next 
phase of the program. The 2004 report reiterated these same statements 
and indicated that is important for the program to continue. It is 
imperative that Congress recognizes the independent evaluations of the 
DOD Breast Cancer Research Program, as well as reiterates its own 
commitment to the program by appropriating the funding needed to ensure 
its success.
    The DOD Peer-Reviewed Breast Cancer Research Program not only 
provides a funding mechanism for high-risk, high-return research, but 
also reports the results of this research to the American people at a 
biennial public meeting called the Era of Hope. The Era of Hope meeting 
has set a precedent, it is the first time a federally funded program 
reported back to the public in detail not only on the funds used, but 
also on the research undertaken, the knowledge gained from that 
research and future directions to be pursued. The transparency of the 
BCRP allows scientists, consumers and the American public to see the 
exceptional progress made in breast cancer research.
    At the 2002 Era of Hope meeting, all BCRP award recipients from 
fiscal years 1998-2000 were invited to report their research findings, 
and many awardees from previous years were asked to present 
advancements in their research. Scientists reported important advances 
in the study of cancer development at the molecular and cellular level. 
Researchers presented the results of research that elucidates several 
genes and proteins responsible for the spread of breast cancer to other 
parts of the body, and, more importantly, reveals possible ways to stop 
this growth. The meeting, which marked the 10th anniversary of the 
program, also featured grant recipients who are working towards more 
effective and less toxic treatments for breast cancer that target the 
unique characteristics of cancer cells and have a limited effect on 
normal cells. The next meeting will be held in June 2005.
    The DOD Peer-Reviewed Breast Cancer Research Program has attracted 
scientists with new ideas and has continued to facilitate new thinking 
in breast cancer research and research in general. Research that has 
been funded through the DOD BCRP is available to the public. 
Individuals can go to the Department of Defense website and look at the 
abstracts for each proposal at http://cdmrp.army.mil/
bcrp/.

           COMMITMENT OF THE NATIONAL BREAST CANCER COALITION

    The National Breast Cancer Coalition is strongly committed to the 
DOD program in every aspect, as we truly believe it is one of our best 
chances for finding cures and preventions for breast cancer. The 
Coalition and its members are dedicated to working with you to ensure 
the continuation of funding for this program at a level that allows 
this research to forge ahead.
    In May 1997, our members presented a petition with more than 2.6 
million signatures to congressional leaders on the steps of the 
Capitol. The petition called on the President and the U.S. Congress to 
spend $2.6 billion on breast cancer research between 1997 and the year 
2000. Funding for the DOD Peer-Reviewed Breast Cancer Research Program 
was an essential component of reaching the $2.6 billion goal that so 
many women and families worked for.
    Once again, NBCC is bringing its message to Congress. Just over 1 
month from now, many of the women and family members who supported the 
campaign to gather the 2.6 million signatures will come to NBCCF's 
Annual Advocacy Training Conference here in Washington, DC. More than 
600 breast cancer activists from across the country will join us in 
continuing to mobilize our efforts to end breast cancer. The 
overwhelming interest in, and dedication to eradicate this disease 
continues to be evident as people not only are signing petitions, but 
are willing to come to Washington, DC from across the country to 
deliver their message about their commitment.
    Since the very beginning of this program in 1992, Congress has 
stood in support of this important investment in the fight against 
breast cancer. In the years since, Mr. Chairman, you and this entire 
committee have been leaders in the effort to continue this innovative 
investment in breast cancer research.
    NBCC asks you, Defense Appropriations Subcommittee, to recognize 
the importance of what has been initiated by the Appropriations 
Committee. You have set in motion an innovative and highly efficient 
approach to fighting the breast cancer epidemic. What you must do now 
is support this effort by continuing to fund research that will help us 
win this very real and devastating war against a cruel enemy.
    Thank you again for the opportunity to submit testimony and for 
giving hope to the 3 million women in the United States living with 
breast cancer.

    Senator Inouye [presiding]. Thank you very much. I think 
you should also thank the members of the United States Senate, 
because you may notice that this is in a defense account. It 
should have been in the health account. But as we all know, the 
health account is lacking in appropriate funds. Therefore, with 
the permission of the Senate, we have put it in the defense 
fund.
    Ms. Hinestrosa. And I thank you for that.
    Senator Inouye. You can be assured that will continue.
    Ms. Hinestrosa. Thank you very much.
    Senator Inouye. Thank you.
    Our next witness is the Director of the Osteoporosis 
Research Center on behalf of the National Coalition for 
Osteoporosis and Related Bone Diseases, Dr. Robert Recker. 
Doctor.


STATEMENT OF ROBERT RECKER, M.D., DIRECTOR, 
            OSTEOPOROSIS RESEARCH CENTER, ON BEHALF OF 
            THE NATIONAL COALITION FOR OSTEOPOROSIS AND 
            RELATED BONE DISEASES
    Dr. Recker. Mr. Chairman, I am Robert Recker, Director of 
the Osteoporosis Center at Creighton University in Omaha, 
Nebraska. I am testifying on behalf of the National Coalition 
for Osteoporosis and Related Bone Diseases. We appreciate the 
opportunity to discuss the necessity for continued support and 
funding of the bone health and military medical readiness 
research program within the Department of Defense.
    This research program addresses the problem of stress 
fractures. These fractures are the most serious overuse 
injuries that are the result of repeated stresses that occur in 
vigorous training and not from a single traumatic event. Stress 
fracture injury has a marked impact on the health and force 
readiness of military personnel, imposing significant costs in 
medical care, extended training time, attrition of personnel, 
and ultimately military readiness.
    It is one of the most common and disabling overuse injuries 
seen in military recruits today, particularly in women. 
Approximately 50 percent of all women and 30 percent of all men 
sustain an overuse injury in basic training, and the majority 
of soldiers pulled from training for rehabilitation suffer from 
stress fractures. Worse, 40 percent of the men and 60 percent 
of the women pulled from training due to stress fracture do not 
return and are retired from the military and discharged. Those 
who do return require 80 to 120 days of rehabilitation.
    At Fort Jackson alone, an estimated $26 million was spent 
in one year on training 749 soldiers later discharged due to 
stress fracture. Our own archive from our experience and 
research at Fort Leonard Wood shows that extent of these 
fractures that range from pelvic fractures to upper hip 
fractures, mid-leg fractures, lower limb fractures, foot 
fractures. Some of them are disabling for life.
    The bone health and military medical readiness research 
program has provided some practical solutions to help protect, 
sustain, and enhance the performance of military personnel. 
Research with human and animal models has revealed the 
following. The length of stride for women is related to 
fracture. Genetics plays a role in bone marrowization and 
structural processes of bone that influence strength. Calorie 
restriction and calcium deficiency result in decreased 
structural properties of bone and contribute to decreased bone 
strength. Oral contraceptive use contributes to reduced bone 
mass, which increases fracture risk. Chronic alcohol 
consumption inhibits bone formation.
    We at Creighton, collaborating with military scientists, 
have demonstrated that heel ultrasound measurement and 
assessment of risk factors, such as physical fitness, smoking, 
use of injectable contraceptives, performed at the onset of 
basic training predict risk of stress fractures. As a result of 
such research, technologies such as positron emission 
tomography, acoustic emission, are being developed for higher 
imaging and better identification of stress fractures. 
Modifications have been made to the U.S. Army physical fitness 
training program to reduce fractures while hopefully not 
decreasing the overall fitness of military recruits at the end 
of basic training.
    Studies are ongoing to determine whether Vitamin D or 
calcium supplementation decreases the incidence of stress 
fractures in new recruits. Additional research is needed. We 
need better approaches to identify and improve bone health in 
recruits, interventions to reduce stress fracture during 
strenuous physical training and deployment, and acceleration of 
stress fracture healing and return to full status.
    Mr. Chairman, in summary, stress fractures continue to 
occur, significantly impair military readiness, and delay the 
time to battlefield deployment. It is imperative that the 
Department of Defense build on recent findings and maintain an 
aggressive and sustained bone health research program at a 
level of $6 million in fiscal year 2006.
    Thank you very much.
    [The statement follows:]

   Prepared Statement of Joan Goldberg, Executive Director, American 
                 Society for Bone and Mineral Research

    Mr. Chairman and members of the committee, I am Joan Goldberg, 
Executive Director of the American Society for Bone and Mineral 
Research and I am testifying on behalf of the National Coalition for 
Osteoporosis and Related Bone Diseases. The members of the Bone 
Coalition are the American Society for Bone and Mineral Research, the 
National Osteoporosis Foundation, the Paget Foundation for Paget's 
Disease of Bone and Related Disorders, and the Osteogenesis Imperfecta 
Foundation. We appreciate this opportunity to discuss with you the 
necessity for continued support and funding of the Bone Health and 
Military Medical Readiness Research Program within the Department of 
Defense (DOD).
    The Bone Health and Military Medical Readiness Research Program 
addresses a critical obstacle to military readiness and a major cause 
of low soldier retention during basic training and thereafter. This 
program supports research to improve our understanding of stress 
fracture risk, to develop better assessment and prevention methods, all 
aimed at the preservation of bone health in military men and women. 
Currently, a significant research effort underway to protect and 
enhance bone health is targeting the elimination of training-related 
stress fractures.
    Stress fracture injury has a marked impact on the health and force 
readiness of military personnel, imposing significant costs to the 
Department of Defense in terms of medical care, extended training time, 
attrition of military personnel and, ultimately, military readiness. It 
is one of the most common and potentially debilitating overuse injuries 
seen in military recruits today, particularly in women. Recent 
statistics show that approximately 50 percent of all women and 30 
percent of all men sustain an overuse injury in basic training. The 
majority of soldiers pulled from training for rehabilitation suffer 
from stress fracture. Worse, 40 percent of the men and 60 percent of 
the women pulled from training due to stress fracture do not return to 
training. In fact, they are discharged from the military. Those who do 
return to training require 80 to 120 days of rehabilitation. At Fort 
Jackson alone, over a 1-year period an estimated $26 million was spent 
on training 749 soldiers later discharged due to stress fracture. This 
does not include costs related to health care.
    Stress fractures occur when muscles transfer the overload of strain 
to the bone, most commonly in the lower leg, and cause a tiny crack. 
Anyone who suddenly increases his or her frequency, intensity, or 
duration of physical activity, such as reservists or soldiers returning 
from long deployments where physical activity could not be undertaken 
on a regular basis, has an increased risk of developing lower body 
stress fractures. There are several forms of stress fractures that 
require more involved treatment. Stress fractures in the ``knobby'' 
part of the femur--the bone that fits into the hip socket or hip bone 
itself--sometimes progress to full fractures or larger fractures and 
interrupt the blood supply to the thigh bone portion of the hip joint. 
This in turn can cause early degenerative changes in the hip joint. 
Physicians consider this type of stress fracture to be a medical 
emergency for this reason. Other particularly slowly healing stress 
fractures include those of the navicular (foot bone), anterior cortex 
of the tibia (front portion of the mid-shin bone) and proximal fifth 
metatarsal (a bone in the foot). Healing takes months.
    The Bone Health and Military Medical Readiness Research Program is 
already providing the military with some practical solutions to help 
protect, sustain and enhance the performance of military personnel. 
Research using animal and human models to study the influence of 
genetics, nutrition, exercise, and other influences on bone quality, 
and fracture risk, has revealed the following:
  --The length of stride for women is related to fracture.
  --Genetics plays a role not only in bone mineralization, but 
        significantly influences other structural properties of bone 
        that influence bone strength. Further, genetics influences the 
        sensitivity of bone tissue to mechanical loading and unloading. 
        (``Loading'' is experienced when moving, with higher load 
        experienced when bending over, lifting weights, etc.)
  --In identical environments, the genetic influence of mechanical 
        loading is site specific, and affects different kinds of bone 
        differently.
  --In the tibia, the most common site of stress fracture injury, bone 
        tissue compensates for the smaller geometry of this bone 
        through variations in material properties that result in 
        increased susceptibility to bone damage under conditions of 
        repetitive loading.
  --Caloric restriction and calcium deficiency--common to women on 
        diets--result in decreased structural properties of bone, and 
        may contribute to decreased bone strength. (Weaker bones may 
        suffer more damage.)
  --Oral contraceptive use contributes to reduced bone mass 
        accumulation. (Low bone mass increases fracture risk.)
  --Chronic alcohol consumption inhibited tibial bone formation, 
        possibly through observed decreases in production of the growth 
        factor IGF-I.
  --The growth factor IGF-I is critical for puberty-induced bone 
        growth, further supporting a prominent role for IGF-I in bone 
        formation.
  --Meta-analyses--reviews of multiple studies--confirm that both 
        aerobic exercise and resistance training improve bone density 
        at multiple sites in women.
  --Short-term exercise was sufficient to elicit improvements in 
        mechanical properties of male but not female mice, indicating a 
        gender-specific response to exercise.
  --Individuals with dark skin or who are receiving minimal sun 
        exposure--e.g. in late winter--demonstrate Vitamin D deficiency 
        and may benefit from supplementation with Vitamin D, important 
        in maintaining bone health.
    As a result of research such as the above:
  --A successful working prototype of a small-scale, high resolution 
        positron emission tomography (PET) device was developed, for 
        higher imaging and better identification of stress fractures.
  --Acoustic emission, a promising new method to detect microdamage in 
        bone, detected changes in bone prior to its breaking in a 
        laboratory setting.
  --Modifications have already been made to the U.S. Army physical 
        fitness training program to decrease the volume of running and 
        marching activities that take place during recruit training in 
        an effort to reduce stress fracture injuries. This impact is 
        being tracked.
  --A study is ongoing to determine whether Vitamin D supplementation 
        decreases the incidence of stress fracture in new recruits.
    Additional bone research is needed, including better approaches to 
identify and improve bone health in at risk recruits, interventions to 
reduce stress fracture during strenuous physical training and 
deployment, and acceleration of stress fracture healing and return to 
full duty status. Areas of need include:
  --Utilizing genetic (bone density, bone geometry), lifestyle 
        (nutrition, exercise history), and other risk factors 
        (menstrual status, oral contraceptive use, smoking) to 
        establish a risk factor profile that identifies individuals at 
        high risk for stress fracture injury.
  --Expanding on preliminary findings that revealed gender differences 
        in the response of bone to physical training.
  --Conducting small pilot studies and larger clinical trials of 
        resistance training, aerobic exercise training, and diet and 
        nutrition interventions to improve bone quality in a military 
        population and to determine whether they can be successfully 
        implemented to prevent or reduce significantly the incidence of 
        stress fracture in a basic training population.
  --Advancing non-invasive bone imaging technologies to assess risk, 
        identify stress fractures (easily missed by commonly used 
        technology) and monitor healing.
    Mr. Chairman, the bottom line is that stress fractures continue to 
occur, significantly impair military readiness, and delay the time to 
battlefield/deployment. Therefore, it is imperative that the Department 
of Defense build on recent findings and maintain an aggressive and 
sustained bone health research program at a level of $6 million in 
fiscal year 2006.

    Senator Inouye. Doctor, does your research indicate that 
there is a difference in the services? Does the Army suffer 
more stress than the Navy or the Air Force?
    Dr. Recker. No, the incidence of stress fractures seems to 
occur across the military, because the military basic training 
is pretty much similar in all the branches.
    Senator Inouye. Do you believe that the training mode 
should be studied?
    Dr. Recker. Yes, it should, and it has been studied. On the 
one hand, we cannot reduce the physical fitness of our training 
at the end of training, and on the other hand we have to 
arrange the training program so that we do not have so much 
disability from and training loss from stress fractures and 
other overuse injuries. But stress fractures are the worst. So 
yes, we need to continue to study that to try to get training 
programs that will give us----
    Senator Inouye. So your program is cost effective?
    Dr. Recker. I think so.
    Senator Inouye. I thank you very much, sir.
    Dr. Recker. Thank you very much.
    Senator Inouye. Our next witness is a member of the Board 
of Directors of the National Brain Injury Research, Treatment, 
and Training Foundation, Mr. Martin B. Foil, Jr. Mr. Foil.

STATEMENT OF MARTIN B. FOIL, JR., MEMBER, BOARD OF 
            DIRECTORS, NATIONAL BRAIN INJURY RESEARCH, 
            TREATMENT, AND TRAINING FOUNDATION
    Mr. Foil. Good morning, Senator Inouye--good afternoon, I 
guess. Nice to see you again and good to be here.
    Senator Inouye. It is morning in Hawaii, sir.
    Mr. Foil. Point well taken.
    I am happy to be here today and talk to you some about what 
some people call the signature condition of the conflict in 
Iraq, and that is traumatic brain injury (TBI), and to request 
$14 million for the defense and veterans head injury program. 
Over the past year this program has treated 1,000 troops with 
TBI. You have probably seen this in the papers, including USA 
Today and People magazine, copies of which have been attached 
to the written statement.
    Many of our service men and women are returning from Iraq 
with TBI's and not all have been appropriately diagnosed and 
treated. Through the work of the defense and veterans head 
injury program (DVHIP), we are able to identify most of these 
injuries, but unless we expand our research to areas where 
there are no treatment facilities or Veterans Administration 
(VA) hospitals many are going to fall through the cracks.
    Last year you asked me how the DVHIP could assure the 
optimum care beyond its eight lead sites and the regional 
network of secondary VA hospitals. This has been a top priority 
for DVHIP, but the agency administering has had other 
priorities. So we are going to move the program to Fort 
Detrick. We think it will be more successful, and ideally we 
would like to have facilities much like Virginia NeuroCare 
throughout the country, which last year had a 35 percent return 
to active duty rate.
    To meet immediate needs, DVHIP needs to offer a call for 
proposals for innovative clinical programs that will support 
distributed care networks. In addition, care coordinators will 
be strategically placed throughout the country for patients 
with TBI and their families in their home States.
    DVHIP continues to focus on blast injury, especially for 
those who are hit with IEDs, and is leading the effort to 
provide guidelines for the assessment and follow-up care after 
these blast-related TBIs within the military environment.
    Another priority is evaluating the connection between post-
traumatic stress disorder (PTSD) and TBI. There are 
similarities in the symptoms, yet treatment for the two 
conditions is quite different. There is not much known about 
combat PTSD in persons with TBI. Clinically focused research 
initiatives by DVHIP would investigate this unique relationship 
to ensure that the troops are receiving the best care available 
for both their brain and their mind.
    Mr. Chairman, there is $7 million in the DOD budget. We are 
asking for a plus-up of $7 million, so in all $14 million is 
being requested for this important program. The funding is 
needed to continue training combat medics, surgeons, general 
medical officers and reservists and the best practices of TBI 
care, provide continuity of care from the battlefield to rehab 
and back to Active duty, and to work to ensure that no one 
falls through the cracks.
    We are going to hope that you will continue to support our 
efforts to provide the best care possible to our Nation's brave 
men and women in uniform.
    Thank you very much. Any questions?
    [The statement follows:]

               Prepared Statement of Martin B. Foil, Jr.

    My name is Martin B. Foil, Jr. and I am the father of Philip Foil, 
a young man with a severe brain injury. I serve as a volunteer on the 
Board of Directors of the National Brain Injury Research, Treatment and 
Training Foundation (NBIRTT) \1\ and Virginia NeuroCare in 
Charlottesville, Virginia (VANC).\2\ Professionally, I am the Chief 
Executive Officer and Chairman of Tuscarora Yarns in Mt. Pleasant, 
North Carolina.
---------------------------------------------------------------------------
    \1\ NBIRTT is a non-profit national foundation dedicated to the 
support of clinical research, treatment and training.
    \2\ VANC provides brain injury rehabilitation to military 
personnel, veterans and civilians through an innovative and cost 
effective day treatment program.
---------------------------------------------------------------------------
    On behalf of the thousands of military personnel that receive brain 
injury treatment and services annually, I respectfully request that a 
total of $14 million be provided in the Department of Defense (DOD) 
Appropriations bill for fiscal year 2006 for the Defense and Veterans 
Head Injury Program (DVHIP). This request includes the $7 million in 
the DOD's POM which we hope will be moved from the Uniformed Services 
University of the Health Sciences to the Army Medical Research and 
Materiel Command (AMRMC) at Fort Detrick. An additional $7 million plus 
up would allow the important work of the program to continue, with 
clinical care coordinated through Walter Reed Army Medical Center 
(WRAMC) as the headquarters for the entire program.

  TRAUMATIC BRAIN INJURY (TBI) MAY BE THE SIGNATURE CONDITION OF THE 
                            CONFLICT IN IRAQ

    Nearly 1,000 combat casualties from the Global War on Terrorism 
have been served by DVHIP, and that does not include active duty 
military injured in car crashes and other incidents occurring once they 
return home.\3\
---------------------------------------------------------------------------
    \3\ Survivors of War Take Fatal Risks on Roads, Gregg Zoroya, USA 
Today, May 3, 2005, pg A1. http://www.usatoday.com/news/nation/2005-03-
03-brain-trauma-lede_x.htm
---------------------------------------------------------------------------
    As we reported in last year's testimony, the incidence of TBI 
sustained in theater was expected to be higher than in previous 
conflicts. That indeed has been true, and continues to be the case. In 
previous conflicts, TBI accounted for some 25 percent of combat 
casualties. However, last spring one WRAMC study found 61 percent of 
at-risk soldiers seen at WRAMC were assessed to have TBIs. Although 
this one study does not reflect the entire population of wounded in 
action, the high percentage suggests that TBI acquired in theater 
continues to be a problem that needs to be addressed. The reasons for 
the higher incidence of TBI include:
  --The use of effective body armor has saved more lives;
  --Medical personnel are more aware of the significance of mild closed 
        TBIs and concussions and are therefore more likely to identify 
        them; and
  --The incidence of blast injuries in Iraq and Afghanistan is high.
    There has also been an increase in awareness of TBI, mostly through 
news media reports of injured troops (e.g. recent USA Today and People 
articles are attached).\4\ Like Army Reserve Officer Alec Giess, 
featured in the People magazine story, some troops may not be diagnosed 
with TBI until months later. One of the greatest challenges the 
military health care and veterans systems face is to assure that no one 
falls through the cracks. The DVHIP is an important tool to assure a 
continuum of care, but the program requires additional resources to 
assure that no TBI is overlooked or misdiagnosed.
---------------------------------------------------------------------------
    \4\<bullet>T3AAfter Iraq, Devastating New Wounds, High-tech body 
armor is saving soldiers' lives on the battlefield. But it's leaving 
them with brain damage, T. Fields-Myer, V. Bane, J. Podesta, R. 
Schlesinger, J. Voelker, People Magazine, May 9, 2005, pg. 223-5; Key 
Iraq Wound: Brain Trauma, Body Armor Prevents Death, Not Damage, Gregg 
Zoroya, USA Today, March 4, 2005, pg. A1. http://www.palo-
alto.med.va.gov/resources/docs/polytrauma/media/People Magazine050905-
Print.pdf
---------------------------------------------------------------------------
          THE DEFENSE AND VETERANS HEAD INJURY PROGRAM (DVHIP)

    Established in 1992, the DVHIP is a component of the military 
health care system that integrates clinical care and clinical follow-
up, with applied research, treatment and training. The program was 
created after the first Gulf War to address the need for an overall 
systemic program for providing brain injury specific care and 
rehabilitation within DOD and DVA. The DVHIP seeks to ensure that all 
military personnel and veterans with brain injury receive brain injury-
specific evaluation, treatment and follow-up. Clinical care and 
research is currently undertaken at seven DOD and DVA sites and one 
civilian treatment site.\5\ In addition to providing treatment, 
rehabilitation and case management at each of the 8 primary DVHIP 
centers, the DVHIP includes a regional network of additional secondary 
veterans' hospitals capable of providing TBI rehabilitation, and linked 
to the primary lead centers for training, referrals and consultation. 
This is coordinated by a dedicated central DVA TBI coordinator and 
includes an active TBI case manager training program. DVHIP also 
provides education to providers and patients' families.
---------------------------------------------------------------------------
    \5\ Walter Reed Army Medical Center, Washington, DC; James A. Haley 
Veterans Hospital, Tampa, FL; Naval Medical Center San Diego, San 
Diego, CA; Minneapolis Veterans Affairs Medical Center, Minneapolis, 
MN; Veterans Affairs Palo Alto Health Care System, Palo Alto, CA; 
Virginia Neurocare, Inc., Charlottesville, VA; Hunter McGuire Veterans 
Affairs Medical Center, Richmond, VA; Wilford Hall Medical Center, 
Lackland Air Force Base, TX.
---------------------------------------------------------------------------
               CONTINUING EFFORTS AND CURRENT CHALLENGES

Clinical Care
    DVHIP continues to ensure optimal care, conduct clinical research, 
provide educational programs on TBI as well as provide family support 
for active duty military and veterans. All DVHIP sites have maintained 
and many have increased treatment capacity. This has been a direct 
response to the influx of patients seen secondary to Operation Iraqi 
Freedom (OIF) and Operation Enduring Freedom (OEF). WRAMC receives more 
casualties from theater than all of the other military treatment 
facilities (MTFs) in the continental United States. Patients are often 
seen at WRAMC within a week or two after injury and many of these 
patients have multiple injuries (e.g., TBI, traumatic amputations, 
shrapnel wounds, etc.).
    To meet the increased demand, screening procedures were developed 
by DVHIP headquarters and clinical staff. The DVHIP clinical staff 
reviews all incoming casualty reports at WRAMC and screens all patients 
who may have sustained a brain injury based on the mechanism of injury 
(i.e., blast/explosion, vehicular accident, fall, gunshot wound to the 
head, etc.). DVHIP screening is identifying TBI patients that might 
otherwise go undetected, posing a potential threat to patients and, in 
the case of premature return to active duty, military readiness.
Community Reentry and Return To Work
    As of April 29, 2005, a full 35 percent of soldiers treated at 
Virginia NeuroCare (VANC) returned to active duty. As a core program of 
the DVHIP, VANC provides innovative community based rehabilitation 
programs that maximize functional independence and facilitate re-entry 
into family and community life. VANC's coordination with the Judge 
Advocate General (JAG) school, in which active duty soldiers get back 
into the military environment and develop work skills as well as 
participate in military exercises has demonstrated its excellence in 
the continuum of care received by injured military personnel. Housing 
for eight additional beds is needed, however, to accommodate the 
increase in active duty patients enrolled at VANC.
Blast Injury Research
    Improved body armor, the significance of even mild brain injury, 
and the high frequency of troops wounded in blasts all lead to blast-
induced TBI being an important health issue in this war. DVHIP at WRAMC 
has identified over 400 patients who have sustained TBIs in OIF/OEF, 
most of whom have been injured in blasts. The goal of TBI treatment is 
to maintain individuals at duty whenever possible without negatively 
affecting the unit mission or the individual service member and to 
maximize the individual service member's potential for long term 
productivity and quality of life.
    The DVHIP is leading the effort to elucidate patterns of brain 
injury from blast, including providing guidelines for the assessment 
and follow-up care after blast-related TBI within the military 
environment. Ongoing DVHIP research is linked to clinical care programs 
to ensure that information learned from caring for these individuals 
will be disseminated to military and veteran treatment facilities and 
added to the medical literature. Continuing collaboration with military 
experts on blast, working with preclinical subjects, also will help to 
better understand the injuries our troops sustain.
Medic Training
    In response to an unmet need identified at the March 2004 DVHIP co-
sponsored Neurotrauma in Theater: Lessons Learned from Iraq and 
Afghanistan conference, DVHIP is developing a Combat Medic Training 
module, to be made available online and in theater by November 2005. 
DVHIP continues to proactively train deploying clinicians and care 
providers at troop-intensive military treatment facilities. A military 
first responder (Medic) online training course, which will offer CME 
and CEU credits, will be available online and in theater by early 
summer. Additional education initiatives include a Coordination of Care 
Guide for TBI case managers, multiple Grand Rounds, and the 
dissemination of DVHIP research and clinical practice publications.
Post Deployment Forms
    DVHIP will continue its efforts to have blast and head injury 
exposure added to the current Post Deployment form. DVHIP's experience 
in identifying individuals with TBI and referring them for care at Ft. 
Bragg and Camp Pendleton will be turned into management algorithms for 
large scale use.

                            NEW INITIATIVES

Improving Access to TBI Specific Care
    In order to assure that TBI specific care is available to 
individuals after leaving specialty treatment centers, DVHIP will offer 
a call for proposals for innovative clinical programs that will 
establish distributed care networks. Outcomes measurement will include 
patient level of independence, family education and satisfaction, and 
cost savings analyses. TBI care is currently centralized at DVHIP lead 
centers: four VA and three military medical centers, and one civilian 
community re-entry center. Patients who need TBI specialty follow-up 
care may be forced to travel great distances to receive it. Thus, 
proposals will be solicited to address this need, including bringing 
specialty TBI outpatient care to areas with no VA hospital (e.g., 
Alaska). Proposals for two types of programs will be elicited:
  --TBI Community care.--Coordinated TBI case management, to include 
        family support initiatives, has the potential to greatly 
        facilitate community re-entry among TBI survivors. Proposals to 
        be considered include augmented clinics and telemedicine. To be 
        considered for funding, proposals must have clear outcome 
        measures designed to quantify improvements in patient self-
        sufficiency and cost-savings to the Federal Government.
  --Treatment of neurobehavioral consequences of TBI.--Often the most 
        disturbing to patients and families, neurobehavioral problems 
        such as memory, personality, and mood may complicate re-entry 
        to home and other relationships. Innovative, community-based 
        programs that add neurobehavioral expertise for ongoing care of 
        patients with TBI will be solicited.
TBI and Mental Health Evaluation
    As soldiers return home, much attention is often paid to the 
possibility of post-traumatic stress disorder (PTSD). One critical area 
not to be overlooked is the relationship between TBI and PTSD. Research 
suggests that patients with both PTSD and TBI are an important 
population to identify, though not much is known about combat PTSD in 
persons with TBI. While there are some similarities in initial symptoms 
(headaches, trouble focusing, irritability), treatment for PTSD and TBI 
are indeed very different. Clinically focused research initiatives by 
DVHIP would investigate the unique relationship between TBI and PTSD to 
ensure that the troops are receiving the best care available for both 
their brain and their mind. Additional initiatives could focus on 
mental health providers, who may where individuals with TBI present for 
care.
TBI Assessment in Theater
    DVHIP is leading the effort to provide evidence-based guidelines 
for the assessment and follow-up care after blast-related TBI within 
the military environment. An integral part of this effort is the 
development of militarily relevant concussion guidelines that are 
medically and scientifically based. Existing sports concussion 
guidelines are not fully applicable to combat situations--particularly 
because post injury symptoms may put the individual and fellow troops 
at risk. Medics and clinicians in theater have voiced great interest in 
objective tools to aide in the diagnosis and management of TBI. DVHIP 
is continuing to work toward the final development and deployment of a 
computerized assessment battery for concussion. DVHIP's unique role in 
ensuring state of the art clinical care throughout the various levels 
from battlefield to community reentry makes this possible.
    A January 2005, GAO report on vocational rehabilitation for injured 
service members emphasized that early intervention following TBI is 
highly correlated with positive outcomes.\6\ By making it possible to 
identify TBI immediately following an injury, America's war fighters 
will receive the best care possible. Widespread use of a TBI assessment 
battery will ensure that medics and clinicians in theater follow 
evidence-based concussion guidelines.
---------------------------------------------------------------------------
    \6\ Vocational Rehabilitation: More VA and DOD Collaboration Needed 
to Expedite Services for Seriously Injured Service members, GAO-05-167 
(Washington, DC: January 2005).
---------------------------------------------------------------------------
TBI Screening
    The addition of a TBI clinician at key medical transfer points such 
as Landstuhl Regional Medical Center (LRMC) in Germany and Andrews Air 
Force Base will ensure that the screening process developed at WRAMC by 
DVHIP identifies wounded service members who may also have a TBI. The 
implementation of screening at WRAMC has identified TBI in many 
soldiers who were not yet diagnosed with TBI. This effort would augment 
the current Joint Theater Trauma Registry that has limited information 
on brain injury, especially milder forms of TBI.
Clinical Registry Database
    DVHIP proposes to develop a clinical registry, designed for 
obtaining information on TBI patients far forward and following their 
clinical outcomes. The database will also allow for rapid response to 
clinical questions from military and VA medical leaders regarding the 
incidence and outcome of TBI as well as permit the sharing of medical 
information between clinicians and case managers. Additionally, this 
will enable medical providers in theater to communicate questions 
regarding TBI patients to the DVHIP, and facilitate the timely transfer 
of patients to appropriate VA and military programs. This can be 
completed as a stand alone project focused on hospital and in-theater 
care, or as an augmentation of the Joint Theater Trauma Registry 
database.
Educational Outreach
    There is a need for greater educational outreach (teams of trainers 
or other types of educational outreach) at specific non-DVHIP military 
medical facilities and troop intensive sites (e.g. Fort Hood, Fort 
Carson, etc.) to provide TBI training and education for providers with 
direct contact with large numbers of troops, both troops stationed 
locally and troops returning from theater (e.g., Reservists). This 
effort could also increase DVHIP's reach in surveillance to include 
centers beyond those in the core DVHIP network.
    An educational outreach team was very successful in educating 
providers of the 249th General Hospital who were deploying to 
Afghanistan without a neurosurgeon, as allied neurosurgical injuries 
were not anticipated. Training in neurocare was provided at Fort Gordon 
and contact continued via email after the 249th reached Afghanistan.

                               CONCLUSION

    In NBIRTT's view, the Congress has been very responsive to the 
needs of our brave men and women in uniform who risk their lives for 
us. We urge your continued support for active duty military men and 
women sustaining brain injuries, whether in combat or at home. The 
DVHIP has stepped up to the plate to meet the needs of soldiers with 
brain injuries. Please support $14 million for the DVHIP in the fiscal 
year 2006 Defense Appropriations bill under AMRMC, Fort Detrick to 
continue this important program.
    Thank you.

    Senator Inouye. Will the VA benefit from your program?
    Mr. Foil. Yes, sir.
    Senator Inouye. Will you be able to seal up the cracks so 
they will not fall through?
    Mr. Foil. Well, nothing is 100 percent positive. But last 
year, if you remember, you and Senator Stevens asked us how we 
are going to help Hawaii and Alaska. You remember that?
    Senator Inouye. Yes, we have got big cracks there.
    Mr. Foil. That is right. Well, you heard me talk about care 
coordinators. What we would like to do and what our agenda is 
if we get this money is to take this--hold on just a minute. 
Let us see.
    There are a couple of places in Hawaii that we are looking 
at that if we have the money to do this we would like to look 
at, Tripler Army Medical Center in Honolulu and the VA Medical 
Center in Honolulu. We would like to place a care coordinator 
in there, and their job is going to be to start a program much 
like we see here in the United States that has been so 
successful.
    In Alaska there are a couple of opportunities, Bassett Army 
Community Hospital in Fort Wainwright, which is in Fairbanks, 
and there is a medical facility at Elmendorf Air Base called 
the Health and Wellness Center in Anchorage. Also, the VA 
Medical Center in Alaska is in Anchorage with two other 
outpatient clinics in both Fairbanks and Kenai--is that the way 
you pronounce it?
    Senator Stevens [presiding]. ``KEE-nie.''
    Mr. Foil. ``KEE-nie.''
    Senator Stevens. Kenai, it is the home of the greatest 
salmon in the world.
    Mr. Foil. All right, sir. I stand corrected.
    But there is a lot to be done and I think we have the 
opportunity to do this and do it properly. But we need your 
support to be able to get it done, Senators. We would love to 
have the opportunity to do this both in Hawaii and Alaska, and 
there are other places where we do not have those 
opportunities.
    Senator Inouye. Thank you very much, sir.
    Mr. Foil. Thank you, sir.
    Senator Stevens. Doctor, we are going to try to make sure 
that we do move that budget over to the Army Medical Research 
and Material Command at Fort Detrick. We agree with you on that 
and we will do our best to do that.
    Mr. Foil. Thank you very much. We really appreciate it.
    Senator Stevens. Our next witness is Dennis Duggan, Deputy 
Director, National Security Commission for the American Legion. 
Comrade, it is nice to see you.

STATEMENT OF DENNIS MICHAEL DUGGAN, DEPUTY DIRECTOR, 
            NATIONAL SECURITY COMMISSION, THE AMERICAN 
            LEGION
    Mr. Duggan. Yes, sir, nice to see you again. Mr. Chairman 
and ranking member, Senator Inouye: The American Legion, the 
Nation's largest organization of wartime veterans, is extremely 
grateful for this opportunity to present its views on defense 
appropriations for fiscal year 2006. We have always valued your 
leadership and your subcommittee's leadership in assessing and 
authorizing adequate funding for quality of life, 
modernization, and readiness features for the Nation's armed 
forces, Active, Reserve, National Guard, as well as for our 
Nation's military retiree veterans and their dependents.
    As we know too well, the war on terrorism is being waged on 
two fronts, overseas in a bitter, bloody struggle with armed 
insurgents and at home, protecting and securing the homeland. 
Most of what we hold dear as Americans was made possible by the 
peace and stability that the armed forces have provided by 
taking the fight to the enemy in overseas battlegrounds.
    However, a decade of overuse of a smaller Army, a large-
scale use of reservists and National Guardsmen in combat, and a 
past history of some underfunding has certainly warranted your 
sustained investment. And, Mr. Chairman, it is deeply 
appreciated.
    The American Legion continues to urge an increase in Army 
manpower strengths. We also are strongly supportive of 
congressional authorization and funding of the necessary 
recruiting tools, particularly for the Army, Army Reserve, and 
Army National Guard, and perhaps the Marines. The funding of 
even more recruiting bonuses, recruiters, advertising as 
appropriate should be funded if needed.
    Funding of an improved Montgomery Government Issue (GI) 
bill for the Active and Reserve components was certainly 
justified, and increased death gratuities and traumatic injury 
insurance we believe are overdue as well.
    We salute the Senate in protecting our troops and boosting 
military benefits.
    Mr. Chairman, while we are fighting what will likely be a 
long, hard war on terrorism, we believe we must also keep an 
eye on the Far East, particularly North Korea and China. Both 
countries are flexing their military muscles in the Pacific 
while the United States is distracted at war in Iraq and 
Afghanistan. For that reason, we are extremely grateful that 
the Senate is requiring the Navy to retain the 12-carrier fleet 
Navy rather than scaling back.
    As a concerned veterans organization, something tells us 
perhaps that we should also be producing more than four Aegis 
DDGs per year and perhaps not discharging as many as the 10,000 
sailors that we seem to be doing.
    Finally, with regard to the 2005 defense BRAC, the American 
Legion would only urge that irreplaceable base facilities and 
essential base facilities, perhaps such as military medical 
facilities and commissaries and perhaps training areas, be 
retained for use by Reserve components as needed or by military 
retiree veterans and their families whenever such is possible.
    Mr. Chairman, that concludes the oral statement of the 
American Legion and we thank you again for this opportunity.
    [The statement follows:]

              Prepared Statement of Dennis Michael Duggan

    Mr. Chairman, the American Legion is grateful for the opportunity 
to present its views on defense appropriations for fiscal year 2006.The 
American Legion values your leadership in assessing and authorizing 
adequate funding for quality-of-life (QOL) features of the Nation's 
armed forces to include the active, reserve and National Guard forces 
and their families, as well as quality of life for military retirees 
and their dependents.
    Since September 2001, the United States has been involved in the 
war against terrorism in Operations Iraqi Freedom and Enduring Freedom. 
American fighting men and women are again proving they are the best-
trained, best-equipped and best-led military in the world. As Secretary 
of Defense Donald Rusted has noted, the war in Iraq is part of a long, 
dangerous global war on terrorism. The war on terrorism is being waged 
on two fronts: overseas against armed insurgents and at home protecting 
and securing the Homeland. Casualties in the shooting wars, in terms of 
those killed and seriously wounded, continue to mount daily. Indeed, 
most of what we as Americans hold dear is made possible by the peace 
and stability that the Armed Forces provide by taking the fight to the 
enemy.
    The American Legion adheres to the principle that this Nation's 
armed forces must be well-manned and equipped, not just to pursue war, 
but to preserve and protect the peace. The American Legion strongly 
believes past military downsizing was budget-driven rather than threat 
focused. Once Army divisions, Navy warships and Air Force fighter 
squadrons are downsized, eliminated or retired from the force 
structure, they cannot be reconstituted quickly enough to meet new 
threats or emergency circumstances. The Marine Corps, Army National 
Guard and the Reserves have failed to meet their recruiting goals and 
the Army's stop-loss policies have obscured retention and recruiting 
needs. Clearly, the active Army is struggling to meet its recruitment 
goals. Military morale undoubtedly has been adversely affected by the 
extension and repetition of Iraq tours of duty.
    The administration's fiscal year 2006 budget requests $419.3 
billion for defense or about 17 percent of the total budget. The fiscal 
year 2006 defense budget represents a 4.8 percent increase in defense 
spending over current funding levels. It also represents about 3.5 
percent of our Gross National Product. Active duty military manpower 
end-strength is now over 1.388 million. Selected Reserve strength is 
about 863,300 or reduced by about 25 percent from its strength levels 
during the Gulf War of 14 years ago.
    Mr. Chairman, this budget must advance ongoing efforts to fight the 
global war on terrorism, sustain and improve quality of life and 
continue to transform the military. A decade of over use of the 
military and past under-funding, necessitates a sustained investment. 
The American Legion believes the budget must continue to address 
increases in Army end-strengths, accelerate improved Active and Reserve 
Components quality of life features, provide increased funding for the 
concurrent receipt of military retirement pay and VA disability 
compensation (``Veterans Disability Tax''); and elimination of the 
offset of survivors benefit plan (SBP) and Dependency and Indemnity 
Compensation (DIC) that continues to penalize military survivors.
    If we are to win the war on terror and prepare for the wars of 
tomorrow, we must take care of the Department of Defense's greatest 
assets--the men and women in uniform. They do us proud in Iraq, 
Afghanistan and around the world. They need help.
    In order to attract and retain the necessary force over the long 
haul, the active duty force, Reserves and National Guard continue to 
look for talent in an open market place and to compete with the private 
sector for the best young people this Nation has to offer. If we are to 
attract them to military service in the active and reserve components, 
we need to count on their patriotism and willingness to sacrifice, to 
be sure, but we must also provide them the proper incentives. They love 
their country, but they also love their families--and many have 
children to support, raise and educate. We have always asked the men 
and women in uniform to voluntarily risk their lives to defend us; we 
should not ask them to forego adequate pay and allowances, adequate 
health care and subject their families to repeated unaccompanied 
deployments and sub-standard housing as well. Undoubtedly, retention 
and recruiting budgets need to be substantially increased if we are to 
keep and recruit quality service members.
    The President's fiscal year 2006 defense budget requests over $105 
billion for military pay and allowances, including a 3.1 percent 
across-the-board pay raise. It also includes billions to improve 
military housing, putting the Department on track to eliminate most 
substandard housing by 2007--several years sooner than previously 
planned. The fiscal year 2005 budget further lowered out-of-pocket 
housing costs for those living off base. The American Legion encourages 
the Subcommittee to continue the policy of no out-of-pocket housing 
costs in future years.
    Together, these investments in people are critical, because smart 
weapons are worthless to us unless they are in the hands of smart, 
well-trained soldiers, sailors, airmen, Marines and Coast Guard 
personnel.
    The American Legion National Commanders have visited American 
troops in Europe, the Balkans, and South Korea as well as a number of 
installations throughout the United States, including Walter Reed Army 
Medical Center and Bethesda National Naval Medical Center. During these 
visits, they were able to see first hand the urgent, immediate need to 
address real quality of life challenges faced by service members and 
their families. Severely wounded service members who have families and 
are convalescing in military hospitals clearly need to have their 
incomes increased when they are evacuated from combat zones. Also, the 
medical evaluation board process needs to be expedited so that military 
severance and disability retirement pays will be more immediately 
forthcoming. Our National Commanders have spoken with families on 
Women's and Infants' Compensation (WIC), where quality-of-life issues 
for service members, coupled with combat tours and other operational 
tempos, play a role in recurring recruitment and retention efforts and 
should come as no surprise. The operational tempo and lengthy 
deployments, other than combat tours, must be reduced or curtailed. 
Military missions were on the rise before September 11 and deployment 
levels remain high. The only way to reduce repetitive overseas tours 
and the overuse of the Reserves is to increase active duty and perhaps 
reserve end-strengths for the services. Military pay must be on a par 
with the competitive civilian sector. Activated reservists must receive 
the same equipment, the same pay and timely health care as active duty 
personnel. If other benefits, like health care improvements, 
commissaries, adequate quarters, quality child care and impact aid for 
DOD education are reduced, they will only serve to further undermine 
efforts to recruit and retain the brightest and best this nation has to 
offer.
    To step up efforts to bring in enlistees, all the Army components 
are increasing the number of recruiters. The Army National Guard sent 
1,400 new recruiters into the field last February. The Army Reserve is 
expanding its recruiting force by about 80 percent. If the recruiting 
trends and the demand for forces persist, the Pentagon under current 
policies could eventually ``run out'' of reserve forces for war zone 
rotation, a Government Accountability Office expert warned. The 
Pentagon projects a need to keep more than 100,000 reservists 
continuously over the next 3 to 5 years. The Defense Appropriations 
bill for fiscal year 2005 provides the funding for the first year force 
level increases of 10,000. The Army's end-strength increased 30,000 and 
the Marine Corps end-strength increased 3,000.
    Army restructuring will increase the number of active Army maneuver 
brigades by 30 percent by fiscal year 2007. The Army National Guard 
will reach 34 brigades. The Marine Corps will increase by two 
battalions.
    The budget deficit is projected to be $427 billion; the largest in 
U.S. history and it appears to be heading higher perhaps to $500 
billion. National defense spending must not become a casualty of 
deficit reduction.

                     FORCE HEALTH PROTECTION (FHP)

    As American military forces are again engaged in combat overseas, 
the health and welfare of deployed troops is of utmost concern to The 
American Legion. The need for effective coordination between the 
Department of Veterans Affairs and the DOD in the force protection of 
U.S. forces is paramount. It has been 14 years since the first Gulf 
War, yet many of the hazards of the 1991 conflict are still present in 
the current war.
    Prior to the 1991 Gulf War deployment, troops were not 
systematically given comprehensive pre-deployment health examinations 
nor were they properly briefed on the potential hazards, such as 
fallout from depleted uranium munitions they might encounter. Record 
keeping was poor. Numerous examples of lost or destroyed medical 
records of active duty and reserve personnel were identified. Physical 
examinations (pre- and post-deployment) were not comprehensive and 
information regarding possible environmental hazard exposures was 
severely lacking. Although the government had conducted more than 230 
research projects at a cost of $240 million, lack of crucial deployment 
data resulted in many unanswered questions about Gulf War veterans 
illnesses.
    The American Legion would like to specifically identify an element 
of FHP that deals with DOD's ability to accurately record a service 
member's health status prior to deployment and document or evaluate any 
changes in his or her health that occurred during deployment. This is 
exactly the information VA needs to adequately care for and compensate 
service members for service-related disabilities once they leave active 
duty. Although DOD has developed post-deployment questionnaires, they 
still do not fulfill the requirement of ``thorough'' medical 
examinations nor do they even require a medical officer to administer 
the questionnaires. Due to the duration and extent of sustained combat 
in Operations Iraqi Freedom and Enduring Freedom, the psychological 
impact on deployed personnel is of utmost concern to The American 
Legion. VA's ability to adequately care for and compensate our Nation's 
veterans depends directly on DOD's efforts to maintain proper health 
records/health surveillance, documentation of troop locations, 
environmental hazard exposure data and the timely sharing of this 
information with the VA.
    The American Legion strongly urges Congress to mandate separation 
physical exams for all service members, particularly those who have 
served in combat zones or have had sustained deployments. DOD reports 
that only about 20 percent of discharging service members opt to have 
separation physical exams. During this war on terrorism and frequent 
deployments with all their strains and stresses, this figure, we 
believe, should be substantially increased.

                        MILITARY QUALITY OF LIFE

    Our major national security concern continues to be the enhancement 
of the quality of life issues for active duty service members, 
reservists, National Guardsmen, military retirees and their families. 
During the last Congressional session, President Bush and the Congress 
made marked improvements in an array of quality of life issues for 
military personnel and their families. These efforts are vital 
enhancements that must be sustained.
    Mr. Chairman: during this period of the War on Terrorism, more 
quality of life improvements are required to meet the needs of 
servicemembers and their families as well as military retiree veterans 
and their families. For example, the totally inadequate $12,000 death 
gratuity needs to be increased to $100,000 and the SGLI needs to be 
increased to at least $400,000; the improved Reserve MGIB for education 
needs to be completely funded as well; combat wounded soldiers who are 
evacuated from combat zones to military hospitals need to retain their 
special pay (combat pay, family separation pay, etc) and base pay and 
allowances during the period of their convalescence continued at the 
same level to not jeopardize their families' financial support during 
recovery. Furthermore, the medical evaluation board process needs to be 
expedited so that any adjudicated military severance or military 
disability retirement payments will be immediately forthcoming; 
recruiting and retention efforts, to include the provision of more 
service recruiters, needs to be fully funded as does recruiting 
advertising. The Defense Health Program and in particular the Uniformed 
Services University of the Health Sciences must also be fully 
appropriated. The American Legion appreciates the administration and 
Congress's support of the Wounded Warrior bill designed to provide 
financial help to soldiers and their families when they are wounded or 
otherwise traumatically injured.
    Likewise, military retiree veterans as well as their survivors, who 
have served their Country for decades in war and peace, require 
continued quality of life improvements as well. First and foremost, The 
American Legion strongly urges that FULL concurrent receipt and Combat-
Related Special Compensation (CRSC) be authorized for disabled retirees 
whether they were retired for longevity (20 or more years of service) 
or military disability retirement with fewer than 20 years. In 
particular, The American Legion urges that disabled retirees rated 40 
percent and below be authorized CRPD and that disabled retirees rated 
between 50 percent and 90 percent disabled be authorized non-phased-in 
concurrent receipt. Additionally, The American Legion strongly urges 
that ALL military disability retirees with fewer than 20 years service 
be authorized to receive CRSC and VA disability compensation provided, 
of course, they're otherwise eligible for CRSC under the combat-related 
conditions.
    Secondly, The American Legion urges that the longstanding inequity 
whereby military survivors have their survivors benefit plan (SBP) 
offset by the Dependency and Indemnity Compensation (DIC) be 
eliminated. This ``Widows' Tax'' needs to be eliminated as soon as 
possible. It is blatantly unfair and has penalized deserving military 
survivors for years. A number of these military survivors were nearly 
impoverished because of this unfair provision. As with concurrent 
receipt for disabled retirees, military survivors should receive both 
SBP AND DIC. They have always been entitled to both and should not have 
to pay for their own DIC. The American Legion will continue to convey 
that simple, equitable justice is the primary reason to fund FULL 
concurrent receipt of military retirement pay and VA disability 
compensation as well as the survivors benefit plan (SBP) and DIC for 
military survivors. Not to do so merely continues the same inequity. 
Both inequities need to be righted by changing the unfair law that 
prohibits both groups from receiving both forms of compensation.
    Mr. Chairman: the American Legion as well as the armed forces and 
veterans continue to owe you and this subcommittee a debt of gratitude 
for your support of military quality of life issues. Nevertheless, your 
assistance is needed in this budget to overcome old and new threats to 
retaining and recruiting the finest military in the world. Service 
members and their families continue to endure physical risks to their 
well-being and livelihood as well as the forfeiture of personal 
freedoms that most Americans would find unacceptable. Worldwide 
deployments have increased significantly and the Nation is at war. The 
very fact that over 300,000 Guardsmen and Reservists have been 
mobilized since September 11, 2001 is first-hand evidence that the 
United States Army desperately needs to increase its end-strengths and 
maintain those end-strengths so as to help facilitate the rotation of 
active and reserve component units to active combat zones.
    The American Legion congratulates and thanks congressional 
subcommittees such as this one for military and military retiree 
quality of life enhancements contained in past National Defense 
Appropriations Acts. Continued improvement however is direly needed to 
include the following:
  --Completely Closing the Military Pay Gap with the Private Sector.--
        With U.S. troops battling insurgency and terrorism in Iraq and 
        Afghanistan, The American Legion supports the proposed 3.1 
        percent military pay raise as well as increases in Basic 
        Allowance for Housing (BAH).
  --Commissaries.--The American Legion urges the Congress to preserve 
        full Federal subsidizing of the military commissary system and 
        to retain this vital non-pay compensation benefit for use by 
        active duty families, reservist families, military retiree 
        families and 100 percent service-connected disabled veterans 
        and others.
  --DOD Domestic Dependents Elementary and Secondary Schools (DDESS).--
        The American Legion urges the retention and full funding of the 
        DDESS as they have provided a source of high quality education 
        for military children attending schools on military 
        installations.
  --Funding the Reserve Montgomery GI Bill for Education.
  --Increasing the death gratuity to $100,000 and $400,000 for SGLI for 
        all active duty or activated Reservists who are killed or who 
        die while on active duty after September 11, 2001 during the 
        War on Terror.
  --Improving the pay of severely wounded service members and 
        expediting the medical evaluation board process.
  --Providing FULL concurrent receipt of military retirement pay and VA 
        disability compensation for those disabled retirees rated 40 
        percent and less; providing non-phased concurrent receipt for 
        those disabled retirees rated between 50 percent and 90 percent 
        disabled by the VA; and authorizing those military disability 
        retirees with fewer than 20 years service to receive both VA 
        disability compensation and Combat-Related Special Compensation 
        (CRSC).
  --Eliminating the offset of the survivors benefit plan (SBP) and 
        Dependency and Indemnity Compensation (DIC) for military 
        survivors.

                   OTHER QUALITY OF LIFE INSTITUTIONS

    The American Legion strongly believes that quality of life issues 
for retired military members and their families are augmented by 
certain institutions which we believe need to be annually funded as 
well. Accordingly, The American Legion believes that Congress and the 
administration must place high priority on insuring these institutions 
are adequately funded and maintained:
  --The Uniformed Services University of the Health Sciences.--The 
        American Legion urges the Congress to resist any efforts to 
        less than fully fund, downsize or close the USUHS through the 
        BRAC process. It is a national treasure, which educates and 
        produces military physicians and advanced nursing staffs. We 
        believe it continues to be an economical source of CAREER 
        medical leaders who enhance military health care readiness and 
        excellence and is well-known for providing the finest health 
        care in the world.
  --The Armed Forces Retirement Homes.--The United States Soldiers' and 
        Airmen's Home in Washington, DC and the United States Naval 
        Home in Gulfport, Mississippi, are under-funded as evidenced by 
        the reduction in services to include on-site medical health 
        care and dental care. Increases in fees paid by residents are 
        continually on the rise. The medical facility at the USSAH has 
        been eliminated with residents being referred to VA Medical 
        Centers or Military Treatment Facilities such as Walter Reed 
        Army Medical Center. The American Legion recommends that the 
        Congress conduct an independent assessment of these two 
        facilities and the services being provided with an eye toward 
        federally subsidizing these two Homes as appropriate. Both 
        facilities have been recognized as national treasures until 
        recent years when a number of mandated services have been 
        severely reduced and resident fees have been substantially 
        increased.
  --Arlington National Cemetery.--The American Legion urges that the 
        Arlington National Cemetery be maintained to the highest of 
        standards. We urge also that Congress mandate the eligibility 
        requirements for burial in this prestigious Cemetery reserved 
        for those who have performed distinguished military service and 
        their spouses and eligible children.
  --2005 Defense Base Realignment and Closure Commission.--The American 
        Legion urges that certain base facilities such as military 
        medical facilities, commissaries, exchanges and training 
        facilities and other quality of life facilities be preserved 
        for use by the active and reserve components and military 
        retirees and their families.

               THE AMERICAN LEGION FAMILY SUPPORT NETWORK

    The American Legion continues to demonstrate its support and 
commitment to the men and women in uniform and their families. The 
American Legion's Family Support is providing immediate assistance 
primarily to activated National Guard families as requested by the 
Director of the National Guard Bureau. The American Legion Family 
Support Network has reached out through its Departments and Posts to 
also support the Army' Disabled Soldier Support System (DS3). Many 
thousands of requests from these families have been received and 
accommodated by the American Legion Family across the United States. 
Military family needs have ranged from requests for funds to a variety 
of everyday chores which need doing while the ``man or woman `` of the 
family is gone. The American Legion, whose members have served our 
Nation in times of adversity, remember how it felt to be separated from 
family and loved ones. As a grateful Nation, we must ensure than no 
military family endures those hardships caused by military service, as 
such service has assured the security, freedom and ideals of our great 
Country.

                              CONCLUSIONS

    Thirty-two years ago, America opted for an all-volunteer force to 
provide for the National Defense. Inherent in that commitment was a 
willingness to invest the needed resources to bring into existence and 
maintain a competent, professional and well-equipped military. The 
fiscal year 2006 defense budget, while recognizing the War on Terrorism 
and Homeland Security, represents another good step in the right 
direction. Likewise our military retiree veterans and military 
survivors, who in yesteryear served this Nation for decades, continue 
to need your help as well.
    Mr. Chairman, This concludes our statement.

    Senator Stevens. Thank you very much.
    Do you have any comments?
    Senator Inouye. I support.
    Senator Stevens. We generally support what you have said. I 
disagree with you on the aircraft carriers, but he agrees with 
you, so you are ahead.
    Thank you very much for your testimony.
    Mr. Duggan. Thank you, sir.
    Senator Stevens. Next is Lieutenant Colonel (retired) Paul 
Austin of the American Association of Nurse Anesthetists. Yes, 
sir.

STATEMENT OF LIEUTENANT COLONEL PAUL N. AUSTIN, CRNA, 
            Ph.D., U.S. AIR FORCE (RETIRED), ON BEHALF 
            OF THE AMERICAN ASSOCIATION OF NURSE 
            ANESTHETISTS
    Dr. Austin. Chairman Stevens and Senator Inouye: Good 
afternoon. My name is Dr. Paul Austin and I'm a certified 
registered nurse anesthetist (CRNA), recently retired from the 
U.S. Air Force after 24 years of proudly serving my country. 
For the majority of this time I served as a nurse anesthesia 
educator who was the Director of both the U.S. Air Force and 
the Uniformed Services University nurse anesthesia programs.
    The American Association of Nurse Anesthetists (AANA) 
represents more than 30,000 CRNAs, including 483 Active duty 
CRNAs, 790 reservists in the military. CRNAs continue to be 
deployed to the Middle East for Operation Iraqi Freedom and 
Operation Enduring Freedom, providing anesthesia in all types 
of surgical procedures, both on ships and on the ground.
    In many cases CRNAs are the sole anesthesia providers for 
our troops, which General Brannon stated before this 
subcommittee last week, and I quote: ``Lieutenant Colonel 
Bonnie Mack and Major Virginia Johnson are CRNAs deployed to 
Tallil Air Base in Iraq as the only anesthesia providers for 
over 20,000 U.S. and coalition forces and civilian contract 
personnel.''
    Today maintaining adequate numbers of Active duty CRNAs is 
of the utmost importance to the Department of Defense to meet 
its military medical readiness mission. For several years the 
number of CRNAs serving on Active duty has fallen somewhat 
short of the number authorized by the DOD. This is complicated 
by the strong demand for CRNAs in both the public and private 
sectors. This considerable gap between civilian and military 
pay was addressed in the fiscal year 2003 Defense Authorization 
Act with an incentive specialty pay, or ISP, increase from 
$15,000 to $50,000. The AANA appreciates this subcommittee's 
continued support to fund the ISP to retain and to recruit 
CRNAs.
    Last, the establishment of the joint VA-DOD program in 
nurse anesthetist education at Fort Sam Houston in San Antonio 
holds the promise of making significant improvements in the VA 
CRNA workforce and improving retention of VA registered nurses 
(RNs) in a cost effective manner. This 30-month program 
attracts RNs into VA service by sending RNs a strong message 
that the VA is committed to their educational advancement.
    Due to continued interest by VA RNs in the program, the 
program will be expanding to five openings for the June 2005 
class. In addition, this partnership enables the VA faculty 
director to cover her Army colleagues' classes when they are 
deployed at a moment's notice.
    In conclusion, the AANA believes that the recruitment and 
retention of CRNAs in the services is critical to our men and 
women in uniform. Continued funding of the ISP will help meet 
this challenge. The AANA thanks this subcommittee for your 
continued support for CRNAs in the military.
    [The statement follows:]

     Prepared Statement of Lieutenant Colonel (Ret.) Paul N. Austin

    Chairman Stevens, Ranking Member Inouye, and members of the 
subcommittee, the American Association of Nurse Anesthetists (AANA) is 
the professional association representing over 30,000 certified 
registered nurse anesthetists (CRNAs) in the United States, including 
482 active duty and 799 reservists in the military. The AANA 
appreciates the opportunity to provide testimony regarding CRNAs in the 
military. We would also like to thank this committee for the help it 
has given us in assisting the Department of Defense (DOD) and each of 
the services to recruit and retain CRNAs.

              BACKGROUND INFORMATION ON NURSE ANESTHETISTS

    Let us begin by describing the profession of nurse anesthesia, and 
its history and role with the military medical system.
    In the administration of anesthesia, CRNAs perform the same 
functions as anesthesiologists and work in every setting in which 
anesthesia is delivered including hospital surgical suites and 
obstetrical delivery rooms, ambulatory surgical centers, health 
maintenance organizations, and the offices of dentists, podiatrists, 
ophthalmologists, and plastic surgeons. Today CRNAs participate in 
approximately 65 percent of the anesthetics given to patients each year 
in the United States. Nurse anesthetists are also the sole anesthesia 
providers in more than two-thirds of rural hospitals, assuring access 
to surgical, obstetrical and other healthcare services for millions of 
rural Americans.
    CRNAs have a personal and professional commitment to patient 
safety, made evident through research into our practice. In our 
professional association, we state emphatically ``our members' only 
business is patient safety.'' Safety is assured through education, high 
standards of professional practice, and commitment to continuing 
education. Having first practiced as registered nurses, CRNAs are 
educated to the master's degree level and meet the most stringent 
continuing education and recertification standards in the field. Thanks 
to this tradition of advanced education, the clinical practice 
excellence of anesthesia professionals, and the advancement in 
technology, we are humbled and honored to note that anesthesia is 50 
times safer now than 20 years ago (National Academy of Sciences, 2000). 
Research further demonstrates that the care delivered by CRNAs, 
anesthesiologists, or by both working together yields similar patient 
safety outcomes. In addition to studies performed by the National 
Academy of Sciences in 1977, Forrest in 1980, Bechtholdt in 1981, the 
Minnesota Department of Health in 1994, and others, Dr. Michael Pine, 
MD, MBA recently concluded once again that among CRNAs and physician 
anesthesiologists, ``the type of anesthesia provider does not affect 
inpatient surgical mortality'' (Pine, 2003). Thus, the practice of 
anesthesia is a recognized specialty in nursing and medicine. Both 
CRNAs and anesthesiologists administer anesthesia for all types of 
surgical procedures from the simplest to the most complex, either as 
single providers or together.

                   NURSE ANESTHETISTS IN THE MILITARY

    Since the mid-19th Century, our profession of nurse anesthesia has 
been proud to provide anesthesia care for our past and present military 
personnel and their families. From the Civil War to the present day, 
nurse anesthetists have been the principal anesthesia providers in 
combat areas of every war in which the United States has been engaged.
    Military nurse anesthetists have been honored and decorated by the 
U.S. and foreign governments for outstanding achievements, resulting 
from their dedication and commitment to duty and competence in managing 
seriously wounded casualties. In World War II, there were 17 nurse 
anesthetists to every one anesthesiologist. In Vietnam, the ratio of 
CRNAs to physician anesthesiologists was approximately 3:1. Two nurse 
anesthetists were killed in Vietnam and their names have been engraved 
on the Vietnam Memorial Wall. During the Panama strike, only CRNAs were 
sent with the fighting forces. Nurse anesthetists served with honor 
during Desert Shield and Desert Storm. Military have CRNAs provided 
critical anesthesia support to humanitarian missions around the globe 
in such places as Bosnia and Somalia. In May 2003, approximately 364 
nurse anesthetists had been deployed to the Middle East for the 
military mission for ``Operation Iraqi Freedom'' and ``Operation 
Enduring Freedom.''
    Data gathered from the U.S. Armed Forces anesthesia communities' 
reveal that CRNAs have often been the sole anesthesia providers at 
certain facilities, both at home and while forward deployed. For 
decades CRNAs have staffed ships, isolated U.S. Bases, and forward 
surgical teams without physician anesthesia support. The U.S. Army 
Joint Special Operations Command Medical Team and all Army Forward 
Surgical Teams are staffed solely by CRNAs. Military CRNAs have a long 
proud history of providing independent support and quality anesthesia 
care to military men and women, their families and to people from many 
nations who have found themselves in harm's way.
    In the current mission ``Operation Iraqi Freedom'' CRNAs will 
continue to be deployed both on ships and on the ground, as well as in 
U.S. special operations forces. This committee must ensure that we 
retain and recruit CRNAs now and in the future to serve in these 
military overseas deployments, and to ensure the maximum readiness of 
America's armed services.

CRNA RETENTION AND RECRUITING--HOW THIS COMMITTEE CAN HELP THE DEFENSE 
                               DEPARTMENT

    In all of the Services, maintaining adequate numbers of active duty 
CRNAs is of utmost concern. For several years, the number of CRNAs 
serving in active duty has fallen somewhat short of the number 
authorized by the Department of Defense (DOD). This is further 
complicated by strong demand for CRNAs in both the public and private 
sectors.
    However, it is essential to understand that while there is strong 
demand for CRNA services in the public and private healthcare sectors, 
the profession of nurse anesthesia is working effectively to meet this 
workforce challenge. Our evidence suggests that while vacancies exist, 
there is not a crisis in the number of anesthesia providers. The 
profession of nurse anesthesia has increased its number of accredited 
CRNA schools, from 88 to 94 in the past year. Each CRNA school 
continues to turn away qualified applicants--bachelor's educated nurses 
who had spent at least 1 year serving in a critical care environment. 
Recognizing the importance of nurse anesthetists to quality healthcare, 
the AANA has been working with its 94 accredited schools of nurse 
anesthesia to increase the number of qualified graduates, and to expand 
the number of CRNA schools. The Council on Accreditation of Nurse 
Anesthesia Educational Programs (COA) reports that in 1999, our schools 
produced 948 new graduates. By 2004, that number had increased to 
1,628, a 72 percent increase in just 5 years. The growth is expected to 
continue. The COA projects CRNA schools to produce 1,800 graduates in 
2005.
    This committee can greatly assist in the effort to attract and 
maintain essential numbers of nurse anesthetists in the military by 
their support to increase special pays.

           INCENTIVE SPECIAL PAY (ISP) FOR NURSE ANESTHETISTS

    According to a March 1994 study requested by the Health Policy 
Directorate of Health Affairs and conducted by the Department of 
Defense, a large pay gap existed between annual civilian and military 
pay in 1992. This study concluded, ``this earnings gap is a major 
reason why the military has difficulty retaining CRNAs.'' In order to 
address this pay gap, in the fiscal year 1995 Defense Authorization 
bill Congress authorized the implementation of an increase in the 
annual Incentive Special Pay (ISP) for nurse anesthetists from $6,000 
to $15,000 for those CRNAs no longer under service obligation to pay 
back their anesthesia education. Those CRNAs who remain obligated 
receive the $6,000 ISP.
    Both the House and Senate passed the fiscal year 2003 Defense 
Authorization Act Conference report, H. Rept. 107-772, which included 
an ISP increase to $50,000. The report included an increase in ISP for 
nurse anesthetists from $15,000 to $50,000. There had been no change in 
funding level for the ISP since the increase was instituted in fiscal 
year 1995, while it is certain that civilian pay has continued to rise 
during this time. The AANA is requesting that this committee support 
funding increases for the ISP for all the branches of the armed 
services to retain and recruit CRNAs now and into the future.
    In addition, there still continues to be high demand for CRNAs in 
the healthcare community leading to higher incomes, widening the gap in 
pay for CRNAs in the civilian sector compared to the military. The 
fiscal year 2004 AANA Membership survey measured income in the civilian 
sector by practice setting. The median income in a hospital setting is 
$135,000, anesthesiologist group $120,000, and self-employed CRNA 
$159,000 (includes Owner/Partner of a CRNA Group). These median 
salaries include call pay, overtime pay, and bonus pay. These salaries 
are still higher than the median CRNA's salary of $88,000 across all 
military service branches.
    In civilian practice, all additional skills, experience, duties and 
responsibilities, and hours of work are compensated for monetarily. 
Additionally, training (tuition and continuing education), healthcare, 
retirement, recruitment and retention bonuses, and other benefits often 
equal or exceed those offered in the military.
    Salaries in the civilian sector will continue to create incentives 
for CRNAs to separate from the military, especially at the lower grades 
without a competitive incentive from the military to retain CRNAs. 
Therefore, it is vitally important that the Incentive Special Pay (ISP) 
be increased to ensure the retention of CRNAs in the military
    AANA thanks this committee for its support of the annual ISP for 
nurse anesthetists. AANA strongly recommends the continuation and an 
increase in the annual funding for ISP for fiscal year 2006. The ISP 
recognizes the special skills and advanced education that CRNAs bring 
to the Department of Defense healthcare system.

             BOARD CERTIFICATION PAY FOR NURSE ANESTHETISTS

    Included in the fiscal year 1996 Defense Authorization bill was 
language authorizing the implementation of a board certification pay 
for certain healthcare professionals, including advanced practice 
nurses. AANA is highly supportive of board certification pay for all 
advanced practice nurses. The establishment of this type of pay for 
nurses recognizes that there are levels of excellence in the profession 
of nursing that should be recognized, just as in the medical 
profession. In addition, this type of pay may assist in closing the 
earnings gap, which may help with retention of CRNAs.
    While many CRNAs have received board certification pay, there are 
many that remain ineligible. Since certification to practice as a CRNA 
does not require a specific master's degree (though all CRNAs 
graduating and being certified today do so as master's graduates), many 
nurse anesthetists have chosen to diversify their education by pursuing 
an advanced degree in other related fields. But CRNAs with master's 
degrees in education, administration, or management are not necessarily 
eligible for board certification pay since their graduate degrees are 
not in a clinical specialty. To deny a bonus to these individuals is 
unfair, and will certainly affect their morale as they work side-by-
side with their less-experienced colleagues, who will collect a bonus 
for which they are not eligible. In addition, in the future this bonus 
will act as a financial disincentive for nurse anesthetists to 
diversify and broaden their horizons.
    AANA encourages the Department of Defense and the respective 
services to reexamine the issue of awarding board certification pay 
only to CRNAs who have clinical master's degrees.

 DOD-VA RESOURCE SHARING: DOD-VA NURSE ANESTHESIA SCHOOL UNIVERSITY OF 
            TEXAS HOUSTON HEALTH SCIENCE CENTER, HOUSTON, TX

    The establishment of the joint Department of Defense-VA program in 
nurse anesthesia education at Fort Sam Houston in San Antonio, TX holds 
the promise of making significant improvements in the VA CRNA 
workforce, as well as improving retention of VA registered nurses in a 
cost effective manner. The current program utilizes existing resources 
from both the Department of Veterans Affairs Employee Incentive 
Scholarship Program (EISP) and VA hospitals to fund tuition, books, and 
salary reimbursement for student registered nurse anesthetists (SRNAs).
    This VA nurse anesthesia program started in June 2004 with three 
openings for VA registered nurses to apply to and earn a Master of 
Science in Nursing (MSN) in anesthesia granted through the University 
of Texas Houston Health Science Center. Due to continued success and 
interest by VA registered nurses for the school, the program will be 
increasing to five openings for the June 2005 class. This program 
continues to attract registered nurses into VA service, by sending RNs 
the strong message that the VA is committed to their professional and 
educational advancement. The faculty director would like to expand the 
program to seven students for the June 2006 class. In order to achieve 
this goal, it is necessary for full funding of the current and future 
EISP to cover tuition, books, and salary reimbursement.
    The 30-month program is broken down into two phases. Phase I, 12 
months, is the didactic portion of the anesthesia training at the U.S. 
AMEDD Center and School (U.S. Army School for Nurse Anesthesia). Phase 
II, 18 months, is clinical practice education, in which VA facilities 
and their affiliates would serve as clinical practice sites. In 
addition to the education taking place in Texas, the agency will use VA 
hospitals in Augusta, Georgia, increasing Phase II sites as necessary. 
Similar to military CRNAs who repay their educational investment 
through a service obligation to the U.S. Armed Forces, graduating VA 
CRNAs would serve a 3-year obligation to the VA health system. Through 
this kind of Department of Defense-VA resource sharing, the VA will 
have an additional source of qualified CRNAs to meet anesthesia care 
staffing requirements.
    At a time of increased deployments in medical military personnel, 
DOD-VA partnerships are a cost-effective model to fill these gaps in 
the military healthcare system. At Fort Sam Houston nurse anesthesia 
school, the VA faculty Director has covered her Army colleagues' 
didactic classes when they are deployed at a moments notice. This 
benefits both the VA and DOD to ensure the nurse anesthesia students 
are trained and certified in a timely manner to meet their workforce 
obligation to the Federal Government as anesthesia providers.
    We are pleased to note that the U.S. Army Surgeon General and Dr. 
Michael J. Kussman, MD, MS, FACP (Department of Veterans' Affairs 
Acting Deputy Under Secretary for Health) approved funding to start 
this VA nurse anesthesia school in 2004. In addition, the Army program 
director COL Norma Garrett, Ph.D., CRNA with VA director Dr. Maureen 
Reilly, CRNA, MSN, MHS, Ph.D. working under her guidance continue to 
work together for the continued success in this DOD-VA partnership, 
with the support of Anesthesia Service Director Dr. Michael Bishop, MD. 
With modest levels of additional funding in the EISP, this joint DOD-VA 
nurse anesthesia education initiative can grow and thrive, and serve as 
a model for meeting other VA workforce needs, particularly in nursing.
    Department of Defense and VA resource sharing programs effectively 
maximize government resources while improving access to healthcare for 
Veterans.

                               CONCLUSION

    In conclusion, the AANA believes that the recruitment and retention 
of CRNAs in the armed services is of critical concern. The efforts 
detailed above will assist the military services in maintaining the 
military's ability to meet its wartime and medical mobilization through 
the funding both the ISP and board certification pay. Last, we commend 
and thank this committee for their continued support for CRNAs in the 
military.

    Senator Stevens. Senator Inouye.
    Senator Inouye. About 2 years ago I had laser surgery in 
the eye and the anesthesia was administered by a nurse 
anesthetist. They are very good.
    Dr. Austin. Thank you, sir. We are very proud and very 
proud to serve the men and women in uniform.
    Senator Stevens. We have supported this annual funding for 
incentive pay. Tell us how it worked?
    Dr. Austin. Increasing the ceiling from the former level to 
the level it is now, it is a bit too soon to tell whether or 
not it is going to make a difference. That increased the 
ceiling and that ceiling then can be dealt with by the 
individual services to meet the needs of the services. The Army 
was the service that was and is most impacted and it is 
probably too soon to tell whether or not it is going to make a 
difference, but we are very optimistic that it is going to help 
maintain those billets.
    Senator Stevens. Let us know, because with the record of 
your profession's participate in the military, I think we might 
have to mandate its use rather than authorize its use. But tell 
them to keep us informed, will you, please?
    Dr. Austin. Thank you very much, sir.
    Senator Stevens. Thank you.
    Senator Inouye. What is the national shortage of registered 
nurse anesthetists?
    Dr. Austin. Currently the national shortage, as far as a 
percentage, we would have to get you that data. But there 
continues to be a shortage. For instance, in the State of 
Maryland there is a hospital that has an immediate need for 11 
full-time nurse anesthetists that they have not figured out by 
July 1 how they are going to fill. So that is a local example 
that really does serve as an example nationally.
    The exact number, though, sir, we can get to you.
    Senator Inouye. Thank you very much.
    Dr. Austin. I am sorry. A staff member brought up: In 2003 
there is an 11 percent vacancy rate nationwide.
    Senator Inouye. Thank you.
    Senator Stevens. Thank you very much.
    I believe we have Jim Hoehn to testify for the Coalition of 
Experimental Program to Stimulate Competitive Research; is that 
correct?
STATEMENT OF JIM HOEHN, ON BEHALF OF THE COALITION OF 
            EPSCoR (EXPERIMENTAL PROGRAM TO STIMULATE 
            COMPETITIVE RESEARCH) STATES
    Mr. Hoehn. Yes, Senator. Jim Hoehn.
    Senator Stevens. Hoehn, thank you very much.
    Mr. Hoehn. Good afternoon, Mr. Chairman and Senator Inouye. 
Thank you for the opportunity to testify regarding the 
Department of Defense's basic science research program and the 
Defense Experimental Program to Stimulate Competitive Research, 
or DEPSCoR. I am a senior associate at the EPSCoR Idea 
Foundation, which is a nonprofit organization that promotes the 
importance of strong science and technology research 
infrastructure and works to improve the research 
competitiveness of States that have historically received less 
Federal research funding. Previously I spent 29 years with the 
National Science Foundation (NSF), the last 5 of which I was 
head of the EPSCoR Office at NSF, chairing the interagency 
coordinating committee for EPSCoR.
    I speak today on behalf of the coalition of 24 EPSCoR 
States in support of both the Department of Defense's science 
and engineering research program and an important component of 
that program, DEPSCoR. Mr. Chairman, we regret that some of the 
DEPSCoR researchers from Alaska could not be here because of 
the change of the date of the hearing.
    Mr. Chairman and Senator Inouye, thank you for your 
leadership and support, which led to an increase in DEPSCoR 
funding in 2005. This increase was a good first step in 
bringing funding up to a level that will fully enable DEPSCoR 
researchers to offer quality research directly related to the 
mission of the Department of Defense. The Coalition of EPSCoR 
States strongly supports the Department's budget request for 
basic research. DEPSCoR is a small but significant part of this 
larger multifaceted DOD research program.
    The coalition recommends that Congress appropriate $25 
million to the Department of Defense budget for the DEPSCoR 
program in 2006. DEPSCoR was initially authorized in the 1995 
National Defense Authorization Act and was created to help 
build national infrastructure for research and education by 
funding research activities in science and engineering fields 
that are important to national defense. DEPSCoR's objectives 
are to enhance the capability of institutions of higher 
education in DEPSCoR States to develop, plan, and execute 
science and engineering research that is competitive under the 
merit review system used for awarding Federal research 
assistance; and also to increase the probability of long-term 
growth in competitively awarded financial assistance that 
DEPSCoR universities receive for research.
    I would like now to briefly highlight a few DEPSCoR-funded 
success stories out of research projects that have and are 
presently contributing to our national defense interests. The 
University of Alaska Fairbanks Institute of Arctic Biology has 
conducted research on the central nervous system with potential 
applications for reducing the severity of combat casualties by 
extending the window of opportunity for transport to medical 
facilities.
    The University of Hawaii at Manoa has developed tropical 
cyclone forecasts for the Joint Typhoon Warning Center, which 
is DOD's operational center for tropical cyclone forecasting in 
the Pacific and Indian Oceans.
    At Montana State University, research is being conducted to 
protect pilots and sensors from attacks from laser weaponry. 
The University of Nevada researchers are working on a project 
to mitigate the noise in the drive systems of ships and 
submarines. North Dakota State University is conducting 
research aimed at lengthening the life of ship structures. This 
research, like the other research, will lead to significant 
savings in military spending on marine fuel, maintenance, and 
replacement of ships. Again, these are just a few of the 
examples of DEPSCoR-funded recent initiatives that are adding 
to our national body of knowledge on various national security 
issues.
    DEPSCoR awards are provided to the mission-oriented 
individual academic investigators to conduct research that has 
practical military applications. However, the program as 
currently implemented has not taken into account the 
significant benefits that can be derived from pooling 
individual investigators' efforts into the centers of research 
that meet the ever-increasing challenges and needs of the 
Department of Defense and the services.
    The DEPSCoR States propose restructuring the program into 
two components. The first component would retain the current 
structure whereby the single investigators are invited to 
compete for research awards in areas identified by the 
Department. The second component would award funding to 
mission-oriented centers. These centers of defense excellence 
would be interdisciplinary and would build defense capacity. We 
believe that $25 million could be broken out for $10 million 
obligated for the individual investigator awards and $15 
million for the mission-oriented centers.
    In conclusion, DEPSCoR is a wise and worthwhile investment 
of scarce public resources and will continue to contribute 
research that supports national defense needs. Thank you for 
your consideration of this request.
    Senator Stevens. Well, I assume Senator Inouye agrees with 
me, if we have the money we will continue to do it. But we do 
not know yet. The House has knocked $3.3 billion off. We do not 
know what our allocation is going to be, but assuming that we 
have the money to do so, we want to continue to support your 
programs.
    Mr. Hoehn. Thank you, Mr. Chairman.
    Senator Stevens. Thank you very much.
    [The statement follows:]

Prepared Statement of Dr. Jerome Odom, Distinguished Provost Emeritus, 
   University of South Carolina on Behalf of the Coalition of EPSCoR 
                                 States

    Mr. Chairman and members of the subcommittee, I thank you for the 
opportunity to submit this testimony regarding the Defense Department's 
basic scientific research program and the Defense Experimental Program 
to Stimulate Competitive Research (DEPSCoR).
    My name is Jerome Odom. I am Distinguished Provost Emeritus and a 
Professor of Chemistry and Biochemistry of the University of South 
Carolina. I am here today to speak in support of both the Defense 
Department's science and engineering research program and an important 
component of that research, the Defense Department's Experimental 
Program to Stimulate Competitive Research (EPSCoR). This statement is 
submitted on behalf of the Coalition of EPSCoR States and the 21 States 
and Puerto Rico that participate in the Coalition.
    Mr. Chairman and Senator Inouye, on behalf of the EPSCoR States, I 
want to thank the subcommittee for increasing DEPSCoR funding over the 
administration request for fiscal year 2005. This increase is a good 
first step to bringing funding up to a level that will enable 
researchers from EPSCoR States to offer quality research of direct 
benefit to the mission of the Department of Defense.
    The Coalition of EPSCoR States strongly supports the Department's 
budget request for basic research. The Defense EPSCoR program is a 
small, but significant, part of this larger program. The Coalition 
recommends that Congress appropriate $25 million to the Defense 
Department's budget for the Defense Experimental Program to Stimulate 
Competitive Research (Program Element PE 61114D).
    EPSCoR is a research and development program that was initiated by 
the National Science Foundation. Through a merit review process, EPSCoR 
is improving our Nation's science and technology capability by funding 
research activities of talented researchers at universities and non-
profit organizations in States that historically have not received 
significant Federal research and development funding. EPSCoR helps 
researchers, institutions, and States improve the quality of their 
research capabilities in order to compete more effectively for non-
EPSCoR research funds. EPSCoR is a catalyst for change and is widely 
viewed as a ``model'' Federal-State partnership. EPSCoR seeks to 
advance and support the goals of the program through investments in 
four major areas: research infrastructure improvement; research cluster 
development and investigator-initiated research; education, career 
development and workforce training; and outreach and technology 
transfer.
    The Defense Experimental Program to Stimulate Experimental Research 
(DEPSCoR) was initially authorized by Section 257 of the fiscal year 
1995 National Defense Authorization Act (Public Law 103-337). The 
Defense Department's EPSCoR program helps build national infrastructure 
for research and education by funding research activities in science 
and engineering fields important to national defense. DEPSCoR's 
objectives are to:
  --Enhance the capabilities of institutions of higher education in 
        eligible States to develop, plan, and execute science and 
        engineering research that is competitive under the peer-review 
        systems used for awarding Federal research assistance; and
  --Increase the probability of long-term growth in the competitively 
        awarded financial assistance that universities in eligible 
        States receive from the Federal Government for science and 
        engineering research.
    The Defense EPSCoR program contributes to the States' goals of 
developing and enhancing their research capabilities, while 
simultaneously supporting the research goals of the Department of 
Defense. DEPSCoR grants are based on recommendations from the EPSCoR 
State committees and the Department's own evaluation and ranking. 
Research proposals are only funded if they provide the Defense 
Department with research in areas important to national defense. The 
DEPSCoR States have established an impressive record to research that 
has directly contributed to our Nation's security interests. If you 
will allow me, I would like to highlight some of DEPSCoR's success.
    In my State of South Carolina, researchers from Clemson University 
have produced communications protocols to enhance the effectiveness of 
radio networks on the battlefield. Researchers are focused on the 
development of protocols for mitigating the limitations of radio 
devices of widely disparate capabilities that will be required in 
future tactical communication networks used by the Army. The new 
technique will yield a significant improvement in performance and allow 
for more robust radio system operation for the Army. The University of 
South Carolina has completed a study to help the Navy revolutionize 
data processing methods for battlefield operations through the use of 
sophisticated mathematical techniques. Funded by the Navy, the research 
project, carried out at the internationally recognized Industrial 
Mathematics Institute of the University of South Carolina, develops 
state of the art compression methods that can be used in a variety of 
military scenarios including: automated target recognition, mission 
planning, post battlefield assessment, intelligence and counter 
intelligence.
    The University of Alaska Fairbanks Institute of Arctic Biology has 
conducted research into the central nervous system and the University's 
Institute of Northern Engineering and Water has conducted research into 
the measurement of soil moisture. Both studies have important Defense 
applications.
    The University of Hawaii at Manoa has developed tropical cyclone 
forecasts for the Joint Typhoon Warning Center (JTWC), which is DOD's 
operational center for tropical cyclone (TC) forecasting for the 
Pacific and Indian Oceans. The project will develop new tropical 
cyclone forecasting capabilities in collaboration with the JTWC. The 
research is closely related to U.S. Navy research and operational 
needs. An important aspect of the project is to closely collaborate 
with the JTWC locally. This will enhance the cooperation between DOD's 
operational site and the State of Hawaii university research community.
    University of Alabama researchers have conducted important work to 
reducing gearbox noise in Army helicopters. By reducing the noise 
levels, the crew will be more alert and able to communicate more 
effectively while in such a vehicle, thus improving safe operation of 
the rotorcraft. Additionally, reducing structural vibrations can 
decrease fatigue damage in the rotorcraft.
    Montana State University has received funding from the Air Force 
conduct research into protecting pilots and sensors from attack from 
laser weaponry. This project is of particular interest for protecting 
pilots using Night Vision Goggles (NVG), for laser range finders and 
target designators.
    University of Nevada at Reno investigators are exploring novel 
military applications for non-lethal weaponry for use by the Air Force. 
This research could be used for ultimately developing ``stunning/
immobilizing'' weapons that do not rely on chemicals and that do not 
cause human injury. University of Nevada researchers are working on a 
project to mitigate the noise in the drive systems of ships and 
submarines. The mitigation of noise and the accompanying vibration will 
significantly improve stealth performance of naval vessels.
    North Dakota State University obtained funding to develop 
mechanisms that allow the Navy's unmanned airborne vehicles (UAVs) to 
carry out mission tasks with little external supervision and control. 
The development of this technology will lead to individual or teams of 
UAVs efficiently carrying out search, surveillance, reconnaissance, and 
delivery of weapons missions in the presence of enemy threat and 
without risk to the lives of military personnel. University of North 
Dakota researchers received Army funding to develop weather models for 
improving the availability of weather information worldwide. 
Improvements in satellite technology research will lead to a better 
forecasting tool that can be utilized by Army personnel to help 
maximize their advantage in a battlefield or homeland defense 
environment. North Dakota State obtained funding from the Navy to 
conduct a project to lengthen the life of ship structures. This 
research will lead to significant savings in military spending on 
marine fuel, maintenance and replacement of ships.
    University of Vermont researchers conducted a study to decompose 
chemical warfare agents such as mustard gas in a safe and 
environmentally sustainable system. This method is similar to one used 
in industry to remove toxic compounds from the smokestacks of coal-
burning plants. This process can decompose nearly 100 percent of half 
mustard from a gas sample. The chemical by-products of this process are 
environmentally friendly and non-toxic. Similar technologies can be 
used to decompose sarin, soman, and VX simulants.
    Currently, DEPSCoR awards are provided to mission-oriented 
individual investigators from universities and other institutions of 
higher education. The individual investigators conduct extremely 
important research that has practical military applications. However, 
the program as it is currently implemented has not taken into account 
the significant benefits that can be derived from individual 
investigators pooling their efforts to provide ``centers'' of research 
that meet the ever increasing challenges and needs of the Department of 
Defense and the Services.
    Therefore, the DEPSCoR States propose restructuring the program 
into two components. The first component would retain the current 
program whereby the individual investigators are invited to compete for 
research awards in areas identified by the Department and the Services. 
The second and new component would award funding to mission-oriented 
``centers.'' These centers of defense excellence would be mission 
oriented interdisciplinary areas to build defense research capacity.
    To achieve important defense research objectives of both the 
components of the program, the DEPSCoR States need the program to be 
funded at $25 million for fiscal year 2006 with approximately $10 
million obligated to the individual investigator awards and $15 million 
for the mission-oriented centers initiative. This twin approach to 
funding will significantly enhance the Department's ability to tap into 
the best ideas that the DEPSCoR States have to offer in support of the 
Nation's security needs.
    The Defense Department's Experimental Program to Stimulate 
Competitive Research is a wise and worthwhile investment of scarce 
public resources. It will continue to contribute significantly to 
efforts to build scientific and engineering research efforts in support 
of national defense needs.
    Finally, the Coalition of EPSCoR States believes a $25 million 
Defense EPSCoR program with the modifications suggested will ensure 
that Federal dollars are being used in a cost-effective way and that 
the EPSCoR States are contributing to the Nation's Defense efforts. 
Thank you for your consideration of this request.

    Senator Stevens. Next witness, Major General Paul Weaver, 
Juvenile Diabetes Research Foundation International.

STATEMENT OF MAJOR GENERAL PAUL A. WEAVER, JR., U.S. 
            AIR FORCE (RETIRED), ON BEHALF OF THE 
            JUVENILE DIABETES RESEARCH FOUNDATION 
            INTERNATIONAL
    General Weaver. Good afternoon, sir.
    Senator Stevens. Nice to see you again.
    General Weaver. Nice seeing you both, sir.
    Mr. Chairman and Senator Inouye, thank you for the 
opportunity to speak with you on behalf of the Juvenile 
Diabetes Research Foundation. I am retired Major General Paul 
Weaver, former Director of the Air National Guard. I am here 
today to report on the success and continued progress of the 
technologies for metabolic monitoring, also known as the Julia 
Weaver Fund after my 6-year-old daughter. I would also like to 
thank you for your past support and encourage an additional $10 
million this year for this innovative program.
    Metabolic measuring research has had great successes and 
continuing progress as we work to understand metabolism and the 
lifesaving insight new technologies can provide for our 
warfighting men and women. Metabolic measuring truly holds the 
potential to improve and save lives. It will give our troops an 
immediate advantage when the unthinkable occurs.
    I ask you to imagine for a moment this all too real and 
common scenario. A soldier is wounded by an Iraqi insurgent 
mortar attack. With this technology's remote real-time capacity 
to provide an online window into the body, monitoring metabolic 
alterations, field surgeons will have the potential to 
immediately assess the extent of the soldier's injuries. 
Ultimately, metabolic measuring can be integrated with other 
automated medical devices and Objective Force warrior 
equipment, activating devices such as the automatic tourniquets 
or injections to respond appropriately to injuries even before 
medical help arrives.
    This amazing technology will ultimately allow soldiers to 
wear a uniform that will actually provide treatment on the 
spot. In the critical moments after an injury, metabolic 
measuring could treat injuries and give doctors at a field 
hospital miles away information to prepare for a soldier's 
specific wounds.
    While the possibility of such lifesaving measures through 
technologies from metabolic measuring is still on the horizon, 
we are moving closer and closer to this reality every day. 
Already there are excellent examples of metabolic measuring 
funded research like a gel that responds to the concentration 
of glucose in your tears by changing colors, allowing soldiers 
to survive and recover from injuries, making our armed forces 
stronger.
    In essence, metabolic measuring research will provide a 
real-time access to the warfighter's metabolic state, improved 
health and lifesaving measures for women and men in the 
military. Access to the soldier's real-time metabolic state 
will have an enormous impact, sir. The technology will enhance 
our knowledge of basic metabolism, enabling the military to 
tailor fundamental elements of training and nutrition and 
ultimately be able to tailor their medical care to not only 
improve their survival, but, almost as important, reduce their 
healing time and the long-term effects of their injuries.
    Congress' investment in this innovative technology and 
progressive approach has been vital to our national security 
and national health. A continued investment in this program 
will enable technologies for metabolic measuring partners, such 
as the Department of Defense, the NIH, NASA, and Juvenile 
Diabetes Research Foundation, to continue to develop and 
improve technologies to measure the physiology and the 
viability of our fighting men and women accurately, 
consistently, and non-evasively.
    I have seen firsthand the fruits of your investment: 
Velcro, global positioning system (GPS), and the Internet. With 
funding through your subcommittee, technologies for metabolic 
measuring has the potential to be this kind of innovative and 
even lifesaving tool.
    It is critical for your support of this lifesaving research 
by funding $10 million for technologies for metabolic 
measuring, the Julia Weaver Fund Initiative. Not only will this 
improve the lives of our soldiers and their families, but it 
will be a great step toward an even more personal wish for me 
and many families, a cure for juvenile diabetes. Giving my 
daughter even the possibility of a non-invasive option to her 
multiple shots each day and the potential of avoiding the 
devastating complications of diabetes, like blindness, kidney 
failure, and heart disease are promises that would provide hope 
to so many suffering with juvenile diabetes.
    Finally, sir, my son Brett is an 18 year old marine headed 
to Iraq. Please give him and all the men and women like him who 
are already there in the front lines absolutely the best chance 
to survive if the unthinkable occurs.
    Thank you for your time and your support, sir.
    Senator Stevens. Thank you very much. The best to your son.
    General Weaver. Thank you, sir.
    Senator Stevens. Nice to see you again.
    General Weaver. Nice seeing you, sir.
    Senator Stevens. Do you have a question, Senator?
    Senator Inouye. We will do our best.
    [The statement follows:]

     Prepared Statement of Major General Paul A. Weaver, Jr. (Ret.)

                            PROGRAM OVERVIEW

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to support $10 million in 
funding for the Technologies for Metabolic Monitoring/Julia Weaver Fund 
(TMM/JWF) Initiative on behalf of the Juvenile Diabetes Research 
Foundation International.
    I am here to report on the great success and continued progress of 
the TMM program thanks to your past support of this innovative project. 
The TMM program is working to improve understanding of metabolism and 
subsequently develop monitoring technology to provide our military with 
critical information about the physiology and viability of soldiers in 
the field, and astronauts orbiting the earth, accurately, constantly 
and non-invasively. The real life application of this technology will 
offer healthcare professionals an online window into the body; 
information which can ultimately provide life saving insight.
    I am pleased to report that Congress's investment in this inventive 
technology and progressive approach to a vital national security, as 
well as national health need since fiscal year 2001, has yielded 
remarkable successes. We come before you this year to request an 
additional $10 million to elevate this research, and move it rapidly to 
the soldiers in the field who will benefit the most from the results of 
this exciting program. A continued investment in the program will 
enable TMM's partners--the Department of Defense, the National 
Institutes of Health and the National Aeronautics and Space Agency, as 
well as the Juvenile Diabetes Research Foundation and the many TMM 
participants from academia, industry and government--to continue to 
develop and improve technologies to measure the physiology and 
viability of our fighting men and women.
    After 35 years of military service, including 8 years as the 
Director and Deputy Director of the Air National Guard, I am proud of 
the Department of Defense's long and distinguished tradition of funding 
research, driven by genuine mission necessity. While in uniform, I saw 
the benefits of your commitment to the brave who serve. As an American 
out of uniform, I know that the fruits of your investments yield some 
of the most used applications in American culture. Some items on this 
list are part of our American lexicon--Velcro, GPS and the Internet. 
The program I speak of today has the potential to join this list, but 
it won't just make lives easier, it has the potential to improve and 
save lives as well.

                      A CRITICAL BATTLEFIELD TOOL

    As we know all too well from the fields of Iraq and Afghanistan, 
providing our military's medical units with the most sophisticated 
cutting edge technology has significantly improved their ability to 
tackle battlefield trauma, ultimately saving the lives of our fighting 
men and women. Our soldiers, sailors, airmen and marines wounded in 
Iraq, Afghanistan and elsewhere are much more likely to survive their 
injuries today than in past wars. As recently reported by the Army News 
Service, only 1.6 percent of soldiers injured in Operation Iraqi 
Freedom and Operation Enduring Freedom have died of their wounds. This 
is less than half the 3.68 percent death rate for wounded soldiers in 
Vietnam. The technologies developed by the TMM program will accelerate 
this trend.
    TMM will provide our soldiers with an immediate advantage when the 
worst occurs. Imagine the following all too real and common scenario: A 
soldier is wounded by an Iraqi insurgency's mortar attack. With the 
technology's remote real time capacity to monitor metabolic 
alterations, field surgeons will have the potential to assess the 
extent of his injuries in such an acute incident. TMM can be integrated 
with other automated medical devices in Objective Force Warrior 
equipment, activating devices such as automatic tourniquets or 
injections to respond appropriately to his injuries. ``Knowledge of the 
metabolic status of the warfighter, both prior to injury and during 
treatment, is vital to providing medical care. While in the past there 
have been numerous individual programs addressing various aspects of 
telemetry and metabolic monitoring, TMM has finally provided the 
opportunity to look at the whole issue end to end. We are especially 
excited about the opportunity to work more closely with our colleagues 
in NASA and NIH using the TMM program as a framework,'' said Colonel 
John Holcomb, Commander, U.S. Army Institute of Surgical Research. It 
is this capability that will potentially have a truly dramatic impact 
on reduction of our died-of-wounds numbers, not to mention ultimately 
improving the long-term quality of life, as well as reducing the cost 
of our military's medical obligations to its veterans.
    TMM sensors also will have the potential to measure a soldier's 
metabolism in response to exertion, particularly in an environment of 
extreme heat. In another real scenario, this technology could direct an 
over-exerted soldier to take actions to optimize his performance, such 
as when and how much fluid to drink, or to consume a MRE specially 
formulated to optimize his performance for the task at hand. The 
sensors could also inform his commander that the soldier is too 
exhausted to make good decisions, protecting not only him but also the 
mission.
    Access to a soldier's real time metabolic state will have enormous 
impact. The technology will enhance our knowledge of basic metabolism, 
enabling the military to tailor fundamental elements of training, 
nutrition and soldier health and performance. and ultimately be able to 
tailor their medical care to not only improve their survival, but 
almost as important reduce their healing time and the long term effects 
of their injuries. Saving the warfighters life is of tantamount 
importance, but we must also reduce the impact of their injuries on the 
rest of their lives.
    According to Dr. Frazier Glenn, Technical Director, U.S. Army 
Medical Research and Materiel Command at Fort Detrick, ``current 
technology investments have been somewhat divergent and the overall 
metabolic research area needed some way to coalesce around a central 
effort. TMM has fulfilled that role admirably.'' As a result, the DOD 
research in this area is even more effective, with the assistance of 
the TMM program.

             A STRONG INVESTMENT WITH DEMONSTRABLE RESULTS

    To demonstrate this program's dramatic success in the 5 years since 
its inception, in fiscal year 2001 the U.S. Army Medical Research and 
Materiel Command (USAMRMC), which manages this initiative, received 16 
applications and supported 5 novel metabolic monitoring research 
projects and a highly successful workshop. In fiscal year 2002, the 
program received $2.5 million in appropriations and was expanded to 
include academic, industry, civilian and defense researchers. As a 
result, 48 applications were received and following a highly 
competitive review, an additional 12 novel metabolic monitoring 
research projects received seed grants for 1 year. This year we have 
received nearly 60 proposals that have been reviewed by an expert 
scientific panel. The work of previously funded TMM researchers is 
among the highest scoring submissions. As this program continues to 
progress with the addition of an intramural component, we will utilize 
highly skilled laboratories with unique complementary skills, such a 
high-powered computer models of human disease, to realize the potential 
of these technologies to the benefit of both soldiers and civilians.
    A critical component of the success of this project has been a 
structure which emphasized and encouraged innovative thinking. 
Fostering such an atmosphere resulted in new discoveries, some of which 
built upon existing ideas, and others which took this promising 
research in bold new directions. As a result of our continued combined 
effort, the TMM program has brought several highly attractive 
technologies from the drawing board to successful laboratory and field 
demonstrations.
    Some of the intriguing examples of TMM-funded research include a 
polyacrylamide gel technology that responds to changes in the 
concentration of glucose in tear fluid by changing color--a high-tech 
contact lens if you will. In another project, researchers developed 
miniaturized implantable sensors, one of which wirelessly transmits 
glucose concentrations, and another measures multiple metabolites. 
Other projects included the development and validation of several 
portable devices to monitor the energy expended during physical 
activity, and determine the general energy costs of physical training 
in ROTC cadets.
    Now, it is time to build upon this investment. The TMM program is 
ready to begin to transition from a basic research focus to a 
development and implementation process in order to expedite the 
clinical application of technology sooner. We hope not only to continue 
the current exciting direction of the program, but also to have the 
resources to begin to expand and truly maximize some of our real 
successes.
    In addition to the work we have been doing, in partnership with 
DOD, NASA and NIH's academic and industrial partners in all 50 States, 
we hope to refine, manufacture and begin testing these technologies so 
they may rapidly enter the developmental and approval pipeline. Our 
goal is to create centrally organized programs that can utilize the 
strengths of the many facilities that can support this effort. This 
will be done in addition to our continued efforts to ensure a constant 
supply of new and novel capabilities.

              PROGRAMMATIC SUCCESS WILL HAVE A BROAD REACH

    There is no question that TMM holds great promise and is a superb 
investment for our soldiers in the field. Just like numerous other 
Defense Department programs before it, this technology teems with 
potential for those out of uniform.
    As a military man, I am optimistic about the real life application 
of this technology for our fighting men and women, but I must be honest 
that my real passion for this research is my daughter Julia. One month 
after my retirement from military service, my wife and I took our 2\1/
2\-year-old daughter Julia to the emergency room at Mary Washington 
Hospital in Fredericksburg, Virginia, a day that truly changed our 
lives. Prior to that day, we had been told Julia had the flu. Her 
condition continued to worsen. On New Years Day morning, we noticed a 
severe degradation with her overall health. She lost 10 pounds in 1 
week and was losing mental awareness of her surroundings. We proceeded 
to the emergency room at Mary Washington Hospital where we were told, 
after her blood was tested, that she had developed juvenile diabetes. 
Julia, whom we call ``The Precious'', was transported by a helicopter 
ambulance to the Pediatric Intensive Care Unit at Walter Reed Army 
Medical Center. As the chopper lifted off, I could never explain the 
feeling in our hearts that we may never see our little girl alive 
again.
    She was in the Intensive Care Ward for approximately 2 days and 
then moved to a regular ward after her condition became stable. The 
great medical staff at Walter Reed saved her life and for that, my wife 
and I will be eternally grateful. My daughter's daily regimen with 
juvenile diabetes consists of having her finger pricked 6-8 times a day 
and receiving 2-4 shots a day. I made a commitment to God that if I 
could ever do anything to help find a cure for diabetes, I would do it.

                        THE PROMISE FOR DIABETES

    What you must know about the promise of this research effort as it 
applies to diabetes is that it offers more than an improvement in a 
diabetic's quality of life. As a parent, the simple act of eliminating 
the daily regimen of the 6 to 8 finger pricks and 2 to 4 shots my 
daughter endures would be a great relief. TMM offers the potential to 
replace this painful routine and provide a more complete picture of the 
disease. The real benefit of TMM is its ability to greatly reduce--or 
ideally eliminate--the daily risk of the diabetic emergencies of 
hypoglycemia and hyperglycemia, and most significantly, the long term 
damage caused by the fluctuations in blood glucose. JDRF reports that 
on average, the life expectancy of a child with type 1 diabetes is 
shortened by 15 years because of this long-term damage. As Julia's 
father, this is a statistic I cannot accept.
    Anyone who has a loved one with this disease, or has the disease 
him or herself, knows the difficulties of controlling ever-fluctuating 
glucose levels with insulin and diet. Current technology is good but it 
is extremely difficult to maintain tight control of blood glucose 
levels, especially over long periods of time. New and improved 
technologies would help to ward off the devastating complications, such 
as blindness, kidney failure, amputation, heart disease, and nerve 
damage, which are often the inevitable result of a lifetime with this 
disease.
    Technologies that would non-invasively monitor a diabetic's 
metabolism, coupled with an ability to provide information remotely (or 
wirelessly), would allow individuals with the disease to monitor their 
blood sugar levels accurately, constantly, and non-invasively, which 
could ultimately improve the control of fluctuations in their blood 
glucose levels and potentially reduce the severity of debilitating 
complications. In this way, this technology could offer a significant 
and immediate improvement in the quality of life of 18 million 
Americans who suffer from this disease and relieve much of the economic 
burden of this disease on our Nation.

                 APPLICATION IN THE INTENSIVE CARE UNIT

    Insulin resistance and hyperglycemia often accompany the critical 
injuries and illnesses of patients in the intensive care unit (ICU), 
placing them at high risk for multiple organ failure and death. TMM 
could have a profound impact for these people as well. Recent studies 
show that preventing hyperglycemia by maintaining insulin levels 
substantially improves outcomes for these critically ill patients. TMM 
holds the potential to improve glycemic control in injured soldiers and 
other ICU patients that could ultimately be implemented in every 
hospital's intensive care unit, saving countless lives.

                               CONCLUSION

    JDRF and I thank you Mr. Chairman and members of the subcommittee 
for your generous funding of this program, which allowed it to prosper 
into a unique and successful initiative. The attached research 
summaries demonstrate the high level of innovation that has been 
pursued with these funds. I respectfully ask that you continue your 
strong support for this initiative by providing $10 million for fiscal 
year 2006. This funding will allow the U.S. Army Medical Research and 
Materiel Command (USAMRMC), in combination with its partners at NASA, 
the NIH and JDRF to capitalize on the opportunities provided by the 
previous 5 years of funding. Such funding will enable this truly 
unconventional consortium to expand this initiative, and transition 
from development to evaluation and application of these novel 
technologies in soldiers in the field and patients in the clinic.
    This subcommittee is faced with difficult choices as it looks to 
stretch limited resources in a way that makes our military more lethal, 
robust and sustaining. I urge you to recognize the promise of this 
program to protect our most valuable asset, the men and women in 
uniform, when they need it most, which is following an injury. The 
science and technology in the TMM initiative is real; it holds the 
promise to assist wounded warriors immediately in times of trauma, and 
to optimize war fighter performance when it is most needed. While the 
health care cost savings it offers are significant, the cost of the 
lives, and the improvement in their quality, is truly incalculable.
    I thank you for the opportunity to appear before you today.

                       TMM/JWF PROGRAM SUCCESSES

    Development of a mouse/mammalian model for test and validation of 
implantable glucose sensors. This is vital to allow the progress of 
implantable research to move forward. TMM allowed this vital base-line 
infrastructure work to occur that will have wide ranging impact on many 
technology and research efforts that would not have been nearly as 
effective without it.
    Numerous papers and research into Iontophoresis and other non-
invasive/minimally invasive techniques of analysis and extraction of 
glucose and other analytes for assessment of metabolism.
    Acceleration of research in implantable sensors to apply to 
numerous applications, including glucose monitoring. TMM allowed 
significant forward movement and acceleration in various industrial 
programs leading to earlier commercialization, and thereby more rapid 
move to the public of new techniques and devices.
    TMM initiative has sharpened the focus and galvanizing the relevant 
research and development community in developing techniques for 
continuous monitoring of metabolic status in day-to-day activities, 
vital data to determine the effectiveness of new sensors and systems. 
This has led to seminal publications in peer-reviewed scientific 
journals to establish the technical foundations and, in conjunction 
with industrial collaborators, the beginnings of translation of the 
technology from the university research lab to the hands of the public. 
As a result of TMM, there are clear prospects for novel implantable 
sensors that can be of use in a variety of metabolic monitoring 
situations in the next several years.
    TMM allowed the development and validation of several portable 
techniques for monitoring the amount of physical activity and its 
associated energy expenditure, and to determine the general energy 
costs of physical training in ROTC cadets. The TMM program has 
successfully completed tests in April of 2004, and is in the active 
process of analyzing the abundant data that was ascertained.
    TMM funded research toward developing and characterizing a 
minimally invasive near-infrared fluorescence affinity glucose sensor 
for transdermal monitoring of subdermal interstitial fluid in diabetics 
and soldiers (fitness control). TMM allowed the successful completion 
of the optimization of a sensor in-vitro under simulated body 
conditions. The excellent long-term stability data of the TMM sensor, 
which performed satisfactorily over a period of 6 months on the 
benchtop, can be considered to be a scientific breakthrough in the 
field of optical affinity sensors for glucose monitoring.

            TMM INVESTIGATORS--BRIEF PROJECT SUMMARIES 2004

    Sanford Asher, Ph.D.--University of Pittsburgh, Department of 
Chemistry.--(a) Novel Approaches to Glucose Sensing Based on 
Polymerized Crystalline Colloidal Array Hydrogel Sensors; (b) Fabricate 
superparamagnetic particle hydrogels responsive to glucose which will 
report on the interstitial glucose concentration noninvasively through 
a magneto-acoustic response; (c) Interstitial measurement; (d) 
Implantable; (e) Particles will have a natural frequency of oscillation 
which is glucose dependent; (f) Oscillating particles will generate an 
ultrasonic acoustic response which we detect by a piezoelectric 
transducer.
    Ralph Ballerstadt, Ph.D., Biotex, Inc.--(a) Implantable 
Fluorescence Sensor For in vivo Glucose Monitoring; (b) Fluorescent 
properties of the sensor will vary in response to local glucose 
concentrations.
    Diane J. Burgess, Ph.D.--University of Connecticut.--(a) 
Miniaturized, Wireless, Implantable Glucose Sensors; (b) With the help 
of fiscal year 2002 TMM-support: assembled an interdisciplinary team 
who designed, built and tested various components of a miniaturized, 
wireless-integrated and totally-implantable glucose sensor; (c) 
Development of an advanced hydrogel coating containing tissue response 
modifiers (TRMs) capable of minimizing inflammation, preventing fibrous 
encapsulation and promoting neovascularization; (d) Glucose-oxidase 
technology; (e) Implanted, wireless technology.
    Matthew R. Glucksberg, Ph.D.--Northwestern University.--(a) 
Surface-Enhanced Raman Spectroscopy for Monitoring Lactate and Glucose; 
(b) Raman spectroscopy: powerful analytical tool that permits the 
unambiguous identification of molecules based on their unique 
vibrational modes; (c) Surface Enhanced Raman Scattering (SERS) 
phenomenon increases by up to a trillion fold the Raman signal from 
molecules near gold and silver nanoscale materials; (d) Project aims to 
develop and test these SERS active substrates on the tip of an 
indwelling, percutaneously implanted fiber optic probe.
    Krzysztof C. Kwiatkowski, Ph.D.--Lynntech, Inc.--(a) A New Non-
Invasive Continuous Glucose Sensor; (b) Micro-needle arrays created by 
Lawrence Livermore National Laboratory (LLNL) as the basis for a 
glucose sensor; (c) Interstitial fluid glucose measurement; (d) Similar 
to CGMS, but with new micro-needle technology.
    Joseph Y. Lucisano, Ph.D.--GlySens, Inc.--(a) Dependable Detection 
and Warning of Hypoglycemia; (b) A very small, sensor array that can be 
inserted through a needle into the subcutaneous tissues of healthy 
individuals and that can be retrieved after 2 weeks of intensive 
monitoring; (c) A larger, disc-shaped version of the sensor array for 
long-term (1 year) implantation, especially in diabetic children to 
detect and warn of hypoglycemia; (d) Sensors indicative of the 
metabolic state, including sensors for glucose, oxygen, lactate, 
temperature, heart rate, breathing rate and physical activity.
    Michael Pishko--Penn State, Dept Chemical Engineering.--(a) 
Microfabricated Multianalyte Sensor Arrays for Metabolic Monitoring; 
(b) Electrochemical biosensors based on redox polymer/enzyme thin films 
fabricated using conventional wafer fabrication technologies; (c) 
Implantable.
    J. Bruce Pitner, Ph.D.--Becton, Dickinson and Company.--(a) Real-
Time Energy Metabolite Monitoring Developing in vivo Sensors for 
Glucose, Fatty Acids, and Lactate; (b) Fluorophore-labeled binding 
proteins specific to metabolites such as glucose, lactate, and fatty 
acids; (c) Fluorophores are located at the binding site of the protein. 
Upon ligand attachment, the binding site undergoes conformational 
changes, which causes changes of the fluorescence response of the 
labeled dye.
    Leah Tolsa, Ph.D.--University of Maryland Baltimore County.--(a) 
Low-Cost Portable System for Multianalyte Metabolic Monitoring; (b) 
Specific binding of each analyte to a corresponding binding protein. A 
sample of set volume is pumped into a microfluidic cassette, diluted 
accordingly, and channeled into three chambers containing the protein 
biosensors; (c) Proteins will be labeled with an environment-sensitive 
fluorophore (acrylodan) at a site that responds to analyte binding.

                                  2003

    Tadeusz M. Drzewiecki, Ph.D.--Defense Research Technologies, Inc.--
(a) Non-Invasive Metabolic Monitoring Using a Breath-by-Breath 
Microfluidic Gas Monitoring System.
    Jeffrey I. Joseph, D.O.--Thomas Jefferson University.--(a) 
Artificial Pancreas for Control of BG and Insulin Levels in 
Hospitalized Patients with Diabetes and Stress Hyperglycemia; (b) 
MiniMed technologies--with inclusion of 3 rather than 1 sensor and 
intravenous monitoring.
    Thomas Joseph--Becton Dickinson Technologies.--(a) Indwelling 
Metabolite Sensors for Optical Reading Through Skin: A Platform Based 
on NIR Dyes Conjugated to Binding Proteins: NIR Fluorescent Dyes 
conjugated to binding proteins.
    David Gough--University of California, San Diego.--(a) 
Implementation of Implantable Disc, long-lived lactate sensor, monitor 
heart and breathing into animal models.
    Donald Kreutzer--University of Connecticut.--(a) Uses of 
Neovascularization to Enhance Glucose Sensor Function In Vivo: Local 
delivery of angiogenic factors to enhance glucose sensor function; (b) 
Role of Macrophages in the Function and Lifespan of Glucose Sensors In 
Vivo.
    Michael J. McShane, Ph.D.--Louisiana Tech University.--(a) Novel 
Micro/Nano Approaches for Glucose Measurement Using pH-Sensitive 
Hydrogels: pH-sensitive microgels for glucose measurement.
    Jackie Y. Ying, Ph.D.--Massachusetts Institute of Technology.--(a) 
Glucose-Responsive Nanoparticles for Controlled Insulin Delivery.

                                  2002

    Daniel Moran, Institute of Military Physiology, Israel.--(a) Non-
invasive metabolic rate monitor and predict energy expenditure.
    Kong Chen, Vanderbilt University Medical Center.--(a) Non-invasive 
physical activity monitor, predict energy expenditure, determine energy 
costs and physiological responses.
    Richard Guy, University of Geneva, Switzerland.--(a) Transdermal 
ionophoretic metabolic monitoring.
    Ralph Ballerstadt, Biotex, Inc.--(a) Minimally invasive nearIR 
fluorescent polymer sensor for transdermal glucose monitoring.
    Diane Burgess, University of Connecticut.--(a) Autonomous sensory 
device, low-power CMOS microelectronics, glucose oxidase based, 
improved stability via coatings.
    David Gough, University of California, San Diego.--(a) Implantable 
Disc, multi-sensor array.
    Stuart Harshbarger, Johns Hopkins University.--(a) Metabolic 
activity at wound site, prediction of wound healing.
    James Mansfield, Hypermed, Inc., Watertown MA.--(a) Hyperspectral 
Imaging, focal changes in cutaneous hemoglobin.
    Bradley Nindl, Military Performance, U.S. Army Research Institute 
of Environmental Medicine, Natick, Massachusetts.--(a) Non-invasive 
IGF-1 monitoring during warfighter training, interstitial micropore 
measurement.
    Kenneth W. Ward, iSense Corporation.--(a) 300 m wire sensor for 
continuous amperometric monitoring of glucose and lactose.
    Babak Ziaie, U. of Minnesota.--(a) Hydrogel-based implantable 
micromachined transponder for wireless glucose measurement.

                                  2001

    Jerome Shultz, NASA-AMES Research Center.--(a) Non-invasive, 
physiological evaluation system.
    Bradley Nindl, Military Performance, U.S. Army Research Institute 
of Environmental Medicine.--(a) IGF-I and IGFBP-3 analysis--Filter 
Paper Spot Assay.
    Amanda O'Donnell, Naval Aerospace Medical Research Laboratory.--(a) 
Telemetric Device, heart rate variability, non-invasive assessment of 
operational performance.
    Kaveh Zamani, Medical Research and Materiel Command.--(a) Real-time 
stress monitoring, non-invasive, stress hormone.
    Motilal Pamanani, Henry M. Jackson Foundation for the Advancement 
of Military Medicine.--(a) Interstitial vs. Intravascular changes in 
hemorrhagic shock.

    Senator Stevens. Our next witness, Dr. Harry Armen, 
President of the American Association of Mechanical Engineers. 
Yes, sir.

STATEMENT OF HARRY ARMEN, Ph.D., PRESIDENT, AMERICAN 
            SOCIETY OF MECHANICAL ENGINEERS
    Dr. Armen. Good afternoon, Mr. Chairman, Senator Inouye. I 
am Harry Armen and I serve as the elected President of the 
American Society of Mechanical Engineers (ASME), a 120,000-
member professional engineering society founded in 1880. I am 
an engineer with over 40 years of experience in defense 
aerospace.
    Engineers are a major part of this Nation's technology 
base, a base that is essential for defense and for our economic 
vitality. We therefore appreciate the opportunity to appear 
before your subcommittee to present our views on the DOD 
science, engineering, and technology programs, the S&T 
programs.
    I want to specifically thank the subcommittee and 
especially you, Mr. Chairman and Senator Inouye, for your past 
and ongoing support you have shown for these programs. A stated 
goal of this administration and Congress is to maintain defense 
S&T funding at 3 percent of the overall defense budget. That 
level would require $13.4 billion for fiscal year 2006. We urge 
you to support this level of funding for the S&T programs.
    While we appreciate your continued support for the overall 
program, we remain very concerned about critical shortages in 
specific DOD S&T areas, particularly in those that support 
basic research, the 6.1 account. And we are concerned about the 
trends for funding for scientific and technical education. 
Basic research supports science and engineering research and 
technical education at universities in all 50 States. Many of 
the technically talented engineers who have developed and are 
developing our current weapons systems received funding for 
their education as a result of working on basic research 
projects and other programs funded by DOD that promoted 
technical education. On a personal level, I am a product of the 
National Defense Education Act of 1961.
    In the early 1980s basic research was 20 percent of S&T 
funding. That level has declined to 12 percent. The 
technological superiority our young men and women in the 
services have been given in the campaigns in Afghanistan and 
Iraq were a direct result of investments made in science and 
technology several decades ago. We strongly encourage this 
subcommittee to reverse the declining trend and support robust 
investment in basic research.
    We also urge the members of the subcommittee to support 
advanced technical education. As the need for a more highly 
skilled workforce which includes a higher percentage of 
individuals with master's and doctoral degrees increases and 
the available technical workforce decreases, corporations that 
must hire engineers who are U.S. citizens and have appropriate 
security clearances will be faced with critical shortages.
    These shortages are a result of our own students declining 
to pursue careers in engineering and science, compounded by the 
fact that almost 60 percent of the current civilian science and 
technology defense workforce will be eligible for retirement or 
early retirement within the next 5 years.
    Mr. Chairman and members of the subcommittee, we have a 
serious problem. The questions that must be addressed are the 
following: Will the United States, which is now dependent upon 
foreign suppliers for our energy and foreign financial 
resources to underwrite our deficits, also be dependent on 
foreign sources for science and engineering knowledge?
    The second question: Will this Nation be the leader or just 
an observer in the next technological revolution, involving the 
confluence of bio, nano, and information technologies? That 
confluence will result in remarkable breakthroughs that will 
alter virtually every aspect of our lives. Or as Al Jolson once 
said, ``You ain't seen nothing yet.''
    In summary, I urge the members of the subcommittee to 
continue your support to strengthen DOD's science and tech 
programs. It will take a great deal of continued attention and 
a commitment to defense research and development (R&D) to 
ensure that the best engineering and scientific minds are once 
again willing to apply their talents to meeting the future 
defense needs of this Nation.
    Thank you for the opportunity to present our views.
    Senator Stevens. Well, thank you very much, doctor. We are 
pleased to have you appear before us.
    Senator Inouye?
    Senator Inouye. Thank you.
    Senator Stevens. We appreciate your comments. Thank you.
    Dr. Armen. Thank you.
    [The statement follows:]

                   Prepared Statement of Harry Armen

    Mr. Chairman and distinguished members of the subcommittee, the 
ASME Department of Defense (DOD) Task Force of the Committee on Federal 
Research and Development is pleased to comment on the fiscal year 2006 
budget request for the Research, Development, Test and Evaluation 
(RDT&E) and the Science and Technology (S&T) portion of the Department 
of Defense budget request.
    ASME is a nonprofit, worldwide engineering Society serving a 
membership of 120,000. It conducts one of the world's largest technical 
publishing operations, holds more than 30 technical conferences and 200 
professional development courses each year, and sets many industrial 
and manufacturing standards. The work of the Society is performed by 
its member-elected Board of Governors through five Councils, 44 Boards, 
and hundreds of Committees operating in 13 regions throughout the 
world.
    This task force is comprised of experts from universities, 
industry, and members from the engineering and scientific community who 
contribute their time and expertise to evaluate the budgets requests 
and legislative initiatives the DOD sends to Congress.
    We appreciate the opportunity to provide input on these areas that 
are critical to the national security and economic vitality of the 
United States. This subcommittee under your leadership has shown strong 
support for maintaining growth in Defense Research and Engineering in 
general and more specifically in Defense Science and Technology 
funding. We understand that Congress is faced with a more highly 
constrained budget environment this year and that there are many areas 
where increased funding could provide benefits. However, these Science 
and Technology accounts not only contribute directly to national 
security by creating the technology that will be inserted into our next 
generation of weapon systems, they also contribute through direct 
benefits, such as workforce development, job creation, and economic 
growth which are also vital to a strong national defense.
    Our testimony addresses three primary funding areas: overall 
Engineering (RDT&E); Science and Technology (S&T); and the University 
Research Initiative (URI). In addition, the consequences of inadequate 
funding for defense research are outlined. These include a degraded 
competitive position in developing advanced military technology versus 
potential peer competitors. This could have profound consequences to 
the United States' economic and military position in the world.
    The fiscal year 2006 request, if implemented, would represent a 
significantly reduced investment in Defense S&T. We strongly urge this 
committee to consider additional resources to maintain stable funding 
in the S&T portion of the DOD budget. At a minimum, $13.4 billion, or 
about $2.9 billion above the President's Request is required just to 
maintain inflation adjusted level funding.

                         DOD REQUEST FOR RDT&E

    The administration requested $69.356 billion for the Research, 
Development, Test and Evaluation (RDT&E) portion of the fiscal year 
2006 DOD budget. These resources are used mostly for developing, 
demonstrating, and testing weapon systems, such as fighter aircraft, 
satellites, and warships. This amount represents growth from last 
year's appropriated amount of $69.199 billion of about 0.2 percent. 
Therefore, when adjusted for inflation, this represents a reduction of 
about 2 percent in real terms. One of the largest percentage cuts is in 
the Operational Test and Evaluation (OT&E) function, where the proposed 
funding of $168 million is little more than half of the 2005 
appropriated amount of $310 million. The OT&E organization and the 
testing it conducts was mandated by Congress, and is intended to insure 
that weapon systems are thoroughly tested so that they are effective 
and safe for our troops.
    While this testimony focuses on the fiscal year 2006 budget, the 
task force notes that the multi-year spending plan, as provided in the 
Future Years Defense Program (FYDP), generally shows reduced spending 
in RDT&E accounts over the next 5 years, with spending in fiscal year 
2011 being just $59.7 billion, or a 14 percent reduction from current 
levels. This reduced spending in R&D is inconsistent with the goal of 
developing new systems with advanced capabilities that support military 
transformation.
    In recent years, the task force has supported the overall RDT&E 
request. However, this request falls short in meeting requirements and 
hence we request that the top line RDT&E be increased to $73.1 billion. 
The specific areas that most need augmentation will be addressed in 
subsequent sections. While no specific recommendation on OT&E funding 
is provided, the committee should consider the level of funding 
required to ensure that the approximately $70 billion worth of weapon 
systems that the Department is procuring are adequately tested and 
shown to be safe and effective.

                 DOD REQUEST FOR SCIENCE AND TECHNOLOGY

    The fiscal year 2006 budget request for Defense Science and 
Technology (S&T) is $10.522 billion, which is $2.549 billion less than 
the fiscal year 2005 appropriated amount of $13.069 and represents a 
19.5 percent reduction. The S&T portion of overall DOD spending of $419 
billion would fall to 2.5 percent with this request. The 2001 
Quadrennial Defense Review (QDR), the Defense Science Board (DSB), as 
well as senior Defense Department officials and commanders from the Air 
Force, Army, and Navy have voiced strong support for the future 
allocation of at least 3 percent for S&T programs. Clearly, this budget 
request moves the country in the wrong direction, by reducing S&T 
funding.
    A relatively small fraction of the RDT&E budget is allocated for 
S&T programs. Specifically, the S&T request for $10.522 billion 
represents only about 15 percent of the RDT&E total, but these accounts 
support all of the new knowledge creation, invention and technology 
developments for the military. These S&T funds support Basic Research 
(6.1), Applied Research (6.2), and Advanced Technology Development 
(6.3) and all categories are programmed for significant funding 
reductions.
    Basic Research (6.1) accounts would decrease from $1.513 billion to 
$1.318 billion, a 12.9 percent decline. While these basic research 
accounts comprise less than 12 percent of the S&T budget and less than 
2 percent of the RTD&E total, the programs that these accounts support 
are critically important to fundamental, scientific advances and to the 
generation of a highly skilled science and engineering workforce.
    Basic research accounts are used mostly to support science and 
engineering research and graduate, technical education at universities 
in all 50 States. Almost all of the current high-technology weapon 
systems, from laser-guided, precision weapons, to the global 
positioning satellite (GPS) system, have their origin in fundamental 
discoveries generated in these defense-oriented, basic research 
programs. Proper investments in basic research are needed now, so that 
the fundamental scientific results will be available to create 
innovative solutions for the future defense needs of this country. Many 
of the technical leaders in corporations and government laboratories 
that are developing current weapon systems, such as the F-22 and Joint 
Strike Fighter, were educated under basic research programs funded by 
DOD. Failure to invest sufficient resources in basic, defense-oriented 
research will reduce innovation and weaken the future scientific and 
engineering workforce. The Task Force recommends that Basic Research 
(6.1) be funded at the level of $1.6 billion.
    Applied Research (6.2) would be reduced from $4.849 billion to 
$4.139 billion, a 14.6 percent reduction. The programs supported by 
these accounts are generally intended to take basic scientific 
knowledge, perhaps phenomena discovered under the basic research 
programs, and apply them to important defense needs. These programs may 
involve laboratory proof-of-concept and are generally conducted at 
universities, government laboratories, or by small businesses. Many of 
the successful demonstrations create or foster small companies, such as 
those done in the Small Business Innovative Research (SBIR) programs. 
Some devices created in these defense technology programs have dual 
use, such as GPS, and the commercial market far exceeds the defense 
market. Many small companies that fuel job growth in many states 
obtained their start in defense programs, but later broadened their 
markets. However, without initial support many of these companies would 
not exist. Failure to properly invest in applied research would prevent 
many ideas for devices from being tested in the laboratory, and would 
stunt the creation and growth of small entrepreneurial companies.
    The largest reduction would occur in Advanced Technology 
Development (6.3), which would experience a 24.5 percent decline, from 
$6.707 billion to $5.046 billion. These resources support programs that 
develop technology to the point that they are ready to be transitioned 
into weapon systems. Without the real system level demonstrations 
funded by these accounts, companies are reluctant to incorporate new 
technologies into weapon systems programs. The individual service's S&T 
accounts reflect the general trend of large reductions described above. 
However the largest reductions are in the Army's accounts, where Basic 
Research would be cut by 21.6 percent, Applied Research by 39.9 
percent, and Advanced Technology Development by 45.4 percent. The only 
major S&T component with an increase is ``Defense-Wide'' Applied 
Research (6.2) where a 2.8 percent increase is proposed, mainly due to 
a 3.6 percent increase for the Defense Advanced Research Projects 
Agency (DARPA), an increase we strongly endorse.
    We urge this subcommittee to support an appropriation of $13.4 
billion for S&T programs, which is 3 percent of the overall fiscal year 
2005 DOD budget. This request is consistent with recommendations 
contained in the Quadrennial Defense Review and made by the Defense 
Science Board (DSB), as well as senior Defense Department officials and 
commanders from the Air Force, Army, and Navy, who have voiced support 
for the future allocation of 3 percent as a worthy benchmark for 
science and technology programs.

        DOD REQUEST FOR THE UNIVERSITY RESEARCH INITIATIVE (URI)

    The University Research Initiative (URI) supports graduate 
education in Mathematics, Science, and Engineering and would see a 
$46.1 million decrease from $294.2 million in fiscal year 2005 to 
$248.1 million next year, a 15.7 percent reduction. While these amounts 
are small in comparison with the overall defense budget, they are 
critical to educating the next generation of engineers and scientist 
for the defense industry. Lack of funding for the URI will prevent or 
discourage students from pursuing careers in defense related 
technologies. This will have a serious long-term negative consequence 
on the ability of companies to hire highly skilled scientific and 
engineering workforce to build weapons systems in the years to come.
    DOD has shown a lack of commitment to these programs, first by 
devolving these programs to the services 3 years ago and over the last 
2 years not maintaining adequate funding. The reduction in funding will 
directly translate into fewer Americans having an opportunity to pursue 
advanced study in engineering, science, and mathematics, and therefore 
will reduce the pool of qualified workers with advanced technical 
skills for companies that design and manufacture defense systems.
    While DOD has enormous current commitments, these pressing needs 
should not be allowed to squeeze out the small but very important 
investments required to create the next generation of highly skilled 
technical workers for the American defense industry. This would be 
shortsighted.
    The task force recommends that the subcommittee support advanced 
technical education and provide $325 million to the URI program for 
fiscal year 2006.

          REDUCED S&T FUNDING IS A THREAT TO NATIONAL SECURITY

    Since World War II the United States has led the world in science, 
innovation, and defense technology. This preeminent position in 
science, engineering and technology has made us an economic and 
military superpower, second to none. However, this lead is quickly 
eroding and within the next few years may be substantially reduced or 
may completely evaporate in some areas. Many European and Asian 
countries are educating far more engineers and scientists per capita 
and investing a greater portion of gross domestic product (GDP) in 
basic research and innovation than is the United States. If these 
trends continue, the United States, which relies heavily on advanced 
technology for military superiority, may find its dominant military 
position compromised. In the longer term the United States may become a 
second tier economic and military power.
    A recent study performed by the Task Force on the Future of 
American Innovation, entitled ``The Knowledge Economy: Is the United 
States Losing Its Competitive Edge'' evaluated the position of the 
United States in several critical measures of technology, innovation, 
and scientific workforce development. While the report indicated that 
the United States maintains a slight lead in research and discovery, 
there was concern expressed that, ``Nations from Europe and Eastern 
Asia are on the fast track to pass the United States in scientific 
excellence and technological innovation''.
    The report compared the United States to other advanced, industrial 
countries in education, science and engineering workforce, scientific 
knowledge, innovation (as measured by the number of patent 
applications), investment in R&D, and trade balances in high technology 
goods and services.
    Of all the measures considered the United States fared worst in the 
state of technical education. The United States already lags most 
advanced countries in several important measures of natural science and 
engineering education. These findings are supported by a 2002 Rand 
report titled, ``Federal Investment in R&D'', which noted that, 
``numerous competitor nations have made greater advances than the 
United States in terms of developing human resources for science and 
technology. Many countries in the European Union and Asia have exceeded 
U.S. degree production in the natural sciences and engineering. Europe 
overtook the United States in degree production in 1988 and has stayed 
ahead, and Asia pulled ahead in 1998. During this same period, U.S. 
degree attainment in these fields has declined.'' Currently 5.7 percent 
of U.S. bachelor degrees are in engineering or natural science. In 
European and developed or developing Asian counties this ranges from 
about 8 to 13 percent. For science and engineering doctoral degrees, 
which are becoming widely needed in industries that use advanced 
technology, the U.S. share of the worldwide total has been steadily 
decreasing. In 2000 only 22 percent of all doctoral degrees in 
engineering and natural science were awarded by American universities. 
This has fallen from more than 40 percent in the 1970's.
    A useful measure of knowledge creation and the generation of new 
ideas is the number of technical papers published. The total number of 
U.S. publications has been nearly flat over the last 15 years. However, 
other countries have seen steady, and in some cases remarkable growth. 
Therefore, the U.S. share of worldwide technical papers published has 
fallen from 38 percent in 1988 to 31 percent in 2001. The EU countries 
when taken in total now lead in this area, accounting for 36 percent of 
world wide scientific publications. Asian countries, while still far 
behind at only 17 percent of the total, have experienced the most rapid 
growth in this category, more than doubling their output in the past 15 
years. These countries will surpass the United States in about 6 years 
if current trends continue.
    One area where the United States maintains a lead over developing 
Asian countries is in total R&D investment. Currently the United States 
invests over $250 billion in combined private and public financed R&D 
compared with about $100 billion for China, Singapore, South Korea, and 
Taiwan. However, even in this area the gap is rapidly closing. If 
current trends persist, the combined R&D expenditures of these 
countries will match the United States by about 2015. One of these 
reasons is the relatively slow growth in U.S. R&D funding. In 1970 
about 0.1 percent of the GDP was invested in engineering and physical 
science research, mostly in the defense area. This proportion has 
steadily decreased and by 2000 less than half this much, or 0.05 
percent of GDP, was allocated to research in these areas.
    Finally the report compared U.S. balance of trade in advanced 
technology products, such aircraft, computers, communications 
equipment, pharmaceuticals, and precision and optical instruments. In 
1990 the United States had a $30 to $40 billion trade surplus in these 
industries. This situation has steadily eroded to the point that in 
2003 the United States ran a trade deficit in high technology products 
of nearly $30 billion. One of the consequences of the growing economic 
power of China, which is increasing based on higher technology 
industries and an increasingly educated technical work force, is that 
China has surpassed the United States as the world's leading recipient 
of foreign direct investment (FDI).
    There is a general belief among defense strategist that the United 
States must have the industrial base to develop and produce the 
military systems required for national defense.
    Many members of Congress also hold this view. In order to have this 
capability, a native, skilled, scientific and engineering work force is 
required. There is a growing and alarming trend in many commercial 
industries to outsource engineering and other high-skilled service 
activities to foreign workers. In the past outsourcing was largely 
driven by cost considerations and was limited to low-cost, low-skilled 
workers. However, there is an emerging trend to outsource highly 
skilled engineering workforce products such as software and systems 
design and integration. A U.S.-based defense contractor cannot rely on 
engineers and scientists in other countries. Domestic content 
legislation for defense procurement makes little or no sense if the 
foremost scientists, engineers and manufacturers of sophisticated 
defense systems ultimately reside outside the United States. As the 
need for a more highly skilled workforce, which includes a higher 
percentage of employees with Masters and Doctoral level technical 
educations, increases, and the available technical workforce decreases, 
corporations that must hire engineers who are U.S. Citizens with the 
appropriate security clearances, will be faced with serious shortages. 
A critical issue to be faced is: Will the United States, now dependent 
on foreign energy sources and finances to underwrite our deficits, now 
be dependent on foreign sources for scientific and engineering 
leadership?
    We believe that protectionist measures will not be able to serve 
the long-term policy objective of having the capability to design, 
develop, and manufacture defense systems within the United States. In 
order to assure this capability, sufficient manpower, particularly 
those with the critical skills needed for creating advanced defense 
systems, needs to be available in sufficient numbers in the United 
States. Therefore, prudent investments in programs that create a 
robust, domestic supply of engineers and scientist with masters and 
doctoral level educations are in the national interest. Demographic 
data indicate that participation of U.S. students in science and 
engineering students will continue to decline. Retirements of 
scientists and engineers currently in the workforce will accelerate 
over the coming years. This will create a critical shortage of American 
citizens able to create the innovative, effective defense systems of 
the future.
    As Congress considers the allocation of resources in the fiscal 
year 2006 defense appropriations, proper attention to the vital role 
that S&T plays in future innovations and defense workforce should be 
considered. There are critical shortages in the DOD S&T areas, 
particularly in those that support in basic research and technical 
education. These programs protect the stability of the Nation's defense 
base, will lead to technological superiority in future weapons systems, 
and educate new generations of scientists and engineers, who maintain 
our position as the world's technological leader.
    Study after study has linked over 50 percent of our economic growth 
over the past 50 years to technological innovation. U.S. leadership in 
technological innovation is being seriously threatened by the 
accelerating pace of investments by other nations in R&D, their 
innovative capacity and their efforts in technical workforce 
development. All of these trends are occurring within the framework of 
an increasingly competitive global economy.

                               CONCLUSION

    Leadership in engineering research, education and practice is a 
prerequisite to global leadership in technology innovation. A soon-to-
be released National Academy of Engineering report entitled ``Assessing 
the Capacity of the U.S. Engineering Research Enterprise'' provides a 
roadmap for balancing the Federal R&D portfolio and re-establishing 
basic engineering research as a priority for this Nation. We strongly 
urge this committee to review the recommendations outlined in this 
report, particularly those pertaining to discovery-innovation 
institutes, strengthening linkages between industry and research 
universities, and human capital. The report is available at http://
www.nae.edu/NAE/engecocom.nsf/weblinks/MKEZ-68JK55/$File/
Engineering%20Research.pdf.
    In conclusion, we thank the subcommittee for its ongoing strong 
support of Defense S&T. The Task Force believes that proposed funding 
levels are inadequate and the increased investments that are outlined 
are necessary and will make a vital contribution to our national 
security and to a stronger, more vibrant economy.
    ASME International is a non-profit technical and educational 
organization with 125,000 members worldwide. The Society's members work 
in all sectors of the economy, including industry, academic, and 
government. This statement represents the views of the ASME Department 
of Defense Task Force of the Committee on Federal R&D of the Council on 
Engineering and is not necessarily a position of ASME as a whole.

    Senator Stevens. Our next witness is William Destler of the 
University of Maryland, is that correct? Is it ``Doctor 
Destler?''

STATEMENT OF WILLIAM W. DESTLER, Ph.D., PROVOST, 
            UNIVERSITY OF MARYLAND, COLLEGE PARK, ON 
            BEHALF OF THE ASSOCIATION OF AMERICAN 
            UNIVERSITIES
    Dr. Destler. It is.
    Senator Stevens. Thank you, sir.
    Dr. Destler. Mr. Chairman, Senator Inouye: I am here to 
represent the American Association of Universities (AAU), which 
consists of 60 prominent public and private universities that 
together conduct about 60 percent of all federally sponsored 
research and produce about half of the Nation's Ph.D.'s each 
year.
    I want to thank the two of you and the rest of the 
subcommittee for your past strong support of defense science 
and technology research efforts. I think it is no surprise to 
any of us that in the United States the combined research 
capabilities of our Federal laboratories, including our DOD 
labs, together with our corporate research assets, which are 
frankly in decline, and those in our research universities, 
represent one of our last unfair advantages over potential 
adversaries abroad. Spinoffs from defense science and 
technology, moreover, have resulted in the introduction of many 
new products and services in the private sector and are a key 
element in the maintenance of our national standard of living.
    So as the subcommittee begins its work on the fiscal year 
2006 defense appropriations bill, the AAU offers two major 
recommendations. One, strengthen support for basic research in 
defense science and technology. Funding for 6.1 research has 
steadily declined over the last decade, despite the fact that 
basic research is the seed corn that leads to technological 
superiority in defense systems. It is this technological 
superiority that has materially shortened military conflicts in 
which the United States has engaged in recent years and saved 
the lives of countless U.S. citizens.
    Funding for 6.1 basic research, moreover, is a two-fer. It 
not only engages our top scientists and engineers nationwide in 
support of national defense interests, but it also supports the 
training of tomorrow's experts in these critical disciplines.
    Second, the AAU supports the full funding of DOD's new 
National Defense Education Act phase I initiative, a program 
that many years ago benefited our previous speaker. In recent 
years the United States has failed to attract enough of its own 
best students to study in areas of critical importance to our 
national security. The new National Defense Education Act is 
intended to provide scholarships and fellowships to 
undergraduates and graduate students entering critical fields 
such as science, mathematics, engineering and foreign languages 
in return for a commitment of national service after completion 
of their studies--a perfect match in my opinion.
    The AAU therefore fully supports the funding of the $10.3 
million requested for this program in fiscal year 2006 and 
recommends a greatly expanded program in fiscal year 2007 if 
funding will permit.
    I am very grateful for the chance to speak to you today 
and, as you know, I am a very efficient speaker and I will give 
you a little bit of time back.
    [The statement follows:]

                Prepared Statement of William W. Destler

    Mr. Chairman and members of the subcommittee, I am William W. 
Destler, Senior Vice President for Academic Affairs and Provost, 
University of Maryland, College Park. I appear before you today on 
behalf of the Association of American Universities, which represents 60 
of America's most prominent public and private research universities. 
AAU's member universities perform 60 percent of federally funded 
university-based research and award approximately half of all Ph.D. 
degrees granted annually.
    I greatly appreciate this opportunity to testify on behalf of AAU 
on the important role the Department of Defense (DOD) plays in 
supporting both research and education in fields critical to our 
national defense. Before going further, I would like to thank Chairman 
Stevens, Ranking Member Inouye, and the members of the subcommittee for 
your strong support for Defense Science and Technology (S&T) programs 
in the past. For each of the past 4 years the final funding levels for 
Defense S&T have met or exceeded 3 percent of the total defense 
budget--a target originally established in 1989 by the Defense Science 
Board and then included in the Quadrennial Defense Review in 2001. This 
strong support for Defense S&T has been due in large part to your 
efforts. Your support of Defense S&T is even more significant given 
that in each of these years, the budget proposed by the Pentagon for 
S&T programs fell short of the 3 percent target.
    As the subcommittee begins its work on the fiscal year 2006 defense 
appropriations bill, AAU offers the subcommittee two major 
recommendations.
    Within funds provided for Defense S&T, strengthen support for basic 
research.--While significantly more resources have been allocated to 
Research, Development, Testing and Evaluation (RDT&E) in recent years 
and as referenced above, the 3 percent target for Defense S&T has been 
met, the percentage of this funding devoted to basic 6.1 research has 
declined. In fact, over the last 20 years, basic 6.1 research funding 
has declined in inflation-adjusted dollars, despite the demonstrated 
benefit of such funding.
    In December 2004, the Council on Competitiveness--a national 
consortium of industrial, university and labor leaders--released a 
report entitled Innovate America, which identified innovation as ``the 
single most important factor in determining America's success in the 
21st century.'' Among its recommendations, the report urged that DOD 
restore its historic commitment to pioneering discoveries by devoting 
not less than one-fifth of the Defense S&T budget to basic research. To 
achieve that goal, AAU recommends increasing funding for defense basic 
research (budget category 6.1) programs by $200 million in fiscal year 
2006 to $1.7 billion.
    Fully fund DOD's New National Defense Education Act (NDEA)--Phase I 
Initiative.--This year, in addition to the existing University Research 
Initiative, the National Defense Science and Engineering Graduate 
Fellowship Program, and the National Security Education Program 
(NSEP)--all programs for which AAU urges your continued support--the 
Pentagon has proposed $10.3 million for a new National Defense 
Education Act--Phase I program. The NDEA initiative would provide 
scholarships and fellowships to undergraduate and graduate students 
entering critical fields of science, mathematics, engineering and 
foreign languages in return for a commitment of national service after 
completion of their studies.
    AAU applauds this new initiative and believes it is a positive step 
toward addressing U.S. science and engineering (S&E) workforce needs. 
AAU encourages you to provide the $10.3 million requested for this 
program in fiscal year 2006 and recommends greatly expanding this 
exciting new initiative in fiscal year 2007. AAU has called for an even 
more comprehensive, multi-agency national defense education initiative 
to be developed aimed at stemming national educational deficiencies and 
encouraging more U.S. students to study in critical fields of 
knowledge.
    In the time I have remaining, let me briefly outline some key 
reasons why your support for basic defense research is critical. Then I 
will conclude with some final remarks about why AAU supports DOD's 
National Defense Education Act proposal.

     WHY INVESTING IN DOD RESEARCH IS CRITICAL FOR NATIONAL DEFENSE

    DOD basic (6.1) research is the foundation for the scientific and 
technological breakthroughs required to meet future military needs.--
During the Cold War, DOD provided robust support for breakthrough basic 
research performed at the Nation's universities and national 
laboratories. This support resulted in many of the highly-effective 
technologies currently fielded in the war on terrorism today, such as 
global navigation, radar, laser targeting systems and ``smart'' bombs; 
lightweight body armor; the Internet; night vision and thermal imaging; 
unmanned aerial vehicles; and biological and chemical sensors. This 
funding was also critical to supporting some of the Nation's top 
scientific talent.
    Since the end of the Cold War, DOD's focus on basic research has 
declined significantly, dropping from 20 percent of total defense S&T 
funds in 1980 to less than 12 percent in fiscal year 2005. According to 
an assessment of DOD basic research released earlier this year, the 
decline in funding for 6.1 basic research in real terms from 1993 to 
2004 was 10 percent according to the inflation indexes used by the DOD 
and 18 percent using the Consumer Price Index (CPI). Growing concerns 
about declining investments in fundamental research have been 
highlighted in a number of recent news articles which have brought 
attention to DARPA's move away from support of high risk, high payoff 
basic research.
    As the threats we face have grown more complex, the need for new 
knowledge is greater now than ever before.--New dangers facing the 
military, such as high technology terrorism, information warfare, and 
the proliferation of weapons of mass destruction, require new and more 
sophisticated technologies. To meet these threats, DOD must strengthen 
its front-end commitment to basic research in areas such as: 
nanotechnology; high-speed microchips; computing and microchip 
capacity; composites research and stealth technology; explosive 
detection devices; self-healing wound technology; cybersecurity and 
encryption; and biological and chemical defense. The knowledge required 
to generate cutting edge technologies in these areas is critically 
dependent upon DOD's sustained investments in long-term, high risk, 
defense-oriented research performed at U.S. universities.
    At the University of Maryland, for example, DOD support has enabled 
the University to bring together researchers from academia, industry, 
and DOD laboratories to work together on problems ranging from 
energetic materials to advanced electronic devices. This year, for 
example, we are partnering with DOD to establish a new Joint Institute 
for Knowledge Discovery which will assist the agency with the 
extraordinary problem of sifting important information from the huge 
quantities of information collected daily by our intelligence services, 
including NSA. This effort will involve researchers from several 
universities, the private sector, and DOD.
    Defense support for research enlists today's top scientists in 
support of national defense while training tomorrow's experts in 
critical disciplines.--DOD's basic research investment produces not 
only military technology but also the people without whom technology 
would never see the light of day. DOD support to universities and DOD 
laboratories keeps top scientists and engineers involved in the 
academic disciplines that underpin national defense. It also plays a 
vital role in training the next generation of scientists and engineers 
who will become the future defense workforce and implement new defense 
innovations well into the 21st century.
    DOD is the third-largest Federal sponsor of university-based 
research. More than 300 universities and colleges conduct DOD-funded 
research. This research is concentrated in fields where advances are 
most likely to contribute to national defense: DOD provides 71 percent 
of Federal funding for electrical engineering, 46 percent for materials 
engineering, 38 percent for computer sciences, and 30 percent for ocean 
sciences. DOD also sponsors fellowships and provides significant 
support for graduate students in critical defense fields such as 
computer science and aerospace and electrical engineering.
    But there are still too few U.S. students studying these critical 
fields. The need to attract and retain them is the reason that AAU has 
endorsed DOD's proposal for the new National Defense Education Act and 
has called for an even greater multi-agency initiative in future years.

         WHY AAU SUPPORTS A NEW NATIONAL DEFENSE EDUCATION ACT

    As you know, a concerted effort to increase government investment 
in security-related research, education, and training is not novel. In 
response to the launch of Sputnik and the emerging threat posed by the 
Soviet Union, Congress in 1958 created NASA and adopted the National 
Defense Education Act (NDEA). The NDEA inspired generations of U.S. 
students to pursue fields critical to our national security, and 
enabled the United States to establish dominance in science and 
technology for military and civilian purposes.
    Our future military challenges simply cannot be met without an 
appropriately educated and trained U.S. defense workforce. These needs 
have been highlighted by several sources, including the Hart/Rudman 
Commission on National Security, the National Science Board, and most 
recently, the defense industry and the Pentagon itself.
    The sad truth is that in recent years, our country has failed to 
attract enough of our own best students to areas of critical importance 
to our security. This has left us critically dependent upon foreign 
talent to fulfill our workforce needs.
    Since 9/11, however, there has been a drop in the number of foreign 
students coming to the United States to study. Moreover, most of these 
foreign students cannot obtain security clearances and cannot be 
employed in DOD laboratories or by the defense industry. Based on 
numerous benchmarks contained in a recent report by the Task Force on 
the Future of American Innovation, the scientific and technological 
advantage that the United States has held over other nations is 
eroding.
    Rapidly developing economies, particularly those in Asia, are 
vigorously investing in their own research and higher education 
infrastructures, which is thus increasing their ability to both educate 
their people at home and to perform cutting-edge research.

                                SUMMARY

    For reasons of national, homeland, and economic security, the 
United States must produce more graduates in critical fields. Not only 
are DOD and the defense and aerospace industries experiencing 
significant difficulty in attracting and retaining the science and 
engineering talent they require, but as many as 13,000 DOD laboratory 
scientists will be eligible to retire in the next decade. There may not 
be sufficient numbers of graduating, security-clearable U.S. students 
to replace them. In addition, thousands more scientists and engineers 
will be needed in other governmental agencies such as NASA and the 
Department of Energy, and in energy-related industries. And the 
military and intelligence communities face an acute shortage of 
linguists and area specialists in key parts of the world. We must act 
now to fill the pipeline of U.S. students trained in fields vital to 
our national and economic security.
    The Nation should not wait until we face a national security 
workforce crisis. It should act now. With your help, AAU believes that 
the DOD should and will play a leadership role in this effort.
    We urge your support for the $10.3 million requested for the NDEA-
Phase I proposal and encourage you to recognize the need for additional 
resources for defense basic research. This is a small, but vital, 
investment in addressing the monumental national defense challenges we 
now face.
    Again, I would like to thank the subcommittee for its continued 
support of Department of Defense research and look to your continued 
leadership in this area.

    Senator Stevens. Well, doctor, tell me. Does this money 
really flow into the students or just into the university and 
the fixed staff?
    Dr. Destler. It goes entirely to the students. It provides 
scholarships and fellowships for the students to encourage them 
to study.
    Senator Stevens. This amount goes beyond the grants for 
research. It really reaches out to the students?
    Dr. Destler. That is exactly correct.
    Senator Stevens. Well, you will have our support on that. I 
just finished a meeting with some of the people that loan money 
to students and they tell me there is not enough incentive for 
the science and engineering students. So we want to try to help 
you on that.
    Dr. Destler. Exactly. Thank you very much for your support.
    Senator Stevens. Thank you very much.
    Sydney Hickey of the National Military Family Association.

STATEMENT OF SYDNEY HICKEY, ON BEHALF OF THE NATIONAL 
            MILITARY FAMILY ASSOCIATION
    Ms. Hickey. Yes, sir.
    Mr. Chairman, Senator Inouye: the National Military Family 
Association (NMFA) appreciates this opportunity to express its 
views and the views of the families that we represent. We 
continue to be very grateful to you for your strong support of 
military family issues. Tremendous strides have been made in 
predeployment, deployment, and return and reunion support for 
families. Our families are concerned, however, about the long-
term effects of frequent deployments, both on their service 
member and on their own family's integrity. Return and reunion 
programs must be long-term and include the families even when 
the service member is no longer on Active duty.
    Families are also concerned about the availability of 
quality child care. NMFA believes the situation will only 
worsen as rebasing, transformation, and BRAC cause significant 
shifts in population. Alternatives are being developed by the 
Department of Defense and we support these initiatives and urge 
funding for their rapid expansion.
    Transformation, overseas rebasing, and BRAC will require 
significantly more resources than are currently available to 
ensure that quality of life programs remain in effect at losing 
installations until the last family has left and are in place 
at gaining installations before the first families arrive. NMFA 
is therefore very concerned about recent reports that basic 
family support is short of funding.
    NMFA appreciates the many schools that have stepped up to 
the plate to provide needed counseling and other services to 
the children of deployed military parents. We believe that the 
extraordinary workload currently being placed on school systems 
necessitates an increase in the DOD impact aid supplement to 
$50 million and continued congressional oversight of the 
resources requested by DOD for their own schools.
    We also believe additional funds will be required in the 
out-years to assist those school districts that will receive 
many thousands of new military children from overseas areas and 
because of BRAC. NMFA believes robust funding of family support 
programs, including the education of children, is imperative 
for readiness.
    Significant beneficiary turmoil occurred during the 
changeover to the new TRICARE contracts. While progress has 
been made, difficulties remain. Access standards for Prime 
enrollees, particularly those enrolled in military treatment 
facilities, are not being met in many cases. Families returning 
stateside due to overseas rebasing will not be able to be 
accommodated in many instances in military treatment facilities 
(MTFs). If the BRAC proposals for MTFs are implemented, 
significant inpatient workload will also shift out of the MTFs. 
NMFA believes the military health care system should be 
realistically and fully funded to provide quality and promised 
care to all beneficiaries wherever they receive that care.
    NMFA is very grateful for the significant increase in the 
death gratuity and the servicemen's group life insurance 
(SGLI), but strongly believes that all in line of duty deaths 
must be treated the same; and we continue to believe that 
removing the dependency indemnity compensation offset to the 
survivor benefit plan is the best way to establish the long-
term financial stability of the surviving family.
    NMFA thanks you, Mr. Chairman and Senator Inouye, and your 
fellow members of this subcommittee for your support of 
military families and respectfully requests that it continue.
    Senator Stevens. Thank you very much.
    Senator Inouye.
    Senator Inouye. If I did not do that my wife would not let 
me home. If I did not support you my wife would throw me out.
    Ms. Hickey. More power to her.
    Thank you.
    Senator Stevens. Thank you very much.
    [The statement follows:]

Prepared Statement of Kathleen B. Moakler, Deputy Director, Government 
          Relations, the National Military Family Association

    The National Military Family Association (NMFA) is the only 
national organization whose sole focus is the military family and whose 
goal is to influence the development and implementation of policies 
which will improve the lives of those family members. Its mission is to 
serve the families of the seven uniformed services through education, 
information and advocacy.
    Founded in 1969 as the Military Wives Association, NMFA is a non-
profit 501(c)(3) primarily volunteer organization. NMFA today 
represents the interests of family members and the active duty, reserve 
components and retired personnel of the seven uniformed services: Army, 
Navy, Air Force, Marine Corps, Coast Guard, Public Health Service and 
the National Oceanic and Atmospheric Administration.
    NMFA Representatives in military communities worldwide provide a 
direct link between military families and NMFA staff in the Nation's 
capital. Representatives are the ``eyes and ears'' of NMFA, bringing 
shared local concerns to national attention.
    NMFA receives no Federal grants and has no Federal contracts.
    NMFA's web site is located at http://www.nmfa.org.
    Mr. Chairman and distinguished members of this subcommittee, the 
National Military Family Association (NMFA) would like to thank you for 
the opportunity to present testimony on quality of life issues 
affecting servicemembers and their families. NMFA is also grateful for 
your leadership in the 108th Congress in securing funds to:
  --Make increases in the Family Separation Allowance and Imminent 
        Danger Pay permanent.
  --End the age-62 Survivor Benefit Plan offset.
  --Help DOD support the education of military children.
  --Support family readiness programs and military health care.
    As a founding member of The Military Coalition, NMFA subscribes to 
the recommendations contained in the Coalition's testimony presented 
for this hearing. We especially endorse the Coalition's request that 
this subcommittee work to protect the benefits depended upon by members 
of the all-volunteer force, retirees, their families, and survivors. 
According to DOD statistics, approximately one-fourth of today's 
servicemembers came from military families. Ensuring a robust support 
network for today's military families and fulfilling promises made to 
military retirees will enhance the capabilities of tomorrow's force.
    NMFA also endorses The Military Coalition's recommendations to:
  --Enhance education and outreach to improve military family readiness 
        and support families of deployed active duty, National Guard, 
        and Reserve servicemembers.
  --Fully-fund the commissary benefit and scrutinize proposals to close 
        commissaries or combine exchange services.
  --Ease the transition of Guard and Reserve families to TRICARE when 
        the servicemember is mobilized by providing a choice of 
        purchasing TRICARE coverage when in drill status or receiving 
        Federal payment of civilian health care premiums when the 
        servicemember is mobilized.
  --Fully-fund the Defense Health Program budget to provide access to 
        quality care for all beneficiaries.
  --Authorize full Basic Allowance for Housing (BAH) for Guard and 
        Reserve members mobilized for more than 30 days.
    In this statement, NMFA will address issues related to military 
families.

            FAMILY READINESS THROUGHOUT THE DEPLOYMENT CYCLE

    The Services continue to refine the programs and initiatives to 
provide support for military families in the period leading up to 
deployments, during deployment, and the return and reunion period. Our 
message to you today is simple: increased funding to support family 
readiness is paying off! Family readiness over the long term requires 
that resources must be directed not just at deployment-related support 
programs, but also to sustain the full array of baseline installation 
quality of life programs. As referenced in NMFA's 2004 analysis report, 
``Serving the Home Front: An Analysis of Military Family Support from 
September 11, 2001 through March 31, 2004,'' consistent levels of 
targeted family readiness funding are needed, along with consistent 
levels of command focus on the importance of family support programs.
    NMFA is very concerned about recent reports from Service leadership 
and from individual installations about potential shortfalls in base 
operations funding and appropriated fund support for Morale, Welfare 
and Recreation (MWR) and other quality of life programs. While some of 
these cuts may be temporary, in programs and facilities seeing declines 
in patronage due to the deployment of units from the installations, 
others are in services that support families, such as spouse employment 
support, volunteer support, child development center hours, or family 
member orientation programs. These core quality of life programs make 
the transition to military life for new military members easier and 
lessen the strain of deployment for all families. NMFA does not have 
the expertise to ferret out exact MWR funding levels from Service 
Operations and Maintenance budgets. We are concerned about the state of 
this funding--both appropriated and non-appropriated fund support--
because of what we hear from servicemembers and families, what we read 
in installation papers chronicling cutbacks, and from Service leaders 
who have identified shortfalls in base operations funding in the 
administration's fiscal year 2006 budget request. Resources must be 
available for commanders and others charged with ensuring family 
readiness to help alleviate the strains on families facing more 
frequent and longer deployments.
    NMFA is particularly troubled by what we see as mixed signals 
regarding DOD's long-term commitment to quality of life services and 
programs. In recent testimony, several DOD and Service leaders have 
focused on the costs of many benefit programs and emphasized plans to 
increase bonuses, as opposed to other types of benefits or 
compensation. NMFA regards this narrow focus on bonuses as an 
inadequate quick fix to recruiting and retention woes. We agree with 
the Senior Enlisted Advisors who, in recent testimony, emphasized the 
importance of addressing quality of life issues for active, National 
Guard and Reserve servicemembers and their families. They listed child 
care and housing as top priorities, in addition to pay, health care, 
and educational opportunities for servicemembers and their families. 
NMFA believes military leaders must recognize that the robust military 
benefit package needed to recruit and retain a quality force demands 
attention to both pay and non-pay elements of that package.

                   WHAT'S NEEDED FOR FAMILY SUPPORT?

    Family readiness volunteers and installation family support 
personnel in both active duty and reserve component communities have 
been stretched thin over the past 3\1/2\ years as they have had to 
juggle pre-deployment, ongoing deployment, and return and reunion 
support, often simultaneously. Unfortunately, this juggling act will 
likely continue for some time. Family member volunteers support the 
servicemembers' choice to serve; however, they are frustrated with 
being called on too often during longer than anticipated and repeated 
deployments. Military community volunteers are the front line troops in 
the mission to ensure family readiness. They deserve training, 
information, and assistance from their commands, supportive unit rear 
detachment personnel, professional backup to deal with family issues 
beyond their expertise and comfort level, and opportunities for respite 
before becoming overwhelmed. NMFA is pleased to note that the Army's 
paid Family Readiness Support Assistants are getting rave reviews from 
commanders and family readiness volunteers--funding is needed so that 
more of these positions can be created.
    NMFA knows that complicated military operations can result in 
deployments of unexpected lengths and more frequent deployments. But we 
also understand the frustrations of family members who eagerly 
anticipated the return of their servicemembers on a certain date only 
to be informed at the last minute that the deployment will be extended 
or that the unit will be deployed again within a year or less of its 
return. Other than the danger inherent in combat situations, the 
unpredictability of the length and frequency of deployments is perhaps 
the single most important factor frustrating families today. Because of 
this unpredictability, family members need more help in acquiring the 
tools to cope. They also need consistent levels of support throughout 
the entire cycle of deployment, which includes the time when 
servicemembers are at the home installation and working long hours to 
support other units who are deployed or gearing up their training in 
preparation for another deployment. As one spouse wrote to NMFA:

    ``This is really starting to take a toll on families out here since 
some families are now on the verge of their third deployment of the 
servicemember to Iraq. Families are not so much disgruntled by the 
tempo of operations as they are at a loss for resources to deal with 
what I've started calling the `pivotal period.' This is the point where 
the honeymoon from the last deployment is over, the servicemember is 
starting to train again for the next deployment in a few months and is 
gone on a regular basis, the family is balancing things with the 
servicemember coming and going and also realizing the servicemember is 
going to go away again and be in harm's way. We have deployment briefs 
that set the tone and provide expectations for when the servicemember 
leaves. We have return and reunion briefs that prepare families and 
provide expectations for when the servicemember returns. These two 
events help families know what is normal and what resources are 
available but there is an enormous hole for that `pivotal period.' No 
one is getting families together to let them know their thoughts, 
experiences and expectations are (or aren't) normal in those in between 
months. Deployed spouses have events, programs, and free child care 
available to them as they should--but what about these things for the 
in-betweeners who are experiencing common thoughts and challenges?''

    Efforts to improve the return and reunion process must evolve as 
everyone learns more about the effects of multiple deployments on both 
servicemembers and families, as well as the time it may take for some 
of these effects to become apparent. Information gathered in the now-
mandatory post-deployment health assessments may also help identify 
servicemembers who may need more specialized assistance in making the 
transition home over the long term. NMFA applauds the announcement made 
in January by the Assistant Secretary of Defense for Health Affairs 
that DOD would mandate a second assessment at the 4- to 6-month mark 
following the servicemember's return. We urge Congress to ensure the 
military Service medical commands have the personnel resources needed 
to conduct these assessments.
    NMFA is concerned that much of the research on mental health issues 
and readjustment has focused on the servicemember. More needs to be 
done to study the effects of deployment and the servicemembers' post-
deployment readjustment on family members. Return and reunion issues 
are long-term issues. More also needs to be done to ensure proper 
tracking of the adjustment of returning servicemembers. Post-deployment 
assessments and support services must also be available to the families 
of returning Guard and Reserve members and servicemembers who leave the 
military following the end of their enlistment. Although they may be 
eligible for transitional health care benefits and the servicemember 
may seek care through the Veterans' Administration, what happens when 
the military health benefits run out and deployment-related stresses 
still affect the family?
    NMFA is pleased that DOD has intensified its marketing efforts for 
Military OneSource as one resource in the support for families 
throughout the entire deployment cycle. Military OneSource provides 24/
7 access, toll-free or online, to community and family support 
resources, allowing families to access information and services when 
and where they need them. DOD, through OneSource, has committed to 
helping returning servicemembers and families of all Services access 
local community resources and receive up to six free face-to-face 
mental health visits with a professional outside the chain of command. 
NMFA is concerned that some of the recent cuts in family program staff 
at installations suffering a shortfall in base operations funding may 
have been made under the assumption that necessary support could be 
provided remotely through OneSource. The OneSource information and 
referral service must be properly coordinated with other support 
services, to enable family support professionals to manage the many 
tasks that come from high optempo.
    Geographically-isolated Guard and Reserve families must depend on a 
growing but still patchy military support network. Countless local and 
State initiatives by government organizations and community groups have 
sprung up to make dealing with deployment easier for Guard and Reserve 
family members. One new initiative that has the potential to network 
these local efforts is the National Demonstration Program for Citizen-
Soldier Support. This community-based program is designed to strengthen 
support for National Guard and Reserve families by building and 
reinforcing the capacity of civilian agencies, systems, and resources 
to better serve them. Initiated by the University of North Carolina at 
Chapel Hill, with $1.8 million in seed money provided in the fiscal 
year 2005 Defense Appropriations Act, the Citizen-Soldier Support 
Program will be coordinated closely with existing military programs and 
officials in order to avoid duplication of effort and to leverage and 
optimize success. Leveraging community programs with Federal funding 
and programs can be a win-win situation. NMFA recommends continued 
funding of this program to allow it time to develop a model that can be 
replicated in other locations and to set up training to achieve this 
replication.

                              HEALTH CARE

    This year, NMFA is monitoring the after-effects of the transition 
to the new round of TRICARE contracts and the continued transition of 
mobilized Guard and Reserve members and their families in and out of 
TRICARE. We are concerned that the Defense Health Program may not have 
all the resources it needs to meet both military medical readiness 
mission and provide access to health care for all beneficiaries. The 
Defense Health Program must be funded sufficiently so that the direct 
care system of military treatment facilities and the purchased care 
segment of civilian providers can work in tandem to meet the 
responsibilities given under the new contracts, meet readiness needs, 
and ensure access for all TRICARE beneficiaries. Families of Guard and 
Reserve members should have flexible options for their health care 
coverage that address both access to care and continuity of care
    NMFA believes that ``rosy'' predictions when significant contract 
changes are being made are a disservice to both beneficiaries and the 
system. NMFA is appreciative of the intense effort being made to 
improve the referral and authorization process, but is concerned about 
the cost of the work-around and the prospect of a new round of 
disruptions when DOD's electronic referral and authorization system is 
implemented. It is imperative that whatever changes are made, the 
promised Prime access standards must be met.
    NMFA again notes that more must be done to educate Standard 
beneficiaries about their benefit and any changes that might occur to 
that benefit. To end the TRICARE Standard access problem that is a 
constant complaint of beneficiaries, DOD must work harder to attract 
providers and understand the reasons why providers do not accept 
TRICARE Standard.
    We are closely watching the impending implementation of the TRICARE 
Reserve Select health care benefit for the reserve component. We have 
several concerns about the implementation of this program, especially 
regarding beneficiary education. Both the servicemember and the family 
need to understand the coverage provided under Reserve Select, the 
costs, and, most importantly, how Reserve Select differs from the 
TRICARE Prime or Prime Remote benefit the family used while the 
servicemember was on active duty. Emphasis must continue on promoting 
continuity of care for families of Guard and Reserve servicemembers. 
NMFA's recommendation to enhance continuity of care for this population 
is to allow members of the Selected Reserve to choose between buying 
into TRICARE when not on active duty or receive a DOD subsidy allowing 
their families to remain with their employer-sponsored care when 
mobilized. NMFA also recommends that the rules governing health care 
coverage under TAMP be updated to allow the servicemember and family to 
remain eligible for TRICARE Prime Remote.

                           ALARMING DISCOVERY

    Over the years, NMFA has received anecdotal information from family 
members that providers are not accepting them as TRICARE patients 
because the TRICARE reimbursement level was below that provided by 
Medicaid. Needless to say, family members have been outraged! However, 
since TRICARE reimbursement is tied by law to Medicare reimbursement, 
NMFA has believed the problem to be far larger than the military health 
care system. Alarm bells sounded, however, when NMFA was recently 
informed of the situation in several locations where differences 
between Medicaid and TRICARE rates for obstetrical care or pediatric 
procedures have added to the reasons providers give for not accepting 
TRICARE patients. NMFA does not know how prevalent this problem may be 
across the country and urgently requests that Congress require DOD to 
compare the reimbursement rates of Medicaid with those of TRICARE. We 
are particularly concerned with the rates for pediatric and 
obstetrical/gynecological care where Medicare has little experience in 
rate setting.

                               SURVIVORS

    NMFA believes that the government's obligation as articulated by 
President Lincoln, ``to care for him who shall have borne the battle 
and for his widow and his orphan,'' is as valid today as it was at the 
end of the Civil War. We know that there is no way to compensate those 
who have lost their servicemember, but we do owe it to these families 
to help ensure a secure future. NMFA strongly believes that all 
servicemembers' deaths should be treated equally. Servicemembers are on 
duty 24 hours a day, 7 days a week, 365 days a year. Through their 
oath, each servicemember's commitment is the same. The survivor benefit 
package should not create inequities by awarding different benefits to 
families who lose a servicemember in a hostile zone versus those who 
lose their loved one in a training mission preparing for service in a 
hostile zone. To the family, the loss is the same. NMFA was pleased 
that both the House and Senate included increased survivor benefits in 
their versions of the fiscal year 2005 Emergency Supplemental 
Appropriations Act. We urge this subcommittee to ensure that these 
increased benefits will be funded for fiscal year 2006.
    NMFA recommends the following changes to support surviving family 
members of active duty deaths:
  --Treat all active duty deaths equally. The military Services have 
        procedures in place to make ``line of death'' determinations. 
        Do not impose another layer of deliberation on that process.
  --Eliminate the DIC offset to SBP. Doing so would recognize the 
        length of commitment and service of the career servicemember 
        and spouse. Eliminating the offset would also restore to those 
        widows/widowers of those retirees who died of a service-
        connected disability the SBP benefit that the servicemember 
        paid for.
  --Improve the quality and consistency of training for Casualty 
        Assistance Officers and family support providers so they can 
        better support families in their greatest time of need.
  --In cases where the family has employer sponsored dental insurance, 
        treat them as if they had been enrolled in the TRICARE Dental 
        Program at the time of the servicemember's death, thus making 
        them eligible for the 3-year survivor benefit.
  --Update the TRICARE benefit provided in 3-year period following the 
        servicemember's death in which the surviving spouse and 
        children are treated as their active duty family members and 
        allow them to enroll in TRICARE Prime Remote.
  --Allow surviving families to remain in government or privatized 
        family housing longer than the current 6-month period if 
        necessary for children to complete the school year, with the 
        family paying rent for the period after 6 months.
  --Expand access to grief counseling for spouses, children, parents, 
        and siblings through Vet Centers, OneSource, and other 
        community-based services.
  --To provide for the long-term support of surviving families, 
        establish a Survivor Office in the Department of Veterans' 
        Affairs.

              WOUNDED SERVICEMEMBERS HAVE WOUNDED FAMILIES

    Post-deployment transitions could be especially problematic for 
servicemembers who have been injured and their families. NMFA asserts 
that behind every wounded servicemember is a wounded family. Wounded 
and injured servicemembers and their families deserve no less support 
than survivors. Spouses, children, and parents of servicemembers 
injured defending our country experience many uncertainties, including 
the injured servicemember's return and reunion with their family, 
financial stresses, and navigating the transition process to the 
Department of Veterans Affairs (VA).
    Support, assistance, and above all, counseling programs, which are 
staffed by real people who provide face to face contact, are needed for 
the families of wounded/injured servicemembers. Whenever feasible, 
Military OneSource should be used as a resource multiplier. Mental 
health services and trained counselors need to be available and easily 
accessible for all servicemembers and their families who may suffer 
``invisible'' injuries like combat stress and PTSD. Distance from MTFs 
or VA Centers should not preclude servicemembers and their families 
from seeking and receiving care. Respite care options should be 
provided and accessible for family members who care for the seriously 
wounded.
    NMFA recommends the following changes to support wounded and 
injured servicemembers and their families:
  --Direct the military Services, OSD, and the VA to improve their 
        coordination in support of the wounded servicemember and 
        family.
  --Consider initiatives to enhance the short term financial stability 
        of the wounded servicemember's family, such as: continuing 
        combat pays and tax exclusion, creating a disability gratuity, 
        or implementing a group disability insurance program.
  --Extend the 3-year survivor health care benefit to servicemembers 
        who are medically retired and their families.
  --Enhance servicemember and spouse education benefits and employment 
        support.
  --Establish a Family Assistance Center at every Military Treatment 
        Facility (MTF) caring for wounded servicemembers.

                    EDUCATION FOR MILITARY CHILDREN

    A significant element of family readiness is an educational system 
that provides a quality education to military children, recognizing the 
needs of these ever-moving students and responding to situations where 
the military parent is deployed and/or in an armed conflict. Addressing 
the needs of these children, their classmates, and their parents is 
imperative to lowering the overall family stress level and to achieving 
an appropriate level of family readiness. But it does not come without 
cost to the local school system. Schools serving military children, 
whether DOD or civilian schools, need the resources available to meet 
military parents' expectation that their children receive the highest 
quality education possible.
    NMFA is appreciative of the support shown by Congress for the 
schools educating military children. You have consistently supported 
the needs of the schools operated by the DOD Education Activity 
(DODEA), both in terms of basic funding and military construction. The 
commitment to the education of military children in DOD schools between 
Congress, DOD, military commanders, DODEA leadership and staff, and 
especially military parents has resulted in high test scores, 
nationally-recognized minority student achievement, parent involvement 
programs and partnership activities with the military community. This 
partnership has been especially important as the overseas communities 
supported by DODDS and many of the installations with DDESS schools 
have experienced high deployment rates. DOD schools have responded to 
the operations tempo with increased support for families and children 
in their communities. NMFA is concerned that 3 years of a weak dollar 
has forced the DODDS schools, especially in Europe, to divert funds 
from maintenance and other accounts to pay necessary increases in 
employee allowances. Given the high level of deployment from European 
communities, we ask that Congress work with DOD to ensure DOD schools 
have the resources they need to handle their additional tasks.
    NMFA is also appreciative of the approximately $30 million Congress 
adds in most years to the Defense budget to supplement Impact Aid for 
school districts whose enrollments are more than 20 percent military 
children and for the additional funding to support civilian school 
districts who are charged with educating severely disabled military 
children. NMFA does not believe, however, that this amount is 
sufficient to help school districts meet the current demands placed on 
them. Additional counseling and improvements to security are just two 
needs faced by many of these school districts. NMFA asks this 
subcommittee to increase the DOD supplement to Impact Aid to $50 
million so that the recipient school districts have more resources at 
their disposal to educate the children of those who serve.

                           SPOUSE EMPLOYMENT

    Sixty-nine percent of all military spouses and 86 percent of junior 
enlisted spouses are in the labor force. For many families this second 
income is a critical factor in their financial well being. Concerned 
that spouses desiring better careers will encourage servicemembers to 
leave the military, DOD has instituted several programs to support 
military spouses in their career goals. With 700,000 active duty 
spouses, however, the task of enhancing military spouse employment is 
too big for DOD to handle alone. Improvements in employment for 
military spouses and assistance in supporting their career progression 
will require increased partnerships and initiatives by a variety of 
government agencies and private employers.
    Despite greater awareness of the importance of supporting military 
spouse career aspirations, some roadblocks remain. State laws governing 
unemployment compensation vary greatly and very few states generally 
grant unemployment compensation eligibility to military spouses who 
have moved because of a servicemember's government ordered move. NMFA 
has been pleased to note that some States are examining their in-state 
tuition rules and licensing requirements. These changes ease spouses' 
ability to obtain an education or to transfer their occupation as they 
move. NMFA is appreciative of the efforts by DOD to work with States to 
promote the award of unemployment compensation to military spouses, 
eligibility for in-state tuition, and reciprocity for professional 
licenses. Its website, usa4militaryfamilies.org, provides details on 
these State initiatives.

                               CHILD CARE

    On a recent visit to Europe, President and Mrs. Bush stopped at 
Ramstein Air Base, Germany, to thank the troops for their service and 
dedication to our Nation. While visiting with families there, Mrs. Bush 
was made aware of the lack of child care providers in the community. 
This information is not new to NMFA. We have been hearing from our 
field Representatives that this is an on-going problem, especially 
OCONUS where child care options are limited. As one of our members in 
Germany stated: ``Drawing from the pool of military spouses is no 
longer working over here. Big shortages. They are asking too much of 
the spouses as it is.'' Families in Europe state that funding targeted 
to pay raises for child care providers and increased subsidies for in-
home providers could help the Services recruit more child care workers.
    A recent online survey conducted by NMFA further outlines the need 
for more child care. Of special interest in the survey results was the 
frustration from dual military parents. Dealing with deployments, drill 
weekends and lack of child care facilities were of great concern. 
Families also cited concerns about finding child care after relocating 
to a new area. Because the servicemember is often quickly deployed 
after relocation, the spouse must deal with the added stress as he/she 
looks for employment and childcare in the new location. At a recent 
hearing, three of the four Service Senior Enlisted Advisors cited child 
care as their number one concern for their servicemembers and families. 
The advisors spoke of lost duty time by servicemembers unable to find 
child care. DOD officials estimate that the Department needs at least 
38,000 more slots. According to the Enlisted Advisors, the need may be 
greater. All spoke of waiting lists stretching into the thousands.
    DOD is expanding partnerships to meet the demand described by the 
NMFA survey respondents and the Senior Enlisted Advisors. The National 
Association of Child Care Resource and Referral Agencies (NACCRRA) 
initiated a program entitled Operation Child Care to provide donated 
short term respite and reunion child care for members of the National 
Guard and Reserve returning from Operation Enduring Freedom/Operation 
Iraqi Freedom for the 2-week Rest and Recreation leave period. Another 
initiative through Military OneSource offers 10 hours of free childcare 
to each service member returning on R&R leave. NACCRA is also 
partnering with DOD on ``Operation Military Child Care,'' which will 
help provide much needed government-subsidized, high quality child care 
for mobilized and deployed military parents who cannot access a 
military child development center. More funding dedicated to support 
families' access to child care and subsidize the costs is still needed.

               TRANSFORMATION, GLOBAL RE-BASING, AND BRAC

    As the Base Realignment and Closure (BRAC) Commission prepares to 
receive DOD's list of installations recommended for realignment and 
closure, military beneficiaries are looking to Congress to ensure that 
key quality of life benefits and programs remain accessible. Members of 
the military community, especially retirees, are concerned about the 
impact base closures will have on their access to health care and the 
commissary, exchange, and MWR benefits they have earned. They are 
concerned that the size of the retiree, Guard, and Reserve populations 
remaining in a location will not be considered in decisions about 
whether or not to keep commissaries and exchanges open. In the case of 
shifts in troop populations because of Service transformation 
initiatives, such as Army modularity, or the return of servicemembers 
and families from overseas bases, community members at receiving 
installations are concerned that existing facilities and programs may 
be overwhelmed by the increased populations. NMFA does not have a 
position on whether or not downsizing overseas should occur or how or 
where troops should be based. Our interest in this discussion is in 
raising awareness of the imperative that military family and quality of 
life concerns be considered by policy-makers in their decision-making 
process and in the implementation of any rebasing or transformation 
plans.
    Quality of life issues that affect servicemembers and families must 
be considered on an equal basis with other mission-related tasks in any 
plan to move troops or to close or realign installations. Maintaining 
this infrastructure cannot be done as an afterthought. Planning must 
include the preservation of quality of life programs, services, and 
facilities at closing installations as long as servicemembers and 
families remain AND the development of a robust quality of life 
infrastructure at the receiving installation that is in place before 
the new families and servicemembers arrive. Ensuring the availability 
of quality of life programs, services, and facilities at both closing 
and receiving installations and easing service members and families' 
transition from one to another will take additional funding and 
personnel. NMFA looks to Congress to ensure that DOD has programmed in 
the costs of family support and quality of life as part of its base 
realignment and closure calculations from the beginning and receives 
the resources it needs. DOD cannot just program in the cost of a new 
runway or tank maintenance facility; it must also program in the cost 
of a new child development center or new school, if needed.

                 STRONG FAMILIES ENSURE A STRONG FORCE

    Mr. Chairman, NMFA is grateful to this subcommittee for ensuring 
funding is available for the vital quality of life components needed by 
today's force. As you consider the quality of life needs of 
servicemembers and their families this year, NMFA asks that you 
remember that the events of the past 3\1/2\ years have left this family 
force drained, yet still committed to their mission. Servicemembers 
look to their leaders to provide them with the tools to do the job, to 
enhance predictability, and to ensure that their families are cared 
for. Further, they look to their leaders to make sure their children 
are receiving a quality education and their spouses' career aspirations 
can be met. They look for signs from you that help is on the way, that 
their pay reflects the tasks they have been asked to do, and that their 
hard-earned benefits will continue to be available for themselves, 
their families, and their survivors, both now and into retirement.

    Senator Stevens. Our next witness is Donetta D'Innocenzo.

STATEMENT OF DONETTA D'INNOCENZO, PUBLIC POLICY 
            COMMITTEE, THE LEUKEMIA & LYMPHOMA SOCIETY
    Ms. D'Innocenzo. D'Innocenzo, Mr. Chairman.
    Senator Stevens. Public Policy Committee of the Leukemia & 
Lymphoma Society. Thank you very much.
    Ms. D'Innocenzo. Mr. Chairman, Senator Inouye: My name is 
Donetta D'Innocenzo and I am pleased to appear today to testify 
on behalf of the Leukemia & Lymphoma Society. During its 56 
year history, the society has been dedicated to finding a cure 
for blood-related cancers. That includes leukemia, lymphoma, 
and myeloma. The society has the distinction of being both the 
largest private organization dedicated to blood cancers and the 
Nation's second largest private cancer organization.
    We are pleased to report that impressive progress is being 
made in the treatment of many blood cancers. Over the last 20 
years there have been steady and impressive strides in the 
treatment of the most common form of childhood leukemia, and 
just 3 years ago a new therapy called Gleevec was approved for 
chronic myelogenous leukemia, which is a so-called targeted 
therapy that corrects the molecular defect that causes the 
disease and does so with few side effects.
    The Leukemia & Lymphoma Society is proud to have played a 
role in the development of this lifesaving therapy, but our 
mission is far from complete. There is much work still to be 
done and we believe the research partnership between the public 
and private sectors, as represented in the Department of 
Defense's congressionally directed medical research program is 
an integral part of that effort and should be strengthened.
    Hematological, or blood-related, cancers pose a serious 
health risk to all Americans. In 2005 more than 115,000 
Americans will be diagnosed with a form of blood-related cancer 
and almost 56,000 will die. The Leukemia & Lymphoma Society, 
along with its partners, the Lymphoma Research Foundation and 
the Multiple Myeloma Research Foundation, believe this type of 
medical research is particularly important to the Department of 
Defense for a number of reasons.
    First, research on blood-related cancers has significant 
relevance to the armed forces as the incidence of these cancers 
is substantially higher among individuals with chemical and 
nuclear exposure. Higher incidences of leukemia have long been 
substantiated in extreme nuclear incidents in both military and 
civilian populations, and recent studies have proven that 
individual exposure to chemical agents such as Agent Orange in 
the Vietnam war cause an increased risk of contracting lymphoid 
malignancies. In addition, bone marrow transplants were first 
explored as a means of treating radiation-exposed combatants 
and civilians following World War II.
    Second, research in blood-related cancers has traditionally 
pioneered treatments in other malignancies. This research 
frequently represents the leading edge in cancer treatments 
that are later applied to other forms of cancer. Chemotherapy 
and bone marrow transplants are two striking examples of 
treatments first developed in the blood cancers.
    From a medical research perspective, it is a particularly 
promising time to build a Department of Defense research effort 
focused on blood-related cancers. That relevance and 
opportunity were recognized over the last 4 years when Congress 
appropriated $4.5 million annually, a total of $18 million, to 
begin initial research into chronic myelogenous leukemia 
through the congressionally directed medical research program.
    As members of the subcommittee know, a noteworthy and 
admirable distinction of the congressionally directed medical 
research program (CDMRP) is its cooperative and collaborative 
process that incorporates the experience and expertise of a 
broad range of patients, researchers, and physicians in the 
field. Since the chronic myelogenous leukemia (CML) program was 
announced, members of the society, individual patient 
advocates, and leading researchers have enthusiastically 
welcomed the opportunity to become a part of this program.
    Unfortunately for us, $4.5 million does not go very far in 
medical research. Recognizing that fact and the opportunity 
this research presents, a bipartisan group of 34 Members of 
Congress have requested that the program be modestly increased 
to $15 million and be expanded to include all blood cancers, 
that is leukemias, lymphomas, and myeloma. This would provide 
the research community with the flexibility to build on the 
pioneering tradition that has characterized this field.
    Department of Defense research on other forms of blood 
cancers addresses the importance of preparing for civilian and 
military exposure to weapons being developed by several hostile 
nations and to aid in the march to more effective treatment for 
all who suffer from these diseases.
    We respectfully request inclusion of this in the 2006 
legislation. Thank you.
    [The statement follows:]

               Prepared Statement of Donetta D'Innocenzo

                              INTRODUCTION

    I am pleased to appear before the subcommittee today and testify on 
behalf of The Leukemia & Lymphoma Society (LLS).
    During its 56-year history, the Society has been dedicated to 
finding a cure for the blood cancers--leukemia, lymphoma, and myeloma. 
The Society has the distinction of being both the largest private 
organization dedicated to blood-related cancers and the Nation's second 
largest private cancer organization.
    Our central contribution to the search for a cure is providing a 
significant amount of the funding for basic and translational research 
in the blood cancers. In 2005, we will provide approximately $50 
million in research grants. In addition to our role funding research, 
we provide a wide range of services to individuals with the blood 
cancers, their caregivers, families, and friends through our 63 
chapters across the country. Finally, we advocate responsible public 
policies that will advance our mission of finding a cure for the blood 
cancers.
    We are pleased to report that impressive progress is being made in 
the treatment of many blood cancers. Over the last two decades, there 
have been steady and impressive strides in the treatment of the most 
common form of childhood leukemia, and the survival rate for that form 
of leukemia has improved dramatically.
    And just 3 years ago, a new therapy was approved for chronic 
myelogenous leukemia, a form of leukemia for which there were 
previously limited treatment options, all with serious side-effects. 
Let me say that more clearly, if 4 years ago your doctor told you that 
you had CML, you would have been informed that there were limited 
treatment options and that you should get your affairs in order. Today, 
those same patients have access to this new therapy, called Gleevec, 
which is a so-called targeted therapy that corrects the molecular 
defect that causes the disease, and does so with few side effects.
    LLS funded the early research on Gleevec, as it has contributed to 
research on a number of new therapies. We are pleased that we played a 
role in the development of this life-saving therapy, but we realize 
that our mission is far from complete. Many forms of leukemia, lymphoma 
and myeloma present daunting treatment challenges. There is much work 
still to be done, and we believe the research partnership between the 
public and private sectors--as represented in the Department of 
Defense's Congressionally Directed Medical Research Program--in an 
integral part of that effort and should be strengthened.

         THE GRANT PROGRAMS OF THE LEUKEMIA & LYMPHOMA SOCIETY

    The grant programs of the Society are in three broad categories: 
Career Development Grants, Translational Research Grants for early-
stage support for clinical research, and Specialized Centers of 
Research. In our Career Development program, we fund Scholars, Special 
Fellows, and Fellows who are pursuing careers in basic or clinical 
research. In our Translational Research Program, we focus on supporting 
investigators whose objective is to translate basic research 
discoveries into new therapies.
    The work of Dr. Brian Druker, an oncologist at Oregon Health 
Sciences University and the chief investigator on Gleevec, was 
supported by a translational research grant from the Society. Dr. 
Druker is certainly a star among those supported by LLS, but our 
support in this field is broad and deep. Through the Career Development 
and Translational Research Programs, we are currently supporting more 
than 500 investigators in 38 States and ten foreign countries.
    Our new Specialized Centers of Research grant program (SCOR) is 
intended to bring together research teams focused on the discovery of 
innovative approaches to benefit patients or those at risk of 
developing leukemia, lymphoma, or myeloma. The awards will go to those 
groups that can demonstrate that their close interaction will create 
research synergy and accelerate our search for new therapies, 
prevention, or cures.

                    IMPACT OF HEMATOLOGICAL CANCERS

    Despite enhancements in treating blood cancers, there are still 
significant research opportunities and challenges. Hematological, or 
blood-related, cancers pose a serious health risk to all Americans. 
These cancers are actually a large number of diseases of varied causes 
and molecular make-up, and with different treatments, that strike men 
and women of all ages. In 2005, more than 115,000 Americans will be 
diagnosed with a form of blood-related cancer and almost 56,000 will 
die from these cancers. For some, treatment may lead to long-term 
remission and cure; for others these are chronic diseases that will 
require treatments on several occasions; and for others treatment 
options are extremely limited. For many, recurring disease will be a 
continual threat to a productive and secure life.
    A few focused points to put this in perspective:
  --Taken together, the hematological cancers are fifth among cancers 
        in incidence and second in mortality.
  --Almost 700,000 Americans are living with a hematological malignancy 
        in 2005.
  --Almost 56,000 people will die from hematological cancers in 2005, 
        compared to 40,000 from breast cancer, 30,200 from prostate 
        cancer, and 56,000 from colorectal cancer.
  --Blood-related cancers still represent serious treatment challenges. 
        The improved survival for those diagnosed with all types of 
        hematological cancers has been uneven. The 5-year survival 
        rates are: Hodgkin's disease, 83 percent; Non-Hodgkin's 
        lymphoma, 53 percent; Leukemias (total), 45 percent; Multiple 
        Myeloma, 29 percent; Acute Myelogenous Leukemia, 14 percent.
  --Individuals who have been treated for leukemia, lymphoma, and 
        myeloma may suffer serious adverse events of treatment, 
        including second malignancies, organ dysfunction (cardiac, 
        pulmonary, and endocrine), neuropsychological and psychosocial 
        aspects, and quality of life.

                                 TRENDS

    Since the early 1970's, incidence rates for non-Hodgkin's lymphoma 
(NHL) have nearly doubled.
    For the period from 1973 to 1998, the death rate for non-Hodgkin's 
lymphoma increased by 45 percent, and the death rate for multiple 
myeloma increased by more than 32 percent. These increases occurred 
during a time period when death rates for most other cancers are 
dropping.
    Non-Hodgkin's lymphoma and multiple myeloma rank second and fifth, 
respectively, in terms of increased cancer mortality since 1973.
    Recent statistics indicate both increasing incidence and earlier 
age of onset for multiple myeloma.
    Multiple myeloma is one of the top ten leading causes of cancer 
death among African Americans.
    Despite the significant decline in the leukemia death rate for 
children in the United States, leukemia is still one of the two most 
common diseases that cause death in children in the United States.
    Lymphoma is the third most common childhood cancer.

                    CAUSES OF HEMATOLOGICAL CANCERS

    The causes of hematological cancers are varied, and our 
understanding of the etiology of leukemia, lymphoma, and myeloma is 
limited. Chemicals in pesticides and herbicides, as well as viruses 
such as HIV and EBV, play a role in some hematological cancers, but for 
most cases, no cause is identified. Researchers have recently published 
a study reporting that the viral footprint for simian virus 40 (SV40) 
was found in the tumors of 43 percent of NHL patients. These research 
findings may open avenues for investigation of the detection, 
prevention, and treatment of NHL. There is a pressing need for more 
investigation of the role of infectious agents or environmental toxins 
in the initiation or progression of these diseases.

                IMPORTANCE TO THE DEPARTMENT OF DEFENSE

    The Leukemia & Lymphoma Society, along with its partners in the 
Lymphoma Research Foundation and the Multiple Myeloma Research 
Foundation, believe this type of medical research is particularly 
important to the Department of Defense for a number of reasons.
    First, research on blood-related cancers has significant relevance 
to the armed forces, as the incidence of these cancers is substantially 
higher among individuals with chemical and nuclear exposure. Higher 
incidences of leukemia have long been substantiated in extreme nuclear 
incidents in both military and civilian populations, and recent studies 
have proven that individual exposure to chemical agents, such as Agent 
Orange in the Vietnam War, cause an increased risk of contracting 
lymphoid malignancies. In addition, bone marrow transplants were first 
explored as a means of treating radiation-exposed combatants and 
civilians following World War II.
    Secondly, research in the blood cancers has traditionally pioneered 
treatments in other malignancies. This research frequently represents 
the leading edge in cancer treatments that are later applied to other 
forms of cancer. Chemotherapy and bone marrow transplants are two 
striking examples of treatments first developed in the blood cancers.
    From a medical research perspective, it is a particularly promising 
time to build a DOD research effort focused on blood-related cancers. 
That relevance and opportunity were recognized over the last 4 years 
when Congress appropriated $4.5 million annually--for a total of $18 
million--to begin initial research into chronic myelogenous leukemia 
(CML) through the Congressionally Directed Medical Research Program 
(CDMRP). As members of the subcommittee know, a noteworthy and 
admirable distinction of the CDMRP is its cooperative and collaborative 
process that incorporates the experience and expertise of a broad range 
of patients, researchers and physicians in the field. Since the CML 
program was announced, members of the Society, individual patient 
advocates and leading researchers have enthusiastically welcomed the 
opportunity to become a part of this program and contribute to the 
promise of a successful, collaborative quest for a cure.
    Unfortunately, $4.5 million a year does not go very far in medical 
research. Recognizing that fact and the opportunity this research 
represents, a bipartisan group of 34 Members of Congress have requested 
that the program be modestly increased to $15 million and be expanded 
to included all the blood cancers--the leukemias, lymphomas and 
myeloma. This would provide the research community with the flexibility 
to build on the pioneering tradition that has characterized this field.
    DOD research on the other forms of blood-related cancer addresses 
the importance of preparing for civilian and military exposure to the 
weapons being developed by several hostile nations and to aid in the 
march to more effective treatment for all who suffer from these 
diseases. This request clearly has merit for inclusion in the fiscal 
year 2006 legislation.
    The Leukemia & Lymphoma Society strongly endorses and 
enthusiastically supports this effort and respectfully urges the 
committee to include this funding in the fiscal year 2006 Defense 
Appropriations bill.
    We believe that building on the foundation Congress initiated over 
the past 4 years would both significantly strengthen the CDMRP and 
accelerate the development of cancer treatments. As history has 
demonstrated, expanding its focus into areas that demonstrate great 
promise; namely the blood-related cancers of leukemia, lymphoma and 
myeloma, would substantially aid the overall cancer research effort and 
yield great dividends.

    Senator Stevens. We try each year to do our best on this. 
These are very serious diseases and you have the great support 
of members of this subcommittee. Whether we have the money to 
do it is getting to be another matter. But we will do our best. 
Thank you very much.
    Ms. D'Innocenzo. Thank you, Mr. Chairman.
    Senator Stevens. Senator Inouye.
    Senator Inouye. No, thank you.
    Senator Stevens. Our next witness is Patricia Goldman, 
President Emeritus, and Ian Volvner, Ovarian Cancer National 
Alliance. Good afternoon.

STATEMENTS OF:
        PATRICIA GOLDMAN, PRESIDENT EMERITUS, ON BEHALF OF THE OVARIAN 
            CANCER NATIONAL ALLIANCE
        IAN VOLVNER, ON BEHALF OF THE OVARIAN CANCER NATIONAL ALLIANCE

    Ms. Goldman. Thank you, Mr. Chairman and Senator Inouye. I 
am here today representing the Ovarian Cancer National Alliance 
along with Ian Volvner. We are a patient-led organization and 
we are here to give you our personal perspectives on this and 
our activities.
    I am a very lucky lady. I am a 12 year survivor of ovarian 
cancer, and I suppose it is unusual to say you are lucky to 
have had a cancer, but in my case, where in ovarian cancer over 
half of the people who get this every year do not survive the 
5-year mark with this.
    One should not have to be lucky to survive ovarian cancer, 
and one of the things we are very grateful for for the research 
program that I am here to support is the progress we are 
beginning to make. Unlike breast, colon, cervical, there is no 
detection test that is applied for ovarian cancer. One of the 
things you may have seen in recent news accounts--and these 
have grown directly out of the research that has come from 
that--are the announcements of various biomarkers. We are not 
there yet, but it is exciting that the research is beginning to 
promise that has come out of this program that there may be a 
way if we keep at this to detect ovarian cancer.
    As a further example, we formed this organization 8 years 
ago. A third of the founding board members, all in their 50s, 
have succumbed to the disease. So I think you get a sense of 
where we are with this.
    Despite, as I mentioned, the terrible toll, we are 
beginning to make some progress. I am privileged, in addition, 
to serve on, have served on both the scientific review panels 
and the peer review panels of this very well managed program, 
in which case the patient advocates, the scientists, and the 
clinical physician sit together to review the programs. We have 
begun to find not only the markers, but some clinical evidence 
that can be applied. So we are very grateful for this program, 
and we respectfully request that the program be continued as it 
has been in the form, both with the request of $50 million for 
this.
    I will submit the rest of my examples for the record if I 
may, and I thank you for that. I will turn to Mr. Volvner to 
have Ian give you his perspective on this from his own 
experience.
    Senator Stevens. Please do.
    Mr. Volvner. Mr. Chairman, Senator Inouye: I am here today 
because my family----
    Senator Stevens. Would you pull the mike up toward you, 
please.
    Mr. Volvner. I am here today because my family is a two-
time survivor of ovarian cancer. You do not know the terrible 
toll that this insidious disease takes on a family, and I 
cannot begin to try to explain it to you. What I can tell you 
is that the very real gains that Pat Goldman referred to that 
have been made as a result of the research performed under the 
Defense Department's cancer research program, ovarian cancer 
research program, made our second tour of duty, if you will, 
considerably easier than the first time my wife incurred this 
dreadful disease.
    The funding request that the Ovarian Cancer National 
Alliance has made is very modest. It is $15 million. The 
returns in terms of the relief of burden on the social system, 
on the health care program, on our country, are enormous, and 
in simple human terms. I really do not know that my wife would 
be here but for this program.
    So we thank you very much and we ask for your continued 
support of this very important but very modest financial 
program. Thank you.
    [The statements follow:]

       Prepared Statement of the Ovarian Cancer Research Program

                       STATEMENT OF IAN D. VOLNER

    Mr. Chairman and members of the committee, my name is Ian Volner, 
and I am a lawyer here in Washington, DC. Over the years, I have 
testified in my professional capacity before Congress on numerous 
occasions on a variety of public issues. This is only the second time I 
have testified in my personal capacity. On both occasions, I have 
appeared before this subcommittee to thank you for your support of the 
Department of Defense (DOD) Ovarian Cancer Research Program (OCRP) and 
urge your continued support. I do so because my wife, Martha, our two 
sons, and I have ``survived'' ovarian cancer--not once, but twice.
    The purpose of my testimony is to assure you that the monies you 
invested in the DOD Ovarian Cancer Research Program over the past 9 
years have been wisely spent. We ask, therefore, that the funding level 
for this vital and very successful program be set at $15 million for 
fiscal year 2006.
    I first testified in support of the OCRP before the subcommittee in 
May of 2000. Two weeks later, Martha was diagnosed, for the second 
time, with ovarian cancer. Our first battle with this insidious disease 
occurred in 1994. At that time, Martha's cancer was not detected until 
a very advanced stage; her chances of living 5 years was less than 1 in 
3, and our sons were aged 13 and 10. Despite the odds, Martha survived 
due to the skill and dedication of her physicians and, in no small 
measure, because of their courage and hers. In 1994, the diagnostic 
tools were imprecise, unreliable and costly. The chemotherapy Martha 
underwent was designated as experimental, and its efficacy and side 
effects were not well understood.
    The situation was measurably different when Martha was diagnosed 
with ovarian cancer for the second time, in late May of 2000. It was 
clear even then that the research being done under the auspices of this 
appropriation was bearing fruit. While the diagnostic tools were still 
imprecise, the medical professional better understood the strengths and 
weaknesses of the available tools. Treatment options had also improved. 
Thus, while skill, dedication and courage were still vitally important 
to Martha's survival of her second bout with ovarian cancer, it was 
clear to our family that the research conducted by the OCRP was 
beginning to have effects, both in its own terms and, no less 
importantly, in fostering the development of a sustained commitment to 
ovarian cancer research.
    While the OCRP has been funded at a constant level for the past 3 
fiscal years, progress in diagnostics and treatment of ovarian cancer 
has been made. For example, research funded by the OCRP has resulted in 
the identification of new biomarkers that have the potential to alert 
doctors to the presence of ovarian cancer at an early stage. This could 
mean that in the future, women will not be exposed to the risks of late 
stage diagnosis as my wife was in 1994. Similarly, because of research 
funded by the OCRP, new and more effective treatments for this 
insidious disease are in development. In the future, women should not 
have to undergo the long and exhausting chemotherapy regime that Martha 
was subjected to in 1994.
    There has been little or no improvement in the survival rate for 
women who are diagnosed at a late stage. This disease moves with 
daunting speed, and the mortality rates are alarming. Due to the 
funding limits for this program, many research projects rated as 
outstanding or excellent have not been funded. Even a modest increase 
in funding would help to further the progress that has been made.
    When the subcommittee views the work that has been accomplished by 
the program in our written statements, I am sure it will agree that the 
money Congress appropriates for OCRP is being well spent. In some, 
perhaps immeasurable but nonetheless clear way, Martha is with us 
today--and is able to attend the graduation of each of her sons (now 24 
and 21) from college--thanks to this program. The human, economic and 
social returns of the modest investment in this program are enormous. 
As a proxy for the millions of women who will benefit from that 
investment, I urge the committee to appropriate $15 million for the 
Ovarian Cancer Research Program for fiscal year 2006.
    I want to thank the members of the subcommittee for the opportunity 
to testify at this important hearing today. I know it has been a long 
day for you. I am ready to answer any questions you may have.

                     STATEMENT OF PATRICIA GOLDMAN

    Senator Stevens, members of the subcommittee on Defense 
Appropriations, I am here today representing the Ovarian Cancer 
National Alliance (the Alliance), a patient-led organization that works 
to increase public and professional understanding of ovarian cancer and 
advocates for increased resources to support research on more effective 
ovarian cancer diagnostics and treatments. I thank you for the 
opportunity to submit comments for the record and to give you my very 
personal perspective on the program you are reviewing.
    I am a very lucky lady. I am a 12-year survivor of ovarian cancer--
the deadliest of all gynecologic cancers. I am lucky because I am one 
of the rare women whose cancer was detected in an early and curable 
stage. Currently, more than half of the women diagnosed with ovarian 
cancer will die within 5 years of diagnosis. Therefore, I am here 
representing thousands of women who could not be here. One shouldn't 
have to be ``lucky'' to survive ovarian cancer.
    Because of extensive research and generous, sustained Federal 
investments, it is possible to diagnose and successfully treat many 
forms of cancer like breast, colon and prostate. Unfortunately, that is 
not yet the case for ovarian cancer. There is no screening test for 
ovarian cancer and few standard treatments. Federal programs for 
ovarian cancer continue to receive flat line funding for their already 
minimal budgets. In the 8 years since the Alliance was founded, a third 
of our founding board members have died and three more are being 
treated for a recurrence of their disease.
    The discouragement of this death toll is balanced by the hope 
engendered by the progress we are making through research to fulfill 
the mandate of the program you are reviewing today. Because of the 
Federal investment in the DOD Ovarian Cancer Research Program, 
researchers are identifying the mechanisms by which ovarian cancer is 
initiated in the body and how the disease spreads. The research 
community is also tantalizingly close to identifying a reliable and 
easily administered screening test, an achievement that could 
dramatically impact survival rates.
    I have been privileged to serve as a patient advocate on both the 
scientific and peer review panels for this program. One of the 
program's mandates is to attract new researchers to the field, and it 
has been encouraging to see the increase in the numbers of young 
research scientists who are dedicating themselves to ovarian cancer 
research. Yet, as a reviewer, I have been discouraged to see an 
expanding number of worthwhile research proposals that have been 
unfounded due to flat funding for the program over the past 3 years.
    In the testimony I am submitting for the record, I have recounted 
the accomplishments of this excellent program. I believe the program 
has followed Congress's directives directly and completely, which makes 
a strong case for it to be continued. For that reason the Alliance 
respectfully requests the subcommittee to provide $15 million for the 
program in fiscal year 2006. Thank you, Senator.

       OVARIAN CANCER NATIONAL ALLIANCE STATEMENT FOR THE RECORD

Ovarian Cancer's Deadly Toll
    According to the American Cancer Society, in 2005, more than 22,000 
American women will be diagnosed with ovarian cancer, and approximately 
16,000 will lose their lives to this terrible disease. Ovarian cancer 
is the fourth leading cause of cancer death in women. Currently, more 
than half of the women diagnosed with ovarian cancer will die within 5 
years. Among African American women, only 48 percent survive 5 years or 
more. When detected early, the 5-year survival rate increases to more 
than 90 percent, but when detected in the late stages, as are most 
diagnoses, the 5-year survival rate drops to 28 percent.
    Today, it is both striking and disheartening to see that despite 
progress made in the scientific, medical and advocacy communities, 
ovarian cancer mortality rates have not significantly improved during 
the past decade, and a valid and reliable screening test--a critical 
tool for improving early diagnosis and survival rates--still does not 
yet exist for ovarian cancer. Behind the sobering statistics are the 
lost lives of our loved ones, colleagues and community members. While 
we have been waiting for the development of an effective early 
detection test--thousands of our sisters have lost their battle to 
ovarian cancer.
    Women should not have to rely on luck for their survival. Research 
must continue on this disease through all possible avenues, building a 
comprehensive knowledge of its symptoms, causes and treatments. All 
women should have access to treatment by a specialist. All women should 
have access to a valid and reliable screening test. We must deliver new 
and better treatments to patients and the health care professionals who 
treat them. The Ovarian Cancer Research Program at DOD has begun to 
tackle the multiple gaps in our knowledge of this deadly disease, 
providing a growing baseline understanding of ovarian cancer.
The Ovarian Cancer Research Program at the Department of Defense
    Over the past 9 years, Congress has appropriated funds to support 
the Ovarian Cancer Research Program at DOD, which is modeled after the 
successful breast cancer program first included in the DOD budget in 
1992. The Ovarian Cancer Research Program supports innovative, 
integrated, multidisciplinary research efforts that will lead to better 
understanding, detection, diagnosis, prevention, and control of ovarian 
cancer. The program shares the Alliance's mission and objective of 
reducing and preventing--and eventually--eliminating ovarian cancer.
    Awards made by the Ovarian Cancer Research Program are designed to 
stimulate research that will attract new investigators into the field, 
challenge existing paradigms, and support collaborative ventures, 
including partnerships with private and public institutions. Research 
awards are determined using a two-tier review process of peer and 
programmatic review that ensures scientific merit and attainment of 
program goals. The two-tier process is the hallmark of the 
Congressional Directed Medical Research Programs (CDMRP) and 
increasingly has served as a model for research programs throughout the 
world. Another important element in the execution of the Ovarian Cancer 
Research Program is the collaboration of advisors from the scientific, 
clinical, and consumer communities in the program. These advisors 
provide important guidance regarding funding strategies and serve on 
both levels of review.
    In addition, the Ovarian Cancer Research Program has developed a 
funding strategy to complement awards made by other agencies and has 
taken steps to ensure that the duplication of long-term basic research 
supported by the National Institutes of Health is avoided. Importantly 
the program offers several awards that specifically seek to fill gaps 
in ongoing research and complement initiatives sponsored by other 
agencies.
    Like all of the CDMRP Programs at DOD, the Ovarian Cancer Research 
Program serves as an international model in administrative efficiency 
for research programs. Integrating the latest technology and 
communications, the Ovarian Cancer Research Program only has a 5.64 
percent management cost. The program has a quick turnaround time of 6 
months from the initial proposal review (including two-tier review), to 
distribution of funds to investigators--speeding up the process of 
study concept to research conclusion.
Scientific Achievements of the Ovarian Cancer Research Program
    Since its inception, the Ovarian Cancer Research Program at DOD has 
developed a multidisciplinary research portfolio that encompasses 
etiology, prevention, early detection/diagnosis, preclinical 
therapeutics, quality of life, and behavioral research projects. The 
Ovarian Cancer Research Program strengthens the Federal Government's 
commitment to ovarian cancer research and supports innovative and novel 
projects that propose new ways of examining prevention, early detection 
and treatment. The program also attracts new investigators into ovarian 
cancer research and encourages proposals that address the needs of 
minority, elderly, low-income, rural and other commonly 
underrepresented populations.
    The program's achievements have been documented in numerous ways, 
including 131 publications in professional medical journals and books; 
169 abstracts and presentations given at professional meetings; and six 
patents, applications and licenses granted to awardees of the program. 
The program has also introduced and supported 33 new investigators in 
the field of ovarian cancer research.
    Investigators funded through the Ovarian Cancer Research Program 
have yielded several crucial breakthroughs in the study of prevention 
and detection, including:
  --Recognition of the role of the progestins, hormonal components 
        found in oral contraceptives, as a key agent in reducing the 
        risk of ovarian cancer;
  --Identification of several new biomarkers that have the potential to 
        alert health care providers to the presence of early stage 
        ovarian cancer, and be used to develop an early detection tool 
        which would significantly improve early detection and survival; 
        and
  --Discovery of three new agents that inhibit tumor growth and 
        spreading, as well as new blood vessel formation 
        (angiogenesis)--a development that will result in new and more 
        effective treatments.
Increased Investment Needed
    In fiscal year 2005, the Ovarian Cancer Research Program received 
222 proposals, but due to resource limitations, was only able to fund 
17 awards. The program has received $10 million for the past 3 years 
and when inflation is taken into account, the allocation of $10 million 
actually represents an overall diminished level of funding. With new 
funding, the Ovarian Cancer Research Program can support new grants, 
provide funding to promising young investigators, and allocate 
additional resources to grants that should be extended or renewed.
    The Ovarian Cancer Research Program has helped leverage and 
maximize both public and private sector funding. Awardees have cited 
DOD support as an impetus for the maturation of clinical trials, which 
led to an increase of locally funded ovarian cancer grants.
    The fiscal year 1998-fiscal year 2003 awards have led to the 
recruitment of more than 33 new investigators into the ovarian cancer 
research field. Additionally, the Fox Chase Cancer Center in 
Philadelphia and the Fred Hutchinson Cancer Research Center in Seattle 
reported that the progress made during the first year of their DOD 
Program Project Awards enabled both institutions to successfully 
compete for National Cancer Institute SPOREs (Specialized Programs of 
Research Excellence) Awards to fund additional long-term ovarian cancer 
research.
    Despite progress made, we still do not fully understand the risks 
factors, symptoms and causes of ovarian cancer. No effective screening 
tool exists to detect the disease at early stages and the devastating 
mortality rates remain the same year after year. The DOD Ovarian Cancer 
Research Program is developing science and scientists to help us 
achieve the necessary breakthroughs desperately needed in the field of 
ovarian cancer. Biomedical research--particularly in such insidious and 
complex conditions as ovarian cancer--requires a sustained, long-term 
investment and commitment in order to make significant gains. The 
investment the Congress and the DOD have made in the Ovarian Cancer 
Research Program to date is appreciated and has helped move the field 
forward; however, without new resources the program will be unable to 
maintain the status quo--let alone continue to reap benefits from 
previous and current Federal investments.
Summary and Conclusion
    As an umbrella organization with 46 State and local groups, the 
Alliance unites the efforts of more than 500,000 grassroots activists, 
women's health advocates, and health care professionals to bring 
national attention to ovarian cancer. As part of this effort, the 
Alliance advocates sustained Federal investment in the Ovarian Cancer 
Research Program at DOD. The Alliance respectfully requests the 
subcommittee to provide $15 million for the program in fiscal year 
2006.
    The Alliance maintains a longstanding commitment to work with 
Congress, the administration, and other policymakers and stakeholders 
to improve the survival rate from ovarian cancer through education, 
public policy, research, and communication. Please know that we 
appreciate and understand that our Nation faces many challenges, and 
Congress has limited resources to allocate; however, we are concerned 
that without increased funding to bolster and expand ovarian cancer 
research efforts, the Nation will continue to see growing numbers of 
women losing their battle with this terrible disease. Thank you for 
your consideration of our views and for supporting increased funding 
for the DOD Ovarian Cancer Research Program in fiscal year 2006.
    On behalf of the entire ovarian cancer community--patients, family 
members, clinicians and researchers--we thank you for your leadership 
and support of Federal programs that seek to reduce and prevent 
suffering from ovarian cancer.
    Material in this testimony was partly taken from the 
Congressionally Directed Medical Research Program's Ovarian Cancer 
program Web site at http://cdmrp.army.mil.

    Senator Stevens. Thank you very much. We appreciate your 
testimony.
    Senator Inouye.
    Senator Inouye. Most people do not realize this, but a very 
significant number of Members of the Senate or members of their 
immediate family have been afflicted by this terrible, terrible 
disease one way or the other.
    Ms. Goldman. I am aware. I did not specify this in 
particular, but we all know in fact one of the Senators' wife 
is experiencing a recurrence again of her disease, which I am 
sure is what you are referring to.
    Senator Stevens. Despite differences, it is a very close 
family. We all know that.
    Ms. Goldman. Indeed.
    Senator Stevens. Thank you very much.
    Ms. Goldman. Thank you.
    Senator Stevens. The next witness is Brigadier General 
Stephen Koper, President of the National Guard Association. It 
is nice to have you back, General.

STATEMENT OF BRIGADIER GENERAL STEPHEN KOPER, U.S. AIR 
            FORCE (RETIRED), PRESIDENT, NATIONAL GUARD 
            ASSOCIATION OF THE UNITED STATES
    General Koper. I thank you, Mr. Chairman. Chairman Stevens, 
members of the subcommittee, thank you for this opportunity to 
testify today. You have always been champions of the citizen-
soldier and citizen-airman and the National Guard Association 
(NGAUS) thanks you for your many years of outstanding support. 
This subcommittee is well versed in the contributions being 
made by the members of the National Guard in Operation Iraq, 
Afghanistan, and the global war on terror.
    As the Secretary of Defense has said repeatedly, the war on 
terror could not be fought without the National Guard. Battles 
would not be won, peace would not be kept, and sorties would 
not be flown without the citizen-soldier and citizen-airmen. We 
are asking on their behalf for the resources necessary to allow 
them to continue to serve the Nation.
    At the top of that list of resources is access to health 
care. The National Guard Association believes every member of 
the National Guard should have the ability to access TRICARE 
coverage on a cost-share basis regardless of duty status. While 
we are encouraged by the establishment of TRICARE Reserve 
Select, which is a program where members earn medical coverage 
through deployments, we do not believe it goes far enough.
    Health care coverage for our members is a readiness issue. 
If the Department of Defense expects Guard members to maintain 
medical readiness, then it follows that they should also have 
access to health care. As you know, when a National Guardsman 
is called to full-time duty he or she is expected to report 
ready for duty. Yet studies show that a significant percentage 
of our members do not have access to health care. Making 
TRICARE available to all members of the National Guard on a 
cost-share basis would provide a solution to this problem and 
it would finally end the turbulence visited on soldiers and 
their families who are forced to transition from one health 
care coverage to another each time they answer the Nation's 
call.
    In addition to addressing readiness concerns, access to 
TRICARE will also be a strong recruitment and retention 
incentive. In an increasingly challenging recruitment and 
retention environment, TRICARE could make a significant 
difference. Part-time civilian Federal employees are eligible 
to participate in Federal health insurance programs. NGAUS 
believes that National Guard members should receive at a 
minimum the opportunity afforded to other Federal part-time 
employees.
    Another issue of serious concern is full-time manning for 
the Army National Guard. For many years the Army National Guard 
full-time manning has been funded at approximately 58 percent 
of the validated requirements. All other Reserve components are 
manned at significantly higher levels. Recognizing this 
disparity, Congress, the Army, and the Army National Guard 
agreed to increase the Army Guard's full-time manning to a 
level of 71 percent by 2012. This increase was to be obtained 
through gradual increases in Active Guard and Reserve (AGR) and 
technician end strength. However, the wars in Iraq and 
Afghanistan have further exacerbated the problem as it is the 
full-time staff that bears the bulk of the increased workload 
associated with mobilization.
    Consequently, we believe acceleration in the ramp is 
warranted. NGAUS believes there is a requirement to reach the 
71 percent full-time level by 2010 versus the current target of 
2012. This would require an increase in fiscal year 2006 of $12 
million for an additional 292 AGRs and $6.2 million for 195 
military technicians. Obviously, our ultimate goal is to reach 
100 percent of validated requirements, and sooner rather than 
later.
    NGAUS is also very concerned about equipment for the Army 
National Guard. When Army National Guard gets deployed to Iraq 
they deploy with their equipment. In most cases this equipment 
remains in theater when the unit returns home. The end result 
is that units cannot adequately train for the next rotation and 
they may not be equipped to meet an emergency at home, whether 
it is a natural disaster or terrorist act.
    High on the priority list of Army Guard equipment 
shortfalls is the Humvee. The Army National Guard is critically 
short more than 13,000 of the nearly 42,000 vehicles required. 
In Alaska the Army Guard has only 62 of the 151 vehicles 
required, leaving the State 41 percent short of requirements.
    The current President's budget request does not fully 
address the National Guard shortfall. Also, we understand there 
is money for Humvees in the supplemental, but it is not clear 
how much of the funds will go to provide equipment for the Army 
National Guard. NGAUS urges Congress to continue to support 
funding for Humvees and to ensure that the Army takes the needs 
of the Guard into consideration while procuring these vehicles. 
NGAUS also encourages the subcommittee to continue to support 
the procurement of up-armored Humvees for the Guard. While the 
Army has made a valiant commitment to procure armored Humvees 
for use in theater, we also recognize the need for up-armored 
vehicles for the homeland defense mission. Congress needs to 
provide additional earmarked funds to guarantee continued 
armored vehicle production.
    Army Guard aviation is also a top priority. The extremely 
high operational tempos of our Operation Enduring Freedom and 
Iraqi Freedom have increased the demand for aviation assets. 
For Guard units, aviation assets are also critical for many 
State missions. HH-60 medevac units continue to have the 
highest operational tempo of any fixed wing or rotary aircraft 
in theater today and NGAUS requests the committee favorably 
consider funding the UH-60s and medevac aircraft.
    Mr. Chairman, I submitted testimony earlier and I have 
revised my closing remarks and I would like to skip to that now 
if I may. In closing, I will address a serious concern we have 
regarding the Air Force Future Total Force, FTF, concept. With 
the release of DOD's BRAC list on May 13, our worst fears for 
the future of the Air National Guard have been confirmed. The 
Future Total Force was developed over the course of the last 2 
years, cloaked in secrecy, and it did not include the adjutants 
general from its inception.
    When reports of the direction and scope of the Air Force 
plan began to surface in the Guard community, the adjutants 
general individually and collectively expressed their concerns. 
Those concerns were dismissed. The adjutants general were 
finally admitted collectively to the process in October 2004.
    Concurrently, the 2005 BRAC process provided an 
opportunity, again secure from scrutiny and debate, for the Air 
Force to carry out a reduction of fighter, transport, and 
tanker force structure in the Air National Guard without 
benefit of a detailed follow-on mission plan. It even spawned a 
new category of BRAC action for the Air National Guard called 
``enclaved.'' In layman's terms, that means the unit aircraft 
have been removed but the personnel will either stay, commute 
to a new base, or leave the force.
    Now the challenge of airing out the full impact of FTF has 
been dumped on the doorstep of the Congress and the BRAC 
Commission. Our concerns include the question as to whether the 
2005 BRAC will meet the requirements of the 2005 quadrennial 
defense review (QDR), or will the QDR merely be written to 
support the BRAC? Why not offer the continued upgrade of F-15 
and F-16 aircraft and their systems that will have relevance 
well into the 2020s as an informed alternative to increased 
buys of new weapons platforms?
    The enclaved units will threaten our ability to maintain a 
skilled and stable workforce. While the active Air Force can 
routinely move its personnel assets to follow its weapons 
systems, we see the potential for severe personnel losses 
because of their traditional ties to a community. It is the 
cornerstone of the militia.
    Our members fully understand the need to modernize the Air 
Force, but we want to make sure that it is done in a prudent 
manner that will best protect the interests of the Nation. We 
will continue to urge the Congress and the BRAC Commission to 
closely scrutinize these initiatives to ensure that decisions 
regarding Air National Guard force structure are based on sound 
strategic principles.
    Mr. Chairman, members of the subcommittee, I sincerely 
thank you for your time today and I am happy to answer any 
questions.
    Senator Stevens. Thank you very much.
    [The statement follows:]

    Prepared Statement of Brigadier General (Ret.) Stephen M. Koper

    Chairman Stevens, members of the committee, thank you for this 
opportunity to testify today. You have always been champions of the 
citizen soldier and citizen airman and the National Guard Association 
thanks you for your many years of outstanding support.
    This committee is well versed in the contributions being made by 
members of the National Guard in operations in Iraq, Afghanistan and 
the Global War on Terror. As the Secretary of Defense has said 
repeatedly, ``The War on Terror could not be fought without the 
National Guard''. Battles would not be won, peace would not be kept and 
sorties would not be flown without the citizen soldier and citizen 
airman. We are asking on their behalf for the resources necessary to 
allow them to continue to serve the Nation.
    At the top of that list of resources is access to health care. The 
National Guard Association believes every member of the National Guard 
should have the ability to access TRICARE coverage, on a cost-share 
basis, regardless of duty status.
    While we are encouraged by the establishment of TRICARE Reserve 
Select, which is a program where members ``earn'' medical coverage 
through deployments, we don't believe it goes far enough. Healthcare 
coverage for our members is a readiness issue. If the Department of 
Defense expects Guard members to maintain medical readiness, then it 
follows that they should also have access to healthcare. As you know, 
when a National Guardsman is called to full time duty, he or she is 
expected to report ``ready for duty''. Yet, studies show that a 
significant percentage of our members do not have access to healthcare. 
Making TRICARE available to all members of the National Guard, on a 
cost-share basis, would provide a solution to this problem. And, it 
would finally end the turbulence visited on soldiers and their families 
who are forced to transition from one healthcare coverage to another 
each time they answer the Nation's call.
    In addition to addressing readiness concerns, access to TRICARE 
would also be a strong recruitment and retention incentive. In an 
increasingly challenging recruiting/retention environment, TRICARE 
could make a significant difference. Part-time civilian Federal 
employees are eligible to participate in Federal health insurance 
programs. NGAUS believes that National Guard members should receive, at 
a minimum, the opportunity afforded other Federal part-time employees.
    Currently in the Senate, Senator Lindsey Graham and Senator Hillary 
Clinton, have co-sponsored a bill which would provide TRICARE, on a 
cost-share basis, to every member of the National Guard. NGAUS fully 
supports this bill, and asks the members of the committee to do the 
same by including the cost for this program in the Appropriations mark-
up.
    Another issue of serious concern is full time manning for the Army 
National Guard. For many years the Army National Guard full time 
manning has been funded at approximately 58 percent of the validated 
requirements. All other reserve components are manned at significantly 
higher levels.
    Recognizing this disparity, the Congress, the Army and the Army 
National Guard agreed to increase the Army Guard's full time manning to 
a level of 71 percent by 2012. This increase was to be attained through 
gradual increases in AGR and technician end strength.
    However, the wars in Iraq and Afghanistan have further exacerbated 
the problem since it is the full time staff that bears the brunt of the 
increased work load associated with mobilization. Consequently, we 
believe acceleration in the ramp is warranted.
    The National Guard Association of the United States believes there 
is a requirement to reach the 71 percent full-time manning level by 
2010 versus the current target of 2012. This would require an increase 
in fiscal year 2006 of $12 million for an additional 292 AGRs and $6.2 
million for 195 military technicians. Obviously, our ultimate goal is 
to reach 100 percent of validated requirements and sooner, rather than 
later.
    NGAUS is also very concerned about equipment for the Army National 
Guard. When Army National Guard units deploy to Iraq, they deploy with 
their equipment. In most cases, this equipment remains in theater when 
the unit returns home. The end result that units cannot adequately 
train for the next rotation, and they may not be equipped to meet an 
emergency at home, whether it is a natural disaster or terrorist 
attack.
    High on the priority list of Army Guard equipment shortfalls is the 
HMMWV. The ARNG is critically short 13,581 of the nearly 42,000 
vehicles required. In Alaska, the Army Guard has only 62 of the 151 
vehicles required, leaving the State 41 percent short of its 
requirements. The current President's Budget request does not fully 
address the National Guard's shortfall. Also, we understand there is 
money for HMMWVs in the supplemental but it is not clear how much of 
the funds will go to provide equipment for the Army National Guard. The 
National Guard Association of the United States urges the Congress to 
continue to support funding for HMMWVs and to insure that the Army 
takes the needs of the Guard into consideration when procuring these 
vehicles.
    NGAUS also encourages the committee to continue to support the 
procurement of Up-Armored HMMWVs for the Guard. While the Army has made 
a valiant commitment to procure Up-Armored HMMWVs for use in theater, 
we also recognize a need for Up-Armored vehicles fort the Homeland 
Defense mission. Congress needs to provide additional earmarked funds 
to guarantee continued armored vehicle production until all deployed 
combat units have properly armored vehicles and Army National Guard Up-
Armored HMMWV requirements inside the United States are backfilled.
    Army Guard aviation is also a top priority. The extremely high 
operational tempos of Operation Enduring Freedom and Operation Iraqi 
Freedom have increased the demand for aviation assets while the 
environment and enemy conditions have reduced the number of aircraft. 
For Guard units, aviation assets are also critical for many State 
missions. HH-60 MEDEVAC units continue to have the highest operational 
tempo of any fixed wing or rotary aircraft in theater today.
    NGAUS requests that the committee favorably consider funding for 
UH-60s and MEDEVAC aircraft.
    On the Air Guard side, our equipment needs are also directly tied 
to operations in Iraq and Afghanistan. As you know, the C-130 is the 
workhorse of the Air Force, and a large segment of that force resides 
in the Air National Guard. These aircraft are vulnerable to enemy 
attack when flying in hostile areas. One of the primary threats is the 
proliferation of shoulder fired infrared missiles.
    LAIRCM, Large Aircraft Infrared Countermeasures, would provide 
added protection from infrared missiles to C-130 crews flying in 
hostile areas. We are requesting $34.5 million for LAIRCM for the ANG 
C-130 fleet.
    Thanks to the Congress, one of the greatest Air Guard success 
stories is the procurement of targeting pods for fighter aircraft. 
Money added by the Congress over the past several years has enabled the 
Air Guard to be on the front line of air operations in Iraq. To 
continue this successful program, we are requesting an appropriation 
for an additional 15 pods in fiscal year 2006.
    This committee has always been particularly sensitive to the 
equipment needs of the National Guard and generous in funding the 
National Guard and Reserve Equipment Account. Mr. Chairman, each and 
every dollar that has been appropriated over the years in the account 
has purchased combat capability. This account is absolutely essential 
to both the Army and Air National Guard and we thank you for your 
continued support of NGREA.
    Chairman Stevens, I've highlighted some of the top procurement 
items which are urgently needed by the Army Guard and the Air Guard, 
but unfortunately, that is not an exhaustive list. Your professional 
staff has graciously agreed to meet with us and we will discuss 
additional Guard equipment requirements with them.
    In closing, I will address a serious concern we have regarding the 
Air Force's Future Total Force concept. We urge the Congress to closely 
scrutinize this initiative to ensure that decisions regarding Air 
National Guard force structure are based on sound strategic principles.
    Over the past several years, the Congress has wisely invested money 
in upgrading the Air Guard's F-16 fleet to keep it relevant well into 
the 2020's. Faced with a growing deficit and a turbulent world, it 
seems imprudent to send capable aircraft to the bone yard. Yet, this is 
what we fear the Air Force is planning to do when in fact we believe 
they should be fully utilizing all the resources which the tax payers 
have already funded.
    The Air National Guard has been at the forefront of providing the 
air defense of the Nation, as well as playing a major role in the Air 
Expeditionary Force. Yet, the Air Force has not fully addressed how it 
will meet these mission requirements with a significantly reduced Air 
Guard fighter force.
    NGAUS believes the Air Force should provide details to the Congress 
on how it intends to meet critical national defense requirements at the 
same time it plans to drawdown significant amounts of Air Guard fighter 
force structure.
    Our members fully understand the need to modernize the Air Force, 
but we want to make sure that it is done in a prudent manner that will 
best protect the interests of national defense. We hope that Congress 
will continue to ask the Air Force for more details as the plan 
unfolds.
    Mr. Chairman, members of the committee, I sincerely thank you for 
your time today and am happy to answer any questions.

    Senator Stevens. Senator Bond has come in, General, and I 
want to recognize Senator Bond. He came particularly on notice 
that we gave him you would be here.
    Senator Bond. Thank you very much, Mr. Chairman, Senator 
Inouye. I had an Intelligence hearing, but this was so 
important, and I very much appreciate your having Brigadier 
General Koper, President of the National Guard Association, 
speaking out about his concerns relating to the BRAC report.
    As you know from previous sessions we have had with the 
Secretary of Defense and the chief, Joint Chiefs of Staff, the 
Chairman of the Joint Chiefs of Staff, I had concerns prior to 
the release and now I think what General Koper has just cited 
is something that should be read by every Member of the United 
States Congress. When he said the Future Total Force was 
developed over the course of the last 2 years cloaked in 
secrecy and did not include the adjutants general from its 
inception, well, I think that is accurate. It appears that the 
Pentagon had its mind made up, and there are very, very 
significant implications for maintaining the civilian force, 
the civilian fighters that we have so often relied on and now 
rely on for 50 percent of the force in Iraq.
    As I said, I raised these concerns 2 months ago. 
Unfortunately, those concerns and the concerns expressed by the 
Guard leaders were ignored. The result is a BRAC list that is 
absolutely stunning. It will eliminate over one-third of the 
Air Guard's aviation assets. In the tactical air forces 
(TACAIR) alone there would be 12 F-16 wings and 3 F-15 wings 
gone, poof. It would adversely impact, as the General said, 
community basing concept the Guard relies so heavily upon in 
recruiting and retention. In an area that I do not know that we 
have adequately touched on, it would adversely compromise our 
Nation's ability to defend the skies over our homeland, because 
it ignores the very significant role that the Air National 
Guard provides in the homeland defense mission, specifically 
the conduct of Operation Noble Eagle.
    Finally, I think it shortsightedly undermines the Air 
Guard's proven, effective, and invaluable expeditionary role. 
If we continue to shortchange the Guard, if we treat them as an 
unwanted stepchild, particularly in this Future Total Force of 
our air assets--and I made a freudian slip last hearing when I 
called it a ``feudal total force.'' I did not mean to do that, 
but unfortunately my words have appeared to come true.
    I have asked the chairman of the BRAC Commission to hold a 
hearing in St. Louis, where I hope to discuss the shortfalls of 
the Pentagon's BRAC plan and try to work with my colleagues who 
also share my concern about and commitment to the National 
Guard, the Pentagon's plan irreparably harming the Air National 
Guard.
    Mr. Chairman, I would just pose one question to the General 
if it is appropriate now.
    Senator Stevens. Yes, sir.
    Senator Bond. In your view, General, were Guard leaders 
allowed a substantive role in the planning of the Future Total 
Force strategy, and if not what is the impact on the Guard of 
the BRAC process? What are your conclusions from these actions 
and the results?
    General Koper. Mr. Chairman, Senator Bond, as I said in my 
closing remarks, it is the view of the adjutants general that 
collectively they were not included in the development of the 
Future Total Force from its inception. They were fed bits and 
pieces, and not until October 2004 did they manage to get some 
regular representation in the general officer steering 
committee on Future Total Force.
    With respect to BRAC, the BRAC, as I also earlier 
indicated, is by its very nature a process which deals in 
confidentiality. The adjutants general were not a player in the 
gathering of facts with respect to units of the Army and Air 
National Guard.
    I would say this to you, however. The Army National Guard, 
as all of you are well aware, is loaded down with terribly 
outdated facilities in armories across the country. The Army 
National Guard and the Army full well recognize that the 
military construction process is never going to be able to 
solve that issue. The Army and the Army National Guard have 
come up with a rather creative plan to utilize the BRAC process 
to close and consolidate a large number of those kinds of 
installations. It probably makes good sense.
    So with respect to the Army National Guard, I believe there 
was at least some long-term general conversations between State 
adjutants general about Army National Guard facilities, not an 
official part of the BRAC process because they don't have an 
active role in that.
    On the Air National Guard side, the adjutants general that 
I have spoken to since the release of the list on Friday are 
finding out things that of course they did not know. So we have 
only had since Friday to determine the full impact of that, but 
we will be continuing to do that.
    Senator Stevens. Thank you very much.
    Senator Inouye.
    Senator Inouye. I am glad to learn that they consulted with 
the Army National Guard.
    General Koper. You bet. And I would add, sir, that as a 
former blue suiter I am a little embarrassed. We have had a 
reputation for a great relationship and we are at a total loss 
to determine why this has come about.
    Senator Stevens. Yes, General, and we are at a loss to 
understand how this relates to the Total Force Concept, this 
movement of forces to the South and to the East, particularly 
with the almost denuding of the forces that face the Pacific. 
Very difficult for us to understand. We intend to go into it 
pretty deeply here soon. We have some other problems ahead of 
us right now, but as soon as we can start scheduling some 
hearings we are going to schedule some hearings on this process 
and listen to some people.
    I am not sure there is much we can do about it, now the 
BRAC process has started, except to try to enlighten the BRAC 
people themselves. I think we should do that.
    So we thank you for your contribution.
    General Koper. Thank you, Mr. Chairman.
    Senator Stevens. Our next witness is Mary Ann----
    Ms. Guerra. Guerra.
    Senator Stevens. Guerra, thank you. Vice President, 
Research Operations, for Translational----
    Ms. Guerra. Genomics Research Institute, TGen. We call it 
``TGen'' for short.
    Senator Stevens. My eyes hurt today. Maybe you can tell me 
a little bit of research about that.

STATEMENT OF MARY ANN GUERRA, SENIOR VICE PRESIDENT FOR 
            RESEARCH OPERATIONS, TRANSLATIONAL GENOMICS 
            RESEARCH INSTITUTE, ON BEHALF OF THE 
            NATIONAL PROSTATE CANCER COALITION
    Ms. Guerra. Good afternoon, Mr. Chairman, Senator Inouye. 
It is a pleasure to be here this afternoon. Thank you for your 
time.
    I enthusiastically offer testimony on behalf of the 
National Prostate Cancer Coalition. From 1994 to 2001 I served 
as the Deputy Director for Management of the National Cancer 
Institute (NCI), where I watched this prostate cancer program 
grow, launch, and flourish. I also recently served on the 
congressionally sponsored Institute of Medicine panel that was 
asked to evaluate alternative funding strategies that could 
leverage DOD research programs.
    My organization, TGen, is a leading private sector 
biomedical research institute focused on identifying genes that 
can quickly be translated into diagnostics and therapeutics to 
serve the American public to improve health. Thus, these 
combined career experiences have made me a congressionally 
directed medical research program (CDMRP) convert and a strong 
supporter of the prostate cancer research program (PCRP), 
because they fill a research niche that is not served by other 
programs, including the NCI.
    These programs achieve two important objectives. First, 
they provide innovative programs that support early stage high 
risk and novel research. They also fund programs that 
specifically support the translation of discoveries into 
products that improve lives. The translational component is an 
essential and sometimes missing ingredient in the discovery to 
bedside process. You might find it astonishing that while the 
rate of R&D spending at the NIH and in pharma has gone up since 
1993, the number of new drug applications has gone down. In 
simple words, discoveries are not being translated into drugs 
that serve the people of the United States.
    These principles of translation and acceleration govern the 
venture research sponsored by the PCRP in its relentless effort 
to change the course of prostate cancer, the most commonly 
diagnosed non-skin cancer and the second leading cause of 
cancer death in men. The facts are in 2005, 232,000 men will be 
diagnosed with prostate cancer. They will join the 2 million 
men already diagnosed. Over 30,000 of these men will die of 
cancer this year.
    African-Americans will be harder hit, with occurrence rates 
nearly 65 percent greater and death rates 2.5 times greater 
than Caucasian men.
    The Veterans Administration estimates that there are 
roughly 24.7 million male veterans living in the United States. 
The impact of percent on them? 4.1 million veterans will be 
diagnosed with prostate cancer in their lifetime. Nearly 5,000 
patients in the VA system will be diagnosed with prostate 
cancer this year.
    A recent scientific study has also shown that cancer rates 
are increased among service men who were in Southeast Asia and 
that men whose assignments averaged more than the normal, the 
average tour of duty, are at a greater risk of prostate cancer.
    But let me bring this even closer to home. The Department 
of Defense estimated that the direct costs of prostate cancer 
on the military were expected to exceed $42 million in 2004 and 
nearly 85 percent of the 1.4 million individuals serving in 
America's military are men. The impact? 200,000 service men 
will be diagnosed with prostate cancer. The DOD, America's 
largest company, must be prepared to protect its employees from 
the killer that will affect 14 percent of their workforce.
    Thanks to your vision and leadership, the CDMRP has become 
the gold standard for conducting and administering cancer 
research. To effectively fight this war on prostate cancer and 
to leverage your already earlier investments, the committee 
must appropriate $100 million for the PCRP. Without such an 
investment, the translation pipeline remains closed and this 
investment in the valuable research already funded will not be 
translated into discoveries that are used in the lab--in the 
clinic.
    Two years ago this subcommittee requested that the DOD, in 
consultation with the Institute of Medicine, evaluate 
opportunities for public and private sector funding 
collaborations to reduce the burden of Federal appropriations 
for the CDMRP. Those of us who served on that committee found 
that there are no new funding sources because these programs 
fund research that is not funded by the private sector. Our 
panel found that we have--this program has been efficiently and 
effectively managed, with only a 6 percent overhead rate. They 
have created novel funding mechanisms for that early and 
translational research that is not being done in other 
institutions. They have been scientifically productive and they 
play an important role in the national health research 
enterprise.
    The Prostate Cancer Research Foundation conference is a 
great example of a private-public partnership. This panel 
brings together all Government people that are working on 
cancer research along with their private counterparts. This 
parent consumer research group looks for innovation in 
translation rather than funding small incremental science that 
is sometimes funded in other agencies. As co-conveners of this 
conference, the PCRP helps establish priorities.
    For this conference to be successful, Federal agencies 
engaged in cancer research should be required to participate in 
this conference, and we are asking that you lend your 
leadership to make this participation required. We need more 
leveraging of the existing resources and a broader and more 
active engagement of our Federal agencies to accomplish this 
important objective. No one institution, scientific discipline, 
or business sector is solely equipped to fully translate 
discoveries into products. Government, academia, and industry 
must be brought together to solve these complex problems that 
are affecting our Nation and our families. Moreover, Congress 
must encourage them to cooperate together.
    Mr. Chairman, Senator Inouye, we have done remarkable work 
and are making progress. I urge you to continue to support an 
enhanced growth of PCRP, a program that is efficient, is driven 
by scientific priorities, and is scientifically productive.
    The war on prostate cancer must be funded appropriately so 
researchers can get new drugs to patients who need them most. 
For this to happen, the PCRP needs $100 million in fiscal year 
2006 and I respectfully request that you appropriate this need.
    Thank you for the time and I would be glad to answer any 
questions.
    Senator Stevens. Thank you very much.
    Senator Inouye. Thank you.
    [The statement follows:]

                 Prepared Statement of Mary Ann Guerra

    Mr. Chairman and members of the Senate Defense Appropriations 
Subcommittee, good morning. My name is Mary Ann Guerra, and I am Senior 
Vice President for Operations at the Translational Genomics Research 
Institute (TGen) in Phoenix, Arizona, a not-for-profit research 
enterprise. From 1994 until 2001, I served as Deputy Director for 
Management at the National Cancer Institute, and I am thoroughly 
familiar with the prostate cancer research effort and portfolio at the 
NCI. During my time at NCI, I watched the Department of Defense 
Congressionally Directed Medical Research Program (CDMRP) in prostate 
cancer grow and flourish since its inception at Fort Detrick in 1997. I 
also served on the Institute of Medicine (IOM) panel that Congress 
asked to evaluate leveraging strategies for funding of DOD peer 
reviewed medical research programs in order to reduce the burden on 
Federal appropriations. While our IOM panel did not include a formal 
evaluation of the CDMRP programs, I can tell you that I was very 
impressed by their scope and breadth--doing what parallel research 
efforts the NCI cannot do, and serving as a crucial part of this 
Nation's biomedical research effort to beat serious, often life 
threatening diseases. I must say, my past experience at NCI and NIH, my 
recent experience in the private sector, and the knowledge gained 
through participating in the IOM review, made me a convert and strong 
supporter of the CDMRP. Consequently, I am particularly pleased to 
offer testimony on behalf of the National Prostate Cancer Coalition, 
supporting an appropriation of $100 million for the CDMRP Prostate 
Cancer Research Program (PCRP) for fiscal year 2006.
    My organization, TGen, is among the world's leading private sector 
biomedical research institutes. It strives to make and quickly 
translate genomic discoveries into diagnostic and therapeutics that 
improve the health of all Americans. Our prostate cancer research 
program, headed by Dr. John Carpten, uses cutting edge technology to 
search for genes predisposing to prostate cancer, particularly among 
special populations including African American men, the population 
hardest hit by this devastating disease. Using information generated 
from mapping the human genome, coupled with our technology, TGen can 
now conduct large family and population based studies not possible 
before. With the patient who suffers from disease as our focus, TGen is 
guided by three core principles: integration, translation and 
acceleration. We integrate the best and brightest scientists across 
disciplines to attack disease; we hasten the translation of research 
discoveries into meaningful therapies; and, through our academic, 
health and industry partnerships, we accelerate our research goals on 
behalf of those who need them most.
    The same kinds of principles govern venture research sponsored by 
the PCRP in its effort to change the course of prostate cancer, the 
nation's most commonly diagnosed nonskin cancer and the second leading 
cause of cancer death among men. In 2005, the American Cancer Society 
has estimated that more than 232,000 men will hear physicians tell 
them, ``You have prostate cancer,'' as they join the nearly 2 million 
Americans who already have the disease. Sadly, over 30,000 men will 
lose their lives to prostate cancer this year. Although the wider use 
of early detection along with changes in early treatment likely account 
for the near 100 percent survival of men with localized disease, too 
many men are still diagnosed with advanced disease, particularly at 
younger ages (in their 40's and 50's), too many men suffer advanced 
recurrences after an earlier successful treatment, and too many 
ultimately face no cure.
    However hard prostate cancer may hit among white families, it is 
regularly a tragedy in African American communities. Prostate cancer 
occurrences rates are nearly 65 percent higher among black Americans 
and death rates are nearly 2\1/2\ times greater than those of Caucasian 
men. Research dollars directed at special populations is not a high 
priority as evidenced by the overall funding expended on such studies.
    The Department of Veterans Affairs (VA) estimates that there are 
roughly 24.7 million male veterans living in the United States. That 
means at least 4.1 million veterans will be diagnosed with prostate 
cancer at some point during their lifetimes. The Veterans Health 
Administration currently estimates that nearly 5,000 patients in its 
system are diagnosed with prostate cancer each year. While evidence is 
not conclusive, it appears that America's servicemen, who stood in 
harm's way for their country in the Asian theater and were directly 
exposed to Agent Orange, may be at double the risk for prostate cancer. 
Moreover, a recent scientific study has shown that cancer rates are 
increased among men who were in uniform in Southeast Asia, even if they 
were not directly involved in spraying herbicides, and that men who had 
longer than average tours of duty in the Asian theater may be at 
particular risk of prostate cancer. With our brave men in uniform in 
mind, I am asking you today to take care of all of them, past, present 
and future.
    The Department of Defense estimated the direct health care costs of 
prostate cancer on the military were expected to be over $42 million in 
fiscal year 2004. Nearly 85 percent of the current 1,465,000 
individuals serving in America's military are men. That means about 
200,000 servicemen will be diagnosed with prostate cancer--without the 
additional consideration of service related environmental factors, like 
Agent Orange exposure, that may increase occurrences of the disease. 
The DOD refers to itself as America's largest company; it must 
therefore be prepared to protect its employees from a killer that will 
affect 14 percent of its workforce.
    Whether in battle or peacetime, the lives of men from coast to 
coast depend on your decisions. You have the unique opportunity to 
provide a brighter future for millions of men and families through 
continued and expanded prostate cancer research. With proper funding we 
can find a way to end the pain and suffering caused by this disease.
    To effectively fight the war on prostate cancer for America's 
families, your committee must appropriate $100 million for the PCRP. As 
stated in its fiscal year 1997 business plan, PCRP needs at least $100 
million to conduct human clinical trials research. Without that 
appropriation, the program is unable to test new treatments and get 
those new products to patients that could retard the course of their 
disease and improve the quality of their lives. Without such an 
investment, the translational pipeline remains closed, meaning that 
valuable prostate cancer research remains stuck in laboratories instead 
of at work in clinics.
    Thanks to your vision and leadership, CDMRP has become the gold 
standard for administering cancer research. Prostate cancer advocates 
and scientists throughout this Nation have long applauded the program 
and its peer and consumer driven approach to research. PCRP is a unique 
program within the government's prostate cancer research portfolio 
because it makes use of public/private partnerships, awards competitive 
grants for new ideas, does not duplicate the work of other funders, 
integrates scientists and survivors and uses a unique perspective to 
solve problems. Its mission and its results are clear. The program 
fills a niche that other Federal research programs do not. It funds 
research with the end in mind; funding science that advances solutions 
that will change the lives of the people who are diagnosed with this 
disease. Each year, the program issues an annual report detailing what 
it has done with taxpayer dollars to battle prostate cancer. PCRP's 
transparency allows people affected by prostate cancer and people in 
the consumer research community to clearly see what our government is 
doing to fight the disease.
    Two years ago, this committee requested that DOD, in consultation 
with the Institute of Medicine, evaluate opportunities for public and 
private sector funding collaborations to reduce the burden of Federal 
appropriations for CDMRP--and maintain or improve efficiencies, 
throughput and outcomes for its research programs. Those of us who 
served on the IOM task force determined that, on the whole, there are 
no new funding sources for CDMRP that would enhance its overall 
research effort, because the redirection of dollars would reduce the 
work those dollars provide in some other part of the research universe. 
While it was not part of our charge, we also had an opportunity to 
appreciate the special contribution that the CDMRP makes to the 
research landscape.
    Our panel noted that despite initial respect for the primacy of 
NCI, skepticism about CDMRP in the scientific community, its location 
in DOD and the participation of consumers in peer review and priority 
setting, the program has been efficiently and effectively managed, 
scientifically productive and a valuable component of the Nation's 
health research enterprise. CDMRP's distinctive program features 
include its rigorous peer review of proposals for scientific merit and 
program relevance by outside reviewers--including consumers; its 
inclusive priority setting process; its emphasis on exploratory high-
risk/high-gain basic, translational, and clinical research projects and 
on research capacity building; and its holding of periodic national 
meetings to share results among the investigators and with the 
program's constituencies. It can also do what NCI cannot, speedily 
evaluate proposed projects and rapidly change focus as research 
discoveries offer new opportunities to America's scientific community. 
CDMRP is a terrific reflection of a well-proved maxim: ``Give the Army 
a problem, and you'll soon have a solution.'' The Army simply gets 
things done in a thorough and novel manner.
    The CDMRP structure is based on a model developed by an earlier IOM 
report. Its mission and its philosophy for awarding research grants 
reflect that of DOD's Defense Advanced Research Projects Agency 
(DARPA). The DARPA model, performance through competition and 
innovation, was specifically praised in President Bush's fiscal year 
2005 budget. This DARPA-esque approach to cancer research allows PCRP 
to identify novel research with large potential payoffs and to focus on 
innovative methods that do not receive funding elsewhere. This is an 
essential element of the research enterprise, that needs to be 
expanded, not contracted.
    One of the strongest aspects of the program is PCRP's Integration 
Panel. The panel is composed of those who know prostate cancer research 
and the issues facing it: scientists, researchers, and prostate cancer 
survivors. This peer and consumer driven model allows the program to 
select grants based on merit and their translational benefit while 
incorporating the views of those who need research the most, prostate 
cancer patients. It funds research that encourages innovation rather 
than research that incrementally answers small scientific questions. No 
other publicly funded cancer research entity effectively brings 
together all those with a stake in curing prostate cancer.
    Perhaps the best example of public-private partnerships in prostate 
cancer research is the Prostate Cancer Research Funders Conference. 
That panel brings together representatives of all the government 
agencies that fund prostate cancer research along with their 
counterparts in the private sector. Participants include NIH/NCI, DOD, 
the Veterans Health Administration, the Centers for Disease Control and 
Prevention, the Food and Drug Administration, Canadian and British 
government agencies, private foundations/organizations and 
representatives from industry. Members of the Conference have come 
together to focus on shared objectives and address commonly recognized 
barriers in research.
    As a co-convener of the conference, PCRP plays an important role in 
shaping its priorities. Currently, Federal agencies participate 
voluntarily, but they can opt in or out based on the tenure of 
executive leadership. For the conference to be successful, Federal 
agencies engaged in prostate cancer research should, in my opinion, be 
required to participate, and we ask for your leadership to make that 
happen. We need to see more leveraging of existing resources and a 
broader engagement of Federal agencies can help accomplish this 
important objective. Moreover, Congress must also offer sufficient 
incentives for the private sector to participate. However, these 
incentives must not compromise the autonomy or integrity of PCRP's peer 
review structure. I firmly believe that a collaborative, multifaceted 
approach to prostate cancer research can bring about better results in 
a more timely fashion. No one Institution is equipment to fully 
translate discoveries into products; government, academia and industry 
must be brought together to solve these very difficult and complex 
problems that face our Nation and our families. Mr. Chairman, we have 
done remarkable work and are making progress. Public-private 
collaboration and new scientific discoveries are moving us toward a 
better understanding of how prostate cancer kills, but, for our work to 
be worthwhile, it must be translated into tangible goals and results 
for patients.
    I urge you to continue to support and enhance growth of PCRP, a 
program that is efficient, driven by scientific priorities and 
scientifically productive. The War on Prostate Cancer must be funded 
appropriately so researchers can get new drugs to patients who need 
them most. For this to happen, PCRP needs $100 million in fiscal year 
2006, and I respectfully request that you appropriate this need.

    Senator Stevens. Our next witness is Captain Robert Hurd 
and Chief Petty Officer Michael Silver of the United States 
Naval Sea Cadet Corps.

STATEMENT OF CAPTAIN ROBERT C. HURD, U.S. NAVY 
            (RETIRED)
ACCOMPANIED BY CHIEF PETTY OFFICER MICHAEL SILVER, UNITED STATES NAVY 
            SEA CADET CORPS

    Captian Hurd. Good afternoon, Senators.
    Senator Stevens. Yes, sir.
    Captain Hurd. It is my pleasure today to have Chief Petty 
Officer Michael Silver present our testimony. Just as a little 
bit of background, out of 10,000 young men and women in the 
Naval Sea Cadet Corps, about 50 a year attain the rank of chief 
petty officer. So it is quite a significant accomplishment. We 
have him for about 1 more month before he joins the Marine 
Corps upon graduation from high school.
    Senator Stevens. Good.
    Nice to have you.
    Mr. Silver. Thank you, sir. Good afternoon, Mr. Chairman, 
Senator Inouye. I am a chief petty officer. I am with a 
battalion based in the naval base in Ventura County in 
California. I also go to El Camino Real High School in Woodland 
Hills.
    I am honored to represent over 10,000 Sea Cadets across the 
Nation, and also 2,000 adult volunteers in the program. We are 
a congressionally chartered youth development and education 
program whose main goals are to develop young men and women 
while promoting interest and skills in seamanship, aviation, 
construction, and other military fields. We instill a sense of 
patriotism, commitment, self-reliance, along with the Navy's 
core values, honor, courage, and commitment. We also take pride 
in molding strong moral character and self-discipline in a 
drug- and gang-free environment.
    Many young people join our program for our hands-on 
experience. We try to maximize our opportunities as much as 
possible all throughout the program with the armed services and 
also the civilian workforce. Our program over any other youth 
program, over Reserve Officer Training Corps (ROTC), Sea 
Scouts, Boy Scouts, Devil Pups, we have the most in-depth 
program that is offered outside of school.
    We have the most hands-on experience. We were out there 
with the actual Navy, with the actual Marine Corps, the Air 
Force, different services. We go on the bases. There is no 
other program that is offered that goes in depth as we do. We 
go on Navy ships, on Coast Guard ships. I personally have 
been--I participated in basic airman's training where it is 
pretty much I am on a ground crew, on Navy aircraft. I have 
been to medical training. I worked at a naval hospital for 2 
weeks. I have worked in the emergency room (ER).
    I have been to a leadership academy. I learned pretty much 
how to be a successful leader to others and stuff like that. I 
have also been to field training, which is pretty much on the 
Marine Corps aspect of it; field ops aviation school in 
Maryland. I have also been to an international exchange with 
the Her/His Majesty's Ship (HMS) Bristol in England, where I 
was there with Swedish, Canadian, South Korean, Chinese, and 
Australian, because the Sea Cadets is also an international 
program and they were there with over 50 other people from 
different other countries.
    Also, there are 473 former Sea Cadets now attending the 
U.S. Naval Academy and approximately 400 former cadets annually 
enlist in the armed services. These prescreened, highly 
motivated and well prepared young people have shown that prior 
Sea Cadet experience is an excellent indicator of high career 
success rate, both in and out of the military. Whether or not 
we choose a military career, we also carry forth the forged 
values of good citizenship, leadership, and moral courage that 
we believe will benefit our country and us as well.
    The corps is particularly sensitive that no young person is 
denied access to the program because of economic status, as for 
the most part we are responsible for our own expenses, which 
can amount to an average of $500 without outside assistance per 
cadet per year. Federal funds have been used to help offset the 
cadets' out of pocket training costs. However, for a variety of 
reasons current funding can no longer adequately sustain the 
program and we respectfully ask you to consider and support 
funding that will allow for the full amount of $2 million 
requested for the next fiscal year.
    Thank you for the opportunity to speak today and I and the 
entire Sea Cadet Corps appreciate your support for this fine 
program that has meant so much to myself over the past 7 years 
and which will continue to influence me for the rest of my 
life. I would just like to thank you, and I am open to 
questions.
    [The statement follows:]

              Prepared Statement of Captain Robert C. Hurd

                                REQUEST

    Navy had originally requested full funding at the $2,000,000 level 
in their fiscal year 2006 budget submission. This was in response to 
last year's Senate/House conference committee language urging them to 
include the NSCC in their fiscal year 2006 request. Navy initially 
budgeted these funds at the $2,000,000 level but subsequently deleted 
this funding to meet an imposed budget mark. Subsequent negations with 
Navy after the President's Budget had been submitted have resulted in a 
verbal promise to fund the NSCC in fiscal year 2006 at the fiscal year 
2005 appropriated level of $1,700,000--to be funded from existing 
budget lines. Because this action occurred after the budget submission, 
no separate line item exists for NSCC and because it was originally 
funded (Before the mark), no Unfunded Requirements List item was 
submitted.
    It is respectfully requested that $300,000 be appropriated for the 
NSCC in fiscal year 2006, so that when added to the promised $1,700,000 
will restore full funding at the $2,000,000 level. Further, in order to 
codify the Navy's promised commitment and to ensure future funding, 
consideration of including the following conference language is 
requested: ``Congress is pleased to learn that Navy has agreed to fund 
the U.S. Naval Sea Cadet Corps in the fiscal year 2006 budget as urged 
by the Senate and House in the 2005 Defense Budget Conference Report. 
Conferees include an additional $300,000 for the U.S. Naval Sea Cadet 
Corps, that when added to the $1,700,000 in the fiscal year 2006 budget 
request will fund the program at the full $2,000,000 requested. 
Conferees urge the Navy to continue to fund this program in the fiscal 
year 2007 budget request and out years.''

                               BACKGROUND

    At the request of the Department of the Navy, the Navy League of 
the United States established the Naval Sea Cadet Corps in 1958 to 
``create a favorable image of the Navy on the part of American youth.'' 
On September 10, 1962, the U.S. Congress federally chartered the Naval 
Sea Cadet Corps under Public Law 87-655 as a non-profit civilian youth 
training organization for young people, ages 13 through 17. A National 
Board of Directors, whose Chairman serves as the National Vice 
President of the Navy League for Youth Programs, establishes NSCC 
policy and management guidance for operation and administration. A 
full-time Executive Director and small staff in Arlington, Virginia 
administer NSCC's day-to-day operations. These professionals work with 
volunteer regional directors, unit commanding officers, and local 
sponsors. They also collaborate with Navy League councils and other 
civic, or patriotic organizations, and with local school systems.
    In close cooperation with, and the support of, the U.S. Navy and 
U.S. Coast Guard, the Sea Cadet Corps allows youth to sample military 
life without obligation to join the Armed Forces. Cadets and adult 
leaders are authorized to wear the Navy uniform, appropriately modified 
with a distinctive Sea Cadet insignia.
    There are currently over 368 Sea Cadet units with a program total 
of 10,980 participants (2,204 adult Officers and Instructors and 8,776 
Cadets (about 33 percent female).

                            NSCC OBJECTIVES

  --Develop an interest and skill in seamanship and seagoing subjects.
  --Develop an appreciation for our Navy's history, customs, traditions 
        and its significant role in national defense.
  --Develop positive qualities of patriotism, courage, self-reliance, 
        confidence, pride in our Nation and other attributes, which 
        contribute to development of strong moral character, good 
        citizenship traits and a drug-free, gang-free lifestyle.
  --Present the advantages and prestige of a military career.
    Under the Cadet Corps' umbrella is the Navy League Cadet Corps 
(NLCC), a youth program for children ages 11 through 13. While it is 
not part of the Federal charter provided by Congress, the Navy League 
of the United States sponsors NLCC. NLCC was established ``. . . to 
give young people mental, moral, and physical training through the 
medium of naval and other instruction, with the objective of developing 
principles of patriotism and good citizenship, instilling in them a 
sense of duty, discipline, self-respect, self-confidence, and a respect 
for others.''

                                BENEFITS

    Naval Sea Cadets experience a unique opportunity for personal 
growth, development of self-esteem and self-confidence. Their 
participation in a variety of activities within a safe, alcohol-free, 
drug-free, and gang-free environment provides a positive alternative to 
other less favorable temptations. The Cadet Corps introduces young 
people to nautical skills, to maritime services and to a military life 
style. The program provides the young Cadet the opportunity to 
experience self-reliance early on, while introducing this Cadet to 
military life without any obligation to join a branch of the armed 
forces. The young Cadet realizes the commitment required and routinely 
excels within the Navy and Coast Guard environments.
    Naval Sea Cadets receive first-hand knowledge of what life in the 
Navy or Coast Guard is like. This realization ensures the likelihood of 
success should they opt for a career in military service. For example, 
limited travel abroad and in Canada may be available, as well as the 
opportunity to train onboard Navy and Coast Guard ships, craft and 
aircraft. These young people may also participate in shore activities 
ranging from training as a student at a Navy hospital to learning the 
fundamentals of aviation maintenance at a Naval Air Station.
    The opportunity to compete for college scholarships is particularly 
significant. Since 1975, over 178 Cadets have received financial 
assistance in continuing their education in a chosen career field at 
college.

                               ACTIVITIES

    Naval Sea Cadets pursue a variety of activities including 
classroom, practical and hands-on training as well as field trips, 
orientation visits to military installations, and cruises on Navy and 
Coast Guard ships and small craft. They also participate in a variety 
of community and civic events.
    The majority of Sea Cadet training and activities occurs year round 
at a local training or ``drill'' site. Often, this may be a military 
installation or base, a reserve center, a local school, civic hall, or 
sponsor-provided building. During the summer, activities move from the 
local training site and involve recruit training (boot camp), 
``advanced'' training of choice, and a variety of other training 
opportunities (depending on the Cadet's previous experience and 
desires).

                           SENIOR LEADERSHIP

    Volunteer Naval Sea Cadet Corps officers and instructors furnish 
senior leadership for the program. They willingly contribute their time 
and effort to serve America's youth. The Cadet Corps programs succeed 
because of their dedicated, active participation and commitment to the 
principles upon which the Corps was founded. Cadet Corps officers are 
appointed from the civilian sector or from active, reserve or retired 
military status. All are required to take orientation, intermediate and 
advanced Officer Professional Development courses to increase their 
management and youth leadership skills. Appointment as an officer in 
the Sea Cadet Corps does not, in itself, confer any official military 
rank. However, a Navy-style uniform, bearing NSCC insignia, is 
authorized and worn. Cadet Corps officers receive no pay or allowances. 
Yet, they do derive some benefits, such as limited use of military 
facilities and space available air travel in conjunction with carrying 
out training duty orders.

                  DRUG-FREE AND GANG-FREE ENVIRONMENT

    One of the most important benefits of the Sea Cadet program is that 
it provides participating youth a peer structure and environment that 
places maximum emphasis on a drug and gang free environment. Supporting 
this effort is a close liaison with the U.S. Department of Justice Drug 
Enforcement Administration (DEA). The DEA offers the services of all 
DEA Demand Reduction Coordinators to provide individual unit training, 
as well as their being an integral part of our boot camp training 
program.
    Among a variety of awards and ribbons that Cadets can work toward 
is the Drug Reduction Service Ribbon, awarded to those who display 
outstanding skills in he areas of leadership, perseverance and courage. 
Requirements include intensive anti-drug program training and giving 
anti-drug presentations to interested community groups.

                                TRAINING

Local Training
    Local training, held at the unit's drill site, includes a variety 
of activities supervised by qualified Sea Cadet Corps Officers and 
instructors, as well as Navy, Coast Guard, Marine and other service 
member instructors.
    Cadets receive classroom and hands on practical instruction in 
basic military requirements, military drill, water and small boat 
safety, core personal values, social amenities, drug/alcohol abuse, 
cultural relations, naval history, naval customs and traditions, and 
nautical skills. Training may be held onboard ships, small boats or 
aircraft, depending upon platform availability, as well as onboard 
military bases and stations. In their training, cadets also learn about 
and are exposed to a wide variety of civilian and military career 
opportunities through field trips and educational tours.
    Special presentations by military and civilian officials augment 
the local training, as does attendance at special briefings and events 
throughout the local area. Cadets are also encouraged, and scheduled, 
to participate in civic activities and events to include parades, 
social work, and community projects, all part of the ``whole person'' 
training concept.
    For all Naval Sea Cadets the training during the first several 
months is at their local training site, and focuses on general 
orientation to, and familiarization with, the entire Naval Sea Cadet 
program. It also prepares them for their first major away from home 
training event, the 2 weeks recruit training which all Sea Cadets must 
successfully complete.
    The Navy League Cadet Corps training program teaches younger cadets 
the virtues of personal neatness, loyalty, obedience, courtesy, 
dependability and a sense of responsibility for shipmates. In 
accordance with a Navy orientated syllabus, this education prepares 
them for the higher level of training they will receive as Naval Sea 
Cadets.
Summer Training
    After enrolling, all sea cadets must first attend a 2-week recruit 
training taught at the Navy's Recruit Training Command, at other Naval 
Bases or stations, and at regional recruit training sites using other 
military host resources. Instructed by Navy or NSCC Recruit Division 
Commanders, cadets train to a condensed version of the basic course 
that Navy enlistees receive. The curriculum is provided by the Navy, 
and taught at all training sites. In 2004 there were 19 Recruit 
training classes at 18 locations, including 1 class conducted over the 
winter holiday school break. These 18 nationwide regional sites are 
required to accommodate the increased demand for quotas and also to 
keep cadet and adult travel costs to a minimum. Over 2500 Naval Sea 
Cadets attended recruit training in 2004, supported by another 230 
adult volunteers.
    Once Sea Cadets have successfully completed recruit training, they 
may choose from a wide variety of advanced training opportunities 
including basic/advanced airman, ceremonial guard, seamanship, sailing, 
amphibious operations, leadership, firefighting and emergency services, 
submarine orientation, seal and mine warfare operations, Navy diving, 
and training in occupational specialties including health care, legal, 
music, master-at-arms and police science, and construction.
    The Naval Sea Cadet Corps is proud of the quality and diversity of 
training opportunities offered to its Cadet Corps. For 2004 
approximately 8,000 training opportunities were formally advertised for 
both cadets and adults. Another 600 opportunities presented themselves 
through the dedication, resourcefulness and initiative of the adult 
volunteer officers who independently arranged training for cadets 
onboard local bases and stations. This locally arranged training 
represents some of the best that the NSCC has to offer and includes the 
consistently outstanding training offered by the U.S. Coast Guard. The 
total cadet and adult opportunity for 2004 stood at about 8,500 quotas, 
including all recruit training. Approximately 7,800 NSCC members, with 
about 7,050 being cadets, stepped forward and requested orders to take 
advantage of these training opportunities. Cadets faced a myriad of 
challenging and rewarding training experiences designed to instill 
leadership and develop self-reliance. It also enabled them to become 
familiar with the full spectrum of Navy and Coast Guard career fields.
    This steady and continuing participation once again reflects the 
popularity of the NSCC and the positive results of Federal funding for 
2001 through 2004. The NSCC continues to experience increased recruit 
and advanced training attendance of well over 2,000 cadets per year 
over those years in which Federal funding was not available. While the 
Global War On Terrorism (GWOT) following the events of 9/11 has 
continued to preclude berthing availability at many bases and stations, 
the NSCC maintained its strength and opportunity for cadets as other 
military hosts offered resources in support of the NSCC. While recruit 
training acquaints cadets with Navy life and Navy style discipline, 
advanced training focuses on military and general career fields and 
opportunities, and also affords the cadets many entertaining, drug 
free, disciplined yet fun activities over the entire year. 
Approximately 400-500 cadets per year further confirm the program's 
popularity by performing multiple 2-week trainings, taking maximum 
advantage of the opportunities presented. The NSCC also remains proud 
that approximately 9 percent of the midshipman brigade at the U.S. 
Naval Academy report having been prior Naval Sea Cadets, most citing 
summer training as a key factor in their decision to attend the USNA.
Training Highlights for 2004
    The 2004 training focus was once again on providing every cadet the 
opportunity to perform either recruit or advanced training during the 
year. To that end emphasis was placed on maintaining all traditional 
and new training opportunities developed since federal funding was 
approved for the NSCC. These include classes in sailing and legal (JAG) 
training, expanded SEAL orientation opportunity, SCUBA classes, more 
seamanship training onboard the NSCC training vessels on the Great 
Lakes, and additional honor guard training opportunities. Other 
highlights included:
  --Maintained national recruit training opportunity for every cadet 
        wanting to participate with 19 evolutions in 2004.
  --In spite of escalating costs and increased competition for base 
        resources, kept cadet summer training cost at only $40 per 
        week, an increase of only $10 per week per cadet for all 
        training.
  --Continued NSCC's expanded use of Army and State National Guard 
        facilities to accommodate demand for quotas for recruit 
        training.
  --Completed total rewrites and updates of the NSCC Officer 
        Professional Development Courses for all adults and implemented 
        programs for reducing adult volunteer out of pocket 
        participation expenses, dramatically improving the quality and 
        extent of training for adult volunteers.
  --Expanded NSCC cadet training with Navy Explosive Ordnance Disposal/
        Mobile Diving Salvage Units to include West Coast opportunities 
        in addition to the training in Norfolk, Virginia.
  --Expanded SEAL training opportunities beyond NSCC's traditional two 
        annual classes to include an additional class with the Navy's 
        Special Warfare Combat Craft (SWCC) units in Norfolk.
  --Developed and instituted the first ever Air Traffic Control 
        training class at NAS, Kingsville, TX.
  --Maintained double the number of MAA classes and cadets taking this 
        training since 9/11.
  --Implemented first ever opportunity for culinary arts training for 
        cadets onboard the USS Kiluea T-AE-26 at Alameda, CA in support 
        of traditional seamanship training annually conducted onboard 
        that MSC ship.
  --Re-instituted at Naval Hospital Great Lakes NSCC's unique class for 
        advanced medical ``First Responder'' training.
  --Expanded opportunities for music training beyond traditional 
        training with the Navy's School of Music in Norfolk, VA to 
        include training with the Atlantic Fleet Band in Jacksonville, 
        FL.
  --Expanded and conducted NSCC's first advanced seamanship class for 
        outstanding cadets at the Massachusetts Maritime Academy at 
        Buzzards Bay, MA.
  --For all adults volunteering to be escorts for summer training, 
        implemented the first ever and only program for reducing 
        volunteer out of pocket expenses. An extremely modest program 
        designed to offset travel cost only (15 cents a mile with a 
        mileage cap) it has promoted improved program commitment among 
        NSCC's adult volunteers and alleviated critical shortages of 
        adult escorts for summer training.
  --Maintained expanded YP training on the Great Lakes, with 5 underway 
        cruises in 2004.
  --Continued to place cadets onboard USCG Barque Eagle for multiple 3-
        week underway orientation cruises.
  --Continued to place cadets aboard USCG stations, cutters, and 
        tenders for what each year proves to be among the best of the 
        training opportunities offered in the NSCC.
  --Again conducted the popular, merit based, International Exchange 
        Program for 2004, expanded to include the Asian opportunities 
        in Hong Kong and Korea that were suspended in 2003 due to the 
        SARS concern. Included Australia in the program for 2004.
  --Maintained attendance at NSCC Petty Officer Leadership Academies, 
        (POLA) at approximately 280 cadets.
  --Placed cadets onboard USN ships under local orders as operating 
        schedules and opportunity permitted, to include for 12 cadets a 
        60+ day transit and homeport relocation of the USS Ronald 
        Reagan from Norfolk to San Diego via the Straits of Magellan.
  --And as in all prior years, again enjoyed particularly outstanding 
        support from members of the United States Navy Reserve, whose 
        help and leadership remain essential for summer training.

                  INTERNATIONAL EXCHANGE PROGRAM (IEP)

    For 2004 the NSCC continued again for the third year its redesigned 
and highly competitive, merit based, and very low cost to the cadet, 
International Exchange Program. Cadets were placed in Australia, United 
Kingdom, Sweden, Netherlands, Hong Kong, Korea, and Bermuda to train 
with fellow cadets in these host nations. The NSCC and Canada 
maintained their traditional exchanges in Nova Scotia and British 
Columbia, and the NSCC hosted visiting cadets in Norfolk and at Fort 
Lewis, WA for 2 weeks of U.S. Navy style training.

                       NAVY LEAGUE CADET TRAINING

    In 2004, approximately 1,400 Navy League cadets and escorts 
attended Navy League Orientation Training at 17 sites nationwide. 
Participation in 2004 was very much like 2003. The diversity in 
location and ample quotas allowed for attendance by each and every 
League cadet who wished to attend. Approximately 270 League cadets and 
their escorts attended Advanced Navy League training where cadets learn 
about small boats and small boat safety using the U.S. Coast Guard's 
safe boating curriculum. Other advanced Navy League training sites 
emphasize leadership training. Both serve the program well in preparing 
League cadets for further training in the Naval Sea Cadet Corps, and 
particularly for their first ``boot camp.'' The continuing strong 
numbers of participants for both Orientation and Advanced training, 
support not just the popularity of the NSCC program but also the 
positive impact the Federal training grant has had in helping cadets 
afford the training and helping them take advantage of the increased 
opportunities available to them.

                           SERVICE ACCESSIONS

    The Naval Sea Cadet Corps was formed at the request of the 
Department of the Navy as a means to ``enhance the Navy image in the 
minds of American youth.'' To accomplish this, ongoing presentations 
illustrate to Naval Sea Cadets the advantages and benefits of careers 
in the armed services, and in particular, the sea services.
    While there is no service obligation associated with the Naval Sea 
Cadet Corps program, many Sea Cadets choose to enlist or enroll in 
Officer training programs in all the Services.
    Annually, the NSCC conducts a survey to determine the approximate 
number of Cadets making this career decision. This survey is conducted 
during the annual inspections of the units. The reported Cadet 
accessions to the services are only those that are known to the unit at 
that time. There are many accessions that occur in the 2-3 year 
timeframe after Cadets leave their units, which go unreported. For 
example, for the year 2000, with about 83 percent of the units 
reporting, the survey indicates that 510 known Cadets entered the armed 
forces during the reporting year ending December 31, 2000. Of these, 30 
ex-Sea Cadets were reported to have received appointments to the U.S. 
Naval Academy. Further liaison with the USNA indicates that in fact, 
there are currently 472 Midshipmen with Sea Cadet backgrounds--almost 9 
percent of the entire Brigade. Navy accession recruiting costs have 
averaged over $14,000 per person, officer or enlisted, which applied to 
the number of Sea Cadet accessions represents a significant financial 
benefit to the Navy. Equally important is the expectation that once a 
more accurate measurement methodology can be found, is, that since Sea 
Cadets enter the Armed Forces as disciplined, well trained and 
motivated individuals, their retention, graduation and first term 
enlistment completion rates are perhaps the highest among any other 
entry group. USNA officials are currently studying graduation rates for 
past years for ex-Sea Cadets as a group as compared to the entire 
Brigade. Their preliminary opinion is that these percents will be among 
the highest. It is further expected that this factor will be an 
excellent indicator of the following, not only for the USNA, but for 
all officer and enlisted programs the Sea Cadets may enter:
  --Extremely high motivation of ex-Cadets to enter the Service.
  --Excellent background provided by the U.S. Naval Sea Cadet 
        experience in preparing and motivating Cadets to enter the 
        Service.
  --Prior U.S. Naval Sea Cadet Corps experience is an excellent pre-
        screening opportunity for young men and women to evaluate their 
        interest in pursuing a military career. This factor could 
        potentially save considerable tax-payer dollars expended on 
        individuals who apply for, then resign after entering the 
        Academy if they decide at some point they do not have the 
        interest or motivation.
  --U.S. Naval Sea Cadet experience prior to entering the Service is an 
        excellent indicator of a potentially high success rate.
    Data similar to the above has been requested from the United States 
Coast Guard Academy and the United States Merchant Marine Academy.
    Whether or not they choose a service career, all Sea Cadets carry 
forth learned values of good citizenship, leadership and moral courage 
that will benefit themselves and our country.

                            PROGRAM FINANCES

    Sea Cadets pay for all expenses, including travel to/from training, 
uniforms, insurance and training costs. Out-of-pocket costs can reach 
$500 each year. Assistance is made available so that no young person is 
denied access to the program, regardless of social or economic 
background.
    Federally funded at the $1,000,000 level in fiscal years 2001, 
2002, and 2003, $1,500,000 in fiscal year 2004 and $1,700,000 for 
fiscal year 2005 (of the $2,000,000 requested), all of these funds were 
used to offset individual Cadet's individual costs for summer training, 
conduct of background checks for adult volunteers and for reducing 
future enrollment costs for Cadets. In addition to the Federal fund 
received, NSCC receives under $700,000 per year from other sources, 
which includes around $226,000 in enrollment fees from Cadets and adult 
volunteers. For a variety of reasons, at a minimum, this current level 
of funding is necessary to sustain this program and the full $2,000,000 
would allow for program expansion:
  --All time high in number of enrolled Sea Cadets (and growing).
  --General inflation.
  --Some bases denying planned access to Sea Cadets for training due to 
        increased terrorism threat level alerts and the associated 
        tightening of security measures--requiring Cadets to utilize 
        alternative, and often more costly training alternatives.
  --Reduced availability of afloat training opportunities due to the 
        Navy's high level of operations related to the Iraq war.
  --Reduced training site opportunities due to base closures.
  --Non-availability of open bay berthing opportunities for Cadets due 
        to their elimination as a result of enlisted habitability 
        upgrades to individual/double berthing spaces.
  --Lack of ``Space Available'' transportation for group movements.
  --Lack of on-base transportation, as the navy no longer ``owns'' 
        busses now controlled by the GSA.
  --Navy outsourcing of messing facilities to civilian contractors 
        increases the individual Cadet's meal costs.
    Because of these factors, Cadet out-of-pocket costs have 
skyrocketed to the point where the requested $2,000,000 alone would be 
barely sufficient to handle cost increases
    It is therefore considered a matter of urgency that the full amount 
of the requested $2,000,000 be provided for fiscal year 2006.

    Senator Stevens. Thank you very much.
    It is a very successful program and we know that costs have 
gone up. But we will do our best to stretch that money, 
General, and see to it that you have the ability to produce 
young men like this for us every year.
    Thank you very much. We appreciate your statement of your 
past experience.
    Senator Inouye. How many naval sea cadets are there in the 
United States at this moment?
    Captain Hurd. It is about 10,000. The mix of males, females 
is the same as it is in the Navy for the most part, about a 
three to one mix. We have units in every State except Wyoming.
    Senator Stevens. They are seeking $300,000 more this year. 
It is a modest request, General. We will do our best to achieve 
it. Do you have anything else, Senator?
    Senator Inouye. I am impressed at the number, 472 cadets 
have received appointments to the Naval Academy.
    Captain Hurd. That are currently at the Naval Academy now, 
yes, sir. The admissions folks love them because these young 
men and women for the most part know what they are getting into 
and our graduation rates at the Academy and through boot camp 
far exceed the general Navy completion rates as well. We are 
quite proud of that.
    Mr. Silver. And the training, the background, what you 
learn through the program, the experiences--when we do the 
hands-on training, because you are training with the actual 
military that do the jobs that you want to do, you do the same 
courses that the Navy does or the Marines, and they go through 
it with you. The training that you learn through this program, 
there is no other program that you can get that will even come 
close to what you learn in this program.
    That is why the military allows us when we enlist to go in 
as advanced pay grades, through the knowledge that we learned 
and the reputation of what we learned in the program.
    Senator Inouye. Your testimony is most reassuring at a time 
when our services are all experiencing problems in recruiting 
and retaining. Thank you very much.
    Senator Stevens. Are you in all 50 States?
    Captain Hurd. All except Wyoming. We have units in Guam and 
Iceland as well.
    Senator Stevens. Thank you very much. We appreciate your 
testimony.
    Captain Hurd. We appreciate your support.
    Senator Stevens. Our next witness is the President of the 
National Association of Uniformed Services, Retired Major 
General William Matz, formerly Deputy Commander, U.S. Army in 
the Pacific. Nice to see you, sir.

STATEMENT OF MAJOR GENERAL WILLIAM MATZ, JR., U.S. ARMY 
            (RETIRED), PRESIDENT, NATIONAL ASSOCIATION 
            FOR UNIFORMED SERVICES
    General Matz. Yes, sir, nice to see you again.
    Mr. Chairman and Senator Inouye, on behalf of the over 
200,000 members and supporters of the National Association for 
Uniformed Services (NAUS), I want to thank you for this 
opportunity to present our views on defense funding. We also 
thank you, Mr. Chairman, and the other members of your 
subcommittee for your leadership and your continued efforts to 
support and care for the men and women of the armed forces and 
for our military retirees and their survivors.
    The primary purpose of our association is to support a 
strong national defense and this support includes being an 
advocate for the earned benefits of our Nation's warriors, both 
Active and retired. We understand clearly that during a time of 
severe budget deficits and with the country at war dollars for 
all Government programs are tight. But we believe that funds 
for the care and support of those who serve and have served 
must always be one of the Nation's highest priorities.
    As you are aware, some Government officials have stated 
recently that providing the earned benefits for those who have 
served is hurtful. In reality, from my perspective, taking care 
of military personnel, their families and retirees is helpful 
to the Nation's cause and it will also enhance the recruiting 
efforts of our armed forces. Retired military and veterans can 
be among the very, very best recruiters if they can report that 
the promises were kept after their service was over.
    We at NAUS join the other military and veterans services 
organizations in asking for the necessary funding for the 
proposed enhancements for those currently serving on active 
duty. These include, just very quickly: The Crosby-Puller 
Combat Wounds Compensation Act that requires that a member of 
the uniformed services who was wounded in a combat zone 
continue to be paid the monthly pay and allowances and receive 
the combat zone tax exclusion during his recovery period.
    We also ask for your support for the Supply Our Soldiers 
Act, which would provide postal benefits for those serving in 
combat zones. Should these initiatives be enacted individually 
or as part of the National Defense Authorization Act, we simply 
ask that the funds be made available for these needed 
enhancements.
    Now, while these issues, sir, are important, my main thrust 
today is to emphasize the need for full funding of the defense 
health program. Arriving at the point where we are now with the 
TRICARE program has been a long and very arduous battle and a 
fight that members of this subcommittee, joining with the 
National Military Veterans Alliance and the Military Coalition, 
made happen, and for this we thank you.
    As you know, the defense health program is a critical piece 
in ensuring the maintenance of a strong military. From my 
perspective, each dollar is an investment in military 
readiness. During my service in Vietnam as an infantryman, one 
of the greatest fears of soldiers arriving in that country was 
being wounded and not getting adequately timely medical care. 
Because of this, we would assure them that every wounded 
soldier would be recovered, every wounded soldier would be 
treated and evacuated as a first priority, and that they would 
get the very best medical care in the world.
    Our military medical system is the best in the world. To 
stay the best, it must be fully funded. So unless we have a 
strong, vital military medical program here in the continental 
United States (CONUS) we will not be able to continue to deploy 
the highly trained medical units and personnel supporting our 
combat forces in the overseas theaters. This includes funding 
the network of stateside military hospitals and clinics and of 
course the Uniformed Services University of the Health 
Sciences, which I know you are both familiar with.
    In my view this is at the core of medical professionalism 
for our Nation's uniformed services. It also includes the 
funding necessary to ensure adequate care for our military 
families and retirees.
    Mr. Chairman, your longstanding leadership and your support 
for military medicine has been clearly stated over the years. 
In fact, from my view it has been critical to its success, 
indeed to its very survival. I am reminded of a like sentiment 
expressed just recently by the chairman of the Senate Armed 
Services Committee, who was opposing a proposal to shift money 
from military health care to buy weapons rather than seeking 
the funds for both. We absolutely agree on this point and also 
that funding for both must be a national priority. Accordingly, 
sir, we ask that you continue to support full funding for our 
very vital defense health program.
    Again, thank you for your support and thank you for these 
few minutes to come before you today.
    Senator Stevens. Senator.
    Senator Inouye. Well, as you have indicated, the best 
recruiting weapon that we have is a veteran who has served and 
can tell the new American that the military is the best place 
to serve.
    General Matz. Absolutely, sir, yes.
    Senator Inouye. He is the evidence, the proof.
    General Matz. Yes, that is the evidence, absolutely.
    Senator Inouye. We will do our best, sir.
    Senator Stevens. I was amazed to find when we were in Iraq 
and Afghanistan the number of young people we talked to that 
talked to us about their fathers and their experience. There is 
no replacing that generation to generation conveyance of the 
duty to serve.
    General Matz. Absolutely, sir.
    Senator Stevens. Thank you very much, General.
    General Matz. Thank you very much.
    [The statement follows:]

               Prepared Statement of William M. Matz, Jr.

Introduction
    Mister Chairman and distinguished members of the committee, I 
became the President of the National Association for Uniformed Services 
(NAUS) on January 15 of this year. As the representative of our 190,000 
members/supporters, I extend our gratitude for the invitation to 
testify before you about our views and suggestions concerning the 
following defense funding issues:
    First, I would like to explain to you our association and why we 
feel so very qualified to discuss our members' legislative concerns. 
The National Association for Uniformed Services (NAUS) prides itself in 
that it is the ``The Servicemember's Voice in Government--Focusing on 
People.'' NAUS is unique. Founded in 1968, it's the only military 
affiliated association whose membership represents the entire military/
veteran family. No other association provides such a broad 
representation when dealing with Congress, the White House, and the 
Pentagon. NAUS represents all seven branches of the uniformed services: 
Army, Navy, Marine Corps, Air Force, Coast Guard, United States Public 
Health Service (USPHS), and National Oceanic and Atmospheric 
Administration (NOAA), including all components: Active Duty, Retired, 
Reserve, National Guard, and other veterans, their spouses, widows/
widowers, other family members and survivors; and all grades and 
ranks--enlisted/officer.
    The primary purpose of our association is to support a strong 
national defense and to promote and protect the interests and promised 
benefits earned by members of the uniformed services for themselves, 
their families and survivors and those of all American citizens with 
common interests.
    Accordingly, we support issues that directly affect those currently 
serving on Active duty--Regular, National Guard and Reserve. Our 
testimony will ask this committee's funding for the following pieces of 
legislation upon passage:
Crosby-Puller Combat Wounds Compensation Act
    We support this Act which would ensure that a member of the 
uniformed services who is wounded or otherwise injured while serving in 
a combat zone continues to be paid monthly military pay and allowances, 
while recovering from the wound or injury at the same level received 
while in the combat zone. This act will also ensure that the 
servicemember continues to receive the combat zone tax exclusion during 
recovery.
    Position.--We urge that S. 461, the Crosby-Puller Combat Wounds 
Compensation Act be funded in the Defense appropriation.
Montgomery GI Bill (MGIB) & Educational Benefits
    The strain on the Reserve Component (Reserve and National Guard 
units) caused by frequent and long call-ups to Active Duty has had a 
negative affect on recruiting and retention efforts. Added enticements 
are needed to help bolster these forces, which our National defense has 
come to rely so heavily on in contingency operations.
    We believe that extending the same MGIB and educational benefits to 
the Reserve and Guard forces would help in their recruiting/retention 
programs.
    Position.--We urge the Defense subcommittee to provide the funding 
of enhanced MGIB and Educational Benefits for the Reserve and National 
Guard units.
Guard and Reserve Enhanced Benefits Act
    Since the National Guard and Reserve make up a great portion of the 
troops in the areas of current operations, we believe other measures 
are needed to alleviate many of the hardships caused by these frequent 
and prolonged deployments. Many are contained in the Guard and Reserve 
Enhanced Benefits Act, such as Child Care, Non-reduction in pay for 
Federal Employees, Tax Credit for Employers, Reduced minimum age for 
eligibility for non-regular Service retired pay, and Expanded 
eligibility of Ready Reserve Members under the Tricare Program.
    Position.--We urge the Defense subcommittee to provide funding for 
S. 38, the Guard and Reserve Enhanced Benefits Act.
Supply Our Soldiers Act of 2005
    NAUS supports the ``Supply Our Soldiers Act of 2005,'' H.R. 887, a 
bill to provide for a program under which postal benefits shall be made 
available for purposes of certain personal correspondence and other 
mail matter sent from within the United States to members of the Armed 
Forces serving on active duty abroad who are engaged in military 
operations, and for other purposes.
    Position.--We urge the Senate to sponsor a companion bill and the 
Defense subcommittee to provide the funding to assist families of 
active duty and activated Reserve and National Guard servicemembers 
with postal costs for packages and mail to troops in current 
operations.
    We contend that honoring the promises made to those veterans who 
made a career of the military will help the military services in their 
recruiting and retention efforts. Accordingly, we strongly urge the 
Defense subcommittee's support of the following:
Combat Related Special Compensation (CRSC) for Chapter 61 Retirees
    Many combat injured military veterans were forced by the severity 
of their injuries to be medically retired under Chapter 61 regulations. 
Quite a few of them would have completed 20 years of service towards a 
full military retirement, but could not. These individuals are not 
qualified for Combat Related Special Compensation because they served 
less than 20 years. They deserve the same consideration for the award 
of CRSC as a 20-year retiree and their level of award should be based 
on their years of active service.
    Position.--The House has introduced legislation to resolve this 
issue (H.R. 1366). NAUS urges the Senate to introduce companion 
legislation, and urges the Defense subcommittee to provide the funding 
to resolve this issue.
Survivor Benefits Program/Dependency and Indemnity Compensation Offset
    Currently, if the retired military sponsor, who enrolled in the 
Survivor Benefits Program (SBP), dies of a service-connected 
disability, the surviving spouse is eligible for both the SBP annuity 
and Dependency and Indemnity Compensation (DIC) from the Department of 
Veterans Affairs. However, the SBP annuity is offset by the full amount 
of the DIC annuity. Each program's purpose is different, SBP's goal is 
to provide for the loss of the sponsor's earned retired pay, and DIC's 
goal is to provide the surviving spouse compensation for the loss of 
their spouse due to injuries caused by his/her service to the country.
    Position.--The National Association for Uniformed Services strongly 
urges funding for S. 185 which would end the SBP offset with DIC.
30 Year Paid-Up Status
    A secondary goal is the acceleration of the paid-up SBP provisions 
by changing the effective date from October 1, 2008, to October 1, 
2005, already 2 years beyond the 30th anniversary of the program. 
Enrollees who have reached the age of 70 and have paid their SBP 
premiums for more that 30 years (360 payments) are already being 
penalized.
    Position.--We ask that the Defense subcommittee provide funding to 
allow those early enrollees to be paid up as described in S. 185.
Permanent ID Card for Dependents Age 65 and Over
    One of the issues stressed by NAUS is the need for permanent ID 
cards for dependents age 65 and over. Last year's NDAA authorized the 
issuance of permanent ID card for dependents age 75 and over. We still 
believe the age should be 65 and over. With the start of TRICARE for 
Life, expiration of TFL-eligible spouses' and survivors' military 
identification cards, and the threatened denial of health care claims, 
causes some of our older members and their caregivers' significant 
administrative and financial distress.
    Position.--NAUS urges that the Defense subcommittee continue the 
progress made last year by directing the Secretary of Defense to 
authorize issuance of permanent military identification cards to 
uniformed services family members and survivors who are age 65 and 
older, with appropriate guidelines for notification and surrender of 
the ID card in those cases where eligibility is ended by divorce or 
remarriage.
    Finally, NAUS urges the Defense subcommittee's consideration of the 
following issues related to the benefit of military service:
Military Exchanges and Commissaries
    Issue One.--NAUS believes that DOD wants to reduce/eliminate the 
subsidy for the commissary system that provides food and other 
essentials to troops and families around the world, which will result 
in the military community losing the benefit.
    Position.--The National Association for Unformed Services strongly 
urges the committee to continue to provide the funding for the 
commissary subsidy to sustain the current services. Commissaries are a 
key component of the military pay and compensation package. Any action 
that would reduce/eliminate this benefit would result in a diminished 
quality of life and more out of pocket costs.
    Issue Two.--Recent DOD initiatives towards exchange consolidation 
and more recently shared services are an issue of interest for our 
members. The Unified Exchange Task Force has been developing several 
shared services models designed to reduce overhead costs in the areas 
of logistics, finance and accounting, information technology, human 
resources and non-resale procurement. This approach is based on 
reducing ``backroom'' costs for the exchanges so that they will have 
greater margins from which to offer their customers better pricing. 
However, NAUS continues to view the proposals with cautious interest 
until additional information becomes available. For example, 
implementation costs and transition costs are important components in 
the shared services decision and that information is not yet available.
    While the Unified Exchange Task Force (UETF) has been extremely 
open and informative throughout this process (associations have met 
quarterly with the UETF leadership since its inception), NAUS will 
reserve its support of shared services until a substantive, business-
based analysis is completed that clearly demonstrates the change will 
enhance the benefit to the patron and increase the MWR dividend.
    Position.--NAUS asks the Defense subcommittee to provide the 
funding necessary to ensure that the exchanges, whether or not they 
share services, continue to provide appropriate product choices, 
competitive prices, and increased funding for MWR programs.
Current and Future Issues Facing Uniformed Services Health Care
    The National Association for Uniformed Services would like to thank 
the subcommittee and the full Appropriations Committee for its 
leadership in the past for providing the landmark legislation extending 
the Pharmacy benefit and TRICARE system to Medicare eligible military 
retirees, their families and survivors, making the lifetime benefit 
permanent, establishing the DOD Medicare Eligible Retiree Health Care 
Fund, reducing the catastrophic cap and making other TRICARE 
improvements. However, we must again urge that the Senate provide full 
funding of the Defense Health Program.
    Position.--DOD has projected an $11 billion shortfall in funding 
between fiscal year 2006-2011. NAUS strongly urges the Defense 
subcommittee to ensure that full funding is provided for this most 
crucial of programs.
Federal Employees Health Benefits Program (FEHBP)
    The National Association for Uniformed Services has been a long 
time proponent of legislation that would provide military personnel the 
option of participating in the Federal Employees Health Benefit 
Program. Though confident that the TRICARE program and the TRICARE for 
Life program will be successful, because they are an outstanding value 
for most beneficiaries, in a few cases, the TRICARE/TRICARE for Life 
options may not be the best choice, or may not be available for the 
eligible beneficiary. For that reason, we believe the FEHBP option 
should be enacted. Providing the FEHBP, as an option would help 
stabilize the TRICARE program, provide a market based benchmark for 
cost comparison and be available to those for whom TRICARE/TRICARE for 
Life is not an adequate solution.
    Position.--NAUS strongly urges the Defense subcommittee to provide 
additional funding to support a full FEHBP program for military 
personnel as an option.
Include Physician and Nurse Specialty Pay in Retirement Computations
    Results of a recent Active Duty Survey show that pay and benefits 
are the most important factors impacting retention. Improving specialty 
pay/bonuses and including specialty pay/bonuses in retired pay 
calculations would aid retention. Therefore, prompt action to retain 
these and other highly skilled medical professionals is needed.
    Position.--The National Association for Uniformed Services requests 
funding to allow the military physicians and nurses to use their 
specialty pay in their retirement computations. The military services 
continue to lose top quality medical professionals (doctors and nurses) 
at mid-career. A major reason is the difference between compensation 
levels for military physicians and nurses and those in the private 
sector.
Conclusion
    Mr. Chairman and distinguished members of the Defense subcommittee, 
we want to thank you for your leadership and for holding these hearings 
this year. You have made it clear that the military continues to be a 
high priority and you have our continuing support.

    Senator Stevens. Our last witness is Retired Master Chief 
Joseph Barnes, the U.S. Naval Executive Secretary of the Fleet 
Reserve Association. Yes, sir.

STATEMENT OF MASTER CHIEF JOSEPH L. BARNES, U.S. NAVY 
            (RETIRED), NATIONAL EXECUTIVE SECRETARY, 
            FLEET RESERVE ASSOCIATION
    Chief Barnes. Thank you, Mr. Chairman, Senator Inouye. The 
Fleet Reserve Association (FRA) appreciates the opportunity to 
present its views on the 2006 defense budget.
    Before I address several priority issues, I wanted to thank 
this distinguished subcommittee for its leadership, support, 
and strong commitment to important quality of life programs 
benefiting service members, reservists, military retirees, and 
their families.
    FRA's number one priority is supporting adequate funding 
for protected devices and equipment and military personnel 
serving in Operations Iraqi Freedom and Enduring Freedom. This 
includes body armor, outer protective vests, and armor for 
combat vehicles. The next priority is ensuring that wounded 
troops, their families and survivors of those killed in action 
are those cared for by a grateful nation. FRA fully endorses 
continuing combat pay and other special pays until the 
completion of hospital care or discharge from their respective 
service and permanent increases to the death gratuity and 
service members group life insurance.
    Another top concern of FRA is to work with Congress and DOD 
to ensure continued full funding of the defense health budget 
and ensure access to health care for all uniformed services 
beneficiaries. The new TRICARE Reserve Select health plan is 
important to our Guard and Reserve personnel and their families 
and a fully funded health care benefit is critical to readiness 
and the retention of qualified uniformed services personnel.
    FRA supports appropriations necessary to implement the 3.1 
percent across the board military pay increase on January 1, 
2006. The association also strongly supports continued progress 
toward closing the military pay gap. Unfortunately, targeted 
pay increases for senior enlisted personnel and certain officer 
grades were not included in the administration's budget. At a 
minimum, FRA supports funding pay increases at least comparable 
to the annual employment cost index.
    Adequate service end strengths are important to maintaining 
readiness. If force size is inadequate and operational tempo 
(OPTEMPO) too intense, the performance of individual service 
members is negatively affected. FRA believes there are 
inadequate numbers of uniformed personnel to sustain the war 
effort and other operational commitments. This situation also 
creates considerable stress on the families of service 
personnel.
    FRA appreciates the major reform of the military survivor 
benefit plan authorized in this year's defense authorization 
act and soon thousands of survivors will no longer have to 
endure a reduction in their survivor benefits plan (SBP) 
annuities upon reaching age 62.
    Another SBP reform issue is also important to FRA's 
membership, that being the acceleration of SBP paid-up date 
from 2008 to 2005 for participants having paid premiums for 30 
years and being at least 70 years of age. If authorized, the 
association asks for support from this distinguished 
subcommittee.
    FRA supports funding to maintain the commissary benefit at 
the current level, increased reserve Montgomery GI bill (MGIB) 
education benefits, which are currently funded well below the 
authorized level, funding for family awareness and spouse 
employment opportunities, which are integral to our well-being 
retention--their well-being and retention, excuse me--and 
supplemental impact aid funding for school districts with large 
numbers of military-sponsored students.
    If authorized, FRA also strongly supports full concurrent 
receipt of military retired pay and VA disability compensation, 
retention of the full final month's retired pay by retirees' 
surviving spouse, and the extension of the dislocation 
allowance to retiring service members.
    Thank you again, Mr. Chairman, for the opportunity to 
present the association's recommendations and I stand ready to 
answer any questions you may have.
    [The statement follows:]

                 Prepared Statement of Joseph L. Barnes

                              INTRODUCTION

    Mr. Chairman and other distinguished members of the subcommittee, 
the Fleet Reserve Association (FRA) is most grateful for your support 
of our military men and women and, particularly, those serving or 
having served in Afghanistan, Iraq and other troubled spots around the 
globe. At the top of the Association's gratitude list is the quality of 
life improvements funded in the 108th Congress. Thanks so much for the 
effort. FRA knows you have contributed in the previous year to making a 
tough life much easier for those that might make the ultimate sacrifice 
in the service of this Nation. BRAVO ZULU.
    This Statement lists the concerns of our members, keeping in mind 
that the Association's primary goal will be to endorse any positive 
safety programs, rewards, and quality of life improvements that support 
members of the uniformed services, particularly those serving in 
hostile areas, and their families.
    FRA is concerned that in spite of signs of bravado, many of our 
Sailors, Marines and Coast Guardsmen serving in Operation Iraqi Freedom 
(OIF) and Operation Enduring Freedom (OEF) may not be fully armed with 
the protective devises available for their personal safety. Advocating 
the funding for and receipt of these protective devices; i.e.--
interceptor body armor, outer protective vests, and small arms 
protective inserts; to every uniformed member sent into harm's way is 
FRA's No. 1 priority.
    The Association's next priority is to see that our wounded troops, 
their families, and the surviving families of the men and women killed 
in action are cared for by a grateful Nation. In this respect, FRA 
fully endorses funding any proposal that authorizes our wounded 
veterans continuance of their combat pay and other special pays 
received while in combat until the completion of their hospital care or 
discharge from their respective military service. And any authorized 
increases to the death gratuity and life insurance proposed by the 
Congress.

                              OTHER GOALS

    Health Care.--FRA and its membership are most grateful for the 
improvements in accessing proper health care for the military community 
and the expansion of the program to provide greater care for military 
retirees and their families. Not everyone in the military community is 
pleased, but Congress has done much with the resources available to 
offer the best program for as many beneficiaries as possible. There are 
other proposals on the table that would increase benefits for those not 
satisfied with the current program. FRA endorses these proposals for 
many of its members would be affected by their adoption. However, the 
Association's primary concern is that existing programs be adequately 
funded for fiscal year 2006 and beyond.
    Active Duty/Reserve Programs.--Topping the list among the active 
duty and reserve members of the Sea Services (Navy and Marines) are 
adequate pay and allowances, child care and housing.
    Pay and Allowances.--For the fiscal year 2006, the administration 
has recommended a 3.1 percent across the board basic pay increase for 
members of the Armed Forces. This is commensurate with the 1999 formula 
to provide increases of 0.5 percentage points greater than that of the 
previous year for the private sector. With the addition of targeted 
raises, the formula has reduced the pay gap with the private sector 
from 13.5 percent to 5.2 percent following the January 1, 2005, pay 
increase.
    FRA, however, is disappointed that there is no targeted pay 
increase recommended, particularly for mid-grade and more senior 
enlisted personnel. FRA, The Military Coalition, the 9th Quadrennial 
Review of Military Compensation (9thQRMC), and the Department of 
Defense have advocated the necessity for targeted pays. In spite of the 
number of special pay increases in the last few years, the pay of our 
noncommissioned and petty officers remains compressed; a situation that 
has existed since the advent of the all-volunteer force.
    FRA urges the subcommittee to appropriate the necessary funds for 
the 3.1 percent pay increase for fiscal year 2006.
    Other Pays and Allowances.--FRA supports funding to continue and 
enhance enlistment and reenlistment bonuses and other compensatory 
items necessary for the military services to function accordingly and 
to provide the necessary incentives for the Nation's young men and 
women to serve in the Armed Forces. Recruiting and retention are vital 
to the success of the All-Volunteer Force and fulfilling the Nation's 
commitments and should be funded adequately to meet the services needs.
    Basic Allowance for Housing (BAH).--FRA is seeking revised housing 
standards. Many enlisted personnel, for example, are unaware of the 
standards for their respective pay grade and assume that the applicable 
BAH level is determined by a higher standard than they may be 
authorized. This causes confusion over the mismatch between the amount 
of BAH they receive and the actual cost of their type of housing. As an 
example, enlisted members are not authorized to receive BAH for a 3-
bedroom single-family detached house until achieving the rank of E-9--
which represents only 1 percent of the enlisted force--yet many 
personnel in more junior pay grades do in fact reside in detached 
homes. The Coalition believes that as a minimum, this BAH standard 
(single family detached house) should be extended gradually to 
qualifying service members beginning in grade E-8 and subsequently to 
grade E-7 and below over several years as resources allow.
    Through your leadership and support, the plan to reduce median out-
of-pocket expenses has been implemented. The aggressive action to 
better realign BAH rates with actual housing costs has had a real 
impact and provides immediate relief for many service members and 
families struggling to meet rising housing and utility costs. 
Unfortunately, housing and utility costs continue to rise and the pay 
comparability gap, while diminished over recent years, continues to 
exist. Members residing off base face higher housing expenses along 
with significant transportation costs, and relief is especially 
important to junior enlisted personnel living in the civilian 
environment who do not qualify for other supplemental assistance.
    FRA urges the subcommittee to appropriate the necessary funds to 
cover authorized increases in housing allowances for uniformed 
personnel.
    Permanent Change of Station (PCS) Reimbursements.--FRA is most 
appreciative of the significant increases in the Temporary Lodging 
Expense (TLE) allowance authorized for fiscal year 2002 and the 
authority to raise PCS per diem expenses to match those for Federal 
civilian employees in fiscal year 2003. FRA greatly appreciates the 
provision in the fiscal year 2004 defense bill to provide full 
replacement value for household goods lost or damaged by private 
carriers during government directed moves, and looks forward to the 
timely implementation of the Department of Defense comprehensive 
``Families First'' plan to improve claims procedures for service 
members and their families.
    These were significant steps to upgrade allowances that had been 
unchanged over many years. Even with these changes, however, service 
members continue to incur significant out-of-pocket costs in complying 
with government-directed relocation orders.
    For example, PCS mileage rates have not been adjusted since 1985. 
The current rates range from 15 to 20 cents per mile--less than half 
the 2005 temporary duty mileage rate of 40.5 cents per mile for 
military members and Federal civilians. PCS household goods weight 
allowances were increased for grades E-1 through E-4, effective January 
2003, but weight allowance increases are also needed for service 
members in grade E-5 and above to more accurately reflect the normal 
accumulation of household goods over the course of a career. The 
Association has recommended modifying weight allowance tables for 
personnel in pay grades E-7, E-8 and E-9 to coincide with allowances 
for officers in grades 0-4, 0-5, and 0-6, respectively. FRA also 
supports authorization of a 500-pound professional goods weight 
allowance for military spouses.
    In addition, the overwhelming majority of service families own two 
privately owned vehicles, driven by the financial need for the spouse 
to work, or the distance some families must live from an installation 
and its support services. Authority is needed to ship a second POV at 
government expense to overseas' accompanied assignments. In many 
overseas locations, families have difficulty managing without a second 
family vehicle because family housing is often not co-located with 
installation support services.
    FRA is sensitive to the subcommittee's efforts to reduce the 
frequency of PCS moves. But the Armed Services cannot avoid requiring 
members to make regular relocations, with all the attendant disruptions 
in their children's education and their spouse's career progression. 
The Association believes strongly that the Nation that requires them to 
incur these disruptions should not be requiring them to bear the 
resulting high expenses out of their own pockets.
    FRA urges additional funding to support further upgrades of 
permanent change-of-station reimbursement allowances to recognize that 
the government, not the service member, should be responsible for 
paying the cost of government-directed relocations.
    Combat and Incentive Pays during Hospitalization.--FRA strongly 
urges the subcommittee to take action to ensure combat-wounded service 
members do not have their pay reduced or their taxes increased during 
periods of hospitalization. The Association believes that such 
compensation treatment is essential for service members who continue to 
suffer from the hazardous conditions that combat-related incentive pays 
and tax relief were created to recognize.
    Basic Allowance for Subsistence (BAS).--FRA is grateful for the 
increases in BAS over the years. There is more to be done; however, to 
permit single career-enlisted members greater individual responsibility 
in their personal living arrangements. FRA believes it is inconsistent 
to demand significant supervisory, leadership and management 
responsibilities of noncommissioned and petty officers, but still 
dictate to them where and when they must eat their meals while at their 
home duty station.
    FRA has urged the authorizers to repeal the statutory provision 
limiting BAS eligibility to 12 percent of single members residing in 
government quarters. As a long-term goal, extend full BAS eligibility 
to all single career enlisted members, beginning with the grade of E-6 
and, eventually, to the lower grades as budgetary constraints are 
eased. FRA requests the subcommittee's support for the repeal by 
appropriating the necessary funding to implement any increases in BAS 
adopted by the authorization process.
    MGIB. The Montgomery GI Bill often is characterized as a form of 
compensation or as a ``recruiting tool.'' However, FRA would argue that 
it would be more appropriate to consider the benefit an investment in 
our nation's future. Military personnel can use the MGIB on active duty 
to aid in their professional development, giving them the tools to 
become better leaders, mentors and representatives of their respective 
service. Our Nation has a responsibility to ensure the MGIB investment 
remains a relevant supplement to completing one's education. We must 
give our veterans the tools to excel in an academic environment.
    There are 61,000 senior enlisted members in the Armed Forces who 
entered military service during the Veterans Education Assistance 
program (VEAP) era and did not have the opportunity to enroll in the 
MGIB. FRA has urged the adoption of an open enrollment period offering 
these enlisted leaders a chance to sign up for the education benefits 
available through the MGIB. In fact, the Association believes the MGIB 
should be expanded so that any uniformed member reenlisting in his or 
her military service will have the opportunity to enroll in the 
program.
    FRA recommends funding enhancements of benefits in the MGIB as 
authorized. The Association is grateful for the October 1, 2004 
increases in basic rates but they cover only about 60 percent of 
current tuition expenses. A creation of a benchmark for the MGIB will 
keep pace with the cost of an average 4-year college education. For the 
school year 2004-2005 ($20,082 for 4 yrs. at private institutions; 
$5,132 at public institutions) the cost is much greater than what is 
available through the MGIB. Enhancing the value of the MGIB would be an 
improved incentive to enlist or reenlist in the Armed Forces.

                      FAMILY READINESS AND SUPPORT

    It's most important that DOD and the military services concentrate 
on providing programs for the families of our service members. There 
are a number of existing spousal and family programs that have been 
fine tuned and are successfully contributing to the well-being of this 
community. The Navy's Fleet and Family Centers and the Marines' Marine 
Corps Community Services (MCCS) and Family Services programs are 
providing comprehensive, 24/7 information and referral services to the 
service member and family through its One Source links. One Source is 
particularly beneficial to mobilized reservists and families who are 
unfamiliar with varied benefits and services available to them.
    It's true that ``the service member enlists in the military 
service--but it's the family that reenlists.'' To ensure the family 
opts for a uniformed career, the family must be satisfied with life in 
the military. To assist in bringing that satisfaction, FRA recommends 
the following to the subcommittee.
    Child and Youth Programs.--Both programs rank high in priority for 
the families of Sailors and Marines. As an integral support system for 
mission readiness and deployments, its imperative these programs 
continue to be improved and expanded to cover the needs of both married 
and single parents. Currently, the Navy's program cares for over 31,000 
children 6 months to 12 years in 227 facilities and 3,180 on and off 
base licensed child development homes. With the high priority tagged to 
child care, FRA urges Congress to continue enhancing and increase 
funding for this important benefit.
    Pre-tax Treatment for Child Care Expenses.--FRA seeks the support 
of the subcommittee to direct the Department of Defense to implement 
flexible spending accounts for pre-tax payment of child-care expenses. 
The Association urges the subcommittee to coordinate with the Ways and 
Means Committee to enact such authority as may be needed as soon as 
possible.
    Spousal Employment.--Today's all-volunteer environment requires the 
services to consider the whole family. It is no longer adequate to 
focus only on the morale and financial well-being of the member. Now, 
his or her family must be considered. One of the major considerations 
for spousal employment is it could be a stepping-stone to retention of 
the service member--a key participant in the defense of this Nation. 
The Association urges Congress to continue its support of the 
military's effort to affect a viable spousal employment program and to 
authorize sufficient funds to assure the program's success.
    Impact Aid.--FRA is most appreciative for the Impact Aid authorized 
in previous Defense measures but must urge this subcommittee and its 
full committee to support a substantial increase in the funding for 
schools bearing the responsibility of educating the children of 
military personnel and Federal employees. Current funds are not 
adequate to ably support the education of federally sponsored children 
attending civilian community elementary schools. Beginning with the 
Nixon Administration, funding for Impact Aid has decreased 
dramatically. For example, in the current fiscal year the Military 
Impacted Schools Association (MISA) estimates Impact Aid is funded at 
only 60 percent of need according to law. Our children should not be 
denied the best in educational opportunities. Impact Aid provides the 
children of our Sailors, Marines, Coast Guardsmen, Soldiers, and 
Airmen, a quality education. FRA implores Congress to accept the 
responsibility of fully funding the military Impact Aid program. It is 
important to ensure our service members, many serving in harm's way, 
have little to concern with their children's future but more to do with 
the job at hand.
    DOD Schools.--FRA notes with concern the Department of Defense's 
(DOD's) repeated quest to close some or all DOD-sponsored schools 
operating on military installations in CONUS. FRA is adamantly opposed 
to reducing the quality of education now enjoyed by the children of 
military personnel and Federal employees' by forcing them to enroll in 
public schools. As long as the United States continues with an all-
volunteer force and as long as U.S. uniformed personnel and employees 
of the Armed Forces are deployed to foreign shores, CONUS schools 
provide a safe haven for their children. FRA recommends that Congress 
provide the necessary funds to continue the effective operation of the 
Department of Defense's school system and to cease and desist from 
using appropriated funds to find ways and means to close or transfer 
its school system to local school districts. There is no need for 
further threats of closures that damage the morale of our Nation's 
military personnel and families. In an all-voluntary force environment, 
it's certain Congress doesn't want to add to the retention challenges 
the military may face in the future.
    Morale, Welfare, and Recreation Programs (MWR).--FRA can't help but 
believe Congress and even the military services are less concerned with 
MWR programs that are really vital to supporting the service member and 
his or her family. The Navy's top enlisted chief, MCPON Terry Scott 
USN, again this year advised a House panel on February 16 last he is 
particularly troubled that current budget decisions will place a 
greater burden on the Service in providing the necessary programs so 
important in maintaining the well-being of its sailors and families. 
The MWR programs of the Navy; Child Care, Fleet/Family Support Program 
(FFSP), for example, include recreation, fitness, social and community 
support activities, spouse employment, personal financial management, 
counseling, family advocacy, safety, transition and relocation--all 
having a positive affect on Fleet Readiness.
    Currently, the shortage of funds is curtailing or closing some of 
the activities while the costs of participating in others have 
increased over the past year or two. One major problem is in Europe. 
The weakening dollar has caused an increase in child-care rates, movie 
tickets, etc., and placed a hiring freeze on MWR employees.
    The lack of fiscal support for MWR programs is damaging the need to 
provide mental and physical relief to both sailors and families from 
the stress of deployments that have increased dramatically since the 
military downsized in the 1990's. MWR programs build a community spirit 
among those living on or near a military installation, something not 
experienced by those who may seek comfort and well-being from a 
civilian environment.
    MWR facilities should be fully funded and include where and when 
available the guard, reserve, and retired military population residing 
in the area. One group aids the other. Who better to assist, comfort, 
counsel, and encourage military family members concerned with the 
conflict in Iraq, continuing deployments, and other military related 
activities.

                 FORCE SIZE/READINESS/OPTEMPO/PERSTEMPO

    FRA will again simultaneously address force size, readiness, 
OPTEMPO, and PERSTEMPO as one issue. Readiness is achieved at its 
highest if force size is adequate in numbers, OPTEMPO is not too 
excessive, and PERSTEMPO is not adversely affecting the performance of 
individual service members. FRA noted in its fiscal year 2005 statement 
that all four were suffering from a shortage of uniformed members. 
Since then Congress has added numbers to the uniformed manpower in both 
the Army and Marine Corps. FRA is grateful for the increase and is 
hopeful the added manpower will be the answer to the difficulty 
experienced by the military in Iraq over the past few years. The 
Association, however, is concerned that the Navy is going to the 
extreme in downsizing its uniformed manpower. This concern has been 
voiced to the authorizing committee in hope some action will be 
directed to steady the outgoing tide of experienced naval personnel.
    Meanwhile, FRA urges the subcommittee to continue funding our 
military personnel to ensure the numbers remain sufficient to relieve 
both OPTEMPO and PERSTEMPO, primarily the result of operations in 
Afghanistan and Iraq.

                           RESERVE COMPONENT

    Operational Tempo.--The increase in the use of reserve units to 
serve along side active duty components in Iraq, as an example, has 
caused considerable challenges for individual reservists. Not only has 
their mobilization placed a strain on employment and income, but the 
family as well. Employer support, once strong, decreases as more 
essential employees are whisked-off to spend longer periods in uniform 
leaving the employer frustrated with having to find a replacement and, 
at the same time, hold the position open for the reservist's return.
    FRA has always supported the Total Force Policy but is concerned 
that the sustained use of reserve forces will eventually harm the 
recruiting and retention of young men and women willing to serve as 
future citizen Sailors, Marines, and Coast Guardsmen. The United States 
must maintain a strong reserve force at all times in the event of a 
greater need than at the present.
    The fiscal year 2005 defense authorization bill established a 
Commission on the National Guard and Reserves. FRA is in hope that it 
will provide recommendations on what enhancements are necessary to 
recruit and retain the number of reservists required for the defense of 
the United States. There is a possibility the study may include 
recommendations addressing such issues as tax relief, healthcare, 
retirement upgrades, improvements in the MGIB-SR, and family support 
programs.
    Until the study is released, FRA urges this subcommittee to 
appropriate funds to support reserve and guard programs authorized in 
the fiscal year 2006 National Defense Authorization Act that:
  --Increase in both enlisted and reenlistment bonuses.
  --Enhance the MGIB-SR rates for those who choose to participate in 
        the program.
  --Provide academic and financial protection to members who are 
        attending an institution of higher learning when called to 
        active duty.
  --Support and fund programs for families, particularly those 
        geographically dispersed and not readily accessible to military 
        installations and inexperienced with the military.
  --Authorize cost-share access to Tricare for members of the Selected 
        Reserve and their families.

                           RETIRED COMPONENT

    Concurrent Receipt.--The fiscal year 2003 National Defense 
Authorization Act (NDAA) authorizes a special compensation that 
establishes a beachhead to authorizing full concurrent receipt, a term 
for the payment of both military non-disability retired pay and any VA 
compensation for service-connected disabilities without a reduction in 
one or the other payment. The fiscal year 2004 and 2005 NDAA expanded 
the benefit list through Combat Related Disability Pay (CRDP) and 
Combat Related Special Compensation (CRSC). Although FRA is 
appreciative of the effort of Congress to address the issue, it fails 
to meet the resolution adopted by the Association's membership to seek 
full compensation for both length-in-service military retirement and VA 
compensation. Currently, the receipt of VA compensation causes a like 
reduction to a retired service member's military retired pay. This 
leads to the belief, and well-deserved, that retired service members, 
earning retired pay as a result of 20 years or more of service, are 
forced to pay for their own disablement.
    Most disabilities are recognized after the service member retires. 
Some are discovered while the member is still performing active duty or 
as the result of a retirement physical. However, it is to the benefit 
of the Department of Defense to retire the member without compensation 
for any disability. Instead, the member is directed to the Department 
of Veterans' Affairs for compensatory relief for the damages incurred 
by the member while serving the Nation in uniform.
    FRA has encouraged Congress to take the helm and authorize and fund 
concurrent receipt for all qualified military non-disabled retirees who 
are eligible for and receiving veterans' compensation.

                               CONCLUSION

    FRA is grateful to the subcommittee for the opportunity to present 
its goals for fiscal year 2006. Further information may be obtained by 
contacting Mr. Matthew Schafer, FRA Acting Director for Legislative 
Programs.

    Senator Stevens. Thank you very much and thank you for your 
patience in staying with us, the last witness of the day.
    Chief Barnes. Not a problem, sir.
    Senator Stevens. Questions, Senator?
    Senator Inouye. I just wanted to say that the FRA has a 
very, very active organization in Hawaii.
    Chief Barnes. Thank you, Senator, and congratulations on 
your recognition last year as our Pinnacle Award recipient----
    Senator Inouye. Thank you, sir.
    Chief Barnes. Following the distinguished chairman's 
receipt a couple years ago.
    Senator Stevens. That is right.
    Thank you again for your testimony.

                    ADDITIONAL SUBMITTED STATEMENTS

    If there are any additional statements that individuals 
would like to submit for the record, it will be held open for 5 
days.
    [The statements follow:]
 Prepared Statement of Sue Schwartz, DBA, RN, Co-Chairman, Health Care 
 Committee, Military Officers Association of America, on Behalf of The 
                        Military Coalition (TMC)

                                OVERVIEW

    Mr. Chairman, The Military Coalition (TMC) thanks you and the 
entire subcommittee for your continued, unwavering support for funding 
the needs of active duty, Guard, Reserve and retired members of the 
uniformed services, and their families and survivors. The 
subcommittee's work to greatly improve military pay, eliminate out of 
pocket housing expenses, improve health care, and enhance other 
personnel programs has made a significant difference in the lives of 
active, Guard and Reserve personnel and their families. This is 
especially true for our deployed servicemembers and their families and 
survivors who are engaged throughout this world in the global war on 
terror.
    Despite these improvements in military compensation, we are deeply 
troubled by how much harder troops have to work--and how much more 
their families have to sacrifice--for that compensation.
    Today's reality is simple--servicemembers and their families are 
being asked to endure ever-greater workloads and ever-greater 
sacrifices. Repeated deployments, often near back-to-back, have 
stressed the force to the point where recruiting and retention are real 
concerns for some Services; and, if it weren't for the Services' stop-
loss policies and massive recalls of Guard and Reserve members, 
readiness would suffer. The hard fact is that we don't have large 
enough forces to carry out today's missions and still be prepared for 
any new contingencies that may arise elsewhere in the world. In 
addition, the Coalition is concerned that the Navy and Air Force are in 
the midst of ``transformation'' initiatives that include reducing their 
respective end strengths despite continuing demanding operational 
commitments.
    In testimony today, The Military Coalition offers its collective 
recommendations on what needs to be done to address these important 
issues and sustain long-term personnel readiness.

                            BUDGET OVERVIEW

    The Military Coalition is concerned that some in the Executive 
Branch are now bemoaning Congress' efforts in recent years to reverse 
military pay shortfalls and correct compensation and benefit inequities 
affecting retired military members, military survivors and Guard and 
Reserve members, contending that the cost of those initiatives impinges 
on current defense budget needs, including the ability to support 
compensation initiatives for the current force.
    The Coalition objects strongly to any such efforts to pit one 
segment of the military community against another. Our experience has 
been that this subcommittee has rarely turned down Defense Department 
requests for current force funding needs. If anything, Congress has had 
greater sensitivity than the Executive Branch--regardless of the 
political party of the administration--to the importance of career 
military benefits to long-term retention and readiness.
    Those who complain today about the cost of restoring military pay 
comparability, repealing REDUX retirement penalties, and enacting 
TRICARE For Life apparently do not recall that the Joint Chiefs of 
Staff at the time all told Congress that fixes were needed in these 
areas in order to address the significant retention problems 
experienced in the late 1990's.
    Congress has been wise enough to see what Executive Branch 
officials of both parties have not in recent years--that it is not 
enough to just meet the short term desires of the 19 year old new 
enlistee with more cash in hand. Those members get older and have 
families, and their families grow much more concerned at the second and 
third reenlistment points, often after multiple family separations, 
whether the long-term benefits of a military career offset the 
extraordinary and persistent demands and sacrifices inherent in serving 
20 to 30 years in uniform.
    The Military Coalition believes this subcommittee will see past 
penny-wise and pound-foolish efforts to rob one element of the military 
community to pay another, and will continue to recognize the hard-
learned lessons of the past--that successfully sustaining readiness and 
retention over the long term requires fair treatment for military 
members and families at every stage: active duty, Guard and Reserve, 
retired, and survivors.

                          ACTIVE FORCE ISSUES

    Since the end of the Cold War, the size of the force and real 
defense spending has been cut by more than a third. In fact, the 
defense budget today is 3.8 percent of this Nation's Gross Domestic 
Product--less than half of the share it comprised in 1986. But today 
America's armed forces are engaged in a global war on terror--a 
campaign that has made constant and repeated deployments a way of life 
for today's servicemembers. There is no question that the stress of 
today's sustained operations is taking a significant toll on our men 
and women in uniform, and their families and survivors, and this is 
being reflected in failure of the Army Guard and Reserve to meet its 
recent recruiting goals. In addition, there are indications of growing 
challenges in recruiting members of the other Services.
    Congress has taken action to help relieve the stress of repeated 
deployments by increasing Army and Marine Corps end strength and by 
making family separation and danger area pays permanent. These are 
notable and commendable improvements; however, sustaining a quality 
force for the long-term remains a significant challenge, especially in 
technical specialties. While some Services are meeting retention goals, 
these goals may be skewed by post-9/11 patriotism and by Services' 
intermittent stop-loss policies. This artificial retention bubble is 
not sustainable for the long-term under the current pace of operations, 
despite the reluctance of some to see anything other than rosy 
scenarios.
    From the servicemembers' standpoint, the increased personnel tempo 
necessary to meet continued and sustained training and operational 
requirements has meant having to work progressively longer and harder 
every year. ``Time away from home'' is now a real focal point in the 
retention equation. Servicemembers are enduring longer duty days; 
increased family separations; difficulties in accessing affordable, 
quality health care; deteriorating military housing; less opportunity 
to use education benefits; and significant out-of-pocket expenses with 
each permanent change of station move.
    Intensified and sustained operations in Iraq and Afghanistan are 
being met by servicemembers' patriotic dedication, but there is little 
question that once Service stop-loss policies are lifted, the retention 
of combat-experienced servicemembers is going to be problematic.
    Experienced (and predominantly married) officers, NCOs and petty 
officers are under pressure to make long-term career decisions against 
a backdrop of a demand for their skills and services in the private 
sector. Many servicemembers and their families debate among themselves 
whether the rewards of a service career are sufficient to offset the 
attendant demands and sacrifices inherent in uniformed service. Faced 
with repeated deployments to a combat zone, the appeal of a more stable 
career and family life, often including an enhanced compensation 
package and less demanding working conditions, is attractive. When 
allowed the option, many of our excellent soldiers, sailors, airmen and 
Marines will opt for civilian career choices, not because they don't 
love what they do, but because their families just can no longer take 
the stress.
    On the recruiting front, one only needs to watch prime-time 
television to see powerful marketing efforts on the part of the 
Services. But this strong marketing must be backed up by an ability to 
retain these experienced and talented men and women. This is especially 
true as the Services become more and more reliant on technically 
trained personnel. Congress reacted to retention problems by improving 
military compensation elements. But we also understand the pressures to 
reduce spending and the challenges associated with proposed defense 
budget increases. The truth remains that the finest weapon systems in 
the world are of little use if the Services don't have enough high 
quality, well-trained people to operate, maintain and support them.
    The subcommittee's key challenge will be to ease servicemembers' 
debilitating workload stress and continue to build on the foundation of 
trust that you have established over the past 4 years--a trust that is 
being strained by years of disproportional sacrifice. Meeting this 
challenge will require a reasonable commitment of resources on several 
fronts.
    Personnel Strengths and Operations Tempo.--The Coalition has noted 
with disappointment the Department of Defense's resistance to accept 
Congress's repeated offers to permanently increase Service end strength 
to relieve the stress on today's armed forces, which are clearly 
sustaining a wearing operations tempo fighting today's global war on 
terror. While we are encouraged by the subcommittee's support for 
increased Army and Marine Corps end strength, we are deeply concerned 
that administration-proposed plans for temporary manpower increases 
rely too heavily on continuation of stop-loss policies, unrealistic 
retention assumptions, overuse of the Guard and Reserves, optimistic 
scenarios in Southwest Asia, and the absence of new contingency needs.
    While the Department's transformation vision is an understandable 
and necessary plan, its implementation will take a long time--time that 
is taking its toll after years of extraordinary operational tempo that 
is exhausting our downsized forces.
    The Joint Chiefs testified that their forces were stressed before 
9/11, and end strength should have been increased then. Now, almost 4 
years later, heavily engaged in two major operations with no end in 
sight, massive Guard and Reserve mobilizations, and implementation of 
``stop-loss'' policies, action to provide substantial relief is late 
and short of the need. Especially noteworthy is a recent memorandum 
detailing serious Army Reserve readiness concerns referencing the 
Reserves as ``rapidly degenerating into a broken force.''
    Administration and military leaders warn of a long-term mission 
against terrorism that requires sustained, large deployments to Central 
Asia and elsewhere. The Services simply do not have sufficient numbers 
to sustain the global war on terrorism, deployments, training exercises 
and other commitments, even with the recall of large numbers of Guard 
and Reserve personnel. Service leaders have tried to alleviate the 
situation by reorganizing deployable units, authorizing ``family down 
time'' following redeployment, or other laudable initiatives, but such 
things do little to eliminate long-term workload or training backlogs, 
and pale in the face of ever-increasing mission requirements. For too 
many years, there has always been another major contingency coming, on 
top of all the existing ones. If the administration does not recognize 
when extra missions exceed the capacity to perform them, Congress must 
assume that obligation.
    Some argue that increasing end strengths wouldn't help the 
situation, questioning whether the Services will be able to meet higher 
recruiting goals. The Coalition believes strongly that this difficult 
problem can and must be addressed as an urgent national priority, with 
increases in recruiting budgets as necessary.
    Others point to high reenlistment rates in deployed units in 
certain Services as evidence that high operations tempo actually 
improves morale. But much of the reenlistment rate anomaly is 
attributable to tax incentives that encourage members to accelerate or 
defer reenlistment to ensure this occurs in a combat zone, so that any 
reenlistment bonus will be tax-free. Retention statistics are also 
skewed by stop-loss policies. Experience has shown time and again that 
family separation is the single greatest retention disincentive. The 
Military Coalition believes that those who ignore this and argue there 
is no retention problem are ``whistling past the graveyard.''
    The Military Coalition strongly recommends additional funding for 
permanent end strength increases to sustain the long-term global war on 
terrorism and fulfill national military strategy. The Coalition 
supports increases in recruiting resources as necessary to meet this 
requirement and ease operational stresses on active, Guard and Reserve 
personnel.
    Accession and Retention Bonuses.--In the interim, maintaining and 
increasing accession and retention bonuses is crucial to meet manning 
requirements. The Services have requested increased bonus authority and 
special pay authority, as well as more flexible authorities, to meet 
specific manning, retention and assignment needs. The Coalition 
strongly supports these efforts and hopes the Subcommittee will provide 
the full funding needed to sustain these critical programs.
    The Military Coalition strongly recommends additional funding to 
increase accession and retention bonuses.
    Combat and Incentive Pays During Hospitalization.--The Coalition is 
concerned that current eligibility rules for combat zone compensation 
programs are insensitive to the circumstances of wounded members during 
hospitalization and rehabilitation.
    Members assigned to combat zones, as well as those performing 
hazardous duty elsewhere, are eligible for additional compensation 
because the country recognizes the increased risk to life and limb 
entailed in such duty. Yet the members who are injured or wounded lose 
eligibility for hazardous duty/combat incentive programs during their 
hospitalization and recovery from their injuries. In many cases, this 
recovery can take months, and their families may be subject to 
additional expenses because of their incapacity.
    If we acknowledge that members deserve these extra pays for 
incurring the risk inherent in a combat zone, we should also 
acknowledge an obligation to continue such pays for those who actually 
incur combat injuries until they can be returned to duty, retired, or 
separated.
    The Military Coalition strongly urges the subcommittee to take 
action to ensure servicemembers injured or wounded as a result of 
hazardous duty/combat do not have their compensation reduced during 
periods of hospitalization. The Coalition believes funding support is 
essential to sustain compensation for servicemembers who continue to 
suffer from the wounds and injuries these incentive programs were 
created to recognize.
    Commissaries.--The Coalition is committed to preserving the value 
of the commissary benefit--which is widely recognized as the 
cornerstone of quality of life benefits and a valued part of 
servicemembers' total compensation package.
    In the fiscal year 2005 Defense Authorization Act, Congress enacted 
stronger statutory protections for the commissary and exchange systems.
    The Coalition supports cost savings through effective oversight and 
management. However, we are concerned about the unrelenting pressure on 
the Defense Commissary Agency to cut spending and squeeze additional 
efficiencies from its operations--despite years of effective reform 
initiatives and recognition of the agency for instituting improved 
business practices.
    The commissary is a highly valued quality of life benefit whose 
savings and retention value for military members far exceeds the 
appropriated amount.
    The Military Coalition opposes initiatives that would reduce 
Commissary benefits or savings for members, and strongly supports full 
funding of the benefit in fiscal year 2006 and beyond to sustain the 
current level of service for all patrons, including retirees, Guard and 
Reserve personnel, and their families.
    Family Readiness and Support.--Today, two-thirds of active duty 
families and virtually all Guard and Reserve families live off military 
installations, and approximately 60 percent of these servicemembers are 
married. A fully funded family readiness program to include financial 
education and benefit information has never been a more crucial 
component to the military mission and overall readiness than it is 
today.
    More needs to be done to ``connect'' servicemembers and their 
families with important resources. A more aggressive outreach effort is 
needed to educate servicemembers and their families on the benefits and 
programs to which they are entitled. A systematic and integrated family 
support system will help families cope with the stresses of deployment 
and the demands of military life. Addressing such issues as childcare, 
spousal employment/education, flexible spending accounts, increases in 
SGLI, and other quality of life concerns will go a long way in 
enhancing family well-being and improving retention and morale of the 
force.
    The Military Coalition urges additional funding for improved family 
readiness through further education and outreach programs and increased 
childcare availability for servicemembers and their families and 
associated support structure to assist families left behind during 
deployments of active duty, Guard and Reserve members.
    Death Benefits Enhancement.--Military insurance and death gratuity 
fall short of what is needed when measured by private sector standards 
for employees in hazardous occupations.
    The fiscal year 2005 Emergency Supplemental Appropriations Act will 
increase the death gratuity and upgrade military life insurance 
programs. Continued funding for these significant upgrades is essential 
for fiscal year 2006 and the out years.
    The Military Coalition urges the subcommittee to fully fund 
military death benefits improvements.

                   NATIONAL GUARD AND RESERVE ISSUES

    More than 473,000 members of the National Guard and Reserve have 
been mobilized since September 11, 2001, and many thousands more are in 
the activation pipeline. Today, they face the same challenges as their 
active counterparts, with a deployment pace greater than any time since 
World War II.
    Guard/Reserve operational tempo has placed enormous strains on 
reservists, their family members and their civilian employers alike. 
Homeland defense and war-on-terror operations continue to place demands 
on citizen soldiers that were never anticipated under the ``Total 
Force'' policy. The Coalition understands and fully supports that 
policy and the prominent role of the Guard and Reserve forces in the 
national security equation.
    However, many Guard and Reserve members are facing increased 
financial burdens under the current policy of multiple extended 
activations over the course of a reserve career. Some senior reserve 
leaders are rightly alarmed over likely manpower losses if action is 
not taken to relieve pressures on Guard and Reserve troops. The 
Coalition believes that addressing critical Guard and Reserve pay, 
bonuses, benefits and entitlements issues--along with active duty 
manpower increases--are needed to alleviate those pressures and help 
retain these qualified, trained professionals.
    Healthcare for Members of the National Guard and Reserve.--The 
Military Coalition is very grateful that Congress established the 
``TRICARE Reserve Select'' health benefit in the fiscal year 2005 
National Defense Authorization Act. This new authority--along with 
permanent pre- and post- activation TRICARE coverage--will help address 
the needs of Guard and Reserve families in the call-up pipeline. We 
anticipate that further improvements in this program are likely to be 
forthcoming in the fiscal year 2006 Defense Authorization Act.
    More specifically, with the increasing rate of utilization for all 
areas of our Reserve Components increasing, we feel that Congress must 
act to provide increased health care benefits for all our country's 
Guardsmen, Reservists, and their families, to guarantee the Nation can 
continue to call on them.
    It is our strong recommendation that we must provide and fund a 
permanent TRICARE program on a cost-share basis for our members of the 
Guard and Reserve components who are being mobilized and deployed at 
increasing rates.
    Seventy percent of Guard and Reserve members have employer-
sponsored health insurance. The Coalition believes this is not a ``one 
size fits all'' population. Usage of the TRICARE benefit when the 
servicemember is activated may not be the best way to ensure continuity 
of care for some families. As an option for these servicemembers, the 
Coalition urges Congress to take action to have the government pay part 
or all of private health insurance premiums when activation occurs, a 
program already in effect for reservists who work for the Department of 
Defense.
    The Military Coalition recommends funding to allow permanent 
authorization of cost-share access to TRICARE for all members of the 
Selected Reserve and IRR members subject to activation under 
Presidential call-up authority, to support readiness, family morale, 
and deployment health preparedness.
    Eliminate BAH II.--BAH II is paid to Guard and Reserve members in 
lieu of regular BAH (Basic Allowance for Housing) who are on orders of 
less than 140 days. BAH II is an antiquated standard that no longer 
bears any relation to real housing expenses and is, on average, far 
less than the BAH rate for any given locality. There is an exception to 
this rule that applies, by public law, for those called up for a 
contingency operation. The Coalition believes strongly that any member 
activated for 30 days or more should be eligible for locality-based 
BAH.
    The Military Coalition urges appropriation of funding to permit 
payment of locality-based BAH to all Guard and Reserve members 
mobilized for 30 days or more.
    Family Support Programs.--Providing a core set of family programs 
and benefits that meet the unique needs of these families would go a 
long way in improving morale and meeting family readiness challenges.
    These programs would promote better communication with 
servicemembers, specialized support for geographically separated Guard 
and Reserve families, and training (and back-up) for family readiness 
volunteers. Such access would include:
  --Expansion of web-based programs and employee and family assistance 
        programs like Military One Source and Guard Family.org;
  --Enforcement of command responsibility for ensuring that programs 
        are in place to meet the special information and support needs 
        of Guard/Reserve families;
  --Expanded programs between military and community religious leaders 
        to support service members and families during all phases of 
        deployments;
  --The availability of robust preventative counseling services for 
        service members and families and training so they know when to 
        seek professional help related to their circumstances;
  --Enhanced education for Reserve component family members about their 
        rights and benefits;
  --Innovative and effective ways to meet Reserve component community 
        needs for occasional child care, particularly for preventative 
        respite care, volunteering, family readiness group meetings and 
        drill time; and,
  --A joint family readiness program to facilitate understanding and 
        sharing of information between all family members, no matter 
        what the service.
    We applaud the support shown to families by DOD and military and 
civilian community organizations. But with the continued and sustained 
activation of the Reserve Component, a stronger support structure needs 
to be implemented, funded, and sustained.
    The Military Coalition urges Congress to increase funding for 
military family support programs to meet the unique needs of the 
families of mobilized Guard and Reserve component members.

                              HEALTH CARE

    The Military Coalition (TMC) is most appreciative of the 
subcommittee's efforts to honor the government's health care 
commitments to all uniformed services beneficiaries. While much has 
been accomplished, we are equally concerned about making sure that 
subcommittee-directed changes are implemented and the desired positive 
effects actually achieved.

               FULL FUNDING FOR THE DEFENSE HEALTH BUDGET

    Once again, a top Coalition priority is to work with Congress and 
DOD to ensure full funding of the Defense Health Budget to meet 
readiness needs--including graduate medical education and continuing 
education, full funding of both direct care and purchased care sectors, 
providing access to the military health care system for all uniformed 
services beneficiaries, regardless of age, status or location. An 
underfunded Defense Health Program inevitably compromises the 
capability to deliver desired levels of quality care and undermines the 
health care benefits military beneficiaries have earned. A fully funded 
health care benefit is critical to readiness and the retention of 
qualified uniformed service personnel.
    The subcommittee's continued oversight of the defense health budget 
is essential to avoid a return to the chronic under funding of recent 
years that led to execution shortfalls, shortchanging of the direct 
care system, inadequate equipment capitalization, failure to invest in 
infrastructure, curtailed drug formularies, and reliance on annual 
emergency supplemental funding requests as a substitute for candid and 
conscientious budget planning. We are grateful that once again late 
last year, Congress provided $683 million supplemental appropriations 
to meet the last quarter's obligations--but not all of the growing 
requirements in support of the deployment of forces to Southwest Asia 
and Afghanistan in the global war against terrorism.
    The Coalition is hopeful that fiscal year 2006 funding levels will 
not fall short of current obligations. We fear that additional 
supplemental funding will once again be required. Last year, citing 
budgetary restraints, the Air Force made a unilateral decision to 
remove certain drugs from military treatment facility (MTF) 
formularies. We appreciate that these are extremely challenging budget 
times for MTF commanders; however, we are greatly concerned that this 
budget-driven action undermined the deliberative process by which the 
Uniform Formulary must be developed.
    In addition, this policy forced increased use of mail-order and 
retail pharmacy programs, and thus increased costs to both DOD and 
beneficiaries; inappropriately made budget considerations the primary 
driver of formulary limits; and imposed regrettable inter-service 
disparities in pharmacy benefits.
    Health care requirements for members returning from the GWOT are 
also expected to continue to strain the military delivery system in 
ways that may not have been anticipated in the budgeting process. 
Similarly, implementation of the TRICARE Standard requirements in the 
fiscal year 2004 Authorization Act--particularly those requiring 
actions to attract more TRICARE providers--will almost certainly 
require additional resources that we do not believe are being budgeted 
for. Financial support for these increased readiness requirements; 
TRICARE provider shortfalls and other needs will most likely require 
additional funding.
    At the January 2005 TRICARE Conference, Assistant Secretary 
Winkenwerder said that funding for fiscal years 2006 and 2007 was 
adequate. However, he went on to state, ``looking to the longer term, 
I'm candidly concerned.'' At the same conference Air Force Chief of 
Staff Gen. John Jumper said that the health system faces an $11 billion 
shortfall over the next few years.
    The Military Coalition strongly recommends the subcommittee ensure 
full funding of the Defense Health Program, including military medical 
readiness, needed TRICARE Standard improvements, and the DOD peacetime 
health care mission. It is critical that the Defense Health Budget be 
sufficient to secure increased numbers of providers needed to ensure 
access for TRICARE beneficiaries in all parts of the country.

                             TRICARE ISSUES

    Provider Reimbursement.--The Coalition appreciates Congress's 
efforts to address provider reimbursement needs in the fiscal year 2004 
NDAA (Public Law 108-136). We recognize that part of the problem is 
endemic to the flawed Medicare reimbursement system, to which TRICARE 
rates are directly tied.
    The Coalition is troubled to note that a flaw in the provider 
reimbursement formula led the Centers for Medicare and Medicaid (CMS) 
to propose cutting Medicare fees in recent years, which were only 
forestalled by last-minute legislative relief. While the Coalition is 
grateful for Congress's temporary fixes, the reimbursement formula 
remains broken.
    Once again, the Coalition wishes to bring to the subcommittee's 
attention that the 2004 report of the Medicare Trustees predicts 5 
percent annual cuts in Medicare reimbursements to providers for 2006 
through 2012. However, MedPAC has recommended raising Medicare's 
physician payment rate by 2.7 percent in 2006, stating that a ``small 
but consistent share'' of beneficiaries have experienced some 
difficulty in accessing providers.
    Cuts in Medicare (and thus TRICARE) provider payments, on top of 
providers' increasing overhead costs and rapidly rising medical 
liability expenses, seriously jeopardizes providers' willingness to 
participate in both these programs. Provider resistance is much more 
pronounced for TRICARE than Medicare for a variety of social, workload, 
and administrative reasons. Provider groups tell us that TRICARE is 
seen as the lowest-paying program they deal with, and often causes them 
the most administrative problems. This is a terrible combination of 
perceptions if you are a TRICARE Standard patient trying to find a 
doctor.
    For patients in Prime the situation is growing increasingly 
problematic as deployments of large numbers of military health 
professionals continue to diminish the capacity of the military's 
direct health care system. In this situation, more and more TRICARE 
patients have to turn to the purchased care sector--thus putting more 
demands on civilian providers who are reluctant to take an even larger 
number of beneficiaries with relatively low-paying TRICARE coverage.
    The Coalition firmly believes this is a readiness issue. Our 
deployed service men and women need to focus on their mission, without 
having to worry whether their family members back home can find a 
provider. Uniformed services beneficiaries deserve the Nation's best 
health care, not the cheapest.
    Congress did the right thing by reversing the proposed provider 
payment cuts previously planned for March 1, 2003 and January 1, 2004, 
and instead providing 1.6 percent and 1.5 percent payment increases 
respectively. Unless Congress or the administration acts soon, 
effective next year, providers will have to absorb a 5 percent cut for 
TRICARE patients as well as Medicare patients. More importantly, the 
underlying formula needs to be fixed to eliminate the need for 
perennial ``band-aid'' corrections.
    The Military Coalition requests the subcommittee's support of any 
means to stabilize, maintain and fund Medicare and TRICARE provider 
payment rates to ensure beneficiary access.

                               CONCLUSION

    The Military Coalition reiterates its profound gratitude for the 
extraordinary progress this subcommittee has made in advancing a wide 
range of personnel and health care initiatives for all uniformed 
services personnel and their families and survivors. The Coalition is 
eager to work with the subcommittee in pursuit of the goals outlined in 
our testimony. Thank you very much for the opportunity to present the 
Coalition's views on these critically important topics.
                                 ______
                                 
          Prepared Statement of the Naval Reserve Association

    Chairman Stevens, Senator Inouye and distinguished members of the 
subcommittee, on behalf of our 22,000 members, and in advocacy for the 
80,000 active Naval Reservists and the mirrored interest of Guard and 
Reserve personnel, we are grateful for the opportunity to submit 
testimony, and for your efforts in this hearing.
    We very much appreciate the efforts of this subcommittee, the full 
committee on Appropriations and like committees in the House of 
Representatives to support our deployed personnel and their families. 
Your willingness to address and correct issues facing Guardsmen and 
Reservists affirms their value to the defense of our great Nation. Your 
recognition of these men and women as equal partners in time of war 
stands you well in the eyes of many. Our young Naval Reservists 
indicate to us that they are watching and waiting to see our actions to 
address their concerns. Your willingness to look at issues related to 
the use of the Guard and Reserve on the basis of fairness sets the 
Legislative Branch well above the Executive Branch which seemingly 
develops its positions on the basis of cost.
    That said, there are issues that need to be addressed by this 
committee and this Congress.
    Recruiting and retention issues are moving to center stage for all 
services and their reserve components. In all likelihood the Navy will 
not meet its target for 13,000 new Naval Reservists and the Naval 
Reserve will be challenged to appreciably slow the departure of 17,000 
experienced personnel this fiscal year. Other services and their 
Reserve Components likely face these same challenges.
    We believe that Congress and this committee should give the 
services the tools targeted to mid-career personnel in the Guard and 
Reserve: (1) appropriate critical skills bonuses for Guardsmen and 
Reservists (G&R) that would provide $100,000 over an entire career (no 
authorization exists for G&R personnel while one with a $200,000 limit 
exists for active duty personnel); (2) increase affiliation bonuses to 
$15,000 to attract veterans; (3) restore the Reserve MGIB to 50 percent 
of the active duty entitlement (presently at 28 percent) and make it 
available throughout a career; (4) Provide the resources to maintain 
Navy Reserve end strength at 66,000 Selected Reservists and 13,500 for 
FTS personnel; and (5) Provide supportive language that provides for an 
earlier than age 60 retirement.
    We've heard that Reserve Chiefs are in agreement, expressing 
concern that senior personnel will leave in droves. Hopefully this is 
more than conscript thinking. A compromise solution to this earlier 
than age 60 retirement issue is something modeled after Social 
Security--if you take reserve retirement as early as age 55 you do so 
with a greatly reduced annuity for life. This NRA-conceived proposal 
would significantly reduce the estimated costs to the government over 
other plans being proposed. The money has been accrued; the costs then 
would be those associated with administering monthly payments earlier 
than expected and any lost interest on the accrued amount. The greatly 
reduced annuity for life may very well serve as a disincentive to early 
retirement for the senior leaders who truly have upwardly mobile 
careers.
    We ask you to fund Navy Reserve equipment in the NGREA accounts, 
including an additional C-40 aircraft that is critical for supporting 
Reserve forces in today's Global War on Terrorism. The Navy Reserve is 
downsizing. Naval Reserve units are engaged in this Global War, and 
these units, the people, and their families are responding to Combatant 
Commanders calls. We must maintain the proper equipment for these Navy 
Reserve units and Navy Reserve Sailors. The AC will not do it, yet will 
call on them to respond. Only through the NGREA will your citizen-
Sailors be able to respond to the needs of the Nation and Combatant 
Commanders.
    These recommendations are relevant to the needs of the services 
today, and to the future readiness of the Nation. The last two issues 
(end-strength cap) and (early retirement) are on the minds of many 
Guardsmen and Reservists. We urge you to address these issues as our 
young Sailors are very concerned about these issues, and what it means 
to their long term service.
    In summary, we believe the committee needs to address the following 
issues for our Guardsman and Reservists in the best interest of our 
National Security:
  --Increase funding for Naval Reserve equipment in NGREA
  --Address and authorize recruitment and retention issues:
    --Authorize critical skills bonuses for Guardsmen and Reservists--
            $100,000 over an entire career
    --Increase affiliation bonuses to $15,000 to attract veterans
    --Restore Reserve MGIB to 50 percent of the active duty entitlement
  --Establish 79,500 SelRes (66,000) and FTS (13,500) as a floor for 
        end strength to Navy Reserve manpower--providing for surge-
        ability and operational support
  --Substantiate that Navy Reserve equipment remain a part of the Chief 
        of Naval Reserve inventory
  --Reduce annuity for reserve retirement before age 60 is a retention 
        issue, and must be addressed by this Congress.
    For Navy Reserve NGREA accounts we recommend the following: (1) C-
40 Procurement--procure 1 additional C-40 for fiscal year 2006; (2) 
Equipment for Naval Coastal Warfare/Small Arms--Emerging GWOT 
requirement EOD/NCW equipment for Naval Coastal Warfare units; (3) 
Reserve Requirements--for activation--Funds associated for Reservist 
mobilize for GWOT.
    The above are a part of the Navy's unfunded list; however, there 
are other items that must be addressed in the NGREA account. Guard and 
Reserve Components still need the funding Congress provides through 
this means.
    We thank the committee for consideration of these tools to assist 
the Guard and Reserve in an age of increased sacrifice and utilization 
of these forces.
                                 ______
                                 
       Prepared Statement of Neurofibromatosis, Inc.--New England

    Thank you, Mr. Chairman, for the opportunity to present testimony 
to the subcommittee on the importance of continued funding for 
Neurofibromatosis (NF), a terrible genetic disorder directly associated 
with military purposes and closely linked too many common diseases 
widespread among the American population.
    I am Naomi Stonberg, representing Neurofibromatosis, Inc., New 
England which is a participant in a national coalition of NF advocacy 
groups. I am actively involved in creating awareness of NF and 
promoting scientific research in this area. I am here on behalf of the 
100,000 Americans who suffer from NF, including my daughter and nephew, 
as well as approximately 175 million Americans who suffer from diseases 
linked to NF, including some of the most common forms of cancer, brain 
tumors, congenital heart disease, hypertension, memory loss and 
learning disabilities.
    Mr. Chairman, I am requesting increased support, in the amount of 
$25 million, to continue the Army's highly successful NF Research 
Program (NFRP), which is now at the critical point of establishing a 
nation-wide clinical trials consortia. The program's great success can 
be seen in the commencement of clinical trials only 10 years since the 
discovery of the NF1 gene. Now, with NF in the expensive but critical 
era of clinical and translational research, scientists closely involved 
with the Army program have stated that the number of high-quality 
scientific applications justify a much larger program.

                    WHAT IS NEUROFIBROMATOSIS (NF)?

    NF is a genetic disorder involving the uncontrolled growth of 
tumors along the nervous system which can result in terrible 
disfigurement, deformity, deafness, blindness, brain tumors, cancer, 
and/or death. NF can also cause other abnormalities such as unsightly 
benign tumors across the entire body and bone deformities. In addition, 
approximately one-half of children with NF suffer from learning 
disabilities. NF is the most common neurological disorder caused by a 
single gene. While not all NF patients suffer from the most severe 
symptoms, all NF patients and their families live with the uncertainty 
of not knowing whether they will be seriously affected one day because 
NF is a highly variable and progressive disease.
    Approximately 100,000 Americans have NF. It appears in 
approximately one in every 3,500 births and strikes worldwide, without 
regard to gender, race or ethnicity. It is estimated that 50 percent of 
new cases result from a spontaneous mutation in an individual's genes 
and 50 percent are inherited. There are two types of NF: NF1, which is 
more common, and NF2, which primarily involves acoustic neuromas and 
other tumors, causing deafness and balance problems. Advances in NF 
research will benefit over 175 million Americans in this generation 
alone because NF is directly linked to many of the most common diseases 
affecting the general population, as indicated above.

                    NF'S CONNECTION TO THE MILITARY

    NF research is directly linked to military purposes because NF is 
closely linked to cancer, brain tumors, memory loss, learning 
disabilities, heart disease, brain tissue degeneration, nervous system 
degeneration, healing after wounding, deafness, and balance. Because NF 
manifests itself in the nervous system, this subcommittee, in past 
Report language, has stated that Army-supported research on NF includes 
important investigations into genetic mechanisms governing peripheral 
nerve regeneration after injury from such things as missile wounds and 
chemical toxins. For the same reason, this subcommittee also stated 
that NF may be relevant to understanding Gulf War Syndrome and to 
gaining a better understanding of wound healing. Today, NF research now 
includes important investigations into genetic mechanisms which involve 
not just the nervous system but also other cancers.

                        LINK TO OTHER ILLNESSES

    Researchers have determined that NF is closely linked to cancer, 
heart disease, learning disabilities, memory loss, brain tumors, and 
other disorders including deafness, blindness and orthopedic disorders, 
primarily because NF regulates important pathways common to these other 
disorders such as the RAS, cAMP and PAK pathways. Research on NF 
therefore stands to benefit millions of Americans.
    Cancer.--Research has demonstrated that NF's tumor suppressor 
protein, neurofibromin, inhibits RAS, one of the major malignancy 
causing growth proteins involved in 30 percent of all cancer. 
Accordingly, advances in NF research may well lead to treatments and 
cures not only for NF patients but for all those who suffer from cancer 
and tumor-related disorders. Similar studies have also linked epidermal 
growth factor receptor (EGF-R) to malignant peripheral nerve sheath 
tumors (MPNSTs), a form of cancer which disproportionately strikes NF 
patients.
    Heart disease.--Researchers have demonstrated that mice completely 
lacking in NF1 have congenital heart disease that involves the 
endocardial cushions which form in the valves of the heart. This is 
because the same ras involved in cancer also causes heart valves to 
close. Neurofibromin, the protein produced by a normal NF1 gene, 
suppresses ras, thus opening up the heart valve. Promising new research 
has also connected NF1 to cells lining the blood vessels of the heart, 
with implications for other vascular disorders including hypertension, 
which affects approximately 50 million Americans. Researchers believe 
that further understanding of how an NF1 deficiency leads to heart 
disease may help to unravel molecular pathways affected in genetic and 
environmental causes of heart disease.
    Memory Loss and Learning Disabilities.--Because NF regulates and 
controls pathways vital to cognition, the RAS and the cyclic AMP 
pathways, researchers have determined that NF is directly linked to 
memory loss and learning disabilities affecting over 25 million and 35 
million Americans respectively. Indeed, 5 percent of the world's 
population suffers from learning disabilities alone. NF researchers 
have successfully rescued learning deficits, including memory loss and 
learning disabilities, in pre-clinical animal models, which will 
benefit all people suffering from these conditions, not just those with 
NF. In addition, by curing learning disabilities, Federal, State, and 
local governments and school districts will save billions of dollars in 
special education costs.
    Deafness.--NF2 accounts for approximately 5 percent of genetic 
forms of deafness. It is also related to other types of tumors, 
including schwannomas and meningiomas, as well as being a major cause 
of balance problems.

                 THE ARMY'S CONTRIBUTION TO NF RESEARCH

    Recognizing NF's importance to both the military and to the general 
population, Congress has given the Army's NF Research Program strong 
bipartisan support. After the initial 3-year grants were successfully 
completed, Congress appropriated continued funding for the Army NF 
Research Program on an annual basis. From fiscal year 1996 through 
fiscal year 2005, this funding has amounted to $155.3 million, in 
addition to the original $8 million appropriation in fiscal year 1992. 
Between fiscal year 1996 and fiscal year 2004, 138 awards have been 
granted to researchers across the country. The Army program funds 
innovative, groundbreaking research which would not otherwise have been 
pursued, and has produced major advances in NF research, such as the 
development of advanced animal models, preclinical therapeutic 
experimentation and clinical trials. The program has brought new 
researchers into the field of NF, as can be seen by the nearly 60 
percent increase in applications in the past year alone. Unfortunately, 
despite this increase, the number of awards has remained relatively 
constant over the past couple of years resulting in many highly 
qualified applications going unfunded. Army officials administering 
this program have indicated in the past that they could easily fund 30 
percent more applications if funding were available because of the high 
quality of the research applications received.
    In order to ensure maximum efficiency, the Army collaborates 
closely with other Federal agencies that are involved in NF research, 
such as NIH and the VA. Senior program staff from the National Cancer 
Institute (NCI) and the National Institute of Neurological Disorders 
and Stroke (NINDS), for example, has sat on the Army's NF Research 
Program's Integration Panel which sets the long-term vision and funding 
strategies for the program. This assures the highest scientific 
standard for research funding, efficiency and coordination while 
avoiding duplication or overlapping of research efforts.
    Because of the enormous advances that have been made as a result of 
the Army's NF Research Program, research in NF has truly become one of 
the great success stories in the current revolution in molecular 
genetics, leading one major researcher to conclude that more is known 
about NF genetically than any other disease. Accordingly, many medical 
researchers believe that NF should serve as a model to study all 
diseases. Indeed, in just over a dozen years since the discovery of the 
NF1 gene, researchers have successfully cured both NF's cognitive and 
tumor disorders in mice, have successfully removed NF tumors in at 
least one clinical trial involving human patients and are now on the 
threshold of developing a treatment and cure for this terrible disease.
    In just the past few years, scientists have made major 
breakthroughs bringing NF fully into the translational era, with 
treatments close at hand. These recent advances have included:
  --Phase II and Phase III clinical trials involving new drug 
        therapies;
  --Creation of a National Clinical Trials Consortia and NF Centers;
  --Successfully eliminating tumors in NF1 and NF2 mice with the same 
        drug;
  --Developing advanced mouse models showing human symptoms;
  --Rescuing learning deficits and eliminating tumors in mice with the 
        same drug;
  --Linking NF to vascular disorders such as congenital heart disease 
        and hypertension, affecting more than 50 million Americans; and
  --Conducting natural history studies to analyze the progression of 
        the disease.

                           FUTURE DIRECTIONS

    NF research has now advanced to the translational and clinical 
stages which hold incredible promise for NF patients, as well as for 
patients who suffer from many of the diseases linked to NF. This 
research is costly and will require an increased commitment on the 
Federal level. Specifically, future investment in the following areas 
would continue to advance research on NF:
  --Clinical trials;
  --Funding of a clinical trials network to connect patients with 
        experimental therapies;
  --Development of NF Centers, tissue banks, and patient registries;
  --Development of new drug and genetic therapies;
  --Further development of advanced animal models;
  --Expansion of biochemical research on the functions of the NF gene 
        and discovery of new targets for drug therapy; and
  --Natural history studies and identification of modifier genes--
        studies are already underway to provide a baseline for testing 
        potential therapies and differentiate among different 
        phenotypes of NF.

                        FISCAL YEAR 2006 REQUEST

    Mr. Chairman, the Army's highly successful NF Research Program has 
shown tangible results and direct military application with broad 
implications for the general population. The program has now advanced 
to the translational and clinical research stages, which are the most 
promising, yet the most expensive direction that NF research has taken. 
The program has succeeded in its mission to bring new researchers and 
new approaches to research into the field. Therefore, increased funding 
is now needed to take advantage of promising avenues of investigation, 
to continue to build on the successes of this program, and to fund this 
promising research thereby continuing the enormous return on the 
taxpayers' investment.
    I respectfully request an appropriation of $25 million in your 
fiscal year 2006 Department of Defense Appropriations bill for the Army 
Neurofibromatosis Research Program. This is level funding from the 
fiscal year 2005 level of $25 million.
    Mr. Chairman, in addition to providing a clear military benefit, 
the DOD's Neurofibromatosis Research Program also provides hope for the 
100,000 Americans who suffer from NF, as well as the tens of millions 
of Americans who suffer from NF's related diseases such as cancer, 
learning disabilities, memory loss, heart disease, and brain tumors. 
Leading researchers now believe that we are on the threshold of a 
treatment and a cure for this terrible disease. With this 
subcommittee's continued support, we will prevail.
    Thank you for your support of this program and I appreciate the 
opportunity to present this testimony to the subcommittee.

                         CONCLUSION OF HEARINGS

    Senator Stevens. This subcommittee will reconvene again 
tomorrow morning at 10 a.m. for a closed session to review the 
fiscal year 2006 defense intelligence budget. We will stand in 
recess until that time.
    [Whereupon, at 4:58 p.m., Tuesday, May 17, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Allard, Senator Wayne, U.S. Senator From Colorado, Statement of..     2
Armen, Harry, Ph.D., President, American Society of Mechanical 
  Engineers......................................................   633
    Prepared Statement of........................................   635
Arthur, Vice Admiral Donald C., Medical Corps, Surgeon General, 
  United States Navy, Medical Programs, Department of Defense....   429
    Prepared Statement of........................................   432
    Questions Submitted to.......................................   494
Austin, Lieutenant Colonel Paul N., CRNA, Ph.D., U.S. Air Force 
  (Retired), on behalf of the American Association of Nurse 
  Anesthetists...................................................   617
    Prepared Statement of........................................   618

Barnes, Master Chief Joseph L., U.S. Navy (Retired), National 
  Executive Secretary, Fleet Reserve Association.................   686
    Prepared Statement of........................................   687
Blum, Lieutenant General H Steven, United States Army, Chief, 
  National Guard Bureau, Department of Defense...................   237
    Prepared Statement of........................................   245
    Questions Submitted to.......................................   289
Bond, Senator Christopher S., U.S. Senator From Missouri:
    Questions Submitted by.......................................   406
    Statement of.................................................   349
Bradley, Lieutenant General John A., Chief, Air Force Reserve, 
  United States Air Force, Department of Defense.................   330
    Prepared Statement of........................................   331
    Questions Submitted to.......................................   344
Brannon, Major General Barbara C., Assistant Air Force Surgeon 
  General for Nursing Services, Department of the Air Force, 
  Medical Programs, Department of Defense........................   474
    Prepared Statement of........................................   476
    Questions Submitted to.......................................   510
Bruno, Colonel Barbara J., AN, Deputy Chief, Army Nurse Corps, 
  United States Army, Medical Programs, Department of Defense....   459
    Prepared Statement of........................................   461
    Questions Submitted to.......................................   503
Burns, Senator Conrad, U.S. Senator From Montana, Prepared 
  Statements of..................................................10, 77
Byrd Senator Robert C., U.S. Senator From West Virginia, 
  Questions Submitted by........................................26, 225

Cartwright, General James E., United States Marine Corps, 
  Commander, United States Strategic Command, Missile Defense 
  Program, Department of Defense.................................   517
    Prepared Statement of........................................   521
    Questions Submitted to.......................................   549
    Summary Statement of.........................................   519
Clark, Admiral Vern, Chief of Naval Operations, Office of the 
  Secretary, Department of the Navy, Department of Defense.......    99
    Prepared Statement of........................................   123
    Questions Submitted to.......................................   188
    Summary Statement of.........................................   120
Cochran Senator Thad, U.S. Senator From Mississippi:
    Prepared Statement of........................................   225
    Questions Submitted by.......................................   25,
           28, 89, 92, 187, 188, 190, 230, 289, 290, 291, 343, 344, 553
    Statements of......................................2, 239, 348, 519
Cotton, Vice Admiral John G., Chief, Naval Reserve, United States 
  Navy, Department of Defense....................................   312
    Prepared Statement of........................................   312
    Questions Submitted to.......................................   342

D'Innocenzo, Donetta, Public Policy Committee, the Leukemia & 
  Lymphoma Society...............................................   652
    Prepared Statement of........................................   653
Destler, William W., Ph.D., Provost, University of Maryland, 
  College Park, on behalf of the Association of American 
  Universities...................................................   639
    Prepared Statement of........................................   640
Domenici, Senator Pete V., U.S. Senator From New Mexico, 
  Questions Submitted by................90, 92, 189, 190, 488, 550, 553
Dominguez, Hon. Michael L., Acting Secretary of the Air Force, 
  Office of the Secretary, Department of the Air Force, 
  Department of Defense..........................................   193
    Prepared Statement of........................................   195
    Questions Submitted to.......................................   225
Dorgan, Senator Byron L., U.S. Senator From North Dakota, 
  Statement of...................................................   239
Duggan, Dennis Michael, Deputy Director, National Security 
  Commission, The American Legion................................   611
    Prepared Statement of........................................   612

England, Hon. Gordon R., Secretary of the Navy, Office of the 
  Secretary, Department of the Navy, Department of Defense.......    99
    Prepared Statement of........................................   103
    Question Submitted to........................................   187
    Summary Statement of.........................................   101

Feinstein, Senator Dianne, U.S. Senator From California, 
  Questions Submitted by.......................................407, 557
Foil, Martin B., Jr., Member, Board of Directors, National Brain 
  Injury Research, Treatment, and Training Foundation............   606
    Prepared Statement of........................................   607

Goldberg, Joan, Executive Director, American Society for Bone and 
  Mineral Research, Prepared Statement of........................   603
Goldman, Patricia, President Emeritus, on behalf of the Ovarian 
  Cancer National Alliance.......................................   656
    Prepared Statement of........................................   658
Guerra, Mary Ann, Senior Vice President for Research Operations, 
  Translational Genomics Research Institute, on behalf of the 
  National Prostate Cancer Coalition.............................   668
    Prepared Statement of........................................   670
Hagee, General Michael W., Commandant, United States Marine 
  Corps, Office of the Secretary, Department of the Navy, 
  Department of Defense..........................................    99
    Prepared Statement of........................................   150
    Questions Submitted to.......................................   190
    Summary Statement of.........................................   148
Hanson, Captain Marshall, U.S. Naval Reserve (Retired), Chairman, 
  Associations for America's Defense.............................   578
    Prepared Statement of........................................   579
Harvey, Hon. Francis, Secretary of the Army, Office of the 
  Secretary, Department of the Army, Department of Defense.......    31
    Prepared Statement of........................................    36
    Questions Submitted to.......................................    89
Helmly, Lieutenant General James R., Chief and Commander, Army 
  Reserves, United States Army, Department of Defense............   295
    Prepared Statement of........................................   296
    Questions Submitted to.......................................   341
Hickey, Sydney, on behalf of the National Military Family 
  Association....................................................   643
Hinestrosa, Carolina, Executive Vice President of Programs and 
  Planning, National Breast Cancer Coalition.....................   596
    Prepared Statement of........................................   598
Hoehn, Jim, on behalf of the Coalition of EPSCoR (Experimental 
  Program to Stimulate Competitive Research) States..............   622
Hurd, Captain Robert C., U.S. Navy (Retired).....................   673
    Prepared Statement of........................................   674
Hutchison, Senator Kay Bailey, U.S. Senator From Texas, Questions 
  Submitted by...................................................   556

Inouye, Senator Daniel K., U.S. Senator From Hawaii:
    Prepared Statements of............................32, 215, 238, 518
    Questions Submitted by......................................96, 491
    Statements of......................32, 100, 215, 238, 348, 420, 518

James, Lieutenant General Daniel, III, Director, Air National 
  Guard, United States Air Force, Department of Defense..........   268
    Prepared Statement of........................................   254
    Questions Submitted to.......................................   291
Jonas, Tina W., Under Secretary of Defense (Comptroller), Under 
  Secretary of Defense for Policy, Department of Defense.........1, 347
    Opening Statement of.........................................     2
    Prepared Statement of........................................     4
    Questions Submitted to.......................................    24
Jumper, General John P., Chief of Staff, Office of the Secretary, 
  Department of the Air Force, Department of Defense.............   193
    Prepared Statement of........................................   195
    Questions Submitted to.......................................   228

Kiley, Lieutenant General Kevin C., M.D., Surgeon General, 
  Department of the Army, Medical Programs, Department of Defense   419
    Biographical Sketch of.......................................   429
    Prepared Statement of........................................   423
    Questions Submitted to.......................................   487
Koper, Brigadier General Stephen, U.S. Air Force (Retired), 
  President, National Guard Association of the United States.....   661
    Prepared Statement of........................................   664
Leahy, Senator Patrick J., U.S. Senator From Vermont:
    Questions Submitted by......................416, 492, 496, 500, 502
    Statement of.................................................   240
Lescavage, Rear Admiral Nancy J., Navy Nurse Corps, United States 
  Navy, Medical Programs, Department of Defense..................   467
    Prepared Statement of........................................   470
    Questions Submitted to.......................................   507
Lukas, Susan E., Legislative Director, Reserve Officers 
  Association of the United States...............................   567
    Prepared Statement of........................................   568

Matz, Major General William, Jr., U.S. Army (Retired), President, 
  National Association for Uniformed Services....................   681
    Prepared Statement of........................................   683
McCarthy, Lieutenant General Dennis M., Commander, Marine Forces 
  Reserve, United States Marine Corps Reserve, Department of 
  Defense........................................................   319
    Prepared Statement of........................................   320
    Questions Submitted to.......................................   343
Mikulski, Senator Barbara A., U.S. Senator From Maryland:
    Questions Submitted by.................492, 497, 502, 505, 508, 512
    Statements of..............................................101, 239
Moakler, Kathleen B., Deputy Director, Government Relations, the 
  National Military Family Association, Prepared Statement of....   644
Myers, General Richard B., U.S. Air Force, Chairman, Joint Chiefs 
  of Staff, Office of the Secretary, Department of Defense.......   347
    Prepared Statement of........................................   362
    Questions Submitted to.......................................   416
    Statement of.................................................   360

Naval Reserve Association, Prepared Statement of.................   699
Neurofibromatosis, Inc.--New England, Prepared Statement of......   700
Obering, Lieutenant General Henry A., III, United States Air 
  Force, Director, Missile Defense Agency, Missile Defense 
  Program, Department of Defense.................................   517
    Prepared Statement of........................................   529
    Questions Submitted to.......................................   550
    Statement of.................................................   527
Odom, Dr. Jerome, Distinguished Provost Emeritus, University of 
  South Carolina on behalf of the Coalition of EPSCoR States, 
  Prepared Statement of..........................................   624
Olanoff, Command Master Sergeant Mark H., U.S. Air Force 
  (Retired), Executive Director, The Retired Enlisted Association   575
    Prepared Statement of........................................   576
Ovarian Cancer National Alliance, Prepared Statement of..........   659
Ovarian Cancer Research Program, Prepared Statement of...........   657

Polly, David W., Jr., M.D., Professor of Orthopaedic Surgery and 
  Chief of Spine Surgery, University of Minnesota, on behalf of 
  the American Association of Orthopaedic Surgeons...............   590
    Prepared Statement of........................................   591

Recker, Robert, M.D., Director, Osteoporosis Research Center, on 
  behalf of the National Coalition for Osteoporosis and Related 
  Bone Diseases..................................................   602
Rumsfeld, Hon. Donald H., Secretary of Defense, Office of the 
  Secretary, Department of Defense...............................   347
    Prepared Statement of........................................   356
    Questions Submitted to.......................................   401

Schoomaker, General Peter J., Chief of Staff of the Army, Office 
  of the Secretary, Department of the Army, Department of Defense    31
    Prepared Statement of........................................    36
    Questions Submitted to.......................................    91
Schultz, Lieutenant General Roger C., Director, Army National 
  Guard, United States Army, Department of Defense...............   268
    Prepared Statement of........................................   248
    Questions Submitted to.......................................   290
Schwartz, Sue, DBA, RN, Co-Chairman, Health Care Committee, 
  Military Officers Association of America, on behalf of The 
  Military Coalition (TMC), Prepared Statement of................   692
Shelby, Senator Richard C., U.S. Senator From Alabama, Questions 
  Submitted by...........25, 95, 231, 292, 342, 489, 495, 501, 550, 555
Silver, Chief Petty Officer Michael, United States Navy Sea Cadet 
  Corps..........................................................   673
Specter, Senator Arlen, U.S. Senator From Pennsylvania, Questions 
  Submitted by...................................................   401
Stevens, Senator Ted, U.S. Senator From Alaska:
    Opening Statements of.................1, 31, 99, 193, 419, 517, 567
    Questions Submitted by.......................................   24,
                                28, 89, 91, 228, 290, 291, 341, 342, 
                                343, 344, 487, 494, 498, 503, 507, 510, 
                                549, 550
    Statements of..............................................237, 347
Sullivan, Major General Paul J., Director of the Joint Staff, 
  National Guard Bureau, Department of Defense, Prepared 
  Statement of...................................................   260

Taylor, Lieutenant General George Peach, Jr., M.D., Air Force 
  Surgeon General, Department of the Air Force, Medical Programs, 
  Department of Defense..........................................   437
    Prepared Statement of........................................   439
    Questions Submitted to.......................................   498

Vendemia, Jennifer, Ph.D., on behalf of the American 
  Psychological Association......................................   585
    Prepared Statement of........................................   586
Volvner, Ian, on behalf of the Ovarian Cancer National Alliance..   656
    Prepared Statement of........................................   657
Weaver, Major General Paul A., Jr., U.S. Air Force (Retired), on 
  behalf of the Juvenile Diabetes Research Foundation 
  International..................................................   626
    Prepared Statement of........................................   628
Willard, Admiral Robert F., Director, Force Structure, Resources, 
  and Assessments, Office of the Chairman, Joint Chiefs of Staff, 
  Under Secretary of Defense for Policy, Department of Defense...     1
    Questions Submitted to.......................................    28


                             SUBJECT INDEX

                              ----------                              

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                        Office of the Secretary

                                                                   Page
Additional Committee Questions...................................   225
Aging Tanker Fleet...............................................   223
Air and Space Power Today........................................   197
Air and Space Power, Tomorrow Through the FYDP...................   199
Aircraft Acquisition.............................................   217
Base Realignment and Closure.....................................   221
    Excess Capacity Categories...................................   222
Community Basing Initiative......................................   220
Continuing Transformation........................................   194
C-130J Program...................................................   218
F/A-22 Program...................................................   224
Flying Operations................................................   214
Force Shaping....................................................   194
Future Airspace and Training Ranges..............................   218
Future Total Force........................................220, 225, 232
Military Personnel End Strength Management.......................   216
Personnel Structure..............................................   228
Program Management...............................................   229
Quadrennial Defense Review.......................................   217
Recapitalizing:
    Aging Systems................................................   194
    Force Structure..............................................   214
Recruiting.......................................................   217
    And Retention................................................   214
Restoring Trust and Confidence...................................   195
Shaping Tomorrow's Air and Space Power...........................   210
Space Radar......................................................   230
Summary--On Course for the Future................................   213
Tactical Air Traffic Control.....................................   230
Unmanned Aerial Vehicles (UAVs)..................................   231
Visiting Airmen Around the World.................................   214

                         Department of the Army

                        Office of the Secretary

Accomplishing the Mission Today: Sustaining Global Commitments...    42
Additional Committee Questions...................................    89
Army:
    Aviation Modernization.......................................    91
    Depot Capacity...............................................    85
    Modular Force................................................    70
Army National Guard:
    Information Systems Redesign.................................    89
    Modularity and Reset.........................................    80
Attaining a Quality of Life and Well-Being for Our People That 
  Match the Quality of Their Service.............................    51
Balancing Risk: The Tension Between Current and Future Demands...    55
Decrease in Milcon Budget........................................    83
Directed Energy Technology.......................................    77
Dual Status Technicians for Ground Based Mid-Course Mission in 
  Alaska.........................................................    87
Enabling Mission Accomplishment: Four Overarching, Interrelated 
  Strate- 
  gies...........................................................    43
End Strength.....................................................    91
Enlistment Standards.............................................    72
Firescout Unmanned Aerial Vehicle (UAV)..........................    87
Fiscal Year 2005 Supplemental Funding for Mobilization Stations..    74
Force Protection.................................................    66
    Industrial Base..............................................    81
Funding in the Fiscal Year 2005 Supplemental Request for 
  Mobilization and Training Barracks.............................    75
Funding the Army Modular Force...................................    73
Future Combat Systems............................................89, 93
Ground-based Mid-course Mission..................................    86
Housing at Kawajlein.............................................    88
Improvised Explosive Devices (IED's).............................    72
    Countermeasures..............................................    76
Integration of Firescout Unmanned Aerial Vehicle (UAV)...........    88
Joint Common Missile.............................................    95
Military Construction (Milcon)...................................    83
Mission: Supporting the National Security and Defense Strategies.    41
Mobile Tactical High Energy Laser (MTHEL)........................    92
Modularity.......................................................91, 92
167th Theater Support Command....................................    95
Optempo..........................................................    73
Performance of Stryker...........................................    96
    In Small Scale Contingencies.................................    96
Professional Military Education..................................    92
Providing Infrastructure to Enable the Force to Fulfill Its 
  Strategic Roles and Missions...................................    52
Providing Relevant and Ready Landpower to Support the Combatant 
  Commanders.....................................................    43
Purpose and Organization of the Posture Statement................    36
Recruiting and Retention.........................................69, 90
Remaining Relevant and Ready in Service to the Nation............    56
Reserve Components Modularity and Reset..........................    78
Rotorcraft Hub...................................................    90
Strategic Goal: Remaining Relevant and Ready . . . Today and 
  Tomorrow.......................................................    41
Tourniquets......................................................66, 68
Training and Equipping Soldiers to Serve as Warriors and Growing 
  Adaptive Leaders...............................................    47
21st Century Security Environment: An Era of Uncertainty and 
  Unpredictability...............................................    39
2005 Army Posture Statement Executive Summary....................    37
U.S. Army Kwajalein Atoll (USAKA) Dome Home Initiative...........    88

                         Department of the Navy

                        Office of the Secretary

Additional Committee Questions...................................   187
Aircraft:
    Carrier Propellers...........................................   188
    Procurement..................................................   181
Amphibious Transport Dock (LPD-17)...............................   179
Base Realignment and Closure (BRAC)..............................   176
Battleships......................................................   167
Bloodsworth Island...............................................   169
Changing the Way We Fight........................................   113
DD(X)............................................................   173
Equipment........................................................   108
    And Materiel Readiness.......................................   156
Fiscal Year 2005 Supplemental....................................   190
Fourth Generation Warfare........................................   182
Future Readiness.................................................   158
Future of the Navy Studies.......................................   184
High Energy Laser Lethality Experiment (HELSTF)..................   189
Improving Business Practices.....................................   110
Improvised Explosive Device (IED) Research.......................   176
Infrastructure...................................................   163
Introduction and the Value of Readiness..........................   150
Iraqi Armed Forces...............................................   175
Joint High Speed Vessel..........................................   187
LHA(R).........................................................173, 179
Littoral Combat Ship (LCS) Fire Scout Employment.................   188
Marine Corps Recruiting........................................168, 178
Medal of Honor...................................................   187
Missile Defense..................................................   184
Navy Desalination Program (EUWP).................................   189
Operations.......................................................   104
Our Fiscal Year 2006 Budget Request..............................   136
Personnel Readiness..............................................   151
Post Cold War Changes............................................   180
Protective Equipment for Marines.................................   171
Rocket, Artillery, Mortar Defense................................   190
Safety...........................................................   164
Sailors:
    And Marines..................................................   105
    Deployed to Iraq.............................................   183
Sea Swap Concept on Amphibious Ships.............................   180
Sea-based Missile Defense........................................   188
Shaping Our 21st Century Manpower................................   108
Ship:
    Force Structure............................................165, 178
    Naming.......................................................   178
Shipbuilding...................................................165, 172
Stealth on Vessels...............................................   185
Training and Education...........................................   155
U.S.S. John F. Kennedy...........................................   166
U.S.S. San Francisco.............................................   186
While Transforming to Win Tomorrow...............................   108
Winning Today . . ...............................................   104
Winning Today . . . While Transforming to Win Tomorrow...........   103
Your Navy Today--Focused on Winning the Fight....................   123
Your Navy Tomorrow--Bridging to the Future.......................   129

                            Medical Programs

Access to Mental Health Services...............................488, 500
Additional Committee Questions...................................   487
Anthrax
    Vaccinations..........................................489, 490, 501
    Vaccine......................................................   495
CHCS II..........................................................   496
    And TRICARE Online...........................................   502
Civilian Nurses...........................................506, 509, 514
Combat Stress....................................................   453
    Control Teams................................................   489
Composite Health Care System.....................................   492
Composite Occupational Health and Operational Risk Tracking 
  System.........................................................   439
Critical Care Air Transportation Teams...........................   474
Deployment:
    Health Surveillance Program..................................   438
    Policy.......................................................   484
Deployments....................................................509, 513
Education......................................................508, 512
Educational Level................................................   486
Enhance Human Performance........................................   445
Ensuring a Fit and Healthy Force.................................   440
Epidemic Outbreak Surveillance Project...........................   438
Expeditionary:
    Medical Support..............................................   437
    Nursing......................................................   476
Experience.....................................................509, 513
Fit to Fight Program.............................................   438
Health Assessments...............................................   491
Inadequate Staffing..............................................   485
Joint Medical Capabilities.......................................   473
Males in Nurse Corps.............................................   483
Medical Professionals:
    Loan Repayment...............................................   458
    Recruiting and Retention.....................................   448
Mental Health and Post Traumatic Stress Disorder.................   497
Nurse Retention..................................................   475
Nursing:
    Deployments..................................................   506
    Education....................................................   505
    Experience...................................................   506
    Shortage..............................................505, 508, 512
One Navy Medicine................................................   472
Pay Scale Comparisons............................................   486
Post Traumatic Stress Disorder.................................492, 502
Preventing Casualties............................................   442
Programs for Assessing Physicians................................   455
Quality Health Services..........................................   471
Readiness........................................................   470
Recruiting and Retention.............................489, 503, 507, 510
Recruitment and Retention......................................450, 482
Restore Health...................................................   443
Scholarship Program..............................................   456
Shaping Tomorrow's Force.........................................   472
Specialty Providers..............................................   474
Suicide Prevention...............................................   491
Supporting Transformation.................................487, 494, 498
332nd Expeditionary Medical Group................................   475
TRICARE..........................................................   439
Training Programs................................................   452
TriService Nursing Research Program..............................   476
VA Nurses........................................................   483

                        Missile Defense Program

Achieving the Strategic Imperative...............................   526
Additional Committee Questions...................................   549
Aegis:
    Program and Funding Cut......................................   539
    Signal Processor.............................................   540
Airborne Laser:
    Applications.................................................   546
    Program......................................................   545
Arrow Missile Testing at White Sands Missile Range...............   555
Balanced Funding--Aegis, Laser, Global Missile Defense (GMD).....   538
Battle Management Command and Control............................   541
Building an Asymmetric Advantage.................................   524
Conventional Capabilities Robust Nuclear Earth Penetrator........   550
Cost.............................................................   557
Countermeasure and Countermeasure Testing........................   562
Effectiveness....................................................   564
Executive Decisionmaking Command and Control.....................   541
Global:
    Enablers.....................................................   522
    Missile Defense Shortfall....................................   539
Ground-Based:
    Mid-Course Program...........................................   549
    System Testing Program.......................................   542
Independent Review Team and Testing..............................   543
Infrastructure Cuts..............................................   538
Interceptors.....................................................   561
International Cooperation........................................   544
Joint Functional Component Command for Integrated Missile Defense   550
Missile Defense Agency $1 Billion Cut and Programs Affected......   548
Near-term Priorities.............................................   536
    Technology...................................................   537
Operational and Technical Readiness..............................   544
Operator Education Requirements..................................   545
Out-year Funding.................................................   549
Performance and Testing..........................................   557
Space-based Missile Defense Test Bed.............................   540
Terminal High Altitude Area Defense:
    Test Schedule................................................   554
    Testing......................................................   547
The 21st Century Global Environment..............................   521
The Evolving Security Environment................................   529
Value of Test Ranges to Missile Defense Agency...................   553

                             National Guard

Additional Committee Questions...................................   289
Air National Guard:
    Aircraft.....................................................   276
    Flying Missions..............................................   269
Air Sovereignty Alert............................................   269
Air Traffic Control..............................................   291
America's 21st Century Minutemen--Always Ready, Always There!....   243
Base Realignment and Closure (BRAC) and Future Total Force.......   270
CNGB Executive Summary...........................................   245
Community-based Citizen Soldier and Airmen Force.................   275
Future Total Force.............................................292, 293
Guard Mobilization Sites.........................................   289
Homeland Defense: Here and Abroad for Over 368 Years......251, 256, 263
Joint Staff Overview.............................................   260
Large Aircraft Infrared Countermeasures..........................   282
Left Behind Equipment............................................   290
Message From the Director........................................   254
Recruiting and Retention.......................................290, 291
Recruitment......................................................   293
Reserve Soldiers Employment......................................   289
State Adjutants General..........................................   267
Support the Warfight Anytime, Anywhere....................249, 255, 261
Transformation for the 21st Century..............................   265
    Ready, Reliable, Essential and Accessible....................   253
    Relevant Now . . . and in the Future.........................   258
``Serving a Nation at War: At Home and Abroad''..................   248

                        Office of the Secretary

Abuse of Iraqi Female Prisoners in Iraq..........................   412
Additional Committee Questions...................................   401
Appropriate Number of Up-armored Humvees.........................   408
Army Restructuring...............................................   411
Cancellation of Joint Common Missile.............................   398
Completion of Quadrennial Defense Review.........................   400
Cost and Impact of New Technologies..............................   394
C-130J:
    Acquisition................................................386, 393
    Program......................................................   414
Employer Treatment of Guard and Reserve Personnel................   380
F/A-22 Raptor Program............................................   413
Fiscal Year 2005 Supplemental Request............................   359
Fiscal Year 2006 Request.........................................   359
F-22 Acquisition.................................................   386
Global Hawk Program..............................................   414
Iraqi Security Forces............................................   407
Joint Warfighting................................................   371
Maintaining Industrial Capabilities..............................   381
National Missile Defense.........................................   415
Number of Troops for Iraq War....................................   389
Operation ENDURING FREEDOM (OEF).................................   367
Operation IRAQI FREEDOM (OIF)....................................   364
Other U.S. Overseas Operations...................................   368
Pay and Accounting Systems.......................................   395
Procurement of Planned New Systems...............................   393
Protecting Troops From Roadside Bombs............................   397
Protective Equipment for U.S. Troops.............................   396
Reserve and Guard Retention......................................   409
Robust Nuclear Earth Penetrator................................386, 414
Services and Counseling Provided to Surviving Family Members.....   385
Status of Our Military Personnel.................................   391
Stress on the:
    Active-Duty and Reserve Force................................   409
    Force........................................................   392
Transforming the Force...........................................   376
Urgency of Supplemental Appropriations...........................   381
Winning the Global War on Terrorism..............................   363
Withdrawal of Troops from Iraq...................................   413

                                Reserves

Activation:
    Impact.......................................................   323
    Philosophy...................................................   323
Additional Committee Questions...................................   341
Air Force Reserve:
    Recruitment..................................................   340
    Retention and Equipment......................................   338
Alignment........................................................   318
Current Readiness................................................   314
C-130E...........................................................   345
Embracing Profound Change........................................   297
Equipment........................................................   323
Equipping the Force..............................................   308
Fiscal Year 2006 Army Reserve Transformation.....................   342
Fleet Modernization..............................................   333
Force Generation:
    Management Programs..........................................   302
    Support Programs.............................................   305
Future:
    Readiness....................................................   316
    Total Force..................................................   344
Generating the Force.............................................   300
Infrastructure...................................................   326
Manpower.........................................................   313
Quality of Life..................................................   327
Quality of Service...............................................   317
Readying the Force...............................................   311
Recognizing the Necessity for Change.............................   296
Recruiting and Retention..................................326, 341, 344
Return on Investment.............................................   321
Sheltering the Force.............................................   310
Total Force......................................................   331
Toward an Expeditionary Future...................................   298
Training the Force...............................................   309
Your Marine Corps Reserve Today..................................   320

                 Under Secretary of Defense for Policy

Accounting Reform................................................    26
Achieving Sufficient Armor Protection............................    21
Active/Reserve Recruiting........................................     7
Additional Committee Questions...................................    24
Aircraft Program: C-130J/F-22....................................    22
Appropriateness of Using Supplementals...........................    16
Army Modularity..................................................     9
Base Realignment and Closure Commission Savings..................    20
Chemical Demilitarization........................................    11
Corrosion Funding................................................    25
Cost of Operations Enduring Freedom and Iraqi Freedom............    24
Department of Defense Healthcare Facilities......................    18
Developing and Fielding Joint Military Capabilities..............     5
Expanded Use of Information Technology to Reduce Healthcare Costs    19
Fiscal Year 2005 Supplemental Appropriations.....................     6
Gaining More Rapidly Deployable Units............................     9
HEALTHeFORCES....................................................    27
Helicopter Protection............................................    21
Joint Common Missile.............................................    25
Kwajalein Joint Control Center...................................    26
Military Space Programs..........................................    20
Missile Defense..............................................13, 17, 28
    Program......................................................    12
    Reductions...................................................    17
Monthly Spending in Iraq and Afghanistan.........................    14
Other Areas of Concern...........................................    23
Personnel Costs..................................................    15
Phasing in New Funding for Operations............................     8
Proposed Aircraft Procurement Reductions.........................    22
Reducing Stress on the Military..................................     7
Reduction in Force...............................................    28
Restructuring U.S. Forces and Global Defense Posture.............     4
Retention........................................................    24
Supporting the Global War on Terror..............................     4
Sustaining Missile Defense Testing and Quality Control...........    13
Taking Care of our Forces........................................     5
Vehicle Armor....................................................    21
What Operations Funding is Included in Supplemental..............    14
When Supplemental is Needed......................................     6

                                   - 

</pre></body></html>
